<html>
<title> - NOMINATION OF HONORABLE ASHTON B. CARTER TO BE SECRETARY OF DEFENSE</title>
<body><pre>[Senate Hearing 114-567]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 114-567

NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 
                             114TH CONGRESS

=======================================================================

                                HEARINGS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   on

                             NOMINATIONS OF

        HONORABLE ASHTON B. CARTER; MR. PETER K. LEVINE; GENERAL
JOSEPH F. DUNFORD, JR.; GENERAL PAUL J. SELVA; GENERAL DARREN W. McDEW; 
                   GENERAL MARK A. MILLEY; LIEUTENANT
GENERAL ROBERT B. NELLER; ADMIRAL JOHN M. RICHARDSON; MR. JOHN CONGER; 
              MR. STEPHEN P. WELBY; MS. ALISSA M. STARZAK;
 MR. FRANKLIN R. PARKER; HONORABLE MARCEL J. LETTRE II; MR. GABRIEL O. 
  CAMARILLO; MR. JOHN E. SPARKS; VICE ADMIRAL KURT W. TIDD; HONORABLE 
                   PATRICK J. MURPHY; DR. JANINE ANNE
                DAVIDSON; AND HONORABLE LISA S. DISBROW

                               __________

    FEBRUARY 4; APRIL 21; JULY 9, 14, 21, 23, 30; NOVEMBER 19; 
                   DECEMBER 9, 15, 2015

                               __________

         Printed for the use of the Committee on Armed Services
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


        Available via the World Wide Web: http://www.fdsys.gov/

                               __________
                               
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
24-274 PDF                  WASHINGTON : 2017                    

_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="791e0916391a0c0a0d111c1509571a161457">[email&#160;protected]</a>  

  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

 
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            february 4, 2015

Nomination of Honorable Ashton B. Carter to be Secretary of 
  Defense........................................................     1

Statements of:

Lieberman, Honorable Joseph I., former U.S. Senator from 
  Connecticut....................................................     7
Carter, Honorable Ashton B., to be Secretary of Defense..........     9

                             april 21, 2015

Nomination of Mr. Peter K. Levine to be Deputy Chief Management 
  Officer, Department of Defense.................................   159

Statements of:

Levine, Peter K., Deputy Chief Management Officer, Department of 
  Defense........................................................   162

                              july 9, 2015

Nomination of General Joseph F. Dunford, Jr., USMC, to be 
  Chairman of the Joint Chiefs of Staff..........................   259

Statements of:

Dunford, General Joseph F., JR., USMC, to be Chairman of the 
  Joint Chiefs of Staff..........................................   264

                             july 14, 2015

Nominations of General Paul J. Selva, USAF, to be Vice Chairman 
  of the Joint Chiefs of Staff; and General Darren W. McDew, 
  USAF, to be Commander, U.S. Transportation Command.............   373

Statements of:

Selva, General Paul J., USAF, to be Vice Chairman of the Joint 
  Chiefs of Staff................................................   378
McDew, General Darren W., USAF, Nominee to be Commander, U.S. 
  Transportation Command.........................................   379

                             july 21, 2015

Nomination of General Mark A. Milley, USA, to be Chief of Staff 
  of the Army....................................................   477

Statements of:

Milley, General Mark A., USA, to be Chief of Staff of the Army...   481

                                 (iii)
                             july 23, 2015

Nomination of Lieutenant General Robert B. Neller, USMC, to be 
  General and Commandant of the Marine Corps.....................   577

Statement of:

Neller, Lieutenant General Robert B., to be General and 
  Commandant of the Marine Corps.................................   580

                             july 30, 2015

Nomination of Admiral John M. Richardson, USN, to be Chief of 
  Naval Operations...............................................   663

Statements of:

Richardson, Admiral John M. USN, Nominee to be Chief of Naval 
  Operations.....................................................   666

                           november 19, 2015

Nominations of Mr. John Conger to be Principal Deputy Under 
  Secretary of Defense, Comptroller; Mr. Stephen P. Welby to be 
  Assistant Secretary of Defense for Research and Engineering; 
  Ms. Alissa M. Starzak to be General Counsel of the Department 
  of the Army; and Mr. Franklin R. Parker to be Assistant 
  Secretary of the Navy for Manpower and Reserve Affairs.........   735

Statements of:

Conger, Mr. John, to be Principal Deputy Under Secretary of 
  Defense, Comptroller...........................................   739
Welby, Mr. Stephen P., to be Assistant Secretary of Defense for 
  Research and Engineering.......................................   740
Starzak, Ms. Alissa M., to be General Counsel of the Department 
  of the Army....................................................   742
Parker, Mr. Franklin R., to be Assistant Secretary of the Navy 
  for Manpower and Reserve Affairs...............................   743

                            december 9, 2015

Nominations of Honorable Marcel J. Lettre II to be Under 
  Secretary of Defense for Intelligence; Mr. Gabriel O. Camarillo 
  to be Assistant Secretary of the Air Force for Manpower and 
  Reserve Affairs; Mr. John E. Sparks to be a Judge on the Court 
  of Appeals for the Armed Forces; and Vice Admiral Kurt W. Tidd, 
  USN to be Admiral and Commander, United States Southern Command   859

Statements of:

Lettre II, Honorable Marcel J., to be Under Secretary of Defense 
  for Intelligence...............................................   863
Camarillo, Mr. Gabriel O., to be Assistant Secretary of the Air 
  Force for Manpower and Reserve Affairs.........................   866
Sparks, Mr. John E., to be a Judge on the Court of Appeals for 
  the Armed Forces...............................................   867
Tidd, Vice Admiral Kurt W., USN, to be Admiral and Commander, 
  United States Southern Command.................................   868

                           december 15, 2015

Nominations of Honorable Patrick J. Murphy to be Under Secretary 
  of the Army; Dr. Janine Anne Davidson to be Under Secretary of 
  the Navy; and Honorable Lisa S. Disbrow to be Under Secretary 
  of the Air Force...............................................   959

Statements of:

Disbrow, Honorable Lisa S., Nominee, Under Secretary of the Air 
  Force..........................................................   962
Davidson, Dr. Janine Anne, Nominee, Under Secretary of the Navy..   963
Murphy, Honorable Patrick J., Nominee, Under Secretary of the 
  Army...........................................................   965

APPENDIX.........................................................  1105

 
  NOMINATION OF HONORABLE ASHTON B. CARTER TO BE SECRETARY OF DEFENSE

                              ----------                              


                      WEDNESDAY, FEBRUARY 4, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:28 a.m., in 
room SD-G50, Dirksen Senate Office Building, Senator John 
McCain (chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Sullivan, Lee, Graham, Cruz, Reed, Nelson, McCaskill, 
Manchin, Shaheen, Gillibrand, Blumenthal, Donnelly, Hirono, 
Kaine, King, and Heinrich.
    Also present: Senator Lieberman.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The committee meets this 
morning to consider the nomination of Dr. Ashton B. Carter to 
be the Secretary of Defense, and there are standard questions 
that by committee rule that I would put forth to Dr. Carter at 
this time.
    Dr. Carter, in order to exercise its legislative and 
oversight responsibilities, it is important that this committee 
and other appropriate committees of Congress are able to 
receive testimony, briefings, and other communication of 
information. Have you adhered to applicable laws and 
regulations governing conflicts of interest?
    Dr. Carter. I have.
    Chairman McCain. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Dr. Carter. No.
    Chairman McCain. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in hearings?
    Dr. Carter. I will.
    Chairman McCain. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Dr. Carter. Yes.
    Chairman McCain. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Dr. Carter. They will.
    Chairman McCain. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Dr. Carter. Yes.
    Chairman McCain. Do you agree to provide documents, 
including copies of electronic forms of communications, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good-
faith delay or denial in providing such documents?
    Dr. Carter. Yes.
    [Pause.]
    Chairman McCain. That concludes our routine questions that 
we ask of the nominees.
    Before the committee proceeds to the business before us 
today, on behalf of all members of the committee, we would like 
to extend our deepest condolences to the family of the brave 
Jordanian pilot brutally murdered at the hands of ISIL [the 
Islamic State of Iraq and the Levant]. Together with his 
family, the Jordanian armed forces, and the people of Jordan, 
we mourn the loss of a hero that has galvanized the Nation and 
the world.
    I hope this heinous crime finally leads us to put in place 
what thus far has been lacking, a comprehensive strategy to 
achieve the President's stated goal to degrade and destroy 
ISIL. Let there be no doubt, we still do not have a viable 
strategy to counter ISIL. If you are not winning in war, you 
are losing.
    America has no greater ally in the fight against terrorism 
than Jordan, and as we made clear to King Abdullah in our 
meeting yesterday. This committee's immediate concern is to 
ensure Jordan has all the equipment and resources necessary to 
continue taking the fight directly to ISIL. Many of us on this 
committee will be sending a letter to the administration on 
this urgent issue of concern, and we invite all of our fellow 
committee members to join us on that letter.
    I think there was a consensus on both sides yesterday after 
the meeting with King Abdullah that we would send a letter out 
this morning. That letter will be distributed to the members 
for your perusal and signature so we can get that letter out as 
soon as possible, and I thank all members of the committee for 
their cooperation.
    I would also like to add that if legislation is required in 
order to achieve the goals that King Abdullah articulated to us 
yesterday as absolutely necessary to defend his nation, we will 
be considering that legislation as well as soon as possible, 
and I thank all members.
    The Senate Armed Services Committee meets today to consider 
the nomination of Dr. Ashton B. Carter to be Secretary of 
Defense. At the outset, I would like to express my sincere 
gratitude to Chuck Hagel for his years of service as an 
infantry sergeant in Vietnam, as a United States Senator from 
Nebraska, and as our Nation's 24th Secretary of Defense.
    Chuck Hagel is a patriot and honorable public servant, and 
during his leadership of the Pentagon, the men and women of our 
armed services have had a true ally who always put their 
interests first. This committee wishes Chuck the best in his 
future endeavors.
    Dr. Carter, even in the best of times, the position for 
which you have been nominated is one of the most challenging in 
Government. I would like to thank your wife, Stephanie, and 
your children, Will and Ava, for being here today and for 
loaning you to our Nation in service once again.
    Dr. Carter is one of America's most respected and 
experienced defense professionals. He has served as assistant 
Secretary of Defense for Global Strategic Affairs; Under 
Secretary of Defense for Acquisition, Technology, and 
Logistics; and most recently as Deputy Secretary of Defense. In 
these positions, I have known him and members of the committee 
have known him to be an honest, hard-working, and committed 
public servant.
    I have had the opportunity to work together with Dr. Carter 
on several issues of shared concern, especially trying to 
reform the defense acquisition system, improving financial 
management of the Department of Defense [DOD], and rolling back 
sequestration. On these and other issues facing the Nation, we 
all look forward to having you as our partner once more, Dr. 
Carter.
    But I must candidly express concern about the task that 
awaits you if confirmed and the influence you would have on 
some of the most critical national security issues facing our 
Nation. Two of your predecessors, Secretary Robert Gates and 
Secretary Leon Panetta, have severely criticized White House 
micromanagement of the Defense Department and over-
centralization of foreign and defense policy.
    According to numerous news reports, Secretary Hagel 
experienced similar frustrations with the insular and 
indecisive White House national security team over issues 
ranging from ISIL to Ukraine, detention policy to 
sequestration. Dr. Carter, I sincerely hope the President who 
nominated you will empower you to lead and contribute to the 
fullest extent of your abilities because at a time of 
multiplying threats to our security, America needs a strong 
Secretary of Defense now more than ever.
    America is confronted today with a diverse and complex 
range of national security challenges. Iran is on the march. In 
Iraq, Syria, Yemen, and elsewhere across the Middle East, ISIL 
continues to expand its influence and control of territory, as 
the new Director of the Defense Intelligence Agency recently 
testified to Congress.
    A revisionist Russia and a rising China each, in their own 
ways, present challenges to the liberal international order as 
we have known it since the end of World War II, a system that 
cherishes the rule of law, maintains free markets and free 
trade, and relegates wars of aggression to their rightful place 
in the bloody past.
    Amid the present upheaval and conflict, American 
disengagement can only produce more turmoil and increase in the 
chance of large-scale American interventions at greater cost in 
blood and treasure. That is why we need a coherent national 
security strategy incorporating all elements of America's 
national power to sustain and defend the international order 
that has produced and extended security, prosperity, and 
liberty across the globe.
    But crafting a reality-based national security strategy is 
simply impossible under the mindless mechanism of 
sequestration. Despite the growing array of complex threats to 
our security, we are on track to cut $1 trillion out of 
America's defense budget by 2021. Readiness is falling across 
the Services, and morale is falling right along with it.
    Army and Marine Corps end strength is dropping dangerously 
low. The Air Force is the oldest and smallest it has ever seen. 
The Navy's fleet is shrinking to pre-World War I levels. Last 
week, each of our Service Chiefs testified before this 
committee that American lives are being put at risk due to 
sequestration.
    Sequestration represents a failure to meet our most basic 
constitutional responsibility to provide for the common 
defense. America's military can no longer be held hostage to 
domestic political disputes, totally separated from the reality 
of the threats we face.
    More than 3 years after the passage of the Budget Control 
Act, it is time to put an end to this senseless policy. Rolling 
back sequestration is necessary to provide our military the 
strategy-driven budget necessary to confront the threats we 
face. But it will never be enough without reforming how the 
Department procures major weapon systems.
    Many of our military's challenges today are the results of 
years of mistakes and wasted resources. For example, over here, 
the Army's Future Combat System was initially estimated to be a 
$92 billion project to modernize into a cohesive network new 
Army vehicles and radios. But it more than doubled its price to 
$200 billion without ever getting off the ground.
    Secretary Gates and Congress wisely canceled Future Combat 
Systems, but only after spending $20 billion with nothing to 
show for it.
    Between these four systems--Future Combat Systems, 
expeditionary fighting vehicle, Comanche helicopter, and the 
VH-71 presidential helicopter--we spent $40 billion with 
nothing to show for it. That is $40 billion of training and 
equipment our military doesn't have today to confront the 
threats we face.
    The problem continues today. The cost of the evolved 
expendable launch vehicle has exploded from around $100 million 
per launch to $400 million per launch over the last 15 years 
after the Air Force allowed years of sole-source contracts 
while, especially over the last few months, actively keeping 
out any other companies from competing. Hopefully, this year, 
we will see the Air Force certify a new entrant, and this 
competition can finally bring down costs and end our reliance 
on Russian rocket engines.
    Like many programs that preceded it, LCS [the littoral 
combat ship's] cost overruns followed predictably from a 
chronic lack of planning from its very outset in three key 
areas: undefined requirements, unrealistic initial cost 
estimates, and unreliable assessments of technological and 
integrated risk.
    The Gerald Ford-class nuclear aircraft carrier was 
originally supposed to cost $10.5 billion. It will now cost 
$12.9 billion, a $2.4 billion increase, and we have no 
assurance such increases will not plague the follow-on ships. 
This is unacceptable.
    The F-35 Joint Strike Fighter was originally estimated to 
cost around $220 billion to research and engineer and build 
2,800 airplanes. Now we are going to spend more than $330 
billion, a 50 percent increase, to buy 400 fewer airplanes.
    Even more astounding than the amount of money squandered 
and wasted is the fact that in each of the weapon systems cases 
I have mentioned, no individual has been held responsible for 
these massive cost overruns and egregious acquisition failures, 
and the result has been the slow degradation of America's 
defense technological advantage, which we will lose altogether 
if we persist with business as usual in our acquisition 
policies. This must change. It will be a priority for this 
committee and for me personally to change it.
    Dr. Carter, I look to you as a partner in all of these 
endeavors. If confirmed, I hope you will provide independent 
leadership and work closely with Congress on the issues that 
matter most: crafting a coherent national security strategy to 
meet today's threats, rolling back sequestration, continuing to 
reform the defense acquisition process, modernizing our 
military compensation system, and many others.
    I thank you deeply for your willingness to serve once 
again, and I look forward to your testimony today.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    Let me join you in extending our condolences to the family 
of the brave Jordanian pilot and to the people of Jordan.
    Let me welcome Dr. Carter and thank him for his willingness 
to once again serve the Nation.
    I also want to welcome Stephanie and Ava and Will and thank 
them for their sacrifice and service to the Nation.
    Let me also recognize my colleague and friend, Joe 
Lieberman. Thank you, Senator, for being here today.
    Dr. Carter is the former Deputy Secretary of Defense and 
Under Secretary for Acquisition, Technology, and Logistics. You 
are uniquely qualified to lead the Department of Defense at a 
time when, as Henry Kissinger said last week here, the United 
States has not faced a more diverse and complex array of crises 
since the end of the second world war.
    If confirmed as Secretary of Defense, you will be advising 
the President, leading the Defense Department, and working with 
our allies on a staggering number of complex international 
challenges to our National interests.
    Iran. While the Secretary of Defense is not a party to the 
negotiations relating to Iran's nuclear program, the Secretary 
will undoubtedly be responsible for any number of potential 
contingencies relating to the consequences of different 
outcomes of these negotiations. In the event of a breakdown in 
the negotiations, the consequences could alter the face of the 
region for generations and generations.
    ISIL. ISIL's depraved and violent campaign in Iraq and 
Syria to establish an extremist caliphate threatens to erase 
borders, destabilize the region, and create a breeding ground 
for foreign fighters willing to return to the West to carry out 
attacks against United States interests. The Department must 
provide critical leadership in a coalition effort that includes 
Arab and Muslim states to degrade and defeat ISIL while being 
careful to ensure that the United States does not end up owning 
the conflict in Syria and elsewhere.
    Afghanistan. The hard-won gains of the past decade are 
significant but remain fragile. With Afghan security, the 
Afghan forces are taking over responsibility for combating the 
Taliban and securing Afghanistan. However, United States 
forces, with our coalition partners, must transition to a more 
limited mission of training and assisting the Afghan forces and 
conducting counterterrorism operations. Yet it remains to be 
seen whether conditions on the ground in Afghanistan will 
improve sufficiently by the end of 2016 to warrant the pace of 
further reductions under the current plan.
    Ukraine. Russia's aggression against Ukraine challenges 
order and progress in Europe. In the past few days, separatists 
in Eastern Ukraine with substantial Russian equipment, 
training, and leadership have abandoned any pretext of a 
ceasefire and launched a broad offensive against Ukrainian 
forces. The United States must determine how to best support 
the Ukrainian forces and people in defending their country.
    Cyber. For years now, we have devoted significant attention 
to the looming and complex challenge of cyber warfare. The 
attack on the Sony Corporation of America, however, was in 
important respects a watershed event that should stimulate 
fresh critical thinking.
    This attack demonstrates that a relatively small and weak 
rogue nation can reach across the ocean to cause extensive 
destruction of a U.S.-based economic target and very nearly 
succeed in suppression of freedom of expression through 
cyberspace. The real and manifest advantages of the offense 
over the defense in cyber warfare that enabled a militarily 
inferior nation to strike successfully against the Homeland is 
a new and worrisome factor for national security.
    These issues are only a few of the external challenges 
facing the Defense Department, but there are also significant 
internal challenges that must be addressed.
    Sequestration. Last week before this committee, General 
Mattis said, ``No foe in the field can wreak such havoc on our 
security that mindless sequestration is achieving today.'' 
General Odierno informed this committee that only one third of 
Army brigades are ready to fight. General Welsh testified that 
less than 50 percent of our combat squadrons are fully combat 
ready.
    Sequestration threatens not only our national security, but 
risks damage to our public safety, health, transportation, 
education, and the environment. While the Department manages 
through these difficult fiscal realities, Congress must find a 
balanced and bipartisan solution and repeal sequestration.
    Rising costs. The chairman has alluded to this very 
succinctly and very directly. Even without sequestration, the 
Defense Department would have to tackle rising costs, including 
personnel costs, which consume a third of the Defense 
Department's budget.
    Yesterday, this committee heard the testimony of the 
Military Compensation and Retirement Committee. Their 
recommendations are far reaching and would fundamentally change 
military personnel benefits. But these recommendations must be 
carefully considered because changes must occur to ensure the 
Department can properly train and equip its fighting men and 
women.
    The other major cost driver in the Defense Department is 
acquisition, and while the Department has implemented 
significant acquisition reforms--many under your leadership--
defense acquisition still takes too long and costs too much. We 
can and we should do more to streamline and improve the system.
    Finally, but most importantly, if confirmed as Secretary of 
Defense, you will be leading 1.3 million Active Duty military, 
820,000 Reserve and Guard, and 773,000 civilians. They are 
tired and overtaxed from a decade of war and years of fiscal 
uncertainty.
    They are wrestling with the same issues as civilian 
society, issues like sexual assault and suicide. Yet they 
committed to protecting this Nation and remain the finest force 
in the world.
    Dr. Carter, I look forward to discussing these and other 
issues with you and thank you for your service.
    Chairman McCain. Thank you, Senator Reed.
    I note the presence of our beloved friend and former 
colleague, a member of this committee since the Coolidge 
administration, and we are very happy to have him here this 
morning, our beloved friend Joe Lieberman.
    Senator Lieberman?

STATEMENT OF HONORABLE JOSEPH I. LIEBERMAN, FORMER U.S. SENATOR 
                        FROM CONNECTICUT

    Senator Lieberman. Thanks, Mr. Chairman, and it was a great 
comfort to me when I arrived during the Coolidge administration 
to find that you had already been here several years.
    [Laughter.]
    Senator Lieberman. I must say I am delighted to be here, 
and it is really somewhat sentimental for me to be here. I 
appreciate very much the opportunity.
    It is a privilege for me to appear before the Senate Armed 
Services Committee today to introduce Dr. Ash Carter. This is 
not the first time I have had this privilege. In fact, it is 
the third time.
    The first was on March 26, 2009, when Ash was nominated to 
be Under Secretary of Defense for Acquisition, Technology, and 
Logistics. Second was on September 13, 2011, when he was 
nominated to be Deputy Secretary of Defense.
    Today, I suppose I could say I don't think I have ever been 
so pleased to be asked to repeat myself as I am honored to have 
been by Ash Carter to introduce him to you as President Obama's 
nominee to be the 25th Secretary of Defense of the United 
States of America.
    Ash Carter graduated from Yale College summa cum laude with 
a unique combination of majors, physics and medieval history. 
During his time as a Rhodes Scholar at Oxford, he temporarily 
resolved the question, which was on everyone's mind, I am sure, 
about whether he was primarily a historian or physicist. He 
earned a doctorate at Oxford in theoretical physics.
    Nevertheless, to confound observers and prognosticators, he 
went on to become the Chair of the International and Global 
Affairs faculty at Harvard at the John F. Kennedy School of 
Government and Co-Director of the Preventive Defense Project at 
the Kennedy School's Belfer Center.
    Mr. Chairman, Senator Reed, it would really be hard to find 
someone to serve as Secretary of Defense who combines as much 
practical Pentagon experience with so deep a background in 
national security policy as Ash Carter. The fact that you have 
convened this morning to consider his nomination means that the 
talents and abilities of a brilliant and extraordinary 
strategic thinker and public servant and administrator can 
again be put to use for our Nation.
    It also means, as you have said, that Ash Carter has again 
chosen, with the support of his wife and family, to answer the 
call to duty to serve our country. Over the past 30 years, Dr. 
Carter has worked directly or indirectly for virtually every 
Secretary of Defense, no matter the political party of the 
Secretary. He knows the department he has been asked to lead 
very well and, therefore, can begin leading it on day one.
    From 1993 to 1996, Ash served as the assistant Secretary of 
Defense for International Security Policy. During that time, he 
worked on the landmark Nunn-Lugar Arms Control Program, and I 
got to know him when we traveled together with Secretary of 
Defense Bill Perry and Senators Nunn and Lugar to the former 
Soviet Union to observe them destroying nuclear submarines and 
dismantling missiles and missile sites as part of Nunn-Lugar.
    I think we actually bonded personally at one dinner hosted 
by the high command of the Russian military in which I believe 
it is accurate to say that Ash and I were the only two members 
of the American delegation to keep up with the vodka toasts of 
friendship with our Russian colleagues.
    [Laughter.]
    Senator Lieberman. When I think back to those days and you 
think of what is happening in Russia today and what Russia is 
doing outside its borders, those memories are really quite 
poignant. Too much has changed for the worse.
    But in thinking about introducing Ash today, he has done so 
much. It is important to note that he spearheaded some 
developments during that period of time, particularly the 
removal of nuclear weapons from Ukraine, Kazakhstan, and 
Belarus, which, needless to say, have and continue to make our 
world a lot safer than it would otherwise be.
    Speaking of travel, Ash had the good judgment, Mr. 
Chairman, to come with us several times to the Munich Security 
Conference. I must say watching him there, I was impressed by 
the range and depth of his relationships with the top level of 
particularly military, but also foreign policy leaders of our 
European allies in NATO [the North Atlantic Treaty 
Organization].
    I would say, and I would guess that members of the 
committee would agree, that Ash Carter's most important 
contributions during his past Pentagon service have been in 
American lives saved on the battlefield. He was the driving 
force in providing 6,500 MRAP [mine-resistant ambush protected] 
vehicles to our troops in Afghanistan in record time, an action 
that saved many lives and gave our troops the confidence that 
there was someone in Washington who was working for them.
    Ash Carter's fierce dedication to our warfighters is well 
known and I think will be one of his greatest legacies. More 
broadly, the improvements he brought about in the Pentagon 
acquisitions process show his mastery of this complex and 
critical field and will make him an excellent partner for you, 
Mr. Chairman, in the continuing work that I know you, Senator 
Reed, and this committee want to do to improve defense 
procurement.
    Dr. Carter's service on boards and commissions includes the 
Defense Science Board, the Defense Policy Board, the Secretary 
of State's International Security Advisory Board, and the 
Congressional Commission on the Strategic Posture of the United 
States.
    Ash Carter has been accurately described as a man for all 
seasons, a man of enormous talents and experiences. It is also 
true that he has made choices in his life about how he has used 
his talents and experiences. He has chosen to go where his 
intellect, his values, and his patriotism have called him.
    We are fortunate, indeed, that President Obama has 
nominated Dr. Carter to be our next Secretary of Defense. If I 
may say so, the President is fortunate that he will have so 
experienced a leader at the Pentagon and so wise an adviser in 
the inner counsels of this administration. All of which 
explains why I am so truly honored to introduce Ashton Carter 
to this great committee at this time.
    Thank you.
    Chairman McCain. Thank you. Thank you very much, Senator 
Lieberman. We are always glad to have you here, and if you 
would like to take a seat on the dais, we welcome it.
    Dr. Carter, welcome.

    STATEMENT OF HONORABLE ASHTON B. CARTER, NOMINEE TO BE 
                      SECRETARY OF DEFENSE

    Dr. Carter. Thank you, Mr. Chairman, Ranking Member Reed, 
all the distinguished members of this committee. Thank you all. 
Thank you for inviting me to appear before you as President 
Obama's nominee to be Secretary of Defense.
    I am honored by his trust and confidence and also by the 
prospect of serving once again the troops and the country that 
I love so much.
    If confirmed, I will take the office of Secretary of 
Defense after one of our Nation's most honorable and 
conscientious public servants, Chuck Hagel. I worked for 
Secretary Hagel, and I have known him for decades, though not 
over all of the many decades he served our country.
    Among the many traits I admire in Secretary Hagel is the 
tireless care with which he carried out the most solemn duty of 
a Secretary of Defense, which is to the relatively few brave 
young men and women who defend the rest of us.
    I also thank Senator Lieberman for his warm and generous 
introduction--as he noted, it is not the first time he has done 
so--but especially for his service to this body and to the 
Nation over many years. Thank you, sir.
    My perfect wife, Stephanie, and wonderful children, Will 
and Ava, are behind me, as they always are every day, and I 
thank them.
    The President frequently notes that America has the 
greatest fighting force the world has ever known. To the men 
and women of the Department of Defense who make it so and to 
this committee, which watches over them, I pledge that if I am 
confirmed as Secretary of Defense to keep faith with the 
dedication that brought them into service, to ensure that their 
training and equipment are as superb as they are; that the 
well-being, safety, and dignity of each of them and their 
families is fostered and respected; and that decisions about 
when and where they are sent into harm's way are made with the 
greatest reflection and care.
    The principal reason that Stephanie and I made a U-turn in 
our life to accept the offer of nomination is our respect and 
devotion to them.
    To the chairman, members of the committee, I will be brief, 
if confirmed as Secretary of Defense, my responsibilities would 
be to protect America and its friends and allies in a turbulent 
and dangerous world. At the same time, I never lose sight of 
the fact the United States remains the strongest, most 
resilient, and most influential nation on earth.
    We do, indeed, have the finest fighting force the world has 
ever known. We have an innovative economy that has long set the 
pace for the rest of the world. Our country has friends and 
allies in every corner of the world, and our adversaries have 
few. This is clear testimony to the appeal of our values, our 
principles, and our leadership.
    All this makes me proud and hopeful and determined to grab 
hold of the bright opportunities in front of us, as well as to 
counter the very real dangers we face. These dangers, as the 
chairman has noted, include continuing turmoil in the Middle 
East and North Africa and the malignant and savage terrorism 
emanating from it; an ongoing war in Afghanistan; the reversion 
to old-style security thinking in parts of Europe; the 
longstanding tensions from the past and the rapid changes in 
Asia, and the continuing need for the stabilizing role of the 
United States in that region, which is so important to the 
future; the continuing imperative to counter the spread or use 
of weapons of mass destruction; and new dangers in new domains 
like cyber, as noted by Senator Reed.
    Strategy. Strategy needs to keep all these problems in 
perspective and to craft lasting approaches to each of them.
    I have promised President Obama that if I am confirmed I 
will furnish him my most candid strategic advice. In 
formulating that advice, I intend to confer widely among 
civilian and military leaders, including on this committee, 
experts, and foreign partners. When the President makes a 
decision, I will also ensure that the Department of Defense 
implements it with its long-admired excellence.
    I will also ensure that the President receives candid 
professional military advice. This is not only consonant with 
the law, as written in this very committee, but with good 
sense, since our military leaders possess wide and deep 
experience and expertise.
    The law also prescribes the chain of command, and if I am 
confirmed as Secretary of Defense, I will be a stickler for the 
chain of command.
    I would also like to say a word about the defense budget. 
Mr. Chairman, members of the committee, I very much hope that 
we can find a way together out of the wilderness of sequester. 
Sequester is risky to our defense. It introduces turbulence and 
uncertainty that are wasteful, and it conveys a misleadingly 
diminished picture of our power in the eyes of friends and foes 
alike.
    I am not familiar with the details of the 2016 budget 
submitted just a couple days ago, and if confirmed, I will come 
back here for a full posture hearing to discuss them. But I 
strongly support the President's request for relief from 
sequester caps in 2016 and through the Future Year Defense 
Plan.
    If confirmed, I will do my part to assist the President in 
working with Congress to resolve the overall issues of the 
country's fiscal future, of which the defense budget is a part. 
But I cannot suggest support and stability for the defense 
budget without at the same time frankly noting that not every 
defense dollar is spent as well as it should be.
    The taxpayer cannot comprehend it, let alone support the 
defense budget, when they read, as the chairman has noted, of 
cost overruns, lack of accounting and accountability, needless 
overhead, and the like. This must stop.
    Every company, State, and city in the country has had to 
lean itself out in recent years, and it should be no different 
for the Pentagon. In this matter I know I am echoing Chairman 
McCain, Senator Reed, and this committee, which has long called 
for and taken concrete action on reform of acquisition and 
other parts of the defense enterprise in the Weapon System 
Acquisition Reform Act of 2009 and, before that, dating back to 
the Packard Commission and the Goldwater-Nichols Act.
    I began my own career in defense in connection with the 
implementation of the Packard Commission's recommendations. The 
issues and solutions change over time, as technology and 
industry change. They extend from acquisition, which was 
highlighted by the chairman, in programs like Future Combat 
Systems and the presidential helicopter, which I canceled--I 
signed the cancellation orders for in 2009--to the Ford 
aircraft carrier, which Senator McCain also noted, which was 
not satisfactorily solved and still not, its overruns. I agree 
with the chairman in that regard. We have a lot of work to do.
    The issues and solutions for acquisition reform change over 
time, as technology and industry change, as I noted. They 
extend from acquisition--and this is important--to all other 
parts of the defense budget--force size, compensation, and 
training, as well as equipment.
    If confirmed as Secretary of Defense, I pledge to make 
needed change in the Pentagon, but also to seek support from 
Congress because I know that in the end, Congress holds the 
power of the purse. I look forward to partnership with this 
committee in what can be a period of historic advance.
    Mr. Chairman, Senator Reed, members of the committee, thank 
you. Thank you for giving me the opportunity to come before 
you. If confirmed, I will seek out your thoughts, perspectives, 
and combat experiences to help me do the best job.
    Thank you.
    [The prepared statement of Dr. Carter follows:]

            Prepared Statement by Honorable Ashton B. Carter
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the committee, thank you for inviting me to appear before you as 
President Obama's nominee to be Secretary of Defense. I am honored by 
his trust and confidence, and also by the prospect of serving once 
again the troops and the country that I love so much.
    If confirmed, I will take the office of Secretary of Defense after 
one of our Nation's most honorable and conscientious public servants, 
Chuck Hagel. I worked for Secretary Hagel and have known him for 
decades, though not over all of the many decades he has served our 
country. Among the many traits I admire in Secretary Hagel is the 
tireless care with which he carried out the most solemn duty of a 
Secretary of Defense, which is to the relatively few brave young men 
and women who defend the rest of us.
    I also thank Senator Lieberman for his warm and generous 
introduction--this is not the first time he has done so--and also for 
his service to this body and to the Nation.
    My perfect wife Stephanie and wonderful children Will and Ava are 
behind me, as they always are, every day. I thank them.
    The President frequently notes that America has the greatest 
fighting force the world has ever known. To the men and women of the 
Department of Defense who make it so, and to this committee which also 
watches over them: I pledge if I am confirmed as Secretary of Defense 
to keep faith with the dedication that brought them into service, to 
ensure that their training and equipment are as superb as they are, 
that the well-being, safety, and dignity of each of them and their 
families is fostered and respected, and that decisions about when and 
where they are sent into harm's way are made with the greatest 
reflection and care. The principal reason that Stephanie and I made a 
U-turn in our life to accept the offer of nomination is our respect and 
devotion to them.
    Mr. Chairman and members of the committee, I will be brief.
    If confirmed as Secretary of Defense, my responsibilities would be 
to protect America and its friends and allies in a turbulent and 
dangerous world. At the same time, I never lose sight of the fact that 
the United States remains the strongest, most resilient, and most 
influential Nation on the face of the earth. We do indeed have the 
finest fighting force the world has ever known. We have an innovative 
economy that has long set the pace for the rest of the world. Our 
country has friends and allies in every corner of the world, and our 
adversaries have few: this is clear testimony to the appeal of our 
values, our principles, and our leadership. All this makes me proud and 
hopeful, and determined to grab hold of the bright opportunities in 
front of us as well as to counter the very real dangers we face.
    These dangers include continuing turmoil in the Middle East and 
North Africa, and terrorism emanating from it; an ongoing war in 
Afghanistan; the reversion to old-style security thinking in parts of 
Europe; the longstanding tensions from the past and the rapid changes 
in Asia, and the continuing need for the stabilizing role of the United 
States in a region so important to the future; the continuing 
imperative to counter the spread or use of weapons of mass destruction; 
and new dangers in new domains like cyber. Strategy needs to keep all 
these problems in perspective and to craft lasting approaches to each 
of them. I have promised President Obama that if I am confirmed, I will 
furnish him my most candid strategic advice. In formulating that 
advice, I intend to confer widely among civilian and military leaders, 
experts and foreign partners. When the President makes a decision, I 
will also ensure that the Department of Defense implements it with its 
long-admired excellence. I will also ensure that the President receives 
candid professional military advice. This is not only consonant with 
the law as written in this very committee, but with good sense, since 
our military leaders possess wide and deep experience and expertise. 
The law also prescribes the chain of command, and if I am confirmed as 
Secretary of Defense I will be a stickler for the chain of command.
    I'd also like to say a word about the defense budget. Mr. Chairman 
and members of the committee: I very much hope that we can find a way 
together out of the wilderness of sequester. Sequester is risky to our 
defense, it introduces turbulence and uncertainty that are wasteful, 
and it conveys a misleadingly diminished picture of our power in the 
eyes of friends and foes alike. I am not familiar with the details of 
the fiscal year 2016 budget submitted a few days ago, and if confirmed 
I will come back here for a full posture hearing to discuss them. But I 
strongly support the President's request for relief from the sequester 
caps in fiscal year 2016 and through the future year defense plan. If 
confirmed, I will do my part to assist the President in working with 
Congress to resolve the overall issues of the country's fiscal future 
of which the defense budget is a part.
    But I cannot suggest support and stability for the defense budget 
without at the same time frankly noting that not every defense dollar 
is spent as well as it should be. The taxpayer cannot comprehend, let 
alone support the defense budget, when they read of cost overruns, lack 
of accounting and accountability, needless overhead, and the like. This 
must stop. Every company, State, and city in the country has had to 
lean itself out in recent years, and it should be no different for the 
Pentagon. In this matter I am echoing Chairman McCain, Senator Reed, 
and this committee which has long called for, and taken concrete action 
on, reform of acquisition and other parts of the defense enterprise, in 
the Weapons Systems Acquisition Reform Act of 2009 and before that, 
dating back to the Packard Commission and Goldwater-Nichols. I began my 
own career in defense in connection with the implementation of the 
Packard Commission's recommendations. The issues and solutions change 
over time, as technology and industry change. They extend from 
acquisition to all the other parts of the defense budget--force size, 
compensation, and training as well as equipment. If confirmed as 
Secretary of Defense, I pledge to make needed change in the Pentagon, 
but also to seek support from Congress, because in the end I know that 
Congress holds the power of the purse. I look forward to partnership 
with this committee in what can be a period of historic advance.
    Mr. Chairman, Senator Reed, and members of the committee, thank you 
for giving me the opportunity to come before you. If confirmed, I will 
seek out your thoughts, perspectives, and combat experiences to help me 
do the best job.

    Chairman McCain. Thank you very much, Dr. Carter.
    We will have multiple rounds, but we will have short ones, 
5 minutes, because that will give more opportunity for members 
to ask questions.
    In about an hour, Dr. Carter needs a short break. As we all 
know, he is recovering from recent surgery. So we will take a 
break then for as long as you need, and we will go into this 
afternoon so that all members are able to ask sufficiently the 
questions that they have.
    To start with, Dr. Carter, members of this committee met 
with King Abdullah yesterday. He made a graphic statement about 
needing some weapons and the difficulties he is having with 
those, and we will be signing a letter this morning. As I said, 
it may require some legislation.
    But are you aware of the problems that Jordanians are 
having with acquiring some of the weapons that they need?
    Dr. Carter. I am not, Mr. Chairman. I learned of them this 
morning as well. If I am confirmed, I definitely want to find 
out what they are and resolve them because we need partners on 
the ground to beat ISIL, and the Jordanian people have clearly 
reacted the way that encourages us to support them in combating 
what is really a savage and nasty enemy.
    Chairman McCain. Thank you.
    Last week, General Mattis was before this committee. He 
said in Afghanistan, we need to consider if we are asking the 
same outcome there as we saw last summer in Iraq, should we 
pull out all our troops on the administration's proposed 
timeline, and the gains achieved at great cost against our 
enemy in Afghanistan are reversible.
    General Keane said all we accomplished in Afghanistan will 
be at risk as it was in Iraq if the troops are pulled out not 
based on the conditions on the ground. How can we not learn the 
obvious and painful lessons from Iraq?
    Do you have a position on the withdrawal from Iraq? Do you 
believe that it should be calendar based as it is now, or 
should we be looking at the conditions on the ground to base 
those decisions?
    Dr. Carter. Mr. Chairman, thank you and also thank you for 
your consideration about the back. I appreciate that.
    The campaign in Afghanistan has been close to my heart for 
all the time that I have been associated with the Department of 
Defense. I have been there a number of times. I think that 
success is possible there but, as you indicate, requires the 
United States to continue its campaign and finish the job.
    I understand we have a plan. The President has a plan. I 
support that plan. At the same time, it is a plan. If I am 
confirmed and I ascertain, as the years ago by, that we need to 
change that plan, I will recommend those changes to the 
President.
    Chairman McCain. All I can say is it is not a matter of 
years. It is a matter of weeks, actually, because one of the 
major withdrawals is going to start this coming June. I hope 
that you will assess that as quickly and as carefully as 
possible.
    In his testimony to the committee this week, Dr. Kissinger 
said, ``In the Middle East, a multiple of evils are unfolding 
simultaneously. Iran has exploited this turmoil to pursue 
positions of power within other countries.'' Do you agree with 
that?
    Dr. Carter. Yes, I do.
    Chairman McCain. Do you believe that we need to have a 
strategy to combat ISIL and the continued successes in many 
respects that they are achieving?
    Dr. Carter. Absolutely.
    Chairman McCain. Do you believe we have a strategy at this 
time?
    Dr. Carter. I believe I understand our strategy at this 
time, Mr. Chairman. I also have the intention, again if 
confirmed, to make it my first priority to go there, to talk to 
our leaders, military leaders there, to confer with you--
    Chairman McCain. What do you understand the strategy to be?
    Dr. Carter.--and to--I think the strategy connects ends and 
means, and our ends with respect to ISIL needs to be its 
lasting defeat. I say ``lasting'' because it is important that 
when they get defeated, they stay defeated. That is why it is 
important that we have those on the ground there who will 
ensure that they stay defeated once defeated.
    It is different on the two sides of the border. It is one 
enemy, but it is two different contexts. Mr. Chairman, in Iraq, 
the force that will keep them defeated is the Iraqi security 
forces. That is our strategy is to strengthen them and to make 
them that force.
    On the Syrian side, not to take too long about it, we are 
trying to build the force that will keep them defeated, and 
that is going to be a combination of moderate Syrian forces and 
regional forces.
    Chairman McCain. It doesn't sound like a strategy to me, 
but maybe we can flesh out your goals. It sounds like a series 
of goals to me. Do you believe we should be supplying arms, 
defensive arms to Ukrainians?
    Dr. Carter. I very much incline in that direction, Mr. 
Chairman, because I think we need to support the Ukrainians in 
defending themselves. The nature of those arms I can't say 
right now because I haven't conferred with our military leaders 
or Ukrainian leaders. But I incline in the direction of 
providing them with arms, including, to get to what I am sure 
your question is, lethal arms.
    Chairman McCain. Thank you very much, Dr. Carter.
    Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman.
    One way to evolve a strategy is to first look at the 
threat. The Middle East, do you believe the most immediate 
threat there to United States interests and to the region is 
ISIL?
    Dr. Carter. I hesitate to say ISIL only because in the back 
of my mind is Iran as well. I think that we have two immediate 
substantial dangers in the Middle East. One is ISIL, and one is 
Iran.
    Senator Reed. In terms of our current military operations, 
they are clearly directed at ISIL.
    Dr. Carter. That is true.
    Senator Reed. Is that the appropriate response at this 
moment to the threats in the region?
    Dr. Carter. It is.
    Senator Reed. As you point out, there are two theaters. One 
is Iraq, where we have more traction, and the other is Syria. 
You would think in terms of responding to the threat that our 
actions or our vigorous support of the current Iraqi Government 
is appropriate in responding to this ISIL threat?
    Dr. Carter. It is appropriate. As I said, whether and how 
to improve it will be my first job if I am confirmed as 
Secretary of Defense.
    Senator Reed. One of the issues, particularly with respect 
to Iraq, is that not only improvement, as you suggest in your 
comments, the long-term defeat of ISIL rests not just on 
military operations, but on political arrangements and what we 
have witnessed in Iraq particularly was a political arrangement 
that conscientiously and deliberately degraded the Sunni 
population, at least that is their perception, and gave rise.
    Would you acknowledge that part of our strategy has to be 
constituting an Iraqi Government that is perceived by its own 
people as being a bit fairer and inclusive?
    Dr. Carter. Absolutely. That is what the previous 
Government of Iraq did not do, and that was instrumental in 
their military collapse.
    Senator Reed. One of the issues that complicates--and you 
pointed out in terms of around being a strategic issue for the 
United States in the region is their relative influence in Iraq 
and throughout the region was enhanced over the last several 
years by the government in Iraq, by the Maliki Government. Is 
that accurate?
    Dr. Carter. That is accurate, yes.
    Senator Reed. We are now in a position of trying to 
essentially contain the regional ambitions of the Iranians and 
kinetically defeat the Sunni radical Islamists. Is that the 
strategy?
    Dr. Carter. Yes, that sounds right.
    Senator Reed. You understand that, and that, to you, is a 
coherent strategy?
    Dr. Carter. It is, yes.
    Senator Reed. Now that means that you are prioritizing or 
the Administration is prioritizing these actions you have 
talked about and building over time a capability in Syria. In 
terms of using your scarce resources in addressing the most 
serious threats, is that a coherent response in your mind?
    Dr. Carter. I think it is the beginning of a strategic 
response. I think that, as I noted, on the Syrian side of the 
border, the assembling of the force that is going to keep ISIL 
defeated there, we are in an early stage of trying to build 
that force. We are participating in the building of that force, 
but I think it is fair to say that we are in an earlier stage 
there.
    On the Iraqi side, we have the existing Iraqi security 
forces.
    Senator Reed. Let me--
    Dr. Carter. Senator Reed?
    Senator Reed. Please.
    Dr. Carter. If I can just note one other thing? It may be 
something I missed in your line of questioning.
    There is an issue looming over this, which is the role of 
Iran, in the whole region, which is why I pointed that out at 
the beginning. That is a serious complication.
    Senator Reed. I agree. Let me turn to the issue of Ukraine, 
which the chairman raised the issue of providing weapon systems 
to defend or allow the Ukrainians to defend themselves. But 
weapon systems have to be clearly differentiated from a 
commitment of American military personnel. Would that be a 
clear line of demarcation that you would draw?
    Dr. Carter. Excuse me. I was suggesting the provision of 
equipment to the Ukrainian military, yes.
    Senator Reed. Thank you very much, Dr. Carter, for your 
service.
    Mr. Chairman, thank you.
    Chairman McCain. Senator Wicker?
    Senator Wicker. Thank you very much.
    Thank you for your testimony, Dr. Carter. I look forward to 
supporting your confirmation and look forward to working with 
you.
    At a point some 2 or 3 years ago, the Pentagon, along with 
the Administration, made a decision to rebalance to the Asia 
Pacific. I want to ask you about that.
    Would you agree that our challenges with regard to an 
expansionist Russian agenda, the situation in Eastern Europe, 
and other areas near the former Soviet Union have become more 
challenging, and that also our challenges in the Middle East 
are more problematic now than when the decision was made to 
pivot to the Asia Pacific?
    Dr. Carter. You are absolutely right. The issues in the 
Middle East and in Ukraine have developed since we first 
formulated that rebalance. That is true.
    Senator Wicker. Tell me this, how do you understand, as a 
prospective Secretary of Defense, the rebalancing to the Asia 
Pacific will actually work? Can we afford to move resources 
from Europe and the Middle East to the Asia Pacific, given the 
circumstances that we see today in 2015?
    Dr. Carter. Thank you. Thank you for that question.
    The rebalance to the Asia-Pacific region, as the term goes, 
is in my eyes a commitment to continue the pivotal American 
military role in the Asia-Pacific theater, which has kept peace 
and stability there for decades now.
    It has been that American underwritten peace and stability 
in a region where there are still many historical animosities 
and unhealed wounds of the past, it is that stability 
underwritten by the United States that has allowed the Japanese 
miracle, then the South Korean miracle, then the Southeast 
Asian miracle, and today the Chinese and Indian miracle. It is 
thanks to us that that environment has been created.
    In a sentence, I think the rebalance is a commitment to 
keep that going. Now you ask can we do that and keep our 
commitments in the Middle East and to Europe at the same time? 
My view is that we can and must. Let me say why that is 
possible.
    I think that while ISIL and events in Ukraine are terribly 
important in their own regard and require a lot of attention 
and take a lot of attention. They are on the television. They 
are in the headlines and so forth. The Asia Pacific is not.
    We have to remember that half the population of the world 
and half of its economy is in that region, and our military 
presence there, the naval presence, the air presence, our 
allies and partnerships finding new allies, building new 
partnerships, conducting exercises, those things can be done at 
the same time that we are doing what we need to do in Ukraine 
and that we are doing what we need to do in Iraq and Syria. I 
think the world needs to know the United States can do more 
than one thing at once and we can keep our commitments there.
    Senator Wicker. Is it going to be necessary to move 
resources from the Middle East and from concern over Europe and 
Russia to the Asia Pacific, to move resources? Sounds like you 
are proposing a continuation of longstanding, ongoing policy.
    Dr. Carter. It is a longstanding, ongoing policy. But to 
keep the American military predominance in the Asia Pacific 
requires us continually to modernize and add to what we have 
there. We are adding ships. We are adding electronic warfare. 
That is, we are improving our forces qualitatively. We are 
investing in them.
    A new bomber, which is, importantly, intended for that 
theater, which I think is very important. We are buying new 
capabilities that won't necessarily have a role in the Middle 
East or in NATO but are principally designed for that theater, 
and I think we need to keep those investments going.
    Senator Wicker. You don't advocate a diminishment of the 
resources we are spending with regard to the Middle East or 
Russia and Europe at this point, do you?
    Dr. Carter. No. I think we need to keep our investments 
going. When it comes to day-to-day deployments--I don't want to 
get into too much detail here, but I am sure you know this. 
When it comes to day-to-day deployments and the location of 
ships and so forth, we do move back and forth between the Gulf 
and the Pacific, and so there is some tradeoff there on a day-
to-day basis.
    But in terms of our fundamental investments in new 
capabilities and remaining ahead of any other military 
opponent, including in Asia, and in building and strengthening 
our alliances with Japan, with South Korea, with the 
Philippines, with Australia, with Thailand, and new 
partnerships with other countries like India, we need to keep 
all that going. It is an important part of the world.
    Senator Wicker. Thank you, sir.
    Chairman McCain. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    Thank you and your family.
    I also want to thank Secretary Hagel for his service as 
Secretary of Defense and to our Nation. He took the point in 
Vietnam. He took the point for our Defense Department, and we 
are grateful for what he has done.
    I was privileged to travel with some other senators 
recently to the Middle East, and we talked to a number of the 
Nations there. I just want to make sure that in your mind, do 
you believe when we look at ISIL our goal should be to 
eliminate them on a permanent basis?
    Dr. Carter. Yes, I do.
    Senator Donnelly. One of my concerns is time. What I mean 
by that is when you look at the map of where they were a year 
ago, where they are now, they have substantially grown.
    We have windows that we are working in. When we look at our 
plan, I am concerned about how when you look at the depth and 
the size of our plan that what it really does, they have 
30,000. We are talking hundreds. It gives them time to grow 
even more, and you worry about a tipping point where X crosses 
Y, and they become much more difficult.
    What kind of time plan are you looking at to get movement 
on this?
    Dr. Carter. I think it is important to strike back at ISIL 
as we are doing from the air, but to begin to retake territory 
as soon as we can build the forces on the ground, which will be 
local forces that are capable of sustaining defeat when we have 
achieved defeat in a given location.
    I hope that in coming months, and again, I am not in a 
position to have any special information about this or talk to 
our commanders or so forth. But it is my understanding that in 
coming months, the Iraqi security forces, assisted by us, will 
begin to take back territory from ISIL.
    I think you are right that it is important to get that 
territory back soon because you don't want them to settle in, 
and you don't want the population to settle in to having ISIL 
to rule them in their barbaric way.
    Senator Donnelly. When we talked to the king yesterday and 
to others in the region, what they said is we are not asking 
you to fight our battle, but we need you as a partner, shoulder 
to shoulder, to help us train, to help us plan, to help us 
implement. Is that what you see our ground role as?
    Dr. Carter. Yes, I think exactly right. You are referring 
to the assistance we provide to the Jordanians, if I understand 
the question? Absolutely.
    Senator Donnelly. Right. And to the other nations that are 
looking at the same thing.
    Dr. Carter. That is right.
    Senator Donnelly. Switching themes a little bit, one of the 
things we had testimony on yesterday was in regards to DOD and 
the VA [Department of Veterans Affairs] with drug formularies. 
We lost 479 young men and women to suicide in 2013 who were in 
the military. We lost 132 in combat. We don't want to lose any 
more.
    Part of what General Chiarelli was telling us is that with 
the drug formularies, it causes dramatic change for those who 
are coming off and going into the VA. All of a sudden, they 
look up, they are being forced on different drugs and stuff. As 
Secretary of Defense, are there things you can do to help us 
with that?
    Dr. Carter. I think there definitely are and must be. I 
think the relationship between the Department of Defense and 
the Department of Veterans Affairs has to be a relationship 
like this because it is one soldier. They cross the boundary 
from one to the other when they move and become a veteran, but 
it is one soldier.
    I am familiar, or that is I remember from years back when I 
was in the Department, of this question of the different 
formularies. DOD calls a drug one thing, and VA calls it 
another thing, and they have one set of dosages, and the other 
a different set.
    We have to get these together. It is one patient. It is one 
soldier.
    Senator Donnelly. They get lost in the shuffle.
    Dr. Carter. Exactly.
    Senator Donnelly. It is at a most critical time to them 
personally, and so your absolute commitment to that, and I know 
it is, is going to be critical.
    I wanted to ask you one other thing, as I am starting to 
get a little short on time. That is your expertise in the 
nuclear area, and I was wondering if you are familiar with a 
report issued by Madelyn Creedon [Assistant Secretary of 
Defense for Global Security Affairs] and Rear Admiral Peter J. 
Fanta [Joint Chiefs of Staff]? They did a Department-wide 
nuclear enterprise review. It is classified, but it is very 
sobering.
    I just want to make sure that--I didn't know if you had 
seen it yet. If you have, will you take ownership of the issue 
and ensure its findings are addressed?
    Dr. Carter. Thank you, Senator.
    I have not had access to that particular report. But with 
respect to the nuclear enterprise, I have a long history in 
that regard and am a strong believer in a safe, secure, and 
reliable nuclear arsenal for the United States. That 
encompasses both the nuclear weapons themselves and the 
delivery systems of the Department of Defense and the command 
and control systems for it.
    I can well understand if they are calling attention to the 
enduring need to make that a priority. That is another thing 
that is not in the newspapers every day. Thank God, nuclear 
weapons being used aren't in the newspapers every day. But it 
is a bedrock of our security, and we can never forget that.
    Continuing quality and excellence in the nuclear enterprise 
is very important. I am committed to that.
    Senator Donnelly. Thank you.
    Chairman McCain. Senator Ayotte?
    Senator Ayotte. I want to thank the chairman.
    I want to thank you, Dr. Carter, for all your service to 
the Nation and your willingness to serve again.
    I would like to ask you about according to the Director of 
National Intelligence [DNI], we know that at least 107 
terrorists who were formerly detained at Guantanamo and then 
released have been confirmed of reengaging in terrorism. In 
fact, an additional 77 are also suspected of that. In fact, we 
know that public reports tell us that at least two Guantanamo 
detainees have also joined ISIL.
    What I would like to ask you, number one, there were 
reports that Secretary Hagel said that he was under pressure to 
increase the pace of transfers of Guantanamo detainees by the 
Administration. As you know, the statute says that you, as the 
incoming Secretary of Defense, will have to make the 
determination, and there is a whole set of factors. In 
particular, you have to determine that actions that have been 
or are planned to be taken will substantially mitigate the risk 
of such an individual engaging or reengaging in any terrorist 
or other hostile activity that threatens the United States or 
United States persons or our interests or I would assume our 
allies as well.
    I would ask you, Secretary Carter--soon to be Secretary 
Carter, thank you. But I would ask you to tell us and to make a 
commitment to this committee that you will not succumb to any 
pressure by this administration to increase the pace of 
transfers from Guantanamo. Will you commit to that?
    Dr. Carter. Absolutely, Senator.
    Senator Ayotte. I would also ask you to commit to this 
committee that you will take with the utmost seriousness 
because we had General Mattis before the committee the other 
day, and he expressed deep concern over the notion that one of 
our men and women in uniform could confront a terrorist that we 
had previously captured and the implications to them, that you 
will commit to this committee and to all of us that you will 
not allow the release of someone that you think could reengage 
in terrorism so that our men and women in uniform will be 
confronted with them again.
    Dr. Carter. I do, Senator. I understand my responsibilities 
under that statute, and as in everything else I do, I will play 
it absolutely straight.
    Senator Ayotte. We appreciate that. That is very important 
because we have seen an accelerated release of detainees. As 
you know, there have been public reports about one of the 
Taliban Five reengaging in terrorist activity. This is 
something that I think is of utmost importance.
    The last thing that one of our men and women in uniform 
should confront is a terrorist that we had previously captured, 
and I know you agree with me on that.
    Dr. Carter. Yes.
    Senator Ayotte. I wanted to follow up on the aid to 
Ukraine, and I really appreciate the comments that you made 
that you are inclined to support lethal aid to Ukraine. When we 
met in my office, you had told me that you were actually there 
and involved in the signing of the Budapest memorandum in 1994. 
Is that right?
    Dr. Carter. That is right.
    Senator Ayotte. As you look at what is happening in Ukraine 
and having been there for the signing of that memorandum, what 
are the implications given that the Ukrainians gave up their 
nuclear weapons in return for the assurances not only from the 
United States of America, but Russia, who has clearly violated 
blatantly the Budapest memorandum, if we don't support Ukraine, 
given that we do not want more nuclear proliferation around the 
world? I would assume that it would send the wrong message if 
you give up your nuclear weapons and we don't provide you at 
least defensive weapons, why would any country give up their 
nuclear weapons again?
    Could you tell me what you think about the violation of 
that memorandum and the significance of it?
    Dr. Carter. Thank you, Senator.
    It is a clear violation. I was there. I remember when that 
agreement was signed in Budapest in 1994. As I think Senator 
Lieberman said, I ran the Nunn-Lugar program during that 
period, and I was in Ukraine the day the last nuclear weapon 
rode across the border from Ukraine into Russia.
    That agreement provided for Russia to respect the 
territorial integrity of Ukraine, which it has obviously not 
done, and that was part of the climate and context in which the 
Ukrainians agreed to give up nuclear weapons in the first 
place. By the way, the United States took on a commitment in 
the very same agreement to respect, but also assure, as the 
phrase goes, the ability of Ukraine to find its own way as an 
independent country.
    That is at stake today, and that is why I think I think 
that we need to provide support to the Ukrainian government as 
they try to maintain a position--find their own way in Europe.
    Senator Ayotte. Thank you. My time is up, but I also think 
it is very important that we also buttress our NATO support for 
the Baltics as well in all of this.
    Thank you.
    Chairman McCain. Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    Welcome, Dr. Carter.
    As we met prior to this testimony, we covered a few issues, 
and I am going to submit questions for the record since we 
won't be able to cover all of them. They include military 
sexual assault, issues concerning combat integration, military 
compensation, cyber, Iran, and Syria. I will send those so you 
can answer them in due course.
    Specifically, let us focus a little bit on the military 
sexual assault issue, which you know I am very passionate about 
trying to solve this scourge. One of the concerns I have is 
that last year we had 20,000 cases of sexual assault and 
unwanted sexual contact within the military, and I would like 
your view as to whether you believe that level of sexual 
assault today is still the good order and discipline we would 
want from our Services?
    Dr. Carter. No, Senator. It is not. You used the word 
``passion''. I have the same passion you do. This problem of 
sexual assault is something that persists in our military. It 
is widespread in our society, but it is particularly offensive 
in the military community because the military ethos is one of 
honor and trust. You have to trust the person who is, so to 
speak, in the foxhole next to you. These are violations of 
honor and trust.
    Also in military life, we put people in positions, we put 
them in situations of austere deployment, of a situation where 
the hierarchy of military life is a necessity in battle, and 
these also provide opportunities, this context, military 
context for predators. It is more offensive in military life 
even than in civilian life, and we have to root it out.
    I know that many members of this committee, but you 
especially, Senator, have led in that regard, and I am grateful 
for the thoughts and, frankly, for keeping the heat on. If I am 
confirmed, I will feel that heat, and I will understand it and 
be with it.
    Senator Gillibrand. The one statistic I was particularly 
concerned about, the most recent report is that of all those 
who were willing to report the assault openly were retaliated 
against. Sixty-two percent of those who reported these crimes 
were retaliated against, experienced some form of retaliation.
    I am highly concerned that the military is still failing in 
living up to their zero tolerance policy. Do you agree?
    Dr. Carter. I do agree that retaliation is a dimension of 
the problem that, to me at least, is becoming increasingly 
apparent. This is a problem, if I may say, and you know this 
because you have worked so hard on it, but that the more we dig 
into it, the more dimensions of it we come to understand.
    I think the idea that victims are retaliated against not 
only by the hierarchy above them, but by their peers is 
something that is unacceptable that we have to combat also. The 
survey that you referred to indicated that that is widespread, 
and we need to get at that.
    Senator Gillibrand. I understand from your testimony that 
you place a premium on the chain of command, and I fully 
understand that for combat situations the chain of command is 
not only essential, but necessary in every respect. I would 
like you to, though, consider all options for how you can 
reform the military justice system, to actually professionalize 
it, make it more effective.
    When our allies have reformed their military justice system 
to guarantee more civil liberties and to professionalize it and 
to take out biases, they have not seen diminution in the 
ability to train troops, to instill good order and discipline 
within the troops, and to do their jobs.
    I would ask you that you would keep an open mind to look at 
all possible solutions for improving our criminal justice 
system within the military.
    Dr. Carter. I will.
    Senator Gillibrand. Thank you.
    Another concern that I have is in terms of the issue of how 
we can create opportunities for women in combat. One of the 
issues that I have looked at is how are each of the Services 
being able to open those positions, opening all positions to 
women in combat. Because, as you know, in order to become 
promoted within the military, oftentimes combat missions are 
required and having certain roles that require combat is 
required for promotion.
    Are you committed to allowing women to serve in all 
positions and to gender neutral standards for each of the 
Services?
    Dr. Carter. I am certainly committed to gender neutral 
standards. What I do know is this, that the Services are 
examining whether there are any positions in the military that 
should not be open to women.
    I strongly incline toward opening them all to women, but I 
am also respectful of the circumstances and of professional 
military judgment in this regard. I have not been involved in 
those studies. If I am confirmed, I would want to confer with 
our own leaders in the Department of Defense, with you and 
others who have thought carefully about that problem, and try 
to come to a view.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Dr. Carter, for being here today.
    Thank you, Mr. Chairman.
    Also, Senator Lieberman, thank you for joining us today.
    As we sat down in my office the other day, one thing that, 
hopefully, was very clear to you was my passion for the 
National Guard and the Army Reserves and all Reserve members, 
actually. We have spent a considerable amount of time talking 
in this forum about sequestration and the effects on our 
Services, not just our Active Duty Forces, but also those that 
serve as wonderful ``weekend warriors''.
    I would love for you to please address the panel and just 
talk to us and explain to us those impacts that you have seen 
regarding sequestration and how it has impacted those Reserve 
and National Guard forces, please.
    Dr. Carter. Thank you, Senator. By the way, thank you for 
your own service. I appreciate it.
    I begin by saying we owe a great debt of gratitude to the 
Guard and Reserve for what they have done over the last 12-13 
years. I know this from the time I was in the Department of 
Defense previously and the wars in Iraq and Afghanistan were at 
their peak. We couldn't have sustained the tempo of combat in 
those two locations without the contributions of the Reserve 
component of our military.
    If there was ever a time when their value was made clear, 
it has been in the last 10 to 12 years. They are impacted, as 
every other part of the Defense Department is, by sequester. 
That is the terrible thing about sequester. It hits everybody, 
and it hits them hard, and it hits them soon, which means that 
we don't have time to adjust.
    I think the Guard and Reserve component have borne the 
impact of sequester as all the rest of the departments have, 
sad to say.
    Senator Ernst. Thank you for that. I appreciate that.
    If confirmed, we do have a number of rising threats that we 
see all around the world and specifically in the Middle East 
right now. Considering those threats, with many new possible 
deployments coming up, then, if confirmed, how do we ensure 
that our Guard and Reserve units then maintain their ability to 
reinforce our Active Duty component as effectively as they have 
in the past dozen years? How do we ensure that they are being 
supported?
    Dr. Carter. Thank you for that, and that is the key issue, 
as you well know.
    I think that the Reserve component forces need to be as 
prepared to go into action, if they are called to go into 
action, as any Active Duty element. You never want to send 
anybody into harm's way on behalf of the United States who 
hasn't had the training and isn't fully prepared and isn't 
adequately equipped to do the job.
    I think it is important that the Guard and Reserve are at a 
state of readiness that is commensurate with the need we have 
for them. One other thing I will add is that they also, not 
incidentally at all, very importantly, play a role in 
responding to disasters in our own country. That is another 
important and, by the way, also amply demonstrated in recent 
years attribute of having them.
    Both for defensive or to civil authorities and for 
deployment in a national security emergency, they need to be 
fully ready when we need them.
    Senator Ernst. Thank you much, Dr. Carter.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman.
    Dr. Carter, thank you so much for, first of all, all the 
service you have given. Having such an esteemed senator 
introducing you, that shows your intelligence there. Next of 
all, willing to serve at this most difficult time. I appreciate 
all of that because I know how difficult it is.
    We had an unusual day yesterday, and we got to speak to 
King Abdullah. Without revealing too much about it, I am sure 
that you have been briefed on that. But the bottom line was 
this. We are all concerned, I think, and our chairman has taken 
the lead on this, how we are going to accelerate what we do and 
what we think in this committee of quick we can get necessary 
military equipment to the people willing to fight, and the 
Jordanians are willing to fight.
    About the red tape, I just couldn't believe what I heard 
yesterday, all the red tape that they have to go through to get 
something on the front lines to help them defend themselves. I 
didn't hear so much they need our combat troops. They need our 
expertise and our people in the right places to make sure we 
are efficient.
    They just need the weapons to do the job. Do you have 
thoughts on that or how you can help us on that and break 
through this gridlock?
    Dr. Carter. I do. I don't know what you heard, but I could 
well believe what you heard because I have a long experience of 
frustration with getting equipment to the warfighter--our 
warfighters, never mind partner warfighters--on time. This is 
an element that is important when we talk about acquisition 
reform. The cost control is very important, but also getting 
things done.
    When I was working on the wars in Afghanistan and Iraq, it 
was, even for Americans, assistance to our own forces way too 
much red tape stood in the way. You had to constantly try to 
cut through that.
    I guess in the context of the Jordanian circumstance, which 
I am not familiar with. I am sure you know more about it on the 
committee than I would as a nominee, but I do read the 
newspapers, and I understand the need. I can well believe that 
it is slower than King Abdullah finds acceptable and that you 
and I would find acceptable.
    I guess all I can say is if I am confirmed as Secretary of 
Defense, this is one I am pretty familiar with, and I would 
work to get those things out there the way we did MRAPs.
    Senator Manchin. It seems like the greatest challenge is 
coming out of the State Department, and we are going to help 
them work on that, I think. The chairman is committed to that, 
and the ranking member and all of us are on the same page. This 
is not a partisan thing. This is basically an American thing we 
want to get done.
    If I can go to that, basically, in the auditing, I am very 
concerned about the cost of our military and if it is being 
spent efficiently. There is not a person in West Virginia, not 
a person in the country that won't sacrifice for a person in 
uniform. Not one.
    They will give up something. They will pay more taxes. They 
will do whatever you ask them. But we have to make sure we are 
spending it wisely, and I think that our chairman has been very 
diligent on this for many, many years. I am concerned.
    I am also concerned, we don't touch on this, is the size of 
the staff. If you look at the size of the staff and how they 
double and quadruple, and every time we get a new change, the 
staff, and we don't talk about that. We just talk about our 
readiness and having people be able to perform. But no one is 
checking the staff sizes, and I am told from people on top, 
they don't need these sizes. But no one can get rid of them.
    Put them back where they are needed. Also using our Guard 
and Reserves, but the staff size, that is something you will 
have oversight on?
    Dr. Carter. It absolutely will. I agree with you. We need 
acquisition reform, but we need to reform lots of other things, 
too. Overhead, headquarters staffs, lots of parts of the 
Department, for just the reason you say.
    Senator Manchin. Let me tell you why the audit is so 
important and why I am so committed to having an audit of the 
Defense Department. I think we can help you help yourself of 
the institution.
    The reason I say that is there is a lot of things that you 
are doing that sometimes you don't ask for, you don't want. 
There is equipment being sent your way. There are things being 
produced in different parts of the country just because of who 
we are, and we want to make sure that our people are getting 
the jobs.
    I agree to that, but I can tell you if there is something 
we are building in West Virginia you don't need, I will be the 
first to go and tell them we are going to find something else 
to do. Because we are not going to force you to buy something 
you don't need or don't want. I think we all have to bite the 
bullet there, but we have to look at this, and we won't know 
unless we have an audit.
    I would hope that you are committed to helping us get that 
audit and a complete transparency of what is going on. Also the 
contractors, I have been here 4 years, and I cannot get an 
accurate count of how many contractors that we have and what 
branches.
    Dr. Carter. Thank you.
    I am committed on the audit front. I understand what you 
are saying about contractors and agree with that as well, and I 
appreciate what you say about us working together to make sure 
that we buy what we need and that we buy it well.
    Senator Manchin. Thank you, sir.
    Chairman McCain. We will have Senator Sullivan, and then we 
will take a break after that. How long do you need?
    Dr. Carter. Ten, 15 minutes.
    Chairman McCain. Fifteen minutes, and then after that, the 
next questioners would be Senator Heinrich and then Senator 
Fischer, and then Senator Shaheen would be in line for the next 
questioners after a 15-minute break. The committee will stand 
in recess for 15 minutes after Senator Sullivan is finished 
with his questions.
    Senator Sullivan. Thank you, Mr. Chairman.
    Dr. Carter, I want to thank you for your service and 
particularly, and you point out, your family, your wife and 
kids. I know how much they go through in these hearings. 
Sometimes it is tougher on them than it is on the nominee. I 
want to thank them as well.
    I wanted to start with just a little history and geography. 
In 1935, General Billy Mitchell, often referred to as the 
father of the Air Force, was testifying in front of Congress. 
He said that, ``I believe that in the future, whoever holds 
blank--this place--will hold the world. It is the most 
important strategic place in the world. It is the most central 
place in the world for aircraft, and that is true either of 
Europe, Asia, or North America.''
    Do you know what place General Mitchell was referring to in 
his testimony in 1935?
    Dr. Carter. I think, Senator, it was Alaska.
    Senator Sullivan. Correct. It was Alaska.
    [Laughter.]
    Senator Sullivan. Do you agree with General Mitchell?
    Dr. Carter. I do. I would point out that one proof of what 
he said, I suppose, is that your State is home to one of our 
principal missile defense batteries, and the reason for that is 
that it is kind of on the way to and from a lot of bad places.
    Senator Sullivan. I look forward to hosting you in Alaska 
soon to show you why General Mitchell was correct. But I want 
to get actually to, if confirmed--
    Chairman McCain. Excuse me. Senator Reed says maybe that is 
why he was court-martialed.
    [Laughter.]
    Senator Sullivan. I think he may have had a drinking 
problem, but I am not sure. His strategic assessment was still 
very correct.
    A tough part of your job is as a member of the President's 
Cabinet. It is also a critically important part of the job, if 
confirmed, is leveling with this committee. You are showing 
your kind of straightforward approach, which I think is great, 
but also with the American people. I think we all recognize 
there are challenges, but in some ways when the President is 
talking to the American people, his views seem to differ.
    Let me give you a few examples. In his State of the Union, 
he painted a what I would consider a benign, almost delusional 
view of the world environment, with quotes like ``The shadow of 
crisis is past.'' ``We are stopping ISIL's advance.'' ``We are 
opposing Russian aggression.'' ``We have halted the progress of 
Iran's nuclear program.'' These are all quotes from the 
President to the American people.
    Do you agree with his assessment in these areas?
    Dr. Carter. I think that if I am confirmed as Secretary of 
Defense, I am going to be confronting some of the most 
challenging problems that we have had in our national security 
in a very long time. My intention and my obligation will be to 
help our President and help our country confront those problems 
and provide the advice to the President that will help him deal 
with, though we have many efforts and many successes because we 
are in the indispensible Nation in this world, we have many 
challenges.
    I think my role for him, if confirmed, is to help him work 
through these challenges.
    Senator Sullivan. But again, just in terms of 
straightforward approach, you have been watching the 
international environment. Do you agree with what the President 
was saying and telling the American people?
    I think it is critical that he level, that you level, the 
Administration levels with the American people on our 
challenges. I will give you another example. He is talking 
about ending combat operations in Afghanistan, and yet we are 
going to maintain a robust CT [countererrorism] presence, which 
I think is important.
    But a robust CT presence is not ending combat operations. 
Do you agree with what the President was saying in his State of 
the Union on some of these specific quotes that I mentioned?
    Dr. Carter. I certainly agree with the President's overall 
thrust and----
    Senator Sullivan. That we have a benign world environment 
right now?
    Dr. Carter. I would say the world continues to pose serious 
challenges to international order and that the United States is 
indispensible to the solution of those challenges is what I 
would say.
    Senator Sullivan. Let me ask one final question. In the 
hearings the last 3 weeks that the chairman has had, which have 
been, I think, a great education for all of us, again, for the 
American people. I think there was consensus that we certainly 
need to work on all instruments of American power to integrate 
those as part of a national strategy to address what I think 
are significant challenges that the President has not laid out.
    One of these instruments that we didn't have 10 years ago, 
but there was common agreement on is energy and being once 
again the world's energy superpower in terms of producing oil 
and gas and renewables. Last week, the President took over 20 
million acres of some of the most prospective lands in America 
for oil and gas development off the table.
    Do you agree that having energy and using that to help our 
national security is important? Would you agree that taking 
such huge areas of land off the table, billions, potentially 
billions of barrels of oil, trillions of cubic feet of natural 
gas, do you think that helps or undermines America's national 
security?
    Dr. Carter. I certainly think energy security is an 
important part of national security, and I am incredibly 
encouraged by the progress that the United States has made in 
developing new resources, both oil and gas in recent years. I 
think it is showing up in terms of our economy, and also it is 
showing up geopolitically.
    With respect to the particular issue you raise, Senator, I 
am simply not knowledgeable about it and can't give you a 
knowledgeable answer.
    Senator Sullivan. Okay. I think those kind of actions 
undermine our national security significantly.
    Dr. Carter. I understand.
    Chairman McCain. The committee will stand in recess for 15 
minutes and then reconvene. The next questioners will be 
Senator Heinrich, Senator Fischer, and Senator Shaheen.
    [Whereupon, at 10:57 a.m., the committee recessed, to 
reconvene at 11:19 a.m., the same day.]
    Chairman McCain. The committee will reconvene, and we will 
recognize Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Chairman.
    Welcome back, Dr. Carter. It has certainly been a pleasure 
to work with you, and I just want to say it is really 
refreshing to work with someone in this potential position who 
has both your technical background and your ability to work 
with people across the Services and with Congress. You seem to 
balance those things remarkably well, speaking as an engineer 
who struggles with that myself sometimes.
    If I remember right, I believe you served as staff director 
for the Congressional Commission on the Strategic Posture of 
the U.S. that released its report back in 2009, when I was 
sitting on the House Armed Services Committee. I think that 
report made some very important strategic recommendations.
    In particular, I thought the idea that Los Alamos, 
Livermore, Sandia, should be designated as national security 
rather than nuclear weapons laboratories was a very important 
recognition of how the threat environment that we face in the 
world today has changed.
    In addition, one of the things the commission recommended 
was that the President issue an executive order formally 
assigning the Secretaries of Defense and Energy, State, 
Homeland Security, and the DNI joint responsibility for the 
health of these laboratories, and you and I discussed this a 
little bit when we met in my office recently.
    I wanted to ask you, based on a recommendation from the 
Strategic Posture Commission, what sort of joint responsibility 
do you believe that the Department of Defense should have for 
our National labs?
    Dr. Carter. Thank you, Senator.
    I recall our conversation, and you are right. I was 
executive director of the so-called Perry Schlesinger 
Commission, which did make the recommendation you pointed to.
    The National Laboratories, the so-called National 
Laboratories of the Department of Energy actually are national 
laboratories. I know this because when I worked in the 
Department of Defense as acquisition executive, we used them a 
lot. We asked them to do things because of their technical 
excellence.
    Those laboratories that were founded to serve the nuclear 
arsenal of the United States and continue to do so now do lots 
of other things for national security--for the Department of 
Defense, for the Intelligence Community, for the law 
enforcement community, the Homeland security community. I think 
they call it ``work for others''.
    Senator Heinrich. Exactly.
    Dr. Carter. Which means other than the Department of 
Energy. But it is important, and it was certainly valuable to 
the Department of Defense when I was there to be able to get 
that kind of technical excellence.
    Senator Heinrich. I think one of the challenges has been 
that originally work for others didn't really exist at the 
National Labs. They were solely nuclear enterprises. As that 
has become a larger and larger percentage of what they do, it 
has been more challenging to sort of feed the underlying 
foundational aspects of the lab, the overhead and other things.
    What I would hope is that if you are confirmed, and I 
certainly hope that you are, that I can count being able to 
work with you to figure out if there is not a way we can 
formalize that responsibility for the health of DOD and the 
other agencies I mentioned, as well as for the long-term health 
of those national security laboratories?
    Dr. Carter. I understand. If I am confirmed, I look forward 
to working with you on exactly that. I understand.
    Senator Heinrich. I want to move back to Ukraine for a 
minute, and we heard earlier about the issue of providing 
additional defensive military equipment to the Ukrainians. We 
have also heard a lot of testimony in recent weeks emphasizing 
the importance of deterring additional Russian aggression in 
the Baltics--in Estonia, Latvia, and Lithuania--particularly by 
continuing to position more NATO troops and equipment in those 
places.
    I just wanted to get your sense for are we doing enough in 
that region to deter additional Russian aggression in the 
Baltics?
    Dr. Carter. Thank you.
    I think it is very important that we do deter Russian 
aggression in the Baltics. The Baltic states are part of NATO, 
after all. It is a pretty big deal.
    But to answer your specific question, are we doing enough? 
I am familiar with what we are doing. I have not been in a 
position to discuss it with our commanders there or any of the 
European leaders and so forth. That is something that I would, 
if I were confirmed, be a very early priority to see whether we 
are, in fact, doing enough.
    I know we are doing things. We are rotating forces in there 
to serve as a warning and a tripwire that NATO really is there, 
and I certainly support doing that. But everything we are doing 
I am probably not aware of, and what more we can do I have not 
investigated, but I promise if I am confirmed, I would. It is 
very important.
    Senator Heinrich. Thank you very much, Dr. Carter.
    Chairman McCain. Senator Cotton?
    Senator Cotton. Thank you, Mr. Chairman.
    Dr. Carter, thank you for being here today. Thank you for 
your service to our country.
    Yesterday, we saw the Islamic State burn alive the pilot of 
one of our key allies. In recent months, they have buried women 
and children alive. They have crucified Christians. They have 
beheaded Americans and citizens of our allies.
    The leaders of the Islamic State, the ones who direct and 
in some cases commit these atrocities, have critical knowledge 
that we need to stop them. They know where hostages are being 
held. They have information that would allow us to go after the 
Islamic State's financial support. They know where other senior 
leaders are. In short, they have a lot of intelligence value.
    If American forces were to capture one of these leaders, 
say, Abu Bakr al-Baghdadi, or one of his senior lieutenants, 
would you recommend that the President send him to Guantanamo 
Bay so he could be fully interrogated for intelligence value?
    Dr. Carter. I would certainly recommend that he be 
interrogated for his full intelligence value. It would be a 
legal determination about where he ended up and so forth. But I 
think it is important that we get that intelligence value if we 
do capture people like al-Baghdadi.
    Senator Cotton. Would you recommend that he stay in 
American custody or that he be transferred to the custody of an 
ally?
    Dr. Carter. As I sit here right now, I don't know enough to 
answer that question. That would be a legal determination about 
his ultimate disposition. I think the key from a Secretary of 
Defense's point of view, prospective Secretary of Defense's 
point of view would be let us get that intelligence.
    Senator Cotton. Would you want to see him transferred into 
the United States mainland, given his Miranda rights or 
otherwise put in an Article III Federal court?
    Dr. Carter. Again, I don't know enough to know what the 
ultimate disposition would be appropriate. I do know that it 
would be important to interrogate that individual. Whatever the 
ultimate disposition or legal process was, it should make 
provision for interrogation.
    Senator Cotton. Thank you.
    I want to move to the recommendations of the National 
Defense Panel [NDP] for the overall military budget. The 
National Defense Panel, as you know, is a bipartisan and 
congressionally mandated panel that reviewed the 2014 QDR 
[Quadrennial Defense Review].
    That panel stated, ``Congress and the President should 
repeal the Budget Control Act immediately and return as soon as 
possible to at least the funding baseline proposed in Bob 
Gates' FY [fiscal year] 2012 defense budget.'' The panel went 
on to note that while even that amount would likely be 
inadequate, it represents ``the minimum required to reverse 
course and set the military on a more stable footing''.
    Do you concur with the National Defense Panel's 
recommendation that Bob Gates' fiscal year 2012 recommendation 
for the coming fiscal year is the minimum funding baseline 
needed for the Department of Defense?
    Dr. Carter. The 2012 baseline, just to make sure I 
understand correctly, would have removed $500 billion from the 
defense plan at that time. A sequester would have removed twice 
that.
    I don't know what the National Defense Panel said, but I 
would say that if what they were saying was that the sequester 
level was unacceptable and that the level that Secretary Gates 
recommended was the one that they supported, I actually 
supported that, too, and continue to think that sequester is a 
bad idea.
    I am familiar with the results of the National Defense 
Panel and its membership, which is very distinguished.
    Senator Cotton. To be exact, Secretary Gates' fiscal year 
2012 budget said in fiscal year 2016, the budget should be $610 
billion. At sequester levels, it would be just under $500 
billion. I believe the President recommended approximately $535 
billion. This would be another $70 billion plus that the 
defense panel recommends for the coming year.
    Dr. Carter. I see what you are saying. Yes. That is 
absolutely right, and I think the Defense Department budget has 
been under pressure now for the last 3 or 4 years in a way that 
I experienced the effects of firsthand, and they are damaging. 
That is one of the reasons why I want to get back on track to 
getting enough money for defense by getting rid of sequester.
    Senator Cotton. While $535 billion or some congressional 
number in that neighborhood might be better than $500 billion, 
you think $610 billion, as recommended by that panel, is the 
minimum necessary to put our military back on the right course?
    Dr. Carter. I wouldn't say it is the minimum necessary to 
get us back on the right course. We are obviously not going to 
get that amount of funding. But I can tell you that the 
Department of Defense can make good use of the funding the 
President has requested.
    I will say one other thing. If I am Secretary of Defense, I 
would like to see more spending on defense. I am very open 
about that. I want to get rid of sequester, and I would like to 
see us spend more on defense.
    I think that--and this may have been what the NDP was 
getting at, we are having to accept risk in the execution of 
our strategy as a result of our funding problems which I would 
rather see us not accept.
    Senator Cotton. Thank you.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you, Dr. Carter, for your past service to this 
country and for your willingness to continue to serve.
    I want to talk a little bit about the proliferation of 
nuclear weapons. I remember being at the Kennedy School when 
you gave a very compelling presentation that showed retiring or 
dismantling some of the weapons through the Nunn-Lugar program. 
I continue to believe that this is one of the most serious 
dangers we face, both in the United States and in the world, 
particularly with terrorists like the Islamic State who seem to 
be willing to do anything to achieve their ends.
    I wonder if you could talk a little bit about how to 
balance the need to address nuclear weapons and material that 
is still out there with the effort of DOD to modernize our 
weapon systems and where you see the priorities are and what we 
need to do to address that?
    Dr. Carter. Thank you, Senator.
    I think we need to do both and can do more in the way of 
securing fissile materials and the other wherewithal of nuclear 
weapons and also biological weapons and other weapons of mass 
destruction around the world. I also believe that the United 
States needs a safe, secure, and reliable nuclear deterrent.
    Because as much as we would like to see nuclear weapons and 
other weapons of mass destruction rid from the earth, that 
doesn't look like it is something that is going to happen soon. 
It is important that the American deterrent that we provide to 
our own country but also to friends and allies who rely upon 
them is safe, secure, and reliable. I think we need to do both 
and can do both.
    Senator Shaheen. You wrote an article last year for Foreign 
Affairs, entitled ``Running the Pentagon Right: How to Get the 
Troops What They Need,'' and you talked about two lessons from 
Iraq and Afghanistan. First, that the Pentagon was not prepared 
to fight a nontraditional enemy and, second, that the length of 
those wars was underestimated, and there was little incentive 
to pursue acquisitions tailored to the specific fights.
    Can you talk about how, as Secretary of Defense, you would 
avoid repeating those mistakes of the past two wars?
    Dr. Carter. Yes, thank you, and this is something that I 
have a lot of passion about, which is why I wrote that. The 
experience that I had all too often in trying to support Iraq 
and Afghanistan as the acquisition executive was that when the 
troops said they needed something, the response of the 
bureaucracy tended to be, ``Oh, we have one of those. We are 
making one of those. We have one in progress. It will be 
finished in 10 years.''
    Incredibly, that is, in essence, the response that would 
come back from the bureaucracy. We all recognize immediately 
that that is nonsensical because they needed that equipment, 
counter-IED [improvised explosive device] equipment, vehicles. 
They needed it now, not 10 and 15 years from now.
    Our acquisition system got in the habit, and I think the 
chairman was referring to this earlier because it is a driver 
of cost, but also this problem, got in the habit during the 
Cold War of doing things very slowly. With the Soviet Union, we 
always had plenty of time. There was the Soviet Union. It was 
the Cold War. It would go on for a long time.
    We would have programs that extended over 10 and 15 years. 
You can't do that when you are in the middle of a war, and 
people are dying and success depends upon your acting more 
quickly. I obviously feel passionately about that. I think 
anybody who observed that bureaucratic tendency would have the 
same attitude I did, and we have to turn faster as a military.
    It is one thing when you are in war, when you are in 
competition with other countries that are using the global 
technology base to advance their own military. If we are going 
to continue to be the best military in the world, we can't make 
steps in 15-year increments. We have to turn faster than that. 
I think that is the larger meaning, and the meaning going 
forward, the lesson, to use your word, of that experience.
    Senator Shaheen. My time is almost over. But you and others 
here today have talked about the importance of procurement 
reform. I assume that that will be a top priority when you go 
back to the Department, as it has been in the past?
    Dr. Carter. It would. If I am confirmed, absolutely.
    Senator Shaheen. Thank you very much.
    Dr. Carter. Thank you.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    Dr. Carter, I apologize for not having been here, and I 
don't want to ask something that has been asked over and over 
again. We have a conflicting meeting that is taking place right 
now.
    Everyone who has appeared before this committee has talked 
about the mismatch that is out there, unprecedented mismatch, 
and I am talking about all the Service Chiefs. I am talking 
about the old-timers. You know, as you know, we had George 
Shultz, Henry Kissinger, and Madeleine Albright. All of them 
searched their memories and could not find a time in our 
history when we had the level of threats that we are faced with 
today and the limited resources we have.
    That is the mismatch that they are talking about with the 
things all over the world I mean that are taking place right 
now. Do you agree with that?
    Let me restate that. In the years that you have had such a 
variety of experience, do you ever remember a time like this?
    Dr. Carter. I think we are in a time where the number and 
severity of the risks is not something I have seen before in my 
life.
    Senator Inhofe. Yes. Even the President, after what 
happened yesterday, I am sure, is not talking about junior 
varsity anymore. We know that we have a really serious problem 
with ISIL. We have been talking about the fact that they are 
building a militia, and we now have seen the brutality and what 
they are capable of.
    I would like to have a stronger response from the President 
when the disaster took place yesterday. I fail to see a 
strategy in terms of dealing with ISIL, with that force that is 
over there. Do you see a strategy, and where will you be on 
this?
    Dr. Carter. Thank you.
    I can describe what I believe to be the strategy, and just 
to revert to what you said at the beginning, when I started my 
career in defense, it was a simpler world. There was one big 
problem, which was the Cold War and nuclear disaster.
    Senator Inhofe. Those were the good old days.
    Dr. Carter. To get to your point, I assume that this is 
what your other witnesses were saying, it is a much more 
complicated world, much more many faceted and many more 
problems and issues for the United States to take on. At the 
same time, I believe we are up to it and that we are capable of 
surmounting all these problems.
    With respect to the strategy for ISIL, I would describe it 
in the following way. Strategy is about connecting ends and 
means, and the end here is the defeat of ISIL and the sustained 
or lasting defeat of ISIL. To achieve that lasting defeat of 
ISIL, we are trying to rebuild the morale and power of the 
Iraqi military and the confidence of its government in a multi-
sectarian approach so that we don't revisit the Maliki 
experience, which led to the disintegration of the Iraqi 
security forces.
    On that side of the border, the lasting defeat will be made 
lasting by an Iraqi security forces and associated forces in 
Iraq that are rebuilt.
    One enemy, two locations. To get to the other location, 
Syria, I believe the approach there similarly needs to be to 
inflict a lasting defeat. In order to do that, we need a 
partner, and we are trying to build that partner in terms of a 
moderate Syrian force and local forces from the region that 
can, with our air power and other kinds of assistance, inflict 
defeat on ISIL and then make it a lasting defeat.
    That is how I would characterize what I see. I am obviously 
not in the counsels of Government, but that is what I infer.
    Senator Inhofe. Yes, and I appreciate that very much. Dr. 
Carter, when you were in my office, we talked about having just 
returned from Ukraine and also Lithuania. When I first walked 
in, Senator Heinrich was talking about Lithuania, Estonia, and 
that area. Their concern was that all of our attention seemed 
to be in that part of the world, concentrated on Ukraine.
    It is true. I happened to be there when they had their 
election. For the first time in 96 years, they don't have a 
Communist in their parliament in Ukraine. We have that problem 
at the same time as the others you are addressing, and what do 
you think about our European strength as it is right now?
    Are we adequate? Are we becoming inadequate?
    Dr. Carter. I think that our strength in Europe is our 
alliance with NATO and the political solidarity that that 
represents, which is very important when it comes to the Baltic 
states, and also the response in Ukraine, which, while not a 
NATO nation, is certainly a European nation, and European unity 
is an important part of that. So one of our strengths is that.
    Another strength, of course, is our military strength. 
There I understand that we are adding forces, rotational forces 
to the Baltic states as a presence there, as a deterrent to any 
Russian kind of adventurism on the part of Russia in those 
states. I certainly support that, and if I am confirmed, I 
would want to look into what more we can do to do that.
    I would also say I wish the European states--and many 
Secretary of Defenses have said this over the years--were 
investing more in their own defense.
    Senator Inhofe. Lastly, I am out of time, but for the 
record, if you would submit this for the record to me. In the 
event we are able to get the perpetrator of the horrible crime 
that took place, would you examine the expeditionary legal 
complex that we have as a place to do our interrogation?
    I heard your response to the first question, but will you 
at least consider that?
    Dr. Carter. Sure. I will learn more and respond.
    [The information referred to follows:]

    The appropriate disposition for a detainee is determined on the 
basis of all the facts and circumstances, including the national 
security interests of the United States and its allies and partners, 
and the conduct the detainee has engaged in, consistent with U.S. 
domestic law and international law. Depending on the circumstances, 
detainees may be prosecuted in the United States, detained in their 
home countries, or detained in a third country. The Department makes 
assessments regarding the appropriate disposition of detainees on a 
case-by-case basis.

    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    Thank you, Dr. Carter.
    And thank Senator Lieberman for your continuing presence at 
this hearing.
    Dr. Carter, I appreciate your acknowledging at this hearing 
the importance of and the seriousness of sexual assault in the 
military, and in response to questions that have been submitted 
to you, you have said that you would take a personal role in 
addressing the prevention and dealing with this scourge in a 
much better way. I will have a continuing interest in seeing 
how you do in that regard.
    I also agree with you that the security of our country is 
very much dependent, I would say, on maintaining the stability 
in the Asia-Pacific area. Of course, we need to continue our 
commitment to the rebalance and at the same time be able to 
deal with the instability in other parts of the world.
    Now President Obama recently visited India and announced a 
series of bilateral agreements with Prime Minister Modi. Can 
you talk briefly about the future of the United States-India 
relationship in the context of our rebalance commitment?
    Dr. Carter. Thank you, Senator.
    The rebalance is a rebalance not only within Asia--I mean 
to Asia, to the Asia-Pacific area, but within it. Our historic 
focus has been East Asia, and I think that your question points 
to the importance to pay greater attention to South Asia as 
well.
    India is, in my view, destined to be a strategic partner of 
the United States. It is a large democracy, shares a lot of our 
political values and values of pluralism. I think that destiny 
will bring us together, but I am for hastening that.
    In the military-to-military area and the defense 
cooperation and technology cooperation areas, I think there is 
a great deal that we can do with India. If I am confirmed, I 
would take a strong interest in doing that.
    Senator Hirono. Thank you.
    Do you view U.S. energy security as a vital component to 
our overall national security and clearly on the military side? 
What role, if any, do you believe that the Department of 
Defense has in supporting efforts to increase U.S. energy 
security?
    Dr. Carter. I think energy security is an important part of 
national security, and the Defense Department does play a role, 
not a central role, but a role in energy security. I think 
every dollar we spend of the defense budget we need to be able 
to justify on defense grounds, and we make some investments in 
energy technology because they pay off for the defense budget 
and for the soldier.
    We make investments in batteries, for example, solar cells, 
insulation, buildings, making them more energy efficient so we 
can save money. In some ways, the Department of Defense, like 
other large institutions in the country, is investing in energy 
efficiency in the future. I think that is an important thing to 
do.
    Senator Hirono. DOD is the largest user of energy in the 
Federal Government.
    Regarding acquisitions, with your experience in the defense 
acquisition process, including the time in which you led the 
Acquisition, Technology, and Logistics Directorate at the 
Pentagon, as you review our DOD acquisition program with its 
various cost overruns, delays, et cetera, which others have 
noted, including the chairman, what would be your first 
priority to improve the acquisition process?
    For example, would you look at the kind of contracts that 
we enter into? Training, requirements, process--what would be 
your first priority to improve in that area?
    Dr. Carter. All of those are important. To take the point 
you made about contract structure, contracts are a way of 
providing incentives to industry, to control costs and meet 
schedule. That is an important part of negotiating a strategy.
    To get to your other suggestion, in order to negotiate 
those contracts well, we need people on the Government side who 
are capable, who understand acquisition and who understand 
industry. I am in favor of reintroducing to the acquisition 
system the role of the customer, which is the chiefs of the 
military services. I think that has been a proposal made by 
others with which I associate myself.
    There is no one silver bullet. There are many things that 
we need to do to improve acquisition.
    Senator Hirono. Thank you.
    Chairman McCain. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, Dr. Carter, for your service and your 
willingness to continue that service to our country.
    I appreciated our frank conversation that we had in my 
office the other day and look forward to many more in the 
future. In that conversation and today also, you talk about the 
deterrence, our nuclear deterrence in this country as being the 
bedrock of our defense. I appreciate your views on that, and I 
agree with your views.
    We also talked about modernization and the importance of 
modernization and how as a country we need to step forward and 
really see that through if we are going to continue to enjoy 
the security that we have as a country. Thank you for your 
comments on that.
    In 2013, you led the Strategic Choices and Management 
Review, and in that review, one of the decisions was to reduce 
major headquarters' budgets by 20 percent by 2019. That plan 
was required in our NDAA [National Defense Authorization Act] 
in fiscal year 2014. But the GAO [Government Accountability 
Office] has issued several reports that really cast doubt on if 
that is going to take place and even if we have an accurate 
picture on what the full resources currently are that are 
devoted to that headquarters staff.
    A couple questions here. Will you, if confirmed, maintain 
the goal of that 20 percent reduction in headquarters budget 
and staff? How are you going to accomplish it if we don't have 
any idea of what those numbers are?
    Dr. Carter. I certainly think it is important to diminish 
headquarters staff and other forms of overhead. I think the 20 
percent goal was a sound one.
    I do not know where it stands in terms of implementation 
now. If I am confirmed, I will get back to that and try to meet 
that goal because we just have to get rid of the overhead here 
so that we can spend the dollars we have on the warfighter, 
which is what it is all about.
    Senator Fischer. Have you seen the GAO report questioning 
if those numbers are even out there, if they are even 
available? If you believe that, how are you going to get the 
numbers?
    Dr. Carter. I have not seen that GAO report, but I, if I am 
confirmed, will find out where the Department stands in terms 
of implementing that goal and, if they are off track, try to 
get them back on track because I think it is a good goal.
    Senator Fischer. Do you think now is the time that we 
should look at elevating cyber to its own command, or even with 
the commission that we had yesterday, there is a recommendation 
in that commission for a joint readiness command. When we look 
at overhead and administrative costs, what would be your 
initial response to those that are promoting ideas for 
additional commands?
    Dr. Carter. I am all for paying much more attention to 
cyber and think we need to do that. But the creation of new 
commands and new headquarters in this budgetary environment is 
something I think we need to look at very closely and very 
cautiously.
    Senator Fischer. As you know, our chairman, Senator McCain, 
is interested, as we all are, in gaining more knowledge about 
the information sharing with regards to our cybersecurity 
threats. That is one area that I believe has broad support. We 
know there is support not just from members of this committee 
and members of Congress, but also the President has discussed 
the need for information sharing on those cybersecurity 
threats.
    I agree that information sharing and better defense is a 
first step. But do you think that we can achieve relative 
cybersecurity simply by improving those defenses, or do we need 
to perhaps go on the offense and impose more I guess you would 
say visible costs with regards to our actions on cybersecurity?
    Dr. Carter. I think both are important. We need to improve 
our defenses, but we also need to improve our abilities to 
respond. Those responses can be in cyberspace or in other ways, 
but certainly they should include the option to respond in 
cyberspace.
    Senator Fischer. The option to respond, would you say that 
would include demonstrating that we have the capability to do 
so? Is that part of our deterrence when it comes to protecting 
our country, our agencies, and private businesses when it comes 
to cyber attacks?
    Dr. Carter. I agree with you. I think deterrence requires 
that a potential aggressor know that you have the capability to 
respond, and they obviously can't know all the details of that 
or they may be able to counter your response. But they 
certainly should know that you can respond.
    Senator Fischer. And would respond, if necessary?
    Dr. Carter. And would respond, absolutely.
    Senator Fischer. Thank you, Dr. Carter.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator McCaskill?
    Senator McCaskill. Thank you.
    So many questions, so little time. I want to associate 
myself with the remarks of the chairman about the weapon 
systems. You are in a special position because you have been in 
the weeds, so to speak, on all of this in your previous 
position, and we worked together on wartime contracting 
reforms, which now are in the statutes. I know that you will be 
aggressive about making sure that all of those provisions are 
adhered to.
    I also want to address a question to you for the record on 
the murky line of responsibility on the building of 
infrastructure during contingencies in theater while we are 
fighting. I think what we have learned in Iraq and Afghanistan 
through the special inspector general's reports is that this 
line of passing back and forth responsibility for building 
roads, building highways, building grids, building health 
centers, building water systems, building power plants between 
USAID [United States Agency for International Development] and 
DOD has made it very difficult for us to really hold everyone 
accountable that needs to be accountable for dramatic failures.
    On that note, I wanted to specifically talk about special 
inspector general's reports. Last week, I learned that for the 
first time in 6 years, the special inspector general's reports 
as to the way we are accomplishing our mission in Afghanistan 
for training and equipping the Afghan National Security Forces 
and Afghan police was going to be classified by General 
Campbell. This had never been done before.
    Those reports are essential to robust oversight. I kicked 
up dust last week about it, and on Monday, it was announced 
that General Campbell was evidently reversing his decision in 
some regard. I want to ask your commitment to make sure that 
throughout the chain of command, there is an understanding that 
the decision to classify is a very precarious decision because 
if you don't do it when it needs to be done, it is a problem. 
But if you overclassify, it removes the ability of us and the 
taxpayers to hold the military accountable.
    I wanted to bring that up to you and ask you for your 
commitment in that regard.
    Dr. Carter. I give that commitment.
    Senator McCaskill. I also wanted to briefly talk about 
sexual assault in the military. The report that came out in 
December, while it still shows work to be done, I think it is 
important that on the record we talk about the success that we 
have had.
    Reporting is up. We have gone from 1 in 10 victims coming 
forward to 1 in 4 in a matter of a few years. Incidence is 
down. Importantly, restricted reporting is up.
    Maybe the most important information in that report that 
hasn't gotten a lot of cover is that in anonymous surveys and 
focus groups with victims, more than two-thirds of the victims 
said they had complete confident in their commanders and how 
they are handling these crimes and that they feel that their 
privacy is being respected and that they are being supported. 
That is huge, and I wanted to point that out because I do think 
we are making progress.
    But on retaliation, that same report, as Senator Gillibrand 
pointed out, we still have a 62 percent rate of retaliation. If 
you look at the report, you realize it is not retaliation by 
the convening authority, by the command that is making the 
decision as to whether or not to go to general court martial. 
Rather, it is peer and low-level command that is causing the 
problem.
    In our reforms, we made retaliation a crime. We expect to 
get a report on how many instances that crime has, in fact, 
been pursued within the military justice system. The reforms, 
obviously, just went into place a relatively short time ago.
    What do you plan on doing in connection with this 
retaliation problem and with this new crime within the military 
justice system to pursue it?
    Dr. Carter. Thank you, and thank you for everything you 
have done. I have, from the outside looking in, observed and 
admired the ideas and the energy and the commitment you have 
shown to getting rid of this scourge of sexual assault, and so, 
first of all, thank you for that.
    With respect to retaliation, that is one of the dimensions 
that I think the report you cite uncovered as very prevalent. I 
think the 62 percent of victims were reporting experiencing 
retaliation. As you say, not so much--although not to the 
exclusion of, but not so much from the chain of command as from 
peers and subordinates.
    You are right. This is a crime, and its prevalence suggests 
that we are not doing everything we can, that we need to do to 
root out that crime.
    If I am confirmed, you can count that I am attentive to 
this issue of retaliation and determined to do something about 
it, and I will look forward to working with you if I am 
confirmed.
    Senator McCaskill. Thank you very much, Dr. Carter. I look 
forward to working with you.
    Chairman McCain. Senator Lee?
    Senator Lee. Thank you very much, Dr. Carter.
    It is a pleasure to have you here. I appreciate your 
willingness to be considered for this position. I appreciated 
the visit we had in my office the other day, and you have 
certainly proven yourself as someone who knows a lot about the 
Department of Defense, having served at its highest levels as 
Deputy Secretary in the past.
    I want to talk about a few things. First, let us talk about 
the F-35 for a minute. The F-35 is an amazing system, with 
units at Hill Air Force Base that are set to be hosting the F-
35 starting this fall. It is a program, however, that has been 
marred by some delays and some cost overruns, as you know.
    As the Department of Defense looks at acquiring other new 
weapon systems and equipment to make sure that we maintain our 
technological advantage over our adversaries, I think it is 
important not only to work time and cost efficiencies in 
acquisition into the equation for such programs, but also to 
integrate that with logistics and maintenance processes that 
are absolutely essential to make sure that we get our money's 
worth.
    With a program like the F-35, the biggest single expenses 
through the lifecycle isn't just acquiring it. It is also 
maintaining it and making sure that we get our money's worth 
out of it.
    Given that the Department of Defense has been reforming the 
acquisitions process in various ways for decades, what would 
you do differently not only to improve that process, but to 
make sure that acquisitions and development and logistics are 
all aligned in a way that increases the lifecycle and increases 
the efficiency and utility of these various weapon systems?
    Dr. Carter. Thank you, Senator.
    It is exactly as you say. The lion's share of the cost of 
any weapon system is not in buying it, but in having it. Which 
is why, to get to the F-35 example that you cite, the 
longstanding battle to control cost in the Joint Strike Fighter 
program, which I have been part of but is still ongoing and has 
to go on as long as that program is in existence--it is not 
perfect yet, it is a long way from that--has to extend into the 
sustainment phase of the aircraft.
    We have worked on cost control in development. We have 
worked on cost control in the production of the aircraft, and 
we need to work on cost control in sustainment as well, exactly 
as you say.
    Senator Lee. Thank you. Thank you, and I appreciate your 
thought on that especially because your experience gives you a 
real strong ability to appreciate the nuances involved there.
    General John Kelly, the commander of SOUTHCOM [United 
States Southern Command], called last year's border crisis an 
existential threat to the United States. Do you think that our 
inability to adequately enforce security at our borders does 
present a security threat to the United States, including a 
security threat that could involve the possibility of 
terrorists entering into our country without our knowledge?
    Dr. Carter. I think control of our borders is an important 
part of national security, yes.
    Senator Lee. That is something that you would continue to 
watch out for, if confirmed at this position?
    Dr. Carter. Absolutely.
    Senator Lee. It was reported on February 2nd, just a few 
days ago, that Iran successfully placed another satellite into 
orbit using a two-stage rocket. Do you think that continued 
development of Iranian ballistic missile technology presents a 
threat to the United States, and if so, what do you think we 
ought to do about it?
    Dr. Carter. I do. I think it is a threat not only to the 
United States, but friends and allies in the region, and it is 
just one of the things that Iran is doing that is dangerous.
    With respect to ballistic missiles that could threaten the 
United States, I think that is one of the reasons why we need 
to keep our missile defenses, and especially our ICBM 
[intercontinental ballistic missile] defenses, current, 
capable, and large enough in size to deal with both a 
prospective Iranian threat and the also very real North Korean 
ICBM threat.
    Senator Lee. Thank you.
    As has been noted in several capacities that you have had 
within the Department of Defense, including most recently as 
the Deputy Secretary, you have had to confront the issue of 
sequestration. Now many of us, including myself, did not want 
sequestration to hit. I voted against the Budget Control Act in 
part because I didn't think that we ought to be putting this 
burden disproportionately on the Department of Defense as we 
were.
    None of us wanted the super committee to not come up with a 
solution even after that happened, and many of us hoped that it 
wouldn't come to that. Of course, it did.
    One of the lessons that I think we learned from 2 years ago 
is that while it is good to hope for the best, we also have to 
prepare for the worst. What can you do to make sure that we are 
not caught flatfooted and that we are ready for anything that 
we have to confront on that issue?
    Dr. Carter. We need to continue to adapt our plans to the 
resources we are given. My own view is that we have made 
adaptations over the last few years to our strategy to 
accommodate the budget squeeze that are getting to the limits 
of what it is safe to do, and that is why I really want to see 
an end to sequester.
    We need to do more to spend the defense dollar better, and 
I am all for that as well. But it is also basically the truth 
that we are getting to the point where we have bent the 
strategy, as the phrase goes, and I don't think it is safe to 
keep bending it.
    Senator Lee. Thank you. I see my time has expired.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Kaine, but before Senator Kaine, I 
would like to announce that we will break after Senator Kaine 
and then Senator Graham. There is a vote at 2:30 p.m. We will 
reconvene at 2:45 p.m. for the benefit of the few remaining 
Senators and any second round that any member wants. We 
appreciate your patience, Dr. Carter.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman. Thank you, Dr. 
Carter, for your strong testimony today.
    The chair and the ranking member in their opening comments 
put the issues on the table, and I want to just focus on two of 
them, the elimination of ISIL and Afghanistan. Senator Donnelly 
asked if the elimination of ISIL should be the goal. We all had 
the experience, as Foreign Relations Committee and SASC [Senate 
Armed Services Committee] members yesterday, of visiting with 
King Abdullah at a very emotional and difficult time.
    I was struck by something he said to us. He said, look, we 
need you desperately. However, this is a fight that is the 
region's fight. If we are not willing to stand up against 
extremism in the region, there is no amount of outside forces, 
as powerful as they can be, who will be able to beat this 
fight. He really took ownership of it in a way that I thought 
was pretty courageous.
    Do you think it is possible for the United States military 
to eliminate ISIL on our own or even with other Western nations 
if the region doesn't go all in to combat the homegrown 
jihadism that is exemplified in its most brutal form by ISIL?
    Dr. Carter. We have to have regional partners because we 
have to make sure that the defeat inflicted upon ISIL is a 
lasting defeat, and for that, there needs to be conditions 
created where ISIL is now occupying territory that don't make 
it a breeding ground for victory for that kind of, what is the 
right word, malignant and vicious kind of terrorism.
    The United States involvement is, I believe, essential. It 
is necessary, but it is not sufficient to have lasting victory.
    Senator Kaine. I would share your view, necessary, 
essential, not sufficient. It is still my hope that the White 
House will send to us a draft authorization for use of military 
force. I think after the President's comments in the State of 
the Union, that seems more likely. I don't think this is a war 
that can be waged in perpetuity, without Congress weighing in 
and putting our thumbprint on the mission and saying that if we 
are going to ask people to risk their lives in the mission, 
Congress is going to debate and vote and authorize it.
    If we have that debate about the American role, one of the 
things that I think is notable if, in fact, the region has to 
go all in against the ISIL threat, so far 80 percent of the 
airstrikes that have been carried out against ISIL have been 
United States flown.
    Jordan has been rock solid in doing a lot of airstrikes. 
But the other nations in the region that seem to be directly 
threatened by ISIL, much more directly even than we are 
threatened by ISIL, I think have really not, other than being 
associated with the coalition, I don't think they have really 
stepped forward in showing--and been willing to show that they 
are going all in against this threat, which should be an 
existential one. I think that is going to be the subject of 
some significant debate if we get into a discussion on 
authorization.
    Now second, Dr. Carter, on Afghanistan, I completely agree 
with Senator McCain, the chairman's point in his opening. I 
really hope we have a conditions-based strategy and not a 
calendar-based strategy.
    Now I think it is okay to have a plan, and you indicated a 
plan is a plan. You can adjust the plan based on the current 
reality.
    Senator King and I were in Afghanistan in October and 
talked with General Campbell, and it seemed like after those 
discussions, the White House did adjust the plan once already. 
There were some ideas about the way U.S. forces would be used 
in calendar year 2015 that after hearing from General Campbell 
and others, I think the White House adjusted the authorities 
granted to U.S. troops during this calendar year, and I think 
that was a conditions-based decision, which was good.
    But I worry for the same reason that you do. We have, at 
the expense of blood and treasure, achieved a lot in 
Afghanistan. The Nation's life expectancy has gone from 44 to 
61 in 10 years.
    My back of the envelope math, I always say 30 million 
people living on an average 17 years longer, that is 510 
million years of human life. That seems like a pretty good ROI 
[return on investment] to me, for as painful as it has been, 
for as expensive as it has been. Why would we want to go 
backward?
    I think in Afghanistan that what we heard when we were 
there was also a little bit of the Iraq worry. Wow, they have 
taken their eye off the ball before because of things in Iraq 
and pulled resources away and that this is the perception in 
Afghanistan. Maybe this is getting ready to happen again, as 
significant a threat as ISIL is and that we need to be at it.
    In Afghanistan, they are a little bit nervous that the ISIL 
threat will pull our attention away and that we could lose 
these gains. I hope in your capacity in this new role, as you 
dig into the plan, as you dig into the daily conditions, that 
we will make the right decision about how to keep the progress 
that we have gained in Afghanistan and that we won't let a day 
on the calendar be the determinant of our policy.
    Thank you, Mr. Chairman.
    Chairman McCain. Do you want to respond to that, Doctor?
    Dr. Carter. Two thousand one hundred and six Americans, 
servicemembers have lost their lives in Afghanistan. 
Afghanistan was the place from which the 9/11 attacks emanated, 
and so I think finishing the job there is very important.
    I have been part of that war in my previous time in the 
Department. It was what I woke up to every morning, and so I am 
very committed to success there. We have adjusted what we have 
been doing continuously as we went along.
    I don't have anything to add to what you said, except to 
remind that the Afghan security forces are what we increasingly 
have trained to provide security on Afghan territory. They are 
going to need support after 2016.
    In the President's budget, about which I will appear before 
you in a few weeks, I understand that there is, if my memory 
serves, $3.8 billion requested for the Afghan security forces 
that carries through the end of 2016. Then a question will 
arise, are we going to stick with them, the Afghan security 
forces?
    It is not just about troops, American troops. It is about 
the overall commitment so that the Afghan security forces can 
keep the peace there after 2016.
    Chairman McCain. Senator Graham?
    Senator Graham. Thank you.
    The idea of Joe Lieberman introducing you is a risky 
proposition, but we will see how that turns out.
    [Laughter.]
    Bottom line, do you agree with the following statement? The 
only reason 3,000 Americans died on 9/11 is that the radical 
Islamists who attacked us could not find a way to kill more of 
us?
    Dr. Carter. That is probably true.
    Senator Graham. If they could, they would?
    Dr. Carter. That is my guess.
    Senator Graham. Yes, I don't think it is a guess. I think 
it is a fact. Do you think ISIL represents a threat to our 
Homeland?
    Dr. Carter. I do.
    Senator Graham. They say they want to attack us. There is 
no reason to believe they are kidding, right?
    Dr. Carter. I agree.
    Senator Graham. The head of ISIL was in Camp Bucca, and he 
said, ``I will see you in New York,'' when he was released.
    Dr. Carter. Right.
    Senator Graham. Everything they have said they would do, 
they have done. One of the things they want to do is hit us. I 
couldn't agree more with Senator Kaine about a regional buy-in. 
If you don't get that, the structural problems really don't 
change.
    But it is just not about the region. The reason I am 
worried about ISIL is because I think they want to hit us. They 
have the best platform I have seen since 9/11 in Syria and Iraq 
to attack the United States. They hold a large territory. They 
are rich. They have a lot of crazy people under their control, 
and they mean it when they say they want to hit us, and I want 
to make sure they don't.
    Do you think al-Nusra wants to hit us?
    Dr. Carter. I do.
    Senator Graham. They recruited a guy from Florida who was a 
suicide bomber I think in Syria. He came back to Florida before 
he actually became a suicide bomber. They are trying to hit us, 
too.
    Do you think AQAP [al-Qaeda in the Arabian Peninsula] wants 
to hit us?
    Dr. Carter. Very definitely.
    Senator Graham. Very definitely. They are the people that 
hit us in Paris.
    Do you think the Iranians have to believe that a military 
option is on the table during these nuclear negotiations?
    Dr. Carter. Absolutely.
    Senator Graham. If they don't, we are making a huge 
mistake, right?
    Dr. Carter. Absolutely.
    Senator Graham. Do you think the Russians are being 
provocative at a time when the world is already in chaos?
    Dr. Carter. Yes.
    Senator Graham. Do you think that a cyber Pearl Harbor is a 
potential threat we face?
    Dr. Carter. Absolutely.
    Senator Graham. And we are not ready for it?
    Dr. Carter. I agree with that also.
    Senator Graham. Do you think China is intimidating their 
neighbors?
    Dr. Carter. Certainly trying to.
    Senator Graham. Can you tell me in light of all of this, 
why in the hell would Congress be devastating the military 
budget? Can you explain that to me because I can't explain it 
to myself?
    Dr. Carter. No, I can't. No, I can't. As I am a 
longstanding opponent, I am against sequester.
    Senator Graham. Yes. I left out a bunch of threats because 
I just have 5 minutes. Canada is in good shape, by the way. We 
appreciate Canada being a good neighbor.
    In 2017, the plan on the table now is to have 1,000 troops 
left in Afghanistan, Kabul based. Do you agree with me, given 
the conditions that exist in the region, the likelihood of a 
reemergence of al-Qaeda and other terrorist groups along the 
Pakistan-Afghan border, we would be wise to have troops outside 
of Kabul?
    Dr. Carter. That is not the plan now, Senator.
    Senator Graham. Can you please tell me why I am wrong? It 
is the plan to go down to 1,000 by 2017. They increased the 
number of troops in 2015, but it is the plan. If you are going 
to be Secretary of Defense, you need to understand the plan. 
The plan is to go to 1,000.
    I think that is beyond unwise. That will destroy our 
ability to see, hear, and listen to what I think is a 
reemerging threat along the Afghan-Pakistan border. If I am 
wrong about the plan, please correct me. This is something you 
can go home and check out for yourself.
    Dr. Carter. No, I think you are correct--I think you are 
correct about the plan.
    Senator Graham. Yes, that plan needs to change.
    Dr. Carter. That is the understanding I have of the plan.
    Senator Graham. If it doesn't, we are incredibly stupid as 
a nation. I want to withdraw from Afghanistan responsibly. I 
want lines of defenses over there so they don't come here. 
Doesn't that make sense?
    Dr. Carter. It does make sense.
    Senator Graham. I am glad Afghans are living longer. I am 
glad that Afghan girls are going to school. I am proud of what 
we have accomplished. But I am worried about Americans living 
longer. The reason I want to continue to invest in Afghanistan, 
the reason I want to deal with ISIL and al-Nusra and all the 
other groups is because they are trying to hit us.
    Do you agree that the only way you can deter radical 
Islam--you can't deter it, you have to prevent the attack 
before it occurs?
    Dr. Carter. Sir, I can't give a simple answer to that.
    Senator Graham. They don't mind dying.
    Dr. Carter. I think that a comprehensive counterterrorism 
strategy begins foremost with defenses but has other dimensions 
as well in terms of removing the conditions that create safe 
havens and some of the ability for recruiting of terrorists. It 
is a complex issue. But protecting ourselves needs to come 
first.
    Senator Graham. I will close with this. To me, it is not 
complex. The only way you can keep them from coming back here 
to America is to stay over there, disrupt their operations. 
Keep them on the run. Do not let them gather strength. Make 
them poor, on the run, and less entrenched.
    I will end with this thought. Syria. How in the world are 
we going to dislodge ISIL from Syria without a ground 
component? I agree with Senator Kaine that that ground 
component has to be regionally based.
    We just came back from the region. People want to go in. 
Saudi Arabia said you could have our army. The Emir of Qatar 
said we will pay for the war, but you have to deal with Assad.
    How can we train up a Free Syrian Army or send any other 
force into Syria if we don't first deal with the Assad air 
threat? How in the world could you train somebody to go fight 
ISIL, and then one day they turn on Assad and not expect him to 
kill them before they get the capacity to come after him one 
day? How does this work without dealing with Assad?
    Dr. Carter. Senator, let me say something about that. It is 
a very important question. The situation in Syria is, as you 
indicate, more than a problem of ISIL. It is a problem of the 
Assad regime as well. The forces that we are supporting there 
have, first and foremost, the job, as we have discussed here 
this morning, of defeating ISIL.
    But I believe that they also need to be creating the 
conditions for the removal of Assad. That is a much more 
complex task. I understand that. I am not trying to 
oversimplify it. But I think that has to be at the end of the 
road, and if that is what you are pointing to, I completely 
agree with you.
    Chairman McCain. Could I just say you really didn't 
respond, in all due respect, Dr. Carter, to sending young 
Syrians in, training them in Saudi Arabia and sending them in 
to Syria to be barrel bombed by Bashar Assad. The morality of 
that alone, much less the unworkability of it, is in 
contradiction to everything the United States ever stood for or 
fought for.
    I hope you will rethink your answer to Senator Graham's 
question. This idiocy of cooperating with the Iranians and also 
taking ``ISIL first'', of which Bashar Assad is the father, is 
nonsense and, as I say, immoral.
    The committee will return at 2:45 p.m., since there is a 
vote at 2:30 p.m. Members who seek a second round or those 
members who have not had the opportunity to ask questions will 
be allowed to at that time. We will stand in recess until 2:45 
p.m.
    Thank you.
    [Whereupon, at 12:23 p.m., the committee recessed, to 
reconvene at 2:47 p.m., the same day.]
    Chairman McCain. Thank you, Dr. Carter, for your patience. 
As usual, with the efficiency of this well-oiled machine, we 
have a vote now starting now, so we will be going back and 
forth.
    Senator King is here, and so I would like to recognize him 
at this time.
    Senator King?
    Senator King. Thank you, Mr. Chairman.
    Dr. Carter, I am going to revisit a little bit of the 
ground that we covered this morning. But I want to make a 
suggestion. I would urge that you, upon your assumption of this 
position, undertake an all-agency review of the policy with 
regard to the leaving of Afghanistan and talk to General 
Campbell, the military people, the intelligence people, and the 
State Department. Because like many of the members here, I am 
gravely concerned that we will miss an opportunity to preserve 
what we have gained in Afghanistan.
    I was going to say we are in danger of fumbling the ball on 
the 5-yard line. I think a better example might be we are in 
danger of throwing a pass when you have Lynch in the backfield 
on the 1-yard line. But we have gained a lot, and to lose it in 
the end because of an accelerated departure schedule that 
doesn't really fit the requirements on the ground I think would 
be tragic.
    We have a partner that wants to work with us now. We have 
the security forces that are standing up and taking casualties, 
but they are going to need some additional support, 
particularly in the authorities under our air system. I would 
urge you to have such a review and to really be very strong 
with the White House.
    You mentioned that you will be candid. I hope you will be 
candid to the point of being annoying. What is the worst thing 
they can do? Appoint you to be Secretary of Defense. Please, I 
think this is of some urgency.
    Number two, in answer to a question, you mentioned that you 
were inclined to support additional arms to Ukraine. I share 
that position.
    On the other hand, we don't live in a static world, and the 
danger is we supply arms, Putin sees those arms and matches 
them and raises us, to some extent. I wondered, with your 
history of studying geopolitical issues, strategy, and the 
like, if you could elaborate a little bit on that challenge?
    If we could arm the Ukrainians and give them some strategic 
advantage, I think that would be great. The problem is we can't 
rely on the Russians not responding in some way, and then you 
are in an escalation situation. Your thoughts, please?
    Dr. Carter. Thank you, Senator.
    I like and remembered, and I think I have used 
subsequently, your expression ``fumbling the ball on the 5-yard 
line''. I was superseded by the Super Bowl metaphor, I 
understand. But this is a war that we have carried all those 
yards, and so I will--
    Senator King. With some very substantial progress.
    Dr. Carter. Yes. Very substantial progress. We now have a 
partner in Ashraf Ghani that is very positive. I promise you I 
will keep working at it, keep an open mind, and tell it like I 
see it, yes, in Afghanistan.
    With respect to Ukraine, you raise an excellent question, 
and I think it is true that in strategy and working on these 
international problems, you always have to ask yourself not the 
next step, but what is the step after that? What happens after?
    To your question, two observations, Senator. One is that I 
think that much as I incline in the direction I indicated this 
morning, the economic and political pressure on Russia has to 
remain the main center of gravity of our effort at pushing 
back, and the Europeans are critical to that. European 
solidarity and NATO solidarity are critical in this regard, as 
they are to all of European security and to dealing with the 
problem of Putin.
    The other thought that comes to mind is that this is, as I 
consider what kinds of assistance we may give to the Ukrainian 
military, one does need to think two and even three steps ahead 
in this matter. Your point is very well taken, and I thank you.
    Senator King. I would suggest an article in yesterday's 
Financial Times. It talks about just this issue that I think 
you would find interesting and informative. I am not expressing 
a conclusion, but I just think we have to think hard about, as 
you say, one, two, three, and four steps down the chess game.
    A final point, and I am close to out of time. I want to 
reiterate, I think Senator Shaheen mentioned, the chairman very 
articulately and forcefully expressed the problem with 
procurement and money. I am also focused on the problem with 
procurement and time.
    Senator Inhofe had a chart recently from DARPA [Defense 
Advanced Research Projects Agency] that showed in 1975 it took 
about the same time to bring a new automobile, a new commercial 
aircraft, and a military aircraft from concept to operation, 
about 5 1/2, 6 years. Today, those lines have wildly diverged, 
and the automobile is down to 2 years. Commercial aircraft is 
up to about 7, but a military aircraft is up to 23 years.
    That just won't do in terms of, you know, we are going to 
be building obsolete technology. I would urge you, as you focus 
quite rightfully on cost, to also look at how do we bring these 
products to market, if you will, or to operability in a shorter 
time? A, so we can meet the needs of the exigencies of the 
moment, but also so that we are not getting obsolete technology 
just because of the lapse of time.
    I know you are aware of this. I just urge you to focus on 
that as well as the cost.
    Dr. Carter. I will do so, and I completely agree with you.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Dr. Carter. Thank you.
    Chairman McCain. Thank you, Senator King.
    Dr. Carter, every member of this committee signed a letter 
to Secretary Hagel and Secretary Kerry concerning this issue 
that has been raised with you about the Jordanians and the 
needs that they have. Believe me, every member that met with 
King Abdullah was deeply moved by the requirements that he has 
and his inability to do so.
    Finally, on the issue of Ukraine, what does it take? Do 
they have to send in hundreds of more tanks that the Ukrainians 
have no weapons to defend themselves? There are 4,000 dead now. 
How many more do you think before we at least do them what 
seems to be common decency, giving them the ability to defend 
themselves?
    Certainly, Vladimir Putin has gone literally all in, and 
there is some lessons of history, sir, that of dictators and 
bullies who have troubles domestically have a history of 
striking out and being more aggressive in order to divert 
attention. This is reminiscent of the 1930s to me, and Neville 
Chamberlain might be proud.
    Senator Tillis?
    Senator Tillis. Thank you, Mr. Chairman.
    Thank you, Dr. Carter.
    First, I think it is very clear with the questions that are 
being asked today, this hearing really isn't about Ash Carter. 
I think there is a lot of confidence in your ability, and I 
think there are few public servants as qualified as you for the 
nomination. I think you and your family should be very proud.
    I appreciate the time that you and I spent in my office. I 
think that we have already several points of agreement, whether 
it is acquisition reform, training, or modernization of 
business practices in the Pentagon. I look forward to working 
with you on that and making progress.
    I also think that defense is an area where you even see in 
the questions where there seems to be a consistent message from 
most of the members up here about our concerns with the safety 
and security of America and the need for us to work together on 
a bipartisan basis. Because if we don't, we fail the thousands 
of young men and women who volunteer to defend our freedom.
    Before I get to a question, I do want to probably echo in 
slightly different terms what Senator Sullivan said this 
morning. There seems to be a disconnect between the reality of 
the threat that we face right now and the way the President 
portrays it in many instances, most recently with the State of 
the Union.
    We have Ukraine is ablaze. I think ISIL and al-Qaeda are 
about as strong as ever. You have Chinese generals talking 
about maybe wanting to settle some millennial scores with their 
neighbors in the Pacific Rim.
    We have a situation where I think Israel feels abandoned, 
and I think the prime minister being called a coward by 
somebody in the White House is unacceptable. We are at a very 
dangerous time right now, I think. I believe that you said it 
very well when you said the number and the severity of the 
threats that we are facing is probably as great as our 
lifetimes, as any time in our lifetimes.
    I believe that you may go into your position maybe in a way 
to where you can work with people in the White House and the 
National Security Council to get them to work with you, to help 
us address, I think, these safety and security problems across 
the world.
    My first question for you also goes back really to the 
State of the Union, where the President seems to continue to 
refuse to call the enemy what they are. How can we fight an 
enemy with an administration that refuses to name them? A 
President who refuses to recognize that there is a huge 
difference between the Muslim religion and the Islamic 
terrorists that we are facing today?
    Do you agree with that strategy, or can you rationalize for 
me why the President seems to continue that position?
    Dr. Carter. Senator, I agree with you that there is a 
difference between the Muslim religion and the kind of 
extremism that leads to terrorism that is the threat and the 
enemy that we are countering. If I understand the reference you 
are making, it is to the President's statements of a few days 
ago, which I interpreted as saying the same thing. Namely, it 
is important for Americans to make a distinction and show that 
they know how to make a distinction between the religion of 
Islam on the one hand and extremists and terrorists on the 
other.
    I don't think, in my judgment, that is to minimize what is 
one of the motivating ideologies of the enemies we face, which 
they will say is tied to their Islamic religion. But I don't 
think that we serve ourselves well as Americans by conflating 
this kind of barbaric extremism with an entire religion.
    Senator Tillis. I have another question. It really has to 
do with you in relation to your predecessors.
    Do you feel you can break through the barriers that Gates 
and Panetta seemed to be very frustrated with? You and I talked 
briefly about the book Secretary Gates wrote. They both seemed 
to have a great deal of frustration in their time in the 
position you will be confirmed with the White House national 
security team and the Pentagon. They left, they seem to have 
left in part in frustration with that.
    I think Senator Gates in his book maybe even called it 
``amateur hour at the National Security Council''. How are you 
going to be different in relating to the Pentagon and the 
President's national security team?
    Dr. Carter. I intend to be what I have always been in all 
the decades I worked in the Department of Defense, which is I 
will be entirely straight and upfront with the President and 
make my advice as cogent and as useful to him in making his 
decisions as I possibly can.
    That is what I can do. That is what I have pledged to do. 
That is what I will do.
    Senator Tillis. Thank you.
    Thank you, Mr. Chair.
    Senator Reed [Presiding]. Thank you.
    Senator Rounds?
    Senator Rounds. Thank you, Mr. Chair.
    Dr. Carter, I appreciated the opportunity to visit with you 
last week, and one of the items that we discussed was the need 
for the long-range strike bomber. In that regard, we discussed 
the fact that it would probably be, what, 10 years from now 
before, under the best circumstances, it may be operational. 
Fair estimate of time?
    Dr. Carter. Yes, although in answering your question, I am 
mindful of what Senator King said just a few moments ago. I 
would rather say ``as soon as possible''.
    Senator Rounds. I understand. In the meantime, we have 
challenges that have to be responded to with other existing 
platforms. One of which, for conventional purposes, is the B-1B 
bomber. I think right now we probably have 62 or 63 in our 
fleet that are operational sometimes.
    I am concerned about readiness right now, the mission 
capabilities of those platforms because those are literally on 
the front lines as we speak. Because of their capabilities or 
multiple types of weapons to be delivered out of that same 
platform, they are being utilized, and they are being worn out.
    I think mission capability is somewhere under 50 percent, 
and I don't have the exact number, but in terms of those 
platforms. I would like you to talk just a little bit, and I 
really would like to give you the opportunity to talk about 
what sequestration has done in terms of mission capability, the 
need that we have for that platform to get us to the next 
generation of strike bombers, what your thoughts are on getting 
back to where we need it, and what the appropriate number of 
operational aircraft should be?
    Dr. Carter. Thank you, Senator.
    You are right. I don't know the specific numbers on the B-1 
at the moment. But in general, sequester has hit readiness very 
hard.
    In the Air Force, I know, for example, in the summer of 
2013, I remember very vividly the Nellis training range, Air 
Force's premier training range, closed in the summer. First 
time in my entire professional life I had ever seen that.
    The first victim of sequester has been readiness, and so I 
can well believe it has affected the B-1, which is an essential 
part of our arsenal, as you indicate.
    Senator Rounds. In your role, and I believe that you will 
be confirmed, what I am looking for is a commitment that these 
men and women that are literally tasked with keeping these 
aircraft operational, that they have your full support to get 
the numbers back up to where they ought to be. Right now they 
are taking out of the bone pile to literally harvest parts off 
to keep those aircraft flying today.
    There has to be a better way to do it. Then if we are going 
to continue to do for the next perhaps 10 years, that you have 
an understanding and a clear commitment that you are going to 
help them get the parts necessary to keep these aircraft 
flying.
    Dr. Carter. I have the same understanding you do of the 
problem, the same commitment you do, and the only thing I would 
say is it is going to take more than my commitment. It is going 
to take money also and ultimately relief from sequester to deal 
with these kind of things. But I see the picture the same way 
you do.
    Senator Rounds. But you are prepared to step in and to 
assist in making sure that those resources are available?
    Dr. Carter. I am.
    Senator Rounds. Thank you, sir.
    Dr. Carter. Thank you.
    Senator Rounds. Thank you, sir.
    Senator Reed. Thank you, Senator Rounds.
    We have concluded all the members present with the first 
round, and I will defer any comments I have until the chairman 
has a chance. Senator Wicker, you are recognized.
    Senator Wicker. Thank you.
    How are you feeling, Dr. Carter?
    Dr. Carter. Thank you for asking. I am fine. Appreciate it, 
sir.
    Senator Wicker. You are doing well, and we appreciate your 
willingness to serve.
    According to NATO guidelines, we ask our NATO allies to 
devote at least 2 percent of their GDP [gross domestic product] 
to defense. This has been a stunning failure, actually. Only 
four countries spent that much in 2013, Estonia, the United 
States, the United Kingdom, and Greece.
    Do you have any ideas about how we can do better in this 
regard?
    Dr. Carter. Secretaries of Defense that I have served for 
almost as long as I can remember have pleaded with the 
Europeans to spend more on their own defense, our NATO allies. 
With very few exceptions, those pleas have not been fully 
heeded.
    One doesn't wish adversity on anyone, but one would hope 
that when they look at Russia, when they look at the Charlie 
Hebdo incidents and so forth, that the European public will 
come to share the view that they need to be part of their own 
defense and continue to play the role that Europe has always 
played, of being a partner with the United States in keeping 
peace and order around the world.
    I regret that they are not spending as much as they used 
to. Again, I don't wish adversity upon anyone, but I hope that 
what they see around them reminds everyone you don't get this 
stuff for free. Security doesn't come for free. You have to pay 
for it.
    Senator Wicker. One would hope. I hope you will, going 
forward, help us think of perhaps carrots and sticks and 
incentives to have our allies shoulder their part of the 
burden.
    I was talking, we had a great discussion with General 
Scowcroft the other day. I asked about what we would do about a 
Russian invasion or incursion into the Baltics. We are a treaty 
ally of Ukraine. We were unable to do anything. We were unable 
to do anything when the Russians moved into Georgia.
    But with a NATO ally, it really is different. General 
Scowcroft mentioned tripwires, stationing troops in the Baltic 
countries, both from the United States and from our NATO 
allies. What do you think of that concept? Is it something you 
have given any thought to, Dr. Carter?
    Dr. Carter. I have, and it is one I support. I believe it 
is the intention--again, I don't know this. I am not in these 
deliberations. I think it is the intention behind the 
rotational introduction of United States and other NATO forces 
into the Baltic countries, to reinforce deterrence and to 
reinforce the principle that this is NATO and that Article 5 of 
the NATO treaty says an attack on one is an attack upon all.
    Senator Wicker. Absolutely.
    Dr. Carter. That is a very important principle, and we need 
to stand behind that and show that we are going to stand behind 
it. I think that is the meaning of the tripwire concept that 
General Scowcroft was thinking of.
    Senator Wicker. If we don't stand behind our word on that 
article, then our word really does mean nothing.
    Let me ask you this in conclusion. How was Cap Weinberger 
to work for?
    Dr. Carter. I enjoyed working for him. I was not at a very 
senior level, but what I did for him was advise him on space, 
missile defense, nuclear command and control, and the early 
days in those days of what are called the continuity of 
government efforts, which still continue. We were just 
beginning to put them together at that time.
    Senator Wicker. What do you think he would say about our 
defense posture at this point?
    Dr. Carter. Secretary Weinberger was an enormous backer of 
defense spending and of the defense budget, and he was tireless 
in explaining the need for an adequate defense. In that 
respect, he was a lot of fun to work for.
    Senator Wicker. Yes, he wouldn't be overly delighted with 
sequestration and with the current funding level and proposed 
funding level going forward?
    Dr. Carter. Not at all.
    Senator Wicker. Thank you very much. Good luck to you, sir.
    Dr. Carter. Thank you. Thank you, sir.
    Senator Reed. Senator King?
    Senator King. I went before the vote.
    Senator Reed. This is the second round, Senator, if you 
have additional questions.
    Senator King. Oh, I am sorry. I was surprised to get called 
upon so soon.
    Let me go back to the question that we ended with about the 
timing of weapon systems. You were one of the fathers of the 
MRAP program, were you not? It seems to me that could be a 
model for what we are talking about.
    Could you share lessons learned in that project that might 
be applicable to other procurement projects?
    Dr. Carter. Yes, I think you put your finger on it, which 
when you pointed to the critical variable in a program being 
its duration. That is important for two reasons, and you 
indicated this already, Senator, but just to reiterate. Time is 
money. A 15-year program is going to cost more than a 10-year 
program, the way we do things. Cost control, it is essential.
    But the MRAP example points to something even more 
important, which is technology changes very quickly. Our 
enemies change very quickly today, and you don't have to be in 
a war, which the MRAP example occasions, to understand that we 
need to be able to turn the corner, add new technology to 
systems, field new systems more quickly than our opponents are 
doing the same.
    If we have a 15-year timetable and we are competing with 
any modern economy around the world, the same thing is going to 
happen to you if you are a commercial company that has a 15-
year product cycle. You are going to lose.
    I think it is very important not just for cost control, but 
in order to remain the best military in the world that we turn 
the technological corner more quickly. The MRAP example and the 
war's example gave me at least a lot of ideas about how we can 
do that even in peacetime.
    Senator King. I think part of it is instilling a sense of 
urgency in all the way up and down the line. I mean, the 
accomplishments of this country during World War II under 
extreme duress in terms of production were astonishing where I 
live near Bath, Maine.
    I can't remember the exact figure, but I think they turned 
out a destroyer during World War II something like once every 
17 days, which is unbelievable. Granted, it was a much simpler 
machine then than now, and the story of the bombers in World 
War II is also quite extraordinary.
    I think there has to be a sense of urgency. We are if not 
directly at war, we are certainly close to war footing on a 
number of fronts, and that should inform. As you pointed out, 
this isn't the Cold War, where you can do things with a 5-, 10-
, or 15-year lead time. Our asymmetric advantage is technology.
    If we are unable to deploy that technology on a timely 
basis, we are basically losing that advantage. I, again, very 
strongly urge you to follow on that. By the way, Frank Kendall, 
who is in your office, I think is a star, and I hope you are 
going to keep him.
    Dr. Carter. I can't resist seconding that emotion. Frank 
was my Principal Deputy when I was Under Secretary, and we are 
very lucky to have an acquisition executive like Frank.
    Senator King. My philosophy of leadership, which applies to 
this case, is hire good people and take credit for what they 
do. Frank falls into that category.
    Second question. How do we get more value out of our allies 
in terms of support for the work that we are doing? I 
understand that in many countries of Europe, defense as a share 
of GDP is actually going down, which it is here, too. But it is 
going to 2 and less than 2 percent.
    Is that part of your mission is to encourage our allies to 
contribute more to this what is really the common defense?
    Dr. Carter. I think they need to spend more on their own 
defense because their own defense is also our defense. That is 
what being an ally is about. I would like to see them carry 
their full weight of being an ally, and as I indicated earlier, 
I don't see how any American can be satisfied with the general 
level of defense spending among our European allies. I think it 
should be higher.
    Senator King. Finally, and I realize my time is running 
short, but it seems to me that one of the great strategic 
challenges of this moment is to enlist Muslim countries and 
Arab countries in the fight against ISIL. They have to realize, 
and I think the events of yesterday may be a galvanizing 
factor, but they have to realize that this has to be their 
fight.
    If it is our fight, that is what ISIL wants. They want this 
to be the West against Islam. But the fact that they did this 
horrendous murder yesterday of one of their brothers, of a 
Sunni Muslim, I hope will be a wakeup call to the Muslim world 
that they have to deal with these guys most directly. Not 
simply by holding our coat, but by contributing and being 
involved on the ground, in the air.
    This has to be their fight ultimately. It is not one that 
we can carry on by ourselves.
    Dr. Carter. Absolutely.
    Chairman McCain [Presiding]. Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Dr. Carter, thank you for joining us. I enjoyed having the 
opportunity to visit with you in my office.
    Dr. Carter. Thank you. Likewise.
    Senator Cruz. I appreciate your many years of service to 
our Nation.
    Dr. Carter. Thank you.
    Senator Cruz. I appreciate your willingness to serve in 
this incredibly important role at a time of great challenges, 
great threats, and also at a time, unfortunately, when the 
Defense Department faces significant challenges internally.
    I have for some time been critical of the Obama 
administration's foreign policy, that it has lacked a steady 
mooring and a focus on the very real national security threats 
facing the country. I would like to take the opportunity to 
briefly discuss a few of those threats with you and get your 
thoughts on them, and I want to start with the threat of Iran 
acquiring nuclear weapons capability.
    In your judgment, what would be the national security 
implications to the United States if Iran were to acquire 
nuclear weapons?
    Dr. Carter. Thank you, Senator.
    In a phrase, ``exceptionally grave,'' and that is for two 
reasons. First of all, they might use them. But second, their 
having them is likely to stimulate yet others to get them. For 
both those reasons, very grave.
    Senator Cruz. Let us perhaps expand on each of them. What 
is it about the regime and Iran that poses a significant threat 
of their actually using nuclear weapons if they had them?
    Dr. Carter. If you take at face value what they say, they 
have the ambition to wipe off the map other states in the 
region, namely Israel. They have a long history of behaving in 
a disruptive way, of supporting terrorism, of trying to 
undermine other governments of operating around the world.
    I think they give abundant evidence that they are not the 
kind of people you want to have having nuclear weapons.
    Senator Cruz. Would you agree as well that with radical 
religious extremism, ordinary notions of deterrence and cost-
benefit analysis don't always apply?
    Dr. Carter. I am concerned that that is the case with 
people who are extremists of that kind, yes.
    Senator Cruz. Now, Dr. Carter, you also talked about the 
threat of nuclear proliferation and in particular the threat 
that other Middle East countries in response to Iran acquiring 
nuclear weapons capability would then feel the need themselves 
to acquire the same. For some decades it has been a matter of 
pretty widespread public knowledge that the Nation of Israel 
has nuclear weapons capability.
    Yet throughout that time, Israel's Arab neighbors have 
expressed no burning desire to acquire their own nuclear 
weapons, apparently because they don't perceive any meaningful 
threat that Israel would use those weapons in an offensive 
manner. Yet the Arab neighbors of Iran are reacting 
qualitatively different to the prospect of Khamenei and the 
mullahs acquiring nuclear weapons.
    They are saying, almost without exception, if Iran acquires 
those weapons, they would immediately need to get their own. 
What does that say about the judgment of Saudi Arabia and other 
countries in the region about the magnitude of the threat posed 
by Iran?
    Dr. Carter. I think it tends to read for us what we were 
just saying, namely the prospect of Iran having a nuclear 
weapon is a pretty fearful matter, and you don't have to be 
just an American or an Israeli to get that idea.
    Senator Cruz. Would you then agree that the consequences of 
getting these negotiations wrong that are ongoing or the 
consequences of these negotiations facilitating and allowing 
Iran to acquire nuclear weapons capability would be severe, 
both from the perspective of the Middle East and our allies, 
but also from the perspective of our own national security?
    Dr. Carter. Yes, the negotiations have precisely the 
opposite objective.
    Senator Cruz. Let me ask you also briefly about ISIL. How 
would you characterize our objective right now with regards to 
ISIL?
    Dr. Carter. To inflict a lasting defeat upon ISIL. I only 
add the word ``lasting'' to reinforce the idea that once they 
are beaten, they need to stay beaten, which means you need to 
create the conditions in, in this case Iraq and Syria, so that 
they stay defeated.
    Senator Cruz. Okay. A final question. In your professional 
judgment, what would be required militarily to destroy or, as 
you put it, inflict a lasting defeat on ISIL?
    Dr. Carter. Militarily, it would be the dismantlement of 
their forces and their networks. To get to the point about 
lastingly, there is a political ingredient of this, which I 
need to add, which is to have them replaced in Iraq and in 
Syria with a government that the people want to be part of, and 
so they don't have to be governed by maniacs and terrorists.
    Senator Cruz. Thank you, Dr. Carter. My time has expired.
    Dr. Carter. Thank you, Senator.
    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you for your longstanding and extraordinarily 
valuable service to our Nation.
    Dr. Carter. Thank you, Senator.
    Senator Blumenthal. I am prepared to overlook your 
deserting the Kennedy School at Harvard to go to Stanford, and 
I hope you will let us know if your back requires you to stand 
up or take a break.
    Dr. Carter. No, I am fine. Thank you for your 
consideration.
    Senator Blumenthal. I will take it out of my time.
    I want to begin with a couple of brief questions, and I 
hope I won't retrod the ground that you have already covered. 
From the conversations we have had, I assume that you will 
continue to back the current full support for two submarines a 
year in the construction of our Virginia-class submarines, and 
the ongoing R&D [research and development] and other programs 
necessary for the Ohio-class?
    Dr. Carter. I will, because undersea superiority is one of 
our key advantages, and we need to pursue it.
    Senator Blumenthal. It is one of those areas where, in a 
sense, we need to be on a war footing because we need to be 
prepared and ready, and the surveillance and intelligence 
functions, as well as the deterrent capabilities, are essential 
to our National defense. Am I correct?
    Dr. Carter. Absolutely.
    Senator Blumenthal. Let me move to another area that is 
very close to my heart, and I again want to thank our chairman, 
Senator McCain, who joined with me in cosponsoring a measure, 
the Clay Hunt Suicide Prevention Act. Suicide remains a 
difficult and daunting, horrific problem not only among our 
veterans--22 every day commit suicide--but also in our Active 
military.
    You and I have talked about this problem. I believe you are 
very much attuned to it, and I am hopeful that you will 
continue the military's commitment and the Department of 
Defense's commitment to providing the mental healthcare that is 
necessary to help our warriors deal with these invisible wounds 
and demons that come back from the battlefield with them.
    Dr. Carter. I am attuned to it, and they are our people, 
and we need to care about them and care for them. Those who are 
having these kind of thoughts need help.
    Senator Blumenthal. On the issue of our veterans who have 
suffered from post traumatic stress, as again you and I have 
discussed, your predecessor, Secretary Hagel, worked with me, 
responded to my urging him to establish a new policy guidance 
on September 3, 2014, that finally directed proper 
consideration of post traumatic stress by the Boards for 
Correction of Military Records when considering upgrade 
requests.
    Post traumatic stress was unknown in the Vietnam and Korean 
eras, not unknown because it didn't exist, but unknown because 
it wasn't diagnosed. This new policy gives proper recognition 
to a medical condition that simply was never diagnosed at the 
time but may have caused less than honorable discharges.
    I hope that, if confirmed, you will ensure full and 
forceful implementation of this policy and continue outreach, 
because it is so vitally necessary, outreach to anyone who may 
be eligible to apply under the new guidelines.
    Dr. Carter. I will. We have learned a lot about that, 
sadly, in recent years and understand now a lot better that it 
truly is a malady that we can and need to address.
    Yes, and thank you for taking an interest in it, as you 
have done about the welfare of the troops in so many other 
ways. In the course of the war, I was always very grateful for 
your attention to the well-being of the troops.
    Thank you.
    Senator Blumenthal. Thank you very much. I should probably 
stop there, but I do have a couple more questions. I really 
appreciate your kinds words.
    On the interoperability of the Department of Defense and 
the Veterans Administration, I am the ranking member on the 
Veterans Affairs Committee of the Senate, and I think there has 
been an ongoing concern, you are aware of it, of the issues 
relating to the integrated electronic health records, 
integrated disability evaluation system, treating military 
sexual trauma, other shared efforts that really involve a gap 
between these two great departments, each with a vital mission.
    I am hoping that you will continue the effort that your 
predecessor, I think, believed was very important to close that 
gap and make sure that there really is the kind of connection, 
the vibrant, vital connection that is important to our troops 
and then to our veterans.
    Dr. Carter. I recognized that gap, and there is only one 
soldier. There are two Cabinet departments. One soldier 
shouldn't have to worry about two Cabinet departments.
    Senator Blumenthal. Thank you.
    Thanks, Mr. Chairman.
    Chairman McCain. Thank you. I would mention to my 
colleagues we are now into the second round of questioning. In 
deference to Dr. Carter's health, I would request that we be as 
succinct as possible, but I want everyone to have a chance to 
continue questioning, if you are all right, Doctor?
    Dr. Carter. I am, sir. Absolutely.
    Chairman McCain. I will forego.
    Senator Reed?
    Senator Reed. I will just pass.
    Chairman McCain. All right. Next is Senator Cotton.
    Senator Cotton. I would like to discuss the transfer of 
five Taliban commanders at Guantanamo Bay for Private Bowe 
Bergdahl. Knowing what we now know about the attempted 
recidivism of one of those Taliban members, as well as the 
ongoing investigation into Bowe Bergdahl's conduct in 
Afghanistan, do you think that it was a correct decision to go 
forward with that transfer?
    Dr. Carter. First of all, I don't know the circumstances. I 
have read the newspaper reports, but I don't have any other 
information about these individuals.
    What I do know is this. I wasn't in Government at the time 
the decision was made, but I have read the letters from all the 
Joint Chiefs of Staff to Senator Levin on this matter, all of 
whom express support for the decision. I don't want to speak 
for any of them, but just speaking for myself, it really boiled 
down to one thing, which you very much from your own 
distinguished service understand.
    Just to say it, it is that we have for decades and decades 
and decades gone back decades and decades and decades in time 
to battlefields to bring home our fallen. It is a sacred duty 
to bring back our fallen.
    That was the motivation that the chiefs cited as motivating 
their support for the Bergdahl decision. It obviously was a 
difficult decision to make because of the five people that you 
now cite. But they supported the decision, and based on what I 
know about the circumstances as they were known at the time, I 
would have supported the decision as well.
    Senator Cotton. I opposed it then, and I would oppose it 
now. We didn't leave Bowe Bergdahl behind. The thousands of 
soldiers who went after him trying to find him who faced enemy 
fire trying to locate him were not leaving him behind.
    You are right that they tell every soldier, sailor, airman, 
and marine that they won't leave us behind. But that doesn't 
mean they will trade five stone-cold Taliban killers for us.
    When this transfer happened, Congress was not notified as 
required by the law. Can you assure us that in the future, 
Congress will always receive advance notification, as required 
by law, for future releases of Guantanamo prisoners?
    Dr. Carter. I can assure you we will always abide by the 
law. Absolutely, sir.
    Senator Cotton. There have been media reports, most 
recently from Secretary Hagel himself, that he received White 
House pressure to sign off on the certification that Guantanamo 
detainees could be released. There have been reports that Leon 
Panetta even declined to release these five specific Taliban 
members at Guantanamo Bay.
    Can you talk to us about how you might resist such pressure 
if you receive it from the White House when it comes to 
Guantanamo Bay releases?
    Dr. Carter. I sure can. I am going to call it straight. I 
have an obligation under the law with respect to the risk 
associated with transfers of detainees, and I intend to 
discharge that responsibility in a very straight-up way.
    Senator Cotton. Shifting to Bowe Bergdahl, my understanding 
is the investigation is still ongoing into his conduct in 
Afghanistan. Is that your understanding?
    Dr. Carter. That is my understanding from the newspapers, 
but I don't have any inside information.
    Senator Cotton. If confirmed, can you assure us that that 
investigation will proceed without unlawful command influence 
at any level?
    Dr. Carter. Absolutely.
    Senator Cotton. I would like to shift briefly to Russia and 
Ukraine and the implications for the Baltic states. Right now, 
there is fighting going on in Ukraine, much of it is over the 
so-called Minsk line where the forces were supposed to be 
separated since September.
    One technique that Russia used in Crimea, then they used in 
Eastern Ukraine is the so-called ``little green men''. By most 
reports, these are Russian special operations forces, who are 
operating in advance in Crimea and Eastern Ukraine.
    If Russia has uniformed soldiers operating on foreign 
territory without insignia, would that be a violation of the 
Geneva Conventions?
    Dr. Carter. What it is, I just don't know the international 
legal answer to the question you are posing, Senator. But what 
I do know is that is what they have been doing, and I don't 
know. I think the little green men are part of the big lie, the 
big Putin lie, where he is clearly violating the sovereignty of 
a neighboring country and then pretending it isn't him and 
pretending it isn't Russia.
    As far as I understand, it very clearly is Russia. It seems 
to me that is very important. I don't know the legal part of 
it, but the common sense answer is he has violated Ukrainian 
sovereignty.
    Senator Cotton. I believe there is a strong case that it 
would violate the Geneva Conventions to have soldiers operating 
without insignia. Since you said earlier that you would support 
putting NATO forces in Estonia, Lithuania, and Latvia, I would 
say I support that as well, especially recon forces who might 
be on the lookout for little green men.
    Thank you.
    Dr. Carter. Thank you.
    Chairman McCain. Senator Heinrich?
    Senator Heinrich. Thank you, Chairman.
    Dr. Carter, you have spoken quite effectively about the 
need to address runaway costs, needless overhead, waste at DOD. 
I want to touch on the fiscal impact of operating the 
Guantanamo detention facility.
    Maintaining the prison at Guantanamo is costing American 
taxpayers almost $5 billion since it opened in 2002, an average 
of $493 million every year for the last 5 years. In fact, in 
2014, we spent more than $3 million per Guantanamo detainee.
    That compares to about $78,000 per prisoner a year that we 
use to house hardened criminals in the Florence, Colorado, 
supermax prison. Do you intend to review the cost effectiveness 
of continuing to operate the facility at Guantanamo versus 
placing high-risk detainees that need to continue to be 
detained in a more fiscally responsible setting?
    Dr. Carter. Senator, I understand the cost numbers that you 
are citing. They broadly correspond to what I understand. I 
think the issue that Guantanamo will ultimately boil down to is 
what do you do with the people at Guantanamo that they need to 
be incarcerated. If not Gitmo, where are they going to be 
incarcerated? That is a fundamental question that is a very 
difficult one.
    It is partly a legal one and partly a practical one, and I 
don't know everything I would need to know about that. But I 
hope that as time goes on and engaging with members of this 
committee, many of whom know much more about this subject than 
I do, that we can discuss what might be done with these people 
because what is plain as day is that they need to be 
incarcerated, as you indicated, in a supermax-type place.
    Senator Heinrich. Yes, I appreciate that, and I look 
forward to working with you on that.
    As someone who helped draft the Nunn-Lugar legislation, 
which I think was one of the high water marks for legislation 
in the last decades, what is the right approach to preserving 
that nonproliferation infrastructure in the current 
environment?
    Dr. Carter. The Nunn-Lugar program, since those days, has 
moved on to other very important missions. It is less focused 
on Russia and the states of the former Soviet Union than it 
once was. It is now focused globally.
    It has picked up a big focus on biological weapons, which 
are also very fearsome weapons, as well as nuclear weapons. It 
still has a role to play in keeping us safe.
    It is one of those ways that the Defense Department can act 
in its long-term interest to head off threats that were they to 
occur and materialize would be much more dangerous and much 
more costly to have to counter than if we can stop them from 
developing in the first place.
    Senator Heinrich. I appreciate that.
    Back in 1995, we had our Nation's first nuclear posture 
review. At that time, there was some talk about potentially 
transitioning to a monad where land-based missiles and bombers 
might not be utilized.
    We have moved away from that, obviously, in recent years to 
the more traditional triad. What are your thoughts on the 
nuclear triad today, given today's global security environment? 
Is that something you intend to continue to look at? Do you 
think it is meeting the deterrent requirements that we have, 
and just generally, what are your thoughts on it?
    Dr. Carter. I think it is meeting our deterrent 
requirements. I think those deterrent requirements are going to 
be with us as far into the future as I can see, and that is why 
having a safe, secure, and reliable nuclear arsenal and all the 
parts of that that are necessitated is a foundational 
responsibility of the Department of Defense.
    It is not in the newspapers every day. It is not, you know, 
as apparent, I suppose, to many citizens. But it is 
foundational to our security.
    Senator Heinrich. Thank you, Dr. Carter.
    Chairman McCain. Senator Ayotte?
    Senator Ayotte. I want to thank the chair.
    I want to thank you, Dr. Carter, for being in such a 
lengthy hearing and answering so many of our questions. We 
really appreciate it.
    I wanted to follow up on Russia, and specifically in your 
advance policy questions, you had stated that Russian 
deployment of weapon systems that violate the INF [Intermediate 
Range Nuclear Forces] treaty would pose an increased threat to 
the United States and our allies in Europe and Asia. You have 
also written that Russia should return to compliance with the 
INF treaty in a verifiable manner.
    I think one of the problem we are facing as we look at the 
challenges we face, Russia is developing a new mobile nuclear 
ground-launched cruise missile, which is in direct violation of 
that 1987 treaty, which was likely in development even during 
the New START [Strategic Arms Reduction Treaty] negotiations, 
which not only all the behavior we have seen in Ukraine, but 
this makes it harder for us to have these types of 
conversations with Russia and be able to trust anything that 
they say.
    What steps should we be taking in response to Russia's INF 
violation?
    Dr. Carter. Thank you, Senator.
    My answer is not based on any inside information or 
intelligence information, just to be clear, but it is, I am 
told, quite clear that Russia has violated the INF treaty. To 
the question what are we going to do about it? I think you have 
to remind Russia that this was a two-way street.
    That we signed a treaty that said you are not going to do 
this, and we are not going to do it either. If you don't want 
to have that treaty, why then you are absolved from your 
restrictions under that treaty, well, we are, too. What might 
we do, therefore, in a military sense to respond to this 
development if it continues on the part of Russia?
    I think that there are defensive steps that we can take. 
There are deterrent steps that we can take, and there are 
counterforce steps that we can take. We have military options, 
too, if they really want to get into this kind of game. 
Obviously, the judgment behind the INF treaty was that we both 
be better off if we didn't do this. That is why we agreed.
    But these are always two-way streets, and I think they need 
to be reminded it is a two-way street.
    Senator Ayotte. Thank you. I appreciate that very much, Dr. 
Carter.
    I wanted to follow up on two areas. First, on the 
Guantanamo Bay discussion, one of the things that I think is 
important for people to understand is that we are not at the 
moment talking about transfers. We are talking about releases, 
and I think that is an important distinction. Something, 
obviously, as Secretary of Defense, you should be looking at, 
as we talked about earlier, making sure that people can't be in 
a position to reengage.
    One country in particular I want to ask you about, and that 
is Yemen. Last year, I had an amendment that passed on a 
bipartisan basis that would have prohibited transfers to Yemen. 
The situation has gotten markedly worse since that amendment 
passed in this committee. It did not get in the final bill.
    I have 10 pages of incidents in Yemen, and obviously, the 
recent issues with the Houthis, the takeover of the government, 
as well as suicide attacks, et cetera. Do you think it is 
advisable or would you recommend transferring any of these 
detainees to Yemen?
    Dr. Carter. That doesn't sound very sensible in the 
environment in which we are facing ourselves, no.
    Senator Ayotte. I appreciate that. Thank you.
    I also wanted to follow up, in our office discussion, we 
had talked about the A-10. One thing I had asked of you that I 
hope you will do when you are confirmed, and that is, I have 
opposed the Air Force's decision to retire the A-10, 
particularly from what I have heard from our men and women on 
the ground and the fact that it is the best close-air support 
platform for our men and women in uniform.
    We have heard from the association that represents 3,300 
serving, separated, and retired JTACs [joint terminal attack 
controller]. That is the Tactical Air Control Party 
Association, and what they have said about the A-10, ``We 
believe that F-15, 16s, and B-1s cannot replicate the CAS 
[close air support] capabilities of the A-10. And we know from 
combat experience that the elimination of the A-10 before a 
viable replacement achieves full operational capability will 
cost American lives.''
    I asked you in my office, and I would like you to confirm 
again that you are willing to sit down with some of our members 
of this association who, as you know, are the ones on the 
ground calling in the strikes and working with our men and 
women in uniform. They work with all of our platforms.
    Dr. Carter. I remember very clearly. I have the letter that 
you gave me from them, and absolutely, I will.
    Senator Ayotte. Thank you. This is really important.
    I have one other follow-up request that you had graciously 
agreed to in the office as well, and I think that Senator King 
from Maine will appreciate this as well, and that is that you 
agreed to come to New Hampshire. We, of course, at that point 
will obviously love to show Dr. Carter the Portsmouth Naval 
Shipyard.
    Senator King. In Maine, you mean? The one in Maine?
    [Laughter.]
    Senator Ayotte. Where so many of the wonderful workers are 
from New Hampshire.
    Senator King. Thank you.
    Dr. Carter. If confirmed, I would look forward to that.
    Senator Ayotte. Thank you, Dr. Carter.
    Dr. Carter. Thank you.
    Chairman McCain. It is not necessary, Doctor.
    [Laughter.]
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Again, thank you, Dr. Carter, for being here today.
    As a military, we have moved a very long ways away from 
using the old compass and map. Many of our systems now are very 
heavily networked. We rely very much on technology for our 
weapon systems, for our command and control systems, and that 
is really our primary tools for achieving dominance over our 
adversaries on the battlefield.
    But what we are seeing now is cybersecurity threat, cyber 
attacks that are looming out there. A number of countries out 
there, including Russia, China, North Korea, probably many 
others, have very sophisticated means of attacking networks. 
How do you see that impacting our acquisition strategy as we 
move forward, and how do we best protect our equipment, protect 
our personnel moving forward?
    Dr. Carter. I think you said it exactly the way I see it. 
You understand, but perhaps others around the country don't 
understand that not only is our civilian infrastructure 
susceptible to cyber attack, but we have to be concerned about 
our military infrastructure because exactly as you say, there 
is no point in having planes and ships and armored vehicles in 
today's world if the network is itself vulnerable.
    I think, and I hope I can work together, if I am confirmed, 
with this committee on improving our cyber defenses, many 
aspects of cyber. But one is the defense of our own networks in 
the Department of Defense. That is not where it should be in 
terms of making them immune to attack by a potential enemy that 
would impair our own forces engaged with that enemy.
    I agree with you entirely.
    Senator Ernst. Yes, thank you. We rely on networking so 
very much, from the simple ordering of a part for a Humvee to 
targeting enemy on the battlefield. It goes from every level, 
from your squad level all the way up through the ranks.
    Do you have an opinion on this? Just your opinion because 
it is more than just the military and the Department of Defense 
and our network security. We could look at attacks to our 
financial institutions, to our utilities as being a security 
risk for the United States also.
    Do you have an opinion on where the Federal Government 
should be in regards to protecting our national security 
interests versus the privacy of individuals out there that 
might be using the network?
    Dr. Carter. I do. I have some understanding of that issue, 
and I would say that the Federal Government does have a role in 
protecting the country from cyber attack in the same way that 
it has a role in protecting the country from other kinds of 
attack. I think it can do a lot more to exercise that 
responsibility without causing concerns over invasions of 
people's privacy and so forth.
    For example, the Government can share information and 
knowledge it has collected about threats to private networks 
with those private parties, provided the proper legal 
safeguards are provided, which have less to do with privacy 
than they do with things like antitrust and other aspects that 
are important.
    I think that the Government can sponsor and conduct R&D 
that improves the tradecraft in network defense for the good of 
the country. I think there is a lot we can do, and we are not 
anywhere near where we should be as a country.
    I think if we were as unprotected in some other domain that 
was more familiar to ordinary people, they would be clamoring 
for us to do more. I think if people fully understand what you 
understand about how vulnerable we are in cyberspace, they 
would want us to do more, not in any way that compromised 
anybody's privacy, but they would want us to be doing a lot 
more than I believe we are doing now.
    Senator Ernst. Thank you. I appreciate that. I think this 
will continue to be a vexing problem for us moving forward. It 
is a situation we are dealing with in many of our separate 
committees. But I do appreciate your opinion very much.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Dr. Carter, I wanted to go back to the 
issue of Iran for a moment. Under the chairman's leadership, we 
have had some tremendous witnesses over the last 3 weeks 
testifying on strategic challenges and how to think through 
them.
    Dr. Kissinger's testimony in particular was very powerful, 
and he said, as we kind of struggle with these, ``we'' 
collectively in the legislative branch, executive branch, these 
strategic issues and challenges, that we need to ask ourselves 
questions. The first one, and I think in his view the most 
important one, was what do we seek to prevent, no matter how it 
happens and, if necessary, alone?
    I will repeat that. What do we seek to prevent, no matter 
how we prevent it, and, if necessary, alone? In your view, 
would preventing Iran from obtaining a nuclear weapon fall into 
that first category that Dr. Kissinger laid out?
    Dr. Carter. Yes. Yes.
    Senator Sullivan. Okay. Thank you.
    Second, I want to get back to the issue we were talking 
about a little bit earlier, this issue of kind of being 
straight up with not only Congress and the American people on 
our challenges. I think you have been doing that today in your 
testimony.
    Again, I have some doubts that that is happening at the 
highest levels. The President's mention in his State of the 
Union referring to 9/11 and then saying ``The crisis has 
passed.'' I don't think most Americans would agree with that.
    But the discussion today about ISIL and you were talking 
about lasting defeat, it really is actually Islamic extremism 
and the threat it poses to the United States and our citizens. 
What, in your view, is the timeline? Because I think this is an 
issue that really hasn't been discussed.
    Some people think that we are going to declare victory next 
year, 2 years? There have been others who have been saying, no, 
this is much more like the Cold War. Former CENTCOM [United 
States Central Command] commander General John Abizaid talked 
about ``the long war''.
    Where do you see this kind of defeat playing out? If it is 
going to take a long time, maybe a generation, shouldn't we be 
preparing the American people for that, as opposed to saying, 
oh, we are going to defeat ISIL within a year?
    Dr. Carter. I certainly hope that we defeat ISIL quickly, 
but that won't be a lasting defeat necessarily, unless we have 
a political dimension to that defeat as well as a military 
defeat. That won't be the end of terrorism, Islamist 
extremism's terrorism.
    Our experience has been this is a movement that changes and 
morphs and moves around the world. One would like to hope that 
at some point its inherent unattractiveness would cause it to 
burn out, but we can't be confident of that.
    Senator Sullivan. How do you think we should be thinking 
about it from a time standpoint?
    Dr. Carter. I think we need to be thinking about terrorism, 
more generally, as an enduring part of our national security 
mission. I believe that Secretaries of Defense, many in the 
future, even if Islamist extremism, which I certainly hope 
burns itself out at some point, will always be facing the 
problem of the few against the many.
    There are aberrant people out there, and technology in 
today's world gives smaller and smaller groups of people and 
even individuals destructive power that they would never have 
had in previous eras. It is going to be the job of our security 
authorities--defense, law enforcement, homeland security, and 
everything--to protect our people against these people, 
whatever their thinking.
    They may not be thinking in the ISIL way. They may have 
something else on their mind. Or nothing at all on their minds. 
But I do think it is going to be a continuing part of the human 
condition and of defending our people.
    Senator Sullivan. I want to just ask one final question. I 
think one thing that is going to be very important is to 
continue a very strong focus on training. Severe, hard training 
for our troops.
    As you know, in periods of drawdown or changes, as a 
country, historically, we haven't always done this well. We 
talked about this. When you are an infantry officer in the 
Marine Corps, you are strongly encouraged to read this book 
called ``This Kind of War''. I encourage you or your staff to 
take a look at it. It is called ``a study in unpreparedness,'' 
and it shows what happens when you have troops that are not 
trained.
    If confirmed, you are obviously going to have a myriad of 
responsibilities, pressures on you. I would like to get a 
commitment that you will keep as certainly one of your top, if 
not top priorities this issue of training--hard, severe 
training. Because as you know, the best way to ultimately take 
care of the troops is to make sure that they are ready to 
fight, destroy the enemy, and come home safely.
    Can we get that commitment from you?
    Dr. Carter. You absolutely have it. I just would say your 
authoritativeness on that exact subject is very much 
appreciated and respected.
    Senator Sullivan. Thank you.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Dr. Carter, I know we are trying to get you out. I will be 
very brief, but I did want to come back to an issue that you 
and I had a chance to talk about briefly when you came in to 
see me, about the importance of our public shipyards and the 
good work that they do. Senator King, I know Senator Ayotte, 
and I are all very proud of the Portsmouth Naval Shipyard, and 
that you were issued an invitation to visit, which I would 
second.
    We would love to have you come up. While you are at it, you 
can come to Pease Air National Guard Base and see the home of 
the new KC-46 air refueling tanker, which we are also very 
proud of.
    One of the challenges of sequestration is the impact on not 
just our men and women serving in uniform, but also on our 
civilian workforce. Can you talk about the threats that is 
posed by the uncertainty, especially for the engineers, the 
scientists, the mathematicians that we are going to need to 
continue to fill those civilian jobs to keep our shipyards at 
their highest level of efficiency and production and all of our 
depots as well?
    Dr. Carter. Yes. Thank you.
    I do want to take the opportunity to express my gratitude 
for what our civilian members of our Department of Defense do. 
A lot of people have the image of the civilian as a bureaucrat 
sitting behind a desk somewhere, and that is an issue we also 
need to get at because there is that, too, and that is costly 
in headquarters and overhead and so forth.
    But most of DOD civilians are not sitting behind a desk. 
They are actually doing maintenance work and repair work that 
actually needs to get done. They are not a waste. They are 
there doing something essential.
    I think that sometimes we talk about them as though we 
don't appreciate them, and I think we do need to appreciate 
them. Even as we cut down, as I believe we need to do, the 
overall number of civilians in the Department of Defense, I 
think you do that by getting rid of the overhead and the 
unnecessary layers and offices and so forth.
    But I don't think anybody ought to be talking about 
somebody who fixes and maintains an essential piece of 
equipment. We ought to be giving our thanks to those folks for 
what they are doing for the country.
    Senator Shaheen. Are you concerned about the impact that 
sequestration might have on our ability to continue to maintain 
those civilian workers who have the backgrounds that we need to 
continue to do those jobs?
    Dr. Carter. Yes. Because one of the things that sequester 
does because it hits fast and hard is cause managers in defense 
to take away dollars from exactly that kind of work, and it 
gets back to the readiness issue.
    Senator Shaheen. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Tillis?
    Senator Tillis. Dr. Carter, sorry I had to step out. I had 
another committee meeting. If this question has been asked, I 
apologize.
    In your response to some of the written questions submitted 
to you, there was a concern expressed over the size of our 
naval fleet and how it has reduced in numbers. In your 
response, you commented that you can't just look at the 
absolute number of ships to determine what our capabilities 
are.
    My question for you is what can you share with us that 
should make us feel okay with some reduction in the fleet, if 
you believe that that is okay as a long-term position? 
Secondly, what do you think the long-term plan should be for 
our naval readiness?
    Dr. Carter. Thank you, Senator.
    It is true that, as you say, that you have to look at 
quality and not just quantity. I mean, that said, I think the 
Navy's shipbuilding plan calls for it to increase the number of 
ships, not to decrease the number of ships. I certainly think 
that is important.
    Our Navy is the paramount navy of the world, and that is 
one of the things that makes us a global power. It is what 
allows us to be present when things break somewhere. Whether it 
be a conflict or a natural disaster, you see the Americans show 
up first in either case. Why do they do that? One of the ways 
they do that is through the Navy.
    I have a strong interest in maintaining not just the 
quality, but the quantity as well. Obviously, this gets back to 
the budget and how many dollars we have. Another reason why we 
need to have enough dollars.
    Senator Tillis. Thank you.
    I have another question and final question. It relates to a 
report I am expecting the Secretary of the Air Force to submit 
to Congress, saying that they are going to be pulling out the 
Air Force assets from Pope Field. You and I touched on this 
briefly when we met.
    I think the result of that is going to be the Army 
requiring planes to be flown in to support training exercises 
there. I am more worried about Pope Field, going forward. It 
looks like the current course and speed, it could wither away, 
and I think it is an important strategic asset.
    Rather than ask you to take a position on this decision, I 
would like to get your commitment once you are confirmed to 
meet with me and others who have a concern with this not as a 
North Carolina issue, but as a perhaps not a good strategic 
decision. Walk through this and see if either I can be 
convinced that it is the right decision or you can be convinced 
it may be something we have to rethink. I would appreciate your 
commitment to doing that.
    Dr. Carter. Absolutely, you have that.
    Senator Tillis. Thank you.
    Thank you, Mr. Chair.
    Chairman McCain. I am told that Senator Lee is on his way. 
Is his staffer here?
    [Pause.]
    Chairman McCain. From the airport?
    Senator Tillis. Pope Field.
    [Laughter.]
    Chairman McCain. I just don't think we can hold up the 
witness. Can I just say we intend to receive as many written 
questions as necessary by the end of business today. You can 
review them and have your answers returned so that we can get 
your confirmation to the floor early next week.
    If not, as you know, the week after that, we are in a 
recess. We will try and get it accomplished.
    I heard a door close. Yes, go ahead, Jack.
    Senator Reed. I just simply want to thank Dr. Carter for 
his service to the Nation, for his testimony today, and thank 
the chairman for an extremely thoughtful hearing and a very 
productive hearing.
    Thank you.
    Dr. Carter. Thank you, Senator.
    Chairman McCain. I just can't hold the witness any longer.
    [Pause.]
    Senator Tillis. Senator McCain, I think he is running 
around the ante room to this entrance here. I would expect him 
to pop through in about 10 seconds.
    Chairman McCain. Senator Lee, welcome.
    Senator Lee. Thank you very much, Mr. Chairman.
    You have been very patient today and answered a lot of 
questions, and I just wanted to talk to you briefly about 
religious freedom within the military. I think the ability to 
believe according to one's own belief system and to express 
those views appropriately is of utmost importance to the morale 
of all of our service men and women and to their families.
    I think it is also something of a pillar of our society, 
something that we have always expected would be tolerated is a 
diversity of religious viewpoint and religious expression. 
Certainly one's religious freedom should never be curtailed 
merely because one decides to serve one's country in the 
military.
    I was concerned late last year to hear about a situation in 
the Army in which a chaplain in the course of some suicide 
prevention training was reprimanded for sharing his faith, 
talking about how his faith played a really important role in 
his personal recovery from depression.
    My understanding is that he was reprimanded despite the 
fact that the Army itself, of course, recognizes the importance 
of spiritual wellness and the importance that faith can play in 
a person's life in dealing with mental health issues of all 
kinds and an Army that has affirmed the important role that 
chaplains tend to play in our armed services.
    Congress, of course, has acted several times in recent 
years to prioritize protection of religious freedom and 
religious expression within the armed services, respecting the 
necessity, of course, of maintaining good order and discipline 
and making sure that those things aren't ever compromised.
    What is your view on religious freedom and freedom of 
religious expression within the military? What will you do, if 
you are confirmed as Secretary, to make sure that those rights 
are respected and that the obligations imposed by Congress on 
the military are honored?
    Dr. Carter. I do think it is important, and I don't think 
there is any inherent conflict between religious freedom and 
religious expression and good order and discipline. We can have 
both.
    I don't know anything about the particular case you 
adduced, but that this idea of having both and that they are 
not in inherent conflict with one another I think is extremely 
important and one that if I am confirmed in this job, I would 
want to see to it that no one thought that there was an 
inherent conflict between those two.
    Senator Lee. Thank you. I appreciate that, and I know those 
who serve us certainly appreciate that as well.
    I appreciated what I heard you say earlier. I think it was 
in connection with a question asked by Senator Ernst regarding 
the valuable contributions of our National Guard and our 
Reserve units in combat. I hope that as the Services continue 
to reassess their force mixture that those sentiments that you 
expressed very well will continue to be at the forefront of 
your mind and that you will be conscious of those things.
    As I look at the Guard units in my home State of Utah, 
those Guard units have served us very well, and a lot of our 
servicemembers who serve in our Guard units have been deployed 
many, many times just over the last few years. They have served 
exceptionally well, and I hope you will continue to recognize 
them, their contributions, and to utilize them appropriately.
    Dr. Carter. I will. You just said it very well. They have 
really come through for us.
    Senator Lee. Thank you very much.
    Dr. Carter. Thank you, sir.
    Senator Lee. Thank you, Mr. Chairman. I see my time is 
rapidly expiring.
    Chairman McCain. Thank you.
    Doctor, as I mentioned, we will try to ask our members to 
get in any written questions they have for you by noon tomorrow 
so that you will have time to return those either before the 
weekend or just after.
    We will see, talk to the Majority Leader to see if we can't 
get your nomination to the floor so that you can get to work.
    We thank you for your patience today and thank you for your 
appearance and thank you for your willingness to continue to 
serve this Nation.
    Dr. Carter. Thank you, Mr. Chairman.
    Chairman McCain. The hearing is adjourned.
    [Whereupon, at 4:09 p.m., the hearing was adjourned.]

    [Prepared questions submitted to the Honorable Ashton B. 
Carter by Chairman McCain prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. No.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I do not see a need for modification of any Goldwater-
Nichols Act or special operations provisions at this time. The success 
of our Armed Forces since the enactment of these provisions amply 
demonstrates that they have served the Department and our Nation well.
                   duties of the secretary of defense
    Question. Section 113 of title 10, United States Code, provides 
that the Secretary of Defense is the principal assistant to the 
President in all matters relating to the Department of Defense (DOD). 
Subject to the direction of the President, the Secretary of Defense, 
under section 113, has authority, direction, and control over DOD.
    Do you believe there are actions you need to take to enhance your 
ability to perform the duties of the Secretary of Defense?
    Answer. No.
    Question. What changes to section 113, if any, would you recommend?
    Answer. At this time, I believe that the authorities in section 113 
for the position of Secretary of Defense are appropriate.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I have spent more than 3 decades working on defense and 
national security issues, both in and out of government. Most recently 
I served in two senior positions in the Department, including as the 
Deputy Secretary of Defense and the Under Secretary of Defense for 
Acquisition, Technology, and Logistics. As Deputy Secretary of Defense 
I served as the Department's Chief Operating Officer with management 
over the Department's budget and civilian military personnel. During my 
tenure as Under Secretary for Acquisition, Technology, and Logistics, I 
had responsibility for the department's efforts to accelerate the 
production of urgent operational need such as MRAPs which saved 
countless lives in Afghanistan, increase the taxpayer's buying power, 
and strengthen the Nation's defense against emerging threats.
    Previously, in the 1990s, I served as the Assistant Secretary of 
Defense for International Security Policy where I was responsible for a 
variety of strategic issues. Between my periods of government service I 
have served in a variety of academic and government advisory roles 
focused on national security and defense issues.
                               priorities
    Question. If confirmed, you will confront a range of critical 
issues relating to threats to national security and ensuring that the 
Armed Forces are prepared to deal with these threats.
    In your view, what are the major challenges confronting the next 
Secretary of Defense?
    Answer. The challenges include preserving and enhancing the finest 
fighting force in the world and taking care of their families; 
providing a strategic perspective to the threats and opportunities in 
the world; and implementing significant reforms that are crucial in a 
time of budget uncertainty.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I look forward to addressing these challenges 
by consulting with the civilian and military leadership of the 
Department, seeking the perspective of our partners, allies and 
friends, working closely with my interagency partners, seeking the best 
ideas from outside the government, and working closely with this 
committee and Congress.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Secretary of Defense?
    Answer. The top priorities are to ensure the security of the 
American people, defend our vital interests, and fight and win our 
Nation's wars.
                            chain of command
    Question. Section 162(b) of title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the combatant commands. 
Section 163(a) of title 10 further provides that the President may 
direct communications to combatant commanders be transmitted through 
the Chairman of the Joint Chiefs of Staff and may assign duties to the 
Chairman to assist the President and the Secretary of Defense in 
performing their command function.
    Do you believe that these provisions facilitate a clear and 
effective chain of command?
    Answer. My understanding of these laws and my experience leads me 
to believe that they establish a clear and effective chain of command, 
which is an essential element to successful military operations.
    Question. In your view, do these provisions enhance or degrade 
civilian control of the military?
    Answer. In my view, these provisions significantly enhance civilian 
control of the military and place the President and the Secretary of 
Defense in position to best exercise civilian control of the military 
by occupying the top positions in the military chain of command.
    Question. Are there circumstances in which you believe it is 
appropriate for U.S. military forces to be under the operational 
command or control of an authority outside the chain of command 
established under title 10, United Sates Code?
    Answer. I believe that U.S. military forces normally should operate 
under the chain of command established under title 10. However, today's 
threats are such that there may be circumstances involving certain 
sensitive operations where an exception to that chain of command may be 
appropriate to provide military support to the head of a non-DOD U.S. 
department or agency. It is my understanding that only the President 
may approve such an exception, as also provided in section 162 of title 
10. If confirmed, I will consider these situations very carefully and 
provide the President with my best advice regarding where an exception 
to the established chain of command may be appropriate.
       advice of the service chiefs and the combatant commanders
    Question. Section 151 of title 10, United States Code, provides, in 
part, that the Chairman of the Joint Chiefs of Staff is the principal 
military adviser to the President, the National Security Council, and 
the Secretary of Defense and that if any member of the Joint Chiefs 
submits to the Chairman advice or an opinion, in disagreement with, or 
advice or an opinion in addition to, the advice presented by the 
Chairman, the Chairman shall present that advice or opinion at the same 
time he provides his own advice to the President, the National Security 
Council, and the Secretary of Defense. Section 163 of title 10, United 
States Code, provides that the Chairman of the Joint Chiefs of Staff 
serves as the spokesman for the combatant commanders, especially on the 
operational requirements of their commands.
    What is your understanding and assessment of the distribution of 
responsibilities and authorities for providing uniformed professional 
military judgment, advice, and opinions to the President, National 
Security Council, and civilian leadership of the Department?
    Answer. Based on my understanding of the law and my experience, I 
believe the distribution of responsibilities and authorities for 
providing professional military judgment, advice, and opinions is 
adequate and functioning well.
    Question. What changes in law, if any, do you think may be 
necessary to ensure that the views of the Service Chiefs and of the 
combatant commanders are presented and considered?
    Answer. Based on my understanding of the law, and my experience, I 
do not recommend any changes to the law.
                         use of military force
    Question. The question as to whether and when U.S. forces should 
participate in potentially dangerous situations is one of the most 
important and difficult decisions that the national command authorities 
have to make. Prior Secretaries of Defense and Chairmen of the Joint 
Chiefs of Staff have proposed criteria to guide decisionmaking for such 
situations.
    In your view, what factors should be considered in making 
recommendations to the President on the use of military force?
    Answer. The factors that should be considered are: the necessity of 
removing a critical threat to the U.S. Homeland and citizens and its 
allies and friends; the prospects and strategy for achieving lasting 
success through the use of force; complementary employment, as 
appropriate, of other instruments of national power; and the assistance 
as appropriate of allies and partners.
                  national security budget reductions
    Question. The 2011 Budget Control Act established discretionary 
budget caps to realize nearly $1 trillion in budget savings spending 
over 10 years. Half of those budget cuts are to national defense 
discretionary accounts.
    Do you believe that defense spending reductions of this magnitude 
can be accomplished without significant adverse impact on our national 
security?
    Answer. No. During my tenure as Deputy Secretary and Acquisition 
Executive the Department developed a comprehensive strategy. I said 
then, and I will reiterate now, that the strategy is not executable 
under the sequestration-level budget caps of the Budget Control Act.
    Question. How would you assess the national military strategy to 
deal with the changed budget environment?
    Answer. Any strategy must continue to protect and advance this 
Nation's interests, within the resources the Nation is willing to 
commit to national defense. If confirmed, I will seek a balance between 
maintaining an agile and ready force to address today's demands while 
investing in the capabilities we need to address future challenges.
    Question. If confirmed, by what standards would you measure the 
adequacy of DOD funding?
    Answer. The measure must be, can the Department meet the security 
challenges of today, while also investing adequate resources to prepare 
for future security challenges, both the expected and the unexpected.
    Question. If confirmed, and given this era of budget austerity, how 
will you prioritize the objectives of meeting ongoing operational 
commitments around the world, re-setting of the force, and investing in 
the future force?
    Answer. There has to be a balance. The Department should have 
sufficient capacity to deal with the wide range of challenges we face, 
yet not maintain more capacity than we can afford to modernize and keep 
ready, given that we also have a responsibility to the force of the 
future.
                     readiness of the armed forces
    Question. What is your understanding and assessment of the current 
readiness of the Armed Forces?
    Answer. I believe that readiness has been especially affected by 
sudden and uncertain budget reductions. Readiness is essential to our 
security and to ensure troops sent in to conflict are fully prepared. 
The Service Chiefs testified last week before this committee that there 
have been some readiness gains over the last year, but that there are 
still critical readiness deficits in many areas. Any readiness gains 
over the last year appear to me to be extremely fragile and will 
certainly reverse without sufficient resources.
    Question. What is your understanding and assessment of the 
Department's readiness reporting and monitoring systems, such as the 
Defense Readiness Reporting System (DRRS)? In you view, does DRRS 
provide civilian and military leaders with the information necessary to 
make informed resource and operational decisions?
    Answer. The readiness systems in place provide senior leaders with 
the information they need to determine which forces are ready to deploy 
considering a variety of mission criteria. These systems contain 
current and historical readiness data from the tactical to the 
strategic level. In my view, the DRRS does provide the necessary 
information to make informed resource and operational decisions.
    Question. If confirmed, what changes, if any, would you propose 
making to the Department's readiness systems to ensure timely and 
accurate information is available for decisions on commitment of 
military forces and to judge the impact of budget conditions on the 
readiness of the Armed Forces?
    Answer. The Department's readiness reporting systems, the DRRS in 
particular, contain a variety of readiness resourcing and capability 
data that is useful for senior leaders to gain an understanding of our 
operational vulnerabilities and shortcomings.
    Question. If confirmed, to what key indications and indicators of a 
``hollow'' or unready military will you pay closest attention? What are 
the most dangerous risks or consequences associated with a ``hollow'' 
or unready force in your opinion?
    Answer. Key elements of readiness include the quality of our 
military personnel and the status of their individual training in the 
military specialties, the manning and training of the units in which 
they serve to meet the mission essential tasks they are given, and the 
availability of their required equipment from basic small arms to major 
platforms. This individual and unit readiness must be assessed against 
the requirement of the contingency plans of the combatant commanders. I 
have always paid considerable attention to these elements and I will 
continue to do so if confirmed as this is an essential obligation of 
leaders to the forces we send in harm's way.
                            audit readiness
    Question. DOD remains unable to achieve a clean financial statement 
audit. The Department also remains on the Government Accountability 
Office's list of high risk agencies and management systems for 
financial management and weapon system acquisition. Although audit-
readiness has been a goal of the Department for decades, DOD has 
repeatedly failed to meet numerous congressionally directed audit-
readiness deadlines.
    What is your understanding and assessment of the Department's 
efforts to achieve a clean financial statement audit?
    Answer. My understanding of the Department's efforts is that the 
Department has made progress in the last 5 years following the 
strategic plan and priorities established early in this Administration. 
If confirmed, I will get a detailed assessment from my Chief Financial 
Officer, and hold him responsible and accountable for making 
auditability one of my top business reform priorities.
    Question. Do you believe that the Department is likely to meet the 
current 2017 statutory objective for ensuring that its financial 
statements are validated as ready for audit?
    Answer. If confirmed, I will be in a better position to inform 
Congress on the 2017 objective after I have the results of the ongoing 
military departments' audits.
    Question. What is the likeliness that this audit will produce a 
clean opinion? In your view, how long is it likely to be from the time 
when the Department certifies its financial statements as ``ready for 
audit'' to the time when the Department achieves a clean audit opinion? 
If confirmed, what specific actions would you propose taking to promote 
compliance with the statutory objective?
    Answer. Experience throughout the government, with agencies that 
are far smaller and less complex than DOD, demonstrates it takes 
several years to move from an initial audit to a clean opinion. So I do 
not think it is realistic to expect that a first year audit of the 
entire Department will produce a clean opinion. If confirmed, I will 
continue to make this a high priority and hold our senior leaders, 
civilian and military, accountable for positive progress towards a 
clean opinion.
    Question. What is your understanding of what the validation of 
audit readiness means? What steps will the Department go through to 
validate its financial statements as ready for audit and when will 
these steps be taken?
    Answer. My understanding is that a validation of audit readiness is 
an independent assessment to ensure key elements required by a 
financial audit are in fact part of the day-to-day processes and 
internal controls and can be demonstrated to show they are compliant 
with accounting standards. If confirmed, I will develop a complete 
understanding of the department's validation of audit readiness in 
order to hold the Chief Financial Officer responsible and accountable 
to monitor key critical path milestones so the Department is ready for 
audit in fiscal year 2018.
    Question. What steps do you believe that Congress and/or the 
Department should take if the Department fails to meet the statutory 
objective, given that the current administration will not be in office 
in 2017?
    Answer. If confirmed, I intend to do everything I can to position 
the Department to comply with the statutory guidance. The Chief 
Financial Officer should lay out a clear set of interim critical path 
milestones and ensuring those gates are met. If confirmed, I will 
ensure that this receives an appropriate priority and that 
accountability is instilled into the performance appraisals of senior 
leaders. I believe Congress should continue to provide constructive 
oversight to ensure full understanding of the Department's direction 
and progress and to help when applicable.
    Question. In your view, what evidence, if any, can we point to 
today that provides Congress and taxpayers confidence that the 
Department's resources are being spent appropriately given its 
inability to pass a financial statement audit?
    Answer. The Department continues to meet the mission of defending 
our country's basic values with a world-class military. It trains and 
equips our men and women to carry out critical missions to protect us 
and our allies around the world. While the department currently falls 
short of having a clean audit of our financial statements, we do 
receive positive audit opinions on a significant amount of our 
resources, and there are numerous controls in place to ensure taxpayer 
resources are spent as intended by the Congress. Independent of 
auditability, the department has a detailed track of where the money 
goes and what it supports. If confirmed, I intend to demonstrate to the 
taxpayers that DOD is a good steward of our resources and worthy of 
their confidence.
 department of defense and department of veterans affairs collaboration
    Question. DOD and Department of Veterans Affairs (VA) have in 
recent years increased collaboration to support servicemembers as they 
transition to veteran status. This support includes access to health 
and mental health care, improved disability evaluation, and 
coordination of compensation and other benefits.
    If confirmed, what would you do to ensure that the DOD and VA fully 
cooperate with each other to develop simplified processes to achieve 
seamless transition as servicemembers move to veteran status?
    Answer. We must be unwavering in our commitment to our veterans and 
their families. DOD and the VA continuously collaborate to better 
support transitioning servicemembers. This effort includes the 
Transition Assistance Program to ensure our servicemembers receive the 
skills and tools necessary for a successful transition from Active Duty 
to civilian life. In addition, I am aware that the two Departments have 
improved information sharing, such as timely availability of Service 
Treatment Records to VA and enhanced sharing of health information, and 
are working toward greater interoperability of their records systems. 
If confirmed, I will continue to direct those responsible in DOD to 
work toward a seamless transition from recovery to reintegration or 
transition for our servicemembers, especially those who are wounded, 
ill, or injured.
                integrated disability evaluation system
    Question. The Integrated Disability Evaluation System (IDES) 
integrates the DOD and VA disability systems to improve and expedite 
processing of servicemembers through the disability evaluation system. 
Servicemembers continue, however, to experience lengthy delays getting 
their disability ratings. Although DOD has shown progress in meeting 
IDES timeliness goals, IDES casework remains backlogged in the VA's 
portion of the system.
    What is your assessment of the need to further streamline and 
improve the IDES?
    Answer. DOD must continually evaluate its disability evaluation 
system to identify and implement process improvements. A key initiative 
underway is the development of a DOD Disability Evaluation System (DES) 
IT system to provide new capabilities to support end-to-end DES case 
management--tracking, reporting, and electronic case file transfer. We 
need to continue to work with VA to ensure our IT systems for 
evaluating and compensating disabled servicemembers and veterans are 
interoperable.
    Question. If confirmed, how would you work with the VA Secretary to 
ensure both DOD and VA meet or exceed timeliness goals through each 
phase of the multi-step disability evaluation process?
    Answer. If confirmed, I will continue to engage directly with the 
Secretary of the VA and at DOD with senior leaders in the Services. I 
will direct the DOD to collaborate with our VA partners to identify 
necessary changes and appropriately address them. If confirmed, I will 
ensure that the DOD maintains an effective joint and integrated 
disability program.
                 sexual assault prevention and response
    Question. What is your assessment of the Department's progress on 
implementing recent legislative changes intended to prevent and respond 
to sexual assaults in the military?
    Answer. First, I want to make clear that I consider sexual assault 
absolutely and without exception unacceptable. It is reprehensible in 
any aspect of society but particularly consequential in the military, 
which must operate quickly with complete trust and delegates so much 
authority to commanders and where missions often require long 
deployments in austere environments. I understand the Department is 
implementing many new provisions of law, mandating many changes in 
programs and procedures. I am told that implementation of the 
provisions in the NDAA for fiscal year 2014 is ongoing. I believe DOD 
needs to do better in its prevention efforts and in responding to the 
needs of survivors compassionately, quickly and effectively.
    My understanding is the Department is also working on the 
implementation of the relevant Carl Levin and Howard P. ``Buck'' McKeon 
NDAA for fiscal year 2015 sections, which were enacted in December 
2014. If confirmed, I will personally continue to make this a top 
priority and continue the collaboration with Members of Congress, which 
is crucial in identifying issues and crafting solutions.
    Question. What is your view of the adequacy of the training and 
resources the Services have in place to investigate and respond to 
allegations of sexual assault?
    Answer. If confirmed, I will take a personal role in assessing 
these issues and holding people accountable for outcomes. I am aware 
that training exists for all servicemembers, at all levels, and it is 
tailored specifically to resonate within each Service and rank's 
culture. I will continue to assess the effectiveness of this training, 
and ensure adjustments are made as necessary. It is my understanding 
that the investigators in recent years have largely changed from an 
incident-focused investigation to an offender-focused investigation, 
which emphasizes that an offender's behavioral history may extend 
beyond the confines of any one particular incident. I am also aware 
that the relevant agencies have developed training that helps 
investigators better understand the impact of trauma on memory. If 
confirmed, I will ensure that the Department continues to work to 
refine and improve training.
    Question. What is your view of the willingness and ability of the 
Services, and military commanders in particular, to hold assailants 
accountable for their acts?
    Answer. A top priority of DOD must be to hold assailants 
appropriately accountable for their acts. This must be carried out by 
the Services and military commanders.
    Question. What is your assessment of the potential impact, if any, 
of proposals to remove from military commanders' disposition authority 
over violations of the Uniform Code of Military Justice, including 
sexual assaults?
    Answer. Leaders have offered thoughtful perspectives on both sides 
of this issue. As a matter of first principle, I believe that the 
Secretary of Defense and other leaders need to be able to hold everyone 
in an organization accountable. I understand the Department is 
concerned that this change could tell commanders that it is not their 
job to root out the evil of sexual assault. I further understand that a 
congressionally-mandated independent panel found no evidence that 
removing commanders from the process would improve accountability of 
offenders or reporting by victims. If confirmed, I will take a direct 
personal role in this issue.
    Question. What is your assessment of the results of the recently 
reported survey of military members on the prevalence of sexual assault 
in the Armed Services?
    Answer. The existence of sexual assault within our ranks is deeply 
disturbing and the conduct is utterly unacceptable. The Department must 
continue its work to eliminate sexual assault. The incidence of sexual 
assault and the percentage of victims who are retaliated against or 
concerned about retaliation remain unacceptably high. I am particularly 
concerned by the finding that a substantial portion of victims 
perceived some level of retaliation associated with their sexual 
assault report, including alienation and other forms of social 
ostracism from their peers. This destroys good order and discipline and 
fosters a climate that is inconsistent with the dignity and respect 
that our servicemembers deserve.
    Question. What is the status of the review of the Manual for 
Courts-Martial directed by Secretary Hagel and when do you anticipate 
the Department will provide a report on this review to this committee?
    Answer. I understand that at Secretary Hagel's direction, the DOD's 
Military Justice Review Group (MJRG) is conducting a comprehensive 
review of the military justice system. It is my understanding that the 
MJRG will issue two reports, one in March 2015 recommending changes to 
the Uniform Code of Military Justice and one in September 2015 
recommending changes to the Manual for Courts-Martial. If confirmed, I 
anticipate directing the relevant DOD components to review the reports 
and recommendations for appropriate action, and if necessary, proposed 
legislation.
    Question. Secretary Hagel conducted a weekly oversight review to 
ensure continued progress on implementing legislative changes intended 
to combat sexual assault. If confirmed, what actions will you take to 
ensure senior level direction and oversight of efforts to prevent and 
respond to sexual assaults?
    Answer. If confirmed, my personal involvement will be frequent and 
regular, which will guide the Department to adapt its sexual assault 
policies and systems with agility. If confirmed, I plan to continue 
this personal commitment to eliminating sexual assault in our ranks and 
restoring victim confidence in our response system. I recognize that it 
will be critical to work closely with Congress and Service leaders to 
deliver consistent and effective prevention initiatives to influence 
behavior with the goal of eliminating the crime of sexual assault 
across the Department.
    Question. What is your assessment of the military's protections 
against retaliation for reporting sexual assault?
    Answer. Based on the recent report to the President, they are not 
adequate. The report underscores the need to better understand the 
complex ways in which the retaliation manifests itself, and to ensure 
that victims of sexual assault have choices in the form of assistance 
they engage to address this behavior. If confirmed, this effort will be 
a priority of mine.
    Question. What is your assessment of military programs for the 
prevention of domestic abuse, including spousal rape?
    Answer. The Department is committed to addressing the prevention of 
and response to domestic abuse, including spousal rape, which is a 
serious public health issue. The Family Advocacy Program (FAP) is a 
comprehensive Department-wide program that provides victim advocacy and 
counseling for victims and offender treatment programs. FAP utilizes 
evidenced-based programs to address domestic abuse, and works in 
collaboration with Command, medical, legal, and law enforcement to 
support victims of domestic abuse and child abuse and neglect. FAP 
collaborates closely with the Sexual Assault Prevention and Response 
Office and shares best practices on victim assistance.
                  role of national guard and reserves
    Question. What is your understanding and assessment of the Reserve 
components' size and force structure, including mix of capabilities and 
capacities, to meet the requirements of the 2014 Quadrennial Defense 
Review (QDR) and the current National Military Strategy?
    Answer. The seven Reserve components have proven essential during 
13 years of war and natural disasters at home. I understand that 
questions about the size and makeup of the Active component and Reserve 
component are currently under consideration as the Department continues 
to implement the new defense strategy and respond to the current fiscal 
environment. If confirmed, I will insure that the Military Departments, 
the Chief of the National Guard Bureau, and the combatant commanders 
work closely together to determine the most effective mix and makeup of 
Active, Reserve, and Guard personnel to maximize the value of these 
organizations in a way that is balanced against needs.
    Question. In your view, what is the definition of ``operational 
Reserve'' when referring to the Reserve components?
    Answer. In my view, the term ``operational Reserve'' refers to our 
need to have a Reserve component that is made ready and available to 
operate in peacetime, in wartime and in support of civil authorities.
    Question. What is your understanding and assessment of how the 
concept of an ``operational Reserve'' is currently used by the 
Department for Reserve component sizing, force structure, readiness 
reporting and evaluation, and resourcing? If confirmed, what changes, 
if any, would you propose regarding the use of the concept of an 
``operational Reserve'' with respect to the Reserve components?
    Answer. The National Guard and Reserve is a critical source of many 
of the capabilities required in ongoing operations and contingency 
surge requirements. As an operational Reserve the Reserve component 
would make certain capabilities available on a continuing basis and 
others to augment and reinforce the Active components when mobilized 
over time.
    Question. In your view, what are the most significant challenges to 
the realization of the Reserve component as an ``operational Reserve''? 
If confirmed, what actions would you propose taking, if any, to deal 
with these challenges?
    Answer. In my view, some of the most significant challenges in 
employing the Total Force are declining resources and the subsequent 
impacts on the Services' abilities to man, train and equip the Force. 
If confirmed, I will insure the Service Chiefs, the Chief of the 
National Guard Bureau and the combatant commanders work together to 
balance the Total Force.
    Question. What is your understanding and assessment of current 
statutory authorities for the mobilization and utilization of members 
of the Reserve component? If confirmed, what changes in law would you 
propose, if any, to make Reserve component mobilization and utilization 
more efficient and effective or to enhance their ability to perform 
various national security or domestic support to civil authorities 
missions?
    Answer. Current statutory authorities make the Reserve component an 
accessible force. If confirmed I will insure the Service Chiefs, the 
Chief of the National Guard Bureau, and the combatant commanders review 
lessons learned after over a decade of unprecedented mobilization to 
determine if changes are needed to make mobilization and utilization of 
our Reserve component more efficient and effective. Key considerations 
in this review are early notification for deployments, mobilization 
lengths, dwell-to-mobilization targets and predictability for the 
service personnel, families and employers.
             active duty and reserve component end strength
    Answer. The Department is implementing its 5-year plan to reduce 
Active Duty end strengths by over 100,000 servicemembers by 2017, and 
the Reserve components by another 21,000 over the same period. These 
cuts do not include any additional personnel reductions that could 
result from sequestration or any agreement to avoid sequestration.
    Do you agree with this plan to reduce Active Duty and Reserve 
component end strengths?
    Answer. My understanding is that these planned reductions reflect 
an effort to balance the capability, capacity, and the readiness 
impacts of budget reductions with the requirements of the defense 
strategy.
    Question. How will these reductions impact the Armed Forces' 
ability to meet national defense requirements?
    Answer. Fiscal uncertainty and new operational demands driven by 
unforeseen world events have the potential to jeopardize the Services' 
ability to both provide ready forces for today's fight and guarantee 
ready forces for tasked operational plans.
    Question. What additional military personnel reductions do you 
envision if the Department is required to operate under the budget caps 
for fiscal year 2016 as currently set out in law?
    Answer. If sequester returns in 2016, I believe the Services may be 
compelled to implement additional force structure reductions. The 
consequences of sequestration have been significant for the Joint Force 
and its ability to meet our strategic objectives. The Department needs 
to continually examine the force structure and personnel levels 
required to meet our national security objectives.
    Question. In your view, what tools do the Department and Services 
need to get down to authorized strengths in the future, and which of 
these require congressional authorization?
    Answer. My understanding is that Congress has supported the 
Department with the force shaping tools necessary to meet the drawdown 
under its current plan. However, further budget reductions would make 
it necessary to revisit the size of all components of the Total Force--
Active Duty, Reserve component, DOD civilians, and contractors. 
Consequently, future assessment may require us to request additional 
congressional authorization for force shaping tools.
                         women in the military
    Question. Do you believe that the services are conducting 
appropriate and objective evaluations to inform decisions on the 
integration of women into previously closed units and military 
occupations?
    Answer. It is my understanding that the Services and U.S. Special 
Operations Command have been conducting evaluations in accordance with 
their respective implementation plans. If confirmed, I will closely 
monitor their progress and ensure they stay on track and meet the 
Department's timelines. If I receive requests for exception to policy, 
I will carefully consider them when the time comes.
    Question. In your view, should the Military Selective Service Act 
be amended to require females to register for possible military 
service?
    Answer. I understand a recent law requires the Department to 
provide an analysis of the constitutionality of continued application 
of the Military Selective Service Act to only men.
    Question. In your view, and if the Military Selective Service Act 
is so revised, in a future exigency in which the Nation may need to 
implement a draft, are there any reasons why qualified males and 
females should not be subject to the draft?
    Answer. Given that the Armed Forces have waged the longest 
continuous conflict in our history with an All-Volunteer Force, and the 
fact that most military career fields are now open to women, a review 
of the military selective service act would be prudent. This is not 
solely a Defense issue, but rather part of a much broader national 
discussion.
                         costs of medical care
    Question. What is your assessment of the long-term impact of the 
Department's rising health care costs on military readiness and overall 
national security?
    Answer. In a constrained fiscal environment, if confirmed, I will 
seek a balanced approach to control rising health care costs by 
continuing to drive greater efficiencies within the system and to 
pursue reasonable health benefit reforms that offers exceptional value 
to our beneficiaries.
    Question. If confirmed, what actions would you take to mitigate the 
effect of the Department's rising medical costs on DOD's budget top-
line while simultaneously implementing programs to improve health 
outcomes and to enhance the experience of care for all beneficiaries?
    Answer. Controlling health care costs is a priority for the 
Department. In recent years, additional emphasis was placed on 
achieving savings and efficiencies within the operational environment 
of the Military Health System (MHS). However, these internal savings 
initiatives are not enough to curb the projected increase in health 
care costs for the Department in the coming years. In addition to 
internal savings, I understand that DOD is trying to reform TRICARE 
into a more integrated health care system, which is less complex and 
provides greater choice and value to our beneficiaries.
    The Military Compensation and Retirement Modernization Commission 
report provides another set of proposals that require careful review 
and consideration. If confirmed, I will work with Congress on all 
responsible efforts to improve the quality and cost-effectiveness of 
the health system.
    Question. If confirmed, what would you do to create a value-based 
military health system--a system that creates value for beneficiaries 
and the Department by ensuring the delivery of quality health care and 
improving health outcomes for beneficiaries at reasonable costs to 
beneficiaries and DOD?
    Answer. A value-based military health system starts with the 
department's ability to meet the DOD mission. Unlike civilian 
healthcare systems, the primary mission of the MHS is to ensure a 
medically ready force and a medical force that is ready to carry out 
its wartime mission. The Army, Navy, and Air Force medical services 
maintain that primary mission through the Military Treatment Facilities 
(MTFs). The MTFs alone cannot provide the care for all beneficiaries 
and therefore the TRICARE program is a critical component to the 
integrated health system.
                         defense health agency
    Question. In 2013, as Deputy Secretary of Defense, you signed a DOD 
directive that chartered a new Defense Health Agency (DHA) to reform 
the governance and management of the Military Health System.
    What efficiencies and related savings have resulted from 
establishment of the DHA?
    Answer. Although it's still in its infancy, the DHA stood up ten 
shared services and I understand it is reducing performance variation 
across the MHS. The DHA was critical to facilitating a coordinated 
implementation of the MHS Review, which focused on access to care, 
quality, and patient safety. The DHA's focus on business process 
reengineering is looking to achieve a net savings in such areas as 
pharmacy operations, health information technology and medical 
logistics. Another goal is to improve coordination of care in our 
largest health care markets, now being governed as enhanced multi-
service markets.
    Question. If confirmed, how would you ensure continued progress 
towards making the military health system a more efficient health care 
delivery system while improving health outcomes for beneficiaries?
    Answer. The MHS, like most other health care systems in this 
country, needs to provide efficient, quality health care that is safe 
and effective, whether delivered on a battlefield or in one of our 
hospitals. If confirmed, I will direct those responsible to look for 
ways to improve not only the efficiency and performance of the system, 
but I will insist that critical medical capabilities are ready to 
support our warfighters anywhere and anytime.
               integrated electronic health record (ehr)
    Question. Last year, DOD published a RFP for a modern EHR with 
plans to award a contract in 2015 with an estimated total life cycle 
cost of over $11 billion.
    Considering the many problems the Department has experienced with 
its existing EHR and its failure to deploy a modern EHR over many years 
despite strong congressional support, do you have confidence that the 
Department will finally be successful with this effort?
    Answer. I have not had the opportunity to review the program status 
since leaving the Department, but, if confirmed, I will direct those 
responsible to keep me fully informed of its status.
    Question. If confirmed, what would you do to ensure this 
procurement comes in on time and on budget without any waste of 
taxpayers' money?
    Answer. I am committed to ensuring that our EHR solution meets the 
needs of our servicemembers while providing maximum value for the 
taxpayer. The timely and cost-effective acquisition and deployment of a 
new, modern EHR system is one of the department's top priorities in the 
health care area.
    Question. If confirmed, how would you work with the VA secretary to 
ensure DOD and VA will seamlessly share real-time health information 
electronically?
    Answer. If confirmed, I fully intend to personally continue the 
close collaboration that has been ongoing between the DOD and VA, and 
will personally engage with Secretary McDonald. Interoperability of our 
medical records system with theirs will be essential to the success of 
the EHR solution.
 health care quality and access to care in the military health system 
                                 (mhs)
    Question. If confirmed, what actions would you take with respect to 
each of the following:
    Eliminating performance variability throughout the MHS;
    Answer. I am aware that the MHS Review ordered by Secretary Hagel 
demonstrated that there is performance variability both among and 
within our Military Treatment Facilities (MTFs). We need to develop a 
more robust enterprise-wide capability to establish common performance 
measures, identify associated standards, monitor performance relative 
to those standards, and mitigate critical deficiencies. I understand 
the Department has begun to create these capabilities, and I will make 
it a priority to oversee their successful implementation.
    Question. Improving health outcomes of the Department's 
beneficiaries in the direct and purchased care components of the MHS;
    Answer. If confirmed, I will direct that the MHS has a well-
developed performance management system that permits data-driven 
decisions. Leaders will be held accountable for continuous improvement 
of outcomes in both the direct and purchased care systems.
    Question. Delivering quality health care at lower cost to create 
value for beneficiaries and the Department; and
    Answer. Improved readiness, better care and better health outcomes 
for our beneficiaries while operating the MHS more efficiently and at 
lower cost will create better value for those we serve as well as the 
taxpayers. The MHS should continue the enterprise management reforms to 
standardize business and clinical processes with a goal to optimize 
utilization, effectiveness and reduce variability.
    Question. Promoting transparency of information that will help 
beneficiaries become more involved in making their healthcare 
decisions.
    Answer. The department has developed a plan to increase 
transparency throughout the MHS for beneficiaries and key stakeholders. 
If confirmed, I will ensure that those directly responsible will review 
this plan and its implementation to make certain the Department and the 
MHS has met its obligation to meet the information needs of 
beneficiaries so that they can make important decisions about their 
healthcare.
                           mental health care
    Question. If confirmed, what actions would you take to ensure that 
sufficient mental health resources are available to servicemembers in 
theater and to servicemembers and families upon return to home station 
locations with insufficient community-based mental health resources?
    Answer. If confirmed, I will support efforts to reduce the stigma 
associated with seeking mental health care, encourage help-seeking 
behavior and increase the use of available resources among 
servicemembers and their families. This would include an integrated 
approach for ongoing mental health research, prevention, and evidence-
based treatment efforts that will continue to allow the Department to 
provide high-quality, timely mental healthcare services. Finally, I 
will continue to work with the VA and Department of Health and Human 
Services to coordinate mental health initiatives on behalf of 
servicemembers, Veterans and their families.
    Question. If confirmed, what would you do to ensure that robust 
mental health resources are available for Guard and Reserve members and 
their families?
    Answer. If confirmed, I will ensure those directly responsible 
remain committed to ensuring the Reserve components receive all medical 
and mental health resources necessary to meet their needs and promote 
smooth re-integration. This begins with ensuring pre and post-
deployment health and mental health assessments with prompt referral 
for those identified as having needs. Additionally, I will ensure those 
directly responsible work with the VA leadership to improve processes 
for ``hand-offs'' to prevent lapses in services. I will continue to 
assess the adequacy of family support/re-integration programs that are 
vital to support servicemembers and their families who are facing 
mental health problems.
                           suicide prevention
    Question. If confirmed, how would you maintain a strong focus on 
preventing suicides in the Active and Reserve components and in their 
families?
    Answer. DOD has a strong and longstanding relationship with public 
and private partners and has recently adopted the National Strategy for 
Suicide Prevention, which is being integrated into the Department's 
strategy. If confirmed, I will ensure those directly responsible 
support all efforts to examine gaps and overlaps in efforts across the 
Department to ensure we provide the best policies and programs to both 
prevent suicide and build resilience.
                    personnel and entitlement costs
    Question. What do you believe to be an appropriate percentage of 
the Department's budget for military personnel costs?
    Answer. While military personnel costs have historically been 
roughly one-third of the Department's overall budget, pegging these 
costs to a specific percentage of the budget is not a useful metric for 
managing the force or executing the national defense strategy. The 
Department must maintain the force at sufficient levels with the right 
capabilities to meet the national defense strategy. Providing an 
appropriate pay and benefits package is essential to this task, but 
compensation and benefit costs must be balanced with readiness and 
modernization requirements to ensure we maintain the highest quality, 
ready, and modern military force now and for the future.
    Question. If this percentage remains constant as overall defense 
spending flattens, or even declines in real terms, what would be the 
impact on the size of the force and the Department's ability to execute 
the national defense strategy?
    Answer. If overall defense spending flattens or declines in real 
terms, military personnel costs will increase as a percentage of the 
budget in the short-term and, therefore, require larger reductions to 
readiness and modernization. In the longer-term, additional force 
reductions will likely be required to balance the program. The 
resulting smaller force would create additional risk to meet our 
security challenges.
    Question. In your view, what would be the impact on other areas of 
the Department's budget if military personnel costs continue to rise 
while the overall defense budget remains flat, or even declines in real 
terms?
    Answer. If military personnel costs were to continue to rise within 
a flat budget, consuming ever larger portions of that budget, the 
Nation will face the prospect of a hollow force--with resulting 
decreasing capability and readiness and a dwindling technological edge 
on the battlefield.
    Question. What actions do you believe can and should be taken, if 
any, to control the rise in personnel costs and entitlement spending?
    Answer. Personnel costs are a significant portion of the Defense 
budget. During the past several years the Department engaged in a 
number of broad-based reviews in search of efficiencies and generated 
proposals to reduce spending. The Congress, too, created the Military 
Compensation and Retirement Modernization Commission in search of ways 
to attract and retain the quality people we need while controlling 
these personnel and entitlement costs. If confirmed, I will seek ways 
to keep our current and future force and our defense program in balance 
within the resources Congress provides.
      recommendations of the military compensation and retirement 
                        modernization commission
    Question. The National Defense Authorization Act (NDAA) for fiscal 
year 2013 established a commission to review all elements of the 
military compensation and retirement systems and to make 
recommendations to modernize those systems to ensure the long-term 
viability of the All-Volunteer Force, enable a high quality of life for 
military families, and to achieve fiscal sustainability for the 
compensation and retirement systems. That Commission will release its 
report on January 29, 2015.
    If confirmed, what will be your plan to review the report and to 
provide recommendations to the President?
    Answer. I appreciate the difficult task that was presented to the 
Commission. If confirmed, I intend to carefully review and evaluate the 
Commission's recommendations on reforming military compensation and 
retirement.
    Question. Will you instruct the Department to take the Commission's 
recommendations into consideration within the base budget request for 
fiscal year 2017?
    Answer. If confirmed, I would expect the Department to fully 
consider the recommendations of the Commission in future budgets.
                religious accommodation in the military
    Question. In your view, do DOD policies concerning religious 
accommodation in the military appropriately accommodate the free 
exercise of religion and other beliefs, including individual 
expressions of belief, without impinging on those who have different 
beliefs, including no religious belief?
    Answer. The current DOD policies appropriately accommodate the free 
exercise of religion by all servicemembers. The Department respects, 
and supports by its policy, the rights of individuals to express their 
own religious beliefs, including the right to hold no religious 
beliefs.
    Question. Do you agree that the primary role of the chaplaincy is 
to provide for the free exercise of religion by all servicemembers and 
that chaplains are sufficiently trained to perform or provide for this 
constitutional right in today's pluralistic military community? If not, 
why not?
    Answer. The Service Chaplaincies advise and assist commanders in 
the discharge of their responsibility to provide for the free exercise 
of religion in the context of military service and to assist commanders 
in managing Religious Affairs. Chaplains also serve as the principal 
advisors on all issues regarding the impact of religion on military 
operations. I believe Military Chaplains should be sufficiently trained 
to carry out their assigned duties.
    Question. Do you believe it is the role of the chaplaincy to 
provide for the religious and spiritual well-being of all members of 
the Armed Forces, regardless of their faith beliefs?
    Answer. In today's pluralistic military environment, the 
Chaplaincies of the Military Departments recruit, access, train, and 
equip chaplains with the knowledge and skill to balance their own faith 
practices with their role in assisting commanders in providing for the 
free exercise of religion and spiritual well-being of all 
servicemembers, including those who may hold different or no religious 
beliefs.
    Question. Do you believe that current policies provide sufficient 
guidance to chaplains who conduct non-religious command training where 
attendance is required or encouraged to allow chaplains to discuss 
their religious faith anecdotally and respectfully in a pluralistic 
setting to support the training objectives?
    Answer. It is my understanding that DOD policies provide sufficient 
guidance to chaplains concerning respectful incorporation of religious 
and belief principles that support training objectives in a pluralistic 
setting. Such policies also protect the right of a chaplain to refuse, 
without any adverse action, this type of duty if it is contrary to his 
or her conscience, moral principles or religious beliefs.
                                strategy
    Question. According to the force sizing construct in the 2014 QDR, 
U.S. forces should be able to ``defeat a regional adversary in a large-
scale multi-phased campaign, and deny the objectives of--or impose 
unacceptable costs on--another aggressor in another region.''
    In your opinion, is the QDR's force sizing construct an adequate 
approach given the dynamics of the current and projected geostrategic 
and fiscal environments?
    Answer. The 2014 QDR envisioned a complex and variable security 
environment coupled with fiscal uncertainty. Therefore, it directed the 
Department to size and shape the Joint Force to respond to a wide range 
of challenges. At the fiscal year 2015 President's budget level, the 
force planning construct depicts the challenges that the Department 
must be prepared to respond to and frames its efforts to deliver agile, 
technologically advanced forces of sufficient size to defend our Nation 
and secure our interests globally while preventing America's 
adversaries from achieving their objectives. However, as underscored in 
the QDR, the force planning construct cannot be fully resourced at 
sequestration-level funding, casting significant doubt on the 
Department's ability to implement its overall defense strategy at that 
reduced budget level.
    Question. In your view, are the services currently adequately sized 
to meet the requirements of the QDR and current National Military 
Strategy?
    Answer. U.S. forces remain able to prevail in more than one 
conflict at a time, but at higher levels of risk given the cumulative 
effects of reduced funding, an uncertain budget process, and unrealized 
force structure and compensation savings. The force will need to become 
smaller and more efficient over the next 5 years to offset the costs of 
gradual modernization and improved readiness. Provided sequestration is 
avoided, the QDR indicated that the Joint Force will remain able to 
defeat a regional adversary while denying the objectives of, or 
imposing unacceptable costs upon, a second aggressor. In addition, the 
force will remain able to conduct sustained, distributed 
counterterrorism operations and protect the Homeland. However, the QDR 
also indicated even in the best case, the margin for error in executing 
the defense strategy is smaller than it has been in many years and 
requires close cooperation between the administration and Congress to 
realize necessary savings in force structure and compensation reform to 
ensure that the strategy can be implemented.
    Question. If confirmed, how would you propose to manage the risk 
associated with the demands placed upon the Department by the National 
Security Strategy, the requirements of the National Military Strategy, 
the geostrategic environment, U.S. international security commitments, 
and the availability of military capability in an era of declining 
resources?
    Answer. Risks associated with the demands upon the Department must 
be managed by striking a balance between force capacity, readiness, and 
modernization in order to be prepared for an uncertain and complicated 
future. In some cases, and in line with the 2014 QDR, capacity will be 
reduced to allow for necessary modernization and readiness. The 
Department plans to continue several internal measures to manage risk, 
including developing innovative business practices, capabilities, and 
operational concepts; revising and updating operational plans; 
enhancing collaboration with allies and partners; reviewing overseas 
access and basing agreements; resetting the force after two wars; and 
striving for efficiencies and compensation reform. A return to Budget 
Control Act-level funding in fiscal year 2016 would increase risks, 
prolong readiness recovery, and delay necessary modernization programs.
    Question. In your view should we accept higher risk with current 
strategy, change the strategy, or increase resources to increase or 
preserve military capability and capacity?
    Answer. The Department concluded that the fiscal year 2015 budget, 
combined with Congressional support for the Department's proposed 
reforms, will enable our military to execute the current strategy. If 
sequestration level cuts return in fiscal year 2016 or if we do not 
gain congressional support for proposed force structure reductions and 
compensation reforms, we may need to revisit the strategy as updated in 
the 2012 QDR.
    Question. What is your understanding and assessment of excess 
capacity or capabilities, if any, relative to the National Military 
Strategy? In your view, if there is excess capacity or capability 
relative to the strategy should it be reallocated across services to 
reduce risks in areas for which there are gaps?
    Answer. The 2014 QDR assessed that after more than twelve years of 
conflict and amid ongoing budget reductions, the Joint Force was out of 
balance with respect to capability, capacity, and readiness. As those 
wars have come to a close, the Department has sought to return these 
Services to a sustainable budget level and end strength. Looking 
forward, the Department, with congressional assistance, needs to 
continue the process to ensure we deliver agile, technologically 
advanced, ready forces of sufficient size to defend our Nation and 
secure our interests while evolving threats and challenges.
                       detainee treatment policy
    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. If confirmed, will you ensure that all DOD policies 
promulgated and plans implemented related to intelligence 
interrogations, detainee debriefings, and tactical questioning comply 
with the Common Article 3 of the Geneva Conventions and the Army Field 
Manual on Interrogations?
    Answer. Yes.
    Question. Do you share the view that standards for detainee 
treatment must be based on the principle of reciprocity, that is, that 
we must always keep in mind the risk that the manner in which we treat 
our own detainees may have a direct impact on the manner in which U.S. 
soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts?
    Answer. Yes.
          national military strategy and stability operations
    Question. In light of Russia's annexation of Crimea, the growth of 
the Islamic State of Iraq and the Levant (ISIL) and its control over 
large areas of Syria and Iraq, and a more muscular China, do you 
believe that the current National Security Strategy and National 
Military Strategy should be updated to more accurately account for a 
changed global security environment?
    Answer. Although it is impossible to predict exactly how challenges 
will develop, we must continue to reexamine global threats to ensure 
our resources match the threats and opportunities ahead.
    The 2010 National Security Strategy is undergoing a necessary 
revision, to be released in early 2015. Any revisions should address 
the challenges to the international order and stability that are posed 
by Russia's occupation and attempted annexation of Crimea and the 
growth of ISIL, recognizing that the United States is strongest when it 
employs all elements of national power to address security threats in a 
coordinated fashion. The United States welcomes the rise of a 
prosperous, peaceful, and stable China that respects international law 
and settles disputes without the threat or use of force. The National 
Military Strategy should be revised to align with the 2015 National 
Security Strategy, once it is released.
    Question. The January 2012 Defense Strategic Guidance called for 
U.S. forces to be ready to conduct limited counterinsurgency and other 
stability operations if required, and to retain and continue to refine 
the lessons learned, expertise, and specialized capabilities that have 
been gained over the past 10 years of operations in Iraq and 
Afghanistan. At the same time, the Strategic Guidance states that, 
``U.S. forces will no longer be sized to conduct large-scale, prolonged 
stability operations.''
    In your view, how should strategic guidance for the DOD manage risk 
and articulate the types of missions or operations U.S. forces will or 
will not be expected to execute?
    Answer. The Department's strategic guidance documents--especially 
the QDR and National Military Strategy--need to identify the kind of 
security environment that we anticipate in the future and seek an 
appropriate balance between capability, capacity, and readiness. As a 
full spectrum force and a global leader, the U.S. military should 
continue to be prepared to execute missions in the national interest 
across the threat spectrum. A full spectrum, ready and modern Joint 
Force is the best risk mitigation measure.
    Question. In your view, what are the appropriate roles and 
responsibilities, if any, of DOD and between DOD and other departments 
and agencies of the Federal Government in the planning and conduct of 
stability operations?
    Answer. Because of its unique capabilities, the Department should 
support other U.S. Government departments and agencies in the planning 
and execution of stability operations efforts. History has shown that 
coordinated and integrated interagency and international efforts are 
essential to successful stability operations. Under the right 
circumstances, the Department should conduct stability operations 
activities to establish security, restore essential services, repair 
and protect the most critical infrastructure, and deliver humanitarian 
assistance. As security and public order are established or restored, 
the Department should transition responsibility to other agencies, 
foreign governments, or international governmental organizations.
    Question. If confirmed, in developing the capabilities necessary 
for stability operations, what adjustments, if any, would you propose 
making to prepare U.S. forces to conduct stability operations without 
detracting from their ability to perform combat missions?
    Answer. If confirmed, I would assess the requirements for U.S. 
forces to conduct stability operations successfully without detracting 
from or degrading their ability to perform combat missions. After 
nearly 2 decades of serving in Afghanistan, Iraq, the Balkans, and 
elsewhere, United States forces have made great strides in their 
abilities to conduct stability operations under difficult 
circumstances. If confirmed, I would seek to maintain the stability 
operations expertise the Department has gained, and ensure that the 
Military Departments have the mechanisms necessary to expand their 
capacities when required.
    Question. In your view, does the U.S. Government need to define or 
reallocate responsibilities and authorities among Federal agencies, and 
establish new procedures to manage stability operations? If so, why?
    Answer. Our efforts abroad over the past 13-plus years highlight 
the importance of collaborative and coordinated planning with 
interagency and international partners, which is fundamental to the 
successful management and effectiveness of stability operations. As we 
have seen in both Iraq and Afghanistan, it takes a robust interagency 
effort, as well as international participation, to develop institutions 
that can contribute effectively to peace, security and stability. If 
confirmed, I would review the Department's policies and procedures with 
respect to stability operations and make appropriate recommendations to 
ensure our success, both as a department and as part of the U.S. 
Government as a whole.
    Question. If confirmed, what recommendations would you make, if 
any, to improve U.S. Government approach to planning, resourcing, and 
conducting stability operations?
    Answer. If confirmed, I would work with other departments and 
agencies to explore opportunities to integrate and coordinate the full 
range of available interagency stabilization tools and make appropriate 
recommendations.
                       strategy in iraq and syria
    Question. On 10 September 2014, President Obama said ``Our 
objective is clear: We will degrade, and ultimately destroy, ISIL 
through a comprehensive and sustained counterterrorism strategy.''
    What criteria do you believe should be used to evaluate whether or 
how much ISIL is degraded and what is your assessment of the progress 
to degrade ISIL in Iraq and in Syria?
    Answer. The United States is at the beginning of what could be a 
long campaign to degrade and inflict a lasting defeat on ISIL. DOD's 
contributions are one part of a whole-of-government strategy and an 
effort that includes many of coalition partners to create both the 
political and military conditions needed for success. Ultimately the 
Iraqis must offer a national program of reform and reconciliation in 
order for the Iraqi Security Forces to succeed. The coalition effort 
must also involve strengthening and working with the Iraqi Security 
Forces and affiliated Kurdish and tribal elements, who are critical to 
inflict a lasting defeat of ISIL. If confirmed, I will consult closely 
with my military commanders, civilian advisors, foreign partners, 
interagency counterparts and Members of Congress to examine progress 
and offer my best strategic advice to the President on this complex and 
vitally important campaign.
    Question. Do you believe the strategy against ISIL needs to include 
both conventional and counterinsurgency elements given that ISIL has 
demonstrated significant conventional and insurgency capabilities?
    Answer. Yes. I believe that a strategy for countering ISIL must 
bring to bear all elements of national power, including military force 
as well as diplomatic, intelligence, economic, humanitarian assistance, 
and other key tools. Many of these tools are important in a 
counterinsurgency as well as a conventional campaign. If confirmed, I 
would continue to support a whole-of-government approach.
    Question. What does the end state President Obama has declared to 
be the objective of our operations--``ultimately destroy ISIL''--look 
like in your opinion?
    Answer. I believe that ISIL must no longer be a threat to Iraq, the 
region, the United States, and our partners.
    Question. A large part of the support for ISIL and other extremist 
groups like al Nusrah by the local Syrian population is based on the 
fact that these groups pledge to go after President Assad, to remove 
him from power.
    Is removing Assad part of the current United States strategy in 
Syria? If not, what is your assessment of the impact of not going after 
Assad on our ability to work with the Syrian population to counter ISIL 
and other extremist groups like al Nusrah?
    Answer. As the President has said, Assad has lost legitimacy and 
cannot be a part of the long-term future of Syria. However, the most 
immediate threat to United States national interests is ISIL--and there 
is no sustainable solution in Syria without addressing the threat of 
ISIL. If confirmed, I will consult with my military commanders, 
civilian advisors, interagency partners, foreign counterparts and 
Members of Congress to formulate by best strategic advice for the 
President.
    Question. The NDAA for fiscal year 2015 authorizes assistance in 
Iraq to ``local security forces with a national security mission'' 
including ``tribal security forces or other local security forces.''
    How important do you consider arming of the Sunni tribes in Anbar 
province to degrading ISIL and how do you assess progress to date?
    Answer. Political inclusion in Iraq is a key element of countering 
ISIL in a lasting way. Integrating Sunni tribal fighters into the Iraqi 
Security Forces and enabling them to combat ISIL is therefore important 
to ultimately defeating ISIL. I have not been briefed in detail on this 
effort. If confirmed, I would continue to work with the Department of 
State, coalition partners, and the Government of Iraq to encourage 
efforts to arm and integrate Sunni tribal forces into the Iraqi 
Security Forces to fight ISIL.
                          afghanistan strategy
    Question. What lessons should we learn from the experience of a 
calendar-based drawdown of United States troops in Iraq as they apply 
to executing the drawdown of United States and international troops in 
Afghanistan?
    Answer. Each country has a unique set of underlying governance, 
security, and cultural circumstances. With the United States-
Afghanistan Bilateral Security Agreement in place, and with the support 
of the Afghan Government, the Department's train, advise, and assist 
mission with the Afghan security forces is intended to help ensure 
continued progress in developing Afghanistan's security capabilities 
and preserve the security gains we have made collectively. Based on 
what we have learned in Iraq, progress on political reform is key to 
this effort. I believe that the new government in Kabul will be the 
biggest driver in whether Afghanistan has a positive future. I welcome 
that President Ghani has stated that a continued United States and the 
North Atlantic Treaty Organization (NATO) presence is an important 
component of his strategy for Afghanistan. That provides a key 
foundation for the transition to a robust, sustainable security 
relationship in the future. I am mindful of the new and dynamic global 
threat environment, and you can be assured that if there are 
instructive lessons from Iraq or anywhere else that are relevant to 
Afghanistan, I will always take them into account in the advice I offer 
to the President.
    Question. If confirmed, are there changes you would recommend to 
the United States strategy in Afghanistan?
    Answer. The next 2 years represent an important transition period 
from more than a decade of war toward an enduring defense relationship 
with an Afghan partner that is capable of providing for its own 
security and preventing al Qaeda and other extremists from threatening 
United States interests. The NATO-led train, advise, and assist mission 
and the United States counterterrorism mission are cornerstones within 
our overall strategy that will provide the Afghans an opportunity to 
make progress on the security situation in Afghanistan, and serve as a 
balance against terrorist exploitation of Afghan territory. If 
confirmed, I will continue to seek the advice of our military 
leadership and partners.
    Question. What is your assessment of the progress of the campaign 
in Afghanistan?
    Answer. Over the last 13 years, our campaign in Afghanistan has 
placed constant pressure on al Qaeda and prevented Afghanistan from 
being used to launch terrorist attacks against the United States 
Homeland. The United States Government has supported the Afghan people 
and protected United States national interests by helping Afghanistan 
strengthen the capacity of its security forces. The Afghan National 
Security Forces (ANSF) have continued to progress, and have proven 
increasingly capable in leading operations and prevailing over 
insurgents. Although I am encouraged by the positive strides made in 
Afghanistan, it is clear that much work remains to be done. We must 
stay engaged with our Afghan partners and support them, as they own the 
fight. This must be an interagency and international effort - with 
appropriate funding for the ANSF as well as economic and diplomatic 
support for the Afghan people.
    Question. If reports of ISIL operating in southern Afghanistan are 
true, and ISIL is fighting with the Taliban, how should that affect the 
United States strategy for Afghanistan?
    Answer. I support the President's strategy to degrade and 
ultimately destroy ISIL, wherever it may attempt to establish a 
foothold. I am aware of recent press reporting that ISIL is attempting 
to recruit militants in Afghanistan and is considering expansion to the 
region. If confirmed, I will learn more about these developments and 
will work with the Afghan Government and our coalition partners to 
address all terrorist threats to United States personnel in Afghanistan 
and to prevent any terrorist groups from using Afghanistan to threaten 
the United States and our allies and partners.
    Question. If security conditions on the ground in Afghanistan 
degrade in 2016, would you consider recommending to the President 
revisions to the size and pace of the drawdown plan announced by the 
President in order to adequately address those security conditions?
    Answer. Yes.
    Question. In your opinion, should the authorities granted to the 
commander of United States forces in Afghanistan take into account the 
security conditions on the ground faced by United States troops?
    Answer. If confirmed as Secretary of Defense, I will take seriously 
my responsibility to ensure that our commander in Afghanistan has the 
authority needed to execute the missions directed by the President 
effectively, and that these authorities allow U.S. forces to take the 
appropriate measures to protect themselves.
                  afghanistan national security forces
    Question. What is your assessment of the progress in developing a 
professional and effective ANSF?
    Answer. If confirmed, I will assess this issue firsthand but my 
assessment has been positive. I will ensure that the Department 
continues building the ANSF's institutional capabilities, and I will 
work with our allies and partners to retain critical coalition support 
to the ANSF where capability gaps remain, particularly in the areas of 
close air support, intelligence, special operations, sustainment, and 
Afghan security ministry capacity.
    Question. What do you see as the main challenges to building the 
capacity of the ANSF and, if confirmed, what recommendations, if any, 
would you make for addressing those challenges?
    Answer. I understand that the main challenges to address with the 
ANSF are fielding and integrating capabilities such as close air 
support, special operations, and intelligence, surveillance, and 
reconnaissance; and developing the capacity of the Ministries of 
Defense and Interior to manage planning, programming, budgeting, 
logistics, force generation and force sustainment. Corruption and the 
flow of funding from illicit narcotics is also a significant challenge 
that requires an international and interagency response. If confirmed, 
I will assess our progress in helping the ANSF develop these areas and 
will focus on solutions to identified gaps.
    Question. What are the key enablers in security force capabilities 
that need to continue to be developed to ensure the long term efficacy 
of the ANSF against the Taliban and other extremists and when do you 
forecast those capabilities will be in place?
    Answer. I understand that the NATO Resolute Support mission places 
a high priority on developing the ANSF's capability to provide fire 
support from the air, and on developing organic airborne intelligence, 
surveillance, and reconnaissance (ISR) capabilities to maintain 
advantages over the Taliban and other extremists.
    Question. Do you support plans for building and sustaining the ANSF 
at 352,000 personnel?
    Answer. Based on the information available to me and given 
Afghanistan's current security challenges, I support the current 
authorized level of 352,000 ANSF personnel and will work with Congress 
to ensure that our efforts to sustain this force are appropriately 
resourced. If confirmed, I will ensure the Department will continue to 
work with the Afghan Ministries of Defense and Interior to determine 
the timing for reducing the ANSF to an appropriate size, given 
available resources, capabilities, and the magnitude of the threat.
    Question. Do you agree that any reductions in the ANSF from this 
352,000 level should be based on security conditions in Afghanistan at 
the time those reductions would be expected to occur?
    Answer. Although the security condition on the ground will be a 
critical factor in determining any future reductions in the ANSF, we 
must also look closely at the Afghan ability to sustain the ANSF 
financially. My understanding is that current Resolute Support mission 
efforts are focused on optimizing the effectiveness of the ANSF force 
structure while increasing the Afghan capability to sustain that 
structure. I believe we have an obligation to the Afghan people, our 
allies, and United States taxpayers, to ensure that the ANSF is a 
combat-effective, sustainable, and affordable force in the long-term.
                             reconciliation
    Question. In your view, what should be the role of the United 
States in any reconciliation negotiations with the Afghan Taliban and 
other insurgent groups?
    Answer. The United States supports an Afghan-led political peace 
process in which all opposition groups, including the Taliban, engage 
in a dialogue about the future of their country. I believe the United 
States should continue to support President Ghani's efforts to engage 
in peace talks, as long as any outcome of reconciliation includes that 
the Taliban and other armed groups end violence, break ties with al 
Qaeda, and accept Afghanistan's constitution--including its protections 
for women and minorities.
    Question. What additional steps, if any, should the United States 
be taking to help advance the reconciliation process?
    Answer. President Obama has made clear that an Afghan-led peace and 
reconciliation process is the surest way to end the violence and ensure 
lasting stability for Afghanistan and the region. It is my 
understanding that President Ghani is putting considerable effort into 
re-energizing reconciliation and is reaching out to regional partners 
and the international community to take part in the process. I believe 
the United States should support these new initiatives and, if 
confirmed, I look forward to engaging with my Afghan counterparts on 
how DOD can best support reconciliation efforts.
    Question. In your view, what should be the role of Afghanistan's 
neighbors, in particular Pakistan, in the reconciliation process?
    Answer. Afghanistan's neighbors should play constructive and 
supportive roles in an Afghan-led reconciliation process, since a 
stable and peaceful Afghanistan will promote long-term stability and 
prosperity for the entire region. I hope signs of improved Afghanistan-
Pakistan relations provide fresh opportunities for Pakistan to 
reinforce President Ghani's efforts toward peace talks between the 
Afghan Government and the Taliban.
           united states strategic relationship with pakistan
    Question. What would you consider to be areas of shared strategic 
interest between the United States and Pakistan?
    Answer. Counterterrorism cooperation remains a critical shared 
strategic interest. Pakistan still faces a real and potent threat from 
several militant groups within its borders, such as the Pakistani 
Taliban, responsible for the recent school attack in Peshawar.
    We also share Pakistan's strategic interest in improved relations 
between Islamabad and Kabul. I believe that the United States and 
Pakistan should continue to work to promote peace and reconciliation in 
Afghanistan and to improve regional security.
    Question. In what areas do you see United States and Pakistani 
strategic interests diverging?
    Answer. It is important that the United States continues to engage 
with Pakistan in areas where our strategic interests diverge, including 
the direction of Pakistan's nuclear program and its tolerance of 
terrorist organizations like the Haqqani Network and Lashkar-e Taiba. 
In addition to threatening United States forces in Afghanistan, these 
groups threaten regional security, endanger the prospects of a 
political settlement in Afghanistan, and undermine Pakistan's own 
stability. I understand that Pakistan has pledged to target all 
militant groups operating within its borders, including the Haqqani 
Network and Lashkar-e Taiba. If confirmed, I will ensure that the 
Department holds Pakistan to this pledge, and works against actors who 
are exploiting Pakistani territory to destabilize the region.
    Question. If confirmed, what changes, if any, would you recommend 
for United States relations with Pakistan, particularly in terms of 
military-to-military relations?
    Answer. If confirmed, I would continue to work on improving our 
relationship with Pakistan by collaborating where our strategic 
interests converge and engaging where they diverge. Moving forward, I 
believe it is in the United States' interest to expand counterterrorism 
cooperation with Pakistan in our fight against al-Qaeda, and to counter 
any emerging threats. Additionally, I would seek to facilitate 
cooperation between Afghanistan and Pakistan, and encourage 
communication between Pakistan and India, as these relationships will 
continue to be vital to stability in the region.
                  united states assistance to pakistan
    Question. Since 2001, the United States has provided significant 
military assistance to Pakistan. In addition, the United States has 
provided significant funds to reimburse Pakistan for the costs 
associated with military operations conducted by Pakistan along the 
Afghanistan-Pakistan border.
    In your view, how effective has the assistance and other support 
that the United States has provided to Pakistan been in promoting 
United States interests?
    Answer. I understand that since last summer, Pakistani forces have 
been clearing militants from their strongholds along the Afghanistan-
Pakistan border. Pakistan's military has been able to carry out these 
operations at a more effective pace and scale in part thanks to United 
States reimbursements for Pakistan's operational expenses. 
Additionally, I understand United States security assistance programs 
have provided the Pakistan military with many of the tools necessary to 
conduct successful operations in this region. Continued U.S. support 
will remain critical to the success of these efforts.
    Question. Do you support conditioning United States assistance and 
other support to Pakistan on Pakistan's continued cooperation in areas 
of mutual security interest?
    Answer. If confirmed, I will consult within the Department and the 
United States interagency on how best to incentivize Pakistani action 
that is in the mutual interest of the United States. The United States 
and Pakistan do work together on common objectives, and I believe we 
should carefully examine the impact of conditions on Pakistani 
cooperation. If confirmed, I will evaluate what additional support 
would be appropriate from the U.S. Government.
                                 libya
    Question. Following the evacuation of the United States Embassy in 
Tripoli on July 26, 2014, there is no longer an active American 
presence in the country and the situation in country remains dire.
    What role, if any, should the United States have in Libya moving 
forward?
    Answer. The United States has a national security interest in a 
stable Libya and in preventing its use as a terrorist safe haven. The 
United States should assist the ongoing United Nations-led political 
process to bring moderate Libyans into a unity government and bring an 
end to the conflict--which exacerbates the terrorist threat--and take 
measures to prevent terrorists from using Libya as a safe haven. When 
circumstances allow, the United States should once again consider 
supporting official Libyan security forces and their development.
 u.s. marine corps support to the state department embassy evacuations
    Question. The Accountability Review Board for Benghazi supported 
the ``State Department's initiative to request additional marines and 
expand the Marine Security Guard (MSG) Program--as well as 
corresponding requirements for staffing and funding. The Board also 
recommended that the State Department and DOD identify additional 
flexible MSG structures and request further resources for the 
Department and DOD to provide more capabilities and capacities at 
higher risk posts.'' The NDAA for fiscal year 2013 authorized up to 
1,000 additional marines in the MSG program to provide the additional 
end strength and resources necessary to support enhanced Marine Corps 
security at United States embassies, consulates, and other diplomatic 
facilities.
    In your view, should the current arrangements between the 
Department of State and U.S. Marine Corps be modified?
    Answer. I understand that DOD has taken measures to expand the 
Marine Security Guard (MSG) Program, and has taken the additional step 
of creating the MSG Security Augmentation Unit, which may be used to 
provide additional security at diplomatic facilities as threats change. 
In 2013, the U.S. Marine Corps (USMC) and the Department of State (DOS) 
signed a new Memorandum of Agreement (MOA) on Marine Security at DoS 
facilities. I understand that DOD and DOS are reviewing policies, 
programs, roles, and responsibilities--including the MSG program--to 
maximize the protection of our overseas diplomatic facilities and 
personnel, and would support this review if confirmed.
    Question. In your view, would it be beneficial to the security of 
diplomatic facilities, many of which house U.S. military personnel, to 
have appropriate DOD personnel to assist in the conduct of 
vulnerability assessments of such facilities?
    Answer. Yes. To that end, the Department has directed its 
Geographic Combatant Commands (GCCs) to conduct planning and 
coordination with Chiefs of Mission at high-threat, high-risk posts 
identified by DoS. The GCCs are also directly engaged with the Chiefs 
of Mission to plan and coordinate response options. Likewise, GCC 
Security Assessment Teams have deployed to numerous high threat posts 
such as Baghdad and Sana'a to help Embassy staff with their security 
and evacuation planning. I would review these issues if confirmed and 
offer my best recommendation.
                   al qaeda in the arabian peninsula
    Question. What is your assessment of the threat posed by al Qaeda 
in the Arabian Peninsula (AQAP) to the United States?
    Answer. AQAP poses a significant terrorist threat to the United 
States Homeland and United States interests in the Middle East. Since 
2009, AQAP has attempted at least three attacks on the United States, 
including through the use of sophisticated concealed explosive devices. 
Additionally, AQAP attack plotting led to the temporary closure of 
several United States Embassies in the Middle East in August 2013.
    Question. What is your assessment of the current United States 
strategy to counter AQAP, specifically in Yemen?
    Answer. Countering AQAP should be a top priority for the U.S. 
Government. The United States counterterrorism (CT) strategy in Yemen 
focuses on a mix of partnership activities and limited direct action 
against those who threaten the United States. The United States 
Government, in partnership with its allies and the Yemeni Government, 
have made a number of important gains against AQAP, including the 
removal of numerous AQAP leaders and the disruption of plotting against 
the United Sates, although AQAP remains resilient and we must maintain 
our vigilance in addressing this threat. If confirmed I intend to 
receive a detailed briefing to inform my assessment.
                                 yemen
    Question. What are United States national security interests in 
Yemen?
    Answer. Our primary national security interest in Yemen is to 
disrupt, dismantle, and defeat AQAP and eliminate the ungoverned 
territory that AQAP or any hostile group may seek to exploit to 
threaten the United States, our regional interests, and those of our 
partners. We also have an interest in a stable government in Yemen, and 
support a responsible transition to an inclusive and capable government 
that helps achieve those objectives.
    Question. What is your assessment of United States strategy in 
Yemen to date?
    Answer. I believe that although the United States Government has 
helped the Yemeni Government build the capabilities of its security 
forces, the political instability that has long plagued Yemen--
particularly in recent weeks--hinders Yemen's ability to respond the 
threat posed by AQAP.
    Question. What are the implications of recent events in Yemen for 
United States counterterrorism policy both in Yemen and globally?
    Answer. Continued political turbulence in Yemen risks further 
hindering Yemeni efforts against AQAP and enabling AQAP to continue to 
plot attacks and recruit operatives in Yemen's ungoverned spaces. 
AQAP's claim of responsibility for the Charlie Hebdo attack in Paris 
demonstrates that AQAP continues to pose a threat to the United States 
and its allies and partners. The political situation in Yemen is 
difficult and fluid, and it remains to be seen how this will affect our 
relationship with the Yemeni Government. Nevertheless, I believe the 
United States should continue to maintain pressure on AQAP by using all 
necessary means to eliminate terrorist threats to our national 
security.
                              north africa
    Question. In recent years, there has been a growth of terrorist 
networks, capabilities, operations, and safe havens throughout North 
and East Africa, including groups that have the intention to target 
United States and western interests. In the face of growing instability 
and threats, the U.S. counterterrorism effort in the region has been 
described as an ``economy of force'' effort.
    Do you agree with that characterization of the situation in North 
and East Africa and the United States counterterrorism efforts to 
combat the related threats?
    Answer. I would characterize United States counterterrorism efforts 
in North and East Africa as working by, with, and through our allies 
and regional partners. In North Africa, the United States works with 
allies such as the French and regional partners such as Tunisia, Niger, 
and Chad. Specifically, DOD has supported their combined operations 
against groups such as al Qaeda in the Lands of the Islamic Maghreb 
(AQIM) and al-Murabitun. In East Africa, the United States has 
continued training, equipping, and enabling the African Union Mission 
to Somalia troop contributing countries in their efforts to stabilize 
Somalia and counter the threat posed by al-Shabaab.
    Question. What is your assessment of the current U.S. 
counterterrorism strategy in the region?
    Answer. I understand the current United States strategy seeks to 
prevent and disrupt terrorist plots that threaten United States 
interests at home and abroad, while helping the Yemeni government build 
its own CT capabilities to combat AQAP over the long run. I am aware 
that the United States has removed several key AQAP operatives from the 
battlefield and disrupted AQAP plots. In 2012, Yemeni forces, with 
training and advisory support from the Department, succeeded in driving 
AQAP from large areas of Yemen. However, I believe the turbulent 
political situation in Yemen will complicate these efforts, and will 
require adapting the strategy to these changes.
    Question. In your view, is the U.S. military allocating adequate 
resources to effectively address the terrorism threat in the region?
    Answer. In my view, given the counterterrorism challenges we face 
in numerous areas, United States military resources are adequately 
balanced to meet the many competing counterterrorism requirements in 
North and East Africa.
    Question. General Rodriguez noted in his March 2014 testimony that 
``North Africa is a significant source of foreign fighters in the 
current conflict in Syria.''
    What is your understanding of the foreign fighter flow from North 
Africa to the conflict in Syria and Iraq?
    Answer. I believe foreign fighters pose a threat to the United 
States, and that this threat is exacerbated by the ongoing political 
and security instability in Libya. If confirmed, I will focus attention 
on the foreign fighter flow as the Department works with regional 
partners in North Africa to address the challenge posed by the 
terrorist safe haven in Libya and broader counterterrorism issues.
    Question. In your view, is it likely that many of these fighters 
will eventually return home from Syria and Iraq to North Africa and 
continue their fight against regional governments?
    Answer. There is a real possibility that as we address the 
situation in Syria and Iraq, some of these fighters may choose to 
return home to North Africa. This could pose a serious challenge for 
our regional partners. These returning fighters will have the benefit 
of training and combat experience. It is therefore important that the 
United States continue its close collaboration on counterterrorism with 
our partners in North Africa so that they are prepared to respond in 
the event that the fighters decide to take up arms upon their return.
    We must also work closely with the neighbors of Syria and Libya to 
build up their security capabilities to counter instability and the 
negative regional impact it could cause. If confirmed, I would ensure 
that DOD supports the diplomatic efforts to secure a political solution 
in Libya, work closely with Libya's neighbors to ensure regional 
stability, and maintain an active and robust counterterrorism presence 
in the region.
   collaboration between the defense department and the intelligence 
                               community
    Question. Since September 11, 2001, collaboration--both analytical 
and operational--between DOD and the Intelligence Community has grown 
increasingly close. On one hand, seamless collaboration is a vital 
component of effective and rapid responses to non-traditional threats, 
and bringing together the strengths of the full spectrum of defense and 
intelligence missions creates opportunities for solutions to complex 
problems. On the other hand, such collaboration--without effective 
management and oversight--risks blurring the missions of agencies and 
individuals that have cultivated distinct strengths or creating 
redundant lines of effort.
    What are your views regarding the appropriate scope of 
collaboration between DOD and the Intelligence Community?
    Answer. Collaboration between DOD and the Intelligence Community 
(IC) is an essential element for supporting our national security 
objectives. For example, DOD depends on capabilities provided by the IC 
to support weapons systems acquisition and to enable military 
operations. The IC depends on capabilities provided by DOD to support 
special forces. This collaboration is essential to make progress toward 
dismantling and strategically defeating al Qa'ida, to counter the 
proliferation of WMD, to defend against space and cyber threats, and to 
operate in denied areas.
    Question. In your view, are there aspects of the current 
relationship between the Department and the Intelligence Community that 
should be re-examined or modified?
    Answer. I am not aware of any specific areas requiring immediate 
modification, however, if confirmed, I will look for opportunities to 
build on the existing strong relationship.
                                 russia
    Question. Crimea was formally annexed when President Putin signed a 
bill to absorb Crimea into the Russian Federation on March 18, 2014, 
and Russia continues to fuel instability in eastern Ukraine despite a 
ceasefire agreed to in September 2014.
    How effective do you assess the sanctions of the United States and 
the European Union have been in deterring additional aggression by 
Russia?
    Answer. United States and European Union sanctions, combined with 
declining oil prices, have significantly impacted the Russian economy 
and highlight the consequences of Russia's actions in Ukraine. 
Unfortunately, despite these costs, Russia has not abided by its 
commitments in the Minsk agreements and is continuing to foment 
instability in eastern Ukraine. If confirmed, I would work with U.S. 
departments and agencies to review and adjust our sanctions regime as 
appropriate.
    Question. In your opinion, what other specific actions has the 
United States taken that have helped to deter additional Russian 
aggression in Eastern Europe?
    Answer. The United States has taken action, both bilaterally and 
within the NATO Alliance, with the goal of deterring additional Russian 
aggression and reassure European Allies. These include the 
establishment of the European Reassurance Initiative (ERI), which 
provides an enhanced rotational presence in Europe; support to United 
States allies and partners in the region; and increased training and 
exercises. If confirmed, I plan to take a close look at what additional 
actions we might take to deter Russia and impact Putin's calculus.
    Question. In your opinion, what steps have proven or are likely to 
prove most effective at deterring Russian aggression in Eastern Europe?
    Answer. If confirmed, I would take a close look at what actions may 
have worked best, and what additional actions we might take, to deter 
Russia from aggression in Eastern Europe.
    Question. Do you believe that Moldova and Georgia are at a 
heightened state of vulnerability given Russian willingness to take 
aggressive action in Ukraine?
    Answer. Yes. Russia has long fomented ``frozen conflicts'' in 
Moldova and Georgia in order to limit their freedom of action and 
hinder their Euro-Atlantic ambitions. Following Russia's actions in 
Crimea and eastern Ukraine, Moldova and Georgia have increased their 
efforts to deepen cooperation with the United States and NATO.
    Question. Russian tactics in eastern Ukraine have been called 
``hybrid'' and combine hard power with soft power, including elements 
such as lethal security assistance to separatists, the use of special 
forces, extensive information operations, withholding energy supplies 
and economic pressure.
    If confirmed, what elements should make up the strategy you would 
recommend to counter this ``hybrid'' approach?
    Answer. Through the European Reassurance Initiative and the NATO 
Readiness Action Plan, the United States is supporting our Allies and 
partners in Eastern Europe with training activities, rotational 
presence, and capacity-building programs. These efforts focus on making 
our allies and partners more resistant to asymmetric threats; 
demonstrating United States resolve to support European and global 
security; and deterring Russian aggression. If confirmed, I would seek 
opportunities to support and work with our Allies and partners in 
creating more activities, training, and exchanges that build their 
resistance to asymmetric, or hybrid, methods of coercion.
    Question. In light of Russia's actions in 2014, what do you believe 
are appropriate objectives for United States-Russian security 
relations?
    Answer. As I understand the situation, DOD suspended military 
cooperation with Russia as a result of its occupation and attempted 
annexation of Crimea. Russia's behavior is inconsistent with that of a 
responsible, global stakeholder, and I support this response. If 
confirmed, I would be open to seeking measured avenues that allow more 
productive engagement with Russia, but only on issues where we have a 
clear national interest.
                             nato alliance
    Question. The reemergence of an aggressive Russia has resulted in 
NATO developing the Readiness Action Plan that NATO Secretary General 
Jens Stoltenberg called ``the biggest reinforcement of our collective 
defense since the end of the Cold War.'' NATO also continues to be 
central to our coalition operations in Afghanistan and elsewhere, even 
as many NATO members have significantly reduced their national defense 
budgets in response to economic and fiscal pressures.
    In your view, particularly in light of the Russian Federation's 
aggression against Ukraine, what are the major strategic objectives of 
the NATO Alliance in the coming years?
    Answer. The greatest responsibility of the Alliance is to protect 
and defend its territory and populations against attack, as set out in 
Article 5 of the North Atlantic Treaty. The best way to protect our 
populations and territories is to cooperate with Alliance partners to 
deter challenges to our security from emerging; to effectively manage 
challenges when they do emerge; and to be prepared to mount a strong 
defense if deterrence fails. When allies feel threatened--as many do as 
a result of Russia's aggression against Ukraine--it is important for 
the Alliance to carry out the necessary training, exercises, and 
planning and to provide visible reassurance to vulnerable Allies in 
order to reinforce confidence in Article 5 and sustain Alliance 
solidarity. NATO must also remain prepared to undertake its other 
``core tasks'' of crisis management and cooperative security, drawing 
on its unique political and military capabilities to prevent and 
respond to crises and to work with partners and other international 
organizations to address threats that emanate from outside Alliance 
territory.
    Question. What are the greatest opportunities and challenges that 
you foresee for NATO in meeting its strategic objectives over the next 
5 years?
    Answer. NATO's greatest opportunities lie in how it deals with the 
expanding range of challenges it will face over the next five years. 
While I cannot predict all the challenges the alliance will face, 
NATO's ability to respond effectively and with resolve against Russia's 
aggression; to counter non-state actors that threaten the alliance and 
its periphery, such as ISIL; and to manage the transition in 
Afghanistan will be critical over the next 5 years. Managing these 
myriad challenges will require the political will, solidarity, and 
adequate defense investment to fulfill the vision of the Wales Summit. 
Ensuring that happens will be NATO's greatest challenge over the next 5 
years.
    Question. In light of the reductions in national defense spending 
by some NATO members, are you concerned that the Alliance will lack 
critical military capabilities? If so, what steps, if any, would you 
recommend be taken to address potential shortfalls in Alliance 
capabilities?
    Answer. The United States should be concerned about continued 
reductions in defense investment by our Allies, particularly the NATO 
Allies that have been our most reliable partners for managing global 
security issues. These capabilities can be costly, but we need to 
ensure that in the future the United States is not the only Ally with 
such capabilities. That means holding Allies to the Defense Investment 
Pledge they agreed to at the Wales Summit and working with Allies on 
defense planning to ensure they maintain the specific capabilities that 
are needed.
    Question. What do you see as the proper role, if any, for NATO in 
addressing the threat posed by ISIL and in addressing the problem of 
illegal immigration across the Mediterranean Sea?
    Answer. NATO nations have a vested interest in defeating ISIL, both 
to promote stability in the Middle East and to eliminate the threat 
posed by ISIL to NATO nations and partners. If confirmed I would work 
with NATO Allies to appropriately scope our collective efforts. To 
date, NATO nations have committed forces to counter ISIL under 
unilateral and multilateral efforts. On illegal Mediterranean 
immigration, NATO should continue its efforts to share information 
gained through maritime situational awareness operations. If Allies 
agree, NATO could also help address regional security crises and 
instability, or humanitarian crises, which are often associated with 
displaced populations and flows of refugees.
    Question. The concept of defense cooperation between NATO members 
was emphasized at the NATO summit in Chicago in May 2012.
    What areas or projects would you recommend, if confirmed, that NATO 
nations cooperate in to improve NATO alliance capabilities?
    Answer. Cooperation among allies on capabilities is increasingly 
important in light of the worldwide challenges and the fiscal straits 
facing allied nations. If confirmed, I would work to ensure allies 
honor their recent Summit pledge to move toward the two percent defense 
spending target, which also called for focusing those resources on 
specific alliance capability needs, such as command and control and 
joint intelligence, surveillance, and reconnaissance.
    Question. Under what conditions, if any, would you envision further 
enlargement of NATO in the coming years?
    Answer. The door to Alliance membership remains open to those 
European nations deemed ready for membership by the 28 allies. The 
United States and our allies, through Partnership for Peace and other 
Partner programs, work with candidates to help prepare for membership, 
such as through improving military capabilities and interoperability. 
If confirmed, I would ensure DOD is working both at NATO and 
bilaterally to ready candidates to be considered for membership.
    Question. In your view, is there a continuing requirement for U.S. 
nuclear weapons to be deployed in NATO countries?
    Answer. NATO will remain a nuclear Alliance for as long as nuclear 
weapons exist. The Alliance's nuclear force is an effective deterrent. 
Allies reaffirmed this stance at the Wales Summit last September, and I 
support the conviction that NATO must maintain the full range of 
capabilities necessary to maintain Alliance security, based on an 
appropriate mix of nuclear, conventional, and missile defense 
capabilities.
    Question. Turkey continues to be a gateway for foreign fighters 
proceeding to and from Syria and Iraq.
    What steps would you recommend, if confirmed, to encourage Turkey 
to address this threat?
    Answer. The threat posed to the United States and the west by 
foreign fighters moving in and out of Syria--many of whom transit 
through Turkey--remains a concern. If confirmed, I would continue to 
support United States interagency efforts to assist Turkey in 
disrupting this threat--including strengthening the Department's 
partnership on this issue with the Turkish military--as well as to 
assist the source countries for foreign fighters around the world in 
doing more to identify and halt potential violent extremists before 
they travel.
                                 kosovo
    Question. Approximately 700 United States troops remain in the 
Balkans as part of the Kosovo Force (KFOR) that first deployed to 
Kosovo in 1999 and today is comprised of over 4,600 personnel from 30 
countries. Spikes in violence in 2011 required the deployment of the 
NATO operational Reserve Force battalion of approximately 600 soldiers 
to bolster KFOR and maintain a secure environment. Progress is required 
in both the military and political realms before further troop 
reductions can be made.
    What major lines of effort do you think are required to further 
reduce or eliminate United States and NATO presence in Kosovo?
    Answer. The key line of effort that will define United States and 
NATO presence in Kosovo is the continued normalization of relations 
between Serbia and Kosovo, under the EU facilitated dialogue that led 
to a normalization agreement in April 2013. A further line of effort is 
the transition of the Kosovo Security Forces into a Kosovo Armed Force 
that integrates the various ethnic communities of Kosovo and 
contributes to the strength of national governing institutions.
    Question. In your view, can the European Union play a more 
significant role in Kosovo?
    Answer. The EU plays a significant role in Kosovo as one of the 
three major guarantors of Kosovo's peace and stability, along with the 
Kosovo national police and NATO's Kosovo Force. The EU-facilitated 
political dialogue between Serbia and Kosovo, along with the reforms 
and concessions the EU requires of Serbia as it seeks EU membership, 
are major factors contributing to the normalization process between 
Kosovo and Serbia. This active engagement by the EU has been an 
essential part of the progress made to date.
                       special operations forces
    Question. The 2006 and 2010 QDRs mandated significant growth in our 
Special Operations Forces (SOF) and enablers that directly support 
their operations. The most recent QDR released in 2014 QDR capped this 
growth at 69,500, approximately 2,500 below the original planned 
growth.
    In light of the increase in terrorist threats worldwide, do you 
believe the revised end strength for SOF is sufficient to address such 
threats?
    Answer. Since 2001, the Department has continuously examined the 
U.S. Special Operations Command (SOCOM) force structure to ensure that 
there are adequate SOF capabilities and capacities to meet the 
worldwide terrorist threat. The Department has invested in SOF 
readiness and modernization efforts to meet emerging requirements and 
to address the needs of the future security environment. If confirmed, 
I would work closely with my interagency counterparts to develop 
options for the best use of these capabilities and with those 
responsible in the department to examine this issue further.
    Question. SOFs are heavily reliant on enabling support from the 
general purpose force.
    In light of current fiscal challenges, do you believe sufficient 
enabling capabilities can be maintained within the general purpose 
forces and that such capabilities will remain available to SOFs?
    Answer. I believe that it is important for our SOFs to receive 
excellent support from the Services. If confirmed, I would work closely 
with those responsible in the Department to ensure the Department 
achieves an appropriate balance.
                          combating terrorism
    Question. What is your assessment of the threat posed by al Qaeda 
and associated forces to the United States Homeland, U.S. interests 
overseas, and western interests more broadly? Which al Qaeda affiliates 
and associated forces are of most concern?
    Answer. Al Qaeda and its affiliates and adherents continue to pose 
a significant threat to the United States, its interests, and the 
interests of our key western allies. The recent attacks in Paris, which 
have been linked to AQAP demonstrates this fact.
    Question. What is your understanding of the Department's role in 
the U.S. strategy to combat terrorism?
    Answer. DOD has a two-fold role in carrying out the President's 
guidance contained in the 2011 National Strategy for Combating 
Terrorism. First, the Department's principal function in support of 
this strategy is to work with key partners around the globe to build 
their own capacity to take action against terrorist groups and networks 
both internally and within their particular regions. Capacity building 
efforts are part of a broad multi-departmental and multi-agency effort 
in support of the strategy's long-term goal to advance effective 
democracies. Second, the Department actively works to prevent terrorist 
network attacks by collecting and sharing intelligence with key 
partners, conducting information operations, and, when appropriate, 
conducting U.S. operations to capture or kill terrorists who pose a 
continuing, imminent threat to U.S. persons.
    Question. Are there steps the Department should take to better 
coordinate its efforts to combat terrorism with those of other Federal 
departments and agencies?
    Answer. In the decade following the events of September 11, the 
U.S. Government learned many lessons relating to the value of active 
cooperation and sharing among the various departments and agencies. DOD 
has internalized many of these lessons as part of our institutional 
culture; it routinely coordinates and collaborates with other Federal 
departments and agencies to combat terrorist networks and threats to 
U.S. interests. Success in today's complex threat environment requires 
an interagency approach.
    Question. In your opinion, how does the fighting between ISIL and 
al Qaeda for preeminence among terrorist organizations alter the nature 
or scope of the global security threat as it relates to violent 
extremists? What elements of our strategy best take advantage of the 
infighting between major terrorist groups?
    Answer. The fighting between ISIL and al Qaeda for preeminence of 
the global jihadist movement does not significantly alter the scope of 
the threat posed to the Homeland, our overseas bases, and our deployed 
personnel. We must remain vigilant against all threats to the United 
States Homeland, overseas infrastructure, and interests, and we must 
remain flexible to meet the threat posed by either ISIL or al Qaeda, 
and potentially other violent groups as necessary. However, there 
exists the potential that competition between the groups could escalate 
the threat we face, as each group increases external plotting efforts 
in an attempt to bolster their credentials within the global jihadist 
movement.
    As opportunities may emerge for the United States to further 
disrupt their activities. I would direct the Department to monitor 
these opportunities and recommend steps to address them as needed.
                        section 1208 operations
    Question. Section 1208 of the Ronald Reagan NDAA for fiscal year 
2005 (Public Law 108-375), as amended by subsequent bills, authorizes 
the provision of support (including training, funding, and equipment) 
to regular forces, irregular forces, and individuals supporting or 
facilitating military operations by U.S. SOFs to combat terrorism.
    What is your assessment of this authority?
    Answer. It is my understanding that section 1208 authority is an 
effective tool to support U.S. SOFs conducting counterterrorism 
operations. If confirmed, I would look for ways to maximize our return 
on the investments we are able to make in support of partner forces 
under section 1208 authority.
                       mass atrocities prevention
    Question. President Obama identified the prevention of mass 
atrocities and genocide as a core U.S. national security interest, as 
well as a core moral interest, in August 2011 under Presidential Study 
Directive 10.
    What are your views on the role the United States plays in the 
prevention of mass atrocities and genocide?
    Answer. The United States can help prevent mass atrocities and 
genocide worldwide. That role is consistent with our values, and is in 
our national security interest. The military has unique capabilities to 
counter atrocities; in a recent example, United States air strikes 
helped protect Yezidi refugees on Mount Sinjar in Iraq. There is more 
to atrocity prevention than use of military force, however. For 
example, adequate warning mechanisms and international pressure, 
including sanctions, can also help prevent atrocities and genocide.
    Question. What are your views on the adequacy of the Department's 
tools and doctrine for contributing to this role?
    Answer. I believe the Department has effective tools and doctrine 
to help deter both mass atrocities and genocide. These tools include 
providing humanitarian assistance and helping secure territory to 
protect civilians. If confirmed, I would continue to look for ways to 
enhance the tools and doctrine available to us in preventing mass 
atrocities and genocide.
         united states force posture in the asia pacific region
    Question. The Defense Department's January 2012 strategic guidance, 
``Sustaining U.S. Global Leadership: Priorities for the 21st Century'', 
states that ``while the U.S. military will continue to contribute to 
security globally, we will of necessity rebalance toward the Asia-
Pacific region.'' Likewise, the 2010 report of the QDR states that the 
United States needs to ``sustain and strengthen our Asia-Pacific 
alliances and partnerships to advance mutual security interests and 
ensure sustainable peace and security in the region,'' and that, to 
accomplish this, DOD ``will augment and adapt our forward presence'' in 
the Asia-Pacific region.
    What does the ``rebalance toward the Asia-Pacific region'' mean to 
you in terms of force structure, capabilities and funding?
    Answer. The rebalance to the Asia-Pacific region, as announced by 
the President, incorporated in the 2012 Defense Strategic Guidance, and 
reinforced by the 2014 QDR, has resulted in a significant rebalancing 
of U.S. force structure and capabilities to this region, commensurate 
with its vital importance to U.S. security interests and global peace 
and prosperity. As we plan for the future, we will need to prioritize 
investments in advanced capabilities that are critical for the future 
operational environment. If confirmed, I will continue to support the 
ongoing efforts to increase DOD presence in the region and invest in 
and deploy critical advanced capabilities.
    Question. If sequestration cuts move forward as planned beginning 
in fiscal year 2016, do you feel DOD has adequate resources to 
implement the January 2012 strategic guidance?
    Answer. If we return to sequestration-level cuts in fiscal year 
2016, we will face significant risks across the board, and may have to 
reassess the defense strategy. If confirmed, I look forward to working 
with Congress to help solve this pressing problem.
    Question. What do you see as the United States security priorities 
in the Asia-Pacific region?
    Answer. First and foremost, we must work tirelessly to protect 
security and stability in the Asia-Pacific region, which is vital to 
the prosperity of all Pacific nations, including the United States. The 
United States faces a range of challenges in the Asia-Pacific region, 
including provocations by the DPRK and the growth of its ballistic 
missile programs, the emergence of new technologies intended to prevent 
open access to the air and maritime domain, widespread natural 
disasters and transnational threats, and territorial disputes.
    To address these challenges, I believe the Department must continue 
to modernize U.S. alliances and partnerships, which provide a critical 
role in underwriting regional security. The Department should also 
continue to strengthen our ability to deter threats to the U.S. 
Homeland and our allies and citizens overseas, enhance United States 
force posture and capabilities in the region, work with China to 
encourage greater transparency about how it will use its growing 
military capabilities; and encourage the peaceful resolution of 
territorial disputes in accordance with international law.
    Question. Do you believe that it is a ``necessity'' to rebalance 
the United States military toward the Asia-Pacific region? If so, why?
    Answer. Yes. The United States has been--and always will be--a 
Pacific nation, due to both our geography and our critical interests in 
the region. The Asia-Pacific region is home to over half of the world's 
population, half of the world's GDP, and nearly half of the world's 
trade. It is also home to some of the world's fastest growing economies 
and largest democracies.
    The United States military presence has played a vital role in 
undergirding peace and stability in the Asia-Pacific region for over 60 
years. Our presence deters potential adversaries; protects core 
principles, such as freedom of the seas and the peaceful resolution of 
conflicts; and reassures key allies and partners. I believe this 
presence is critical to the continued security of the region and the 
future prosperity of the United States and our allies and partners.
    Question. Do continuing operations in the Middle East hamper this 
pivot?
    Answer. It is important to continue to advance the force structure 
changes, new forces station plans, improvements in advanced weapon 
systems, and other measures that make up the military aspects of the 
rebalance, as well as to continue the political and economic aspects, 
even as U.S. forces respond to other global contingencies.
    Question. Why, if at all, do you believe it is important for the 
United States military to maintain and even augment its forward 
presence in the Asia-Pacific region, and what are the advantages to 
having a forward presence?
    Answer. It is critical for the United States military to evolve its 
forward presence in the Asia-Pacific region to respond to the changing 
strategic environment. If confirmed, I will continue ongoing efforts to 
achieve a more geographically distributed, operationally resilient, and 
politically sustainable force posture in the Asia-Pacific in order to 
reassure allies and partners and deter aggressive acts by adversaries. 
I believe that improving access and presence enables building regional 
partner capacity that is a force multiplier for U.S. military forces in 
the event of a contingency or humanitarian crisis in the region.
    Question. Secretary Hagel has said that the Army could ``broaden 
its role,'' after more than a decade of continuous operations in Iraq 
and Afghanistan, ``by leveraging its current suite of long-range 
precision-guided missiles, rockets, artillery and air defense systems'' 
to build a modern coastal defense force that could contribute to 
operations in anti-access/area-denial environments.
    Do you concur that U.S. defense policy would be served if the Army 
were to adopt such a mission? What do you see as possible obstacles to 
the Army taking on such a mission?
    Answer. If confirmed, I would support Army's ongoing efforts to 
improve its integrated air and missile defense capabilities. In the 
coming years, the drawdown in Afghanistan will allow the Army to focus 
on resetting, to look forward to new missions, and to invest in 
innovative technologies and concepts of operations that will contribute 
to the resiliency of the joint force.
    Question. Are you confident the Guam Distributed Laydown Plan can 
be executed at the cost estimate and under the political assumptions 
previously presented by the Department?
    Answer. The Joint Force is developing Guam into a strategic hub for 
the region. Following the submission of the Guam Master Plan to 
Congress in July 2014, execution of the Guam program is moving forward. 
I understand that the new plan is comprehensive, but I am not fully 
briefed on the updated details at this time. If confirmed, I will 
direct that efforts continue within the Department to scrutinize costs 
and program execution, as well as to engage with my Japanese 
counterparts on their continued contributions.
    Question. Do you see value in the Department conducting another 
East Asia Strategy Report, as was last done in the late 1990s?
    Answer. Yes, I believe it is in the Department's interest to 
clearly articulate our priorities and security objectives in this vital 
region of the world. The report required section 1251 of the NDAA for 
fiscal year 2015 provides the Department with the opportunity to 
address these issues.
    Question. Do you see a need for enhanced United States security 
engagement in the Indian Ocean, and if so, in what areas and with whom?
    Answer. Yes. The Indian Ocean is one of the world's busiest trade 
corridors and the United States and our regional partners have a shared 
interest in ensuring safe and secure access to its maritime routes. As 
Asian economic growth continues to increase traffic in the Indian 
Ocean, it will increase the potential for threats in the region, 
including piracy, extremist attacks, or illegal trafficking. The United 
States has a strong interest in working with long-time allies and 
partners such as India and Australia to combat these threats, while 
also increasing security assistance and military-to-military engagement 
with other strategically positioned states such as Bangladesh, Sri 
Lanka, and the Maldives.
                                 china
    Question. From your perspective, what effect is China's expanding 
economy and growing military having on the region at-large and how does 
that growth influence the United States security posture in the Asia-
Pacific region?
    Answer. China's economic growth can be a positive force in the 
Asia-Pacific region, and the United States and many countries in the 
region welcome China's economic rise. However, China's increasing 
military might, in the absence of greater transparency from China, is 
causing rising concern throughout the region and must be closely 
watched. China's military expenditures continue to grow annually at 
double-digit rates even as China asserts territorial and maritime 
claims in ways contrary to international norms. These developments are 
spurring other Asia-Pacific countries to modernize their militaries and 
causing increased demand in the region for security cooperation with 
the United States.
    The United States should continually evaluate our force posture and 
capabilities in order to sustain peace and stability in the region. If 
confirmed, I will work to ensure that the United States remains the 
preeminent military power in the Asia-Pacific region in order to 
sustain the conditions that have fostered peace and prosperity.
    Question. As China continues to invest in capabilities designed to 
deter or deny United States military forces seeking to operate in the 
Western Pacific, are you confident that the United States is investing 
in the right programs, posture, and operational concepts to sustain a 
favorable military balance with China?
    Answer. It is necessary for the United States to continue to 
monitor closely trends in Chinese military modernization, strategy, 
doctrine, and training, and in concert with allies and partners, to 
adapt investment programs, posture, and operational concepts to 
maintain a stable and secure Asia-Pacific security environment and a 
favorable military balance with China.
    Question. What can the United States do, both unilaterally and in 
coordination with allies and partners, to counter the increasing 
challenge posed by China in the East and South China Seas?
    Answer. As a Pacific nation, the United States has a vested 
interest in maintaining peace and stability, the free flow of commerce, 
and freedom of navigation and overflight in the East and South China 
Seas. United States security presence, including our strong alliances 
and partnerships, as well as our force posture and capabilities, have 
protected these interests and helped maintain maritime stability for 
more than 60 years.
    The United States must continue to encourage China to clarify its 
claims in the South China Sea in accordance with international law. We 
should also reaffirm our strong commitment to our allies and partners 
and the need for all parties to develop confidence-building measures 
that will increase transparency and reduce risk.
    If confirmed, I will work to ensure that the United States sustains 
its ability to deter aggression and coercion and maintain free and open 
access to the maritime domain in the Asia-Pacific region. To this end, 
I will continue the Department's efforts to modernize U.S. security 
alliances and partnerships, enhance U.S. force posture, and update our 
military capabilities.
    Question. United States-China military-to-military dialogue has 
been strained over the past several years and efforts to establish and 
maintain mutually beneficial military relations has been hampered by 
China's propensity for postponing or canceling military engagements in 
an apparent effort to influence United States actions, although there 
is some evidence that the relationship is improving.
    What is your view of the purpose and relative importance of 
sustained military-to-military relations with China?
    Answer. It is profoundly in the United States' and China's 
interests that we find ways in the overall relationship, as well as in 
the military-to-military relationship, to increase cooperation where 
our interests overlap and to manage our differences where we disagree. 
In recent years, the Department's sustained and substantive dialogue 
with the Chinese People's Liberation Army (PLA) has enabled both the 
United States and China to reduce the risk of misperception and 
miscalculation, as well as to deepen practical cooperation in areas 
ranging from humanitarian assistance to military medicine. In addition 
to making investments that ensure our technological advantages in all 
domains, the military-to-military relationship is an important 
component in managing competition.
    I believe we should continue to use our military engagement with 
China to establish deeper cooperation where there is clear, mutual 
benefit and to enhance dialogues to reduce risk and manage our 
differences. As the Department continues to develop the military-to-
military relationship with China, it will be important to also adapt 
forces, posture, and operational concepts in cooperation with our 
allies and partners to maintain a stable and secure Asia-Pacific 
region.
    Question. Do you believe that we should make any changes in the 
quality or quantity of our military relations with China? If so, what 
changes would you suggest and, given Chinese resistance to military-to-
military dialogue, how would you implement them?
    Answer. If confirmed, I would seek to strengthen the United States-
China military-to-military relationship in ways that best serve the 
interests of the United States and our allies and partners. Military-
to-military ties are beginning to demonstrate positive outcomes. China 
is devoting more attention to operational safety and preventing 
incidents that could seriously harm the overall relationship. If 
confirmed, I will continue to pursue a sustained, substantive dialogue 
that aims to reduce risk and manage our differences, while building 
concrete, practical cooperation in areas of mutual interest.
                              north korea
    Question. What is your assessment of the current security situation 
on the Korean peninsula?
    Answer. The United States-ROK alliance continues to be the critical 
linchpin to deterring North Korean aggression and maintaining stability 
on the Korean Peninsula.
    North Korea remains one of the most intractable security problems 
for the United States and our allies and partners in the region. North 
Korea continues to take actions that are destabilizing for the region, 
including its December 2012 missile launch, February 2013 nuclear test, 
series of short-range ballistic missile launches in 2014, and its 
recent cyber-attack against Sony Pictures Entertainment.
    The limited information we have on Kim Jong Un, his regime, and 
North Korea's motivations also add to my concern. Despite the recent 
signals from both North and South Korea about openness to inter-Korean 
engagement, the United States should remain vigilant against the strong 
possibility that North Korea will use brinkmanship and provocations to 
try to coerce the United States and its allies and partners back into 
negotiations on its own terms. If confirmed, I will ensure that the 
United States-ROK Alliance continues to strengthen alliance 
capabilities to counter North Korea's increasing missile and nuclear 
threat.
    Question. What is your assessment of the threat posed to the United 
States and its allies by North Korea's ballistic missile and WMD 
capabilities and the export of those capabilities?
    Answer. North Korea's ballistic missile and weapons of mass 
destruction (WMD) capabilities clearly present a serious and direct 
threat to United States forces postured in the Asia-Pacific region as 
well as to our regional allies and partners. These capabilities, 
although untested at longer ranges, could also pose a direct threat to 
the United States. Moreover, North Korea's history of proliferation 
activities amplify the dangers of its asymmetric programs.
    If confirmed, I will ensure that we draw upon the full range of our 
capabilities to protect against, and to respond to, these threats.
    Question. In your view, what additional steps should the United 
States take to defend against the North Korean ballistic missile threat 
and dissuade North Korea from its continued pursuit of ballistic 
missile technology and to stop or slow North Korean proliferation of 
missile and weapons technology to Syria, Iran, and others?
    Answer. If confirmed, I will continue efforts to strengthen our 
strong defense posture against the North Korean ballistic missile 
threat. This includes supporting our current efforts to increase the 
number of ground-based interceptors in California and Alaska, enhancing 
DOD's ability to highlight and disrupt the illicit proliferation 
networks that North Korea uses, and promoting cooperation with partners 
to interdict vessels and aircraft suspected of transporting items of 
proliferation concern.
    Question. What is your view on Kim Jong Un's proposal to cease 
future nuclear tests in exchange for the United States cancelling 
annual military exercises in 2015 with South Korea?
    Answer. I believe the United States annual combined exercises with 
the Republic of Korea, including Key Resolve and Foal Eagle during the 
first part of 2015 and Ulchi Freedom Guardian during the summer of 
2015, are routine, transparent, and defensive exercises that are meant 
to strengthen military readiness and Alliance preparedness. There is no 
equivalence between conducting these exercises and North Korean nuclear 
tests, which are violations of United Nations Security Council 
resolutions.
                                 india
    Question. What is your view of the current state of the United 
States-India security relations?
    Answer. India and the United States have built a strong strategic 
partnership. India is an important net provider of security in the 
region, and a partner on issues ranging from maritime security to 
humanitarian assistance to broader regional stability. The past decade 
has been transformative in the United States-India relationship, and we 
are seeing greater convergence in our interests and concerns than ever 
before, particularly between our rebalance to Asia and India's ``Act 
East.'' Strengthening the United States-India defense relationship was 
a priority for me as Deputy Secretary of Defense and, if confirmed, I 
will continue to prioritize the steady growth of this relationship.
    Defense plays a vital role in United States-India relations, which 
includes a robust series of military exchanges and exercises, a strong 
track record on defense trade, and increasingly close consultations on 
regional security issues. DOD also remains committed to technological 
cooperation with India through the Defense Technology and Trade 
Initiative (DTTI), under which the President announced four pathfinder 
projects, a working group on aircraft carrier cooperation, and the 
possibility of cooperating on jet engine technology. As Deputy 
Secretary of Defense, I launched DTTI, now led by Under Secretary Frank 
Kendall. If confirmed, I will lean-forward to expand DTTI with 
additional co-production and co-development activities.
    Question. If confirmed, what specific priorities would you 
establish for this relationship?
    Answer. If confirmed, I will continue to find ways to strengthen 
our military-to-military relationship by expanding the scope and 
complexity of our exercises, and ensure the consistency of our 
engagement. I will prioritize exchanges at all levels of our military, 
and encourage frequent high-level visits. I will also build upon the 
progress achieved under the Defense Technology and Trade Initiative 
(DTTI). This includes pursuing additional opportunities for co-
production/co-development projects, developing the defense trade 
relationship into increasingly sophisticated areas, and encouraging 
broader defense S&T engagement with India. Finally, I will continue to 
look for ways to expand upon our maritime security relationship and 
identify specific areas for increased cooperation, including in the 
Asia-Pacific.
    Question. What is your assessment of the relationship between India 
and China and how does that relationship impact the security and 
stability of the region?
    Answer. As with the United States and China, India's relationship 
with China displays both cooperative and competitive aspects. It is 
hampered by a trust deficit stemming from China's long-time, close 
relations with Pakistan; a long-time border dispute; and on-going 
competition for resources. Efforts to mitigate this mistrust are 
further complicated by a growing competition for influence in the South 
and Southeast Asian regions, a trade imbalance in China's favor, and 
recent Chinese naval activity in the Indian Ocean region.
    Despite these factors, the two countries often find common ground 
in international groupings, such as the BRICS and G20, due to shared 
interests and a desire to shape the international system to ensure 
their respective domestic development and economic growth. This 
cooperation helps to maintain stability in Sino-Indian ties and 
preclude more overt security competition. The United States, India, and 
China all have an important role in ensuring the peace and stability of 
the region and a rules-based order.
           department of defense counternarcotics activities
    Question. DOD serves as the single lead agency for the detection 
and monitoring of aerial and maritime foreign shipments of drugs 
flowing toward the U.S. On an annual basis, DOD's counter narcotics 
(CN) program expends nearly $1 billion to support the Department's CN 
operations, including building the capacity of U.S. Federal, State, and 
local law enforcement agencies, and certain foreign governments, and 
providing intelligence support on CN-related matters and a variety of 
other unique enabling capabilities.
    In your view, what is the appropriate role of DOD in counterdrug 
efforts?
    Answer. DOD should continue to play an important role in 
identifying counter narcotics networks and supporting the interdiction 
of illicit drugs entering the United States. In addition, DOD should 
continue to support U.S. law enforcement and partner nations' 
enforcement capabilities by facilitating training, providing equipment, 
and improving infrastructure that strengthens their operational reach 
and their own sustainment capabilities.
    Question. Do you believe that the United States broadly, and the 
U.S. military more narrowly, has been effective in achieving its 
counterdrug objectives?
    Answer. The United States has supported the interdiction of 
hundreds of tons of illegal drugs by law enforcement personnel 
annually. The United States has also, through multi-agency efforts, put 
pressure on major drug trafficking organizations and their leaders. The 
Department's efforts to build the counter narcotics capacity of partner 
nations' security forces also contribute to counterdrug objectives by 
strengthening security institutions and by equipping and training 
security personnel to disrupt, degrade, and deter drug trafficking 
networks in both source and transit countries.
    Question. In your view, what should be the role of the United 
States in countering the flow of narcotics to nations other than the 
United States?
    Answer. I believe that the United States, along with other 
countries, should continue to assist other nations in the fight against 
drug trafficking by supporting efforts to enhance the capacity of these 
nations to disrupt and degrade narcotics trafficking networks.
       national strategy to combat transnational organized crime
    Question. Transnational criminal organizations are having a 
debilitating impact on the ability of our foreign partners to govern 
their nations and provide opportunities for their people. DOD is by no 
means the U.S. Government's law enforcement agency, but it does bring 
unique enabling capabilities to our Nation's Federal law enforcement 
agencies. The NDAA for fiscal year 2015 expanded several of the 
Department's primary counterdrug authorities to include ``countering 
transnational organized crime (TOC)'' as an approved activity to 
reflect the increasingly diverse nature of these illicit, global 
networks.
    What is your understanding of the President's strategy to combat 
transnational criminal organizations?
    Answer. The President's Strategy to Combat Transnational Organized 
Crime recognizes that TOC has expanded in size, scope, and influence 
over the past 20 years, and now poses a significant and direct threat 
to national and international security. The Strategy, with amplifying 
implementation guidance, calls for combatting networks that pose a 
strategic threat to U.S. interests, and ultimately aims to reduce TOC 
networks from a national security threat to a manageable public safety 
problem.
    Question. What role, if any, should the Department play in 
combatting transnational criminal organizations?
    Answer. The President's Strategy to Combat Transnational Organized 
Crime declares TOC a threat to national security, and calls on the U.S. 
Government to build, balance, and integrate the tools of national power 
to combat TOC and related threats. Although DOD does not serve as the 
lead for combatting TOC, it can provide unique and critical support to 
U.S. law enforcement efforts. Specific DOD capabilities include 
military intelligence support and counter-threat finance support, 
training of foreign partners, and detection and monitoring. The 
expanded authorities provided by Congress in the NDAA for fiscal year 
2015 provide additional opportunities for DOD to support efforts to 
counter illicit networks and to contribute further to the achievement 
of U.S. Government objectives.
                         counter threat finance
    Question. DOD and the Intelligence Community (IC) have begun 
investing more resources in identifying and tracking the flow of money 
associated with terrorist networks and illicit trafficking, but the 
opportunities for tracking and degrading illicit financing flows are 
not yet matched by the effort and resources devoted to them. 
Identifying and disrupting key individuals, entities, and facilitation 
routes enabling the flow of money that supports terrorism, production 
of IEDs, narco-trafficking, proliferation, and other significant 
national security threats could have an outsized impact on confronting 
these threats.
    What are your views on the role of DOD in counter threat finance 
activities?
    Answer. Terrorists, drug traffickers, and other adversaries rely 
heavily on licit and illicit funding sources to support their 
activities. I believe it is essential to engage all available tools to 
track and halt the flow of money and to fight our adversaries' ability 
to access and use global financial networks. Although DOD is not the 
lead agency for Counter-Threat Finance (CTF). CTF can be important to 
achieving DOD goals. I am aware that the Department works with other 
departments, agencies, and partner nations to provide planning, network 
analysis, and intelligence analysis.
    Question. Are you aware of any policy, legal authority, or resource 
shortfalls that may impair U.S. counter threat finance efforts?
    Answer. I understand that the Department has concerns that we do 
not have enough fidelity on the sources of corruption that can impact 
our ability to achieve our goals in partner nations and, in non-
terrorism cases, there are still difficulties fully sharing relevant 
information between law enforcement and intelligence entities.
    Question. In your view, how should DOD coordinate and interface 
with other key agencies, including the Department of Treasury and the 
Intelligence Community, in conducting counter threat finance 
activities?
    Answer. I am aware that DOD works with other U.S. Government 
departments and agencies, including the Department of the Treasury and 
the Intelligence Community, on counter-threat finance efforts to limit 
our adversaries' ability to use global financial networks.
                       central america and mexico
    Question. During a March 13, 2014, Senate Armed Services Committee 
hearing, General John Kelly, Commander of United States Southern 
Command, stated that the ``unprecedented expansion of criminal networks 
and violent gangs is impacting citizen security and stability in the 
region'' which has led the United Nations to characterize Latin America 
``the most unequal and insecure region in the world.'' Despite this 
reality and the region's proximity to the U.S. Homeland, DOD efforts in 
the region have routinely been plagued by resource shortfalls, which 
have only been exacerbated by sequestration. To this point, General 
Kelly stated before the committee: ``the severe budget cuts are now 
reversing the progress and forcing us to accept significant risks. 
Because of asset shortfalls, we're unable to get after 74 percent of 
suspected maritime drug trafficking. I simply sit and watch it go by.'' 
General Kelly went on to state that ``the cumulative impact of our 
reduced engagement won't be measured in the number of canceled 
activities and reduced deployments, it will be measured in terms of 
U.S. influence, leadership, relationships in a part of the world where 
our engagement has made a real and lasting difference over the 
decades.''
    Do you share General Kelly's concerns about the impact of DOD 
resource shortfalls to our operations and security interests in the 
region?
    Answer. Yes.
    Question. What are your views on the threats posed by transnational 
criminal organizations in this region and their impact on U.S. security 
interests?
    Answer. Transnational criminal organizations have become entrenched 
in places like the Northern Triangle of Central America, where they 
take advantage of weak government institutions, endemic corruption, 
large under-governed spaces, and the lack of viable economic 
opportunities. Many of our partners in the region are challenged to 
control the influence of transnational criminal organizations, which 
present a real threat to stability and expose vulnerabilities to the 
southern approaches to the United States.
    Question. What is your assessment of DOD's role and current 
activities in Mexico and Central America?
    Answer. DOD supports the broader U.S. interagency effort to promote 
security and stability in the region. The Department's security 
cooperation activities in Central America focus on professionalization, 
respect for human rights, building capacity of local security forces, 
including maritime, and facilitating internal defense institutional 
reform efforts that will help those governments plan, resource, and 
maintain enhanced capabilities. The Department contributes to efforts 
to help Mexico address internal and transnational security challenges, 
as well as to support Mexico's growing regional and international 
defense leadership role.
    Question. What changes, if any, would you propose to DOD's current 
role and activities in this region?
    Answer. If confirmed, I would direct my team to examine whether 
there is more DOD could do to support U.S. strategies to address the 
root causes of insecurity in the region. Steps the U.S. Government can 
take include supporting efforts to strengthen government institutions 
and fight corruption, develop infrastructure, address control of under-
governed spaces and help diminish criminal organizations. Lasting 
solutions will require an interagency approach by the United States and 
will require the United States to cooperate and coordinate with other 
partners in the region.
                                  cuba
    Question. On December 17, 2014, President Obama announced changes 
in the diplomatic relationship between the United States and Cuba which 
includes the easing of several longstanding restrictions.
    Would you recommend the establishment of military-to-military 
engagement between the United States and Cuba? If so, what, if any, 
prerequisites should there to their establishment?
    Answer. I believe that with the recent efforts to begin normalizing 
relations with Cuba there is an opportunity to consider carefully 
whether to expand defense relations. If confirmed, I would examine this 
issue carefully and work to ensure any military-to-military engagement 
is nested within a larger, comprehensive U.S. Government engagement 
strategy.
                       interagency collaboration
    Question. The collaboration between U.S. Special Operations Forces, 
general purpose forces, and other U.S. Government departments and 
agencies has played a significant role in the success of 
counterinsurgency and counterterrorism operations in recent years. 
However, much of this collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from the 
collaborative interagency efforts in Afghanistan, Iraq, and elsewhere?
    Answer. It is critical to draw lessons learned from Afghanistan and 
Iraq. A key lesson is that strategy requires a close integration of 
military, economic, intelligence, and diplomatic elements and the full 
range of American power. Increased collaboration, transparency, and 
communications among the interagency are important. If confirmed, I 
will focus on maintaining and improving these relationships to ensure 
that interagency collaboration is as effective as possible.
    Question. How do you believe these efforts can be improved?
    Answer. Given the complexity and scope of the national security 
challenges we face, a whole-of-government approach is essential to our 
success in order to harness the full capabilities of all U.S. 
departments and agencies. We must work with interagency partners to 
evaluate continually the effectiveness of our coordinated efforts and 
make adjustments where necessary. We must also acknowledge that every 
tool is not appropriate for every task.
    Question. How can the lessons learned in recent years be captured 
in military doctrine and adopted as ``best practices'' for future 
contingency operations?
    Answer. We must have a rigorous approach to capturing our lessons 
learned and including them in our professional military education 
system and doctrine review process. If confirmed, I would keep these 
principles in mind as I work with the military departments and the 
combatant commands to maintain and cultivate enduring and agile 
partnerships with key departments and agencies across government.
                           strategic reviews
    Question. What is your understanding and assessment of the DOD 
processes for analysis, decisionmaking, and reporting results for each 
of the following strategic reviews:
    The Defense Strategy Review (section 118 of title 10, United States 
Code, as amended by Public Law 113-291);
    Answer. The purpose of the QDR is to articulate the Nation's 
defense strategy in support of the President's National Security 
Strategy. DOD is tasked, per Title 10 U.S.C. Section 118, with 
conducting a comprehensive examination of the national defense 
strategy, force structure, force modernization plans, infrastructure, 
budget plan, and other elements of the defense program and policies 
with a view toward establishing a defense program for the next 20 
years. In my experience, effective QDRs incorporate inputs from various 
stakeholders, both within and outside the Department, and provide 
effective guidance to develop U.S. military force structure, plans, and 
programs.
    Question. The National Military Strategy (section 153 of title 10, 
United States Code);
    Answer. The Chairman of the Joint Chiefs of Staff prepares the 
National Military Strategy (NMS) in order to assist the President and 
Secretary with unified strategic direction of the Armed Forces. The 
Chairman uses a robust Joint Strategic Planning System to develop the 
NMS and biennially submits the strategy to the Armed Services 
Committees of the House and Senate. The strategy specifies military 
objectives, strategic and operational missions required to achieve 
those objectives, and the necessary capabilities to carry out each 
mission. The NMS also describes the strategic and operational risks 
associated with accomplishing the strategy.
    Question. Global Defense Posture Review (section 2687a of title 10, 
United States Code); and
    Answer. The Global Defense Posture annual report to Congress, 
authored by the Under Secretary of Defense for Policy in coordination 
with the Joint Chiefs of Staff, offers an operational view of the 
Department's military personnel and facilities, and assesses changes to 
overseas posture required to meet evolving security environment and 
strategic priorities outlined in documents such as the QDR. DOD global 
posture decision-making processes continually review the appropriate 
mix of deployed and forward stationed U.S. forces, the distribution of 
enduring locations, and status of international agreements to meet 
national security requirements. If confirmed, I will ensure this 
thorough process continues to meet the Congressional intent.
    Question. If confirmed, what recommendations would you make, if 
any, to change title 10, United States Code, and to improve DOD's 
processes for analysis, policy formulation, and decision making 
relative to each review above?
    Answer. I have no specific recommendations at this time. If 
confirmed, I look forward to working with Members of Congress to ensure 
that these reviews continue serving the needs of both DOD leaders and 
Congress.
                       tactical fighter programs
    Question. Based on the current defense strategy, defense planning 
scenarios, and force-sizing construct, what are your views on the 
ability of the Department to meet combatant commander requirements with 
regard to fighter force capability and capacity now and into the 
future?
    Answer. U.S. fighter forces currently enjoy technical superiority 
and will continue to contribute to the overall success of our forces. 
Other nations are making significant investments in modernizing their 
fighter fleets and in building advanced air defenses. The U.S. must 
maintain the ability to control the air space in any current and future 
operations.
    The largest and most costly modernization effort we will face over 
the next several years is the F-35 Joint Strike Fighter (JSF) program 
to upgrade our tactical aviation forces to fifth generation 
technologies.
    Question. Based on current and projected threats, what are your 
views on the continued requirement for and timing of this program?
    Answer. While the F-35 program has experienced a number of program 
delays and other significant acquisition issues, when fielded it will 
provide a significant edge in the number of high capability aircraft. 
The 5th generation technology that is the backbone of this system will 
be required for success in future conflicts.
    Question. What is your assessment of whether the restructuring of 
the JSF program that we have seen over the past several years will be 
sufficient to avoid having to make major future adjustments in either 
cost or schedule?
    Answer. The restructuring initiated in 2010 put the F-35 program on 
better footing. However, a program of this scope and importance 
requires continued aggressive management attention.
    Question. Are there any initiatives you would propose to help 
reduce operating and support costs for the JSF program?
    Answer. There are many factors that drive the operating and support 
costs for a weapons system like the F-35. Aggressive management of 
these initiatives will be required because the operating and support 
costs will be a major part of the JSF's overall cost. I understand that 
the F-35 program is undertaking a number of reliability and 
maintainability initiatives that are focused on improvement in those 
areas.
                            strategic bomber
    Question. Secretary Hagel said on January 13, 2015, ``I think the 
Long-Range Strike Bomber is absolutely essential for keeping our 
deterrent edge.''
    What are your views on the requirement for this capability, and how 
to acquire such a platform while providing the best value for the 
American taxpayer?
    Answer. I believe the Department requires global power projection 
capabilities across the full spectrum of conflict in order to deter and 
dissuade potential aggressors. To maintain these capabilities, the Air 
Force requires a new generation of stealthy, long-range strike aircraft 
that can operate at great distances, carry substantial payloads, and 
operate in and around contested airspace. If confirmed I will work with 
the Under Secretary of Defense, Acquisition, Technology and Logistics 
to ensure that the program will provide best value for the American 
taxpayer by ensuring the program is based on mature technologies and 
through program competition across a highly capable industrial base.
                           navy shipbuilding
    Question. Today's Navy is at its smallest size in decades and could 
decline further without additional urgent shipbuilding recapitalization 
efforts. Over the past several years, successive Chiefs of Naval 
Operations have concluded that the Navy requires a fleet of at least 
306 ships to perform its mission. The Navy's current naval battle force 
is only 289 ships, and will not be at the 306 level until sometime 
after 2020.
    What are your views regarding the CNO's conclusions about the 
appropriate size and composition of the fleet, and the adequacy of the 
Navy's current and projected plans to achieve a fleet with that number 
of ships?
    Answer. A strong and capable Navy is essential to meet our Nation's 
strategic requirements across the spectrum of operational demands. 
Therefore the Navy needs a broad set of capabilities among the mix of 
ships in its inventory. Ship count is only one metric to measure to 
evaluate fleet effectiveness. If confirmed, I will work with the 
Secretary of the Navy and the Chief of Naval Operations to ensure that 
the appropriate force structure requirements are fully identified and 
supported.
    Question. At about that same time (2020) the Navy will need to 
begin acquiring the Ohio Replacement Ballistic Missile Submarines 
(SSBNs). The new Ohio class boats are projected to cost well over $10 
billion per ship and the Navy has publicly indicated it cannot afford 
to buy both the new SSBNs as well as procure at least nine other ships 
annually.
    Do you believe the Navy can meet its goals for the size of the 
fleet in the current budget climate particularly in light of the Ohio 
Replacement Program?
    Answer. Procurement of the Ohio Replacement SSBN, as well as 
recapitalization of the other elements of the nuclear triad, poses 
significant resourcing challenges to the DOD. The Ohio Replacement 
Program will present unique constraints on the Navy's shipbuilding 
plan, particularly if the DOD is required to be funded at the levels 
specified in the Budget Control Act (BCA) of 2011. The Secretary of the 
Navy and the Chief of Naval Operations have stated that recapitalizing 
our ballistic missile submarine force is the top shipbuilding priority 
for the Navy and have taken steps to reach the affordability targets of 
the Ohio Replacement Program. If confirmed, I will work with the Navy 
and the Congress to manage the impact of this critical endeavor on the 
rest of the shipbuilding programs and ensure naval forces are 
structured to meet our national defense needs.
    Question. In the 1970s and 1980s, the Nation procured the initial 
Ohio SSBN submarines within the Navy's shipbuilding (SCN) account, do 
you believe using the SCN is possible for Ohio replacement or is a new 
method needed?
    Answer. I believe the important decision is to make the commitment 
to modernizing the ballistic missile submarine fleet. It is a vital 
component of our nuclear deterrence strategy. The Department needs 
adequate resources for modernization in order to ensure we can make the 
orderly transition to this new generation ballistic missile submarine. 
Which account it is funded in is of lesser importance. It makes the 
most sense to include the Ohio Replacement in the shipbuilding account, 
but this is a decision that can be made in the future.
    To maintain a Navy fleet with roughly 300 ships would require an 
annual new construction build rate of about 10 ships per year, assuming 
ship service lives of 30 years. The fiscal year 2015 President's Budget 
request included only 7 new construction ships.
    Question. Do you believe that the Navy's goal can be achieved 
without recapitalizing the fleet at a larger rate? If not, will you 
recommend to the President that he significantly increase funding 
levels for the Navy to support both:

    (1)  buying ships at an annual rate of at least 10 new ships per 
year; and
    (2)  in particular replacing our Ohio-class ballistic missile 
submarines (SSBN)?

    Answer. I understand DOD remains committed to sustaining the force 
structure required to maintain our Nation`s security, and that 
recapitalization of the Nation`s sea-based strategic deterrent is 
critical to this mission. If confirmed, I will work with the Navy to 
reduce risk in their force structure with particular focus on Ohio-
class replacement submarines and other high priority ships.
    Question. The Navy has in recent years proposed the long-term lay 
up of CG-7 class cruisers and LSD-41 class amphibious ships in order to 
achieve manpower cost avoidance savings and stretch out the life of 
these ship classes in order to defer new build replacement ships. 
Congress has consistently rejected the Navy's proposal noting the 
Navy's initial investment of more than $11.6 billion in the nine CG/LSD 
ships and the fact these ships are very unlikely to return to service 
after a lengthy layup approaching 5 years in some cases. Retiring these 
ships before the end of their planned service life creates unnecessary 
and unaffordable future shipbuilding requirements.
    What are your views on the Navy's proposed plan to lay up in a 
reduced operating status both CG-47 class and LSD-41 class ships?
    Answer. If confirmed, I will work with the Secretary of the Navy 
and other Department leadership to better understand and assess how the 
Navy would execute the proposed plan, to ensure that it appropriately 
balances the needs of current readiness, modernization and future force 
structure to make the best use of existing assets.
    Question. Would you support modernizing these ships within the 
Navy's SCN account to ensure they can serve out their full service 
lives?
    Answer. The SCN account, like virtually all modernization accounts, 
is under enormous pressure to finance the shipbuilding program the 
Nation needs. Difficult tradeoff decisions have been made and will need 
to be made in the future. It is important that the Congress and the 
Department find a way to move forward on the appropriate funding.
                           aircraft carriers
    Question. DOD has repeatedly reaffirmed, despite budget pressures, 
that the United States is committed to maintaining a fleet of 11 
nuclear powered aircraft carriers (CVNs), and maintaining carriers on 
patrol in the Persian Gulf. Yet, in the Department's fiscal year 2015 
budget request only 10 carriers were funded. We also understand carrier 
deployments have been extended for as long as 9 months. The NDAA for 
fiscal year 2015 reiterated the statutory requirement for the 
Department to maintain not less than 11 carriers.
    If confirmed as Secretary of Defense will you ensure the Department 
adheres to the statute requiring that the Navy shall include not less 
than 11 operational carriers?
    Answer. I understand that the Department has reported that if it is 
forced to operate at sequestration level funding, it would have to seek 
relief from the 11-carier requirement.
    Question. Can you articulate for this committee your views on the 
number of CVNs that need to be maintained, and whether naval forward 
presence, particularly in areas such as the Persian Gulf, should be 
maintained and can be maintained without an urgent recapitalization of 
the fleet?
    Answer. I understand that a sizable carrier force is required to 
support our current strategy and provide sufficient carrier strike 
groups to meet overseas presence requirements. If confirmed, I will 
work with the Navy to ensure that we resource a sustainable level of 
presence that continues to support our Nation's strategic goals.
                        future role of the army
    Question. The NDAA for fiscal year 2015 directed the establishment 
of a National Commission on the Future of the Army to review the size 
and structure of all three components of the Army: regular Army, U.S. 
Army Reserve, and Army National Guard. The Commission will also 
consider and evaluate key policies concerning the make-up, training and 
the distribution of Guard resources across the states. Additionally, 
the commission will review the Army's Aviation Restructure Initiative 
which recommended the transfer of National Guard Apache helicopters to 
the regular Army. The legislation allows the Army to transfer 48 Apache 
helicopters in fiscal year 2016.
    What are your views regarding the National Commission on the Future 
of the Army?
    Answer. If confirmed, I will fully support the commission as 
enacted by law.
    Question. In your view, what are the key factors in determining the 
role of the Active and Reserve components in their support of the 
National Military Strategy?
    Answer. In my previous time in the Department I have seen the value 
of the operational contributions of all components. Their response in 
crisis has been and will be a Total Force response. The key factor is 
insuring the Total Force has the appropriate mix to support the 
requirements to the combatant commanders.
    Question. General Raymond Odierno, Chief of Staff of the Army, has 
stated that the Army will continue to be an indispensable part of the 
joint force and that there is a synergy that is gained of all the 
services in order for the military to meet the Nation's needs. He has 
also said the Army provides more than Brigade Combat Teams--the Army is 
the largest contributor to SOFs and it provides a broad range of 
essential services to combatant commanders to include intelligence, 
surveillance, reconnaissance; air and missile defense; logistical 
support; and signal communication support.
    In your view, what are the most important considerations or 
criteria for aligning the Army's size, structure, and cost with 
strategy and resources?
    Answer. Our national security requirements are the most important 
considerations when aligning the Total Army's size, structure, and cost 
with strategy and resources.
    Question. If confirmed, what actions, if any, would you propose to 
properly align the Army's size and structure with the requirements of 
security strategies and the likely availability of resources?
    Answer. If confirmed, I will review how the Department should align 
the Army's size and structure to the strategy in the same way that it 
would align those of any other component of the Joint Force: based on 
appropriate security environment, examining the demands of the missions 
that are most relevant to that component, and then determining how best 
to provide the capabilities required to accomplish those missions. If 
confirmed, I will work closely with military and civilian leaders to 
balance maintaining the skills needed to meet our most pressing 
national security demands within the limits of acceptable risk and 
within existing resources.
                          army force structure
    Question. The Defense Strategic Guidance of January 2012 called for 
the reduction of Army end strength and force structure over the next 5 
years to 490,000 personnel and eight fewer combat brigades. The Army 
has accelerated these plans and intends to reduce endstrength to 
490,000 by the end fiscal year 2015. Additionally, the Army intends to 
reduce endstrength to 450,000 Active, 315,000 Army National Guard, and 
195,000 Army Reserve with even more severe reductions possible. Senior 
Army and National Guard leadership has testified that the Army will 
assume medium-to-high risk to meet the requirements of the National 
Security Strategy at these levels.
    In your view, can the Army's Active component end strength be drawn 
down below the announced and planned reduction to 450,000? If so, what 
in your view would be the impact on strategic risk, if any, and, in 
your view would that strategic risk be acceptable or unacceptable?
    Answer. If confirmed, I will review the level of funding specified 
in the Budget Control Act, and the appropriate levels for the total 
force army. I share the concern by our Army, Army Reserve and the 
National Guard leaders of the risks inherent in the sequester funding 
levels.
    Question. How do you define the resulting strategic risk?
    Answer. A strategic risk would be a lesser ability to support the 
highest priorities in our national defense strategy.
    Question. If confirmed, what size or force structure changes, if 
any, would you propose for either the Army Reserve of the Army National 
Guard?
    Answer. The Active and Reserve components of the Army must be sized 
and shaped to support our strategy. The Army National Guard provides 
critical capabilities to the Governors and States, while also retaining 
capacity to support vital Federal missions. The Army Reserve is also a 
key partner with the Active Army and the Army National Guard for 
Homeland support and warfighting missions. I understand that the Army 
Commission will examine some of these areas and if confirmed will look 
forward to their recommendations.
                           army modernization
    Question. What is your understanding and assessment of the Army's 
record with respect to equipment modernization?
    Answer. This record is mixed, and I believe it can be improved.
    Question. What actions, if any, would you take to ensure that the 
Army achieves a genuinely stable, achievable, and affordable 
modernization strategy and program?
    Answer. If confirmed, I will review the Army's modernization 
strategies to ensure that stable and affordable modernization programs 
are adopted and implemented. I will stress the continued need for Army 
programs that incorporate practical and realistic development 
strategies, affordable and technically feasible requirements and 
sufficient and stable resources.
    Question. What is your understanding and assessment, if any, of the 
Army's capabilities portfolio review process and its current 
modernization priorities and investment strategy?
    Answer. I have not examined any recent changes the Army may have 
introduced so I am unable to assess the Army's specific processes for 
reviewing military requirements or establishing modernization 
priorities.
    Question. What actions, if any, would you take to sustain the 
momentum of these reviews in stabilizing the Army's modernization 
strategy and priorities?
    Answer. If confirmed I will support the Army's efforts to improve 
its modernization strategy and priorities.
                          unfunded priorities
    Question. Section 1003 of Public Law 112-239 (NDAA for fiscal year 
2013) expressed the sense of Congress with respect to the annual 
submission by the Service Chiefs and Commander of U.S. Special 
Operations Command of their critical unfunded priorities that are not 
included in the President's annual budget request.
    If confirmed, will you allow the Service Chiefs and Commander, U.S. 
Special Operations Command to comply with this sense of Congress?
    Answer. Yes.
                       ballistic missile defense
    Question. The NDAA for fiscal year 2015 expresses the Sense of the 
Congress that it is a national priority to defend the U.S. Homeland 
against the threat of limited ballistic missile attack (whether 
accidental, unauthorized, or deliberate).
    Do you concur with Congress on this fundamental point?
    Answer. Yes.
    Question. Do you support each of the following steps--currently 
planned by DOD--for improving the capability of the Ground-based 
Midcourse Defense System to meet evolving ballistic missile threats (if 
not, please explain why):

    (1)  Correct the problems associated with recent flight test 
failures;

    Answer. Yes.
    (2)  Enhance homeland defense sensor and discrimination 
capabilities;

    Answer. Yes.

    (3)  Redesign the exo-atmospheric kill vehicle, including realistic 
testing; and

    Answer. Yes.

    (4)  Design a next generation exo-atmospheric kill vehicle to take 
full advantage of improvements in sensors, discrimination, kill 
assessment, battle management, and command and control, including the 
potential to engage multiple objects?

    Answer. Yes.
    Question. Forward deployed United States military forces, and our 
regional allies and partners, face a growing regional ballistic missile 
threat, especially from nations such as North Korea and Iran. The 
European Phased Adaptive Approach (EPAA) is intended to provide 
increasing levels of defensive coverage of NATO Europe against Iranian 
ballistic missiles, including an Aegis Ashore site in Romania in 2015 
and one in Poland in 2018.
    Do you agree that it is a priority to defend our forward-deployed 
forces, our allies, and partners from the threat of regional ballistic 
missiles?
    Answer. Yes. Our deployed forces as well as our allies and partners 
in the Middle East and in the Asia/Pacific region are within range of 
hundreds of short- and medium-range ballistic missiles.
    I agree that the United States must prioritize capabilities to 
deter regional adversaries from launching a ballistic missile attack 
and to defend against such an attack if necessary.
    Question. Do you believe that the current phased and adaptive 
approach to regional missile defense is appropriate to meeting the 
operational needs of our regional combatant commanders, given the 
threat and current resource constraints?
    Answer. Yes. I understand the current United States policy is to 
develop regional approaches to ballistic missile defense in Europe, the 
Middle East, and the Asia-Pacific region that are tailored to the 
unique deterrence and defense requirements of each region.
    I believe that such approaches provide the best option for managing 
our own high-demand, low-density ballistic missile defense forces and 
for developing allied and partner ballistic missile defense capacity in 
support of Combatant Commander requirements.
    Question. Do you believe the EPAA schedule is achievable and 
appropriate for defending NATO Europe against the current and projected 
threat from Iranian regional ballistic missiles?
    Answer. I believe the three phases of the EPAA were constructed to 
allow the United States to deploy existing or new capabilities in time 
to meet the projected threat from Iran. If confirmed, I will review the 
progress on this effort with the Under Secretary of Defense for 
Acquisition, Technology, and Logistics.
    Question. Do you agree that the United States should encourage our 
regional allies and partners to increase their missile defense 
capabilities to contribute to regional security and help reduce the 
burden on U.S. forces and requirements?
    Answer. I understand that building international cooperation and 
seeking appropriate levels of partner contributions are key tenets of 
our regional ballistic missile defense policy. I also understand that 
over time we have developed substantive ballistic missile defense 
relationships with our allies and partners in Europe, the Middle East, 
and the Asia-Pacific region, which have led to advances in fielding our 
own capabilities as well as those of our allies and partners.
    I view continuing these partnerships as critical to developing 
effective security architectures that deter and, if necessary, can be 
used to defend against the threat of ballistic missile attack. 
Accordingly, if confirmed, I will promote strong bilateral and 
multilateral ballistic missile defense cooperation in these key regions 
of U.S. interest.
                                 space
    Question. China's test of an anti-satellite weapon in 2007 was a 
turning point for the United States in its policies and procedure to 
ensure access to space. As a Nation heavily dependent on space assets 
for both military and economic advantage, protection of space assets 
became a U.S. national priority.
    Do you agree that space situational awareness and protection of 
space assets should be a national security priority?
    Answer. Yes. Space situational awareness is important to understand 
and characterize the space environment, detect interference with space 
systems, and enable timely attribution and response. Equally important 
is the protection of our space capabilities.
    Question. In your view, should China's continued development of 
space systems inform United States space policy and programs?
    Answer. Yes. China is rapidly developing space capabilities of its 
own that both mirror United States capabilities and could threaten our 
access and use of space for national security purposes. If confirmed, I 
will review the Department's efforts to address China's developments in 
space, and will coordinate closely with other United States departments 
and agencies.
    Question. If confirmed, would you propose any changes to National 
Security Space Policy and Programs?
    Answer. The National Security Space Strategy clearly highlights the 
growing challenges in the space domain. If confirmed, I will insist on 
policies, programs, and other measures that ensure U.S. warfighters can 
continue to depend on having the advantages that space confers.
    Question. What role do you believe offensive space control should 
play in National Security space policy and programs?
    Answer. Offensive space control, in addition to other elements of 
national power, should be carefully considered in protecting our forces 
from threats posed by an adversary's space-enabled capabilities.
    Question. If confirmed, would you commit to reviewing the overall 
management and coordination of the national security space enterprise?
    Answer. Yes. I understand that the Department's recent strategic 
portfolio review of space highlighted challenges with our overall space 
posture. If confirmed, I look forward to working with Congress to make 
adjustments to address those challenges.
    Question. What is your view on weapons in space?
    Answer. The United States depends upon space capabilities to enable 
operations in all domains. Other nations are working to challenge those 
capabilities as well as to field their own. If confirmed, I intend to 
work with Congress to determine the best way to defend U.S. space 
systems and to deny those advantages to those who would use space to 
target U.S. warfighters.
    Question. The administration is proposing to free up 500 MHz of 
spectrum for broadband use, a candidate portion of which includes the 
band 1755-1850 MHz, which is used heavily by DOD and other national 
security agencies.
    Do you support this initiative?
    Answer. Yes.
    Question. Do you support section 1602 of P.L. 106-65, which 
requires the Secretaries of Commerce and Defense and the Chairman of 
the Joint Chiefs of Staff to certify that any alternative band or bands 
to be substituted for spectrum currently used by DOD and other national 
security agencies provide ``comparable technical characteristics to 
restore essential military capability that will be lost as a result of 
the band of frequencies to be so surrendered''?
    Answer. Yes. This provision is necessary to ensure that the 
Department maintains access to spectrum necessary to operate critical 
military capabilities. Preserving this provision is essential to the 
ability of DOD to continue to successfully contribute to the 
President's broadband goals, especially given the increased focus on 
spectrum sharing.
    Question. If confirmed, how do you intend to comply with section 
1602 in light of the 500 Mhz initiative?
    Answer. I understand Secretary Hagel recently signed, along with 
the Chairman of the Joint Chiefs of Staff and the Secretary of 
Commerce, certification for the 1755-1780 MHz frequency bands that were 
auctioned as part of the Advanced Wireless Service 3 (AWS-3). I will 
ensure that any future auctions involving spectrum used by the 
Department are certified in accordance with P.L. 106-65, section 1062.
    Question. Do you intend to insist that DOD be compensated fully for 
the cost of relocating, if required to do so?
    Answer. Yes, I intend to insist that DOD be compensated fully for 
the cost of relocating, if required to do so in accordance with section 
1062.
    Question. How do you propose the Department make more efficient use 
of communications spectrum through leasing of commercial satellites?
    Answer. If confirmed, I will work with the Under Secretary of 
Defense for Acquisition, Technology, and Logistics and the DOD Chief 
Information Officer to continue to leverage the efforts which the DOD 
and commercial satellite communications providers are already pursuing 
to more effectively and efficiently utilize the communications 
spectrum. Based on that review, I will determine if additional 
opportunities should be pursued.
    Question. Do you support more competition in the launch of DOD 
payloads?
    Answer. I have been, and continue to be, whenever possible, a 
staunch advocate for competition across all of the Department's 
acquisition programs. Regarding space launch for national security 
space (NSS) missions, I fully support competition and, if confirmed, 
will review provisions for competition of future NSS launch missions.
    Question. If confirmed, what steps will you take to encourage new 
entrants to the medium and heavy lift launch of DOD payloads while 
balancing affordability, mission assurance, and maintaining the 
viability of the existing launch provider?
    Answer. Mission assurance remains the cornerstone of the 
Department's approach to space launch for NSS missions. If confirmed, I 
will encourage competition from new entrants by ensuring the Department 
has a clear understanding of the certification process and by making 
every effort to certify all capable new entrants as quickly as 
possible.
    Question. Do you support commercial hosting of DOD payloads and if 
so how?
    Answer. The Department should explore and consider the full range 
of options. Commercial hosting may help diversify the space 
architecture, improve mission assurance and potentially reduce costs of 
U.S. Government space-based capabilities. If confirmed, I will explore 
the full range of options, including commercial hosting, for providing 
future space-based capabilities when appropriate.
    Question. What is your long-term vision and support for the Space 
Based Infrared Sensing system?
    Answer. I understand the Department is executing a comprehensive 
Analysis of Alternatives for the SBIRS follow-on capabilities. If 
confirmed, I will assess the alternatives and recommendations with the 
objective of affordably providing and assuring critical missile warning 
and battlespace awareness capabilities.
    Question. What is your long term vision and support for the 
Advanced Extremely High Frequency system?
    Answer. I believe that AEHF is a critical component of the 
Department's Nuclear Command, Control, and Communications (NC3) 
capability. If confirmed, I will continue to ensure the Department 
provides the needed NC3 capability for the President.
    Question. Do you support splitting the systems sensors up to lower 
overall cost of the system?
    Answer. I support exploring the full range of approaches to 
reliably and affordably providing space-based capabilities
                            cyber deterrence
    Question. Do you believe we are deterring and dissuading our 
adversaries in cyberspace?
    Answer. An effective deterrence strategy requires a range of cyber 
policies and capabilities to affect a state or non-state actors' 
behavior. In addition to continuing efforts to improve U.S. cyber 
defenses and cybersecurity capabilities, the United States should 
continue to respond to cyber-attacks against U.S. interests at a time, 
in a manner, and in a place of our choosing, using appropriate 
instruments of U.S. power and in accordance with applicable law. The 
U.S. Government should continue to combine its cyber and non-cyber 
capabilities into a comprehensive cyber deterrence strategy. If 
confirmed, I will do all that I can to contribute to the development 
and execution of that effort.
    Question. Do you agree that, consistent with section 941 of the 
NDAA for fiscal year 2014, there is a need for an integrated policy to 
deter adversaries in cyberspace and that the President should promptly 
provide that policy to Congress as specified in law?
    Answer. Deterrence cannot be achieved through cyberspace alone, but 
requires a multi-faceted effort across the totality of the U.S. 
Government's instruments of national power, including network defense 
measures, economic actions, law enforcement actions, defense posture 
and response capabilities, intelligence, declaratory policy, and the 
overall resiliency of U.S. networks and systems. If confirmed, I will 
ensure that DOD is in full compliance with its reporting requirements 
to this committee and to the Congress as a whole.
    Question. What steps do you believe the Department should take to 
reduce the frequency and severity of cyber intrusions from the Chinese 
Government?
    Answer. This is a serious problem and the Department should 
continue to take strong actions to address China's use of cyber theft 
to steal United States companies' confidential business information and 
proprietary technology. I am aware that the Administration has raised 
this as an issue of concern with the highest levels of China's 
government. If China does not take meaningful action to curb this 
behavior, it will undermine the economic relationship that benefits 
both our Nations. Such activity undercuts the trust necessary to do 
business in a globally connected economy. Further, military involvement 
in such theft raises additional concerns that misunderstandings about 
China's intentions could result in unintended escalation between our 
countries. The U.S. Government should continue to use all instruments 
of national power, including diplomatic, informational, military, and 
economic, to prevent and respond to these intrusions.
    Question. What agencies should the Department coordinate with in 
tracking and eliminating cyber threats?
    Answer. I believe a whole-of-government approach is required to 
address the cyber threats we face now and will increasingly face in the 
future. DOD must continue to work closely with the Department of 
Homeland Security, the Department of Justice (specifically FBI), and 
the Intelligence Community, as well as with other Federal partners, to 
identify, mitigate, and defend against cyber threats.
 reporting and sharing of information on intrusions into operationally 
                          critical contractors
    Question. What are your views on the conclusions of the Senate 
Armed Services Committee's report: Inquiry Into Cyber Intrusions 
Affecting U.S. Transportation Command Contractors, 113th Congress, 2nd 
Session?
    Answer. Although I have not had the opportunity to fully review the 
report, I understand that the Senate Armed Services Committee's inquiry 
into cyber intrusions affecting U.S. Transportation Command contractors 
contained important findings that the Department takes very seriously. 
If confirmed, I will work closely with Congress, Departments and 
Agencies, and the private sector to strengthen the Department's 
information sharing processes and to protect the Department's ability 
to execute its mission.
    Question. If confirmed, what steps will you take to ensure that the 
communication gaps that exist between TRANSCOM and the various 
investigating agencies are closed?
    Answer. The Department's ability to execute its mission depends 
greatly on the integrity of our networks and the networks of our 
private sector partners. If confirmed, I will work to improve 
information sharing between the relevant investigative agencies and 
U.S. Transportation Command.
                          act of war in cyber
    Question. What do you believe would constitute an act of war in 
cyberspace?
    Answer. Cyber-attacks can affect our critical infrastructure, the 
national economy, and military operations. I believe that what is 
termed an act of war should follow the same practice as in other 
domains, because it is the seriousness, not the means, of an attack 
that matters most. Whether a particular attack is considered an ``act 
of war,'' in or out of cyberspace, requires a determination on a case-
by-case and fact-specific basis. Malicious cyber activities could 
result in death, injury or significant destruction, and any such 
activities would be regarded with the utmost concern and could well be 
considered ``acts of war.'' An attack does not need to be deemed an 
``act of war'' to require a response.
    Question. Does North Korea's attack on the Sony Corporation of 
America--a costly destructive attack on a United States company--rise 
to the level of an act of war? If not, why not?
    Answer. To my knowledge, the damage caused by this cyber-attack 
consisted of the deletion of data, the destruction of some Sony network 
infrastructure, and the unauthorized disclosure of personal 
information. While serious and deserving of a response, this does not 
seem to me to rise to the level of an ``act of war.''
    china's aggressive theft of united states intellectual property
    Question. A recent report by the National Counterintelligence 
Executive confirmed the widespread belief that China is engaged in a 
massive campaign to steal technology, other forms of intellectual 
property, and business and trade information from the United States 
through cyberspace. The previous Commander of U.S. Cyber Command has 
referred to this as the greatest transfer of wealth in history and, 
along with others, believes this is a serious national security issue.
    Do you believe that China's aggressive and massive theft of 
technology in cyberspace is a threat to national security and economic 
prosperity?
    Answer. Yes. The theft of intellectual property through cyber means 
is a clear threat to the economic prosperity from which the Nation 
derives its national security. Our competitive economic advantage and 
our military technological advantage rest on the innovations of a 
highly knowledge based U.S. industry. Any nation-state that engages in 
the theft of our intellectual property through cyber means jeopardizes 
both our national security and economic prosperity.
    Question. The Carl Levin and Howard P. ``Buck'' McKeon NDAA for 
fiscal year 2015 authorized the President to impose sanctions, pursuant 
to the International Emergency Economic Powers Act (50 U.S.C. 1701 et 
seq.), on persons determined to knowingly request, engage in, support, 
facilitate, or benefit from economic or industrial espionage in 
cyberspace against U.S. persons.
    What are your views on the potential impact of this legislation?
    Answer. Addressing cyber threats requires a whole of government 
approach, which coordinates and integrates all the instruments of 
national power. Cyber legislation is an important part of this effort. 
If confirmed, I look forward to working closely with Congress on 
appropriate legislation to address a broad array of cybersecurity 
issues.
    Question. What additional steps do you believe are needed to deter 
China from such activities in the future?
    Answer. We need to continue to use all the instruments of national 
power to deter this kind of behavior, including diplomatic, financial, 
network defense, law enforcement, and counterintelligence. I concur in 
the administration's approach of raising this as an issue of concern at 
the highest levels of the Chinese government. I also support the State 
Department's efforts to work with like-minded countries to make China's 
leadership increasingly aware that elements of their government and 
military are on the wrong side of an emerging norm of responsible 
behavior in cyberspace. If confirmed, I will work closely with the 
Department's interagency partners to explore what additional whole-of-
government approaches might help deter this unacceptable behavior.
          dod's role in defending the nation from cyber attack
    Question. What is your understanding of the role of DOD in 
defending the Nation from an attack in cyberspace? In what ways is this 
role distinct from those of the homeland security and law enforcement 
communities?
    Answer. The Defense Department is responsible for defending the 
Nation from all attacks, including those that occur in cyberspace. DOD 
is also responsible for defending its own networks against cyber-
attacks. DOD plans, coordinates, and conducts cyber operations to 
ensure the reliable operation of and to defend DOD systems and 
infrastructure. If directed, DOD can conduct cyber operations to defend 
the Nation, defend military networks, and support military operations 
in all domains. If required, DOD may provide support to the private 
sector and State and local governments.
    The Defense Department also works closely with the Department of 
Homeland Security (DHS) and the Department of Justice (DoJ) in their 
missions. DHS is the lead agency for protecting, mitigating, and 
recovering from domestic cyber incidents. DoJ investigates, attributes, 
disrupts, and prosecutes cybercrimes that fall outside of military 
jurisdiction and provides domestic response to national security 
incidents.
       next challenges in growing operational cyber capabilities
    Question. DOD, in a significant milestone in the maturation of the 
cyber warfare mission, is successfully organizing and training 
personnel for units to conduct military operations in cyberspace.
    What challenges does the Department face in developing the command 
and control, operational planning, mapping and situational awareness, 
battle damage assessment, tools and weapons, and infrastructure 
capabilities necessary to conduct large-scale operations in cyberspace?
    Answer. I understand that DOD is in its third year of building a 
Cyber Mission Force. This force is intended to defend DOD networks, 
defend the Nation from cyberattack, and provide full-spectrum 
cyberspace options for the combatant commands. I am aware of several 
challenges that should be addressed to ensure the Department can 
conduct military operations in cyberspace, among them effective command 
and control, and meeting the challenge of effectively incorporating 
National Guard teams.
                                  iran
    Question. Negotiations on the Iran nuclear program have been 
extended with a deadline now of March 1, 2015, for agreement in concept 
with 4 months after that to finalize a comprehensive agreement.
    What are the elements of a nuclear agreement with Iran that you 
consider critical to ensuring that it is a ``good'' deal for U.S. 
national security interests?
    Answer. In my view, a ``good'' deal is one that resolves the 
international community's concerns with Iran's nuclear program and 
prevents it from acquiring a nuclear weapon. The best way to do that is 
through a comprehensive solution that, when implemented, will ensure 
that, as a practical matter, Iran cannot acquire a nuclear weapon and 
that Iran's nuclear program is exclusively and verifiably peaceful. Any 
deal must effectively cut off the four pathways Iran could take to 
obtain enough fissile material for a nuclear weapon including a uranium 
pathway, through its activities at Natanz and Fordow; a plutonium 
pathway, through the Arak heavy water reactor; and a potential covert 
pathway. It must include tight constraints and strict curbs on Iran's 
nuclear program. And finally, it must require robust monitoring and 
transparency measures to maximize the international community's ability 
to detect quickly any attempt by Iran to break out overtly or covertly. 
Any sanctions relief in exchange should be phased and tied to 
verifiable actions on Iran's part. Such relief should be structured to 
be easily reversed so that sanctions could be quickly re-imposed if 
Iran were to break its commitments.
    Question. If Iran is allowed to maintain a monitored and limited 
uranium enrichment program, do you believe that other states in the 
region will want to develop enrichment programs of their own and what 
is your rationale for that view?
    Answer. Yet another reason to ensure that Iran does not obtain a 
nuclear weapon is to prevent proliferation in the region. States 
seeking to develop enrichment programs of their own in pursuit of 
nuclear weapons would face significant costs, in crippling sanctions 
and political and diplomatic isolation. The United States has a 
longstanding framework for providing alternative mechanisms to ensure 
that states have access to the benefits of civil nuclear energy without 
the need to pursue enrichment.
    Question. With the international community focused on the Iran 
nuclear negotiations, in your opinion, has there been a neglect of 
countering Iranian malign activities in the region to include support 
for Houthis in Yemen, Hamas in the West Bank, and Hezbollah in Lebanon 
and Syria? How do you think those threats should be addressed?
    Answer. Countering Iranian destabilizing activities must be an 
important priority. Regardless of the outcome of nuclear negotiations, 
I firmly believe that the United States must also counter these 
destabilizing regional activities, including Iran's support to 
terrorists and militant groups. If confirmed, I would work to ensure 
the Department is focused on these issues.
    Question. If the tide of ISIL is pushed back in Iraq and Syria, 
what, if, any, friction points do you anticipate between United States 
and Iranian interests in those two countries to come to the forefront? 
In your opinion, what is the best way to manage those friction points 
should they emerge?
    Answer. In Syria, I believe that Iran's continued support for Assad 
and instability will cause continued friction between the United States 
and Iran. The United States has an interest in a stable, united, and 
inclusive Iraq with support from all of Iraq's communities. I have 
concerns about the sectarian nature of Iran's activities in Iraq. The 
United States must continue to make clear to the Iraqi Government that 
Iran's approach in Iraq undermines the needed political inclusion for 
all Iraqi communities, which is required to ultimately defeat ISIL.
    Question. On March 2012, President Obama said he would ``keep all 
options on the table to prevent a nuclear Iran.''
    Do you agree with the President's view that ``all options should be 
on the table'' to prevent a nuclear Iran?
    Answer. Yes. I strongly support the President's view that all 
options should be on the table to prevent a nuclear Iran.
               nuclear weapons and stockpile stewardship
    Question. Congress established the Stockpile Stewardship Program 
with the aim of creating the computational capabilities and 
experimental tools needed to allow for the continued certification of 
the nuclear weapons stockpile as safe, secure, and reliable without the 
need for nuclear weapons testing. The Secretaries of Defense and Energy 
are statutorily required to certify annually to the Congress the 
continued safety, security, and reliability of the nuclear weapons 
stockpile.
    As the stockpile continues to age, what do you view as the greatest 
challenges with respect to assuring the safety, reliability, and 
security of the stockpile?
    Answer. The greatest challenge will be achieving and maintaining 
the necessary balance among three critical nuclear areas to allow 
continued certification that our nuclear weapons remain safe, secure, 
and effective. First, is the capability to continue to provide the 
science and engineering needed to assess an aging stockpile without 
underground testing. Second, is maintaining and strengthening the 
ability to extend the life of the warheads through a program of 
component refurbishment, replacement or rebuilding. The final area is 
sustaining and modernizing the aging infrastructure that provides the 
materials, components, and testing facilities essential for tomorrow's 
nuclear enterprise.
    Question. Do you agree that the full funding of the President's 
plan for modernizing the nuclear weapons complex, commonly referred to 
as the 1251 report, is a critical national security priority?
    Answer. I support the President's policy of maintaining a safe, 
secure, and effective nuclear deterrent as long as nuclear weapons 
exist, and agree that funding the sustainment and modernization plan is 
a critical national security priority. As indicated in the report 
prepared pursuant to section 1251 of the NDAA for fiscal year 2010, 
this includes sustaining and modernizing nuclear weapon delivery 
platforms, sustaining a safe, secure, and reliable nuclear weapons 
stockpile, and modernizing the nuclear weapons complex.
    Question. Prior to completing this modernization effort, do you 
believe it would be prudent to consider reductions below New START 
Treaty limits for either the deployed or non-deployed stockpile of 
nuclear weapons?
    Answer. The President has stated that we can meet our current 
objectives with a reduced force structure. Any consideration of further 
nuclear weapon reductions below New START treaty limits should focus on 
measures that will maintain or strengthen deterrence of potential 
adversaries, assurance of our allies and partners, and strategic 
stability.
    Question. What role does the Nuclear Weapons Council play in 
helping to establish key stockpile stewardship goals and modernization 
objectives?
    Answer. I previously chaired the Nuclear Weapons Council (NWC) 
which facilitates cooperation and coordination, seeks consensus, and 
sets priorities between the two departments (DOD and Department of 
Energy), as they fulfill their dual-agency responsibilities for nuclear 
weapons stockpile management. The NWC works toward jointly agreed to 
priorities and strategies for weapon life extension programs, stockpile 
stewardship, and infrastructure modernization objectives. The NWC 
priorities and strategies in turn provide requirements for both 
departments to formulate budgets and develop implementing plans to 
achieve our Nation's goals of a safe, secure and effective stockpile.
    Question. Do you support a more active role of the Office of Cost 
Analysis and Program Evaluation (CAPE) in ensuring the programs within 
the Department of Energy and the National Nuclear Security 
Administration are appropriately tailored for the best investment of 
funds possible to achieve a safe, effective and reliable nuclear 
weapons stockpile?
    Answer. Yes.
                         current nuclear forces
    Question. Section 1052 of the NDAA for fiscal year 2014 established 
a ``Council on Oversight of the National Leadership Command, Control 
and Communications System''. You have had a long and active history in 
this area of DOD.
    What do you see as the most pressing challenges in nuclear command, 
control, and communications from a policy and acquisition perspective?
    Answer. Nuclear command and control must be an enduring priority of 
which one challenge is to sustain existing capabilities until new, 
modernized capabilities can be fielded. Another challenge is providing 
an assured, survivable, and enduring nuclear command, control and 
communications (NC3) system that takes advantage of the technological 
advances of modern communication capabilities while at the same time is 
secure and hardened against attacks ranging from cyber to the most 
severe kinetic attacks.
    Question. What do you see as the most pressing challenges in 
overall national leadership communications from a policy and 
acquisition perspective?
    Answer. One challenge is to sustain existing capabilities until 
new, modernized capabilities can be fielded. Another challenge is 
providing an assured, survivable and enduring communications capability 
that allows senior defense advisors to communicate with the President, 
the combatant commands and strategic allies during normal day-to-day 
operations and during national crises from a fixed, mobile or airborne 
location. The ability to provide our national leadership secure, 
reliable voice, video and data communications is a critical capability.
    Question. Will you actively support section 1052 and in an ex 
officio capacity attend meetings when possible?
    Answer. Yes.
    Question. In 2014, Secretary Hagel has conducted an assessment of 
the state of nuclear deterrence operations of DOD.
    Do you agree with its findings?
    Answer. If confirmed, I intend to receive a full briefing about 
this important assessment.
    Question. Will you actively support the findings and their 
implementation?
    Answer. I look forward to fully reviewing these findings, if 
confirmed, and taking appropriate steps to ensure the U.S. maintains 
the capability to carry out the nuclear deterrent mission.
                         nuclear modernization
    Question. The President's June 2013 Nuclear Employment Strategy 
affirmed that the United States will maintain a nuclear triad, noting 
that ``Retaining all three TRIAD legs will best maintain strategic 
stability at reasonable cost, while hedging against potential technical 
problems or vulnerabilities.''
    Some commentators suggest it will be financially challenging for 
the current and future administrations to fulfill nuclear modernization 
commitments over the next 10 to 20 years. Yet, as Deputy Secretary of 
Defense, you noted in August 2013, ``nuclear weapons . . . are not a 
big swinger in our budget. That's just a fact.''
    Do you share Secretary Hagel's view that our nuclear deterrent ``is 
DOD's highest priority mission?''
    Answer. Yes.
    Question. Will you provide us your commitment to ensure that DOD, 
working closely with the Department of Energy, will make every effort 
to invest what is needed to modernize each leg of the nuclear triad, 
and to address the recent recommendations of the DOD Nuclear Enterprise 
Review?
    Answer. Yes.
                russian violation of the 1987 inf treaty
    Question. During testimony before the House Armed Services 
Committee on December 10, 2014, Principal Deputy Under Secretary of 
Defense for Policy, Brian McKeon, told the panel that ``if Russia does 
not return to compliance, our end will be to ensure that Russia gains 
no significant military advantage from its violation.''
    In your view, what are the consequences for U.S. national security 
of Russia's actions in violation of its obligations under the INF 
Treaty?
    Answer. I believe that the Intermediate-range Nuclear Forces (INF) 
Treaty contributes to the national security of the United States and 
its allies and partners. I also believe the INF Treaty contributes to 
Russian national security. Russian deployment of weapon systems that 
violate the INF Treaty would pose an increased threat to the United 
States and our allies in Europe and Asia.
    Question. What military advantage, if any, did Russia gain by 
acting in violation of its INF obligations?
    Answer. We must ensure that Russia does not gain a military 
advantage. Russia should return to compliance with the INF Treaty in a 
verifiable manner.
    Question. What do you believe would be appropriate responses for 
the United States to take in order to: (1) convince Russia to return to 
compliance with the INF Treaty, or (2) ensure that United States 
national security is maintained if Russia does not return to 
compliance?
    Answer. The United States should consider a comprehensive strategy 
of diplomatic, economic, and military responses that address both of 
these goals. Russia's continued disregard for its international 
obligations and lack of meaningful engagement on this particular issue 
require the United States to take actions to protect its interests and 
security as well as those of its allies and partners. United States 
efforts should continue to remind Russia why the United States and 
Russia signed this treaty in the first place and be designed to bring 
Russia back into verified compliance with its obligations. I believe 
that any United States responses should be designed to make the United 
States and our allies and partners more secure by negating any 
advantage Russia might gain from deploying an INF-prohibited system.
    The range of options we should look at from the Defense Department 
could include active defenses to counter intermediate-range ground-
launched cruise missiles; counterforce capabilities to prevent 
intermediate-range ground-launched cruise missile attacks; and 
countervailing strike capabilities to enhance U.S. or allied forces. 
U.S. responses must make clear to Russia that if it does not return to 
compliance our responses will make them less secure than they are 
today.
    Question. How long do you believe we should wait to see if Russia 
returns to compliance?
    Answer. I support the current efforts focusing on convincing Russia 
to return to verifiable compliance and preserving the viability of the 
INF Treaty, which I believe continues to serve U.S. and allied 
interests. Such efforts must be allowed to produce the desired effect. 
If Russia does not return to verifiable compliance, I support a path 
that ensures that Russia gains no significant military advantage from 
its violation of its INF Treaty obligations.
    Question. What does Russia's INF violation suggest to you about the 
role of nuclear weapons in Russian national security strategy?
    Answer. Russia's INF Treaty violation is consistent with its 
strategy of relying on nuclear weapons to offset United States and NATO 
conventional military superiority.
               medical countermeasures initiative (mcmi)
    Question. The administration has produced an interagency strategy 
for the advanced development and manufacture of medical countermeasures 
(MCM) to defend against pandemic influenza and biological warfare 
threats. In this strategy, DOD will be responsible for the rapid 
development and manufacture of medical countermeasures to protect U.S. 
Armed Forces and DOD personnel.
    Do you support this interagency strategy and the MCM Initiative 
and, if confirmed, would you plan to implement them?
    Answer. Yes.
                       defense acquisition reform
    Question. The Weapon Systems Acquisition Reform Act of 2009 (WSARA) 
was designed to ensure that new defense acquisition programs start on a 
sound footing, to avoid the high cost of fixing problems late in the 
acquisition process.
    What are your views regarding WSARA since its implementation in 
2009?
    Answer. In my view, WSARA enacted a number of steps to improve 
weapons system acquisition, which has contributed to improving trends 
in the Department's acquisition performance.
    Question. If confirmed, how would you improve all three aspects of 
the acquisition process requirements, acquisition, and budgeting?
    Answer. In my judgment, more should be done to link and streamline 
these three processes and, if confirmed, I look forward to working 
closely with those responsible in the department and the committees to 
drive the necessary improvements. All three must be closely coordinated 
as the problems and the resulting solutions change over time. This is 
not a static system and we must all remain open to continuous 
improvement. In the requirements area we need to insure they are 
feasible and disciplined and not subject to constant change and that we 
don't initiate programs that are unaffordable. As we move into the 
acquisition phase, we need to push to field the initial system within 
five years and avoid delays by constantly adding capabilities that 
could be done thru block improvements later. Time is money. We must 
incentivize industry to control costs and likewise incentivize the 
government acquisition workforce to do the same. Those responsible for 
budgeting, particularly the Service Chiefs, need to be engaged in all 
three processes. And we should strengthen accountability in all phases 
and at all levels.
    Question. If confirmed, how would you improve acquisition 
accountability?
    Answer. As before, more can be done here as well. There are two 
basic challenges in improving accountability. First is an overly 
complex acquisition system that distributes authority across too many 
offices and individuals; and second, assignment policies in the 
government rotate senior program managers and officials too frequently. 
If confirmed, I will engage our department leaders in addressing these 
challenges and also work with the Congress to both obtain your ideas 
and to push thru the required fixes. We must also insure our industry 
partners achieve this increased level of accountability.
    Question. Do you believe that the current investment budget for 
major systems is affordable given increasing historic cost growth in 
major systems, costs of current operations, and asset recapitalization?
    Answer. The constrained budget environment facing the Department 
puts enormous pressure on the Department to continually strive to 
control costs and reexamine all areas of the budget for affordability. 
Even before the passage of the Budget Control Act of 2011 I strongly 
believed that unacceptable cost growth in individual programs had to be 
reversed. If confirmed, in addition to the improvements I cited in 
earlier answers, I will insure the Department ensures programs are 
affordable to buy and operate, and that programs are managed so as to 
stay affordable as they progress through the life cycle.
    Question. If confirmed, how do you plan to address this issue and 
guard against the potential impact of weapon systems cost growth?
    Answer. If confirmed, I would emphasize the need for continuous 
improvement addressing the challenges identified earlier as well as 
ensuring all aspects of WSARA and the Department's ongoing work with 
the Better Buying Power initiatives continue to be implemented as 
broadly as possible. I would welcome the opportunity for the Department 
to work with Congress where new legislative measures, or relief from 
existing legislative constraints, would improve acquisition 
performance.
                     reliability of weapons systems
    Question. The Department's process for procuring major weapons 
systems places insufficient emphasis on reliability and maintainability 
and, therefore, produces systems that are increasingly costly to 
operate and sustain. Given that these ownership costs comprise most of 
a given weapons systems' overall lifecycle cost, these increased costs 
could undermine considerably the Department's ``buying power.''
    How would you ensure that the defense acquisition system produces 
more reliable weapons systems?
    Answer. I recognize that a strong emphasis on reliability is 
critical to achieving affordability. A disciplined approach to life 
cycle reliability in acquisition policy must continue and we need to 
use sustainment affordability caps when appropriate. If confirmed, I 
will ensure that our acquisition programs address reliability and 
maintainability through appropriate requirements and sound engineering 
practices at each stage of a weapon system's development.
    Question. If confirmed, what measures would you recommend the 
Department take to drive down sustainment costs?
    Answer. It is important to influence system designs that address 
key drivers of sustainment costs early in the development process, and 
to have program managers include sound sustainment strategies early in 
a system's life cycle. The Department has established sustainment 
affordability caps under the Better Buying Power initiatives to drive 
that process with its Program Managers.
    If confirmed, I will emphasize those elements in our acquisition 
programs such as requirements, design, contracting strategies, and 
sustainment strategies which drive down sustainment costs.
      excessive concurrency in major defense acquisition programs
    Question. Major defense acquisition programs (MDAPs) and major 
automated information systems have experienced excessive cost-growth 
and schedule delays. In some instances, this appears to be the result 
of excessive concurrency between development and production. It also 
appears that the Department lacks the ability to identify, price, and 
therefore effectively manage program risk, (e.g., technological, 
developmental, integration, and manufacturing risk)
    What specific changes need to be made in the acquisition system to 
ensure the delivery of MDAPs and major information systems on time and 
on budget?
    Answer. Comprehensive changes in acquisition practice have been 
made in recent years via WSARA and BBP. But more needs to be done, and 
the measures needed will change over time as technology, industry, and 
budgets change. Skilled and experienced acquisition professionals, 
reduction of paperwork and overhead, and effective contract incentives 
are enduring keys to cost and schedule control.
    Managing concurrency and other program risks is a fundamental 
challenge of acquisition program management. The department needs to 
ensure its acquisition professionals have the experience, tools, and 
good judgment needed to make data-driven decisions appropriate to the 
risks they face leading these programs in order to properly plan 
programs.
                          services contracting
    Question. Over the last decade, the Department has become 
progressively more reliant upon contractors to perform functions that 
were once performed exclusively by government employees. As a result, 
contractors now play an integral role in areas as diverse as the 
management and oversight of weapons programs, the development of 
personnel policies, and the collection and analysis of intelligence. In 
many cases, contractor employees work in the same offices, serve on the 
same projects and task forces, and perform many of the same functions 
as DOD employees.
    In your view, has DOD become too reliant on contractors to support 
the basic functions of the Department?
    Answer. I believe DOD must manage its total force of military, 
civilian, and contractor personnel in a way that avoids inappropriate 
or excessive reliance on contractor support for basic Department 
functions.
    Question. Do you believe that DOD has become too dependent on 
contractor support for military operations?
    Answer. Based on my experience, I do not believe the Department is 
too reliant on contractor support for military operations.
    Question. What risks do you see in the Department's reliance on 
such contractor support? What steps do you believe the Department 
should take to mitigate such risk?
    Answer. Over-reliance on contractor support may lead to an 
unbalanced total force that sub-optimizes the civilian and military 
contribution, a loss of government-held corporate knowledge, and the 
potential for contractors inappropriately exercising authority in 
performance of inherently governmental functions or those closely 
associated with inherently governmental functions.
    Active management of the total force is necessary to mitigate these 
risks. Decisions on how to cost-effectively meet requirements should 
take into account the management of all three components of the total 
force.
    Question. Do you believe the Department is appropriately organized 
and staffed to effectively manage contractors on the battlefield?
    Answer. The Office of the Secretary of Defense, in concert with the 
Chairman of the Joint Chiefs of Staff, has issued guidance on roles and 
responsibilities for planning for and managing contractors on the 
battlefield. I believe that investments made in the Department's 
acquisition workforce, as well as the implementation of recommendations 
made by the Commission on Wartime Contracting and the GAO, have 
improved the Department's ability effectively to plan for and manage 
contractors on the battlefield. I believe that the combatant commanders 
recognize that contractors are their responsibility as part of the 
total force.
    Question. What steps if any do you believe the Department should 
take to improve its management of contractors on the battlefield?
    Answer. I believe appropriate requirements definition and increased 
oversight are critical to improve management of contractors on the 
battlefield. The heightened focus on services acquisition reinforces 
this with proper planning, management, training, and oversight tools.
                  efficiency in department operations
    Question. In your view, what latitude must be given to the Joint 
Chiefs to enact cost-saving reforms?
    Answer. The Military Service Chiefs of Staff already have broad 
latitude to develop, propose and implement cost-saving measures across 
the spectrum of doctrine, organizational structure, and personnel to 
and with their Military Department Secretaries, the Combatant Commands, 
and the Secretary of Defense. I will continue to encourage them to 
bring forward cost-saving reform ideas even if those ideas challenge 
the current structures and arrangements of the Department as a whole. 
As in the past, I value the Chiefs' unswerving focus on the essential 
missions of the Department, and the perspectives that motivation 
brings.
    Question. Do you support the administration's request for the 
authority to conduct additional Base Realignment and Closures (BRAC) to 
eliminate unneeded facilities?
    Answer. Yes.
    Question. If so, what would be your priorities in carrying out a 
round of BRAC?
    Answer. Should Congress authorize the Department to carry out 
another BRAC round, I would direct it to focus on efficiency and 
consolidation rather than transformation. BRAC 2005 was skewed by the 
fact that a large number of its recommendations were focused on 
transformation, had high upfront costs, and were never expected to 
yield savings. However, those recommendations that were focused on 
efficiency had impressive payback and accounted for a small portion of 
the costs--much like the 1993 and 1995 rounds. If confirmed, this is 
the approach I would direct the Department to adopt.
                          unified command plan
    Question. There has been much discussion about streamlining the 
current Unified Command Plan.
    What are your views on the ability of the current Unified Command 
structure to address emerging global, regional and ethnic threats and 
the potential need to reduce the number of the geographic commands or 
their staffs to help reduce overhead costs?
    Answer. In my view, the current Unified Command structure is quite 
capable of addressing a range of emerging threats and challenges. 
Effective United States responses to such varied challenges as the 
Islamic State in Iraq and the Levant, and Ebola, demonstrate the 
flexibility of the current structure. However, the Department 
periodically reviews the Unified Command Plan to ensure its structure 
is optimized for emerging threats and challenges. As such a review is 
underway now; it would be premature to speculate on the types of 
changes that will be reflected in its final recommendations on the 
structure.
    Question. What is your opinion of the critique that geographic 
combatant commands have made U.S. foreign policy ``too militarized''?
    Answer. I am sensitive to this critique, but understand that some 
degree of tension is inevitable in the pursuit of U.S. foreign policy 
objectives. As long as the United States maintains forward presence 
around the world, we will continue to rely on our military leadership 
to build meaningful relationships with their counterparts. These 
relationships are essential to our continued forward presence in 
peacetime, building partner capacity with key allies and partners, and 
to our ability to secure access in the event of a contingency, from 
humanitarian assistance and disaster relief to combat operations. 
Provided our activities are well coordinated with other stakeholders 
within the U.S. foreign policy establishment, there is no reason why 
both military and other foreign service professionals cannot contribute 
to the same U.S. objectives.
    Question. What is your understanding and assessment of the current 
Unified Command Plan? In your view, is there a need to undertake a 
major reevaluation toward modification of the current Unified Command 
Plan? If so, explain why?
    Answer. The Unified Command Plan establishes the combatant 
commands' missions, responsibilities, and geographic areas of 
responsibility (when applicable). In my view, the established, periodic 
review cycle of the Unified Command Plan should be maintained.
    Question. In your view, are their opportunities for greater 
effectiveness and efficiencies in the consolidation of the roles and 
responsibilities two or more current geographic combatant commands, 
such as U.S. Northern Command and U.S. Southern Command? If not, please 
explain why.
    Answer. The Department reviews the Unified Command Plan 
periodically to ensure its structure is optimized for emerging threats 
and challenges, and for effective and efficient distribution of roles 
and responsibilities among combatant commands. Such a review is 
underway now; it would be premature to speculate on the types of 
changes that will be reflected in the final structure.
                   proliferation of joint task forces
    Question. There is a trend of continued proliferation of task 
forces, including joint task forces, in support of geographic combatant 
and functional commands. Some of these joint headquarters are temporary 
or for a short duration, but others evolve into enduring long term and 
larger force structure.
    What is your understanding and assessment of DOD's policy guidance 
for oversight of the number, scope of operational responsibility and 
authority and duration of joint task forces?
    Answer. I understand that the Department's policy guidance for 
oversight of joint task forces that support combatant commands is 
established and exercised through the global force management process. 
Through this process, combatant commanders request authorities and 
forces to support their operational requirements and the Chairman of 
the Joint Chiefs of Staff evaluates such requests and makes 
recommendations to the Secretary of Defense. I have been away from the 
department for some time and therefore unable to make a specific 
assessment of the current policy and guidance.
    Question. If confirmed, what would be your plan to evaluate and 
manage task forces?
    Answer. If confirmed, I would remain committed to the best use of 
resources in the pursuit of the department's priorities and objectives 
and would scrutinize recommendations to standup and/or continue support 
for enduring joint task forces.
                       test and evaluation (t&e)
    Question. If confirmed, will you make it a priority to ensure that 
the Department as a whole and each of the Services specifically 
maintains its testing organizations, infrastructure, and budgets at 
levels adequate to address both our current and future acquisition 
needs?
    Answer. I recognize the critical role that test and evaluation 
provides to the acquisition process.
    Question. A natural tension exists between major program objectives 
to reduce cost and schedule and the T&E objective to ensure performance 
meets specifications and requirements.
    What is your assessment of the appropriate balance between the 
desire to reduce acquisition cycle times and the need to perform 
adequate testing?
    Answer. I don't believe these objectives are necessarily 
incompatible. Adequate testing prior to committing to production is 
essential to discover performance problems that can take even more time 
and money to rectify before proceeding.
    Question. Under what circumstances, if any, do you believe we 
should procure weapon systems and equipment that has not been 
demonstrated through test and evaluation to be operationally effective, 
suitable, and survivable?
    Answer. It may be necessary to field a system prior to operational 
testing in cases where it is necessary to fill a critical capability 
gap identified in ongoing operations. Even then, testing should be 
accomplished to ensure basic operational performance and system safety.
    Question. Congress established the position of Director of 
Operational Test and Evaluation to serve as an independent voice on 
matters relating to operational testing of weapons systems. As 
established, the Director has a unique and direct relationship with 
Congress, consistent with the statutory independence of the office.
    Do you support the continued ability of the Director of Operational 
Test and Evaluation's to speak freely and independently with the 
Congress?
    Answer. Yes.
          funding for science and technology (s&t) investments
    Question. Do you support increasing DOD's S&T investments?
    Answer. I support investment in S&T to develop and deliver near-
term capabilities and maintain long-term options for the Department. 
However, the investment in S&T must be balanced with modernization, 
operational, and personnel accounts within the Department.
    Question. How will you assess whether the science and technology 
investment portfolio is adequate to meet the current and future needs 
of the Department?
    Answer. If confirmed, I would work closely with the Chairman of the 
Joint Chiefs, the Secretaries of the Military Departments, the Under 
Secretary of Defense for Acquisition, Technology, and Logistics, and 
others to assess the adequacy of the science and technology portfolio 
to provide the most affordable military advantage to our warfighters.
    Question. What specific technological areas should the Defense 
Department prioritize for investment in order to develop next 
generation operational capabilities?
    Answer. If confirmed, I will review changes to the investment 
portfolio that have occurred since I left, and I will prioritize 
efforts to provide substantial capability advances or those that impose 
disproportionate cost to adversaries.
    Question. Given limited resources, what technological areas can be 
de-emphasized in order to free resources to support priority areas?
    Answer. If confirmed, I would work with the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, to review the 
entire investment portfolio in R&D and if required adjust the 
investment, to favor new, unique capabilities that could provide an 
operational advantage to our forces. Technologies that can be obtained 
from commercial sources should be de-emphasized for S&T investments by 
the Department.
    Question. Are you satisfied with the quality of the DOD research, 
laboratory, and engineering workforce and infrastructure, especially 
relative to its industry and academic peers, and global competitors? 
How do you plan to maintain that quality in the future?
    Answer. The subject of DOD laboratory quality, both for personnel 
and infrastructure, has been studied over the past several decades. 
Scientists and engineers play a very important role in our overall 
national security and accessing and retaining top talent is a priority 
for the DOD. If confirmed, I will support the Under Secretary of 
Defense for Acquisition, Technology, and Logistics in his efforts to 
assess the current quality of our science and engineering workforce, 
and determine what changes, if any, are needed to maintain the proper 
quality.
    Question. What specific goals will you set for the recently 
announced Defense Innovation Initiative? What metrics will you use to 
assess the success of this initiative?
    Answer. I understand the Defense Innovation Initiative is pursuing 
creative ways to sustain and advance our military dominance in the 21st 
century. If confirmed, I will review this initiative in detail and if 
necessary work with Deputy Secretary Work to refine goals and metrics.
                        defense industrial base
    Question. The latest QDR addressed the need for strengthening the 
defense industrial base. Specifically, it said: ``America's security 
and prosperity are increasingly linked with the health of our 
technology and industrial bases. In order to maintain our strategic 
advantage well into the future, the Department requires a consistent, 
realistic, and long-term strategy for shaping the structure and 
capabilities of the defense technology and industrial bases--a strategy 
that better accounts for the rapid evolution of commercial technology, 
as well as the unique requirements of ongoing conflicts.''
    What is your understanding and assessment of the current state of 
the U.S. defense industry?
    Answer. The Department relies on an industrial base that is now far 
more global, commercial, and financially-complex than ever before. I am 
concerned about what impacts further defense budget cuts would have on 
the ability of the industrial base, particularly small firms, to 
provide the broad range of products and services that the Department 
and our Nation need. While only a small fraction of our industrial base 
capabilities may be at risk, in some key industrial capabilities vital 
to our future national security the United States is in danger of 
losing essential domestic sources, or going down to a single qualified 
source.
    Question. Do you support further consolidation of the U.S. defense 
industry?
    Answer. I support the review of each proposed merger, acquisition, 
and teaming arrangement on its particular merits, in the context of 
each individual market and the changing dynamics of that market. I 
believe the government must be alert for consolidations that eliminate 
competition or cause market distortions that are not in the 
Department's best interest.
    Question. What is your position on foreign investment in the U.S. 
defense sector?
    Answer. Foreign investment can play an important role in 
maintaining the vitality of the U.S. defense sector through capital 
injection, the introduction of innovative technologies, and 
facilitating interoperability with our coalition partners. However, 
foreign investment can also expose the U.S. defense sector to a number 
of risks associated with supply assurance, product integrity, and 
technology transfer. Therefore, I support policies that encourage 
foreign investment when it is consistent with the national security 
interests of the United States.
    Question. If confirmed, what steps if any do you believe DOD should 
take to most effectively and efficiently manage risk and ensure the 
continued health of the U.S. defense industrial base?
    Answer. If confirmed, I will ensure that the Department proactively 
monitors the defense industrial base to identify risks and mitigate 
those risks when necessary. During my time as the Under Secretary of 
Defense, Acquisition, Technology, and Logistics and the Deputy 
Secretary, the Department took steps to improve and preserve 
competition in defense procurements, and I would support the creation 
or continuation of competitive opportunities.
                    reset and reconstitution funding
    Question. The Department has a substantial backlog of maintenance 
availabilities due to the high tempo and demand of more than a decade 
of combat operations. Senior DOD officials have testified that they 
will require 2-3 years of additional funding to restore readiness 
through reset and reconstitution of their equipment and personnel.
    Do you agree with the assessment that the DOD will need 2-3 years 
of additional funding for reset and reconstitution?
    Answer. I understand that the cumulative effect of more than a 
decade of war has placed a significant strain on the Department's reset 
and reconstitution requirements. The current level and diversity of 
global operations has added to this strain and must be part of the 
reset calculus. If confirmed, I would review the reset and 
reconstitution funding and assumptions.
    Question. If confirmed, how will you balance maintenance and reset 
requirements with fiscal realities and future risk in developing your 
budget request?
    Answer. Maintenance and reset of DOD's current equipment would be a 
priority for me in order to restore and preserve long-term readiness. . 
If confirmed, I would work with the Chairman of the Joint Chiefs, the 
Secretaries of the Military Departments, and others to assess the 
appropriate balance of resources and risk.
                           operational energy
    Question. The Assistant Secretary of Defense for Operational Energy 
Plans and Programs published a policy that any alternative drop-in 
replacement fuel procured for DOD-wide use and distribution within the 
Class III (Bulk) supply chain must compete with petroleum products and 
any awards will be based on the ability to meet requirements at the 
best value to the government, including cost.
    What is your view of this policy?
    Answer. This policy was issued while I was Deputy Secretary, and I 
believe it is the right approach, and it is consistent with section 316 
of NDAA for fiscal year 2015. As the Department allocates limited 
resources to ensure warfighting capability, it should only buy large 
volumes of alternative fuels when they are cost-competitive with 
petroleum products.
    Question. What is your assessment of section 526 of the Energy 
Independence and Security Act of 2007 and how it should apply to 
military operations of DOD?
    Answer. My understanding is that section 526 prevents Federal 
agencies from entering into contracts to procure alternative or 
synthetic fuels that have higher greenhouse gas emissions than 
conventional petroleum. This provision has not restricted the 
Department from purchasing the bulk fuel needed to support worldwide 
military operations.
    Question. Considering the potential of further cuts to Defense 
budgets and the importance of energy security, do you believe DOD 
should jointly invest with other government agencies in the 
construction of a commercial biofuels refinery?
    Answer. Over the long-term, I believe the Nation will benefit from 
a competitive, domestic renewable fuels industry, and, as a major 
consumer of liquid fuels, the Department would benefit from such 
competition. I am aware the DOD has partnered with the Departments of 
Energy and Agriculture and the private sector to accelerate the 
development of cost-competitive advanced alternative fuels for both the 
military and commercial transportation sectors but I am not current on 
how those partnerships are performing.
    Question. If confirmed, what priorities would you establish for 
Defense investments in and deployment of energy technologies?
    Answer. Consistent with the need to increase military capabilities, 
reduce risk, and mitigate costs through our use and management of both 
operational and facility energy, I would prioritize improvements to 
both operational effectiveness and efficiency--improving the energy 
performance of aircraft, ships, ground vehicles, and military bases; 
reducing the vulnerability of our energy supply chains; and 
diversifying the kinds of energy used by the Department.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of the Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Secretary of Defense?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain
                   u.s. security commitment to taiwan
    1. Senator McCain. Dr. Carter, the Taiwan Relations Act and the Six 
Assurances form the cornerstone of United States-Taiwan relations and 
affirms our commitment to maintain Taiwan's self-defense capability. 
How do you and the administration plan to continue to implement our 
policy under this framework?
    Dr. Carter. I am firmly committed to maintaining Taiwan's self-
defense capability, consistent with our one-China policy, which is 
based on the three joint United States-China communiques and the Taiwan 
Relations Act. This is a policy that has endured across multiple 
Administrations of both Republicans and Democrats, and has served as an 
important element of our approach to the Asia-Pacific region for more 
than thirty-five years.
    Consistent with the provisions of the Taiwan Relations Act, the 
Department of Defense should continue to evaluate Taiwan's defense 
needs and provide defense articles and services necessary to enable 
Taiwan to maintain a sufficient self-defense capability. The United 
States should also maintain the capacity to resist any resort to force 
or coercion that would jeopardize the security, or the social and 
economic system, of the people of Taiwan. If confirmed, I will ensure 
that the Department continues to work closely with our partners on 
Taiwan, and with Congress, to fulfill these obligations and thereby 
support the maintenance of peace and stability in the Taiwan Strait.

    2. Senator McCain. Dr. Carter, what do you believe should be the 
priorities for United States military assistance to Taiwan?
    Dr. Carter. I believe the Department should prioritize continuing 
to assist Taiwan's effort to incorporate asymmetric concepts and 
capabilities into its defense. The United States should encourage 
Taiwan to prioritize investments in infrastructure and weapon systems 
that are survivable, and able to capitalize on Taiwan's natural 
advantages. Furthermore, I believe the Department should continue to 
focus on defense cooperation in support of Taiwan's transformation to a 
volunteer force, assisting it improve doctrine, training, and 
readiness. The Department of Defense should work with Taiwan to support 
its defense transformation and identify procurement priorities that 
enable it to deter aggression, resist coercion and maintain stability 
across the Taiwan Strait.
                       chinese military coercion
    3. Senator McCain. Dr. Carter, over the last several years, China 
has engaged in coercive diplomacy to achieve its political and 
territorial aims in the East and South China Seas. The administration 
has responded with efforts to build partner capacity and strengthen 
regional institutions, but this will take years if not decades to bear 
fruit. Beyond private diplomacy with the Chinese, which appears to be 
insufficient, what steps do you believe we should take to deter Chinese 
assertiveness in the short- and medium-term?
    Dr. Carter. The United States has a strong interest in maintaining 
peace and stability, the free flow of commerce, and the freedom of 
navigation and overflight in the East and South China Seas. In addition 
to diplomacy to resolve territorial disputes peacefully and in 
accordance with international law, the United States should deter 
assertiveness in the region with a robust force posture, sustained 
presence, and commitment to building the capacity of its partners and 
allies. The United States also should encourage China to be more 
transparent about how it will use its growing military capabilities. 
The United States should also continue to modernize and strengthen its 
security alliances with Australia, Japan, the Republic of Korea, 
Philippines, and Thailand. The United States should also deepen 
relationships with and among its partners in South and Southeast Asia 
to build capacity and reduce vulnerabilities. If confirmed, I will 
continue to prioritize our investments in posture, presence, and 
partnership capacity in the Asia-Pacific region to deter aggression and 
underwrite peace and stability.

    4. Senator McCain. Dr. Carter, do you share the view that China's 
actions have violated United States national interests in the Freedom 
of Navigation, the free flow of commerce and the peaceful settlement of 
disputes in accordance with international law?
    Dr. Carter. The United States has a longstanding national interest 
in preserving the freedom of navigation, and in the peaceful settlement 
of disputes in accordance with international law. I am concerned that 
recent Chinese actions, including its unilateral and uncoordinated 
announcement of an Air Defense Identification Zone (ADIZ) that 
overlapped the previous existing ADIZ in the East China Sea, its 
unilateral promulgation of fishing regulations covering much of the 
South China Sea, its pursuit of land reclamation activities in the 
South China Sea, and its use of economic pressure on other claimants, 
has raised regional tensions and complicated efforts to peacefully 
manage and resolve territorial disputes. The United States should 
remain committed to the preservation of the freedom of navigation, and 
all the other rights provided under international law. If confirmed, I 
would carry forward that commitment, and I would work to ensure that 
disputes are addressed in a manner that both reflects that commitment 
and that serves the goal of resolving disputes peacefully. This 
approach would apply to my dealings with China and with all other 
countries.
                               __________
             Questions Submitted by Senator James M. Inhofe
                  national security resource mismatch
    5. Senator Inhofe. Dr. Carter, what is your assessment of our force 
structure and readiness given the current and expanding global security 
environment?
    Dr. Carter. The Joint Force has been engaged in uninterrupted 
warfare for over 13 years, while the changing security environment has 
generated greater demand for forces across the globe. The 2014 
Quadrennial Defense Review assessed that the future security 
environment will continue to be volatile and dynamic. The high tempo of 
operations, coupled with constrained resources and disruptive budget 
actions that led to reduced readiness and force structure pressures in 
recent years, has challenged the Services in their efforts to 
reconstitute full-spectrum readiness. If sequestration returns in FY 
2016 and beyond, the Department's readiness could deteriorate even 
further.

    6. Senator Inhofe. Dr. Carter, if confirmed, how do you plan to 
shape our military to ensure we can deter and/or defeat today's and 
tomorrow's threats?
    Dr. Carter. The Department must rebalance the Joint Force to ensure 
it remains modern, capable, and ready for today's requirements and an 
uncertain future. The 2014 QDR outlined specific steps for the 
Department to take to adapt, reshape, and rebalance our military in 
order to sharpen our ability to address threats across the spectrum, 
from ongoing terrorism challenges to potential nation-state adversaries 
with a full range of technologically advanced capabilities. If 
confirmed, I will actively guide the Department's efforts to achieve 
the right balance of capability, capacity, and readiness in the Joint 
Force to address today's threats while setting the foundation to meet 
future challenges.
  military compensation and retirement modernization commission report
    7. Senator Inhofe. Dr. Carter, what are your thoughts on 
maintaining an All-Volunteer Force and how these recommendations could 
impact retention and recruiting?
    Dr. Carter. The All-Volunteer force has successfully supported our 
national security requirements particularly during the last 13 plus 
years of combat. I am aware the White House and the Department's senior 
civilian and military leadership are examining each of the Commission's 
specific proposals in detail. If confirmed, I will review the 
Commission's recommendations and the Department's analysis and provide 
my views to the President as required in the legislation. I will ensure 
that the Department's review focuses on the potential impact the 
Commission's recommendations could have on the long-term viability of 
the All-Volunteer Force, of which recruiting and retention are 
essential elements. I look forward to working with the Committee on 
these issues.

    8. Senator Inhofe. Dr. Carter, if confirmed, how would you ensure 
we will not break faith with the men and women who serve in uniform and 
their families?
    Dr. Carter. The men and women of our uniformed force and their 
families deserve our respect and committment. If confirmed, I will 
ensure the Department's detailed review and my input to the President 
on the specific proposals of the Commission provides for their needs. I 
am mindful of our obligations to both the current force as well as the 
future force and I am committed to ensuring that any change to the 
retirement system will retain the option to ``grandfather'' currently 
serving members.

    9. Senator Inhofe. Dr. Carter, if confirmed, what direction will 
you give your team regarding the Office of the Secretary of Defense's 
(OSD) assessment due in April?
    Dr. Carter. If confirmed, I will direct the Department to carefully 
review and evaluate the Commission's recommendations to ensure they 
sustain the All-Volunteer Force, provide the benefits to our 
servicemembers that are required, and achieve fiscal sustainability. I 
look forward to working with the Committee in this regard.
                         islamic state strategy
    10. Senator Inhofe. Dr. Carter, if confirmed, would you recommend 
placing boots-on-the-ground to Congress and the administration to deal 
with the Islamic State of Iraq and Syria (ISIS)/Islamic State of Iraq 
and the Levant (ISIL) threat, if required?
    Dr. Carter. If confirmed, I would, in close consultation with our 
senior military leaders, provide the President with my best strategic 
advice as to how to most effectively counter the ISIL threat. In 
formulating my advice, I will not hesitate to consider all options.
                       guantanamo bay naval base
    11. Senator Inhofe. Dr. Carter, if confirmed, how much risk would 
you accept to American lives when considering releasing detainees from 
Guantanamo Bay Naval Base (GTMO)?
    Dr. Carter. Congress has set a clear standard for the Secretary of 
Defense, and I will follow it faithfully if confirmed. I will not, and 
cannot, approve a transfer unless I determine that actions have been, 
or will be taken, to substantially mitigate the risk of the detainee 
engaging in terrorist or other hostile activity that threatens the 
United States. The law also requires that the Secretary of Defense 
determines it is in the national security interest to approve the 
transfer. If confirmed, I will take this obligation seriously and 
closely examine every proposed transfer to ensure that these conditions 
are met.

    12. Senator Inhofe. Dr. Carter, what is your position with regard 
to the President's policy of trying detainees in civilian courts versus 
military commissions?
    Dr. Carter. I understand the Administration's policy to be that the 
determination of whether to try detainees in civilian courts versus 
military commissions is made on a case-by-case basis. If confirmed, I 
will support this policy and make my recommendation based on the 
circumstances of a particular case, in consultation with my senior 
military, legal, and other advisors.
                          military lending act
    13. Senator Inhofe. Dr. Carter, the Department of Defense (DOD) has 
proposed draft regulations, under the Military Lending Act (MLA), to 
require lenders to verify against DOD's own database the military 
status of customers. Currently, such verification is voluntary by 
lenders, used to verify a customer's claim to military status. Under 
the proposed regulation, lenders would be required to verify military 
status whether claimed by the customer or not. What plans are in place 
to ensure that DOD's database will be able to handle the great increase 
in inquiries so that it is available at all times and that it is 
accurate so that credit-worthy customers--both military and non-
military--will not be held up from getting timely access to loans for 
which they qualify?
    Dr. Carter. I am not fully informed on this issue at this time, and 
am reluctant to express an opinion on this matter until I have more 
information. If confirmed, I will ensure those responsible for this 
area provide me with the required information so I can provide you the 
thoughtful response you deserve.

    14. Senator Inhofe. Dr. Carter, when Congress passed the MLA in 
October 2006, it was targeting certain loans, such as payday loans, tax 
refund anticipation loans, military installment loans, and car title 
loans, based on DOD's August 2006 study, ``Report on Predatory Lending 
Practices Directed at Members of the Armed Forces and Their 
Dependents.'' DOD adopted implementing regulations that covered the 
loans identified in its report. In its current proposal, DOD cites 
evidence and data that payday loans and title loans are being designed 
to circumvent the regulations and are harming our military personnel 
and their families. In such circumstances, it makes sense to adjust the 
regulations. What is the evidence of harm or circumvention behind the 
elements of the proposal that would reach beyond those predatory loans 
to mainstream products, such as credit cards, student loans, car 
refinance loans, and other such loans offered by banks and credit 
unions that are not affected by current MLA regulations?
    Dr. Carter. I am not familiar with the details of this issue at 
this time, and am reluctant to express an opinion on this matter until 
I have more information. I am committed to ensuring the Department is 
vigilant in guarding its servicemembers against unfair and predatory 
lending practices that could harm them or their families. If confirmed, 
I will ensure those responsible for this area provide me with the 
required information so I can address any issues. The Department 
clearly has an interest in helping to protect servicemembers from 
fraudulent lending practices.

    15. Senator Inhofe. Dr. Carter, DOD, in its proposed new 
regulations to the MLA, indicates that it wants credit cards to 
continue to be available to military personnel and their spouses. To 
what extent has DOD conducted an analysis as to whether the terms of 
its proposed new Military Annual Percentage Rate--which is different 
from the Annual Percentage Rate calculations for non-military 
families--will restrict the access to credit cards by military 
personnel and their spouses?
    Dr. Carter. I am not familiar with the specific details of the 
proposed regulation at this time. I am committed to ensuring the 
Department is vigilant in guarding its servicemembers against unfair 
and predatory lending practices that could harm them or their families. 
If confirmed, I will ensure that the Department has an appropriate 
analysis of the impacts of any such regulations.
                                 taiwan
    16. Senator Inhofe. Dr. Carter, Taiwan is currently planning to 
develop its Indigenous Defense Submarines (IDS) program. What is your 
opinion and position on Taiwan's IDS program?
    Dr. Carter. I understand that Taiwan's Indigenous Defense Submarine 
(IDS) program is a recent concept put forward by Taiwan's Navy to 
design and build a submarine domestically. Taiwan has publicly 
requested international support for its program, but to my knowledge, 
it is still in the process of developing a basic design and determining 
what the submarine's missions or desired capabilities would be. If 
confirmed, I will direct DOD to continue to consult closely with Taiwan 
on this matter, and will assess the program as it progresses.

    17. Senator Inhofe. Dr. Carter, what can the administration do to 
assist Taiwan in improving its undersea self-defense warfare 
capability?
    Dr. Carter. Consistent with the Taiwan Relations Act, the 
administration can assist Taiwan by evaluating the projected threat 
from China, consulting closely with Congress, and providing 
recommendations on defense articles and services appropriate for 
Taiwan, particularly in the undersea domain.
    I am aware that the Department has identified a number of areas 
where Taiwan could invest in asymmetric, innovative capabilities to 
improve its ability to operate in the undersea domain. For example, the 
Department has recently delivered P-3C long-range patrol aircraft to 
Taiwan. The Department has also provided support to Taiwan's 
capabilities for using sea mines, which are particularly cost effective 
defensive weapons.
    If confirmed, I will ensure that DOD continues to work with Taiwan 
as develops its requirements to determine what support the Department 
could provide.

    18. Senator Inhofe. Dr. Carter, the Taiwan Relations Act of 1979 
indicates that to provide Taiwan with arms of a defensive character is 
the policy of the United States. How do you and DOD under your 
leadership plan to continue to implement the U.S. policy under the Act?
    Dr. Carter. I am firmly committed to maintaining Taiwan's self-
defense capability, consistent with our one-China policy, which is 
based on the three joint United States-China communiques and the Taiwan 
Relations Act. I believe the Department should continually evaluate, 
assess, and review Taiwan's defense needs, while also providing defense 
articles and services necessary to enable Taiwan to deter threats. The 
United States should also maintain the capacity to resist any resort to 
force or coercion that would jeopardize the security, or the social and 
economic system, of the people of Taiwan. If confirmed, I will ensure 
that the Department will continue to work closely with our partners on 
Taiwan to bolster their military preparedness, sustain the credibility 
of Taiwan's deterrent, and support military modernization efforts.

    19. Senator Inhofe. Dr. Carter, how do you define the priorities 
for United States military assistance to Taiwan?
    Dr. Carter. I define priorities for United States military 
assistance to Taiwan based on an evaluation and assessment of its 
requirements to maintain a credible defense and deterrent. Taiwan faces 
a much larger adversary who is spending 14 times more on defense. 
Because of the growing military threat, the Department's should 
encourage and continue to assist Taiwan in its effort to incorporate 
asymmetric concepts and capabilities into its defense. As Taiwan 
transitions to a volunteer force, the Department should also help 
Taiwan improve its doctrine, training, reserves, and readiness.
                               __________
             Questions Submitted by Senator Roger F. Wicker
          humanitarian operations in kurdistan region of iraq
    20. Senator Wicker. Dr. Carter, what more can DOD do to support 
humanitarian operations and assistance in the Kurdistan region?
    Dr. Carter. DOD should support humanitarian operations when the 
Department has a unique capability to contribute to the U.S. 
Government's response. If confirmed, I will assess humanitarian 
operations and assistance in the Kurdistan region, and will ensure that 
the Department is poised to consider options to support the 
Administration's whole-of-government effort to provide humanitarian 
assistance to the Kurdistan region.

    21. Senator Wicker. Dr. Carter, if confirmed, will you return to 
this committee with additional options on how DOD can assist the nearly 
1.6 million refugees and internally displaced persons (IDP) currently 
located in the Kurdistan region?
    Dr. Carter. Yes.
                           military benefits
    22. Senator Wicker. Dr. Carter, defense commissaries are an 
integral part of life for deployed troops. Recently, the Defense 
Commissary Agency (DECA) initiated an acquisition strategy to 
transition delivery of produce to the Asia-Pacific region that 
eliminates the current second destination transportation policy and 
moves to an Free on Board (FOB)-destination model. According to 
detailed market study, this transition threatens the availability, 
quality, and price of the food available at overseas commissaries. Last 
year, your predecessor testified to this committee that there would be 
no cuts to overseas commissary benefits, yet DECA has acknowledged that 
this move will increase costs to patrons. Is it your position that 
commissary costs should rise for deployed troops in the Asia-Pacific 
region?
    Dr. Carter. I understand that the Department is looking at how to 
make the defense commissary system more efficient and effective. If 
confirmed, I will look for ways to achieve these goals for the 
commissaries while remaining mindful of the impact on their customers 
who are our service personnel active and retired and their families 
both at home and deployed.

    23. Senator Wicker. Dr. Carter, should this policy transition be 
delayed while a study mandated in the Fiscal Year 2015 National Defense 
Authorization Act (NDAA) studies the cost impacts to our troops of this 
proposal?
    Dr. Carter. If confirmed, I will review the current status and 
determine if such a delay would be warranted.
                                 taiwan
    24. Senator Wicker. Dr. Carter, United States policy towards Taiwan 
is governed by the Taiwan Relations Act. This important legislation 
forms the legal basis for United States military sales to Taiwan, which 
should be determined based on Taiwan's defensive needs. In light of the 
People's Republic of China's naval modernization and growing cross 
strait military imbalance, is it critical that we continue to implement 
this longstanding commitment?
    Dr. Carter. Yes.

    25. Senator Wicker. Dr. Carter, what will be your priorities in 
terms of military assistance to Taiwan?
    Dr. Carter. The Department should continue to focus on defense 
cooperation in support of Taiwan's transformation to a volunteer force, 
assisting it improve doctrine, training, and readiness. Further, the 
Department should also work with Taiwan to support its defense 
transformation and identify procurement priorities that enable it to 
deter aggression, resist coercion and maintain stability across the 
Taiwan Strait.

    26. Senator Wicker. Dr. Carter, Taiwan currently operates four 
diesel submarines, two of which were acquired from the U.S. Navy former 
Guppy II-class vessels delivered in 1973. Taiwan has expressed strong 
interest in acquiring modern defensive diesel submarines, and in an 
effort to boost their asymmetric undersea capabilities, they recently 
announced plans to kick off the IDS program. Do you believe it is in 
our interest for Taiwan to acquire new submarines? If so, what can we 
do to assist Taiwan?
    Dr. Carter. I understand that Taiwan's Indigenous Defense Submarine 
(IDS) program is a recent concept put forward by Taiwan's Navy to 
design and build a submarine domestically. I also understand that 
Taiwan is still in the process of developing a basic design and 
determining what the submarine's missions or desired capabilities would 
be. If confirmed, I will direct DOD to consult closely with Taiwan on 
its efforts to boost its asymmetric undersea capabilities, and assess 
what support would be appropriate.
                   north atlantic treaty organization
    27. Senator Wicker. Dr. Carter, the United States has faced 
tremendous difficulty in the past rallying consensus and participation 
by our North Atlantic Treaty Organization (NATO) allies in Afghanistan. 
Collective action is inherently complex. Consensus-building often 
results in delayed military action. How difficult will it be to achieve 
consensus at NATO on next steps against ISIL?
    Dr. Carter. I believe the United States and NATO have a shared 
interest in defeating ISIL. I understand that NATO leaders affirmed at 
the September 2014 NATO Summit that NATO would cooperate in several 
areas through the NATO-Iraq partnership, and explore NATO roles to 
coordinate humanitarian assistance and to share information and 
intelligence. If confirmed, I will seek to build on this cooperation, 
assess obstacles to achieving greater consensus, and work closely with 
our NATO Allies to address the common threat of ISIL.

    28. Senator Wicker. Dr. Carter, each member of NATO has its own 
unique geopolitical, economic, and energy interests. As such, what is 
your assessment of where Russia's invasion of Ukraine stands as a test-
case for NATO's effectiveness and relevancy in a post-9/11 world?
    Dr. Carter. Although NATO does not have a formal treaty obligation 
to Ukraine, NATO's response to Russia's aggressive actions have shown 
the shared commitment of NATO to promote its shared values and to 
enlarge the zone of peace, security, and stability in Europe. If 
confirmed, I will work with NATO to reassure our Allies and respond to 
the challenge from Russia.

    29. Senator Wicker. Dr. Carter, what approach would you suggest for 
the so-called ``grey'' states that are not in NATO but are intent on 
resisting Russian hegemonic advances such as Ukraine and Moldova?
    Dr. Carter. I reject the notion that Russia should be afforded a 
``sphere of influence.'' If confirmed, I will continue to encourage 
United States partners, such as Moldova, Georgia, and Ukraine, to build 
their security capacity and military interoperability with NATO.

    30. Senator Wicker. Dr. Carter, according to NATO guidelines, 
member countries should spend at least 2 percent of their Gross 
Domestic Product (GDP) on defense. Only four countries spent that much 
in 2013: Estonia, Greece, the United States, and the United Kingdom. 
Are there any carrots and sticks we can use to encourage all members of 
the alliance to make the necessary investments toward their national 
security?
    Dr. Carter. At the September Wales Summit, the Allies pledged to 
increase defense investment. If confirmed, I will work personally to 
encourage all Allies to meet that pledge. I would underscore the shared 
threats NATO members face, and the critical need to continue to invest 
in defense capabilities to strengthen the Alliance. I would urge Allies 
with larger economies to invest in military capabilities that that can 
be used to impose costs on any opponent with minimal cost and risk to 
Alliance forces. For Allies with smaller economies, I would encourage 
them to invest in capabilities that are needed by the Alliance, and in 
which they may have a comparative advantage.
 combatant commander requirements for intelligence, surveillance, and 
                             reconnaissance
    31. Senator Wicker. Dr. Carter, our combatant commanders are 
demanding increasing amounts of Intelligence, Surveillance, and 
Reconnaissance (ISR), and emphasizing persistence surveillance. That 
persistence comes at significant cost, and in certain regions of the 
world many ISR needs are going unmet. Further, most of the U.S. manned 
and unmanned aerial assets have durations of 8 to 24 hours, making long 
range/long endurance capability extremely difficult if not impossible 
in many theaters of operation.
    I am aware that in June 2014, United States Africa Command 
(AFRICOM) issued a Joint Emerging Operational Needs Statement for long 
endurance ISR (AF-0005) ISR. It is my understanding a Joint 
Requirements Oversight Council (JROC) Memorandum of December 22, 2014, 
acknowledged the capability gaps outlined in the Joint Emergent 
Operational Needs (JEON) as valid and tasked the Battlespace Awareness 
group to consider solutions and report back by April 30, 2015.
    Recent press reports reveal that the Air Force is managing a 
program known as Orion unmanned aerial system (UAS), which has proven 
significant endurance capability far beyond currently available air 
assets. Orion was selected in 2009 as a Joint Capability Technology 
Demonstration (JCTD), a process in which several of the combatant 
commands voted for Orion. This result was reflected in the President's 
Budget under the MAGIC (Medium Altitude Global ISR and Communication) 
program within Air Force Research, Development, Test, and Evaluation 
(RDT&E).
    If confirmed, will you direct DOD to brief the appropriate 
Congressional committees on DOD's plans to continue Orion platform 
development and speed operational test and evaluation of such a 
platform in order to meet urgent, and rapidly growing, combatant 
command requirements for additional long range/long endurance ISR 
capability?
    Dr. Carter. The Department has invested significant resources over 
the past decade to meet critical intelligence, surveillance and 
reconnaissance needs through Quick Reaction Capabilities, Joint Urgent 
Operational Needs and flexible, responsive, programs of record. If 
confirmed, I will ensure the appropriate congressional committees are 
briefed on combatant command requirements, and the broad spectrum of 
both airborne and space-based ISR assets, including ORION, to provide 
long-range/long-endurance ISR capability.
                                 syria
    32. Senator Wicker. Dr. Carter, it is my understanding that the 
Free Syrian Army utilizes a secure mobile wireless network known as the 
Free Syria Network for communications purposes. I also understand that 
DOD and agencies within the Intelligence Community may have utilized 
this system to successfully communicate with the leadership of the Free 
Syrian Army. If confirmed, will you direct the appropriate entity 
within DOD to brief the appropriate Congressional committees on the 
efficacy of the Free Syria Network and, if appropriate, DOD's plans to 
protect, and potentially expand and enhance, this critical 
communications tool for the Free Syrian Army?
    Dr. Carter. If confirmed, I will support briefings to appropriate 
congressional committees on the details of the Department of Defense's 
train-and-equip program in Syria to include those aspects outlined in 
your question.
                                seapower
    33. Senator Wicker. Dr. Carter, I have the honor of serving as 
Chairman of the Seapower Subcommittee of the Senate Armed Services 
Committee this Congress. Should you be confirmed, I look forward to 
working with you on Navy and Marine Corps priorities during the months 
to come.
    In fiscal year 2013, the Navy implemented numerous cuts in response 
to sequestration. This included cancellation of five ship deployments 
and the delayed deployment of a carrier strike group to the Middle 
East. Since 2013, we've witnessed the rise of ISIL, the deteriorating 
situation in Yemen, Russia's aggression in Eastern Europe, and a 
belligerent North Korea. The world is more dangerous today than it was 
in 2013.
    What is your view on how sequestration would threaten the Navy and 
Marine Corps' ability to decisively project power abroad?
    Dr. Carter. The Seapower Subcommittee has a long and productive 
history in providing for a strong Navy and Marine Corps. If confirmed, 
I look forward to working with you as Chairman of the Subcommittee and 
the other members of the Subcommittee in furtherance of this goal. A 
return to sequestration could have a serious effect on the Navy's and 
Marine Corps' ability to project power. Both Services could become 
smaller, less ready, and less modern. The shipbuilding industrial base, 
a critical component of sea power, could suffer, and deployments would 
be borne by a smaller Marine Corps, which could be stretched thin.

    34. Senator Wicker. Dr. Carter, what is your assessment of the 
impact sequestration would have on our amphibious forces and our Navy 
and Marine Corps' ability to execute DOD's pivot to Asia-Pacific?
    Dr. Carter. A return to sequestration could negatively affect the 
Navy and Marine Corps' ability to support DOD's rebalance to the Asia-
Pacific region. Both services could necessarily be smaller, less ready, 
and less modern, resulting in fewer forces available to support 
operations in this vital region. These forces are a key component of 
our forward regional presence in support of our allies and partners.

    35. Senator Wicker. Dr. Carter, certain sectors of the defense 
industry--such as shipbuilding--are extremely capital intensive. Our 
fiscally constrained environment threatens to close production lines 
that would take years to restart. Given your prior experience as Under 
Secretary of Defense for Acquisition, Technology and Logistics, what is 
your vision on how best to maintain the vitality of the industrial base 
given our current budget environment?
    Dr. Carter. A healthy industrial base is critically important to 
the Department's long-term success. The keys to maintaining the world's 
finest fighting force are high-quality people who have constant and 
realistic training and are equipped with cutting-edge technology. The 
Department must be prepared to act if key parts of the industrial base 
are threatened. If confirmed, I will ensure that the Department 
actively monitors the industrial base to identify risks and to preserve 
critical capabilities.
                        walter reed disposition
    36. Senator Wicker. Dr. Carter, the NDAA for fiscal year 2015 
identified 13.2 acres, including the American Institute of Pathology 
building, of the former Walter Reed Army hospital site that would be 
ideal for medical research purposes. The Senate Armed Services 
Committee and I continue to believe that it is in the best interest of 
the taxpayer to convey this building to a research institution, 
especially when one considers the millions of dollars spent in recent 
years to update and renovate the facility, as well as the future 
economic impact of medical innovation.
    Unfortunately, I learned this week that--despite a letter I 
received from the Secretary of the Army stating the Army's intent to 
expeditiously transfer the land to a children's research facility--the 
parcel of land at Walter Reed may be transferred to the State 
Department. It would be an incredible waste of taxpayer dollars to 
allow the State Department to spend tens of millions of dollars to tear 
down a world class research building, which is ready for a new tenant 
immediately, in order to build an undefined, unplanned foreign embassy 
at some undetermined date in the future.
    What are your views as to how the land should be dispersed?
    Dr. Carter. I do not have sufficient information to answer this 
question at this time. It is my understanding that the Department has 
been working this matter with the State Department, public health 
advocates including Children's Hospital, and the District of Columbia. 
If confirmed, I will ensure that effort is concluded without 
unreasonable delay, consistent with the requirements of the 
legislation.

    37. Senator Wicker. Dr. Carter, if confirmed, will you direct DOD 
to provide the Senate Armed Services Committee and other appropriate 
Congressional committees with an explanation as to the holdup of the 
Walter Reed land transfer to a medical research entity?
    Dr. Carter. If confirmed, I will ensure the appropriate 
congressional committees are provided with the Department's plans and 
the timing for the disposition of Walter Reed, including any transfer 
to a medical research entity.
                               __________
              Questions Submitted by Senator Kelly Ayotte
               military housing at camp humphreys, korea
    38. Senator Ayotte. Dr. Carter, United States Forces in Korea are 
engaged in a massive realignment that will result in the consolidation 
of U.S. Forces onto fewer, larger installations. One such installation 
is United States Army Garrison Camp Humphreys. I am concerned about 
reports of the potential housing shortage at Camp Humphreys that could 
result in both long bus rides for children attending new schools on 
post, and a failure to meet the Commanding General's goal for 40 
percent of accompanied families to live on-post.
    I have received information that suggests despite the fact that 
some current housing facilities are slated for demolition, there is no 
final agreement for on-post family housing because DOD has not approved 
a special on-post Overseas Housing Allowance District despite the 
inclusion of this districting in the solicitation for bids.
    I understand that in your last tour in the Pentagon you were 
involved in the family housing situation at Camp Humphreys. If my 
information is correct, do you know why the on-post housing contract is 
still delayed?
    Dr. Carter. I am very aware of the importance of Camp Humphreys to 
our posture on the Korean Peninsula. At this time, I am not familiar 
with the current status of the on-post housing contract at Camp 
Humphreys, including why it may have been delayed. If confirmed, I will 
review this matter and take appropriate action and ensure you get a 
prompt answer to your question.

    39. Senator Ayotte. Dr. Carter, will you provide your assurance 
that soldiers and their families will have the on-post housing they 
deserve as the military relocates to Camp Humphreys?
    Dr. Carter. If confirmed, I will work to ensure the on-post housing 
at Camp Humphreys meets operational requirements and provides quality 
residences for as many of our soldiers and their families as possible.

    40. Senator Ayotte. Dr. Carter, do you know whether a contract has 
been awarded for the construction of on-post housing at Camp Humphreys? 
If so, has construction begun? If not, why not?
    Dr. Carter. I am not privy to the construction schedules at this 
time. If confirmed, I will review the Department's plan for meeting 
Camp Humphrey's on-base housing requirements and ensure you receive 
full and timely answers to your questions.
                      department of defense budget
    41. Senator Ayotte. Dr. Carter, if the President's Budget Request 
for DOD is funded at the $499 billion level mandated by the 
congressional budget caps instead of the $585 billion requested, what 
will be the breakdown of cuts to each Service by program, project, and 
activity (PPA)?
    Dr. Carter. Should Congress appropriate the Department's full FY 
2016 request while failing to amend the Budget Control Act (BCA), my 
understanding is that the mechanical sequestration process would then 
cut any funding provided above the BCA caps in a mindless across-the-
board fashion. I further understand that the Department is preparing a 
report to the Congress on those potential impacts. The only discretion 
in that event would be how the President exercised his authority to 
exempt the military personnel accounts from those across-the-board 
cuts.
    Should the Congress chose to appropriate only the amount allowed by 
the BCA for FY2016, the Congress would make its own decisions on how to 
reduce the Department's budget. My hope is that we would not face this 
alternative but, if we do, that those actions would be taken in 
consultation with the Department.
                              afghanistan
    42. Senator Ayotte. Dr. Carter, in the advance policy questions, 
you were asked if you would consider recommending to the President 
revisions to the size and pace of the drawdown in Afghanistan if the 
security conditions on the ground deteriorate in 2016. You answered 
yes. What specific conditions on the ground in Afghanistan would cause 
you to recommend to the President a change to the size and pace of the 
drawdown?
    Dr. Carter. Should security conditions in Afghanistan degrade such 
that the efficacy of the United States strategy is in doubt, or result 
in a significant increase in risk to our people there, I would consult 
with my senior military and civilian advisors and provide my best 
strategic advice to the President about the need for any changes to the 
size or pace of the drawdown.
                           readiness deficits
    43. Senator Ayotte. Dr. Carter, in your responses to the advance 
policy questions, you write that there ``are still critical readiness 
deficits in many areas.'' Based on your prior service in DOD and your 
preparation for this hearing, can you provide more details on those 
readiness deficits?
    Dr. Carter. It is my understanding that the Services are working to 
rebuild core skill sets and reorient their manning, training and 
equipping processes in order to broaden their readiness profile after 
years of operational commitments in Iraq and Afghanistan and elsewhere. 
Their progress to date does not undo the loss of full-spectrum 
readiness across the Department. These institutional readiness deficits 
took years to create, were exacerbated by the sequester level funding 
and, as such, will take years to remedy. Their progress to date has not 
reversed the loss of full-spectrum readiness across the department 
affecting all services and all force elements.
                        ohio replacement program
    44. Senator Ayotte. Dr. Carter, the Chief of Naval Operations has 
testified that maintaining a safe, secure, and effective nuclear 
deterrent is his number one priority. The Navy will be challenged to 
recapitalize our ballistic missile submarines, known as the Ohio 
Replacement Program, within historic levels of shipbuilding funding. 
What is your position on the importance of the Ohio Replacement Program 
and how DOD should fund it?
    Dr. Carter. The Ohio Replacement Program is a vital component of 
our nuclear deterrence strategy. The Ohio Replacement Program will 
present challenges to the Navy's shipbuilding plan, particularly in the 
years after 2020. The Department needs adequate resources for 
modernization in order to insure we can make the transition to the new 
generation ballistic missile submarine. Which account it is funded in 
is of lesser importance. It makes the most sense to include the Ohio 
replacement in the shipbuilding account but this is a decision that can 
be made in the future. If confirmed, I will work within the Department 
and with the Congress to explore options to address this challenge.
                             sexual assault
    45. Senator Ayotte. Dr. Carter, over the last 3 years, numerous 
provisions have been enacted to reform the military justice system and 
to improve the armed services' ability to combat sexual assault. If 
confirmed, will you commit to ensuring the timely, full, and robust 
implementation of all sexual assault provisions in previous years' 
NDAAs?
    Dr. Carter. Yes. If confirmed, I plan to continue the Department's 
efforts to effectively implement each provision. I recognize that it is 
critical to work closely with Congress, so that legislative efforts and 
the Department's initiatives are consistent and complement each other.
                         auditing the pentagon
    46. Senator Ayotte. Dr. Carter, ensuring DOD achieves full 
auditability has been a major priority of mine since coming to the 
Senate. Every dollar wasted is a dollar we don't have to provide our 
troops with the training and equipment they need to protect themselves 
and accomplish their missions. However, the Pentagon's audit timeline 
and structure continue to evolve and experience delays. If you are 
confirmed, do you commit that you will make achieving audit milestones 
and objectives a major priority?
    Dr. Carter. If confirmed, I will make this a high priority and hold 
our senior leaders, civilian and military, accountable for making 
progress towards a clean opinion. DOD must demonstrate that internal 
controls are in place to prevent waste and provide a level of 
confidence to the taxpayers that we are good stewards of their funds. I 
understand that the Department is following the audit strategy it has 
outlined to the Congress. If confirmed, I intend to keep Congress 
apprised of the Department's progress.

    47. Senator Ayotte. Dr. Carter, do you commit to achieve current 
timelines for auditability?
    Dr. Carter. Yes. I am committed to the current timelines for 
getting the Department under audit. Keeping this initiative on track is 
an important priority. If confirmed, I will stress to the Department's 
senior military and civilian leaders, to including the Secretaries of 
Military Departments and defense agency heads, the importance of 
meeting our obligations on auditability.
                               __________
               Questions Submitted by Senator Tom Cotton
            russia intermediate-range nuclear forces treaty
    48. Senator Cotton. Dr. Carter, as you are no doubt aware, last 
year the United States State Department in its annual Arms Control 
Compliance Report stated that Russia had violated the terms of 
Intermediate-Range Nuclear Forces (INF) Treaty. As a member of the 
Senate Select Committee on Intelligence, I've reviewed the evidence and 
Russia is clearly in violation.
    Earlier this year, before the House Armed Services Committee, the 
Principal Deputy Under Secretary of Defense for Policy, Brian McKeon, 
stated that DOD was considering responding to the violation by 
developing and deploying increased defensive capabilities to counter 
the non-compliant missile, counter-force capabilities to prevent cruise 
missile attacks; and counter-vailing strike capabilities. Do you agree 
with Secretary McKeon? Isn't this the minimum we should be doing?
    Dr. Carter. The United States goal should be to convince Russia to 
return to compliance with the INF Treaty in a verifiable manner. If 
Russia refuses to return to compliance, the United States should 
prevent Russia from achieving a military advantage from its violation. 
Potential military responses are a critical component of a strategy 
directed towards convincing Russia to return to compliance with the INF 
Treaty or, if Russia does not return, denying it significant military 
advantage from violating the Treaty.
    I agree that DOD should consider a range of options, including 
active defenses to counter intermediate-range ground-launched cruise 
missiles; counterforce capabilities to prevent intermediate-range 
ground-launched cruise missile attacks; and countervailing strike 
capabilities to enhance U.S. or allied forces. U.S. responses must make 
clear to Russia that if it does not return to compliance our responses 
will make them less secure than they are today.

    49. Senator Cotton. Dr. Carter, General Breedlove, the United 
States European Command (EUCOM) Commander stated last year that ``A 
weapon capability that violates the INF that is introduced into the 
greater European land mass is absolutely a tool that will have to be 
dealt with. It can't go unanswered.'' Do you agree?
    Dr. Carter. Yes.
                        russia open skies treaty
    50. Senator Cotton. Dr. Carter, I am a member of the Senate Select 
Committee on Intelligence in addition to this committee. I have become 
concerned with Russian misuse of the Open Skies Treaty. Have you 
reviewed any of the assessments of this treaty and its potential 
national security implications?
    Dr. Carter. I have not had the opportunity to familiarize myself 
with the assessments to which you refer.

    51. Senator Cotton. Dr. Carter, are you aware that the Commander of 
EUCOM non-concurred last summer when the administration sought to 
approve the use of a new sensor over Europe but the Commander's 
concerns were ignored and the sensor was approved anyway?
    Dr. Carter. No, I am not aware of the situation you mentioned.

    52. Senator Cotton. Dr. Carter, would you please commit to promptly 
reviewing the assessments of the commanders of United States Strategic 
Command (STRATCOM), EUCOM, and United States Northern Command 
(NORTHCOM) as to the Open Skies Treaty and let me know, within the next 
2 weeks, if you agree or disagree with their assessments of the 
potential harms to our European allies and the United States?
    Dr. Carter. If confirmed, I would ensure a prompt review is 
conducted of any concerns expressed by combatant commanders regarding 
the Open Skies Treaty.
                               __________
              Questions Submitted by Senator Dan Sullivan
                      strategic location of alaska
    53. Senator Sullivan. Dr. Carter, in a week or two, the Army will 
be conducting force reduction and realignment listening sessions across 
country. Two of these sessions will be conducted in Alaska; one on 
Joint Base Elmendorf-Richardson and the other Fort Wainwright. Given 
our strategic shift to the Asia-Pacific and a renewed focus on the 
Arctic, do you believe that the forces in Alaska are uniquely suited to 
help address strategic needs in our Pacific Pivot and new Arctic 
Strategy?
    Dr. Carter. Yes, United States forces in Alaska play a critical 
role in our posture in the Asia-Pacific region.

    54. Senator Sullivan. Dr. Carter, can I have your assurance that 
decisions are not made to eliminate units which are best positioned to 
quickly and effectively respond to threats in the Pacific Region in 
strategically important places like Alaska?
    Dr. Carter. Any changes to United States force posture need to 
ensure that the United States can continue to quickly and effectively 
respond to threats in the Pacific Region.

    55. Senator Sullivan. Dr. Carter, should the Army decide to 
eliminate one or both brigade combat teams (BCT) in Alaska, how do you 
expect Kim Jong-un to react to this news?
    Dr. Carter. An important purpose of United States force posture in 
the Pacific Region is to deter aggression on the Korean Peninsula. That 
should be clear to the government of the DPRK.

    56. Senator Sullivan. Dr. Carter, how would Vladimir Putin view it?
    Dr. Carter. An important purpose of our posture in the Asia Pacific 
region is to deter aggression by any power, including Russia.

    57. Senator Sullivan. Dr. Carter, how about our friends and 
partners like Japan, Korea, and Singapore, how would they interpret it?
    Dr. Carter. An important purpose of our posture is also to assure 
our friends and partners, such as Japan, Korea, and Singapore, that the 
United States is fully committed to the security of the Asia-Pacific 
region.
        russian arctic actions and lack of united states action
    58. Senator Sullivan. Dr. Carter, recent news articles have 
reported increased Russian involvement in the Arctic. This involvement, 
which some have called the militarization of the Arctic, includes 
creation of a new Arctic Command, the construction of as many as 13 new 
airfields and 10 air-defense radar stations, an increase in Russian 
Long-Range Air Patrols, continued investment in the world's largest 
ice-breaker fleet, and the recent activation of an Arctic Brigade. 
Additionally, Russia has made several large territorial claims into the 
Arctic, including the expressed desire to expand its Arctic borders by 
more than 460,000 square miles. Meanwhile DOD has issued a 16-page 
Arctic Strategy; just 13 pages if you don't count the cover, the 
forward, and the 1-page map. How are we not falling behind in the 
Arctic?
    Dr. Carter. The U.S. approach to the Arctic should support our core 
objectives to ensure security and promote defense cooperation. If 
confirmed, I will direct our combatant commanders and Services to 
regularly review the security environment to ensure the U.S. is 
investing in required capabilities in a timely manner.

    59. Senator Sullivan. Dr. Carter, what is your 50-year vision for 
the Arctic?
    Dr. Carter. My 50-year vision is for an Arctic region that remains 
stable and free of conflict, where nations continue act responsibly in 
a spirit of trust and cooperation, and where economic and energy 
resources are developed in a sustainable manner that respects both the 
fragile environment and the interests and cultures of indigenous 
peoples. Although the Arctic Ocean may be ice-free for several months 
during the summer by 2065, it will still be ice-bound during the long, 
dark polar winter. If confirmed, I will work with my interagency 
partners to support the work of the Arctic Council during the upcoming 
U.S. Chairmanship to lay the foundation for addressing the enduring 
challenges to human and environmental safety and security in the 
region.

    60. Senator Sullivan. Dr. Carter, what resources do we need as a 
Nation to effectively project power into the Arctic Region?
    Dr. Carter. To effectively project power into the Arctic Region, 
the United States needs to maintain the aircraft necessary to patrol 
our skies and respond to Russian long-range aviation when our 
sovereignty is challenge. Given that the Arctic is frozen much of the 
year, submarines are also vital to our power projection capability. DOD 
is able to accomplish its mission against existing threats in current 
Arctic conditions with its current capabilities. At some point in the 
future, the United States will also need ships capable of operating in 
the marginal ice zone or near ice in the summer months when the Arctic 
is accessible. If confirmed, I will continue to assess those needs to 
determine what resources the U.S. requires.
                          arctic collaboration
    61. Senator Sullivan. Dr. Carter, besides our participation on the 
Arctic council, how can we more effectively collaborate with Arctic 
nations?
    Dr. Carter. The United States can work to advance its defense and 
security partnerships with partners in the Arctic through engagement in 
international venues such as the International Maritime Organization, 
where a Polar Code for Arctic shipping is under development, and the 
new Coast Guard Arctic Forum. The U.S. can also seek to enhance 
research and academic collaboration through institutions like the new 
Coast Guard Center for Arctic Study and Policy, and the International 
Arctic Research Center at the University of Alaska Fairbanks. The 
United States should continue to work with its Arctic partners through 
the Northern Chiefs of Defense Conference to bolster security and 
defense cooperation. The U.S. can also seek additional opportunities 
for business collaboration through the new industry-led Arctic Economic 
Council. Finally, the United States can also take a leadership role in 
promoting the rules that underpin the freedom of the seas and provide 
legal certainty on the world's oceans, including exercising 
internationally recognized navigation and overflight rights in the 
Arctic Ocean, as appropriate.

    62. Senator Sullivan. Dr. Carter, how can we improve military-to-
military relations with our arctic friends and partners?
    Dr. Carter. The U.S. can improve military-to-military relations 
with its Arctic friends and partners by working with them to confront 
the same challenges the United States faces: Arctic operations are 
expensive and can be dangerous for military forces that are unprepared 
for the austere operating environment.
    For example, the United States can participate in Arctic search and 
rescue exercises in collaboration with the Coast Guards and Navies of 
other Arctic friends and partners. A combination of at-sea interaction 
and in-port engagements that address common challenges such as 
communications, situational awareness, and cold weather operations can 
improve interoperability and strengthen military-to-military 
relationships. Another avenue to improve military-to-military relations 
is through collaborative Arctic research with organizations. Finally, 
militaries should continue to exchange concerns and lessons learned in 
forums such as the Arctic Security Forces Roundtable, and through joint 
exercises.
                           army role in asia
    63. Senator Sullivan. Dr. Carter, last year at the annual 
Association of the U.S. Army conference, Secretary Hagel has said that 
the Army could ``broaden its role,'' after more than a decade of 
continuous operations in Iraq and Afghanistan, ``by leveraging its 
current suite of long-range precision-guided missiles, rockets, 
artillery, and air defense systems'' to build a modern coastal defense 
force that could contribute to operations in anti-access/area-denial 
environments. Do you concur that such a capability would offer benefits 
for United States defense policy in the Asia-Pacific and other maritime 
theaters?
    Dr. Carter. I support the Army's ongoing efforts to improve its 
integrated air and missile defense capabilities. The coming years will 
allow the Army to focus on resetting and looking forward to greater 
investment in Asia-Pacific missions, including building partner 
capacity of counterpart forces in that region.
                            chinese coercion
    64. Senator Sullivan. Dr. Carter, over the last several years, 
China has engaged in coercive diplomacy to achieve its political and 
territorial aims in the East and South China Seas. The administration 
has responded with efforts to build partner capacity and strengthen 
regional institutions, but this will take years if not decades to bear 
fruit. Beyond private diplomacy with the Chinese, which appears to be 
insufficient, what steps do you believe we should take to deter Chinese 
assertiveness in the short and medium term?
    Dr. Carter. The United States has a strong interest in maintaining 
peace and stability, the free flow of commerce, and the freedom of 
navigation and overflight in the East and South China Seas. In addition 
to diplomacy to resolve territorial disputes peacefully and in 
accordance with international law, the United States should deter 
assertiveness in the region with a robust force posture, sustained 
presence, and commitment to building the capacity of its partners and 
allies. The United States also should encourage China to be more 
transparent about how it will use its growing military capabilities. 
The United States should also continue to modernize and strengthen its 
security alliances with Australia, Japan, the Republic of Korea, 
Philippines, and Thailand. The United States should also deepen 
relationships with and among its partners in South and Southeast Asia 
to build capacity and reduce vulnerabilities. If confirmed, I will 
continue to prioritize our investments in posture, presence, and 
partnership capacity in the Asia-Pacific region to deter aggression and 
underwrite peace and stability.

    65. Senator Sullivan. Dr. Carter, do you share the view that 
China's actions have violated United States national interests in the 
Freedom of Navigation, the free flow of commerce, and the peaceful 
settlement of disputes in accordance with international law?
    Dr. Carter. The United States has a longstanding national interest 
in preserving the freedom of navigation, and in the peaceful settlement 
of disputes in accordance with international law. I am concerned that 
recent Chinese actions, including its unilateral and uncoordinated 
announcement of an Air Defense Identification Zone (ADIZ) that 
overlapped the previous existing ADIZ in the East China Sea, its 
unilateral promulgation of fishing regulations covering much of the 
South China Sea, its pursuit of land reclamation activities in the 
South China Sea, and its use of economic pressure on other claimants, 
has raised regional tensions and complicated efforts to peacefully 
manage and resolve territorial disputes. The United States should 
remain committed to the preservation of the freedom of navigation, and 
all the other rights provided under international law. If confirmed, I 
would carry forward that commitment, and I would work to ensure that 
disputes are addressed in a manner that both reflects that commitment 
and that serves the goal of resolving disputes peacefully. This 
approach would apply to my dealings with China and with all other 
countries.
                            american energy
    66. Senator Sullivan. Dr. Carter, 10 years ago, we would have never 
expected the United States to be in the current position as an energy 
superpower. How do you foresee the United States utilizing this power 
to our advantage abroad?
    Dr. Carter. The profound changes in the global energy market, and 
the United States' increasing role as an energy superpower, are 
significant developments in the global landscape. They present a range 
of opportunities and challenges, which influence the international 
security environment and the Department's ability to fulfill its global 
responsibilities. If confirmed, I will ensure that the Department 
accounts for the security implications and possibilities of this 
critical but volatile market in its strategic calculus and works with 
the U.S. interagency and our international partners to leverage it 
properly.

    67. Senator Sullivan. Dr. Carter, what actions will DOD take to 
ensure we maintain this role and what can Congress do to help maintain 
this power as well?
    Dr. Carter. Although the Department is not the lead agency for 
energy policy, I do support a whole-of-government approach for U.S. 
national security that factors in energy use and production.
                               __________
                Questions Submitted by Senator Mike Lee
                            u.s. global role
    68. Senator Lee. Dr. Carter, in discussing the foreign interests of 
the United States, early U.S. Presidents like Washington and Jefferson 
warned against entangling the United States in the business of other 
nations. I'd like to get your thoughts on what you believe the role of 
the U.S. is, as a global superpower, and how we can balance this status 
while not becoming overly involved and burdened in situations that do 
not impact our Nation's security?
    Dr. Carter. The United States continues to be the preeminent global 
superpower and remains the strongest, most resilient, and most 
influential Nation on the face of the earth. We have allies and friends 
in every corner of the world and our adversaries have few: this is 
clear testimony to the appeal of our values, our principles, and our 
leadership. However the world continues to be dangerous place: turmoil 
in the Middle East and North Africa, an ongoing war in Afghanistan, the 
reversion to old-style thinking in parts of Europe, and the long-
standing tensions from the past and the rapid changes in Asia. This 
calls for the continuing need of the stabilizing presence of the United 
States throughout the world, while working closely with our allies and 
partners to address threats to U.S. interests.

    69. Senator Lee. Dr. Carter, where do you believe DOD should be 
reprioritizing its focus, either programmatically or geographically, in 
order to maximize attention to its primary responsibility of securing 
the freedoms and rights of U.S. citizens?
    Dr. Carter. I believe DOD priorities should include preserving and 
enhancing the finest fighting force in the world and taking care of 
their families; providing a strategic perspective to the threats and 
opportunities in the world; and implementing significant reforms that 
are crucial in a time of budget uncertainty. From a programmatic 
perspective, DOD should protect and prioritize investments in 
innovative technology and operational concepts to maintain the most 
advanced capabilities in the world.
                             national guard
    70. Senator Lee. Dr. Carter, if confirmed, how do you plan to build 
upon the combat experience gained by National Guard and Reserve units 
and take advantage of the cost-benefits of the Reserve Forces 
identified by the Reserve Forces Policy Board and Cost Assessment and 
Program Evaluation (CAPE) reports in order to preserve combat power for 
the military, especially while adjusting to potential budget 
constraints?
    Dr. Carter. Each component is critical to the total force. If 
confirmed, I will review the reports and ensure that all force 
structure decisions take into account the comparative cost, capability, 
and operational capacity and experience of each component to attain the 
best force mix.

    71. Senator Lee. Dr. Carter, as you know, the Army's Aviation 
Restructuring Initiative (ARI) calls for the transfer of all Apache 
attack helicopters from the National Guard to Active Army. There are 
thousands of men and women in the National Guard currently assigned to 
the Apache battalions, many who have years of combat experience and 
decades of training with this equipment. Are you concerned that we are 
losing a valuable national security asset that we already have in these 
personnel by carrying out this initiative?
    Dr. Carter. If confirmed I will review the Army's Aviation 
Restructuring Initiative (ARI) as well as take into account the 
recommendations of the Army Commission established by the Congress to 
review this issue and make independent recommendations

    72. Senator Lee. Dr. Carter, do you have any concerns that this 
initiative would reduce the strategic depth of the Army aviation?
    Dr. Carter. If confirmed I will review the Aviation Restructuring 
Initiative and look forward to receiving the views of the Army, the 
Chief of the National Guard Bureau, and the Council of Governors and 
the results of the Army Commission.
                               air force
    73. Senator Lee. Dr. Carter, at the end of last year, the Air Force 
announced that if it was not authorized to retire weapons systems (the 
A-10) as requested in the fiscal year 2015 Budget Request, there would 
be a shortfall of maintainers to train and transition into new 
equipment, which could potentially delay Initial Operational Capability 
(IOC) and Full Operational Capability (FOC) for new weapons systems (F-
35). To what extent are you aware of this issue, and how do you intend 
to address any Air Force maintainer shortfall if confirmed?
    Dr. Carter. I am not fully informed on this issue. If confirmed, I 
will direct the Secretary of the Air Force to address this issue and 
develop a solution as necessary.
                            strategic forces
    74. Senator Lee. Dr. Carter, the United States Government last year 
accused Russia of violating the INF Treaty, something that has been 
largely suspected for some time. What do you believe should be an 
appropriate response to Russia's violation of this treaty from DOD and 
the United States Government as a whole?
    Dr. Carter. In response to Russia's violation of the INF Treaty, 
the United States should consider a comprehensive strategy of 
diplomatic, economic, and military responses. Russia's continued 
disregard for its international obligations and lack of meaningful 
engagement on this particular issue require the United States to take 
actions to protect its interests and security as well as those of its 
allies and partners. United States efforts should continue to remind 
Russia why the United States and Russia signed this treaty in the first 
place and be designed to bring Russia back into verified compliance 
with its obligations. I believe that any United States responses should 
be designed to make the United States and our allies and partners more 
secure by ensuring that Russia does not gain any significant military 
advantage from deploying an INF-prohibited system.
    The range of options we should look at from the Defense Department 
could include active defenses to counter intermediate-range ground-
launched cruise missiles; counterforce capabilities to prevent 
intermediate-range ground-launched cruise missile attacks; and 
countervailing strike capabilities to enhance U.S. or allied forces. 
United States responses must make clear to Russia that if it does not 
return to compliance our responses will make them less secure than they 
are today.

    75. Senator Lee. Dr. Carter, do you believe that the United States 
should undertake any further nuclear forces reductions while Russia is 
still in violation of this or any other treaty?
    Dr. Carter. If confirmed, I would assess the current situation, 
consult with my senior military advisors, and recommend a course of 
action.

    76. Senator Lee. Dr. Carter, Secretary Hagel spoke recently about 
the importance that our Nation's nuclear deterrence still plays in U.S. 
security and in support of the new long-range strike bomber project. 
Many of us support the nuclear deterrence mission and want to ensure 
that future modernization and acquisition projects are executed in the 
most cost- and time-efficient manner, and that the viability of 
deterrence missions are not jeopardized by cost overruns and delays. If 
confirmed, how do you plan to address the modernization and acquisition 
needs of our strategic deterrence while guaranteeing their budgetary 
viability?
    Dr. Carter. A safe, secure, and reliable nuclear deterrent is 
essential to national security, and, if confirmed, ensuring the 
viability of plans for its future needs will be a priority for me.
                             cybersecurity
    77. Senator Lee. Dr. Carter, many of us are concerned about the 
improved abilities of both state and non-state actors to conduct cyber-
attacks against government and non-government entities alike. What, in 
your opinion, is necessary for DOD to deter and defend against these 
attacks, and how should the United States calibrate responses to cyber 
attacks?
    Dr. Carter. Defending against cyber-attacks requires a whole of 
government effort. DOD employs an array of techniques and capabilities 
to defend its own networks while providing support to other departments 
and agencies as appropriate. Greater resiliency for DOD networks and 
systems and more robust information sharing will be crucial to 
defending against these attacks.
    The U.S. should calibrate responses to cyber-attacks by 
establishing all the facts and conducting case-specific analysis, 
determining an appropriate proportional response, and should consider 
the broader strategic context, security, and foreign policy 
considerations of any attack and response.

    78. Senator Lee. Dr. Carter, when would you consider a cyber attack 
to be an act of war?
    Dr. Carter. Cyber-attacks can affect our critical infrastructure, 
the national economy, and military operations. I believe that what is 
termed an act of war should follow the same practice as in other areas, 
because it is the seriousness, not the means, of an attack that matters 
most. Whether a particular attack is considered an ``act of war,'' in 
or out of cyberspace, requires a determination on a case-by-case and 
fact-specific basis. Malicious cyber activities could result in death, 
injury or significant destruction, and any such activities would be 
regarded with the utmost concern and could well be considered ``acts of 
war.'' An attack does not need to be deemed an ``act of war'' to 
require a response.
                    islamic state of iraq and syria
    79. Senator Lee. Dr. Carter, do you believe that President Bashar 
Assad has to be removed, either peacefully or by force, from power in 
order to protect the United States from the threats emanating from this 
conflict?
    Dr. Carter. Assad has lost all legitimacy and cannot be part of the 
future of Syria. A stable Syria will require both defeating ISIL and a 
political transition in which Assad is removed from power.

    80. Senator Lee. Dr. Carter, one of the enduring images that many 
Americans have seen from the conflict in Iraq and Syria are of ISIS 
fighters parading through urban streets or in desert convoys in United 
States-made armored vehicles captured from surrendering Iraq Security 
Force units. Recently, the United States has sent hundreds of Mine-
Resistant Ambush Protected (MRAP) vehicles to Iraqi and Kurdish forces, 
and the Iraqi Government has requested armored vehicles and equipment, 
such Abrams tanks and High Mobility Multipurpose Wheeled Vehicle 
(HMMWV). If confirmed, what will you recommend the United States do to 
ensure that such lethal equipment does not end up in the hands of ISIS 
fighters, and that the United States is not inadvertently arming ISIS 
in Iraq?
    Dr. Carter. If confirmed, I will continue to support the efforts of 
the Department of Defense to train, advise, and assist the Iraqis to 
reconstitute a credible and combat capable security force. Cohesive, 
well-trained, well-led and properly supported forces reduces the risk 
that those forces will surrender or abandon the equipment the U.S. has 
given them. I will also ensure that DOD uses all appropriate end use 
monitoring tools and practices.

    81. Senator Lee. Dr. Carter, what role should DOD play in 
disrupting the flow of foreign fighters flowing into and out of the 
conflict in Syria and Iraq?
    Dr. Carter. United States military action, in concert with 
coalition partners, can have an impact on ISIS's capabilities and 
reduce its ability to flow fighters in and out of Syria. I believe it 
is important that the United States continue its close collaboration 
with other governments to stop the flow of foreign fighters into the 
region. If confirmed, I will focus attention on the foreign fighter 
flow, and their support networks, and assess what changes may be 
needed.

    82. Senator Lee. Dr. Carter, do you believe that the U.S. military 
action against ISIS can be successful at defeating the threats to our 
country if the United States and international community are not able 
to significantly stop the flow of fighters, funds, and weapons into 
this conflict?
    Dr. Carter. No.
                   north atlantic treaty organization
    83. Senator Lee. Dr. Carter, at the NATO summit in Wales last 
September, NATO members agreed to reverse trends in declining defense 
spending and maintain a defense budget of 2 percent GDP, a spending 
level that, as you know, has been a NATO goal for over a decade but few 
countries have achieved. Do you believe that it is in the interests of 
the United States as a deterrent to Russian aggression for our NATO 
allies to reverse declines in defense spending and work towards meeting 
these goals?
    Dr. Carter. Yes.

    84. Senator Lee. Dr. Carter, if confirmed, what will you do to 
assist and encourage NATO members to prioritize defense spending in 
their own countries to meet the Russian threat?
    Dr. Carter. If confirmed, I will emphasize the importance of strong 
U.S. leadership within the NATO, including for collective defense 
planning. I will urge Allies with larger economies to invest in 
military capabilities that that can impose costs on any opponent with 
minimal cost and risk to Alliance forces. For Allies with smaller 
economies, I will encourage them to invest in capabilities that are 
needed by the Alliance, and in which they may have a comparative 
advantage.
                              afghanistan
    85. Senator Lee. Dr. Carter, what is your assessment of the quality 
and capabilities of the Afghan National Security Forces (ANSF), and the 
relationship between the political leadership and the military 
leadership in Afghanistan?
    Dr. Carter. If confirmed, I will assess these issues first hand, 
but my assessment based on public information has been that President 
Ghani has a positive relationship with both military leaders and the 
Afghan forces, and that the ANSF have steadily improved. It appears 
that the ANSF are increasingly effective at leading operations and 
prevailing over insurgents with limited assistance from U.S. and 
coalition partners.
    I understand the relationship between the ANSF and Afghan political 
leadership has significantly improved since President Ghani took 
office. I believe President Ghani has embraced his role as commander-
in-chief, and has demonstrated his commitment to focus on improving 
ANSF effectiveness and security for the people of Afghanistan.

    86. Senator Lee. Dr. Carter, if the ANSF fails to provide security 
for the country as expected during the U.S. drawdown, what threats to 
the United States do you believe could develop in Afghanistan?
    Dr. Carter. The objective of strengthening the ANSF's ability to 
provide security is to protect the Afghan people and to ensure that 
Afghanistan is never again a base for attacks upon the United States. 
If confirmed, I will be committed to countering the al-Qaeda threat in 
the region and addressing any other terrorist elements in Afghanistan 
that pose a threat to our nation.
                                 yemen
    87. Senator Lee. Dr. Carter, the Yemeni Government has collapsed 
and a strong possibility exists of full-scale civil war there as al 
Qaeda in the Arab Peninsula (AQAP), Shiite rebels backed by Iran, and 
the remnants of the government all fight for control of territory and 
authority. What do you identify as the greatest threat to the United 
States stemming from the conflict in Yemen?
    Dr. Carter. AQAP in the Arabian Peninsula poses the greatest threat 
to United States interests from the conflict in Yemen. Therefore, the 
primary United States national security interest in Yemen is to 
disrupt, dismantle, and defeat AQAP. Continued political instability in 
Yemen also risks our joint efforts with the Yemenis to combat AQAP.

    88. Senator Lee. Dr. Carter, do you believe that there are any 
necessary changes to the administration's current strategy to protect 
the United States from threats growing there?
    Dr. Carter. If confirmed, I will assess the current strategy and 
make any recommendations I believe are needed. I do not have any 
recommendations at this time based on the information currently 
available to me. I understand that United States counterterrorism 
strategy in Yemen focuses on a mix of partnership activities and 
limited direct action against those who threaten the United States. The 
United States Government, in partnership with its partners and the 
Yemeni government, have made a number of gains against AQAP, including 
the removal of numerous leaders and the disruption of plotting against 
the United Sates. AQAP remains resilient and the political instability 
that has long plagued Yemen--particularly in recent weeks--hinders 
Yemen's ability to respond to the threat posed by AQAP. If confirmed, I 
intend to receive a detailed briefing to inform any changes I would 
recommend.
                           western hemisphere
    89. Senator Lee. Dr. Carter, what threats to United States national 
security do you see developing out of Latin and South America and do 
you believe any changes need to be made in U.S. policy towards that 
region to address these threats?
    Dr. Carter. I believe that threats developing out of Latin and 
South America include weak governmental institutions, corruption, 
under-governed spaces, transnational crime, narcotics, and natural 
disasters. These threats could increase instability in the region and 
threaten U.S. interests. To address these threats, I understand the 
Department of Defense, in support of the broader U.S. interagency 
effort, is focused on defending the southern approaches to the United 
States, strengthening hemispheric security, and encouraging further 
defense integration and collaboration on regional and global security 
affairs. If confirmed, I will assess these efforts and, if necessary, 
recommend changes to our strategy.

    90. Senator Lee. Dr. Carter, do you believe that United States 
national security would benefit from increased ISR assets in the United 
States Southern Command (SOUTHCOM) area of operation?
    Dr. Carter. ISR continues to be in high demand in each Combatant 
Commander's Area of Responsibility, including in United States Southern 
Command. If confirmed, I will evaluate requests for ISR in the context 
of needs across all the Combatant Commands.
                                 taiwan
    91. Senator Lee. Dr. Carter, as you know, the United States for 
decades has benefited from a strong security and economic relationship 
with Taiwan. If confirmed, what would you do to carry on and enhance 
the execution of U.S. policies that assist in maintaining Taiwan's 
self-defense capabilities?
    Dr. Carter. I am firmly committed to maintaining Taiwan's self-
defense capability. The Taiwan Relations Act states that ``the United 
States will make available to Taiwan such defense articles and defense 
services in such quantity as may be necessary to enable Taiwan to 
maintain a sufficient self-defense capability'' and will ``maintain the 
capacity of the United States to resist any resort to force or other 
forms of coercion that would jeopardize the security, or the social or 
economic system, of the people on Taiwan.'' If confirmed, I will ensure 
that the Department of Defense is continually engaged in evaluating, 
assessing, and reviewing Taiwan's defense needs, while also providing 
defense articles and services necessary to enable Taiwan to deter 
threats. I will also ensure that the United States maintains the 
planning and posture to resist any coercion against Taiwan. If 
confirmed, I will also ensure that the Department will continue to work 
closely with our partners on Taiwan to bolster their military 
preparedness, sustain the credibility of their deterrent, and support 
their military modernization effort.
                               __________
             Questions Submitted by Senator Lindsey Graham
  military compensation and retirement modernization commission report
    92. Senator Graham. Dr. Carter, do you have any concern that the 
removal of all attack aviation from the Army National Guard through the 
Army's Aviation Restructuring Initiative will reduce the Army's 
operational combat depth?
    Dr. Carter. The Army National Guard has been and will continue to 
be a crucial component of the total aviation force and the total army. 
If confirmed, I will review the Aviation Restructuring Initiative and 
work with the Department of the Army and the Chief of the National 
Guard bureau to understand and assess its impact on capabilities both 
in the active and reserve component. I also look forward to reviewing 
the recommendations of the Army Commission established by the Congress 
with your sponsorship.

    93. Senator Graham. Dr. Carter, given the overwhelming success of 
the operational Reserve model in Iraq and Afghanistan according to 
commanders in the field, how do you intend to maintain combat, combat 
support, and combat service support operational experience in the 
Reserve components during a time of lower operational demand?
    Dr. Carter. The use of the Reserves during the wars in Iraq and 
Afghanistan was a major factor in the Department's success. The CJCS 
and Service Chiefs have highlighted leader development as a key to 
sustaining the lessons learned from the last 13 years of war. Our 
Defense and Service institutions must ensure that we capture lessons 
learned and continue to grow leaders armed with that knowledge and 
shared experience. Another key element to maintaining operational 
experience is to retain the key officers and enlisted personnel with 
combat experience as well as ensure sufficient funding and readiness 
for the Reserve Component to meet operational requirements.
                               __________
                Questions Submitted by Senator Jack Reed
          military lending act protections for servicemembers
    94. Senator Reed. Dr. Carter, last November, 40 Senators wrote to 
Secretary Hagel in strong support of the proposed Military Lending Act 
(MLA) rule. If and when confirmed, will you work to ensure that the 
Department of Defense produces a final MLA rule that, like the proposed 
one, robustly enhances protections for servicemembers and their 
families and imporves military readiness?
    Dr. Carter. Yes, if confirmed, I will ensure the final Military 
Lending Act rule supports robust protections for servicemembers and 
their families.
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                          integration of women
    95. Senator Shaheen. Dr. Carter, in 2013, DOD announced the 
elimination of the direct combat exclusion policy and plans to more 
fully integrate women into all occupational fields by 2016. Do you 
commit to work with the Services to keep this effort moving forward and 
keep Congress apprised of DOD's process?
    Dr. Carter. Yes. If confirmed, I will closely monitor the 
Department's progress to ensure we meet our timelines and I will keep 
Congress apprised of our progress.

    96. Senator Shaheen. Dr. Carter, I understand that the Services and 
U.S. Special Operations Command (SOCOM) are studying whether to open 
all previously closed units and military operations to women and will 
have to submit specific requests if they wish to keep units or 
operations closed. What criteria will you and DOD use when evaluating 
any such requests to ensure consistency across DOD?
    Dr. Carter. In accordance with the 2013 Direct Ground Combat 
Definition and Assignment Rule rescission memo, all requests for 
exceptions to policy must be narrowly tailored and based on a rigorous 
analysis of factual data regarding the knowledge, skills, and abilities 
needed for the position. If confirmed, and if I receive requests for 
exception to policy, I will carefully consider them in this light.
                                biofuels
    97. Senator Shaheen. Dr. Carter, last September, the Departments of 
Navy, Energy, and Agriculture awarded contracts to three companies to 
construct and commission bio-refineries to produce drop-in biofuels to 
help meet transportation needs. Can you speak to the strategic 
importance of the military transiting away from a strict dependence on 
petroleum to biofuels?
    Dr. Carter. Over the long-term, I believe the Nation will benefit 
from a competitive, domestic renewable fuels industry, and, as a major 
consumer of liquid fuels, the Department would benefit from such 
competition. Similarly, the certification and qualification of 
alternative fuels for our equipment mean the Department will be better 
positioned to acquire and use a variety of fuels, as needed, to 
accomplish the mission.
                        defense industrial base
    98. Senator Shaheen. Dr. Carter, when you served as Deputy 
Secretary of Defense, you said that ``(s)maller firms, start-ups, and 
new entrants provide needed new technology, new face, and new ideas to 
the defense industry,'' and that ``a key part of our defense industrial 
strategy is to encourage new entrants (that) offer competition, renew 
and refresh the technology base, and ensure that defense is benefiting 
from the main currents of emerging technology.'' You added ``we must 
accordingly work constantly to lower barriers to entry.'' What do you 
have planned to ensure a culture of embracing small start-ups and new 
entrants?
    Dr. Carter. If confirmed, I would support policies that remove 
barriers to commercial technology utilization. I would also ensure that 
the Department has aggressive outreach to the small business community 
and other innovative firms. If confirmed I would direct the Under 
Secretary of Defense for Acquisition, Technology, and Logistics to 
develop and implement policies that achieved these goals.
                  berry amendment and buy american act
    99. Senator Shaheen. Dr. Carter, last November the DOD Inspector 
General (IG) filed a report on the Army's compliance with the Berry 
Amendment and Buy American Act. The IG recommended that the Services 
perform training for their contracting officers on the details of these 
purchasing requirements. What can DOD do to ensure that both 
contracting officers and the industry have a mutual understanding and 
appreciation for these extremely important laws?
    Dr. Carter. Although I am not familiar with the IG report, I know 
the Department has a number of learning tools available to assist the 
acquisition workforce in understanding all statutory requirements. If 
confirmed, I would direct the Under Secretary for Acquisition, 
Technology, and Logistics to report to me on the steps that have been 
taken and on any recommended improvements to enhance the training for 
government contracting officers to enhance their understanding and 
trust of their industry partners.

    100. Senator Shaheen. Dr. Carter, what steps have been taken thus 
far to address the concerns raised in the IG report?
    Dr. Carter. I am not familiar with the IG report or the steps that 
have been taken to address the concerns raised in the report. If 
confirmed I will ascertain what steps have been taken and respond 
appropriately.
                   small business innovation research
    101. Senator Shaheen. Dr. Carter, I know you have been a strong 
supporter of small business and the Small Business Innovation Research 
(SBIR) program. As you know, the SBIR Reauthorization Act that was 
signed into law 3 years ago requires DOD to use SBIR technology to the 
greatest extent practicable and requires the Secretary to establish 
goals and incentives for using SBIR technology. How will you ensure 
that these provisions are fully implemented?
    Dr. Carter. Before I left the Department as Deputy Secretary of 
Defense, I approved the interim version of DOD Instruction 5000.02 
``Operation of the Defense Acquisition System,'' that included SBIR 
goals and incentive provisions. I understand that those provisions are 
also included in the recently approved final version of this 
Instruction. If confirmed, I will direct the Under Secretary of Defense 
(Acquisition, Technology, and Logistics) to oversee the implementation 
of this important initiative, and to ensure I am kept apprised.
                               __________
          Questions Submitted by Senator Kirsten E. Gillibrand
  military compensation and retirement modernization commission report
    102. Senator Gillibrand. Dr. Carter, I have been concerned by what 
appears to be a haphazard approach from DOD to reforming pay and 
benefits. Last week, the Military Compensation and Retirement 
Modernization Commission released its report with a series of 
recommendations. At the same time DOD sent us back the same proposals 
it sent us last year, but with some changes. I was concerned last year 
about how DOD's recommendations would impact lower enlisted troops and 
their families. How do you see these two sets of recommendations and 
how do you ensure we continue to support lower enlisted troops and 
their families?
    Dr. Carter. I appreciate the difficult task that was presented to 
the Commission. If confirmed, I intend to carefully review and evaluate 
the Commission's recommendations on reforming military compensation and 
retirement and will ensure I meet the deadlines established in the law 
for my input to the President. I was not privy to the details of the FY 
2016 budget prior to my confirmation hearing. If confirmed, I will be 
prepared to comment on the FY 2016 budget proposals at the posture 
hearing the Committee is planning in early March.
                                 cyber
    103. Senator Gillibrand. Dr. Carter, I want to be helpful to DOD in 
recruiting the best talent and acquiring the best tools for our cyber 
mission. What do you think are our two most important cyber needs for 
the next 5 years?
    Dr. Carter. The most important aspect of the Department's strategy 
for countering these threats is manning, training, and equipping a 
cyber-force that can fulfill its missions. If confirmed, I look forward 
to working closely with the Committee on this issue. A top priority is 
recruiting and retaining the most highly skilled professionals, which 
is challenging because cyber is a highly technical domain. In addition, 
DOD must work in closer partnership with the Intelligence Community, 
the Department of Homeland Security, and other government agencies to 
identify cyber threats, deter attacks, and improve defenses for our 
networks.

    104. Senator Gillibrand. Dr. Carter, how will you incorporate cyber 
forces, especially in the National Guard, into our Homeland defense 
strategy?
    Dr. Carter. DOD is in its third year of building a Cyber Mission 
Force of approximately 6,000 personnel. I believe that the National 
Guard and Reserve are a tremendous resource of talent and of surge 
capacity for DOD, and these skilled personnel can contribute greatly to 
the cyber mission. It will be critical to recruit the right talent, and 
we must take a strategic approach to leveraging our National Guard and 
Reserve forces as part of our overall structure. DOD is already using 
some Guard and Reserve personnel in the cyber mission area, and they 
have proven to be of tremendous value enhanced by their civilian 
skills. The Guard and Reserve should be part of the Cyber Mission Force 
and also create additional Cyber Protection Teams to augment Service 
capacity. This expertise and support should be made available to the 
States in traditional missions like responding to natural disasters as 
well as less traditional missions in cyberspace. If confirmed, I look 
forward to working with the Joint Staff, the Combatant Commands, the 
Services, and the States through the Council of Governors to ensure the 
National Guard and reserve forces cyber capabilities are sufficiently 
augmented and incorporated into the Department's force planning 
construct.

    105. Senator Gillibrand. Dr. Carter, please provide your thoughts 
on the relationship between the Department of Homeland Security (DHS) 
and DOD in terms of global cyber-security roles and responsibilities.
    Dr. Carter. The Department of Defense has the responsibility to 
defend the Nation from attack in cyberspace. This cyber mission 
necessitates a close partnership with the Department of Homeland 
Security (DHS) in its role of protecting U.S. critical infrastructure, 
securing non-Department of Defense unclassified government networks, 
and coordinating the national protection from, prevention of, 
mitigation of, and recovery from cyber incidents. The Department of 
Justice, with the FBI, is also a critical member of this operational 
partnership and all three Departments work closely together in an 
effective operational cybersecurity partnership.
    Cybersecurity requires a whole-of-government approach, and DOD 
synchronizes its international engagement with its interagency 
partners. DOD joins DHS and other Departments and agencies in whole-of-
government dialogues around the globe, and DOD and DHS work closely 
together to build robust international relationships that reflect and 
promote our core commitments and common interests in cyberspace.
                               __________
              Questions Submitted by Senator Joe Donnelly
                       nuclear enterprise review
    106. Senator Donnelly. Dr. Carter, following up on my questions in 
the hearing, if confirmed, will you commit to reading the Creedon-Fanta 
Nuclear Enterprise Review report and getting back to the committee with 
your views and whether you agree with its findings?
    Dr. Carter. Yes.
                             national guard
    107. Senator Donnelly. Dr. Carter, if confirmed, will you work to 
maintain the National Guard as an operational Reserve?
    Dr. Carter. The National Guard and Reserve are a critical source of 
many of the capabilities required in ongoing operations and contingency 
surge requirements both abroad and at home. As an operational Reserve, 
the Reserve components need to make certain capabilities available on a 
continuing basis and others to augment and reinforce active components 
when mobilized over time. If confirmed, I will work to ensure that the 
Guard and Reserve components are supported so that they are ready to 
operate in peacetime, in wartime and in support of civil authorities.
                      defense manpower data center
    108. Senator Donnelly. Dr. Carter, what is your approach to the 
administration of the Defense Manpower Data Center (DMDC), specifically 
regarding adequate staffing, funding and data security, in order to 
maintain and increase the accuracy, reliability, and integrity of the 
DMDC database?
    Dr. Carter. The Defense Manpower Data Center (DMDC) systems and 
information are critical to ensuring eligibility and providing benefits 
to all DOD personnel, and also provide the vital interface to operate 
numerous other DOD-wide systems, including physical security, 
healthcare, and personnel security programs. The Department has an 
obligation to provide these capabilities, to ensure the data security, 
and to protect the privacy of these information systems. If confirmed, 
I will work closely with Congress to ensure that DMDC has the necessary 
resources to execute its mission.

    109. Senator Donnelly. Dr. Carter, if confirmed, will you commit to 
providing me and the committee with information on DOD's plans to 
address the capabilities of the DMDC, particularly its capability to 
assist in the effort to ensure that servicemembers eligible for 
Servicemember Civil Relief Act benefits and protections can be 
proactively identified in a timely and accurate manner?
    Dr. Carter. Yes.
                               __________
             Questions Submitted by Senator Mazie K. Hirono
                            missile defense
    110. Senator Hirono. Dr. Carter, I understand that DOD is 
systematically implementing upgrades to the Ground-Based Midcourse 
Defense system, including sensor and discrimination improvements. 
Within this area of improvement is the planned Long Range 
Discrimination Radar (LRDR) to improve defense of the United States 
against a long-range North Korean missile threat. While DOD is 
improving our overall Homeland missile defense capability, I want to 
ensure that Hawaii is well protected - especially as North Korea 
continues to evolve its capabilities. If confirmed, will you commit to 
looking into our capability to defend Hawaii against such a North 
Korean threat, and keeping me informed of the progress in this 
important area?
    Dr. Carter. Yes.
                   retention of women in the military
    111. Senator Hirono. Dr. Carter, women are a great asset both to 
the diversity of our military and to its success. This past October the 
military appointed its third female four-star officer. While that is a 
fact to be celebrated, women leave the service at a rate nearly twice 
that of men. As we have seen with other types of diversity within the 
military, retention of women for senior leadership positions has a 
significant influence on the success through mentoring of junior female 
military members. If confirmed what measures will you consider for 
increasing retention of women in the military and achieving the 
diversity needed to mentor future female leaders?
    Dr. Carter. I believe that the Department of Defense must compete 
for the best and brightest talent our Nation has to offer as it expands 
opportunities for all qualified individuals at all levels through our 
most senior general and flag officers. If confirmed, I will continue to 
emphasize the need for retaining a high quality and diverse force in an 
environment free from personal, social, or institutional barriers that 
prevent servicemembers from rising to the highest level of 
responsibility possible.
                    mental health care for veterans
    112. Senator Hirono. Dr. Carter, a memorandum published by the 
Secretary of Defense on September 3, 2014, implemented new policy 
guidance to be used in the respective Services' review of post-
traumatic stress disorder (PTSD)-related discharge upgrade requests. 
The memorandum also called for ``a public messaging campaign by the 
Services'' in order to ensure outreach and notification. Should you be 
confirmed, are you committed to continuing this policy and outreach 
directive so that Vietnam veterans diagnosed with PTSD who received 
less-than-honorable discharges be allowed liberal consideration for a 
discharge upgrade?
    Dr. Carter. If confirmed, I will continue to work with all parties 
concerned to ensure that veterans of all periods of service receive a 
fair hearing and obtain appropriate relief. We will also continue to 
work with Veterans and Military Support Organizations and legal service 
providers to ensure veterans receive assistance in the review process.
                               __________
           Questions Submitted by Senator Angus S. King, Jr.
                   athletic footwear for new recruits
    113. Senator King. Dr. Carter, on April 25, 2014, Acting Deputy 
Secretary of Defense Christine Fox confirmed in a letter that DOD's 
athletic footwear policy for recruits would be modified to include the 
following provision:
    ``As Berry Amendment-compliant shoes come on the market, we will 
assess them for cost and durability to ensure they are comparable to 
other models available to recruits. If one or more Berry Amendment-
compliant shoe models correspond to a shoe type category, only these 
shoes will be made available for purchase using the one-time cash 
allowance.''
    Do you commit that, if confirmed, DOD's athletic footwear policy 
for new recruits will remain consistent with the provisions of Acting 
Deputy Secretary Fox's April 25, 2014, letter?
    Dr. Carter. Yes.
                               __________
             Questions Submitted by Senator Martin Heinrich
                national nuclear security administration
    114. Senator Heinrich. Dr. Carter, the Congressional Advisory Panel 
on the Governance of the Nuclear Security Enterprise released its final 
report in November 2014. After considering a number of alternative 
leadership structures, the panel concluded the current structure with a 
``separately-organized'' National Nuclear Security Administration 
(NNSA) is fundamentally flawed. The panel recommended amending the NNSA 
Act to replace the separately-organized NNSA with a new Office of 
Nuclear Security (ONS) within the Department of Energy (DOE) charged 
with performing the missions currently performed by NNSA. The panel's 
objective was to enable an Energy Secretary who sets the policy and a 
Director of ONS who is fully empowered to implement the policy.
    Based on your many years of experience with the nuclear weapons 
complex, what thoughts do you have on improving the existing governance 
structure of DOE's Nuclear Security Enterprise?
    Dr. Carter. I believe DOD can work effectively with the Department 
of Energy and the National Nuclear Security Administration (DOE/NNSA) 
under the current structure or an alternative arrangement as long as 
DOE/NNSA continues to execute its primary mission of warhead and 
infrastructure life extension programs that meets DOD military 
requirements. If confirmed, I will direct the consistent engagement 
with senior leadership through the interagency process of the Nuclear 
Weapons Council, which is charged to manage the nuclear weapons 
stockpile and maintain a safe, secure, and effective nuclear deterrent.
                             islamic state
    115. Senator Heinrich. Dr. Carter, 2 weeks ago, former national 
security advisor Zbigniew Brzezinski testified before the Senate Armed 
Services Committee about the Islamic State and the three civil wars 
that were essentially raging in the Arab world today. Brzezinski 
explained: ``I think getting involved in the internal dynamics, 
religious conflicts, sectarian animosities of the region is a 
prescription for a protracted engagement of the kind that can be very 
destructive to our national interests.''
    How important is it that the fighting on the front lines against 
the Islamic State be conducted by the Iraqis and other regional, Arab 
members of the coalition and not the United States?
    Dr. Carter. To inflict a lasting defeat on ISIL, it is very 
important that regional coalition partners, including Iraq, be fighting 
on the front lines. Building the capacity of these local security 
forces must be a central part of the U.S. strategy. The Iraqi Security 
Forces, including Kurdish Peshmerga and Sunni tribal elements, are on 
the front line force in the current fight. If confirmed, I will support 
the effort to train, equip, advise, and assist local forces to enhance 
their ability to defeat ISIL.
                             national labs
    116. Senator Heinrich. Dr. Carter, beyond current and future life 
extension programs (LEP), do you believe a sustained funding commitment 
is necessary at our national laboratories to preserve the intellectual 
infrastructure and sustain the scientific base of the weapons program? 
If so, how do you propose formalizing this commitment?
    Dr. Carter. The Department of Energy National Laboratories are 
important to the Department of Defense's technology base and laboratory 
enterprise, particularly with respect to the science and engineering 
that underpins the Nation's nuclear weapons program. If confirmed, I 
will work with the Secretary of Energy and the President to ensure that 
the unique capabilities of the national laboratories are maintained and 
available to DOD in support of national defense missions.
                                 ______
                                 
    [The nomination reference of the Honorable Ashton B. Carter 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                   January 7, 2015.
    Ordered, That the following nomination be referred to the 
Committee on Armed Services:
    Ashton B. Carter, of Massachusetts, to be Secretary of 
Defense, vice Charles Timothy Hagel.
                                ------                                

    [The biographical sketch of the Honorable Ashton B. Carter, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
                Biographical Sketch of Ashton B. Carter
Education:
    <bullet>  Oxford University
      <bullet>  1976-1979
      <bullet>  Ph.D., Theoretical Physics
      <bullet>  Senior Scholar, St. John's College
      <bullet>  Best Participant Prize, NATO Center for Subnuclear 
Physics

    <bullet>  University of Edinburgh
      <bullet>  Fall, 1974, no degree

    <bullet>  Yale University
      <bullet>  1972-1976
      <bullet>  B.A., summa cum laude
      <bullet>  Honors in Medieval History
      <bullet>  Honors in Physics
      <bullet>  Phi Beta Kappa
      <bullet>  Andrew D. White Essay Prize in European History
Employment Record:
    <bullet>  Senior Executive, Markle Foundation (2014-present)

    <bullet>  Stanford University (2014-present)
      <bullet>  Distinguished Visiting Fellow, Hoover Institution
      <bullet>  Lecturer, Freeman Spogli Institute for International 
Studies

    <bullet>  U.S. Department of Defense
      <bullet>  Deputy Secretary of Defense (2011-2013)
      <bullet>  Under Secretary of Defense for Acquisition, Technology, 
and Logistics (2009-2011)

    <bullet>  Harvard University
      <bullet>  Chair, International and Global Affairs Faculty
      <bullet>  John F. Kennedy School of Government
      <bullet>  2006-2009 (leave of absence 2009-2011)

    <bullet>  Harvard University
      <bullet>  Ford Foundation Professor of Science and International 
Affairs
      <bullet>  John F. Kennedy School of Government
      <bullet>  1996-2009

    <bullet>  Preventive Defense Project, Harvard and Stanford 
Universities
      <bullet>  Co-Director (with William J. Perry)
      <bullet>  1997-2009

    <bullet>  U.S. Department of State
      <bullet>  Senior Advisor to the North Korea Policy Review
      <bullet>  1998-2000

    <bullet>  U.S. Department of Defense
      <bullet>  Assistant Secretary of Defense for International 
Security Policy
      <bullet>  1993-1996

    <bullet>  Harvard University
      <bullet>  Director, Center for Science and International Affairs
      <bullet>  1990-1993

    <bullet>  Harvard University
      <bullet>  Professor, and Associate Director, Center for Science 
and International Affairs
      <bullet>  1988-1990

    <bullet>  Harvard University
      <bullet>  Associate Professor
      <bullet>  1986-1990

    <bullet>  Harvard University
      <bullet>  Assistant Professor
      <bullet>  1984-1986

    <bullet>  Massachusetts Institute of Technology
      <bullet>  Research Fellow, Center for International Studies
      <bullet>  1982-1984

    <bullet>  U.S. Department of Defense
      <bullet>  Program Analysis and Evaluation
      <bullet>  1981-1982

    <bullet>  Office of Technology Assessment, U.S. Congress
      <bullet>  International Security and Commerce Program
      <bullet>  1980-1981

    <bullet>  Rockefeller University, New York
      <bullet>  Research Associate
      <bullet>  1979-1980

    <bullet>  Oxford University
      <bullet>  Physics Instructor (``Tutor'' in the Oxford system)
      <bullet>  Quantum Mechanics and Relativity
      <bullet>  1977-1979

    <bullet>  Brookhaven National Laboratory
      <bullet>  Experimental Research Associate
      <bullet>  1976

    <bullet>  Fermi National Accelerator Laboratory
      <bullet>  Experimental Research Associate
      <bullet>  1975
Honors and Awards:
    <bullet>  Henry L. Stimson Pragmatist and Idealist Award, Stimson 
Center, 2014.
    <bullet>  W. Stuart Symington Award, Air Force Association, 2014.
    <bullet>  Distinguished Public Service Medal, Department of Defense 
(awarded five times), 1994, 1995, 2010, 2012, and 2013.
    <bullet>  Joint Distinguished Service Medal, from the Chairman and 
the Joint Chiefs of Staff, 2013.
    <bullet>  Nunn-Lugar Award, Nuclear Threat Institute, 2011.
    <bullet>  Defense Intelligence Medal, from the Defense Intelligence 
Agency, 1998.
    <bullet>  Forum Award, American Physical Society, 1988.
    <bullet>  Ten Outstanding Young Americans, United States Jaycees, 
1987.
    <bullet>  Senior Scholar, St. John's College, 1978-1979.
    <bullet>  Best participant prize, NATO Center for Subnuclear 
Physics, 1978.
    <bullet>  Rhodes Scholar, 1976.
    <bullet>  See above under ``Education.''
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by the Honorable 
Ashton B. Carter in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    part a--biographical information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Ashton Baldwin Carter (Ash Carter).

    2. Position to which nominated:
    Secretary of Defense.

    3. Date of nomination:
    January 7, 2015.

    4. Address: (List current place of residence and office addresses.)
    [The nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 24, 1954, Philadelphia, PA.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Married. Wife: Stepanie DeLeeuw Carter.

    7. Names and ages of children:
    [The nominee responded and the information is contained in the 
committee's executive files.]
    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    Abington High School, Abington, PA, 1968-1972, High School Diploma 
1972.

    Yale University, New Haven, CT, 1972-1976, B.A. 1976.

    University of Edinburgh, Edinburgh, Scotland, Fall, 1974, no 
degree.

    Oxford University, Oxford, United Kingdom, 1976-1979, D. Phil., 
1979.
    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Self-employed, Ashton Carter LLC--Sole proprietorship, Washington, 
DC, 2014-Present.

    Deputy Secretary of Defense, 2011-2013; U.S. Department of 
Defense--Washington, DC.

    Under Secretary of Defense for Acquisition, Technology & Logistics, 
2009-2011; U.S. Department of Defense--Washington, DC.

    Chair, International & Global Affairs faculty, 2006-2009 (on leave 
of absence 2009-2011); John F. Kennedy School of Government, Harvard 
University--Cambridge, MA.

    Ford Foundation Professor of Science and International Affairs, 
1996-2009; John F. Kennedy School of Government, Harvard University--
Cambridge, MA.

    Co-Director (with William J. Perry), Preventive Defense Project, 
1997-2009; Harvard & Stanford Universities--Cambridge, MA.
    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member, National Council on Federal Labor-Management Relations 
(2012-2013).

    Member, President's Management Council (2011-2013).

    Member, White House Government Accountability and Transparency 
Board (2011-2013).

    Chair, National Security Strategy and Policies Expert Working 
Group, Congressional Commission on the Strategic Posture of the United 
States, 2008-2009.

    Member, Department of Defense Agency Review team, Obama-Biden 
Transition, 2008-2009.

    Co-Chair, Review Panel on Future Directions for DTRA (Defense 
Threat Reduction Agency) Missions and Capabilities To Combat Weapons of 
Mass Destruction, 2007-2008.

    Member, International Security Advisory Board to the Secretary of 
State, 2006-2008.

    Member of National Security Advisory Group to Senator Tom Daschle, 
then Senator Reid, chaired by William J. Perry, 2005-2008.

    Co-Chair, with Ronald Lehman, of Policy Advisory Group to Senator 
Richard Lugar, 2005-2008.

    Member National Academy of Sciences Committee on Science and 
Technology for Countering Terrorism, 2001-2003.

    Member, National Missile Defense White Team, 1998-2009.

    Member, Threat Reduction Advisory Committee, U.S. Department of 
Defense, 1998-2002.

    Member, Defense Science Board, 1991-93, 1997-2001.

    Member, Defense Policy Board, 1997-2001.

    Assistant Secretary of Defense for International Security Policy, 
U.S. Department of Defense, 1993-1996.

    Member, National Academy of Sciences, Committee on International 
Security and Arms Control, 1990-1993.

    Member, Sandia National Laboratory, President's Advisory Council, 
1992-93.

    Member, Congressional Office of Technology Assessment, Advisory 
Panel on START Verification Technologies, 1991-92.

    Member, National Academy of Sciences Panel on National Security 
Export Controls, 1990-91.

    Member, National Research Council Naval Studies Advisory Committee 
on the Future of the Aircraft Carrier, 1990-91.

    Member, White House, President's Council of Advisers on Science and 
Technology, Panel on National Security, 1990-91.

    Member, Defense Science Board Task Force on New Scenarios and 
Intelligence, 1990.

    Member, Congressional Office of Technology Assessment Advisory 
Panel on START Verification Technologies, 1989-90.

    Member, Joint Chiefs of Staff Advisory Group on the Future of U.S.-
Soviet Military Relations, 1988-89.

    Member, Commission on The Presidency and Science Advising, 1988.

    Consultant, Bureau of Intelligence and Research, U.S. Department of 
State, 1986-1988.

    Member, Advisory Panel on Military Uses of Space, Office of 
Technology Assessment, U.S. Congress, 1985-86.

    Analyst, Program Analysis and Evaluation, Office of the Secretary 
of Defense, Pentagon, 1981-1982.

    Analyst, International Security and Commerce Program, Office of 
Technology Assessment, U.S. Congress, 1980-1981.

    Experimental Research Associate, Brookhaven National Laboratory, 
1976.

    Experimental Research Associate, Fermi National Accelerator 
Laboratory, 1975.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    a.  Senior Executive, Markle Foundation, New York, New York, 2014-
Present.

    b.  Distinguished Visiting Fellow, Hoover Institution and Lecturer, 
Freeman Spogli Institute for International Studies, Stanford 
University, 2014-Present.

    c.  Advisor, Box Inc., 2014-Present.

    d.  Advisor, Palo Alto Networks, 2014-Present.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.

    a.  Aspen Strategy Group, 1997-2009 (now emeritus member).

    b.  Council on Foreign Relations, 1989-present.

    c.  Fellow, American Academy of Arts and Sciences, 1989-present.

    d.  American Physical Society, 1976-present.

    e.  American Association of Rhodes Scholars, 1977-present.

    13. Political affiliations and activities:
    a.  List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    c.  Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.

        (1)  Henry L Stimson Pragmatist and Idealist Award, Stimson 
Center, 2014.

        (2)  W. Stuart Symington Award, Air Force Association, 2014.

        (3)  Distinguished Public Service Medal, Department of Defense 
(awarded five times), 1994, 1995, 2010, 2012, and 2013).

        (4)  Joint Distinguished Service Medal from the Chairman and 
the Joint Chiefs of Staff, 2013.

        (5)  Nunn-Lugar Award, Nuclear Threat Institute, 2011.

        (6)  Defense Intelligence Medal, from the Defense Intelligence 
Agency, 1998.

        (7)  Forum Award, American Physical Society, 1988.

        (8)  Ten Outstanding Young Americans, United States Jaycees, 
1987.

        (9)  Senior Scholar, St. John's College, 1978-1979.

       (10)  Best Participant Prize, NATO Center for Subnuclear 
Physics, 1978.

       (11)  Rhodes Scholar, 1976.

       (12)  Summa cum laude, Phi Beta Kappa graduate, Yale University, 
with honors in medieval history and physics (B.A. 1976).

       (13)  Andrew D. White Essay Prize in European History, Yale 
University, 1976.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.

Publications. Books.

    Keeping the Edge: Managing Defense for the Future. Editor (with 
John P. White) and author of three chapters. Cambridge, MA: The MIT 
Press, 2001.
    [translated into Chinese, Military History and Translation Office, 
MND, ROC, 2002].

    Preventive Defense: A New Security Strategy for America. With 
William J. Perry.Washington, DC: The Brookings Institution, 1999.
    [translated into Russian by arrangement with Brookings Institution 
Press, 2003]
    [translated into Arabic by arrangement with Brookings Institution 
Press, February/March 2002]
    [translated into Chinese, CIP, 2000]
    [translated into Korean, Bestun Korea Agency, 2000]
    Cooperative Denuclearization: From Pledges to Deeds. Editor with 
Graham Allison, Steven E. Miller, and Philip Zelikow. Cambridge, MA: 
Center for Science and International Affairs, Harvard University, 1993.
    A New Concept of Cooperative Security. With John D. Steinbruner and 
William J. Perry. Washington, DC: The Brookings Institution, 1992.
    Beyond Spinoff: Military and Commercial Technologies in a Changing 
World. With John Alic, Lewis Branscomb, Harvey Brooks and Gerald 
Epstein. Boston, MA: Harvard Business School Press, 1992.
    Soviet Nuclear Fission: Control of the Nuclear Arsenal in a 
Disintegrating Soviet Union.With Kurt Campbell, Steven Miller and 
Charles Zraket. Cambridge, MA: Center for Science and International 
Affairs, Harvard University, November 1991.
    Ashton B. Carter on Arms Control. Kenneth W. Thompson, ed. Lanham, 
MD: University Press of America, January 1990.
    Managing Nuclear Operations. Editor (with John Steinbruner and 
Charles A. Zraket) and author of three chapters. Washington, DC: The 
Brookings Institution, 1987.
    Directed Energy Missile Defense in Space. Washington, DC: Office of 
Technology Assessment, U.S. Congress, 1984.
    Ballistic Missile Defense. Editor (with David N. Schwartz) and 
author of two chapters. Washington, DC: The Brookings Institution, 
1984.
    MX Missile Basing (with Classified Annex). Author of chapters on 
``Launch Under Attack''; ``Ballistic Missile Defense''; ``Air Mobile 
Basing''; ``Land Mobile Basing''; and (with Theodore Postol) ``Command, 
Control, and Communications''.Washington, DC: Office of Technology 
Assessment, U.S. Congress, 1981.
Articles
    ``Running the Pentagon Right: How to Get the Troops What They 
Need'' Foreign Affairs, (January/February 2014), pp. 101-112.
    ``Super Hercules in the Himalayas: How the United States is 
Strengthening Defense Ties with India.'' Foreign Policy, (20 November 
2013), online.
    ``Managing Defense Spending Through `Better Buying Power', Not 
Sequestration.'' Defense One, (13 November 2013), online.
    ``Running the Numbers on MRAPs, Reliable Data Proves the Vehicles 
are Worth the Money.'' With J. Michael Gilmore. Foreign Affairs, (9 
October 2012).
    ``The Pentagon is Serious About Saving Money.'' The Wall Street 
Journal, (21 September 2012).
    ``A Law to Strengthen our Cyberdefense.'' With Jane Holl Lute, The 
New York Times, (2 August 2012).
    ``Restoring Affordability.'' Defense News, (19 July 2010).
    ``The Way Forward on Missile Defense.'' With Michele Flournoy. The 
Wall Street Journal, (17 June 2010).
    ``Defense Management Challenges for the Next American President.'' 
Orbis, A Journal of World Affairs, (Winter 2009).
    ``Report of the Strategic Security Studies Issues Delegation to 
Taiwan and the People's Republic of China.'' With William Perry, Joseph 
Prueher, Robert Blackwill, Stephen Orlins, David Lampton, Kurt 
Campbell, Ashley Tellis, Evan Medeiros and Jan Berris. Harvard Belfer 
Preventative Defense Project, (July 2008).
    ``After the Bomb.'' With William J. Perry and Michael M. May. The 
New York Times, (12 June 2007), A-24.
    ``The Day After: Action in the 24 Hours Following a Nuclear Blast 
in an American City.'' With Michael M. May and William J. Perry. Report 
based on April 19, 2007 workshop hosted by the Preventive Defense 
Project, Harvard and Stanford Universities, (31 May 2007).
    ``China on the March.'' With William J. Perry. The National 
Interest, no. 88 (March-April 2007), 16-22. ``How Washington Learned to 
Stop Worrying and Love India's Bomb.'' Foreign Affairs 
(foreignaffairs.org), (10 January 2007).
    ``China's Rise in American Military Strategy.'' With William J. 
Perry. In China's March on the 21st Century: A Report of the Aspen 
Strategy Group, Kurt M. Campbell and Willow Darsie, eds. Washington, 
DC: The Aspen Institute, (2007), 107-117.
    ``Plan B for Iran: What if Nuclear Diplomacy Fails?'' With William 
J. Perry. Report based on May 22, 2006 workshop hosted by the 
Preventive Defense Project, Harvard and Stanford Universities, (10 
September 2006).
    ``The Case for a Preemptive Strike on North Korea's Missiles.'' 
With William J. Perry. TIME (time.com), (8 July 2006).
    ``America's New Strategic Partner?'' Foreign Affairs 85, no. 4 
(July-August 2006), 33-44.
    ``If Necessary, Strike and Destroy.'' With William J. Perry. The 
Washington Post, 22 (June 2006), A-29.
    ``Toolbox: Containing the Nuclear Red Zone Threat.'' With Stephen 
A. LaMontagne. The American Interest 1, no. 3 (Spring 2006), 28-40.
    ``A Fuel-Cycle Fix.'' With Stephen A. LaMontagne. The Bulletin of 
the Atomic Scientists (January-February 2006), 24-25.
    ``The U.S. Military: Under Strain and at Risk.'' With William J. 
Perry (chair), Madeleine K. Albright, Graham T. Allison, Samuel R. 
Berger, Gen. Wesley K. Clark, Thomas E. Donilon, Michele A. Flournoy, 
John D. Podesta, Susan E. Rice, Gen. John M. Shalikashvili, Wendy R. 
Sherman, Elizabeth D. Sherwood-Randall and James B. Steinberg 
(members). National Security Advisory Group, (January 2006).
    ``Origins of the Nunn-Lugar Program.'' Presentation to the 
Presidential Conference on William Jefferson Clinton, Hofstra 
University. (11 November 2005).
    ``Interim Report on Nuclear Threat Reduction and the Fuel Cycle.'' 
Memo to Senator Richard G. Lugar, Chairman, Senate Committee on Foreign 
Relations. With Ronald Lehman II (co-chair, with Ashton Carter), Robert 
Einhorn, Alan A. Foley, Arnold Kanter, David Kay, Susan Koch, Lawrence 
Scheinman, and William Schneider, Jr (members). Policy Advisory Group 
on Nonproliferation, (1 July 2005).
    ``Worst Weapons in Worst Hands: U.S. Inaction on the Nuclear Terror 
Threat since 9/11, and a Path of Action.'' With William J. Perry 
(chair), Madeleine K. Albright, Graham T. Allison, Samuel R. Berger, 
Gen. Wesley K. Clark, Thomas E. Donilon, Michele A. Flournoy, John D. 
Podesta, Susan E. Rice, Gen. John M. Shalikashvili, Wendy R. Sherman, 
Elizabeth D. Sherwood-Randall and James B. Steinberg (members). 
National Security Advisory Group, (July 2005).
    ``Worst People and Worst Weapons.'' Statement before The 9/11 
Public Discourse Project's Hearings on ``The 9/11 Commission Report: 
The Unfinished Agenda.'' (27 June 2005).
    ``A Failure of Policy, Not Spying.'' The Washington Post, 5 April 
2005, A-23.
    ``Conversations with The Forum: Perspectives on Preemption and 
National Security.'' Interview with Dr. Ashton Carter. The Fletcher 
Forum of World Affairs 29, no. 1 (Winter 2005), 9-12.
    ``The Essential Features of a Focused Strategy to Deal with the 
Proliferation Challenge: What Has Been Done and What Is to Be Done?'' 
In The Challenge of Proliferation: A Report of the Aspen Strategy 
Group, Kurt M. Campbell, ed. Washington, DC: The Aspen Institute, 2005, 
141-152.
    ``How to Counter WMD.'' Foreign Affairs 83, no. 5 (September-
October 2004), 72-85.
    ``Overhauling Counterproliferation.'' Technology in Society: An 
International Journal--Special Issue: Technology and Science: Entering 
the 21st Century, George Bugliarello and A. George Schillinger, eds., 
26, nos. 2/3 (April/August 2004), 257-269.
    ``Good Nukes, Bad Nukes.'' With Arnold Kanter, William J. Perry, 
and Brent Scowcroft. The New York Times, (22 December 2003), section A, 
31.
    ``The Architecture of Government in the Face of Terrorism.'' 
Countering Terrorism: Dimensions of Preparedness, Arnold M. Howitt and 
Robyn L. Pangi, eds. Cambridge, MA: MIT Press, (2003),17-36.
    ``A Dedicated Organization in Congress.'' With Gerald L. Epstein. 
Science and Technology Advice for Congress, M. Granger Morgan and Jon 
M. Peha, eds. Washington, DC: RFF Press, (2003), 157-163.
    ``The Korean Nuclear Crisis: Preventing the Truly Dangerous Spread 
of Weapons of Mass Destruction.'' Harvard Magazine, (September-October 
2003), 38-41.
    ``An American Security Policy: Challenge, Opportunity, 
Commitment.'' With William J. Perry (chair), Madeleine K. Albright, 
Samuel R. Berger, Louis Caldera, Gen. Wesley K. Clark, Michele A. 
Flournoy, Alfonso E. Lenhardt, John D. Podesta, Gen. John M. 
Shalikashvili, and Elizabeth Sherwood-Randall (members). National 
Security Advisory Group, (July 2003).
    ``A Prescription for Peace.'' Review of No More Killing Fields: 
Preventing Deadly Conflict by David A. Hamburg. Science, (30 May 2003), 
1374.
    ``Alternatives to Letting North Korea Go Nuclear.'' Testimony 
before the Committee on Foreign Relations, U.S. Senate. (6 March 2003).
    ``The Loose Nukes Crisis in North Korea.'' Memorandum to the Senate 
Democratic Leadership from the National Security Advisory Group. With 
William J. Perry (chair), Madeleine K. Albright, Samuel R. Berger, 
Louis Caldera, Wesley Clark, Michele Flournoy, Alfonso E. Lenhardt, 
John D. Podesta, John Shalikashvili, and Elizabeth Sherwood-Randall 
(members), (5 March 2003).
    ``A Scary Thought: Loose Nukes in North Korea.'' With William J. 
Perry and John M. Shalikashvili. The Wall Street Journal, (6 February 
2003), A-18.
    ``The Crisis Last Time.'' With William J. Perry. The New York 
Times, (19 January 2003), section 4, 13.
    ``Making the Nation Safer: The Role of Science and Technology in 
Countering Terrorism.'' With Lewis M. Branscomb, Richard D. Klausner, 
et al. Washington, DC: The National Academies Press, (2002).
    ``Nuclear Over North Korea: Back to the Brink.'' The Washington 
Post, (20 October 2002), B-1 & B-5.
    ``Protecting America's Freedom in the Information Age.'' With Zoe 
Baird, James L. Barkdale, Philip Zelikow et al. (The Markle Foundation 
Task, Force on National Security in the Information Age). Markle 
Foundation, (October 2002).
    ``Throw the Net Worldwide.'' The Washington Post, 12 June 2002, A-
31. ``Counterterror's Management Style.'' The New York Times, (8 June 
2002), A-27.
    ``Trip Report: Nunn-Lugar Sites in Russia. A memo to colleagues of 
the Preventive Defense Project.'' (3 June 2002).
    ``A New Era, A New Threat.'' With Richard Lugar. Financial Times, 
(23 May 2002), 15.
    ``Understanding Terrorism: A Harvard Magazine Roundtable.'' With 
Eva Bellin, Philip B. Heymann, David Little, Louise M. Richardson and 
Jessica E. Stern. Harvard Magazine (January-February 2002), 36-49.
    ``The Architecture of Government in the Face of Terrorism.'' 
International Security 26, no. 3, (Winter 2001/02), 5-23.
    ``How Ridge can secure the homeland.'' The Boston Globe, (4 October 
2001).
    ``National Security Strategy.'' In American Military Strategy: 
Memos to a President, Philip D. Zelikow, editor. New York, NY: W.W. 
Norton & Company, (2001), 33-48.
    ``National Innovation to Combat Catastrophic Terrorism.'' In 
FirePower in the Lab: Automation in the Fight Against Infectious 
Diseases and Bioterrorism, Scott P. Layne, Tony J. Beugelsdijk, and C. 
Kumar N. Patel, eds. Washington, DC: Joseph Henry Press, (2001), 187-
191.
    ``Beyond the Counterproliferation Initiative.'' With L. Celeste 
Johnson. In Twenty-First Century Weapons Proliferation: Are We Ready?, 
Henry Sokolski and James M. Ludes, eds. Portland, OR: Frank Cass 
Publishers, (2001).
    ``Keeping America's Military Edge.'' Foreign Affairs 80, no. 1 
(January-February 2001), 90-105.
    ``Adapting U.S. Defence to Future Needs.'' Survival 41, no. 4 
(Winter 1999-2000), 101-123.
    ``Beyond the Counterproliferation Initiative to a `Revolution in 
Counterproliferation Affairs.' '' With L. Celeste Johnson. National 
Security Studies Quarterly 5, no. 3 (Summer 1999), 88-90.
    ``Defining NATO's Purpose.'' With William J. Perry, and Hilary D. 
Driscoll. In NATO at Fifty: Perspectives on the Future of the Atlantic 
Alliance, Susan Eisenhower, ed. Washington, DC: The Center for 
Political and Strategic Studies, (1999).
    ``Catastrophic Terrorism: Tackling the New Danger.'' With John M. 
Deutch and Philip Zelikow. Foreign Affairs 77, no. 6 (November-December 
1998), 80-94.
    ``Catastrophic Terrorism: Elements of a National Policy.'' With 
John M. Deutch and Philip Zelikow. Preventive Defense Project 
publications, vol. 1, no. 6, Center for International Security and 
Cooperation (CISAC), Stanford University, (October 1998).
    ``Grand Terrorism: A New Threat to National Security.'' Peter L. 
Hays et al., eds. Countering the Proliferation and Use of Weapons of 
Mass Destruction. New York: McGraw-Hill, (1998).
    ``Fulfilling the Promise: Building an Enduring Security 
Relationship Between Ukraine and NATO.'' With Steven E. Miller and 
Elizabeth Sherwood-Randall. Cambridge, MA and Stanford, CA: Preventive 
Defense Project publications 1, no. 4 (1998).
    ``Move Closer to China, Not Far, for Security.'' With John M. 
Deutch and William J. Perry. USA Today, (11 June 1998).
    ``The Content of U.S. Engagement with China.'' With William J. 
Perry. Cambridge, MA and Stanford, CA: Preventive Defense Project 
publications 1, no. 2 (July 1998).
    ``NATO After Madrid: Looking to the Future.'' With Coit D. Blacker, 
Warren Christopher, David A. Hamburg, and William J. Perry. Cambridge, 
MA and Stanford, CA: Preventive Defense Project publications 1, no. 1 
(June 1998).
    ``No Nukes? Not Yet.'' With John M. Deutch, Wall St. Journal, (4 
March 1997).
    ``The Imperatives for Cooperation.'' With Janne E. Nolan, John D. 
Steinbruner, Kenneth Flamm, Steven E. Miller, David Mussington, and 
William J. Perry. In Global Engagement: Cooperation and Security in the 
Twenty-first Century, Janne E. Nolan, ed. Washington, DC: The Brookings 
Institution, (1994). .
    ``Cooperative Security and the Former Soviet Union: Near-Term 
Challenges.'' With Steven E. Miller. In Global Engagement: Cooperation 
and Security in the Twenty-first Century, Janne E. Nolan, ed. 
Washington, DC: The Brookings Institution, (1994).
    ``Export Control Reform in High Technology.'' Statement to the 
House Committee on Science, Space, and Technology, Field Hearing, no. 
57 (13 August 1993), 160-170. Washington: USGPO, (1993).
    ``The Role of Intelligence in Managing Proliferation.'' With Robert 
D. Blackwill. In New Nuclear Nations: Consequences for U.S. Policy, 
Robert D. Blackwill and Albert Carnesale, eds. New York: Council on 
Foreign Relations, (1993).
    ``Reducing the Nuclear Dangers from the Former Soviet Union.'' Arms 
Control Today 22, no. 1 (January-February 1992).
    ``Technical Demarcations for ASAT and BMD Systems.'' With Donald L. 
Hafner and Thomas H. Johnson. In Peaceful and Non-Peaceful Uses of 
Space: Problems of Definition for the Prevention of an Arms Race, 
Bhupendra Jasani, ed. New York: Taylor& Francis, (1991).
    ``Emerging Themes in Nuclear Arms Control.'' Daedalus 120, no. 1 
(Winter 1991).
    ``New Scenarios for American Defense.'' Defense Science Board, 
report of the Scenarios and Intelligence Task Force, (September 1990).
    ``New Thinking and American Defense Technology.'' With William J. 
Perry. Report of the Carnegie Commission on Science, Technology, and 
Government. (August 1990).
    ``Command and Control of Nuclear Forces.'' In A Primer for the 
Nuclear Age, Graham T. Allison et al., eds. Lanham, MD: University 
Press of America, CSIA Occasional Paper, no. 6 (1990).
    ``Testing Weapons in Space.'' Scientific American, (July 1989).
    ``Underlying Military Objectives'' and ``Limitations and Allowances 
for Space-Based Weapons.'' In Defending Deterrence: Managing the ABM 
Treaty Regime into the 21st Century, An American Academy of Arts and 
Sciences Study, Antonia Chayes and Paul Doty, eds. Pergamon-Brassey, 
(1989).
    ``Telecommunications Policy and National Security.'' In Changing 
the Rules: Technological Change, International Competition, and 
Regulation in Communications, Robert Crandall and Kenneth Flamm, eds. 
Washington, DC: The Brookings Institution, (1989).
    ``Permitted and Prohibited Space Testing Under the ABM Treaty.'' In 
Technologies for Security and Arms Control: Threats and Promises, ed. 
Eric H. Arnett. American Association for the Advancement of Science, 
(1989).
    ``Analyzing the Dual Use Technologies Question.'' Harvard 
University, Science, Technology, and Public Policy Program Discussion 
Paper 89, no. 5 (1989).
    ``A New Era in Science Advising.'' Science and Technology Advice to 
the President, Congress, and Judiciary, William T. Golden, ed. 
Pergamon, (1988).
    ``Nuclear Command and Control: The Next Thirty Years of 
Technological Change.'' With John S. Quilty and Charles A. Zraket. In 
The Future of Nuclear Weapons: The Next Thirty Years. Los Alamos 
National Laboratory, (1988).
    ``The Structure of Possible U.S.-Soviet Agreements Regarding 
Missile Defense.'' In On the Defensive?: The Future of SDI, Joseph S. 
Nye, Jr. and James A. Schear, eds. Lanham, MD: University Press of 
America, (1988).
    ``Crisis Stability and Nuclear War (with others)''. American 
Academy of Arts and Sciences and the Cornell University Peace Studies 
Program, (January 1987).
    ``Current and Future Military Uses of Space.'' In Seeking Stability 
in Space: Anti Satellite Weapons and the Evolving Space Regime, Joseph 
S. Nye, Jr. and James A. Schear, eds. Lanham, MD: University Press of 
America, (1987).
    ``Interpreting the ABM Treaty: Agreed Limitations on Military 
Activities in Space.'' Proceedings of the Thirty-Seventh Pugwash 
Conference on Science and World Affairs, Gmunden am Traunsee Austria, 
(1-6 September 1987).
    ``Military Uses of Space.'' In The High Technologies and Reducing 
the Risk of War, H. Guyford Stever and Heinz R. Pagels, eds. Annals of 
the New York Academy of Sciences 489, (1986).
    ``The Relationship of ASAT and BMD Systems.'' Daedalus (Spring 
1985).
    ``Command and Control of Nuclear War.'' Scientific American 
(January 1985).
    ``Satellites and Anti-Satellites: The Limits of the Possible.'' 
International Security 10, no. 4, (Spring 1984).
    ``CP Violation in 8-Meson Decays.'' With A.I. Sanda, Physical 
Review D 23, no. 7 (April 1981): 1567-1579.
    ``CP Nonconservation in Cascade Decays of B Mesons.'' With A.I. 
Sanda. Physical Review Letters 45, no. 12 (September 1980): 952-954.
    ``Perturbative QCD in a Covariant Gauge.'' With C.H. Llewellyn 
Smith. Nuclear Physics, B162 (1980):397-439.
    ``Weak D I= 1/2 Rule and the Dynamical Higgs Mechanism.'' With 
Heinz Pagels. Physical Review Letters 43, no. 25 (December 1979): 1845-
1847.
    ``Polarization of Prompt Muons Produced at Rt = 2.15 GeV/c by 400-
GeV Proton Interactions.'' With M.J. Lauterbach, et al. Physical Review 
Letters 37, no. 21 (November 1976): 1436-1438.
    ``Polarization of Prompt Muons.'' With R.K. Adair, et al. Physical 
Review Letters 36, no. 17 (April 1976): 1011-1013.
    ``Production of Prompt Muons in the Forward Direction by 400-GeV 
Proton Interactions.'' With R.K. Adair, et al. Physical Review Letters 
35, no. 24 (December 1975): 1613-1616.
    ``Quarks, Charm and the Psi Particle.'' Yale Scientific. 50 no. 1 
(October 1975).
    ``CIA: Victimized?'' Yale Daily News (January 22, 1975)
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years of which you have 
copies and are on topics relevant to the position for which you have 
been nominated.
    I have delivered a large number of speeches in my capacity as 
Deputy Secretary of Defense and Under Secretary of Defense for 
Acquisition Technology & Logistics, and, previously, as Chair of the 
International and Global Affairs Faculty at Harvard's Kennedy School of 
Government. Since leaving the DOD in 2013, I have delivered one formal 
speech, the Fubini Lecture indicated below and several times have 
delivered informal remarks. In these cases, I have delivered these 
speeches using no notes, or using hand-written notes that have not been 
archived. Almost all of those speeches are derived from, or form the 
basis of, written publications or testimony, and their content can be 
found in my response to the previous question.
    1. Remarks to Steel Tube Institute of America, Coral Gables, 
Florida. 17 November 2014.
    2. Remarks to JMI Equity CEO Conference, Baltimore, MD. 2 October 
2014.
    3. Remarks to Barclays Geopolitical Risk and Defense Policy 
Roundtable, Washington, DC. 7 September 2014.
    4. Remarks at Aerospace Corporation Board Dinner, Rancho Palos 
Verdes, California. 12 June 2014.
    5. Fubini Lecture, MIT-LL. Boston, MA. 29 May 2014.
    6. Remarks at Ashton Carter's official farewell ceremony. Pentagon. 
2 December 2013.
    7. Troop Talk at U.S. Consulate. Herat, Afghanistan. 14 September 
2013.
    8. Remarks at the Combined Federal Campaign Kickoff Ceremony. 
Pentagon. 05 September 2013.
    9. Remarks at the Medal of Honor Ceremony for Ty Carter. Pentagon. 
27 August 2013.
    10. Remarks at the Aspen Security Forum. Aspen, CO. 18 July 2013.
    11. Remarks on Defense Priorities in an Era of Constrained Budgets 
at the Center for a New American Security. Washington, DC. 12 June 
2013.
    12. Remarks at Christine Fox's Farewell Ceremony. Pentagon. 25 June 
2013.
    13. Remarks at Air Force Secretary Michael Donley's Farewell 
Ceremony. Pentagon. 21 June 2013.
    14. Remarks at the OSD Junior and Senior Enlisted Service Members 
of the Year. Pentagon. 19 June 2013.
    15. Remarks at the Pentagon Presidential Rank Awards Ceremony. 
Pentagon. 18 June 2013.
    16. Remarks at the SOUTHCOM 50th Anniversary Ceremony. Doral, 
Florida. 4 June 2013.
    17. Remarks on Better Buying Power at the Center for Strategic and 
International Studies. Washington, DC. 23 May 2013.
    18. Remarks to the Aerospace Industries Association Board of 
Governors. Washington, DC. 23 May 2013.
    19. Troop Talk at Camp Lemmonier. Djibouti, Djibouti. 11 May 2013.
    20. Remarks at the EUCOM Change of Command Ceremony, Stuttgart, 
Germany. 10 May 2013.
    21. Remarks at the Public Service Recognition Week Award Ceremony. 
Washington, DC. 8 May 2013.
    22. Remarks at the National Press Club. Washington, DC. 7 May 2013.
    23. Remarks at the NOIA Eisenhower Awards. Washington, DC. 18 July 
2013.
    24. Remarks at the 2013 Ronald Reagan Missile Defense Award 
Ceremony. Washington, DC. 23 April 2013.
    25. Remarks on the U.S. Defense Rebalance to Asia at the Center for 
Strategic and International Studies. Washington, DC. 8 April 2013.
    26. Remarks at the U.S. Embassy. Seoul, South Korea. 18 March 2013.
    27. Remarks at the National Defense University Foundation Tribute. 
Washington, DC. 13 March 2013.
    28. Remarks on Sequestration at the McAleese/Credit Suisse investor 
conference. Washington, DC. 12 March 2013.
    29. Remarks at the Munich Security Conference. Munich, Germany. 2 
February 2013.
    30. Remarks at the F-35 Lightening II Change of Command Ceremony, 
Washington, DC. 6 December 2012.
    31. Remarks at the Cooperative Threat Reduction Symposium. 
Washington, DC. 3 December 2012.
    32. Remarks at the Von der Heyden Fellows Program Endowment Fund 
Lecture Series at Duke University. Durham, NC. 29 November 2012.
    33. Remarks at Center for Nonproliferation Studies Advisory Board 
Meeting. Washington, DC. 15 November 2012.
    34. DOD News Briefing on Better Buying Power 2.0 with Deputy 
Secretary Carter and Under Secretary Kendall from the Pentagon. 13 
November 2012.
    35. Remarks at New York City's Veterans' Day Parade Opening 
Ceremony. New York, NY. 11 November 2012.
    36. Remarks at 57th Annual DOD Distinguished Civilian Award 
Ceremony. The Pentagon. 7 November 2012.
    37. Troop Talk at Minot Air Force Base. Minot, North Dakota. 2 
November 2012.
    38. Remarks to L-3 Communications Board of Directors. Arlington, 
Virginia. 24 October 2012.
    39. Remarks at the AUSA Annual Meeting and Exposition. Washington, 
DC. 24 October 2012.
    40. Remarks aboard the USS Eisenhower. 19 October 2012.
    41. Remarks at a Base in Southwest Asia. 17 October 2012.
    42. Remarks at the North American Forum. Ottawa, Canada. 13 October 
2012 (off the record; not for attribution).
    43. Remarks at Defense Attache Association. Washington, DC. 11 
October 2012.
    44. Remarks at Aspen Institute Roundtable Luncheon. Washington, DC. 
10 October 2012.
    45. Remarks at Navy's 237th Birthday Celebration. Pentagon 
Auditorium. 9 October 2012.
    46. Remarks to USAF Cadets: ``On Strategy and Leadership.'' United 
States Air Force Academy. 4 October 2012.
    47. Remarks at the Woodrow Wilson Center. Washington, DC. 3 October 
2012.
    48. Remarks at the Mine Resistant Ambush Protected Program 
Transition Ceremony. The Pentagon. 1 October 2012.
    49. Remarks at Raytheon Workforce Town Hall. Tucson, Arizona. 26 
September 2012.
    50. Remarks at White House Rhodes Scholar Event. The White House. 
Washington, DC. 24 September 2012.
    51. Remarks at Combined Federal Campaign Kickoff. The Pentagon. 24 
September 2012.
    52. Remarks at the Department of Defense's National POW/MIA 
Recognition Day Ceremony. 21 September 2012.
    53. Remarks at the Politico Pro Defense Forum, Washington, DC. 20 
September 2012.
    54. Remarks at the Annual Air & Space Conference and Technology 
Exposition. 19 September 2012.
    55. Remarks at Partnership for Public Service Sammies Gala. 
Washington, DC. 13 September 2012.
    56. Remarks at Council of Chief Executives Dinner. The Four 
Seasons, Washington, DC. 12 September 2012.
    57. Remarks at Rhode Island Business Leaders Day. Hart Senate 
Office Building, Washington, DC. 12 September 2012.
    58. Remarks at APEX SES Orientation Program. The Pentagon. 12 
September 2012.
    59. Remarks at NDU Economics and National Security Symposium. Fort 
McNair, Washington, DC. 6 September 2012.
    60. Remarks at Award Ceremony for Jo Ann Rooney. The Pentagon. 4 
September 2012.
    61. Remarks at Joint Staff Global Readiness Conference. The 
Pentagon. 23 August 2012.
    62. ``The U.S. Strategic Rebalance to Asia: A Defense 
Perspective.'' The Asia Society, New York, NY. 1 August 2012.
    63. Remarks at OSD Junior/Senior Enlisted Service Members of the 
Year Ceremony. The Pentagon. 31 July 2012.
    64. Remarks to Troops at Camp Humphreys. 26 July 2012.
    65. ``Toward a Joint Vision for U.S.-lndia Defense Cooperation. 
Remarks to the Confederation of Indian Industry. New Delhi, India. 23 
July 2012.
    66. Remarks aboard the USS Blue Ridge, Yokosuka, Japan. 23 July 
2012.
    67. Remarks aboard the Battleship Missouri. 18 July 2012.
    68. Address to NATO Parliamentary Assembly Members. The Pentagon. 9 
July 2012.
    69. Remarks at Foreign Defense Attache Reception. The State 
Department. Washington, DC, 28 June 2012.
    70. Remarks at Al Volkman Retirement Ceremony. The Pentagon. 25 
June 2012.
    71. Remarks at CTBT Workshop. Hay Adams Hotel, Washington, DC. 22 
June 2012.
    72. Remarks at Joint Base Charleston. Charleston, SC. 18 June 2012.
    73. Remarks at Presidential Rank Award Ceremony. The Pentagon. 5 
June 2012.
    74. ``Cybersecurity and Its Role in National Defense.'' Address at 
West Point Senior Cyber Security Conference. United States Military 
Academy. West Point, NY. 4 June 2012.
    75. ``Budget Priorities for 21st Century Defense: A Conversation 
with Deputy Secretary of Defense Ashton Carter.'' The American 
Enterprise Institute, Washington, DC. 30 May 2012.
    76. Keynote Address at PenFed Night of Heroes Gala. Ritz Carlton, 
Washington DC. 24 May 2012.
    77. Address to Senior Executive Service Town Hall on Achieving 
Audit Readiness. The Pentagon. 23 May 2012.
    78. Remarks at BENS Annual Washington Forum. Grand Hyatt, 
Washington, DC. 22 May 2012.
    79. Remarks to the Aspen Group U.S.-lndia Dialogue. Riggs Library. 
Washington, DC. 12 May 2012.
    80. Remarks at Rep. Adam Smith District Day. Library of Congress, 
Washington, DC. 10 May 2012.
    81. Address at NDU Center for the Study of Weapons of Mass 
Destruction. Fort McNair, Washington, DC. 9 May 2012.
    82. Remarks at the Spirit of Service Ceremony. The Pentagon. 9 May 
2012.
    83. Remarks at Vanguard Executive Development Program. The 
Pentagon. 3 May 2012.
    84. Remarks at Navy Office of General Counsel Conference. 
Alexandria, Virginia. 2 May 2012.
    85. Remarks at Sam Nunn/Bank of America Policy Forum Lunch. 
Atlanta, Georgia. 16 April 2012.
    86. Remarks at Farewell Ceremony for David Van Buren. The Pentagon. 
23 March 2012.
    87. Remarks at Farewell Ceremony for Regina Dugan. The Pentagon. 23 
March 2012.
    88. Remarks at Institute for Defense Analysis Lunch Colloquium. 
Alexandria, Virginia. 20 March 2012.
    89. Remarks at APEX SES Orientation Program. The Pentagon. 19 March 
2012.
    90. Remarks to Harvard Zuckerman and Gleitsman Fellows. The 
Pentagon. 13 March 2012.
    91. Remarks at NDIA Dinner. Army-Navy Club. Washington, DC. 12 
March 2012.
    92. Remarks at 50th Annual U.S. Senate Youth Program Reception. The 
Pentagon. 9 March 2012.
    93. Remarks at Credit Suisse/McAleese Conference on 2013 Defense 
Programs. Arlington, Virginia. 8 March 2012.
    94. The Paul C. Warnke Lecture on International Security: ``Defense 
Strategy and Budget Priorities for the 21st Century.'' The Council on 
Foreign Relations. New York, NY. 6 March 2012.
    95. Remarks at the ARPA-E Innovation Summit. Gaylord Convention 
Center, National Harbor, Maryland. 29 February 2012.
    96. Keynote Address at the RSA Conference. San Francisco, 
California. 28 February 2012.
    97. Remarks at Combined Federal Campaign Award Ceremony. The 
Pentagon. 17 February 2012.
    98. Remarks at Atlantic Council Dinner. Metropolitan Club, 
Washington. DC. 15 February 2012.
    99. Remarks at CNAS 5th Anniversary Celebration in honor of William 
J. Perry. The W Hotel, Washington, DC. 31 January 2012.
    100. Remarks at Professional Services Council Meeting. The Four 
Seasons Georgetown, Washington, DC. 30 January 2012.
    101. Remarks at the Major Budget Decisions Media Briefing. The 
Pentagon. 26 January 2012.
    102. Remarks at Colonel Ronald F. Lewis Promotion Ceremony. The 
Pentagon. 20 January 2012.
    103. Remarks at Enduring Security Framework Executive Steering 
Group. Washington, DC. 19 January 2012.
    104. Remarks at Farewell Ceremony for Gordon Heddell. The Pentagon. 
13 January 2012.
    105. Remarks at the Defense Strategic Guidance Media Roundtable. 
The Pentagon. 5 January 2012.
    106. Remarks at Defense Industrial Base Task Force Meeting. 
Aerospace Industries Association, Arlington, VA. 22 December 2011.
    107. Iraq End of Mission/Return of the Colors. Andrews Air Force 
Base, Maryland. 20 December 2012.
    108. OSD Senior/Junior Enlisted Service Member of the Year Awards 
Ceremony. The Pentagon. 2 December 2011.
    109. Remarks at VADM Thompson Retirement and DLA Change of Command 
Ceremony. Fort Belvoir, VA. 18 November 2011.
    110. Welcome Ceremony Remarks. Pentagon Auditorium. 9 November 
2011.
    111. Remarks at 55th Annual DOD Distinguished Civilian Awards. The 
Pentagon. 4 November 2011.
    112. Remarks at Afghan Strategic Review Panel. Crystal City, 
Virginia. 26 October 2011.
    113. Remarks at AUSA Eisenhower Luncheon. 11 October 2011.
    114. ``Defense Budgets, American Power, and the National Security 
Industrial Base.'' Remarks at the Brookings Institution. 15 July 2011.
    115. Remarks at Heritage Foundation Conference, ``The Pentagon 
Efficiency Initiative: Enough to Stave Off More Defense Cuts?'' 20 
April 2011.
    116. ``Doing More Without More: Obtaining Efficiency and 
Productivity in Defense.'' Remarks at the Center for a New American 
Security.`` 22 February 2011.
    117. Remarks at Aviation Week's R&D Technology & Requirements 
Conference. Washington, DC. 16 February 2011.
    118. ``The Defense Industry Enters a New Era.'' Remarks to Cowen 
Investment Conference, New York, NY. 9 February 2011.
    119. Remarks at Center for American Progress Conference, ``A $400 
Billion Opportunity: 10 Strategies to Cut the Fat out of Federal 
Procurement.'' 16 November 2010.
    120. ``Acquisition Process.'' Remarks before the Air Force 
Association Conference. 15 September 2010.
    121. ``Remarks at Navy League Sea-Air-Space Exposition, Gaylord 
Convention Center, Washington, DC. 4 May 2010.
    122. Remarks at Defense Logistics Modernization Conference. Center 
for Strategic and International Studies. 2 April 2010.
    123. Remarks at 38th IFPA-Fletcher Conference on National Security 
Strategy and Policy, ``Air, Space, and Cyberspace Power in the 21st 
Century.'' 20 January 2010.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                     Ashton B. Carter  
    This 13th day of January, 2015

    [The nomination of the Honorable Ashton B. Carter was 
reported to the Senate by Chairman McCain on February 10, 2015, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on February 12, 2015.]



    NOMINATION OF MR. PETER K. LEVINE TO BE DEPUTY CHIEF MANAGEMENT 
                                OFFICER,
                         DEPARTMENT OF DEFENSE

                              ----------                              


                        TUESDAY, APRIL 21, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in room 
SH-216, Hart Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Ayotte, 
Cotton, Rounds, Ernst, Tillis, Reed, McCaskill, Manchin, 
Donnelly, Hirono, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. All right, Peter. We have done enough 
schmoozing.
    This committee is always gratified to be in a position to 
help the Senate confirm nominees that previously distinguished 
themselves as esteemed members of its staff. That is why I am 
especially delighted to welcome Peter Levine who appears before 
us today as the President's nominee to serve as Deputy Chief 
Management Officer [DCMO]. I would also like to welcome his 
wife Mary Ellen and his son Daniel. We thank you both for 
lending Peter to his country in service once again.
    Having served as staff director and before that as general 
counsel to the Senate Armed Services Committee [SASC], Peter 
has gained keen insight into how the Department of Defense 
[DOD] operates and how it is managed. He has an in-depth 
understanding of the challenges that confront its senior most 
managers and ensuring that the Pentagon provides our Nation's 
defense effectively and responsibly. Peter also knows how 
inherently challenging the position of DCMO is. He has seen how 
the Department does business, especially in the area of 
financial improvement and business transformation, critical 
areas over which the DCMO has a critical oversight role.
    Peter, the task lies ahead of you. Few people outside 
Washington truly appreciate the challenge that the Department 
faces in the area of management, business transformation, and 
financial management. Measured by dollars, people, or global 
missions, the Department of Defense is quite possibly the 
largest, most complex single organization in the world. With 
this size and complexity comes difficulties in management. The 
Comptroller General, Congress' independent watchdog, has 
continually listed DOD as high risk and vulnerable to fraud, 
waste abuse, and mismanagement.
    The Department of Defense is unique in that it is the only 
large Federal agency that cannot even undergo a financial 
statement audit of its balance sheet. This committee, with Mr. 
Levine's help, has spent a great deal of time and energy 
working on specific challenges at DOD in the areas of weapon 
systems acquisition, business transformation, IT [information 
technology] system implementation, financial management, and 
supply chain management. To date none of these risk areas have 
been removed from GAO's [the Government Accountability Office] 
high risk list, but I am optimistic that with Mr. Levine's 
leadership and partnership with this committee we will make 
great progress which will benefit both the warfighter and the 
taxpayer.
    While efforts to improve business systems, cut costs, and 
find waste at the Department of Defense are used to identify 
savings, it is also to gain knowledge and understanding about 
how the Department works. Former Secretary of Defense Robert 
Gates said back in 2011, ``The current apparatus for managing 
people and money across the DOD enterprise is woefully 
inadequate.'' That came from the Secretary of Defense at the 
time. He went on to say it was, ``nearly impossible to get 
accurate information and answers to questions such as how much 
money did you spend and how many people do you have.''
    Secretary Gates also mentioned that the result of these 
shortfalls in information was that he could not measure results 
or make judgments about priorities for the military. There is 
something very wrong when the Secretary of Defense cannot get 
answers to simple questions or know how or whether the agencies 
under his control achieve their intended results.
    Fixing these weaknesses and improving the management of the 
Pentagon is not the job of any one person. All Pentagon leaders 
must be invested in this work from the Secretary on down, and 
Congress must never forget its critical role in this area. But 
this work goes directly to the heart of what the Deputy Chief 
Management Officer is all about, empowering the Secretary of 
Defense with timely and accurate information to assess whether 
the Department is achieving its goals, streamlining bureaucracy 
and cutting through red tape to enable the Military Services to 
put their full effort toward achieving their missions, not 
filling out paperwork, and holding leaders accountable for 
failing to change or adopt better practices, while at the same 
time rewarding managers who learn from mistakes and succeed in 
transformation.
    Peter, this is no small task, but I assure you that, if 
confirmed, you will have a committed partner in this committee.
    Again, I thank the witness for his willingness to serve and 
look forward to hearing from the witness on this important 
matter.
    This committee has the well-deserved reputation for acting 
99 percent of the time in a bipartisan fashion. A lot of that 
comes from the interaction between the staffs on both sides of 
the aisle, no matter who is in the majority. Peter, over many 
years as service to Senator Levin as well as other members of 
this committee, you have made a significant contribution to 
maintaining that environment of bipartisanship, not to mention 
though, however, that you and I have had spirited conversations 
on occasion in the past.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman. Let me 
echo your comments about the spirit that Peter has helped keep 
alive, and I know he will continue to do that at the Department 
of Defense.
    I want to welcome Peter and Mary Ellen and Daniel. Thank 
you very much.
    One indication of success that the people that you led are 
strongly behind you--literally they are because the entire 
Democratic PSM [professional staff members] staff is here for 
this hearing to cheer you on and secretly send messages to you 
so that you get the answers right.
    [Laughter.]
    Senator Reed. The chairman has gone into great detail and 
very accurate detail about the incredible contributions you 
have made to the committee. You originally came in 1996. You 
have been the general counsel, the staff director. You have 
been a trusted advisor to Senators on both sides of the aisle. 
You have been a mentor to the professional staff. You have made 
us all a little wiser and a little better prepared to face the 
challenges of a very difficult and dangerous world.
    Many of the pieces of legislation that you worked with have 
profoundly reshaped the Pentagon, and there is a lot more that 
has to be done. You have been a major force in developing 
Government-wide procurement reform initiatives--for the 
Pentagon, I should say--including the Weapon Systems 
Acquisition Reform Act of 2009. That was really due to your 
staff efforts with the leadership of Senator Levin and Senator 
McCain. This was a tribute to their vision, as well as your 
efforts.
    You have developed mechanisms to streamline the 
Department's workforce to help the Pentagon to maintain this 
workforce. You have also led efforts in the Senate to combat 
waste, fraud, and abuse in the Pentagon acquisition, stretching 
back to your days not just on this committee but when you were 
on the Government Affairs Committee.
    We will miss you, your knowledge of the laws, your 
analytical ability, your determination, your professionalism. 
But we will recognize that we are benefiting and the Pentagon 
is benefiting and the Nation is benefiting from those skills in 
your new position as Deputy Chief Management Officer for the 
Department of Defense.
    The DCMO position is charged with improving the management 
of the Department of Defense and it does need improvement. As 
such and especially in these constrained budget times, you will 
be challenged to support warfighters while making very 
difficult choices about eliminating low priority functions, 
cutting costs, but maintaining capacity and, in fact, enhancing 
capacity. Those are very difficult, in fact sometimes 
contradictory, challenges. You will be charged with leading the 
modernization efforts, and we have every confidence you will do 
it well as you have done everything well.
    We look forward to working with you.
    Again, let me thank the chairman for scheduling this 
hearing. Mr. Chairman, thank you.
    Chairman McCain. Thank you.
    Before your statement, as you know, there are standard 
questions that have to be answered for the record, which I will 
go into now.
    In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress be able to receive 
testimony, briefings, and other communications of information. 
Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Mr. Levine. I have.
    Chairman McCain. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Levine. I have not.
    Chairman McCain. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in hearings?
    Mr. Levine. I will.
    Chairman McCain. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Levine. I will.
    Chairman McCain. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Mr. Levine. Yes.
    Chairman McCain. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Mr. Levine. I do.
    Chairman McCain. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Mr. Levine. I do.
    Chairman McCain. Please proceed.

 STATEMENT OF MR. PETER K. LEVINE, NOMINEE TO BE DEPUTY CHIEF 
           MANAGEMENT OFFICER, DEPARTMENT OF DEFENSE

    Mr. Levine. Mr. Chairman, Senator Reed, members of the 
committee, first let me thank you for those very generous 
remarks that you made at the outset.
    You are absolutely right about the challenges, management 
challenges, facing the Department of Defense. As I, if 
confirmed, take those on, it will be a great comfort to know 
that this committee is supportive of that effort.
    It is my pleasure to appear before you today as the 
President's nominee for the position of Deputy Chief Management 
Officer of the Department of Defense. I would like to thank the 
President, Secretary Carter, and Deputy Secretary Work for 
selecting me for this position.
    I would also like to thank my wife Mary Ellen and my son 
Daniel, both of whom are with me today. I mention them for all 
their love, support, and understanding over the years, and I 
would not be here without them.
    This committee established the DCMO position in an effort 
to address the broken business practices and bureaucratic 
inefficiencies that caused DOD management programs and support 
functions to take too long, cost too much, and produce less 
than optimal results.
    I believe that an active DCMO, with the support of the 
Secretary, Deputy Secretary, can make a real difference. If 
confirmed, I will strive to institute more effective management 
practices and take on the waste and inefficiency that 
needlessly squander the taxpayers' money and the Department's 
resources.
    Mr. Chairman, it has been my privilege and honor to serve 
on the staff of the Armed Services Committee for almost 20 
years. I could not have asked for a more rewarding place to 
work, for better people to work with and for, or for a better 
learning experience. I thank all of you, members and staff, for 
that.
    I know that I have more to learn, but if confirmed, I will 
bring a piece of the Armed Services Committee with me to the 
Department of Defense.
    That concludes my opening statement, and I look forward to 
your questions.
    [The prepared statement of Mr. Levine follows:]

                 Prepared Statement by Mr. Peter Levine
    Chairman McCain, Senator Reed, Members of the Committee--Thank you 
for scheduling this hearing. It is my pleasure to appear before you 
today as the President's nominee for the position of Deputy Chief 
Management Officer (DCMO) of the Department of Defense.
    I would like to thank the President, Secretary Carter, and Deputy 
Secretary Work for the confidence they have shown in selecting me for 
this important position. I would also like to thank my wife Mary Ellen 
and my son Daniel, both of whom are here with me today, for their 
understanding and support over the years. I would not be here without 
them.
    This committee established the DCMO position in an effort to 
address the broken business processes and bureaucratic inefficiencies 
that cause DOD management programs and support functions to take too 
long, cost too much, and produce less than optimal results. The 
committee also expected the DCMO to help the Department develop and 
implement the sound business systems and practices that will be needed 
to produce an auditable financial statement.
    I understand that the Deputy Secretary of Defense has directed the 
DCMO to conduct a review of the organizations and business processes of 
the Office of the Secretary of Defense (OSD) and the defense agencies, 
with the objective of streamlining organizations and improving business 
processes. I do not believe that there are any significant management 
processes in the Department of Defense that cannot be streamlined and 
made more efficient.
    Making process improvements will be difficult and time-consuming 
and may require changes to the culture of the Department. However, I 
believe that significant improvements are not only possible, but 
essential to enable the Department to reduce the size and composition 
of its management headquarters and achieve needed savings without 
creating bottlenecks that would undermine the mission. If confirmed, I 
will devote my fullest effort to this project.
    Mr. Chairman, it has been my privilege to serve on the staff of the 
Armed Services Committee for almost twenty years. I believe that this 
committee is unique in the Senate because of its productivity, having 
produced a National Defense Authorization Act every year for the last 
53 years. It is unique because of its tradition of bipartisanship, with 
Members and staff on both sides working together to solve common 
problems. And it is unique because of its dedication to a common 
purpose--doing what is best for our men and women in uniform and the 
national defense.
    If confirmed, I pledge to bring this spirit of productivity, 
bipartisanship, and dedication to our men and women in uniform with me 
to the Department of Defense.
    Mr. Chairman, that concludes my opening statement. I look forward 
to your questions. Thank you.

    Chairman McCain. Thank you very much.
    The issue of continuing interest to this committee, as you 
know, is the inability of the Department of Defense to pass a 
financial statement and audit. The current audit deadline is, 
starting in 2017, that DOD will be audit-ready. Do you think 
that is going to be the case?
    Mr. Levine. Mr. Chairman, I have always tried to be honest 
with members of this committee and give my best assessment, and 
I have always been skeptical that the 2017 deadline will be met 
and I cannot change my stripes just because I am sitting down 
here at the witness table.
    Chairman McCain. Why do you think that they have never been 
able to do that? People ask me that all the time.
    Mr. Levine. Looking at the problem of an auditable 
financial statement for the Department of Defense, you have to 
keep in mind that it is the biggest entity in the world. We 
have hundreds of millions of transactions every year and 
billions of historic transactions. An individual taxpayer or a 
small business may be able to put their receipts in a shoebox 
and add them at the end of the year and balance their books, 
but an entity the size of the Department of Defense simply 
cannot do that. We have to have systems and processes in place 
that work and that produce good financial information, and when 
we get those systems and processes in place, it will not only 
provide us an auditable financial statement, but it will answer 
that question that Secretary Gates had about why he cannot get 
good answers to his questions when he needs to make a decision.
    I think we have made significant progress really going back 
to when Deputy Secretary England took this on as a challenge in 
about 2005 when he became Deputy Secretary. I think that Mr. 
Hale as Comptroller continued that effort, and I think that it 
is now foreseeable to me that we can get to an auditable 
financial statement. I just do not believe we will make it by 
2017.
    Chairman McCain. As you remember, a couple years ago, as 
part of not the Department of Defense but my role--and I was a 
member of the Permanent Subcommittee on Investigations--we 
discovered that the Air Force spent over $1 billion, many years 
of mismanaging what was supposed to be a commercial, off-the-
shelf system. It was known as the expeditionary combat support 
system [ECSS]. No one was held responsible. What do I tell the 
taxpayers at the next town hall meeting that we wasted $1 
billion on a program that never even begun at all, and no one 
was held responsible? What is your solution to that?
    Mr. Levine. Senator, first I worked with your staff on that 
review.
    Chairman McCain. I remember.
    Mr. Levine. I share their views and your views of that. It 
is absolutely unacceptable. What I will say is the failures 
that you identified in your report on ECSS, lack of planning, 
lack of a firm requirement, changing requirements, lack of 
commitment to the commercial nature of the system, are systemic 
problems that we have in the acquisition of business systems 
for the Department of Defense, and we created the DCMO in part 
to make sure that that does not happen.
    Chairman McCain. I take it that one of your priorities is 
going to be to hold people responsible because just your 
appointment is not going to eliminate those.
    Mr. Levine. It will be one of my jobs to review business 
system programs for the Department of Defense to make sure that 
they are doing the planning that they need to do, that they 
have the governance processes to make sure this does not happen 
again.
    Chairman McCain. Does that mean you are going to hold 
people accountable?
    Mr. Levine. Senator, the people that need to be held 
accountable do not actually report to the DCMO. So it will be 
the job of----
    Chairman McCain. Will you identify them?
    Mr. Levine. Yes. Yes, Senator, I will help identify people 
who need to be held accountable. I think that is a fair--yes.
    Chairman McCain. Thank you.
    In a recent audit, GAO noted that a majority of major IT 
programs did not--and we know how important in this day and age 
IT programs are--establish baseline costs and schedule 
estimates within 2 years of program initiation. In fact, it 
took over 5 years and nearly half a billion dollars to be spent 
before baseline costs and schedule estimates were created for 
12 major IT systems.
    Is the IT system issue not of highest importance?
    Mr. Levine. I will make it an issue of the highest 
importance. Yes, Senator.
    Chairman McCain. Do you think you can fix the problem?
    Mr. Levine. I think we can do far, far better than we have 
done, and we need to do far, far better than we have done.
    Chairman McCain. Will you have the confidence of the 
Secretary of Defense?
    Mr. Levine. I believe that I will, yes.
    Chairman McCain. Good.
    As you know, from time to time, as a member of the staff of 
this committee, we have been frustrated with sometimes the lack 
of complete and timely information from the Department of 
Defense, and I hope that you will also make sure that we do 
receive that information in a timely and accurate fashion.
    Mr. Levine. I have shared that frustration, and I will do 
my best to be as responsive as possible. I certainly understand 
the problem.
    Chairman McCain. Some of your comments I will keep on 
record to provide to you in case we do have difficulties in 
that area, Peter.
    Mr. Levine. I appreciate that, Mr. Chairman.
    Chairman McCain. It was my beloved friend, Morris Udall, 
who once said the politician's prayer is that the words that I 
utter today be tender and sweet because tomorrow I may have to 
eat them. Thank you. [Laughter.]
    Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman.
    Again, Peter, thank you for your service to Congress.
    You were there in 2008 when this office was created. 
Briefly, can you give an assessment of what it has done 
positively and where are still the failings that it has not 
lived up to?
    Mr. Levine. This committee was responsible for creating the 
position of DCMO, and it was created for the reasons that 
Senator McCain laid out in his opening statement, because the 
committee did not believe that Department was paying enough 
attention to the management issues that end up leading to waste 
and inefficiency and costing the Department so much money. It 
actually started with an amendment by Senator Byrd to create a 
second Deputy Secretary who was going to be a Deputy Secretary 
for management, and it evolved to where the Deputy Secretary 
would be the CMO [Chief Management Officer] and he would be 
assisted by a DCMO.
    The idea was to elevate the issue of management within the 
Department and give it top level attention so that we could 
address some of these problems that just seemed to go on from 
year to year to year and never be solved.
    There has been only one DCMO to date, one Senate-confirmed 
DCMO to date. I think she worked hard. I do not think she had 
the support at the top level of the Department that she needed 
to really take on some of these bigger problems. I have been 
assured that I will have that support, and I hope to have that 
support and I hope to take on the big management problems that 
have been of concern to this committee for so long.
    Senator Reed. Thank you.
    Senator McCain alluded to in his questions about the IT 
systems. The Pentagon is the biggest enterprise in the world, 
but there are lots of big companies that are audited every year 
and they are pretty complicated and complex. I guess it begs 
the question, what can you learn from the private sector, not 
just studying them but adopting some of their mechanisms, 
getting advisors coming in who are management experts to tell 
you how you should do things differently at the Pentagon?
    Mr. Levine. We need to do all of that. There are some 
mechanisms in the Department for doing that. There are some 
authorities we have given the Department to do that kind of 
thing, and the Department has not taken full advantage of the 
authority it has in that regard. We will want to bring in 
expertise from the private sector and do whatever we can to 
draw on that.
    Senator Reed. I know the Secretary has a business sort of 
advisors group. I do not know the official title.
    Mr. Levine. The Defense Business Board.
    Senator Reed. I would assume you are going to be looking to 
them or work closely with them for advice and insight.
    Mr. Levine. My understanding is that they are available to 
assist in these areas and to provide advice, and I hope that we 
will be able to draw on that advice. Yes, sir.
    Senator Reed. One aspect too here of the auditability and 
everything is that sometimes the fault is not in our stars but 
in ourselves, and some of the congressional requirements that 
we place make it very difficult to manage. Are you going to 
look also at the structures we give you to operate? We do not 
have the same type of capital budget, for example, in the 
Pentagon that you find in most big, private enterprises. Are 
you going to be able to give us advice too about what changes 
we should make?
    Mr. Levine. Senator Reed, I think there is an awful lot 
that can be done to improve the way the Department works 
without legislation. I think there are lots of ripe targets 
there. If I identify something that does need legislation or an 
area where we do need congressional help, of course I will come 
back to you and ask for that.
    Senator Reed. Just the final point and more of a comment 
than a question. Information technology is so critical to 
businesses today to be agile, to be proficient and productive, 
and some of the systems that you are operating are antiquated, 
to be kind.
    Mr. Levine. I am hearing about COBOL-based systems and 
FORTRAN-based systems. Yes.
    Senator Reed. That is encouraging because those are the 
last computer languages that I learned in 1967 and 1969. So 
there is a place for me over there programming FORTRAN and 
BASIC.
    [Laughter.]
    Maybe I will withdraw the question.
    [Laughter.]
    But you know, you are right. You are looking at systems 
which are 20 years out of date, and the irony, of course--at 
least the perception that I have--is in the 1950s and 1960s and 
1970s, the Pentagon was where the really spectacular 
information technology breakthroughs and automation were going 
on. It was business that was trying to catch up, and now it is 
completely reversed.
    Mr. Levine. Particularly in the area of business systems, 
all of the initiative is now on the private sector side. You 
are talking about accounting systems or purchasing systems or 
personnel systems, those kinds of IT systems. The key is in 
order to make use of those, you need to address the problems 
that Senator McCain referred to earlier with the ECSS system 
where we tried to buy a commercial system but then we refused 
to change our processes. We ended up having to hire a squadron 
of computer programmers to try to reinvent a system that was 
working perfectly well in the commercial sector. What we need 
to do is to change our business processes so that they make 
sense and that they can be appropriately automated rather than 
automating an old process that really is not very efficient in 
the first place.
    Senator Reed. Thank you very much. Again, thank you for 
your service and your personal support systems in Congress.
    Mr. Levine. Thank you, Senator Reed.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    You know, Peter, I find it difficult to believe the many, 
many years that I have personally had the honor of working with 
you I never met any of your family before. Mary Ellen, it is 
really nice to meet you. For the benefit of my fellow Senators 
up here, Daniel is at Harvard in computer science right now and 
he made a real sacrifice to be here today. You will be very 
much rewarded to know how much everyone thinks of your daddy 
because I do not recall anyone at any of these hearings who is 
more loved than he is.
    In fact, the chairman said that 99 percent was nonpartisan 
in his past and talked about a few spirited conversations. I 
cannot remember any spirited conversations in the past that you 
and I have had.
    Chairman McCain. Peter can.
    [Laughter.]
    Senator Inhofe. No. That he and I have had. I understand 
that.
    Even at the time with the Big 4, I remember 2 years ago 
with the Big 4, we got to know each other pretty well. It was 
really a great experience.
    Anyone, if you just listen today to all of these people 
that are running for President of the United States, when they 
talk about the military and they talk about the Department of 
Defense, they talk about the Pentagon, they talk about waste, 
fraud, and abuse. In fact, that term was made by Senator Reed a 
minute ago. We hear a lot about that, and it is a very popular 
thing. But it seems like no one has ever really done anything 
about it maybe because we have never had anyone in this new 
position. I think the world of Beth McGrath, but she did not 
have the background that you do.
    Now, you have been in the trenches. You know these problems 
that exist. It is going to be a real tough thing for you to do. 
In reading the mission statement here, it said in 2008 DOD 
formally chartered the office of DCMO to better synchronize, 
integrate, and coordinate the business operations of the 
Department and ensure the optimum alignment and all that stuff. 
If there is anyone who has a background that is more conducive 
to that, it would be you.
    In your opening statement, you said that reductions should 
not take the form of across-the-board cuts. Cutting personnel 
without improving management processes or divesting functions 
will result in fewer people to do the same work, creating 
bottlenecks and backlogs that are counterproductive to the 
mission of the Department.
    I think everyone knows the easy thing to do is the meat axe 
approach. Then it is somebody else's problem. But you are going 
to have to--and you have already done this--deal with OSD [the 
Office of the Secretary of Defense], deal with the combatant 
commands. When they come and testify here or the ones that we 
talk to in the field, and they talk about what they could do, 
sometimes it is just not something that is really easy in our 
system.
    Does anything come to your mind now on how you are going to 
be able to focus these cuts and these efficiencies that we are 
depending upon you to do that specifically you are going to 
dive right in? You know the job, and you know about this from a 
position of knowledge. What are you going to be doing?
    Mr. Levine. Senator, you know I have never shied away from 
taking on a difficult problem. If confirmed, in the near future 
I will have about a year and a half to work with, and I figure 
I have to take on some very specific targets to identify five 
or six priorities to go after. The Deputy Secretary has already 
asked the DCMO to review the organization of OSD and to look 
for places where we have redundant or superfluous 
organizations, and we will continue that. I have a couple of 
areas that I want to look at specifically.
    I think the acquisition decision-making process is 
incredibly inefficient, and it has to be improved and it is not 
only too costly but it slows things down in a way that is 
counterproductive.
    I think that the civilian personnel system can be 
dramatically improved. We need to streamline processes and we 
need to look at organizations and make that process more 
efficient and less costly.
    There are several others like that, but I think that what I 
am going to have to do is to target specific issues and go 
after them and I intend to do that.
    Senator Inhofe. In a comment you made--I do not know if it 
was a response to a question or your opening statement. I 
cannot remember, but you talked about the one person who was 
predecessor in this job sometimes may not have had the support 
of the top management. I am going to ask you that if you run 
into that, you can come to us because I do not recall having 
heard from that office before that there were some problems. I 
would say this--and I think everyone here looking at it up here 
at this table--that if you are not getting the full support, 
there is one thing you can do about it and that is come to us 
and we will make sure you do get the full support. Is that all 
right?
    Mr. Levine. Yes, absolutely, Senator. I think that that is 
something that will help as I have to work with under 
secretaries and tell them that we are going to have to take on 
issues in their organizations or chiefs or deputy chiefs of 
staff. If they understand that the committee stands behind that 
and really wants these efficiency measures and really wants to 
make improvements necessary, that will be very helpful. Thank 
you.
    Senator Inhofe. That is good because they are going to have 
to know that we are behind you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    I was looking at the advance policy questions that have 
been submitted to you, and the first question is what is your 
understanding of the relationship between the Deputy Chief 
Management Officer and each of the following. I noted that 
there were at least 14 sets of individuals and their offices, 
everybody from the Secretary of Defense to the business 
transformation offices of the Military Departments. That is a 
lot of people that you are attempting to work with to do the 
kinds of modernization that you have told us you want to do.
    How many people do you have in your office to help you deal 
with 14 individuals and offices?
    Mr. Levine. I cannot remember. I think the staff of the 
DCMO is about 100 people.
    What I would say is, first of all, in listing all those 
people that the office has to deal with, your staff was very 
good and very thorough in putting together those advance policy 
questions.
    Second, I do think I have something of an advantage in 
taking it on in that from my work with the committee, I already 
know all those people that I will have to interface with and 
have worked with them over the years. I think that that will 
put me in a position to do that.
    Senator Hirono. I think those relationships are critical 
because anytime that you are dealing with folks who are already 
in place who are supposed to be doing many of the things that 
you are doing within their own Services, without that kind of 
relationship, they do not necessarily have to listen to you. I 
commend you for that.
    Now, going to acquisition reform, you said that it 
obviously needs to be much more efficient and less costly, and 
you said you would target specific issues in the area of 
acquisition reform and go after those. Could you tell us what 
your first specific target issue for acquisition reform would 
be?
    Mr. Levine. I need to be careful here because the Under 
Secretary of Defense for Acquisition Technology and Logistics 
is the acquisition policy official for the Department of 
Defense. The DCMO has a role here, as in other areas, in 
looking at process. We had a GAO report that the committee 
received recently that indicates that for a program manager of 
a major program in the Department to get a milestone decision 
can take 2 years and 2,000 man-hours. They may have to go to 
200 different offices to get their approval. That kind of 
process where you have to go to all these different offices--
the program managers should not have to do that. They are 
spending all their time briefing people and changing slides to 
get approval rather than working on the substance of the 
program. I think that process--without changing the acquisition 
policy, which this committee will do, the Under Secretary for 
Acquisition Technology will decide what the policy is. The 
process can be significantly improved, and I hope to work with 
Frank Kendall and others in the Department to do that.
    Senator Hirono. I am really hopeful that you will be able 
to move the ball because I know that the chairman has had all 
kinds of questions, as have many of us, regarding acquisition 
reform. It is not exactly transparent. For example, if you 
would be looking at things like contracts, the kind of 
contracts we put in place, the requirement process. Would you 
agree that the more specific we are as to what it is we want, 
that would limit the changes that we make that just add to the 
cost? There is a whole range of things that are very specific 
to the acquisition process, complicated as it is.
    Mr. Levine. Yes, Senator. There are a whole range of things 
like that that need improvement. This committee has made 
significant strides in the past, and I understand that the 
chairman has made it a priority to address that issue again 
this year. I know it continues to be a priority for the 
Department, and I will make whatever contribution I can if 
confirmed.
    Senator Hirono. We have had questions relating to 
cybersecurity. I think that is one of these most vulnerable 
areas of vulnerability across departments. Can you talk a 
little bit more about how you would make sure that DOD 
addresses is cybersecurity needs in an appropriate way?
    Mr. Levine. I should defer that question to my son who is 
the IT expert in the family.
    [Laughter.]
    The DCMO works closely with the Chief Information Officer 
(CIO), of the Department who really is more the technology 
person, the IT technology side. The DCMO is more on the 
business process side. If confirmed, I would work closely with 
Terry Halvorsen, who is the Chief Information Officer of the 
Department and is heavily focused on cybersecurity issues. One 
of the things that you look at in the chaotic systems 
environment the Department has where we have so many different 
systems run by so many different people is that that presents 
too many targets. One of the things that Mr. Halvorsen is 
working on is streamlining that system, consolidating, which 
not only enables you to be more efficient and have a better 
business process but also should enable a more secure 
environment.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Mr. Levine. Thank you, Senator.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Mr. Levine, I understand that you have been here for a long 
time, a lot longer than I have been. It would appear to me that 
before you would have made a major change moving from this side 
to that side, that you would have had a number of conversations 
with the individuals who will employ you and you would have had 
discussions about your capabilities and your ability to 
actually get the job done. I would like to explore just a 
little bit.
    You have indicated that, number one, as the DCMO you are 
going to be responsible for the processes, but I am just 
curious. In the discussions that you have had to convince you 
to want to do this job in the first place and one that I 
suspect might make you more frustrated than a former Governor 
coming into the U.S. Senate is----
    [Laughter.]
    Senator Rounds.--what did you receive in terms of an 
assurance of resources available to you, the assurances 
themselves that you would have the ability to get in and 
actually look at the different processes, open access, and 
finally your access to the guys who can hire and fire and make 
a difference? What types of discussions and where are you at 
right now in that process?
    Mr. Levine. When the Deputy Secretary, Secretary Work, 
talked to me about the job and asked me if I would do it, I 
said, so you want to make me the most unpopular person in the 
Pentagon. He said, yes, and I will be right there with you. 
That was the assurance that I needed that he understood that 
what the DCMO has to do is to go into basically other people's 
rice bowls and tell them they are not doing it right and they 
need to do it differently, and that is never going to be 
something that is popular in any organization and certainly not 
an organization like the Pentagon. He understands that that is 
what the DCMO needs to do and he said he stands fully behind it 
and will be absolutely supportive of it.
    I did not get any assurance of more resources, and I do not 
think that that would have been an appropriate--if there is 
some specific project that needs something, we will try to find 
resources within the Department and available resources. But I 
think that building a new office or a new bureaucracy is not 
the way you fight bureaucracy. We need to make use of the 
resources we have and not create some new structure to try to 
do that.
    Senator Rounds. Do you believe the resources that are 
available to you will be capable? Do you have the resources 
available to make a dent?
    Mr. Levine. Senator, I do not believe that the resources of 
the DCMO office alone are sufficient. I do not think that any 
one office could be sufficient for that. What I believe is that 
with the commitment of the Deputy Secretary, I will be able to 
draw on other offices in the Department and other expertise in 
the Department. For example, if we are going to look at 
acquisition, we are going to have to work with the acquisition 
people, with Frank Kendall and his organization, and the 
Service acquisition executives and their organizations. They do 
have expertise, and we are going to have to draw on that 
expertise. We are going to have to draw on expertise from the 
private sector through the Defense Business Board and other 
mechanisms that are available to do that. I think there are 
mechanisms to provide the support that we need and to provide 
the resources we need, but I do not think the answer is to 
build a huge new office.
    Senator Rounds. You indicated that when we talk about the 
chain of command, specifically you felt comfortable coming back 
to us. Do you think that under the current chain of command and 
the responsibility that you have to those individuals that will 
be your superiors, that you have access and that you believe 
you can come directly to this committee and ask for the 
resources or the assistance to get something done?
    Mr. Levine. I think that the Secretary and Deputy Secretary 
understand very well where I am coming from and the background 
that I have and understand the relationship I have with this 
committee and look at that as a positive rather than a 
negative. Yes, I do think that is the case.
    Senator Rounds. Thank you, sir.
    I yield back.
    Mr. Levine. Thank you, Senator.
    Chairman McCain. Senator McCaskill?
    Senator McCaskill. So many questions, so little time.
    Mr. Levine. Senator, it is very strange to see you all from 
this side.
    Senator McCaskill. I can imagine.
    Mr. Levine. I am seeing you face to face for the first 
time, rather than seeing the back of your heard.
    Senator McCaskill. I can imagine. My swivel, where I go 
first to Jason and then to Peter--I do not know how this is 
going to work out.
    First, I want to talk about the audit stuff. I was really 
disappointed when I found out in March that they have pulled 
the clean audit finding from the Marine Corps.
    Mr. Levine. Yes, Senator.
    Senator McCaskill. People that have been at this longer 
than I have, but I have certainly since the day I got here 
tried to figure out, coming in as a former auditor, how in the 
world we had gotten to the point that the Department of Defense 
was incapable of being audited.
    My false sense of optimism that the Marine Corps had 
finally come up with a clean audit, to now have it pulled 
because we found out about these suspense accounts at the 
Department of the Treasury, and now not only do we not have a 
clean audit of the Marine Corps, that is going to call into 
question the ability of us to get clean audits anywhere.
    Briefly, can you give me any sense of what we can do about 
fixing this suspense account problem at the Department of the 
Treasury for all of these commingling of funds that sound like 
to me funds that are looking for an appropriation but have not 
found them?
    Mr. Levine. Senator, I do not know the answer to that.
    Now, I do know that one of the even more troubling things 
about the Marine Corps audit is that I believe that it was a 
2011 clean audit that got the clean opinion, which means that 
we have done 2012, 2013, and 2014, and now we are told that we 
have the problem. Not only is the 2011 audit not good, but that 
means that the subsequent audits would not be good either. I do 
not know why it took us 4 years to get to the point where that 
problem was discovered.
    Senator McCaskill. Could you find the answer to that 
question?
    Mr. Levine. Yes, Senator. If confirmed, I will look into 
that and get back to you on that.
    Senator McCaskill. I would really like to know the answer 
to that because the fact that it took them years--I cannot 
figure out why this is so hard.
    Mr. Levine. It seems to me that if there was a problem with 
the 2011 audit, we should have known that in 2012, and we would 
have been working on it for 3 years by now and figuring out how 
to get traceability and fix it. We should not be hitting the 
point in 2015 where we learn about the problem. All I can say 
is I do not understand it, and if confirmed, I will look into 
that and get back to you about it.
    Senator McCaskill. I also want to make a comment that I am 
hopeful that no matter who gains the White House in 2016, 
regardless of which party, that I am hopeful that the work that 
you have done on this committee will serve you well and 
hopefully the next commander in chief would want to utilize 
continually your expertise that you have. You just start so 
much further down the line than anybody else who would take 
this job because of your incredible working knowledge of the 
labyrinth that is the process of acquisition and how they spend 
money and the way they mess it up. I just hope that you stick 
around.
    I know you cannot get this done in a year and a half, but I 
am still going to keep banging about this contractor manpower 
thing. We had the hearing back in 2012. You remember it. In 
July of last year, I sent a letter to the Department asking for 
specific information about the implementing of a department-
wide contractor manpower reporting application. We have to know 
what we are buying through contractors, and we need to know it 
department-wide. We cannot evaluate whether or not we are 
getting a good deal with contractors or a bad deal with 
contractors if we do not even know how many contractors we 
have. I really would like you and would like a commitment from 
you today that you would at least help me figure out what the 
stall is here. Why is this so hard? If you would comment on 
that, I would appreciate it.
    Mr. Levine. Yes, Senator. We have this requirement for a 
contractor inventory, for an inventory of the service 
contractors working for the Department. I know this is an issue 
that is important to Senator Manchin as well.
    There is an inventory system in place. It does produce a 
number. I checked yesterday and I was told that the number of 
service contractors we currently have working for the 
Department of Defense is 629,000. In fact, it was not just 
629,000. It was 629,000 and so many hundred and such. It was a 
very precise number.
    The problem, now that I have told you that there is a 
number, is accuracy as with so many of the Department systems. 
Contractors are hard to count, and the universe of contractors 
is hard to define because when you are doing service contracts, 
we have times when we hire service contracts by the person, and 
so we have a number of people. You also have places where you 
hire for a result. If you have an elevator maintenance 
contract, you do not care whether you have six people working 
on it or five. You are contracting to have the elevator 
operating. We have places where it is easier to count and 
places where it is harder to count.
    We have different systems of counting in the different 
Military Departments. The Army has a system where they go out 
and they put as a term of all their contracts with service 
contractors, you have to tell us how many people you working on 
it. The other Military Departments have a conversion factor 
where they say we are spending this number of dollars. We 
figure it must be this number of people.
    The number sounds very precise, but it is a lot less 
precise than it sounds because of the techniques that they use 
to gather that information.
    Senator McCaskill. Exact numbers may not be as important as 
the ability to compare apples to apples, branch to branch, 
Service to Service, whether or not we are getting value. If the 
elevator operators that are maintaining elevators in the Army 
are making three times as much as the elevator operators that 
are maintaining elevators for the Navy, we need to know that. 
That is why this inventory is so important.
    Mr. Levine. You need to have more information, not just 
about how many you have but how you are hiring them and whether 
you are hiring them in the right way. Yes, Senator, I agree.
    Senator McCaskill. Okay. Get to work. We will be watching.
    Mr. Levine. Thank you, Senator.
    Chairman McCain. Senator King, can you follow that act?
    Senator King. Thank you, Mr. Chair.
    Peter, I would like to talk about two versions, one about 
personnel and the other about purchasing and contracts, which 
we have been talking about.
    Often I think it is as much about process as it is policy. 
An example of this is personnel management. What do you think 
about human resources [HR] reform within the Department of 
Defense, and what can Congress do to help facilitate more 
efficient HR practices?
    Mr. Levine. The Defense Business Board reported earlier 
this year that the human resources area is an area where they 
think that there are significant efficiencies that can be 
achieved by the Department, that it is an area where we have 
too many layers of management, too many managers with a small 
span of control. You have one person, for example, managing 
three people, and those people managing five people. You have 
too many layers of middle management. That is something we are 
going to have to look at.
    We are also going to have to look at efficiencies of 
specific processes. We have a civilian hiring process, and I am 
told it takes at least 6 months and maybe 8 months or more to 
hire a single individual to work at the Department of Defense. 
That is just crazy. You lose some of the most talented 
individuals you are trying to hire because you cannot offer 
them a job even though you know you want them to come work for 
you.
    Senator King. This is a problem throughout Government.
    Mr. Levine. It is a problem throughout Government.
    Senator King. When you layer on the security clearance 
part, it could go up to 2 years.
    Mr. Levine. Yes. The security clearance is hard to deal 
with. There are changes that we are looking at in that area 
that this committee has asked the Department to look at with 
what is called a continual security clearance process.
    But I think there are significant improvements also that 
can be made in the hiring process, and this relates to the 
issue of sort of too much bureaucracy. If you add in extra 
layers, then your different human resources offices spend time 
negotiating with each other instead of getting the job done, 
and we need to cut out some of those middle boxes and simplify 
the process.
    Senator King. I take it that you see this as part of your 
responsibility to build a team to tackle this particular 
problem?
    Mr. Levine. Absolutely, Senator.
    Senator King. We have talked about contracting and 
procurement. I have a modest suggestion that I utilized when I 
was Governor, which is pick some typical cases. Take five or 
six different cases from the mundane--you know, Fort Bragg 
needs five new sinks in their kitchens to acquisition of a tank 
or something larger--and ask your people to prepare a 
chronology of all the steps necessary so that you can see it. 
Rather than talking in the abstract, you are saying, okay, why 
did it take 12 approvals to buy a sink? The same thing with 
services. I have found they can blow the smoke at you when you 
are talking in generalities, but when you say why did it take 
this long to get this printer in this office--specific cases.
    I used to also call the 800 numbers for the public and see 
who answers, how long does it take, what do they tell you. I 
will never forget calling the tourism office in Maine. 
Everything went fine until they said we will send you a 
brochure in 3 to 6 weeks and it was June. In 3 to 6 weeks in 
Maine, the summer is over.
    [Laughter.]
    Senator King. The point is you learn from reaching into in 
a direct kind of way. I hope you will try out some of those.
    Mr. Levine. Senator, I am going to have to chose my targets 
carefully with a limited amount of time, but one of the targets 
I hope to chose is the acquisition process and particularly the 
acquisition milestone decision-making process that we use for 
major weapon systems. I think you are exactly right, that what 
we are going to need to do is we hear that program managers 
have to go to 200 different offices we are going to have to 
document for several programs.
    Senator King. Take a real life case.
    Mr. Levine. It may be one from each of the services or 
something. Who is it you have to go to? What does this process 
actually look like when you diagram it so that we can say you 
cannot do that anymore. It cannot be that complicated.
    Senator King. This may be a moment in time where the stars 
are literally aligned, starting with the chairman of this 
committee to Ash Carter to Frank Kendall to you. That is a very 
special constellation of people who are very aware of this 
problem and that it has to be addressed. We may not have an 
opportunity like this for years. I hope that you will be a real 
irritant on this subject. As I mentioned to you yesterday, you 
do not want to look back 10 years from now and say, gee, I wish 
I had pushed on this.
    Mr. Levine. Senator, some people tell me I am too good at 
being an irritant. But, yes, I will do my best.
    Senator King. I had that experience once in a court where I 
said, Judge, I do not want to beat my head against a stone 
wall. He said, Attorney King, I know of no one in Maine better 
qualified for that. [Laughter.]
    I appreciate your willingness to take this on, and I do 
hope you will view this as an extraordinary opportunity. 
Working with a great team, and with the support of this 
committee, I think some good things can be done for America 
both in terms of security and in terms of our taxpayers. Thank 
you.
    Mr. Levine. I appreciate that. Thank you, Senator.
    Chairman McCain. An incredibly wise judge.
    Senator Ayotte?
    Senator Ayotte. First of all, Peter, I am so thrilled that 
you are going to be nominated for this. I have been so 
impressed with your work on SASC. The Department is very 
fortunate to have someone of your caliber to go over and serve 
there. I am really enthusiastically looking forward to voting 
for you and I am very glad that you have translated your 
service in the Senate over to help and take that knowledge over 
to the Department of Defense.
    Mr. Levine. Thank you, Senator.
    Senator Ayotte. Thank you, and thank you to your family for 
all the sacrifices they have made over the years for many of us 
on SASC and all the questions we have asked. We appreciate it.
    I know that many of the questions that I had have already 
been asked, I am looking forward to your spending some time on 
the high risk list that GAO puts together and really focusing 
on that and trying to address some of those concerns. I know 
that that has already been directed at you.
    Mr. Levine. Yes, Senator. That will be a priority.
    Senator Ayotte. One of the things I think we have struggled 
with here and thought about is just the size of management and 
headquarters organization at the Department of Defense. It has 
really grown fairly significantly over the last 15 years. Given 
the challenges that we are facing in terms of resourcing and 
what we need to do to defend the Nation, I wanted to get your 
thoughts on how the size, the composition at the Department of 
Defense management headquarters--what thoughts you have to make 
that more efficient. Is it the right size or should we be 
looking at shifting what happens there?
    Mr. Levine. Senator, I think that, first of all, it cannot 
be the right size. We have to make it more efficient. We have 
to make it smaller. We have to find cuts. I think that is hard 
to do. It is hard to get your arms around management 
headquarters at the Department. You have shifting definitions. 
I know there is a case that Senator McCain was concerned about, 
for example, where the Air Force claimed to have downsized some 
of its headquarters, and apparently they moved something to a 
separate command or created a separate command to do it. That 
kind of thing does happen, you know, changing definitions so 
you do not have to change the numbers.
    I believe we have to change the processes. We have to 
change the structures, and we have to find things that we have 
been doing that we can either do better or not do at all. That 
to me is the core is to take on those issues. But we have to 
get smaller.
    Senator Ayotte. Terrific.
    I think so too especially as you look at just the growth in 
the size and obviously the priorities that we need to have and 
what we are trying to accomplish. I think all of us are looking 
forward to working with you I in this new position, and I look 
forward to enthusiastically supporting you. Thank you for your 
willingness to do this. I appreciate it.
    Mr. Levine. Thank you, Senator. I, of course, can come talk 
to you anytime if you have specific concerns in these areas as 
we go forward.
    Senator Ayotte. Terrific. Thank you.
    Chairman McCain. Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman.
    Again, Mr. Levine, Peter for me, thank you for the service 
you have given to this body in the Senate and to this committee 
for many, many years. We really, all of us, I think in a 
bipartisan way leaned on you pretty heavy, and you did a great 
job.
    Mr. Levine. Thank you, Senator.
    Senator Manchin. I want to thank you for taking that 
experience level that you have to this next level. You could 
have very easily have taken another path. But staying in what 
you know and what you have been able to do over the years, 
knowing our concerns, means a great deal to all of us on this 
committee, and we thank you on behalf of the committee.
    Let me just say that, Peter, every time we have talked and 
we get the money crunch, it is all a reduction of staff. I 
always hear about reduction of staff. We throw the frontline 
soldier out there first. I know you have heard the concerns we 
have had, and you and I have talked about contracting, 
procurements, all the things and the waste that we have. There 
is not a person who does not want to defend this country and 
make sure that we support our troops.
    With that being said, I have been particularly concerned 
with the growth of the headquarters staff. Every time we talk 
about reduction of staff, no one ever talks about headquarters 
staff in light of the drawdown of what we are talking about in 
the military services. It is sometimes hard to get visibility 
as to whether their cuts to headquarters staffs are actually 
creating more efficient organizations or simply reshuffling the 
deck chairs on the Titanic.
    Is that something in your bailiwick that you will be able 
to get a hold of?
    Mr. Levine. It will be, Senator. The Deputy Secretary has 
asked the DCMO office, as I understand it, to review the Office 
of the Secretary of Defense, which is I guess--I do not know 
the number--somewhere in the order of 2,000-3,000 people and 
figure out where there can be cuts made. Now, that is civilian 
personnel in the Office of the Secretary of Defense. This is 
one of the misleading things about management in headquarters 
is that, of course, there is contract support and there are 
other support elements in there that you do not see on the 
surface. But I expect it is something that we will look at 
actively and see where we can bring it down. Not just the 
Office of the Secretary of Defense because one of the problems 
with the Department is we have so many different management 
headquarters, and we need to focus on all of them.
    Senator Manchin. Let me just say this. I do not want to 
take a lot of time. You know, when you look at the support and 
look what is going on, we spend--what--$600 billion, $650 
billion on defense right now. When you look at all the other 
countries combined and where we are--we are a superpower and we 
want to remain that superpower and we want to make sure that 
our people are the best trained, best equipped, and have the 
latest technology. We are always on the vision of the cutting 
edge of what is the next technology we need to keep world 
peace. I am in favor of every bit of that.
    I have to look people in the eye in West Virginia and 
basically say, well, we have to cut here, here, and here 
because we had to spend here, here, and here. Efficiencies. 
Without the audits, without knowing what is going on, without 
proving business decisions, running an organization, the 
largest in the world, the size of the Pentagon, it is going to 
take tough management. Someone is going to bite the bullet 
here.
    When you come back to us and say, listen, we have looked at 
everything humanly possible and with all of our incurred costs, 
we just cannot, that is fine. But if there are ways to run it 
better--and that is where I think there is more efficiencies to 
be gotten out of this, that is what I am looking for.
    Mr. Levine. Yes, Senator. You have had the testimony before 
the committee of the Service Chiefs telling you that with the 
sequestration level budgets, we do not have the money to 
support the force structure we have now. Absolutely, wherever 
we can find efficiencies, wherever we can get savings from the 
infrastructure and the support services, we need to do that.
    Senator Manchin. When I look at the Guard, being a former 
Governor--and I know Senator King being a former Governor--we 
are really fond of our Guard because of what we ask them to do 
every day. This is not the Guard that we knew. This is not the 
Guard of 20 years ago. This is a whole different Guard. They 
are going on the front lines prepared, ready to go. I do not 
know why we do not utilize them more for cost savings than 
going into the contracting route that we have gone. That just 
does not make any sense to me. I am anxious to get that report. 
I know that Senator McCaskill asked you about that.
    Mr. Levine. Yes. Of course, you have the Independent 
Commission on the Army which will be looking at that issue and 
coming back to you within the next year or so.
    Senator Manchin. Thank you.
    Chairman McCain. Senator Reed?
    Senator Reed. I have one final question. Senator McCain and 
I were talking back forth about how we have told the Pentagon 
to get an audit. The question is there are agencies--and 
Senator McCain reminded me--Homeland Security has a private 
outside auditor that comes in. But I think we are jumping over 
a basic question which is can the Department of Defense be 
audited? Has anyone ever asked the outside experts to come in 
and just answer the first question, i.e., yes, it can be 
audited but you have to have these changes, these changes, 
these changes, these changes? I think we have assumed it is 
auditable, and then you have not been able to do it. It is 
frustrating. Will one of the first questions you ask be, can we 
audit this place?
    Mr. Levine. Back in 2001 or 2002, I helped write a piece of 
legislation, advised the committee on a piece of legislation 
which said essentially do not even try to audit the Pentagon 
right now. What it said is you need to determine that you are 
at a state where your books and records are in a good enough 
shape that it is worth hiring an auditor and spending the money 
on an auditor before you plunge money into that because right 
now they are so bad that you are just sending good money after 
bad. You cannot do it right now.
    There is now a process, which we have in law and it has 
been in law for several years, which says the Department has to 
assert that they are audit-ready before they can spend money 
for auditors. They are now reaching a point where they are 
willing to make those assertions. As I say, there has been a 
definite progress over that period of time. We are not where we 
need to be.
    Frankly, I think that one of the things that the committee 
needs to think about and the Department needs to think about is 
if I am right and we do not make the 2017 deadline, how do we 
keep that pressure on after 2017 because the 2017 deadline has 
put some real pressure on the Department to make improvements. 
But you have to think, okay, so if you get to 2017 and it did 
not happen, how do we make sure that the same pressure remains 
on in 2018 and we do not just say, well, we blew it, now we are 
going to give up and go home because we cannot afford to do 
that.
    Senator Reed. Just a final quick point. I thank the 
chairman for his indulgence.
    That process is sort of self-certification. We are ready.
    Mr. Levine. Right.
    Senator Reed. Would it not make sense to have a private 
auditor to come in and say, yes, they are ready, we have looked 
at it, the systems are in place, et cetera? Because I think 
some of the problems are, ala the Marine Corps, we are ready.
    Mr. Levine. The Comptroller is working with major 
accounting firms on that exact process. In fact, one of the 
issues they have had over time is they have to have audit firms 
consult with them on that issue. They are also going to have 
independent audit firms come in and help in the audit when it 
takes place. They have to make sure they get them lined up so 
that they are not all conflicted out because they have to have 
both audit firms to advise them and audit firms to conduct the 
audit. But, yes, they are doing that.
    Senator Reed. Thank you.
    Chairman McCain. Just to pursue that line again, I see 
nothing wrong with bringing in an outside auditor to look at 
the whole situation and see if they cannot do the auditing. The 
Department of Homeland Security somehow was able to get 
audited--they are a pretty big organization--by an outside 
auditor. They have been screwing around for 15 years now.
    Mr. Levine. We have to get it done. I agree with you, 
Senator.
    Chairman McCain. An outside auditor I think is at least an 
option that we ought to explore or even try.
    I congratulate you again on your appointment. We look 
forward to working with you. I want to assure you the next 
hearing will not be nearly as pleasant as this one was.
    [Laughter.]
    We congratulate you and also appreciate you very much, and 
congratulations to your wonderful family.
    The hearing is adjourned.
    [Whereupon, at 10:32 a.m., the committee adjourned.]

    [Prepared questions submitted to Mr. Peter K. Levine by 
Chairman McCain prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                             relationships
    Question. What is your understanding of the relationship between 
the Deputy Chief Management Officer of the Department of Defense and 
each of the following?
    The Secretary of Defense.
    Answer. The Secretary of Defense is responsible for all programs 
and activities of the Department of Defense. Accordingly, the Deputy 
Chief Management Officer (DCMO) is responsible and accountable to the 
Secretary in the performance of his duties. In addition, as a result of 
a recent reorganization within the staff of the Office of the Secretary 
of Defense (OSD), the DCMO is directly responsible to the Secretary for 
the management and support of the OSD staff; the management and 
protection of the Pentagon reservation; and selected intelligence 
oversight matters.
    Question. The Deputy Secretary of Defense.
    Answer. Under section 132 of title 10, U.S.C., the Deputy Secretary 
of Defense serves as the Chief Management Officer (CMO) of the 
Department of Defense. Section 132a provides that the DCMO shall assist 
the Deputy Secretary in the performance of his duties as CMO. The 
Deputy Secretary of Defense has delegated duties and authorities to the 
DCMO to assist in effectively and efficiently organizing the business 
operations of the Department.
    Question. The Defense Business Systems Management Committee 
(DBSMC).
    Answer. I understand that section 901(c) of the Carl Levin and 
Howard P. `Buck' McKeon National Defense Authorization Act for fiscal 
year 2015 repealed the requirement for the DBSMC. The functions of the 
DBSMC have been absorbed as a part of the Deputy's Management Advisory 
Group (DMAG). Business reform, DOD strategy and budget discussions are 
all subjects of the DMAG. The DMAG is co-chaired by the Deputy 
Secretary of Defense and the Vice Chairman of the Joint Chiefs of Staff 
and includes as members the Under Secretaries of the military 
departments, the military vice chiefs, and key OSD staff. If confirmed, 
I would serve as a voting member of the DMAG and would be responsible 
for bringing business management agenda items to the DMAG.
    Question. The Under Secretary of Defense for Financial Management 
(Comptroller).
    Answer. The DCMO works with the Comptroller to improve the 
financial management of the Department and move toward an auditable 
financial statement by improving the business systems and processes of 
the Department.
    Question. The Other Under Secretaries of Defense.
    Answer. The DCMO works with the Under Secretaries to review and 
improve key business processes, modernize business systems, and 
implement Department-wide management initiatives. The DCMO is currently 
working with the Under Secretaries to carry out the Business Process 
and Systems Review (BPSR) directed by the Deputy Secretary of Defense.
    Question. The Assistant Secretaries of Defense.
    Answer. The DCMO works with the Assistant Secretaries to modernize 
and improve the business systems and processes of the Department of 
Defense.
    Question. The Secretaries of the Military Departments.
    Answer. If confirmed, I expect to work closely with the Secretaries 
of the military departments to ensure that the business management and 
modernization objectives of the Secretary of Defense and the Deputy 
Secretary of Defense are carried out by the military departments.
    Question. The Chief Management Officers of the Military 
Departments.
    Answer. The Under Secretaries of the military departments serve as 
the CMOs of their respective organizations and, as such, have 
enterprise responsibility for overseeing business operations within 
their departments. The Office of the DCMO interacts routinely with 
these officials on business transformation initiatives. If confirmed, I 
expect to work closely with the CMOs of the military departments to 
carry out the business management and modernization objectives of the 
Secretary and the Deputy Secretary.
    Question. The Investment Review Boards of the Military Departments.
    Answer. The DCMO provides direction and guidance to the pre-
certification authorities of the military departments to ensure the 
consistency and rigor of the investment management process throughout 
the Department. The Defense Business Council, which is co-chaired by 
the DCMO and the CIO, reviews of the results of the service investment 
reviews.
    Question. The Comptrollers of the Military Departments.
    Answer. The DCMO works with the Comptrollers of the military 
departments to modernize financial systems and processes, and ensure 
that business modernization efforts within their areas of 
responsibility are carried out in a manner consistent with the goals 
and objectives established by the Secretary and the Deputy Secretary. 
The DCMO also serves as a member of the Financial Improvement and Audit 
Readiness Governance Board. In this capacity, the DCMO works with the 
Comptrollers of the military departments to further their efforts 
toward achieving financial audit readiness.
    Question. The Business Transformation Offices of the Military 
Departments.
    Answer. The Under Secretaries of the military departments, in their 
capacity as CMOs, oversee the business transformation offices (BTOs) of 
their respective departments. The DCMO works with the CMOs and the BTOs 
to ensure that the military departments carry out the business 
management and modernization objectives of the Secretary and the Deputy 
Secretary.
    Question. The Inspector General of the Department of Defense.
    Answer. The DCMO responds to inquiries and recommendations of the 
Government Accountability Office and the DOD Inspector General relative 
to defense business operations and the operation of the Office of the 
DCMO.
    Question. The General Counsel of the Department of Defense.
    Answer. The DCMO receives legal advice and guidance from the 
General Counsel of the Department of Defense on matters relating to 
defense business operations and the operation of the Office of the 
DCMO.
    Question. The Directors of the Defense Agencies.
    Answer. Under a recent OSD reorganization, the DCMO is responsible 
for two Defense Agencies, the Washington Headquarters Service and the 
Pentagon Force Protection Agency. The DCMO works with other Defense 
agencies to further the Department's business transformation goals.
             duties of the deputy chief management officer
    Question. Section 132 of title 10, U.S.C., provides that the Deputy 
Secretary of Defense serves as the Chief Management Officer (CMO) of 
the Department of Defense. The Deputy Secretary is to be assisted in 
this capacity by a Deputy Chief Management Officer (DCMO). The NDAA for 
fiscal year 2015 includes several changes to the CMO and DCMO structure 
scheduled to take effect in 2017.
    What is your understanding of the duties and responsibilities of 
the CMO and DCMO of the Department of Defense?
    Answer. The duties and responsibilities of the CMO and DCMO, as 
prescribed by the Secretary of Defense, are to: (a) ensure that the 
Department can carry out its strategic improvement plans; (b) ensure 
that the core business missions of the Department are optimally aligned 
to support the warfighting mission; (c) establish performance goals and 
measures for improving and evaluating overall economy, efficiency, and 
effectiveness and monitor and measure the progress of the Department; 
and (d) develop and maintain a Department-wide strategic plan for 
business reform. In general, the duty of the DCMO is to assist the CMO 
in carrying out those objectives and, if delegated, assume primary 
responsibility for those functions. As a result of a recent OSD staff 
reorganization, the DCMO is also accountable to the Secretary of 
Defense for the effective organization and operation of the OSD staff; 
the effective operation and protection of the Pentagon reservation; and 
for the execution of select intelligence oversight responsibilities.
    Question. What specific duties and responsibilities do you expect 
the Deputy Secretary to assign to you in your capacity as DCMO?
    Answer. I understand that the Deputy Secretary has directed the 
DCMO to conduct a review of the organizations and business processes of 
the Office of the Secretary of Defense (OSD) and the defense agencies, 
with the objective of streamlining organizations and improving business 
processes. I expect that the Deputy Secretary may also direct the DCMO, 
in coordination with the CMOs of the military departments, to ensure 
that similar reviews are conducted by the military departments. If 
confirmed, I expect to play a key role in these efforts.
    Question. What background and expertise do you possess that you 
believe qualify you to perform these duties and responsibilities?
    Answer. For the last 18 years, I have served on the staff of the 
Senate Armed Services Committee as minority counsel, General Counsel, 
and Staff Director. In this capacity, I have helped to advise committee 
members on defense management issues, including the committee's 
oversight of DOD business systems and processes. I have also 
participated in committee reviews of previous efforts to streamline 
business processes and achieve management efficiencies in OSD and the 
military departments. Through this work, I have developed a familiarity 
with key DOD organizations and business processes and I have worked 
closely with DOD leaders responsible for managing and overseeing those 
organizations and processes. I believe that the knowledge and 
experience I have gained through my work for the Armed Services 
Committee provides a solid foundation for the work I will be asked to 
perform as DCMO.
    Question. Do you believe that the CMO and DCMO have the resources 
and authority needed to carry out the business transformation of the 
Department of Defense?
    Answer. I do not believe that any one component of the Department 
of Defense has the resources, knowledge, and capabilities necessary to 
carry out the comprehensive business transformation that the Department 
needs. However, I believe that the DCMO, with the support of the Deputy 
Secretary, has both the capacity to bring together needed resources, 
knowledge, and capabilities from key organizations throughout the 
Department and the authority to direct those resources as necessary to 
carry out the business transformation effort.
    Question. What role do you believe the CMO and DCMO of the 
Department of Defense should play in the planning, development, and 
implementation of specific business systems by the military 
departments?
    Answer. I believe that the military departments should retain full 
responsibility for planning, developing and implementing their own 
specific business systems. Oversight for the acquisition of new 
business systems has been delegated to the Under Secretary of Defense 
for Acquisition, Technology, and Logistics, not the DCMO. The role of 
the CMO and the DCMO is to ensure that the military departments conduct 
appropriate business process reengineering before acquiring new systems 
or modernizing existing systems, that appropriate governance processes 
are in place to keep the customization of commercial, off-the-shelf 
business systems to a minimum, and that new and existing business 
systems of the military department are consistent with the business 
enterprise architecture of the Department of Defense. The CMO and the 
DCMO can also play an important role in identifying gaps and 
deficiencies in the business systems and processes of the military 
departments and components and ensuring that the military departments 
and components work to address those gaps and deficiencies in an 
expeditious manner.
    Question. Do you believe that the DCMO should have clearly defined 
decisionmaking authorities, or should the DCMO serve exclusively as an 
advisor to the Deputy Secretary in his capacity as CMO?
    Answer. I understand that the DCMO has some statutorily-assigned 
decisionmaking authorities, particularly in the investment review 
process conducted pursuant to section 2222 of title 10, U.S.C.. The 
DCMO may be assigned additional decisionmaking responsibilities by the 
Deputy Secretary of Defense. However, I believe that the DCMO can only 
be effective if he works closely with the Deputy Secretary and has the 
full support of the Deputy Secretary in his capacity as CMO.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the DCMO?
    Answer. I believe that the two major challenges facing the DCMO 
are: (1) to help the Department achieve the management efficiencies and 
savings that it will continue to need in an austere budget environment; 
and (2) to help the Department implement the business systems and 
processes needed to produce a clean audit and provide senior managers 
with sound information on which to base management decisions.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. With regard to the first challenge, if confirmed I expect 
to play a key role in carrying out the review of management 
organizations and processes directed by the Deputy Secretary. This 
review provides an important opportunity to streamline management 
organizations, align resources with priorities, and improve business 
processes throughout the Department. It should also provide an 
opportunity to identify and address DOD business processes that have 
become dysfunctional--taking too long, costing too much, and producing 
less than optimal results. It is my hope that this review will not only 
result in significant savings, but also in more effective management 
and improved outcomes.
    With regard to the second challenge, the military departments and 
defense agencies have already committed to major investments in new 
business systems. In the limited time remaining in this Administration, 
dramatic changes of course for these investments would probably be 
counterproductive. However, I believe that that the DCMO can help 
optimize ongoing investments by enforcing the investment review process 
and ensuring that the military departments and defense agencies 
continue to reengineer and improve their business processes, institute 
appropriate governance structures to minimize customization of 
commercial, off-the-shelf systems, and take full advantage of the 
capabilities of their new and existing business systems.
                               priorities
    Question. What broad priorities would you establish, if confirmed, 
with respect to issues which must be addressed by the DCMO?
    Answer. My top priorities, if confirmed, will be to address the two 
major challenges addressed in response to the previous question: 
achieving management efficiencies and improving the business systems 
and processes of the Department.
                            management goals
    Question. If confirmed, what key management performance goals would 
you want to accomplish, and what standards or metrics would you use to 
judge whether you have accomplished them?
    Answer. If confirmed, I expect to focus on maintaining and 
improving support to the Department in its business operations while 
reducing the overall cost of those operations. I would expect to 
develop standards or metrics based on savings and on customer-oriented 
results per unit of cost expended to achieve the results. I understand 
that the ongoing benchmarking initiative implemented by OMB contains 
some relevant metrics that could serve as examples, such as the cost of 
human resource support per population supported.
    Question. The GPRA Modernization Act of 2010 (GPRAMA) makes the 
Deputy Secretary of Defense--as the Chief Management Office (CMO) and 
Chief Operating Officer (COO)--responsible for improving the management 
and performance of the department. The Deputy Chief Management Officer 
(DCMO) serves as the agency Performance Improvement Officer under 
GPRAMA and is to advise and assist the CMO in areas such as performance 
planning and measurement.
    If confirmed, what actions would you and your office take to 
prioritize as well as improve DOD's ability to plan for and manage 
achievement of performance goals across the department?
    Answer. I understand that Office of the DCMO has started to reform 
performance goals to ensure they are more appropriately aligned to the 
Department's objectives. I am not yet in a position to judge the 
effectiveness of that effort. If confirmed, I expect to use my role as 
the DCMO and as a member of the DMAG to advocate alignment of measures 
to the Department's priorities.
    Question. As required by GPRA Modernization Act of 2010, the 
Administration has established certain cross agency priority goals, 
such as benchmarking of mission support operations, cybersecurity, and 
security clearances, to which DOD must contribute.
    If confirmed, what actions would you take to ensure that DOD is 
contributing to government-wide success on cross agency priority goals?
    Answer. I understand that one of the duties of the DCMO is to serve 
as the Department's representative to the President's Management 
Council, which has responsibility for cross-agency priority goals. If 
confirmed, I expect to coordinate DOD support for appropriate cross-
agency goals to ensure the success of both the Department and the 
success of the broader Federal agency community.
    Question. In July 2008, DOD issued its first Strategic Management 
Plan, which was intended to serve as the department's highest-level 
plan for improving defense business operations. This plan and its 
subsequent iterations were to outline DOD's priority business goals, 
objectives, measures, and initiatives, and advance the department's 
performance management activities. They were also to be aligned with 
the Quadrennial Defense Review and the Performance Budget. However, 
DOD's Strategic Management Plan has not fully met these expectations 
nor does it fully meet the GPRAMA requirement of an Agency Strategic 
Plan to be issued by 2014.
    If confirmed, what actions would you and your office take to ensure 
the timely development of a department-wide strategic plan that can 
effectively improve business operations while support the warfighter 
during an environment of continued budget austerity?
    Answer. I understand that work is underway on a revised Agency 
Strategic Plan that more closely conforms to the GPRAMA requirements. 
If confirmed, I will work with the Department to complete this plan and 
improve the Department's ability to objectively assess its performance 
and ensure that resources are applied to key challenges.
                         staffing and resources
    Question. The NDAA for fiscal year 2014 contains a provision 
requiring the Secretary of Defense to develop a plan for streamlining 
Department of Defense management headquarters by reducing the size of 
staffs, eliminating tiers of management, cutting functions that provide 
little or no addition value, and consolidating overlapping and 
duplicative program offices.
    GAO has recently reported that ``DOD's data on its headquarters 
personnel lacked the completeness and reliability necessary for use in 
making efficiency assessments and decisions.'' Further, that ``DOD did 
not have an accurate accounting of resources being devoted to 
management headquarters to use a starting point for tracking reductions 
to such headquarters.''
    In your view, is the GAO correct? If so and if confirmed, what will 
you do to address these issues?
    Answer. I believe that the GAO conclusions quoted above are 
correct. As I understand it, the statutory baseline for measuring the 
size of DOD management headquarters was established in the 1990s and 
was not as clearly defined as it should have been even then. With the 
extensive changes to DOD organizational structures that have taken 
place over the last two decades, measurements against the original 
baseline would probably not be meaningful even if they were possible.
    In my view, the meaningful measurement of DOD streamlining efforts 
will require the establishment of a new baseline that is relevant to 
the Department's current management structure. It is my understanding 
that, as a part of the review directed by the Deputy Secretary, the 
DCMO has begun to collect data that could be used to establish such a 
baseline. If confirmed, I will endeavor to carry forward this process.
    Question. What is your view on reductions to the size and 
composition of Department of Defense management headquarters?
    Answer. I believe that significant reductions to the size and 
composition of DOD management headquarters are not only possible, but 
essential. Ideally, cuts should be made not only at headquarters, but 
through entire management processes. However, I do not believe that 
reductions should take the form of across-the-board cuts. Cutting 
management personnel without improving management processes will result 
in fewer people to do the same work, creating bottlenecks and backlogs 
that are counterproductive to the mission of the Department.
    I do not believe that there are any significant management 
processes in the Department of Defense that cannot be streamlined and 
made more efficient. Making process changes will be difficult and time-
consuming and may require changes to the culture of the Department of 
Defense. However, significant improvements can and should be made to 
enable the Department to reduce the size and composition of its 
management headquarters and achieve savings without undermining the 
mission.
    Question. What role do you expect to play, if confirmed, in 
ensuring savings are achieved?
    Answer. If confirmed, I expect to help direct the Deputy 
Secretary's initiative to streamline the management processes of the 
Department of Defense. This initiative should provide an opportunity to 
achieve the reductions in the size and composition of DOD management 
headquarters described above.
    Question. Do you believe that the Department of Defense can achieve 
significant additional savings in this area?
    Answer. Yes.
    Question. What types of expertise do you believe the office of the 
DCMO needs to effectively carry out its mission?
    Answer. The DCMO needs expertise in business systems, business 
process reengineering, business case analysis, and program assessment. 
It also needs personnel with a thorough understanding of the 
organization and business processes of the Department of Defense.
    Question. What mix of employees, contractors, and individuals 
detailed from other organizations inside and outside the Department of 
Defense should the DCMO rely upon to provide it with needed expertise?
    Answer. I understand that the office of the DCMO has some organic 
capacity and some contractor support in each of the areas described in 
response to the previous question. To successfully streamline the 
Department's management processes, the office will need to draw on 
other centers of expertise in the Department and to partner with the 
principal offices responsible for the management processes under 
consideration.
    Question. Do you believe the Office of the DCMO has the staffing 
and resources needed to effectively carry out its mission?
    Answer. I do not believe that any one component of the Department 
of Defense has the resources, knowledge, and capabilities necessary to 
carry out the comprehensive business transformation that the Department 
needs. However, I believe that the DCMO, with the support of the Deputy 
Secretary, has both the capacity to bring together needed resources, 
knowledge, and capabilities from key organizations throughout the 
Department and the authority to direct those resources as necessary to 
carry out the business transformation effort.
   under secretary of defense for business management and information
    Question. The Carl Levin and Howard P. ``Buck'' McKeon National 
Defense Authorization Act for fiscal year 2015 converts the Deputy 
Chief Management Officer (DCMO) to the Under Secretary of Defense for 
Business Management and Information, who will also serve as the Chief 
Information Officer. This new position, to begin in February 2017, is 
expected to provide greater authority to supervise management of 
business operations and systems.
    What are your views on this new Under Secretary of Defense for 
Business Management and Information position?
    Answer. I support the legislation. I believe that the merger of the 
DCMO position with the CIO position will serve to strengthen both 
positions. In my view, however, the title and responsibilities of the 
position are less important to the success of the mission of the office 
than the alignment of the position with the Deputy Secretary and the 
Deputy Secretary's ongoing support for, and engagement in, that 
mission.
    Question. If confirmed, what would be your priorities prior to the 
implementation of the new position in February 2017, and what actions 
would you take and what resources would you need to achieve those 
priorities?
    Answer. I understand that some preliminary planning and guidance 
will be needed before February 2017 to ensure that the new position can 
get off the ground in a timely and effective manner. If confirmed, I 
will work to identify the necessary steps and ensure that they are 
completed.
    Question. The Government Accountability Office reported in December 
2007 on key strategies for implementing Chief Operating Officer (COO)/
Chief Management Officer (CMO) positions in government, which includes 
defining the specific roles and responsibilities of the COO/CMO 
position, and ensuring that the COO/CMO has a high level of authority 
and clearly delineating reporting relationships, among other 
strategies.
    What do you believe would be the most effective approach to 
implementing the Under Secretary of Defense for Business Management and 
Information position, and what additional resources or flexibilities 
would be needed to do so?
    Answer. I believe that the alignment of the DCMO and, in the 
future, the Under Secretary of Defense for Business Management and 
Information with the Deputy Secretary of Defense is the most promising 
approach to ensure the success of the position.
    I am not aware at this time of any additional resources or 
flexibilities that will be needed to implement the position of Under 
Secretary of Defense for Business Management and Information. If I 
become aware of any such requirements, I will work with the committee 
and the Department to address them.
          business enterprise architecture and transition plan
    Question. Section 2222 of title 10, U.S.C., requires that the 
Secretary of Defense develop a comprehensive business enterprise 
architecture and transition plan to guide the development of its 
business systems and processes.
    What is your understanding of the role of the DCMO in the 
implementation of the business enterprise architecture and transition 
plan required by section 2222?
    Answer. It is my understanding that the Department has chosen to 
implement the requirement for a business enterprise architecture and 
transition plan through a ``federated'' approach in which the DCMO is 
responsible for developing and maintaining the top level architecture, 
while leaving it to the military departments to fill in most of the 
detail.
    Question. What is your assessment of the current state of DOD's 
comprehensive business enterprise architecture and transition plan?
    Answer. While the Department has made considerable progress in 
refining its business enterprise architecture since the enactment of 
section 2222, I do not believe that the business architecture and 
transition plan developed by the Department is as mature as Congress 
hoped it would be when the provision was enacted. In particular, I do 
not believe that the current transition plan provides the comprehensive 
roadmap needed for the replacement, upgrade, or decommissioning of 
legacy business systems that are outdated, duplicative, or unreliable.
    Question. Do you believe that a comprehensive, integrated, 
enterprise-wide architecture and transition plan is essential to the 
successful transformation of DOD's business systems?
    Answer. I believe that the Department can make, and has made, 
significant progress by developing more limited plans that have helped 
to guide specific portfolios of business systems. However, I do not 
believe the Department will ultimately be able to complete the 
transformation process without a comprehensive, integrated, enterprise-
wide approach--regardless whether that approach takes the form of a 
single plan or the federated plans currently envisioned by the 
Department.
    Question. What are your views on the importance and role of timely 
and accurate financial and business information in managing operations 
and holding leaders accountable?
    Answer. DOD leaders are called upon to make business decisions on a 
day-to-day basis--for example, decisions on whether to hire additional 
employees, whether to extend contracts, whether to reduce the number of 
managers in an organization, or whether to enter into multi-year 
contracts. On occasion, they must make much larger decisions--for 
example, decisions on whether to shut down a command and realign its 
functions, whether to rely on the active force or the Reserves to 
perform a mission, or whether to upgrade an existing weapon system 
instead of acquiring a new one. Financial and business data is crucial 
to all of these business decisions, and in my view, better data is 
likely to result in better decisions.
    Question. How would you address a situation in which you found that 
reliable, useful, and timely financial and business information was not 
available for these purposes?
    Answer. I do not think that the Department can afford to be 
paralyzed by the inadequacy of its financial and business information. 
A decision not to act--for example, a decision not to reform a 
defective business process or consolidate duplicative organizations--is 
every bit as much of a decision as the decision to act. I believe that 
DOD managers have a responsibility to make use of the best business and 
financial data available, even if that data is less than perfect, and 
exercise their best judgment on a case-by-case basis.
    Question. What role do you envision playing, if confirmed, in 
managing or providing oversight over the improvement of the financial 
and business information available to DOD managers?
    Answer. The quality of financial and business information available 
to DOD managers should improve as the Department's business systems and 
processes improve. Sound controls, improved interfaces, and the 
elimination of unnecessary manual transmission of data should improve 
data quality. Business process reengineering should result in data that 
is more relevant to the tasks to be performed.
    Although the DCMO is not directly responsible for the acquisition 
of new business systems, the DCMO can contribute to the improvement of 
business systems and processes through the ongoing investment review 
process and the business transformation process launched by the Deputy 
Secretary.
    Question. What role do you envision playing, if confirmed, in 
assuring that appropriate business process re-engineering efforts 
associated with business system programs have been undertaken?
    Answer. One of the key responsibilities of the DCMO is to ensure 
that appropriate business process re-engineering efforts are undertaken 
before any new business system is acquired or any existing business 
system is upgraded. Business process reengineering is not a one-time 
effort, and there is also much that the DCMO can do to ensure 
continuing reengineering efforts to optimize the fielding of business 
system programs and to ensure that their capabilities are fully 
realized. If confirmed, I will take these responsibilities very 
seriously.
    Question. What metrics do you believe should be used to ensure that 
the business process supported by the defense business system program 
is or will be as streamlined and efficient as practicable?
    Answer. I understand that there is a body of practice in the 
commercial sector that can be brought to bear on the question of 
measuring the success of a defense system business program in improving 
the business process. Examples of these metrics include reduced 
processing time; improved accuracy of information; better 
responsiveness to customers and overall reduction in cost of 
operations.
    Question. What metrics do you believe should be used to ensure that 
the need to tailor commercial-off-the-shelf systems to meet unique 
requirements or incorporate unique requirements or incorporate unique 
interfaces has been eliminated or reduced to the maximum extent 
practicable?
    Answer. I understand that there is a body of practice from the 
commercial sector that would suggest appropriate metrics to include 
measures of requirements stability, numbers of ``RICE'' objects (the 
reports and extensions that have to be configured), and actual numbers 
of interfaces. Loss of control of these elements would suggest either a 
weak management structure, or alternatively, a bad initial assessment 
of the applicability of a commercial, off-the-shelf (COTS) product. To 
avoid unnecessary and expensive customization of COTS business systems, 
the Department needs not only sound metrics, but also effective 
governance systems.
    Question. Section 2222 requires that the DBSMC review and approve 
all major defense business system modernization programs to ensure that 
they are in compliance with the Department's business enterprise 
architecture and transition plan.
    What is your understanding of the extent to which the process for 
the Defense Business Systems Management Committee (DBSMC) review and 
approval has ensured that business system modernization programs are 
fully coordinated with the business enterprise architecture and 
transition plan, as intended?
    Answer. As indicated above, I do not believe that the current 
business enterprise architecture and transition plan is as 
comprehensive as Congress intended it to be. I do not have any reason 
to believe that the investment review process has failed to coordinate 
business system modernization programs with the architecture, but that 
coordination has probably not been as helpful as it might have been, 
had the architecture been more complete.
    Question. How meaningful do you believe DBSMC review and approval 
has been?
    Answer. I believe that the DBSMC review and approval process has 
contributed to the Department's understanding of its business systems 
programs and provided a useful incentive for business process 
reengineering. However, I am concerned that the current low thresholds 
for DBSMC review may have contributed to a review and approval process 
that has failed to recognize its full potential. If confirmed, I plan 
to review this issue and seek appropriate changes.
    Question. Do you believe that the DBSMC has the expertise and 
resources needed to conduct a meaningful, independent review of 
proposed business system modernization programs, or is the DBSMC 
reliant on the representations made by the military departments and 
their program managers?
    Answer. I believe that the DBSMC has important expertise and 
resources, and can draw on other resources of the Department, for this 
purpose. However, I am concerned the current low thresholds for DBSMC 
review may have resulted in a tendency to rely too much on 
representations made by the military departments and their program 
managers.
    Question. What recommendations, if any, do you have for improving 
or changing the DBSMC review process?
    Answer. If confirmed, I plan to review the DBSMC process and look 
for opportunities to make the process more rigorous.
                   comptroller general high risk list
    Question. The Department of Defense remains on GAO's High Risk List 
in the following areas:

    (1)  Business Transformation
    (2)  Business Systems Modernization
    (3)  Support Infrastructure Management
    (4)  Financial Management
    (5)  Supply Chain Management
    (6)  Weapon System Acquisition
    (7)  Contract Management

    What is the role of the DCMO for enabling DOD to be removed from 
the GAO High Risk list in each of these areas?
    Answer. The DCMO is the senior official of the Department of 
Defense with primary responsibility for business transformation. This 
transformation will require an enduring effort over a period of years. 
If confirmed, I plan to give the effort my highest priority.
    Individual business systems modernization programs are carried out 
by the military departments and defense agencies. Through the 
investment review process, the DCMO exercises considerable influence 
over these programs. If confirmed, I will emphasize the need for 
continued business process reengineering to optimize the fielding of 
business system programs and to ensure that their capabilities are 
fully realized.
    The Under Secretary of Defense (Comptroller) is the senior official 
of the Department of Defense with primary responsibility for financial 
management. The DCMO can contribute to the financial management effort 
by working to improve the business systems and processes of the 
Department, so that the financial data generated by those processes is 
more timely and reliable. If confirmed, I expect to work closely with 
the Comptroller in the effort to move the Department toward an 
auditable financial statement.
    The Under Secretary of Defense for Acquisition, Technology, and 
Logistics is the senior official of the Department of Defense with 
primary responsibility for support infrastructure management, supply 
chain management, weapon system acquisition, and contract management. 
The DCMO can contribute to improved management in these areas by 
working with the Under Secretary to assess existing management 
practices and identify areas for potential streamlining and 
reengineering. If confirmed, I will actively look for opportunities to 
improve these management processes.
                          financial management
    Question. What is your understanding of DOD's efforts and progress 
toward the goal of being able to produce auditable financial 
statements?
    Answer. I have long been skeptical of the ability of the Department 
to achieve the statutory timeline for producing auditable financial 
statements. However, I believe that the Department has made 
considerable progress toward this objective and is much closer to being 
able to produce auditable financial statements today than it was five 
years ago.
    Question. What is your assessment of the current version of the 
Financial Improvement Audit Readiness (FIAR) plan prepared by the 
Department of Defense?
    Answer. I believe that the FIAR plan has steadily improved over the 
years. While I am sure there are still gaps and inconsistencies in the 
FIAR plan, I believe that it largely serves its purpose by providing 
helpful guideposts for the Department's efforts to achieve auditable 
financial statements.
    Question. What steps do you believe the Department should take to 
improve the FIAR plan?
    Answer. This is an issue that I will review closely, if confirmed.
    Question. What role do you expect to play, if confirmed, in the 
Department's efforts to produce auditable financial statements?
    Answer. The Under Secretary of Defense (Comptroller) is the senior 
official of the Department of Defense with primary responsibility for 
financial management. The DCMO can contribute to the financial 
management effort by working to improve the business systems and 
processes of the Department, so that the financial data generated by 
those processes is more timely and reliable. I understand that the DCMO 
also plays a role in the governance process for the FIAR plan. If 
confirmed, I expect to work closely with the Comptroller in the effort 
to move the Department toward an auditable financial statement.
    Question. Do you believe that the Department is likely to meet the 
current 2017 statutory objective for ensuring that its financial 
statements are validated as ready for audit?
    Answer. I have long been skeptical of the ability of the Department 
to achieve the statutory timeline for producing auditable financial 
statements. Senior officials of the Department have expressed a greater 
degree of optimism that this timeline can be met. If confirmed, I will 
work with them to understand whether or not this optimism is realistic. 
Regardless whether the statutory objective is achieved, I believe that 
it has served a useful purpose by prompting aggressive action by the 
Department to make improvements to business systems and processes 
without which an auditable financial statement would not be possible.
    Question. What is the likeliness that this audit will produce a 
clean opinion? In your view, how long is it likely to be from the time 
when the Department certifies its financial statements as ``ready for 
audit'' to the time when the Department achieves a clean audit opinion? 
If confirmed, what specific actions would you propose taking to promote 
compliance with the statutory objective?
    Answer. I do not believe it is likely that the first round of 
audits is likely to produce a clean opinion. As I understand it, 
financial audits are a learning process through which the Department 
expects to identify continuing deficiencies in its financial data, 
which can then be remedied. Based on discussions with financial 
professionals, I believe that it could take several cycles before the 
Department achieves a clean audit opinion. If confirmed, I will work 
with the Comptroller to identify steps that the Department can take to 
improve its business systems and processes, so that those systems and 
processes can produce the quality of financial data needed to produce a 
clean audit.
    Question. What is your understanding of what the validation of 
audit readiness means? What steps will the Department go through to 
validate its financial statements as ready for audit and when will 
these steps be taken?
    Answer. As I understand it, validation of audit readiness means 
that Department has performed an internal test to assure itself that 
appropriate controls are in place and functioning prior to asserting 
readiness for inspection by an external auditor. I understand that the 
Department already has taken action to validate preparation for audit 
including the hiring of qualified financial process consultants to help 
review internal controls; testing of financial systems in accordance 
with the GAO's Federal Information Systems Audit Controls Manual 
(FISCAM) and developing associated corrective action plans; and 
conducting trial runs of audits in assessable areas. I understand these 
internal validation checks will continue as the Department seeks to 
achieve full audit readiness.
    Question. How will the costs and delays of implementing major 
Enterprise Resource Planning (ERP) systems in the Department affect its 
ability to achieve an auditable Statement of Budgetary Resources (SBR)?
    Answer. I understand that the military departments and defense 
agencies have been working on back-up plans to ensure that they are 
able to produce auditable data in areas where ERPs and other upgraded 
business and financial systems have not yet been fielded. These plans 
appear to include building new controls into existing business 
processes and measures to ensure data traceability in legacy business 
systems. If confirmed, I will work with the Comptroller to understand 
the efficacy of these interim measures.
    Question. The National Defense Authorization Acts for fiscal year 
2010 and fiscal year 2013 require that DOD validate the audit readiness 
of DOD's Statement of Budgetary Resources (SBR) by September 30, 2014. 
Why has the Department missed this audit deadline?
    Answer. The Department validated the audit readiness of its 
Schedule of Budgetary Activity (SBA) prior to September 30, 2014, but 
was unable to validate its SBR by that time. The difference between the 
SBA and the SBR is that the SBA includes only current-year budgetary 
activity, while the SBR also reflects prior-year transactions.
    As I understand it, the Department has determined that its business 
systems and processes are now capable of producing auditable financial 
data on ongoing transactions. However, the Department concluded that it 
would be prohibitively expensive to fully document earlier 
transactions, which were conducted in legacy systems without 
appropriate controls.
    Section 1005 of the National Defense Authorization Act for fiscal 
year 2013, which established the 2014 objective, also directed the 
Department to avoid ``an unaffordable or unsustainable level of one-
time fixes and manual work-arounds'' in its effort to meet that 
objective. For this reason, I understand that the Department chose to 
take a more affordable and sustainable path to a full SBR audit by 
rolling in the audit over time, covering a longer period of budget 
activity with each successive year.
                  business process and systems review
    Question. In August 2014, the Deputy Secretary of Defense directed 
the Deputy Chief Management Officer and Chief Information Officer to 
co-lead a review of business processes and the supporting information 
technology systems within the organizations of the Principal Staff 
assistants (PSA) and their associated defense agencies and field 
activities. This review is intended to provide the PSAs with 
information that will help them clarify whether their organizations are 
aimed at department-wide outcomes as well as identify resources 
allocated to outcomes, obstacles to achieving those outcomes, and 
activities that might be improved or eliminated. This effort has 
already identified potential savings.
    If confirmed, what actions would you and your office take to ensure 
that the potential savings from these business process and system 
reviews are achieved?
    Answer. As I understand it, the DOD Business Process and Systems 
Review (BPSR) process will take place in two phases. The first phase 
will identify potential changes to DOD organizations, activities, and 
processes that could yield savings. The second phase will further study 
those organizations, activities, and processes to quantify the 
potential savings and establish a plan of action for achieving those 
savings. I understand that the first phase of the BPSR process has been 
completed for some OSD organizations and their associated defense 
agencies and field activities. The DCMO and the CIO are currently 
working to initiate the phase 2 process for those organizations and 
activities, and to schedule phase 1 reviews for the additional OSD 
organizations and activities. If confirmed, I will aggressively pursue 
this process.
    Question. What other DOD components--beyond the reviews of 
headquarters and Office of the Secretary of Defense entities already 
underway--could benefit from a similar review to identify potential 
savings from, among other things, improving or eliminating activities?
    Answer. I believe that every management headquarters element of the 
Department of Defense, including at a minimum the organizations and 
entities listed in section 904 of the National Defense Authorization 
Act for fiscal year 2014, could benefit from a review to identify 
potential savings through changing or reducing the size of staffs, 
eliminating tiers of management, cutting functions that provide little 
or no added value, and consolidating overlapping and duplicative 
programs and offices.
    Question. What role should Congress play in the reduction of 
personnel or the divesting of owned or leased facilities that might 
result from this review?
    Answer. Congress plays an important role in prompting the 
Department of Defense to do the hard work of conducting management 
reviews to identify potential savings through reductions in personnel. 
Congress also plays an essential role in providing the authority to 
achieve needed efficiencies by reducing personnel and divesting owned 
or leased facilities that are excess to needs.
    I believe that significant reductions to the size and composition 
of workforce are possible. However, I do not believe that reductions 
should take the form of across-the-board cuts. In my view, cutting 
personnel without improving management processes or divesting functions 
will result in fewer people to do the same work, creating bottlenecks 
and backlogs that are counterproductive to the mission of the 
Department.
                        business transformation
    Question. Since 2005, the Government Accountability Office (GAO) 
has designated the Department of Defense's approach to business 
transformation as ``high risk'' due to its vulnerability to waste, 
fraud, abuse and mismanagement. However, GAO has recently found that 
the Department has not implemented leading performance management 
practices for Federal agencies in the area of business transformation. 
GAO also found that DOD's performance measures are ``not clear, 
comprehensive, or aligned with its strategic goals.''
    Do you believe that the Department needs to more clearly define 
roles and responsibilities, as well as relationships among key 
positions and governance entities?
    Answer. I understand that the Department has continued to refine 
its governance processes, including making more explicit the role of 
the DCMO in business management transformation. The Deputy Secretary 
has reshaped the structure and functions of the Deputy's Management 
Advisory Group (DMAG), to include making the DCMO a full member of that 
body. If confirmed, I will review this issue and determine whether 
further action is necessary.
    Question. If so, what steps do you believe the Department should 
take to achieve this objective?
    Answer. If confirmed, I review this issue and determine whether 
further action is necessary.
    Question. If confirmed, what steps, if any, would you take to more 
clearly define the Department's strategic planning process, including 
mechanisms to guide and synchronize efforts to develop strategic plans; 
monitor the implementation of reform initiatives; and report progress, 
on a periodic basis, towards achieving established goals?
    Answer. I understand that the Deputy Secretary of Defense has 
recently undertaken a series of reforms to improve the strategic 
planning process, including the reshaping of the DMAG. If confirmed, I 
will work with the Deputy Secretary and others to identify and pursue 
potential improvements to these processes.
           acquisition of major automated information systems
    Question. A number of the Department's Major Automated Information 
Systems are over budget and behind schedule. GAO recently reported that 
even new programs are failing to establish initial baselines for cost, 
schedule, and performance.
    What is your assessment of the extent of the problems the 
Department faces in its acquisition of Major Automated Information 
Systems?
    Answer. It is my understanding that virtually every DOD acquisition 
of a major business system has suffered from cost overruns, schedule 
delays, customer resistance, and failure to meet performance 
requirements. In some cases, the Department has been able to work 
through these problems, but in other cases the problems have become so 
extreme that they have led to system failure and program cancellation.
    Question. What do you see as the root causes of these problems?
    Answer. In my view, there are three closely related root causes for 
most of these failures: failure of leadership, failure of planning, and 
failure to perform adequate business process engineering. Too often, 
the Department has sought to address deficiencies in its business 
systems by acquiring commercial solutions without adequately 
understanding its own business processes and planning the changes that 
will be needed to implement commercial solutions.
    Question. What is your understanding of the role of the DCMO in the 
management and oversight of Major Automated Information Systems?
    Answer. Although the DCMO is not directly responsible for the 
acquisition of new business systems, the DCMO plays a key role in the 
management and oversight of business systems through the ongoing 
investment review process. The role of the DCMO is to ensure that the 
military departments and defense agencies conduct appropriate business 
process reengineering before acquiring new systems or modernizing 
existing systems, that appropriate governance processes are in place to 
keep the customization of commercial, off-the-shelf business systems to 
a minimum, and that new and existing business systems of the military 
department are consistent with the business enterprise architecture of 
the Department of Defense. The DCMO can also play an important role in 
identifying gaps and deficiencies in the business systems and processes 
of the military departments and defense agencies, and ensuring that 
they work to address those gaps and deficiencies in an expeditious 
manner.
 geographic and functional combatant command mission and headquarters-
                             support costs:
    Question. In May 2013 and June 2014, the Government Accountability 
Office (GAO) reported on the considerable growth that has occurred over 
the last several years in the mission and headquarters-support costs of 
the geographic and functional combatant commands. GAO found that the 
commands do not conduct comprehensive, periodic evaluations that would 
help them ensure that they are properly sized and structured. As a 
result, there is little assurance that these commands can manage 
resources efficiently and meet their assigned missions. Through its 
Business Process and System Reviews of the Office of the Secretary of 
Defense and associated defense agencies, the Office of the Deputy Chief 
Management Officer has identified opportunities for savings through 
restructuring and reorganizing resources to ensure that they are 
properly aligned with desired outcomes.
    What is your understanding and assessment of the GAO's findings as 
well as the potential savings already identified as part of the 
Business Process and Systems Reviews currently underway?
    Answer. I am aware that the GAO found considerable growth in the 
size and cost of the combatant commands over the last decade. I 
understand that GAO identified some steps that the Department has taken 
to control those costs, but concluded that more could be done in this 
regard. I am not aware that the BPSR review process has been extended 
to the combatant commands.
    Question. If confirmed, would you recommend that the geographic and 
functional combatant commands be subject to such reviews? If so, what 
actions would you propose or take to require and implement such 
reviews?
    Answer. I am in general agreement with the findings and 
recommendations of the two GAO reports referenced. I believe that every 
management headquarters element of the Department of Defense, including 
the combatant commands, could benefit from a review to identify 
potential savings through changing or reducing the size of staffs, 
eliminating tiers of management, cutting functions that provide little 
or no added value, and consolidating overlapping and duplicative 
programs and offices. I do not have a position as to whether the BPSR 
process is the best mechanism conducting such a review of the combatant 
commands.
    Question. In your view, how might the results of such reviews, if 
conducted, be used to improve the strategic analysis and decision 
making processes associated with the Unified Command Plan?
    Answer. I believe that the Unified Command Plan should be informed 
by a sound understanding of the existing organizations and capabilities 
of the combatant commands. In advance of conducting a review, I do not 
believe it is possible to determine how that review would improve the 
processes referenced.
                        dod conference policies
    Question. What role will you play, if confirmed, establishing DOD 
conference approval processes?
    Answer. I understand that the DCMO is responsible for the overall 
DOD conference approval policy. If confirmed, I will work to ensure 
that this policy appropriately balances the benefits of DOD presence at 
appropriate conferences with the need to be judicious in expending the 
Department's resources, consistent with applicable legal requirements.
    Question. How will you assess the impact of these policies on the 
missions of DOD organizations and the value of the policies relative to 
the costs of their implementation?
    Answer. I believe that many conferences have a genuine professional 
value in terms of peer exposure, training, and professional growth. 
Examples include professional conferences for accounting and finance; 
for the medical community; and for the scientific community. I am also 
concerned that the DOD conference approval process could be interpreted 
to extend to important meetings that are not conferences at all. If 
confirmed, I expect to work with the functional communities within the 
Department to ensure that the conference policy does not unnecessarily 
detract from the missions of DOD organizations and the development of 
DOD personnel.
    Question. The GAO recently recommended that ``the Secretary of 
Defense direct the Secretaries of the military departments, in 
coordination with the Office of the DCMO, to establish time frames for 
providing conference review and approval decisions based on applicants' 
needs.
    Do you agree with this recommendation? Why or why not? How would 
you develop the time frames that GAO recommends?
    Answer. I agree with the recommendation. If confirmed, I will work 
with involved stakeholders to address concerns about the timeliness of 
the review and approval process.
                          services contracting
    Question. Over the last decade, the Department has become 
progressively more reliant upon contractors to perform functions that 
were once performed exclusively by government employees. As a result, 
contractors now play an integral role in areas as diverse as the 
management and oversight of weapons programs, the development of 
personnel policies, and the collection and analysis of intelligence. In 
many cases, contractor employees work in the same offices, serve on the 
same projects and task forces, and perform many of the same functions 
as DOD employees.
    In your view, has DOD become too reliant on contractors to support 
the basic functions of the Department?
    Answer. Contractors have always played a valuable role in 
supporting the operations of the Department of Defense. However, I 
believe that there are areas in which the Department has become so 
reliant on contractors that it risks losing the organic capability to 
manage its own operations.
    Question. What risks do you see in the Department's reliance on 
such contractor support? What steps do you believe the Department 
should take to mitigate such risk?
    Answer. I believe that it is important that government officials 
remain accountable and responsible for the actions taken by Federal 
agencies, including those listed in the question. In my view, 
responsibility and accountability are possible only if the government 
retains not only final decisionmaking authority, but also the organic 
capability to fully understand the range of options available and to 
make informed choices among them.
    Question. What advantages do you see in using contractors to 
perform functions for the Department of Defense?
    Answer. I believe that the use of contractors to perform commercial 
and industrial functions can leverage private sector capabilities to 
improve efficiency and lower costs. With regard to the performance of 
core government functions, contractors can and do support decision-
making by providing knowledge and expertise that would not otherwise be 
available to the Department of Defense.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the DCMO?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Dan Sullivan
        8(a) direct awards to native community-owned contractors
    1. Senator Sullivan. Mr. Levine, in March 2015, the Department of 
Defense (DOD) issued a report to Congress ``Assessment of Justification 
and Approval Requirements Implemented Under section 811 of the National 
Defense Authorization Act for fiscal year 2010 (section 811).'' The 
report found that in fiscal year 2014 no 8(a) sole-source contracts 
were awarded that required an 8(a) justification and approval. DOD 
stated it cannot conclude the cause for this decline. There have been 
numerous reports from firms that the decline in awards is due to 
scrutiny on the firms themselves, not the sole-source contracts that 
could be awarded to these firms. How would you encourage DOD to work 
more effectively with Native community-owned contractors, particularly 
regarding 8(a) sole-source contracts?
    Mr. Levine. It is my understanding that the Competition in 
Contracting Act (CICA) requires the use of competitive contracting 
throughout the Federal procurement system, subject to certain 
exceptions. While the Department of Defense may use sole source 
contracts in appropriate circumstances, these circumstances are an 
exception to the general preference of the use of competitive 
procedures. For this reason, the Department does not generally 
encourage the use of sole source contracts of any kind.
    The DCMO is not an acquisition official, and if confirmed, I would 
not be in a position to establish acquisition policy for the Department 
of Defense. However, I would expect DOD acquisition officials to work 
with Native community-owned contractors to grow the over-all level of 
contracting by ensuring that: (1) these firms are aware of, and 
prepared for, opportunities to compete for DOD contracts, including in 
competitions limited to 8(a) firms; and (2) they understand the 
exceptions to the Competition in Contracting Act and the circumstances 
in which it might be appropriate for the Department to award a sole-
source contract.

    2. Senator Sullivan. Mr. Levine, the March 2015 DOD report listed 
10 instances of guidance issued regarding the implementation of section 
811. Can you please provide a copy of each communication?
    Mr. Levine. The Department has provided me with the attached 
implementing documents highlighted in the Department's Report to 
Congress on section 8135(a) of the 2015 Consolidated Appropriations 
Acts. These documents include an interim FAR rule effective March 16, 
2011; a final FAR rule effective April 18, 2012; a memo from Director 
for Defense Procurement and Acquisition Policy issuing guidance to the 
Military Departments and Defense Agencies; and other guidance documents 
issued by the Military Departments and Defense Agencies. [See Appendix 
A]

    3. Senator Sullivan. Mr. Levine, has the Office of Federal 
Procurement Policy (OFPP) issued any guidance to the Department of 
Defense or other agencies regarding section 811 and can you provide 
this guidance?
    Mr. Levine. The Department informs me that under the leadership of 
the Office of Federal Procurement Policy, the FAR Council held three 
Tribal consultation and outreach meetings to discuss rulemaking 
associated with section 811. The meetings took place during October 
2010 in Washington, DC; Albuquerque, NM; and Fairbanks, AK; and were 
publicized in the Federal Register on August 31, 2010 (75 FR 53269). 
The FAR Council analyzed the comments provided at the public meetings 
and published an interim FAR rule, with a request for requesting public 
comments, in the Federal Register on March 16, 2011 (76 FR 14559) to 
implement section 811 in the FAR. The interim rule encouraged agencies 
to maximize the effective use of competition by making certain that 
contracting officers provide a proper justification and obtain approval 
before awarding a sole-source contract over $20M as required by section 
811. After extensive analysis of public comments received in response 
to the interim rule, the FAR Council subsequently published a final FAR 
rule in the Federal Register on April 18, 2012 (77 FR 23369), that made 
no changes to the interim rule.

    4. Senator Sullivan. Mr. Levine, the March 2015 DOD report states 
the Army issued guidance to the Principal assistants Responsible for 
Contracting and policy chiefs. According to the report, the guidance 
highlighted the FAR [Federal Acquisition Regulation] case and ``the 
need for additional scrutiny''. What date was this guidance issued?
    Mr. Levine. The Department informs me that the acting Deputy 
assistant Secretary of the Army (Procurement) issued this guidance in a 
memorandum entitled ``Extensive Use of High Dollar, Sole-Source 8(a) 
Contracts'' on January 5, 2011.

    5. Senator Sullivan. Mr. Levine, a January 2011 Army memorandum, 
``Extensive Use of High Dollar, Sole-Source 8(a) Contracts'' noted, 
``Pending issuance of an interim or final rule on this subject, I 
expect you to scrutinize all proposed awards of sole-source 8(a) 
contracts . . . [emphasis added]'' The memorandum indicates that the 
additional scrutiny was required in absence of formal FAR guidance. Do 
you think the ``additional scrutiny'' requested by this memo has 
remained in effect, despite clear guidance of the action required to 
issue an 8(a) sole-source award greater than $20 million?
    Mr. Levine. The Department informs me that this guidance is no 
longer in effect.

    6. Senator Sullivan. Mr. Levine, since the FAR Council has issued 
formal guidance regarding section 811, do you believe it is appropriate 
for the Army and other agencies to rescind any guidance that required 
increased scrutiny of such contracts that could be interpreted as 
anything other than the now implemented justification and approval 
process?
    Mr. Levine. The DCMO is not an acquisition official, and if 
confirmed, I would not have any role in this issue. However, since the 
Army memo was predicated on the lack of FAR guidance once the guidance 
was issued it would appear that the Army guidance should no longer be 
necessary.

    7. Senator Sullivan. Mr. Levine, section 811 does not prohibit 
direct awards greater than $20 million. How would you encourage such 
awards, when appropriate, to Native community-owned contractors given 
the additional scrutiny experienced by these firms?
    Mr. Levine. As indicated above, it is my understanding that the 
Department does not generally encourage sole-source contract awards of 
any kind. Although the DCMO is not an acquisition official and does not 
set acquisition policy for the Department of Defense, I would expect 
the Department to encourage competitive awards to Native community-
owned contractors and to ensure that such contractors are aware of the 
circumstances in which it might be appropriate to award sole-source 
contracts.

    8. Senator Sullivan. Mr. Levine, section 811 only requires a 
justification and approval of 8(a) sole-source awards. Do you believe 
it is appropriate for DOD contracting officers to issue such awards 
provided a justification and approval is performed?
    Mr. Levine. While the DCMO is not an acquisition official and does 
not set acquisition policy for the Department of Defense, I believe 
that it is appropriate for a DOD contracting officer to award an 8(a) 
sole-source contract upon the issuance of a justification and approval 
in accordance with the requirements of section 811.

    9. Senator Sullivan. Mr. Levine, would you support a requirement to 
require a justification and approval for any sole-source contract 
greater than $20 million that is not currently subject to a 
justification?
    Mr. Levine. I am not aware of significant categories of sole-source 
contracts in excess of $20 million that are not subject to a 
requirement for justification and approval. While the DCMO is not an 
acquisition official and does not set acquisition policy for the 
Department of Defense, it seems to me that a requirement for 
justification and approval of any such category of contracts would be 
consistent with the competition policy established in CICA.

    10. Senator Sullivan. Mr. Levine, would you support a repeal of 
section 811?
    Mr. Levine. The DCMO is not an acquisition official and does not 
set acquisition policy for the Department of Defense. However, I 
believe that, consistent with the general preference for competition in 
Federal procurement, all significant categories of sole-source 
contracts should be subject to a requirement for justification and 
approval. For this reason, I do not see the need for repeal of section 
811.

    11. Senator Sullivan. Mr. Levine, would you support an increased 
threshold for contracts subject to an 8(a) justification and approval?
    Mr. Levine. It is my understanding that most categories of sole-
source contracts are subject to a much lower dollar threshold for 
justification and approval than the $20 million threshold set in 
section 811. For this reason, while the DCMO is not an acquisition 
official and does not set acquisition policy for the Department of 
Defense, I do not see the need for an increase to the $20 million 
threshold.

    12. Senator Sullivan. Mr. Levine, would you consider other changes 
that could reduce potential inappropriate scrutiny of Native community-
owned contractors receiving sole-source awards, while ensuring value to 
the taxpayer?
    Mr. Levine. The DCMO is not an acquisition official and does not 
set acquisition policy for the Department of Defense. However, I 
believe that all categories of sole-source contracts should be subject 
to careful scrutiny to ensure that they are properly justified, in 
order to ensure value to the taxpayer. Subject to this general rule, I 
do not believe that Native community-owned contractors receiving sole-
source awards should be subject to additional, inappropriate scrutiny.

    13. Senator Sullivan. Mr. Levine, do you think section 811 applied 
more scrutiny to 8(a) sole-source contracts than sole-source contracts 
covered by the Competition in Contracting Act?
    Mr. Levine. I am not aware of any independent reports or reviews 
that address this issue. In the absence of such a report or review, I 
do not feel that I have the information needed to answer this question.

    14. Senator Sullivan. Mr. Levine, does section 811, similar to the 
Competition in Contracting Act, allow for the approval of a 
justification for an 8(a) sole-source to be approved by someone other 
than the Head of Agency and can the Head of Agency have the legal 
ability to delegate the approval authority for an 8(a) justification?
    Mr. Levine. It is my understanding that section 811 allows the 
approval authority for sole-source contracts to be delegated to the 
same levels of officials as the Competition in Contracting Act. In 
particular, section 811(a)(2) provides that a justification and 
approval must be ``approved by the appropriate official designated to 
approve contract awards for dollar amounts that are comparable to the 
amount of the sole-source contract.'' Section 811(c)(3) defines 
``appropriate official'' to mean the same officials to whom approval 
authority may be delegated under CICA. Consequently, I do not believe 
that there is any difference between the two statutes on this point.

                               APPENDIX A

      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
                                 ______
                                 
    [The nomination reference of Mr. Peter K. Levine follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     March 4, 2015.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Peter K. Levine, of Maryland, to be Deputy Chief Management Officer 
of the Department of Defense, vice Elizabeth A. McGrath.
                                 ______
                                 
    [The biographical sketch of Mr. Peter K. Levine, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                  Biographical Sketch of Peter Levine
Education:
    Harvard Law School

        <bullet> September 1980 to June 1983
        <bullet> J.D., magna cum laude

    Harvard College

        <bullet> September 1975 to June 1979
        <bullet> A.B., summa cum laude
Employment Record:
    Senate Armed Services Committee

        <bullet> Staff Director

                <bullet> March 2013 to January 2015

        <bullet> General Counsel

                <bullet> January 2006 to March 2013 and May 2001 to 
                January 2002

        <bullet> Minority Counsel

                <bullet> January 2002 to January 2006 and August 1996 
                to May 2001

    Office of Senator Carl Levin

        <bullet> Counsel

                <bullet> January 1995 to August 1996

    Subcommittee on Oversight of Government Management, Senate 
Governmental Affairs Committee

        <bullet> Counsel

                <bullet> January 1987 to January 1985

    Crowell & Moring

        <bullet> Associate

                <bullet> September 1983 to January 1987

        <bullet> Summer Associate

                <bullet> June 1982 to August 1982

    Brobeck, Phleger & Harrison

        <bullet> Summer Associate

                <bullet> June 1981 to August 1981
Honors and Awards:
    <bullet> Editor, Harvard Law Review, 1982 to 1983
    <bullet> Phi Beta Kappa, 1979
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Mr. Peter K. 
Levine in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    part a--biographical information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Peter Levine.

    2. Position to which nominated:
    Deputy Chief Management Officer, Department of Defense.

    3. Date of nomination:
    March 4, 2015.

    4. Address: (List current place of residence and office addresses.)
    [The nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 29, 1957; Santa Monica, California.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Married to Mary Ellen Myers (Levine).

    7. Names and ages of children:
    [The nominee responded and the information is contained in the 
committee's executive files.]

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    Harvard Law School, 1980 to 1983, J.D., 1983.
    Harvard College, 1975 to 1979, B.A., 1979.
    University High School, Los Angeles, CA, 1972 to 1975, graduated 
1975.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Staff Director, Senate Armed Services Committee, 2013-2015.
    General Counsel, Senate Armed Services Committee, 2001-2002, 2007-
2012.
    Minority Counsel, Senate Armed Services Committee, 1996-2001, 2003-
2006.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Counsel, Office of Senator Carl Levin 1995-1996.
    Counsel, Subcommittee on Oversight of Government Management, 1987-
1994.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    American Bar Association (member).
    District of Columbia Bar (member).
    Montgomery Sycamore Island Club (member).
    Mohican Hills Pool Association (member).

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    February 20, 2014: $100 to Daniella Levine Cava for Dade County 
Commissioner.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    None.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years of which you have 
copies and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                     Peter K. Levine.  
    This 13th day of March, 2015
    [The nomination of Mr. Peter K. Levine was reported to the 
Senate by Chairman McCain on April 30, 2015, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 23, 2015.]


 
 NOMINATION OF GENERAL JOSEPH F. DUNFORD, JR., USMC, TO BE CHAIRMAN OF 
                       THE JOINT CHIEFS OF STAFF

                              ----------                              


                         THURSDAY, JULY 9, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SH-216, Hart Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Ernst, Tillis, 
Sullivan, Lee, Graham, Cruz, Reed, Nelson, McCaskill, Manchin, 
Shaheen, Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, and 
Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning.
    The Senate Armed Services Committee meets today to consider 
the nomination of General Joseph Dunford to be the Chairman of 
the Joint Chiefs of Staff.
    General Dunford is certainly no stranger to the members of 
this committee. We have known him as Commandant of the Marine 
Corps and our commander in Afghanistan and many posts before 
that. He is a warrior and a leader of the highest quality, and 
we are grateful for his 38 years of distinguished service.
    We are also thankful for the sacrifices General Dunford's 
family has made over the years and their willingness to lend 
him to the Nation in service once again. As is our tradition, 
at the beginning of your testimony, we welcome you, General 
Dunford, to introduce the members of your family joining you 
this morning. I would, however, like to take this moment to 
express our special thanks to your wife, Ellyn. We know how 
much of your husband's service and his future absence will rest 
on you and we honor the sacrifices you are making through your 
continued support to our Nation, not to mention the downgrade 
in your residence that will be part of this.
    [Laughter.]
    The next Chairman will have to prepare our military to 
confront the most diverse and complex array of global crises 
since the end of World War II.
    In Iraq and Syria, the Islamic State in Iraq and the Levant 
(ISIL's) terrorist army has continued to succeed on the 
battlefield, including taking Ramadi and other key terrain in 
Iraq, capturing over half the territory in Syria, and 
controlling every border post between Iraq and Syria. The lack 
of a coherent strategy has resulted in the spread of ISIL 
around the world to Libya, Egypt, Nigeria, and even to 
Afghanistan where I visited last weekend.
    There, our troops are supporting our Afghan partners in 
sustaining a stable and democratic future. But even as ISIL and 
the Taliban threaten this future, the President remains 
committed to a drastic reduction in U.S. presence at the end of 
2016 before the Afghan government and security forces are fully 
capable of operating effectively without our support. This 
would create a security vacuum, and we have seen what fills 
similar kinds of vacuums in Syria and Iraq. Given your 
experience in Afghanistan, General Dunford, we will be 
interested to hear your thoughts about the appropriate U.S. and 
coalition presence going forward.
    Meanwhile, Iran continues to threaten peace and stability 
across the Middle East through its support of terrorist 
proxies, pursuit of nuclear weapons, and development of 
missiles needed to deliver them to targets far beyond its 
shores.
    In Europe, Vladimir Putin's Russia continues its onslaught 
in Ukraine. But even as Russian troops and equipment execute 
this neo-imperial campaign to undermine Ukraine's government 
and independence, the United States has refused Ukraine the 
weapons it needs and deserves for its defense.
    In the Asia-Pacific, China is continuing a pattern of 
destabilizing behavior, its reclamation and militarization of 
vast land features in the South China Sea, its continued 
military buildup designed to counter U.S. military strengths, 
and its blatant and undeterred cyber attacks against the United 
States. While our rebalance to the Asia-Pacific has shown some 
successes, especially in deepening of our alliances, this 
policy has not deterred China from its increasingly assertive 
course.
    Yet, while worldwide challenges like these grow, the 
Defense Department has grown larger but less capable, more 
complex but less innovative, more proficient at defeating low-
tech adversaries but more vulnerable to high-tech ones. Worse, 
the self-inflicted wounds of the Budget Control Act and 
sequestration-level defense spending have made all of these 
problems worse.
    Army and Marine Corps end strength is dropping dangerously 
low. The Air Force is the oldest and the smallest that it has 
ever been. The Navy's fleet is shrinking to pre-World War I 
levels. With the present operational tempo and drastic 
reductions to defense spending, we will continue the downward 
spiral of military capacity and readiness that will compromise 
each service's ability to execute our Defense Strategic 
Guidance at a time of accumulating danger to our national 
security.
    Budget cuts have also slowed critical modernization 
priorities, imperiling our Nation's ability to preserve its 
military technological advantage. This is not just about the 
weapons systems we hear the most about; fighter aircraft, 
submarines, or armored vehicles. These are important, but 
budget cuts also threaten our ability to seize the future and 
make vital investments in cyber, space, and breakthrough 
technologies such as directed energy, autonomous vehicles, and 
data analytics.
    The current Chairman of the Joint Chiefs of Staff has 
stated that even if the Defense Department receives the 
additional $38 billion above the budget caps that the 
President's Defense Budget requests, our military would still, 
quote, ``remain at the lower ragged edge of manageable risk in 
our ability to execute the defense strategy.'' More worrisome, 
every one of our military service chiefs, yourself included, 
has testified that continued sequestration-level defense 
spending puts American lives at greater risk. Unless we change 
course, eliminate sequestration, and return to strategy-driven 
defense budgets, I fear our military will confront depleted 
readiness, chronic modernization problems, and deteriorating 
morale.
    No matter how many dollars we spend, we will not be able to 
provide our military the equipment they need with a broken 
defense acquisition system that takes too long and costs too 
much. With this year's National Defense Authorization Act, this 
committee has embarked on a major effort to reform this system, 
including ways to empower our service leaders to manage their 
own programs in exchange for greater accountability. General 
Dunford, we are very interested in hearing your views about 
improving the defense acquisition system based on your years of 
service.
    Finally, the Chairman of the Joint Chiefs of Staff is the 
principal military advisor to the President. More than ever, we 
need an honest and forthright leader that offers his best and 
unvarnished military advice. The President will not always take 
your advice, but it is my hope that he will always have an 
appreciation of the military dimensions of the difficult 
problems our Nation confronts with you at his side.
    Thank you for your willingness to serve once more. We look 
forward to your testimony.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. Let 
me join you in welcoming General Dunford and to take this 
opportunity to thank him for his extraordinary service to the 
Nation. During his 38 years of military service, General 
Dunford has served with courage and distinction, and I am 
confident he will continue to do so as the next Chairman of the 
Joint Chiefs of Staff.
    Finally, let me also recognize and thank his family. Ellyn, 
thank you. Patrick, thank you for being here today. I know Joe 
and Kathleen wanted to be here, but they are serving elsewhere. 
But thank you very much for what you have done to serve the 
Nation and the Marine Corps.
    Last week, the current Chairman of the Joint Chiefs of 
Staff, General Dempsey, released the 2015 National Military 
Strategy. In his forward, General Dempsey stated that the 
current ``global security environment is the most 
unpredictable'' he has seen during his military service and 
that ``global disorder has significantly increased while some 
of our comparative military advantage has begun to erode.''
    Without question, the United States faces a wide range of 
challenges around the world. If confirmed as the Chairman of 
the Joint Chiefs of Staff, you will be advising the President 
and the Secretary of Defense on these complex international 
issues facing our national interests.
    Possibly the gravest and most complex issue for the next 
Chairman will be countering the security threat from ISIL in 
Iraq and Syria and its spread beyond the Middle East region. As 
the President said earlier this week, our counter-ISIL campaign 
will be long-term and employ all elements of American power, 
including military, intelligence, diplomatic, and economic.
    If confirmed, General Dunford, you will be responsible for 
advising on the U.S. military's role in supporting our broader 
counter-ISIL campaign, including denying ISIL safe havens and 
building the capacity of local forces to counter ISIL, with 
training, assistance, and air support from the international 
coalition. The success of these efforts will ultimately depend 
on a broader, complementary effort to address the conditions 
that gave rise to ISIL and allowed it to thrive. I look forward 
to hearing your views on the situation in Iraq and Syria and 
your thinking on the most effective role the military can play 
in supporting efforts on the diplomatic front.
    Regarding Iran, while there remains no clear outcome to the 
P5 Plus 1 negotiations over Iran's nuclear program, no matter 
what happens, the Department of Defense will play a key role in 
reaffirming our shared priorities with our partners in the 
region, confronting common threats, and working to de-escalate 
or, where possible, resolve these threats.
    General Dunford, if confirmed, you will also bring 
invaluable experience to oversight of the Department's missions 
in Afghanistan where you have led the U.S. and coalition forces 
with distinction. While the Afghan Security Forces have fought 
courageously against Taliban attacks, more needs to be done to 
build the Afghan forces? capabilities and deny any safe haven 
for extremists. The next Chairman will play a critical role in 
the President's review later this year of the size and 
footprint of U.S. forces in Afghanistan for 2016 and beyond.
    Another security challenge going forward will be deterring 
additional Russian aggression toward Ukraine and its European 
neighbors and reinforcing the Minsk ceasefire accords. Congress 
has made clear its support of military assistance to Ukraine, 
including defensive weapons, to help the Ukrainian people 
defend their sovereignty and territorial integrity. We will be 
interested in your views of the security situation in Ukraine 
and what additional steps you would recommend for assisting 
Russia's neighbors in protecting themselves from the kinds of 
hybrid warfare tactics employed in Crimea and eastern Ukraine.
    Our men and women in uniform remain the committee's top 
concern, and I know they are your top concern also. Our Armed 
Forces are nothing without its people, and the Department 
continues to juggle the twin goals of providing a high quality 
of life through fair pay and compensation and exceptional 
service through adequate levels of training and equipping. In 
my view, it is incumbent on Congress and the Nation to provide 
a sufficiently sized, trained, and equipped military of the 
necessary quality of character and talent to meet national 
defense requirements. Sometimes that means making hard choices, 
especially in the budget constrained environment we find 
ourselves.
    To that end, as you well know from your time as Commandant, 
the Department and Congress have for several years considered 
various proposals for changes in compensation and health care 
to slow the growth of personnel costs so that those savings can 
be redirected to buy back readiness and modernization benefits. 
I would be particularly interested in your views on such 
proposals and the impact if such changes are not enacted.
    Now, during consideration of the fiscal year 2016 National 
Defense Authorization Act, this committee had a robust debate 
on how best to fund defense programs. I have repeatedly stated 
that sequestration is not the approach that we need to address 
our Nation's fiscal challenges, and more pointedly, it 
undermines our national military readiness. Defense budgets 
should be based on our long-term military strategy--that is the 
point the chairman made very eloquently--not sequestration-
level budget caps. Even a 1-year increase in OCO spending does 
not provide DOD with the certainty and stability it needs when 
building its 5-year budget. As a consequence, this instability 
undermines the morale of our troops and their families who want 
to know that their futures are planned for more than 1 year at 
a time and the confidence of our defense industry partners we 
rely on to provide the best technologies available to our 
troops. I hope you will share your thoughts on this topic with 
the committee today.
    General Dunford, thank you again for your willingness to 
serve our Nation. I look forward to discussing these issues.
    Chairman McCain. General, before your statement, there are 
standard questions that the committee always asks of military 
nominees. So we have always done that, and so I would like to 
proceed with that before your testimony.
    In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of the Congress are able to receive 
testimony, briefings, and other communications of information. 
Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    General Dunford. I have, Chairman.
    Chairman McCain. Do you agree, when asked, to give your 
personal views, even if these views differ from the 
administration in power?
    General Dunford. I do, Chairman.
    Chairman McCain. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Dunford. I have not.
    Chairman McCain. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    General Dunford. I will, Chairman.
    Chairman McCain. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Dunford. I will, Chairman.
    Chairman McCain. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Dunford. They will.
    Chairman McCain. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    General Dunford. I do, Chairman.
    Chairman McCain. Do you agree to provide documents, 
including copies of electronic forms of communications, in a 
timely manner when requested by a duly constituted committee or 
consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    General Dunford. Yes, Chairman.
    Chairman McCain. Thank you very much for complying with 
that formality. Thank you. Please proceed with your testimony.

   STATEMENT OF GENERAL JOSEPH F. DUNFORD, JR., USMC, TO BE 
             CHAIRMAN OF THE JOINT CHIEFS OF STAFF

    General Dunford. Chairman McCain, Ranking Member Reed, 
distinguished members of the committee, good morning and thank 
you for the opportunity to appear before you today. I am truly 
honored to be nominated as the Chairman of the Joint Chiefs of 
Staff. I want to thank the President and the Secretary of 
Defense for their confidence me, and I want to recognize 
General Dempsey and his wife Deanie for their extraordinary to 
our Nation, our men and women in uniform and our military 
families.
    Joining me today is my wife Ellyn and our son Patrick. Our 
son Joe and Kathleen were not able to be here. Ellyn has been a 
great mother to our children and has served as a tireless 
advocate for military families. I refer to her as the MVP in 
the family. Her sense of humor, flexibility, and endurance have 
been tested in over 30 years as a military spouse, and I would 
not be here today without her love and support.
    I would like to begin by thanking the committee for your 
commitment to our soldiers, sailors, airmen, and marines. Due 
to your support, they comprise the most well trained, well 
equipped, and capable military force in the world.
    As I appear before you this morning, I am mindful of the 
complexity and volatility of the current security environment. 
Chairman, you mentioned that. This committee is also well aware 
of the pressing challenges we face in Europe, the Pacific, the 
Middle East, Africa, space, and cyberspace. While dealing with 
these and other issues, we also face the need to restore 
readiness and modernize the joint force in the context of 
fiscal challenges and budget uncertainty.
    If confirmed, I will provide the Secretary of Defense and 
the President with my best military advice in a full range of 
military options for addressing the current and future 
challenges to our national security.
    When asked, I will provide the Congress with my best 
military advice. When delivering best military advice, I will 
do so with candor.
    I will also work with the Joint Chiefs, our civilian 
leaders, and members of the committee to maintain a joint force 
that is capable of securing our national interest today and 
tomorrow.
    Most importantly, if confirmed, I will dedicate myself to 
properly leading, representing, and keeping faith with the men 
and women in uniform and our civilian workforce who volunteer 
to serve our Nation.
    Thank you again for allowing me to appear this morning, and 
I am prepared for your questions.
    Chairman McCain. Thank you very much, General.
    The day before yesterday, we received testimony that so far 
with $500 million committed, there have been 60 individuals who 
have been trained to go into Syria and fight against the 
Islamic State in Iraq and Syria (ISIS). What do you know about 
that particular situation?
    General Dunford. Chairman, what I know is that we have got 
Major General Mike Nagata who has been working that for some 
months. Those numbers are certainly much less than what he 
estimated. The feedback I have received is those numbers are 
largely attributable to the vetting process, that they think 
they have learned some things during the process of these first 
60. They have made some other contacts. But, frankly, Chairman, 
until I have an opportunity to get on the ground and speak to 
the commanders, what I really know about that now is 
secondhand.
    Chairman McCain. Do you believe that we should be getting a 
pledge from these recruits that they will only fight against 
ISIS and not Bashar Assad?
    General Dunford. Chairman, what I understand right now is 
that we do not have the authority to take action against 
Assad's forces. So unless that policy would change, then that 
pledge would be required.
    Chairman McCain. Given your experience in the military, do 
you think it is a good idea to train people and send them into 
a conflict to be attacked and barrel-bombed by another entity 
and not defending them?
    General Dunford. Chairman, I do not. If we train those 
individuals and they go back into Syria to fight, then I think 
we need to--if we expect them to be successful, we need to 
provide them with enabling capability that will allow them to 
be successful.
    Chairman McCain. In other words, prevent them from being 
barrel-bombed by Bashar Assad, which is routine now?
    General Dunford. I think, Chairman, we need to provide them 
with a full range of capability for them to be successful.
    Chairman McCain. I recently was over in Afghanistan over 
the Fourth of July, and there is great concern both amongst our 
military and with Ashraf Ghani and Abdullah and other Afghans 
about the present proposal to have our force in Afghanistan 
down to a, quote, embassy-centric force by 2017, meaning that 
we would be giving up or turning over our bases in Bagram, 
Kandahar, and a force that is only based in the U.S. embassy. A 
great concern was voiced concerning this plan or articulated, 
announced plan by the President of the United States.
    As you know, the Taliban did not respect the non-fighting 
season. As you know, the Afghan casualties are extremely high, 
higher than they have ever been. We now have ISIS getting a 
hold, and we also have the Iranians providing Taliban with 
weapons.
    Is this a wise decision on your part to have a calendar-day 
withdrawal of American troops rather than a conditions-based 
withdrawal? Given your background and experience there, I think 
you are probably pretty well qualified to make that judgment.
    General Dunford. Chairman, I am aware of the consequences 
of our mission, the importance of our mission in Afghanistan, 
and clearly I also have a degree of personal commitment, having 
spent time there. I can assure you, if I am confirmed, I will 
provide advice to the President that will allow us to meet our 
desired end state, and I think that that will be based on the 
conditions on the ground, as you have articulated.
    Chairman McCain. Rather than a calendar-based decision.
    General Dunford. Chairman, my experience has been that 
sometimes the assumptions that you make do not obtain 
particularly with regard to time, and that is certainly the 
case in Afghanistan.
    Chairman McCain. Thank you.
    In Ukraine, it is obvious that the Russians continue their 
military buildup. I was in eastern Ukraine and watched the 
surveillance video that was made by the Ukrainians showing the 
gradual buildup of Russian forces inside Ukraine.
    Do you believe that we should give the Ukrainians with the 
counter-battery systems with which to defend themselves from 
mass Russian artillery and rocket strikes, and should we 
provide them with Javelin or tube-launched, optically-tracked, 
wireless-guided (TOW) anti-tank missile systems to defeat the 
Russian T-90 tank parades?
    General Dunford. Chairman, from a military perspective, I 
think it is reasonable that we provide that support to the 
Ukrainians. Frankly, without that kind of support, they are not 
going to be able to protect themselves against Russian 
aggression.
    Chairman McCain. General Dunford, I just would like to 
repeat again my appreciation for your service, and I am 
confident that you will serve with distinction. You are the 
principal military advisor to the President of the United 
States, and that is a unique role as designed in the 1947 act I 
believe. So I hope that you will keep in mind your obligation 
to the President but also to the men and women who are serving 
who we may have to send into harm's way and make sure they are 
provided with the best capabilities.
    Finally, I hope in answer to some of these questions, 
because I have run over time, you will talk about the 
devastating effects of sequestration on our ability to defend 
the Nation. Maybe you will just make a brief comment on that 
now.
    General Dunford. Chairman, I have dealt with the issue of 
sequestration as a service chief, and quite frankly, if we go 
into sequestration, we will be unable to support the current 
strategy that we have to protect our Nation. Quite honestly, 
the readiness of the joint force and modernization of the joint 
force will suffer, what I will describe and without 
exaggeration, catastrophic consequences.
    Chairman McCain. I thank you, General Dunford.
    Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Once again, thank you, General, for your service and your 
sacrifice.
    Following a bit on Senator McCain's final question about 
sequestration, the administration--and Secretary Carter made 
this clear--has adopted an anti-ISIL campaign with nine lines 
of effort, two principally controlled by the Department of 
Defense. Are you comfortable with that overall approach at this 
point?
    General Dunford. Senator Reed, I am comfortable with that 
overall approach.
    Senator Reed. The other lines of effort are controlled by 
other elements of the Government, State Department, Homeland 
Security, et cetera. Apropos of Senator McCain's question about 
effects of sequestration on the Department of Defense, are you 
concerned that these partners in this effort could be hamstrung 
just as much as you would be if the Budget Control Act (BCA) 
went into effect for them?
    General Dunford. Senator, very much so. I would say that 
not only do we just represent two of the nine lines of effort, 
but we cannot be successful in either Iraq or Syria or, 
frankly, in any of our other endeavors with out a whole-of-
government approach.
    Senator Reed. Let me just ask you since you are the expert. 
You were in Afghanistan. We had a significant military effort, 
but we also had a significant civilian agency effort, the State 
Department, Federal Bureau of Investigation (FBI), Drug 
Enforcement Administration, all of these agencies. I would 
assume you considered them to be integral and essential parts 
of your effort, and without them or without their ability to 
provide resources, you could not have accomplished what you 
did. Is that fair?
    General Dunford. Sir, I think it is absolutely fair. 
Although we have challenges remaining, I think we have 
accomplished quite a bit over the last few years, and from my 
perspective, that is because we have been able to integrate the 
capabilities of those organizations that you mentioned. In 
particular, I think the relationship that we have with the 
State Department in Afghanistan was absolutely critical to our 
success.
    Senator Reed. One of the most difficult issues you face is 
building the capacity of the Iraqi Security Forces, and this 
has been an endeavor frankly that we have tried for a long 
time. Do you have any sort of sense at this juncture of what we 
can or should be doing differently of how do we do this? We 
have heard colleagues come before the committee--your 
colleagues--and suggest that there are gaps of leadership at 
the upper levels. Just your perspectives on a length of time 
and the efforts we have to undertake to get a credible Iraqi 
force in the field, which will secure the country.
    General Dunford. Sir, with the caveat that I have been away 
11 months, but certainly, if confirmed, will go back almost 
immediately, the areas of most concern were intelligence, 
logistics, special operations capability, and the aviation 
capability, and then more broadly the ministerial capacity. 
Frankly, our estimates always were that that was a long-term 
endeavor. It would take years to grow the kind of capacity that 
we have in this country, and frankly, what we are not trying to 
do is develop the capability that we have in this country, 
something far less than that, but the ability at the 
ministerial level, at the minister of defense and the minister 
of the interior to support tactical-level organizations. So I 
think continue to stay the course in the plan that General 
Campbell has and recognizing that is going to require continued 
resources and patience is the way for us to be successful.
    Senator Reed. Now, I focus for a moment--I know your 
practical experience is Afghanistan and other places, but in 
Iraq there are the same capability problems. Does your analysis 
apply there also in terms of the long-term need to build up the 
Iraqi Security Forces and ministries?
    General Dunford. Senator, it does. In some ways the 
situation is the same. There are also some vast differences. I 
think one of the biggest challenges in Iraq has been when Prime 
Minister Maliki was there, he eliminated many of the capable 
quality leaders that were in the Iraqi Security Forces. So I 
think at the tactical level, it is fair to say today the Afghan 
forces actually have some pretty solid leaders. We have seen 
them. We have developed them. They have gone to our schools. I 
feel pretty good about where we are with the Afghan leaders. I 
think we have some work to do to rebuild the Iraqi Security 
Forces, frankly to get them back to perhaps where they were a 
few years ago.
    Senator Reed. There is one other aspect--in fact, there are 
many aspects of the situation in Iraq, but one is this tension, 
sectarian and geographic tensions in the country. But our 
policy is to support a unified government in Baghdad and work 
with them so that they are able to integrate their ethnic 
communities. Is that the approach that you think makes much 
sense?
    General Dunford. Senator, that is going to be very 
difficult to do, but at this point I believe that is the best 
prospects for long-term success is a unified, multi-sectarian 
government in Iraq. Frankly, if confirmed, if at any point I no 
longer believe that is possible, then my advice to the 
President will be adjusted accordingly.
    Senator Reed. Thank you very much, sir, and again, thank 
you for your service.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    In responding to one of the chairman's questions, you were 
talking about you did not have the authority to go after Assad. 
Is that not what you said that you do not have the authority to 
go after Assad?
    General Dunford. Senator, my understanding is that we do 
not have the legal authority at this time to go after the Assad 
regime, and it is also the policy of the administration not to 
go after the Assad regime militarily.
    Senator Inhofe. Okay. Well, I think for the record I would 
like to have you expand a little bit on that as to whether or 
not it would be desirable for you to have that authority.
    [The information follows:]

    President Assad's policies contributed to the rise of ISIL and 
motivate some members of ISIL today. However, the current military 
campaign in Syria is designed to degrade and ultimately defeat ISIL, 
not the Assad regime. If our policy changes, I will be prepared to 
provide a range of military options in support of broader political 
efforts to resolve the conflict.

    Senator Inhofe. We have been talking for a long time and 
with you also at these hearings about the amount of risk that 
we are at right now. You were quoted as saying our combatant 
commanders face increasing risk. So we are talking about the 
risk that is out there. You know, risk equals lives. We talk 
about this in all these areas.
    But how do you define too much risk? Are we there yet?
    General Dunford. Senator, I believe today we are capable of 
providing adequate security to protect our national interests. 
I also believe that we are at the razor's edge, and that has 
certainly been a subject of testimony several times before this 
committee is that our readiness level is at the point right now 
where were we to go below this level, we would have to adjust 
the ends of our strategy. We would no longer be able to support 
our strategy.
    Senator Inhofe. That is similar to the responses we get, 
whether it is General Odierno or any of the rest of them. They 
are very much concerned about the level of risk that we are 
accepting now that we never had to accept in the past.
    In the Ukraine--I am particularly sensitive to that. I 
happened to be there when they had the election that resulted 
in, for the first time in 96 years, no communists serving in 
their parliament.
    We talked about what they really should be having there. 
Are there obstacles, if you were to make that determination, as 
to giving them more to defend themselves, the things that we 
agree that they should have? Is there an obstacle that we could 
help with, or do you think you have that authority now?
    General Dunford. Senator, from a military perspective, 
additional capability to the Ukrainians would clearly help them 
to deal with both the separatist and the Russian threat in the 
Ukraine. There are some policy issues associated with that that 
do not fall into the Department of Defense (DOD) and military--
    Senator Inhofe. Yes, I understand that and I appreciate 
that answer.
    Kind of the same thing with the Kurds. Now, they have a 
need for, I guess, anti-armor, mine-resistant ambush protected 
(MRAP) vehicles, and a lot of these things. I get two 
conflicting stories, one from some of the top people in charge 
saying that by sending through Baghdad, you have a problem in 
getting it up to the fight. Yet, I heard just yesterday from 
someone who is charge that that problem has been resolved now. 
Is that really resolved? Do we have a problem getting the 
equipment that they need up there and those fighters to 
effectively fight?
    General Dunford. Senator, I watched carefully the hearing 
on Tuesday and the exchange that took place on this particular 
issue. You know, I have been briefed that in fact the issues 
have been resolved and the support is getting to the Kurds 
right away. But this would be one of those issues that, if 
confirmed, again Iraq, Afghanistan, and places where our young 
men and women are in harm's way would be the first places I 
would go to visit. This issue, because it is so important, 
would be one issue that I would look into personally.
    Senator Inhofe. Good. I appreciate that.
    In this morning's ``The Hill,'' General Petraeus had a 
couple quotes in there, and I will just read these. He said we 
can schedule an end to our role in that--talking about 
Afghanistan--in that nation's conflict, but we cannot schedule 
an end to the war there or an end to the threat from Al Qaeda, 
the Islamic State, or other extremist elements of the global 
jihad. Going to a zero option next year would be playing 
roulette with Afghanistan's future.
    Is Petraeus right?
    General Dunford. Sir, I think he is absolutely right with 
regard to the war would continue whether or not we are there or 
not, and I think you can assume that the war would get worse 
were our presence not to be there. Again, my assessment is that 
our presence ought to be based on the conditions on the ground, 
and I will certainly go over there and check those as soon as--
and if confirmed.
    Senator Inhofe. Very good. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman.
    General, ISIS with regard to Iraq and Syria. Would you 
generally ascribe to the fact that in Iraq it is going to 
require the Iraqis to have the will to fight to meet ISIS in 
Iraq and be successful?
    General Dunford. Senator, our current campaign is dependent 
on the capabilities of the Iraqi Security Forces to deal with 
ISIL.
    Senator Nelson. Go over to Syria. Now, that is a 
hodgepodge. How much do you think that the Assad regime staying 
in power would complicate the issue of us being able to take 
down ISIS in Syria?
    General Dunford. Senator, my assessment is it plays a 
significant role. I think Assad's brutality to his people was 
certainly the primary factor giving rise to ISIS is at least 
one of the assessments, and I ascribe to that particular 
assessment. I think his remaining in power has certainly 
continued to inflame people and gives ISIS the recruits and the 
support that they need to operate inside of Syria.
    Senator Nelson. I agree with that.
    Then the question is, when do we really press to have some 
kind of political settlement for Assad to exit? Do you have any 
thoughts on that?
    General Dunford. Senator, I do not. I am not involved in 
the dialogue today in that regard. The political resolution is 
one of the lines of effort that is part of our overall 
strategy. While I do not know, I would assume that today that 
issue is being addressed, and certainly if confirmed, I expect 
to be part of those conversations and know a bit more than I do 
today.
    Senator Nelson. General, someone of your stature is going 
to be very comforting to us to have the confidence to know that 
those very tough decisions that will be made with regard to 
limiting the effectiveness and ultimately defeating ISIS will 
be made with you sitting there at the table giving counsel.
    If you just look at a map of who is in control of Syria in 
the different geographical areas of Syria, it is a mess. How 
you bring order--thank you. Senator McCaskill has shown this is 
Syria and the different colors representing the different 
entities that in fact are in control in that geographic area. 
So it is comforting to know that you are going to be there 
giving your wise counsel.
    [The information referred to follows:]
      
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
      
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sessions?
    Senator Sessions. Thank you very much, Mr. Chairman.
    General Dunford, with regard to the Budget Control Act, 
which includes the sequester, the Budget Committee, the Armed 
Services Committee, with a bipartisan strong vote, has voted 
out legislation that will add, I believe, $23 billion above 
last year's spending for the Defense Department. I believe the 
Appropriations Committee has already voted out that same 
spending level, and it is on the floor.
    The problem is that the commander in chief, the President 
of the United States, is insisting on blocking that bill, 
encouraging Democrats to filibuster it until there is an 
agreement to spend an equal amount on non-defense. I just 
believe that the fact that we have a crisis internationally and 
we need to spend more on defense does not require that this 
Nation spend more on non-defense. So that is the difficulty we 
face. You will be seeing more of that, I guess, as time goes 
by.
    General Dunford, with regard to Iraq and this ISIS 
situation, is it not true that the threat in Iraq is not just a 
threat to Iraq but it implicates the national security 
interests of the United States and that we have a national 
security interest in blocking a takeover of Iraq by this 
extremist group ISIS that chops off heads and does other 
extreme things?
    General Dunford. Senator, I would agree that the issue of 
ISIS has both regional issues--it is creating regional 
instability, but absolutely we have U.S. national interests in 
a stable Iraq that is not a sanctuary for extremists.
    Senator Sessions. So I think it is a mistake sometimes to 
just sit back and say, well, we are going to wait on the Iraqi 
army to get its act together. We have trained the Iraqi army 
for over a decade. They have battalions and companies and 
organizations. They are not well led, and their morale is not 
good. But they have an army. The question is can we help 
encourage them to be more effective in fighting back against 
ISIS. Would you not agree?
    General Dunford. I do agree with that, Senator. I would 
just say, despite the challenges, we have had, as you know, 
some thousands of men and women from the United States Central 
Command that have been in Iraq and conducting strikes into 
Syria over the last year. Despite the challenges in pretty 
difficult conditions, I think they have had some 
accomplishments over the past year that we can be proud of. 
Clearly we are going to do more. I think Secretary Carter made 
that clear on Tuesday. Clearly we need to do more to assist the 
Iraqis in moving forward, and I think that is the plan.
    Senator Sessions. Well, the President's press conference 2 
days ago did not encourage me and did not clarify in my mind 
that we have a good strategy for Iraq. Frankly, I think General 
Dempsey and Secretary Carter following up on that were not very 
persuasive either in convincing me or the American people that 
we have a good plan.
    Now, based on your experience, is it not a fact that if we 
had a limited number, just five, special forces embedded with 
an Iraqi battalion of 600, that that can give confidence to 
that battalion, help improve their morale, and help them be 
more effective on the battlefield?
    Senator Sessions. Senator, it has been my experience that 
when U.S. forces have accompanied Iraqis--or for that matter, 
my experience in Afghanistan--that those units are more 
effective.
    Senator Sessions. Well, General Dempsey said he has not yet 
recommended that we embed a limited number, a very small 
number, of such forces in the Iraqi army, but he would do so if 
he thought it was appropriate. Do you not think it is time for 
us to maybe move from being in Baghdad in headquarters and 
actually move out to help provide this kind of confidence, the 
air cover, the direction of munitions, giving confidence of 
resupply and American commitment? Is it not time for us to move 
forward in that direction?
    General Dunford. Senator, without appearing to be evasive, 
what I really would like to do, if confirmed, is have the 
opportunity to get on the ground, speak to the commanders, and 
frankly provide a more comprehensive recommendation to how we 
can move the campaign forward in Iraq without focusing on one 
or another of the factors.
    Senator Sessions. Well, I hope you will do that quickly.
    Just one more thing. Senator McCain warned yesterday that 
we could be facing the same situation that he warned about Iraq 
in 2011 when we pulled out prematurely. Now we are going to be 
facing this decision in Afghanistan. I hope that you will be 
clear and firm in your recommendation to the President if you 
believe this plan we have today, date-specific withdrawal, is 
in error, and I hope you will do that. Will you do so if you 
think it is in error?
    General Dunford. I will do that, Senator.
    Senator Sessions. Thank you.
    Chairman McCain. Senator McCaskill?
    Senator McCaskill. Thank you.
    My good friend and colleague, Senator Sessions, and I have 
worked together on matters of fiscal accountability and trying 
to spend less money, but I have a different take than he does 
on where we are in terms of the military budget.
    I cannot figure out any reason why we would be putting the 
$40 billion increase into the war fund instead of into the base 
budget. I cannot think of any reason to do that other than one 
of misleading the American people about whether or not we are 
balancing something because that is the only place they can put 
the money and not have to pay for it. So they put it there so 
it did not have to be paid for and completely short-changed 
national security for our country in the form of cybersecurity, 
port security, airport security, Federal Bureau of 
Investigation (FBI), Central Intelligence Agency (CIA), all of 
which I know you would acknowledge, General Dunford, is a very 
important part of the role of keeping America safe. Would you 
agree with that?
    General Dunford. Senator, I would absolutely agree that all 
those organizations play an inextricable role in keeping us 
safe.
    Senator McCaskill. Let us make very clear, if in fact we go 
down this path of pretending we are balancing something by 
putting it in a fund that we do not have to pay for, will in 
fact the Overseas Contingency Operation (OCO) funds, or the war 
fund as I like to call them--will they do anything to avoid the 
force structure cuts that are looming across our Nation if we 
do not get off of this path of misleading the American people 
about what we are balancing?
    General Dunford. Senator, I think all of the service chiefs 
that have to balance a budget and certainly me included where I 
sit right now would much prefer that money to be in the base 
budget because that provides a degree of predictability that we 
can get after the two main issues that we have to deal with. 
One is modernization of force, and the other is to get the 
readiness back to a level that we are comfortable with.
    Senator McCaskill. So the cuts that we have seen this week 
that General Odierno announced--they are a drop in the bucket 
as to what is coming if we continue on this bizarre idea of 
putting all of this money in the war fund as opposed to in the 
base budget where force strength belongs. Correct?
    General Dunford. If the budget level goes below what has 
been requested in the President's Budget 2016, there will be 
significant additional cuts made.
    Senator McCaskill. Thank you.
    You know how hard we have all worked on the problem of 
sexual assault in the military. I am pleased that the incidents 
are down. I am pleased that reporting is up. I am pleased that 
the efforts that are being made to measure victim satisfaction 
with command look good. I think it is too early to declare 
success, obviously. We have a lot more work to do.
    But the thorny problem that remains, General, and one that 
I really want to make sure you have at the top of your list is 
retaliation. I know that there have been some initiatives 
begun, but I would like to see a written plan from you as 
Chairman of the Joint Chiefs with all of the chiefs signing off 
on what is your path to getting at this culture. The problem is 
not, based on the survey, the command. The problem is primarily 
lower level command, unit command, and peer-to-peer, not that 
there may not be some outliers there, but that is the bulk of 
the problem. That is a culture issue, and that means from the 
top.
    I am disappointed that we have not had more prosecutions. 
Retaliation is a crime. I know it is new. I know people might 
be very reluctant to bring somebody up on those charges because 
of what that might mean within their unit. But that is where 
you guys come in. I would like a commitment from you today that 
you would be willing to put a plan in writing that we could 
follow.
    General Dunford. Senator, I would make that commitment. I 
think you have correctly identified peer retaliation as the 
real issue that we are trying to grapple with in the wake of 
the Research and Development (RAND) report. I can assure you 
that the leadership across the Department has been carefully 
looking at that issue in an effort to set the right command 
climate where retaliation is unacceptable.
    Senator McCaskill. I will put a question for the record 
about the unused building report that Special Inspector General 
for Afghanistan Reconstruction (SIGAR) pointed out in 
Afghanistan. I know there was an investigation. You, of course, 
were not found to be a problem in this, but it is a problem the 
investigation found no problem and in reality there was a huge 
problem, that somebody signed off on a building for $36 million 
that is never going to be used and is sitting empty. We have 
got to make sure we avoid that.
    My final question is--if you do not have time to do it 
now--I am just about out of time. I want to make sure that we 
get your take on ISIS in Afghanistan. I know they are trying to 
move everywhere. Obviously, this is a Shia-Sunni issue and that 
is something that is prevalent throughout the region. With your 
experience in Afghanistan, are you comfortable that we have a 
handle on what ISIS is trying to do in Afghanistan?
    General Dunford. Senator, what I know from General 
Campbell's reports and intelligence is that we have seen a 
number of Taliban rebrand themselves as ISIS. But beyond that, 
I do not have a good feel at this time for the depth of the 
problem, but certainly it would be one of the issues I would 
look into if confirmed.
    Senator McCaskill. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Wicker?
    Senator Wicker. General Dunford, I think you are just the 
man for the job, but let me tell you you have got a lot of 
crises to preside over. I would simply ask you, during the 
course of your term in office, tell us what you need. Come back 
to us and be honest and tell us what our men and women in 
uniform need to succeed and get the job done because I do not 
think we are quite there.
    I was privileged to lead a bipartisan delegation of House 
and Senate Members over the past week to Ukraine. We met with 
President Poroshenko in Kiev, and he is grateful for the $300 
million that this Government provided in military assistance 
during the past year. He also mentioned the need for Javelin 
anti-tank missiles. I think your testimony earlier today is 
that that is a reasonable request on the part of the president 
of Ukraine, and it will be necessary for him to get those in 
order for him to defend his country. Was that your testimony?
    General Dunford. Senator, it was. From a military 
perspective, those kinds of capabilities in my judgment would 
be necessary for him to deal with both Russian aggression and 
the separatism issue that he is dealing with in Ukraine.
    Senator Wicker. Separatists that are backed by the Russian 
hierarchy.
    Would you also agree that it is unacceptable that this 
month's transfer of 100 armored Humvees to Ukraine took over a 
year to process due to bureaucratic delays at DOD and State?
    General Dunford. Senator, if it took a year to do that, it 
would be unacceptable. I am not personally aware of that issue.
    Senator Wicker. Okay. Well, look into that for us.
    I also led the delegation to Helsinki for the The 
Organization for Security and Co-operation in Europe (OSCE) 
parliamentary assembly. Before the delegation left--before the 
Russian delegation left en masse because of a dispute over five 
delegates being on the European Union (EU) sanctions list--the 
head of the delegation, Nikolay Kovalev, said that Russia's 
neighbors have no reason to be threatened by Russia. Now, of 
course, Russia has--under Mr. Putin's leadership, Russia has 
twice invaded neighbors, Georgia in 2008, Ukraine last year. We 
see now that there is a Russian official investigating the 
legality of Mr. Kruschev's transfer of Crimea back in the day 
saying that this perhaps was not an invasion because Crimea was 
never legally transferred to Ukraine by the Russian Federation.
    It concerns me that this same official is now investigating 
whether the transfer of the Baltic States, whether the giving 
of independence to the Baltic States, Latvia, Lithuania, and 
Estonia, was also legal. Perhaps that was not legal at all, 
this Russian official suggests.
    We can get to the issue this way. I just want to ask you 
this about our North Atlantic Treaty Organization (NATO) 
commitment. I can envision a situation where there are small 
jurisdictions within Latvia that have a majority of Russian 
speakers, small jurisdictions within Estonia that have a 
majority of Russian speakers. A pretext of a plebiscite is 
created at that point. I realize I am posing something to you 
that is hypothetical, but in light of pronouncements from 
officials in the Russian Federation, I think it is something to 
be concerned about.
    Zbigniew Brzezinski spoke to this committee earlier this 
year and said we need to create a trip wire in the Baltics and 
that this trip wire should communicate clearly to Russia that 
NATO will not tolerate violations of the territorial integrity 
of our allies.
    What do you think of this idea and can you highlight to 
this committee the steps DOD needs to take under leadership to 
send a credible message that this sort of pretext by the 
Russian Federation would absolutely not be tolerated by the 
United States and our NATO allies?
    General Dunford. Senator, I think our experience in Ukraine 
and in the other examples that you used highlights the fact 
that we need to update our deterrence and response model to 
deal with the kind of threat that we have today, which has been 
described as a hybrid threat from Russia, which combines 
political instruments, unconventional warfare, as well as 
support for separatists in these countries. Quite frankly, that 
needs to be a priority. You are asking what should the 
Department do. We frankly need an effective deterrent model for 
the 21st century to deal with the kind of threats that we are 
now seeing in Russia because, quite frankly, I think that kind 
of asymmetric threat is one we will continue to see in the 
future and certainly we are going to continue to see that in 
the European context.
    Senator Wicker. Would an incursion of Russian troops or 
Russian-back separatist troops in small jurisdictions of 
Russian-speaking majorities within Latvia and Estonia--would 
that be completely unacceptable to this Government?
    General Dunford. From a policy perspective, Senator, I 
cannot answer that. From a personal perspective, it certainly 
looks like a violation of sovereignty to me.
    Senator Wicker. Under article 4 of NATO, in my view it 
would be absolutely unacceptable. We need to make it clear. 
This administration needs to make it clear. This Congress needs 
to make that we will do what is necessary to prevent this sort 
of idea from ever being considered in the first place.
    General Dunford. Senator, I agree with that, and I think 
this also applies to the cyber threat as well, again, the idea 
of deterrence in response to a changing threat in the 21st 
century, and I think we need to update our models for both.
    Senator Wicker. Thank you, sir.
    Chairman McCain. Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman.
    Thank you, General, for your service to our great country, 
your family's dedication and sacrifice they have made with you 
I know over the years.
    Sir, I am sure you have had the opportunity to form 
opinions on what our threats have been and what our threats are 
today. What would you consider the greatest threat to our 
national security?
    General Dunford. My assessment today, Senator, is that 
Russia presents the greatest threat to our national security.
    Senator Manchin. Would you want to elaborate on that to a 
certain extent?
    General Dunford. Well, Senator, in Russia we have a nuclear 
power. We have one that not only has the capability to violate 
the sovereignty of our allies and to do things that are 
inconsistent with our national interests, but they are in the 
process of doing so. So if you want to talk about a nation that 
could pose an existential threat to the United States, I would 
have to point to Russia. If you look at their behavior, it is 
nothing short of alarming.
    Senator Manchin. I have been very much concerned about the 
same issue. I think we have talked about it briefly before when 
you visited my office. But I have been told by major scholars 
that the Cold War is colder today than it was when it was 
declared because of the lack of communications, the lack of 
inter-party affiliations. Do you find it to be true, and can 
you change that course in your new position?
    General Dunford. Senator, certainly the relationship of 
Russia a few years ago, if you recall--we actually were 
including them in NATO meetings and so forth, and those kinds 
of exchanges have stopped. From my perspective, my role would 
be even as the relationship is challenged and even with the 
difficulties that we face right now, I think it is important 
that we attempt to maintain a military-to-military 
relationship, an effective military-to-military relationship, 
with our Russian counterparts to the extent possible to 
mitigate the risk of miscalculation and begin to turn the trend 
in the other direction in terms of trust.
    Senator Manchin. Thank you, General.
    Also, going back to Iraq--it has been spoken previously, 
but could you find yourself at some time recommending to the 
President for a three-state solution in Iraq versus staying the 
course of a united Iraqi government?
    General Dunford. Well, Senator, from my perspective, I can 
imagine two states in Iraq. I have difficulty imagining a third 
separate state given the lack of resources that would be 
available to the Sunni. Frankly, I think if it was in thirds 
without a Federal Government, I think we would have some 
difficulty, the same difficulty that we have today exacerbated 
by the fact that there is not a central government.
    Senator Manchin. Basically you are acknowledging that the 
Kurds are strong, prepared, ready to go if they were given that 
opportunity?
    General Dunford. Senator, you know, again it is probably 
out of my lane to talk about what the organization of Iraq 
might be in the future. But I think from just a pure economic 
resources and governance perspective, the Shia and the Kurds 
are certainly much more equipped to set up a separate state 
than the Sunni would be at this time.
    Senator Manchin. I know it has been spoken about also, the 
mistake of us leaving Iraq, pulling our troops out when we did. 
Did we have an option to stay?
    General Dunford. Senator, I was not involved in the 
discussion at that time. The assessment of the administration 
at that time was we did not have an option to stay.
    Senator Manchin. So basically those of us who believe that 
maybe there could have been some forces left there or basically 
the evaluation Maliki was not doing his job, once we went down 
the path of democracy democratizing that country, we did not 
have the option to go back and stay there.
    General Dunford. Given what we were demanding of the 
Iraqis, they were not meeting our demands. I am not sure I 
would say that meant we had no option to stay.
    Senator Manchin. I have spoken many times about the lack of 
an audit. The only agency in the Federal Government that we do 
not audit is the Pentagon. Defense. The Marines have made an 
effort. I will say they have made more of an effort than any 
other branch of the military to do an audit, but it has not 
been fulfilled.
    What would your commitment be, sir, for us to have an 
audit, especially for us to know about our contractors, how 
much money we spend on contractors, how many contract forces 
that we have doing the job that I believe maybe our military 
and definitely our National Guard could be supporting in that 
effort that we are not doing today?
    General Dunford. Senator, we cannot be effective as a 
warfighting organization and we certainly cannot be efficient 
with the taxpayers? dollars if we do not have an effective 
audit. As you alluded to, we worked that pretty hard in the 
Marine Corps. I worked it both as an assistant Commandant and 
then over the last year as the Commandant. We did make a 
significant amount of progress. We were able to get to the 
point where we could internally audit all of the resources that 
were directly under the cognizance of the Marine Corps with 
some database challenges outside. But I can assure you that, if 
confirmed, you will have my commitment to continue to press 
hard in that direction and to support the efforts across the 
Department to make sure that we can come to you with a clean 
audit.
    Senator Manchin. General, I again want to thank you. You do 
have my support and I think the confidence of the American 
people, definitely the West Virginians. Thank you, sir.
    Chairman McCain. Senator Ayotte?
    Senator Ayotte. General, I just want to thank you for all 
that you have done for the country, and I think that you will 
do a tremendous job as Chairman of the Joint Chiefs of Staff. I 
want to thank Ellyn and your family for what they have done for 
the country and continue to do. We appreciate it.
    I wanted to also add my support to what Senator McCaskill 
said about the issue of retaliation. I think this is a very 
important issue as we focus on the work that we have done in 
this committee to eliminate and to work to prevent sexual 
assault in the military and to support victims and to hold the 
perpetrators accountable. So I think that is excellent. I look 
forward to seeing that proposal from you.
    I wanted to ask about the situation, as we look at Iran and 
their support for regional terrorism. How would you assess 
Iran's current activities and where are they engaging in 
support either directly or through proxies for efforts that are 
undermining security in the region?
    General Dunford. Senator, Iran is clearly a malign 
influence in the most destabilizing element in the Middle East 
today. They are providing support to the Huthis down in Yemen. 
They obviously provide support. Hezbollah is a clear malign 
influence in Lebanon. There are indications they are involved 
in Syria, and certainly they are involved and trying to expand 
their influence into Iraq. They are creating I think--they are 
exacerbating at least the Sunni-Shia sectarianism across the 
region.
    Senator Ayotte. I want to follow up more on that, but I 
also want to ask you. I saw reports that they were also engaged 
in supporting the Taliban in Afghanistan more now. Is there 
anything you can share with us on that?
    General Dunford. Senator, I have seen those same reports, 
and from my perspective, what I have seen in the reports is 
that they have provided some support to the Taliban in an 
effort to counter ISIL.
    Senator Ayotte. Do you believe, as we think about your 
experience--I know you commanded troops in Iraq. But certainly 
Iran has the blood of American soldiers on its hands for the 
explosive materials that they provided to the Shia militias in 
Iraq that killed many of our men and women in uniform. So do 
you think, as we look at the situation in Iraq and what is 
happening with the Shia militias you referred to, how could 
they be a malign influence in the longer-term solution in Iraq?
    General Dunford. Senator, they clearly could be a malign 
influence, which is why I believe we should not provide any 
support to those forces unless they are directly under the 
Iraqi Government and not provided support by the Iranians.
    Senator Ayotte. Thank you.
    I wanted to also ask you about the situation on cyber 
because the FBI Director--we have received briefings on the 
Office of Personnel Management (OPM) breach, but the FBI 
Director has said that he believes this is an enormous breach. 
Millions and millions of individuals who provided background 
information have been breached. Director Clapper has said that 
they believe it is the Chinese who have done this breach.
    When we look at the threats facing our Nation, how grave do 
you think the cyber threat is? Also, how would you assess our 
current posture with the Chinese and how we should be 
addressing the situation?
    General Dunford. Senator, I would agree with you. The cyber 
threat is clearly very significant. Frankly, every week we 
learn a bit more about the OPM breach. My number one concern, 
obviously, as a service chief is for the data and the wellbeing 
of the men and women whose data that is having been 
compromised.
    One of the challenges is, of course, attribution. But from 
my perspective, if confirmed, my role will be to provide the 
President with a full range of options to deal with these cyber 
attacks, which is what the OPM breach was.
    Senator Ayotte. So I know that Senator Manchin had asked 
you what you believe our gravest national security threat was, 
and you identified Russia. Certainly we have seen this 
aggression by Putin in Russia certainly invading other 
countries essentially.
    But what is it--as you look at the National security 
situation, you think about immediate threats to the country, 
what keeps you up at night the most?
    General Dunford. Senator, what keeps me up at night the 
most is our ability to respond to the uncertain. I am very 
confident--very confident--in the joint force today and our 
capabilities and capacities to deal with the challenges that we 
have today, albeit we need improvement in cyber, other 
capabilities, but on balance, the force that we have today is 
able to deal with the challenges that we know. There is very 
little residual capacity. This is the issue that has been 
discussed many times before this committee and that you have 
had some personal engagement on. It is the readiness to respond 
to the uncertain, frankly, that keeps me up at night as a 
service chief and certainly one that would keep me up at night 
were I to be confirmed as the Chairman.
    Senator Ayotte. Thank you.
    Chairman McCain. Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman and Ranking 
Member. I appreciate this hearing.
    Thank you, General Dunford, for your service. I am grateful 
for your wife and children being here with you. We all know you 
serve together.
    I want to continue along the line that Senator Ayotte 
started with with Iran. We are expecting a potential nuclear 
agreement between P5 Plus 1 as early as today. Are you 
concerned that lifting sanctions on Iran might allow that 
country to invest more money in terrorist activities in the 
Middle East, and what can we do to address those concerns?
    General Dunford. Senator, there is no question that signing 
an agreement will change the dynamic in the Middle East. The 
first thing I guess I would say is that, if confirmed, I know I 
would have the responsibility to develop options for the 
President to deal with the changing dynamic.
    With regard to increased resources for malign activity, I 
think it is reasonable to assume that if sanctions are lifted, 
the Iranians would have more money available for malign 
activities. But I would probably say that regardless of whether 
there is an agreement or not, my expectation is that Iran will 
continue the malign activity across the Middle East that we 
have seen over the past several years.
    Senator Gillibrand. I also want to continue the line 
started by Senator McCaskill about retaliation. Senator 
McCaskill was correct when she said this is something we are 
all very concerned about, and she said it is not just peer-to-
peer. She mentioned unit commanders. I want to be specific 
about this issue so you know the problem you are dealing with.
    So 53 percent was peer-to-peer retaliation, but 35 percent 
was adverse administrative action. 32 percent was professional 
retaliation, and 11 percent was punishment for an infraction. 
So you have to recognize some of this retaliation is being 
perceived by survivors to be done by unit commanders or someone 
within the chain of command because administrative retaliation 
or perceived administrative retaliation or professional 
retaliation is serious. So there is still a climate issue that 
the chain of command is responsible for, particularly unit 
commanders and lower level commanders, that is not getting the 
right message.
    In fact, the recent RAND survey said that 60 percent of 
women who said they experienced sexual discrimination or some 
kind of negative behavior came from their commanders, their 
unit commanders. So you have to recognize there is a climate 
issue that is not being adequately addressed. So when you do 
your report for this committee, I would like you to look at 
that issue as well.
    You also have the challenge that in the reported cases, 1 
in 7 of the perpetrators who were alleged have committed rape, 
sexual assault, or unwanted sexual contact was also in the 
chain of command. So you have a challenge with lower level 
commanders that is not yet being addressed that I would like 
your report to cover as well.
    Somewhat related, I want to talk about combat integration. 
I strongly believe that we should have standards that meet the 
needs of each position and then allow anyone in who meets those 
standards to compete. You have not been very vocal on this 
issue, but if confirmed, you will be one of those individuals 
who are advising the Secretary of Defense about whether the 
services should receive any exceptions to policy.
    Do you expect the services, especially the Marines, who I 
assume you have been tracking most closely, to ask for 
exceptions?
    General Dunford. Senator, I am not able to answer that 
question right now, and I can just explain the process in the 
Marine Corps. We have looked at this issue pretty hard. As you 
know, we put together a task force that is just completing. In 
fact, they will stand down this week. I expect the data that we 
have collected over the past 18 months in a very deliberate, 
responsible way to be available to me in the August-September 
time frame. We will meet the timeline established by Secretary 
Panetta and General Dempsey in a letter from 2012.
    Senator Gillibrand. Okay.
    Will you be looking across the services to see if one asks 
for exception in a position whose equivalent another service 
does not request an exception for? Will you be doing a 
comparison between services?
    General Dunford. Senator, my understanding of the way it 
will work now, again, if I am confirmed, sitting as the 
Chairman, is that I will have a responsibility to look at each 
one of the requests on its own merits and make a recommendation 
to the Secretary of Defense.
    Senator Gillibrand. Okay.
    Then with my remaining 30 seconds, I want to address cyber. 
We are constantly being confronted by our need for a capable 
cyber force. Cyber Command (CYBERCOM) and the services have 
been building out those capabilities, but there is still work 
to be done. How do you envision the force, and what do you see 
the role as the Reserve component?
    General Dunford. Senator, I envision the force, as you 
mentioned--it is certainly going to grow, and I would support 
the plans that Admiral Rodgers--and I think he has testified 
here before the committee. I think he is setting the right path 
in terms of growing the capacity of the cyber force.
    The Reserve component is going to be very important. In 
fact, in many cases and certainly as a service chief who looked 
at this, some of the skill sets that are unique to cyber are 
available to us in the Reserve Force. We need to figure out a 
way to maximize and leverage those capabilities.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, General Dunford, for your many years of service 
to this country and to the men and women under your command. I 
would like to also thank your family, your wife, your son who 
is present today, and your niece who is here as well. So thank 
you, sir.
    I was pleased to see that you listed modernizing the 
nuclear enterprise among the top challenges that you do expect 
to face in your response to the committee's advance questions. 
You also described our nuclear deterrent as the Nation's top 
military priority.
    Do you believe it is critical that we maintain the full 
triad of our delivery vehicles?
    General Dunford. Senator, given the nature of the threat 
today, I do believe that.
    Senator Fischer. Do you support a bomber leg of the triad 
that is armed with both the gravity bombs and the cruise 
missiles?
    General Dunford. I do, Senator.
    Senator Fischer. The gravity bombs, as you know, and the 
cruise missiles--they are entirely different capabilities. So 
one does not make the other redundant. Is that correct?
    General Dunford. It is, Senator, and my understanding of 
the issue is it adds a degree of complexity for the threat and 
gives us a greater assurance of being able to deliver, should 
that be required.
    Senator Fischer. Great. Thank you.
    As you know, modernization has been delayed and deferred 
for some time, and we are now at a point where the life of the 
delivery systems cannot be extended any further. As Deputy 
Secretary Work put it recently, the choice right now is 
modernizing a losing deterrent capability in the 2020's and the 
2030's .
    Some have argued that these bills are simply too large and 
we cannot afford to retain our nuclear deterrent. But, 
according to the Department's calculation, at its peak the 
nuclear mission would be about 7 percent of the nuclear budget. 
I think it is a little confusing when we hear about our 
deterrent described as unaffordable, and to me the alternative, 
letting that deterrent age out--that has the unaffordable cost 
to us.
    Do you have any thoughts on that?
    General Dunford. Senator, I would say I would pose the 
question--you know, some people would ask whether we can afford 
it. I would probably flip that around and say I think we need 
to think about how we will fund it. It is a capability that is 
required. Again, we have identified that as the number one 
capability that we need to have to protect the Nation, and 
nuclear weapons certainly create an existential threat. So for 
me, it is a question more of how do we work together moving 
forward to fund this as opposed to whether or not we can afford 
to do it.
    Senator Fischer. That is 7 percent of the budget at its 
peak, though, and being the number one priority, should that 
not be what we fund first?
    General Dunford. Senator, frankly, it is more complicated 
to me than that, and I have some experience with that inside 
the Department of the Navy. When I looked at the Ohio class 
replacement, as an example, and what that would do to 
pressurize the shipbuilding account, we would have to make some 
very difficult decisions inside the Department from a 
capability perspective. So while it is clear that that is the 
priority, it is not an issue of exclusivity. So balanced 
capabilities is what the joint force needs, and so I think we 
need to approach it from that perspective.
    Senator Fischer. Fair enough.
    I also appreciate the connection that you made between the 
modernization and the reductions to the hedge of our non-
deployed weapons. I think that this linkage is often 
overlooked, and I think it is based on simple logic. If you 
have a modern stockpile and you have a responsive 
infrastructure, you do not keep as many spares. I think you are 
more insulated as well from what is happening in the world. You 
are more insulated from those surprises and also from technical 
failure.
    But to be clear, do you believe that it would be premature 
to make any significant changes to the hedge before we have a 
modern stockpile and before we have a responsive 
infrastructure?
    General Dunford. Senator, my understanding at this time 
from the briefings I received is that would be the most prudent 
course for us to take.
    Senator Fischer. Thank you, sir.
    With respect to further nuclear arms reductions, do you 
believe that any reductions below the New Strategic Arms 
Reduction Treaty (START) force levels must be achieved through 
a negotiated treaty and also be verifiable?
    General Dunford. Senator, I do. I do not believe we ought 
to take unilateral action in that regard.
    Senator Fischer. Should non-strategic nuclear weapons be 
included as well?
    General Dunford. Senator, I would like to take that 
particular question for the record.
    [The information follows:]

    New START does not include any limitations on nonstrategic nuclear 
weapons. Any change to our nuclear deterrence posture, including both 
strategic and nonstrategic forces, must maintain strategic stability 
and sustain effective deterrence with the current strategic 
environment, and must also protect our ability to hedge against future 
technical and geopolitical changes. I agree that any future negotiated 
treaty must be verifiable. Given the current environment, we must also 
ensure existing arms control obligations are being met before 
concluding additional arms control agreements.

    Senator Fischer. Thank you.
    Do you agree that any arms control negotiations must take 
into account Russia's current behavior, especially its 
compliant record. You mentioned at the beginning that you feel 
that Russia is our greatest threat.
    General Dunford. I do, Senator.
    Senator Fischer. Thank you, sir.
    Chairman McCain. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to also thank General Dempsey and his family for 
everything they have done for the country.
    General Dunford, you and your family--thank you very, very 
much for stepping up to the plate. We are really in your debt.
    As you know and we have discussed in the past, I believe 
one of the greatest threats to our troops is when they find 
themselves in a personal place where they start to think about 
something like suicide. We lost over 400 young men and women in 
the past year. I know you have worked very hard in this area. 
You have done a lot of rigorous screening in the Marine Corps.
    Will you have that same screening used across the branches 
when you look at recruits and early on in their careers?
    General Dunford. Senator, one of the thoughts I had as a 
service chief was to ensure that once we identified a better 
way to screen, as you said, and identified people at risk and 
take appropriate action, that we would share that as best 
practices across the services. I would certainly look to 
facilitate that if confirmed.
    Senator Donnelly. Then the other question I wanted to ask 
you in this area is a lot of times, in talking to the parents, 
there has been a stigma for the young men and women to seek 
help. I know that you are committed to removing that stigma. 
Are we going to make sure that everybody knows, look, it is a 
sign of strength to try to get some help, to talk to somebody, 
as opposed to any weakness?
    General Dunford. Senator, absolutely. You know, this is one 
of those areas where you are never complacent, you are never 
satisfied with where you are. But I would tell you this. I 
really believe this: Over the past probably 5 or 7 years, the 
issue of stigma as it associates with suicide has changed 
dramatically. Even the way we deal with families in the wake of 
suicide, if you think about where we were a decade ago, is 
completely different. I do think the command climate is much 
more receptive to somebody today seeking help than it was in 
the past and making sure that help is accessible and, where 
appropriate, anonymous. But, again, I am not suggesting that we 
are satisfied with where we are, but I do believe we have made 
a lot of progress in that particular regard.
    Senator Donnelly. Thank you.
    Last week, I was on a trip led by Senator Kaine. We went to 
Iraq and met with a number of our forces there, some of the 
leadership. One of the greatest concerns was the Iraqi troops, 
and when you look at the number of ISIS fighters in Ramadi 
compared to the Iraqi troops, it was a very sparse number of 
ISIS fighters, but they won the day anyhow because the Iraqi 
troops turned and left.
    I know that that has to be a focus of the leadership of the 
Iraqi forces. Are we going to send the message that the only 
way through Ramadi is through Ramadi; that there is no back 
door anymore in these kind of efforts?
    General Dunford. Senator, again, you have been on the 
ground more recently than me now, and I know you have talked to 
the commanders there. I did have an opportunity to listen to 
General Austin the other day, and I have seen General Terry's 
plan, and I think they have made it very clear to the Iraqi 
Security Forces how important Ramadi is. In fact, they have 
been working hard over the last couple months to set the 
conditions for the Iraqis to be successful in Ramadi. It 
probably is one of those issues where it is a tactical action 
to go back in Ramadi, but there is no question in my mind that 
from an information operations perspective and frankly from a 
perception of the campaign, it is a strategic action. I think 
the Iraqis understand that.
    Senator Donnelly. One of the other groups we met with--and 
I know the marines have shed so much blood and treasure in 
Anbar Province over the past years. We met with a lot of the 
Sunni tribal leaders, and they said, look, we are still united 
with you but we need to know that you are in this, that you 
care, that you will be there. I mentioned this the other day to 
Secretary Carter and General Dempsey. One of the council 
members from Haditha said, we have got people eating grass in 
our town now. These are people who worked with the United 
States. They are now eating grass. There is no milk for our 
children. We need you to help in this humanitarian crisis.
    So I think we not only have to win the battles, we have to 
re-acquire the hearts and minds of the people there. They said, 
if you do, we will move these folks out. I just wanted to get 
your views on that.
    General Dunford. Senator, I agree, and I think with regard 
to Anbar, I have got both a personal and a professional stake, 
having lived in the province for a year and developed 
relationships with some of the people in the Anbar Province. I 
could not agree with you more that their confidence in our 
commitment, their trust in our commitment will absolutely have 
an impact on the success of our campaign not only from the 
military perspective, but from the perspective of the people's 
willingness to support us.
    Senator Donnelly. The last thing I wanted to mention is 
Syria. It appears that the plan we have right now is really no 
plan. You know, we have talked about buffer zones when we were 
in Saudi Arabia--Chairman McCain with a group of us. We talked 
about creating no-fly zones there. So we seem to be in search 
of a plan. My fear is that Assad is going to fall, and we are 
hearing that from a lot of folks in the area that he is on very 
shaky ground right now. Do we then look up the next day and see 
a race between ISIS and al-Nusra to take over the rest of the 
country, which is a nightmare scenario at that point? So you 
are stepping into a real challenging position, but I think one 
of the very, very front on the lens is Syria is going to 
change. It is going to change quickly, and we had best be 
prepared for that change and be ahead of it or else we are 
going to look up and an entire country is going to be gone.
    Thank you.
    General Dunford. Thanks, Senator.
    Chairman McCain. Senator Cotton?
    Senator Cotton. General Dunford, thank you for being here 
today. Thank you for your years of service. Mrs. Dunford, thank 
you for your years of service.
    General Dunford, you said earlier that you believe Russia 
is the gravest threat that the United States faces. I take it 
that is because, in large part, Russia is the only country with 
a nuclear capability to destroy the United States and our way 
of life?
    General Dunford. That is one of the reasons, Senator, and 
of course, that is combined with their recent behavior.
    Senator Cotton. Given that Russia, according to the 
administration, is currently in ongoing violation of the 
Intermediate Nuclear Forces Treaty, do you believe the United 
States should consider withdrawing from that treaty?
    General Dunford. Senator, I would like to take that for the 
record.
    [The information follows:]

    We view Russian violation of the Intermediate-range Nuclear Forces 
Treaty with great concern. But it is not yet time to consider 
withdrawal. Our goal remains to return Russia to compliance and 
preserve the viability of the Treaty. At the same time, we must not 
allow the Russian Federation to gain a significant military advantage 
through their violation of an arms control treaty. It is my 
understanding, the Department is developing and analyzing potential 
response options for the President, and will consult with our Allies.

    Senator Cotton. Okay. We would like to hear a response to 
that for the record because as it currently stands, Russia and 
the United States are the only parties to the treaty, and 
Russia is violating it. It means that the United States is the 
only country in the world prohibited from developing missiles 
with a range of 500 to 5,000 kilometers.
    The President currently has a proposal to preposition some 
equipment in our eastern NATO allies? countries as a response 
not just to the capability that Russia has but also the 
intention they have displayed to put stresses on our alliance. 
I find that proposal somewhat underwhelming, although a step in 
the right direction. Are there barriers to stationing troops in 
those countries up to the battalion or even brigade level?
    General Dunford. Senator, I think that proposal is part of 
a wide range of activities. One is to have infrastructure that 
we can support deployments. The other is to preposition 
equipment so we can rapidly move forces into Europe. Then the 
other piece of it is actually rotational forces, as you are 
suggesting. So I think rotational forces are envisioned as part 
of the whole package that Secretary Carter announced at the 
defense ministerial in NATO a month ago.
    Senator Cotton. Thank you.
    I would like to move now to Iran. As far as I know, there 
has still not been an announced nuclear agreement with Iran. 
But under any such agreement, Iran will probably get a signing 
bonus of billions and billions of dollars. How do you expect 
Iran will use that signing bonus?
    General Dunford. Senator, again, from the outside looking 
in, there are two challenges they have. One is their economy 
internally and the disaffection of the Iranian people as a 
result of that economy, and the other is that they use 
resources that they have available to support their malign 
activity across the region.
    Senator Cotton. So you believe that at least part of that 
money can go to terrorist organizations they support like 
Hezbollah, as well as to destabilize governments in the Middle 
East like support for the Huthis in Yemen or Shiite militias in 
Iraq.
    General Dunford. Senator, I think it is reasonable to 
assume that.
    Senator Cotton. Does the United States have the military 
capability to destroy Iran's nuclear program?
    General Dunford. My understanding is that we do, Senator.
    Senator Cotton. You have served in Iraq and Afghanistan. Do 
you know how many soldiers, marines underneath your command 
were killed by Iranian activities?
    General Dunford. Senator, I know the total number of 
soldiers, sailors, airmen, and marines that were killed by 
Iranian activities, and the number has been recently reported 
as about 500. We were not always able to attribute the 
casualties that we had to Iranian activity, although many times 
we suspected it was Iranian activity, even though we did not 
necessarily have the forensics to support that.
    Senator Cotton. So about 500 confirmed, but many more 
suspected killed in action and even more wounded in action.
    You have a reputation for being particularly thoughtful 
when you deal with the families of fallen servicemembers. What 
would you say to family members of a soldier, sailor, airman, 
or marine that was killed by Iranian activity if we make a 
nuclear agreement with Iran before they change their behavior 
in the region?
    General Dunford. Well, Senator, what I would say is that my 
expectation is that regardless of there being an agreement or 
not, Iran will continue to be a malign force and influence 
across the region. Then if confirmed as the Chairman, I will 
make sure that our leadership has a full range of military 
options to deal with Iranian activity.
    Senator Cotton. It has been reported that your nickname is 
``Fighting Joe.'' Is that correct?
    General Dunford. Senator, actually it is not one I use.
    Senator Cotton. But it is one that has been given to you. 
Correct?
    General Dunford. Senator, perhaps by my wife.
    [Laughter.]
    Senator Cotton. Do you care to tell us the origin of that 
nickname given to you that you choose not to use?
    General Dunford. Senator, I would prefer to talk about that 
in private, if you do not mind.
    Senator Cotton. So I have heard it reported that it was 
because of your activities as a commander in the early days of 
the Iraq war as an infantry officer.
    Given whatever budget agreement we reach, it will probably 
be inadequate to meet the forces that we face and the long-term 
modernization needs that we have, whether it is the long-range 
strike bomber or the F-35, the Ohio class replacement 
submarine. Are you worried about the next generation of 
infantrymen in the Marine Corps and the Army, that we are going 
to be taking money from our ground troops to put in major 
capital investments, which are clearly needed?
    General Dunford. Senator, I am concerned, and I think it is 
broader than just the infantry piece. I mean, I think 
experience tells us we need a balanced inventory of 
capabilities and capacities in the joint force to be 
successful.
    When I answered the question of Senator Ayotte earlier when 
she asked me what kept me up at night, I talked about the need 
to respond to the uncertain. What concerns me are people who 
actually think they know what the future is going to look like 
because our experience tells us we do not. So having a full 
range of capabilities that includes effective marines and 
soldiers from my perspective is the prudent thing to do.
    Senator Cotton. Thank you.
    In your long and distinguished career, I think we put 
ground forces at a minimum into Grenada, Panama, Iraq, Somalia, 
the Balkans, Afghanistan, Iraq again, and there is no doubt 
that we may be called upon again in the future. So I hope in 
your tenure that even if you do not want to be called 
``Fighting Joe,'' that you will be on the lookout for all the 
Fighting Joes in the Marine Corps and the Army so the country 
will have them ready to serve once again.
    General Dunford. I will do that, Senator. Thank you.
    Chairman McCain. The committee will not review how the 
Senator from Arkansas got his nicknames here in the Senate.
    [Laughter.]
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you, General Dunford, to you and your family.
    General Dunford, with the President's recent announcement 
about 500 more advisors going into the anti-ISIL mission in 
Iraq and Syria and in the region, we are now up to 3,500 troops 
that are serving abroad in that battle serving as advisors, as 
trainers, special forces coordinating air campaigns, conducting 
ground strikes. The war passed its 11-month anniversary 
yesterday. 2 days ago, General Dempsey was here and testified 
that he believed in a mission of this complexity, it was likely 
to be a multiyear effort that would require a sustained 
commitment by the United States to defeat ISIL.
    Do you think it would be received positively by the troops 
who we are asking to deploy far from home and risk their lives 
if Congress were to have a debate and authorize and affirm the 
U.S. mission against ISIL?
    General Dunford. Senator, I do think it would be positive 
from a couple perspectives. One, the reason you mentioned is--I 
think what our young men and women need--and it is really all 
they need to do what we ask them to do--is a sense that what 
they are doing has purpose, has meaning, and has the support of 
the American people. So that is the first reason.
    But I also think that there is a second benefit from such a 
debate, and that is to send a clear and unmistakable message to 
our adversaries and to our allies that we are committed to this 
endeavor.
    Senator Kaine. Thank you, General.
    With respect to the anti-ISIL effort, I want to pick up on 
something Senator Reed was talking about earlier. The whole-of-
government approach, as you referred to it, has sort of nine 
lines of effort, and just for the record--I think we know 
these, but for everybody there--supporting effective governance 
in Iraq, denying ISIL safe haven, building partner capacity, 
enhancing intelligence collection on ISIL, disrupting ISIL 
finances, exposing ISIL's true nature, disrupting the flow of 
foreign fighters, protecting the homeland, and humanitarian 
support. Those nine lines--two are purely DOD, denying ISIL 
safe haven and building partner capacity. The DOD has a piece 
of some of the others, but the others are generally non-DOD.
    You have testified that you think the effect of sequester 
on the DOD mission could be catastrophic. But given the fact 
that seven of these line items are non-DOD, would you agree 
that the allowance of sequester cuts to come back full force 
October 1 would also significantly hurt the other seven lines 
of effort, which are critical to defeating ISIL?
    General Dunford. Senator, I do. If you just do not mind, I 
would just like to talk about the relationship between the two 
lines of effort in the DOD and the other seven because I think 
it highlights the issue.
    Senator Kaine. Please.
    General Dunford. From my perspective, the two lines of 
effort that we have right now--one, deny sanctuary and to build 
partnership capacity in both Iraq and Syria--really are buying 
time and space for those other seven lines of effort to work. 
But to be quite honest, you know, I do not see how we can have 
an enduring success unless those other seven lines of effort 
are addressed, and they are, in the final analysis, more 
important.
    I think the military lines of effort will set the 
conditions for those other seven lines of effort to be put into 
effect, but I certainly cannot see us being successful without 
all of them being properly resourced. When you talk about 
threat finance, when you talk about moving foreign fighters, 
and as importantly, when you talk about the State Department's 
efforts to negotiate to develop effective governance in both 
Iraq and Syria, those are going to be very important actions to 
be taken for us, again, to have enduring stability in the 
region so we can actually deal with this issue once and for 
all.
    Senator Kaine. I think there has been some suggestion that 
if we fix sequester for defense, that is all that we need to 
do. But even for important defense priorities like defeating 
ISIL, the testimony you have just given about the connection 
between non-defense investments and defense investments in 
defeating ISIL is really important. I will just note, by my 
count, 95 of 100 Senators are now on record either by voting in 
the budget or voting in the National Defense Authorization Act 
(NDAA) or in their public statements for supporting the notion 
that sequester should be fixed both for defense and non-defense 
accounts. It is my hope that we will do that.
    With respect to training and equipping opposition in the 
anti-ISIL battle, just two items. Senator McCain first raised 
in September in a hearing--I think it was in this room--the 
question of if we train folks to fight ISIL in Syria and they 
get attacked by the Assad regime, will we protect them? He 
still has not gotten an answer to it. He asked it again 
yesterday. So by my count, September to now, that is 9 months 
without a clear answer.
    We were told in theater last week that the current rules of 
engagement still would prohibit U.S. effort to support U.S.-
trained anti-ISIL fighters in Syria if they come under attack 
by the Assad regime. I have asked questions for the record to 
get that clarified, and I would like to know if that is in fact 
the policy, if DOD intends to change the policy, when they will 
change the policy, and if not, what do we need to do to change 
the policy because I do not believe we should be sending U.S.-
trained folks into a theater of war without giving them a 
guarantee that they will be protected. Those questions will be 
record questions from the hearing 2 days ago, but I just want 
to let you know that those are coming and we view that as a 
very important matter.
    General Dunford. Thank you, Senator.
    Senator Kaine. Thank you, Mr. Chair.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    General and Ms. Dunford, I want to thank you for your 
service to the country taking on this new responsibility. I 
certainly know that marines all over the country, whether on 
active duty or retired, take great pride in the fact that you 
are only the second marine ever nominated for this post. I know 
your career has exemplified the values of honor, courage, and 
commitment that are the values of the Marine Corps. I certainly 
plan on voting for you with enthusiasm and encourage my 
colleagues to do so as well. So we look forward to seeing you 
tomorrow night at the parade.
    I wanted to ask a few questions about the military 
relationship with the Congress, even though your role is going 
to be principal advisor to the President.
    First, in the area of force posture, this committee 
occasionally weighs in through the NDAA and other means on key 
force posture issues, number of ships, basing of troops, 
aircraft like the Fairchild Republic A-10 Thunderbolt (A-10). 
When this happens, how important is it that the military follow 
the defense guidance of the Senate or the Congress?
    General Dunford. Senator, I think it is very important, 
given how explicit it is in the Constitution what the 
responsibilities of the Congress are in that regard.
    Senator Sullivan. So let me provide a couple examples. So 
let us say there was an amendment from the chairman and it was 
about the number of aircraft carriers, passed unanimously 
through the committee, votes on the Senate floor. Do you think 
the CNO should say, well, the chairman does not know that much 
about the Navy anymore, we are going to blow that advice in the 
NDAA off? Is that an appropriate role for the military?
    General Dunford. If Congress passes a law, Senator, it 
would not be appropriate to ignore it.
    Senator Sullivan. So how about an NDAA amendment that says 
it is the sense of Congress, in support of the President's 
rebalance in the Asia-Pacific strategy, to increase forces in 
the Pacific Command Area of Repsonsibility (PACOM AOR)? Is it 
appropriate to ignore that or even significantly decrease 
forces? What do you think our response to that should be if 
that is happening?
    General Dunford. Senator, first, obviously, the sense of 
Congress ought to inform all the actions--
    Senator Sullivan. There is a recent amendment that says 
exactly that.
    General Dunford. Right.
    Senator Sullivan. Let me provide a second area that we have 
talked about a little bit in terms of emerging threats. You 
know, sometimes the Department of Defense civilian and military 
officials, because there are so many threats out there, miss 
certain threats. Let me provide an example of one that 
everybody seems to be focused on with the exception of the 
Department of Defense.
    You may have seen ?Newsweek? this week had a cover story on 
the Arctic and what they called ?In the Race to Control the 
Arctic, the U.S. Lags Behind.? It is a very long article. It 
talks about how this is the world's newest great game, 
Kipling's term for the struggle between major powers to 
dominate the earth's remote but very strategic places. It talks 
about how the Russians are very, very aggressively moving 
military forces into the Arctic, serious military exercises, 
and how, whether it is the Coast Guard or the Secretary of 
Defense saying this new kind of geopolitical cold war the U.S. 
is in danger of losing. We are not even in the same league as 
the Russians. We are not even playing this game at all. So I 
think it is safe to say the Department of Defense has been 
asleep at the switch on this.
    Congress has been more attuned to this issue. In this 
year's NDAA, there is a section that requires the Department of 
Defense to provide Congress with a military strategy, given the 
new threat levels, and an Operation Plan (OPLAN) for the Arctic 
based on the increased interests and threats.
    Does it make sense to cut any of America's limited number 
of cold weather-trained warriors in the Arctic before this 
congressionally mandated strategy is completed?
    General Dunford. Senator, I guess I am not sure which 
forces you are alluding to be cut.
    Senator Sullivan. Well, there are only certain forces in 
the Arctic right now. They are all in Alaska.
    General Dunford. Senator, I would like to take that for the 
record. I am not aware of the full range of decisions that are 
being made right now and what the implications are.
    [The information follows:]

    The Department's 2013 Arctic Strategy is aligned with the 2013 
National Strategy for the Arctic Region. Our current capabilities and 
posture protect U.S. interests, and we are evaluating requirements 
against the evolving security environment to ensure we continue to meet 
our global defense responsibilities. Further development of cooperative 
strategic military partnerships with, for example, Norway and Canada, 
will underpin the Department's balanced approach to a region that is 
receiving increased attention.
    The reduction of cold weather trained personnel is a result of the 
ongoing need to balance the growing importance of Arctic security with 
current operational priorities and resource constraints. DOD has a wide 
range of capabilities that can be deployed with proper preparation in a 
variety of operating environments, including the Arctic. As we continue 
to review requirements, we will review DOD's recent Arctic Strategy as 
well. If confirmed as Chairman, I will meet the NDAA mandate to provide 
Congress with a military strategy for the Arctic.
    We are and will continue to train and operate regularly in the 
Arctic to meet our primary objectives of ensuring security, supporting 
safety, and promoting defense cooperation while preparing for a wide 
range of challenges and contingencies.

    Senator Sullivan. General, I mean, I think it is important 
to recognize, you know, it is hard to figure out appropriate 
force levels and capabilities in the Arctic without having a 
plan. We have mandated the desire and need for a plan, and I 
think we are getting a little bit of the cart before the horse, 
cutting forces before we even know what our plan is. But we 
certainly recognize that there is an increased threat. Congress 
has, and we hope the DOD will recognize it is as well.
    General Dunford. Senator, if confirmed--I know I have had 
some conversations with both the current Chief of Naval 
Operations and Commandant of the Coast Guard about the 
implications for the Arctic. The commitment I would make to you 
is that we will, in fact, develop an appropriate role for the 
military in support of our economic and political interests in 
the Arctic.
    Senator Sullivan. Thank you.
    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman and General Dunford 
and Mrs. Dunford and your family, for your service.
    I just wanted to pick up very briefly on the issue of 
sexual trauma in the military and the concerns about 
retaliation. I think that you had noted that you would 
determine the root causes and continue to work to ensure that 
the culture does not support retaliation.
    I would ask you to have a sense of urgency as you respond 
to this committee on how you are going to address and resolve 
the issue of retaliation because even as we downsize our 
military, it is even more important that our troops? morale 
remain strong and that there is cohesion, and there could not 
be strong morale or cohesion if some of your troops are 
encountering sexual assault and harassment and retaliation. I 
just wanted to make that point.
    Could you share very briefly your views on the rebalance to 
the Asia-Pacific?
    General Dunford. Senator, I can. It is absolutely critical 
that we do that, given both the demographics in Asia but also 
our economic future. So there is no question about it. That is 
going to require us to modernize our alliances, and I think you 
have seen some progress in that regard, our relationship with 
South Korea, our relationship with Japan, our relationship with 
the Philippines, Vietnam, India, Australia have all been 
adjusted here in recent months. I think we have an 
unprecedented level of exercises and engagement right now in 
the Pacific again to assert our influence and to provide a 
stabilizing presence.
    The most important thing I think the rebalance to the 
Pacific does is it provides a security infrastructure within 
which we could advance our National interests. That is what has 
existed for the past 7 years, and I think the rebalance to the 
Pacific, as we know it today, is designed to modernize that 
security infrastructure and make sure it is in place so that 
just as we protect our National interests over the past 7 
years, we can do that in the indefinite future as well.
    Senator Hirono. I just got information on the cuts that 
will happen to Pacific Command (PACOM) as a result of the 
budget necessities. I am glad to know that General Odierno did 
say that the cuts were with regard to the importance of a 
rebalance, and therefore, we want to make sure--and this is 
something that I know that Senator Sullivan shares with me--
that the rebalance to the Asia-Pacific remains a very strong 
commitment on our part.
    You mentioned that Russia is the greatest threat to our 
National security. Where would ISIL, China, and North Korea 
fall with regard to our National security dangers?
    General Dunford. Senator, if I had to rack and stack them 
today, I would have Russia down as number one. I would have 
China down as number two.
    Senator Hirono. Could you explain why briefly?
    General Dunford. Sure. Russia, of course, because of 
nuclear capability and their aggression.
    China because of their military capability, their growing 
military capability, and their presence in the Pacific and our 
interests in the Pacific. So it is a relationship between their 
capabilities and our interests. It does not necessarily mean 
they are a current threat. It does not mean they view China as 
an enemy. But, again, as someone in uniform, I get paid to look 
at both somebody's intent and their capabilities. So when I 
look at Chinese capabilities relative to our interests in the 
Pacific, I would have to consider China as an area of concern 
for security, again as distinct from a threat.
    Clearly, North Korea with ballistic missile capability and 
the potential to reach the United States and attack the 
homeland is high on that list.
    Then ISIL.
    But, you know, Senator, I just want to make it clear. As I 
go down that list and prioritize, I do not view that meaning 
that we can attack those issues in sequence or that a 
prioritization of one at the expense of the other is 
necessarily something we would have to do at this particular 
time. All four of those security issues are ones that require 
the Department to look at. They all create a challenge that 
needs to be addressed.
    Senator Hirono. That is why we live in very complicated 
times.
    I would like to focus on our distributed laydown in the 
Pacific. Specific to Japan, I am aware of the concerns of the 
Okinawan population and of their leadership's desire to halt 
construction of the Futenma replacement facility. Can you 
characterize our relationship and the challenges for relocating 
our forces from and within Japan? Because that is very much a 
part of the rebalance that we are committed to.
    General Dunford. Senator, thanks. I recently did visit 
Japan. I was encouraged by my visit. I met with a number of 
their senior leaders, to include the minister of defense. I 
received nothing but their full commitment to continue with the 
Futenma replacement plan. So my sense is that the Japanese 
Government is committed to that. They recognize that that is 
important for us to continue with the preferred laydown that 
you alluded to. So my sense right now is that our relationship 
with the Japanese and their stated commitment--we are in a 
pretty good place with regard to the Futenma replacement 
facility.
    Senator Hirono. Do you view the Okinawa situation as mainly 
a concern that should be dealt with within Japan and their 
government?
    General Dunford. Senator, we--and I specifically now talk 
about the marines in Okinawa. We need to be good neighbors and 
set the conditions for a positive relationship with the 
Okinawan people. So I think we can make a contribution. But at 
the end of the day, the issue of the Futenma replacement 
facility from my perspective is in fact an internal Japanese 
political issue that has to be worked by the Japanese 
Government.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Heinrich?
    Senator Heinrich. General Dunford, welcome to you and your 
family. In your written testimony, you state, as Senator 
Fischer pointed out, that our nuclear deterrent is the Nation's 
top military priority. That leads me to a specific question 
related to how we plan for that priority over time.
    The health of our Nation's whole nuclear weapons complex is 
critical to our nuclear deterrent. One of the things you wrote 
in your written testimony is that we must recruit and train our 
next generation workforce capable of certifying stockpile 
requirements and to modernize the nuclear weapons 
infrastructure.
    Can you share with me your thoughts specifically on LDRD, 
or laboratory-directed research and development, and the life 
extension programs that are going on at our National labs and 
their role in achieving recruitment and retention of that next 
generation nuclear workforce?
    General Dunford. Senator, that is an issue that in my 
current capacity I frankly have not developed any level of 
expertise, and I would like to take that one for the record.
    [The information follows:]

    While I am not familiar with these programs in my current capacity, 
I understand the warhead Life Extension Programs and LDRD represent the 
broad nature of the workload at the Department of Energy's national 
security laboratories. These programs are necessary to deliver near-
term warhead commitments while advancing science and technology for 
future national security needs. Furthermore, they contribute towards 
maintaining a steady, sustainable, and meaningful workload for the 
laboratories and are critical for attracting and retaining the highly 
technical workforce required to sustain our Nation's nuclear deterrent.

    Senator Heinrich. That would be fine. I look forward to 
engaging you on that in the future. I think it is going to be 
really important for us to view some of the particulars of how 
we manage the labs and particularly the things that bring 
people into the pipeline at the front end with the greatest 
amount of expertise and then they stay in those positions, rise 
up through the labs, and provide the continuity that it is 
going to take to make sure that we have the kind of modern 
deterrent that we need.
    I want to focus my next question on some of the challenges 
here at home. In my view, defense innovation is moving too 
slowly, oftentimes in cycles that last years, while commercial 
innovation can be measured in cycles of months.
    This committee included a section in this year's NDAA to 
authorize funding, about half of which would be dedicated for 
directed energy to accelerate the fielding of a variety of 
important offset technologies including, in addition to 
directed energy, things like low-cost, high-speed munitions, 
cyber capabilities, autonomous systems, undersea warfare, and 
intelligence data analytics.
    What role do you think the development of these new 
technologies like directed energy and robotics will play in our 
National security posture? What steps should we take to develop 
and deliver operationally useful systems more quickly?
    General Dunford. Senator, in my capacity as the Chairman, 
if I am confirmed, I view the future of the joint force as 
being one of my critical responsibilities. A key piece of that 
is making sure we keep apace of innovation so that we not only 
get better at doing what we are doing today, but we find 
fundamentally different ways to do things in the future that 
are more effective and they maintain our competitive advantage. 
So I think what you are outlining is certainly an area of 
concern for me. Even as a service chief, I would tell you that 
over the past decade our efforts at innovation probably were at 
a lower priority than they ought to be, and we have, over the 
past year, tried to energize that. I would certainly bring that 
same focus and attention if I was confirmed as the Chairman.
    Senator Heinrich. I appreciate that.
    One other challenge at home here is that the Air Force's 
remotely piloted aircraft career field is under really severe 
strain, largely through increased combatant commander 
requirements, insufficient personnel policy actions to improve 
manning levels, and just the basic reality that the Air Force 
is losing more remotely piloted aircraft pilots than it is 
training. We have heard from Secretary James and General Welch. 
They have assured this committee that they are dedicated to 
resolving the shortfall, but I also want to get your commitment 
to helping resolve this issue. So if confirmed, I would just 
ask that you make that a priority.
    General Dunford. Senator, I would maybe just comment 
quickly that those men and women that are in that field 
represent a core capability in the joint force, and their 
effectiveness, their morale, their willingness to continue to 
serve is absolutely important. I have spoken to General Welch 
about this particular issue, but I will certainly reinforce the 
efforts of the Chief of Staff of the Air Force and the 
Secretary of the Air Force to make sure that those individuals 
are appreciated and that they have a climate within which they 
want to remain airmen.
    Senator Heinrich. I appreciate that deeply. I think it is 
an area where we are seeing some severe strains and where folks 
really need our support. So thank you.
    Chairman McCain. Senator Tillis?
    Senator Tillis. Good morning, General Dunford. Thank you 
for your service and for your family's longtime serving our 
Nation.
    I leaned over to Senator Sullivan during some of your 
comments, and I also thoroughly appreciate your precise answer 
to questions. It is refreshing to get that in the committee.
    I would like to go back to a question or build on a 
question that Senator Sessions asked of you, and it had to do 
with the plus-up of spending and the use of OCO as a way. But 
we all know that that is not the best way to do what you need 
to do, primarily for the purposes that you pointed out, the 
certainty. It still does not give you long-term certainty.
    But my question to you is have you given thought to how you 
could potentially use this funding, although it is not a long-
term commitment, to take the edge off of sequestration and any 
ideas on precisely how you would?
    General Dunford. Senator, we started to look at that, and 
it would really require a change in the rules for using OCO for 
us to be able to do that. Right now, if you gave us OCO, given 
the current rules, we would not be able to use it in the places 
where we most need it. Much of the money that we requested, in 
addition to the BCA level in the President's Budget for 2016, 
was really focused on modernization. That is the thing that has 
suffered the most over the last 2 years, in addition to 
readiness. So we have looked at it, but there are some very 
practical limitations in our ability to apply OCO to some of 
the areas that we need it applied to.
    Senator Tillis. Will you be making specific recommendations 
for things that we need to look at to make sure you get the 
most productivity you can out of it?
    General Dunford. Senator, I will certainly do that through 
the Secretary of Defense as he works this issue.
    Senator Tillis. Thank you.
    I wanted to go back to also questions that were asked about 
Afghanistan and Iraq. I visited both countries and spoke with a 
number of people while we were there. It seems like in 
Afghanistan we have got the right mix. We have got them in the 
right roles and the Afghanis have proven that they can fight 
successfully.
    In Iraq, I understand what you said about some of the 
political decisions of the past administration have caused a 
problem. Those structural issues have to be addressed.
    But have you given any thought to, assuming that you get to 
the point to where you have the right command infrastructure 
among the Iraqis, what we may need to actually create a 
credible, trained, effective fighting force for the Iraqis 
beyond the 3,000 currently present troops?
    General Dunford. Senator, you know, I can address that 
conceptually in terms of their ability to develop combined arms 
and in terms of their ability to develop institutional training 
and in terms of their ability to develop the capacity at the 
ministerial level to support tactical-level forces. But 
frankly, it has been a few years since I have been on the 
ground in Iraq, and what I would like to do is take the 
opportunity, if I am confirmed, to visit Iraq, talk to the 
commanders on the ground and again develop a comprehensive 
recommendation that would help us to move the campaign forward.
    Senator Tillis. On the flip side, I know the Afghanis have 
made a lot of progress, but I think they still rely on us 
heavily for our train, advise, and assist role and our 
Intelligence, Surveillance, and Reconnaissance (ISR) 
capabilities in the region. I know that I have heard you say we 
cannot have a calendar-based approach towards reduction in 
forces. But the sense that I got when I was in Kabul was that 
those who are very much in touch with the situation on the 
ground now think that it would be a very bad idea to 
substantially reduce our current presence over the near term. 
Now, I assume that that is because they are looking ahead to 12 
months, 18 months from now and saying we are still not going to 
at a place where the Afghanis can be completely independent. Do 
you share that view?
    General Dunford. Senator, what I can tell you is the 
assumptions that we made in the recommendation that was 
delivered in December of 2013. So it is now some 19 months ago. 
Some of the assumptions affected the timeline. We certainly did 
not expect there to be as much of a delay in the elections 
process of 2014, and there was. That was a great distracter in 
our efforts to develop ministerial capacity. When I was on the 
ground, it was very difficult to get my counterparts to focus 
on some of the practical side of growing ministerial capacity 
when they were involved in a very real challenge of providing 
security for the election. So it delayed our efforts in growing 
ministerial capacity.
    There have been other areas where we made some assumptions 
about things that could be done within a certain period of time 
that we actually did not in the event get done during that 
window of time.
    So from a distance now--and again, another area where I 
would go over and talk to General Campbell and General Austin 
down at Central Command, if confirmed, immediately. From a 
distance, it certainly makes sense to me that the timeline that 
we originally identified in 2013 as being possible has probably 
been affected by the political events inside of Afghanistan and 
other events associated with the enemy.
    Senator Tillis. Thank you, General Dunford. I look forward 
to supporting your confirmation.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you for your service, General, and thank you to your 
family who are here today for their service as well.
    I want to begin with what you assessed as the primary 
threats from Russia and China and talk about a weapons platform 
or system that has not been raised today, our submarine force. 
I recognize that is not immediately part of your background, 
but obviously a grave responsibility, if you are confirmed. I 
certainly am going to strongly support your confirmation as the 
next Chairman of the Joint Chiefs of Staff.
    The Ohio replacement program is critical to our nuclear 
deterrence, and the cost of that program has been estimated in 
the range of $100 billion. The Navy has said that it cannot pay 
for it out of its Navy budget. I am wondering whether you will 
consider and whether you will support looking at the Defense 
Department budget as a whole to fund the Ohio replacement 
program, which I am assuming you agree is critical to our 
nuclear deterrence.
    General Dunford. Senator, thanks.
    First, I do agree it is critical. It is the most survivable 
part of the triad and a critical capability for us to 
modernize.
    I am very familiar with the budgetary implications of the 
Ohio class replacement on the Department of the Navy's long-
range shipbuilding plan. What I can tell you with a degree of 
surety is that were we to fund the Ohio class replacement out 
of the Department of the Navy, it would have a pretty adverse 
effect on the rest of the shipbuilding plan, and the estimates 
are somewhere between two and a half and three ships a year. 
Again, we are not anywhere near where we need to be right now. 
So the 30-year shipbuilding plan was intended to get us where 
we need to be.
    So I do think a broader mechanism for the Ohio class 
replacement makes sense. Otherwise, we are going to have some 
pretty adverse effects on the Navy. As I mentioned a couple 
times in testimony today, one of my perspectives coming into 
this role would be, if confirmed, is that we need to have some 
balance, and that includes a balanced Navy. So as important as 
the Ohio class replacement is, the United States Navy, in terms 
of the forward presence they provide, in terms of their 
warfighting capability, has many other capabilities that are 
critical to our Nation as well. It would be difficult to 
balance those were the Ohio class replacement to be paid for 
within the current Department of the Navy's projected 
resources.
    Senator Blumenthal. Thank you for that answer, General. I 
am hoping that you would agree with equal surety that the 
continuing program to build two subs a year, two Virginia class 
subs a year, should continue as planned right now.
    General Dunford. Senator, here is where I defer to my 
partner, the Chief of Naval Operations. But that is certainly 
his plan, and I trust his judgment in that regard.
    Senator Blumenthal. Thank you.
    Going to another area that I do not think has been raised 
yet, I know of your very passionate and admirable commitment to 
the men and women who are our greatest asset in the United 
States Armed Forces, their wellbeing and their welfare. I hope 
that you can commit that you will continue the effort to 
coordinate better with the Veterans Administration for men and 
women who are leaving active duty on everything from transfer 
of medical records to drug formularies to a range of issues. I 
do not need to expound on them for you, but I hope that you 
will focus and continue those efforts.
    General Dunford. Senator, absolutely. Just so you know, I 
view keeping faith with our men and women in uniform as one of 
the primary responsibilities of leadership, and that is both 
when they are in uniform and when they are out of uniform. We 
have an expression, you know, certainly in the Marine Corps 
that once a marine, always a marine. From my perspective, once 
you have served our country, the service and support that you 
should get in return as part of that bargain that we make with 
young men and women who enlist is something that is pretty 
sacred. I absolutely will continue to support the efforts to 
make sure that the health care transition that our young men 
and women make when they are in uniform to the Veterans 
Administration is as seamless as possible. I think we owe them 
that.
    Senator Blumenthal. One last question, General. Your 
predecessor, General Dempsey, has stated repeatedly--and I am 
quoting--we have the capability to use a military option if the 
Iranians choose to stray off the diplomatic path. End quote.
    My question to you is are you satisfied that our Nation has 
done enough to prepare militarily for the option--and the 
President has said that all options should be on the table--if 
necessary, to use a military option there, as much as we all 
may wish that the negotiations should succeed?
    General Dunford. Senator, my understanding today is that we 
have both the plans in place and the capability in place to 
deal with a wide range of eventualities in Iran.
    Senator Blumenthal. Thank you. Thanks very much.
    Chairman McCain. Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    General Dunford, congratulations on your nomination and 
thank you for your 38 years of distinguished service and your 
leadership as Commandant of the Marine Corps. Our Nation is 
fortunate to have a military leader such as you serving at a 
time of great peril.
    I want to ask a question of you that is the same question I 
asked your predecessor, General Dempsey. If the objective were 
to destroy ISIS, not to weaken them, not to degrade them, but 
to utterly destroy them within 90 days, what would be required 
militarily to accomplish that objective?
    General Dunford. Senator, my assessment is that it would 
not be possible to destroy ISIL within 90 days, and I also do 
not believe that we can develop an enduring solution simply 
with military force against ISIL although I do think the 
military aspect of the campaign is critical.
    Senator Cruz. Well, if the time frame I have suggested is 
not feasible, let me ask you a follow-up question which is what 
would be required to destroy ISIS and what time frame is 
necessary. Specifically if that were the objective, what would 
be required to accomplish it militarily?
    General Dunford. Senator, if I am confirmed, I will 
continue to look at this issue, but my perspective today is 
that this is a long-term endeavor. This is on the order of 
years not months in order to defeat, destroy in your words, 
ISIL.
    Senator Cruz. What would be required to do that in whatever 
time period is necessary?
    General Dunford. From a military perspective, the two 
things that we are doing I think we would need to continue to 
do, and that is, to take action to deny ISIL sanctuary wherever 
it may take root both in Iraq and Syria and elsewhere. That 
would require us to build local forces, build partnership 
capacity, if you will, of the local forces that would be the 
real defeat mechanism for ISIL in the respective countries, 
given the way that it is spread right now. You would have to 
have effective governance so that you had the conditions set 
for long-term stability where ISIS could not then get traction 
again in the future. It would have to address the foreign 
financing of ISIS, where they get their money, as well as their 
economic assets within each one of those countries. You would 
have to address the movement of foreign fighters back and 
forth. Probably as importantly, the one thing we need to do, 
Senator, is we need to undermine the narrative of ISIL and 
discredit the narrative of ISIL.
    Senator Cruz. In your personal judgment, are you concerned 
about the rules of engagement for our current use of airpower, 
that it is overly constraining the effectiveness?
    General Dunford. Senator, I am not. One of the reasons is 
when we go to war, we go to war with our values, and we conduct 
proportionality in the planning and discrimination in 
execution. The thing that we are doing now is ensuring that we 
do not have civilian casualties. I think that, frankly, 
supports our narrative and gives us the credibility we need to 
be successful long term in this campaign.
    Senator Cruz. In recent days, the administration has 
informed Congress that we are arming the Kurds. This is 
something I have called for for a long time. I spoke this week 
with a senior Kurdish leader who reported that the commanders 
on the ground of the Peshmerga are not confirming that. What 
can you tell this committee about the extent to which we are 
providing serious arms to the Kurds and it is actually getting 
to them rather than being bogged down in Baghdad?
    General Dunford. Senator, first, I would agree with you. 
The most effective ground forces both in Syria and Iraq today 
are in fact the Kurds.
    My understanding is that the issues associated with 
supporting the Kurds have been addressed, and they are now 
getting the material support that they need, as well as the 
training that they need. If I am confirmed, I will certainly, 
as a matter of priority, go over there, visit, and make sure 
that I am able to make my own personal assessment based on the 
facts on the ground.
    Senator Cruz. Will you commit to providing this committee 
with specific details in terms of what is being done to arm the 
Kurds?
    General Dunford. I will do that, Senator.
    Senator Cruz. Let me ask concerning Iran. If Iran were to 
acquire nuclear weapons, what is the National security risk in 
your judgment to the United States of that occurrence?
    General Dunford. Senator, I think it is significant, 
particularly if accompanying that is intercontinental ballistic 
missile technology. It is a significant threat to our Nation. 
It is also a destabilizing action in the Middle East. I think 
we can expect a proliferation of nuclear arms as a result of 
Iranian possession of nuclear weapons.
    Senator Cruz. So, General, my final question. I am 
concerned about morale in the military. We have discussed in 
this hearing how the world is getting more and more dangerous, 
and yet at the same time, I think we are dramatically 
undermining our readiness, our ability to defend this Nation. 
The ?Military Times? did a survey where in 2009 they asked 
soldiers whether overall the quality of life is good or 
excellent. 91 percent said yes. In 2014, that number had 
dropped from 91 percent to 56 percent. Likewise, they asked 
whether the senior military leadership has my best interest at 
heart. In 2009, 53 percent agreed. In 2014, that had dropped in 
half to roughly 27 percent.
    Do you share the concerns about declining morale in the 
military, and if so, what do you see as the causes of it and 
the proper approach to fix it?
    General Dunford. Senator, thanks for the question.
    First of all, with regard to the morale of our force, it is 
clearly one of the things that distinguishes us. I was able to 
say in my opening statement that we have the most capable 
military force in the world today, and that clearly is rooted 
in the men and women that we have in uniform and their 
willingness to do what we have asked them to do in the last 
decade. It is not something I would be complacent about.
    I do have concerns as a service chief about how hard we 
have been running our men and women over the last few years. As 
an example, Senator, we had had a plan where we wanted to have 
a 1-to-3 deployment-to-dwell ratio. That means our forces would 
be deployed about 7 months, home for 21 months. That allowed us 
to get adequate training. It allowed us to take care of 
families, allowed the marines to kind of be what I describe as 
a sustained rate of fire. Many of our units now inside the 
Marine Corps are at or below a 1-to-2 deployment-to-dwell rate. 
So they are home for less than twice as much time. So they will 
be deployed for 7 months, home less than 14 months, and back 
out again, and that continues on and certainly has an effect on 
the families and, again, our ability to train across the range 
of military operations.
    If I am confirmed, Senator, this is absolutely going to be 
one of the areas that I focus on. I think I have a 
responsibility to lead the young men and women in uniform. I 
think I have a responsibility to represent them, and when I say 
represent them, that means to articulate to our leadership, 
both here on the Hill, as well as the executive branch, what 
material support, what leadership, what resources they need to 
remain the finest fighting force in the United States.
    It bothers me greatly if our young men and women do not 
have confidence in their senior leadership, and I can tell you 
that every day when I wake up, if I am confirmed, that will be 
an issue of priority for me, that that will be exactly what I 
seek to do is gain the trust and confidence of our young men 
and women and let them know that they are in fact properly 
represented back here Washington, D.C., and that we as leaders 
recognize that we are asking them to do a lot. They do not ask 
much more in return than to have the wherewithal to accomplish 
the mission with minimal loss of life or equipment. I will 
commit to you that is exactly what I will do.
    Senator Cruz. Thank you, General.
    Thank you, Mr. Chairman.
    Chairman McCain. Has sequestration not bred uncertainty 
which has contributed to this drop in morale?
    General Dunford. Chairman, thanks. I should have mentioned 
that when I talked about how busy the forces are. There is a 
tremendous amount of angst across the force, and a large part 
of that is driven by the uncertainty about how big the force 
will be, what will happen to their particular careers, and will 
we have the equipment necessary to accomplish the mission. So I 
do think, Chairman, that sequestration is a factor.
    Chairman McCain. Senator Sullivan had one follow-up 
question, and then we will turn to Senator Shaheen.
    Senator Sullivan. Thank you, Mr. Chairman.
    General, I just wanted to get back to the issue of the 
military's role in relationship with Congress. Do you think it 
is an important role that we have to make sure that our 
services do not replicate missions and core competencies, 
particularly in an austere budget environment like we have 
right now?
    General Dunford. I do, Senator.
    Senator Sullivan. Let me just provide a quick example. I 
believe one of the core competencies that the Army has is 
large-scale airborne units that can deploy in a moment's notice 
anywhere in the world. Do you think that is one of their core 
competencies?
    General Dunford. I do, Senator.
    Senator Sullivan. A few months ago, a military general 
testified in front of one of the subcommittees here about 
putting troops and helicopters on naval shipping for, quote, 
expeditionary maneuver throughout the Pacific. What service's 
core competency would you associate that mission with?
    General Dunford. I would associate that with the United 
States Marine Corps, Senator.
    Senator Sullivan. So if I told you that was an Army general 
describing the Army's new Pacific Pathways strategy, would that 
surprise you?
    General Dunford. It would not, Senator. I have seen that 
description in the open source.
    Senator Sullivan. Do you think that costly new Army mission 
is a redundant mission to the United States Marine Corps? 
mission, and is that a good use of America's taxpayer and 
military spending?
    General Dunford. Senator, given the shortfall of the 
amphibious lift--I am speaking now as a service chief--I think 
the priority ought to go to the United States Marine Corps.
    Senator Sullivan. Would be it an appropriate role of this 
Congress to try to limit such redundancies by making sure 
military funding goes to core competencies like much-needed 
Army airborne brigades in the Asia-Pacific and the Arctic as 
opposed to redundant activities like troops and Army 
helicopters on naval shipping?
    General Dunford. Senator, I do agree that the Congress has 
a critical role in ensuring that we have a proper division of 
labor within the Department of Defense and that the joint 
capabilities and capacities that we have are right-sized.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Thank you for that single follow-up 
question.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman. I apologize for 
getting back so late. I was in an Appropriations markup.
    But, General Dunford, thank you very much to you and your 
family for your service in the past and for your willingness to 
continue to serve. I have to say after watching you before the 
crowd of New Hampshire business folks and hearing from them, 
how impressed they were. I look forward to the impression that 
you are going to make as the new Chairman of the Joint Chiefs.
    I wanted to follow up on Senator Wicker's questions about 
Europe and the concerns in Europe because I recently returned 
from a visit to Poland and to Latvia where I saw the NATO 
exercises in Latvia at Adazi Base and heard extreme concern 
about the potential for Putin to engage, as you pointed out, in 
an asymmetric instigation in the Baltics and in other eastern 
European countries. I am concerned about the failure to date of 
Europe to commit to the 2 percent of their Gross Domestic 
Product (GDP) for defense spending and wonder if you have 
thoughts about what more we might be able to do to encourage 
them to ante up.
    General Dunford. Senator, I do think it is important that 
our NATO partners bear their share of the burden. That is an 
issue that I know Secretary Carter and his predecessors all 
addressed. They came out of the Wales conference with a 
commitment for all those nations to meet that 2 percent.
    From my perspective, given the shortfall of capabilities 
and capacities in Europe in areas like intelligence, 
surveillance, reconnaissance, defensive cyber capabilities, 
strategic lift, and so forth, I think it is going to be 
absolutely critical for our partners to develop those 
capabilities and capacities.
    I would also add that I have seen firsthand in my previous 
assignment in Afghanistan when our NATO partners are properly 
resourced, they do have capabilities and capacities that can be 
integrated to great effect. So I do think the alliance, were it 
to be properly resourced, can be a very effective force for 
stability in Europe, as well as for out-of-Europe operations.
    Senator Shaheen. I agree and hopefully we will see that 
commitment followed through on because clearly the threat from 
Putin and from Russia continues, and our eastern European 
allies are very concerned about that.
    I want to ask you about--you talked about the deployment 
pressures on our military. I wonder if you could give me your 
perspective on the appropriate active-to-Reserve ratio and the 
importance of the National Guard and Reserve and continuing the 
military mission that we have in this country.
    General Dunford. Senator, I can. Of course, one of the 
things we have to do when we talk about using the Reserve and 
the Guard is balance the concerns of employers, concerns of 
families with the willingness and the desire frankly for the 
Guard and Reserve to continue to serve in what is more of an 
operational or strategic sense. What I mean by that is there 
was in the past the sense that the Guard and Reserve would be 
something--in the case of a major war, we would mobilize the 
Guard and Reserve. I think we found today, particularly with 
the size of our U.S. military force and our commitments to the 
Guard and Reserve, is much more operational in that they are 
useful and necessary on a day-to-day basis.
    My sense is as a service chief--and I will certainly look 
at the implications across the other services if I am 
confirmed--is about once every 4 years is a reasonable time for 
a major deployment, although in many cases, depending on what 
their employment is and so forth, individuals can be available 
on a much more routine basis. But for whole units, probably 
about 1 to 4 years, 1 year deployment and mobilization and then 
4 years back focused on their families and employers, seems to 
be sustainable. But, again, if I am confirmed, I will certainly 
consult with the appropriate leadership in the Guard and 
Reserve to make sure that I have a full appreciation for their 
challenges, as well as the other service chiefs.
    Senator Shaheen. Well, thank you. We have seen in New 
Hampshire the significant contribution of the Guard and the 
integration, particularly with the air refueling, of active 
duty and Guard in providing that mission. So I think it is very 
important.
    Let me ask you if you would commit to two things. One is in 
2013, the Department announced the elimination of the direct 
combat exclusion policy and announced plans to fully integrate 
more women into all occupational fields. I hope that you will 
continue that effort and see it through. As we know, women are 
making up a greater percentage of our military these days, and 
making sure that they have the ability to compete in all areas 
I think is significant.
    The other question. I noticed this week that the Navy 
announced that they have tripled the maternity leave policy for 
women serving in the Navy, and I would urge you to consider 
that across all branches of the military. Again, as women are 
making up more of our troops, I think it is important to 
address the family issues that they have, and certainly 
maternity leave is a big part of that. So I hope you will do 
that.
    General Dunford. Thank you, Senator. I will look at both of 
those issues.
    Senator Shaheen. Thank you.
    Senator Reed [presiding]. Senator Graham?
    Senator Graham. Thank you.
    General, I think you are an outstanding choice. The 
President could not have chosen a better person to be Chairman 
of the Joint Chiefs of Staff. So congratulations to you and 
your family for a lot of great service. The best is yet to 
come.
    When it comes to stopping ISIL--that is the stated goal is 
to degrade and destroy--what if we fail in that goal? What can 
America expect?
    General Dunford. Senator, if we were to fail in stopping 
ISIL, I think you will see an expansion of ISIL not only across 
the Middle East but outside the Middle East. We have, 
obviously, seen now elements of ISIL in the Maghreb all the way 
over to Afghanistan.
    Senator Graham. So they are an expanding power, as we 
speak?
    General Dunford. Well, Senator, I think they are expanded 
in terms of geographic location. I have not yet concluded that 
they are expanded in terms of capability.
    Senator Graham. Got you. But I remember when we were 
talking in the office, you said if we do not stop these guys, 
we can expect a tsunami of ISIL and their sympathizers. Is that 
fair?
    General Dunford. Senator, I think it is fair. That is 
exactly what I said, and I stand by that comment.
    Senator Graham. So at the end of the day, I do not want the 
tsunami to come, so we are going to have to stop these guys.
    Is it fair to say that Iraq and Syria need to be viewed as 
one battle space when it comes to ISIL or to stop them in Iraq 
if you do not address their presence in Syria?
    General Dunford. Absolutely, Senator. The enemy does not 
respect the boundaries that we see on the map.
    Senator Graham. Can you envision a scenario where you have 
a regional army made up of Arabs and maybe Turkey that would go 
into Syria and fight ISIL alone, leaving Assad off the table? 
Would they join up for such a fight?
    General Dunford. Senator, it is hard for me, watching the 
politics from the outside right now, to see that degree of 
integration, given the divergent interests that those countries 
have. But I can certainly see where that would be an effective 
way to deal with this is to have a regional army that would be 
willing to deal with ISIL.
    Senator Graham. Right. But my question is if you did not 
put Assad's removal on the table, it would be hard to get them 
to join up just to fight ISIL because they are worried about 
Syria becoming a puppet of Iran.
    General Dunford. That is right, Senator. Most of the 
countries that you spoke about all have a shared goal of 
removing Assad from power.
    Senator Graham. Would you agree with me that Assad's 
presence is sort of a magnet for Sunni extremists?
    General Dunford. I think if not the proximate cause of the 
ISIL movement, certainly one of the primary drivers of the ISIL 
movement was the abuses of the Assad regime.
    Senator Graham. If we go down to a thousand Kabul-centric 
U.S. forces in 2017 in Afghanistan, do we substantially lose 
our counterterrorism mission?
    General Dunford. My assessment is we would have a 
significant degradation of our counterterrorism mission in 
Afghanistan, were we to do that.
    Senator Graham. Would we lose our eyes and ears along the 
Afghan-Pakistan border that we enjoy today?
    General Dunford. We would, Senator.
    Senator Graham. Would in your view that create a lot of 
risk to the gains we have achieved over the last decade if we 
did not have those eyes and ears and counterterrorism forces?
    General Dunford. Senator, there is no question it would 
create risk.
    Senator Graham. When it comes to 60 Free Syrian Army troops 
being trained under the current regime, would you agree with me 
it is going to be very hard to recruit people to go into Syria 
if you do not promise them protection from Assad because if 
they get any capability at all in fighting ISIL, Assad would 
assume that capability would be turned on him one day and he is 
not going to sit on the sidelines and watch a force mature and 
develop without hitting them? Does that make sense to you?
    General Dunford. I agree with that assessment, Senator.
    Senator Graham. So the most logical consequence of training 
a force to go into Syria to fight ISIL alone is that Assad will 
see them as a threat to his regime and most likely attack.
    General Dunford. I agree with that, Senator.
    Senator Graham. It would be very, I think, immoral to put 
someone in that position knowing that is coming their way with 
some capability to defend themselves. Does that make sense to 
you?
    General Dunford. Senator, my assessment is that if we train 
moderate Syrian forces, the new Syrian army, then we ought to 
also provide them with the wherewithal to be successful.
    Senator Graham. If this war in Syria continues the way it 
is going for another year, do you worry about stability in 
Jordan?
    General Dunford. I do, Senator.
    Senator Graham. Do you worry about stability in Lebanon?
    General Dunford. I do, Senator.
    Senator Graham. So the consequences of going into Syria 
with a regional force and all of the problems associated with 
it have to be balanced against the consequences of ISIL 
surviving and thriving.
    General Dunford. I agree with that, Senator.
    Senator Graham. In your view, over the long haul, is it in 
America's national security interest to do things necessary to 
degrade and destroy ISIL?
    General Dunford. I do believe that is absolutely in our 
National interest to do that, Senator.
    Senator Graham. Do you agree with me that whatever regional 
army we may form, there are certain American capabilities that 
would be outcome determinative in any fight against ISIL, and 
it would be in our National security interest to provide those 
capabilities?
    General Dunford. I agree with that, Senator, particularly 
in the case of aviation, intelligence, surveillance, 
reconnaissance, and probably special operations capabilities.
    Senator Graham. Finally, if a soldier or a member of our 
military falls in Iraq or Syria trying to destroy ISIL, would 
you agree with me that they died protecting their homeland?
    General Dunford. I would, Senator.
    Senator Graham. That is the reason some of them may have to 
go back.
    General Dunford. Senator, there is no question in my mind 
that the young men and women that we have deployed right now, 
the 3,500 that are inside of Iraq and those that are in the 
surrounds working through CENTCOM in this campaign, are 
protecting our Nation.
    Senator Graham. God bless them. God bless you. Best of 
luck.
    General Dunford. Thank you, Senator.
    Senator Reed. General, on behalf of Chairman McCain, let me 
thank you for your testimony, thank you for your service and 
the service of your family.
    Also on behalf of the chairman, I will now adjourn the 
hearing.
    [Whereupon, at 11:53 a.m., the committee adjourned.]

    [Prepared questions submitted to General Joseph F. Dunford, 
Jr., USMC by Chairman McCain prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. On previous occasions you have answered the Committee's 
policy questions on the reforms brought about by the Goldwater-Nichols 
Act, the last time being in connection with your recent nomination to 
be Commandant of the Marine Corps. You indicated that you did not see a 
need for modifications to Goldwater-Nichols Act provisions.
    Has your view of the importance, implementation, and practice of 
these reforms changed since you testified before the Committee at your 
last confirmation hearing?
    Answer. No.
    Question. In light of your experience as Commandant of the Marine 
Corps, do you see any need for modifications to Goldwater-Nichols? If 
so, what modifications do you believe would be appropriate?
    Answer. I do not currently anticipate the need to modify the 
Goldwater-Nichols Act.
                                 duties
    Question. Based on your experience as Commandant of the Marine 
Corps, as Commander of United States Forces and the International 
Security Assistance Force in Afghanistan, and as Vice Director of 
Operations for the Joint Staff, what recommendations, if any, do you 
have for changes in the duties and functions set forth in section 152 
through 155 of title 10, United States Code, and in regulations of the 
Department of Defense (DOD), that pertain to the Chairman and the Vice 
Chairman of the Joint Chiefs of Staff and the organization and 
operation of the Joint Staff in general?
    Answer. I do not presently have recommendations to change the law 
or regulations.
                             relationships
    Question. Other sections of law and traditional practice establish 
important relationships between the Chairman and other officials. 
Please describe your understanding of the relationship of the Chairman 
of the Joint Chiefs of Staff to the following officials:
    The Secretary of Defense.
    Answer. The Chairman of the Joint Chiefs of Staff must have a close 
working relationship with the Secretary of Defense. Under Title 10, the 
Chairman is assigned several duties that guide this relationship to 
include serving as the principal military advisor to the President, the 
National Security Council, and the Secretary of Defense. The Chairman 
also performs other duties assigned by the Secretary of Defense.
    Question. The National Security Advisor.
    Answer. If confirmed, I will work closely with the National 
Security Advisor to ensure that our military efforts and options are 
synchronized with civilian efforts across the government. Since the 
Chairman is also the principal military advisor to the National 
Security Council and Homeland Security Council, I also will work with 
the National Security Advisor to inform and implement Presidential 
decisions.
    Question. The Deputy Secretary of Defense.
    Answer. Existing directives grant the Deputy Secretary of Defense 
full power and authority to act for the Secretary of Defense on any 
matters upon which the Secretary is authorized to act. As a result, I 
expect the relationship of the Chairman with the Deputy Secretary will 
be similar to that of relationship with the Secretary.
    Question. The Under Secretaries of Defense.
    Answer. Current DOD directives and Title 10, U.S. Code establish 
the Under Secretaries of Defense as the principal staff assistants and 
advisers to the Secretary regarding matters related to their functional 
areas. Under Secretaries exercise policy and oversight functions within 
their respective areas. In carrying out their duties, they may issue 
instructions and directive memoranda to implement policies approved by 
the Secretary. These instructions and directives are applicable to all 
DOD components. When directed by the President and Secretary of Defense 
or when carrying out their responsibilities, Under Secretaries 
typically transmit communications to commanders of the unified and 
specified commands through the Chairman of the Joint Chiefs of Staff.
    Question. The General Counsel of the Department of Defense.
    Answer. The DOD General Counsel serves as the chief legal officer 
of the Department of Defense consistent with Title 10, U.S. Code, 
Section 140. The DOD General Counsel generally is responsible to 
oversee legal services, establish policy, and administer the DOD 
Standards of Conduct Program. The DOD General Counsel also establishes 
policy and positions on specific legal issues and provides advice on 
significant international law issues raised in relation to major 
military operations, the DOD Law of War Program, or the legality of 
weapons reviews. Communications between the combatant commanders and 
the DOD General Counsel are normally transmitted through the Chairman 
of the Joint Chiefs of Staff. The office of the DOD General Counsel 
works closely with the Office of Legal Counsel to the Chairman of the 
Joint Chiefs of Staff.
    Question. The Department of Defense Inspector General.
    Answer. If confirmed, I will continue to cooperate with and provide 
support to the Department of Defense Inspector General as required. The 
Department of Defense Inspector General performs the duties, has the 
responsibilities, and exercises the powers specified in the Inspector 
General Act of 1978.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    The Vice Chairman of the Joint Chiefs of Staff performs the duties 
prescribed for him as a member of the Joint Chiefs of Staff and other 
such duties as may be prescribed by the Chairman, with the approval of 
the Secretary of Defense. When there is a vacancy in the Office of the 
Chairman or in the absence or disability of the Chairman, the Vice 
Chairman acts as Chairman and performs the duties of the Chairman until 
a successor is appointed or the absence or disability ceases. If 
confirmed, I intend to discuss potential duties with the Vice Chairman 
as part of our close working relationship. I have not yet determined 
any additional duty assignments that I would to assign the Vice 
Chairman beyond those prescribed in law.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries are the heads of their respective military 
Departments and are responsible for, and have the authority necessary 
to conduct, all affairs of their respective Departments. Title 10, U.S. 
Code, Section 165 provides that, subject to the authority, direction 
and control of the Secretary of Defense, and subject to the authority 
of the combatant commanders, the Secretaries of Military Departments 
are responsible for administration and support of forces that are 
assigned to unified and specified commands. The Chairman advises the 
Secretary of Defense on the extent to which program recommendations and 
budget proposals of the Military Departments conform to priorities in 
strategic plans and with the priorities established for requirements of 
the Combatant Commands. The Secretaries of the Military Departments 
also are responsible for such other activities as may be prescribed by 
law or by the President or Secretary of Defense.
    Question. The Chiefs of Staff of the Services.
    Answer. The Service Chiefs are no longer involved in the 
operational chain of command as a result of the reforms of the 
Goldwater-Nichols Act, but this change does not diminish their 
importance with respect to Title 10 responsibilities. The Chiefs of 
Staff of the Services serve two significant roles. First, they are 
responsible for the organization, training, and equipping of their 
respective Services. Without the full support and cooperation of the 
Service Chiefs, no Combatant Commander can assure the preparedness of 
his assigned forces for missions directed by the Secretary of Defense 
and the President. Second, as members of the Joint Chiefs of Staff, the 
Chiefs are advisers to the President, National Security Council, and 
the Secretary of Defense as the senior uniformed leaders of their 
respective Services. In this function, they play a critically important 
role in shaping military advice and developing our joint capabilities. 
If confirmed, I will continue to work closely with the Service Chiefs 
to fulfill warfighting and operational requirements.
    Question. The Combatant Commanders.
    Answer. The combatant commanders are responsible to fight our wars 
and conduct joint military operations around the world. By law, and to 
the extent directed by the Secretary of Defense, the Chairman serves as 
spokesman for the combatant commanders and is charged with overseeing 
their activities. He provides a vital link between the combatant 
commanders and other elements of the Department of Defense, and as 
directed by the President, may serve as the means of communication 
between the combatant commanders and the President or Secretary of 
Defense. If confirmed, I will continue to work closely with the 
combatant commanders to enable their warfighting capability and to 
provide support. If confirmed, I also will ensure that I consider and 
work to de-conflict any issues or decisions than span multiple 
combatant commands.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief of the National Guard heads a joint activity of 
the Department of Defense and is the senior uniformed National Guard 
officer responsible for formulating, developing and coordinating all 
policies, programs and plans affecting more than half a million Army 
and Air National Guard personnel. Appointed by the President, he serves 
as principal adviser to the Secretary of Defense through the Chairman 
of the Joint Chiefs of Staff on National Guard matters. He is also the 
principal adviser to the Secretary and Chief of Staff of the Army and 
the Secretary and Chief of Staff of the Air Force on all National Guard 
issues. As National Guard Bureau Chief, he serves as the department's 
official channel of communication with the Governors and Adjutants 
General. As a member of the Joint Chiefs of Staff, the Chief of the 
National Guard Bureau has the specific responsibility of addressing 
matters involving non-Federalized National Guard forces in support of 
homeland defense and civil support missions.
    Question. The Commander, U.S. Forces--Afghanistan.
    Answer. Although the Chairman of the Joint Chiefs of Staff is the 
principal military advisor to the President, the Secretary of Defense, 
and the National Security Council, he is not in the chain of command of 
the Commander, U.S. Forces--Afghanistan (USFOR-A). The Commander, 
USFOR-A reports to the Commander, USCENTCOM, who, in turn, reports 
directly to the Secretary of Defense. This reporting relationship is 
prescribed in 10 USC Section 164(d)(1). The Commander, USFOR-A does not 
have a formal command relationship with the Chairman of the Joint 
Chiefs of Staff, but he coordinates with him through the Commander, 
USCENTCOM on a regular basis. The Commander, USFOR-A sends his advice 
and opinions related to Operation Resolute Support to the Commander, 
USCENTCOM, who, in turn, presents them to the Chairman.
                            major challenges
    Question. What do you consider to be the most significant 
challenges you expect to face if you are confirmed?
    Answer. The current security environment is extraordinarily complex 
and volatile. We face challenges from state actors including Russia, 
China, Iran, and North Korea. We are also engaged in a long-term fight 
against violent extremist organizations. We are in the midst of a 
critical transition in Afghanistan. While dealing with these issues, we 
face the need to modernize the Joint Force in the context of fiscal 
challenges and budget uncertainty. Particular areas of concern are our 
cyber capabilities, space capabilities, modernizing the nuclear 
enterprise, and assuring all domain access for the Joint Force. We must 
navigate this environment while maintain our flexibility to deal with 
the unexpected.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. First, I will energize our efforts to develop a framework 
for deterrence that will address the full range of threats that we face 
in the 21st Century. I will also work closely with the services and 
combatant commanders to ensure we strike the right balance between 
dealing with current operations, being prepared for the uncertain, and 
developing the Joint Force of the future. Given the nature of the 
challenges we confront, it will also be critical that we enhance our 
integration with other elements of the Interagency in partnership with 
Congress.
                               priorities
    Question. Recognizing that challenges, anticipated and unforeseen, 
will drive your priorities to a substantial degree, if confirmed, what 
other priorities, beyond those associated with the major challenges you 
identified in the section above, would you set for your term as 
Chairman?
    Answer. If confirmed, I would focus on contributing to the 
development of a comprehensive and sustainable Interagency strategy to 
address the challenges associated with violent extremism. I would also 
be decisively engaged in restoring the readiness of the Joint Force. 
Finally, I would focus on shaping the capabilities and capacities of 
the future Joint Force with a particular focus on leader development.
                            chain of command
    Question. Section 162(b) of title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the combatant commands. 
Section 163(a) of title 10 further provides that the President may 
direct communications to combatant commanders be transmitted through 
the Chairman of the Joint Chiefs of Staff and may assign duties to the 
Chairman to assist the President and the Secretary of Defense in 
performing their command function.
    Do you believe that these provisions facilitate a clear and 
effective chain of command?
    Answer. Yes. The chain of command runs from the President to the 
Secretary of Defense and from the Secretary of Defense to the 
commanders of the combatant commands. If confirmed, I will continue to 
inform decisions as appropriate and transmit directions as directed. 
However, there will be no ambiguity about the chain of command: the 
combatant commanders receive their orders from the Secretary of 
Defense.
    Question. Are there circumstances in which you believe it is 
appropriate for U.S. military forces to be under the operational 
command or control of an authority outside the chain of command 
established under title 10, United States Code?
    Answer. The Armed Forces should ordinarily operate under the chain 
of command established in Title 10. In the case of certain sensitive 
military operations, it may be appropriate for the President to 
establish other temporary command relationships. However, in all cases 
U.S. Armed Forces supporting such operations are still governed by the 
law of armed conflict, remain accountable to the Title 10 chain of 
command, and are subject to the Uniform Code of Military Justice for 
disciplinary matters. If confirmed, I would provide the President with 
my best military advice regarding any operation in which an exception 
to the established chain of command may be warranted.
    Question. What is your understanding and assessment of the 
authorities and agreements which are in place to allow U.S. military 
personnel to carry out missions under the authorities contained in 
title 50, United States Code? Do you believe any modifications to these 
authorities are necessary?
    Answer. Title 50 of the U.S. Code tasks the Secretary of Defense to 
ensure that the military departments maintain sufficient capabilities 
to collect and produce intelligence to meet requirements of the DNI, 
Secretary of Defense, CJCS, and COCOMs. Title 50 of the U.S. Code also 
authorizes the Secretary to use such elements of the DOD as may be 
appropriate for the execution of the national intelligence program 
functions described in section 3038 of title 50. While I believe that 
our military forces are generally most effective when they operate 
under a military chain of command, there are circumstances in which 
exceptions to this general rule are appropriate; authorities and 
agreements exist to facilitate the granting of such exceptions. In some 
cases, the Secretary of Defense may approve this exception and in other 
cases only the President has approval authority. I believe the current 
authorities strike the appropriate balance between enabling DOD to 
operate within its independent Title 50 authorities, providing 
necessary and appropriate support to other agencies of the U.S. 
government under Title 50, and ensuring critical oversight of sensitive 
operations.
    Advice of the Service Chiefs, Combatant Commanders, and Chief of 
the National Guard Bureau
    Question. Section 163 of title 10, United States Code, provides 
that the Chairman of the Joint Chiefs of Staff serves as the spokesman 
for the combatant commanders, especially on the operational 
requirements of their commands. Section 151 of title 10 provides for 
the other members of the Joint Chiefs of Staff to submit their advice 
or opinion, in disagreement with or in addition to the advice or 
opinion of the Chairman, and requires the Chairman to provide that 
advice at the same time that he presents his own advice to the 
President, National Security Council, or Secretary of Defense.
    What changes to section 151 or 163, if any, do you think may be 
necessary to ensure that the views of the individual Service Chiefs, 
combatant commanders, and the Chief of the National Guard Bureau are 
presented and considered?
    Answer. I do not see a need to change section 151 or 163.
                       officer management issues
    Question. As the Chairman of the Joint Chiefs of Staff you would 
have significant responsibilities with regard to joint officer 
management policies.
    Answer. If confirmed, what modifications would you make to provide 
the Department of Defense and the military services the force 
management tools necessary to meet the needs of the 21st century joint, 
all-volunteer force?
    The Department, the Joint Staff, and the Services already possess a 
wide range of force management tools which provide ample flexibility in 
meeting the needs of the 21st century joint, all-volunteer force. 
However, if confirmed, I will continue to examine the joint operational 
and strategic environment to determine if there are opportunities for, 
or capability gaps that require, reform to make the Joint Force even 
more capable of meeting both today and tomorrow's needs.
    Question. Do you believe the current DOD and service procedures and 
practices for reviewing the records of officers pending nomination by 
the President are sufficient to ensure the Secretaries of the military 
departments, the Secretary of Defense, and the President can make 
informed decisions?
    Answer. In conjunction with existing statutes, the current 
Department and Service policies provide a sound framework for the 
Services' evaluation of the qualifications, previous performance, and 
potential of their officers. I believe these frameworks provide the 
necessary information to allow the Services to make sound decisions 
regarding the promotion and utilization of each Service's officers.
    Question. In your view, are these procedures and practices fair and 
reasonable for the officers involved?
    Answer. Yes. I believe these procedures and practices are fair and 
reasonable for the officers involved.
    Question. What modifications, if any, to the requirements for joint 
officer qualifications are necessary to ensure that military officers 
are able to attain meaningful joint and service-specific leadership 
experience and professional development?
    Answer. I feel the current combination of Joint Professional 
Military Education and requisite experience gained through joint 
assignments, training, and exercises adequately prepares officers to 
operate effectively at both the strategic and operational level in 
steady-state and wartime conditions. Therefore, I do not currently 
recommend any modifications to the requirements for joint officer 
qualification.
    Question. In your view, what is the impact of joint qualification 
requirements on the ability of the services to select the best 
qualified officers for promotion and to enable officer assignments that 
will satisfy service-specific officer professional development 
requirements?
    Answer. It is certainly challenging for Services to ensure that 
officers are adequately prepared to operate effectively as senior 
leaders in both the Service and joint environment. Although satisfying 
qualification requirements may curtail the time available for the 
Services to develop their officers' Service-specific skill sets, 
current requirements produce a cadre of well-rounded and competitive 
officers, who are capable of integrating Service functions with 
national directives in both strategic and operational environments. In 
my opinion, officers with these capabilities possess the greatest 
potential for success in positions of senior leadership. As such, they 
are the most qualified, and hence most competitive, for promotion.
    Question. In 2008, Congress created the requirement that the Legal 
Counsel to the Chairman of the Joint Chiefs of Staff be selected by a 
board of officers convened by the Secretary of Defense. This process 
remains the only joint duty officer position specifically selected by a 
selection board from among qualified officers of the Armed Forces.
    Do you consider the selection process required by section 156 of 
title 10, United States Code, to be an efficient and effective process 
for selecting officers from among the services to serve in this joint 
position?
    Answer. Based on available information, I believe the selection 
process for the position of the Legal Counsel to the Chairman of the 
Joint Chiefs of Staff is an efficient, equitable, and effective means 
to select an officer for this position from a pool of talented judge 
advocate leaders across the Services.
    Question. What lessons, if any, have been captured from this joint 
officer selection board process that could improve the processes for 
selection of officers in the military services?
    Answer. I'm not aware of any lessons that could improve the 
processes for selection of officers in the military service. The 
process to select the legal counsel to the CJCS was informed by service 
processes.
    Question. Would you support expanding the process used to select 
the Legal Counsel to the Chairman of the Joint Chiefs of Staff to other 
joint billets? Why or why not?
    Answer. I do not see a need to expand our selection process to 
other joint billets as currently established processes used to select 
general/flag officers to joint positions are sound. First, our process 
for identifying officers gives the Combatant Commander and the Chairman 
flexibility. We can select from across the Services (to include the 
Coast Guard) and the Active, Guard, and Reserve Components to ensure we 
get the right individual with the appropriate skills and experience. 
Second, the current process is efficient in that it gives the commander 
and other senior leaders an opportunity to quickly review a slate of 
nominated officers, and conduct interviews as necessary. Finally, our 
process is extremely responsive to emerging or unexpected requirements. 
We can quickly alert the Services to identify eligible personnel, 
select candidates, nominate them, and have them in position in as 
little as 90 days, if necessary.
                       headquarters streamlining
    Question. The Senate reported Fiscal Year 2016 National Defense 
Authorization Act directs reforms to consolidate the headquarters 
functions of the Department of Defense and the military departments.
    If confirmed, and if the provisions in the bill become law, what 
would be your role in identifying and implementing streamlining and 
reductions in the Joint Staff?
    Answer. The current Chairman directed an enterprise-wide functional 
review with a detailed evaluation of tasks and activities associated 
with primary Joint Staff directorates. This review identified a range 
of potential areas for reduction, realignment, or elimination within 
the staff, and some of the recommendations have already been 
implemented. I would continue to use this functional review as a 
roadmap to quantify the efficiency of past actions and spur 
organizational streamlining by reducing, realigning or eliminating 
redundant or conflicting requirements.
    Question. What Joint Staff areas, specifically and if any, do you 
consider to be the priorities for possible consolidation or reductions?
    Answer. There are a number of potential areas for consolidation or 
reduction. For example, the Joint Staff J6 is currently working with 
the U.S. Army Information Technology Agency (ITA), the Washington 
Headquarters Services (WHS), and the Defense Information Systems Agency 
(DISA) to determine which IT functions can be consolidated within the 
Pentagon to improve our IT capabilities while reducing costs and 
unnecessary redundancies. Further areas for efficiencies include 
consolidating support functions common to the Joint Staff directorates 
and eliminating duplicative functions accomplished by the OSD, Joint 
Staff and Defense Activities.
    Question. To the extent that the Joint Staff has functions that 
overlap with the Department of Defense and the military departments, 
what would be your approach to consolidating and reducing redundancy?
    Answer. The first, and most important step, would be to determine 
whether those functions are currently codified in statute. Some 
duplicative efforts may be due to the responsibilities being laid out 
in law with some respective pieces executed by the Department, some by 
the Joint Staff, and some by the military departments. Consolidation 
and reduction of redundancy may require legislative changes. Second, I 
would recommend a combined review by the OSD, the Services, and the 
Joint Staff to determine the most appropriate ways to reduce, realign, 
or eliminate duplicative functions.
          training and assignment of general and flag officers
    Question. In your view, do a sufficient number of general and flag 
officers have advanced training and degrees in scientific and technical 
disciplines?
    Answer. Yes. Rigorous and deliberate Service accession, training, 
and development processes generate the technical and scientific 
capability needed in sufficient numbers to meet DOD needs. I will work 
closely with and support the Service Chiefs and other leaders to 
continue to ensure we maintain an appropriate pipeline of specialized, 
technical officer talent.
    Question. Are the career paths for officers with technical skills 
appropriate to ensure that the Department and the services can execute 
complex acquisition programs, adapt to a rapidly changing technological 
threat environment, and make informed investment decisions? If not, 
what will you do to address this deficiency?
    Answer. I believe the Department has grown, and continues to grow, 
world-class, technically-astute officers who are ready to take on the 
challenges inherent in a rapidly changing and technical acquisition 
environment. While the Services vary with respect to their use of 
officers in acquisition, each Service tailors officer career paths to 
meet their particular mission priorities, to include successfully 
executing critical major acquisition programs. Each Service has career 
path models that are appropriately aligned with their force management 
process.
    Question. In your view do current general and flag officer 
assignment policies provide and incentivize qualified officers to serve 
in acquisition programs? Do tour lengths for those assignments enable 
and empower such officers to effectively manage acquisition programs? 
If not, what changes do you believe are necessary to improve the 
effectiveness of senior officers assigned those duties?
    Answer. Yes. Senior officers are assigned with adequate tenure and 
are empowered to effectively manage their programs. The Services 
demonstrate flexibility in adjusting tour lengths to match logical 
progression points in acquisition programs. That said, I will support 
the Service Chiefs, Service acquisition executives, and OSD leaders in 
their efforts to ensure we continuously improve the development and 
assignment of highly-motivated and qualified officers in acquisition 
positions.
    Question. Are you satisfied that the Department of Defense, the 
Joint Staff, and the military services have in place sufficient 
training and resources to provide general and flag officers, and Senior 
Executive Service employees the training they need to make informed, 
ethical decisions? If not, what actions would you take, if confirmed, 
to address your concerns?
    Answer. Yes. I judge that sufficient training and resources are in 
place to achieve the desired outcome. The ability to make ethical 
decisions based on the shared values of the profession of arms is 
identified as a specific Desired Leader Attribute for leaders 
throughout the military and is foundational to all Joint and Service 
developmental efforts. The ethical foundation is laid at the outset of 
an officer's career and is further developed and reinforced in formal 
education and training settings throughout their progression through 
the ranks.
    Question. It has been observed that despite numerous changes in the 
law, the requirements and the process for attaining joint officer 
qualifications is still beset by systemic challenges. Some of these 
challenges appear to force the services to make officer assignments to 
``check the box'' for joint qualifications at the cost of depriving the 
services of flexibility to assign officers to other career enhancing 
and professional development opportunities. Officers not assigned to a 
designated joint billet on an operational staff receive joint credit 
while other officers supporting the same joint commander do not receive 
joint credit unless they submit a package to have their assignments 
qualify for joint service. As operational tempo remains high and as end 
strength continues to decline to historically low levels, some 
exceptionally qualified officers will be unable to serve in qualifying 
assignments to earn joint credit because the Nation demands they 
perform other critical duties. As a result those officers may be 
disadvantaged professionally as compared to their peers for promotion 
eligibility. Given the substantial resources invested in the developing 
officers to serve successfully in, and to support or lead joint forces, 
more must be done to improve the joint qualification system or to 
replace it with a system that is more effective.
    If confirmed, I will work to identify inequities or inefficiencies 
in the current system and implement change where appropriate.
    Question. If confirmed, what steps would you take to review the 
joint qualification requirements to ensure that the qualification 
process is matched to the increasingly joint service environment in 
which many officers serve throughout their careers?
    Answer. If confirmed, I will ensure that we have a process in place 
to continuously review our qualification process and drive appropriate 
revisions.
    Question. Should the formal requirement for joint qualifications be 
eliminated as a consideration for promotions and assignments?
    Answer. No. I believe we need to continue to ensure that our future 
senior leaders are well prepared to operate within both the Services 
and the joint environment in steady-state and wartime conditions. This 
is best accomplished through a continued mixture of mandatory formal 
professional military education and hands-on experience in positions 
dealing with both joint and Service matters.
                    security strategies and guidance
    Question. How would you characterize current trends in the range 
and diversity of threats to national security we face today?
    Answer. The range and diversity of potential threats is increasing. 
We face both state and non-state adversaries who are more capable in 
terms of military capabilities, and more empowered by the diffusion of 
technology. Both types of adversaries are developing new ways to 
counter our traditional military advantages.
    Question. The Defense Strategic Guidance issued January 2012 took 
into account a $487 billion dollar reduction in defense resources.
    With the additional $500 billion in cuts to the Department of 
Defense as a result of sequestration, is the Defense Strategic Guidance 
still valid?
    Answer. The 2014 Quadrennial Defense Review superseded the 2012 
Defense Strategic Guidance, and provided new DOD guidance for 
capabilities, capacity, and readiness. We cannot execute the 2014 
Quadrennial Defense Review with an additional $500 billion in cuts as 
the result of the Budget Control Act further exacerbated by 
Sequestration.
    Question. In your view, as Russian aggression and the emergence of 
ISIL have occurred since the Defense Strategic Guidance was issued in 
January 2012, is that strategic guidance still appropriate for the 
threats we face today or do you think an update is warranted?
    Answer. The 2014 Quadrennial Defense Review superseded the 2012 
Defense Strategic Guidance. This QDR did not fully anticipate growing 
Russian aggression, the emergence of the ISIL threat, and the increase 
in cyber intrusions.
    Question. In your view, are our defense strategy and current 
establishment optimally structured, with the roles and missions of the 
military departments appropriately distributed, and U.S. forces 
properly armed, trained, and equipped to meet security challenges the 
Nation faces today and into the next decade?
    Answer. I believe our defense strategy is sound but we must 
continually adapt it to address emerging threats and a dynamic 
strategic landscape. I also believe that the current defense 
establishment is effective with an appropriate distribution of roles 
and missions. I am concerned with the readiness of the force today and 
I believe we need to review the capabilities and capacities that will 
be needed to meet future security challenges.
    Question. If confirmed, what changes, if any, would you propose to 
the capabilities, structure, roles, and missions of the defense 
establishment?
    Answer. The defense establishment is extremely complex. If 
confirmed, I will work with the Service Chiefs, combatant commanders, 
and Joint Staff to identify needed change to the capabilities, 
structure, roles, and missions of the defense establishment. Our cyber, 
space, and nuclear capabilities will be areas of particular emphasis.
                             strategic risk
    Question. How and over what periods of time, if at all, will 
reductions to Army and Marine Corps end strength increase strategic 
risk?
    Answer. Reductions to Army and Marine Corps end strength must be 
considered in the context of the current security environment and our 
military objectives. If confirmed, I will be decisively engaged in 
ensuring that we have a clear understanding of risk as we make changes 
to the capabilities and capacities of the Joint Force.
    Question. What is your understanding and assessment of the Army and 
Marine Corps' decision to reduce active end strength to 450,000 and 
182,000 soldiers respectively by the end of 2017?
    Answer. I am confident that the Marine Corps can meet its 
requirements at 182,000. If confirmed, I will work to better understand 
the requirement for Army end strength.
    Question. If confirmed, what additional actions would you take, if 
any, to reduce or mitigate this strategic risk?
    Answer. If confirmed, I will provide my best military advice to the 
Secretary of Defense and the President to include an assessment of risk 
and proposed actions to mitigate risk.
    Question. Upon issuance of the 2014 Quadrennial Defense Review, the 
fiscal year 2015 budget reduced projected defense budgets by $113 
billion over five years. What was the incurred strategic risk of this 
reduction relative to the 2012 Defense Strategic Guidance?
    Answer. Overall, the strategic and military risk to our ability to 
accomplish the objectives laid out in the QDR and DSG have increased. I 
would be happy to discuss the details of this increased risk in a 
classified venue.
                       chairman's risk assessment
    Question. In his 2013 risk assessment, Chairman Dempsey identified 
for the first time six National Security Interests that were derived 
from four enduring interests contained in the 2010 National Security 
Strategy. The April 2013 assessment identified several areas of broad 
and significant risk to national security as a result of current budget 
issues.
    How would you characterize the trends of risk in these areas 
(whether they are increasing or decreasing)?
    Answer. Overall, both strategic risk and military risk are 
increasing. I would be happy to discuss risk further in a classified 
venue.
    Question. What is your current assessment of the risk to combatant 
commanders in their ability to successfully execute their operational 
plans?
    Answer. In an unclassified response I cannot go into much detail. 
Generally, however, our combatant commanders face increasing risk.
                             transformation
    Question. Military ``transformation'' has been a broad objective of 
the Armed Forces since the end of the Cold War.
    In your view, what does military ``transformation'' mean?
    Answer. Military transformation involves leveraging new concepts, 
organizational constructs, or technologies to fundamentally change the 
way we fight. In the end, transformation is about innovating to 
maintain a competitive advantage.
    Question. What is your understanding and assessment of the progress 
made by the Department, including the Joint Chiefs of Staff and the 
Joint Staff, toward transforming the Armed Forces?
    Answer. Transformation is more of a journey than a destination. We 
can never be satisfied with our progress. I believe we need to energize 
our Joint exercise and experimentation efforts.
    Question. If confirmed, what goals, if any, would you establish 
during your term as Chairman regarding military transformation in the 
future?
    Answer. If confirmed, I would develop a detailed concept for Joint 
exercises and experimentation. My initial assessment, from the 
perspective of a service chief, is that our operational tempo over the 
past decade has adversely impacted us in this area.
    Question. Do you believe the Joint Staff should play a larger role 
in transformation? If so, in what ways?
    Answer. I believe, consistent within the statutory responsibilities 
of the Chairman, that the Joint Staff has a leading role in the 
transformation of the Joint Force.
          military capabilities in support of defense strategy
    Question. In your opinion, do current military plans include the 
necessary capabilities to meet the defense strategy stated in the 2014 
QDR? Where are areas of higher risk?
    Answer. If confirmed, I will work with the Secretary of Defense to 
ensure that the committee continues to receive a quarterly report in 
response to this question. I will personally engage in this area.
    Question. Does the 2014 QDR specify the correct set of capabilities 
to decisively win in future high-end engagements?
    Answer. I believe so from the perspective of my current assignment. 
I believe this is an area that requires continuous review.
    Question. According to the force sizing construct in the 2014 QDR, 
American forces should be able to ``defeat a regional adversary in a 
large-scale multi-phased campaign, and deny the objectives of--or 
impose unacceptable costs on--another aggressor in another region.''
    In your opinion, does the Department's force sizing construct 
provide adequate capability to address the country's current threat 
environment?
    Answer. Yes, the force sizing construct, with its emphasis on a 
range of military options, provides adequate capability to address the 
country's current threat environment should deterrence fail.
    Question. Are the services adequately sized to meet this construct?
    The Services are currently able to provide forces to support the 
construct to ``defeat a regional adversary in a large-scale multi-
phased campaign, and deny the objectives of--or impose unacceptable 
costs on--another aggressor in another region.'' Resource constraints, 
however, have eroded readiness and extended the timeline by which 
forces can be made available to fulfill combatant commanders' requests 
and respond to emerging requirements.
    Question. What will you advise if the Department cannot meet the 
demands placed on it?
    Answer. I would advise we carefully prioritize the most important 
missions necessary to meet our military objectives and protect our 
national security interests. I will also provide the Secretary of 
Defense and the President with a clear articulation of risk.
                              future army
    Question. The Defense Strategic Guidance (DSG) of January 2012 
articulated the need to shift strategic emphasis toward the Asia-
Pacific region while continuing to engage in the Middle East.
    Do you agree that future high-end military operations, as 
envisioned by the DSG, will primarily be naval and air engagements such 
that the Army will have difficulty justifying the size, structure, and 
cost of the number and equipment its combat formations?
    Answer. We cannot predict where or when we will be asked to fight. 
Hence, we need a full-spectrum, balanced military force capable of 
responding to various threats to our national security.
    Question. In your view, what are the most important considerations 
or criteria for aligning the Army's size, structure, and cost with 
strategy and resources?
    Answer. In my view, our Nation requires an Army able to conduct 
full spectrum operations as part of the Joint Force. The Army is 
realigning and resizing consistent with the 2014 QDR. I believe that is 
appropriate.
    Question. If confirmed, what actions, if any, would you propose to 
properly align the Army's size and structure with the requirements of 
security strategies and the likely availability of resources?
    Answer. As force structure changes are made within both the active 
and reserve components, we will continue to assess the impact of these 
changes and make adjustments as necessary to ensure we maintain the 
health of the force, retain an effective balance of active and reserve 
forces, and continue to meet the needs of our strategy.
                           defense reduction
    Question. In your view, what have been/will be the impacts of the 
following budget reductions on the military, their capability, 
capacity, and readiness?
    Answer.
            Initial Budget Control Act reduction of $487 billion
    The abrupt, deep cuts resulting from the Budget Control Act forced 
our military to make topline-driven decisions, such that we now have a 
strategy with little to no margin for surprise. Therefore, we are 
operating at higher levels of risk to our defense strategy. To limit 
adverse consequences, we need the certainty of a more predictable 
funding stream, time to balance force structure, modernization, 
compensation, and readiness, and the flexibility to make trade-offs.
            Sequestration in fiscal year 2013
    The sequestration cuts in fiscal year 2013 reduced already-strained 
readiness, which takes resources, principally time and money, to 
restore. To date, sequestration has resulted in cuts to training, 
exercises, deployments and maintenance, in civilian furloughs and a 
hiring freeze, and in disruptions to modernization and force morale. If 
sequester continues, our military will be forced to make sharp cuts 
with far reaching consequences, including limiting combat power, 
further reducing readiness, and rewriting our defense strategy. We are 
doing what we can to support our all-volunteer force, as well as 
protect necessary funding for our deployed forces and nuclear 
enterprise.
            Reduction of $115 billion in projected spending in the 
                    fiscal year 2015 budget, in line with the 2014 
                    Quadrennial Defense Review
    The fiscal year 2015 budget request assumes higher risks in some 
areas, but this budget helps us to remain the world's finest military--
modern and capable even while transitioning to a smaller force and 
resetting readiness over time. The $115 billion reduction refers to the 
difference between the PB15 (FYDP) submission and the BCA sequestration 
levels across fiscal year 2015-19. Funding to the sequester levels 
removes the flexibility to respond to emergent challenges (i.e., 
increasingly contested space and cyber domains, a resurgent Russia, the 
Ebola response, and the rise of ISIL), while also being able to execute 
our defense strategy.
            Sequestered Budget Control Act discretionary caps starting 
                    in fiscal year 2016 onward
    Question. If sequester level cuts return in fiscal year 2016, then 
we will see further increased risks and fewer military options to 
defend our Nation and its interests. The impact of sequestration and 
other budget constraints will further reduce unit readiness. The 
effects caused by deferred maintenance will impose significant strain 
on long-term institutional readiness. Ultimately, reduced readiness 
(i.e., reduced training cycles, deferred maintenance, and the 
continuing pace of current operations) will damage the credibility and 
the morale of our military.
    The fiscal year 2016 budget request assumes that the Budget Control 
Act will be amended in fiscal year 2016. The fiscal year 2016 budget 
resolution passed by the Senate and House of Representatives do not 
assume this but instead provides $38 billion of the necessary spending 
through OCO budget.
    Should this funding not be available, what recommendations would 
you have, if confirmed, for how the Department of Defense should manage 
the $35 billion in cuts for fiscal year 2016?
    Answer. Ongoing cuts will threaten our ability to execute the 
current defense strategy. Our military remains hopeful that Congress 
can once again come together in a manner that avoids the abrupt, deep 
cuts of sequestration. We will continue to reduce costs through 
efficiencies and reforms, but an fiscal year 2016 budget at BCA cap 
levels will create risks requiring a new defense strategy. Should we be 
cut $35 billion in fiscal year 2016, we will be forced to further 
reduce the size of the force, delay readiness restoral, and reduce 
modernization and investment programs.
    Question. What are your views on the impact that these cuts could 
have on readiness?
    Answer. These cuts would have a dangerous impact on readiness and 
future force generation capability of the Department, which are 
critical to our ability to execute the defense strategy. Losing $35 
billion from the fiscal year 2016 defense budget would force us to 
mortgage ongoing readiness recovery efforts, equipment recapitalization 
and force modernization in favor of supporting currently deployed and 
next-to-deploy forces, all within a context of expanding global 
threats. We rely on sufficient and predictable resourcing to ensure our 
military readiness and ability to meet additional operational demands.
    Question. What are your views on the impact that these cuts could 
have to military capabilities?
    Answer. Quite simply, these cuts would make our military smaller 
and less capable. We would be forced to disproportionately reduce 
funding for operations and maintenance, procurement, RDT&E, and 
military construction. Fiscal year 2016 cuts would increase risk, 
prolong readiness recovery, and delay necessary modernization programs. 
Funding for hundreds of program line items, large and small, will be 
significantly reduced. Cuts in funding for research and development 
will ultimately slow discovery and advancement, erode the technological 
superiority enjoyed by U.S. forces and translate into less desirable 
military outcomes in future conflicts.
                           readiness funding
    Question. Given the reductions in readiness funding, what is your 
assessment of the current readiness of the Armed Forces to meet 
national security requirements across the full spectrum of military 
operations?
    Answer. The Joint Force's overall readiness remains at levels 
posing significant risk to our ability to execute our National Military 
Strategy. While specific details cannot be addressed in this 
unclassified forum, it is understood that sequestration exacerbated an 
already declined state of readiness fueled by sourcing over a decade of 
exceptional demand. The Bipartisan Budget Act restored some resources, 
and provided much needed fiscal certainty and stability, thereby 
preventing further decline in readiness. The Department has since 
experienced minor Service readiness gains, which show continued promise 
as long as funding and commitments remain constant. However, this 
recovery is fragile. Recent gains are dependent on a combination of 
recovery time paired with sufficient and predictable resourcing 
allowing the Services to rebuild the necessary capabilities for full 
spectrum operations.
    Question. What is your assessment of the near term trend in the 
readiness of the Armed Forces?
    Answer. If current funding levels prevail, I expect the 
Department's readiness to remain at significantly-less-than-optimal 
levels for the foreseeable future. Any additional operational demands 
and/or a loss of resourcing will introduce a significant amount of risk 
to ongoing military operations, limit military options the Department 
can offer to respond to emerging crises, and increase the Department's 
risk in meeting the requirements of our National Security Strategy.
    Question. How critical is it to find a solution to sequestration 
given the impacts we have already seen to DOD readiness in fiscal year 
2013?
    Answer. Sufficient and predictable resourcing is absolutely 
critical to restoring the Joint Force's ability to provide the full 
range of military capabilities at a sufficient capacity required to 
meet the challenges posed by today's dynamic international environment. 
Current funding and OCO allow the Department to conduct operations at 
their present level of commitment. However, recovering to the readiness 
posture needed to sustain these operations, meet additional 
commitments, and restore our comparative advantages through 
modernization will only come from a robust and predictable funding 
profile. Without adequate funding, maintaining current operations will 
come at the expense of long-term development and sustainment efforts, 
thereby exacerbating our readiness challenges.
    Question. What is your understanding and assessment of the methods 
currently used for estimating the funding needed for the maintenance of 
military equipment?
    Answer. The method for funding equipment maintenance is 
requirements-driven based on a variety of factors to include: force 
structure, operations tempo, schedule, nature and usage rate of the 
equipment, and safety. The Services develop detailed maintenance plans 
that balance operational availability to the warfighter with 
maintenance requirements. However, perturbations in the budget process 
and funding uncertainties will have a negative effect on the workload 
scheduling at Service depots. These negative effects ripple beyond the 
current year and can extend for months and even years.
    Question. Given the backlog in equipment maintenance over the last 
several years, do you believe that we need an increased investment to 
reduce this backlog?
    Answer. The Services have relied upon OCO funding to supplement 
their equipment maintenance backlogs over the past several years. This 
is because OCO was used for deliberate reset of equipment used to 
support OIF and OEF combat operations. Also in the past, baseline 
funding of maintenance accounts has been at levels below the Services' 
enduring requirements. While some level of backlog is normal in the 
repair cycle process, shortfalls in baseline funding cause increased 
maintenance backlog and drive greater future funding needs. We need 
consistent and predictable base budget funding to reduce the 
maintenance backlog.
    Question. How important is it to reduce the materiel maintenance 
backlog in order to improve readiness?
    Answer. It requires continuous attention. The accumulation of 
backlog or deferred maintenance beyond what is manageable may not be 
immediately apparent, but it reduces readiness. These manifest as 
reduced equipment availability rates, less reliable systems, and 
shortened service life.
    Question. How important is it to receive OCO funding two or three 
years after the end of combat operations in order to ensure all 
equipment is reset?
    Answer. It remains very important. OCO has been a necessary funding 
source to conduct ongoing operations and restore equipment readiness 
for future operations. The Services have done well in prioritizing 
their equipment for reset and filling shortfalls in deployed and 
deploying units. However, much work remains to reduce the accumulated 
backlog of scheduled and deferred maintenance. As our operations tempo 
remains high, this funding is necessary to fully restore equipment 
readiness levels to support the National Security Strategy.
    Question. In years past, Congress has based additional readiness 
funding decisions on the Service Chief unfunded priorities lists. 
However, in recent years those lists have either been nonexistent or 
have arrived too late in our markup process.
    Do you agree to provide unfunded priorities lists to Congress in a 
timely manner beginning with the fiscal year 2017 budget request?
    Answer. I will always strive to be compliant with Congressional 
direction.
                       defense acquisition reform
    Question. Congress is considering a number of acquisition reform 
measures designed to reduce the costs and development timelines of 
major systems, and to streamline access to innovative commercial 
technologies and systems.
    What are your views regarding acquisition reform and the need for 
improvements in the Defense acquisition process?
    Answer. I am a strong proponent of acquisition reform based upon 
the following key principals:

    a.  The responsibility and authority for acquisition system 
outcomes should be clearly identified within the DOD;
    b.  The requirements' sponsor should be an integral part of 
delivering needed capability and remains accountable throughout the 
acquisition process, and;
    c.  There is a continued effort to reduce overhead and increase 
efficiencies across defense acquisition.
    Question. If confirmed, how would you improve all three aspects of 
the acquisition process requirements, acquisition, and budgeting?
    Answer. I would work with the Department leadership and the 
Congress to bring about necessary reform.
    Question. Do you believe that the current investment budget for 
major systems is warranted given increasing historic cost growth in 
major systems, costs of current operations, and asset recapitalization?
    Answer. I am concerned that acquisition, procurement, and 
operations and support costs will continue their historic growth 
profiles, further exacerbating shortfalls under a sequestered budget. 
Although recent cost and schedule trends have shown improvement, we 
will continue to scrub our processes, including our warfighter 
requirements, to ensure they are aligned with strategy and available 
resources.
    Question. If confirmed, how do you plan to address this issue and 
guard against the potential impact of weapon systems cost growth?
    Answer. I will partner with Secretary Carter to refine our 
processes, and work closely with our combatant commanders and the 
Services to mitigate cost growth on our highest priority investments. I 
will continue to drive the requirements process to consider cost-
informed performance tradeoffs to assist in mitigating cost and 
schedule growth perturbations across our investment accounts and 
advocate for versatile capabilities that are both affordable and 
sustainable.
    Question. If confirmed, what actions would you propose, if any, to 
ensure that requirements are realistic, technically achievable, and 
prioritized?
    Answer. As the Department's senior validation authority for joint 
military requirements, the Joint Requirements Oversight Council (JROC) 
continues to make improvements to the Joint Capability Integration 
Development System (JCIDS). These refinements to JCIDS ensure the 
appropriate rigor in validating realistic, technically achievable, 
prioritized, and cost-informed requirements. If confirmed, the 
necessary refinements to the requirements process will continue during 
my tenure as Chairman.
    Question. If confirmed, what actions would you propose, if any, to 
ensure that resources are programmed for acquisition programs that are 
consistent with their cost estimates and schedules?
    Answer. If confirmed, I will participate in the Department's 
program and budget process, and advocate for major system resource 
allocation consistent with the Secretary's cost and schedule position.
    Question. What should the role of the combatant commanders, Service 
Chiefs, Service Acquisition Executives, and Under Secretary for 
Acquisition, Technology, and Logistics be in the acquisition process?
    Answer. The role the combatant commanders and Service Chiefs play 
today in the requirements generation process is crucial to the success 
of the acquisition process. Likewise, their proactive engagement with 
the Service Acquisition Executives (SAE) and the Under Secretary for 
Acquisition, Technology and Logistics (USD(AT&L)) throughout the 
acquisition life-cycle ensures that major systems stay relevant, timely 
and cost-effective. USD(AT&L)'s role in reviewing Service plans at 
discrete milestones associated with major Department resource 
commitments ensures programs are affordable and executable, and that 
they follow sound business and risk management practices. This role 
should continue in conjunction with the efforts of the Service 
Acquisition Executives.
    Question. Are there specific new roles or responsibilities that 
should be assigned to the Service Chiefs or Service Secretaries in the 
acquisition process?
    Answer. I am supportive of current efforts that would provide 
additional authority and accountability to the Services as long as it 
does not undermine the statutory responsibilities of the Secretary of 
Defense. Any potential changes should hold the Services accountable and 
streamline the bureaucratic processes involved.
                       tactical fighter programs
    Question. The F-35 Joint Strike Fighter Program, which is the 
largest and most expensive acquisition program in the Department's 
history, and was formally initiated as a program of record in 2002, 
with a total planned buy of 2,443 aircraft for the U.S. The program has 
not yet completed the System Development and Demonstration (SDD) phase, 
and is not due to enter full rate production until 2019, 17 years after 
its inception. At projected procurement rates, the aircraft will be 
procured by the Department well into the 2030 decade to reach its total 
quantity buy.
    The requirement for 2,443 aircraft was established nearly 20 years 
ago; do you believe that requirement is still valid in light of 
countervailing pressure to reduce force structure to conserve resources 
and to improve capability to respond to prospective adversary 
technological advances and increased capabilities with regard to 
establishing contested combat environments, combined with updated 
threat assessments and an evolving national defense strategy?
    Answer. With projected adversarial threats challenging our current 
capabilities in coming years, the Joint Strike Fighter is a vital 
component of our effort to ensure the Joint Force maintains dominance 
in the air. Given the evolving defense strategy and the latest Defense 
Planning Guidance, we are presently taking the newest strategic 
foundation and analyzing whether 2,443 aircraft is the correct number. 
Until the analysis is complete, we need to pursue the current scheduled 
quantity buy to preclude creating an overall near-term tactical fighter 
shortfall.
    Question. Do you believe the Nation can afford to procure these 
aircraft at a cost of $12B to $15B per year for nearly the next 20 
years for an aircraft design that will be 30 years old at the 
completion of the program procurement phase?
    Answer. Fifth-generation fighter aircraft, including the F-35, are 
critical as we contend with the technological advancements of near-peer 
competitors. We must ensure that we do not allow shortfalls in fighter 
capability or capacity to develop. The Department has been working 
diligently to make the overall cost per F-35 more affordable. 
Additionally, there will continue to be critical updates throughout the 
life cycle of the F-35 that will ensure the platform maintains a 
tactical advantage.
    Question. Do you believe the Department's current and planned force 
mix of short-range fighters and long-range strike aircraft, whether 
land- or maritime-based, is sufficient to meet current and future 
threats around the globe, and most especially in the Asia-Pacific 
theater of operations where the ``tyranny of distance'' is such a major 
factor?
    Answer. The Department continually assesses our ability to meet 
current and future threats, especially concerning short-range fighters 
and long-range aircraft. Over the past three years, DOD has made 
significant progress in developing new alliance initiatives, securing 
new rotational access for U.S. forces, and enhancing both the quantity 
and quality of U.S. forces and capabilities in the Pacific region. The 
rebalance to the Asia-Pacific region is an important component of our 
effort to ensure we are postured to address the ``tyranny of distance'' 
and succeed militarily if required.
    Question. The Senate Armed Services Committee report accompanying 
S. 1376, the National Defense Authorization Act for Fiscal Year 2016, 
would require the Secretary of Defense to assess the current 
requirement for the F-35 Joint Strike Fighter total program of record 
quantity, and then to revalidate that quantity or identify a new 
requirement for the total number of F-35 aircraft the Department would 
ultimately procure.
    What will be your role in assisting the Secretary to revalidate the 
F-35 total program quantity?
    Answer. If confirmed, I will advise the Secretary as he assesses 
the delicate balance of the capacity and the capabilities of the future 
Joint Force. This advice will be informed by the extent to which the F-
35 program conforms to the priority requirements identified by 
combatant commanders and the Department's strategic plans.
    Question. The Air Force has proposed several times over the last 
decades to retire the A-10 close air support aircraft fleet, but each 
time Congress has rejected the proposals due to lack of a sufficient 
replacement capability. The Air Force's latest proposals to retire the 
fleet in fiscal years 2015 and 2016 were again rejected by Congress.
    Do you believe a need exists for a dedicated capability to provide 
close air support for American troops in close quarters battles?
    Answer. I believe America's troops in close quarters battles must 
have effective close air support.
    Question. What will be your role in ensuring our land forces 
receive the air support they'll need to survive and succeed while 
fighting the nation's land battles?
    Answer. If confirmed, I will make recommendations to the Secretary 
of Defense concerning our ability to deliver effective air support to 
the Joint Force.
    The Secretary of the Navy recently remarked that he believed the F-
35 would be the nation's last manned fighter aircraft.
    Question. Do you believe this to be true?
    Answer. While robotic and autonomous systems technology has 
advanced greatly over the past decade, I believe it is premature to 
rule out manned fighter aircraft without a more thorough analysis of 
the technologies currently available, as well as those likely to be 
available in the future. Decisions about future platforms should also 
take into consideration the threats our aircraft will face and their 
required missions.
    Question. If so, what will be your role in leading capabilities and 
requirements development to increase the role of unmanned aerial combat 
systems in the Department?
    Answer. If confirmed, I will continue to lead the ongoing 
development of a joint concept for robotics and autonomous systems. 
This concept will establish a vision to establish capability 
requirements and to guide the subsequent development, fielding, and 
employment of robotics and autonomous technology in the Joint Force.
    Question. If not, how do you see the future balance developing 
between manned and unmanned combat aircraft for the Department's future 
force structure?
    Answer. I expect that the rapid growth in robotic and autonomous 
systems technology we have seen in the past decade will only increase 
in the coming years for all weapons systems, not only combat aircraft. 
With this growth will come opportunities for increased capability 
across the Joint Force through the complimentary use of manned and 
remotely operated systems. The Joint Staff is currently developing a 
Joint Concept for Robotic and Autonomous Systems that will help guide 
the Joint Force as it incorporates these new technologies and 
determines how to balance manned and remotely operated systems to 
maximize effectiveness.
                                 space
    Question. China's test of an anti-satellite weapon in 2007 was a 
turning point for the United States in its policies and procedure to 
ensure access to space. As a Nation heavily dependent on space assets 
for both military and economic advantage, the United States has to make 
protection of space assets became a national priority.
    Do you agree that space situational awareness and protection of 
space assets now has the appropriate level of national security 
priority?
    Answer. No. Both are in need of attention in order to securely and 
effectively project U.S. military power.
    Question. In your view, how should China's continued development of 
space systems inform U.S. space policy and programs?
    Answer. China is rapidly developing space capabilities of its own 
that both mirror U.S. capabilities and could threaten our access and 
use of space for national security purposes. If confirmed, I will 
review our efforts to address China's developments in space, and will 
coordinate closely with the Secretary of Defense.
    Question. If confirmed would you propose any changes to National 
Security space policy and programs?
    If confirmed, I will continue to review our policies and programs 
to ensure U.S. warfighters can continue to depend on having the 
advantages that space confers.
                   access to radio frequency spectrum
    Question. What actions would you take to ensure that the Department 
continues to have access to radiofrequency spectrum that is necessary 
to train and to conduct its operations?
    Answer. Overall, it is recognized that electromagnetic spectrum 
superiority is essential to all joint operations, and spectrum has 
become increasingly important to the Department's missions. Spectrum is 
also critical to the economy of the nation. If confirmed, I will 
continue to work diligently with the Interagency and industry on 
spectrum sharing in order to ensure that the Department maintains 
assured access to the spectrum necessary to train and conduct 
operations, while enabling access for commercial broadband.
    Additionally, Public Law 106-65 (National Defense Authorization Act 
for Fiscal Year 2000) requires the Secretaries of Commerce and Defense 
and the Chairman of the Joint Chiefs of Staff to certify that any 
alternative band or bands to be substituted for spectrum currently used 
by DOD provide ``comparable technical characteristics to restore 
essential military capability that will be lost as a result of the band 
of frequencies to be so surrendered.'' Preserving this provision is 
absolutely necessary to ensure that DOD maintains access to spectrum 
necessary to operate critical military capabilities.
                           strategic systems
    Question. Over the next 5 years DOD will begin to replace or begin 
studies to replace all of the strategic delivery systems. For the next 
15 plus years, DOD will also have to sustain the current strategic 
nuclear enterprise. This will be a very expensive undertaking.
    Do you have any concerns about the ability of the Department to 
afford the costs of nuclear systems modernization while meeting the 
rest of the DOD commitments?
    Answer. The strategic, operational and fiscal environments we face 
pose significant challenges for the Department of Defense. The 
modernization of strategic delivery systems and the sustainment of the 
strategic nuclear enterprise are important to maintaining a safe, 
secure, and effective nuclear deterrent. I support the continued 
investment in sustainment and modernization as a priority for defense 
spending. I am, of course, concerned about the impact of future budget 
resource reductions on our ability to meet these requirements. 
Therefore, if confirmed, I plan to continue to request budget 
certainty, stability, and flexibility to ensure we continue to 
modernize and sustain our nuclear capabilities, while balancing DOD 
priority commitments.
    Question. If confirmed will you review the modernization and 
replacement programs to ensure that they are cost effective?
    Answer. Yes.
                   missile defense in the boost phase
    Question. The Missile Defense Agency's (MDA) mission is to develop, 
test, and field an integrated, layered ballistic missile defense system 
to defend the United States and its allies against all ranges of enemy 
ballistic missiles in all phases of flight. While MDA is conducting 
research into next generation laser concepts that could be mounted on 
high altitude unmanned aerial vehicles, there is no program of record 
designed to intercept missiles during the boost phase of flight, when 
they are potentially most vulnerable.
    Do you agree with the Commander of Northern Command, when he said 
on April 7, 2015, referring to missile threats that ``we need to be 
able to start knocking them down in the boost phase . . . and not rely 
on the midcourse phase where we are today?''
    Answer. Yes. We should continue to support research and design 
efforts to defeat threats in the boost phase if operationally, 
technically and economically practical. Current capabilities are 
limited to denial in the midcourse and beyond phases; we need to look 
for solutions across the entire ballistic missile kill chain. The 
science shows a ballistic missile is comparatively easy to detect and 
track while boosting. Further, countermeasures on a missile, such as 
decoys designed to distract defensive systems, are not typically 
deployed until after the booster burns out. As such, boost-phase 
intercept is an attractive missile defense alternative.
    Question. Would you support an increase in the priority of 
technology investments to develop and deploy a boost phase airborne 
laser weapon system for missile defense in the next decade, if 
technically practicable?
    Answer. Yes, but only if operationally, technically and 
economically practical. The current budget supports pursuit of a laser 
demonstrator. A laser potentially would be capable of acquiring, 
tracking, and eventually destroying an enemy missile at a much lower 
cost than existing systems.
               dod's cooperative threat reduction program
    Question. The Cooperative Threat Reduction (CTR) program, which is 
focused historically on accounting for, securing or eliminating Cold 
War era weapons of mass destruction (WMD) and materials in the states 
of the former Soviet Union, has started to expand its focus to other 
countries. With this expansion the CTR program is widening its focus to 
biological weapons and capabilities including biological surveillance 
and early warning; and encouraging development of capabilities to 
reduce proliferation threats.
    Do you think the CTR program is well coordinated among the U.S. 
government agencies that engage in threat reduction efforts, e.g., the 
Department of Defense, the Department of Energy, and the State 
Department?
    Answer. I understand that the Departments of State, Energy, and 
Defense in conjunction with the Defense Threat Reduction Agency and the 
Combatant Commands, make extensive efforts to conduct both formal and 
informal coordination across the different WMD threat reduction efforts 
on a regular basis. These efforts also include placement of DTRA 
liaison officers at U.S. Embassies where significant activities take 
place.
    Question. About 60 percent of CTR resources are proposed for 
biological programs.
    With the very real threat of chemical weapons use and/or 
proliferation as we saw in Libya and are seeing in Syria, why is there 
such a large percentage of resources directed toward biological issues?
    Answer. The DOD CTR Program remains postured to eliminate state-
based WMD programs, including chemical weapons programs, if 
opportunities arise. At the same time, current scientific, economic, 
and demographic trends are magnifying the risks posed by outbreaks of 
infectious diseases of security concern, whether they are the result of 
a laboratory accident, a bioterror attack, or natural transmission. 
Such events are difficult to contain, pose a high threat to the health 
of U.S. citizens, drain economic resources and can potentially 
undermine geopolitical stability. As seen with the Ebola Virus Disease 
outbreak, due to the ease and speed of global travel, a bio-incident 
anywhere in the world may lead to dangerous regional and global 
security consequences when states are unable to provide basic services 
for their citizens, potentially creating environments enabling 
terrorists to act with impunity and increasing the risk of pathogens of 
security concern being stolen or diverted due to insecure storage.
                          prompt global strike
    Question. The 2010 Quadrennial Defense Review concluded that the 
United States will continue to experiment with prompt global strike 
prototypes. There has been no decision to field a prompt global strike 
capability as the effort is early in the technology and testing phase.
    In your view, what is the role for a conventional prompt global 
strike capability in addressing the key threats to U.S. national 
security in the near future?
    Answer. Future circumstances may require the capability to address 
high value, time sensitive, and well-defended targets from outside the 
range of current conventional technology. I support the continued 
exploration of alternatives to existing strike system technologies and 
operational concepts to address these threats. The joint requirements 
process will continue to evaluate the alternatives to make informed 
recommendations for capability development balancing potential 
operational employment against costs.
    Question. What approach (e.g. land-based or sea-based or both) to 
implementation of this capability would you expect to pursue if 
confirmed?
    Answer. I would expect to continue support of a sea-based approach 
as articulated in established joint requirements. If confirmed, I will 
monitor the review of potential alternatives that support this 
capability.
    Question. In your view what, if any, improvements in intelligence 
capabilities would be needed to support a prompt global strike 
capability?
    Answer. In an unclassified response, I cannot go into much detail. 
If confirmed, I will seek to better understand and identify the 
capability improvements necessary to address any intelligence gaps 
discovered in the development this requirement.
               nuclear weapons and stockpile stewardship
    Question. Congress established the Stockpile Stewardship Program 
with the aim of creating the computational capabilities and 
experimental tools needed to allow for the continued certification of 
the nuclear weapons stockpile as safe, secure, and reliable without the 
need for nuclear weapons testing. The Secretaries of Defense and Energy 
are statutorily required to certify annually to the Congress the 
continued safety, security, and reliability of the nuclear weapons 
stockpile.
    As the stockpile continues to age, what do you view as the greatest 
challenges, if any, with respect to assuring the safety, security, and 
reliability of the stockpile?
    Answer. To sustain a safe, secure, and effective stockpile, we must 
prudently manage our stockpile and related warhead Life Extension 
Programs. Our success in executing these programs will largely depend 
on our people and our infrastructure. We must recruit and retain our 
next-generation workforce capable of certifying the stockpile without 
underground testing. We must maintain and modernize the nuclear weapon 
infrastructure to ensure we have the full range of capabilities 
available to produce components required for our Life Extension 
Programs.
    Question. If the technical conclusions and data from the Stockpile 
Stewardship Program could no longer confidently support the annual 
certification of the stockpile as safe, secure, and reliable, would you 
recommend the resumption of underground nuclear testing? What 
considerations would guide your recommendation in this regard?
    Answer. Any decision to resume underground nuclear testing should 
not be taken lightly. I would strongly consider recommendations from 
the Department of Energy and the National Laboratory Directors before 
making my recommendation to the Secretary and President. If confirmed, 
I am committed to working with the Department of Energy to maintain the 
critical skills, capabilities, and infrastructure needed to ensure the 
safety, reliability, and security of the stockpile without underground 
testing if practicable.
    Question. Do you agree that the full funding of the President's 
plan for modernizing the nuclear weapons complex, commonly referred to 
as the 1251 report, is a critical national security priority?
    Answer. Yes, funding the President's plan for sustaining and 
modernizing our nuclear weapons delivery platforms, sustaining a safe, 
secure, and reliable nuclear weapons stockpile, and modernizing the 
nuclear weapons infrastructure is a critical national security 
priority. Our nuclear deterrent is the nation's top military priority. 
The President's plan for modernizing the complex aligns funding with 
this priority.
    Question. Prior to completing this modernization effort, do you 
believe it would be prudent to consider reductions below New START 
Treaty limits in the deployed stockpile of nuclear weapons?
    Answer. Yes, I believe it is prudent to consider options for future 
reductions below New START Treaty limits, both in the deployed 
stockpile and in non-deployed weapons. However, I strongly believe that 
any further reductions should be accomplished ``hand-in-hand'' with 
Russia and focus on measures that will maintain or strengthen 
deterrence of adversaries, assurance of our Allies and partners, and 
strategic stability.
    Question. If confirmed, would you recommend any changes to the non-
deployed hedge stockpile of nuclear weapons?
    Answer. I support reducing the size of the stockpile consistent 
with deterrence objectives and warfighter requirements. The United 
States retains a force of non-deployed nuclear warheads to hedge 
against technical failure and geopolitical developments that might 
alter our assessment of U.S. deployed force requirements. Completion of 
life-extension programs that improve safety, security and reliability 
of the stockpile and infrastructure modernization efforts that improve 
responsiveness may provide opportunities to change the non-deployed 
hedge while still effectively managing stockpile risk.
  countering the islamic state of iraq and the levant in iraq & syria
    Question. To ``degrade and ultimately destroy the terrorist group 
known as ISIL'' the Department of Defense seeks to deny ISIL safe-haven 
and build partner capacity.
    If confirmed, what criteria would you use to evaluate ISIL 
degradation and what is your assessment of the progress to degrade ISIL 
in Iraq and in Syria?
    Answer. I view ISIL's inability to hold key terrain and lines of 
communication, and ISIL's failure to resupply or refit its fighters as 
indicators of degraded capability. I would additionally consider the 
rate at which ISIL recruits and replaces fighters on the battlefield. I 
would also view large groups of displaced persons returning to their 
homes and working to restore their former way of life, in cities like 
Tikrit, as another positive indicator of degraded ISIL influence. DOD 
will continue to work closely with the U.S. Intelligence Community, 
using its databases and analytic tools to run assessments on these and 
other indicators as necessary.
    If confirmed, I will visit the region to make a personal assessment 
of our progress in degrading ISIL in Iraq and Syria.
    Question. A large part of the support for ISIL and other violent 
extremist groups like al Nusrah by the local Syrian population is based 
on the fact that these groups seek to remove President Assad from 
power.
    What limitations, if any, do we face by failing to have the removal 
of Assad as an objective in Syria?
    Answer. President Assad's policies contributed to the rise of ISIL 
and limits effective C-ISIL operations in Syria today.
    Question. In Iraq, what is the importance of arming the Sunni 
tribes in Anbar province to degrading ISIL and how do you assess 
progress to date? What is your understanding of the current plan to 
train and equip Sunni fighters to help in the campaign against ISIL?
    Answer. Support to Sunni tribes is an important component of the 
effort to defeat ISIL. Sunni tribal fighters have the potential to be a 
credible ground force, and are necessary to protect Iraqis in Anbar and 
other Sunni-dominant areas. PM Abadi and the GoI have made some 
progress in mobilizing Sunni tribes, supported by our efforts at 
airbases like Al Asad and Al Taqaddum. Much additional work remains.
    Question. What is your assessment of the fall of Ramadi to ISIL 
last month and what adjustments, if any, to U.S. and coalition strategy 
do you believe need to be made?
    Answer. Ramadi was a tactical setback, and it shows that ISIL is an 
agile and adaptive adversary. CENTCOM and the Iraqis have learned from 
this setback, and are adjusting the implementation of the strategy 
accordingly. If confirmed, I'll review the military campaign to make 
sure it will allow the non-military lines of effort the time and space 
they need to succeed. This will be a long campaign.
    Question. What is your assessment of the coalition air campaign in 
Iraq and Syria and what adjustments, if any, do you think need to be 
made?
    Answer. The Coalition air campaign is making some progress toward 
degrading ISIL's military capabilities and disrupting key ISIL enablers 
like oil production and communications. These efforts limit ISIL's 
freedom of movement, constrain its ability to recruit and reinforce its 
fighters, and impede its command and control. Coalition air support has 
enabled some key achievements for local forces, including ISF efforts 
to clear Tikrit and the recent success of anti-ISIL forces who took 
control of Tal Abyad. The air campaign is creating time and space for 
our ongoing diplomatic and political efforts and the development of 
credible ground partners in Iraq and Syria.
    If confirmed, I will consult with commanders on the ground and make 
recommendations on how to improve our effectiveness.
    Question. What is your assessment of the capabilities of the Iraqi 
security forces to respond to the threat posed by ISIL and other 
security challenges?
    Answer. Our strategy is dependent upon having a trained, capable, 
and motivated partner on the ground. We have seen that with effective 
training, equipping, command and control, and Coalition air support, 
Iraqi and Kurdish forces can fight and achieve success against ISIL. 
However, it will take time to repair the damage caused by sectarian 
policies and corrosive leadership and to build the capability and 
capacity of our Iraqi partners on the ground. If confirmed, one of my 
first trips will be to Iraq to assess the current situation for myself.
    Question. What lessons do you assess need to be taken from the 
fighting in Tikrit in March and April of this year?
    Answer. We learned that Iraqi forces supported by Coalition air 
power have the potential to achieve success against ISIL. Iraqi leaders 
learned that Iranian support comes with conditions, and that there is 
no substitute for U.S. power.
    Question. Does the current troop limitation of 3,100 give U.S. 
commanders, in conjunction with Iraqi security forces, Kurdish 
Peshmerga, tribal and local security forces, and coalition partners, in 
Iraq enough capability to successfully degrade and ultimately destroy 
ISIL?
    Answer. I think our troop levels, including the recent addition of 
another 450 troops in al Taqqadum, is sufficient for us to advance the 
strategy's two military lines of effort in the near term. However, as 
conditions change on the ground, it may become necessary to adjust how 
we implement the military campaign. In the long term, the success of 
our advisory forces' efforts must be matched by the commitment and 
capacity of credible Iraqi ground partners in order to degrade ISIL. 
Our Iraqi partners must own this fight, and we must continue to enable 
their forces.
    Question. What do you see as the principle role or roles of the 
Office of Security Cooperation within the U.S. Embassy in Iraq?
    Answer. The Office of Security Cooperation is the Department's 
primary interlocutor for traditional security assistance and 
cooperation, in support of the U.S. Embassy. OSC-I, along with the 
Foreign Military Sales program, enables military programs to enhance 
the professionalization of the Iraqi Security Forces.
    Question. What is your assessment of the success of the current 
strategy against ISIL?
    Answer. We are only in month nine of a long campaign, but we have 
seen that well-led and determined Iraqi forces supported by Coalition 
air power potentially can have success against ISIL. Iraqi and Kurdish 
forces in Iraq and Syria have repelled ISIL advances in several towns, 
halted their advances following large-scale attacks, and cleared and 
secured lines of communication, which disrupts ISIL's ability to 
replenish combat power and supplies.
    Militarily, we are making moderate progress. ISIL has lost ground 
overall since the beginning our campaign. However, the current strategy 
depends on the development of reliable ground partners and on progress 
toward inclusive political systems in Iraq and Syria. If we get an 
indication that the other lines of effort cannot make the necessary 
progress, we should re-examine the strategy. Any enduring solution to 
the challenge that ISIL and other VEOs pose requires a generational 
effort, and our military efforts must be part of a whole of government 
approach.
    Question. Do you assess that the training and equipping of Syrian 
opposition fighters by the United States and coalition partners under 
section 1209 of the fiscal year 2015 NDAA will produce enough fighters 
to make a strategic difference on the battlefield in Syria?
    Answer. The outcome of the T&E program remains to be seen, but we 
face significant challenges in recruiting and vetting suitable 
volunteers at the scale necessary to have strategic effects. If 
confirmed, I plan to visit the region and assess our approach in Syria 
to develop a better understanding of this immensely complex and 
challenging situation.
    Question. In your view, what military support, if any, will the 
Syrian opposition fighters who receive support under section 1209 of 
the fiscal year 2015 NDAA need from the United States and coalition 
partners when they return to Syria?
    Answer. We will provide equipment, such as basic military gear, 
some mobility assets in the form of trucks and vehicles, and small arms 
and ammunition so that they can better defend themselves. The United 
States is committed to the success of the personnel we train, and we 
have legal and ethical responsibilities to support them. We are still 
considering the full complement of assistance we might provide to the 
T&E forces.
    Question. What are the lessons learned from the drawdown and post-
combat operations in Iraq that should be applied to the drawdown and 
post-combat operations in Afghanistan?
    Answer. Iraq demonstrated that decisions about the drawdown and 
post-combat operations in Afghanistan should be based on conditions on 
the ground, with the flexibility to make adjustments as those 
conditions evolve. In addition, the drawdown from Iraq shows that 
whole-of-government cooperation is required to sustain security gains. 
We learned that U.S. forces can only mitigate the effects of security 
threats that are fueled by underlying political or sectarian problems. 
Ultimately, it is critical to have credible and capable local partners.
                          afghanistan campaign
    Question. What is your assessment of the progress of the Resolute 
Support mission in Afghanistan?
    Answer. The initial forward momentum of the Resolute Support 
mission has been stymied by delays in forming the full new 25-member 
Afghan cabinet. In general, the Afghan National Defense and Security 
Forces (ANDSF) are better trained and equipped than insurgent forces, 
and continue to demonstrate tactical proficiency as they work together 
across the security pillars. The ANDSF's most critical gaps remain in 
aviation, intelligence, and special operations, all linked to the 
ANDSF's targeting capability. These gaps will endure for some time, 
even with the addition of key enablers. RS advisors are also working to 
address developmental shortfalls in the areas of logistics, medical 
support, and counter-IED exploitation.
    Question. In May of 2014 President Obama said `` . . . by the end 
of 2016, our military will draw down to a normal embassy presence in 
Kabul . . . ''
    What is your understanding of what military forces comprise a 
``normal embassy presence''?
    Answer. A normal embassy presence will have counter-terrorism and 
security operation components; it will consist of a Defense Attache 
Office, an Office of Security Cooperation, and a special operations 
element. A deliberate and measured transfer of enduring security 
cooperation activities is required to maintain continuity of ANDSF 
development and maintain our relationship with Afghanistan as an 
enduring counter-terrorism partner. Planning for this presence is 
underway at CENTCOM and its size will depend upon factors such as 
security force assistance objectives, ANDSF capabilities, Afghan 
government requests, and force protection concerns.
    Question. What lessons should we learn from the experience of a 
calendar-based drawdown of U.S. troops in Iraq as applied to the 
drawdown of U.S. and international troops in Afghanistan?
    Answer. We have learned that transitions must be conducted in a 
manner that properly balances our end state with conditions on the 
ground.
    Question. If confirmed, are there changes you would recommend to 
the U.S. strategy in Afghanistan?
    Answer. I support our overall approach in Afghanistan. If 
confirmed, I will visit Afghanistan to make an assessment of our 
current progress toward achieving our objectives. That visit will 
inform any recommendations I may make for changes to our strategy.
    Question. What is the effect of ISIL operations in Afghanistan and/
or coordination with the Taliban for the U.S. strategy for Afghanistan?
    Answer. ISIL is a competitor with other groups that have 
traditionally operated in Afghanistan, which may result in increased 
violence between the various extremist groups. The Taliban has declared 
that it will not allow ISIL in Afghanistan. The coalition and the 
Afghan government are closely watching ISIL's attempt to expand its 
reach to Afghanistan and Pakistan. The ANDSF, National Directorate of 
Security (NDS), and Afghan political leadership are also collaborating 
closely to prevent this threat from expanding.
    Question. If security conditions on the ground in Afghanistan 
degrade in 2016, would you recommend to the President revisions to the 
size and pace of the drawdown plan in order to adequately address those 
security conditions?
    Answer. Yes.
    Question. Should the authorities granted to the commander of U.S. 
forces in Afghanistan take into account the security conditions on the 
ground faced by U.S. troops?
    Answer. Yes.
                  afghanistan national security forces
    Question. What is your assessment of the progress in developing a 
professional and effective Afghanistan National Security Forces (ANSF) 
and what recommendations would you make to address challenges to 
building ANSF capacity?
    Answer. My assessment is that the ANDSF are strong at the tactical 
level and still needs assistance at the corps and institutional levels. 
They still need help in developing the systems and processes necessary 
to run a modern, professional army and police force. They also need 
sustained support in addressing capability gaps in aviation, 
intelligence, sustainment, and special operations. To address these 
gaps, our advisory mission and mentorship will continue to be vital. 
Our advisors are at the security ministries, at the army corps level, 
and in the police zones--those remain our main efforts.
    Question. Do you support plans for building and sustaining the ANSF 
at 352,000 personnel and, if so, what factors influence your 
recommendation about the proper size of the ANSF?
    Answer. Yes, for the near-term the Afghan National Army (ANA) and 
Afghan National Police (ANP) are the right size and possess the right 
capabilities to address the security situation in Afghanistan. Long-
term, we will need to evaluate and assess the threat and security 
situation, and work with the Afghan government to right size the force 
to a level consistent with its long term security requirements and 
funding limitations.
                             reconciliation
    Question. In your view, what should be the role of the United 
States in any reconciliation negotiations with the Afghan Taliban and 
other insurgent groups?
    Answer. The United States should continue to support a political 
process that enables Afghans to sit down with other Afghans to 
determine the future of their country.
    Question. What additional steps, if any, should the United States 
take to advance the reconciliation process?
    Answer. We remain strongly supportive of an Afghan-led and Afghan-
owned reconciliation process whereby the Taliban and the Afghan 
government engage in talks toward a settlement to resolve the conflict 
in Afghanistan.
    Question. In your view, what should be the role of Afghanistan's 
neighbors, in particular Pakistan, in the reconciliation process?
    Answer. We believe regional partners have an important role to play 
in ensuring a stable, democratic Afghanistan. We have encouraged 
stronger ties between Afghanistan and Pakistan and have been pleased 
with their recent bilateral efforts to address their security concerns.
    An audit report by the Special Inspector General for Afghanistan 
Reconstruction (SIGAR) raised concerns about Department of Defense 
plans to purchase PC-12 aircraft and Mi-17 helicopters for the Afghan 
Special Mission Wing and recommended suspending the contracts for these 
purchases. The Department of Defense and the North Atlantic Treaty 
Organization Training Mission--Afghanistan/ Combined Security 
Transition Command--Afghanistan did not concur with the SIGAR's 
recommendation on contract suspension.
    Question. What is your assessment of current plans to equip the 
Afghan Special Mission Wing with PC-12 aircraft and Mi-17 helicopters?
    Answer. These programs are long term and are moving in the right 
direction and will have a significant impact on ANDSF's ability to 
provide security to Afghanistan. If confirmed, however, I will assess 
all options to support the Special Mission Wing (SMW). With the ANDSF 
assuming full responsibility for security, and an associated 
significant decrease in coalition air support, the demand for air 
support in the form of ISR, airlift, aerial fires, and CASEVAC is 
likely to increase significantly.
    Question. What is your assessment of the impact to effectiveness of 
current Afghanistan counterterrorism and counterinsurgency efforts of 
the PC-12 aircraft and Mi-17 helicopters?
    Answer. Both the Mi-17s and PC-12s have enhanced the ANDSF's 
capability to conduct counterterrorism and counterinsurgency 
operations. The Mi-17 fleet remains the workhorse of the Afghan Air 
Force (AAF), conducting personnel transport, CASEVAC, resupply, close 
combat attack, aerial escort, and armed overwatch missions. The SMW 
uses its Mi-17 helicopters to provide Afghan special forces with 
medium-lift air assault, personnel transport, CASEVAC, and quick 
reaction force capabilities. The PC-12 aircraft is Afghanistan's first 
fixed-wing ISR platform, and it has expanded the SMW's capability to 
locate and identify threats using enhanced video and other intelligence 
collection capabilities. These platforms have improved the SMW's 
ability to conduct intelligence preparation of the battlefield, provide 
mission overwatch during the infiltration and exfiltration of forces, 
and gain access to areas prohibitive of vehicular traffic. Both of 
these aircraft provide the ANDSF with increased capabilities to 
overmatch the Taliban.
               u.s. strategic relationship with pakistan
    Question. What in your view are the key U.S. strategic interests 
with regard to Pakistan?
    Answer. The key U.S. strategic interests in Pakistan are 1) 
preventing al-Qaeda's resurgence in Afghanistan and Pakistan to limit 
its ability to attack the homeland, 2) preventing the proliferation of 
nuclear weapons and technology, and 3) promoting regional stability 
(including a peaceful outcome in Afghanistan).
    Question. What would you consider to be areas of shared strategic 
interest between the United States and Pakistan?
    Answer. The United States and Pakistan share the common strategic 
interests of defeating al-Qaeda and other extremist threats, ensuring 
regional stability, and furthering the non-proliferation of nuclear 
weapons and technology. We also share the goal of a stable peaceful 
Afghanistan.
    Question. In what areas do you see U.S. and Pakistani strategic 
interests diverging?
    Answer. Areas of divergent interest with Pakistan include our views 
on the use of proxies and the importance of a positive and stable 
Pakistan-India relationship.
    Question. If confirmed, what changes, if any, would you recommend 
for U.S. relations with Pakistan, particularly in terms of military-to-
military relations?
    Answer. The U.S.-Pakistan relationship is fundamental to our vital 
national security interests. We will need to continue cooperation with 
Pakistan to defeat al-Qaeda, support Pakistan's stability, and achieve 
a lasting peace in Afghanistan. If confirmed, I would continue to 
evaluate the specifics of the relationship based on my assessment of 
our shared interests with Pakistan and its effectiveness of achieving 
our shared goals. I will continue to evaluate the efficacy of the mil-
to-mil cooperation we have with Pakistan and identify ways in which we 
can work with Pakistan to enhance regional stability.
                      u.s. assistance to pakistan
    Question. Since 2001, the United States has provided significant 
military assistance to Pakistan. In addition, the United States has 
provided significant funds to reimburse Pakistan for the costs 
associated with military operations conducted by Pakistan along the 
Afghanistan-Pakistan border.
    As U.S. troop presence draws down in Afghanistan, what 
recommendations, if any, would you have regarding the reduction or 
cessation of Coalition Support Funds that currently reimburse Pakistan 
for military support in connection with U.S. military operations in 
Afghanistan?
    Answer. Pakistan has been, and remains, the largest recipient of 
CSF. It is in our interests to have an enduring partnership with 
Pakistan. As our mission in Afghanistan transitions, there remains a 
need for our mutually beneficial relationship. If confirmed, I will 
provide military advice and recommendations regarding our support for 
their operations based on my assessment of Pakistan's effectiveness and 
the larger strategic environment. .
    Question. In your view, how effective has the assistance and other 
support that the United States has provided to Pakistan been in 
promoting U.S. interests?
    Answer. Our assistance has enabled operations in Afghanistan and 
operations against al-Qaeda and helped secure our strategic interests. 
If confirmed, I will continue to work with the Pakistani military to 
ensure that they continue to do more.
    Question. Do you support conditioning U.S. assistance and other 
support to Pakistan on Pakistan's continued cooperation in areas of 
mutual security interest?
    Answer. Yes.
    Question. What is your assessment of the current relationship 
between Afghanistan and Pakistan?
    Answer. The current relationship appears to have improved since the 
election of President Ghani. It is clear that security in Afghanistan 
and Pakistan are linked. Both sides are working to ensure that concrete 
steps are taken to enhance their bi-lateral relationship and 
cooperation.
    Question. What is your assessment of Pakistan's cooperation with 
the United States in counterterrorism operations against militant 
extremist groups located in Pakistan?
    Answer. Pakistan has cooperated with the United States in our 
operations against al-Qaeda and other terrorist organizations. Their 
actions in North Waziristan and other areas of western Pakistan have 
disrupted groups that are a threat to U.S. personnel and objectives in 
Afghanistan. We will continue to work with Pakistan to do more.
    Question. What is your assessment of Pakistan's efforts to maintain 
transit and provide security along the ground lines of communication 
(GLOCs) through Pakistan?
    Answer. The GLOCs are open and Pakistan's support has been 
commendable. We currently rely on multiple lines of communication, to 
include the Pakistani GLOCs to support operations in Afghanistan and do 
not foresee any issues that would constrain our ability to operate.
    Question. What is your assessment of Pakistan's efforts to counter 
the threat improvised explosive devices, including efforts to attack 
the network, go after known precursors and explosive materials?
    Answer. Pakistan recognizes that improvised explosive devices (IED) 
are a shared problem. They suffer significant casualties within 
Pakistan due to IED attacks. We are making progress in the area of 
counter-IED cooperation, and Pakistan is taking demonstrable steps to 
disrupt the IED network, to include placing new restrictions on the 
distribution of precursor materials and hosting regional discussions to 
discuss the IED problem with international partners. More progress 
needs to be made though, particularly as it relates to interdicting 
explosives through increased border security.
                                  iran
    Question. What is your assessment of the military and political 
threat posed by Iran?
    Answer. Iran, the foremost state sponsor of terrorism, is both a 
regional and global security threat. Iran attempts to export its 
influence and protect its governing regime through support for proxy 
terrorist groups like Hezbollah; weapons trafficking; ballistic missile 
procurement and advancement; and maritime assets that threaten and 
harass international waters in the Straits of Hormuz and beyond.
    Question. What is your assessment of the threat of Iran's influence 
in Iraq to U.S. interests?
    Answer. Iran's goals and actions are inconsistent with our 
interests. Iran's goal in Iraq is not to build an inclusive government; 
rather, it is to create a compliant, Shia-dominated buffer state.
    Question. In your view, what are the risks, if any, associated with 
reducing U. S. presence in the Middle East with respect to the threat 
posed by Iran?
    Answer. Reducing our presence in the Middle East could leave space 
for Iran to pursue its hegemonic goals. U.S. military presence gives 
credibility to the military options in the Middle East that both 
demonstrate our commitment to our regional security partners and deters 
Iran from employing its large conventional army or ballistic missiles 
and from interdicting the Strait of Hormuz. Nothing we say can match 
the message we deliver with our military presence or lack thereof.
    Question. Negotiations on the Iran nuclear program have been 
extended with a deadline now of June 30, 2015 to finalize a 
comprehensive agreement. What are the elements of a nuclear agreement 
with Iran that you consider critical to ensuring that it is a ``good'' 
deal for U.S. national security interests?
    Answer. A good deal rolls back Iran's nuclear program; provides the 
international community with unprecedented access and transparency into 
Iran's nuclear facilities and nuclear supply chain; and preserves 
critical sanctions on conventional arms and ballistic missiles. A 
finalized deal based on the 02 April political framework satisfies all 
three of these criteria and clearly makes it more difficult for Iran to 
move towards a nuclear weapon.
    Question. If Iran is allowed to maintain a monitored and limited 
uranium enrichment program, do you believe that other states in the 
region may seek to develop enrichment programs of their own and why or 
why not?
    Answer. Any response I would make at this time would be 
speculation. If confirmed, I will make an assessment based on 
intelligence and my engagement with regional partners.
    Question. What role, if any, should DOD play in countering Iran's 
support of international terrorism?
    Answer. The DOD's role is to deter and counter Iran's support of 
international terrorism and support our interagency partners' efforts. 
We deter Iran through our own responsive military presence in the 
Middle East and through defensive infrastructure and tactics for both 
ourselves and our allies. To counter Iran, we enable our partner 
nations through counter terrorism training and equipment sales, multi-
national exercises, and information sharing, which when combined help 
to both weaken terrorist groups and Iran's ability to support them.
            the 2001 authorization for use of military force
    Question. What is your understanding of the scope and duration of 
the 2001 Authorization for Use of Military Force (AUMF), including with 
respect to military operations against the Islamic State in Iraq and 
the Levant?
    Answer. The United States is in an armed conflict against al-Qaeda 
and its associated forces. An associated force is defined as a group 
that (1) is an organized armed group that has entered the fight 
alongside al-Qaeda and, (2) is a co-belligerent with al-Qaeda in 
hostilities against the United States or its coalition partners. These 
are the same terrorist threats that carried out the grievous attacks on 
U.S. soil on September 11, 2001, and the AUMF still serves as the legal 
basis under U.S. domestic law to employ military force against these 
threats. Since September 2014, the Administration has stated that the 
2001 AUMF is interpreted to permit the use of military force against 
the Islamic State of Iraq and the Levant (ISIL). ISIL, previously known 
as al-Qaeda in Iraq, has been subject to the use of force under the 
AUMF since at least 2004, when it entered the conflict against the 
United States and joined Usama bin Laden's al-Qaeda organization. While 
there are tensions between ISIL and parts of bin Laden's al-Qaeda 
network, ISIL views itself as the true executor of bin Laden's legacy 
of global jihad, and continues its violent campaign against the United 
States, its citizens, and interests.
    Question. What factors govern Department of Defense determinations 
as to where the use of force is authorized, and against whom, pursuant 
to the AUMF?
    Answer. The May, 2013 Presidential Policy Guidance (PPG) governs 
direct action against terrorist targets located outside the United 
States and areas of active hostilities. This document establishes the 
procedures necessary for the DOD to conduct these types of military 
operations. The PPG and its underlying operational plans provide clear 
standards and procedures for DOD concerning where, how, and against 
whom military force may be used. The DOD meticulously adheres to the 
formalized procedures of the PPG to ensure that decisions in these 
counter-terrorist operations are informed by sound military and policy 
advice, and are based the most up-to-date intelligence and the 
expertise of our national security professionals. Senior commanders, 
with the advice of their legal counsel, carefully review all operations 
for compliance with U.S. and international law before a decision is 
rendered by the Secretary of Defense or the President.
    Question. Are you satisfied that current legal authorities, 
including the AUMF, enable the Department to carry out counterterrorism 
operations and activities at the level that you believe to be necessary 
and appropriate?
    Answer. In its current form, the 2001 AUMF provides the necessary 
and sufficient authorities to counter al-Qaeda and its associated 
forces. Furthermore, the 2001 AUMF and the 2002 AUMF provide statutory 
authority for the current operations against ISIL.
              islamic state in iraq and the levant (isil)
    Question. What is your assessment of the threat posed by ISIL to 
the U.S. homeland, U.S. interests overseas, and Western interests more 
broadly?
    Answer. ISIL is currently focused on strengthening and expanding 
its self-declared caliphate in Iraq and Syria and, to a lesser extent, 
on strengthening its affiliates in Libya and Nigeria. If ISIL were to 
refocus its efforts on attacking the U.S. homeland or other Western 
countries, it would have access to a pool of operatives from which to 
draw. ISIL already poses a threat to the U.S. and Western interests 
abroad, particularly U.S. persons traveling in the region.
    Question. How would you describe the U.S. strategy to counter ISIL?
    Answer. We have a whole-of-government strategy. The ``ends'' are 
defined as degrading ISIL over the course of 36 months and ultimately 
defeating ISIL, in coordination with the international coalition. Nine 
lines of effort across the USG constitute the ``ways'' in which we will 
achieve that objective, including supporting effective governance in 
Iraq, disrupting ISIL's finances, disrupting the flow of foreign 
fighters, and protecting the homeland. DOD is responsible for two of 
those lines of effort: to deny ISIL safe haven and to build partner 
capacity. The Department's ``means'' include: kinetic strike 
operations, advise/assist operations, training/equipping efforts, and 
our military posture in the region.
    The military campaign, as one component of the broader strategy, 
provides time and space for progress along the other lines of effort, 
particularly the development of inclusive and legitimate governments in 
Iraq and Syria.
    Question. What is your assessment of the effectiveness of that 
strategy in achieving its objectives?
    Answer. We are seeing some military progress, but it is early in 
the campaign. In both Iraq and Syria, ISIL's ability to mass and 
maneuver forces is degraded, its leadership cells are pressured, and 
its command-and-control and supply lines are being severed. We have 
reduced ISIL's ability to produce, process, and transport oil. However, 
challenges remain, and this will be a long campaign.
    The current strategy depends on the development of reliable ground 
partners and on progress toward inclusive political systems in Iraq and 
Syria. If we get an indication that the other lines of effort cannot 
make the necessary progress, we should re-examine the strategy. Any 
enduring solution to the challenge that ISIL and other VEOs pose 
requires a generational effort, and our military efforts must be part 
of a whole of government approach.
    Question. What do you assess to be the greatest impediments to 
implementing the strategy to counter ISIL?
    Answer. Poor governance and sectarian divisions create the greatest 
challenge to our efforts to counter ISIL. Political systems that foster 
inclusive and legitimate governance remain the most likely path to 
enduring stability and security in Iraq and Syria over the long-term.
    Question. What modifications, if any, would you recommend be made 
to the strategy to counter ISIL?
    Answer. If confirmed, I will assess the military lines of effort to 
ensure that they are providing the time and space necessary for the 
non-military lines of effort to succeed. I also will evaluate the 
efficacy of our efforts to train and equip security forces in Iraq and 
Syria, and assess whether we can make adjustments to increase their 
effectiveness. A final area I would examine is whether and how we would 
need to adjust our efforts to respond to ISIL's shifting geographic 
reach to confront ISIL not only where it exists today, but also where 
it is most likely to take root in the future, As with any strategy, I 
expect that continued assessment and refinement of both the strategy 
and its implementation is ongoing. As a key component of the overall 
strategy, we will continue to adjust implementation of the military 
campaign based on changes on the ground in Iraq and Syria.
                                al qaeda
    Question. What is your assessment of the threat posed by al Qaeda 
and its affiliates to the U.S. homeland, U.S. interests overseas, and 
Western interests more broadly? Which affiliates are of most concern?
    Answer. Al-Qaeda and its affiliates continue to pose a threat to 
the U.S. homeland, U.S. interests overseas, and Western interests more 
broadly despite ongoing counterterrorism (CT) pressure and competition 
from ISIL. Al-Qaeda in the Arabian Peninsula (AQAP) remains the 
affiliate of most concern.
              yemen and al qaeda in the arabian peninsula
    Question. What are the U.S. national security interests in Yemen?
    Answer. We seek a stable Yemen, with an inclusive and legitimate 
government, that is willing and able to confront violent extremist 
organizations. Continued instability in Yemen not only imposes 
significant humanitarian costs on civilians, it also enables AQAP to 
thrive--a group which poses a direct threat to the U.S. homeland--and 
allows groups to threaten freedom of navigation in the Gulf, 
particularly in the Bab al Mandeb Strait.
    Question. What is your assessment of U.S. strategy in Yemen to 
date?
    Answer. Our current U.S. strategy in Yemen is founded upon three 
related pillars: (1) support political transition, namely National 
Dialogue, Constitutional reform, and Elections, (2) provide continued 
economic and humanitarian assistance, and (3) lay the groundwork for 
security reform, specifically counterterrorism capacity building, 
border security, and critical infrastructure protection. The first step 
is for political parties to return to negotiations and establish a 
legitimate government. That would enable the United States to resume 
cooperation with the Yemen government in the future, particularly on 
countering AQAP. At this time we are challenged to conduct effective CT 
operations.
    Question. What are the implications of recent events in Yemen for 
U.S. counterterrorism policy both in Yemen and globally?
    Answer. The current turmoil in Yemen has hampered DOD CT operations 
against AQAP. Although, the United States still maintains a diminished 
capability. Prior to a Houthi takeover, DOD worked with the Republic of 
Yemen Government (RoYG) military units to combat the significant 
terrorist threat to the U.S. homeland emanating from AQAP. However, 
security concerns in Yemen led to an evacuation of all U.S. personnel, 
hindering efforts to combat AQAP. AQAP continues to pose an immediate 
security threat to Yemen, the region, and the United States. When the 
political and security situation allows, DOD will resume our 
counterterrorism partnership with the Yemeni government.
    Question. What is your assessment of the effectiveness and 
capability of coalition operations led by Saudi Arabia in Yemen?
    Answer. Coalition airstrikes are slowing Houthi expansion in Yemen. 
Saudi-led Coalition operations can be sustained at least in the near 
term. However, these operations have not compelled the Houthis to 
withdraw from cities they captured earlier this year nor deterred 
Houthi attacks along the Saudi border.
                         somalia and al shabab
    Question. What is your assessment of the threat posed by Al Shabab?
    Answer. Al-Shabaab is primarily a threat in Somalia, Kenya, and 
other regional countries. It specifically targets countries providing 
forces to the African Union Mission in Somalia (AMISOM) as well as 
government facilities and Western targets in and around Mogadishu.
    Question. In your view, does al Shabab pose a threat to the United 
States and/or western interests outside of its immediate operational 
area?
    Answer. Al-Shabaab does not pose a direct threat to the U.S. 
homeland or Europe at present. Nevertheless, the group poses an ongoing 
threat to U.S., Western, and other allied interests in East Africa, to 
include Somalia and Kenya.
    Question. What is your understanding of the current U.S. strategy 
in Somalia and the role of DOD in that strategy?
    Answer. The current U.S. strategy on Somalia that was put in place 
in May 2014 focuses on two main security lines of effort: (1) Continued 
support to the African Union Mission in Somalia (AMISOM), to stabilize 
the short term security situation and (2) Promoting Somali security 
sector reform by expanded support to the Somali National Army, to 
advance longer term security and stabilization. DOD had an integral 
role in developing the strategy and we are playing an important role in 
its execution. These security efforts promote the stabilization of the 
political and economic situation which allows for the creation of 
responsive and functioning governmental institutions at the federal, 
regional, and local level.
    Question. What role should DOD play in building the capacity of the 
Somali national military forces?
    Answer. DOD continues to work closely with our colleagues at the 
Department of State to build the capacity of Somali security services 
that are loyal to the federal government and are composed of a mixture 
of clans and regional backgrounds. We intend to increase our support to 
the Somali National Army in the next year, with programs designed to 
provide equipment and logistics capacity to units of the Somali 
National Army to support their continued efforts alongside the African 
Union Mission in Somalia to defeat al-Shabaab.
                 al-qaeda in the islamic maghreb (aqim)
    Question. What is your assessment of the threat posed by Al-Qaeda 
in the Islamic Maghreb (AQIM)?
    Answer. Al-Qaeda in the Lands of the Islamic Maghreb (AQIM) and 
affiliated groups pose a local and regional threat. AQIM will likely 
continue to target Malian government and military targets and 
Multidimensional Integrated Stabilization in Mali (MINUSMA) forces and 
facilities, as well as pursue kidnapping for ransom tactics in Niger 
and Mali.
    Question. In your view, does AQIM pose a threat to the United 
States and/or western interests outside of its immediate operational 
area?
    Answer. No, AQIM does not presently pose a direct threat to the 
U.S. homeland. We see no indications the group views conducting attacks 
outside North Africa and the Sahel as a priority in the near term.
    Question. What capacity has AQIM demonstrated to plan and carry out 
actions threatening U.S. interests?
    Answer. AQIM has the capacity to threaten U.S. and Western 
interests within North and West Africa, where it has conducted or 
attempted attacks in several countries (i.e. Mali, Niger, Algeria, and 
Mauritania). The group will likely continue to bolster its ties to al-
Qaeda-associated terrorist groups throughout the region to influence 
and support attack planning.
    Question. In your view, what has been the impact of the recent 
expansion of AQIM's area of operations in northern Mali on the group's 
capacities and aims?
    Answer. AQIM's expansion in northern Mali has increased its freedom 
of movement and enabled it to institute its own severe brand of sharia 
in territories it controls, implementing policies that are particularly 
brutal for women. AQIM remains capable of conducting small-scale 
improvised explosive device (IED), indirect fire (IDF), and mortar 
attacks against Multidimensional Integrated Stabilization Mission 
(MINUSMA) and Malian interests in the north.
                                 libya
    Question. What is your assessment of the current security situation 
in Libya?
    Answer. Libya's civil war has created a security vacuum and the 
country will remain volatile in 2015. Two rival governments are seeking 
to establish legitimacy, and their aligned militias are vying for 
control of territory and key infrastructure. ISIL also has declared the 
country part of its caliphate, and ISIL-aligned extremists are trying 
to institute sharia in parts of the country.
    Question. What is your understanding of the U.S. strategy with 
regards to Libya and the role of DOD in that strategy?
    Answer. The United States maintains a national interest in 
stabilizing Libya and preventing terrorists from using it as a safe 
haven. The United States and our allies are supporting the United 
Nations-led efforts to help the warring Libyan factions reach a 
political solution by forming a national unity government. Currently, 
the role of DOD in the U.S. strategy is to leverage military 
relationships with regional partners to encourage support for a 
political solution. A unity government containing both secularists and 
Islamists provides the best the long term partner to counter VEOs in 
Libya. Should diplomatic efforts to form a unity government succeed, 
the United States will be prepared to revisit security assistance 
efforts for the legitimate Libyan security forces.
    Question. How would you assess its effectiveness in achieving its 
objectives?
    Answer. Political reconciliation has yet to materialize. Libya's 
political landscape is severely fragmented and the country is in the 
midst of civil war. The UN-led negotiations have so far failed to gain 
traction, however negotiators remain optimistic that an agreement can 
be reached and a unity government formed.
    Question. What do you assess to be the greatest impediments to 
implementing the strategy and protecting U.S. interests in Libya?
    Answer. The greatest impediment to advancing U.S. goals in Libya is 
the severe fragmentation of Libya's political and security landscape, 
which has significantly complicated the negotiations. Libya has 
disintegrated into a complex mix of rival political factions, tribes, 
militias and other armed groups, interspersed with local and foreign 
extremists. Competition between these rival groups poses a challenge to 
building enduring political consensus, while violent extremists exploit 
this window of uncertainty to compromise regional stability.
                              north africa
    Question. In recent years, there has been a growth of terrorist 
networks, capabilities, operations, and safe havens throughout North 
and East Africa, including groups that have the intention to target 
U.S. and Western interests. In the face of growing instability and 
threats, the U.S. counterterrorism effort in the region has been 
described as an ``economy of force'' effort.
    Do you agree with that characterization of the situation in North 
and East Africa and the U.S. counterterrorism efforts to combat the 
related threats?
    Answer. North and East Africa are important areas in our fight 
against extremists. Multiple different terrorist networks are indeed 
active in North and East Africa, as well as West Africa. These networks 
have primarily local ambitions--seeking increased influence over 
resources or territory, and threatening the stability of our regional 
partners and safety of civilians on the ground. Some have, at times, 
also demonstrated a willingness to target U.S. and Western interests. 
AFRICOM is continually working to identify, prioritize and target these 
networks, in partnership with host nations.
    Question. What is your assessment of the current U.S. 
counterterrorism strategy in the region? In your view, is the U.S. 
military allocating adequate resources to effectively address the 
terrorism threat in the region?
    Answer. DOD assets have been allocated based on the level of threat 
and the potential for collaboration with partner nations. Based on that 
criteria, our current allocation of resources appears appropriate, 
however if confirmed, I will consider whether additional investments 
are required in order to stem the growth of violent extremism in the 
region.
    Question. General Rodriguez noted in his March 2014 testimony that 
``North Africa is a significant source of foreign fighters in the 
current conflict in Syria.'' What is your understanding of the foreign 
fighter flow from North Africa to the conflict in Syria and Iraq?
    Answer. North Africans make up the vast majority of foreign 
fighters entering Iraq and Syria; however, increasingly many are 
choosing to remain in North Africa, and join the ISIL affiliate in 
Libya. Tunisians provide the largest contingent of foreign fighters to 
Syria and Iraq, followed by Morocco, Libya, and Algeria.
    Question. In your view, is it likely that many of these fighters 
will eventually return home from Syria and Iraq to North Africa and 
continue their fight against regional governments?
    Answer. Yes, it is likely that North African foreign fighters will 
eventually return home to conduct attacks in their home countries; 
however, it is currently unknown if these individuals would be tasked 
by ISIL to conduct attacks or if it would be of their own accord.
                                 russia
    Question. Crimea was formally annexed when President Putin signed a 
bill to absorb Crimea into the Russian Federation on March 18, 2014, 
and Russia continues to fuel instability in eastern Ukraine despite a 
ceasefire agreed to in September 2014.
    How effective do you assess the sanctions of the U.S. and the 
European Union have been in deterring additional aggression by Russia?
    Answer. Sanctions alone are unlikely to deter future Russian 
aggression; deterring combined Russian-separatists actions against 
Ukraine requires a whole of government approach that is aligned with 
our NATO allies and friends in Europe. However, U.S. and EU sanctions 
have had an impact on Russia's economy and send a clear signal to 
Moscow that aggression against Ukraine's sovereignty and territorial 
integrity entails costs.
    Question. What other specific U.S. actions helped to deter 
additional Russian aggression in Eastern Europe?
    Answer. Congressional support for the European Reassurance 
Initiative has enabled DOD, via Operation ATLANTIC RESOLVE (OAR), to 
conduct military exercises and training on land, in the air and at sea, 
while sustaining a rotational presence across Europe; and increase the 
responsiveness of U.S. forces to reinforce NATO by pursuing the 
prepositioning of equipment and enhancing reception facilities in 
Europe. Our bilateral efforts as well as our continued support of NATO 
adaptation measures all support the goal of deterring additional 
Russian aggression. Senior defense and diplomatic officials travel and 
consult with our allies and friends to affirm Alliance resolve and 
bolster approaches to deter Russian aggression.
    Question. What additional steps, if any, are likely to prove most 
effective at deterring Russian aggression in Eastern Europe?
    Answer. If confirmed, I will continue to evaluate current measures 
and take a close look at potential adjustments and adaptations. Of key 
concern to me is wisely channeling U.S. military efforts and resources 
to ensure our allies and partners are militarily capable and 
interoperable.
    Question. Are you concerned that Moldova and Georgia may be at a 
heightened state of vulnerability given Russian willingness to take 
aggressive action in Ukraine?
    Answer. Yes. Russia has demonstrated both in Georgia in 2008 and 
Ukraine today its willingness to use force, violate sovereignty, and 
exploit the vulnerabilities of these fragile democracies to achieve its 
strategic objectives. Georgia, Moldova and Ukraine all contain Russian 
occupied separatist regions that the Kremlin exploits for its own 
purposes.
    Question. Russian tactics in eastern Ukraine have been called 
``hybrid'' and combine hard power with soft power, including elements 
such as lethal security assistance to separatists, the use of special 
operations forces, extensive information operations, withholding energy 
supplies and economic pressure.
    If confirmed, what steps would you recommend as part of a strategy 
to counter this ``hybrid'' approach?
    Answer. We need to remain alert to Russian strategic intent and 
capabilities--and their integration of military and non-military tools 
in the gray space. Most importantly, we must lead in order to maintain 
Trans-Atlantic resolve to resist Russian coercion now and in the 
future. I will continue to emphasize efforts and investments that 
enable our allies and friends to defend against a range of threats--and 
to do so collectively. Increasingly, there is a non-military dimension 
to security that requires whole-of-government and multinational 
approaches. Military power is just one aspect of these approaches.
    Question. In light of Russia's actions in 2014, what do you believe 
are appropriate objectives for U.S.-Russian security relations?
    Answer. Cooperation with Russia in areas of mutual interest within 
the military sphere remains possible if Russia assumes the role of a 
responsible international actor moving forward, not isolated and moving 
backward as it is today. If confirmed, my intent for the military-to-
military relationship is to reduce the chances of miscalculation or 
escalation through professional, candid communications and behaviors.
                             nato alliance
    Question. The reemergence of an aggressive Russia has resulted in 
the North Atlantic Treaty Organization (NATO) developing the Readiness 
Action Plan that NATO Secretary General Jens Stoltenberg called ``the 
biggest reinforcement of our collective defense since the end of the 
Cold War.'' NATO also continues to be central to our coalition 
operations in Afghanistan and elsewhere, even as many NATO members have 
significantly reduced their national defense budgets in response to 
economic and fiscal pressures.
    How important is the NATO alliance to U.S. national security 
interests?
    Answer. The Alliance is essential to our national security. The 
bedrock of NATO's collective defense obligation is Article 5, but 
NATO's importance extends beyond Article 5. NATO has been fundamental 
to sustaining Trans-Atlantic unity, prosperity and security. This has 
enabled Europe to contribute to security and prosperity on a global 
basis. The Alliance maintains a persistent air, land, and maritime 
presence in and around the territories of our European allies, 
demonstrating a commitment to defend its territory against any 
aggression. NATO is a fundamental contributor to international order. 
NATO conducts military operations in Kosovo, Afghanistan, the 
Mediterranean Sea, and off the Horn of Africa to support stability to 
those areas. NATO also assists nations in North Africa and the Middle 
East to develop local capabilities to stem the growing instability and 
transnational threats in and around their countries and to prevent 
those threats from spreading to Europe or threatening the U.S. 
homeland.
    Question. In light of the Russian Federation's aggression against 
Ukraine, what do you see as the major strategic objectives of the NATO 
Alliance in the coming years and what are the greatest challenges in 
meeting those objectives?
    Answer. NATO must affirm Trans-Atlantic Unity by adapting its 
collective defense against state and non-state threats across a broad 
spectrum. NATO's unity is fundamental, and that requires us to be 
attentive to the challenges confronting all members. The Russian 
Federation's aggression in Ukraine consolidated attention on the 
Alliance's clearest responsibility, which is to protect and defend its 
territory and populations against attack, per Article 5 of the North 
Atlantic Treaty. NATO must also remain prepared and continue to 
undertake its other ``core tasks'' of crisis management and cooperative 
security. Violent extremist non-state actors and Russian coercion and 
subversion in ``gray space'' test the Alliance's ability to adapt 
Article V to these challenges. As Allies, we must thereby ensure that 
the Defense Investment Pledge at the 2014 Wales Summit meets these 
challenges and threats.
    Question. What do you see as the proper role, if any, for NATO in 
addressing the threat posed by ISIL and in addressing the problem of 
illegal immigration across the Mediterranean Sea?
    Answer. A unified Europe can and must do more than one thing at a 
time. But NATO must be judicious about prioritizing its engagement 
given limited resources to address the threats and challenges to the 
southern and eastern flanks.
    Information sharing is a useful contribution NATO could make to 
counter ISIL and/or to support Mediterranean Allies and friends 
managing border security and immigration challenges..
    Question. The concept of defense cooperation among NATO members was 
emphasized at the NATO summit in Chicago in May 2012.
    What areas or projects would you recommend, if confirmed, that NATO 
nations cooperate in to improve NATO alliance capabilities?
    Answer. Cooperative efforts among Allies on developing capabilities 
have become increasingly important in light of the worldwide challenges 
and the fiscal straits facing many Allied nations. If confirmed, I 
would use my office to influence Allies to implement Wales Summit 
pledge to move toward the two percent defense spending target as soon 
as possible. In doing so, I would encourage Allies to focus their 
resources on specific Alliance capability needs, such as developing 
command and control and joint intelligence, surveillance and 
reconnaissance and maintaining and improving readiness and 
interoperability.
    Question. Under what conditions, if any, would you envision further 
enlargement of NATO in the coming years?
    Answer. Enlargement should be reserved for those candidates deemed 
ready to accept the obligations of membership, who are prepared to make 
the necessary reforms that further NATO's principles, and who 
contribute to the unity and security of the Alliance.
    Question. Turkey continues to be a gateway for foreign fighters 
proceeding to and from Syria and Iraq.
    What steps would you recommend to encourage Turkey to continue to 
address the threat posed by foreign fighters proceeding to and 
returning from Syria and Iraq?
    Answer. Turkey acknowledges the foreign terrorist fighter threat 
and is taking steps to bolster its law enforcement and border security 
efforts, including increased monitoring, border security, and counter-
illicit finance measures. If confirmed, I would support the 
Department's contributions to interagency support of Turkish enhance 
border security enhancements, to include strengthening critical 
information sharing with the Turkish military. Moreover, I would 
support international efforts to help source countries identify and 
disrupt foreign fighter transit through Turkey.
    Question. At the NATO Summit in Wales in 2014, NATO leaders 
declared their ``aim to move towards the 2 percent guideline [of GDP 
for defense spending] within a decade with a view to meeting their NATO 
Capability Targets and filling NATO's capability shortfalls.''
    In your view, what impact have national defense budget cuts had on 
the capabilities of the NATO alliance, and what do you believe needs to 
be done to address any capability shortfalls?
    Answer. National defense budget cuts and fiscal austerity measures 
by our Allies have limited their ability to address long standing 
Alliance capability shortfalls such as in joint intelligence, 
surveillance and reconnaissance. These capabilities can be costly, but 
we need to ensure that in the future the United States is not the only 
Ally with such capabilities. The rhetoric of the Wales Defense 
Investment Pledge must be matched by real resources to build 
capability. The United States is committed to working with Allies on 
defense planning to ensure they maintain or develop the specific 
capabilities that the Alliance is lacking.
    Question. What are the greatest military capability shortfalls that 
you see in the NATO alliance?
    The most significant shortfalls that I see in the Alliance are: 
cyber defense, defense institution-building, enabling capabilities such 
as joint intelligence, surveillance and reconnaissance, air-to-air 
refueling and strategic lift. The Alliance places heavy reliance on the 
United States to provide these limited but high-demand capabilities. 
Other Allies should be encouraged to develop these capabilities through 
national and multinational investment.
    Question. In light of the reductions in national defense spending 
by some NATO members, are you concerned that the Alliance will lack 
critical military capabilities? If so, what steps, if any, would you 
recommend be taken to address potential shortfalls in Alliance 
capabilities?
    Answer. The United States is engaged in political, diplomatic and 
military channels to address continued reductions in defense investment 
by our Allies. We are particularly focused on NATO Allies that have 
been our most reliable partners for managing global security issues and 
those with the largest Gross Domestic Products. Alliance capability 
shortfalls will increase as national defense spending decreases. Most 
Allies have gone as far as they can go in wringing out efficiencies in 
their defense spending. The key step for addressing capability 
shortfalls is to arrest the decline in national defense investment and 
move to meet the Defense Investment Pledge made at the 2014 Wales 
Summit.
    Question. What are the greatest opportunities and challenges that 
you foresee for NATO in meeting its strategic objectives over the next 
five years?
    Answer. The greatest opportunity and challenge are the same: 
adapting NATO to better meet current and future security challenges 
while preserving Trans-Atlantic unity. The events in both Europe and 
the Middle East have provided the catalyst for adapting NATO's 
political, military and institutional processes and focus. NATO 
leaders--including our President--have committed to this adaptation 
which will make NATO more responsive and ready to face, or deter, 
challenges. Following thru on this adaptation is the greatest 
opportunity for NATO; gaining the consensus to do this in a focused, 
proactive manner is the greatest challenge.
    Question. In your view, is there a continuing requirement for U.S. 
nuclear weapons to be deployed in NATO countries?
    Answer. The 2010 Strategic Concept for the Alliance states NATO 
will remain a nuclear alliance for as long as nuclear weapons exist. 
Further, the 2012 NATO Deterrence and Defense Posture Review, the DDPR, 
concluded NATO's current mix of conventional, nuclear, and missile 
defense capabilities remains appropriate. I concur with both of these 
judgments by the Alliance. Finally, in the context of recent Russian 
behavior, including their development of dual capable intermediate-
range missile systems that directly threaten our NATO allies, now is 
not the time to eliminate a capability that has been an effective 
centerpiece of Alliance cohesion, resolve and deterrence for decades.
                      u.s. force posture in europe
    Question. The Department of Defense continues to review its force 
posture in Europe to determine what additional consolidations and 
reductions are necessary and consistent with U.S. strategic interests.
    How would you define the U.S. strategic interests in the European 
area of responsibility (AOR)?
    Answer. As the National Security Strategy states, the United States 
maintains a profound commitment to a Europe that is free, whole, and at 
peace. According to the National Military Strategy, NATO's collective 
security guarantees are strategically important for deterring 
aggression, particularly in light of recent Russian aggression on its 
periphery.
    Question. Do you believe that additional consolidation and 
reductions of U.S. forces in Europe are consistent with U.S. strategic 
interests in that AOR given the increase in Russian aggression in the 
last 15 months?
    Answer. Yes. The current U.S. footprint in Europe--including the 
recent changes announced by Secretary Carter--supports garrison 
operations, training facilities and power projection capabilities for 
operations inside and outside the AOR. However, the credibility and 
effectiveness of our response to Russian aggression in the East depend 
not only on the operational scale and geographic scope of our 
operations, but also on their longevity. If confirmed, I will seek to 
ensure the persistent, appropriate level of rotational presence is 
retained in Europe to effectively assure allies and deter Russian 
aggression.
             u.s. force posture in the asia-pacific region
    Question. The Department continues the effort to rebalance toward 
the Asia-Pacific as announced in the January 2012 Strategic Defense 
Guidance.
    Are you satisfied with the rebalance efforts to date?
    Answer. Yes. I am satisfied with our Rebalance efforts to date. The 
rebalance to the Asia-Pacific region has resulted in a significant 
adjustment in U.S. force structure and capabilities. As indicators of 
our success, we have negotiated new comprehensive force posture and 
access agreements with key allies and partners to support broader U.S. 
goals and objectives in the region. We have strengthened our alliances 
and greatly expanded partnerships with countries like Singapore, 
Vietnam and India. We have moderated tensions in East and South China 
Sea maritime disputes and reinforced our position as the security 
partner of choice for most nations in the region. An added benefit of 
these strengthened ties is the commitment of military forces and assets 
of several countries to the anti-ISIL coalition.
    Question. What do you see as the U.S. security priorities in the 
Asia-Pacific region over the next couple of years and what specific 
capabilities or enhancements are needed in to meet those priorities?
    Answer. The United States faces a range of challenges in the Asia-
Pacific region, including provocations by the DPRK and the growth of 
its ballistic missile programs; China's development of new technologies 
intended to prevent open access to the air and maritime domain; 
widespread natural disasters and transnational threats; and territorial 
disputes. Going forward, we must prioritize investments in advanced 
capabilities that are critical for the future operational environment. 
I will support the ongoing efforts to increase U.S. military presence 
in the region and invest in and deploy critical advanced capabilities.
    I believe we must not only continue to modernize U.S. alliances and 
partnerships, which provide a critical role in underwriting regional 
security, but also help grow the ISR, HADR and maritime security/domain 
awareness capacities of our allies and partners in the region. The 
Department must continue to enhance U.S. force posture and capabilities 
and work with China to encourage greater transparency about how it will 
use its growing military capabilities.
    Question. Do the budget cuts and resource constraints associated 
with sequestration threaten your ability to execute the rebalance to 
the Pacific?
    Answer. If we return to sequestration-level cuts in Fiscal Year 
2016, we will face serious risks across the board, and may have to 
reassess the rebalance strategy. If confirmed, I look forward to 
working with the Department and Congress to help solve this pressing 
problem.
    Question. As the United States realigns its forces in the Asia-
Pacific Theater, do you believe we have the air and maritime lift 
required to support the distribution of Marines across North and 
Southeast Asia?
    Answer. No. If confirmed, I look forward to working with the 
Services and the U.S. Pacific Command to address this challenge.
                                 kosovo
    Question. Approximately 700 U.S. troops remain in the Balkans as 
part of the Kosovo Force (KFOR) that first deployed to Kosovo in 1999 
and today is comprised of over 4,600 personnel from 30 countries. 
Spikes in violence in 2011 required the deployment of the NATO 
operational Reserve Force battalion of approximately 600 soldiers to 
bolster KFOR and maintain a secure environment. Progress is required in 
both the military and political realms before further troop reductions 
can be made.
    What major lines of effort do you think are required to further 
reduce or eliminate U.S. and NATO presence in Kosovo?
    Answer. Continued progress in the EU implementation of the April 
2013 accord between Serbia and Kosovo will go a long way to stabilizing 
the Western Balkans and ending Kosovo's ethnic partition thus setting 
the security conditions appropriate for further reducing or eliminating 
U.S. and NATO presence in Kosovo.
    Question. In your view, can the European Union play a more 
significant role in Kosovo?
    Answer. The EU plays a significant role by contributing to the 
security of Kosovo through its European Union Rule of Law Mission in 
Kosovo (EULEX-Kosovo) in addition to ongoing efforts to implement the 
2013 Accord. The EULEX mission supports Kosovo on its path to a greater 
European integration in the rule of law area by investigating, 
prosecuting and adjudicating sensitive cases using its executive powers 
as well as by monitoring, mentoring, and advising local counterparts in 
the police, justice and custom fields to achieve sustainability and EU 
best practices in Kosovo. The EU's active engagement has helped 
facilitate political dialogue between Serbia and Kosovo and will 
continue to be an essential part of progress.
               security situation on the korean peninsula
    Question. What is your assessment of the current security situation 
on the Korean peninsula and of the threat posed to the United States 
and its allies by the current state of North Korea's ballistic missile 
and nuclear weapons capabilities?
    Answer. North Korea remains one of the most challenging security 
problems for the United States and our allies and partners in the 
region. North Korea continues to take actions that are destabilizing 
for the region, including its December 2012 missile launch, February 
2013 nuclear test, series of short-range ballistic missile launches in 
2014, and the cyber-attack against Sony Pictures Entertainment.
    North Korea's ballistic missile and weapons of mass destruction 
(WMD) capabilities clearly present a serious and direct threat to U.S. 
forces postured in the Asia-Pacific region as well as to our regional 
allies and partners. These capabilities could eventually pose a direct 
threat to U.S. territory. Moreover, North Korea's history of 
proliferation amplifies the dangers of its asymmetric programs.
    The US-ROK alliance continues to be the linchpin to deterring North 
Korean aggression and maintaining stability on the Korean Peninsula. If 
confirmed, I will ensure that the U.S.-ROK Alliance continues to 
strengthen alliance capabilities to counter North Korea's increasing 
missile and nuclear threat. I will also ensure that we draw upon the 
full range of our capabilities to deter, defend, and respond to North 
Korean ballistic missile and WMD threats.
    Question. In your view, are there additional steps that DOD could 
take to ensure that North Korea does not proliferate missile and 
weapons technology to Syria, Iran and others?
    Answer. If confirmed, I will continue efforts to strengthen our 
strong defense posture against the North Korean ballistic missile 
threat. This includes enhancing DOD's ability to highlight and disrupt 
the illicit proliferation networks that North Korea uses, and promoting 
cooperation with partners to interdict vessels and aircraft suspected 
of transporting items of proliferation concern.
    Question. What is your view regarding the timing of transfer of 
wartime operational control from the U.S. to the ROK?
    Answer. At the 2014 U.S.-ROK Security Consultative Meeting, SecDef 
Hagel and ROK Minister of Defense Han decided that in light of the 
evolving security environment in the region, we will implement the ROK-
proposed, conditions-based approach to the transition of wartime OPCON.
    The ROK will take wartime OPCON when critical ROK and alliance 
military capabilities are secured and the security environment in the 
region is conducive to a stable wartime OPCON transition.
                          china assertiveness
    Question. How has China's aggressive assertion of territorial and 
maritime claims, particularly in the South China Sea and East China 
Sea, affected security and stability in the region?
    Answer. China's actions in the South and East China Seas, as well 
as its rapid military modernization and growing defense budgets, have 
led many in the region--including the United States--to question its 
long-term intentions. It has still not clarified its expansive 9-Dash 
Line claim, and it continues to conduct large scale land-reclamation 
activities in the South China Sea. Such behavior has been 
destabilizing.
                             china mil-mil
    Question. What is your assessment of the current state of the U.S.-
China military relationship and your views regarding China's interest 
in and commitment to improving military relations with the United 
States?
    Answer. I view the U.S.-China military-to-military relationship as 
a critical component to our overall bilateral relations. It allows us 
to increase cooperation on areas of mutual interest and reduces risk as 
our forces come into closer contact. The Chinese leadership has 
expressed the view that the military-to-military relationship is useful 
as vehicle for stability in the overall bilateral relationship. The 
relationship has room for improvement.
    Question. What is your view of the purpose and relative importance 
of sustained military-to-military relations with China?
    Answer. As an enduring Pacific power, the United States has a clear 
interest in sustaining military-to-military contacts with China. I will 
continue to seek a mil-mil relationship that builds sustained and 
substantive dialogue, practical cooperation in areas of mutual 
interest, and mitigates the risk of miscalculation.
                        anti-access/area denial
    Question. Over the past few years, much has been made of the 
emerging anti-access and area denial capabilities of certain countries 
and the prospect that these capabilities may in the future limit the 
U.S. military's freedom of movement and action in certain regions. Do 
you believe emerging anti-access and area denial capabilities are a 
concern?
    Answer. Yes. One of the keys to our nation's success is our ability 
to rapidly project power around the globe. Our power projection 
capability is essential to deterring our adversaries and maintaining 
global stability. Russia, Iran, and China are developing technologies, 
most notably missiles, designed to limit U.S. military's freedom of 
movement. If confirmed, I will make it a priority to ensure that we 
sustain our ability to project overwhelming combat power into any 
theater at a time of our choosing.
    Question. If so, what do you believe the U.S. Armed Forces need to 
be doing now and in the next few years to ensure continued access to 
all strategically important segments of the maritime domain?
    Answer. The United States is committed to keeping the global 
commons, especially maritime, free. We will continue to invest in the 
personnel and technological advantages that will allow us to meet that 
commitment, especially to counter anti-access and area denial 
capabilities of our potential enemies. However, any discussion of 
specific actions and investments associated with our counter A2AD 
strategy and capabilities are more appropriate for discussion in a 
classified forum.
    Question. If confirmed, you would play an important role in the 
process of transforming the U.S. Armed Forces' capability and capacity 
to meet new and emerging threats.
    Answer. Concerning capability and capacity to meet new and emerging 
threats, what are your goals regarding transformation of the U.S. 
military?
    Question. If confirmed, I would develop a detailed concept for 
Joint exercises and experimentation. My initial assessment, from the 
perspective of a service chief, is that our operational tempo over the 
past decade has adversely impacted us in this area.
      intelligence, surveillance, and reconnaissance capabilities
    Question. Despite the ongoing drawdown in Afghanistan, demand for 
intelligence, surveillance, and reconnaissance (ISR) capabilities of 
every kind remains very high due to the enhanced situational awareness 
and targeting capabilities they bring to our commanders. Almost all of 
the geographic combatant commands still have validated ISR requirements 
that are not being met.
    What is your assessment of the Department's current disposition of 
ISR assets across the various combatant commands?
    Answer. Demand for ISR continues to outpace available supply. The 
Services are operating at maximum capacity; therefore, sourcing for new 
requirements is a zero sum game. Assets are primarily reallocated from 
other combatant commander operations to meet new demands.
    The Department's allocation strategy remains focused on leveraging 
our ISR capabilities to maximize effects. To support counter-terrorism 
and force protection, we have allocated nearly 90 percent of our 
remotely-piloted full-motion video assets to USCENTCOM, with the 
remaining sourced primarily to USAFRICOM. In USEUCOM and USPACOM's 
sensitive reconnaissance operations areas, we have leveraged assets 
with standoff capabilities to maximize indications and warning 
collection.
    Question. As our forces are withdrawn from Afghanistan, should 
existing ISR assets be re-postured to support combatant command needs 
in other regions, or can we afford to reduce ISR capacity?
    Answer. The Department continually evaluates our capabilities 
against evolving combatant command requirements, ensuring a balance 
across operational, force management, and institutional risks. When 
appropriate, ISR assets can be repostured to support emerging combatant 
commander needs across other regions. For example, within the last 
year, we shifted some ISR from Afghanistan to monitor ISIL activity in 
the Middle East. Additionally, we made the challenging decision to 
return medium-altitude ISR capacity to a steady-state 60 flights a day, 
from an almost continual surge of 65, reducing risk to the long-term 
sustainability of the USAF's unmanned pilot force.
    Question. Most of the highest-value ISR assets acquired after 9/11 
are aircraft that were not designed to be survivable in high-threat air 
defense environments, although in some cases unmanned aerial vehicles 
were designed to be deployed in large numbers in the expectation of 
substantial combat attrition.
    Do you believe that the Department needs a major shift towards ISR 
platforms that are survivable in high-threat situations, or merely an 
augmentation of the capabilities we now have, with the assumption that 
air superiority can be gained rapidly enough to operate today's assets 
effectively?
    Answer. We have learned a great many ISR lessons from more than ten 
years of conflict. It is in the best interest of the United States to 
invest in ISR platforms, sensors, and communications capabilities 
designed to penetrate and survive in high-threat and denied 
environments; not just in the air domain, but in space, surface, and 
sub-surface domains as well. These systems also offer the potential to 
improve pre-conflict warning. These capabilities are expensive to 
develop and field, but are a necessary component of balanced efforts to 
maintain our warfighting advantages. However, existing ISR systems 
remain very relevant for today's operations and future scenarios; 
particularly in support of ongoing counter-terrorism missions. So the 
right path appears to be augmenting the capabilities we have today to 
fill critical capability and capacity gaps.
               aircraft carrier-launched unmanned systems
    Question. The Navy's current plan for the Unmanned Carrier-Launched 
Airborne Surveillance and Strike (UCLASS) system aircraft is to develop 
an airframe optimized for unrefueled endurance (14 hours) and the ISR 
mission.
    Given the combat radius of the planned carrier air wing, are you 
concerned the carrier will lack the ability to project power at 
relevant distances given emerging anti-access/area-denial threats?
    Answer. Yes. That's why it's critical that we continue to develop 
concepts and capabilities that will allow us to maintain a competitive 
advantage in an A2AD environment.
                       special operations forces
    Question. The 2006 and 2010 QDRs have mandated significant growth 
in our special operations forces (SOF) and enablers that directly 
support their operations. The most-recent QDR released in 2014 capped 
this growth at 69,500, approximately 2,500 below the originally planned 
growth.
    In light of the growing global terrorism threat, do you believe the 
currently planned end-strength for SOF is sufficient to meet global 
requirements?
    Answer. The last two Quadrennial Defense Reviews (QDRs) directed 
significant growth in our special operations forces (SOF) along with 
enablers that directly support their operations. We will continue to 
carefully balance the need for further growth in SOF with our need to 
address other capability demands in light of increased budgetary 
pressures.
    Question. SOF are heavily reliant on enabling support from the 
general purpose force. In light of current fiscal challenges, do you 
believe sufficient enabling capabilities can be maintained within the 
general purpose forces and that such capabilities will remain available 
to special operations forces?
    Answer. Special operations forces depend on general purpose forces 
for many enabling capabilities, including intelligence, surveillance 
and reconnaissance (ISR), logistics, and medical evacuation. I believe 
that we have sufficient and trained general purpose forces to support 
high priority special operations missions.
                international peacekeeping contributions
    Question. In testimony before the House Committee on Foreign 
Affairs (July 29, 2009), Ambassador Susan Rice, then U.S. Ambassador to 
the United Nations, stated that the United States ``is willing to 
consider directly contributing more military observers, military staff 
officers, civilian police, and other civilian personnel--including more 
women I should note--to UN peacekeeping operations.''
    What is your view on whether the U.S. should contribute more 
military personnel to both staff positions and military observers in 
support of U.N. peacekeeping operations?
    Answer. I believe we should focus on how best to increase the 
effectiveness and efficiency of UN peacekeeping operations. Deliberate 
and strategically crafted placements of personnel to key positions 
within the UN can advance U.S. influence and interests.
    Question. If confirmed, would you support identifying methods 
through which the DOD personnel system could be more responsive to 
requests for personnel support from multilateral institutions like the 
United Nations?
    Answer. Over the past year the Joint Staff has provided multiple 
officers to the UN to include the head of the UN's military planning 
service. The recent administrative waiver extension provided by the UN 
to the United States will help ease future assignments, when warranted.
                       interagency collaboration
    Question. The collaboration between U.S. Special Operations Forces, 
general purpose forces, and other U.S. Government departments and 
agencies has played a significant role in the success of 
counterinsurgency and counterterrorism operations in recent years. 
However, much of this collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from the 
collaborative interagency efforts in Afghanistan, Iraq, and elsewhere?
    Answer. Military power is necessary, but not sufficient to achieve 
our national security objectives. The non-military dimensions of 
national security are increasing in their importance. Our adversaries 
understand this and have adapted to challenge us outside or short of 
our military redlines. Whereas the U.S. military provides a range of 
options to employ force, our diverse civilian partners provide potent 
and diverse options to exert and sustain American influence. Much of 
the incremental progress bringing civil and military capacities 
together in the field is waning. Agencies and Departments must 
deliberately and jointly invest in civil-military strategy, doctrine, 
training and operations to meet the tests of this era, whether State-
based coercion in ``gray space,'' non-state violent extremism, or cyber 
threats to our homeland and overseas interests. If confirmed, my 
military advice to the President, NSC and Congress will reflect the 
need to invest, apply and sustain deliberate civil-military approaches 
to national security.
    Question. How do you believe these efforts can be improved?
    Answer. It begins with leadership. If confirmed, I will consult 
early and often with Secretary Carter, other members of the NSC and 
Congress to understand specific ways the Joint Force can support or 
enable the non-military dimensions of our national security. My focus 
will remain on the military instrument of power. I will establish 
expectations that the Joint Staff parallel my efforts by pursuing a 
more collaborative and engaged posture in NSC fora and with 
departments, agencies and the private sector.
    Question. How can the lessons learned in recent years be captured 
in military doctrine and adopted as ``best practices'' for future 
contingency operations?
    Answer. The Department's Joint Force Development process that takes 
observations from operational practice, joint training and concept 
development, analyzes them, and synthesizes them into Joint Doctrine 
for the operational preparation and employment of the force. As an 
example, the current average age of the Department's 81 Joint Doctrine 
publications is about 2 years old, a refresh rate that is about 3-times 
faster than it was in the years after 9/11. We should look at making 
doctrine more adaptable to the dynamic environment and accessible to 
the joint force. But we must also infuse learning into our joint 
education and joint exercise programs to ensure that its impact is 
aligned at the strategic, operational and tactical echelons within OSD, 
the Military Departments and Services, combatant commands and defense 
support activities.
    Question. Interagency collaboration on an operational or tactical 
level tends to address issues on a country-by-country basis rather than 
on a regional basis (e.g. international terrorists departing Mali for 
safe havens in Libya).
    How do you believe regional strategies that link efforts in 
individual countries can best be coordinated in the interagency arena?
    Answer. Combatant commanders develop Theater Campaign Plans and 
Functional Campaign Plans that address regional and trans-regional 
issues. They seek input from interagency partners in the development of 
these plans to de-conflict and complement efforts. We need to change 
our paradigm. The State Department has initiated regional, functional 
and country strategies and supporting processes. DHS is maturing its 
scenario-based planning process. Our military paradigm needs to shift 
from expecting others to integrate into military plans and processes. 
This reinforces the tendency for DOD to become the option of first 
resort and the default integrator. We need to be more engaged with OSD 
to support and influence foreign affairs and homeland security planning 
and resourcing processes and integrate those into military plans and 
processes.
                       responsibility to protect
    Question. The U.S. Government has recognized the ``responsibility 
to protect'' (R2P)--that is, the responsibility of the international 
community to use appropriate means to help protect populations from 
genocide, war crimes, ethnic cleansing and crimes against humanity, by 
encouraging states to protect their own populations, by helping states 
build the capacity to do so, and by acting directly should national 
authorities fail to provide such protection. In its 2010 Quadrennial 
Defense Review, the Department of Defense names ``preventing human 
suffering due to mass atrocities'' as one of a long list of potential 
contingencies that DOD might be called on to address. DOD has begun to 
explore some of the implications of R2P, by considering ``mass atrocity 
prevention and response operations'' (MAPRO).
    Question. In your view, how high a priority should the 
``responsibility to protect'' be for the U.S. Government as a whole?
    Answer. My role is not to set policy priorities but rather to 
design and employ the military instrument in support of policy 
decisions. The military instrument can be used to meet many priorities 
as directed by the President. The U.S. military has often taken an 
active role in helping to prevent and responding to mass atrocity 
situations.
    Question. In your view, what should be the role of DOD, if any, in 
fulfilling the responsibility to protect?
    Answer. The role of DOD is to support the broader U.S. government's 
response in any situation as part of a whole-of-government approach. 
DOD should provide options, assess the risk associated with those 
options, and execute selected options as needed.
    Question. In your view, what is the proper application of R2P 
doctrine with respect to the situation in Syria?
    Answer. We incorporate R2P considerations, and civilian security 
considerations more broadly, when we weigh the acceptability and 
feasibility of our military strategies, whether in Syria or elsewhere. 
The U.S. Government is working with allies and partners and with the 
Syrian opposition to provide humanitarian assistance within Syria and 
across the region. Since fiscal year 2012, the United States has 
provided over $4.4 billion in aid to help the victims of this conflict, 
including emergency medical care and supplies, food, and shelter. Of 
that, over three quarters of a billion dollars have already been spent 
in fiscal year 2015.
        operation observant compass & the lord's resistance army
    Question. Despite pressure by the Ugandan People's Defense Forces 
(UPDF) and efforts by U.S. Special Operations personnel to support 
them, elements of the Lord's Resistance Army (LRA)--including Joseph 
Kony--continue to operate and commit atrocities against civilian 
populations in the Central African Republic, Democratic Republic of the 
Congo, and South Sudan. Some observers have identified operational 
concerns with this mission, including that: (1) supported forces are 
trying to find an elusive foe in an area roughly the size of 
California, much of which is covered in thick jungle; (2) technical 
support to U.S. forces and their UPDF partners from the defense and 
intelligence community continues to be inadequate; and (3) limitations 
continue to be placed on the ability of U.S. Special Operations 
personnel to accompany UPDF partners outside of main basing locations, 
thereby limiting the level of direct support they can provide.
    In your view, what is the objective of Operation Observant Compass?
    Answer. Operation OBSERVANT COMPASS has four main objectives:
    1)  Increase protection of civilians affected by the LRA
    2)  Promote defection, disarmament, demobilization, and 
reintegration of LRA fighters
    3)  Remove Joseph Kony and LRA leaders from central Africa
    4)  Increase humanitarian access and provide relief
    Our African partners, with DOD and interagency assistance, have 
made progress in achieving these mission objectives.
    Question. Do you support the continuation of DOD's current level of 
support to this mission?
    Answer. I am sensitive to the resource constraints we face, 
especially in the Africa area of operations, and am open to exploring 
other options to achieve our stated policy goals. I recommend 
resourcing at a level appropriate to the threat the LRA poses to our 
national interests in the region.
       national strategy to combat transnational organized crime
    Question. Criminal networks are not only expanding their 
operations, but they are also diversifying their activities, resulting 
in a convergence of transnational threats that has evolved to become 
more complex, volatile, and destabilizing. The Director of National 
Intelligence recently described transnational organized crime as ``an 
abiding threat to U.S. economic and national security interests,'' and 
stated that ``rising drug violence and corruption are undermining 
stability and the rule of law in some countries'' in the Western 
Hemisphere. In July 2011, the President released his Strategy to Combat 
Transnational Organized Crime: Addressing Converging Threats to 
National Security. One of the priority action areas designated in the 
strategy is ``enhancing Department of Defense support to U.S. law 
enforcement.''
    What is your understanding of the President's strategy to combat 
transnational criminal organizations?
    Answer. The President's Strategy to Combat Transnational Organized 
Crime integrates all elements of our national power to combat 
transnational organized crime and related threats to national 
security--and urges our partners to do the same. The strategy seeks to 
reduce transnational organized crime from a national security threat to 
a manageable public safety concern in the U.S. and strategic regions 
abroad.
    Question. What is your understanding of the Department's role 
within the President's strategy?
    Answer. The Department of Defense provides support to other U.S. 
government agencies who lead our efforts to combat transnational 
organized crime.
    Question. In your view, should DOD play a role in providing support 
to the U.S. law enforcement and the Intelligence Community on matters 
related to transnational organized crime?
    Answer. Consistent with current and recently expanded authorities 
provided in the fiscal year 2015 NDAA, the Department provides unique 
capabilities that support U.S. law enforcement and Intelligence 
Community activities as part of a whole-of-government approach to 
address the national security threat posed by transnational criminal 
organizations. Intelligence support, counter-threat finance support, 
building partner capacity, and detection and monitoring are specific 
DOD capabilities which support the interagency and partner nations.
                       mass atrocities prevention
    Question. President Obama identified the prevention of mass 
atrocities and genocide as a core U.S. national security interest, as 
well as a core moral interest, in August 2011 under Presidential Study 
Directive 10.
    Among interagency partners, what is DOD's role in addressing 
atrocity threats, and what tools does DOD have for preventing or 
responding to atrocities?
    Answer. DOD has developed Joint Doctrine for conducting Mass 
Atrocity Response Operations. Based on this doctrine, atrocity 
prevention and response is now incorporated into DOD plans and planning 
guidance. In addition, DOD has conducted a comprehensive review of 
training in this area and is working to strengthen the capacity of UN 
peacekeeping operations to respond to atrocity situations.
    Question. Has DOD developed planning processes toward this effort 
so that it will be able to respond quickly in emergency situations?
    Answer. Yes, DOD has developed planning processes toward this 
effort. All DOD components have been directed to integrate atrocity 
prevention and response into their policies and plans. Specific plans 
are further developed and implemented at the Geographic Combatant 
Command level, in coordination with the Office of the Secretary of 
Defense, the Joint Staff, and the interagency as appropriate.
    Question. In your view, is the situation in Syria a mass atrocity?
    Answer. Assad's actions against his own people have harmed 
civilians and undermined security in Syria and the region, with over 
two hundred thousand combatant and non-combatants deaths and over four 
million displaced.
                         counter threat finance
    Question. DOD and the Intelligence Community (IC) have begun 
investing more resources in identifying and tracking the flow of money 
associated with terrorist networks and illicit trafficking, but the 
opportunities for tracking and degrading illicit financing flows are 
not yet matched by the effort and resources devoted to them. 
Identifying and disrupting key individuals, entities, and facilitation 
routes enabling the flow of money that supports terrorism, production 
of IEDs, narco-trafficking, proliferation, and other significant 
national security threats could have an outsized impact on confronting 
these threats.
    What are your views on the role of DOD in counter threat finance 
activities?
    Answer. Many terrorists, criminal networks, and other adversaries 
who threaten U.S. strategic interests rely heavily on licit or illicit 
financial networks to support and sustain their operations. DOD policy 
is to work with other U.S. government entities and partner nations to 
effectively deny, disrupt, degrade, and defeat our adversaries' ability 
to access and utilize financial resources. If confirmed, I will review 
our level of integration across the interagency and with our foreign 
and institutional partners with the goal of maximizing cooperation and 
effectiveness in countering these activities and networks.
    Question. Are you aware of any policy, legal authority, or resource 
shortfalls that may impair U.S. counter threat finance efforts?
    Answer. Lack of sufficient insight and fidelity on the sources of 
corruption in partner nations can hinder our ability to achieve counter 
threat network goals. Additionally, in non-terrorism cases, there is 
room for improvement with respect to the full and timely sharing of 
relevant information between law enforcement and intelligence elements 
in a timely manner.
    Question. In your view, how should the Department of Defense 
coordinate and interface with other key agencies, including the 
Department of Treasury and the Intelligence Community, in conducting 
counter threat finance activities?
    Answer. The Department should, and currently does, use its unique 
capabilities to augment and support the efforts of other U.S. 
government entities, including the Department of Treasury and the 
Intelligence Community. The result is a well-coordinated, capable, and 
robust counter threat finance posture. If confirmed, I will continue to 
remain fully engaged in the interagency process to diminish adversary 
use of both licit and illicit financial networks.
                        section 1208 operations
    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), as amended 
by subsequent bills, authorizes the provision of support (including 
training, funding, and equipment) to regular forces, irregular forces, 
and individuals supporting or facilitating military operations by U.S. 
Special Operations Forces to combat terrorism.
    What is your current assessment of this authority?
    Answer. Section 1208 funding allows the U.S. government to reduce 
our reliance on unilateral Direct Action operations and increase the 
role of our foreign partners in combatting terrorism around the globe. 
It is an effective Advise and Assist program that can be rapidly 
established to advance U.S. counterterrorism objectives in areas that 
do not possess the will or capacity to fight terrorism. It can serve as 
a bridging solution to future programs focused on building partner 
nation capacity.
             active-duty and reserve component end strength
    Question. Last year DOD announced its 5-year plan to reduce active-
duty end strengths by over 100,000 servicemembers by 2017 and the 
reserve components by another 21,000 over the same period. These cuts 
do not include any additional personnel reductions that could result 
from sequestration or any agreement to avoid sequestration.
    What is your view of the role of the reserve components as the 
active components draw down?
    Answer. As an integral part of our Total Force, the Reserve 
Components provide much of the operational capability and strategic 
depth needed to meet our nation's defense requirements. The drawdown of 
both active-duty and reserve end strength requires us to rebalance some 
capabilities between the active and reserve components to maintain the 
force structure required by our National Military Strategy. This 
balance between components provides us with the agility to meet 
strategic objectives while managing our current fiscal constraints. I 
see the Reserve Components as continuing to provide much of the 
operational capability needed to support current operations while 
maintaining the strategic depth required in responding to the more 
demanding global contingencies. Our nation's investment in the Reserve 
Components has generated a well-trained, fully integrated, and capable 
force that will continue to fulfill these roles. In addition, we will 
continue to capitalize upon the broad skills and experience our Reserve 
Component servicemembers bring to the force from their civilian 
occupations.
    Question. What additional military personnel reductions do you 
envision if the sequester continues into 2014 and beyond?
    Answer. PB16 FYDP manning levels already reflect the maximum 
acceptable risk in executing our defense strategy. If sequestration 
continues, we will further reduce total personnel numbers, known as 
end-strength, consistent with the numbers we have provided since the 
Strategic Choices Management Review (SCMR) of 2013-2014. These numbers 
were highlighted by all of the Service Chiefs in their combined 
testimony to the SASC on January 28, 2015.
    Question. In your view, what tools do DOD and the Services need to 
get down to authorized strengths in the future, and which of these 
require Congressional authorization?
    Answer. The Department and Services' current force management tools 
provide adequate flexibility to enable the drawdown to authorized 
Service end strengths, and, at present, the Services do not seek 
additional authorities in this regard.
                          religious guidelines
    Question. American military personnel routinely deploy to locations 
around the world where they must engage work effectively with allies 
and with host-country nationals whose faiths and beliefs may be 
different than their own. For many other cultures, religious faith is 
not a purely personal and private matter; it is the foundation of their 
culture and society. Learning to respect the different faiths and 
beliefs of others, and to understand how accommodating different views 
can contribute to a diverse force is, some would argue, an essential 
skill to operational effectiveness.
    In your view, do policies concerning religious accommodation in the 
military appropriately accommodate the free exercise of religion and 
other beliefs, including individual expressions of belief, without 
impinging on those who have different beliefs, including no religious 
belief?
    Answer. Yes. I believe current policies appropriately accommodate 
the free exercise of religion, including individual expressions of 
belief, without impinging on those who have different, or no, religious 
beliefs. Department of Defense policy regarding religious 
accommodation, set forth in DODI 1300.17, affirms the rights of 
individuals to express their sincerely held beliefs, whether they be 
matters of conscience, moral principles, or religious beliefs. The 
Department of Defense places a high value on the rights of individuals 
to do so, or not do so. This is held in balance with the need of the 
Military Departments to maintain military readiness, unit cohesion, and 
good order and discipline.
    Question. Under current law and policy, are individual expressions 
of belief accommodated so long as they do not impact unit cohesion and 
good order and discipline?
    Answer. Yes. The current policies regarding religious accommodation 
provide a clear means by which individual expressions of belief, 
including apparel, grooming and worship practices, can be considered by 
commanders. Denial of religious accommodation requests may only occur 
when it furthers a compelling governmental interest and is the least 
restrictive means of furthering that interest. Unit cohesion and good 
order and discipline are compelling interests, but they must be 
preserved in the least restrictive manner that is practicable for 
mission accomplishment.
    Question. In your view, does a military climate that welcomes and 
respects open and candid discussions about personal religious faith and 
beliefs in a garrison environment contribute in a positive way to 
preparing U.S. forces to be effective in overseas assignments? Would a 
policy that discourages open discussions about personal faith and 
beliefs be more or less effective at preparing servicemembers to work 
and operate in a pluralistic environment?
    Answer. In my view, a military climate that welcomes and respects 
open and candid discussion about personal religious faith in garrison 
can positively prepare U.S. forces to be effective in overseas 
assignments. In a world that appears to be increasingly committed to 
expressing religious belief, possessing this skill is necessary to not 
only understand our adversaries, but also understand our partner 
nations (consistent with the National Strategy on Integrating Religious 
Leader and Faith Community Engagement into U.S. Foreign Policy). Any 
policy that discourages open discussion diminishes our ability to 
develop these skills. However, there must be clear guidance about the 
importance of mutual respect and trust.
             prevention of and response to sexual assaults
    Question. In 2014, there was what the Department described as an 
``unprecedented 53 percent increase in victim reports of sexual 
assault. In fiscal year 2014, victims made 4,660 Unrestricted Reports 
and 1,840 initial Restricted Reports of sexual assault. Also in fiscal 
year 2014, the Department saw the number of victims who converted 
Restricted Reports to Unrestricted Reports increase from an average of 
15 percent to 20 percent. According to the 2014 RAND Military Workplace 
Study approximately 72 percent of servicemember victims who indicated 
they made a sexual assault report said they would make the same 
decision to make a report if they had to do it over again. The Rand 
Study also indicated the percentages of active duty personnel who 
experienced unwanted sexual assault declined in 2014, from 6.1 percent 
to 4.3 percent for women and from 1.2 percent to 0.9 percent for men. 
The Department also concluded the estimated gap between reporting and 
prevalence of sexual assaults was at the narrowest point since the 
Department began tracking this data.
    What is your assessment of the current DOD sexual assault 
prevention and response program?
    Answer. The Department's response to sexual assault continues to 
improve, but work remains. The Services have developed a number of 
reforms and policy changes designed to increase victim confidence and 
enhance access to victim advocacy and legal support. To reinforce these 
changes, as the Services have instituted unique training for 
investigators and prosecutors who handle sexual assault crimes. They 
have also increased bystander intervention training and sexual assault 
awareness across the entire force.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. Victim care remains a top priority for the Department. We 
face the same challenges that society faces in dealing with incidents 
of sexual assault--balancing care to victims with prosecuting 
offenders. Unrestricted reporting automatically initiates a criminal 
investigation. After learning some victims were choosing to forego 
support services rather than initiate an investigation, the Department 
offered the restricted reporting option. Offering both forms of 
reporting provides a means to protect a victim's privacy while also 
providing access to medical care and support services.
    Question. What is your understanding of the adequacy of DOD 
oversight of military service implementation of the DOD and service 
policies for the prevention of and response to sexual assaults?
    Answer. The Department has put a considerable amount of effort into 
the development of policies and procedures designed to address sexual 
assault. The Sexual Assault Prevention and Response Office provides 
oversight for sexual assault policy and works with the Services to 
execute their prevention and response strategic plans. The Joint Chiefs 
of Staff's partnership with OSD provides the operational perspective to 
the sexual assault program in support of initiatives to improve 
oversight and accountability.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these observed changes in 
sexual assaults have occurred?
    Answer. Establishing an appropriate culture where victims are 
treated with dignity and respect starts at the top. Commanders are 
accountable for what happens in their units and they set the leadership 
tone. Commanders are crucial to our ability to effect institutional 
change and leaders at all levels must foster a command climate where 
sexist behavior, sexual harassment and sexual assault are not condoned 
or ignored.
    Question. Surveys report that up to 62 percent of victims who 
report a sexual assault perceive professional or social retaliation for 
reporting. If confirmed, what will you do to address the issue of 
retaliation for reporting a sexual assault?
    Answer. First of all, any form of retaliation goes against our core 
values and has no place in our military. While the latest surveys 
confirmed that victims perceive retaliation, the data did not provide 
the depth needed to understand this challenging problem or to develop 
appropriate solutions to the problem of peer retaliation. If confirmed, 
I, along with the Joint Chiefs, will continue to support efforts to 
better define the problem and determine root causes. I will also 
continue to work to ensure that the joint force culture is one of 
respect and that retaliation is not tolerated, especially among peers.
    Question. Sexual assault is a significantly underreported crime in 
our society and in the military. If confirmed, what will you do to 
increase reporting of sexual assaults by military victims?
    Answer. In order to increase reporting of sexual assaults by 
military victims, we must improve victim confidence in our ability to 
respond to incidents of sexual assault. We must also establish a 
climate in which victims are treated with dignity and respect, and 
where any form of retaliation or reprisal is unequivocally 
unacceptable. If confirmed, I will continue the partnership with OSD to 
assess current programs and develop initiatives to enhance support 
services and improve our systems to hold perpetrators appropriately 
accountable.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command, instead of a military 
commander in the grade of O-6 or above as is currently the Department's 
policy, to determine whether allegations of sexual assault should be 
prosecuted?
    Answer. I support the Department's current policy. The Uniform Code 
of Military Justice operates as both a criminal justice system and a 
critical component of a commander's authority to maintain good order 
and discipline. I believe our military members and national security 
will best be served by retaining the military commander's key role in 
the military justice decision process. While I greatly value the legal 
analyses and recommendations provided by our highly proficient judge 
advocates, and fully expect all leaders in the Services to take the 
greatest advantage of this expertise, I firmly believe the military 
commander's role is indispensable in the prosecutorial process.
             assignment policies for women in the military
    Question. As you know, the Department in January rescinded the 
policy restricting the assignment of women to certain units which have 
the primary mission of engaging in direct ground combat operations, and 
has given the military services until January 1, 2016, to open all 
positions currently closed to women, or to request an exception to 
policy to keep a position closed beyond that date, an exception that 
must be approved by the Chairman of the Joint Chiefs of Staff and the 
Secretary of Defense. The services are working now to develop gender-
free physical and mental standards for all military occupations, 
presumably with the goal of allowing individuals, regardless of gender, 
to serve in those positions if they can meet those standards.
    If confirmed, what role will you play in the development of these 
standards?
    Answer. The Services are in the final stages of validating their 
standards. In my current capacity, I have been involved in the process. 
Military Department Secretaries must certify that their standards are 
gender-neutral and in compliance with all applicable Public Laws by 30 
Sept. If confirmed, I will be engaged in the development and 
implementation of standards that affect joint warfighting.
    Question. Will you ensure that the standards will be realistic and 
will preserve, or enhance, military readiness and mission capability?
    Answer. Yes. The Services and USSOCOM worked with various 
scientific and research agencies to ensure the standards are current, 
occupationally valid and tied to the operational requirement. 
Preserving readiness is a key tenant of the guiding principles 
established in the Jan 2013 memorandum.
    Question. Do you believe that decisions to open positions should be 
based on bona fide military requirements?
    Answer. Yes. Decisions to open positions will be based on rigorous 
analysis of the Services and USSOCOM integration studies and the 
recommendations of the Secretaries of the Military Departments.
    Question. If so, what steps will you take, if confirmed, to ensure 
that such decisions are made on this basis?
    Answer. As the senior military advisor to the Secretary of Defense, 
I will provide sound advice from a Joint operational perspective to 
ensure that we preserve unit readiness and maintain the best qualified 
forces to meet mission requirements.
    Question. Some family members have expressed concerns about 
assigning women to what are currently male-only combat units.
    To what extent do you believe that this will be a problem in the 
implementation of this policy?
    Answer. As with any institutional change, we can expect there will 
be concerns from a variety of sources. I respect the concerns of our 
military families, but I do not see this as a problem as we implement 
the policy. Women are already serving in units that provide direct 
support to combat units.
    Question. If it is a problem, what steps would you take if 
confirmed to address it?
    Answer. If confirmed, I will continue to engage with military 
families our servicemembers to discuss their concerns and explain our 
policies.
             military health care reform and modernization
    Question. Congress authorized the Military Compensation and 
Retirement Modernization Commission in the National Defense 
Authorization Act for Fiscal Year 2013 to conduct a review of the 
military compensation and retirement systems and to make 
recommendations to modernize those systems. The Commission released its 
report in January 2015.
    What is your view of the Commission's findings regarding the 
military health system?
    Answer. I agree with the Commission that DOD needs to continue to 
improve the military health care system. I also believe the health care 
reforms proposed in the fiscal year 2016 budget are a good first step 
and offer servicemembers, retirees, and their families more control and 
choice over their health care decisions. I'm open to working with 
Congress to develop additional reform proposals for consideration in 
the fiscal year 2017 budget.
    Question. Do you believe the Department's fiscal year 2016 proposal 
to consolidate TRICARE adequately addressed the Commission's findings 
on military health care?
    Answer. Yes. The TRICARE proposal in the President's Fiscal Year 
2016 budget more effectively achieves the aim of providing family 
members and retirees with greater choice and control over their 
healthcare decisions without the risk of an untested, and potentially 
infeasible, overhaul of the Military Health System. If confirmed, I 
will work closely with DOD leadership and Congress to ensure the 
proposal is implemented as efficiently and effectively as possible.
    Question. What is your view of the Commission's recommendation to 
establish a Joint Readiness Command?
    Answer. I agree with the Commission's overall objective of 
protecting medical readiness across the joint force including 
establishment of essential medical capabilities (EMCs). However, a new, 
four-star readiness command is not necessary as the Department has 
sufficient processes and governance structures in-place to identify, 
track, and measure the readiness status of enterprise wide and Service 
specific EMCs.
    Question. What is your assessment of progress the Defense Health 
Agency has made to create efficiencies and generate cost savings by 
combining the medical support functions of the Services?
    Answer. The Defense Health Agency (DHA) will reach Full Operational 
Capability (FOC) on 01 October 2015 and I am told they are on track to 
meet this goal. Once FOC, DHA will receive a Combat Support Agency 
Review Team Assessment (CSART) from the Joint Staff NLT 2017 to 
determine its responsiveness and readiness to support the operating 
forces.
    Question. Do you believe the Defense Health Agency should be 
replaced with a new combatant command, a Unified Medical Command?
    Answer. The Defense Health Agency (DHA) will reach Full Operational 
Capability (FOC) on 01 October 2015 and I believe it is premature to 
make a determination if DHA is able to meet its mission. As a Combat 
Support Agency (CSA), DHA will receive Combat Support Agency Review 
Team Assessment (CSART) in early 2017 to determine its responsiveness 
and readiness to support the operating forces. In addition, in my role 
as the Commandant of the United States Marine Corps, I was directly 
involved in Department's review of the Military Compensation and 
Retirement Modernization Commission recommendations. As such, I agree 
with the Secretary's assessment of not supporting creation of an 
additional new four-star combatant command for the purpose of ensuring 
joint medical readiness.
                        wounded warrior support
    Question. Servicemembers wounded and injured in combat operations 
deserve the highest priority from their Service for support services, 
healing and recuperation, rehabilitation, evaluation for return to 
duty, successful transition from active duty when appropriate, and 
continuing support beyond retirement or discharge.
    What is your assessment of the progress made by the Department of 
Defense, the Department of Veterans Affairs, and the Services to 
improve the care, management, and transition of seriously ill and 
injured servicemembers and their families?
    Answer. DOD, the VA, and the Services have made considerable 
progress in ensuring the Nation's wounded, ill, and injured recovering 
servicemembers (RSMs), their families, and caregivers receive the 
support they need for recovery, rehabilitation, and reintegration. The 
NDAA for fiscal year 2008 directed DOD to improve the care, management, 
and transition of recovering servicemembers. It established the office 
now known as Warrior Care Policy (WCP) to develop policies for the 
Department and provide the oversight of those policies to ensure proper 
execution and outcomes. The policy and oversight areas for WCP include 
the Recovery Coordination Program, the Integrated Disability Evaluation 
System, the Military Adaptive Sports Program, Operation Warfighter, the 
Education and Employment Initiative, and the Caregiver Support Program.
    The Department continuously evaluates our wounded warrior and 
caregiver programs, and implements improvements. We are incorporating 
lessons-learned and best practices to update policies and programs to 
improve support for RSM and their families.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase support for wounded 
servicemembers and their families, and to monitor their progress in 
returning to duty or to civilian life?
    Answer. The recovery care coordinators are a crucial resource for 
Wounded Warriors and their families, and we must continue to fund and 
evaluate the effectiveness of this resource over time. The Joint Staff 
conducted a thorough review of the Service's policies and procedures 
related to returning our Wounded Warriors to service, and found that 
all Services were operating within OSD guidance. We provided 
constructive feedback to OSD which will allow the Services to retain 
flexibility to develop programs unique for their Service needs and 
culture, while also providing guidance that better supports Wounded 
Warriors. This guidance provides clarity on how to navigate the 
``reassignment and retraining'' process if they desire (and qualify 
for) continued service. If confirmed, I am committed to continued 
improvement on our efforts and results with regards to the care and 
support of our Wounded Warriors and their families.
    Question. What is your assessment of the need to make further 
improvements in the Integrated Disability Evaluation System?
    Answer. The Department continuously evaluates IDES to identify 
improvements. DOD has implemented several actions that have resulted in 
the IDES reaching a critical milestone in timeliness and overall 
servicemember satisfaction. As of May 2015, Active Component case 
timeliness averaged 223 days against a 295-day goal, Reserve Component 
timeliness averaged 298 days against a 305-day goal, and 87 percent of 
servicemembers expressed overall satisfaction with the IDES process. If 
confirmed, I will ensure my staff and I support improvements to the 
Disability Evaluation Process that benefit both our servicemembers and 
the Department.
             suicide prevention and mental health resources
    Question. The numbers of suicides in each of the Services continues 
to concern the Committee.
    In your view, what role should the Joint Chiefs of Staff play in 
shaping policies to help prevent suicides both in garrison and in 
theater and to increase the resiliency of all servicemembers and their 
families, including members of the reserve components?
    Answer. Suicide prevention is an important responsibility I share 
with the Service Secretaries and Service Chiefs. We have joined forces 
with agencies across DOD and Interagency, the White House and civilian 
sector to better understand the factors leading to suicide and refine 
our prevention programs. As leaders, we have the responsibility to not 
only seek to build strong and resilient individuals, but also to grow 
strong and resilient organizations.
    Question. If confirmed, what actions will you take to ensure that 
sufficient mental health resources are available to servicemembers in 
theater, and to the servicemembers and their families upon return to 
home station?
    Answer. Adequate mental health staffing must remain a priority to 
ensure the highest delivery of mental health services. I support 
several initiatives underway to improve access to mental health care, 
increased provider availability, and more effective recruitment and 
retention of mental health providers. The continued embedding of Mental 
Health personnel across the deployed force is critical with required 
in-theater periodic mental health assessments. These initiatives in 
conjunction with the cooperative efforts underway between the VA and 
DOD work to ensure continuity of mental health care for deployed and 
returning servicemembers. It is imperative that these efforts continue 
to address the long-term mental health needs of servicemembers and 
their families.
                        military quality of life
    Question. The Committee is concerned about the sustainment of key 
quality of life programs for military families, such as family support, 
child care, education, employment support, health care, and morale, 
welfare and recreation services, especially as DOD faces budget 
challenges.
    If confirmed, what further enhancements, if any, to military 
quality of life programs would you consider a priority in an era of 
intense downward pressure on budgets?
    Answer. I don't have any recommendations for enhancement at this 
time. If confirmed, I will continue to engage in the maintenance and 
development of effective quality of life programs.
                      family readiness and support
    Question. Military members and their families in both the active 
and reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of growing concerns among military families as a 
result of the stress of frequent deployments and the long separations 
that go with them.
    What do you consider to be the most important family readiness 
issues for servicemembers and their families?
    Answer. Every family has unique needs, requiring a flexible and 
responsive network of services to deliver support at the right time, 
using the most effective methods. From pay and benefits, to deployment 
forecasting to wellness plans, military families have valid concerns 
that should be addressed. Our research indicates that military families 
are most concerned about pay and benefits, including retirement. Other 
critically important issues are health care, education, and housing.
    Question. How would you address these family readiness needs in 
light of global rebasing, deployments, and future reductions in end 
strength?
    Answer. If confirmed I will continue to work with the Services to 
meet the changing needs of our military families. Community-based 
partnerships will be key to improve education, employment, and wellness 
support for current and transitioning members. The Services have also 
adjusted force size and rotation, redoubled transition support, and 
invested in world-class health care for our wounded. Family support 
programs that are flexible, responsive, and communicate and coordinate 
with interagency and non-governmental family services are critical to 
meet the enduring needs of our servicemembers and their families, 
whether they live on, near, or far from military installations. Working 
together with the Services, we can find efficiencies and enhance the 
accessibility of support when and where it is needed and at the right 
level.
    I remain committed to building and retaining ready, resilient 
servicemembers and families. Readiness/retention efforts must look 
beyond reactive financial incentives to emphasize total servicemember 
and family wellness.
    Question. If confirmed, how would you ensure support is provided to 
reserve component families related to mobilization, deployment and 
family readiness, as well as to active duty families who do not reside 
near a military installation?
    Answer. We must continue outreach, education, awareness, and 
engagement strategies to promote servicemember and family readiness 
programs within the Reserve Component. Since 2008, the Yellow Ribbon 
Reintegration Program has led our support efforts with this population, 
providing access to deployment cycle information, resources, programs, 
services, and referrals to more than 1.53 million servicemembers and 
their families. The Yellow Ribbon Reintegration Program eases 
transitions for servicemembers and families as they move between their 
military and civilian roles. Our geographically diverse populations are 
also supported by Department of Defense Military One Source Consultants 
that works to build capacity to identify and meet evolving needs at the 
local community level. To augment and enable that local support, 
Military OneSource provides support to military families, military 
leadership, and military and civilian service providers through 
delivery of information, referrals, specialty consultations and non-
medical counseling.
                      operational energy budgeting
    Question. Since Congress created the Office of the Assistant 
Secretary of Defense for Operational Energy Plans and Programs, much 
progress has been made in a few short years in these programs.
    In what specific areas, if any, do you believe the Department needs 
to improve the incorporation of energy considerations into the 
strategic planning and force development processes?
    Answer. The Joint Staff and Combatant Commands will continue to 
analyze, evaluate, and assess where increased energy demand necessary 
for improved combat capabilities intersects with operational energy and 
energy security constraints or vulnerabilities. We will further refine 
and improve plans, strategy, procurement, force development and 
policies regarding energy considerations as it relates to mission 
success.
    Question. In what specific areas, if any, do you believe the 
Department should increase funding for operational energy requirements, 
energy efficiency, alternative energy, and renewable energy 
opportunities?
    Answer. I am mindful of our need to increase military capability, 
reduce risk, and mitigate operational costs through our use and 
management of energy. As a result, I believe that we should make 
additional investments to increasing both operational effectiveness and 
efficiency. This will be accomplished by improving the energy 
performance of aircraft, ships, ground vehicles, and military bases, 
reducing the vulnerability of our energy supply chains, and 
diversifying the kinds of energy accessible to our combatant 
commanders. Additional funding applied towards alternative energy 
solutions for contingency operations would be particularly welcomed 
given ongoing and anticipated operational requirements.
            united nations convention on the law of the sea
    Question. Officials of the Department of Defense, including 
previous Chairmen of the Joint Chiefs of Staff, have advocated for 
accession to the Law of the Sea Convention.
    Do you support United States accession to the United Nations 
Convention on the Law of the Sea?
    Answer. I support accession to the Convention. Being a party to the 
Convention enhances the United States' security posture by reinforcing 
freedom of the seas and rights vital to ensuring our global force 
posture. The Convention provides legal certainty in the world's largest 
maneuver space. Access would strengthen the legal foundation for our 
ability to transit through international straits and archipelagic 
waters; preserve our right to conduct military activities in other 
countries' Exclusive Economic Zones (EEZs) without notice or 
permission; reaffirm the sovereign immunity of warships; provide a 
framework to counter excessive maritime claims; and preserve or 
operations and intelligence-collection activities. Joining the 
Convention would also demonstrate our commitment to the rule of law, 
strengthen our credibility among those nations that are already party 
to the Convention, and allow us to bring the full force of our 
influence in challenging excessive maritime claims. Finally, it would 
secure for us a leadership role in shaping and influencing future 
maritime developments.
    Question. How would you respond to critics of the Convention who 
assert that accession is not in the national security interests of the 
United States?
    Answer. There are significant national security impacts from 
failing to join the Convention. By remaining outside the Convention, 
the United States remains in scarce company with Iran, Venezuela, North 
Korea, and Syria, and foregoes the most effective way to counter 
undesirable changes in the law or to exercise international leadership. 
By not acceding to UNCLOS we deny ourselves the ability to challenge 
changes to international law as a result of the practice of nations at 
the local, regional, or global level. As some states seek to interpret 
treaty provisions in a manner that restricts freedom of navigation, 
U.S. reliance on customary international law as the legal foundation 
for our military activities in the maritime becomes far more vulnerable 
and needlessly places our forces in a more tenuous position during 
operations. Moreover, by failing to join the Convention, some countries 
may come to doubt our commitment to act in accordance with 
international law.
    Question. In your view, what impact, if any, would U.S. accession 
to the Law of the Sea Convention have on ongoing and emerging maritime 
disputes such as in the South China Sea and in the Arctic?
    Answer. Acceding to the Convention would strengthen our credibility 
and strategic position on issues pertaining to these regions. While we 
do not take sides in the various territorial disputes in the South 
China Sea, we do have a national security interest in ensuring disputes 
are resolved peacefully, countries adhere to the rule of law, and all 
nations fully respect freedom of the seas. However, we undermine our 
leverage by not signing up to the same rule book by which we are asking 
other countries to accept. As for the Artic, the other Arctic coastal 
nations (Russia, Canada, Norway and Denmark (Greenland)) understand the 
importance of the Convention and are in the process of utilizing the 
Convention's procedures to establish the outer limits of their extended 
continental shelves (ECS) in the Arctic. The United States has a 
significant ECS in the Arctic Ocean, but cannot avail itself of the 
Convention's mechanisms to gain international recognition of its ECS. 
We must put our rights on a treaty footing and more fully and 
effectively interact with the other seven Arctic Council nations who 
are parties to the Convention.
                       detainee treatment policy
    Question. Recent Department of Defense operations in Iraq and Syria 
highlight the need for a continued detention capability for both 
interrogation and law of war detention.
    What recommendations do you have for ensuring that the Department 
of Defense maintains sufficient detention capabilities for capture 
operations against ISIL and other affiliated terrorist groups to remain 
a viable option?
    Answer. The United States needs a viable detention capability to 
support our counterterrorism strategy. If confirmed, I will work with 
civilian and military leadership to ensure our commanders on the ground 
have the capability to lawfully detain as part of capture operations.
    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated August 19, 2014?
    Answer. Yes.
    Question. If confirmed, will you ensure that all DOD policies 
promulgated and plans implemented related to intelligence 
interrogations, detainee debriefings, and tactical questioning comply 
with the Common Article 3 of the Geneva Conventions and the Army Field 
Manual on Interrogations?
    Answer. Yes.
    Question. Do you share the view that standards for detainee 
treatment must be based on the principle of reciprocity, that is, that 
we must always keep in mind the risk that the manner in which we treat 
our own detainees may have a direct impact on the manner in which U.S. 
Soldiers, Sailors, Airmen or Marines are treated, should they be 
captured in future conflicts?
    Answer. Yes.
                          offset technologies
    Question. During the Cold War, the DOD pursued three key 
technologies to offset the numerical superiority of Soviet conventional 
forces: precision guided munitions, stealth technology, and satellite-
based navigation. These three technologies have given U.S. forces 
unparalleled superiority until now. However, with advancements by our 
emerging adversaries, it seems like the military technological 
superiority is beginning to erode. As a result, it is critical that the 
United States once again focus on offsetting the technology advantages 
being gained by our adversaries.
    Which technology priorities do you believe the Department of 
Defense should be pursuing to maintain the military technological 
superiority of the United States?
    Answer. To offset advances in anti-access and area-denial weapons 
and other advanced technologies that are proliferating around the 
world, the Department will identify, develop, and field breakthroughs 
in cutting-edge technologies and systems--especially from the field of 
robotics, autonomous systems, miniaturization, big data, and additive 
manufacturing.
    Question. What strategies would you recommend that Secretary Carter 
implement to develop these technology priorities?
    Answer. I strongly support Secretary Carter's vision and strategy 
as captured in the Defense Innovation Initiative. This multi-faceted 
effort recognizes that more than just developing new technology 
priorities is required, and acts as the organizing and integrating 
construct weaving cutting-edge technology recommendations developed by 
our long-range research and development planning program into new 
innovative operational concepts. We must also make sure that our 
investments in operational concepts and human capital proceed apace 
with our efforts to pursue innovative solutions through technological 
means. Our greatest asset will remain our servicemembers.
    Question. What role do the services have to play in their 
development?
    Answer. The Services will have a key role, as part of the Defense 
Innovation Initiative team and as the Department's primary 
organizations for developing and acquiring weapons systems. The 
Services identify combinations of new and existing technologies that 
are necessary to project power globally, and to prevent the erosion of 
our technological superiority in other areas. Ultimately, the Services 
integrate technology, training, and operational concepts to produce 
capabilities and generate fielded forces for the combatant commanders.
                         science and technology
    Question. One of the main objectives of the defense research 
enterprise is to develop advanced technologies that will be of benefit 
to the warfighter. In this regard, it is critical that advancements 
quickly transition from the development phase into testing and 
evaluation and ultimately into a procurement program for the 
warfighter.
    What are some of the challenges you see in transitioning 
technologies effectively from research programs into programs of 
records?
    Answer. There are three challenges that I see in in transitioning 
technologies effectively into programs of record. The first is 
establishing a compelling case and the necessary ``head-room'' in the 
budget. The second is maintaining momentum in the program and budgeting 
process given the competing and evolving strategic demands placed on 
the U.S. military. The third is achieving the promise of the research 
technology in a timely manner at a reasonable cost.
    Question. As the Chairman of the Joint Chiefs of Staff, what steps 
will you take to ensure that the services are benefitting more quickly 
and directly from the research being performed by the defense research 
enterprise?
    Answer. As the primary advocate for warfighter requirements, I will 
ensure that the resourcing and acquisition processes are well-informed 
on the priority and timing of capability needs. I will also continue to 
use the Chairman's Gap Assessment and the Chairman's Program 
Recommendation to communicate directly to Secretary Carter my thoughts 
on promising research being performed by the research enterprise.
    Question. Do you feel that defense technologies and systems, 
especially in areas such as mobile communications, computing, and 
robotics, are keeping pace with global and commercial technological 
advances? If not, what do you suggest that the Department do to keep up 
with the pace of global technological change?
    Answer. I believe the Department is challenged keeping pace with 
global and commercial technology advances. The Secretary's Defense 
Innovation Initiative is focusing the Department on maintaining our 
military's technological edge in an increasingly competitive technology 
environment.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this Committee and other appropriate committees of the Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the Administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
Committee, or designated members of this Committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Chairman of the Joint Chiefs 
of Staff?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this Committee and 
its staff and other appropriate Committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator James M. Inhofe
                     force structure and deterrence
    1. Senator Inhofe. General Dunford, does our military have the 
force structure, training and equipment to meet requirements in the 
National Military Strategy?
    General Dunford. My initial assessment is yes. However, if Budget 
Control Act level cuts return, we will need to reassess our ability to 
execute the strategy with an acceptable level of risk

    2. Senator Inhofe. General Dunford, in your opinion, why is the 
United States being challenged around the globe?
    General Dunford. The United States is being challenged because our 
comparative military and technological advantages over adversaries are 
eroding. Moreover, the pace and diffusion of technology advancement 
makes it easier for both state and non-state actors to challenge us.

    3. Senator Inhofe. General Dunford, does our military have the 
capability and credibility to deter aggression around the globe?
    General Dunford. Yes. I believe the Services have maintained our 
military capabilities to provide credible deterrence against potential 
aggressors across the globe. However, the capabilities of potential 
aggressors are expanding and modernizing. We need to update our 
deterrence model for emerging threats, which are more asymmetric and 
hybrid in nature. We must now focus on resetting and reconstituting 
capabilities that have degraded over the past fifteen years, while also 
incorporating new capabilities so we can continue to provide a credible 
deterrent.

    4. Senator Inhofe. General Dunford, do you believe our potential 
adversaries have that perception?
    General Dunford. Yes, I do, although it is certainly difficult to 
know exactly how potential adversaries view our capabilities and 
credibility. As we develop an effective deterrence model, understanding 
and shaping the perceptions of adversaries about our capabilities and 
credibility must be a major component.
                          afghanistan and iraq
    5. Senator Inhofe. General Dunford, are their benchmarks 
established to determine if conditions on the ground dictate the time 
and level of a withdrawal of U.S. forces?
    General Dunford. Yes, in Afghanistan we continually validate our 
assumptions and assess the conditions on the ground using eight 
``Essential Functions'' as our benchmark and the overall security 
environment with the country and within the year. These functions 
identify the areas where Coalition efforts support the Afghan security 
institutions to more effectively enable Afghan National Defense and 
Security Forces. Over time, ANDSF will require less U.S. participation 
to train, advise, and assist Afghan security institutions as they build 
sustainable capabilities.
    If security conditions on the ground in Afghanistan degrade against 
these benchmarks, I will continue to reassess the size and pace of the 
drawdown plan and provide my best military advice to the President and 
the Secretary of Defense.
    If confirmed, I will visit Afghanistan to make an assessment of our 
current progress. That visit will inform any recommendations I may make 
for changes to our strategy.

    6. Senator Inhofe. General Dunford, how do we avoid the same 
mistake we made in Iraq?
    General Dunford. Iraq demonstrated that decisions about the 
drawdown and post-combat operations in Afghanistan should be based on 
conditions on the ground, with the flexibility to make adjustments as 
those conditions evolve. In addition, the drawdown from Iraq shows that 
whole-of-government cooperation is required to sustain security gains. 
U.S. forces can mitigate the effects of security threats that are 
fueled by underlying political or sectarian problems, but ultimately, 
it is critical that we have credible and capable local partners and an 
enduring political solution.
                            arming the kurds
    7. Senator Inhofe. General Dunford, if confirmed, will you take 
steps to ensure the Kurds receive weapons and equipment they need to 
fight ISIL?
    General Dunford. Yes.

    8. Senator Inhofe. General Dunford, will you also look into the 
process used to approve which weapons are giving to the Kurds and 
report back to this committee any issues with the process, 
recommendations on how to improve the process, and status of the Kurds 
receiving the equipment they need to fight ISIL?
    General Dunford. Yes.
                                 taiwan
    9. Senator Inhofe. General Dunford, the Taiwan Relations Act and 
the ``Six Assurances'' affirm our commitment to maintain Taiwan's self-
defense capability. What is your view towards this longstanding policy?
    General Dunford. Consistent with the Taiwan Relations Act, the U.S. 
remains firmly committed to make available to Taiwan such defense 
articles and services in such quantity as may be necessary to enable 
Taiwan to maintain a sufficient self-defense capability. It has been 
over 35 years since the TRA was enacted, and we will continue to 
support Taiwan through the robust unofficial relationship contemplated 
in the TRA. We oppose any unilateral changes to the status quo on 
either side of the Strait, and we support peaceful resolution of cross-
Strait differences in a manner acceptable on both sides.

    10. Senator Inhofe. General Dunford, what do you believe are the 
priorities for U.S. military assistance to Taiwan?
    General Dunford. The priority for U.S. military assistance to 
Taiwan is to provide defensive systems and capabilities in order for 
Taiwan to maintain a sufficient self-defense capacity. This long-
standing policy contributes to the maintenance of peace and stability 
across the Taiwan Strait by providing Taiwan with the confidence to 
pursue constructive interactions with the PRC.

    11. Senator Inhofe. General Dunford, due to Taiwan's geo-strategic 
position and close bilateral cooperation, Taiwan can potentially play 
an important role in our re-balance to Asia strategy. Do you plan to 
help improve Taiwan's asymmetric capability to deter potential threats 
from the PRC?
    General Dunford. The U.S. conducts robust security cooperation with 
Taiwan, and both sides carefully examine Taiwan's defense needs. Cost-
effective, asymmetric capabilities are important for Taiwan to maintain 
a sufficient self-defense capability.

    12. Senator Inhofe. General Dunford, do you believe Taiwan should 
be invited to participate in regional maritime security and 
humanitarian assistance/disaster relief operations?
    General Dunford. The U.S. military has deepened and expanded its 
cooperation with Taiwan's military in recent years and HA/DR is one of 
many important areas in which this has occurred. Going forward, we will 
continue to evaluate every opportunity for Taiwan's participation, 
based on specific training objectives.
                                 ______
                                 
            Questions Submitted by Senator Rodger F. Wicker
                       russia and eastern europe
    13. Senator Wicker. General Dunford, last week I met with President 
Poroshenko in Kyiv. While he is grateful for the $300 million in 
military assistance authorized in our Senate-passed National Defense 
Authorization Act (NDAA), Poroshenko told me that Ukraine urgently 
needs Javelin anti-tank missiles to counter Russian advances in the 
East. Would you agree with me that the United States not providing 
defensive arms to Ukraine could send a message to Putin about a lack of 
resolve on Ukraine from the administration?
    General Dunford. The U.S. is delivering substantial security 
assistance and training, which demonstrates resolve. Defense 
institution building is essential. From a purely military perspective, 
enhancing Ukraine`s capabilities to deal with Russian aggression would 
help Ukraine protect its sovereignty.

    14. Senator Wicker. General Dunford, would you also agree that it's 
outrageous that this month's transfer of 100 armored Humvees to the 
Ukrainians took over one year to process due to bureaucratic delays at 
DOD and State?
    General Dunford. We must improve our processes and increase 
efficiency. In this case, the White House announced approval of the 
transfer of 30 armored and up to 200 unarmored HMMWVs to Ukraine on 11 
March 2015. Ukraine took delivery of 30 armored HMMWVs later that month 
and 100 unarmored HMMWVs on 16 July 2015. One hundred additional 
unarmored HMMWVs will be delivered based on Ukraine's schedule. These 
are provided as Excess of Defense Articles which means the country 
determines the number, and pays for delivery and any refurbishment.

    15. Senator Wicker. General Dunford, earlier this year, former 
national security advisor Zbigniew Brzezinski proposed to this 
committee the creation of a ``tripwire'' in the Baltics that 
communicates clearly to Russia that NATO--in particular, the United 
States--will not tolerate violations of the territorial integrity of 
our allies. Can you highlight to this committee the steps the 
Department of Defense (DOD) should take to send a credible message to 
Russia about our red-lines in Eastern Europe?
    General Dunford. We must continue to take actions to deter Russian 
aggression and remain alert to its strategic capabilities. Most 
importantly, we must also help our allies and partners resist and 
defend against Russian coercion now, and over the long term. I will 
continue to emphasize a package of security cooperation, rotational 
presence, and deterrence measures. These measures will further affirm 
alliance intent and capability to deter and defeat asymmetric threats. 
I will continue to evaluate current measures and recommend or make 
appropriate adjustments.

    16. Senator Wicker. General Dunford, for too long, Europe has 
relied on the American taxpayer for their security. According to NATO 
guidelines, member countries should spend at least 2 percent of their 
gross domestic product (GDP) on defense. Only four countries spent that 
much in 2013-Estonia, Greece, the United States, and the United 
Kingdom. Given the fragility of the economies of many European states, 
how would you engage and encourage our NATO allies to live up to their 
commitments to invest in their militaries?
    General Dunford. If confirmed, I would encourage my Allied 
counterparts to invest in specific capabilities that address both the 
Alliance needs and support to their nations' defense modernization 
efforts.
                             sequestration
    17. Senator Wicker. General Dunford, in fiscal year 2013, the Navy 
implemented numerous cuts in response to sequestration. This included 
cancellation of five ship deployments and the delayed deployment of a 
carrier strike group to the Middle East. Since 2013, we've witnessed 
the rise of ISIL, the deteriorating situation in Yemen, Russia's 
aggression in Eastern Europe, and a belligerent North Korea. The world 
is more dangerous today than it was in 2013. What is your view on how 
sequestration would threaten DOD's ability to decisively project power 
abroad?
    General Dunford. Funding to sequester levels removes flexibility to 
respond to emergent challenges while maintaining our forward presence 
to deter threats sequestration will require that we develop a new 
strategy. If sequester continues, our military will be forced to make 
cuts with deep and enduring consequences. These consequences include 
limiting combat power, limiting decisive power projection abroad, 
reducing the size of our military units and further reducing readiness. 
We will incur significant risk to mission and risk to force. Our 
ability to maintain present commitments to allies and partners will be 
degraded.

    18. Senator Wicker. General Dunford, what is your assessment of the 
impact sequestration would have on our amphibious forces and DOD's 
ability to execute DOD's pivot to Asia?
    General Dunford. A return to sequestration would necessitate a 
revision of the Defense Strategic Guidance and the Quadrennial Defense 
Review. It would also compel me to revise the national military 
strategy. Funding cuts would force us to further delay or cancel 
critical warfighting capabilities to amphibious capabilities include 
amph reduce readiness of forces needed for steady-state and contingency 
response operations, and further degrade warfighting capacity and 
capability. Sequestration presents serious risk to executing the 
military aspects of the rebalance to the Asia-Pacific and supporting 
our contributions to other aspects of the rebalance. Sequestration 
level cuts would compel us to re-evaluate our Asia Pacific rebalance in 
a way that emphasizes budgets above national interests, regional goals, 
and military missions.

    19. Senator Wicker. General Dunford, certain sectors of the defense 
industry-such as shipbuilding-are extremely capital intensive. Our 
fiscally constrained environment threatens to close production lines 
that would take years to restart. Given your prior experience 
Commandant of the Marine Corps, what is your assessment of the risks to 
DOD industrial base given our current budget environment?
    General Dunford. The current budget environment creates significant 
risk to the industrial base. The volatility and unpredictability 
affects the quality of the workforce and creates inefficiencies for 
industry that ultimately affect our buying power.
                                 ______
                                 
              Questions Submitted by Senator Dan Sullivan
    u.s. army force structure adjustments (fiscal years 2016-2017):
    20. Senator Sullivan. General Dunford, in your personal opinion, do 
U.S. Army Force structure reductions in Alaska make strategic sense, 
especially given an increasingly aggressive Russia and China, an 
unpredictable North Korea, and the need to reassure our Arctic and 
Pacific allies against these threats?
    General Dunford. The department faces numerous pressing challenges 
across the globe, to include the Arctic and Pacific. Force structure 
decisions are informed by strategy, but intrinsically tied to fiscal 
realities. As a result of the current fiscal environment, the 
Department has been forced to make difficult choices that affect our 
force posture. The Army force structure reduction in Alaska were made 
in that context.

    21. Senator Sullivan. General Dunford, in your personal opinion, 
should the U.S. Army reduce the ONLY ABCT in the Pacific AOR and does 
doing so hurt the credibility of-or entirely undermine-the Obama 
administration's strategic rebalance to the Asia-Pacific Region?
    General Dunford. The Army has been constrained by the requirement 
to reduce overall force structure. The reduction of the ABCT in Alaska 
is part of their solution to that requirement. To mitigate, they have 
reorganized in order to effectively meet PACOM requirements with 
sufficient capabilities on a smaller scale.

    22. Senator Sullivan. General Dunford, do these large Army 
reductions in the Asia-Pacific area of responsibility (AOR) make the 
Rebalance more rhetoric than substance?
    General Dunford. The Army has reorganized in light of force 
reductions to effectively meet PACOM requirements with sufficient 
capabilities on a smaller scale. The reductions do not affect the level 
of U.S. engagement in the Pacific AOR. The Rebalance is about more than 
force structure: it includes an increased footprint, expanded 
agreements, enhanced partnerships, and economic development in the 
region. These factors, combined with the sustainment of capabilities 
necessary to meet PACOM requirements, ensure a substantive effort.

    23. Senator Sullivan. General Dunford, in your personal opinion, 
what alternatives should the U.S. Army have considered, as opposed to 
reducing strategically-important forces in Alaska and Hawaii?
    General Dunford. The Army states that they considered all possible 
options to retain its warfighting capability with a trained and modern 
force. The reductions are designed to maintain the proper balance 
between force structure, readiness, and modernization. The Army's 
stationing plans are designed to leverage existing installation 
capabilities, minimize future construction costs, and posture the force 
to support the defense strategy.

    24. Senator Sullivan. General Dunford, what is the exact number of 
soldiers that will be reduced in Alaska and can you provide an 
installation-specific profile of how many soldiers will reduced from 
each installation and how many soldiers will remain following the 
reductions?
    General Dunford. I understand that the Army is planning to reduce 
2,704 soldiers in Alaska. Fort Wainwright will be reduced by 73 
soldiers and maintain authorization for 6,223. Joint Base Elmendorf-
Richardson will be reduced by 2,631 and maintain authorization for 
1,895 soldiers. I will continually look across the Joint Force to 
ensure each service is best postured to support combatant commands in 
the present, while simultaneously equipping and training to counter 
future threats.

    25. Senator Sullivan. General Dunford, specifically, what elements 
of are being reduced in Alaska and specifically what elements are being 
kept?
    General Dunford. I understand the Army plans to reduce the 4th 
Brigade Combat Team, 25th Infantry Division at Joint Base Elmendorf-
Richardson to an infantry battalion task force and maintain a Striker 
Brigade Combat Team at Fort Wainwright.

    26. Senator Sullivan. General Dunford, what are the exact dates 
that these reductions in Alaska officially begin and end?
    General Dunford. Reductions are scheduled to be complete by the end 
of fiscal year 2017.

    27. Senator Sullivan. General Dunford, what specific cost/strategic 
factors did the United States use to make this decision and can you 
provide all of that information to me?
    General Dunford. It is my understanding the Army used a 
comprehensive analysis of mission requirements and installation 
capabilities that included public participation. Total Army Analysis, 
Focus Area Review Groups and Military Value Analysis were used to 
determine necessary reductions. For specific details, I defer to the 
Chief of Staff of the Army.

    28. Senator Sullivan. General Dunford, what will be the remaining 
combat elements of the 4-25 ABCT, what missions will they be capable 
of, and what missions will they no longer be capable of?
    General Dunford. The 4-25 ABCT will become an infantry battalion 
task force, which includes engineer, field artillery, and support 
elements. This task force will allow USARPAC to retain an airborne 
capability for rapid deployment.

    29. Senator Sullivan. General Dunford, in terms of threats in the 
region and the AOR, including North Korea, China, and Russia, what are 
the specific risks that the U.S. Army is assuming in relation to each 
of these threats, and in your personal opinion, is the U.S. Army 
accepting too much risk?
    General Dunford. Any assessment of military risk must include 
analysis of all Joint Force capabilities. However, as long as we do not 
return to BCA-level funding, the Army assesses that it will have the 
necessary force structure to counter these regional threats. The Army 
used extensive analysis including Total Army Analysis (TAA) and 
Military Value Analysis (MVA) as well as COCOM component input to 
arrive at a force structure to best posture a smaller Army to fulfill 
strategic requirements and world-wide operational demands.

    30. Senator Sullivan. General Dunford, if confirmed, would you want 
to have a say in the highly strategic force structure decisions of each 
Service? Do you believe the Chairman of the Joint Chiefs of Staff 
(CJCS) should have a say and did the current CJCS-or the Secretary of 
Defense (SECDEF)-weigh into this recent Army decision?
    General Dunford. In accordance with Title 10, I will advise the 
Secretary on the extent to which Service program recommendations and 
budget proposals conform with the priorities established in strategic 
plans and with the priorities established for the requirements of the 
combatant commands. In addition, if in my judgment these priorities and 
requirements are not being met, I will provide alternative program 
recommendations.

    31. Senator Sullivan. General Dunford, in your personal opinion, 
given what the Russians are doing and the importance of the Rebalance, 
shouldn't both the SECDEF and the CJCS weigh into decisions like this 
one, which involve key national security priorities?
    General Dunford. In accordance with Title 10, I will advise the 
Secretary on the extent to which Service program recommendations and 
budget proposals conform with the priorities established in strategic 
plans and with the priorities established for the requirements of the 
combatant commands. In addition, if in my judgment these priorities and 
requirements are not being met, I will provide alternative program 
recommendations.

    32. Senator Sullivan. General Dunford, if confirmed, would you 
advise the SECDEF to have input in force structure decisions that 
affect our national security, like those in the Arctic?
    General Dunford. Yes. In accordance with Title 10, I will advise 
the Secretary on the extent to which Service program recommendations 
and budget proposals conform with the priorities established in 
strategic plans and with the priorities established for the 
requirements of the combatant commands. In addition, if in my judgment 
these priorities and requirements are not being met, I will provide 
alternative program recommendations.

    33. Senator Sullivan. General Dunford, in your personal opinion, 
are the U.S. Army's reductions in fiscal year 2016 and fiscal year 2017 
more driven by Sequestration or the 2014 Quadrennial Defense Review 
(QDR)?
    General Dunford. The Army's reduction to 980,000 Soldiers (450,000 
Active, 335,000 National Guard, and 195,000 Reserve) reflects their 
assessment of the minimum force necessary to execute the defense 
strategy as outlined in the 2014 QDR that end strength was informal by 
the resources available. Should fiscal year 2016 be funded at BCA 
sequestration levels, programmatic decisions will be driven by 
sequestration, which, as you know, is a fiscal topline not based on 
strategy. At sequestration funding levels, as stated in the QDR, Army 
end strength would go down to:
    (1) Active duty end strength, 420,000;
    (2) Army National Guard, 315,000;
    (3) Army Reserves, 185,000.

    34. General Dunford, in the U.S. Army's decision, what, if any, 
thought was given to the recent actions of President Putin and the 
Russians in the Arctic and how heavily were his recent aggressive 
actions weighed?
    General Dunford. I will defer to the Chief of Staff of the Army for 
specifics on how Russian activities weighed into the decisions. If 
confirmed, I will work with leaders to maintain a full range of options 
to protect our interests in the Arctic. Any future force structure 
reductions or realignments will be evaluated against the ever-evolving 
security environment to ensure we consistently meet our global defense 
responsibilities.

    35. Senator Sullivan. General Dunford, recently, General Brooks, 
U.S. Army Pacific (USARPAC) alluded that he could respond to 
contingencies in the South China Sea, specifically at Fire Cross Reef, 
utilizing the 4-25 ABCT and could do so ``tonight.'' Following these 
reductions, would this still be a true statement?
    General Dunford. I am not familiar with General Brooks' specific 
comments. However if confirmed as Chairman, I will continually look 
across the Joint Force to ensure each service is best postured to 
support Combatant Commands in the present, while simultaneously 
equipping and training to counter future threats.

    36. Senator Sullivan. General Dunford, how do these reductions in 
Alaska impact the response to a Korean Peninsula contingency and what 
specifically is that impact?
    General Dunford. Although this action may change the sourcing 
allocation for our plans, we have the necessary forces and capabilities 
to respond to a treat on the Korean Peninsula.

    37. Senator Sullivan. General Dunford, how do these reductions in 
Alaska impact the Army's ability to quickly respond to contingencies in 
the Arctic?
    General Dunford. The Armed Forces possess sufficient capabilities 
to respond to a wide-range of contingencies across the globe, including 
the Arctic. U.S. Northern Command and U.S. European Command, as the 
combatant commands with geographic responsibility for the Arctic 
region, are continually assessing the security environment to ensure we 
can meet assigned or potential missions.

    38. Senator Sullivan. General Dunford, how much excess facility 
capacity will Fort Richardson have after the 4-25 ABCT is reduced and 
specifically what excess facilities will those be?
    General Dunford. This analysis is ongoing and will incorporate a 
number of strategic factors. When complete, the final force structure 
results will inform the amount of excess infrastructure capacity 
generated. As part of a Joint Base, the force structure decision 
calculus is conducted by the Army while the Air Force, as the lead 
Service for Joint Base Elmendorf-Richardson, will make the facility 
decisions.

    39. Senator Sullivan. General Dunford, will the reduction of the 4-
25 negatively affect the DOD/VA Joint venture hospital on Joint Base 
Elmendorf-Richardson (JBER)?
    General Dunford. The withdrawal of the U.S. Army's 4th Brigade, 
25th Infantry Division will not affect the DOD/VA joint venture 
hospital at Joint Base Elmendorf -Richardson. The reduction in active 
duty forces and families should increase the hospital's available 
capacity, enabling more Veterans to receive medical care at the medical 
facility.

    40. Senator Sullivan. General Dunford, how much input did U.S. 
Pacific Command (PACOM) have in the U.S Army's decision to reduce 
forces in Alaska and Hawaii and what specifically was that input and 
how heavily was it weighed?
    General Dunford. It is my understanding that USPACOM was 
represented by U.S. Army Pacific (USARPAC) throughout the process that 
determined the recently announced Army Force structure decisions.

    41. Senator Sullivan. General Dunford, how much input did U.S. 
European Command (EUCOM) have in the U.S Army's decision to reduce 
forces in Alaska and what specifically was that input?
    General Dunford. EUCOM, as represented by USAREUR, participated in 
the Army's comprehensive process that facilitated the recent force 
structure decisions. Their input, like that of every other geographic 
combatant command, helped inform a decision to best posture a smaller 
Army to fulfill strategic priorities, including the Asia-Pacific 
rebalance and world-wide operational demands.

    42. Senator Sullivan. General Dunford, I have been told that the 
final decision to reduce forces in Alaska and Hawaii came down to 
tradeoff between those forces and the 173rd Airborne Brigade Combat 
Team in Vicenza, Italy. Is this accurate, and if so, specifically what 
strategic considerations (location, deterrence, proximity to threats, 
access to nearby or organic lift, and capabilities) went to making this 
decision?
    General Dunford. I do not have insight at this level of detail 
about the force structure decisions of the other services. I defer to 
Chief of Staff of the Army.

    43. Senator Sullivan. General Dunford, how much input did U.S. 
Northern Command (NORTHCOM) have in the U.S Army's decision to reduce 
forces in Alaska and what specifically was that input?
    General Dunford. NORTHCOM, as represented by ARNORTH, participated 
in the Army's comprehensive process that facilitated the recent force 
structure decisions. Their input, like that of every other geographic 
combatant command, helped inform a decision to best posture a smaller 
Army to fulfill strategic priorities, including the Asia-Pacific 
rebalance and world-wide operational demands.

    44. Senator Sullivan. General Dunford, to what extent was the U.S 
Army's decision to reduce forces in Alaska coordinated with Alaska 
Command (ALCOM) and what concerns were raised/mitigated from this 
coordination?
    General Dunford. ALCOM, a sub-command of NORTHCOM, as represented 
by ARNORTH, participated in the Army's comprehensive process that 
facilitated the recent force structure decisions. Their input, like 
that of every other geographic combatant command, helped inform a 
decision to best posture a smaller Army to fulfill strategic 
priorities, including the Asia-Pacific rebalance and world-wide 
operational demands.

    45. Senator Sullivan. General Dunford, to what extend was this 
decision coordinated with the Air Force side of JBER and what concerns 
were raised/mitigated from this coordination?
    General Dunford. Joint Base Elmendorf-Richardson, like the other 29 
installations at which substation Army forces are stationed, helped 
inform and facilitate the Army's decision process through participating 
in two environmental and socio-economic analyses, providing input to 
the Military Value Analysis and facilitating ``listening sessions'' for 
installation communities. Commands were solicited to ensure the 
accuracy of data and HQDA awareness of issues and concerns associated 
with their installations. While analysis focused on potential losses at 
the former Fort Richardson, it considered impacts to Joint-Base 
Elmendorf-Richardson as a whole.

    46. Senator Sullivan. General Dunford, to what extent were our 
South Korean Allies consulted on the U.S Army's decision to reduce 
forces in Alaska?
    General Dunford. I defer to the Chief of Staff of the Army to 
characterize any engagement with our Allies regarding their decision to 
reduce forces in Alaska.

    47. Senator Sullivan. General Dunford, if so, what were their 
concerns and how much were those concerns weighed?
    General Dunford. I defer to Chief of Staff of the Army.

    48. Senator Sullivan. General Dunford, to what extent were our 
Japanese Allies consulted on the U.S Army's decision to reduce forces 
in Alaska?
    General Dunford. I defer to the Chief of Staff of the Army to 
characterize their engagement with our Allies regarding the decision to 
reduce forces in Alaska.

    49. Senator Sullivan. General Dunford, if so, what were their 
concerns and how much were those concerns weighed?
    General Dunford. I defer to Chief of Staff of the Army.

    50. Senator Sullivan. General Dunford, to what extent was section 
1043 of the NDAA for fiscal year 2016 considered in the U.S Army's 
decision to reduce forces in Alaska?
    General Dunford. I defer to the Chief of Staff of the Army on how/
if Section 1043 informed their decision to reduce forces in Alaska. If 
confirmed as Chairman, I will pay close attention to what is required 
to meet our strategic military objectives in the Arctic, including 
consideration of how we best posture forces in and around that region. 
I will seek to ensure a balanced approach to the posturing of our 
global forces.

    51. Senator Sullivan. General Dunford, in your personal opinion, is 
it strategically wise to reduce forces in the Arctic before we have a 
new Arctic strategy and OPLAN?
    General Dunford. The reduction of personnel in Alaska, as well as 
elsewhere, is a result of the need to balance current operational 
priorities and resource constraints. These force structure decisions 
best posture a smaller Army to meet global commitment. The Department 
is continually reviewing the security environment and operational 
requirements in the Arctic and will reprioritize resources as needed. I 
look forward to participating in this process.

    52. Senator Sullivan. General Dunford, to what extent was section 
1262 of the NDAA for Fiscal Year 2016 considered in the U.S Army's 
decision to reduce forces in Alaska?
    General Dunford. I defer to the Chief of Staff of the Army on how/
if section 1043 informed their decision to reduce forces in Alaska. If 
confirmed as Chairman, I will pay close attention to what is required 
to meet our strategic military objectives in the Arctic, including 
consideration of how we best posture forces in and around that region. 
I will seek to ensure a balanced approach to the posturing of our 
global forces.

    53. Senator Sullivan. General Dunford, to what extent were 
Alaska's, and specifically JBER's organic strategic airlift and close 
proximity to large and robust training areas, weighted in the U.S 
Army's decision to reduce forces in Alaska?
    General Dunford. The Army considered all possible options to retain 
its warfighting capability, to include strategic airlift and training 
area location. Ultimately, these reductions are designed to maintain 
the proper balance between force structure, readiness, and 
modernization. The Army's stationing plans are designed to leverage 
existing installation capabilities, minimize future construction costs, 
and posture the force to support the defense strategy.

    54. Senator Sullivan. General Dunford, what countries has the 4-25 
ABCT worked closely with and possibly trained with and what is the 
impact of this reduction on the military-to-military relationships with 
those countries following the reduction of this unit?
    General Dunford. I defer to the Chief of Staff of the Army for any 
specific details on the 4-25 ABCT's training history.

    55. Senator Sullivan. General Dunford, following the Air Force's 
initial decision to remove a squadron from Eielson, senior Air Force 
officials soon went up to Fairbanks and North Pole communities to 
explain the decision. When will this be done in the case of Fort 
Richardson and who will be sent?
    General Dunford. Engaging our communities on basing decisions is 
important. I understand the Department of the Army conducted extensive 
community outreach. I defer to the Chief of Staff of the Army on the 
specifics of the community engagement plan.

    56. Senator Sullivan. General Dunford, what impact has the Army 
assessed will occur to the greater Anchorage housing market and to the 
greater Anchorage economy as a result of the decision to reduce the 4-
25 ABCT?
    General Dunford. Analysis of the Anchorage housing market and 
greater economy was part of the Army's overall analysis in determining 
force structure changes. I defer to the Department of the Army to 
provide specific detail regarding your request.

    57. Senator Sullivan. General Dunford, will installations with 
reductions be allowed to access DOD Office of Economic Adjustment (OEA) 
funds to mitigate the effects of these reductions?
    General Dunford. If an Army installation is selected for reduction, 
impacted areas may qualify for assistance from OEA. I understand the 
Army intends to distribute letters and brochures to the most impacted 
areas, based on job loss, and that OEA will consider all applications 
for assistance.

    58. Senator Sullivan. General Dunford, what effects with the U.S. 
Army's reductions in Alaska have on U.S. Army Alaska (USARAK) and 
USARAK's headquarters?
    General Dunford. I defer to the Department of the Army for specific 
detail on impacts to the HQ reduction. I am aware that the Army's force 
structure analysis included Total Army Analysis (TAA), Military Value 
Analysis (MVA), as well as environmental and socio-economic analysis.

    59. Senator Sullivan. General Dunford, in what way does the U.S. 
Army's decision to reduce forces in Alaska impact Alaska-based joint 
training exercises such Red Flag-Alaska, Northern Edge, and Alaska 
Shield?
    General Dunford. The U.S. Army's decision to reduce forces in 
Alaska could potentially limit their ability to operate the Joint 
Pacific Alaska Range Complex (JPARC). The JPARC provides joint combined 
arms training support to all of the Services for exercises such as Red 
Flag-Alaska, Northern Edge, and Alaska Shield.

    60. Senator Sullivan. General Dunford, before you are confirmed, 
can you please provide the Military Value Analysis (MVA) Model and the 
Total Army Analysis used to make all of the Army's fiscal year 2016-
2017 force structure decisions?
    General Dunford. I will work with Army leadership to ensure the 
committee has access to the documents necessary for the committee to 
provide oversight.

    61. Senator Sullivan. General Dunford, can you provide more 
information on the U.S. Army's possible desire to convert at National 
Guard brigade at Joint Base Lewis-McChord (JBLM) to Styker brigade?
    General Dunford. The decision to convert a National Guard brigade 
to a Stryker Brigade rests with the Department of the Army. They can 
provide the best information regarding any planned force structure 
change.

    62. Senator Sullivan. General Dunford, if confirmed, do you pledge 
to ensure that the U.S. Army is completely transparent about the entire 
fiscal year 2016-2017 force reductions and makes all the documents used 
to make all of these decision available to Congress?
    General Dunford. If confirmed, I will work with the Army leadership 
to provide requested information regarding the fiscal year 2016-2017 
force reductions to Congress.

    63. Senator Sullivan. General Dunford, if confirmed, do pledge to 
fully review the Army's reductions decisions, especially in light of 
the emerging concerns in the Asia-Pacific, the Arctic and given that 
there is a pending Arctic strategy?
    General Dunford. Yes.

    64. Senator Sullivan. General Dunford, as the Army has told me that 
they hope to reverse the decision in Alaska. If confirmed, will you 
work with me, and them, to bring all the U.S. Army forces back to my 
State and the Arctic?
    General Dunford. If confirmed, I will work with all the Services to 
determine the right size, capabilities, and posture to best support our 
National Security.
                         marine corps in alaska
    65. Senator Sullivan. General Dunford, what opportunities and 
challenges would exist to either permanently stationed marines in 
Alaska, specifically at JBER--or developing rotational forces at JBER--
as a part of the Rebalance from Okinawa?
    General Dunford. The state of Alaska, and specifically Joint Base 
Elmendorf-Richardson, is important to our nation's security in 
protecting the homeland and projecting power in the Pacific and beyond. 
As the global security environment evolves, we will continue to assess 
the optimal strategic footprint across the services in the PACOM AOR.
                   u.s. security commitment to taiwan
    66. Senator Sullivan. General Dunford, The Taiwan Relations Act 
(TRA) and the ``Six Assurances'' form the cornerstone of U.S.-Taiwan 
relations and affirms our commitment to maintain Taiwan's self-defense 
capability. How do you and the administration plan to continue to 
implement our policy under this framework?
    General Dunford. The U.S. remains firmly committed to supporting 
Taiwan within the overall framework of our one-China policy, based on 
the three joint U.S.-China communiques and the Taiwan Relations Act. We 
also remain committed to the Six Assurances. Accordingly, we will 
continue to promote cross-Strait stability by ensuring that Taiwan 
maintains a sufficient self-defense capability.
                            pacific pathways
    67. Senator Sullivan. General Dunford, in your personal opinion, in 
a budget constrained environment, can we afford to have an Army mission 
in the Pacific that is redundant with another service's longstanding 
mission?
    General Dunford. The Army's mission in the Pacific remains a 
critical component of the Joint Force's broader mission and presence. 
Each service provides unique, valuable capabilities in executing joint 
responsibilities in the region based on national strategic interests.

    68. Senator Sullivan. General Dunford, is Pacific Pathways 
redundant with the mission of the U.S. Marine Corps?
    General Dunford. When it comes to increasing U.S. presence in the 
Pacific for peacetime engagement or the maintenance of forces to 
support the execution of contingency plans, the United States Army 
remains a critical component. Their efforts in the Pacific are 
consistent with broader department efforts and support combatant 
commanders requirements.
             the need for strategic lift in the pacific aor
    69. Senator Sullivan. General Dunford, you have said in multiple 
forms (hearings, public speaking engagements, answers to Advanced 
Policy Questions from the Senate Armed Services Committee (SASC)) that 
lift capacity to support the shifting laydown of forces in the Pacific 
theater will be insufficient and constitutes a major concern for you. 
In your response to the committee's questions, you stated that you 
``look forward to working with the Services and the U.S. Pacific 
Command to address the lift needs in the Pacific.'' If confirmed, what 
are some of the ways you would consider to address this pending 
shortfall?
    General Dunford. The Pacific force laydown is a challenge 
exacerbated by the fact that we have a shortfall of amphibious lift to 
meet global demand whether it is support to peacetime or contingency 
operations. I will work with the Secretary of Defense to ensure the 
department's priorities reflect the lift requirements in the pacific. I 
will also support efforts to work with our allies and partners to 
advance initiatives that mitigate this challenge.

    70. Senator Sullivan. General Dunford, as Admiral Roughead 
testified to this committee in April, do you believe we should also 
consider moving additional naval and maritime assets forward into the 
theater to support our peacetime and contingency lift?
    General Dunford. Yes, we should continue to consider how we can 
best posture our naval assets in the Pacific. The movement of forces 
around the Pacific is a challenge given the tyranny of distance, and 
this challenge is exacerbated by a shortfall of amphibious lift to meet 
global demand, whether in support of peacetime or contingency 
operations. We continually evaluate our force posture in the Pacific 
theater, and all theaters, based on global threats.
                                 ______
                                 
                Questions Submitted by Senator Mike Lee
                        test and training ranges
    71. Senator Lee. General Dunford, one of the most important, yet 
often overlooked, assets DOD is our test and training ranges. Many of 
these are located in western states and are utilized by all branches of 
the military, as well as other Federal agencies, to train members on a 
variety of threats and environments and to research and test new 
systems vital to the future of our national security. In order to adapt 
their training to the rapidly changing spectrum of threats facing the 
military, it is imperative that we work to modernize our training 
ranges and protect these assets from issues like encroachment and 
cumbersome environmental regulations. What is your assessment of the 
state of our military test and training ranges, and do you agree that 
we need to modernize and prioritize our military readiness against 
future threats?
    General Dunford. Yes. Test and training ranges are critical assets 
for enabling our nation's military to prepare and respond flexibly 
across the wide range of potential threats, both now and in the future. 
Currently, many of our weapons systems exceed the contiguous space 
capabilities that our U.S. ranges can support. In addition, meeting the 
Department of Defense's Endangered Species Act (ESA) responsibilities, 
along with competition for frequency spectrum, will continue to 
challenge our management of test and training ranges. Modernization of 
our ranges to assure military readiness is critical to addressing 
threats posed by our adversaries.
                    national guard and reserve units
    72. Senator Lee. General Dunford, you have been a combat commander 
in Iraq and Afghanistan, what is your assessment of the performance of 
our National Guard and Reserve units in these conflicts?
    General Dunford. Throughout the conflicts in Iraq and Afghanistan, 
our Reserve Component forces performed admirably. Our Reserve Component 
forces were an integral part of our operations in both theaters and 
they often brought unique civilian skills that proved invaluable on the 
battlefield.

    73. Senator Lee. General Dunford, if confirmed, how do you plan to 
build upon the combat experience gained by National Guard and Reserve 
units and take advantage of the cost benefits of the Reserve Forces 
that have been identified by the Reserve Forces Policy Board and CAPE 
reports in order to preserve combat power for the military, especially 
while adjusting to potential budget constraints?
    General Dunford. The National Guard and Reserves are integral to 
our operational force and our strategic reserve. The challenge we face 
is striking the right balance between what is needed in the active 
component to meet emergent or short-notice requirements and what can be 
maintained in the reserve components and activated as required. The 
studies conducted by the Reserve Forces Policy Board and CAPE will 
certainly help inform these decisions. If confirmed, I will work with 
the Services to leverage the capabilities and experience inherent 
within our reserve components.
                              acquisitions
    74. Senator Lee. General Dunford, one of the topics of great 
concern to this committee has been reforming the acquisition process in 
DOD to streamline efforts and find savings, especially for big-ticket 
acquisitions that have experienced major cost overruns in the past. 
Equally important to better allocation of funding and resources across 
DOD is ensuring that weapon system sustainment concerns are addressed 
beginning in the acquisitions process and aligned throughout the 
system's entire lifecycle. I am pleased by steps that the Air Force has 
taken to bring sustainment issues into the acquisition process and look 
forward to seeing those efforts continue. If confirmed, what ideas do 
you have for acquisition and sustainment efforts to increase the total 
life-cycle efficiency and decrease overall costs of weapons systems?
    General Dunford. I am an advocate of the Air Force's ``Bending the 
Cost Cure-Weapon System Sustainment Initiative'' focused on 
significantly reducing weapon system sustainment cost growth and the 
Navy's ground-breaking work in the field of renewable energy to power 
``the Great Green Fleet'' driven by 50-50 blends of biofuels.
    We need to press forward on efforts to promote commonality across 
weapons systems where it makes sense, establish competition at all 
phases of the acquisition cycle, and demand the incorporation of life-
cycle efficiency considerations into the basic DNA of every weapon 
system we build.
                            isis/syria/iraq
    75. Senator Lee. General Dunford, the stated objective of the 
United States in the conflict against ISIS is to defeat the group and 
leave a stable, unified government in Iraq and a post-Assad state in 
Syria. Some of my colleagues earlier this week discussed with Secretary 
Carter and General Dempsey the viability and appropriateness of 
supporting the modern borders of Iraq and Syria given the region's 
cultural, religious, and tribal histories. While I do not think it is 
the role of the United States to partition and re-draw borders on the 
other side of the world, I am also greatly concerned that we could be 
ineffectively employing our national security resources by continuing 
to support governing constructs that may be flawed in the first place.
    You have extensive experience in Iraq and in the Middle East. Do 
you believe that in order to protect Americans from the terrorist 
threats that are physically or ideologically generated in this region 
that we must absolutely continue supporting the concept of an Iraqi and 
Syrian state as currently drawn?
    General Dunford. Protecting American citizens, our homeland, and 
our interests abroad will remain our top priority. Supporting the 
current strategy to defeat ISIL, which assumes Iraq and Syria as nation 
states, is our best option to mitigate threats in the region. If, in 
the future, I assess that Iraq and/or Syria are not viable as nation 
states, I will adjust my best military advice accordingly.

    76. Senator Lee. General Dunford, how significant of an investment 
in forces, funding, and time would be necessary to overcome the 
sectarian divisions that exist inside and outside of these borders?
    General Dunford. Ultimately, the solution to overcome sectarian 
divisions must come from the leaders and communities within the region. 
No amount of U.S. investment alone will be sufficient.

    77. Senator Lee. General Dunford, Secretary Carter stated on 
Tuesday to this committee that the Department of Defense is currently 
training only 60 Syrian rebels under the $500 million program 
authorized last year, with the goal of graduating thousands of recruits 
by the end of the year. How would you define success in this program, 
and specifically what do you view as the timeline for achieving 
success?
    General Dunford. The Syria train and equip program is a long-term 
effort that is only one component of our broader approach. The impact 
of the T&E program remains to be seen, but we currently face 
significant challenges in recruiting and vetting suitable volunteers at 
the scale necessary to have strategic effects. If confirmed, I plan to 
visit the region and assess our approach in Syria to develop a better 
understanding of this immensely complex and challenging situation.

    78. Senator Lee. General Dunford, what will you do to ensure that 
the weapons and training we supply are not used by or to the advantage 
of ISIS and other extremist forces that share a common enemy with the 
groups we are supporting in Syria?
    General Dunford. The first step is to accurately identify those 
groups with whom we wish to train. Next, we need to ensure a stringent 
and rigorous vetting process to better understand the backgrounds and 
motivations of those we are training. Last, we must have a well-
designed end use monitoring program, in order to verify our equipment 
is being used according to U.S. objectives and our high standards of 
battlefield conduct.
                               iran/p5+1
    79. Senator Lee. General Dunford, the P5+1 negotiations on the 
Iranian nuclear program have passed two deadlines for a final deal, and 
concerns exist over the ability of any deal under the parameters of the 
framework released earlier this year to prevent Iran from achieving a 
nuclear weapons capability in the future. What impact will Iran 
maintaining a path to a nuclear weapon capability, or the lack of 
sufficient verification and inspection agreements, have on our 
strategic posture in the U.S. Central Command (CENTCOM) area and the 
actions of Arab countries?
    General Dunford. If Iran maintains a path to a nuclear weapon 
capability it would have a destabilizing impact within the region and 
constitute a threat to our national interests.
                            border security
    80. Senator Lee. General Dunford, last year, the commander of U.S. 
Southern Command, General John Kelly, stated that the security along 
our southern border and the migration crisis were existential threats 
to U.S. national security. In addition to the drugs and crime that can 
enter into the United States from the Southern border, we know that 
terrorist organizations have connections with drug cartels and other 
contacts in that region. Are you concerned about the security threats 
that are presented by unsecure borders, and what is your overall 
assessment of security in the western hemisphere?
    General Dunford. I appreciate the complexity of securing borders as 
vast as ours and recognize the challenge they present. I am concerned 
about the security of our borders. Within the Western Hemisphere, we 
have seen the negative influence of Transnational Criminal 
Organizations (TCOs) on security and the rule of law, especially in 
Mexico and Central America. While there is always a potential for 
convergence between violent extremists (VE) and Transnational Criminal 
Organizations (TCO) in the Western Hemisphere, TCOs are motivated by 
profit and the ability to operate unimpeded by law enforcement. Within 
our hemisphere, TCOs generally understand that supporting terrorists or 
terrorist activities would bring increased U.S. attention and negative 
impacts to their operations.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
              sigar unused building report in afghanistan
    81. Senator McCaskill. General Dunford, in May, the Special 
Inspector General for Afghanistan Reconstruction (SIGAR) released a 
report on a 64,000 square foot regional headquarters built in 
Afghanistan at a cost of $36 million that was never occupied. Its 
findings implicated a senior Army general who ignored requests to 
cancel the construction, and also the Army's own investigation of the 
matter. SIGAR recommended that disciplinary action be taken against the 
senior Army general who conducted the investigation ``in light of his 
failure to carry out a fulsome investigation in compliance with General 
Dunford's orders.'' This investigation was ordered by you while serving 
as commander of the International Security Assistance Force (ISAF) and 
U.S. Forces-Afghanistan (USFOR-A). While SIGAR did not find any fault 
with your actions, as the officer who ordered the investigation you 
ultimately signed it. General Dunford, given SIGAR's findings, are you 
concerned that the investigation into this matter was inadequate?
    General Dunford. No. However, I fully recognize the necessity for 
the military to be effective stewards of the resources we are provided. 
This facility was constructed prior to my assumption of command. When I 
became aware of the issue, I directed an investigation. The 
investigation did not find criminal behavior, but rather identified 
incorrect assumptions made in a combat environment. We should and must 
learn from these incorrect assumptions. I am committed to responsible 
stewardship of both the resources Congress appropriates and taxpayer 
trust.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
                               isil/iraq
    82. Senator Shaheen. General Dunford, what is your assessment of 
the effectiveness of the current collation air campaign against the 
Islamic State of Iraq and the Levant (ISIL)?
    General Dunford. From a military effectiveness perspective, 
coalition airstrikes since August 2014 have blunted ISIL's initiative, 
removed a number of ISIL leaders, and degraded the ability of the group 
to operate openly in Iraq and Syria. ISIL's total area of influence in 
Syria remains largely unchanged as the group has offset the losses of 
Kobane and territory in Raqqah province with gains in As Suwayda, the 
Damascus countryside, and Homs Province.
    Coalition airstrikes have also degraded ISIL's capability to mass 
and stage fighters, forcing the group to rely more heavily on 
asymmetric terrorist tactics such as suicide attacks, car bombs, and 
assassinations.

    83. Senator Shaheen. General Dunford, what do you assess would be 
the impact on the campaign of deploying U.S. forward air controllers to 
Iraq to call in close support during combat?
    General Dunford. Employing Forward Air Controllers or accompanying 
Iraqi ground forces in the past has, in my experience, made those units 
more effective at the tactical level. Adjustments to our military 
support campaign will further enable Iraqi forces to gain the skill and 
confidence necessary for improved combat effectiveness.

    84. Senator Shaheen. General Dunford, do you favor this shift in 
policy?
    General Dunford. If confirmed, I would take an early opportunity to 
get on the ground to speak to commanders so I could provide a more 
comprehensive recommendation as to how we can support our broader 
campaign objectives in Iraq.
                                 ______
                                 
              Questions Submitted by Senator Joe Donnelly
                      defense manpower data center
    85. Senator Donnelly. General Dunford, the Defense Manpower Data 
Center (DMDC) is an important resource for ensuring that servicemembers 
receive the benefits and protections they are entitled to under the 
law. The use of the DMDC system has been designated as a resource to 
enhance compliance with the Servicemembers Civil Relief Act (SCRA). In 
view of the growing importance of the DMDC for a wide variety of 
purposes, what steps has the Department taken to strengthen the 
capabilities of the DMDC?
    General Dunford. The Defense Manpower Data Center (DMDC) plays a 
vital role in ensuring our servicemembers, retirees, and their family 
members receive all the entitlements and benefits provided under the 
law. The department has taken steps to strengthen the DMDC, for 
example, when DOD saw the use of the Servicemembers Civil Relief Act 
(SCRA) database increased from approximately 490 million searches in 
2012 to over 2.9 billion searches in 2014, DOD provided additional 
resources to improve the SCRA website to meet this demand. I am 
confident the Department will continue to provide DMDC the necessary 
resources to carry out its critical mission.
 servicemembers civil relief act (scra) and military lending act (mla)
    86. General Dunford, are the staffing, funding, and security levels 
appropriate to ensure the accuracy, reliability and integrity of the 
SCRA and MLA database systems?
    General Dunford. It is my understanding that the SCRA and MLA 
database systems are appropriately staffed, funded, and secured to 
ensure the accuracy, reliability, and integrity of the systems.

    87. Senator Donnelly. General Dunford, if there are shortfalls in 
maintaining and improving the SCRA and MLA databases, what are your 
requests to bring them to a level you feel would place them at the 
highest levels of accuracy, reliability and integrity?
    General Dunford. I am not aware of shortfalls in maintaining the 
SCRA and MLA databases.

    88. Senator Donnelly. General Dunford, how is the Department 
ensuring that the SCRA and MLA databases provide adequate protection of 
servicemembers' personal information?
    General Dunford. The SCRA and MLA databases conform to all federal 
requirements for the protection of personal information. Protections 
include Information Assurance certification and accreditation of the 
SCRA and MLA databases, encryption of traffic to and from the 
databases, best practices for data security and data retention, and 
protection of information as required by the Privacy Act of 1974.

    89. Senator Donnelly. General Dunford, how is the Department 
ensuring that the SCRA and MLA databases have the capability to provide 
timely and accurate data to enable servicemembers eligible for SCRA 
benefits?
    General Dunford. The Department maintains the SCRA and MLA 
databases with near real-time data supplied directly by the Military 
Services. The SCRA and MLA databases are publicly accessible and 
available 24 hours a day, 7 days a week (barring periodic maintenance), 
which allow the Department to meet the highest standards for providing 
timely and accurate verification data.

    90. Senator Donnelly. General Dunford, does the SCRA and MLA 
databases have the capability to prevent delays with military consumers 
seeking credit or receiving their benefits?
    General Dunford. The SCRA and MLA databases are publicly accessible 
24 hours a day, 7 days a week (barring periodic maintenance). Those 
seeking to determine eligibility for benefits or seeking credit may use 
the SCRA or MLA databases to verify status anytime with the most up-to-
date information
                                 ______
                                 
    [The nomination reference of General Joseph F. Dunford, 
Jr., USMC, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 21, 2015.
    Ordered, That the following nomination be referred to the 
Committee on Armed Services:
    The following named officer for appointment as the Chairman 
of the Joint Chiefs of Staff and appointment in the United 
States Marine Corps to the grade indicated while assigned to a 
position of importance and responsibility under title 10, 
U.S.C., sections 152 and 601:
                        To Be General                              
    General Joseph F. Dunford, Jr., 0000.
                                ------                                

    [The biographical sketch of General Joseph F. Dunford, Jr., 
USMC, which was transmitted to the committee at the time the 
nomination was referred, follows:]
      Biographical Sketch of General Joseph F. Dunford, Jr., USMC
Source of commissioned service:
    Platoon Leaders Class (PLC)
Educational degrees:
    Saint Michael's College, BA, 1977.
    Georgetown University, MA, 1985.
    Fletcher School of Law and Diplomacy, MA, 1992.
Military schools attended:
    Basic Officer Course, 1977.
    Infantry Officer Course, 1978.
    U.S. Army Ranger School, 1980.
    Amphibious Warfare School, 1984-1985.
    U.S. Army Airborne School, 1987.
    Static Line Jumpmaster School, 1988.
    Marine Corps Command and Staff College, 1991-1992.
    U.S. Army War College, 1998-1999.
    Capstone, 2005.
    Combined/Joint Force Land Component Commander, 2007.
    Pinnacle, 2009.
    Senior Executive EEO Seminar, 2010.
Promotions:

 
------------------------------------------------------------------------
                Promotions                      Dates of appointment
------------------------------------------------------------------------
2nd Lt....................................  8 Jun 77
1st Lt....................................  8 Jun 79
Capt......................................  1 Feb 82
Maj.......................................  1 Jul 89
Lt. Col...................................  1 Sep 94
Col.......................................  1 Oct 99
Brig. Gen.................................  1 Jan 05
Maj. Gen..................................  2 May 09
Lt. Gen...................................  8 Aug 08
Gen.......................................  23 Oct 10
------------------------------------------------------------------------


Major duty assignments:

 
------------------------------------------------------------------------
                From                     To            Assignment
------------------------------------------------------------------------
Oct 14.............................  Present    Commandant of the Marine
                                                 Corps (Gen.)
Feb 13.............................  Aug 14     Commander, International
                                                 Security Assistance
                                                 Force--Afghanistan; and
                                                 Commander, United
                                                 States Forces--
                                                 Afghanistan (Gen.)
Dec 12.............................  Feb 13     Special Assistant to the
                                                 Chairman, Joint Chiefs
                                                 of Staff (Gen.)
Oct 10.............................  Dec 12     Assistant Commandant of
                                                 the Marine Corps (Gen.)
Sep 09.............................  Oct 10     Commanding General, I
                                                 Marine Expeditionary
                                                 Force; and Commander,
                                                 U.S. Marine Corps
                                                 Forces Central Command
                                                 (Lt. Gen.)
Aug 08.............................  Aug 09     Deputy Commandant for
                                                 Plans, Policies, and
                                                 Operations (Lt. Gen.)
Jun 07.............................  Aug 08     Vice Director for
                                                 Operations, J-3, Joint
                                                 Staff (Brig. Gen.)
Jul 05.............................  Jun 07     Director, Operations
                                                 Division, Plans,
                                                 Policies and Operations
                                                 (Brig. Gen.)
Jul 04.............................  Jun 05     Assistant division
                                                 Commander, 1st Marine
                                                 Division (Brig. Gen./
                                                 Col.)
May 03.............................  Jul 04     Chief of Staff, 1st
                                                 Marine Division (Col.)
May 01.............................  May 03     Regimental Commander,
                                                 5th Marines, 1st Marine
                                                 Division (Col.)
Jun 99.............................  May 01     Executive Assistant to
                                                 the Vice Chairman of
                                                 the Joint Chiefs of
                                                 Staff; and Chief,
                                                 Global and Mulitlateral
                                                 Affairs Division, J-5,
                                                 Joint Staff (Col./Lt.
                                                 Col.)
Mar 96.............................  Jul 98     Commanding Officer, 2d
                                                 Battalion, 6th Marines,
                                                 2d Marine Division (Lt.
                                                 Col.)
Jul 95.............................  Mar 96     Executive Officer, 6th
                                                 Marines, 2d Marine
                                                 Division (Lt. Col.)
Dec 92.............................  Jul 95     Senior Aide-de-Camp to
                                                 the Commandant of the
                                                 Marine Corps (Lt. Col./
                                                 Maj.)
Jun 92.............................  Dec 92     Commandant of the Marine
                                                 Corps Staff Group
                                                 (Maj.)
Jun 88.............................  Jun 91     Marine Officer
                                                 Instructor, College of
                                                 the Holy Cross (Maj./
                                                 Capt.)
Jul 87.............................  Jun 88     Plans Officer, 2d Air
                                                 Naval Gunfire Line
                                                 Company, 2d Force
                                                 Service Support Group
                                                 (Capt.)
May 85.............................  Jul 87     Company Commander, Rifle
                                                 Company, 3d Battalion,
                                                 6th Marines, 2d Marine
                                                 Division (Capt.)
Dec 81.............................  Jul 84     Head, Reserve, Retention
                                                 & Reenlistment Unit;
                                                 Admin Officer,
                                                 Headquarters Marine
                                                 Corps (Capt./1st Lt.)
Nov 80.............................  Dec 81     Aide-de-Camp, 3d Marine
                                                 Amphibious Force (1st
                                                 Lt.)
Mar 78.............................  Nov 80     Company Commander;
                                                 Executive Officer;
                                                 Platoon Commander; S-
                                                 Liaison Officer,
                                                 Company K, 3d
                                                 Battalion, 1st Marines,
                                                 1st Marine Division
                                                 (1st Lt./2nd Lt.)
Jul 77.............................  Feb 78     Student, The Basic
                                                 School, Quantico,
                                                 Virginia (2nd Lt.)
------------------------------------------------------------------------


Summary of joint assignments:

 
------------------------------------------------------------------------
                                              Date            Grade
------------------------------------------------------------------------
Commander, International Security       Feb 13-Aug 14    General
 Assistance Force--Afghanistan and
 Commander, United States Forces--
 Afghanistan.
Special Assistant to the Chairman,      Dec 12-Feb 13    General
 Joint Chiefs of Staff.
Vice Director for Operations, J-3,      Jun 07-Aug 08    Brigadier
 Joint Staff.                                             General
Executive Assistant to the Vice         Jun 99-May 01    Colonel/
 Chairman of the Joint Chiefs of                          Lieutenant
 Staff; Chief, Global and Multilateral                    Cololonel
 Affairs Division, J-5, Joint Staff.
------------------------------------------------------------------------


Summary of operational assignments:

 
------------------------------------------------------------------------
                                              Date            Grade
------------------------------------------------------------------------
Commander, International Security       Feb 13-Aug 14    General
 Assistance Force--Afghanistan;
 Commander, United States Forces--
 Afghanistan.
Chief of Staff; Assistant Division      Jun 04-Mar 05    Brigadier
 Commander, 1st Marine Division                           General/
 Operation Iraqi Freedom II.                              Colonel
Chief of Staff, 1st Marine Division     Mar 04-May 04    Colonel
 Operation Iraqi Freedom II.
Regimental Commander; Chief of Staff,   Jan 03-Oct 03    Colonel
 1st Marine Division Operation Iraqi
 Freedom/Enduring Freedom.
------------------------------------------------------------------------


U.S. Decorations and Badges:

 
------------------------------------------------------------------------
                        Decorations                           Quantity
------------------------------------------------------------------------
Defense Distinguished Service Medal.......................           1
Defense Superior Service Medal w/bronze oak leaf cluster..           2
Legion of Merit w/Combat V................................           1
Defense Meritorious Service Medal.........................           1
Meritorious Service Medal.................................           2
Navy and Marine Corps Commendation Medal..................           4
Navy and Marine Corps Achievement Medal...................           1
Combat Action Ribbon......................................           1
Presidental Unit Citation-Navy............................           1
Joint Meritorious Unit Award..............................           2
Navy Unit Commendation....................................           1
Navy Meritorious Unit Commendation........................           1
National Defense Service Medal............................           2
Afghanistan Campaign Medal................................           1
Iraq Campaign Medal.......................................           2
Global War on Terrorism Expeditionary Medal...............           1
Global War on Terrorism Service Medal.....................           1
Sea Service Deployment Ribbon.............................           7
NATO Medal-ISAF Afghanistan...............................           1
------------------------------------------------------------------------


                                 ______
                                 

    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by General Joseph 
F. Dunford, Jr., USMC in connection with his nomination 
follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    part a--biographical information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Joseph F. Dunford, Jr.

    2. Position to which nominated:
    Commandant of the Marine Corps.

    3. Date of nomination:
    21 May 2015.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    23 December 1955; Boston, Massachusetts.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Married to Ellyn A. Dunford (Maiden name: Ellyn A. Sartucci).

    7. Names and ages of children:
    [Nominee responded and the information is contained in the 
committee's executive files.]

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.
    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    Member, Marine Corps Association.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Awarded Colonel Donald Cook Award for Citizenship, from St. 
Michael's College, Vermont.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the Administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                       General Joseph F. Dunford, Jr.  
    This 23rd day of May, 2015
                                 ______
                                 
    [The nomination of General Joseph F. Dunford, Jr., USMC was 
reported to the Senate by Chairman McCain on July 23, 2015, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on July 29, 2015.]


 
NOMINATIONS OF GENERAL PAUL J. SELVA, USAF, TO BE VICE CHAIRMAN OF THE 
    JOINT CHIEFS OF STAFF; AND GENERAL DARREN W. McDEW, USAF, TO BE 
                 COMMANDER, U.S. TRANSPORTATION COMMAND

                              ----------                              


                         TUESDAY, JULY 14, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Ayotte, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Reed, 
McCaskill, Manchin, Shaheen, Gillibrand, Donnelly, and Kaine.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Please take seats, gentlemen, and we'll 
begin the hearing. And thank you.
    The Senate Armed Services Committee meets this morning to 
consider the nominations of General Paul Selva to be the Vice 
Chairman of the Joint Chiefs of Staff and General Darren McDew 
to be the Commander of U.S. Transportation Command (TRANSCOM).
    We welcome you here this morning, as well as members of the 
Selva and McDew family. As is our tradition, at the beginning 
of your testimony, we welcome each of you to introduce the 
members of your family joining you this morning. We know the 
sacrifices your families make, and we're grateful to them for 
their continued support to our Nation.
    Please proceed, General Selva.
    General Selva. Senator McCain, I'd like to introduce you to 
my wife, Ricki, who's sitting right behind me. She's been with 
me for every day of my 35-year career. In fact, we are 
classmates from the U.S. Air Force Academy. She wore the 
uniform of our Air Force for 9 years. She's probably the only 
person in the world that can give me the kind of feedback I 
need when I stray from centerline. And she is a lifelong 
friend, and I love her for being by my side.
    Chairman McCain. Well, thank you, General. And welcome.
    General McDew.
    General McDew. You know, they trained me to do this, and 
the first thing I did was not do it.
    [Laughter.]
    Thank you, Mr. Chairman, Senator Reed.
    Behind me I have the folks that have been behind me for a 
long, long time. First, my beautiful wife, Evelyn, who's been 
with me for 40 years. We've been married for 31, we've known 
each other for 40. We have been blessed to have two children, 
who continue to grow our family. We have my favorite daughter, 
Keisha. We also have our son, Keith, our daughter-in-law, 
Becca, and the most wonderful human in the world, our grandson, 
Henry, who's 5 weeks old--5 months old this week. But, also 
behind me----
    Chairman McCain. Henry looks pretty healthy to me.
    [Laughter.]
    General McDew. And if he could just play, here, with my 
uniform, he'd be fine, but, otherwise, he'll probably sleep.
    We also have behind us a very close friend and colleague, 
Dr. William R. Sutherland. I call him ``my buddy, Bert.'' My 
buddy, Bert, has pinned on every rank since colonel, and he's 
been a colleague, a friend, and a mentor. And I thank all of 
them for being here today and as they've been along the way.
    Chairman McCain. Thank you. We are so pleased to see the 
families here today.
    General Selva and General McDew, you come before this 
committee today amid a sweeping transition in military 
leadership that will take place over the coming months. In 
addition to your nominations, this committee is currently 
considering the nominations of a new Chairman of the Joint 
Chiefs of Staff, new Service Chiefs for the Army, Navy, and 
Marine Corps, and potentially others in the near future. This 
team of military leaders will be soon--will soon be responsible 
for preparing our military to confront the most diverse and 
complex array of global crises since the end of World War II.
    The list of challenges for our national security is as 
daunting as it is drearily familiar: the rampage of ISIS 
[Islamic State of Iraq and Syria] terrorist army, Iran's 
pursuit of nuclear weapons and support for its destabilizing 
proxies, revisionist Russia's invasion of Ukraine, and China's 
continued military buildup and aggressive behavior towards its 
neighbors. And yet, while worldwide challenges like these grow, 
the Defense Department has grown larger but less capable, more 
complex but less innovative, and more proficient at defeating 
low-tech adversaries but more vulnerable to high-tech ones. And 
worse, the self-inflicted wounds of the Budget Control Act and 
sequestration-level defense spending have made all these 
problems worse.
    Over the past 4 years, we've seen drastic reductions to 
defense spending that have cut Army and Marine Corps end 
strength dangerously low and slowed critical modernization 
priorities across the Services, placing at risk our Nation's 
military technological superiority. At the same time, our 
military has maintained an accelerated operational tempo and, 
as a consequence, entered a dangerous downward spiral of 
military capacity and readiness that risk compromising each 
Service's ability to execute our defense strategic guidance at 
a time of accumulating danger to our national security.
    The current Chairman of the Joint Chiefs of Staff has 
stated that, even if the Defense Department receives the 
additional $38 billion above the budget caps that the 
President's defense budget requests, our military would still 
``remain at the lower ragged edge of manageable of risk in our 
ability to execute the defense strategy.'' More worrisome, 
every one of our military Service Chiefs has testified that 
continued sequestration-level defense spending puts American 
lives at greater risk. Unless we change course and return to 
strategy-driven defense budgets, I fear our military will 
confront depleted readiness, chronic modernization problems, 
and deteriorating morale. No matter how many dollars we spend, 
we won't be able to provide our military the equipment they 
need with a broken defense acquisition system that takes too 
long and costs too much. For example, an Army study looked at 
the time it would take to go through all of the AT&L 
[Acquision, Technology, and Logistics] reviews and buy nothing. 
What was the answer? Ten years. Ten years to buy nothing. Our 
adversaries are not shuffling paper, they're building weapon 
systems, and it's time for us to do the same.
    General Selva, if confirmed as the next Vice Chairman, in 
addition to your many responsibilities supporting the next 
Chairman, you would serve as the chairman of the Joint 
Requirements Oversight Council and an executive member of the 
Defense Acquisition Board. In these--in this combination of 
roles, you will have a critical role in the defense acquisition 
system, from identifying and approving joint requirements to 
assessing cost, schedule, and performance. Members of this 
committee will be very interested to hear your thoughts on 
acquisition reform. In particular, we will be interested to 
hear your views on how we fix blurred lines of accountability 
inside the defense acquisition system that allow its leaders to 
evade responsibility for results. This is the central problem 
this committee is trying to address in the acquisition reforms 
adopted in the Senate's defense authorization bill. There are 
diverse views on acquisition reform, but one thing is for sure: 
The status quo is unacceptable. And we need a Vice Chairman of 
the Joint Chiefs who recognizes that.
    General McDew, as the Commander of Air Mobility Command, 
you are well aware of the challenges facing TRANSCOM [United 
States Transportation Command] in projecting and sustaining 
forces around the world amid ongoing budget cuts. But, TRANSCOM 
isn't just providing capability to support other commands in 
confronting escalating global threats. Some of these threats 
are aimed at TRANSCOM itself. For example, just last year, this 
committee conducted an exhaustive investigation of the 
cyberthreats facing TRANSCOM. The report documented at least 20 
advanced cyberintrusions targeting TRANSCOM contractors, all 
attributed to China. That's because, according to the Pentagon, 
Chinese military analysts have identified logistics and 
mobilization as potential U.S. vulnerabilities, and their 
military doctrine advocates targeting these networks to impact 
our ability to operate during the early stages of conflict.
    Given TRANSCOM's dependence upon the private sector and the 
fact that the vast majority of their business is conducted on 
unclassified networks, there's still important work left to be 
done to enhance the Defense Department's ability to share 
information with its critical transportation contractors and 
assist them in detecting and mitigating cyberattacks.
    General Selva, General McDew, we thank you for--both for 
appearing before us today. We look forward to your testimony.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    Let me join you in welcoming General Selva and General 
McDew. Thank you for your service and for your sacrifice, and 
also for your families' service and sacrifice.
    Let me, too, welcome Ricki, and thank you, ma'am, for your 
service as well as your support.
    General McDew, your wife, Evelyn--Evelyn, hello--and Keisha 
and Keith and Becca and, the most important person here, who 
just left, Henry.
    I also want to commend Keith for his service in the Coast 
Guard. Thank you for your service.
    Finally, Dr. Sutherland, thank you for being here, also.
    The United States, as the Chairman indicated very astutely, 
faces challenges across the globe that are unprecedented in 
nature. And, if confirmed, you'll both be playing an important 
role in addressing these complex international issues.
    Last week, we had General Dunford before the committee, the 
designated-to-be Chairman of the Joint Chiefs of Staff, and he 
testified that the threats confronting the United States are 
multifaceted and varied, they include the campaign against ISIL 
[Islamic State of Iraq and Syria]; building local forces to 
counter ISIL; deterring additional Russian aggression toward 
Ukraine and its European neighbors; our rebalance to the Asia-
Pacific theater; and how best to address sequestration and the 
ongoing fiscal challenges of the Department. General Selva, if 
confirmed as Vice Chairman, you'll be working closely with 
General Dunford to address each of these issues. We're looking 
forward to your views on all the issues that I've mentioned and 
that the Chairman has mentioned.
    In addition, if confirmed, you will assume a number of 
distinct responsibilities as the Vice Chairman. In the past, 
the Vice Chair has been an integral participant in the 
interagency process, working closely with senior policymakers 
within the Department and at the National Security Council on 
critical national security issues. Additionally, the Vice 
Chairman oversees the Joint Retirement--Requirements Oversight 
Council, JROC, which is charged with reviewing requirements for 
acquisition programs to ensure they are reasonable and 
necessary. And finally, as a senior member of the Nuclear 
Weapons Council, the Vice Chairman plays a central role in 
ensuring the United States safely maintains its nuclear weapons 
stockpile. And I look forward to hearing more from you, General 
Selva, about how you'll prioritize and execute all these 
responsibilities as Vice Chairman.
    General McDew, you've been nominated to be Commander of 
TRANSCOM. It encompasses the Air Force's Mobility Command, the 
Navy's Military Sealift Command, and the Army's Surface 
Deployment and Distribution Command, and is really the backbone 
of our strategic mobility. And, for the past several years, 
TRANSCOM has played a critical role in supplying our operations 
in Iraq and Afghanistan, as well as bringing home our troops 
and equipment after deployments.
    Given the myriad of national security challenges facing the 
United States and the long-term effects of sequestration on our 
defense budget, we will certainly look to your views on the 
challenges TRANSCOM must tackle in this environment. And, as 
the Chairman indicated, one of those challenges is 
cyberintrusions. It will become more of a problem as the days 
go on, rather than less of a problem. And your views are 
absolutely critical, and your actions will be critical, going 
forward.
    So, Mr. Chairman, again, let me join you in welcoming our 
nominees and thanking them for their service.
    Chairman McCain. Thank you.
    I'd like to mention to the witnesses, we have standard 
questions that are asked of all military nominees. I would now 
like to read them to you.
    In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive 
testimony, briefings, and other communications of information. 
Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    [Both witnesses answered in the affirmative.]
    Do you agree, when asked, to give your personal views, even 
if those views differ from the administration in power?
    [Both witnesses answered in the affirmative.]
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process?
    [Both witnesses answered in the negative.]
    Will you ensure your staff complies with deadlines 
established for requested communications, including questions 
for the record in hearings?
    [Both witnesses answered in the affirmative.]
    Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    [Both witnesses answered in the affirmative.]
    Will those witnesses be protected from reprisal for their 
testimony or briefings?
    [Both witnesses answered in the affirmative.]
    Do you agree, if confirmed, to appear and testify, upon 
request, before this committee?
    [Both witnesses answered in the affirmative.]
    Do you agree to provide documents, including copies of 
electronic forms of communications, in a timely manner when 
requested by a duly-constituted committee, or to consult with 
the committee regarding the basis for any good-faith delay or 
denial in providing such documents?
    [Both witnesses answered in the affirmative.]
    Thank you very much.
    General Selva, and then General McDew, please proceed.

 STATEMENT OF GENERAL PAUL J. SELVA, USAF, NOMINEE TO BE VICE 
             CHAIRMAN OF THE JOINT CHIEFS OF STAFF

    General Selva. Thank you.
    Mr. Chairman, Ranking Member Reed, distinguished members of 
the Senate Armed Services Committee, it's a great honor to 
appear before you today as President Obama's nominee to become 
the Vice Chairman of the Joint Chiefs of Staff.
    First, I want to thank all of you for your undying support 
for our soldiers, sailors, airmen, marines, and coastguardsmen 
who guard our liberty every single day, specifically those who 
serve today in TRANSCOM.
    Leading the men and women of Transportation Command has 
been a distinct honor, and I have no doubt that they are 
representative of the servicemembers across our institution who 
are the best-trained, best-led, best-equipped, and most-capable 
military in the world.
    I would like to acknowledge and congratulate my close 
friend and colleague, General Darren McDew, testifying beside 
me today. I can think of no person more qualified to lead the 
men and women of TRANSCOM. I wish him and Evelyn the greatest 
of success, subject to your confirmation.
    If confirmed, I look forward to working with the senior 
leadership in the Department of Defense (DOD), the combatant 
commanders, our friends, allies, and partners around the world, 
key members of the executive branch and the interagency process 
and Members of Congress, including this committee, to address a 
wide spectrum of challenges confronting our Nation. We are 
increasingly at risk in space, across the networks of 
cyberspace, and face a cast of regional and near-peer 
competitors who are fielding increasingly sophisticated 
conventional and nuclear arsenals. While these threats 
represent a clear and present danger to our security, we 
continue to front--to confront violent extremists, such as 
ISIL, who shock the very core of our beliefs and threaten to 
further destabilize a very strategic reason--region that 
includes several of our key allies.
    Effectively confronting these threats, as diverse as they 
are, requires a whole-of-government approach. Our soldiers, 
sailors, airmen, marines, and coastguardsmen truly are the 
heart and soul of our competitive advantage, and they are far 
more effective when the full weight of our country's power is 
working in unison. If confirmed, I look forward to being an 
advocate for those men and women who wear the uniform of our 
Nation, and their civilian counterparts in our Department.
    Lastly, I want to say that I am humbled by the President's 
nomination and the Secretary's confidence in putting me before 
this committee as the nominee to be the Vice Chairman of the 
Joint Chiefs of Staff. I'm grateful for the opportunity to 
appear before you today, and look forward to working with you, 
subject to your confirmation.
    Thank you, Mr. Chairman.
    [The prepared statement of General Selva follows:]

              Prepared Statement by General Paul J. Selva.
    Thank you. Mr. Chairman, Ranking Member Reed, distinguished members 
of the Senate Armed Services Committee, it's a great honor to appear 
before you today as President Obama's nominee to become the vice 
chairman of the Joint Chiefs of Staff.
    First, I want to thank all of you for your undying support for our 
soldiers, sailors, airmen, Marines and Coast Guardsmen who guard our 
liberty every single day, specifically those who serve today in the 
United States Transportation Command.
    Leading the men and women of Transportation Command has been a 
distinct honor and I have no doubt that they are representative of the 
servicemembers across our institution who are the best trained, best 
led, best equipped and most capable military in the world.
    I would like to acknowledge and congratulate my close friend and 
colleague, General Darren McDew, testifying beside me today. I can 
think of no person more qualified to lead the men and women of the 
United States Transportation Command, and I wish him and Evelyn the 
greatest of success, subject to your confirmation.
    If confirmed, I look forward to working with the senior leadership 
in the Department of Defense, the combatant commanders, our friends, 
allies and partners around the world, key members of the Executive 
Branch and the interagency process and members of Congress, including 
this committee to address a wide spectrum of challenges confronting our 
nation.
    We are increasingly at risk in space, across the networks of 
cyberspace, and face a cast of regional and near-peer competitors who 
are fielding increasingly sophisticated conventional and nuclear 
arsenals. While these threats represent a clear and present danger to 
our security, we continue to fund--to confront violent extremists such 
as ISIL who shocked the very core of our beliefs and threatened to 
further destabilize a very strategic reason--region that include 
several of our key allies.
    Effectively confronting these threats, as diverse as they are, 
requires a whole of government approach. Our soldiers, sailors, airmen, 
Marines and Cost Guardsmen truly are the heart and soul of our 
competitive advantage, and they are far more effective when the full 
weight of our country's power is working in unison.
    If confirmed, I look forward to being an advocate for those men and 
women who wear the uniform of our Nation and their civilian 
counterparts in our department.
    Lastly, I want to say that I am humbled by the President's 
nomination and the Secretary's confidence in putting me before this 
committee as the nominee to be the vice chairman of the Joint Chiefs of 
Staff. I'm grateful for the opportunity to appear before you today and 
look forward to working with you, subject to your confirmation.
    Thank you, Chairman.

    Chairman McCain. Thank you.
    General McDew.

   STATEMENT OF GENERAL DARREN W. McDEW, USAF, NOMINEE TO BE 
             COMMANDER, U.S. TRANSPORTATION COMMAND

    General McDew. Thank you, Mr. Chairman, Ranking Member 
Reed, and distinguished members of the committee. It is, 
indeed, a great honor for me and my family to sit before you 
today.
    For 31 years, Evelyn and I have treated every single person 
that we've had the privilege to lead in our commands as an 
extension of our family. If confirmed, we look forward to 
welcoming the soldiers, sailors, airmen, marines, and 
coastguardsmen of Transportation Command to our extended 
family.
    Before I go any further, I also owe a debt of gratitude to 
my esteemed colleague, General Paul Selva, for his support of 
Air Mobility Command and his dedicated leadership of 
Transportation Command. I have no doubt that, if confirmed, 
General Selva's service as Vice Chairman of the Joint Chiefs 
will benefit our Nation.
    Members of the committee, thank you for your steadfast 
support of 118,000 men and women of Air Mobility Command. They 
are our Nation's finest. I hope I have the opportunity to tell 
you more about them during questioning.
    If confirmed, I am excited to continue working with the men 
and women of TRANSCOM--Active Duty, Guard, Reserve, and 
civilian, as well as the vast network of commercial carriers 
that support American forces worldwide. These unheralded 
professionals are the business end that project military power 
around the globe. I cannot overstate the importance of the 
often thankless work accomplished at TRANSCOM, and I am humbled 
to be considered to be their commander.
    Members of the committee, I am committed to working with 
you and other committees to ensure our servicemembers and 
civilians have everything needed to support and defend the 
United States of America. If confirmed, I will provide the 
leadership the men and women of Transportation Command expect 
and deserve. I appreciate the trust and confidence the 
President, the Secretary of Defense, and General Dempsey have 
placed in me by considering me for this position.
    I thank you, Mr. Chairman and the members of the committee, 
for continuing--for conducting this hearing. And I look forward 
to your questions.
    Chairman McCain. Well, thank you very much, General. Thank 
you.
    General Selva, we had a hearing with the prospective 
Chairman of the Joint Chiefs of staff a few days ago, as you 
know, and one of the many members--I believe it was Senator 
Manchin--asked the prospective Chairman of the Joint Chiefs, 
General Dunford, what he believed was the greatest threat that 
the United States faces in the world today. And, to the 
surprise of some, General Dunford responded: Russia. What is 
your opinion on that response to that question, General?
    General Selva. Thank you, Mr. Chairman. I would put the 
threats to this Nation in the following order: Russia, China, 
Iran, and North Korea, and all of the organizations that have 
grown around the ideology that was articulated by al-Qaeda 
early in the turn of this century. And that's not to say that 
each or any of those present a clear and present danger today. 
But, in that order, you see the countries that are peer and 
near-peer competitors who are developing conventional and 
nuclear weapons that match our own. You see opaque governments 
that have ideologies that we don't agree with. And you see the 
broad base of terrorist threats that might threaten our 
interests abroad, our--
    Chairman McCain. I got all that.
    General Selva.--abroad, and our Homeland.
    Chairman McCain. I got all that. What--your--you agree with 
General Dunford that the first would be Russia?
    General Selva. Yes, sir.
    Chairman McCain. Because?
    General Selva. Because Russia possesses the conventional 
and nuclear capability to be an existential threat to this 
Nation, should they choose to do so.
    Chairman McCain. And you place ISIS last of those four 
priorities?
    General Selva. Yes, sir, I do.
    Chairman McCain. Because?
    General Selva. Because right now ISIS does not present a 
clear and present threat to our homeland and to the existence 
of our Nation. It is a threat we must deal with, and we must 
help our regional partners deal with, but it does not threaten 
us at home.
    Chairman McCain. Does it threaten us at home when these 
young men who have gone to Iraq and Syria and become 
radicalized and then return to the United States, that the 
Director of the FBI and the Director of Homeland Security have 
said is a direct threat to the United States? That's their 
testimony.
    General Selva. Yes, sir. I would agree with their 
assessment. However, I would qualify it with the following. 
Those do not present an existential threat to the existence of 
the Nation. ISIL does not possess the tools or the capabilities 
to threaten the existence of the United States as we know it.
    Chairman McCain. I would like your and General McDew's 
comments and assessment of the effects of sequestration on our 
ability to defend the Nation, and its effect on the risk to the 
men and women who are serving, and the effect on their morale 
as they face this uncertainty that is dictated by 
sequestration. Beginning with you, General Selva.
    General Selva. Mr. Chairman, I think sequestration presents 
a direct threat to the morale of our soldiers, sailors, airmen, 
and marines, who deserve the best-maintained and best equipment 
available to fight the threats that face this Nation. And, as 
we see the effects of sequestration and the potential declines 
in the defense budget affecting readiness, they affect our 
ability to train those young men and women to do their work, 
they affect our ability to maintain and reset the equipment 
that they have been using for the better part of the last 
decade and a half in Iraq and Afghanistan, and they affect our 
ability to retain the best of those soldiers, sailors, airmen, 
and marines as they make the decision on whether or not they 
believe they have the full support of the Nation in the work 
that they do to defend our freedom and liberty every day.
    So, I do believe sequestration has readiness impacts, it 
has impacts on our ability to maintain the force, and it has 
impacts on our ability to sustain the morale of the men and 
women who have committed to defending our freedom and liberty 
around the world.
    Chairman McCain. The Overseas Contingency Operations (OCO) 
funding is a bandaid.
    General Selva. Sir, I believe the OCO funding is a 1-year 
incremental fix to a long-term problem that we all need to 
address together. And, if confirmed, I look forward to working 
with this administration, with this Congress, and with this 
committee, and others, to try and find a long-term solution to 
that problem.
    Chairman McCain. General McDew. First, the answer on the 
greatest threat, and then the second, if you would.
    General McDew. One of the greatest threats that faces our 
Nation is our ability to deal with the cyberthreat. I will 
separate it slightly from the other discussion that you were 
having with General Selva, and focus on one that impacts 
Transportation Command and our network more readily today, and 
that is our ability to figure out how we will continue to work 
with commercial industry that we're required to work with, and 
need to work with. Ninety percent of our work is done on the 
commercial networks, and that is a threat that I have got to 
face, going forward, if confirmed.
    Chairman McCain. It's an interesting perspective. So, right 
now there is the possibility that adversarial nations could 
shut down your business?
    General McDew. There is always that threat that adversarial 
nations could shut down our Nation. But, what I--and I think 
this is something that the entire Nation and a lot of folks in 
the whole-of-government----
    Chairman McCain. But, particularly, your ability to get 
things to the warfighters.
    General McDew. Senator, that threat is there. I believe 
that TRANSCOM has put some things in place to make that less 
likely. But, as we go forward, the threat only gets worse. Our 
ability to deal with it must evolve, and we have to find ways 
to do better with it, going forward.
    Chairman McCain. Thank you very much.
    Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Thank you both, gentlemen, for your testimony.
    And, General Selva, getting to one of your specific roles 
as Vice Chairman--that's the Council of--for the Command and 
Control--National Leadership Command and Control Council of 
Nuclear Weapons--can you comment about that? It appears that 
this issue, particularly over the last several years with our 
land-based forces, has become even more prominent with respect 
to not just aging infrastructure, but leadership issues, a 
whole host of issues. Can you just comment upon how you 
perceive your role and what you will do?
    General Selva. Senator, I believe the statutory roles that 
are defined for the Vice Chairman with respect to management of 
the Nuclear Weapons stockpile, the Nuclear Leadership Command 
and Control Network, as well as the National Deterrence 
Oversight Panel, are fairly clear. They require me to be able 
to assert with confidence that we have a safe, secure, and 
reliable arsenal that is connected to our leadership by a 
reliable, secure, and resilient command-and-control network, 
and that that puts the President of the United States, as the 
authority for use of those weapons, in direct control of the 
decisions that would accrue to our nuclear weapons inventory. 
And so, I look forward to working with this committee, if 
confirmed, to make sure that all the legs of our nuclear triad 
and all of the capabilities that make our nuclear deterrent 
believable and ready are in place to give us that capability.
    Senator Reed. Looking forward, there's going to have to be 
a significant recapitalization of the nuclear enterprise, both 
land, air, and sea bases. Do you think we're fully prepared for 
that, in terms of--particularly in terms of the issues the 
Chairman raised about sequestration and these budgets?
    General Selva. Senator Reed, I've only been recently 
studying the issues that accrue to the nuclear weapons 
enterprise as it relates to the nominations for this new 
position. To be honest, I haven't had the time to look at all 
of the detail that would be required to answer that question. I 
would look forward to answering it in a classified environment 
with a lot more detail.
    Senator Reed. But, I would assume your initial impression 
is that we have a big bill to pay, going forward, to maintain 
our current strategic dominance.
    General Selva. Yes, sir. My understanding is that the 
current weapons stockpile and the current delivery platforms 
require significant maintenance and upgrades. But, I'm also 
aware of the requirement to invest in the long-range strike 
bomber, the Ohio-class replacement, and potentially a follow-on 
intercontinental ballistic missile, to keep all three legs of 
our nuclear triad viable.
    Senator Reed. Let me switch gears, General McDew. You've 
really, I think, in your questions with the Chairman and your 
opening statement, put your finger on the cyber issue. It seems 
to me that that's the first stage of any conflict today, which 
would be a cyberattack. In fact, it's unclear when you cross 
the line into something that's a probing action or an act of 
war. Not only do you have to maintain the infrastructure of 
DOD, but you have numerous contractors. Can you comment on the 
challenge that you have with some of your contractors to 
maintain their cybersecurity, and the steps you're taking to 
ensure that, if they were compromised, it wouldn't cascade into 
your system?
    General McDew. Senator, I am beginning to understand the 
vastness of the network. I am more familiar with the Air 
Mobility Command portion and its contractors. However, in some 
of the study that I've done so far, which has not been in great 
depth, I see that TRANSCOM has put some things in place in 
their contracting system to allow the contractor to show 
assuredness of their network and to provide for requirements to 
report intrusions in their network. Those are, I think, very 
beneficial. I think, if confirmed, I will want to look deeper 
into that and to see where we can strengthen those places where 
we can.
    Senator Reed. Thank you.
    General Selva, a final question. And just--you will also, 
as the JROC Chair, have a great deal to do about acquisition 
policy. Can you--general comments about the efforts underway to 
engage the Services more actively in acquisition?
    General Selva. Senator, I'm aware that there is an active 
effort inside the Joint Requirements Oversight Council to 
reinvigorate the relationship with the stakeholders who bring 
requirements to the table, and to look at the authorities and 
responsibilities for actually delivering the military 
capabilities as an outcome. If confirmed, I look forward to 
working with that body and with this committee as we continue 
the process of looking at the duplication of effort that might 
exist across the enterprise, and to come back to you with any 
potential legislative proposals that might be required to 
remove requirements that are currently articulated in statute. 
That is the extent to which I've studied that process.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me mention something that's not very often talked 
about. I have briefly mentioned it to each one of you. The fact 
that the airlines are anticipating hiring about 20,000 pilots 
over the next 7 years due to the mandated retirement age of 65. 
In fact, I authored the amendment that raised it from 60 to 65. 
Maybe we should have put it at 70. It would have maybe put off 
that problem. But, it is a serious thing. RAND [Research and 
Development Corporation] did a release--a study that the 
airlines have an average of 2,000 per year over the next 10 
years, and that they will be upwards of 5,000 after that. That 
compares, over the last 10 years, to 1,500. So, this is 
something that's out there. And it's something that we--first 
of all, I'd like to ask each one of you, consider this a 
problem, do you have any ideas right now that might help 
alleviate it?
    General Selva. Senator, the problem of pilot inventory in 
this Nation, I believe, is going to become a readiness issue 
over time. It's--it is not upon us, but it is approaching 
quickly.
    Three dynamics play out that cause that to happen. First is 
the exponential expansion of the airline industry, 
internationally, which places a huge demand on the pilot 
inventory in the United States as the preference to have an 
English-speaking pilot in the cockpits is internationally 
known. The second, as you mentioned, is the approaching age of 
retirement for many of our pilots. The third is the decline in 
production of military pilots that are a preference across the 
network. And so, each of those three will conspire over time to 
place heavier demands by the industry on the military inventory 
of pilots that are their preference.
    And so, working with the airlines on innovative ways to 
bring civilian-educated pilots out of our higher learning 
institutions directly into commercial air service is one of the 
initiatives that we've begun working with the airline industry.
    Senator Inhofe. Well, yes. I understand. This is not--right 
now, we're putting out the fires that are burning today, but 
this is something that we know is coming. I've talked to 
General Welsh about this several times, and he agrees that the 
logical place for them to go is going to be going to the 
military. We spend the money training them. The--I guess, the 
cost of getting a pilot to an F-22 capability is about $9 
million. And so, this is a huge issue that's--it's--I'd suggest 
it's here. Any further thoughts on that, General McDew?
    General McDew. Senator, the one thing I would add is that, 
although the numbers don't say that it's here with us today, 
the discussion is in our cockpits today. There is not a pilot 
that serves anywhere in any capacity across our Nation that 
doesn't understand--
    Senator Inhofe. But----
    General McDew.--the demand.
    Senator Inhofe. Yes. We tried something a year ago, when we 
stood down 17 combat-coded squadrons. That was supposed to be 
til the end of the year, which would have been 6 months. Then, 
3 months later, they changed their mind and then stood them up 
again. It's my understanding that that actually costs more than 
what was saved during that 3-month period. I don't--I'm not 
asking you if you were aware of that, but, nonetheless, it's 
something I believe.
    I--let me throw out three ideas here and just have you, 
maybe for the record, comment on each one of them.
    First of all, the idea the--of the cost of the training, $9 
million to get a pilot up to that--those standards, and the 
fact that, with their aviation bonuses over the next 9 years 
amount to $225,000. So, those are two things that we have to 
face as a reality.
    The second thing that, to me, from my personal 
conversations with pilots, is the fact that they're not flying 
the sorties that they were flying before. They want to fly. And 
it used to average about six sorties a week, and now it's down 
to about three, from what we've found out. And then the 
additional duties, since we've downsized, a lot of the pilots 
are doing things that were heretofore not done by pilots.
    So, on those three issues, any comments you want to make 
now are fine, but why don't you--for the record, if the two of 
you would respond to those as problems that are there.
    [The information referred to follows:]

    Senator Inhofe. What are we doing to address the upcoming pilot 
shortage--both within DOD and outside DOD?
    General Selva and General McDew. In 2014, the AF stood up a Total 
Force Aircrew Management division to seek efficiencies and ways to 
better utilize Active Duty, Air National Guard and AF Reserve aircrew. 
Additionally, the Air Force developed the Total Force Aircrew 
Management Amplified Affiliation Program, which was implemented in 
March 2015 to encourage separating pilots to affiliate with the ANG and 
AF Reserve.
    Working outside of the DOD, the Air Force developed the National 
Pilot Sourcing Forum (NSPF) to foster collaboration between the Total 
Force and Major Airlines on a quarterly basis. This Forum works to find 
ways to best utilize this ``National Asset'' from recruitment to 
production through retirement.
    Senator Inhofe. What factors will lead to pilots departing the 
service--pay, training, flying hours, deployments, family, etc.?
    General Selva and General McDew. Pilots leave the service for many 
of the same reasons as other career fields. One of the biggest reasons 
we see them leaving today is the increased OPTEMPO of a smaller force. 
As the administrative and personnel functions of the military have been 
reduced, increased additional duties and non-flying duties have been 
added. More non-flying duties coupled with insufficient flying/training 
opportunities and increased deployments (which restrict training to all 
mission sets) make job satisfaction and quality of life reduced. 
Finally, the outside active duty opportunities are growing every day to 
include flying for the airlines.
    Senator Inhofe. Are bonuses enough to keep our pilots in our 
military?
    General Selva and General McDew. No. Bonuses alone are not enough. 
The Aviator Bonus has historically proven to be an effective tool to 
assist with pilot retention, but monetary compensation is not the only 
factor for separating from the military. The new dynamics of increased 
OPSTEMPO, manpower shortages, an improving economy, and major airline 
hiring, all influence servicemember retention decisions. Current bonus 
caps also restrict the services from increasing incentives, which 
limits flexibility in reducing the influence of greater compensation 
outside of the service. Bonuses themselves are not a sole solution, but 
can reduce some of the causal factors for separation.
    Senator Inhofe. How do the flying hours our pilots are getting 
today compare a decade ago? How do they compare with our Allies and 
adversaries?
    General Selva and General McDew. The United States Air Force 
currently flies approximately 2.0 million flying hours per year, 
including all training and operational missions. However, these flying 
hours vary a great deal depending on weapon system type, pilot end-
strength, numbers of squadrons/aircraft, and operations tempo.
    In fiscal year 2004, the Total Force ``peacetime training hours'' 
were programmed at 1.7 million flying hours. The same Total Force 
``peacetime training hours'' in fiscal year 2014 were programmed at 1.2 
million flying hours.
    The table below provides a breakdown of these averages by requested 
weapon system type and provides the average of annual flying hours per 
pilot from fiscal year 2004 and fiscal year 2014:

 
------------------------------------------------------------------------
                                                  FY04          FY14
------------------------------------------------------------------------
        Mobility:                                     360           230
        Tanker:                                       405           200
        Bombers:                                      200           225
        Fighters:                                     205           160
------------------------------------------------------------------------


Current Average Flying Hours per Pilot USAF:
    Average 223
European Allies:
    Average 183
Russia:
    Average 120
China:
    Average 110

    Senator Inhofe. Are our pilots getting enough flight hours and 
training to remain fully combat ready in all the mission areas?
    General Selva and General McDew. Yes. There are many factors that 
influence a pilot being fully combat ready. Our peace time flight hours 
are designed to provide training opportunities to achieve full spectrum 
readiness, while deployed contingency flying may provide only a partial 
opportunity to train to the designed capability of the weapon system 
and crew. A balance of training opportunities, and adequate resources, 
in relation to peacetime and contingency flying is necessary for the 
Air Force to improve readiness.
    Senator Inhofe. Are you also going to have issues with aircraft 
maintenance manning shortfalls?
    General Selva and General McDew. The United States Air Force 
requires approximately 3,000 additional maintainers to meet readiness 
requirements based on current force structure projections. Retention of 
legacy aircraft is driving additive maintenance manpower requirements 
to beddown the F-35 and support legacy maintenance shortfalls. F-35 
Phase I Manning Plan meets Initial Operational Capability requirements; 
however, subsequent F-35 growth (new unit standups) are at risk. 
Additive force structure requirements vice unit conversions compound 
the challenge of providing experienced maintainers to meet F-35 and 
legacy maintenance manning requirements.
    Completed actions to date to alleviate the maintenance manning 
shortfall include:

    <bullet>  Moved 39 Active Association Active Duty (AD) maintenance 
personnel to F-35 bases.
    <bullet>  Transferred 18 A-10s to Backup Aircraft Inventory, 
enabling 130 A-10 maintenance personnel to move to F-35 bases.
    <bullet>  Established 2-year contract maintenance for F-35 Aircraft 
Maintenance Unit (AMU) at Luke AFB.
    <bullet>  Converting F-16 maintainers to F-35 at Hill AFB, UT in 
fiscal year 2015/2016.

    Then the last thing I wanted to mention is--General McDew, 
in your written testimony, you talked about infrastructure 
shortfalls, and you didn't say anything about that in your 
abbreviated testimony. Is there anything you want to mention 
about the infrastructure problems that we're having right now?
    General McDew. Senator, I have to get a little bit more 
depth, but one of the concerns I have is the ability to 
recapitalize the infrastructure, both on the sea, air, and 
land. There are considerable things that will need to be 
addressed over the next 5 to 10 years that will be problematic 
if we hit sequestration as we know it.
    [The information referred to follows:]

    I am aware of several infrastructure issues that could impact 
TRANSCOM, and if confirmed, I will continue efforts across the 
Combatant Commands, the Services, other agencies as applicable, and 
industry to find long term solutions.
    In terms of port infrastructure, my biggest concern is Military 
Ocean Terminal--Concord (MOTCO). As the main strategic seaport for 
shipping ammunition to the Pacific Command (PACOM) area of 
responsibility (AOR), no other port on the West Coast can meet MOTCO's 
ammunition throughput capacity. Much of MOTCO's infrastructure dates 
back to World War II. Although substantial funding has been programmed 
to address major deficiencies, additional infrastructure projects are 
still needed to address remaining deferred maintenance issues and 
maintain operational readiness.
    Additionally, while en route infrastructure has improved over the 
last few years, there remain key infrastructure shortfalls in the 
European Command (EUCOM) and PACOM AOR which could hinder strategic 
mobility operations. My intent is to advance efforts underway to 
highlight these shortfalls in the posture planning efforts and 
budgetary processes in order to enhance the ability to rapidly respond 
globally.
    I am also concerned with continuation of aircraft modernization 
efforts to replace aging components in the existing organic fleet. The 
vast majority of the air refueling fleet is over 50 years old and 
vulnerable to potential fleet wide maintenance issues due to aging. 
Bringing the new KC-46 on line as scheduled is essential to help 
mitigate this vulnerability.
    With respect to sealift, the Ready Reserve Force (RRF), the key 
first response strategic sealift component for moving U.S. Army and 
U.S. Marine Corps units to the fight, must also remain ready to meet 
the needs of Geographic Combatant Commands. As 1.6 million square feet 
of RRF roll-on/roll-off capacity ages out of service in the next 10 
years, an executable recapitalization plan must be in place to ensure 
long-term viability of surge sealift.
    DOD uses a combination of self-deployment, trucks, and rail to get 
equipment to ports of embarkation. The primary issue with surface moves 
supporting full scale deployment operation is a large portion of the 
current fleet of commercial chain tie-down railcars is facing age-
mandated retirement before 2020.
    Finally, one of the greatest challenges to our Nation is the 
existing cyber threat to logistics and mobility systems including 
supporting infrastructure. The ever present risk posed by our 
cybersecurity vulnerabilities across this complex and interdependent 
enterprise requires responsive, reliable and resilient joint deployment 
and distribution command and control capabilities. These essential 
capabilities enable TRANSCOM the freedom to operate as needed on all 
networks across the joint deployment and distribution enterprise to 
meet mission objectives.

    Senator Inhofe. Yes. Appreciate that very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    General Selva and your family, thank you very much. General 
McDew and your family, thank you very much. Both of you are 
very lucky guys to have such wonderful families.
    General Selva, last week a new study showed that suicide 
attempts are most common in the newest enlisted soldiers who 
have never been deployed. In June, the Los Angeles Times 
brought attention to an unbelievable statistic. For women ages 
18 to 29, women veterans have committed suicide at a rate 
nearly 12 times the rate of women non-veterans of the same age. 
And so, this--these are folks who were Active Duty not too long 
before that time. And I want to know, if you're confirms, will 
you prioritize mental health as a critical readiness issue?
    General Selva. I will, Senator, and I look forward to 
working with this committee to make sure that we have the 
mental health providers that are available to our soldiers, 
sailors, airmen, and marines, particularly those in crisis. So, 
subject to your confirmation, I commit to doing so.
    Senator Donnelly. And how will you work to reach female 
servicemembers who face unique stressors, as well as also young 
enlisted troops who confront and worry about things like stigma 
regarding mental health care?
    General Selva. Senator, I believe that there should be no 
stigma attached to a soldier, sailor, airmen, or marine who has 
the courage to seek mental health care when they're in crisis. 
I will do everything in my power, in this job and any other 
job, to make sure that we try to remove that stigma from our 
military.
    Senator Donnelly. Okay. I would also encourage you to keep 
in mind some of the unique challenges that our female 
servicemembers face every single day.
    In regards to what Senator McCain said before about General 
Dunford's testimony regarding Russia as perhaps the most 
dangerous threat to our country, there's recent reports that 
just came out about a directed energy weapon they've developed. 
This is incredibly troubling. It can disable sophisticated 
guidance systems, navigation systems, communications systems. 
And I was wondering if there has been any discussion as to how 
to counter this threat at this time?
    General Selva. Sir, in the position I hold at TRANSCOM, I'm 
not aware of any conversations, but I will endeavor, if 
confirmed, to get briefed up on any----
    Senator Donnelly. If you could, that would be very, very 
helpful, because it, from the description, seems to be an 
incredibly troubling and dangerous weapon that is being worked 
on right now.
    Second is--and you're with Transportation Command--but, 
second is in regards to North Korea. I was recently there, 
and--not in North Korea, but in South Korea--met with the 
leadership there and met with some of the leaders in China to 
talk about this threat. And I'd like to get your perspective of 
how you assess that threat from North Korea, and what plans 
you're aware of right now to deal with it.
    General Selva. Senator, North Korea represents one of those 
opaque governments that we have very little visibility into. 
So, assessing the intentions of the North Korean government is 
something that requires a very careful intelligence analysis of 
what we can learn about the country. If confirmed, I look 
forward to working with the Office of Defense Intelligence, as 
well as the interagency and the Intelligence Community, to try 
to unpack the threat that is North Korea, not only from a 
perspective of their capabilities, but of their intentions.
    Senator Donnelly. General McDew, I was in Iraq a few weeks 
ago with a group led by Senator Kaine, who's sitting next to 
me. And one of the things we talked about was with some Sunni 
tribal leaders. And one of them was from Haditha. And he said 
that his city was surrounded, at the present time, by ISIS, 
that many of the people who live there were eating grass 
because there is no food coming in, that babies were not able 
to get milk, and that the population was in an extraordinarily 
dire situation. We had discussed with the military there about 
having an airlift come in to Haditha. It was mentioned, in 
testimony here about a week or so ago by one of the witnesses, 
that, ``Well, the Iraqi air force has the ability to put a C-
130 in there, but they have not.'' And you will be in TRANSCOM. 
And so, I would ask you to take a look at this particular 
problem. I would love to discuss it further with you in the 
next few days. But, we have people who are starving, in effect, 
and we have the ability to try to do something about it.
    Last, I would like to mention to you, General McDew, about 
the breach that we saw at OPM [the Office of Personnel 
Management]. It began in May 2014 with hackers using a 
contractor's compromised username and password. And you had 
mentioned about working with our commercial partners and 
civilian partners. I think it's critical, in your position 
coming up, to make sure to work with them to harden their 
networks, to harden their abilities. And I was wondering if you 
could talk to me a little bit about appropriate measures you 
think we need to take, moving forward.
    General McDew. Senator, if confirmed, I will do all the 
things that you suggest. It is a threat that we must deal with. 
And I believe TRANSCOM has done some things to date that are 
foundational. We would just try to extend those and strengthen 
them.
    Senator Donnelly. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    General Selva, as you know, the Department is currently 
building a cyber mission force of about 6,000. Overall, how do 
you measure things like readiness or force structure adequacy 
when we're largely unable to do those conventional net 
assessments of our adversaries' capabilities?
    General Selva. Senator, I think the first measure of our 
readiness in the cyberdomain is our ability to defend the 
networks that allow us to provide command and control of our 
military. And, as a result of that work, the cyber mission 
teams and the cyber protection teams have been put in place to 
protect those networks that our combatant commanders depend on 
to execute command and control over their fielded forces.
    I think three things have to accrue to cyber on a broader 
sense. The first is our ability to attribute whether or not the 
cyberintrusion is criminal activity, amateur hackers, or 
sponsored nation-state activity, because that then will 
condition the response of the Nation. Will we respond to the 
Nation-state, will we respond to the criminal threat, or will 
we respond to the amateur hacker? And I think that will 
ultimately be the measure of the wisdom of how we have put 
together the cyberprotection teams on the cyber mission force.
    Putting a number of 6,000 against it may or may not be the 
right measure. If confirmed, I look forward to working with 
Admiral Mike Rogers, in his roles in the National Security 
Agency as well as U.S. Cyber Command, to try to get to that 
definition and continue to advocate the capability that will 
allow us to defend our cybernetworks.
    Senator Fischer. And as you look at those different threats 
and the sources of the--those different threats, how are you 
willing to step forward, I guess, to look at developing a 
policy in what our response should be to each of those threats? 
And again, when you look at the size of the force, with 6,000, 
do you differentiate within that cyber mission force the 
direction that each of those members will take once the threat 
is identified, the source of that threat is identified?
    General Selva. Senator, I think----
    Senator Fischer. But, my real question is, What are we 
going to do with policy?
    General Selva. Senator, that was exactly where I was 
headed, which is, in the absence of statutes that define the 
responsibilities and authorities of our law enforcement 
agencies and our military capability to react in cyber, we run 
into those policy questions as a consequence of the nature of 
the threat. And so, I think one of the more powerful things we 
can do is to put the power of statute behind those authorities 
and responsibilities so that we can define the lanes in the 
road and allow law enforcement to work those issues that are 
uniquely law enforcement, and allow the military to respond to 
those military threats that emerge in cyber. And I look forward 
to be--to working with the committee on those kinds of policies 
as we move forward on this issue.
    Senator Fischer. I look forward to working with you on 
those issues, as well, because I think cybersecurity in all 
realms is a priority of this country, and should be, and we 
need to take action on it.
    When General Rodriguez stated that Libya-based threats to 
the U.S. interests are growing and that Libya is emerging as a 
safe haven where terrorists are able to train, where they're 
able to rebuild with impunity, I think all of us on the panel 
realize that was the case, but my question to you is, Do you 
think that we are doing enough to prevent those terrorist 
groups from establishing these safe havens in Libya? And, down 
the road, what are the lessons that we've learned from our 
experiences in Syria with regards to what is now happening in 
Libya?
    General Selva. Senator, I'm aware of the work we're doing 
with our allies, partners, and friends across all of North 
Africa to look at the growing threat from al Qaeda and al 
Qaeda-related terrorist organizations. I have not had an 
opportunity to dive into some of other issues that are going on 
right now in the ungoverned regions in Libya, specifically. 
But, I think the lesson of the last decade and a half is, in 
areas that are poorly governed or ungoverned, those radical 
elements are given the freedom to develop their violent 
capabilities and to inflict damage on U.S. interests and our 
citizens abroad. And the extent to which those areas are left 
ungoverned, they have the freedom to do that. So, I look 
forward to working with Dave Rodriguez and his team in AFRICOM 
[United States Africa Command], and Congress and the committee, 
to look at opportunities to continue to counter those threats 
across North Africa.
    Senator Fischer. When we look at the time that we've 
watched Syria fall into chaos and again become a training 
ground for terrorists, and we compare that to what's happening 
in Libya, though, what--at what point do you say, ``Enough. 
This is--it is time now for the United States to step 
forward?'' What have we learned in Syria?
    General Selva. Senator, I think the policy of the United 
States is an issue that we ought to discuss about our position 
in the--in regards to all of the parties that are fighting in 
Syria. And we have to make a decision. And that decision 
shouldn't be the consequence of one person's opinion, but the 
collected opinions of the people who have studied the area. And 
so, I worry a little bit that we not jump to a conclusion on 
what the best outcome would be for Syria, that--but we take a 
reasoned approach to our national interests in the region and 
to the stability of the region, writ large, with respect to all 
of the parties that are now fighting in Syria.
    Senator Fischer. I know you served at SAC [Strategic Air 
Command], and you've recently been at STRATCOM [United States 
Strategic Command]. I welcome you back anytime so we can 
continue our discussion on the need for modernization of our 
triad.
    General Selva. Thank you, Senator.
    Senator Fischer. Thank you, sir.
    Chairman McCain. Senator Selva, the conflict in Syria has 
been going on for 4 years.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    And thank you to our witnesses. Congratulations on your 
nominations.
    Just to pick up on Senator Fischer, I also agree that the 
policies around cyber is really important for us to continue to 
dialogue about. We had testimony within the last year, I think 
it was from Admiral Rogers--it was somebody connected with 
Cyber Command--and the testimony was, with respect to a 
particular cyberattack, if there was this kind of cyberattack, 
it could lead to war. And so, my followup question is, Well, so 
then a cyberattack, in and of itself, is not war? It's some 
prewar kind of an attack? And then the answer to that was 
pretty hazy. I have been on this committee for 2\1/2\ years 
now. I don't really have an understanding for what our 
cyberstrategy is. Do we have a line by which we would say a 
cyberattack constitutes war? Do we have a clear doctrine for 
the kind of response that we should make to cyberattack? What 
is the policy with respect to cyberdeterrence, cyberdefense, 
and then offensive use of cyber so that--this is not really 
sort of TRANSCOM. I'm not directing a question to you. But, 
it's more to colleagues on the committee. I think we need to 
educate ourselves more and challenge our military brass to 
understand what the current dimension of cyberstrategy is. I 
appreciate Senator Fischer's questions in that regard.
    A compliment to each of you with respect to TRANSCOM. I 
think TRANSCOM is a great example of integration. I mean, 
TRANSCOM is cross-service. It is public and private. You 
probably do as good a job of--at balancing Active, Reserve, and 
Guard as any of the components of the military. Senator 
Donnelly and I were in Iraq, and the folks flying us around in 
C-130s were--I think they were Pennsylvania air reservists on a 
4-month stint. And that's pretty common. I hope that, in your 
new role, General McDew, as the head of TRANSCOM, and General 
Selva, taking that lesson from TRANSCOM to the Vice position 
with the Joint Chiefs, I hope you'll take that--the lessons of 
that kind of integration--public/private, cross-service, Guard/
Active/Reserve--and spread how that can be done more generally 
throughout the DOD [Department of Defense]. If you want to just 
comment upon that, I'd love to hear what you have to say.
    General Selva. Senator, I appreciate the compliment to 
TRANSCOM. It is true that the Command absolutely depends on the 
total force and the contribution of our commercial partners to 
our strategic lift around the world. If confirmed for the job 
as Vice Chairman, I look forward to bringing some of those 
lessons into the Joint Staff and into the interagency. And I 
look forward to working with this committee and finding ways to 
make that possible.
    Senator Kaine. General McDew?
    General McDew. If you allow me, Senator, just to brag on 
the men and women of the--my current command, Air Mobility 
Command, they do it better than anyone, because they've lived 
through this together since 1968. We have had these bonds and 
these alliances and--with the Guard and Reserve--and we cannot 
operate without them.
    Senator Kaine. General Selva, the military leadership at 
the Pentagon that gets over the finish line on audited 
financial statements, they'll have a star put on the sidewalk 
up here. I hope that you're going to be part of the team that 
gets us there. We've got a 2017 date by which we're supposed to 
be there. This is a question that Senator Manchin has been a 
real bird-dog about, always asking about it. Talk to us about 
the status of the move toward audited financial statements for 
the Department of Defense (DOD). Because it sure makes it a lot 
easier for us to advocate, for example, about sequester relief 
if we know that we are on a path to be able to do that.
    General Selva. Senator, from my position at TRANSCOM, we 
are one of the combatant commands that will have to assert our 
audit readiness as a consequence of managing a working capital 
fund that moves all of our equipment and personnel around the 
world. From that perspective, I can tell you, we're making 
significant progress towards audit readiness: towards being 
able to account for every dollar that we spend.
    Across the Department, I'm going to need some time to take 
a look at where each of the individual Services are, but I will 
continue to be an advocate, across the enterprise, that we be 
prepared for our audit readiness deadline of October 2017. If 
confirmed, I look forward to working with all of the Service 
Chiefs and Secretaries to make that happen.
    Senator Kaine. Thank you.
    And just one last comment. I think we're about 24 hours 
into the Ramadi campaign in Iraq, and it's going to be a real 
test of the training and the work we've done with the Iraqi 
military and Sunni leaders in the last year, the success of 
this campaign. And I just know that we're all thinking about 
that and monitoring the success of that mission carefully.
    Thank you for your service.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, thank you both for your service. Thank you also 
to your families for their backing of you, and their sacrifice. 
It is greatly appreciated, and it does not go unnoticed.
    Let me just begin. I find it interesting that both of you 
have--or that you have identified, General Selva, in your 
opening comments or in response to the Chairman, the list of 
where you see our greatest threats. I'm just going to identify 
that, in the new national military strategy, General Martin 
Dempsey, current Chairman, describes the need to counter 
revisionist states that threaten international peace and 
security. The strategy identifies Russia, China, Iran, and 
North Korea as the four principal revisionist states. General 
Dempsey also writes that the U.S. military advantage has begun 
to erode and that future conflicts will come more rapidly, last 
longer, and take place on a more technically challenging 
battlefield.
    In which areas--General Selva, in which areas has the U.S. 
military advantage begun to erode, if you agree with his 
statement? Where would you recommend that DOD focus its 
investments in response to this erosion?
    General Selva. Senator, I think there are four principal 
areas where that erosion has started to take place. The first 
is space. Up until the turn of this decade, the United States 
had pretty much dominance in space. That's no longer true. 
Across the networks of cyberspace, we see intruders and nation-
states acting to counter our capability to provide the command 
and control for our military that gives us the speed of 
decision on the modern battlefield. Then, I'd--it wouldn't be 
fair not to highlight the fact that our opponents are look--and 
our potential adversaries are looking for asymmetries across 
our conventional and nuclear capabilities. As they detect and 
act against those asymmetries, they erode the capability that 
we have within our current force structure to react to threats 
that might emerge.
    So, I would place the four in about that order.
    Senator Rounds. Okay.
    General McDew, you identified cyber as being an item of 
major concern. I agree with your assessment. I'm just curious, 
though, it--with regard to whether we're talking about policy 
or as we talk about statutory assistance, if you've looked at, 
and you've begun, the process, where do you see the most 
important statutory changes, if any, that DOD would be required 
to make recommendations with regard to cyber capabilities and 
operations? Are there specific statutes that you've identified 
yet in your review?
    General McDew. Senator, I have not had that level of depth 
to have specific statutes. But, if confirmed, I will endeavor 
to do so.
    Senator Rounds. General Selva?
    General Selva. Senator, the only area that, as the TRANSCOM 
commander, that I looked for increasing capabilities is the 
ability--having looked into contract law and the imposition of 
specific requirements for reporting on intrusions to work 
across the interagency, to make sure that any location, any 
organization that received a notification of an intrusion into 
a commercial or military network had an affirmative obligation 
to report that intrusion so that we could defend the networks 
that make us successful. That authority is tied up in a variety 
of statutes that prevent agencies from speaking to each other 
clearly across law enforcement and the military.
    Beyond that, I have not spent the time and effort yet to 
work with Admiral Rodgers at Cyber Command to look at the 
broader national issue of cyberdefense.
    Senator Rounds. Okay.
    You identified, as one of those four existential threats, 
the country of Iran. In your view, is Iran still the leading 
state sponsor of terror?
    General Selva. Yes, sir, they are.
    With the proposed nuclear treaty or nuclear agreement which 
was announced this morning, if Iran is provided economic 
sanctions relief, do you believe Tehran would use some of these 
funds to enhance its military capabilities in support for 
terrorist organizations?
    General Selva. Senator, I haven't yet had the opportunity 
to study the entire agreement, but, on its face, what I've 
heard from the press, the immediate lifting of sanctions or the 
sequential lifting of sanctions will give Iran the access to 
more economic assets with which to sponsor state terrorism, 
should they choose to do so. And I think we need to be alert to 
that possibility. And, as the military, we have an obligation 
to provide the President with a full range of options to 
respond. So, if confirmed, I look forward to working with the 
Department to examine those issues more deeply.
    Senator Rounds. How do you respond to any additional 
Iranian aggression that may be forthcoming with their 
additional capabilities for procuring weapons?
    General Selva. Senator, absent the actual context of that 
specific intervention and that specific sponsorship of 
terrorism or other malign activities, it's difficult me--for me 
to actually give you an answer to that question, other than to 
say we need to have a range of available options with which to 
respond, whether it's militarily, diplomatically, economically, 
or otherwise.
    Senator Rounds. But, you clearly recognize that the 
additional threat would now exist.
    General Selva. Absolutely.
    Senator Rounds. Thank you, sir.
    Chairman McCain. Senator Manchin.
    Senator Manchin. Thank you very much, Mr. Chairman.
    And thanks, both of you all, for your service. And also, 
congratulations on your nominations. And I'm looking forward to 
working with you in the future.
    Let me just say--and maybe, General Selva, if I may ask 
this question, because I think both of you have answered, and 
General Dunford answered the question I asked last week and 
Senator McCain just asked again--the greatest threat--and I 
think you all identified Russia--is that opinion held by most 
of our military higher echelon, if you will?
    General Selva. Senator, I believe it is, but I would 
actually quote an article I read early this morning from Dr. 
Andy Krepinevich. A quote in the article said that, over the 
better part of the last decade and a half, and in the years 
that preceded it, this Nation was able to look at the threats 
to our security through a periscope. And today we find 
ourselves having to analyze them through a kaleidoscope. And 
so, as each facet of the threat becomes apparent to us, we have 
to have the capability to react. And so, my reaction to the 
four major threats to the security of the United States comes 
from a military perspective. I'm not necessarily indicating 
that any of those states has a current intent to attack the 
United States.
    Senator Manchin. Sure.
    General Selva. But, all of them have the capability. And 
so, we need to be ready to respond.
    Senator Manchin. I've had the opportunity to have some 
dialogue with some of the people that were concerned about the 
relationships of the United States and Russia. And with that 
being said, could you comment on the state of the 
relationships, the dialogue going on, and what you would do to 
either improve, change, or have a different direction?
    General Selva. Senator, I haven't personally been involved 
in the dialogue, so it wouldn't be fair for me to comment on 
the dialogue itself, but what I will say to you----
    Senator Manchin. Do we have one, of your knowledge?
    General Selva. Yes, sir. And what I will say to you and the 
committee is, if confirmed for the position of Vice Chairman, I 
think it is very important that our senior military leaders 
maintain an open dialogue with the senior military leaders of 
competitor nations so that we can minimize the chance of 
miscalculation or missteps in any military operation anywhere 
in the world. That goes for Russia and China, specifically, and 
for any other country that might wish us ill. We need to open 
those dialogues to make sure that we--
    Senator Manchin. What I'm--and we're speaking about Russia 
being our greatest challenge right now, and the greatest 
threat, or possible threat, because of their capabilities. With 
that being said, I've spoken to some people from that arena, 
and they're telling me that the Cold War is colder today than 
it was when it declared.
    General Selva. Senator, I don't know that to be true or 
false, other than that they have said it. But, what I will tell 
you is that my experience is that the dialogue between senior 
leaders across our militaries has been open and frank. That 
helps us avoid miscalculation, and--
    Senator Manchin. I'm just saying we're not hearing an awful 
lot of dialogue about this relationship or lack of a 
relationship. And now, when two of our top people who basically 
are on the verge of being nominated to lead our military forces 
have identified it, and not hearing anything before, I think it 
kind of caught a lot of us by surprise, if you will--
    General Selva. Yes, sir.
    Senator Manchin.--that that would be your direction.
    With that being said, I know the Iran nuclear deal we just 
talked about, it was revealed today that we have tentative 
agreement on that. I think, when we asked for your response on 
policy, you said--when we asked what would be a good deal for 
the U.S. from a security standpoint, your response was 
``Important outcomes includes rolling back Iran's nuclear 
program, providing the international community with necessary 
access and transparency while preserving the sanctions imposed 
on conventional arms and ballistic missiles.'' And I believe 
some of those, conventional arms and ballistic missiles, have 
expired terms on them at time--do you consider that a concern 
or a problem?
    General Selva. Senator, my understanding is that those 
sanctions have a 5-year and an 8-year term, having read the 
open press this morning. I haven't seen the details of the 
agreement and how those sanctions will be rolled back. But, it 
is my understanding, within the agreement, that there are snap-
back provisions, that if we find Iranian behavior not to 
comport with the agreement, that we can snap back the original 
sanctions. What I don't know is whether that applies to the 
conventional weapons and the ballistic missile technologies. 
So, if confirmed, I'm committed to taking a much deeper look at 
the text of the agreement to determine where our maneuvering--
    Senator Manchin. One final question I have. Shortly after 
the fall of Ramadi, Secretary Carter stated the Iraqi forces 
showed no will to fight despite vastly outnumbering ISIS 
fighters. There is at least one group in Iraq that I have no 
doubt has the will to fight, and that are the Kurds. And we've 
spoken about that. Are there ways to empower the Kurds and the 
Sunnis to engage and to help them without undermining, I guess, 
the one-country solution or one-state solution, if that's our 
policy?--which I'm not certain I agree with, but, for the sake 
of discussion, if you would have any comment on that.
    General Selva. Senator, our policy is to continue to work 
through the government in Iraq to empower all of the parties in 
Iraq that are willing to fight against ISIL and to defend Iraqi 
sovereignty. I would need more time to be able to examine the 
issue of whether or not supporting one party over the other 
makes more sense, or not. If confirmed, I look forward to doing 
so.
    Senator Manchin. Thank you, sir.
    My time is expired.
    General Selva. Thank you, sir.
    Chairman McCain. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    And thank you, gentlemen, for being here today. TRANSCOM is 
always very exciting to me. I am a transporter and a 
logistician, so I appreciate your service, especially in that 
area, very, very much.
    General McDew, I'd like to start with you. Senator Kaine 
had pointed out the fact that TRANSCOM does work between the 
National Guard, the U.S. Army Reserves, Active Duty component, 
and many, many contractors, wonderful civilians who fill in 
those gaps. So, I would just like to visit with you a little 
bit about your thoughts on the role of the National Guard in 
supporting TRANSCOM's mission to provide full-spectrum mobility 
solutions and enabling capabilities. And, obviously, I have 
strong opinions there, but I'd like to hear yours, General 
McDew.
    General McDew. Senator, I believe we may share the same 
opinion.
    Senator Ernst. I think so.
    General McDew. I am a strong supporter, and I am a huge 
fan, of our National Guard and Air Force Reserves. We could not 
operate without them. It is vital to the defense of this Nation 
and vital to everything we do in the transportation business. I 
can't imagine doing it without them.
    Senator Ernst. Thank you. And do you see that there are 
ways that we could further enhance working with our Reserve and 
our National Guard units? Is there a way to complete that 
bridge that we have existing out there?
    General McDew. I believe, Senator, that we need to continue 
to look at the authorities which our guardsmen and reservists 
come to work under, look at the different statuses they work 
in, and see where those can be streamlined. We also need to be 
very careful, though, that we understand and fully appreciate 
the differences between the Active Duty, the Guard, and the 
Reserves, and work with employers to ensure that that remains 
as strong as we think it ought to be.
    Senator Ernst. That's exceptional. I appreciate that very 
much. And you brought up a great point that we don't often 
discuss is our employees that do see us gone for an extremely 
long periods of time, whether it's just from a 2-week annual 
training period or an IDT [inactive duty training] weekend to 
the year-long deployments that we have seen overseas. But, I do 
believe that the National Guard and Reserve components within 
transportation are essential to supporting any mission that we 
have overseas. And so, I thank you for that. I'd like to thank 
our employers out there for being willing to support our men 
and women that serve in uniform in a Reserve and Guard status.
    General Selva, of course, let's go back to U.S. TRANSCOM, 
as well. And what lessons learned, significant events, are you 
taking forward from TRANSCOM into the Vice Chair's position? 
What are some of the greatest assets that you will bring 
forward, having those types of responsibilities with TRANSCOM?
    General Selva. Senator, I think the greatest lesson I carry 
forward into any job is the dedication of our soldiers, 
sailors, airmen, and marines, and coastguardsmen, and all of 
their civilian counterparts, both in and out of government, to 
get the job done. They depend on us for sound leadership and 
for advocacy. And so, what I will take into the position as 
Vice Chairman, if confirmed, is that--that undying obligation 
to be an advocate for the soldiers, sailors, airmen, marines, 
and coastguardsmen who lay their lives on the line for all of 
us every day.
    Senator Ernst. Thank you very much.
    I just want to score again--or underscore again what some 
of the conversation has been today with regards to the Iran 
deal. And while we continue as legislators to work through what 
this deal entails, as well, I did hear you say, General Selva, 
that you do believe that Iran with potential nuclear 
capabilities is a great threat to the United States. Is that 
correct?
    General Selva. Iran with nuclear capabilities would be a 
threat to our regional partners, to our allies, our friends, 
and to the United States. And so, the extent to which this 
agreement forestalls their ability to build a nuclear weapon, I 
think we ought to look at all of the provisions therein to make 
sure that we're ready to respond for whatever else might come.
    Senator Ernst. Thank you.
    And again, as well, with sanctions relief providing 
approximately $100 billion to Iran, I also believe that this 
would serve Iran's purpose of funding proxies throughout that 
region and being a state sponsor of terrorism. So, I do have 
great concerns with this deal. I have great concerns with Iran, 
overall, as well as a number of issues that we have worldwide. 
But, that's for yet another day.
    Thank you, General Selva. Thank you, General McDew. I 
appreciate your service very much to our Nation.
    Thank you.
    Chairman McCain. Senator King.
    Senator King. Thank you, Mr. Chair.
    I want to thank our witnesses for their service.
    And, General Selva, you and I have met before. You are a 
extraordinarily thoughtful and straightforward officer, and I 
hope to encourage you, in your new position, which is one of 
the most important in our government, where you will be 
directly advising the President, particularly the--being on the 
Deputies Committee of the National Security Council. Will you 
be straightforward, honest, and courageous in providing your 
best advice, and not be intimidated by the circumstances that 
surround your being in that position?
    General Selva. I will, Senator. That's the only person I 
know how to be.
    Senator King. Well, I certainly hope so, because in 
situations like this, policymakers don't need ``yes'' men, they 
need criticism and straightforward advice. And I certainly hope 
that you're prepared to provide that. That, to me, is really 
the fundamental responsibility of this position.
    To go to a more specific question, we had a--an explosion 
in Afghanistan a few days ago. Apparently over 30 people were 
killed. Do you have a view of the security situation in 
Afghanistan, and what we can and should do in order to maintain 
the progress that's been made in that country?
    General Selva. Senator, it's been some time since I 
traveled to Afghanistan, but my overall impression is that the 
Afghan national security services, both their military and 
their national police, are making progress. And they are 
confronting the Taliban, insurgents, and terrorists where they 
present themselves. And so, my view is that we need to empower 
them to continue that work. They have taken ownership of the 
sovereignty of the country of Afghanistan, and that is the 
place where we want them to be. And so, I think we need to be 
careful about the assumptions we made, relative to the 
timelines for their willingness and ability to manage their own 
sovereignty. And that goes to the stability of the government 
and the central government's command and control over those 
forces. And I think that's the place we need to go, it's to 
think that through in that domain.
    Senator King. So, I take it your advice would be that our 
disengagement should be based upon conditions on the ground and 
not arbitrary dates in a calendar.
    General Selva. Senator, I believe that's true.
    Senator King. Thank you. I hope you will pass that advice 
on in the strongest possible terms.
    We've talked a lot about cyber this morning. And I think 
there's plenty of responsibility to be spread around. I think 
it's one of the great disappointments of my 2\1/2\ years here 
that we have not yet brought significant cyber legislation to 
the floor of the U.S. Senate. And when we have a catastrophic 
breach, to go home to our constituents and say, ``Well, we 
couldn't do it because four different committees had authority, 
and we really just couldn't get our act together,'' that's not 
going to be satisfactory to the people of the United States. 
So, certainly there needs to be action here in Congress. And 
hopefully that will be forthcoming this year.
    On the other hand, it seems to me that we need to be 
thinking about doctrine and the development of a doctrine of 
cyber, which we don't seem to have now, other than defense. And 
in my view, the--there has to be an offensive capability which 
our adversaries understand, and understand will be applied. The 
only good thing about the theory of deterrence and the mutually 
assured destruction which applied to our nuclear posture for 70 
years is that it worked. And it just seems to me logical that 
if our policy is strictly defensive, we're like a guy in a 
fight who won't be allowed to punch. Eventually, you're going 
to lose that fight. I would urge you to think about this. And 
I'd appreciate your thoughts. Assuming we can identify it's a 
state actor, not an amateur hacker or a criminal conspiracy, 
but a state actor, it seems to me there has to be some price to 
be paid. Would you agree, General?
    General Selva. I do agree, Senator, and I look forward to 
working with the committee, if confirmed, to examine the 
doctrine for the offensive use of cyber capabilities, both as a 
deterrent and as an offensive weapon in warfare.
    Senator King. And I hope not only with the committee and 
with Congress, but also with that all-important Deputies 
Committee of the National Security Council. That's where it 
seems to me this policy has to emanate, and then we can work it 
over here.
    General McDew, I assume you agree?
    General McDew. I do agree, Senator, in that the role of 
attribution--the interesting part, for me, as I evolve my 
knowledge of the cyberthreat, is that it is such a low cost of 
entry, and so much damage can be wielded from it.
    Senator King. Without consequence.
    General McDew. Right.
    Senator King. And we need to be talking about--there need 
to be consequences.
    Well, I hope you gentlemen will pursue that, because right 
now we're playing defense, and we're not winning very--we're 
not getting very far. We're getting--it's getting more and more 
serious, and we are facing a catastrophic attack, in my view, 
akin to the next Pearl Harbor. Both we in Congress and the 
administration have to be thinking about a more comprehensive 
doctrine and not just talking about how do we work together for 
defensive purposes.
    Again, gentlemen, thank you very much.
    General McDew, I understand your early flying career took 
place at Loring Air Force Base in northern Maine, and delighted 
to have you before us.
    Congratulations on your nominations. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chair.
    Gentlemen, thank you for your service, and congratulations 
on your nomination.
    General McDew, I just want to add a compliment. At least in 
my career, I've had the opportunity to work with some of the 
TRANSCOM military members and, you're correct, I think, in many 
ways, unheralded workhorse for the U.S. military in many ways 
behind the scenes. So, I just want to commend all of your 
members on a great job, and want to commend your families for 
their service, as well.
    General Selva, I just wanted to touch briefly--it's 
obviously getting a lot of press right now--on Iran. And in one 
of the most powerful testimonies we had in front of this 
committee in the last half year was Henry Kissinger, who came 
in and talked to this committee about devising strategy. And 
one of the things he mentioned, that one of the most important 
things we need to ask ourselves as we're putting together 
strategy is, What do we seek to prevent as a country, no matter 
how it happens, and, if necessary, alone? Kind of his top 
strategic thought for this committee.
    I had asked Secretary Carter, during his confirmation 
hearing, if he thought preventing Iran from obtaining a nuclear 
weapon would fall into that category? What do we seek to 
prevent, no matter how it happens, and, if necessary, alone? He 
said yes, absolutely. Preventing Iran from obtaining a nuclear 
weapon. Now, that was during his confirmation testimony. It'll 
be interesting to see if he still believes that, given the 
agreement that's been announced. If--do you agree with him on 
that?
    General Selva. I agree with Dr. Kissinger, that if we can 
find no allies, partners, and friends to help us achieve the 
results that we believe are important, we have to be willing 
and able to go it alone.
    Senator Sullivan. But, do you think that preventing Iran 
from obtaining a nuclear weapon falls into that category, like 
Secretary Carter did in his confirmation hearing?
    General Selva. Senator, I agree that preventing the 
Iranians from getting a nuclear weapon is a critical national 
interest.
    Senator Sullivan. So, if this agreement, once we unpack it, 
allows for a pathway to develop a nuclear weapon after 10 or 15 
years, would you disagree with it----
    General Selva. I will reserve----
    Senator Sullivan.--in your personal view?
    General Selva. I will reserve judgment until I've had the 
opportunity to look at the entire agreement.
    Senator Sullivan. Well, I'm just posing a hypothetical. In 
your personal view, if the agreement, in 10 to 15 years, allow 
the Iranians to have a pathway to obtain a nuclear weapon, do 
you think that's in the national interest of the United States?
    General Selva. Then we will have to have the capability to 
address that eventuality when it's presented, Senator.
    Senator Sullivan. You're not answering my question, 
General.
    General Selva. Sir, I am opposed to the Iranians possessing 
a nuclear weapon.
    Senator Sullivan. In 15 years?
    General Selva. Ever.
    Senator Sullivan. Okay.
    General Selva. Because--
    Senator Sullivan. So, if this agreement allows that in 15 
years, you would think that's not in the interest of the United 
States?
    General Selva. Correct.
    Senator Sullivan. Thank you.
    Let me ask a question. You know, you've spent a lot of 
time, in your career, in the Asia-Pacific. This committee's 
been very interested in the rebalance strategy. The NDAA 
[National Defense Authorization Act] that just passed with 
bipartisan numbers had a strong provision in supporting the 
President's Asia-Pacific rebalance. The countries that you 
actually mentioned as the top threats are all in the Asia-
Pacific. And what we were trying to do in that--in the NDAA is 
provide additional credibility to the President. In that kind 
of defense guidance from Congress, should DOD be listening to 
Congress?
    General Selva. Senator, I think the Department always has 
an obligation to listen to the will of Congress.
    Senator Sullivan. So, if there's provisions in the NDAA 
that say we should not be decreasing, but increasing our force 
posture in the Asia-Pacific to enhance and provide credibility 
to the President's Asia-Pacific rebalance strategy, the DOD 
should be doing that?
    General Selva. To the extent that supports our national 
objectives globally, yes, sir.
    Senator Sullivan. If it seems that we're not doing this, if 
you're confirmed, will you work with this committee to make 
sure that DOD is implementing Congress' defense guidance to 
increase forces in the Asia-Pacific?
    General Selva. Senator, I will commit to you and to any 
Member of Congress to work with Congress to make sure that we 
have a balanced approach to the reaction that we have to have 
to the fiscal environment we live in. If that means we have to 
adjust our force structure on any part of the globe, I'll make 
sure that I articulate the position that the Services and the 
combatant commanders have taken in making that happen.
    Senator Sullivan. But, Congress said we need to be 
increasing forces in the Asia-Pacific. Should DOD be doing 
that, given that that's what we're saying here, in terms of our 
constitutional oversight role for the defense of the Nation?
    General Selva. Sir, the extent to which Congress funds the 
capabilities and provides the Department the flexibility within 
those funds to make the will of Congress happen, yes, sir, we 
should.
    Senator Sullivan. Thank you, Mr. Chairman.
    Chairman McCain. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you both for being here today and for your 
willingness to continue to serve.
    I want to just follow up a little bit on the cyber 
comments--discussion that has been made this morning, because I 
notice that we are opening a Silicon Valley outreach office, 
called the Defense Innovation Unit, experimental. I wonder if 
you could speak to what the goal of that office is.
    General Selva. Senator, I'm not aware of the detail of that 
specific office, but I am aware of broad outreach across the 
Department to try and examine opportunities to better 
understand our capacity to defend and protect the networks that 
are represented across all of our infrastructure, commercial 
and military, in cyber. I look forward to actually digging into 
that particular issue a little bit, if confirmed for the 
position of Vice Chairman.
    Senator Shaheen. Thank you.
    I appreciated the opportunity for us to talk a little bit 
before this hearing. And one of the things that we talked about 
when we met, General Selva, is the challenge that we're facing 
from Russia, and that one of the areas where it's a real 
problem is the Russian propaganda campaign that, particularly 
in eastern Europe, in the Baltics, they are dealing with. So, 
can you tell me what we're doing to respond to that Russia 
propaganda campaign, and whether you believe the DOD is 
coordinating as--in the best way to address that with the 
Department of State?
    General Selva. Senator, subject to our meeting, I did a 
good bit more research on that subject, and it is my 
understanding that there is an operational and tactical-level 
capability inside the Department to react to propaganda 
campaigns against our allies, partners, and friends. But, that 
is done in close collaboration with the Department of State and 
their broader responsibility for public diplomacy.
    Senator Shaheen. And so, do you have thoughts about whether 
there are more efforts that can be undertaken, where we can, 
not only cooperate more closely, but be more proactive in our 
response to what Russia is doing?
    General Selva. Senator, I think we need to evaluate each of 
the situations where the Russians are imposing their will on 
their close neighbors, some of whom are our allies, and make 
sure that we are, in fact, telling the truth when Russian 
intervention threatens the security of those sovereign states.
    Senator Shaheen. General Selva and General McDew, as you're 
both aware, one of the real costs within DOD is for energy. 
And, as you're--you have an overlapping responsibility for 
TRANSCOM, can you talk--I guess, General McDew, I will go to 
you first--about efforts to reduce energy use across the 
Department and why that's important?
    General McDew. As the largest user of energy in the Federal 
Government, it is very important that we get our act together 
on how we do that. Our chief scientist and several people in my 
command, in Air Mobility Command, have worked with TRANSCOM and 
the Department of Transportation at a lot of--a number of 
initiatives, from how we fly our routes, how we configure our 
airplanes. We have done a number of initiatives to take weight 
off airplanes. It seems like not a big deal, but if you talk 
about 1 or 2 percent on an airplane that flies as often as we 
fly, it becomes actually significant. Flying in formation with 
another airplane, and all the things we can do to take the 
guesswork out of some of the things we do, there's more than 
that.
    Senator Shaheen. Well, talk, if you will, about the 
targeted savings that we're looking for--that we saw last year, 
that we're looking for this year, and what potential you think 
there is in the future.
    General Selva?
    General Selva. Senator, I would point out two within the 
transportation enterprise. First is an initiative to more 
effectively package the commodities that we ship over the 
ocean. The normal process, years ago, had us at about a 55-
percent utilization rate of the space in the containers that 
travel over ocean. We have raised that metric to 85 percent, 
and are on a pathway to raise it to 90 percent, by volume. The 
same has been applied to our aircraft, where we build the cargo 
loads to a higher density. We have combined that with an 
algorithm that tells us where it's the cheapest to buy the fuel 
that we carry. All in combination, those initiatives, have 
yielded about a billion and a half in savings over the last 18 
months.
    Senator Shaheen. So, it's significant to the Department.
    General Selva. Yes, ma'am.
    Senator Shaheen. Let me also--I only have a little time 
left, but I understand, General McDew, that you have experience 
flying the KC-135s, and you may be aware that Pease Air Base in 
New Hampshire is the first base to receive the new KC-46A 
aerial refueling tankers. We are a lot proud of that. I wonder 
if you could talk about the importance of that program and also 
its future role in supporting military operations around the 
world.
    General McDew. Absolutely, Senator. The unit at Pease has a 
strong history in air refueling and will be a valuable partner 
for decades to come. I have personally been to that unit. I 
have flown with members of that unit, and I've known that unit 
for a long time. The KC-135 has been the backbone of our air-
refueling fleet for decades, and will be for decades to come. 
The KC-46 will bring new capabilities and a younger airplane to 
the fight. And it is great to have Pease partner. You have 
embraced our airmen, our Active Duty airmen who have joined 
that unit, and we can't thank you enough for the work that's 
done at Pease to bring on that airplane.
    Senator Shaheen. Well, thank you. I think it's a great 
model for integration between Active Duty and the Guard. And 
hopefully we will continue to see the role of the KC-46 be more 
prominent as we look at what's happening around the world.
    Thank you both very much.
    Chairman McCain. Thank you for that commercial, General 
McDew.
    Senator Ayotte.
    Senator Ayotte. I want to thank both of you for being here 
and for your service to the Nation.
    Following up on that commercial very much, I wanted to ask 
you right now, as I understand, with Pease and the 157th 
receiving the first National Guard unit to receive the basing 
of the KC-46A, there actually is the Site Activation Task Force 
right now at Pease, today, and that means approximately 60 
subject-matter experts from the National Guard Bureau Air 
Mobility Command and the Program Office at Wright-Patterson are 
at Pease to prepare for the arrival of the KC-46A. I just want 
to ask both of you--General Selva, General McDew--is Pease 
still scheduled to receive 12 primary aircraft in December 
2017?
    General McDew. Absolutely.
    [The information referred to follows:]

    Pease ANGB is still programmed to receive the first KC-46 aircraft 
in February 2018. Barring any further changes to the aircraft delivery 
schedule, Pease is slated to receive its 12th aircraft by the end of 
fiscal year 2018.

    General Selva. I will echo my colleague. Yes, ma'am.
    Senator Ayotte. Well, that's terrific. And they're ready to 
receive them, and looking forward to it. So, we're glad that 
the Site Activation Task Force is there today.
    In addition to that, you've spoken, General McDew, about 
having actually flown with the 157th and the outstanding work 
that they've done for the Nation. And one of the things that's 
important is the strategic location of Pease in the Northeast, 
and the ability that we've been able to provide that support 
for TRANSCOM. And so, one of the things that I think makes it 
strategic is also the facilities that we have there.
    General Selva and General McDew, do you believe it's 
important to maintain the existing facilities, including 
specifically the aircraft parking ramps, to support the day-to-
day operations and contingency operations supporting TRANSCOM 
in the Northeast from Pease?
    General Selva. Senator, as the combatant commander 
responsible for managing air refueling, the ability to deploy 
from, and employ from, sufficient ramp space that has hydrant 
refueling capable of handling tankers is a strategic asset up 
and down the eastern seaboard. Pease is one of several 
locations that has that capability, but it is one we use 
significantly.
    Senator Ayotte. General McDew, do you think it's important 
that we maintain that, especially with the basing of the new 
KC-46A at Pease?
    General McDew. I do, Senator.
    Senator Ayotte. Thank you. I appreciate it, General.
    I also wanted to follow up on some of the cyber questions 
that you've been asked. And what is it that we're seeing, in 
terms of TRANSCOM, with additional cyberattacks? What do you 
believe are the biggest challenges for this area of command 
which is so critical to everything else we do in our ability, 
obviously, to defend the Nation?
    General Selva. Being in the awkward position of having the 
sitting TRANSCOM Commander and the nominated TRANSCOM Commander 
at the table, let me open.
    As a consequence of the work that this committee did in 
addition to work that the Intelligence Community had been--had 
ongoing on the threats to TRANSCOM, we've actually completely 
rewired the way we do cyberdefense and cyberhygiene within the 
Command. So, we have put our forces, essentially, on the 
offense, looking for people that are intruding into the 
network. And the extent to which those are in law enforcement 
issue, we have a liaison from the FBI and local law enforcement 
in our headquarters that attends to those parts of the issues. 
We have members of the intelligence community that provide the 
liaison into the interagency intelligence community if it's an 
intelligence issue. And then we have the capacity to turn those 
intrusions over to Cyber Command for our cyber mission team to 
begin defensive, and potentially offensive, action, if 
required. We exercised that in a recent exercise. Without 
getting into the classified results, we had a pretty good 
outcome with the Red Team trying to attack our networks. So, 
management of our cybercapability to do the command and control 
work that we do across such a broad network is incredibly 
important to us.
    Senator Ayotte. Is that model that you've talked, which 
sounds like a very important model, and obviously I'm glad to 
hear you're seeing some success with it--is that something that 
we're going to see, now that you're nominated to be the Vice 
Chairman, being implemented in other commands?
    General Selva. Senator, we've taken all the benchmarks from 
that set of lessons learned and shared them with all the other 
combatant commanders and with CYBERCOM. I will commit, if 
confirmed to becoming the Vice Chairman, to make sure that all 
the combatant commanders continue to share those kinds of 
lessons learned and improve our cyberdefense capability.
    Senator Ayotte. Well, I think that's really important. I 
appreciate it. And I want to thank both of you for your 
service--and your family--to the Nation. We deeply appreciate 
it.
    General Selva. Thank you, Senator.
    Chairman McCain. Would the Senator from Maine have any 
additional comments about the criticality of Pease Air Force 
Base to western civilization as we know it?
    [Laughter.]
    Senator King. I was just going to comment that if I were 
running out of fuel over the North Atlantic, I would want the 
Maniacs from 101st Air Refueling Wing in Bangor to come and----
    Chairman McCain. Ah, I see. I thank the Senator from Maine.
    Senator King. There are other air refueling wings in New 
England. I'm glad--I appreciate the chairman's opportunity to 
make that point.
    Chairman McCain. Thank you.
    Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you for your service, and thank you to your families, 
as well, for their extraordinarily valuable support and 
service.
    I want to talk about a subject that has not been covered so 
far, small business set-asides. I'm a strong supporter of small 
business set-asides and the American shipping industry and our 
country's domestic merchant marine sector. A number of 
constituents of mine have raised this issue with me, saying 
that DOD has moved away from the dedicated service contract 
model, and started using a new system, called Universal Service 
Contracts, to transport goods via ocean from the U.S. mainland 
to U.S. military installations around the globe. My constituent 
has raised concerns with TRANSCOM regarding the statutory 
requirement to use small businesses and mandatory small 
business preferences, but those concerns have not been met. I 
suspect others have raised similar kinds of concerns from other 
States. And so, I'm going to ask you whether, if you're 
confirmed, you will work with my office to ensure that the 
statutory requirement to use small business and mandatory small 
business preferences is complied with.
    General McDew. Senator, I will do so, if confirmed.
    Senator Blumenthal. Are you aware of this change of policy?
    General McDew. I am not aware of that one, Senator, 
specifically.
    Senator Blumenthal. Could you look into it and get back to 
me?
    General McDew. I can, Senator.
    [The information referred to follows:]

    USTRANSCOM is an advocate for small business utilization and as of 
the end of the fiscal year 2015 second quarter, has already surpassed 
the fiscal year 2015 Small Business goal of 15 percent (of prime 
contracts), established by the Department of Defense and as required by 
the Small Business Act, by achieving 22.17 percent small business 
utilization. Additionally, USTRANSCOM is fully compliant with Federal 
Acquisition Regulation (FAR) small business requirements, as evidenced 
by the ``Highly Satisfactory'' rating assigned following a May 2014 
Small Business Administration (SBA) Surveillance Review.
    USTRANSCOM's number one priority is readiness and the readiness of 
the global distribution enterprise to extend America's helping hand or 
project combat power, anywhere, anytime. USTRANSCOM has moved some 
efforts previously accomplished under a dedicated service model to the 
USC-7 contract when circumstances warranted, such as where a 
significant change in cargo volume occurred and dedicated service was 
no longer feasible. The work performed under the USC-7 contract is in 
full accordance with the Small Business Act (15 U.S.C. Sec.  644(a)), 
the FAR, and all other laws and regulations. USTRANSCOM will continue 
to evaluate whether requirements are appropriate for set aside under 
the USC-7 contract in accordance with the Small Business Act.
    If confirmed, I will look into how USTRANSCOM accomplishes small 
business awards and will ensure that USTRANSCOM continues to follow the 
law that applies to use of small businesses.

    Senator Blumenthal. And, if confirmed, what steps or policy 
changes can you take to ensure that small businesses, in fact, 
have a fair shot at doing business with TRANSCOM?
    General McDew. Senator, I've been a proponent and advocate 
for small businesses for my entire career. I will pledge to 
you, if confirmed, I will look deeply into this. And I can't 
imagine us having a process that discounts small businesses, so 
I'll have to see how we can encounter small business.
    Senator Blumenthal. What changes or policies in the course 
of your commitment, your past commitment--and I welcome it--
have you seen DOD undertake? What kinds of initiatives?
    General McDew. I can--well, other than the fact that I can 
tell you DOD measures how often we actually contract with small 
businesses in several different categories, there is a grade 
for an organization inside, at least I'm familiar right now, 
the Department of the Air Force, on how we do with small 
businesses. So, I am very--I'm somewhat surprised by your 
comments right now, Senator.
    Senator Blumenthal. Well, I hope that it is a surprise that 
is based on a misunderstanding that can be easily corrected. 
And I welcome your comments. Thank you very much.
    Thanks, Mr. Chairman.
    Senator Reed. [presiding]. Thank you, Senator Blumenthal.
    Gentlemen, thank you for your service, along with your 
families.
    On behalf of Chairman McCain, I would declare the hearing 
adjourned.
    [Whereupon, at 11:09 a.m., the committee adjourned.]

    [Prepared questions submitted to General Paul J. Selva, 
USAF by Chairman McCain prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. In connection with your recent nomination to be 
Commander, U.S. Transportation Command you answered the Committee's 
policy questions on the reforms brought about by the Goldwater-Nichols 
Act. You indicated that you did not see a need for modifications to 
Goldwater-Nichols Act provisions.
    Has your view of the importance, implementation, and practice of 
these reforms changed since you testified before the Committee at your 
last confirmation hearing?
    Answer. No.
    Question. In light of your experience as Commander, U.S. 
Transportation Command, do you see any need for modifications to 
Goldwater-Nichols? If so, what modifications do you believe would be 
appropriate?
    Answer. No. I do not presently foresee the need to make any 
modifications to the Goldwater-Nichols Act.
                                 duties
    Question. Based on your experience as Commander, U.S. 
Transportation Command, what recommendations, if any, do you have for 
changes in the duties and functions set forth in section 154 of title 
10, United States Code, and in regulations of the Department of 
Defense, that pertain to the Vice Chairman of the Joint Chiefs of Staff 
and the organization and operation of the Joint Staff in general?
    Answer. At present, I do not recommend changes to the law or 
regulations.
                  joint requirements oversight council
    Question. The Vice Chairman of the Joint Chiefs of Staff serves as 
the chairman of the Joint Requirements Oversight Council (JROC), which 
has the responsibility to review and validate Service requirements. Are 
there any recommendations that you would make to modify the JROC or its 
authority or the requirements process?
    Answer. No, I do not believe any additional authorities or process 
changes required at this time.
    Question. Has the `trip-wire' process, to bring troubled programs 
back to the JROC for a review and to consider performance trade-offs to 
mitigate further cost growth and/or schedule delays before the program 
faced a Nunn-McCurdy review, been regularly employed on large programs 
that have experienced significant cost growth and schedule delays?
    Answer. Yes. The JROC ``trip-wire'' process was put in place to 
address potential program difficulties prior to triggering a Nunn-
McCurdy breach and subsequent review. A 2012 Joint Capabilities 
Integration and Development System (JCIDS) guidance update incorporated 
additional unit-cost criteria in order to address schedule and quantity 
trip-wire criteria. It has been employed on several occasions to review 
and adjust requirements on large programs when appropriate to avoid 
follow-on Nunn-McCurdy breach criteria.
    Question. Has the JROC altered requirements, either for performance 
or procurement quantities, as a result of such reviews?
    Answer. Yes, the JROC has altered or revalidated requirements as a 
result of such reviews. Example programs include the warfighter 
information network--tactical (WIN-T), advanced anti-radiation guided 
missile, and the E-6B Block 1.
    Question. Weapon Systems Acquisition Reform Act of 2009 (WSARA) 
required the Secretary of Defense to ensure that trade-off analyses are 
conducted on cost, schedule, and performance as part of the 
requirements development and approval process. Such analyses enhance 
DOD's understanding of what performance factors are the critical ones 
driving costs and schedules. What is your view of the modifications to 
the JROC process made by WSARA?
    Answer. The modifications resulting from the 2009 WSARA have 
benefited JROC deliberations and the supporting JCIDS process. The 
continuing refinements to JCIDS, the most recent review and update 
completed in February 2015, ensure the continued focus on trade-off 
discussions and resulting requirements validation decisions.
    Question. What additional steps do you believe that Congress or DOD 
should take to ensure that trade-offs between cost, schedule, and 
performance objectives for major weapon systems are made at an 
appropriately early point in the acquisition process?
    Answer. The Department routinely evaluates opportunities for trade-
offs among cost, schedule, and performance for major weapons systems. 
As an example, in 2012 the Department revised the JCIDS instruction to 
ensure the JROC reviews a system's Analysis of Alternatives (AOA) to 
inform and shape Milestone A activities. As further steps are 
warranted, I will adjust the JCIDS policy and process and work with 
USD(AT&L) accordingly.
    Question. Are there any other recommendations that you would make 
to modify the JROC or its authority or the requirements process?
    Answer. No. At this time, I do not have any recommendations 
regarding modifications to the JROC or its authorities and the 
requirements process. If confirmed, I will continue to focus on the 
statutory responsibilities and authorities to ensure the appropriate 
rigor in validating realistic, technically achievable, prioritized, and 
cost informed requirements.
    Question. How would you assess the effectiveness of the JROC in the 
DOD acquisition process?
    Answer. I would judge the effectiveness of the JROC by how 
successfully it works in coordination and partnership with the leaders 
and primary stakeholders in the requirements, acquisition, and 
resourcing processes to deliver capability to the warfighter within 
cost, schedule, and performance parameters. Over the past few years, 
the coordination between these processes and leaders has improved, and 
if confirmed, I intend to continue this close coordination.
    Question. What is your vision for the role and priorities of the 
JROC in the future?
    Answer. My vision is for the JROC to play a key role in developing 
the future joint force by providing a rigorous requirements basis, 
consistent with statutory responsibilities, to aid senior leader 
decision-making. If confirmed, I will ensure the development of a 
superior joint force remains a priority.
    Question. Do you believe the JROC process is sufficient to 
understand and identify where there are opportunities for multi-service 
collaboration or where programs could or should be modified to take 
advantage of related acquisition programs?
    Answer. Yes. One of the major responsibilities of the JROC process 
is to promote Service collaboration on joint requirements and raise 
awareness across the force on opportunities to modify or adapt related 
acquisition programs.
    Question. What principles guide your approach to inviting, and 
helping ensure the sufficient participation of other stakeholders in 
the JROC?
    Answer. Inclusiveness and frank discussions of key issues will 
guide my approach in my role as the chair of the JROC and requirements 
process leader. The recently updated JROC charter details roles and 
responsibilities of the Council, its subordinate boards, and other 
organizations with equity in JCIDS.
    Question. The Senate Armed Services Committee's report to accompany 
the fiscal year 2016 NDAA directs the Secretary of Defense to 
revalidate the total program of record buy quantity of each variant of 
the F-35 Joint Strike Fighter. How do you see the JROC's role in this 
revalidation process?
    Answer. If confirmed, I will work closely with the Service and 
Program Sponsor principals as well as the Department's acquisition 
professionals to assess and validate joint military requirements 
identified by combatant commanders. I will take a deliberate look at 
balancing the capacity and the capabilities of the future Joint Force, 
including the F-35 Joint Strike Fighter program.
     joint capabilities integration and development systems (jcids)
    Question. What is your perspective on the responsiveness of the 
JCIDS process in addressing joint capabilities needs?
    Answer. I believe JCIDS is very responsive when addressing joint 
capability needs, whether in the normal course of the deliberate review 
and validation lane or when evaluating joint urgent or joint emergent 
operational needs. In addition to having urgent/emergent lanes within 
the process, the requirements process is flexible and the timeline to 
review and validate requirements has been tailored for additional 
timeliness when necessary in the past. If confirmed, I will ensure it 
continues to be flexible in its execution when appropriate.
    Question. What level of involvement in the joint requirements 
process and the JROC do you believe is appropriate for the COCOMs?
    Answer. I believe the combatant commands are key customers of, and 
stakeholders in, the requirements process. Combatant commands 
participate at every level, to include the JROC, Joint Capability 
Board, Functional Capability Boards and associated working groups. The 
recently updated JROC charter details the roles and responsibilities of 
the JROC, its subordinate boards, and other organizations with equity 
in JCIDS. If confirmed, I will ensure that combatant commands continue 
to play the appropriate role in the requirements process.
    Question. Do you think that JCIDS needs to be changed? If so, what 
are your views on the how it could be improved to make the process more 
responsive to users' needs while efficiently investing resources in a 
fiscally constrained budget environment?
    Answer. No, not at this time. The Department recently updated JCIDS 
guidance documents and adjusted the JCIDDS process. If confirmed, I 
will monitor the changes put in place and adjust the process when and 
where necessary.
    Question. The requirements development process is not a stand-alone 
process, but instead is required to work collaboratively with the 
acquisition and budgeting processes. What steps are needed to better 
align the requirements development process with the acquisition and 
budgeting processes to make for a more efficient and effective process 
for delivering capabilities?
    Answer. Continued collaboration between the requirements' process 
stakeholders and DOD leadership will be needed to more efficiently and 
effectively deliver capabilities to the war fighter. There have been 
substantial improvements in recent years, which if confirmed I intend 
to continue, such as quarterly leadership forums among the Vice 
Chairman, Under Secretary for AT&L, and Director of CAPE.
             acquisition reform and acquisition management
    Question. What is your view of the changes made by the Weapon 
Systems Acquisition Reform Act of 2009 (WSARA)?
    Answer. The Weapon Systems Acquisition Reform Act (WSARA) of 2009 
has been instrumental in avoiding the high cost of fixing problems late 
in the acquisition process. WSARA also jump-started acquisition reform 
within Department and initiated a mindset of continuous process 
improvement as exemplified by Secretary Carter's Better Buying 
Initiatives that I strongly endorse.
    Question. What role, if any, do you believe the JROC should play in 
the oversight and management of acquisition programs after requirements 
have been established?
    Answer. I believe that the JROC continues to play a key role in 
requirements oversight and portfolio management, maintaining visibility 
into acquisition programs developing capability solutions to meet 
validated/established requirements. There may be cases where validated 
requirements need to be reviewed and revalidated based on new 
conditions such as technology challenges, fiscal constraints, or 
changes in the threat environment. If confirmed, I will ensure the 
requirements process remains flexible and responsive to address 
requirements reviews as needed.
    Question. What role if, any, do you believe the JROC should play in 
reviewing the progress of major defense acquisition programs or other 
acquisition programs?
    Answer. The JROC already plays a role in reviewing the progress of 
major defense acquisition programs. The JROC considers the progress of 
programs in the yearly Chairman's Gap Assessment and Chairman's Program 
Recommendation. The JROC also receives yearly Portfolio Review 
assessments which include a review of major acquisition programs 
conducted by the Functional Capability Boards.
    Question. Do you see a need for any change in the role of the 
Chairman or the Vice Chairman of the Joint Chiefs of Staff in the 
requirements determination, resource allocation, or acquisition 
management processes?
    Answer. No, I do not see a need for any change.
    Question. What is your view of the role played by Configuration 
Steering Boards in preventing cost growth due to requirements creep?
    Answer. When proactively utilized by the Service Acquisition 
Executive, Configuration Steering Boards have been highly effective in 
preventing cost-growth and identifying opportunities for requirements 
relief.
    Question. What do you see as the proper relationship between 
Configuration Steering Boards and the JROC in managing requirements for 
acquisition programs?
    Answer. The Configuration Steering Boards (CSBs) are responsible 
for reviewing acquisition programs on a regular basis to address issues 
causing hurdles to their success in delivering capability to the 
warfighter. The CSBs should continue to propose requirements reviews/
changes to the applicable requirements validation body, to include the 
JROC. If confirmed, I will ensure the requirements process remains 
flexible and responsive to address those CSB-recommended reviews/
changes needing JROC validation in a timely manner.
    Question. What is your view of the Nunn-McCurdy requirements for 
Major Defense Acquisition Programs that fail to meet cost, schedule, 
and performance objectives?
    Answer. I believe that the Nunn-McCurdy requirements for designated 
programs provide the necessary review for cost, schedule, and 
performance issues as needed.
    Question. What do you see as the proper relationship between the 
JROC and those DOD officials charged with implementing the Nunn-McCurdy 
requirements?
    Answer. The JROC supports USD(AT&L) in the Nunn-McCurdy process as 
detailed in the statutory language. As the validation body, the JROC 
reviews the program requirements to determine whether program 
continuation is essential to national security. If confirmed, I will 
ensure the JROC and the JCIDS process continues to provide prompt and 
robust support to the Nunn-McCurdy process and the designated lead 
official.
                         urgent needs processes
    Question. In your view, what specific steps should the Department 
take to better manage the joint urgent needs process?
    Answer. I believe the Department has taken robust action over the 
past several years to better manage the joint urgent needs process. 
Examples are the updated JCIDS and acquisition guidance that governs 
the Joint Urgent Operational Needs (JUONs), Joint Emergent Operational 
Needs (JEONs), and component-specific urgent operational needs 
processes. Another example is the focus of the Warfighter Senior 
Integration Group (W-SIG) to facilitate delivery of solutions to 
validated JUONs/JEONs/component-specific urgent operational needs.
    Question. What is your sense of where the DOD might consolidate 
urgent needs entities and/or processes and how cost savings could be 
achieved through such consolidation?
    Answer. My sense is that DOD is making good progress in 
consolidating urgent needs entities/processes and focusing remaining 
resources in improving delivery of validated urgent operational needs.
    Question. Do you believe that the Joint Staff should take steps to 
integrate the Joint Urgent Needs process with the individual services' 
processes? If so, please explain?
    Answer. No. I believe there is an appropriate distinction between a 
component-specific urgent operational need and a Joint Urgent/Emergent 
Operational Need. If confirmed, I will maintain awareness of the 
processes and propose changes when and where appropriate.
                        nuclear weapons council
    Question. If confirmed as Vice Chairman of the Joint Chiefs of 
Staff, you will to serve as a member of the Nuclear Weapons Council.
    What would your priorities be for the Nuclear Weapons Council 
(NWC)?
    Answer. Sustaining a safe, secure, and effective nuclear arsenal is 
vital to ensuring our Nation's survival and central to the 
responsibilities of the NWC. I will work closely with the other NWC 
members to develop a plan for the Nuclear Enterprise to ensure the 
appropriate capabilities are available to sustain our nuclear arsenal 
for the long term.
    Additionally, I will work with the other NWC members to modernize 
our aging nuclear facilities, invest in human capital, accelerate 
dismantlement of retired warheads, and improve our understanding of 
foreign nuclear weapons activities.
    Question. What changes if any would you recommend to the 
organization, structure, or function of the NWC?
    Answer. USC Title 10 Section 179 sets forth the organization, 
structure and function of the NWC. While I am aware of the recent 
Congressional advisory panel that reported on this subject in detail, I 
have no recommendations at this time. However, if confirmed, I will 
work with the NWC chairman and other members to assess the 
organization, structure and function of the NWC, and where warranted, 
provide recommendations for change to increase effectiveness and value 
in support of the nuclear mission for national security.
                        space program management
    Question. In many instances the military and intelligence space 
programs have experienced technical, budget, and schedule difficulties. 
In some instances these difficulties can be traced to problems with 
establishing realistic, clear, requirements and then maintaining 
control over the integrity of the requirements once established. If 
confirmed as chairman of the JROC you will be involved in determining 
these requirements. How in your view can or should the space systems 
requirements process be improved?
    Answer. It is my understanding that in order to address the 
specific issue of space systems the Joint Capabilities Integration 
Development System (JCIDS) has been updated to allow for more trades 
between cost, performance, technology, and risk. If confirmed, I will 
continue to work with my
    counterparts in the Office of the Director of National Intelligence 
and the Office of the Secretary of Defense to ensure future space 
systems have robust and achievable requirements.
    Question. In general, space programs take many years to move from 
conception to launch. The result is that the technology in the 
satellites is significantly outdated by the time the satellites are 
launched and operational, which in turn, can lead to a decision to 
terminate a program early, and look to a newer technology. This vicious 
cycle results in significantly increased costs for space systems as 
sunk costs are never fully amortized. How in your view can this cycle 
be addressed?
    Answer. I believe one means of minimizing the use of outdated 
technology is to allow for technology insertion points into the 
acquisition process, balanced with limits on any requirements creep 
that could possibly derail the capability from achieving its core 
functionality. This allows for newer technology to influence the 
development program at specific points in the procurement of the space 
system enterprise.
                            nuclear weapons
    Question. If confirmed you will continue to be a member of the 
Nuclear Weapons Council, and work closely with the National Nuclear 
Security Administration and its Stockpile Stewardship Program.
    What, in your view, are the longer-term Stockpile Stewardship 
Program goals and what are the key elements that should be addressed 
from a DOD perspective?
    Answer. Congress established the Stockpile Stewardship Program with 
the aim of creating the computational capabilities and experimental 
tools needed to enable the continued certification of the nuclear 
weapons stockpile as safe, secure, and reliable without the need for 
nuclear weapons explosive testing. The Secretaries of Defense and 
Energy are required by statute to certify annually to the Congress the 
safety, security, and reliability of the nuclear weapons stockpile.
    I believe these goals are appropriate and the program is effective, 
as evidenced by our ability to certify the stockpile for over 20 years 
without the need for underground testing. That said, while the National 
Nuclear Security Administration has made significant investments in the 
tools and facilities that have made this possible, we must now leverage 
those investments and turn our attention to executing Life Extension 
Programs so we can sustain a safe, secure, and effective stockpile for 
the future. If confirmed, I will work across the interagency to ensure 
an appropriate balance between Life Extension Programs and science-
based stockpile stewardship.
    Question. In your view is the Stockpile Stewardship Program 
providing the tools to ensure the safety, reliability, and security of 
the nuclear weapons stockpile without testing and if not what tools are 
needed?
    Answer. Yes. I believe the Stockpile Stewardship Program provides 
the requisite tools, as attested to by the directors of the nuclear 
weapons design laboratories in their annual assessment letters.
    Question. Do you believe the Administration's 1251 report sets 
forth an appropriate road map for the modernization of the nuclear 
weapons complex and the strategic delivery systems?
    Answer. Yes, the Administration's section 1251 report describes an 
appropriate roadmap for ensuring the future safety, security, and 
reliability of the nuclear stockpile and associated delivery platforms, 
including the steps necessary to modernize the aging infrastructure of 
the nuclear weapons complex. This plan represents a strong commitment 
to the nuclear mission and is an important element of assurance that 
the U.S. deterrent remains strong. Additionally, this plan reflects the 
work of the Nuclear Weapons Council in developing a responsible and 
affordable long-term plan for the Nuclear Enterprise.
    Question. Do you agree that the full funding of the President's 
plan for modernizing the nuclear weapons complex, commonly referred to 
as the 1251 report, is a critical national security priority?
    Answer. Yes, full funding of the 1251 report is a critical national 
security priority. The President's fiscal year 2016 Budget Request 
includes a significant commitment from the Department of Defense to 
modernize the nuclear weapons complex and support the long-term plan 
for extending the life of our enduring stockpile. If confirmed, I will 
support the continued modernization and sustainment of our nuclear 
weapons delivery systems, stockpile, and infrastructure.
    Question. Prior to completing this modernization effort do you 
believe it would be prudent to consider reductions below New START 
Treaty limits for either the deployed or nondeployed stockpile of 
nuclear weapons?
    Answer. It is my view that any reductions in the numbers of 
deployed and non-deployed nuclear weapons, either strategic or non-
strategic, would need to be negotiated in a manner that strengthens 
deterrence of potential adversaries, maintains strategic stability with 
Russia and China, and assures our allies and partners. The timing and 
size of reductions, if any, would have to be closely coupled to the 
status of the modernization effort. If confirmed, I will support the 
Department's continuing assessment of the proper force size and 
capabilities required for an effective nuclear deterrent.
                             cybersecurity
    Question. The Senate Armed Services Committee's inquiry into U.S. 
Transportation Command (TRANSCOM) determined that TRANSCOM was 
subjected to many cyber intrusions that were not reported. TRANSCOM 
also suffered from a lack of awareness by other law enforcement and 
national security agencies regarding cyber intrusions on TRANSCOM 
contractors as well as misunderstandings by TRANSCOM personnel on the 
rules and processes for sharing cyber intrusion-related information 
with necessary officials.
    Have you reviewed this report?
    Answer. Yes, I have reviewed the report. Cybersecurity has long 
been a high priority for USTRANSCOM, and we immediately went to work to 
address the findings identified in the report.
    Question. What actions did TRANSCOM take in response to the Senate 
Armed Services Committee report's findings?
    Answer. TRANSCOM worked with OSD and the Joint Staff to implement 
the recommendations. We established a Cyber Mission Analysis Task Force 
which used incident scenarios to refine the implementation actions. 
These actions included updating our critical contractors list and 
sharing it with the Defense Cyber Crime Center; enhancing our 
relationship with key mission partners, including the FBI and the DHS; 
encouraging our commercial partners to participate in the Defense 
Industrial Base Cybersecurity and Information Assurance Program; and 
engaging in professional associations, such as the National Defense 
Transportation Association. In addition, the command standardized cyber 
defense contracting language according to DOD acquisition guidelines 
and adopted widely-recognized standards from the National Institutes of 
Standards and Technology.
    Question. Do you feel that the Department of Defense is responding 
appropriately given recent events such as the threat nation intrusions 
into databases on U.S. personnel including DOD employees?
    Answer. Yes, I do. We continue to support key interagency partners 
in recovery and mitigation actions and we have increased our internal 
focus on strengthening cyber readiness and enforcing basic cyber 
hygiene. Additionally, protection of personal information has been part 
of our recurring operations security training for many years now. With 
respect to the recent intrusions, the Department has used a variety of 
means, including town hall meetings, to proactively inform our people 
how they can protect themselves from possible identity theft.
    Question. What actions do you plan to take, if confirmed, as the 
Vice Chairman of the Joint Chiefs of Staff to ensure that DOD reduces 
the risk of cyber intrusions?
    Answer. If confirmed, I will continue the Department's partnership 
with other U.S. agencies to defend the U.S. Homeland and U.S. interests 
from cyber-attack. Foremost, the DOD must continue to implement current 
initiatives in the DOD Cyber Strategy, including developing a ready and 
capable Cyber Mission Force and associated cyber workforce. Next, we 
must continue to improve our network security architecture and shift 
the focus from protecting service-specific networks to securing the DOD 
enterprise in a unified manner through the deployment of the Joint 
Information Environment. Additionally, I will focus on requirements for 
new weapon systems to be designed and developed to operate and survive 
against capable cyber adversaries. Finally, because the DOD cannot 
guarantee that every cyberattack will be denied successfully, I will 
ensure our forces train to operate within a degraded cyber environment.
    Question. Do you believe that the current posture of the Department 
of Defense is sufficient to deter adversaries in cyberspace?
    Answer. Cyber deterrence is complex and challenged by the number of 
actors and diversity of their capabilities and motivations. Effective 
cyber deterrence requires both policies and capabilities that are 
aligned with all the elements of our national power. The Department 
must continue to develop capabilities to attribute and deter 
cyberattacks from both state and non-state actors.
    Question. Do you believe a robust offensive cyber capability is 
required to counter the activities of our adversaries and hold their 
cyber-enabled capabilities at risk?
    Answer. Yes. One of the tenets of the Department's cyber strategy 
is the ability to provide the President a variety of cyber options, to 
include offensive options when directed. The Department, in conjunction 
with other interagency partners, must provide those capabilities should 
the need arise.
                             relationships
    Question. Other sections of law and traditional practice establish 
important relationships between the Vice Chairman and other officials. 
Please describe your understanding of the relationship of the Vice 
Chairman of the Joint Chiefs of Staff to the following officials:
    The Secretary of Defense.
    Answer. The Vice Chairman performs duties assigned to him and other 
duties as assigned by the Chairman, with the approval of the Secretary 
of Defense. In the absence or disability of the Chairman, the Vice 
Chairman acts as the Chairman and performs the duties of the Chairman 
until a successor is appointed or until the absence or disability 
ceases. These duties include providing military advice to the Secretary 
of Defense. The Vice Chairman may also provide the Secretary of Defense 
advice upon the Secretary's request in his capacity as a military 
adviser.
    Question. The National Security Advisor.
    Answer. The Vice Chairman works closely with the Chairman and the 
National Security Advisor to ensure that military efforts and options 
are synchronized with other department and agency efforts across the 
government. When performing the duties of the Chairman, the Vice 
Chairman serves as an advisor to the National Security Council and 
works with the National Security Advisor to inform and implement 
Presidential decisions.
    Question. The Deputy Secretary of Defense.
    Answer. The relationship of the Vice Chairman with the Deputy 
Secretary is similar to that with the Secretary. The Deputy Secretary 
of Defense has been delegated full power and authority to act for the 
Secretary of Defense on any matters upon which the Secretary is 
authorized to act.
    Question. The Under Secretaries of Defense.
    Answer. The Under Secretaries of Defense are the principal staff 
assistants and advisers to the Secretary regarding matters related to 
their functional areas, and they exercise policy and oversight 
functions within their respective areas. In carrying out their duties, 
the Under Secretaries issue instructions and directive memoranda to 
implement the Secretary's approved policies. When carrying out their 
responsibilities as directed by the President and Secretary of Defense, 
Under Secretaries typically transmit communications to commanders of 
the unified and specified commands through the Chairman of the Joint 
Chiefs of Staff. If the Chairman is absent or disabled, they can 
communicate through the Vice Chairman as necessary.
    Question. The General Counsel of the Department of Defense.
    Answer. The DOD General Counsel serves as the chief legal officer 
of the Department of Defense, and generally is responsible to oversee 
legal services, establish policy, and administer the DOD Standards of 
Conduct Program. The DOD General Counsel also establishes policy on 
specific legal issues and provides advice on significant international 
law issues raised in relation to major military operations, the DOD Law 
of War Program, or the legality of weapons reviews. Communications 
between the combatant commanders and the DOD General Counsel are 
normally transmitted through the Chairman of the Joint Chiefs of Staff. 
The office of the DOD General Counsel works closely with the Office of 
Legal Counsel to the Chairman of the Joint Chiefs of Staff.
    Question. The Department of Defense Inspector General.
    Answer. The Department of Defense Inspector General performs the 
duties, has the responsibilities, and exercises the powers specified in 
the Inspector General Act of 1978.
    The Vice Chairman must cooperate with and provide support to the 
Department of Defense Inspector General as required.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman performs the duties assigned to him as a 
member of the Joint Chiefs of Staff and such other duties as assigned 
by the Chairman, with the approval of the Secretary of Defense. When 
there is a vacancy in the office of the Chairman, or during the absence 
or disability of the Chairman, the Vice Chairman acts as Chairman and 
performs the duties of the Chairman until a successor is appointed or 
the absence or disability ceases. If confirmed, I look forward to a 
close working relationship with the Chairman.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries are the heads of their respective military 
Departments and are responsible for, and have the authority necessary 
to conduct, all affairs of their respective Departments. Subject to the 
authority, direction and control of the Secretary of Defense, and 
subject to the authority of the combatant commanders, the Secretaries 
of Military Departments are responsible for administration and support 
of forces that are assigned to unified and specified commands. When the 
Chairman is absent or his office is vacant, the Vice Chairman advises 
the Secretary of Defense on the extent to which program recommendations 
and budget proposals of the Military Departments conform to priorities 
in strategic plans and with the priorities established for requirements 
of the Combatant Commands. The Secretaries of the Military Departments 
also are responsible for such other activities as may be prescribed by 
law or by the President or Secretary of Defense.
    Question. The Chiefs of Staff of the Services.
    Answer. The Vice Chairman has a close, collaborative relationship 
with the Service Chiefs. As a result of the Goldwater-Nichols Act, the 
Service Chiefs are not in the operational chain of command. However, 
this change does not diminish their importance with respect to their 
Title 10 responsibilities. The Chiefs of Staff of the Services serve 
two primary roles. First, they are responsible for the organization, 
training, and equipping of their respective Services. They cooperate 
with and support the combatant commanders to assure the preparedness of 
assigned forces for missions as directed by the Secretary of Defense 
and the President. Second, as members of the Joint Chiefs of Staff, the 
Chiefs are advisers to the President, National Security Council, and 
the Secretary of Defense as the senior uniformed leaders of their 
respective Services. In this function, they play a critically important 
role in shaping military advice and developing our joint capabilities. 
The Vice Chairman works closely with the Service Chiefs to fulfill war-
fighting and operational requirements.
    Question. The Combatant Commanders.
    Answer. The commander of a combatant command is responsible to the 
President and to the Secretary of Defense for the performance of 
missions assigned to that command by the President or by the Secretary 
with the approval of the President. Additionally, the Chairman serves 
as the means of communication between the combatant commanders and the 
President or Secretary of Defense when directed by the President. When 
there is a vacancy in the office of Chairman or in the absence or 
disability of the Chairman, the Vice Chairman acts as Chairman when 
interacting with the combatant commanders. The Vice Chairman should 
work closely with the combatant commanders to enable their war-fighting 
capabilities and provide other support and coordination as required.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief of the National Guard heads a joint activity of 
the Department of Defense and is the senior uniformed National Guard 
officer responsible for formulating, developing and coordinating all 
policies, programs and plans affecting Army and Air National Guard 
personnel. Through the Chairman of the Joint Chiefs of Staff, the Chief 
of the National Guard Bureau is the principal adviser to the Secretary 
of Defense on National Guard matters. He also serves as the principal 
adviser to the Secretary and Chief of Staff of the Army and the 
Secretary and Chief of Staff of the Air Force on all National Guard and 
Air National Guard issues. The National Guard Bureau Chief also serves 
as the department's official channel of communication with both the 
Governors and Adjutants General. As a member of the Joint Chiefs of 
Staff, the Chief of the National Guard Bureau has the specific 
responsibility of addressing matters involving non-Federalized National 
Guard forces in support of homeland defense and civil support missions. 
The Vice Chairman works closely with the Chief of the National Guard 
Bureau to provide support as required.
    Question. The Commander, U.S. Forces-Afghanistan.
    Answer. The Chairman and the Vice Chairman are not in the chain of 
command of the Commander, U.S. Forces-Afghanistan (USFOR-A). The 
Commander, USFOR-A reports to the Commander, USCENTCOM, who, in turn, 
reports directly to the Secretary of Defense. The Commander, USFOR-A 
does not have a formal command relationship with the Chairman or the 
Vice Chairman of the Joint Chiefs of Staff, but he coordinates with the 
Chairman through the Commander, USCENTCOM on a regular basis. The 
Commander, USFOR-A sends his advice and opinions related to Operation 
Resolute Support to the Commander, USCENTCOM, who, in turn, presents 
them to the Chairman. When there is a vacancy in the office of Chairman 
or in the absence or disability of the Chairman, the Vice Chairman acts 
as Chairman when interacting with the Commander, U.S. Forces--
Afghanistan.
                            major challenges
    Question. What do you consider to be the most significant 
challenges you expect to face if you are confirmed?
    Answer. The most significant challenge I expect to face, if 
confirmed, is the combination of a highly complex and volatile security 
environment, a Joint Force coming off a fourteen year war footing, and 
continued fiscal uncertainty. We must simultaneously contend with both 
near-peer (and rising near-peer) states as well as with increasingly 
capable and global non-state actors who seek to threaten the U.S. 
homeland, our interests, and our allies. Meanwhile we are working to 
rebuild the capacity, capability, and readiness of our Joint Force. 
Furthermore we must do this with one hand tied behind our back without 
the predictability of an annual base budget and without the authority 
to implement necessary and cost-saving reforms within the Department.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will work with the Department and 
interagency leadership and with the Congress to identify, communicate, 
and manage the operational and fiscal risks while continuing to 
advocate for the authorities and resources needed to develop and field 
a Joint Force capable of meeting the demands of the Nation today as 
well as prepare for future threats.
                               priorities
    Question. Recognizing that challenges, anticipated and unforeseen, 
will drive your priorities to a substantial degree, if confirmed, what 
other priorities, beyond those associated with the major challenges you 
identified in the section above, would you set for your term as Vice 
Chairman?
    Answer. My priorities will be focused on developing necessary 
capabilities, concepts, and forces to defend the Nation in the 21st 
Century. This includes modernizing our aging nuclear enterprise, 
protecting our assured access to space, protecting DOD cyber networks 
and developing offensive cyber options for the President. It also 
includes supporting the Defense Innovation Initiative and supporting 
Secretary Carter's Force of the Future Initiative to develop and care 
for the best All Volunteer Force the world has ever seen.
                            chain of command
    Question. Section 162(b) of title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the combatant commands. 
Section 163(a) of title 10 further provides that the President may 
direct communications to combatant commanders be transmitted through 
the Chairman of the Joint Chiefs of Staff and may assign duties to the 
Chairman to assist the President and the Secretary of Defense in 
performing their command function.
    Do you believe that these provisions facilitate a clear and 
effective chain of command?
    Answer. Yes. The law is clear that the chain of command runs from 
the President to the Secretary of Defense and from the Secretary of 
Defense to the commanders of the combatant commands. Military doctrine 
reflects these command relationships. If confirmed, I will enable the 
decision-making process and transmit orders as directed.
    Question. Are there circumstances in which you believe it is 
appropriate for U.S. military forces to be under the operational 
command or control of an authority outside the chain of command 
established under title 10, United States Code?
    Answer. U.S. military forces should normally operate under the 
chain of command established in Title 10. There may be times, such as 
in the case of certain sensitive military operations, where it may be 
appropriate for the President to direct other temporary command 
relationships. However, in all cases U.S. armed forces supporting such 
operations remain bound by the law of armed conflict, are accountable 
to the Title 10 chain of command, and are subject to the Uniform Code 
of Military Justice for disciplinary matters.
    Question. What is your understanding and assessment of the 
authorities and agreements which are in place to allow U.S. military 
personnel to carry out missions under the authorities contained in 
title 50, United States Code? Do you believe any modifications to these 
authorities are necessary?
    Answer. Under Title 50, the Secretary of Defense is charged with 
ensuring that the military departments maintain sufficient capabilities 
to collect and produce intelligence to meet requirements of the DNI, 
Secretary of Defense, CJCS, and COCOMs. Title 50 further authorizes the 
Secretary to use such elements of the DOD as may be appropriate for the 
execution of the national intelligence program functions described in 
section 3038 of title 50. As a general rule, our military forces are 
most effective when they operate under a military chain of command. 
However, there are circumstances in which exceptions to this general 
rule would permit our forces to be employed more effectively. There are 
existing authorities and agreements to facilitate the review and 
approval of such exceptions. I have no recommendations for changes to 
this framework at this time.
 advice of the service chiefs, combatant commanders, and chief of the 
                         national guard bureau
    Question. Section 163 of title 10, United States Code, provides 
that the Chairman of the Joint Chiefs of Staff serves as the spokesman 
for the combatant commanders, especially on the operational 
requirements of their commands. Section 151 of title 10 provides for 
the other members of the Joint Chiefs of Staff to submit their advice 
or opinion, in disagreement with or in addition to the advice or 
opinion of the Chairman, and requires the Chairman to provide that 
advice at the same time that he presents his own advice to the 
President, National Security Council, or Secretary of Defense.
    What changes to section 151 or 163, if any, do you think may be 
necessary to ensure that the views of the individual Service Chiefs, 
combatant commanders, and the Chief of the National Guard Bureau are 
presented and considered?
    Answer. I presently do not see a need to change section 151 or 163.
                       officer management issues
    Question. As the Vice Chairman of the Joint Chiefs of Staff you 
would have significant responsibilities with regard to joint officer 
management policies.
    If confirmed, what modifications would you make to provide the 
Department of Defense and the military services the force management 
tools necessary to meet the needs of the 21st century joint, all-
volunteer force?
    Answer. The Department, the Joint Staff, and the Services have 
worked over the past 10 years to develop force management tools to meet 
the challenges of the 21st century joint force. If confirmed, I will 
take every opportunity to examine the strategic environment to ensure 
that the tools remain relevant.
    Question. Do you believe the current DOD and service procedures and 
practices for reviewing the records of officers pending nomination by 
the President are sufficient to ensure the Secretaries of the military 
departments, the Secretary of Defense, and the President can make 
informed decisions?
    Answer. The current procedures and practices provide the Department 
and the Services the policies and procedures to identify officers for 
future leadership positions. The Services' evaluations of the 
qualifications, previous performance, and potential of their officers 
provides the information to make informed decisions regarding the 
promotion and utilization of the Services' officers.
    Question. In your view, are these procedures and practices fair and 
reasonable for the officers involved?
    Answer. I believe the procedures and practices are fair and 
reasonable for the officers involved.
    Question. What modifications, if any, to the requirements for joint 
officer qualifications are necessary to ensure that military officers 
are able to attain meaningful joint and service-specific leadership 
experience and professional development?
    Answer. I believe the requirement for officers to be educated, 
trained and oriented in joint matters through challenging joint 
experiences appropriately prepares officers for the challenges at both 
the strategic and operational level. I currently do not recommend any 
modifications to the joint officer qualification requirement.
    Question. In your view, what is the impact of joint qualification 
requirements on the ability of the services to select the best 
qualified officers for promotion and to enable officer assignments that 
will satisfy service-specific officer professional development 
requirements?
    Answer. Although there is limited time to meet the developmental 
requirements, the Services have proven they are able to develop their 
officers' and provide a cadre of well-rounded and competitive officers 
capable of integrating service functions at both the strategic and 
operational level. I believe the end result provides the Department 
with officers who possess the greatest opportunity in senior leadership 
positions.
    Question. In 2008, Congress created the requirement that the Legal 
Counsel to the Chairman of the Joint Chiefs of Staff be selected by a 
board of officers convened by the Secretary of Defense. This process 
remains the only joint duty officer position specifically selected by a 
selection board from among qualified officers of the armed forces.
    Do you consider the selection process required by section 156 of 
title 10, United States Code, to be an efficient and effective process 
for selecting officers from among the services to serve in this joint 
position?
    Answer. Yes. The selection process for this unique statutory 
position is efficient and effective.
    Question. What lessons, if any, have been captured from this joint 
officer selection board process that could improve the processes for 
selection of officers in the military services?
    Answer. My understanding is the lessons gleaned from the joint 
board process are specific to the joint environment and therefore would 
not apply to Services' officer selection.
    Question. Would you support expanding the process used to select 
the Legal Counsel to the Chairman of the Joint Chiefs of Staff to other 
joint billets? Why or why not?
    Answer. We have a codified process which allows the Department to 
select qualified officers into established joint positions. Expanding 
our selection process, at this time, is unnecessary. Established 
processes used to select general/flag officers to joint positions are 
sound. The process for identifying officers gives the Combatant 
Commander and the Chairman flexibility. We can select from across the 
Services (to include the Coast Guard); Active, Guard, and Reserve 
Component, to ensure we get the right individual with the right skills 
and experience. The process also gives the commander and leadership an 
opportunity to quickly review a slate of nominated officers, and 
conduct interviews as necessary. Finally, the process is extremely 
responsive to emerging or unexpected requirements. We can quickly alert 
the Services to identify eligible personnel, select, nominate and have 
them in position in as little as 90 days if necessary.
                       headquarters streamlining
    Question. The Senate reported Fiscal Year 2016 National Defense 
Authorization Act directs reforms to consolidate the headquarters 
functions of the Department of Defense and the military departments.
    Answer. If confirmed, and if the provisions in the bill become law, 
what would be your role in identifying and implementing streamlining 
and reductions in the Joint Staff?
    If confirmed, I will engage with the Chairman and Joint Staff to 
consider organizational streamlining by reducing, realigning, or 
eliminating redundant or conflicting requirements.
    Question. What Joint Staff areas, specifically and if any, do you 
consider to be the priorities for possible consolidation or reductions?
    Answer. An example of consolidation efforts that I would consider, 
if confirmed, is the potential consolidation of IT services and 
maintenance activities within the Pentagon to reduce costs and 
unnecessary redundancies. The Joint Staff J6 is currently working with 
U.S. Army Information Technology Agency (ITA), Washington Headquarters 
Services (WHS) and Defense Information Systems Agency (DISA) to 
identify potential consolidation options. Additional potential areas 
for consolidation or reduction that I would consider, if confirmed, 
include the consolidation of support functions within Joint Staff 
directorates and the elimination of duplicative functions accomplished 
by the OSD, Joint Staff and Defense Activities.
    Question. To the extent that the Joint Staff has functions that 
overlap with the Department of Defense and the military departments, 
what would be your approach to consolidating and reducing redundancy?
    Answer. First we will have to determine if duplicative or redundant 
functions are directed by statute. Some duplicative responsibilities 
are laid out in law with some portions executed by the Department, some 
by the Joint Staff and some by the military departments. Legislative 
changes may be required to consolidate and reduce redundancies. A 
combined review by the OSD, Services and the Joint Staff may be the 
best course of action to identify duplicative functions to reduce, 
realign, or eliminate.
          training and assignment of general and flag officers
    Question. In your view, do a sufficient number of general and flag 
officers have advanced training and degrees in scientific and technical 
disciplines?
    Answer. Yes. The Joint Staff continues to work closely with the 
Service Chiefs and other leaders to ensure an appropriate pipeline of 
specialized, technical officer talent is available with the right-
skilled and experienced leadership. We also have a rigorous and 
deliberate Service accession, training and development processes 
generate the technical and scientific capability needed in sufficient 
numbers to meet DOD mission needs.
    Question. Are the career paths for officers with technical skills 
appropriate to ensure that the Department and the services can execute 
complex acquisition programs, adapt to a rapidly changing technological 
threat environment, and make informed investment decisions? If not, 
what will you do to address this deficiency?
    Answer. While the Services vary with respect to the use of military 
in acquisition, each Service tailors officer career paths to meet 
Service mission priorities, which includes successfully executing 
critical major acquisition programs. I believe the Department has, and 
continues to grow, world-class, technically astute officers ready to 
take on the challenges of a rapidly changing technical and acquisition 
environment. Each Service has career path models that are appropriate 
and aligned with their force management process.
    Question. In your view do current general and flag officer 
assignment policies provide and incentivize qualified officers to serve 
in acquisition programs? Do tour lengths for those assignments enable 
and empower such officers to effectively manage acquisition programs? 
If not, what changes do you believe are necessary to improve the 
effectiveness of senior officers assigned those duties?
    Answer. Yes. If confirmed, I will work to strengthen communication 
processes between Vice Service Chiefs, Service Acquisition Executives 
and OSD leadership to make sure we continuously improve our policy, 
development and assignment of top motivated, qualified military 
personnel in Defense Acquisition. Senior officers are assigned with 
adequate tenure to effectively manage their programs and the Services 
demonstrate flexibility in adjusting tour lengths to logical 
progression points in acquisition programs.
    Question. Are you satisfied that the Department of Defense, the 
Joint Staff, and the military services have in place sufficient 
training and resources to provide general and flag officers, and Senior 
Executive Service employees the training they need to make informed, 
ethical decisions? If not, what actions would you take, if confirmed, 
to address your concerns?
    Answer. Yes. The ability to make ethical decisions based on the 
shared values of the profession of arms is identified as a specific 
Desired Leader Attribute for leaders throughout the military and is
    common to all Joint and Service developmental efforts. The ethical 
foundation is laid at the outset of an officer's career and is further 
developed and reinforced in formal education and training settings 
throughout their progression through the ranks. If confirmed, I will 
ensure these high standards are upheld.
    Question. It has been observed that despite numerous changes in the 
law, the requirements and the process for attaining joint officer 
qualifications is still beset by systemic challenges. Some of these 
challenges appear to force the services to make officer assignments to 
``check the box'' for joint qualifications at the cost of depriving the 
services of flexibility to assign officers to other career enhancing 
and professional development opportunities. Officers not assigned to a 
designated joint billet on an operational staff receive joint credit 
while other officers supporting the same joint commander do not receive 
joint credit unless they submit a package to have their assignments 
qualify for joint service. As operational tempo remains high and as end 
strength continues to decline to historically low levels, some 
exceptionally qualified officers will be unable to serve in qualifying 
assignments to earn joint credit because the Nation demands they 
perform other critical duties. As a result those officers may be 
disadvantaged professionally as compared to their peers for promotion 
eligibility. Given the substantial resources invested in the developing 
officers to serve successfully in, and to support or lead joint forces, 
more must be done to improve the joint qualification system or to 
replace it with a system that is more effective.
    If confirmed, what steps would you take to review the joint 
qualification requirements to ensure that the qualification process is 
matched to the increasingly joint service environment in which many 
officers serve throughout their careers?
    Answer. Developing officers to successfully serve in or lead joint 
forces is very important and worth the resources invested. Services 
must actively manage the officers' careers to ensure the most talented 
officers obtain the joint qualification. Officers who do not develop 
these skills, no matter how exceptional their performance at the 
tactical level, are not adequately prepared to accept challenging joint 
assignments when compared to their peers. The joint officer 
qualification process provides a tested and flexible means to ensure 
officers develop the skills necessary for successful service at the 
operational and strategic levels. The current process also already 
includes the means for officers in non-joint operational assignments to 
receive credit toward joint qualification if their duties lead to the 
acquisition of significant experience in joint matters. If confirmed, I 
will work to ensure the joint officer qualification requirements, 
process, and resource investments continue to deliver the Joint Force 
necessary to meet the demands of the Nation.
    Question. Should the formal requirement for joint qualifications be 
eliminated as a consideration for promotions and assignments?
    Answer. No. I believe we need to continue to ensure our future 
senior leaders are well-prepared to operate in challenging joint 
environments. The promotion requirement incentivizes both the Service 
and the officer to obtain joint experience.
                    security strategies and guidance
    Question. How would you characterize current trends in the range 
and diversity of threats to national security we face today to national 
security?
    Answer. The range and diversity of threats are increasing. Both 
potential state and non-state adversaries are projected to possess 
increased military capabilities, and will continue to benefit from the 
rapid diffusion of technology. Likewise, future adversaries are also 
developing new ways to counter our traditional military advantages.
    Question. The Defense Strategic Guidance issued January 2012 took 
into account a $487 billion dollar reduction in defense resources.
    With the additional $500 billion in cuts to the Department of 
Defense as a result of sequestration, is the Defense Strategic Guidance 
still valid?
    Answer. If sequestration proceeds we receive less funding, then we 
will be forced to make further decisions with regard to capabilities, 
capacity and readiness--which will result in increased risk for our 
combatant commanders. Sequestration will have a direct impact on the 
readiness of the Joint Force to execute operations and support the 
goals outlined in the Defense Strategic Guidance.
    Question. In your view, as Russian aggression and the emergence of 
ISIL have occurred since the Defense Strategic Guidance was issued in 
January 2012, is that strategic guidance still appropriate for the 
threats we face today or do you think an update is warranted?
    Answer. The 2012 Defense Strategic Guidance and the 2014 
Quadrennial Defense Review provide broad guidance to meet the full 
range of potential threats, from high-end state adversaries to non-
state organizations. As threats evolve, it is appropriate to review the 
assumptions made in formulating a strategy. If confirmed, I will work 
with the Joint Staff and the Department to determine the necessity for 
an update to the strategic guidance.
    Question. In your view, are our defense strategy and current 
establishment optimally structured, with the roles and missions of the 
military departments appropriately distributed, and U.S. forces 
properly armed, trained, and equipped to meet security challenges the 
Nation faces today and into the next decade?
    Answer. With planned, stable funding, I am confident we will be 
able to balance capability, capacity, and readiness. If BCA returns, 
the Services will have to make additional cuts to their forces, 
impacting capabilities, capacity and readiness, leading to increased 
risk to meeting current and future security challenges.
    Question. If confirmed, what changes, if any, would you propose to 
the capabilities, structure, roles, and missions of the defense 
establishment?
    Answer. If confirmed as Vice Chairman, I would focus on finding the 
balance between capacity, capabilities, and readiness for the Joint 
Force in order to best prepare for current and future threats. Our 
cyber, space, and nuclear capabilities will be an area of particular 
emphasis.
                             strategic risk
    Question. How and over what periods of time, if at all, will 
reductions to Army and Marine Corps end strength increase strategic 
risk?
    Answer. Army and Marine Corps forces are an important part of our 
ability to respond to multiple, simultaneous, or near-simultaneous, 
crises and to deter conflicts. Our soldiers and Marines also play a key 
role in reassuring our allies and shaping conditions overseas through 
security cooperation activities. End strength levels must be considered 
in light of these missions, the strategic environment, readiness 
levels, and operational tempo.
    Question. What is your understanding and assessment of the Army and 
Marine Corps' decision to reduce active end strength to 450,000 and 
182,000 soldiers respectively by the end of 2017?
    Answer. I believe that any change in end strength needs to be 
understood in terms of risk. Reducing our Army and Marine Corps end 
strength increases risk and may impact our ability to shape world 
conditions, assure allies, and deter conflicts. However, I believe our 
current strategy is still achievable at these end strengths, though at 
increased risk. Any further cuts though, would dramatically increase 
our strategic risk.
    Question. If confirmed, what additional actions would you take, if 
any, to reduce or mitigate this strategic risk?
    Answer. I believe we would have to prioritize what we are asking 
our forces to do on a daily basis. For some missions, we should look to 
our allies and partners to help mitigate risk. In other missions, we 
would need to look for different ways to operate. Ultimately, 
consistent with our funding levels, we need to align resources to 
counter our most dangerous threats.
    Question. Upon issuance of the 2014 Quadrennial Defense Review, the 
fiscal year 2015 budget reduced projected defense budgets by $113 
billion over five years. What was the incurred strategic risk of this 
reduction relative to the 2012 Defense Strategic Guidance?
    Answer. A reduction on defense resources in an increasingly complex 
strategic environment will introduce strategic risk to our defense 
strategy (both the QDR and DSG). I am happy to discuss further details 
in a classified venue.
                       chairman's risk assessment
    Question. In his 2013 risk assessment, Chairman Dempsey identified 
for the first time six National Security Interests that were derived 
from four enduring interests contained in the 2010 National Security 
Strategy. The April 2013 assessment identified several areas of broad 
and significant risk to national security as a result of current budget 
issues.
    How would you characterize the trends of risk in these areas 
(whether they are increasing or decreasing)?
    Answer. Overall, strategic and military risk trends are increasing. 
I would be happy to discuss risk in a classified venue.
    Question. What is your current assessment of the risk to combatant 
commanders in their ability to successfully execute their operational 
plans?
    Answer. In an unclassified forum I am reluctant to go into much 
detail. Generally, our combatant commanders face increasing risk, 
especially if BCA goes back into effect. We ask a lot of our 
commanders, and we must be prepared to resource them appropriately. I 
will say that all military operations entail risk, but we are committed 
to providing the President a range of options given any threat to U.S. 
interests.
                             transformation
    Question. Military ``transformation'' has been a broad objective of 
the Armed Forces since the end of the Cold War. In your view, what does 
military ``transformation'' mean?
    Answer. Military transformation means building a Joint Force that 
is intellectually and organizationally capable of seizing and 
capitalizing on emerging technological or organizational opportunities, 
not just adapting or reacting to conditions that the world presents. 
Military transformation is realized over time through constant 
innovation in our organizational structures, doctrine, education, 
leader development and material capabilities.
    Question. What is your understanding and assessment of the progress 
made by the Department, including the Joint Chiefs of Staff and the 
Joint Staff, toward transforming the Armed Forces?
    Answer. My understanding is that we are making progress, but there 
is more work to be done. We are continuing the implementation of the 
Joint Operational Access Concept, a concept that provides a framework 
to ensure the Joint Force can continue to conduct operations to gain 
access based on the requirements of the broader mission despite growth 
of anti-access and area-denial threats. We're also making progress in 
the Joint Information Environment, implementing innovation change 
across the Department that enhance mission effectiveness and cyber 
security. Ultimately, our goal is a versatile, responsive, decisive, 
and affordable Joint Force.
    Question. If confirmed, what goals, if any, would you establish 
during your term as Vice Chairman regarding military transformation in 
the future?
    Answer. If confirmed, I believe we should be selective in the 
capabilities we choose to reconstitute as we draw down in Afghanistan, 
while ensuring that lessons learned over a decade of war are retained. 
As we get smaller, we must become increasingly versatile, agile and 
opportunity-seeking. I intend to use my role in the JROC and innovation 
initiatives to advance this transformation.
    Question. Do you believe the Joint Staff should play a larger role 
in transformation? If so, in what ways?
    Answer. I believe the Joint Staff has an increasingly important 
role to play in developing a common understanding of future challenges 
and how the Joint Force must evolve for success in the future operating 
environment. To this end, the Joint Staff has a number of useful and 
unique mechanisms at its disposal. These include military strategy 
development, joint concepts, war gaming, future joint force 
requirements, and joint training. I see the Joint Staff increasingly as 
an aligning mechanism across all the different Joint Force development 
processes in the department.
          military capabilities in support of defense strategy
    Question. In your opinion, do current military plans include the 
necessary capabilities to meet the defense strategy stated in the 2014 
QDR? Where are areas of higher risk?
    Answer. In an unclassified forum I am reluctant to go into much 
detail. The Joint Staff and the Services constantly review our 
capability portfolios in order to ensure we can achieve our objectives 
against potential adversaries. The committee receives a quarterly 
classified report that details gaps in our current military plans.
    Question. Does the 2014 QDR specify the correct set of capabilities 
to decisively win in future high-end engagements?
    Answer. I believe future engagements may be characterized by 
increasingly sophisticated adversaries employing advanced weapons and 
challenging the access and advantages in space and cyberspace that U.S. 
forces currently enjoy. The 2014 QDR calls for continued investment in 
new systems and development of operational concepts to address these 
evolving threats. The recently released National Military Strategy 
reinforces the QDR's guidance; prioritizing investments to counter 
anti-access area denial threats, as well as space, cyber, and hybrid 
threats.
    Question. According to the force sizing construct in the 2014 QDR, 
American forces should be able to ``defeat a regional adversary in a 
large-scale multi-phased campaign, and deny the objectives of--or 
impose unacceptable costs on--another aggressor in another region.''
    In your opinion, does the Department's force sizing construct 
provide adequate capability to address the country's current threat 
environment?
    Answer. Yes, the force sizing construct, with its emphasis on a 
range of military options, provides adequate capability to address the 
country's current threat environment. This particular excerpt applies 
to situations where deterrence has failed. The first portion of the 
force sizing construct states that the U.S. military will be ``capable 
of simultaneously defending the homeland; conducting sustained, 
distributed counterterrorist operations; and in multiple regions, 
deterring aggression and assuring allies through forward presence and 
engagement.'' The construct involves more than just capability, it also 
provides a framework to evaluate capacity and readiness. To this end, 
we need support from Congress to ensure that we have sufficient 
resources to conduct a wide spectrum of missions globally, while 
maintaining a thoughtful balance of capability, capacity and readiness 
to respond to a crisis and win decisively.
    Question. According to the force sizing construct in the 2014 QDR, 
American forces should be able to ``defeat a regional adversary in a 
large-scale multi-phased campaign, and deny the objectives of--or 
impose unacceptable costs on--another aggressor in another region.'' 
Are the services adequately sized to meet this construct?
    Answer. I believe the Services are able to provide forces to meet 
the construct. Resource constraints have eroded the readiness of the 
joint force, however, and extended the timelines to make forces 
available to respond to combatant commander needs. Lack of reliable 
funding levels hinders our ability to field trained, read forces to 
meet combatant commander demand.
    Question. What will you advise if the Department cannot meet the 
demands placed on it?
    Answer. I would advise that we carefully prioritize the most 
important missions necessary for meeting our military and defense 
objectives and for protecting our national security interests. I would 
also advise that we consistently work with Congress to ensure the 
Department has sufficient resources to meet the demands the Nation 
places upon it.
                              future army
    Question. The Defense Strategic Guidance (DSG) of January 2012 
articulated the need to shift strategic emphasis toward the Asia-
Pacific region while continuing to engage in the Middle East. Do you 
agree that future high-end military operations, as envisioned by the 
DSG, will primarily be naval and air engagements such that the Army 
will have difficulty justifying the size, structure, and cost of the 
number and equipment its combat formations?
    Answer. Looking only at current threats in a particular region as a 
way to justify force structure is unwise. We must have a robust and 
capable military ready to respond to multiple threats. The Army has, 
and will always have, an essential role in the Asia-Pacific region as 
well as in the rest of the world. If confirmed as Vice Chairman, I 
would support the Chairman in seeking a fully-trained joint force ready 
to defend our national security wherever it is threatened.
    Question. In your view, what are the most important considerations 
or criteria for aligning the Army's size, structure, and cost with 
strategy and resources?
    Answer. Our Nation needs an Army that conducts full spectrum 
operations as part of the joint force. It must be appropriately sized, 
structured, and equipped to in order to defend the Nation and defeat 
our adversaries. The Quadrennial Defense Review deemphasized long 
duration stability operations and reinforced the importance of 
defeating and denying the objectives of an adversary. The Army 
continues realigning and resizing consistent with this guidance.
    Question. If confirmed, what actions, if any, would you propose to 
properly align the Army's size and structure with the requirements of 
security strategies and the likely availability of resources?
    Answer. The Department has assessed our ability of all Services to 
execute the defense strategy with their programmed force structure, 
including the Army. We can execute our strategy at current funding 
levels with acceptable risk. With the Army, and all of the Services, we 
must continually assess threats and make adjustments to ensure we have 
a healthy force, with the right mix between the active and reserve 
components.
                           defense reduction
    Question. In your view, what have been/will be the impacts of the 
following budget reductions on the military, their capability, 
capacity, and readiness?
    Initial Budget Control Act reduction of $487 billion
    Answer. The initial Budget Control Act resulted in an immediate and 
substantial reduction to the Department's topline and forced our 
military to make difficult resource decisions, such that we now have a 
strategy with little to no margin for surprise. The BCA reduction 
translates to increased risk to our strategy, across the board.
    Question. Sequestration in fiscal year 2013
    Answer. Due to the nature of sequestration, the fiscal year 2013 
cuts reduced already-strained readiness. To date, sequestration has 
resulted in cuts to training, exercises, deployments and maintenance, 
all of which have a negative impact on force morale. Further, the 
sequester reductions disrupted modernization efforts and resulted in 
civilian furloughs and a hiring freeze.
    Question. Reduction of $115 billion in projected spending in the 
fiscal year 2015 budget, in line with the 2014 Quadrennial Defense 
Review
    Answer. The fiscal year 2015 budget request assumes higher risks in 
some areas, but this budget helps us to remain a modern and capable 
military even while transitioning to a smaller force and resetting 
readiness over time. The $115 billion reduction refers to the 
difference between the PB15 (FYDP) submission and the BCA sequestration 
levels across fiscal year 2015-19. Funding to the sequester levels 
would result in reduced force structure, decreased readiness funding, 
exacerbating the existing readiness shortfalls, and reductions to 
modernization efforts. It would erode our ability to respond to 
emergent challenges (i.e., increasingly contested space and cyber 
domains, a resurgent Russia, the Ebola response, and the rise of ISIL), 
and our ability to execute the defense strategy.
    Question. Sequestered Budget Control Act discretionary caps 
starting in fiscal year 2016 onward
    Answer. If sequester level cuts return in fiscal year 2016, then we 
will see increased risks and fewer military options to defend our 
Nation and its interests. The impact of sequestration and other budget 
constraints will further reduce unit readiness and disrupt 
modernization. The effects caused by deferred maintenance, and lost 
training will impose significant strain on long-term institutional 
readiness. Ultimately, reduced readiness (i.e., reduced training 
cycles, deferred maintenance, and the continuing pace of current 
operations) will damage the effectiveness, credibility and the morale 
of our military. Continued sequester cuts will create a situation where 
our defense strategy may no longer be viable.
    Question. The fiscal year 2016 budget request assumes that the 
Budget Control Act will be amended in fiscal year 2016. The fiscal year 
2016 budget resolution passed by the Senate and House of 
Representatives do not assume this but instead provides $38 billion of 
the necessary spending through OCO budget. Should this funding not be 
available, what recommendations would you have, if confirmed, for how 
the Department of Defense should manage the $35 billion in cuts for 
fiscal year 2016?
    Answer. We remain hopeful that Congress can halt the abrupt, deep, 
and blunt cuts of sequestration and we will continue to reduce costs 
through increased efficiency and reforms, some requiring Congressional 
support. But an fiscal year 2016 budget at BCA cap levels will create 
risks requiring us to revisit the defense strategy. With a $35 billion 
cut in fiscal year 2016, we will be forced to further reduce the size 
of the force, delay readiness restoration, and reduce modernization and 
investment programs.
    Question. What are your views on the impact that these cuts could 
have on readiness?
    Answer. The loss of $35 billion from the fiscal year 2016 defense 
budget would gravely undercut the Department's readiness and future 
force generation capability. We would be forced to mortgage readiness 
recovery, equipment recapitalization, and force modernization in order 
to support currently deployed and next-to-deploy forces. Placing all of 
this in the context of expanding global threats, we would be unable 
execute the defense strategy. Sufficient and predictable resourcing is 
critical in our ability to maintain both military readiness and to meet 
additional operational demands.
    Question. What are your views on the impact that these cuts could 
have to military capabilities?
    Answer. Because of the nature of the sequester mechanism, funding 
for operations and maintenance, procurement, RDT&E, and military 
construction suffer disproportionately. The result of these cuts would 
be a military that is smaller and less capable. While our military 
would continue to provide presence and respond to crises, the fiscal 
year 2016 BCA cuts would increase risk, prolong readiness recovery, and 
delay necessary modernization for hundreds of programs, large and 
small. Cuts in funding for research and development would erode the 
technological superiority enjoyed by U.S. forces and increase risk in 
future conflicts.
                           readiness funding
    Question. Given the reductions in readiness funding, what is your 
assessment of the current readiness of the Armed Forces to meet 
national security requirements across the full spectrum of military 
operations?
    Answer. The current readiness of the Joint Force poses significant 
risk to our ability to execute the National Military Strategy. 
Sequestration exacerbated the existing state of poor readiness as a 
result of over a decade of exceptional demand in defense of the Nation. 
The Bipartisan Budget Act restored some resources, and provided much 
needed fiscal certainty and stability, thereby inhibiting any further 
readiness decline. Fully restoring readiness of the Armed Forces to 
meet national security requirements across the full spectrum of 
military operations requires readiness recovery time coupled with 
sufficient and predictable resourcing.
    Question. What is your assessment of the near term trend in the 
readiness of the Armed Forces?
    Answer. Near-term trends will remain significantly-less-than-
optimal for the foreseeable future unless and until Congress provides 
sufficient and predicable funding and the authorities for the 
Department to implement critical cost-saving reforms. The loss of 
additional resourcing and/or the advent of increased operational 
demands would introduce a significant amount of additional risk to 
ongoing military operations.
    Question. How critical is it to find a solution to sequestration 
given the impacts we have already seen to DOD readiness in fiscal year 
2014?
    Answer. It is critical to find a permanent solution to 
sequestration and to provide the Department with sufficient and 
predictable resourcing in order to restore the Joint Forces' ability to 
provide the full range of sufficient military capabilities. The present 
approach of augmenting base budget with OCO funds is unsustainable and 
will prevent the Department from fully recovering, meeting additional 
commitments, and restoring our comparative advantage through 
modernization. Without a sufficient and predictable funding profile, 
current operations can only continue at the expense of long term 
development and sustainment efforts, further complicating existing 
readiness challenges.
    Question. What is your understanding and assessment of the methods 
currently used for estimating the funding needed for the maintenance of 
military equipment?
    Answer. Service methods for funding equipment maintenance 
continually assesses the requirements of post-conflict reset-- a 
combination of balancing reset, unit readiness and the sustainment of 
core capabilities--and developing detailed maintenance plans that 
balance operational availability with maintenance requirements. 
However, starts and stops in the budget process and funding 
uncertainties have a negative effect on the workload scheduling at 
Service depots. These negative effects ripple beyond the current year 
and can extend for months and even years.
    Question. Given the backlog in equipment maintenance over the last 
several years, do you believe that we need an increased investment to 
reduce this backlog?
    Answer. Without consistent and predictable base budget funding at 
requested levels, the Services will continue to rely on OCO to maintain 
equipment readiness. Inadequate funding of enduring and contingency 
sustainment requirements results in increased maintenance backlog. 
Equipment maintenance funding is driven by unit readiness requirements 
and based on a variety of factors to include force structure, 
operations tempo, schedule, nature and usage rate of the equipment, and 
safety. The Services used OCO funding for reset of equipment in support 
of OIF and OEF combat operations. In the past, this resulted in funding 
of baseline sustainment accounts at levels below Service enduring 
requirements.
    Question. How important is it to reduce the materiel maintenance 
backlog in order to improve readiness?
    Answer. It requires continuous attention to ensure the accumulation 
of backlog does not grow beyond what is manageable. Excessive backlog 
can eventually lead to reduced equipment availability rates, less 
reliable systems, and potentially shortened service life. OCO funding, 
beyond the end of combat operations, and adequate funding of Service 
baseline budget levels are important if we are to improve the trend in 
equipment readiness.
    Question. How important is it to receive OCO funding two or three 
years after the end of combat operations in order to ensure all 
equipment is reset?
    Answer. It remains critically important to maintain funding levels 
well beyond cessation of current operations to fully restore equipment 
readiness and support the National Security Strategy. In the near to 
mid-term, OCO dollars for enduring requirements and equipment reset is 
necessary for Joint Force readiness. OCO is still required to 
adequately address maintenance, repair and overhaul requirements.
    Question. In years past, Congress has based additional readiness 
funding decisions on the Service Chief unfunded priorities lists. 
However, in recent years those lists have either not been provided or 
have arrived too late in our markup process. Do you agree to provide 
unfunded priorities lists to Congress in a timely manner beginning with 
the fiscal year 2017 budget request?
    Answer. Should the Services have such priorities, the process 
allows the Joint Chiefs to make recommendations that are responsive to 
Congress after first informing the Secretary of Defense. Should I be 
confirmed, I will support the use of this process when warranted.
                       defense acquisition reform
    Question. Congress is considering a number of acquisition reform 
measures designed to reduce the costs and development timelines of 
major systems, and to streamline access to innovative commercial 
technologies and systems. What are your views regarding acquisition 
reform and the need for improvements in the Defense acquisition 
process?
    Answer. I believe that acquisition reform in the Department should 
be based upon the following key principals:
    a. The responsibility and authority for acquisition system outcomes 
should be clearly identified within the DOD;
    b. The requirements' sponsor should be an integral part of 
delivering needed capability and remains accountable throughout the 
acquisition process, and;
    c. The effort to reduce overhead and increase efficiencies across 
defense acquisition should be continued.
    Question. If confirmed, how would you improve all three aspects of 
the acquisition process B requirements, acquisition, and budgeting?
    Answer. The Department's acquisition processes are constantly 
evolving in order to reduce overhead, increase efficiencies, and remain 
agile and responsive to the needs of our warfighters. The Department 
regularly reviews and updates the Joint Capabilities Integration and 
Development System (JCIDS) and has recently incorporated many ``Better 
Buying Power'' initiatives. If confirmed, I would strongly support the 
Department's acquisition reform vision.
    Question. Do you believe that the current investment budget for 
major systems is warranted given increasing historic cost growth in 
major systems, costs of current operations, and asset recapitalization?
    Answer. It's my understanding that recent cost and schedule trends 
show improvement, but I am still concerned that acquisition, 
procurement, and operations and support costs will continue their 
historic growth profiles. This growth will further exacerbate 
shortfalls under a sequestered budget and threaten our ability to meet 
our partner and ally security guarantees.
    Question. If confirmed, how do you plan to address this issue and 
guard against the potential impact of weapon systems cost growth?
    Answer. If confirmed, I will use the JROC to scrub weapon system 
requirements and consider cost-informed performance tradeoffs early and 
often to drive out requirements-related weapon-system cost growth. I 
will also advocate for versatile future capabilities that are both 
affordable and sustainable as a hedge against legacy weapon systems' 
cost growth.
    Question. If confirmed, what actions would you propose, if any, to 
ensure that requirements are realistic, technically achievable, and 
prioritized?
    Answer. As the lead of the Department's senior validation body, I 
would ensure the JROC continues to make adjustments and improvements to 
the JCIDS process as appropriate. A major review and update was just 
completed in Feb 2015. The update continues to focus appropriate rigor 
in validating realistic, technically achievable, prioritized, and cost-
informed requirement.
    Question. If confirmed, what actions would you propose, if any, to 
ensure that resources are programmed for acquisition programs that are 
consistent with their cost estimates and schedules?
    Answer. If confirmed, I will advocate in the Department's resource 
allocation process for major system resource funding that is consistent 
with the Secretary's cost and schedule position.
    Question. What should the role of the combatant commanders, Service 
Chiefs, Service Acquisition Executives, and Under Secretary for 
Acquisition, Technology, and Logistics be in the acquisition process?
    Answer. Service Chiefs and combatant commanders play a vital role 
in requirements generation and are pivotal to acquisition process 
success. Their engagement with the Service and Defense Acquisition 
Executives during the acquisition life-cycle of a weapon system also 
prevents requirements growth. USD (AT&L)'s role in reviewing Service 
plans at discrete milestones associated with major Department resource 
commitments ensures programs are affordable and executable, and that 
they follow sound business and risk management practices.
    Question. Are there specific new roles or responsibilities that 
should be assigned to the Service Chiefs or Service Secretaries in the 
acquisition process?
    Answer. If confirmed, I will examine the idea of new roles and 
responsibilities. I believe that any change should not undermine the 
statutory responsibilities of the Secretary of Defense. However, I am 
supportive of changes that promote Service accountability in the 
acquisition process and further streamline the bureaucratic processes.
                       tactical fighter programs
    Question. The F-35 Joint Strike Fighter Program, which is the 
largest and most expensive acquisition program in the Department's 
history, was formally initiated as a program of record in 2002, with a 
total planned buy of 2,443 aircraft for the U.S. The program has not 
yet completed the System Development and Demonstration (SDD) phase, and 
is not due to enter full rate production until 2019, 17 years after its 
inception. At projected procurement rates, the aircraft will be 
procured by the Department well into the 2030 decade to reach its total 
quantity buy. The requirement for 2,443 aircraft was established nearly 
20 years ago; do you believe that requirement is still valid in light 
of countervailing pressure to reduce force structure to conserve 
resources and to improve capability to respond to prospective adversary 
technological advances and increased capabilities with regard to 
establishing contested combat environments, combined with updated 
threat assessments and an evolving national defense strategy?
    Answer. The F-35 remains an integral part of the Department's 
future capabilities portfolio as we prepare for contingencies. In many 
of the scenarios we may face, the advanced capabilities of the Joint 
Strike Fighter are essential. If confirmed, I will support ongoing 
analysis looking at whether 2,443 is the right number of aircraft, but 
I do not anticipate reductions to the required capacity at this time.
    Question. Do you believe the Nation can afford to procure these 
aircraft at a cost of $12B to $15B per year for nearly the next 20 
years for an aircraft design that will be 30 years old at the 
completion of the program procurement phase?
    Answer. I believe the Department cannot allow shortfalls in fighter 
capability or capacity to develop. Fifth-generation fighter aircraft, 
including the F-35, are critical as we contend with the technological 
advancements of near-peer competitors. We have been working diligently 
to make the overall cost per F-35 more affordable. Additionally, there 
will continue to be critical updates throughout the life cycle of the 
F-35 that will ensure the platform maintains a tactical advantage.
    Question. Do you believe the Department's current and planned force 
mix of short-range fighters and long-range strike aircraft, whether 
land- or maritime-based, is sufficient to meet current and future 
threats around the globe, and most especially in the Asia-Pacific 
theater of operations where the ``tyranny of distance'' is such a major 
factor?
    Answer. If confirmed, I will support continual assessments to 
assure our ability to meet current and future threats, including those 
concerning short-range fighters and long-range strike aircraft. To 
ensure we are postured to address the ``tyranny of distance'' and 
succeed militarily, the DOD, over the past three years, has made 
significant progress in developing new alliance initiatives, securing 
new rotational access for U.S. forces, and enhancing both the quantity 
and quality of U.S. forces and capabilities in the Pacific region.
    Question. The Senate Armed Services Committee report accompanying 
S. 1376, the National Defense Authorization Act for Fiscal Year 2016, 
would require the Secretary of Defense to assess the current 
requirement for the F-35 Joint Strike Fighter total program of record 
quantity, and then to revalidate that quantity or identify a new 
requirement for the total number of F-35 aircraft the Department would 
ultimately procure. What will be your role in assisting the Secretary 
to revalidate the F-35 total program quantity?
    Answer. If confirmed, I will assist the Chairman, in consultation 
with the Joint Requirements Oversight Council (JROC), in advising the 
Secretary in the review of the level of capability and capacity 
required to fulfill the established joint military requirements. This 
advice will ensure the appropriate balance is struck consistent with 
the level of priorities identified by the defense strategy and 
combatant commander requirements.
    Question. The Air Force has proposed several times over the last 
decades to retire the A-10 close air support aircraft fleet, but each 
time Congress has rejected the proposals due to lack of a sufficient 
replacement capability. The Air Force's latest proposals to retire the 
fleet in fiscal years 2015 and 2016 were again rejected by Congress. Do 
you believe a need exists for a dedicated capability to provide close 
air support for American troops in close quarters battles?
    Answer. No. The interoperable underpinning of joint requirements 
enables effective close air support utilizing a range of multi-role 
aircraft. Lessons from the last fourteen years of combat have 
institutionalized tactics, techniques and procedures integrating a 
number of manned and unmanned systems supporting these missions. 
Translating these lessons into joint requirements continues to advance 
our ability to provide close air support with advanced sensors and 
precise lethality of our weapon systems.
    Question. What will be your role in ensuring our land forces 
receive the air support they'll need to survive and succeed while 
fighting the nation's land battles?
    Answer. If confirmed, in consultation with the advisors to the 
JROC, I will ensure the appropriate capabilities are identified, 
assessed, and approved to meet the requirements of our land forces. I 
will also recommend alternative program recommendations and budget 
proposals, where necessary, to achieve this end.
    Question. The Secretary of the Navy recently remarked that he 
believed the F-35 would be the nation's last manned fighter aircraft. 
Do you believe this to be true?
    Answer. Despite the rapid advance of robotic and autonomous 
technologies over the past decade, I believe that the intellect and 
judgment of the human pilot remain integral to the combat capability 
provided by fighter aircraft. Decisions about future platforms will be 
informed by human and systems capabilities as well as mission 
requirements.
    Question. If so, what will be your role in leading capabilities and 
requirements development to increase the role of unmanned aerial combat 
systems in the Department?
    Answer. If confirmed, in my role as Chairman of the JROC, I will 
identify, assess and approve opportunities for increased employment of 
unmanned systems across the Joint Force. This includes leveraging 
validated capabilities identified in the Joint Concept for Robotics and 
Autonomous Systems now in development. I will also work with industry, 
science and technology, and academia to identify emerging technologies 
and align them with Joint Force requirements.
    Question. If not, how do you see the future balance developing 
between manned and unmanned combat aircraft for the Department's future 
force structure?
    I believe that the continued growth in robotic and autonomous 
systems technology will significantly impact the ongoing development 
and fielding of all future weapons systems, not just combat aircraft. 
The Joint Concept for Robotic and Autonomous Systems currently under 
development will help incorporate these new technologies to maximize 
the effectiveness of the Joint Force.
                                 space
    Question. China's test of an anti-satellite weapon in 2007 was a 
turning point for the United States in its policies and procedure to 
ensure access to space. As a Nation heavily dependent on space assets 
for both military and economic advantage, the United States has to make 
protection of space assets became a national priority.
    Do you agree that space situational awareness and protection of 
space assets now has the appropriate level of national security 
priority?
    Answer. Yes. Space situational awareness underpins our ability to 
operate safely in an increasingly congested space environment. It is 
vital that the U.S. protect national space assets to maintain the 
benefits and advantages dependent on our access to space.
    Question. In your view, how should China's continued development of 
space systems inform U.S. space policy and programs?
    Answer. China is rapidly developing space capabilities of its own 
that mirror U.S. capabilities and could threaten our access and use of 
space for national security purposes. If confirmed, I will review the 
U.S. Military's efforts to address China's developments in space, and 
will coordinate closely with the Secretary of Defense.
    Question. If confirmed would you propose any changes to National 
Security space policy and programs?
    Answer. The National Security Space Strategy clearly highlights the 
growing challenges in the space domain. If confirmed, I will insist on 
policies, programs, and other measures that ensure U.S. warfighters can 
continue to depend on having the advantages that space confers.
                   access to radio frequency spectrum
    Question. What actions would you take to ensure that the Department 
continues to have access to radio frequency spectrum that is necessary 
to train and to conduct its operations?
    Answer. If confirmed, I will work with Interagency and industry 
partners on spectrum sharing in order to maintain DOD's assured access 
to the spectrum necessary to train and conduct operations while also 
enabling access for commercial broadband. I will also continue to 
support Public Law 106-65 (National Defense Authorization Act for 
Fiscal Year 2000), which requires the Secretaries of Commerce and 
Defense and the Chairman of the Joint Chiefs of Staff to certify that 
any alternative band or bands to be substituted for spectrum currently 
used by DOD provide ``comparable technical characteristics to restore 
essential military capability that will be lost as a result of the band 
of frequencies to be so surrendered.'' This provision is necessary to 
ensure that DOD maintains access to spectrum necessary to operate 
critical military capabilities.
                           strategic systems
    Question. Over the next 5 years DOD will begin to replace or begin 
studies to replace all of the strategic delivery systems. For the next 
15 plus years, DOD will also have to sustain the current strategic 
nuclear enterprise. This will be a very expensive undertaking.
    Do you have any concerns about the ability of the Department to 
afford the costs of nuclear systems modernization while meeting the 
rest of the DOD commitments?
    Answer. Yes, I am concerned that in the current budget environment 
completing these modernization programs will be a challenge. If 
confirmed, I will give full attention to these programs as they develop 
and mature. Modernizing the strategic delivery systems and sustaining 
the strategic nuclear enterprise are vital to maintaining a safe, 
secure, and effective nuclear deterrent, which is essential to 
deterring potential adversaries and assuring our allies. As with any 
funding choices, we will make decisions that balance fiscal prudence 
with appropriate risk to provide the best possible capabilities.
    Question. If confirmed will you review the modernization and 
replacement programs to ensure that they are cost effective?
    Answer. Yes.
    Question. Section 1052 of the fiscal year 2014 NDAA established a 
``Council on Oversight of the National Leadership Command, Control and 
Communications System''.
    What do you see as the most pressing challenges in nuclear command, 
control and communications from a policy and acquisition perspective?
    Answer. Nuclear command, control, and communications (NC3) is an 
enduring priority where we face the challenge of sustaining existing 
capabilities until new, modernized capabilities can be fielded. We must 
provide an assured, survivable and enduring NC3 system that 
simultaneously takes advantage of modern communication capabilities 
while remaining secure and hardened against attacks ranging from cyber 
to the most extreme kinetic attacks.
    Question. What do you see as the most pressing challenges in 
overall national leadership communications from a policy and 
acquisition perspective?
    Answer. Providing our national leadership with secure, reliable 
voice, video and data communications is a critical capability. This 
capability must be assured, survivable and enduring; allowing senior 
defense advisors to communicate with the President, the Combatant 
Commands and strategic Allies during normal day-to-day operations and 
during national crises from a fixed, mobile or airborne location. The 
major challenge from both a policy and acquisition perspective is to 
sustain existing capabilities until new, modernized capabilities can be 
fielded.
    Question. If confirmed will you actively support section 1052 and 
work with outgoing Vice Chairman Winnefeld to understand the importance 
of this Council in ensuring the President has at all times control of 
nuclear weapons?
    Answer. Yes.
    Question. If confirmed will you agree to attend meetings as a 
member listed in its statue?
    Answer. Yes.
    Question. In 2014 Secretary Hagel has conducted an assessment of 
the state of nuclear deterrence operations of the Department of 
Defense.
    Do you agree with its findings?
    Answer. Yes, I agree with the conclusion of both the internal and 
external reviews that while our nuclear forces are currently meeting 
the demands of the mission with dedication, significant changes are 
required to ensure the safety, security, and effectiveness of the force 
in the future.
    Question. Will you actively support the findings and their 
implementation
    Answer. Yes, if confirmed, I will devote significant attention to 
the state of our nuclear deterrence enterprise and will ensure the 
appropriate corrective actions are implemented.
                   missile defense in the boost phase
    Question. The Missile Defense Agency's (MDA) mission is to develop, 
test, and field an integrated, layered ballistic missile defense system 
to defend the United States and its allies against all ranges of enemy 
ballistic missiles in all phases of flight. While MDA is conducting 
research into next generation laser concepts that could be mounted on 
high altitude unmanned aerial vehicles, there is no program of record 
designed to intercept missiles during the boost phase of flight, when 
they are potentially most vulnerable. Do you agree with the Commander 
of Northern Command, when he said on April 7, 2015, referring to 
missile threats that ``we need to be able to start knocking them down 
in the boost phase . . . and not rely on the midcourse phase where we 
are today?''
    Answer. Yes. Ballistic missiles are easier to detect and track in 
their boost phase, and typically countermeasures such as decoys are not 
deployed until after booster burnout. These factors make boost-phase 
intercept an attractive option to investigate.
    Question. Would you support an increase in the priority of 
technology investments to develop and deploy a boost phase airborne 
laser weapon system for missile defense in the next decade, if 
technically practicable?
    Answer. MDA's budget supports design of a laser demonstrator that 
is potentially capable of acquiring, tracking, and even destroying an 
enemy missile. This is an approach that we've studied for many years 
and, if it proves out, could potentially, come at lower cost than the 
existing system of kinetic interceptors. However, leap-ahead technology 
must be paired with corresponding evolutions in doctrine, policy, 
concepts of operations, and other non-materiel considerations to be 
militarily useful.
               dod's cooperative threat reduction program
    Question. The Cooperative Threat Reduction (CTR) program, which is 
focused historically on accounting for, securing or eliminating Cold 
War era weapons of mass destruction (WMD) and materials in the states 
of the former Soviet Union, has started to expand its focus to other 
countries. With this expansion the CTR program is widening its focus to 
biological weapons and capabilities including biological surveillance 
and early warning; and encouraging development of capabilities to 
reduce proliferation threats.
    Do you think the CTR program is well coordinated among the U.S. 
government agencies that engage in threat reduction efforts, e.g., the 
Department of Defense, the Department of Energy, and the State 
Department?
    Answer. Yes. The Department of Defense Cooperative Threat Reduction 
(CTR) Program informally and formally coordinates on a regular basis 
with the Combatant Commands, other DOD partners, interagency partners 
including the Departments of State and Energy, and international 
partners on CTR Program WMD threat reduction efforts. Part of this 
interagency coordination includes placing Defense Threat Reduction 
Agency (DTRA) liaison officers at U.S. Embassies where programs are 
highly active to further enhance coordination of activities in country 
and in the immediate regions where engagements occur. Additionally, in 
order to eliminate duplication of efforts, ensure safety and security 
is being considered in health capacity building programs, and work 
together to develop effective and sustainable detection and reporting 
systems, CTR is working very closely with USG civilian agencies to plan 
and execute efforts that both meet threat reduction goals and 
contribute to the Global Health Security Agenda objectives.
    Question. About 60 percent of CTR resources are proposed for 
biological programs.
    With the very real threat of chemical weapons use and/or 
proliferation as we saw in Libya and are seeing in Syria, why is there 
such a large percentage of resources directed toward biological issues?
    Answer. The DOD CTR Program is designed to posture the United 
States to eliminate state-based WMD programs, if and when opportunities 
emerge. At the same time, numerous scientific, economic and demographic 
trends are increasing the risks that infectious diseases outbreaks pose 
to U.S. and global security, to include through natural transmission, 
bioterror attacks or laboratory accidents. Such outbreaks challenge our 
ability to protect the health of U.S. armed forces, U.S. citizens at 
home and abroad, and U.S. allies, drain economic resources, and 
ultimately risk undermining geopolitical stability. The Ebola Virus 
Disease outbreak demonstrated how, in an interconnected global 
environment, a bio-incident anywhere in the world can lead to dangerous 
consequences when governments are unable to provide basic health and 
diagnostic Services for their population. This creates environments in 
which destabilizing outbreaks can potentially provide terrorists with 
opportunities to gain access to deadly pathogens for their purposes due 
to insecure storage. For this reason, the percentage of funding devoted 
by the CTR Program at this time to reduce biological threats in the 
most vulnerable locations worldwide is appropriate.
                          prompt global strike
    Question. The 2010 Quadrennial Defense Review concluded that the 
United States will continue to experiment with prompt global strike 
prototypes. There has been no decision to field a prompt global strike 
capability as the effort is early in the technology and testing phase. 
In your view, what is the role for a conventional prompt global strike 
capability in addressing the key threats to U.S. national security in 
the near future?
    Answer. The Joint requirements process has identified the emerging 
challenge of high value, time sensitive, and defended targets that 
exist outside the range of conventional weapons systems. I support the 
continued evaluation of alternative technology and concepts that 
balance the potential operational employment against costs and the 
priority of this capability requirement.
    Question. What approach (e.g. land-based or sea-based or both) to 
implementation of this capability would you expect to pursue if 
confirmed?
    Answer. If confirmed, I will assist acquisition officials in 
identifying the appropriate solutions to validated Joint military 
requirements. Unless an appropriate alternative is presented, I would 
expect to support a sea-based approach to fulfill this requirement as 
previously identified by the JROC.
    Question. In your view what, if any, improvements in intelligence 
capabilities would be needed to support a prompt global strike 
capability?
    Answer. If confirmed, I will lead periodic reviews of joint 
military requirements and assessments of Combatant Commander integrated 
priority lists to identify, assess, and approve the doctrine, 
organization, training, materiel, leadership and education, personnel, 
facilities, and policy improvements necessary to close any intelligence 
gaps discovered in the development this requirement.
               nuclear weapons and stockpile stewardship
    Question. Congress established the Stockpile Stewardship Program 
with the aim of creating the computational capabilities and 
experimental tools needed to allow for the continued certification of 
the nuclear weapons stockpile as safe, secure, and reliable without the 
need for nuclear weapons testing. The Secretaries of Defense and Energy 
are statutorily required to certify annually to the Congress the 
continued safety, security, and reliability of the nuclear weapons 
stockpile.
    As the stockpile continues to age, what do you view as the greatest 
challenges, if any, with respect to assuring the safety, security, and 
reliability of the stockpile?
    Answer. Our ability to sustain a safe, secure, and effective 
stockpile rests largely on our people and our infrastructure. As a 
significant wave of personnel begins to retire over the next decade, we 
must recruit and retain the next-generation of nuclear weapons stewards 
capable of certifying the stockpile without underground testing. At the 
same time, we must remain vigilant about recapitalizing and modernizing 
the infrastructure we need to design and produce components required 
for our Life Extension Programs, even as we continue operations in 
aging facilities.
    Question. If the technical conclusions and data from the Stockpile 
Stewardship Program could no longer confidently support the annual 
certification of the stockpile as safe, secure, and reliable, would you 
recommend the resumption of underground nuclear testing? What 
considerations would guide your recommendation in this regard?
    Answer. Our current nuclear stockpile is assessed as effective. It 
is certified and does not require further nuclear testing. I am 
committed to working with the Department of Energy to maintain the 
critical skills, capabilities, and infrastructure needed to ensure the 
safety, reliability, and security of the stockpile without underground 
testing if practicable.
    However, the stockpile is aging. I understand there are, and will 
always be challenges in identifying and remedying the effects of aging 
on the stockpile. I would strongly consider recommendations from the 
Department of Energy and the National Laboratory Directors before 
making any recommendation to the Secretary and President regarding a 
need to resume underground testing.
    Question. If confirmed, would you recommend any changes to the non-
deployed hedge stockpile of nuclear weapons?
    Answer. Our non-deployed nuclear weapons stockpile allows us to 
manage risks of technical failures in our stockpile and changes in the 
geopolitical environment. Implementation of the 3+2 Strategy for 
nuclear weapons modernization will enable further reductions in the 
number of hedge warheads required. Furthermore, modernization of key 
production facilities will improve the responsiveness of the nuclear 
weapons infrastructure and may provide opportunities to make additional 
adjustments to the non-deployed hedge stockpile. I am committed to 
reducing the size of the stockpile to the lowest level consistent with 
deterrence objectives and warfighter requirements.
  countering the islamic state of iraq and the levant in iraq & syria
    Question. To ``degrade and ultimately destroy the terrorist group 
known as ISIL'' the Department of Defense seeks to deny ISIL safe-haven 
and build partner capacity.
    If confirmed, what criteria would you use to evaluate ISIL 
degradation and what is your assessment of the progress to degrade ISIL 
in Iraq and in Syria?
    Answer. I view degraded capability as an inability to hold key 
terrain and influence population centers. As anti-ISIL forces in both 
Iraq and Syria gain momentum and achieve tactical and operational 
successes, I would consider ISIL's failure to resupply or refit its 
fighters as additional indicators. Large groups of displaced persons 
returning to their homes in Tikrit and working to restore their former 
way of life serve as an example. By leveraging the resources of the 
U.S. Intelligence Community, the DOD will continue to analyze and 
assess ISIL capabilities, while identifying additional indicators of 
degradation.
    Progress is being made. However, we must continue to exercise 
patience during the long campaign to degrade ISIL, and understand that 
our efforts cannot exceed those of our partnered ground forces in Iraq 
and Syria.
    Question. A large part of the support for ISIL and other violent 
extremist groups like al Nusrah by the local Syrian population is based 
on the fact that these groups seek to remove President Assad from 
power.
    What limitations, if any, do we face by failing to have the removal 
of Assad as an objective in Syria?
    Answer. While seeking a negotiated political settlement is U.S. 
policy, the immediate objective is countering ISIL in both Syria and 
Iraq. Transition of power from the Assad regime may have implications 
and negative consequences on Syrian and regional stability, so it is 
important that we continue to work with our regional partners to 
counter both the threat of ISIL as well as sequencing an orderly 
transition from the Assad regime.
    Question. In Iraq, what is the importance of arming the Sunni 
tribes in Anbar province to degrading ISIL and how do you assess 
progress to date? What is your understanding of the current plan to 
train and equip Sunni fighters to help in the campaign against ISIL?
    Answer. Sunni tribal mobilization is an important component of the 
counter-ISIL fight. They are a credible ground force we have only begun 
to empower, and they are necessary to protect Iraqis in Anbar and other 
Sunni-dominant areas. I understand PM Abadi and the GOI continue to 
make marginal gains mobilizing Sunni tribes, but much work remains. We 
must continue to pressure the GOI to embrace the integration of these 
tribes into Iraqi Security Forces' efforts. U.S. and Coalition support 
at airbases like Al Asad and Al Taqaddum are enhancing these efforts.
    Question. What is your assessment of the fall of Ramadi to ISIL 
last month and what recommendations, if any, would you have for the 
U.S. and coalition strategy, if you are confirmed?
    Answer. Ramadi was a tactical setback, and I certainly expect 
setbacks, as well as gains, over the course of a 36-month campaign to 
degrade ISIL. Despite tactical or operational shifts in either 
direction, I believe our strategy remains the correct one. This is a 
whole-of-government strategy and, at times, may require an adjustment 
to the military campaign to allow the non-military aspects of the 
strategy the time and space required to succeed.
    Question. What is your assessment of the coalition air campaign in 
Iraq and Syria and what recommendations, if any, would you have for the 
air campaign, if you are confirmed?
    Answer. ISIL's critical enablers are its ability to move rapidly 
through ungoverned regions and their ability to generate revenue, both 
of which are degraded and disrupted by the Coalition air campaign. The 
air campaign also creates time and space for local ground forces to 
develop their capability as legitimate security forces. Anti-ISIL 
forces' successes, including the recapture of Tal Abyad, were enabled 
by Coalition strikes.
    The legitimacy of the Coalition and the success of the air strikes 
are also dependent on our commitment to minimize collateral damage. I 
support tactical patience and commander's decisions to withhold 
munitions in situations where strike effects could be detrimental to 
local forces or civilian populations. We should continue to avoid the 
trap of pursuing short-term tactical gains over the long-term strategic 
effects of losing the support of our partners in both Syria and Iraq.
    Question. Does the current troop limitation of 3,100 give U.S. 
commanders, in conjunction with Iraqi security forces, Kurdish 
Peshmerga, tribal and local security forces, and coalition partners, in 
Iraq enough capability to successfully degrade and ultimately destroy 
ISIL?
    Answer. Yes, I believe our current troop levels are sufficient to 
advance the military lines of effort in the near term. I understand our 
strategy depends on a credible ground force in Iraq, and our 
commitments must align with the capability and pace of our Iraqi 
partners. Iraqis must own this fight, and we may require adjustments in 
our troop commitments to continue to enable their forces over the long 
term.
    Question. What do you see as the principle role or roles of the 
Office of Security Cooperation within the U.S. Embassy in Iraq?
    Answer. The Office of Security Cooperation is the Departments 
primary interlocutor for traditional security assistance and 
cooperation in support of the U.S. Embassy. OSC-I supports the 
development of military programs to improve the professionalization of 
the Iraqi Security Forces in concert with providing warfighting 
capability through the Foreign Military Sales program.
    Question. What is your assessment of the success of the current 
strategy against ISIL?
    Answer. We are seeing some successes, but we need to take a long 
view and understand that there will be both successes and failures 
early in the campaign. In both Iraq and Syria, ISIL's ability to 
conduct massed offensive operations is degraded, its leadership cells 
are pressured, and its command-and-control and supply lines are being 
severed. We have reduced ISIL's oil production, processing and 
transportation infrastructure. We continue to work the military lines 
effort with our coalition partners and in conjunction with all lines of 
effort in the strategy.
    Question. Do you assess that the training and equipping of Syrian 
opposition fighters by the United States and coalition partners under 
section 1209 of the fiscal year 2015 NDAA will produce enough fighters 
to make a strategic difference on the battlefield in Syria?
    Answer. From my understanding, it's too early to tell. The number 
of Syrians who are currently volunteering to participate in the Syria 
Train and Equip program is growing. The current number of trainees is 
small but are properly vetted and have objectives that match our own. 
Larger numbers of unknown or unqualified trainees would not necessarily 
be better and might work counter to our interests. It will take time to 
establish a credible partner on the ground in Syria and we are 
continuously making adjustments based on our lessons learned as we 
progress.
    Question. In your view, what military support, if any, should the 
Syrian opposition fighters who receive support under section 1209 of 
the FY2015 NDAA need from the United States and coalition partners when 
they return to Syria?
    Answer. The U. S. is committed to their success. We will be 
providing basic equipment such as military gear, mobility capabilities 
such as trucks and vehicles, and small arms and ammunition. If 
confirmed, I will examine the full range of support that we can provide 
our T&E forces as the program progresses.
    Question. What are the lessons learned from the drawdown and post-
combat operations in Iraq that should be applied to the drawdown and 
post-combat operations in Afghanistan?
    Answer. I think an important lesson we can take from our Iraq and 
Afghanistan experiences is that withdrawal decisions must be 
conditions-based. I also think we have learned that a military solution 
alone does not guarantee success. Governance and economic development 
are required to sustain military and security gains. When security 
threats are fueled by underlying political or sectarian problems U.S. 
troops can only address the effects, not the cause.
                          afghanistan campaign
    Question. What is your assessment of the progress of the Resolute 
Support mission in Afghanistan?
    Answer. Overall, the Afghanistan National Defense and Security 
Forces (ANDSF) continue to grow their tactical proficiency. However, 
the lack of a Minister of Defense has had a negative impact on the 
Resolute Support mission. Critical gaps still remain in aviation, 
intelligence, and special operations, all impacting the ANDSF's 
targeting capability. These gaps will remain for some time, even with 
the addition of key enablers. RS advisors continue to address 
developmental shortfalls in the areas of logistics, medical support, 
and counter-IED exploitation.
    Question. In May of 2014 President Obama said `` . . . by the end 
of 2016, our military will draw down to a normal embassy presence in 
Kabul . . . ''
    What is your understanding of what military forces comprise a 
``normal embassy presence''?
    Answer. A normal embassy presence will have a counter-terrorism and 
security component consisting of a Defense Attache Office and a 
Security Cooperation Office under a Senior Defense Official with a 
military reporting chain through CENTCOM. CENTCOM is still planning for 
the Security Cooperation Office-Afghanistan. Its size will depend upon 
factors such as security force assistance objectives, ANDSF 
capabilities, Government of the Islamic Republic of Afghanistan (GIRoA) 
requests, and force protection concerns.
    Question. What lessons should we learn from the experience the 
drawdown of U.S. troops in Iraq as applied to the drawdown of U.S. and 
international troops in Afghanistan?
    Answer. The transfer of security cooperation activities should be 
deliberate and measured.
    ``Time'' allows for the ownership of the tactical fight to be 
transferred from coalition forces to the ANDSF; allowing the coalition 
to focus on issues, critical to the long term viability of the force. 
The ANDSF continues to prove that they are capable of executing the 
tactical fight; however, sustainment and institutional development are 
critical to their long term success.
    Question. If confirmed, are there changes you would recommend to 
the U.S. strategy in Afghanistan?
    Answer. Not at this time, but if confirmed I will continually 
assess and offer recommendations as that strategy unfolds.
    Question. What is the effect of ISIL operations in Afghanistan and/
or coordination with the Taliban for the U.S. strategy for Afghanistan?
    Answer. The coalition and the Afghan government have closely 
watched ISIL's attempt to expand its reach to Afghanistan and Pakistan. 
The potential emergence of ISIL has sharply focused the ANDSF, NDS, and 
Afghan political leadership, which are collaborating closely in order 
to prevent this threat from expanding. We will continue to support 
Afghanistan's security through our strategic partnership. It is 
important to note, ISIL is a competitor with other groups in 
Afghanistan, which may lead to increased violence between extremist 
groups.
    Question. If security conditions on the ground in Afghanistan 
degrade in 2016, would you recommend to the President revisions to the 
size and pace of the drawdown plan in order to adequately address those 
security conditions?
    Answer. We must be willing to reevaluate assumptions of previous 
recommendations and assess the conditions on the ground as the drawdown 
takes place. If confirmed, I will collaborate with CENTCOM to assess 
conditions on the ground and will modify my input to the Chairman's 
recommendations to the President accordingly.
    Question. Should the authorities granted to the commander of U.S. 
forces in Afghanistan take into account the security conditions on the 
ground faced by U.S. troops?
    Answer. Yes. Protecting the force is an inherent responsibility of 
command.
                  afghanistan national security forces
    Question. What is your assessment of the progress in developing a 
professional and effective Afghanistan National Security Force (ANSF) 
and what recommendations would you make to address challenges to 
building ANSF capacity, if confirmed?
    Answer. Based on my interaction with the Joint Staff subject matter 
experts, it is my understanding that the ANDSF are tactically capable, 
but continue to be challenged at the Corps and Ministerial levels. We 
assess the ANDSF's capabilities, capacities, and morale will be 
sufficient to set the conditions for Afghan-led and Afghan-owned 
reconciliation talks. The ANDSF still need assistance with enablers and 
related systems and processes necessary to run a modern, professional 
army and police force. In particular, they need sustained support for 
capability gaps in aviation, intelligence, sustainment, and special 
operations. To address these gaps, our advisory mission and mentorship 
at the security ministries and at the corps and police zone level 
remain vital.
    Question. Do you support plans for building and sustaining the ANSF 
at 352,000 personnel and, if so, what factors influence your 
recommendation about the proper size of the ANSF?
    Answer. Yes, at least for the near term. Although we've made 
important gains, GIRoA and the ANDSF will continue to face threats from 
external regional actors and internal threats from a resilient 
insurgency. The current ANDSF Plan of Record supports the need for 
352,000 ANDSF along with 30,000 ALP at least through 2018. Evaluating 
the security situation (and prior assumptions) is continual and drives 
my recommendations on ANDSF size. Committed contributions from partners 
are also important. Afghan and NATO goals remain generally congruent 
regarding the denial of terrorist safe havens.
                             reconciliation
    Question. In your view, what should be the role of the United 
States in any reconciliation negotiations with the Afghan Taliban and 
other insurgent groups?
    Answer. The United States supports an Afghan-led political process 
to determine the future of their country. Our relationship with 
Pakistan as a key stakeholder in the region can also have a positive 
impact. As part of the outcome of any process, the Taliban and other 
armed Afghan opposition groups must end violence, break any 
associations with international terrorism, and accept Afghanistan's 
constitution, including its protections for women and minorities.
    Question. What additional steps, if any, should the United States 
take to advance the reconciliation process?
    Answer. We remain strongly supportive of an Afghan-led and Afghan-
owned reconciliation process where the Taliban and the Afghans engage 
in direct talks to resolve the conflict in Afghanistan. In President 
Ghani's inauguration address, he called on the Taliban to enter 
political talks, and has made reconciliation central to his foreign 
policy. We can also continue to encourage stronger ties between 
Afghanistan and Pakistan--and have been pleased with their recent 
efforts to address their shared security concerns.
    Question. In your view, what should be the role of Afghanistan's 
neighbors, in particular Pakistan, in the reconciliation process?
    Answer. Regional partners have an important role to play in 
enabling a stable, democratic Afghanistan, and our relationship with 
Pakistan as a key stakeholder in the region can have a positive impact. 
We continue to encourage all regional partners to support President 
Ghani's reconciliation efforts. We are in close communication with 
President Ghani on these matters and we remain committed to supporting 
his efforts toward peace.
               u.s. strategic relationship with pakistan
    Question. What in your view are the key U.S. strategic interests 
with regard to Pakistan?
    Answer. Our strategic interests and national security goals remain 
to disrupt, dismantle, and defeat Al Qaeda (and other potential 
transnational insurgent threats) and to prevent the return of safe 
havens in Afghanistan and Pakistan. We also have an interest in a 
stable Pakistan and the non-proliferation of nuclear weapons and 
technology.
    Question. What would you consider to be areas of shared strategic 
interest between the United States and Pakistan?
    Answer. The U.S. and Pakistan share the common goals of eliminating 
Al Qaeda (and other potential transnational insurgent threats), 
promoting regional stability and the non-proliferation of nuclear 
weapons and technology.
    Question. In what areas do you see U.S. and Pakistani strategic 
interests diverging?
    Answer. We diverge from Pakistan in their policy on leveraging non-
state, extremist proxies to attain their national security objectives 
and in their perception of Indian intentions in the region. Our 
bilateral interests with Pakistan can also be made more complex by 
Pakistan's deepening ties with China.
    Question. If confirmed, what changes, if any, would you recommend 
for U.S. relations with Pakistan, particularly in terms of military-to-
military relations?
    Answer. The U.S.-Pakistan relationship is important to our vital 
national security interests in the region and will remain so for the 
foreseeable future. We will need to continue cooperating with Pakistan 
on defeating transnational insurgent threats, supporting Pakistan 
stability, and reaching a lasting peace in Afghanistan. We should 
continue mil-to-mil cooperation to improve on ways we can assist 
enhanced border security and stability, consistent with Leahy 
considerations.
                      u.s. assistance to pakistan
    Question. Since 2001, the United States has provided significant 
military assistance to Pakistan. In addition, the United States has 
provided significant funds to reimburse Pakistan for the costs 
associated with military operations conducted by Pakistan along the 
Afghanistan-Pakistan border.
    As U.S. troop presence draws down in Afghanistan, what 
recommendations, if any, would you have regarding the reduction or 
cessation of Coalition Support Funds that currently reimburse Pakistan 
for military support in connection with U.S. military operations in 
Afghanistan?
    Answer. It is in our best interest to have a long term strategic 
partnership with Pakistan. Coalition Support Funds are a mechanism to 
advance our security interests with and through Pakistan, however the 
funding needs to be tied to a broader set of expectations and outcomes, 
not just ongoing border operations in Pakistan.
    Question. In your view, how effective has the assistance and other 
support that the United States has provided to Pakistan been in 
promoting U.S. interests?
    Answer. U.S.-Pakistan mutually agreed security objectives include 
improving Pakistan's capacity to counter militancy, developing a 
stronger bilateral defense relationship, and fostering a better 
relationship between Pakistan, Afghanistan and India. In support of 
these objectives, U.S. security assistance has enhanced the Pakistan 
Military's ability to attack militants, terrorists groups, and other 
transnational threats. U.S. assistance has bolstered Pakistani 
capability while also preserving the mil-mil relationship that is a key 
component of the U.S.-Pakistan strategic partnership.
    Question. Do you support conditioning U.S. assistance and other 
support to Pakistan on Pakistan's continued cooperation in areas of 
mutual security interest?
    Answer. Yes. It is important that we maintain a strategic 
relationship with Pakistan, not a ``transactional'' one, as we 
condition our assistance.
    Question. What is your assessment of the current relationship 
between Afghanistan and Pakistan?
    Answer. There is some potential for a more constructive ``new 
normal'' going forward. Relations between Afghanistan and Pakistan have 
improved since the election of President Ghani in Afghanistan. Although 
gradual, the two sides continue to work to improve border coordination 
and establish standards for information sharing, communication, and 
complementary operations near the border.
    Question. What is your assessment of Pakistan's cooperation with 
the United States in counterterrorism operations against militant 
extremist groups located in Pakistan?
    Answer. Pakistan's cooperation on counterterrorism has not always 
met our expectations, particularly their policy of leveraging proxies 
to advance national security objectives. Since 2009, Pakistan has 
undertaken counterinsurgency operations against extremist organizations 
in the northwest, namely the Swat, North and South Waziristan, Mohmand, 
and Bajaur with mixed results. Security assistance, Coalition Support 
Funding reimbursements, and cross-border coordination with ISAF and 
Afghan forces have helped enable these operations. It is in our 
interest that Pakistan continues this campaign as effectively and 
comprehensively as possible.
    Question. What is your assessment of Pakistan's efforts to maintain 
transit and provide security along the ground lines of communication 
(GLOCs) through Pakistan?
    Answer. We have received support from Pakistan in the use of their 
GLOCs. Currently we rely on multiple GLOCs, including Pakistan's to 
support our operations in Afghanistan. We do not anticipate any GLOC 
problems in the foreseeable future.
    Question. What is your assessment of Pakistan's efforts to counter 
the threat improvised explosive devices, including efforts to attack 
the network, go after known precursors and explosive materials?
    Answer. Pakistan suffers significant casualties as a result of IED 
attacks. They are taking concrete steps to disrupt the networks, 
placing new restrictions on the distribution of precursor materials and 
providing Regional Leadership on the issue. We continue to encourage 
and pressure them to do more.
                                  iran
    Question. What is your assessment of the military and political 
threat posed by Iran?
    Answer. Iran's authoritarian regime poses both a regional and 
global security threat. The world's foremost state sponsor of terrorism 
seeks to export its revolutionary ideology in the Middle East through a 
large conventional army; terrorist proxies; weapons trafficking; 
ballistic missile proliferation; and maritime weapons and threats to 
the Strait of Hormuz. Through its emergent nuclear and established 
cyber programs, Iran can threaten and undermine the international 
institutions and conventions that underpin global security. The Supreme 
Leader will continue to take advantage of opportunities to enable 
Iran's domestic, hardline political factions' malign policies that 
value regime survival over international integration.
    Question. What is your assessment of the threat of Iran's influence 
in Iraq to U.S. interests?
    Answer. Iran's ambitions in Iraq are not to help create a 
sovereign, functional government. Iran wants to influence Iraq through 
the lens of a Shia-dominated buffer state. Currently, Iran is using its 
influence vis-`-vis Shia militias to offset ISIL behavior. This comes 
with the risk that one day these militias could possibly threaten Iraqi 
or U.S. forces. In the future, expect Iran to utilize its political and 
military instruments of power to control Iraq along sectarian lines.
    Question. In your view, what are the risks, if any, associated with 
reducing U. S. presence in the Middle East with respect to the threat 
posed by Iran?
    Answer. Real or perceived U.S. disengagement from the Middle East 
could create opportunity for Iran to increase its support to terrorist 
organizations. Right-sized U.S. military presence in the Middle East 
demonstrates not only a commitment to the region, but a commitment to 
our regional security partners. As a result, a continued U.S. military 
presence in the region will further deter Iran from conducting 
nefarious activities such as blocking the Strait of Hormuz or 
threatening other Gulf States. Finally, a continued U.S. military 
presence in the region is the single most important indicator of our 
overall commitment to a secure, peaceful and prosperous Middle East.
    Question. Negotiations on the Iran nuclear program have been 
extended with a deadline now of July 7, 2015 to finalize a 
comprehensive agreement.
    What are the elements of a nuclear agreement with Iran that you 
consider critical to ensuring that it is a ``good'' deal for U.S. 
national security interests?
    Answer. From a security standpoint, important outcomes include 
rolling back Iran's nuclear program providing the international 
community with necessary access and transparency, while preserving the 
sanctions imposed on conventional arms and ballistic missiles.
    Question. If Iran is allowed to maintain a monitored and limited 
uranium enrichment program, do you believe that other states in the 
region may seek to develop enrichment programs of their own and why or 
why not?
    Answer. Saudi Arabia's and other Gulf countries' decisions on 
whether or not to enrich uranium are not solely tied to a deal with 
Iran; under the Nuclear Nonproliferation Treaty (NPT) signatories are 
allowed enrichment programs as part of a peaceful nuclear program. 
Unlike Iran, which endures sanctions, isolation, and economic distress 
due to a covert attempt intent on developing nuclear weapons, our Gulf 
partners could choose to pursue nuclear energy in compliance with the 
NPT. The U.S. military will continue to provide options in support of 
the overall U.S. strategy.
    Question. What role, if any, should DOD play in countering Iran's 
support of international terrorism?
    Answer. DOD's role is to support an interagency and regional effort 
to deter and counter Iran's support of international terrorism. We 
deter Iran by maintaining a responsive military capability in the 
region and ensuring a robust defensive infrastructure for ourselves and 
our allies. To counter Iran, we work by, with, and through partner 
nations by conducting counter terrorism training, providing equipment 
sales, participating in multi-national exercises, and sharing 
information. When combined, these efforts--along with those of our 
partners--help to weaken terrorist groups and hinder Iran's ability to 
support them.
            the 2001 authorization for use of military force
    Question. What is your understanding of the scope and duration of 
the 2001 Authorization for Use of Military Force (AUMF), including with 
respect to military operations against the Islamic State in Iraq and 
the Levant?
    Answer. There is an ongoing armed conflict between the United 
States and Al Qaeda, including its associated forces. Al Qaeda's 
associated forces are those groups that (1) are an organized armed 
group that has entered the fight alongside Al Qaeda and, (2) is a co-
belligerent with Al Qaeda in hostilities against the United States or 
its coalition partners. The AUMF enacted following the terrorist 
attacks of September 11, 2001 remains the legal basis under U.S. 
domestic law for use of military force against these threats. Since 
September 2014, the Administration has applied the 2001 AUMF for the 
use of military force against the Islamic State of Iraq and the Levant 
(ISIL, previously known as Al Qaeda in Iraq). ISIL has been subject to 
the use of force under the AUMF since at least 2004, when it entered 
the conflict against the United States as part of the Al Qaeda 
organization. Despite internal power struggles within ISIL and other 
factions of the Al Qaeda network, ISIL asserts that it is the true heir 
to bin Laden's legacy of global jihad, and continues its unlawful 
campaign against the United States, its citizens, and interests.
    Question. Are you satisfied that current legal authorities, 
including the AUMF, enable the Department to carry out counterterrorism 
operations and activities at the level that you believe to be necessary 
and appropriate?
    Answer. Yes. The 2001 AUMF provides the necessary authorities to 
counter Al Qaeda and its associated forces, including ISIL. With 
respect to ISIL, the 2002 AUMF provides additional statutory authority 
for the current operations against ISIL both in Iraq and, to extent 
necessary to achieve the purposes of that AUMF, in Syria.
              islamic state in iraq and the levant (isil)
    Question. What is your assessment of the threat posed by ISIL to 
the U.S. homeland, U.S. interests overseas, and Western interests more 
broadly?
    Answer. ISIL does pose a threat to the homeland as well as to U.S 
and Western interests abroad. ISIL is focused on strengthening its 
self-declared caliphate in Iraq and Syria as well as expanding into 
other areas in the Middle East and Africa. In so doing, ISIL is 
integrating foreign fighters that could attempt to return to their 
countries as operatives. In addition, ISIL sympathizers pose a risk 
should they heed ISIL calls to conduct attacks against the U.S and the 
West.
    Question. How would you describe the U.S. strategy to counter ISIL?
    Answer. Our strategy is a whole-of-government and regional approach 
to degrade and ultimately defeat ISIL. Our strategy leverages capable 
ground partners supported by an International Coalition. The nine lines 
of effort serve as a guide to achieve this objective, and include: 
supporting effective governance in Iraq, disrupting ISIL's finances, 
disrupting the flow of foreign fighters, and protecting the homeland. 
DOD is only primarily responsible for the military campaign to deny 
ISIL safe haven and build partner capacity. Coalition kinetic strike 
operations, advise/assist operations, training/equipping efforts, and 
posture in the region combine to achieve these lines of efforts. The 
military campaign provides time and space for progress in the other 
lines of effort, particularly inclusive governance.
    Question. What is your assessment of the effectiveness of that 
strategy in achieving its objectives?
    Answer. We are seeing limited but steady success, and we need to be 
patient as there will be both successes and failures throughout the 
campaign. In both Iraq and Syria, ISIL's ability to conduct massed-
offensive operations is degraded, its leadership cells are pressured, 
and its command-and-control and supply lines are being severed. We have 
degraded ISIL's oil producing, processing and transportation 
infrastructure. We continue to work with our coalition partners along 
several lines of effort to degrade and ultimately defeat ISIL. We must 
also be wary of ISIL's destabilizing potential outside of Iraq and 
Syria and leverage our regional partnerships accordingly.
    Question. What do you assess to be the greatest impediments to 
implementing the strategy to counter ISIL?
    Answer. Conflicting interests on the ground and rampant 
sectarianism combined with poor governance and disenfranchised 
populations are the greatest challenges to defeating ISIL. Only through 
governments that foster inclusive and legitimate governance, as well as 
through robust commitments from regional and international 
stakeholders, will the strategy be successful.
    Question. What modifications, if any, would you recommend be made 
to the strategy to counter ISIL, if confirmed?
    Answer. If confirmed, I will support the Chairman's assessment of 
the military lines of effort to ensure that they are providing the time 
and space necessary for the non-military lines of effort to succeed. I 
also will work to identify additional opportunities to bolster our 
ongoing efforts to train and equip security forces operating in Iraq 
and Syria, and recommend adjustments to increase their effectiveness if 
necessary. Finally, I would look for opportunities to combat ISILs 
trans-regional reach and influence to complement the efforts in Iraq 
and Syria. Continued assessment and refinement are paramount to any 
strategy and its implementation.
                                al qaeda
    Question. What is your assessment of the threat posed by al Qaeda 
and its affiliates to the U.S. homeland, U.S. interests overseas, and 
Western interests more broadly? Which affiliates are of most concern?
    Answer. Despite ongoing counterterrorism (CT) pressure and 
competition from ISIL, Al Qaeda and its affiliates continue to threaten 
the U.S. homeland, U.S. interests overseas, and Western interests more 
broadly. Al Qaeda in the Arabian Peninsula (AQAP) remains the affiliate 
of most concern.
              yemen and al qaeda in the arabian peninsula
    Question. What are the U.S. national security interests in Yemen?
    Answer. The 2015 National Security Strategy states ``the U.S. has 
no greater responsibility than protecting the American people. Yet, our 
obligations do not end at our borders.'' The continued presence of AQAP 
in Yemen and the emergence of ISIL present threats to our homeland and 
to the American people. We act in Yemen in the interest of our 
security.
    Question. What is your assessment of current U.S. strategy in 
Yemen?
    Answer. I believe the U.S. should continue its policy of support to 
the Republic of Yemen Government (RoYG) in combatting terrorism and 
addressing instability within its borders. The U.S. requires a stable 
and reliable partner in order to accomplish its counterterrorism 
objective of countering AQAP and violent extremist organizations. We 
seek stability in Yemen through: 1) political transition, namely 
National Dialogue, Constitutional reform, and Elections; 2) continued 
economic and humanitarian assistance; and 3) security reform, 
specifically counterterrorism capacity building, border security, and 
critical infrastructure protection.
    Question. What are the implications of recent events in Yemen for 
U.S. counterterrorism policy both in Yemen and globally?
    Answer. I believe the current conflict in Yemen has hampered some 
CT operations, but the U.S. still maintains a capability, albeit 
diminished, to counter AQAP. AQAP remains an immediate threat to Yemen, 
the region, and the United States. When the political and security 
situation allows, I believe we should resume our previous partner-based 
DOD counterterrorism activities with the Yemeni government.
    Question. What is your assessment of the effectiveness and 
capability of coalition operations led by Saudi Arabia in Yemen?
    Answer. Saudi-led Coalition operations can be sustained at least in 
the near term. Airstrikes are slowing Huthi expansion in Yemen, but 
have not prevented Huthi attacks along the Saudi border nor forced the 
Huthis to withdraw from cities they captured earlier this year.
                         somalia and al shabab
    Question. What is your assessment of the threat posed by Al Shabab?
    Answer. Al-Shabaab poses a threat to countries providing forces to 
AMISOM such as Kenya. The group also targets Somali government 
facilities and Western targets in and around Mogadishu.
    Question. In your view, does al Shabab pose a threat to the United 
States and/or western interests outside of its immediate operational 
area?
    Answer. Al-Shabaab does not currently directly threaten the U.S. 
Homeland or Europe. The group continues to pose a threat to U.S., 
Western, and allied interests in East Africa, to include Somalia and 
Kenya.
    Question. What is your understanding of the current U.S. strategy 
in Somalia and the role of DOD in that strategy?
    Answer. The U.S. strategy on Somalia was implemented in May 2014. 
It has two major security components: (1) Supporting the African Union 
Mission in Somalia to stabilize security in the short term, and (2) 
Expanding support for the creation and training of the Somali National 
Army, which will provide long term stability and security. DOD 
contributes significant assets towards the U.S. strategy's success.
    Question. What role should DOD play in building the capacity of the 
Somali national military forces?
    Answer. The Department of State has been leading efforts to create 
Somali security services that are loyal to the federal government and 
representative of the ethnic and clan diversity in Somalia. I believe 
DOD should continue to support that effort through building partner 
capacity, logistics, and encouraging joint operations with the African 
Union Mission in Somalia.
                 al qaeda in the islamic maghreb (aqim)
    Question. What is your assessment of the threat posed by Al Qaeda 
in the Islamic Maghreb (AQIM)?
    Answer. Al Qaeda in the Lands of the Islamic Maghreb (AQIM) and 
affiliated groups continue to target local and regional government and 
Western interests. The group poses a threat to the Malian government 
and military targets, and Multidimensional Integrated Stabilization in 
Mali (MINUSMA) forces and facilities, and U.S. and Western persons in 
Niger and Mali, who are vulnerable to kidnapping for ransom.
    Question. In your view, does AQIM pose a threat to the United 
States and/or western interests outside of its immediate operational 
area?
    Answer. AQIM does not pose a direct threat to the U.S. homeland. 
The group currently does not view conducting attacks outside North 
Africa and the Sahel as a priority.
    Question. What capacity has AQIM demonstrated to plan and carry out 
actions threatening U.S. interests?
    Answer. AQIM is able to threaten U.S. and Western interests within 
North and West Africa, where it has conducted or attempted attacks in 
several countries to include Mali, Niger, Algeria, and Mauritania. AQIM 
will likely strengthen its ties to other Al Qaeda-associated terrorist 
groups in the region to influence and support attack planning.
    Question. In your view, what has been the impact of the recent 
expansion of AQIM's area of operations in northern Mali on the group's 
capacities and aims?
    Answer. AQIM has increased freedom of movement throughout the 
region and implemented its own brand of sharia in the breakaway 
northern territories in Mali. AQIM uses small-scale improvised 
explosive device (IED), indirect fire (IDF), and mortar attacks to 
further conduct attacks in northern Mali to expel Multidimensional 
Integrated Stabilization Mission in Mali (MINUSMA).
                                 libya
    Question. What is your assessment of the current security situation 
in Libya?
    Answer. Libya currently has two governments competing for control, 
and their aligned militias are struggling to establish dominance of the 
country. However, at this point neither government is capable of 
providing domestic security or addressing transnational threats, such 
as terrorism or the ongoing migration crisis.
    Question. What is your understanding of the U.S. strategy with 
regards to Libya and the role of DOD in that strategy?
    Answer. I believe the U.S. maintains a national interest in 
stabilizing Libya and impeding extremists from using it as a refuge. 
The U.S. and our allies support the United Nations-led efforts to help 
the opposing Libyan groups reach a political resolution by establishing 
a national unity government. The role of DOD in the U.S. strategy is to 
use military relationships with regional partners to increase support 
for a political solution. Should diplomatic efforts to form a unity 
government succeed, I believe the U.S. should be prepared to revisit 
security assistance programs for legitimate Libyan security services.
    Question. How would you assess its effectiveness in achieving its 
objectives?
    Answer. Libya's political landscape is fragmented and the country 
is embroiled in a civil war. UN-led negotiations have yet to yield 
lasting results. I believe the DOD's role in a political solution is 
necessary, but alone it is not enough to drive resolution.
    Question. What do you assess to be the greatest impediments to 
implementing the strategy and protecting U.S. interests in Libya?
    Answer. I believe the greatest obstruction is the severe division 
of Libya's political and security landscape, which has seriously 
complicated negotiations. Libya has degenerated into a complex mix of 
competing political factions, tribes, militias and other armed groups 
which are intermixed with local and foreign extremists. These 
influences continue to make protecting U.S. interests in Libya 
difficult.
    Question. What is your assessment of the threat to the U.S. and our 
allies from terrorist groups, including ISIL, in Libya.
    Answer. Extremists and terrorists from Al Qaeda -affiliated and 
allied groups are using Libya's permissive security environment as a 
safe haven to plot attacks, including against Western interests in 
Libya and the region. ISIL considers Libya a key part of its caliphate 
and ISIL-aligned extremists are trying to institute sharia law in parts 
of the country.
                              north africa
    Question. In recent years, there has been a growth of terrorist 
networks, capabilities, operations, and safe havens throughout North 
and East Africa, including groups that have the intention to target 
U.S. and Western interests. In the face of growing instability and 
threats, the U.S. counterterrorism effort in the region has been 
described as an ``economy of force'' effort.
    Do you agree with that characterization of the situation in North 
and East Africa and the U.S. counterterrorism efforts to combat the 
related threats?
    Answer. Diverse and active terrorist networks in North and East 
Africa (as well as West Africa) are seeking to influence local 
resources and territory. Some have, at times, also demonstrated a 
willingness to target U.S. and Western interests. These groups threaten 
the stability of our regional partners and safety of local civilians. 
AFRICOM, in partnership with host nations and interagency partners, is 
working to identify, prioritize, and target these networks.
    Question. What is your assessment of the current U.S. 
counterterrorism strategy in the region? In your view, is the U.S. 
military allocating adequate resources to effectively address the 
terrorism threat in the region?
    Answer. I believe the U.S. military is allocating adequate 
resources based on the level of threat and the potential for 
collaboration with capable partner nations. If confirmed, I will 
continuously evaluate the adequacy of our strategy and allocation of 
resources, especially following changes in local threat levels and when 
new opportunities for potential collaboration with our partners arise.
    Question. General Rodriguez noted in his March 2014 testimony that 
``North Africa is a significant source of foreign fighters in the 
current conflict in Syria.'' What is your understanding of the foreign 
fighter flow from North Africa to the conflict in Syria and Iraq?
    Answer. The largest portion of foreign fighters entering Iraq and 
Syria come from North Africa, specifically Tunisia, Morocco, Libya and 
Algeria. Many of the fighters however are now choosing to stay in North 
Africa and join the ISIL affiliate in Libya instead.
    Question. In your view, is it likely that many of these fighters 
will eventually return home from Syria and Iraq to North Africa and 
continue their fight against regional governments?
    Answer. Yes, many Northern African foreign fighters will likely 
return home to conduct attacks in their home countries. We do not know 
if these fighters are being tasked by ISIL to attack Western of U.S. 
interests or whether, having been radicalized by ISIL are acting on 
their own accord.
                                 russia
    Question. Crimea was formally annexed when President Putin signed a 
bill to absorb Crimea into the Russian Federation on March 18, 2014, 
and Russia continues to fuel instability in eastern Ukraine despite 
signing ceasefire agreements in September 2014 and February 2015.
    How effective do you assess the sanctions of the U.S. and the 
European Union have been in deterring additional aggression by Russia?
    Answer. I believe sanctions by themselves are unlikely to deter 
future Russian aggression. Deterring combined Russian-separatists 
actions against Ukraine requires a whole of government approach in 
concert with Europe and NATO. Nevertheless, it's my understanding that 
U.S. and EU sanctions have impacted Russia's economy and I believe they 
send a clear signal to Moscow that aggression against Ukraine's 
sovereignty and territorial integrity entails costs. With the EU's 
recent decision to extend sanctions for an additional six months, the 
United States and EU have made clear that sanctions will not be lifted 
until Minsk is fully implemented. I believe these actions have 
contributed to deterrence.
    Question. What other specific U.S. actions helped to deter 
additional Russian aggression in Eastern Europe?
    Answer. Congressional support for the European Reassurance 
Initiative has enabled DOD, via Operation ATLANTIC RESOLVE (OAR), to 
conduct military exercises and training on land, in the air and at sea, 
while sustaining a rotational presence across Europe; and increase the 
responsiveness of U.S. forces to reinforce NATO by exploring 
initiatives such as prepositioning of equipment and enhancing reception 
facilities in Europe. Our bilateral efforts as well as our continued 
support of NATO adaptation measures all support the goal of deterring 
additional Russian aggression.
    Question. What additional steps, if any, are likely to prove most 
effective at deterring Russian aggression in Eastern Europe?
    Answer. If confirmed, I will continue to evaluate the effectiveness 
of our current measures and I will remain alert to potential 
adjustments. Of key concern to me is wisely channeling U.S. military 
efforts and resources to ensure our allies and partners are militarily 
capable and interoperable.
    Question. Are you concerned that Moldova and Georgia may be at a 
heightened state of vulnerability given Russian willingness to take 
aggressive action in Ukraine?
    Answer. Yes. Russia has demonstrated both in Georgia in 2008 and 
Ukraine today its willingness to use force and exploit the 
vulnerabilities of these fragile democracies to achieve its strategic 
objectives. Georgia, Moldova and Ukraine all contain Russian occupied 
separatist regions that Russia could potentially exploit for its own 
purposes.
    Question. Russian tactics in eastern Ukraine have been called 
``hybrid'' and combine hard power with soft power, including elements 
such as lethal security assistance to separatists, the use of special 
operations forces, extensive information operations, withholding energy 
supplies and economic pressure.
    If confirmed, what steps would you recommend as part of a strategy 
to counter this ``hybrid'' approach?
    Answer. I believe we must continue to take actions which deter 
Russian aggression, remain alert to its strategic capabilities, and 
most importantly help our allies and partners resist Russian coercion 
over the long term. I will continue to emphasize training activities, 
rotational presence, and capacity-building to make our partners more 
resilient against asymmetric threats and demonstrate U.S. resolve.
    Question. In light of Russia's actions in 2014, what do you believe 
are appropriate objectives for U.S.-Russian security relations?
    Answer. Although we disagree with Russia's recent conduct against 
its neighbors and will continue with our efforts to deter future 
actions, I will leave open the possibility for collaboration with 
Russia in areas of mutual national security interests. If confirmed, I 
will also keep lines of communication with my Russian counterpart open 
as a means for crisis management.
                             nato alliance
    Question. The reemergence of an aggressive Russia has resulted in 
the North Atlantic Treaty Organization (NATO) developing the Readiness 
Action Plan that NATO Secretary General
    Jens Stoltenberg called ``the biggest reinforcement of our 
collective defense since the end of the Cold War.'' NATO also continues 
to be central to our coalition operations in Afghanistan and elsewhere, 
even as many NATO members have significantly reduced their national 
defense budgets in response to economic and fiscal pressures.
    How important is the NATO alliance to U.S. national security 
interests?
    Answer. The Alliance is critical to our national security 
interests. This involves both Article 5 and other non-Article 5 related 
NATO operations. NATO maintains a persistent air, land, and maritime 
presence in and around the territories of our European allies, 
committed to defend its territory against any aggression. But it 
efforts extend beyond Article 5 with military operations supporting 
stability in Kosovo, Afghanistan, the Mediterranean Sea, and off the 
Horn of Africa. NATO is also assisting nations in North Africa and the 
Middle East to develop local capabilities to counter growing 
instability and transnational threats to prevent those threats from 
spreading to Europe.
    Question. In light of the Russian Federation's aggression against 
Ukraine, what do you see as the major strategic objectives of the NATO 
Alliance in the coming years and what are the greatest challenges in 
meeting those objectives?
    Answer. As a result of Russia's aggressive actions, NATO has 
refocused its attention on the Alliance's Article 5 responsibilities to 
protect and defend its territory and populations against attack. 
Concurrently, NATO must also continue to perform its other ``core 
tasks'' of crisis management and cooperative security. Among the 
challenges to achieving these objectives are: first, declining national 
defense budgets that result in capability shortfalls; and second, the 
required adaptation of NATO's institutional processes to the changing 
European security environment.
    Question. What do you see as the proper role, if any, for NATO in 
addressing the threat posed by ISIL and in addressing the problem of 
illegal immigration across the Mediterranean Sea?
    Answer. Due to its long-standing partnerships and experience with 
Defense Capacity Building missions, NATO has the potential to play a 
role in addressing both issues. Within Iraq, NATO could provide expert 
advice and capacity-building support to the Government of Iraq in areas 
such as security sector reform and the development of a national 
security strategy. To address illegal immigration across the 
Mediterranean Sea, NATO could potentially support efforts of the 
Mediterranean Allied nations and the European Union by sharing 
information gathered through its maritime operations in the 
Mediterranean Sea.
    Question. The concept of defense cooperation among NATO members was 
emphasized at the NATO summit in Chicago in May 2012.
    What areas or projects would you recommend, if confirmed, that NATO 
nations cooperate in to improve NATO alliance capabilities?
    Answer. Cooperation among Allies on developing capabilities 
provides a cost effective approach to addressing global challenges. If 
confirmed, I would urge Allies to increase their defense investments in 
both national and multinational projects and areas that address 
Alliance capability needs, such as developing command and control and 
joint intelligence, surveillance and reconnaissance and maintaining and 
improving readiness and interoperability. In support of that objective, 
I would also encourage Allies to honor their recent Summit pledge to 
achieve the two percent defense spending target.
    Question. Turkey continues to be a gateway for foreign fighters 
proceeding to and from Syria and Iraq.
    What steps would you recommend to encourage Turkey to continue to 
address the threat posed by foreign fighters proceeding to and 
returning from Syria and Iraq?
    Answer. If confirmed, I would support the Department's 
contributions to interagency support of Turkish efforts to enhance 
border security, to include strengthening critical information sharing 
with the Turkish military. Moreover, I would support international 
efforts to help source countries identify and disrupt foreign fighter 
transit to Turkey.
    Question. At the NATO Summit in Wales in 2014, NATO leaders 
declared their ``aim to move towards the 2 percent guideline [of GDP 
for defense spending] within a decade with a view to meeting their NATO 
Capability Targets and filling NATO's capability shortfalls.''
    In your view, what impact have national defense budget cuts had on 
the capabilities of the NATO alliance, and what do you believe needs to 
be done to address any capability shortfalls?
    Answer. There is a direct correlation between national defense 
budget cuts and increased Alliance capability shortfalls, such as in 
joint intelligence, surveillance and reconnaissance. To arrest this 
negative trend, Allies need to be held to the Defense Investment Pledge 
they agreed to at the Wales Summit. If confirmed, I will work with 
Allies on defense planning to ensure they maintain or develop the 
specific capabilities that the Alliance is lacking.
    Question. What are the greatest military capability shortfalls that 
you see in the NATO alliance?
    Answer. The most significant shortfalls are in so-called enabling 
capabilities such as joint intelligence, surveillance and 
reconnaissance, air to air refueling and strategic lift. These limited 
capabilities are the ones that the Alliance places heavy reliance on 
the United States to provide. If confirmed, I would encourage Allies to 
invest in developing these capabilities through national and 
multinational efforts.
    Question. In light of the reductions in national defense spending 
by some NATO members, are you concerned that the Alliance will lack 
critical military capabilities? If so, what steps, if any, would you 
recommend be taken to address potential shortfalls in Alliance 
capabilities?
    Answer. I am concerned about continued reductions in defense 
investment by our Allies because Alliance capability shortfalls will 
increase as national defense spending decreases, thus requiring a 
greater reliance on U.S. capabilities. The most effective step to 
counter these potential capability shortfalls is to arrest the decline 
in national defense investment and move to meet the Defense Investment 
Pledge that was agreed upon at the NATO Summit in Wales.
    Question. What are the greatest opportunities and challenges that 
you foresee for NATO in meeting its strategic objectives over the next 
five years?
    Answer. NATO's evolving security environment, highlighted by the 
events witnessed in both the Middle East and Europe, has made it 
necessary for NATO to adapt its political, military and institutional 
processes and focus. Our President and other NATO leaders have 
committed to this adaptation that will make NATO more responsive and 
ready to face future challenges. This commitment to adaptation provides 
the greatest opportunity for NATO; gaining the consensus to do this in 
a focused, proactive manner will be the greatest challenge.
    Question. In your view, is there a continuing requirement for U.S. 
nuclear weapons to be deployed in NATO countries?
    Answer. The 2010 Strategic Concept for the Alliance states NATO 
will remain a nuclear alliance for as long as nuclear weapons exist. 
Allies reaffirmed this stance with both the 2012 NATO Deterrence and 
Defense Posture Review and the 2014 Wales Summit. I support NATO 
maintaining the full range of capabilities necessary to ensure Alliance 
security, based on an appropriate mix of nuclear, conventional, and 
missile defense capabilities.
                      u.s. force posture in europe
    Question. The Department of Defense continues to review its force 
posture in Europe to determine what additional consolidations and 
reductions are necessary and consistent with U.S. strategic interests.
    How would you define the U.S. strategic interests in the European 
area of responsibility (AOR)?
    Answer. Europe is the home of most of our willing and capable 
Allies and partners. Our immediate security interests include helping 
Europe defend against potential security threats from Russia and 
violent extremists from the south as well as continued strategic 
interest in reassuring our Allies and partners of the United States' 
unquestionable commitment to NATO.
    Question. Do you believe that additional consolidation and 
reductions of U.S. forces in Europe are consistent with U.S. strategic 
interests in that AOR given the increase in Russian aggression in the 
last 15 months?
    Answer. Yes. Regarding facilities, we are maintaining a strong 
commitment to security and stability in Europe as the Department gains 
efficiencies through the Secretary's directed European Infrastructure 
Consolidation. Regarding forces, our focus on rotational presence is 
consistent with our strategic interests and existing resource 
constraints. However, the credibility and effectiveness of our response 
to Russian aggression in the East depend not only on the operational 
scale and geographic scope of our operations, but also on their 
persistence and longevity. If confirmed, I will seek to ensure the 
persistent, appropriate level of rotational presence is retained in 
Europe to effectively deter Russian aggression.
             u.s. force posture in the asia-pacific region
    Question. The Department continues the effort to rebalance toward 
the Asia-Pacific as announced in the January 2012 Strategic Defense 
Guidance.
    Are you satisfied with the rebalance efforts to date?
    Answer. Yes. The rebalance to the Asia-Pacific region, as announced 
by the President, incorporated in the 2012 Defense Strategic Guidance, 
and reinforced by the 2014 Quadrennial Defense Review, has resulted in 
a significant rebalancing of U.S. force structure and capabilities to 
this region, commensurate with its vital importance to U.S. security 
interests and global peace and prosperity. As we look ahead, we will 
continue to prioritize the Asia-Pacific region for positioning our most 
advanced capabilities that are critical for the future operational 
environment. If confirmed, I will continue to support the ongoing 
efforts to increase the Department's presence in the region and invest 
in and deploy critical advanced capabilities.
    Question. What do you see as the U.S. security priorities in the 
Asia-Pacific region over the next couple of years and what specific 
capabilities or enhancements are needed in to meet those priorities?
    Answer. First and foremost, we must work tirelessly to protect 
security and stability in the Asia-Pacific region, which is vital to 
the prosperity of all Pacific nations. The U.S. faces a range of 
challenges in the Asia-Pacific region, including provocations by the 
DPRK and the growth of its ballistic missile programs, the emergence of 
new technologies intended to prevent open access to the air and 
maritime domain, widespread natural disasters and transnational 
threats, and territorial disputes.
    To address these challenges, I believe the Department must continue 
to modernize U.S. alliances and partnerships, which provide a critical 
role in underwriting regional security. The Department should also 
continue to strengthen our ability to deter threats to the U.S. 
homeland and our allies and citizens overseas, enhance U.S. force 
posture and capabilities in the region, specifically in terms of 
intelligence surveillance, and reconnaissance (ISR) and missile 
defense, work with China to encourage greater transparency about how it 
will use its growing military capabilities; and encourage the peaceful 
resolution of territorial disputes in accordance with international 
law.
    Question. Do the budget cuts and resource constraints associated 
with sequestration threaten your ability to execute the rebalance to 
the Pacific?
    Answer. Yes. As stated in the 2014 Quadrennial Defense Review, the 
United States has prioritized its ability to maintain peace and 
stability in the Asia-Pacific region through presence and power 
projection. The Department remains committed to the rebalance despite 
the challenges of fiscal uncertainty and ongoing operations in the 
Middle East. U.S. long-term economic and security interests are 
inextricably linked to developments in the Asia-Pacific region, and the 
Department will continue to prioritize investments in those 
capabilities most relevant to the region.
    Question. As the United States realigns its forces in the Asia-
Pacific Theater, do you believe we have the air and maritime lift 
required to support the distribution of Marines across North and 
Southeast Asia?
    Answer. I believe we will need more lift in certain contingencies, 
but we have enough capacity for a range of scenarios. That said, it is 
critical for the U.S. military to evolve its forward presence in the 
Asia-Pacific region to respond to the changing strategic environment. 
If confirmed, I will continue to work with the Services and U.S. 
Pacific Command to address this challenge.
                                 kosovo
    Question. Approximately 700 U.S. troops remain in the Balkans as 
part of the Kosovo Force (KFOR) that first deployed to Kosovo in 1999 
and today is comprised of over 4,600 personnel from 30 countries. 
Spikes in violence in 2011 required the deployment of the NATO 
operational Reserve Force battalion of approximately 600 soldiers to 
bolster KFOR and maintain a secure environment. Progress is required in 
both the military and political realms before further troop reductions 
can be made.
    What major lines of effort do you think are required to further 
reduce or eliminate U.S. and NATO presence in Kosovo?
    Answer. Continuation of the EU's implementation of the 2013 
Brussels Accord between Serbia and Kosovo is a fundamental line of 
effort, necessary to stabilizing the Western Balkans and setting the 
conditions for improved security and follow-on troop reductions.
    Question. In your view, can the European Union play a more 
significant role in Kosovo?
    Answer. The EU already plays a significant role in fostering 
improved security and stability in Kosovo through its European Union 
Rule of Law Mission in Kosovo (EULEX-Kosovo). EULEX is part of the EU's 
broader effort to promote peace and stability in the Western Balkans 
and supports Kosovo, as they adopt and implement necessary reforms on 
its path toward a greater European integration.
               security situation on the korean peninsula
    Question. What is your assessment of the current security situation 
on the Korean peninsula and of the threat posed to the United States 
and its allies by the current state of North Korea's ballistic missile 
and nuclear weapons capabilities?
    Answer. North Korea's ballistic missile and weapons of mass 
destruction (WMD) capabilities present a serious and direct threat to 
U.S. forces postured in the Asia-Pacific region as well as to our 
regional allies and partners. These capabilities could eventually pose 
a direct threat to United States territory. Moreover, North Korea's 
history of proliferation amplifies the dangers of its asymmetric 
programs. If confirmed, I will ensure that the U.S.-ROK Alliance 
continues to strengthen alliance capabilities to counter North Korea's 
increasing missile and nuclear threat. I will also ensure that we draw 
upon the full range of our capabilities to protect against and respond 
to North Korean ballistic missile and WMD threats.
    Question. In your view, are there additional steps that DOD could 
take to ensure that North Korea does not proliferate missile and 
weapons technology to Syria, Iran and others?
    Answer. If confirmed, I will continue efforts to strengthen our 
strong defense posture against North Korea. This includes supporting 
our current efforts to increase the number of ground-based interceptors 
in California and Alaska, enhancing the Department's ability to 
highlight and disrupt the illicit proliferation networks that North 
Korea uses, and promoting cooperation with partners to interdict 
vessels and aircraft suspected of transporting items of proliferation 
concern.
    Question. What is your view regarding the timing of transfer of 
wartime operational control from the U.S. to the ROK?
    Answer. At the 2013 U.S.-ROK Security Consultative Meeting, then-
Secretary of Defense Hagel and ROK Minister of Defense Han decided that 
in light of the evolving security environment in the region, we will 
implement the ROK-proposed, conditions-based approach to the transition 
of wartime OPCON. The ROK will take wartime OPCON when critical ROK and 
alliance military capabilities are secured and the security environment 
in the region is conducive to a stable wartime OPCON transition.
                          china assertiveness
    Question. How has China's aggressive assertion of territorial and 
maritime claims, particularly in the South China Sea and East China 
Sea, affected security and stability in the region?
    Answer. China's actions are adding tension to the Asia-Pacific 
region, and subtly undermine the regional order that has sustained 70 
years of security and prosperity in the Asia Pacific. For example, its 
claims to nearly the entire South China Sea are inconsistent with 
international law. The international community continues to call on 
China to settle such issues cooperatively and without coercion. China 
has responded with aggressive land reclamation efforts on a pace and 
scale far surpassing other claimants that will allow it to position 
military forces astride vital international sea lanes.
    Through a persistent military and law enforcement presence and the 
announcement in November 2013 of a new Air Defense Identification Zone 
(ADIZ) over the East China Sea, China continues to engage in actions 
that appear designed to challenge Japan's administration of the Senkaku 
Islands.
                             china mil-mil
    Question. What is your assessment of the current state of the U.S.-
China military relationship and your views regarding China's interest 
in and commitment to improving military relations with the United 
States?
    Answer. Regarding our military-to-military (mil-mil) relations with 
China, it is profoundly in our shared interests that we find ways to 
increase cooperation where our interests overlap and to manage our 
differences where we disagree. In recent years, the Department's 
sustained and substantive dialogue with the Chinese People's Liberation 
Army (PLA) has enabled both the United States and China to reduce the 
risk of misperception and miscalculation, as well as to deepen 
practical cooperation in areas ranging from humanitarian assistance to 
military medicine. In addition to making investments that ensure our 
technological advantages in all domains, the military-to-military 
relationship is an important component in managing competition.
    Question. What is your view of the purpose and relative importance 
of sustained military-to-military relations with China?
    Answer. At their most basic level, U.S.-China defense contacts and 
exchanges provide opportunities to establish and maintain open lines of 
communication that will be essential to managing a crisis or preventing 
unintended escalation. The military-to-military relationship also 
allows us to explore and expand cooperation in areas of mutual 
interest, as well as manage security competition and other frictions in 
the relationship in a way that supports overall stability. Our high-
level leadership and policy interactions have allowed us to address 
with China at the strategic-level differences in areas such as nuclear 
and strategic stability, operations and standards in the space, cyber 
and maritime domains, and regional security issues such as Afghanistan, 
North Korea, South and East China Seas, and others.
                        anti-access/area denial
    Question. Over the past few years, much has been made of the 
emerging anti-access and area denial capabilities of certain countries 
and the prospect that these capabilities may in the future limit the 
U.S. military's freedom of movement and action in certain regions. Do 
you believe emerging anti-access and area denial capabilities are a 
concern?
    Answer. Emerging anti-access and area denial capabilities (A2AD) 
are a concern. China is developing missiles and other military 
technologies that are intended to limit U.S. military's freedom of 
movement in the Western Pacific. Russia is developing its A2AD 
capabilities, including missiles, in order to constrain U.S. and Allied 
freedom of movement on its periphery. Iran maintains a layered A2AD 
capability through the employment of road mobile ballistic missiles, an 
integrated air defense system, anti-ship cruise missiles, and naval 
assets stationed in the Persian Gulf.
    Question. If so, what do you believe the U.S. armed forces need to 
be doing now and in the next few years to ensure continued access to 
all strategically important segments of the maritime domain?
    Answer. As the President outlined in the 2015 National Security 
Strategy, the U.S. is committed to freedom of navigation and the safety 
and sustainability of maritime environment. The Department will 
therefore invest in critical personnel and technological advantages to 
meet the President's commitment, especially to counter anti-access and 
area denial capabilities of our potential enemies. Details of specific 
actions and investments are more appropriate for a classified 
discussion.
    Question. If confirmed, you would play an important role in the 
process of transforming the U.S. armed forces' capability and capacity 
to meet new and emerging threats.
    Concerning capability and capacity to meet new and emerging 
threats, what are your goals regarding transformation of the U.S. 
military?
    Answer. My goals would include addressing emerging threats through 
capability and capacity advancement across the spectrum of defense 
activities. The Department is exploring new ``offset strategies''--
combinations of technologies, operational concepts, and organizational 
constructs to meet these challenges which we can discuss in a 
classified setting. If confirmed, I will also emphasize the development 
of a new model for deterrence in the 21st Century to ensure that 
emerging domains--such as cyber--are incorporated into our thinking.
      intelligence, surveillance, and reconnaissance capabilities
    Question. Despite the ongoing drawdown in Afghanistan, demand for 
intelligence, surveillance, and reconnaissance (ISR) capabilities of 
every kind remains very high due to the enhanced situational awareness 
and targeting capabilities they bring to our commanders. Almost all of 
the geographic combatant commands still have validated ISR requirements 
that are not being met.
    What is your assessment of the Department's current disposition of 
ISR assets across the various combatant commands?
    Answer. The Department has insufficient ISR assets to meet the 
global demand. Meeting new requests required reallocating assets from 
other Secretary of Defense-approved operations. The Department must 
therefore allocate ISR assets to meet our highest priorities. To 
support counter-terrorism operations, we have allocated 90 percent of 
our remotely-piloted full-motion video assets to USCENTCOM in support 
of our counter-terrorism operations, with the remaining sourced 
primarily to USAFRICOM. We are leveraging other assets with increased 
standoff ranges and enhanced defensive capabilities to support 
USEUCOM's indications and warning collection requirements and to 
support USPACOM's sensitive reconnaissance operations areas.
    Question. As our forces are withdrawn from Afghanistan, should 
existing ISR assets be re-postured to support combatant command needs 
in other regions, or can we afford to reduce ISR capacity?
    Answer. To ensure a balance across operational, force management, 
and institutional risks, the Department continually evaluates our 
capabilities against evolving combatant command requirements. When 
appropriate, we can reposition ISR assets to support emerging needs 
across other regions. For example, within the last year, we sourced 
nearly all of our current ISR for Syria and Iraq from operations in 
Afghanistan. Additionally, we made the tough decision to return Air 
Force MQ-1 and MQ-9 capacity to a steady-state 60 flights a day, 
reducing risk to the long-term sustainability of the USAF's unmanned 
pilot force.
    Question. Most of the highest-value ISR assets acquired after 9/11 
are aircraft that were not designed to be survivable in high-threat air 
defense environments, although in some cases unmanned aerial vehicles 
were designed to be deployed in large numbers in the expectation of 
substantial combat attrition.
    Do you believe that the Department needs a major shift towards ISR 
platforms that are survivable in high-threat situations, or merely an 
augmentation of the capabilities we now have, with the assumption that 
air superiority can be gained rapidly enough to operate today's assets 
effectively?
    Answer. I believe we should invest in ISR platforms, sensors, and 
communications capabilities designed to penetrate and survive in high-
threat and denied environments, across all domains. It is faulty to 
assume we will rapidly gain superiority in the air or other domains in 
future conflicts. We must find the right balance of ISR capabilities. 
Future scenarios will require assets capable of penetrating and 
surviving in high-threat and denied areas. While these capabilities are 
expensive to develop and field, they are a necessary component of 
balanced efforts to maintain our strategic advantage.
               aircraft carrier-launched unmanned systems
    Question. The Navy's current plan for the Unmanned Carrier-Launched 
Airborne Surveillance and Strike (UCLASS) system aircraft is to develop 
an airframe optimized for unrefueled endurance (14 hours) and the ISR 
mission. Given the combat radius of the planned carrier air wing, are 
you concerned the carrier will lack the ability to project power at 
relevant distances given emerging anti-access/area-denial threats?
    Answer. Yes. That is why it is important for the Department to 
continue development of concepts and capabilities that allow us to 
project power when faced with an A2AD environment to maintain 
competitive advantage.
                       special operations forces
    Question. The 2006 and 2010 QDRs mandated significant growth in our 
special operations forces (SOF) and enablers that directly support 
their operations. The most-recent QDR released in 2014 capped this 
growth at 69,500, approximately 2,500 below the originally planned 
growth. In light of the growing global terrorism threat, do you believe 
the currently planned end-strength for SOF is sufficient to meet global 
requirements?
    Answer. Any changes to end-strength, whether conventional or 
special operations forces (SOF), require continual analysis to meet 
current and predicted threats while informed by fiscal realities.
    Question. SOF are heavily reliant on enabling support from the 
general purpose force. In light of current fiscal challenges, do you 
believe sufficient enabling capabilities can be maintained within the 
general purpose forces and that such capabilities will remain available 
to special operations forces?
    Answer. I firmly believe that we have trained general purpose 
forces for these missions and we will continue to have this capability 
going forward.
                international peacekeeping contributions
    Question. In testimony before the House Committee on Foreign 
Affairs (July 29, 2009), Ambassador Susan Rice, then U.S. Ambassador to 
the United Nations, stated that the United States ``is willing to 
consider directly contributing more military observers, military staff 
officers, civilian police, and other civilian personnel--including more 
women I should note--to UN peacekeeping operations.''
    What is your view on whether the U.S. should contribute more 
military personnel to both staff positions and military observers in 
support of U.N. peacekeeping operations?
    Answer. The Department should focus its contributions to the UN in 
areas that will help make systemic changes to increasing the 
effectiveness and efficiency of UN peacekeeping operations. Select 
placements of personnel to key positions within the UN can help 
facilitate this objective.
    Question. If confirmed, would you support identifying methods 
through which the DOD personnel system could be more responsive to 
requests for personnel support from multilateral institutions like the 
United Nations?
    Answer. Over the past year we have provided multiple officers to 
the UN to include the head of the UN's military planning service. The 
recent administrative waiver extension provided by the UN to the U.S. 
facilitates future assignments. If confirmed, I will explore methods to 
be more responsive to requests for personnel support to multilateral 
institutions.
                       interagency collaboration
    Question. The collaboration between U.S. Special Operations Forces, 
general purpose forces, and other U.S. Government departments and 
agencies has played a significant role in the success of 
counterinsurgency and counterterrorism operations in recent years. 
However, much of this collaboration has been ad hoc in nature.
    What do you believe are the most important lessons learned from the 
collaborative interagency efforts in Afghanistan, Iraq, and elsewhere?
    Answer. The military element of national power will always be 
critical, but achieving lasting national security objectives requires 
an integrated whole of government approach. We have learned a great 
deal about this over the past decade and our capabilities for 
interagency collaboration have progressed substantially. If confirmed, 
I will work to ensure we do not lose that ability as we refocus on full 
spectrum proficiency.
    Question. How do you believe these efforts can be improved?
    Answer. If confirmed, my focus must remain on the military 
instrument of power but I will ensure the Joint Staff remains 
collaborative and engaged with the interagency and private sector. I 
want to maximize interagency partners' integration into our training 
and education programs, in order to strengthen the relationships that 
are essential when facing a national security challenge.
    Question. How can the lessons learned in recent years be captured 
in military doctrine and adopted as ``best practices'' for future 
contingency operations?
    Answer. Joint Doctrine must adapt quickly to innovation in the 
dynamic environment of current operations. In turn, we must infuse 
doctrine quickly into the education and joint exercise programs. We 
have made great strides in this over the last decade. If confirmed, I 
will ensure the Department's Joint Force Development process analyzes 
lessons learned from operational practice, joint training and concept 
development and moves them rapidly into Joint Doctrine for the 
operational preparation and future employment of the force.
    Question. Interagency collaboration on an operational or tactical 
level tends to address issues on a country-by-country basis rather than 
on a regional basis (e.g. international terrorists departing Mali for 
safe havens in Libya).
    How do you believe regional strategies that link efforts in 
individual countries can best be coordinated in the interagency arena?
    Answer. Our performance in crisis situations rests on how well we 
collaborate on a routine basis. Therefore, I support a whole-of-
government planning, operations and resourcing framework to ensure our 
country plans are mutually-reinforcing. The military develops Theater 
Campaign Plans and Functional Campaign Plans that address regional and 
trans-regional issues. We seek input from interagency partners in the 
development of these plans to de-conflict and complement efforts. State 
is beginning to develop Joint Regional Strategies to address regional 
foreign policy priorities and drive country strategies. This new 
regional perspective will improve our ability to coordinate The 
Department's plans with State's plans.
                       responsibility to protect
    Question. The U.S. Government has recognized the ``responsibility 
to protect'' (R2P)--that is, the responsibility of the international 
community to use appropriate means to help protect populations from 
genocide, war crimes, ethnic cleansing and crimes against humanity, by 
encouraging states to protect their own populations, by helping states 
build the capacity to do so, and by acting directly should national 
authorities fail to provide such protection. In its 2010 Quadrennial 
Defense Review, the Department of Defense names ``preventing human 
suffering due to mass atrocities'' as one of a long list of potential 
contingencies that DOD might be called on to address. DOD has begun to 
explore some of the implications of R2P, by considering ``mass atrocity 
prevention and response operations'' (MAPRO).
    In your view, how high a priority should the ``responsibility to 
protect'' be for the U.S. Government as a whole?
    Answer. The United States does not currently view the 
``responsibility to protect'' as a legal basis for the use of military 
force. Without legal standing, it is not a practice to rank order by 
priority. However, the Department undertook an active role and remains 
prepared to act, if directed, to help prevent and respond to mass 
atrocity situations.
    Question. In your view, what should be the role of DOD, if any, in 
fulfilling the responsibility to protect?
    Answer. The use of military force is only one instrument of 
national power. The role of the Department is to support our 
government's decided response in any situation as part of a whole-of-
government approach. The Department should provide options and provide 
the risk assessment of those options for our political leaders' use in 
their decision making.
    In your view, what is the proper application of R2P doctrine with 
respect to the situation in Syria?
    Answer. It would be a political vice military decision to use R2P 
as a basis for intervention. However, the U.S. Government continues 
working with its allies, partners, and with the Syrian opposition to 
provide humanitarian assistance within Syria and across the region. The 
United States already has provided over $4.4 billion in aid since 
fiscal year 2012 to help the victims of the conflict, including 
emergency medical care and supplies, food, and shelter. The U.S. 
Government has spent over three quarters of a billion dollars in fiscal 
year 2015.
        operation observant compass & the lord's resistance army
    Question. Despite pressure by the Ugandan People's Defense Forces 
(UPDF) and efforts by U.S. Special Operations personnel to support 
them, elements of the Lord's Resistance Army (LRA)--including Joseph 
Kony--continue to operate and commit atrocities against civilian 
populations in the Central African Republic, Democratic Republic of the 
Congo, and South Sudan. Some observers have identified operational 
concerns with this mission, including that: (1) supported forces are 
trying to find an elusive foe in an area roughly the size of 
California, much of which is covered in thick jungle; (2) technical 
support to U.S. forces and their UPDF partners from the defense and 
intelligence community continues to be inadequate; and (3) limitations 
continue to be placed on the ability of U.S. Special Operations 
personnel to accompany UPDF partners outside of main basing locations, 
thereby limiting the level of direct support they can provide.
    In your view, what is the objective of Operation Observant Compass?
    Answer. It is my understanding that Operation OBSERVANT COMPASS has 
four main objectives:
    1) Increase protection of civilians affected by the LRA
    2) Promote defection, disarmament, demobilization, and 
reintegration of LRA fighters
    3) Remove Joseph Kony and LRA leaders from central Africa
    4) Increase humanitarian access and provide relief
    With U.S. government assistance, our African partners are making 
considerable progress achieving these mission objectives.
    Question. Do you support the continuation of DOD's current level of 
support to this mission?
    Answer. If confirmed, I will advocate for the Department to 
continue resourcing this operation at a level appropriate to the threat 
the LRA poses to our national interests in the region.
       national strategy to combat transnational organized crime
    Question. Criminal networks are not only expanding their 
operations, but they are also diversifying their activities, resulting 
in a convergence of transnational threats that has evolved to become 
more complex, volatile, and destabilizing. The Director of National 
Intelligence recently described transnational organized crime as ``an 
abiding threat to U.S. economic and national security interests,'' and 
stated that ``rising drug violence and corruption are undermining 
stability and the rule of law in some countries'' in the Western 
Hemisphere. In July 2011, the President released his Strategy to Combat 
Transnational Organized Crime: Addressing Converging Threats to 
National Security. One of the priority action areas designated in the 
strategy is ``enhancing Department of Defense support to U.S. law 
enforcement.''
    What is your understanding of the President's strategy to combat 
transnational criminal organizations?
    Answer. The President's Strategy to Combat Transnational Organized 
Crime integrates all elements of our national power to combat 
transnational organized crime and related threats to national 
security--and urges our partners to do the same. Ultimately, the 
strategy seeks to reduce transnational organized crime from a national 
security threat to a manageable public safety concern in the U.S. and 
in strategic regions abroad.
    Question. What is your understanding of the Department's role 
within the President's strategy?
    Answer. The Department of Defense provides a valuable supporting 
role to other U.S. government agencies with the lead to combat 
transnational organized crime.
    Question. In your view, should DOD play a role in providing support 
to the U.S. law enforcement and the Intelligence Community on matters 
related to transnational organized crime?
    Answer. The Department provides unique capabilities to address the 
national security threat of transnational criminal organizations by 
supporting U.S. law enforcement and the Intelligence Community as part 
of a whole of government approach, consistent with current and recently 
expanded authorities provided in the fiscal year 2015 NDAA. 
Intelligence support, counter-threat finance support, building partner 
capacity and detection and monitoring are specific Department 
capabilities which support the interagency and partner nations.
    Question. President Obama identified the prevention of mass 
atrocities and genocide as a core U.S. national security interest, as 
well as a core moral interest, in August 2011 under Presidential Study 
Directive 10.
    Among interagency partners, what is DOD's role in addressing 
atrocity threats, and what tools does DOD have for preventing or 
responding to atrocities?
    Answer. The Department has developed Joint Doctrine for conducting 
Mass Atrocity Response Operations. Based on this doctrine, atrocity 
prevention and response is now incorporated into military plans and 
planning guidance. In addition, the Department has conducted a 
comprehensive review of training in this area and is working to 
strengthen the capacity of UN peacekeeping operations to respond to 
atrocity events.
    Question. Has DOD developed planning processes toward this effort 
so that it will be able to respond quickly in emergency situations?
    Answer. Yes, the Department has developed planning processes toward 
this effort. All DOD components have been directed to integrate 
atrocity prevention and response into their policies and plans. 
Specific plans are further developed and implemented at the Geographic 
Combatant Command level, in coordination with the Office of the 
Secretary of Defense and the Joint Staff.
    Question. In your view, is the situation in Syria a mass atrocity?
    Answer. The situation in Syria is truly tragic considering the 
estimates of over two hundred thousand combatant and non-combatants 
deaths, with over four million displaced. There is no military solution 
in Syria when the violence occurs due to a brutal regime that attacks 
its own citizens. There can be no peace in Syria with Asad in power, 
only a negotiated political settlement will solve Syrian crisis.
                         counter threat finance
    Question. DOD and the Intelligence Community (IC) have begun 
investing more resources in identifying and tracking the flow of money 
associated with terrorist networks and illicit trafficking, but the 
opportunities for tracking and degrading illicit financing flows are 
not yet matched by the effort and resources devoted to them. 
Identifying and disrupting key individuals, entities, and facilitation 
routes enabling the flow of money that supports terrorism, production 
of IEDs, narco-trafficking, proliferation, and other significant 
national security threats could have an outsized impact on confronting 
these threats.
    What are your views on the role of DOD in counter threat finance 
activities?
    Answer. The Department's policy is to work with other U.S. 
government entities and partner nations to effectively deny, disrupt, 
degrade, and defeat our adversaries' ability to access and utilize 
financial resources. If confirmed, I will work to further integrate our 
efforts with those of the interagency, intelligence community, and our 
foreign and institutional partners to more effectively counter threat 
finance activities and networks.
    Question. Are you aware of any policy, legal authority, or resource 
shortfalls that may impair U.S. counter threat finance efforts?
    Answer. Lack of sufficient insight and fidelity on the sources of 
corruption in partner nations can hinder our ability to achieve counter 
threat network goals. Additionally, in non-terrorism cases, there are 
still difficulties sharing timely and relevant information between law 
enforcement and intelligence elements.
    Question. In your view, how should the Department of Defense 
coordinate and interface with other key agencies, including the 
Department of Treasury and the Intelligence Community, in conducting 
counter threat finance activities?
    Answer. The Department should, and currently does, augment and 
support the efforts of other U.S. government entities, including the 
Department of Treasury and the Intelligence Community, with its unique 
capabilities to conduct counter threat finance capabilities. The result 
is a well-coordinated, capable, and robust counter threat finance 
posture. If confirmed, I will continue to remain fully engaged in the 
interagency process to diminish adversary use of both licit and illicit 
financial networks.
                        section 1208 operations
    Question. Section 1208 of the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), as amended 
by subsequent bills, authorizes the provision of support (including 
training, funding, and equipment) to regular forces, irregular forces, 
and individuals supporting or facilitating military operations by U.S. 
Special Operations Forces to combat terrorism.
    What is your assessment of this authority?
    Answer. Section 1208 funding is a good tool enabling the U.S. 
Government to leverage our foreign partners and reduces U.S. unilateral 
Direct Action operations to combat terrorism. 1208 funding allows the 
U.S. to quickly advance counterterrorism objectives in areas that would 
otherwise allow terrorism to go unchecked. The U.S. can build on 
programs to transition into building partner capacity so that foreign 
partners can deny terrorists a safe haven within their sovereign 
country.
             active-duty and reserve component end strength
    Question. Last year DOD announced its 5-year plan to reduce active-
duty end strengths by over 100,000 servicemembers by 2017 and the 
reserve components by another 21,000 over the same period. These cuts 
do not include any additional personnel reductions that could result 
from sequestration or any agreement to avoid sequestration.
    What is your view of the role of the reserve components as the 
active components draw down?
    Answer. As the total force draws down, the role of the Reserve 
Component will continue to be critical in meeting the requirements of 
our National Military Strategy. Because much of the Total Force's 
essential capabilities reside in the National Guard and Reserves, we 
simply cannot meet our global commitments without them. However, I 
cannot stress enough that we need both statutory authorities and a 
reliable funding stream to maintain the readiness of our active duty 
component and assured access to our trained and ready reserve 
components. Without assured access, we cannot adequately program and 
properly plan for integrating and employing this critical asset in 
support of our national interests.
    Question. What additional military personnel reductions do you 
envision if the sequester continues?
    Answer. The PB16 FYDP manning levels reflect the maximum acceptable 
risk in executing our defense strategy. If sequestration continues, we 
will further reduce total personnel end-strength consistent with the 
2013 Strategic Choices Management Review and subsequent SASC testimony 
by the Service Chiefs.
    Question. In your view, what tools do DOD and the Services need to 
get down to authorized strengths in the future, and which of these 
require Congressional authorization?
    Answer. I believe the Department and Services' force management 
tools are flexible enough to drawn down to authorized Service end 
strengths. I know of no request for increased tools or authorities at 
this time.
                          religious guidelines
    Question. American military personnel routinely deploy to locations 
around the world where they must engage effectively with allies and 
with host-country nationals whose faiths and beliefs may be different 
than their own. For many other cultures, religious faith is not a 
purely personal and private matter; it is the foundation of their 
culture and society. Learning to respect the different faiths and 
beliefs of others, and to understand how accommodating different views 
can contribute to a diverse force is, some would argue, an essential 
skill for operational effectiveness.
    In your view, do policies concerning religious accommodation in the 
military appropriately accommodate the free exercise of religion and 
other beliefs, including individual expressions of belief, without 
impinging on those who have different beliefs, including no religious 
belief?
    Answer. Yes. The Department of Defense is committed to 
accommodating the free exercise of religion and other beliefs without 
impinging on those who have different beliefs or no religious belief.
    Question. Under current law and policy, are individual expressions 
of belief accommodated so long as they do not impact unit cohesion and 
good order and discipline?
    Answer. Yes. Law and policy accommodate individual expressions of 
belief as long as they do not impact mission accomplishment, good order 
and discipline, and unit cohesion.
    Question. In your view, does a military climate that welcomes and 
respects open and candid discussions about personal religious faith and 
beliefs in a garrison environment contribute in a positive way to 
preparing U.S. forces to be effective in overseas assignments? Would a 
policy that discourages open discussions about personal faith and 
beliefs be more or less effective at preparing servicemembers to work 
and operate in a pluralistic environment?
    Answer. In my view, it is important to have a military climate that 
welcomes and respects open and candid discussion about personal 
religious faith. Expressing personal belief in a manner that is 
respectful of other's views helps strengthen cohesion within a unit. At 
the same time, it helps U.S. forces to develop a deeper awareness and 
understanding of other perspectives, which is important in overseas 
assignments. Policies that discourage open discussion would be short-
sighted in their understanding of the world in which we live.
             prevention of and response to sexual assaults
    Question. In 2014, there was what the Department described as an 
``unprecedented 53 percent increase in victim reports of sexual 
assault. In fiscal year 2014, victims made 4,660 Unrestricted Reports 
and 1,840 initial Restricted Reports of sexual assault. Also in fiscal 
year 2014, the Department saw the number of victims who converted 
Restricted Reports to Unrestricted Reports increase from an average of 
15 percent to 20 percent. According to the 2014 RAND Military Workplace 
Study approximately 72 percent of servicemember victims who indicated 
they made a sexual assault report said they would make the same 
decision to make a report if they had to do it over again. The Rand 
Study also indicated the percentages of active duty personnel who 
experienced unwanted sexual assault declined in 2014, from 6.1 percent 
to 4.3 percent for women and from 1.2 percent to 0.9 percent for men. 
The Department also concluded the estimated gap between reporting and 
prevalence of sexual assaults was at the narrowest point since the 
Department began tracking this data.
    What is your assessment of the current DOD sexual assault 
prevention and response program?
    Answer. We have taken strong action to address the climate within 
the military and to bring perpetrators to justice. We hold commanders 
accountable for both. We have made progress but must continue to work 
hard, particularly in reforms designed to improve victim confidence, 
enhance access to victim advocacy and legal support. The Secretary of 
Defense and the Joint Chiefs are committed to the safety of our men and 
women and will not relax our comprehensive efforts to combat sexual 
assault.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. The unrestricted and restricted reporting options were 
designed to assist victims. Because unrestricted reporting 
automatically initiates a criminal investigation, some victims were 
choosing to forego support services rather than initiate an 
investigation. The restricted reporting option allows a victim access 
to medical care and support services without initiating an 
investigation. Offering both forms of reporting provides a means to 
protect a victim's privacy and time to cope with the trauma of sexual 
assault.
    Question. What is your understanding of the adequacy of DOD 
oversight of military service implementation of the DOD and service 
policies for the prevention of and response to sexual assaults?
    Answer. The Department has provided close oversight and strong 
support to the Services. The collaboration between the OSD Sexual 
Assault Prevention and Response Office and Services led to many 
advancements, including the development of metrics which will not only 
improve oversight but will also help better understand the 
effectiveness of our response efforts.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these observed changes in 
sexual assaults have occurred?
    Answer. The chain of command is fundamental of our military 
culture. Our ability to effect institutional change rest with leaders 
at all levels but starts with the commander. Commanders are accountable 
for what happens in their units and must foster a command climate of 
dignity, respect and trust where sexist behavior, sexual harassment and 
sexual assault is not condoned or ignored.
    Question. Surveys report that up to 62 percent of victims who 
report a sexual assault perceive professional or social retaliation for 
reporting. If confirmed, what will you do to address the issue of 
retaliation for reporting a sexual assault?
    Answer. Any form of retaliation goes against our core values. The 
Department is focused on this issue and working to understand what 
causes this problem and develop solutions. If confirmed, I will work 
with the OSD and the Services to ensure our servicemembers understand 
that our culture fosters dignity and respect and retaliation is not 
tolerated.
    Question. Sexual assault is a significantly underreported crime in 
our society and in the military. If confirmed, what will you do to 
increase reporting of sexual assaults by military victims?
    Answer. We must improve victim confidence in our ability to respond 
to incidents of sexual assault, and in their well-being after an 
incident. If confirmed, I will continue to work hard with OSD to assess 
current programs and best practices that build victim confidence in our 
systems and our ability to hold perpetrators appropriately accountable.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command, instead of a military 
commander in the grade of O-6 or above as is currently the Department's 
policy, to determine whether allegations of sexual assault should be 
prosecuted?
    Answer. I value the legal analyses and recommendations of our 
military judge advocates. However, I firmly believe the military 
commander's role is indispensable in the military justice process. The 
Uniform Code of Military Justice a criminal justice system, but it is 
also a critical aspect of a commander's authority to maintain good 
order and discipline. I believe our servicemembers and our national 
security are best served by retaining the military commander's key role 
in the military justice decision process.
             assignment policies for women in the military
    Question. The Department, in January 2014 rescinded the policy 
restricting the assignment of women to certain units which have the 
primary mission of engaging in direct ground combat operations, and has 
given the military services until January 1, 2016, to open all 
positions currently closed to women, or to request an exception to 
policy to keep a position closed beyond that date, an exception that 
must be approved by the Chairman of the Joint Chiefs of Staff and the 
Secretary of Defense. The services are working now to develop gender-
free physical and mental standards for all military occupations, 
presumably with the goal of allowing individuals, regardless of gender, 
to serve in those positions if they can meet those standards.
    If confirmed, what role will you play in the development of these 
standards?
    Answer. The Services are in the final stages of validating their 
standards. Military Department Secretaries must certify that their 
standards are gender-neutral and in compliance with all applicable laws 
by 30 Sept. If confirmed, I look forward to working with OSD and the 
Joint Chiefs to monitor the effectiveness of the standards.
    Question. Will you ensure that the standards will be realistic and 
will preserve, or enhance, military readiness and mission capability?
    Answer. Yes. Our success is contingent upon establishing a ready 
and capable military force. Our standards must prepare us to meet any 
contingency.
    Question. Do you believe that decisions to open positions should be 
based on bona fide military requirements?
    Answer. All decisions impacting our armed forces should be based on 
a complete analysis of mission requirements.
    Question. If so, what steps will you take, if confirmed, to ensure 
that such decisions are made on this basis?
    Answer. If confirmed, I will work with the Joint Chiefs of Staff to 
ensure decisions are made that reflect joint operations requirements.
    Question. Some family members have expressed concerns about 
assigning women to what are currently male-only combat units.
    Answer. I believe our final standards, along with sound leadership, 
will address any concerns .
    Question. To what extent do you believe that this will be a problem 
in the implementation of this policy?
    Answer. I do not believe this will be a problem that will impact 
implementation.
    Question. If it is a problem, what steps would you take if 
confirmed to address it?
    Answer. If confirmed, I will take every opportunity to ensure our 
military family members concerns are addressed.
             military health care reform and modernization
    Question. Congress authorized the Military Compensation and 
Retirement Modernization Commission in the National Defense 
Authorization Act for Fiscal Year 2013 to conduct a review of the 
military compensation and retirement systems and to make 
recommendations to modernize those systems. The Commission released its 
report in January 2015. What is your view of the Commission's findings 
regarding the military health system?
    Answer. I agree with the Commission that the military must continue 
to improve the military health care system. The health care reforms 
proposed in the President's fiscal year 2016 budget are a good first 
step and offer servicemembers, retirees, and their families more 
control and choice over their health care decisions. As we prepare the 
fiscal year 2017 budget, we will work with Congress to determine if 
additional reform proposals are needed.
    Question. Do you believe the Department's fiscal year 2016 proposal 
to consolidate TRICARE adequately addressed the Commission's findings 
on military health care?
    Answer. Yes. The Department's fiscal year 2016 proposal to 
consolidate TRICARE effectively provides family members and retirees 
with greater choice and control over their healthcare decision without 
the risk of an untested, and potentially infeasible, overhaul of the 
Military Health System. If confirmed, I will work closely with 
Department leadership and Congress to ensure the proposal is 
implemented as efficiently and effectively as possible.
    Question. What is your view of the Commission's recommendation to 
establish a Joint Readiness Command?
    Answer. A new, four-star readiness command is not necessary as the 
Department has sufficient existing processes and governance structures 
to identify, track, and measure the readiness status of Department-wide 
and Service-specific essential medical capabilities.
    Question. What is your assessment of progress the Defense Health 
Agency has made to create efficiencies and generate cost savings by 
combining the medical support functions of the Services?
    Answer. I have been briefed that the Defense Health Agency (DHA) is 
on track to reach Full Operational Capability on 1 October 2015. In 
order for the DHA to be successful, the difference between policy and 
execution must be clear to the Services, Combatant Commands, and Joint 
Staff. This clarification and along with the DHA's ability to meet its 
assigned mission essential tasks will be validated by the Joint Staff 
NLT 2017 when a Combat Support Agency Review Team Assessment (CSART) is 
conducted by the Joint Staff.
    Question. Do you believe the Defense Health Agency should be 
replaced with a new combatant command, a Unified Medical Command?
    Answer. No. The Defense Health Agency (DHA) will reach Full 
Operating Capability (FOC) on 01 October 2015 and it is premature to 
make a determination if the DHA will meet mission demands. As such, I 
agree with the Secretary Carter's assessment that an additional four-
star command for the purpose of ensuring joint medical readiness is not 
required now.
                        wounded warrior support
    Question. Servicemembers wounded and injured in combat operations 
deserve the highest priority from their Service for support services, 
healing and recuperation, rehabilitation, evaluation for return to 
duty, successful transition from active duty when appropriate, and 
continuing support beyond retirement or discharge.
    What is your assessment of the progress made by the Department of 
Defense, the Department of Veterans Affairs, and the Services to 
improve the care, management, and transition of seriously ill and 
injured servicemembers and their families?
    Answer. The establishment of the Warrior Care Policy (WCP) Office 
is probably one of the most significant improvements we've made in 
support of our wounded, ill, and injured recovering servicemembers 
(RSMs). The WCP is solely focused on developing policies for the DOD 
and provides oversight to ensure proper execution and outcomes.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase support for wounded 
servicemembers and their families, and to monitor their progress in 
returning to duty or to civilian life?
    Answer. Although the Services and Department have made strides in 
caring for many different aspects/needs of wounded, ill, and injured 
recovering servicemembers (RSMs), more can be done with regards to 
standardizing policy across the Services (related to retention). There 
needs to be more clarity or communication of the procedures and 
processes which each Service has when a servicemember desires to return 
to active duty.
    Question. What is your assessment of the need to make further 
improvements in the Integrated Disability Evaluation System?
    Answer. My understanding is the Department makes every effort to 
improve our key processes and IDES is one of those areas. In the last 
few years, DOD has identified and executed numerous improvements that 
have resulted in achieving higher servicemember satisfaction as well as 
more timely processing. As a result, as of May 2015, Active Component 
case timeliness averaged 223 days with a goal set at 290 days. The 
Reserve Component has achieved a 298 days metric while the goal is 305 
days. Servicemember satisfaction is at a new high of 87 percent. I 
believe we are moving in the right direction and if confirmed will 
continue to make improving this process a priority.
             suicide prevention and mental health resources
    Question. The numbers of suicides in each of the Services continues 
to concern the Committee.
    In your view, what role should the Joint Chiefs of Staff play in 
shaping policies to help prevent suicides both in garrison and in 
theater and to increase the resiliency of all servicemembers and their 
families, including members of the reserve components?
    Answer. Preventing suicide among members of the Armed Services is 
one of the most important challenges we share with the Services. We 
have joined forces with agencies throughout DOD and civil society to 
better understand the factors leading to suicide. We are shaping policy 
to foster a culture of Total Force Fitness that enhances wellness, 
promotes resilience, and sustains a military force fit in mind, body, 
and spirit. In addition to educating the force on suicide prevention, 
we are providing additional training and support to our first 
responders (chaplains, senior enlisted leaders, legal counsel, and 
mental health providers) to ensure that they are as equipped as 
possible to prevent suicides.
    Question. If confirmed, what actions will you take to ensure that 
sufficient mental health resources are available to servicemembers in 
theater, and to the servicemembers and their families upon return to 
home station?
    Answer. I believe we reduce the stigma associated with 
servicemembers seeking mental health care. I also believe that 
prevention by early intervention for both servicemembers and their 
family is a key component of mental health care. Additionally, having 
adequate care providers at the appropriate locations for servicemembers 
to seek out support is critical. Specifically, I continue to support 
embedding mental health personnel across the deployed force and the 
requirement of an in-theater periodic mental health assessment for all 
servicemembers deployed. The long-term mental health of our 
servicemembers and their families cannot be understated and if 
confirmed I will continue making progress in supporting them in this 
area.
                        military quality of life
    Question. The Committee is concerned about the sustainment of key 
quality of life programs for military families, such as family support, 
child care, education, employment support, health care, and morale, 
welfare and recreation services, especially as DOD faces budget 
challenges.
    If confirmed, what further enhancements, if any, to military 
quality of life programs would you consider a priority in an era of 
intense downward pressure on budgets?
    Answer. One of the chief priorities within military quality of life 
that I would like to see pursued, is a greater focus on program 
evaluation and outcomes. The Military Family Readiness Counsel was 
established in 2008 specifically to evaluate and assess the 
effectiveness of the quality of life and family readiness programs, and 
the Joint Staff participates in this venue. We need to see more 
concrete recommendations from this body to the Secretary of Defense on 
how utilize evidence to improve our social support programs, especially 
in light of downward pressure on budgets.
                      family readiness and support
    Question. Military members and their families in both the active 
and reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of growing concerns among military families as a 
result of the stress of frequent deployments and the long separations 
that go with them.
    What do you consider to be the most important family readiness 
issues for servicemembers and their families?
    Answer. I consider pay, benefits and retirement on of the top 
issues for servicemembers and their families. This has been an intense 
area of examination and discussion within the recent Military 
Compensation and Retirement Modernization Commission (MCRMC) efforts 
and among the Services. A family's finances have a direct impact on the 
stress level and readiness of the servicemember and their families. 
Changes are coming with the introduction of the new blended retirement 
package. We need a plan to communicate the value of this new retirement 
system and educate our members on the financial decisions they must 
make as the changes are implemented.
    Question. How would you address these family readiness needs in 
light of global rebasing, deployments, and future reductions in end 
strength?
    Answer. I understand that the Services have already made plans to 
adjust for force size and rotation, and family readiness is a 
responsibility of each Service; however, we can encourage more 
collaboration with community-based organizations to maximize non-DOD 
resources. Family support programs that are flexible, responsive, and 
communicate / coordinate with interagency and non-governmental family 
services will be critical in meeting the needs of our servicemembers 
and their families. The Department can find efficiencies within its own 
programs through better evaluation practices, and we can also enhance 
the accessibility to DOD and Non-DOD support programs.
    Question. If confirmed, how would you ensure support is provided to 
reserve component families related to mobilization, deployment and 
family readiness, as well as to active duty families who do not reside 
near a military installation?
    Answer. Over the past fourteen years of war, one of the best 
support programs developed for the reserve component (RC) families has 
been the Yellow Ribbon Reintegration Program (YRRP). The YRRP continues 
to evolve and change with the deployment operational tempo and fiscal 
constraints, but if confirmed I am committed to ensuring that its 
essential services receives proper funding to meet the unique needs of 
our RC community.
                      operational energy budgeting
    Question. In what specific areas, if any, do you believe the 
Department needs to improve the incorporation of energy considerations 
into the strategic planning and force development processes?
    Answer. Our ability to project and sustain power depends on the 
assured delivery of energy. Through the Joint Staff's and Combatant 
Commands' operational experience, campaign analyses, and wargames, we 
have demonstrated the tradeoffs and risks that accompany our need for 
large amounts of energy. To increase warfighting effectiveness, we will 
continue to analyze and improve the broad energy enterprise through 
overarching policy and strategy, global posture, acquisition 
management, and force development.
    Question. In what specific areas, if any, do you believe the 
Department should increase funding for operational energy requirements, 
energy efficiency, alternative energy, and renewable energy 
opportunities?
    Answer. We must continue to take a balanced approach to improve our 
warfighting capabilities from an operational energy perspective while 
reducing risk and cost. Energy enables operational capability with 
improved range, endurance, and force reliability, therefore we should 
make additional investments to improve the energy performance of our 
weapon systems, equipment, and their modifications; our enduring and 
non-enduring installations; by reducing energy supply-chain 
vulnerabilities; and by increasing energy security through 
diversification.
            united nations convention on the law of the sea
    Question. Officials of the Department of Defense, including 
previous Chairmen of the Joint Chiefs of Staff, have advocated for 
accession to the Law of the Sea Convention.
    Do you support United States accession to the United Nations 
Convention on the Law of the Sea?
    Answer. Yes. The United States is a maritime Nation and joining the 
Convention will enhance our capability and credibility in ensuring 
freedom of the seas for both military and economic activities on, under 
and above the world's oceans. The Convention's various navigational and 
overflight provisions provide global mobility for our Armed Forces.
    Question. How would you respond to critics of the Convention who 
assert that accession is not in the national security interests of the 
United States?
    Answer. Our non-party status diminishes our influence in defending 
the Convention's existing norms that enable the access, mobility, and 
sustainment of our military forces and commercial fleet. I also 
detracts from our ability to lead developments in the maritime domain, 
and enables emerging powers to advance their contrary interpretations 
of the Convention. As the global security environment changes, it will 
become increasingly important for the United States, as the world's 
foremost maritime power, to use all elements of national power and lead 
from inside the framework of the Convention rather than observe from 
the outside.
    Question. In your view, what impact, if any, would U.S. accession 
to the Law of the Sea Convention have on ongoing and emerging maritime 
disputes such as in the South China Sea and in the Arctic?
    Answer. Accession would improve our ability to shape the outcome of 
ongoing and emerging maritime disputes. Our position to influence these 
key interests is diminished when we seek to enforce the Convention's 
navigation and over flight rights guaranteed to all nations when we are 
one of a very small group of nations that is not a party. In the 
Arctic, we are the only Arctic nation that is not a party to the 
Convention. As a non-party to the Convention, the United States cannot 
utilize the Convention's mechanisms to gain international recognition 
of its ECS.
                       detainee treatment policy
    Question. Recent Department of Defense operations in Iraq and Syria 
highlight the need for a continued detention capability for both 
interrogation and law of war detention.
    What recommendations do you have for ensuring that the Department 
of Defense maintains sufficient detention capabilities for capture 
operations against ISIL and other affiliated terrorist groups to remain 
a viable option?
    Answer. I believe that the Department will continue to require a 
detention capability. If confirmed, I will advocate to civilian and 
military leadership to provide commanders on the ground the ability to 
lawfully detain as part of future capture operations.
    Question. Do you support the policy set forth in the July 7, 2006, 
memorandum issued by the Deputy Secretary of Defense stating that all 
relevant DOD directives, regulations, policies, practices, and 
procedures must fully comply with Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated August 19, 2014?
    Answer. Yes.
    Question. If confirmed, will you ensure that all DOD policies 
promulgated and plans implemented related to intelligence 
interrogations, detainee debriefings, and tactical questioning comply 
with the Common Article 3 of the Geneva Conventions and the Army Field 
Manual on Interrogations?
    Answer. Yes.
    Question. Do you share the view that standards for detainee 
treatment must be based on the principle of reciprocity, that is, that 
we must always keep in mind the risk that the manner in which we treat 
our own detainees may have a direct impact on the manner in which U.S. 
Soldiers, Sailors, Airmen or Marines are treated, should they be 
captured in future conflicts?
    Answer. Yes.
                          offset technologies
    Question. During the Cold War, the DOD pursued three key 
technologies to offset the numerical superiority of Soviet conventional 
forces: precision guided munitions, stealth technology, and satellite-
based navigation. These three technologies have given U.S. forces 
unparalleled superiority until now. However, with advancements by our 
emerging adversaries, it seems like the military technological 
superiority is beginning to erode. As a result, it is critical that the 
United States once again focus on offsetting the technology advantages 
being gained by our adversaries. Which technology priorities do you 
believe the Department of Defense should be pursuing to maintain the 
military technological superiority of the United States?
    Answer. As anti-access and area-denial weapons and other advanced 
technologies proliferate, the Department will likely turn to 
breakthrough technologies in the fields of robotics, autonomous 
systems, miniaturization, big data, and additive manufacturing to 
restore our military advantage.
    Question. What strategies would you recommend that Secretary Carter 
implement to develop these technology priorities?
    Answer. The purpose of the Defense Innovation Initiative strategy 
laid out by Secretary Carter is to develop our future technology 
priorities. Complimenting this effort by the warfighters is the 
development of new innovative operational concepts. If confirmed, I 
will make sure that the investments in operation concepts and human 
capital--as our greatest asset will always be our servicemembers--
proceed apace with our efforts to pursue innovative solutions through 
technological means.
    Question. What role do the services have to play in their 
development?
    Answer. By identifying, experimenting, and wargaming combinations 
of new and existing technologies necessary to project power globally, 
the Services in partnership with the Defense Innovation Initiative team 
will help steer the development of future technology priorities.
                         science and technology
    Question. One of the main objectives of the defense research 
enterprise is to develop advanced technologies that will be of benefit 
to the warfighter. In this regard, it is critical that advancements 
quickly transition from the development phase into testing and 
evaluation and ultimately into a procurement program for the 
warfighter. What are some of the challenges you see in transitioning 
technologies effectively from research programs into programs of 
records?
    Answer. Moving an advanced technology from a research program into 
a program of record requires carving out room in the budget based upon 
a compelling need. Once in the budget, maintaining momentum with a 
particular technology is challenging as it must continue to compete 
against other ``good ideas'' year after year in our resourcing process. 
The final challenge, ensuring an advanced technology meets its promise 
in a timely and cost-effective manner as we transition the technology 
into a warfighting capability.
    Question. As the Vice Chairman of the Joint Chiefs of Staff, what 
steps will you take to ensure that the services are benefitting more 
quickly and directly from the research being performed by the defense 
research enterprise?
    Answer. In my roles as a Defense Innovation Initiative ``core 
group'' member and Chairman of the JROC, I will ensure that the 
resourcing and acquisition processes are well-informed on the priority 
and timing of capability needs. In collaboration with the Chairman, I 
will also continue to use the Chairman's Gap Assessment and the 
Chairman's Program Recommendation to communicate directly to Secretary 
Carter my thoughts on promising research performed by the research 
enterprise.
    Question. Do you feel that defense technologies and systems, 
especially in areas such as mobile communications, computing, and 
robotics, are keeping pace with global and commercial technological 
advances? If not, what do you suggest that the Department do to keep up 
with the pace of global technological change?
    Answer. Keeping pace with global and commercial technology is 
challenging the Department. If confirmed, I will support the 
Secretary's Defense Innovation Initiative to focus the Department on 
maintaining our military's technological edge in an increasingly 
competitive technology environment.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this Committee and other appropriate committees of the Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the Administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
Committee, or designated members of this Committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Chairman of the Joint Chiefs 
of Staff?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this Committee and 
its staff and other appropriate Committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Tom Cotton
               dismantlement of retired nuclear warheads
    1. Senator Cotton. General Selva, in your responses to the advance 
questions to the committee regarding your priorities for the Nuclear 
Weapons Council (NWC), you indicated that accelerated dismantlement of 
retired warheads was among those top priorities. If our modernization 
commitments were falling behind, would you agree that fully funding 
those commitments is a higher priority than accelerating dismantlement 
of current warheads?
    General Selva. Yes.
    2. Senator Cotton. General Selva, in his testimony before this 
committee, General Dunford, the nominee to be the Chairman of the Joint 
Chiefs of Staff, called Russia an existential threat. Do you agree with 
General Dunford's assessment, and if you do, do you still think that 
accelerating dismantlement should be a priority?
    General Selva. Russia's nuclear capability does pose an existential 
threat to the United States. Accelerating dismantlement is a priority, 
as long as it does not constrain the resources and infrastructure 
required to meet U.S. nuclear weapons employment planning, achieve 
deployed stockpile requirements, and address stockpile aging and life 
extension program needs.
         distributed common ground/surface system-army (dcgs-a)
    3. Senator Cotton. General Selva, in your role as the Chairman of 
the Joint Requirements Oversight Council (JROC), you have stated to the 
committee that the JROC ``trip-wire'' process has altered performance 
or procurement quantities after programmatic reviews. One particular 
program, the Distributed Common Ground/Surface System-Army (DCGS-A) has 
been going down the wrong road for too long. Are you aware that DCGS-A 
has serious capability gaps, and that the Army's leadership has 
consistently downplayed warfighter concerns?
    General Selva. The Joint Staff carefully monitors all major weapon 
systems development to ensure not only the Services', but Joint Forces' 
requirements are thoroughly considered in future system development.
    4. Senator Cotton. General Selva, what will you do, as JROC 
chairman, to ensure that DCGS-A meets real world requirements as 
testified by the warfighter?
    General Selva. The Joint Staff expends considerable effort to 
ensure Service provided capabilities meet warfighter requirements. On 7 
July 2015, the JROC validated the conversion of the DCGS-A Capability 
Development Document (CDD) to an Information System (IS) CDD. The 
approved CDD includes an Ease of Use/Usability Key System Attribute 
(KSA). The Ease of Use/Usability KSA provides a way to ensure 
warfighter requirements are met.
    5. Senator Cotton. General Selva, would you be willing to update 
the guidance from the Joint Capabilities Integration and Development 
System and direct the program to reassess requirements based on 
warfighter input?
    General Selva. The JCIDS guidance documents are updated regularly 
to support deliberate, emergent and urgent requirements. The last 
formal review and update to the JCIDS guidance documents, to include 
the JCIDS Manual, was completed in February 2015. Corrections and 
amplifying details to these guidance documents are maintained in an 
online resource and will be incorporated in a future formal review and 
update.
    6. Senator Cotton. General Selva, Army Secretary John McHugh has 
readily admitted that on major acquisitions the Army scorecard is 0-26. 
What will you do to ensure that the entrenched bureaucracy that has 
produced this record will adopt reform and adopt commercial off-the-
shelf systems such as Palantir?
    General Selva. On 7 July 2015, the JROC validated the Information 
System (IS) Capability Development Document (CDD) for DCGS-A and 
endorsed the Army acquisition strategy featuring open competition for 
future capabilities. DCGS-A already leverages numerous commercially 
available products from over 40 vendors and has committed to continue 
to incorporate commercial products that are available and meet 
requirements.
    The Army and Palantir entered into a Cooperative Research and 
Development Agreement (CRADA) in May 2012 with the objective of 
collaboratively developing and demonstrating new technologies.
    7. Senator Cotton. General Selva, critics within the Army 
bureaucracy describe Palantir as a ``front-end'' or user interface 
analytical solution, but I know that to be untrue. Are you aware that 
Palantir is in fact a complete solution for data integration?
    General Selva. Palantir is a commercial off the shelf data analysis 
tool with software specialized for visualization of different types of 
data in support of situational awareness, network link analysis, and 
targeting analysis support. It provides some of the capabilities 
resident in three of the nine components of DCGS-A, but I do not 
believe it can replace DCGS-A.
    8. Senator Cotton. General Selva, are you aware that the Army has 
used time and resources to fight against Palantir while persisting with 
DCGS-A with its record of failure and wasted taxpayer dollars?
    General Selva. The Army has adopted an open source acquisition 
model and invited commercial vendors with capabilities that resolve 
known gaps to participate. The Army and Palantir entered into a 
Cooperative Research and Development Agreement (CRADA) in May 2012 with 
the objective of collaboratively developing and demonstrating new 
technologies that are relevant to the warfighter and U.S. Army Programs 
of Record (PORs) with the intent to enhance operational capabilities.
    9. Senator Cotton. General Selva, more than 30 Army units, most of 
them Brigade and above representing half of the total Army, have 
requested the comparable system Palantir since 2009. Commanders and 
warfighters are sending a clear message that has not been heard by the 
Army leadership. An April 2012 Army Test and Evaluation Command Report 
cited that 96 percent of surveyed warfighters stated, ``Palantir is 
effective in supporting my mission.'' Shouldn't we procure programs 
like Palantir's that exceed the performance and expectations of an 
internal build like DCGS-A?
    General Selva. From 2011 thru April 2015, 19 deploying Army units 
have submitted 28 requests for commercial, advanced analytic 
capabilities to augment DCGS-A. All but three of those 19 have been 
provided Palantir capability. Three units were not approved due to a 
change in mission, receipt of an updated version of DCGS-A, or 
insufficient time remaining in their deployment to procure Palantir 
software/hardware and train the unit.
    10. Senator Cotton. General Selva, at the end of the day, the true 
test for any capability is user adoption, so why would you expect the 
Army to force an inferior, failing, over-priced program on the 
warfighter, especially when it has consistently been the solution of 
choice for the Federal Bureau of Investigation (FBI), Department of 
Homeland Security (DHS), Securities and Exchange Commission (SEC), 
Internal Revenue Service (IRS), Defense Intelligence Agency (DIA), and 
the financial sector?
    General Selva. The Army is not forcing a particular system, 
application, or capability on its units. In fact, senior Army 
leadership provided written guidance stating, ``units in combat 
currently depend on a diverse range of systems . . . these include the 
Army's current enterprise intelligence system, DCGS-A, and Palantir . . 
. '' The Army has reviewed and assessed every operational requirement 
for Palantir and provided requesting units with Palantir if validated 
by Army G3/5/7. DCGS-A provides an extremely large and diverse set of 
Intelligence tools across a broad range of intelligence disciplines, 
and relies heavily on soldier feedback to ensure warfighter 
requirements are met.
                                 ______
                                 
    [The nomination reference of General Paul J. Selva, USAF, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 21, 2015.
    Ordered, That the following nomination be referred to the 
Committee on Armed Services:
    The following named officer for appointment as the Vice 
Chairman of the Joint Chiefs of Staff and appointment in the 
United States Air Force to the grade indicated while assigned 
to a position of importance and responsibility under title 10, 
U.S.C., sections 601 and 154:
                        To Be General                              
    General Paul J. Selva, 0000
                                ------                                

    [The biographical sketch of General Paul J. Selva, USAF, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
               Biographical Sketch of Paul J. Selva, USAF
    General Paul J. Selva is commander, U.S. Transportation Command, 
Scott Air Force Base, Illinois. USTRANSCOM is the single manager for 
global air, land and sea transportation for the Department of Defense.
    General Selva graduated from the U.S. Air Force Academy in 1980, 
and completed undergraduate pilot training at Reese AFB, Texas. He has 
held numerous staff positions and has commanded at the squadron, group, 
wing and headquarters levels. Prior to his current assignment General 
Selva was the Commander, Air Mobility Command, Scott AFB, Illinois.
    General Selva is a command pilot with more than 3,100 hours in the 
C-5, C-17A, C-141B, KC-IO, KC-135A and T-37.
Education:
    <bullet>  1980 Bachelor of Science in Aeronautical Engineering, 
U.S. Air Force Academy, Colorado Springs, CO.
    <bullet>  1983 Squadron Officer School, Maxwell AFB, AL.
    <bullet>  1984 Master of Science in Management and Human Relations, 
Abilene Christian University, Abilene, Texas 1992 Air Command and Staff 
College, Maxwell AFB, AL., distinguished graduate.
    <bullet>  1992 Master of Science in Political Science, Auburn 
University, Montgomery, AL.
    <bullet>  1996 National Defense Fellow, Secretary of Defense 
Strategic Studies Group, Rosslyn, VA.
Assignments:
    1. June 1980-July 1981, student, undergraduate pilot training, 
Reese AFB, Texas.
    2. July 1981-December 1984, co-pilot and aircraft commander, 917th 
Air Refueling Squadron, Dyess AFB, Texas.
    3. January 1984-December 1988, co-pilot, aircraft commander, 
instructor pilot, and flight commander, 32nd Air Refueling Squadron, 
Barksdale AFB, LA.
    4. January 1989-July 1991, company grade adviser to Commander, 
Strategic Air Command, later, manager of offensive aircraft systems and 
executive officer, Deputy Chief of Staff, Plans and Resources, 
Headquarters Strategic Air Command, Offutt AFB, NE.
    5. August 1991-July 1992, student, Air Command and Staff College, 
Maxwell AFB, AL.
    6. July 1992-June 1994, instructor pilot and flight commander, 9th 
Air Refueling Squadron, later, Commander, 722nd Operations Support 
Squadron, March AFB, CA.
    7. June 1994-June 1995, Commander, 9th Air Refueling Squadron, 
later, Deputy Commander, 60th Operations Group, Travis AFB, CA.
    8. July 1995-June 1996, National Defense Fellow, Secretary of 
Defense Strategic Studies Group, Rosslyn, VA.
    9. July 1996-August 1998, assistant to the Director, Office of the 
Secretary of Defense for Net Assessment, the Pentagon, Washington, DC.
    10. August 1998-July 2000, Commander, 60th Operations Group, Travis 
AFB, CA.
    11. July 2000-June 2002, Commander, 62nd Airlift Wing, McChord AFB, 
WA.
    12. June 2002-June 2003, Vice Commander, Tanker Airlift Control 
Center, Scott AFB, IL.
    13. June 2003-November 2004, Commander, Tanker Airlift Control 
Center, Scott AFB, IL.
    14. December 2004-August 2006, Director of Operations, U.S. 
Transportation Command, Scott AFB, IL.
    15. August 2006-June 2007, Director, Air Force Strategic Planning, 
Deputy Chief of Staff for Strategic Plans and Programs, Headquarters 
U.S. Air Force, Washington, DC.
    16. June 2007-October 2008, Director, Air Force Strategic Planning, 
Deputy Chief of Staff for Strategic Plans and Programs, Headquarters 
U.S. Air Force, and Director, Air Force QDR, Office of the Vice Chief 
of Staff, Washington, DC.
    17. October 2008-October 2011, Assistant to the Chairman of the 
Joint Chiefs of Staff, Washington, DC.
    18. October 2011-November 2012, Vice Commander, Pacific Air Forces, 
Joint-Base Pearl Harbor-Hickam, Hawaii.
    19. November 2012-May 2014, Commander, Air Mobility Command, Scott 
AFB, IL.
    20. May 2014-Present, Commander, U.S. Transportation Command, Scott 
AFB, IL.
Summary of Joint Assignments
    1. September 1996-August 1998, Assistant to the Director, Office of 
the Secretary of Defense for Net Assessment, the Pentagon, Washington, 
D.C., as a lieutenant colonel.
    2. November 2004-July 2006, Director of Operations and Logistics, 
U.S. Transportation Command, Scott AFB, Ill., as a brigadier general.
    3. October 2008-October 2011, Assistant to the Chairman of the 
Joint Chiefs of Staff, Washington, D.C., as a lieutenant general.
    4. May 2014-Present, Commander U.S. Transportation Command, Scott 
AFB, Ill.
Flight Information
    Rating: Command pilot
    Hours flown: More than 3,100
    Aircraft flown: C-5, C-17A, C-141B, KC-IO, KC-135A and T-37.
Major Awards and Decorations
    Defense Distinguished Service Medal.
    Distinguished Service Medal.
    Defense Superior Service Medal.
    Legion of Merit with two oak leaf clusters.
    Defense Meritorious Service Medal.
    Meritorious Service Medal with three oak leaf clusters.
    Air Force Commendation Medal.
    Air Force Achievement Medal.
    Joint Meritorious Unit Award.
    Combat Readiness Medal with oak leaf clusters.
    National Defense Service Medal with bronze star.
    Armed Forces Expeditionary Medal with two bronze stars.
    Southwest Asia Service Medal with bronze star.
    Global War on Terrorism Service Medal Armed Forces Service Medal.
Effective Dates of Promotion
    Second Lieutenant, May 28, 1980.
    First Lieutenant, May 28, 1982.
    Captain, May 28, 1984.

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by General Paul 
J. Selva, USAF, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    part a--biographical information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Paul J. Selva.

    2. Position to which nominated:
    Vice Chairman of the Joint Chiefs of Staff.

    3. Date of nomination:
    21 May 2015.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    27 September 1958, Biloxi, MS.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Ricki S. Selva (maiden name: Smith).

    7. Names and ages of children:
    None.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.
    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    Air Force Association--Member.
    Airlift Tanker Association--Member.
    National Defense Transportation Association--Member.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testfy upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the Administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                          General Paul J. Selva, USAF  
    This 5th day of May, 2015
                                 ______
                                 
    [The nomination of General Paul J. Selva, USAF was reported 
to the Senate by Chairman McCain on July 23, 2015, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 27, 2015.]
                                ------                                

    [Prepared questions submitted to General Darren W. McDew, 
USAF by Chairman McCain prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. At this point, I don't see the need for any significant 
changes. Over the last three decades Goldwater-Nichols has led to an 
unprecedented level of integration and cooperation among the Services. 
This has not only yielded a far more effective fighting force, it has 
positioned us well to maintain that effectiveness as we face an 
increasingly constrained fiscal environment and diverse array of 
threats. However, to build on this success and guarantee a cadre of 
joint officers in the future I do believe we need to continually review 
joint officer requirements to ensure we are building the most qualified 
joint forces for the future.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. JPME is essential to building a cadre of joint 
professionals prepared to meet the challenges of the future strategic 
environment. Expanding access to JPME to the Total Force community 
through advanced learning technologies is one area for consideration. 
If confirmed, I will work with Congress, the Secretary of Defense and 
other senior leaders of our military to ensure Goldwater-Nichols 
continues to meet the needs of our armed forces, and will support any 
changes to the legislation that might become necessary.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U. S. Transportation Command?
    Answer. The Commander, United States Transportation Command 
(USTRANSCOM), is responsible for providing air, land and sea 
transportation for the DOD, in peace, crisis and war. USTRANSCOM 
depends on three Component Commands to accomplish this mission: Air 
Mobility Command (AMC), Military Sealift Command (MSC), and the 
Military Surface Deployment and Distribution Command (SDDC). The 
Commander is assigned multiple responsibilities in the Unified Command 
Plan (UCP) to include: the Distribution Process Owner (DPO) mission to 
improve the worldwide DOD distribution system; DOD single manager for 
global patient movement; Global Distribution Synchronizer (GDS) mission 
to synchronize planning for worldwide distribution operations; and 
facilitating the rapid establishment of joint force headquarters for 
combatant commanders through its Subordinate Command, the Joint 
Enabling Capabilities Command. The USTRANSCOM team employs a mix of 
active and Reserve military members, government civilians and 
commercial industry partners to execute the Command's missions in 
support of the full range of military operations.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Throughout my 33 years in uniform, I have had held numerous 
positions in and out of the Department of Defense that have prepared 
me, if confirmed, to perform the duties as the Commander of USTRANSCOM. 
I was fortunate enough to be selected to spend a year as a Secretary of 
Defense Corporate Fellow at Sun Microsystems. During that year in the 
Silicon Valley, I was exposed to companies with reputations for 
insightful long-range planning, organizational and management 
innovation, and implementation of new information and other 
technologies.
    As the Director of Public Affairs, Office of the Secretary of the 
Air Force, I was responsible for providing trusted counsel to the 
Secretary of the Air Force, the Chief of Staff, and all other principal 
military and civilian leaders of the Department of the Air Force 
concerning Public Affairs activities to assist in building public 
support and achieving the Air Force core competencies. I became adept 
at working with the civilian press, DOD and Congressional inquiries.
    While still at the Pentagon, I was chosen as the Vice Director for 
Strategic Plans and Policy on the Joint Staff. In this role, I helped 
provide strategic direction, policy guidance, and planning focus to 
develop and execute the National Military Strategy. Through the 
Director, I enabled the Chairman of the Joint Chiefs of Staff to 
provide military advice to the President, the Secretary of Defense and 
the National Security Council.
    Finally, I served as Commander of the 18th Air Force which I was 
responsible for providing worldwide rapid, global mobility and 
sustainment for America's Armed Forces through airlift, aerial 
refueling, aeromedical evacuation, and contingency response. This 
position directly led to my selection as Commander, AMC. I command over 
118,000 Airmen from across our Air Force, Active, Reserve, and Air 
National Guard who provide worldwide cargo and passenger delivery, 
aerial refueling, special air mission and aeromedical evacuation. This 
includes the crucial role of humanitarian assistance and disaster 
relief to victims of natural disasters both at home and around the 
world.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
U. S. Transportation Command?
    Answer. As the current AMC Commander I am aware of the breadth of 
USTRANSCOM's worldwide responsibilities. If confirmed, I will engage 
with all of USTRANSCOM's component commands, DOD agencies, and our 
commercial partners to guarantee I fully understand the range of 
challenges they face in order to accomplish USTRANSCOM's crucial 
mission.
                             relationships
    Question. Section 162(b) of title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the combatant commands. 
Other sections of law and traditional practice, however, establish 
important relationships outside the chain of command. Please describe 
your understanding of the relationship of the Commander, U. S. 
Transportation Command to the following offices:
    The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense has full power and 
authority to act for the Secretary of Defense when serving as his 
designated representative in the Secretary's absence. As such, the 
USTRANSCOM Commander will report to and through the Deputy Secretary 
when serving in that capacity. The Deputy Secretary also is the Chief 
Management Officer of the Department, responsible for optimizing the 
business environment across the Defense enterprise. USTRANSCOM strongly 
supports these optimization efforts as we strive to improve our support 
to the other Combatant Commands and Defense agencies in a cost-
effective and operationally efficient manner.
    Question. The Under Secretaries of Defense.
    Answer. Under Secretaries of Defense coordinate and exchange 
information with DOD components, including Combatant Commands, which 
have collateral or related functions. In practice, this coordination 
and exchange is normally routed through the Chairman of the Joint 
Chiefs of Staff. In addition, as the Distribution Process Owner, the 
USTRANSCOM commander receives oversight from the Under Secretary of 
Defense for Acquisition, Technology, and Logistics in his role as the 
Defense Logistics Executive via the Defense Logistics Board. This 
relationship works very well. If confirmed as a combatant commander, I 
look forward to the continuing collaboration.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. As specified in title 10, the Chairman is the principal 
military advisor to the President, the National Security Council, the 
Homeland Security Council and Secretary of Defense. The Chairman serves 
as an advisor, and is not, by law, in the chain of command, which runs 
from the President through the Secretary to each Combatant Commander. 
The President normally directs communications between himself and the 
Secretary of Defense to the combatant commanders via the Chairman of 
the Joint Chief of Staff. This keeps the Chairman fully involved and 
allows the Chairman to execute his other legal responsibilities. A key 
responsibility of the Chairman is to speak for the combatant 
commanders, especially on operational requirements. If confirmed, I 
will keep the Chairman and the Secretary of Defense fully informed 
regarding USTRANSCOM matters.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. Although the Vice Chairman does not fall within the 
Combatant Command chain of command, he is delegated full power and 
authority to act for the Chairman in the Chairman's absence. If 
confirmed as a Combatant Commander, when he is representing the 
Chairman, I will keep the Vice Chairman informed as I would the 
Chairman.
    Question. The Director of the Joint Staff.
    Answer. The Director of the Joint Staff assists the Chairman in 
managing the Joint Staff. The Director of the Joint Staff does not fall 
within the Combatant Commander's chain of command. However, he enables 
important decisions to be made as the Combatant Commander's staff 
interacts with the Joint Staff. The Director is also a key interface 
with Office of the Secretary of Defense Principals and interagency 
leadership, and can assist combatant commanders working issues below 
the Chairman's level.
    Question. The Secretaries of the Military Departments.
    Answer. Each Service Secretary is responsible for equipping, 
training, maintaining and administering forces belonging to that 
Service. Close coordination with each Service Secretary providing 
forces to USTRANSCOM is essential to ensure that there is no 
infringement upon the lawful responsibilities held by a Service 
Secretary.
    Question. The Chiefs of Staff of the Services.
    Answer. The Chiefs of Staff of the Services organize, train, and 
equip their respective forces. No Combatant Commander can ensure 
preparedness of assigned forces without the full cooperation and 
support of the Service Chiefs and their respective Reserve Components. 
As members of the Joint Chiefs of Staff, the Service Chiefs have a 
lawful obligation to provide military advice. The experience and 
judgment the Service Chiefs provide is an invaluable resource for every 
Combatant Commander. If confirmed, as Commander USTRANSCOM, I will 
continue my predecessors' frank and productive dialogue with the 
Service Chiefs and the Commandant of the U.S. Coast Guard.
    Question. The other combatant commanders.
    Answer. USTRANSCOM's primary mission is to support each of the 
combatant commanders in accomplishing the responsibilities they are 
assigned in the Unified Command Plan. Given the complexity of today's 
security environment, it is essential that all the combatant commanders 
work together to execute U.S. national security policy. If confirmed, I 
will continue to build upon the trust and mutual support my 
predecessors have fostered with the other Combatant commanders.
                    major challenges and priorities.
    Question. In your view, what are the major challenges confronting 
the next Commander, U.S. Transportation Command?
    Answer. Currently, the Command's number one priority is 
``Readiness'' for the enterprise. USTRANSCOM has the capability to meet 
existing surge requirements; however, major future challenges may erode 
our key, asymmetric military transportation and logistics advantages. 
These challenges include: maintaining assured Command and Control (C2) 
in a contested cyber domain; impending mobility capability degradation 
due to reduced budgets, a shrinking force structure, diminished cargo 
volumes, and increasingly dynamic commercial market trends; and, also, 
growing peer and near-peer adversary's anti-access and area denial 
capabilities.
    Additionally, USTRANSCOM focuses on providing both effective and 
efficient transportation solutions for all its customers. Future budget 
challenges may reduce Enterprise readiness and flexibility, 
subsequently degrading the Defense Transportation System to be less 
responsive and less resilient. While these challenges are formidable, 
given the talents of the USTRANSCOM team, they are not insurmountable.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I will work with my fellow combatant 
commanders to assess risk from these challenges and collaboratively 
develop mitigation strategies to ensure USTRANSCOM will meet its steady 
state and surge requirements. I will advance USTRANSCOM's cyber 
defenses to protect DOD networks and systems, partnering with other 
U.S. government departments, agencies, and the private sector to 
improve our cyber security. To overcome readiness challenges, we will 
work within the constraints of Public Law and National policy to 
leverage operations and implement transportation solutions that 
preserve readiness for both our organic forces and the critical surge 
capacity provided by commercial transportation providers.
    In order to ensure our global distribution network, I will work 
with USTRANSCOM's commercial partners and the interagency to continue 
USTRANSCOM's global efforts to secure diplomatic and physical accesses 
to ground and airspace infrastructure for logistics. I will work to 
improve USTRANSCOM's global ability to deliver to the point of need in 
the most effective and cost-effective ways possible--projecting 
American influence and power when and where our national interests 
dictate. This includes collaboratively developing, in concert with our 
fellow Combatant Commands, Services and agencies, innovative concepts 
and capabilities to overcome the anti-access/area denial efforts of our 
peer and near-peer adversaries.
    Question. If confirmed, what broad priorities would you establish?
    Answer. If confirmed, I will immediately become familiar with the 
all aspects of the defense transportation enterprise with a focus on 
preserving readiness of the Defense Transportation System to meet 
national objectives and to support the Joint Force into the future. 
Always mindful of our obligation to make the most of our existing 
resources, I intend to seek process improvement and enterprise 
synchronization efforts through relationships within the Department, 
across the U.S. Government, and with commercial and international 
partners.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Commander, U. S. Transportation 
Command?
    Answer. As Commander, I will focus on operating a Combatant Command 
with global responsibilities in a challenging environment of declining 
budgets, smaller forces, reduced resources, and global rebalance of 
force posture. I will ensure synchronization of the entire Joint 
Deployment and Distribution Enterprise--a vast network of organizations 
both in and out of the Department of Defense that relies heavily on 
commercial partnerships with industry. Additionally, I will address the 
challenges with operating aging transportation fleets and port 
infrastructure worldwide.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will continue the focus on preserving 
readiness and aligning resources for mission success and to further 
enhance USTRANSCOM's operational resiliency. USTRANSCOM has made great 
strides in improving economies and efficiencies. I will continue this 
work by managing readiness, cost, and time variables to deliver 
effective and efficient deployment and distribution solutions 
commensurate with assigned authorities and available resources. While 
the near future poses many challenges, we must balance costs and 
benefits, matching our actions to available resources in the near term 
and adapting our efforts for greater economies and efficiencies in the 
long term.
              experience in managing logistics operations
    Question. You have served as the Commander of the Air Mobility 
Command.
    What steps do you believe you need to take to achieve a more 
complete understating of the logistics operations of the other 
component commands of the U. S. Transportation Command?
    Answer. As the current AMC Commander, I am aware of the missions, 
roles and responsibilities of the elements of the USTRANSCOM team. If 
confirmed, I will make it a priority to better understand the 
capabilities and challenges of the component commands. I will engage 
with the component commanders, DOD agencies, and commercial partners to 
address the issues they face, work together to resolve logistics 
challenges, and to better accomplish USTRANSCOM's vital worldwide 
mission.
                        civil reserve air fleet
    Question. The military services rely heavily on the Civil Reserve 
Air Fleet (CRAF) to supplement its organic airlift in order to meet its 
wartime and peacetime transportation requirements.
    What is your assessment of the CRAF's ability to meet requirements 
to transport any equipment, materials, or commodities for the use of 
U.S. military operations and respond to a humanitarian disaster?
    Answer. Our commercial partners are an integral part of providing 
global air mobility assets to support military operations and response 
to humanitarian disasters. The combined capability of military and 
commercial lift gives us the ability to transport any equipment, 
materials, personnel, or commodities the warfighter will need to 
execute their mission to any point on the globe. If confirmed, I will 
continue to work with our CRAF partners to ensure the business 
relationships remain solid and the contracts continue to support DOD 
requirements.
    Question. Do the changes in the commercial airline industry, 
characterized by bankruptcies and a move toward smaller and shorter-
range aircraft, impact the future viability of the CRAF?
    Answer. The commercial airline industry is a dynamic market and 
always has been. We have adapted to carriers' fleet changes and 
benefited by having a commercial augmentation capability ready to 
answer the call when needed. It is an accurate assessment that there 
are fewer carriers now in the CRAF program than there have been in the 
last decade. I have met with several airline executives over the past 
15 months, and they have all said they will continue to support the DOD 
and CRAF program because it is the right thing to do for our Nation. As 
we drew down forces from Afghanistan, carriers made expected 
adjustments to capacity to right size their fleets for the new business 
environment. Through Air Mobility Command`s sponsored research, 
conducted as part of an extensive CRAF Study, we foresaw these changes 
and have adapted the program. Based on these efforts, we are confident 
the CRAF program will remain viable and capable to meet operational 
requirements in the future.
    Question. Do you think it is important to maintain an adequate 
industrial base for CRAF carriers?
    Answer. Yes. CRAF provides a capability no other nation can 
replicate and ensures we can meet national requirements that our 
organic assets alone cannot provide in times of crisis or conflict. It 
is critical we maintain both an organic airlift capability and 
commercial augmentation capability that is ``ready'' to answer the call 
when the next crisis arises. It is important that our CRAF partners 
sustain necessary capacity to provide the support we foresee to support 
the National Defense Strategy.
    Question. How much should we be relying on CRAF to meet our 
peacetime and wartime airlift requirements?
    Answer. The CRAF program is a critical component in this Nation's 
ability to rapidly deploy forces and equipment in times of crisis and 
peace. Because of the CRAF program, we can deploy forces more rapidly 
and more efficiently than any other nation in the world. In peacetime, 
this workload changes from year-to-year due to dynamic customer 
requirements. Our forecast requirements are expected to be much lower 
starting in fiscal year 2016 compared to the past 13 years, which will 
impact both military and commercial capacity. We will continue to 
strive for the balance between military and commercial capacity while 
trying to garner more business into the Defense Transportation System 
through such recent changes as competitive rates for Foreign Military 
Sales and non-DOD U.S. Government organizations.
    Question. What changes, if any, do you think need to be made to 
CRAF--authorities, requirements, composition?
    Answer. AMC, in coordination with USTRANSCOM, chartered a study of 
the CRAF program to look at these specific issues. Throughout the 
study, we engaged industry experts for their advice on where the 
airline industry is headed and what to expect. The study team provided 
recommendations to senior leadership and industry executives, which we 
expect to implement in Fiscal Year 2016. Additionally, USTRANSCOM has 
begun an Integrated Airlift Management (IAM) approach to balance 
commercial and organic workload and associated risks. This approach 
ensures active and reserve component readiness through execution of the 
flying hour program, provides appropriate commercial airlift 
augmentation opportunities to retain necessary commercial airlift 
capacity, reduces the long-term cost of sustaining the organic airlift 
fleet by placing the minimum time on airframes necessary and supports 
``global agility'' by creating a buffer capacity for adaptable military 
response to priority, short-notice missions. I am confident that these 
changes will help to maintain the program's viability despite the 
decrease in available business.
    Question. According to the Comptroller General, ``DOD does not use 
its process for monitoring flying hours to determine when it will 
exceed required training hours and allocate eligible airlift missions 
to CRAF participants. Therefore, it cannot determine whether it is 
using CRAF to the maximum extent practicable. As a result, DOD may be 
using its military fleet more than necessary--which officials say is 
less economical--while risking reduced CRAF participation.'' \1\
---------------------------------------------------------------------------
    \1\ GAO Report 13-564, ``DOD Needs to Take Steps to Manage Workload 
Distributed to the Civil Reserve Air Fleet,'' Page 9, Government 
Accountability Office, June 2013, http://www.gao.gov/assets/660/
655338.pdf.
---------------------------------------------------------------------------
    Do you agree with GAO's conclusion with regard to flying hours for 
CRAF?
    Answer. There is a balance between ensuring sufficient training for 
crews, much of which comes from operational missions, meeting the needs 
of the combatant commander and balancing the use of organic versus 
CRAF-provided airlift.
    I agree with the need to maintain readiness of all assets required 
to support national security, including all military and commercial 
airlift capabilities.
    Question. If so, what steps would you take to better manage these 
training hours?
    Answer. AMC recently created a process that surveys the number of 
crew members per flying unit and applies seasoning model criteria that 
ensure aging rates and specific flying currency requirements are met. 
The output of that model is then put into our commanders' apportionment 
and allocation process which balances readiness against actual 
combatant commander and mission requirements directing the excess to 
our commercial partners. This Total Force effort has proven successful 
in responding to the readiness needs of all assets used to support the 
defense transportation system.
    In addition, TRANSCOM has created a readiness and distribution 
allocation process that looks across all transportation modes to 
balance readiness needs. One outcome of this process has been an effort 
to begin buying commercial airlift using forecasts.
    Question. Also, according to GAO, the number of carriers and 
aircraft for cargo in CRAF appear to be dropping from 175 in 2011 to 
162 aircraft in 2013--this is in Table 1 on page 16. \2\ More recent 
documents show this may be as low as 144 as of late last year.
---------------------------------------------------------------------------
    \2\ GAO Report 13-564, ``DOD Needs to Take Steps to Manage Workload 
Distributed to the Civil Reserve Air Fleet,'' Page 16, Government 
Accountability Office, June 2013, http://www.gao.gov/assets/660/
655338.pdf.
---------------------------------------------------------------------------
    Why is the number of aircraft participating in CRAF dropping? At 
what level does CRAF become at risk for being too small to meet the 
military's airlift needs.
    Answer. We do not measure the capability of the CRAF fleet based on 
number of aircraft, but rather the capacity those aircraft provide. 
Under the new Defense Strategy, the Wide Body Equivalent (WBE) 
requirement for cargo aircraft in the long range international segment 
of CRAF is 144 and for passenger aircraft it is 104 WBE. At these 
levels, the CRAF program is not at risk for meeting our military 
airlift needs.
                             cybersecurity
    Question. U.S. Transportation Command (USTRANSCOM) must communicate 
over the unclassified Internet with many private-sector entities that 
are central to DOD's force generation and deployment operations--in the 
transportation and shipping industries in particular. Much of the rest 
of the critical communications and operations of the Defense Department 
can be conducted over the classified DOD internet service, which is not 
connected to the public Internet and is therefore much more protected 
against eavesdropping, espionage, and/or disruption by computer network 
attacks.
    The Senate Armed Services Committee's inquiry into U.S. 
Transportation Command (USTRANSCOM) determined that it was subjected to 
many cyber intrusions that were not reported. USTRANSCOM also suffered 
from a lack of awareness by other law enforcement and national security 
agencies regarding cyber intrusions on USTRANSCOM contractors as well 
as misunderstandings by USTRANSCOM personnel on the rules and processes 
for sharing cyber intrusion-related information with necessary 
officials.
    Have you reviewed this report?
    Answer. Yes, I have reviewed the report and from my experience as 
the AMC Commander I understand the importance of Cyber security related 
to our ability to project forces in support of global requirements.
    Question. Are you concerned about the level of reporting of cyber 
events by command contractors or other U.S. Government agencies to 
USTRANSCOM?
    Answer. I am concerned, and if confirmed, I will continue to build 
upon the plan of action resulting from the Senate Armed Services 
Committee report and the resulting Cyber Mission Analysis Task Force 
held 14-15 April 2015 at Scott Air Force Base. Information sharing 
across the inter-agency process is key for USTRANSCOM to continuously 
assess risk to our operational missions. Communicating our need to be 
informed about cyber intrusions with our commercial contractors is 
essential. We will continue to address our concerns through contract 
language and forums such as the Defense Industrial Base and the 
National Defense Transportation Association's cyber security group.
    Question. Do you feel that the Department of Defense is responding 
appropriately given recent events such as the threat nation intrusions 
into databases on U.S. personnel, including DOD employees?
    Answer. I believe the Department's response has been holistic in 
nature, continuing our focus on strengthening cyber readiness, 
enforcing cyber discipline among our users, and providing emphasis and 
education regarding protection of personal information. The recently 
published DOD cyber strategy provides an appropriately broad approach 
for protecting the Department's information within our systems and 
networks, as well as defending the U.S. homeland and national 
interests, and providing the President with cyber options necessary to 
support potential military operations. As we learn more with concerning 
these intrusions, we must continue to inform our people with regard to 
prudent mitigation actions.
    Question. What actions do you plan to take, if confirmed, as 
Commander, USTRANSCOM, to ensure that DOD reduces the risk of cyber 
intrusions?
    Answer. If confirmed, I will strongly support efforts to implement 
the Department's Cyber Strategy, support movement of our critical 
information towards swift realization of the Joint Information 
Environment, and continue our efforts across the inter-agency process 
to address the need to share information concerning commercial provider 
cyber intrusions, enabling us to address mission assurance on multiple 
fronts from a cyber-perspective.
    Question. Do you believe that the current posture of USTRANSCOM and 
the Department of Defense is sufficient to deter adversaries in cyber 
space?
    Answer. As in any domain, and especially in cyber, we must 
continuously assess our ability to maneuver, as an enabler to 
successful operations. In cyberspace, the cost of entry for an 
adversary is relatively low when compared with the domains of air, 
land, sea, and space. In addition, the ability of an adversary (state 
or non-state), to acquire ever-evolving and sophisticated technical 
capabilities increases almost daily, and our ability to attribute an 
adverse cyber action is very difficult. As a result, the ever-
increasing cyber threat becomes potentially more complex and 
potentially dangerous on a daily basis. Therefore, we must continue to 
press forward with our ability to detect, deter, protect, and when 
necessary, respond with appropriate authority in this domain.
    Question. What do you believe are the critical needs of USTRANSCOM 
for cyber security?
    Answer. USTRANSCOM relies upon the integrity of the information 
exchanged between military and commercial partners in its role as the 
distribution process owner for the Department. Our ability to command 
and control is highly dependent upon getting the right information to 
the right people at the right time, while protecting it from our 
adversaries. If confirmed, I will continue the important efforts to 
protect the command's information equities by working closely with our 
agency and commercial providers to further define roles, 
responsibilities, relationships and authorities for cyber security and 
to build trust and enhance information sharing.
    Question. How important is it that USTRANSCOM be aware of cyber 
intrusions by advanced persistent threat (APT) actors into the networks 
of airlines, shippers, and other defense contractors that enable 
TRANSCOM operations?
    Answer. Compromise of a commercial partners' networks by an APT, is 
a potential cyber security issue that provides insight into USTRANSCOM 
operations. Awareness of these intrusions is paramount so that we can 
mitigate their operational impacts. Commercial partners are integral to 
our mission and ability to provide volume, velocity and efficiency of 
operations. Vulnerabilities within any organization's infrastructure, 
including cyber vulnerabilities, are a risk for all mission partners.
    Question. When USTRANSCOM becomes aware of an APT intrusion into an 
operationally critical contractor, what steps should the command take 
to determine whether operational plans should be adjusted to mitigate 
the risk of the intrusion affecting military operations?
    Answer. As a result of the report and the Cyber Mission Analysis 
Task Force, USTRANSCOM has developed a mission risk assessment process 
that will enable us to consider appropriate operational and technical 
mitigation actions when we are made aware of such intrusions. The level 
of reporting continues to be a concern and is key to our ability to 
assess potential operational impact. USTRANSCOM has overcome some of 
these challenges with its cyber contract language and partnering 
efforts. If confirmed, I will continue to work with all stakeholders, 
government, military, and commercial partners to continuously assess 
our ability to adjust to cyber-attacks, including APT intrusions.
             personally-owned vehicle transportation issues
    Question. Last year, USTRANSCOM awarded a contract to ship 
privately-owned vehicles for servicemembers, the Global Privately Owned 
Vehicle Contract III, to a company without prior experience in this 
area. This award was followed by a protest from the incumbent 
contractor. During the summer peak moving season, the new contractor 
was late in delivering several hundred vehicles late and, in some 
cases, the vehicles of servicemembers were damaged. USTRANSCOM took an 
active role in increasing oversight and creating task forces to address 
the problems related to the change in contractors.
    What lessons has USTRANSCOM learned from this experience to prevent 
the reoccurrence of these problems in the future?
    Answer. USTRANSCOM originally planned for a contract transition 
during the non-peak season. Due to multiple protests the contract 
transitioned with no overlap and at the beginning of the 2014 peak 
season. This experience confirmed that the ideal transition time is in 
the winter months. In the future USTRANSCOM will consider the impact of 
unexpected extensions of the transition timeline when determining the 
contract transition period.
    Question. Under the current contract, Global Privately Owned 
Vehicle Contract III, how is USTRANSCOM able to hold contractors 
accountable for poor performance? What changes, if any, would you 
implement to improve accountability?
    Answer. The contract contains several performance objectives, with 
the primary performance measure being on-time delivery. If the 
contractor does not deliver a vehicle within the required delivery 
date, they will incur a monetary reduction ranging from as low as $30/
day per vehicle up to the entire transportation cost of a vehicle if it 
is delivered 60 or more days late. In addition, the contractor must 
also pay inconvenience claims directly to the customer for rental cars, 
lodging, etc. required as a result of a late delivery. TRANSCOM 
continues to seek ways to improve accountability, such as increasing 
the number of Contracting Officer Representatives (COR)s and 
supplementing COR training.
    Question. Given the fact that servicemembers today are more likely 
to be married with dependents, what else should USTRANSCOM do to reduce 
the impact of a lost vehicles or delayed deliveries on military 
families?
    Answer. USTRANSCOM will continue to partner with the Military 
Surface Deployment and Distribution Command (SDDC), the business 
process owner for the Global Privately Owned Vehicle Contract III. SDDC 
maintains a continuous dialogue with the Service Headquarters in order 
to ensure visibility of their servicemember concerns and remediation of 
those concerns. Since servicemember entitlements for inconvenience have 
not been adjusted for many years, it is time to evaluate and consider 
entitlement changes due to financial impact to the servicemembers.
                    support of troops in afghanistan
    Question. Earlier this year the President stated his intention to 
keep 9,800 U.S. servicemembers in Afghanistan instead of the originally 
planned force level of 5,500.
    What do you see as the major challenges to USTRANSCOM and the 
services for maintaining this higher troop level?
    Answer. The capacity of the Afghanistan distribution network has 
diminished since our peak in 2010-11 when we supported a force of 
approximately 100,000. The current transportation network of air and 
surface lines of communication remains robust and more than capable of 
supporting the 9,800 U.S. Force structure in Afghanistan.
    USTRANSCOM, as the Department of Defense distribution process 
owner, is compelled daily by the nature of our customer base, to view 
requirements through the joint lens. As active members of the Joint 
Team, Service requirements are communicated and met through a healthy 
variety of Joint efforts. Although Service challenges exist, none have 
proven too difficult for the Joint Team, through healthy communications 
and cross-seam coordination, to resolve.
    Question. How will you ensure that our deployed troops in 
Afghanistan receive the support they require as the Department's 
attention turns towards other national security situations elsewhere in 
the world?
    Answer. USTRANSCOM is the world-wide distribution process owner, 
and delivers passengers and cargo daily to U.S. force locations 
regardless of the size of force or the remoteness of their location. 
USTRANSCOM delivers everywhere, to everyone, all the time. With this in 
mind, globally integrated operations between the Department of Defense, 
Department of State and other federal agencies will be required to 
maintain complex political and military relationships. These 
relationships, as well as those of partner nations, support the lines 
of communication which provide USTRANSCOM the flexibility and agility 
to meet ongoing and emergent requirements.
                 peacetime-wartime logistics management
    Question. Our transportation and logistics systems have been 
significantly altered over time to reduce organic military air and 
sealift capacity and rely on commercial aircraft and sealift as well as 
commercial supply chains to deliver spare parts to deployed forces. 
This was done to reduce costs as well as increase buying power and 
flexibility for the military.
    How does TRANSCOM plan for the risk that this change in providing 
equipment and logistics to deployed forces thousands of miles away in 
potential combat zones?
    Answer. Commercial providers help mitigate risk of access to 
challenging theaters such as Afghanistan through their ability to 
leverage intermodal networks--the Northern Distribution Network (NDN), 
which is primarily commercial, is a good example of mitigating risk to 
access Afghanistan by surface means in case the Pakistan ground lines 
of communication (PAK GLOC) is not available.
    When deploying and sustaining forces in a combat zone, where the 
threat level prevents commercial assets from delivering to those 
locations, in general, commercial providers would move requirements to 
enroute locations, and military assets would move those requirements 
into the theater of operations in order to mitigate the risk to 
commercial providers while leveraging their capabilities.
    Question. How does TRANSCOM utilize commercial partners for 
logistics in a wartime environment? How do you plan to balance 
logistics capacity between commercial and military logistics systems?
    Answer. When operating in a non-permissive (wartime) environment, 
USTRANSCOM has an outstanding track record of balancing commercial and 
organic logistics systems. In general, commercial providers move 
requirements to enroute locations outside of the threat environment, 
and military assets move those requirements into the theater. This 
practice has proven to be cost effective while meeting Combatant 
Commander needs and also ensures commercial providers assume minimal 
risk in transporting military cargo and personnel.
    Question. The military relies on an extensive network of logistics 
facilities overseas to support our deployed forces. These overseas 
depots enable our deployed forces to remain on station longer without 
having to be supported directly from CONUS. These depots are in host 
nations, which are U.S. friends and allies.
    What is the resiliency of these overseas depots, particularly in 
places near ongoing political instability?
    Answer. USTRANSCOM does not own or operate overseas depots. 
However, as the Distribution Process Owner and Global Distribution 
Synchronizer, USTRANSCOM does collaborate closely with Geographic 
Combatant Commands, Military Services, Defense Logistics Agency, and 
other strategic partners to develop and maintain an agile, secure and 
resilient distribution network to support and sustain overseas depots. 
We constantly monitor the operational environment and respond to 
challenges, as appropriate, with the use of alternate distribution 
routes and logistics nodes to ensure the continued viability of those 
depots.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this Committee and other appropriate committees of the Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the Administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
Committee, or designated members of this Committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, U. S. 
Transportation Command?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this Committee and 
its staff and other appropriate Committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.

    [Questions for the record with answers supplied follow:]

           Questions Submitted by Senator Kirsten Gillibrand
                                 kc-46a
    1. Senator Gillibrand. General McDew, I recognize that U.S. 
Transportation Command (TRANSCOM) and Air Mobility Command (AMC) will 
be making decisions regarding how to meet refueling needs in light of 
the U.S. Air Force's planned retirement of the KC-10, and potential 
delays in the KC-46A procurement schedule. Do you anticipate 
reassignment and continued use of any KC-135 displaced by KC-46A 
delivery will be necessary to meet refueling demands?
    General McDew. The United States Air Force (USAF) will re-address 
the KC-135 retirement flow in combination with a potential KC-10 
retirement flow in a future Program Objective Memoranda (POM) cycle. 
Although overall air refueling capability includes some risk, I am 
confident that the KC-46 development and delivery schedule along with 
disposition of the KC-135 fleet will continue to meet all USTRANSCOM 
mission requirements.
    2. Senator Gillibrand. General McDew, in assessing current and 
future refueling demands and the possible need for KC-135 capabilities, 
can you please address these three requirements: Regional Air Refueling 
Receiver Demand requirements within CONUS; support of the Air Bridge to 
Europe; and support of the overall ``pivot'' to the Pacific theater and 
Asia?
    General McDew. Our aerial refueling capabilities are not solely 
dedicated to specific regions or missions sets; however, they are 
managed holistically in an effort to respond expeditiously and 
effectively to support all Combatant Command requirements. These 
requirements include CONUS Refueling Receiver Demand and support to 
deployment bridges to both Europe (eastbound) and Asia (westbound). The 
FY 2016 President's Budget includes an end-state fleet of 479 tanker 
aircraft to meet air mobility operational requirements with moderate 
risk. The development and delivery of the KC-46 combined with the 
capabilities of the existing tanker fleet will reduce risk in aerial 
refueling capability and ensure the ability to meet all worldwide 
commitments.
                                 arctic
    3. Senator Gillibrand. General McDew, as you know, the Arctic is 
emerging as a strategic region of the world for vessel commerce as well 
as the production of oil, gas, and minerals. TRANSCOM is tasked with 
the coordination of people and transportation assets to allow the 
United States to project and sustain forces, whenever, wherever, and 
for as long as they are needed. How important is the Arctic to U.S. 
national security interests and what role do you think TRANSCOM will 
play in future Arctic operations?
    General McDew. The United States is an Arctic Nation with 
permanent, vital national security interests in the Arctic Region. 
USTRANSCOM will play an increasingly important role in the Arctic 
Region as commercial sealift vessels, scientific operations, and 
national defense assets transit the Arctic Region. To the extent 
military cargo workload permits, USTRANSCOM supports U.S. security and 
economic interests in the Arctic and other navigable areas around the 
globe to assure freedom of navigation in support of United States 
interests.
    4. Senator Gillibrand. General McDew, do you believe we currently 
have the resources and capabilities needed to ensure the nation's 
military presence in the Arctic?
    General McDew. USTRANSCOM has sufficient resources to support the 
current military presence and similar levels of effort for future 
contingencies in the Arctic. As demands change, we will continue to 
engage with United States Northern Command, European Command and 
Pacific Command to ensure we have adequate resources to meet those 
requirements.
    5. Senator Gillibrand. General McDew, I am concerned that the U.S. 
Coast Guard now only has one operational heavy icebreaker in its fleet. 
Russia currently has six heavy icebreakers and another currently under 
construction. Do you have any concerns about TRANSCOM's ability to 
project and sustain forces in the Arctic based on the current 
composition of the U.S. Coast Guard's icebreakers?
    General McDew. The United States has enduring national, strategic, 
and economic interests in the Arctic. United States Northern Command 
establishes requirements for USTRANSCOM's transportation and 
distribution capabilities in the Arctic. Although current icebreaker 
resources meet projected near-term requirements, USTRANSCOM supports 
DOD and DoT efforts to ensure future access and freedom of navigation 
throughout the Arctic region.
    6. Senator Gillibrand. General McDew, New York's 109th Airlift Wing 
is home to the only LC-130 Ski Birds in the U.S. Air Force. Their 
unique ability to provide air lift on snow and ice has made them a 
valuable resource for the National Science Foundation supporting 
science missions in Greenland and Antarctica. Based on the current 
types of threats you see in the Arctic, how important is this type of 
air lift capability to the future success of TRANSCOM in Arctic?
    General McDew. The ski-equipped LC-130s from the 109th Airlift Wing 
in Schenectady, NY, does indeed provide our Nation a very unique 
capability. Their ability to operate on the snow and ice makes them one 
of only a few organizations in the world capable of airlifting assets 
in and out of the Artic. The capabilities provided by the 109th Airlift 
Wing will continue to be of value to the USTRANSCOM mission.
    7. Senator Gillibrand. General McDew, do you think we will need 
more of this capability in the future as our as our Arctic presence 
increases?
    General McDew. Based on current requirements in the Arctic, I have 
no reason to believe USTRANSCOM needs more of this capability at this 
time. Should USTRANSCOM be called upon in the future to provide an 
increased level of support in the Polar Regions, I would advocate for 
the resources needed to ensure we provide the appropriate level of 
support.
                                ------                                

    [The nomination reference of General Darren W. McDew, USAF, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      June 4, 2015.
    Ordered, That the following nomination be referred to the 
Committee on Armed Services:
    The following named officer for appointment in the United 
States Air Force to the grade indicated while assigned to a 
position of importance and responsibility under title 10, 
U.S.C., section 601:
                        To Be General                              
    General Darren W. McDew, 0000
                                ------                                

    [The biographical sketch of General Darren W. McDew, USAF, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
          Biographical Sketch of General Darren W. McDew, USAF
    General Darren W. McDew is Commander, Air Mobility Command, Scott 
Air Force Base, Illinois. Air Mobility Command's mission is to provide 
rapid, global mobility and sustainment for America's armed forces. The 
command also plays a crucial role in providing humanitarian support at 
home and around the world. The men and women of AMC active duty, Air 
National Guard, Air Force Reserve and civilians--provide airlift, 
aerial refueling, special air mission and aeromedical evacuation.
    General McDew was commissioned in 1982 following his graduation 
from Virginia Military Institute. He began his flying career at Loring 
Air Force Base, Maine. His staff assignments include serving as a 
member of the Air Force Chief of Staff Operations Group, Air Force aide 
to the President, and Chief of the U.S. Air Force Senate Liaison 
Division, Washington, D.C. and the Director of Public Affairs, Office 
of the Secretary of the Air Force, Washington, D.C. As part of the 
Joint Staff at the Pentagon, General McDew also served as Vice Director 
for Strategic Plans and Policy. He has served as the Vice Commander of 
the 18th Air Force, Scott AFB, Illinois, and has commanded at the 
squadron, group and wing levels as well as an Air Force direct 
reporting unit. He has deployed in support of ongoing operations in 
Central and Southwest Asia as an air expeditionary group commander and 
later as the Director of Mobility Forces. Prior to his current 
assignment, General McDew was the Commander of the 18th Air Force, 
Scott AFB, Illinois.
Education
    1982 - Bachelor of Science degree in civil engineering, Virginia 
Military Institute, Lexington 1985 Squadron Officer School, Maxwell 
AFB, AL.
    1994 - Master of Science degree in aviation management, Embry-
Riddle Aeronautical University 1995 Air Command and Staff College, by 
correspondence
    2000 - Secretary of Defense Corporate Fellowship, Sun Microsystems 
Inc., Palo Alto, Calif.
    2003 - National Security Studies, Maxwell School of Citizenship and 
Public Affairs, Syracuse University, NY.
    2005 - Leadership Development Program, Center for Creative 
Leadership, Greensboro, N.C.
    2008 - Senior Joint Information Operations Applications Course, Air 
University, Maxwell AFB, AL.
    2008 - Air Force Enterprise Leadership Seminar, University of North 
Carolina at Chapel Hill, NC.
    2011 - Department of Defense National Security Studies Program, 
Defense Policy Seminar, Elliott School of International Affairs, 
Washington, DC.
    2012 - Joint Task Force Commander Training Course, Colorado 
Springs, CO.
    2013 - Pinnacle Course, Bolling AFB, Washington, DC.
    2013 - Joint Force Air Component Commander Course, Air University, 
Maxwell AFB, AL.
    2014 - Leadership at the Peak Course, Colorado Springs, CO.
    2014 - Cyberspace Operations Executive Course, Air University, 
Maxwell AFB, AL.
Assignments
    1. October 1982-October 1983, Student, undergraduate pilot 
training, Williams AFB, AZ.
    2. March 1984-June 1989, Standardization and Evaluation Copilot, 
Aircraft Commander, Instructor Pilot and Flight commander, 42nd Air 
Refueling Squadron, Loring AFB, ME.
    3. July 1989-June 1992, Combat Crew Training School examiner and 
Instructor Pilot, Assistant Deputy Wing Inspector and Wing Executive 
Officer, 93rd Bomb Wing, Castle AFB, CA.
    4. July 1992-April 1994, Rated Force Planner, Directorate of 
Personnel Plans; member, Air Force Chief of Staff Operations Group, 
Headquarters U.S. Air Force, Washington, DC.
    5. April 1994-June 1996, Air Force aide to the President, White 
House, Washington, DC.
    6. October 1996-June 1997, Assistant Operations Officer, 14th 
Airlift Squadron, Charleston AFB, SC.
    7. June 1997-June 1999, Commander, 14th Airlift Squadron, 
Charleston AFB, SC.
    8. August 1999-July 2000, Secretary of Defense Corporate Fellow, 
Sun Microsystems Inc., Palo Alto, CA.
    9. July 2000-January 2002, Commander, 62nd Operations Group, 
McChord AFB, WA (September 2001--December 2001, Commander, 60th Air 
Expeditionary Group, Southwest Asia).
    10. January 2002-July 2003, Commander, 375th Airlift Wing, and 
Installation Commander, Scott AFB, IL.
    11. July 2003-January 2005, Chief, U.S. Air Force Senate Liaison 
Division, Secretary of the Air Force, Washington, DC.
    12. January 2005-July 2006, Commander, 43rd Airlift Wing, and 
Installation Commander, Pope AFB, NC. (January 2006-May 2006, Director 
of Mobility Forces, Southwest Asia).
    13. July 2006-November 2007, Vice Commander, 18th Air Force, Scott 
AFB, IL.
    14. November 2007-February 2009, Director of Public Affairs, Office 
of the Secretary of the Air Force, the Pentagon, Washington, DC.
    15. February 2009-December 2010, Vice Director for Strategic Plans 
and Policy, Joint Staff, the Pentagon, Washington, DC.
    16. December 2010-August 2012, Commander, Air Force District of 
Washington, Andrews AFB, MD.
    17. August 2012-April 2014, Commander, 18th Air Force, Scott AFB, 
IL.
    18. May 2014-present, Commander, Air Mobility Command, Scott AFB, 
IL.
Summary of Joint Assignments
    1. April 1994-June 1996, Air Force aide to the President, Mite 
House, Washington, DC, as a major.
    2. February 2009-December 2010, Vice Director for Strategic Plans 
and Policy, Joint Staff, the Pentagon, Washington, DC, as a major 
general.
Flight Information
    Rating: command pilot.
    Flight hours: more than 3,300.
    Aircraft flown: T-37B, T-38A, KC-135A/R, C-17A, C-141B, C-9, C-21, 
C-130E/H, and UH-I N.
Major Awards and Decorations
    Distinguished Service Medal.
    Defense Superior Service Medal with oak leaf cluster.
    Legion of Merit with two oak leaf clusters.
    Meritorious Service Medal with four oak leaf clusters.
    Army Commendation Medal.
    Air Force Achievement Medal.
    Joint Meritorious Unit Award with oak leaf cluster.
    Air Force Outstanding Unit Award with nine oak leaf clusters.
    Air Force Organizational Excellence Award with three oak leaf 
clusters
    Combat Readiness Medal with three oak leaf clusters.
    National Defense Service Medal with bronze star.
    Armed Forces Expeditionary Medal.
    Kosovo Campaign Medal with bronze star.
    Global War on Terrorism Expeditionary Medal.
    Global War on Terrorism Service Medal.
    Armed Forces Service Medal.
Effective Dates of Promotion
    Second Lieutenant May 15, 1982.
    First Lieutenant May 15, 1984.
    Captain July 13, 1986.
    Major March 1, 1994.
    Lieutenant Colonel Jan. 1, 1997 Colonel April, 2000.
    Brigadier General Sept. 2, 2006.
    Major General Dec. 9, 2008.
    Lieutenant General Aug. 6, 2012 General May 5, 2014.
    (Current as of November 2014).
                                ------                                

    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by General Darren 
W. McDew, USAF in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    part a--biographical information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Darren W. McDew.

    2. Position to which nominated:
    Commander, United States Transportation Command.

    3. Date of nomination:
    4 June 2015.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    29 September 1960; Rantoul, IL.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Evelyn K. McDew (maiden name: Massenburg).

    7. Names and ages of children:
    [Nominee responded and the information is contained in the 
committee's executive files.]

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    N/A.
    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    N/A.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    Life Member, Air Force Association.
    Life Member, Daedalians.
    Air Force Sergeants Association.
    American Association of Retired Persons.
    National Society of Black Engineers.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Boys and Girls Club Hall of Fame.
    National Society of Black Engineers Lifetime Achievement Award.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the Administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                              General Darren W. McDew  
    This 7th day of May, 2015
    [The nomination of General Darren W. McDew, USAF was 
reported to the Senate by Chairman McCain on July 23, 2015, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on July 27, 2015.]


 
NOMINATION OF GENERAL MARK A. MILLEY, USA, TO BE CHIEF OF STAFF OF THE 
                                  ARMY

                              ----------                              


                         TUESDAY, JULY 21, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m. in room 
SH-216, Hart Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Ayotte, Fischer, Rounds, Ernst, Tillis, Sullivan, Lee, Reed, 
McCaskill, Manchin, Gillibrand, Donnelly, Hirono, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning.
    The Senate Armed Services Committee meets this morning to 
consider the nomination of General Mark Milley to be the Chief 
of Staff of the U.S. Army.
    We welcome you, General Milley, as well as members of the 
Milley family. As is our tradition, at the beginning of your 
testimony, we invite you to introduce the members of your 
family who are joining you. We know the sacrifices your family 
has made, and we are grateful to them for their continued 
support of our Nation.
    General Milley. Thank you, Chairman McCain, and thank you, 
Ranking Member Reed, and distinguished members of the Senate 
Armed Services Committee for the privilege and opportunity to 
appear before you today.
    I also appreciate the confidence of the President of the 
United States.
    Chairman McCain. General, I was going to----
    General Milley. Oh, I am sorry, sir.
    Chairman McCain.--ask if you would like to introduce your 
family. First, Senator Reed and I have to emote for a while.
    General Milley. In that case, I shall introduce my family.
    [Laughter.]
    My wife is here, Hollyanne, off to my left over here 
sitting next to General Richardson, and my son and daughter are 
not here. They are both working. My son Peter is down in Texas 
working in the oil industry, and my daughter is also working in 
the oil industry and she is based out of Chicago. I am very, 
very fortunate to have Hollyanne by my side for the last 30 
consecutives years of service.
    Chairman McCain. Well, thank you, General, and thank you.
    You come before this committee as part of a major 
transition of American military leadership. If confirmed as 
Army Chief of Staff, you will serve alongside a new Chairman 
and Vice Chairman of the Joint Chiefs of Staff and new Service 
Chiefs for the Navy and Marine Corps.
    As part of this team, you will lead an Army of volunteer 
soldiers that has proven itself time and again over a decade of 
war in Afghanistan and Iraq. The Army has endured 70 percent of 
the casualties in those wars, and as we all know, the untold 
sacrifices of our soldiers and their families did not end with 
their mission.
    As our Nation confronts the most diverse and complex array 
of global crises since the end of World War II, the next Chief 
of Staff of the Army will be responsible for ensuring the total 
Army--
Active, Guard, and Reserve--remains the most decisive land 
force in the world. Unless Washington wakes up to the damage 
being done to our military right now by drastic reductions in 
defense spending, the Army will be forced to carry out its 
mission with fewer dollars, fewer soldiers, and aging 
equipment.
    Over the past few years, the Army's end strength has been 
reduced from a peak of 570,000 Active Duty personnel to 490,000 
troops this year. Just last week, the Army announced it would 
cut an additional 40,000 troops over the next 2 years, reducing 
its end strength down to 450,000. If defense spending cuts 
continue, there is even talk that the Army could shrink to 
420,000 troops. What is worse, only one-third of the Army's 
brigade combat teams are ready for deployment and decisive 
operations. In short, the Army is facing a downward spiral of 
military capacity and readiness that increases the risk that, 
in a crisis, we will have too few soldiers who could enter a 
fight without proper training or equipment.
    We are not cutting the Army because the world has become 
safer or threats to our security have been reduced. In fact, 
the opposite is true. As you have stated, General Milley, this 
is a budget-driven force level reduction, and it rested on a 
series of assumptions, that we were getting out of Iraq and 
Afghanistan and stepping back from the Middle East more 
broadly, that Europe was secure, and United States forces could 
depart the continent, and that there was no need for 
significant deployments to Africa. Instead, we have seen the 
rise of ISIL [the Islamic State of Iraq and the Levant], 
Russia's invasion of Ukraine, the outbreak of Ebola, and the 
growing tensions in the Asia-Pacific region.
    I think you would agree, General, that when our assumptions 
about the world change, we must either adapt our conclusions to 
the new realities or scale back our ambitions to meet our 
reduced means. Instead, the administration and many in the 
Congress are trying to have it both ways: asking our soldiers 
to take on a growing set of missions with fewer and fewer 
resources. This is not just about reversing the effects of 
sequestration. It is about replacing the arbitrary spending 
cuts on defense that were imposed under the Budget Control Act 
of 2011. That is the only way we will get back to a truly 
strategy-driven defense budget.
    While I believe there is no strategic rationale for the 
Army's end strength to fall below its pre-September 11 level of 
490,000 troops, in recent years, the Army's headquarters and 
administrative staff have grown at the same time it has cut 
brigade combat teams. That too is wrong, and it only hurts the 
Army's credibility. This committee is embarking on a multiyear 
effort to make major reductions in headquarters and 
administration across the Department of Defense. If confirmed, 
General, I want you to be a relentless partner in this effort.
    Another priority for the next Army Chief of Staff is 
modernizing the force. The Army faces an enormous challenge in 
replacing, repairing, and reconditioning its equipment after 14 
years of sustained combat. At the same time, the Army must 
continue to modernize to meet future threats. Programs like the 
Joint Light Tactical Vehicle and Armored Multi-Purpose Vehicle 
aim to enhance tactical mobility, command and control, medical 
evacuation, and other critical combat functions while 
significantly improving the protection and safety of our 
soldiers.
    Accomplishing these goals will require additional 
resources, to be sure. Perhaps more importantly, it requires 
the Army to learn the lessons of its failed acquisition 
programs, a record that has been particularly dismal. From 
Comanche to Crusader, Future Combat System to the Ground Combat 
Vehicle, billions of dollars have been wasted on programs that 
never became operational. These and other failures also reflect 
the inefficiency and dysfunction that have crippled our defense 
acquisition system more broadly: unwarranted optimism of cost 
and schedule estimates, funding instability, requirements 
creep, immature technology, excessive risk-taking, and 
concurrency between testing and production.
    There are diverse views on acquisition reform, but one 
thing is for sure: the status quo is unacceptable. To provide 
our soldiers the equipment they need to defend the Nation, we 
simply cannot continue to have blurred lines of accountability 
and evasions of responsibility inside the defense acquisition 
system. That is why in this year's National Defense 
Authorization Act, this committee adopted reforms to increase 
the role of the Military Services in the acquisition process 
and to create new mechanisms to ensure accountability for 
results. Among these reforms is an enhanced role for the 
Service Chief s. The Army must ensure that its acquisition 
programs stay on schedule, within cost, and perform to 
expectations. If that does not happen, General, we will be 
calling you.
    General, thank you again for appearing before this 
committee today, and we look forward to your testimony.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman. I want to 
join you in welcoming General Milley this morning. I would like 
to thank him for his many years of service to out Nation and to 
the Army and for his willingness to continue to serve. General 
Milley is joined this morning by his wife Hollyanne. Thank you, 
ma?am, for your service to the Nation and to the Army. I also 
wanted to acknowledge Mary and Peter and wish them well.
    General Milley, if confirmed, you will oversee the Army 
during a time when the United States faces a multitude of 
challenges abroad. While the conflict areas around the world 
continue to increase, the amount of resources devoted to the 
Army continue to decrease. Earlier this month, it was announced 
that over the next 2 years, the Army would convert two infantry 
brigade combat teams to battalion task forces. These changes 
were necessary in order for the Army to continue to reduce its 
end strength, with a final goal of 450,000 soldiers by the end 
of fiscal year 2017. In addition to these reductions, the Army 
also intends to cut approximately 17,000 civilian personnel, 
although it is my understanding that the Army has not 
identified which installations will be impacted by these 
reductions.
    If sequestration funding levels remain in place, the 
situation becomes much more ominous for the Army. Without any 
relief from the budget caps, the Army will need to reduce its 
end strength further to a level of 420,000 soldiers in the 
coming years. General, I hope you will share with us your views 
today on how to manage these reductions, if in fact they are 
called for, and what, if any, impact these reductions would 
have on the readiness of the Army.
    In addition to managing end strength reductions, the Army 
is grappling with how to modernize the force and increase 
readiness levels. In recent years, the Army has had to make 
tough choices on its major modernization programs. As the Army 
Equipment Modernization Strategy, released in March 2015, 
acknowledges, ``The Army cannot afford to equip and sustain the 
Total Army with the most modern equipment; therefore, we must 
acknowledge fiscal realities and we will selectively modernize 
equipment and formations.''
    At the same time, the Army continues to cope with reduced 
readiness levels. General Odierno, the current Chief of Staff 
of the Army, testified before the Senate Appropriations 
Subcommittee on Defense in March of this year that readiness 
levels are at historically low levels. Specifically he stated 
that ``today, only 33 percent of our brigades are ready, when 
our sustained readiness rate should be closer to 70 percent.''
    General Milley, I look forward to hearing your thoughts on 
how the Army can make targeted investments in modernization 
while also restoring readiness levels.
    The National Guard, has always been an integral component 
to our Nation's defense. In fact, today they are probably more 
integral than at any time in our history. They serve as the 
first line of defense when there is a natural disaster at home, 
and they perform a vital homeland security mission. Without 
question, the role of the National Guard and Reserve component 
played in both Afghanistan and Iraq was critical to our success 
on the ground.
    However, as the Army draws down and resources become more 
limited, there has been tension between the Active and Reserve 
components, the most notable example being the Army 
restructuring initiative. To ensure that the Army does not make 
any irrevocable force structure changes, last year, Congress 
created the National Commission on the Future of the Army to 
undertake a comprehensive review of the size and force 
structure of the Army. The commission has been working 
diligently meeting with stakeholders, performing site visits, 
and conducting hearings in order to provide their report to 
Congress by February 1, 2016.
    General Milley, if confirmed, you will be working with 
General Grass, Chief of the Army National Guard Bureau, and I 
look forward to hearing from you on how you envision the 
relationship between the Active Army and the National Guard and 
Reserve components and what, if anything, can be done to 
strengthen that relationship.
    Finally, I have repeatedly stated that sequestration is a 
senseless approach to addressing our Nation's fiscal challenges 
and it undermines our national security and our military 
readiness. Defense budgets should be based on a long-term 
military strategy, not sequestration-level budget caps. the 
chairman has made this point eloquently and consistently. I 
hope you will share your thoughts on this topic with the 
committee today.
    Again, General, thank you for your service.
    Chairman McCain. General, there are standard questions that 
are asked of all military nominees, and I would like to proceed 
with those before your opening statement.
    The questions are as follows.
    In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of the Congress are able to receive 
testimony, briefings, and other communications of information. 
Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    General Milley. I have, Mr. Chairman.
    Chairman McCain. Do you agree, when asked, to give your 
personal views, even if those views differ from the 
administration in power?
    General Milley. I do, Mr. Chairman.
    Chairman McCain. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Milley. I have not, Mr. Chairman.
    Chairman McCain. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    General Milley. I will, Mr. Chairman.
    Chairman McCain. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Milley. Yes, Mr. Chairman.
    Chairman McCain. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Milley. Yes, they will, Mr. Chairman.
    Chairman McCain. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    General Milley. I do, Mr. Chairman.
    Chairman McCain. Do you agree to provide documents, 
including copies of electronic forms of communications, in a 
timely manner when requested by a duly constituted committee or 
consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    General Milley. I do, Mr. Chairman.
    Chairman McCain. Thank you. Welcome and please proceed.

 STATEMENT OF GEN MARK A. MILLEY, USA, TO BE CHIEF OF STAFF OF 
                            THE ARMY

    General Milley. Thanks, Chairman McCain and Ranking Member 
Reed and distinguished members of the Senate Armed Services 
Committee for the privilege and opportunity to appear before 
you today. I appreciate the confidence the President of the 
United States and the Secretary of Defense have shown by 
nominating me to be the next Chief of Staff of the U.S. Army.
    Thank you all for your continued and unwavering support and 
commitment to the soldiers and civilians and families of what 
is your Army. As your Army is the strength of our Nation, our 
soldiers are the strength of our Army, and all of their 
families are the strength of our soldiers.
    Likewise, my family has been my strength throughout my 
life. Both my mother and father served our Nation in World War 
II as part of the greatest generation, with my mother attending 
the medical needs of soldiers, sailors, airmen, and marines 
from the Pacific at a military hospital near Seattle, WA, while 
my father served with the 4th Marine Division in the Central 
Pacific, making the assault landings on Kwajelein, Saipan, 
Tinian, and the bloody battle of Iwo Jima as a young 19- and 
20-year-old.
    Sadly, my mother passed over 20 years ago and my father 
passed just last April, a week shy of his 91st birthday. I am 
absolutely sure that they are both very proud from above of 
their soldier son and will always be a source of leadership and 
guidance for me in the years ahead.
    I am also unbelievably lucky to have by my side, as I 
previously introduced, for the last 30 consecutive years of my 
service the most dedicated and strongest woman in the world, my 
wife Hollyanne. She, like my parents, is a constant source of 
inspiration and love. For many years, during seven contingency 
deployments on various operations and thousands of days of 
training, Hollyanne has essentially been like so many Army 
spouses, a single parent, who has raised two wonderful children 
who are now young adults, our daughter, Mary Margaret, and our 
son Peter, who unfortunately could not be with us today. It is 
for them and for all of our children and the future generations 
that I and all of us in uniform continue to serve and are 
willing to go into harm's way to give our todays for their 
tomorrows.
    I would like to just take a moment to recognize Hollyanne 
as a representative of all the Army families, of all the Army 
spouses, and for their incredible resilience, service and 
sacrifice.
    I would also like to congratulate my predecessor, General 
Ray Odierno, and his wife Linda, who have given over 39 
consecutive years of distinguished service to our great Nation. 
I want to personally thank them both for their tremendous 
leadership as our Chief of Staff and leading spouse. Our Nation 
has been well served by this selfless soldier and his entire 
family.
    Chairman, Senators, service in the U.S. Army is a 
privilege. It is a distinct privilege. It is not a right. It is 
a privilege and it is earned the old-fashioned way, through 
hard work and meeting exacting standards of discipline and 
excellence.
    Your Army's contract with the American people is a combat-
ready force built around our Nation's most valuable asset, our 
sons and daughters who become soldiers of character and the 
best trained and best equipped Army in the world. Our 
fundamental task is like no other. It is to win and to win in 
the unforgiving crucible of ground combat. There are many other 
tasks and roles and missions that your Army can do as part of 
our joint force, and we perform those every day in support of 
our Nation's interest. We assure allies. We deter adversaries. 
We shape outcomes and build partner capacity and provide 
foundational capabilities to enable other joint forces in a 
variety of ways. We have provided needed help to victims of 
disaster.
    Our reason for being, our very reason for being at the very 
core of what it means to have an Army, it is to win and to win 
decisively in ground combat against the enemies of our country 
so that American citizens can enjoy life, liberty, and the 
pursuit of happiness. Every year, 120,000 of America's sons and 
daughters raise their right hand to take an oath of allegiance 
to serve our Nation in the uniform of your U.S. Army. In 
return, we make the commitment to develop them as soldiers, as 
leaders, and importantly as citizens. These soldiers are the 
core of our All-Volunteer Army, made up of three components: 
the Active, the National Guard, and the Reserve. We are a total 
Army. We are in fact one Army. We are America's Army. All of us 
from private to general come from the people, and we are 
dedicated to give our life and our limb to serve the people. We 
do it with great pride and a cause that transcends ourselves.
    I have huge confidence in our Army today. I have served in 
it in both peace and war. Right now, we have the most skilled 
and combat-experienced Army in the Nation's history. In this 
time of increasing instability, of increasing uncertainty 
throughout the globe, we must squarely face and solve 
significant challenges as, Chairman, you mentioned, in 
manpower, readiness, and modernization.
    If confirmed as the Chief of Staff of the U.S. Army, I look 
forward to working with this committee to get the Army the 
resources it needs. I also pledge to be a careful steward on 
behalf of the American taxpayer whom we recognize we all serve 
as well.
    Finally, if confirmed as Chief of Staff, I want to ensure 
that the Army meets the expectations of the American people. 
The American people have expected your Army to fight and win 
our Nation's wars at any time, any place, and your soldiers are 
ready to do that today, as we have done for 240 consecutive 
years.
    Today we have a great Army and we stand on the shoulders of 
those who came before us. It would be a tremendous honor to 
lead our soldiers of today as their Chief of Staff. I thank 
each of you, without whom we would not even have an Army.
    I thank you for the opportunity to appear here today, and I 
look forward to your questions.
    Chairman McCain. Thank you, General. Thank you for your 
strong statement.
    As you know, last week there were four unarmed marines and 
one sailor in Chattanooga, TN, who were murdered. What steps do 
you believe should be put in place immediately to improve the 
security of Army personnel in the United States, especially at 
facilities like recruiting stations?
    General Milley. Senator, first as a son of someone who 
served in the 4th Marine Division, I want to publicly extend my 
condolences to the families of the four marines and one sailor 
who were killed. It is a horrible tragedy.
    Force protection is a key task for any commander, as it is 
for all of the leaders in the Army and throughout the military. 
Specifically, there is a wide variety of both active and 
passive measures. As you may know, Admiral Gortney, Commander 
of NORTHCOM [U.S. Northern Command], issued out some increased 
force protection measures, which I will not discuss publicly 
exactly what those are.
    From my view, there is a variety of both active and 
passive. From the passive standpoint, there is a variety of 
hardening things we can do, bulletproof glass, et cetera. 
Actively we can increase patrols, work closely with the law 
enforcement.
    As far as arming recruiters go, I think that is complicated 
legally, and there are issues involved throughout the country, 
but we will have to come to grips with that, and it certainly 
should be----
    Chairman McCain. The legal part of it can be resolved. Do 
you think that they should, under certain conditions, be armed?
    General Milley. I think under conditions, both on military 
bases and in out-stations, recruiting stations, Reserve 
centers, that we should seriously consider it. In some cases, I 
think it is appropriate.
    Chairman McCain. As regards Afghanistan, should we withdraw 
according to a preordained calendar-based plan or a condition-
based plan?
    General Milley. I am in favor of a conditions-based plan.
    Chairman McCain. Which right now would you say that the 
situation would warrant evaluation and revision of the 
President's plan by 2017 to have an embassy-based force?
    General Milley. Right now, I think talking with John 
Campbell, General Campbell, the Commander of the force in 
Afghanistan, it is my understanding that the plan is 
continually under review and that we will execute based on 
conditions on the ground.
    Chairman McCain. That is your view.
    General Dunford has testified before this committee that 
even with the $38 billion addition, that our Nation's military, 
``would remain at the lower ragged edge of manageable risk in 
our ability to execute the defense strategy.'' Do you agree 
with that?
    General Milley. I do with respect to the Army as we look 
out, and I concur with General Odierno's assessment.
    Chairman McCain. That we would be at the lower ragged edge?
    General Milley. I would probably agree with that, yes, 
Senator. Then I think he testified to significant risk, and if 
we go to 420,000, as Senator Reed mentioned earlier, we would 
be shifting into high risk.
    Chairman McCain. Do you believe that we should arm the 
Ukrainians with counter-battery systems with which to defend 
themselves from Russian artillery and rocket strikes?
    General Milley. Senator, I think providing nonlethal 
equipment is already being done, and I think lethal equipment--
--
    Chairman McCain. I am asking about lethal equipment.
    General Milley. Yes. Lethal equipment I think is something 
we should consider, and I would be in favor of lethal defensive 
equipment.
    Chairman McCain. In your view, do we have a strategy to 
defeat ISIS [the Islamic State of Iraq and Syria]?
    General Milley. Senator, there is a strategy. I think you 
are familiar with the nine lines of effort. The military has 
two. Currently there is a strategy.
    Chairman McCain. That strategy also applies to Syria?
    General Milley. Syria is part of the overall strategy with 
respect to ISIS, as I understand it.
    Chairman McCain. You believe that we do have a strategy to 
defeat ISIS.
    General Milley. I think there is a strategy, yes.
    Chairman McCain. Do you think it will defeat ISIS?
    General Milley. Right now, the way the strategy is laid 
out, as I understand it, is that it is going to take a 
considerable amount of time, measured in years, to defeat ISIS 
if we execute the strategy as it is currently designed.
    Chairman McCain. Maybe you could tell me a little bit about 
that strategy because the President said they have not 
developed it yet.
    General Milley. As I understand it, there are nine lines of 
effort. The two that concern the military are providing a 
variety of enabler capabilities to the Iraqi military and also 
to provide security force assistance and building partner 
capacity with the Iraqi military.
    Chairman McCain. In your experience, do you believe that we 
need forward air controllers?
    General Milley. In my experience, having forward air 
controllers forward with units provides more effective close 
air support.
    Chairman McCain. Well, I thank you, General, and thank you 
for your service. We look forward to moving forward with your 
nomination. Congratulations, and all of us would also agree 
that your predecessor is also an outstanding soldier. I thank 
you.
    General Milley. Thank you, Chairman.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Again, thank you, General Miley--Milley, for your 
testimony. I get confused because up our way it is usually 
``Miley.'' I do not know what happened.
    General Milley. That is in Rhode Island, Senator.
    Senator Reed. I know. You are from Massachusetts, I know.
    [Laughter.]
    Forgive me if I mispronounce things.
    General Milley. As long as we both like the Red Sox, we are 
good, sir.
    Senator Reed. We like the Red Sox and the Bruins. Well, I 
will stop right there and ask a service question, General.
    You are facing force reductions, 450,000 Active Forces, 
which leads to the question of how do you ensure that you can 
meet all the requirements that are facing the Army. Several 
possibilities that you can comment on--is a much smoother 
closer integration with National Guard and Reserve Forces so 
they can come into the fight earlier. That is one. Two, 
obviously, continuing to operate jointly and train jointly with 
the Marine Corps, which is a way to augment land forces. Three, 
to continue or to increase, in fact, joint operations with 
foreign militaries that are our allies. Could you comment on 
those approaches? Will that in any way help sort of offset the 
decline in manpower?
    General Milley. Well, first, Senator, I think that the 
reduction in manpower down to 450,000 for the Active Force, 
920,000 or 980,000 overall for the total force--and I agree 
with the current Chief of Staff's assessment that places the 
Nation at significant risk, given our global commitments. In 
order to mitigate that risk, incorporating elements of the 
National Guard and Reserve component are key, and then working 
with allies is fundamental. I think all of those are necessary 
to mitigate some of the risk.
    Senator Reed. Specifically with respect to the National 
Guard, what is your approach? You know, we speak of one Army, 
and frankly, looking back 30 or more years, it is now much more 
one Army than it was previously. What are you going to do to 
make sure that is more than rhetoric, that there really is one 
consistent Army--National Guard and Reserve, Active Force?
    General Milley. We are already doing many things. As the 
Commander of Forces Command, I have got training readiness, 
oversight for the Guard and actual command of the Reserves. 
There are many thing we are doing right now. We integrate at 
both of our combat training centers down at Fort Polk, LA, and 
out in California National Training Center. We are fully 
integrated with Reserve component and National Guard elements. 
Integration of those forces is key, and we will sustain that 
and increase that over time.
    The second big one I think is we have partnerships. All of 
our Active Component forces are partnered with National Guard 
units, and they are fully integrated for home station training 
and support each other.
    Senator Reed. One of the areas of concern--and this has 
been led by Senator McCain's efforts over many years--has been 
acquisition reform. He, frankly, indicated a long litany of 
major systems where the Army could not get off the drawing 
board literally. There are proposals today to involve the 
chiefs more directly not only with authority but 
responsibility.
    Can you comment about the acquisition process and what you 
would like to do as Service Chief in making it more effective?
    General Milley. Thanks, Senator.
    In my view, I think the Service Chiefs should have an 
increased role across the entire acquisition process where we 
are responsible for and held accountable for linking the 
requirements, which we do play--the Service Chiefs play a role 
in that right now. We are not or the Service Chiefs are not as 
engaged as could be with respect to the resources and decisions 
of actual acquisition. Those three pieces, linking resources, 
the requirements, and the actual acquisition--in my view the 
Chiefs should have increased authority to link all three of 
those throughout the entire process. Not just the inputs of 
requirements but also the outputs of acquisition.
    Senator Reed. Just a final point very quickly is that we 
have consistently pointed out that readiness is being 
challenged in terms of brigades when 30 percent of our Army 
brigades are ready to go, and that is way below. That requires 
some either massive budget relief or internal reallocation of 
resources. If you do not get the budget relief, what kind of 
resources are you prepared to reallocate to get training done?
    General Milley. Really, there are three pieces, three 
levers that any Chief of Staff can use. One is end strength. 
The other is modernization, and the other is readiness. Our 
obligation as an Army or any service is to ensure that we have 
ready forces. There is no soldier, sailor, airman, or marine 
who should ever go into harm's way not fully manned, equipped, 
well let, et cetera. No one should ever go in harm's way 
unready. Readiness is the number one priority. It is my number 
one priority, if confirmed, and it will remain the number one 
priority.
    That leaves only end strength and modernization. Right now, 
the Army has taken a lot of cuts in modernization over time, 
and then we have end strength. If confirmed, I am going to have 
to take a hard look to make sure that we balance those three 
components as we go forward.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, General, for being here today.
    When we met earlier this month you mentioned two of your 
priorities. As you just said, the first one was readiness, and 
you also said investing in future needs.
    Do you believe that the future needs will require the Army 
to primarily focus on modernizing its current capabilities, or 
do you see a shift to new missions and new capabilities? I know 
there has been a lot of talk about the Army's role in coastal 
defense. Where do you see that headed?
    General Milley. Thanks, Senator.
    As you said, two priorities exist for any Chief of Staff 
really. One is maintaining readiness of the force. Second is to 
posture the force to be ready at some point in the future. The 
period of time that I would be looking at in the future, if I 
were confirmed, would be the 2025-2030-2035 timeframe. Right 
now our modernization strategy is to incrementally improve 
existing systems. That is okay for right now. There are a wide 
variety of emerging technologies that we may or may not have 
military application 15 to 20 years from now. We are going to 
take a look at those. We are going to explore all of those, ask 
the right questions and see which ones of those apply to ground 
forces. Many already apply to air and naval forces. Emerging 
technology is an area we are going to take hard look at, 
Senator.
    Senator Fischer. Do you see a shift, though, to any new 
missions that are going to be necessary for the Army to 
acquire?
    General Milley. I think the fundamental missions that 
currently exist in the variety of strategic documents that are 
out there will remain consistent, and I do not see a 
fundamental shift in the mission for the Army.
    Senator Fischer. Even with the advancement of new 
technologies by people who are not our friends? Do you see the 
Army playing any role in that on new missions?
    General Milley. The only one that is coming to mind right 
now is cyber. We definitely have increased our capabilities in 
cyber across the joint force, and the Army is building a cyber 
force. We are going to continue to look at that because that is 
critical for the defense of the Nation and for the Army's 
capabilities.
    Senator Fischer. As the current Commander of the Army's 
Forces Command (FORCECOM), I know that you are responsible for 
providing Army units so you can fulfill the combatant 
commanders' requirements. We heard a little bit about the force 
reduction and the impact that that may have. Right now, are you 
able to fulfill the combatant commanders' requirements? Where 
will it be when we look at a force that is reduced to 450,000?
    General Milley. As Commander of FORSCOM [U.S. Army Forces 
Command], right now we are able, Senator, to fulfill the 
combatant commanders' requests for forces that have come in. As 
we continue to draw down to 450,000 by 2017-2018, I think we 
are going to incur increased risk, as the current chief has 
mentioned, at the end of it, it will be significant risk.
    We will have to see. We do not know what the future 
requirements are going to be. Senator McCain mentioned you got 
issues in eastern Europe. You got issues with ISIS. There is a 
wide variety of other security challenges around the world. If 
demand continues to increase that it has in the last year, 
unanticipated demand, then I think we will have to reassess our 
risk assessment.
    Senator Fischer. SOCOM [U.S. Special Operations Command] is 
one of the combatant commands that you support as well. I have 
been concerned that reductions across the services are going to 
impact the conventional force enablers that our special ops 
guys rely upon. How do you work with them to manage that 
collateral damage that reductions are going to have on their 
capabilities?
    General Milley. We are very, very closely tied as you might 
imagine, with Special Operations Command. 80 percent of U.S. 
special operations comes from the Army. We are very closely 
tied at Fort Bragg. FORSCOM headquarters is also the 
headquarters for the U.S. Army Special Operations Command. We 
are joined at the hip.
    One of the big lessons learned that has come out of the 
last 10 to 15 years of conflict has been the synergistic effect 
that we have gotten from the interdependence of both 
conventional and special operations. We will continue to work 
with them very, very closely. We have them integrated in all of 
our major exercises at the combat training centers. We work 
with them on acquisition development, and obviously, we provide 
a wide variety of enablers that support special operations. We 
will keep that linkage. That will not break.
    Senator Fischer. Thank you, sir. I appreciate your 
commitment to making sure that our military men and women are 
able to perform the missions that they are given. Thank you.
    General Milley. Thank you, Senator.
    Chairman McCain. Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman.
    Thank you, General. I want to thank you for your service to 
our country and to your family's support of that service you 
have given us.
    Sir, you and I have had a good conversation on quite a few 
things, and I will ask you the same question I have asked most 
of our conferees. What do you consider the greatest threat that 
the United States of America faces?
    General Milley. As a soldier----
    Senator Manchin. The national security for our country.
    General Milley. As a soldier, as a military officer, I 
would have to say that it is Russia, and let me explain that 
and why. Russia is the only country on Earth that retains a 
nuclear capability to destroy the United States. It is an 
existential threat to the United States. It has capability.
    Intent? I do not know. The activity of Russia since 2008 
has been very, very aggressive. They have attacked and invaded 
Georgia. They have seized the Crimea. They have attacked into 
the Ukraine. That is worrisome. I would put Russia right now 
from a military perspective as the number one threat.
    I would also add China, North Korea, and ISIS, along with 
Iran, including the recent agreement that was signed the other 
day. Those countries--I would not put them in any particular 
order. Each in their own different way represents security 
threats to the United States.
    Senator Manchin. Also, we talked about the obstacles that 
you are facing or that we are facing by using the National 
Guard to the full extent, especially the day-to-day operations. 
If you could expand on that. What are the obstacles that 
prevent the Army from using its Army National Guard to the 
extent that they should be, as well trained as they are today?
    General Milley. As you know, Senator, the National Guard 
has been key over the last decade and a half and have served 
very proudly and honorably in both Afghanistan and Iraq, and 
they are fully integrated in a lot of our training operations 
here in the continental United States. It would help if we had 
greater access to the Guard. Right now, the Guard has state 
partnership programs overseas with a wide variety of countries. 
There is a lot of exercises in support of combatant commanders 
that we could use Guard Forces for. Its operations, current 
operations. Some are peacekeeping, peace enforcement such as 
Kosovo and the Sinai. Others are more active in Afghanistan and 
Iraq. Fundamentally access to the Guard is key.
    That all links back to the budget. Right now we can only 
pay for bringing Guard units, mobilizing them, bringing them on 
under OCO [Overseas Contingency Operations] funding, and many 
of these operations are, in fact, exercises for the COCOMs 
[combatant commands] and they are not covered with OCO funding. 
Access and funding.
    Senator Manchin. I am sure we look forward to working with 
you on making that available because I think our Guard could be 
used more effectively than what they are right now, other than 
private contractors that we are using. That would bring me 
right up to the auditing. What is your understanding of where 
the Army stands in terms of being ready for a full audit by the 
end of fiscal year 2017?
    General Milley. I have been briefed that both as a FORSCOM 
Commander but also through the pre-confirmation hearing 
preparation and briefings I got from the Army staff that the 
Army is on track and will be ready for the full auditing in 
2017.
    Senator Manchin. If confirmed, will you make improving the 
Army's acquisition system a priority?
    General Milley. Absolutely.
    Senator Manchin. I think you would understand the concerns 
that we have with the procurement system that we have right 
now, and it does not seem to work very functionally as far as 
effective or cost-effective especially. Changing those 
systems--again, it all ties back to the auditing as quickly as 
that can be done.
    Also, do you have any idea on the amount of contractors 
that we have or the Army is using--contract forces?
    General Milley. I do not know right this minute Army-wide. 
I do know, for example, I recently commanded in Afghanistan and 
there were one and a half contractors to every soldier that was 
deployed over there. The amount of contractors that we use is 
significant. I can get you the exact number.
    Senator Manchin. If you could, sir, I would appreciate that 
because I think the cost of the contractors versus using our 
own National Guard and Reserves--it makes more sense to use, in 
my estimation, people in uniform versus people that basically 
have been in uniform and left for the higher pay that the 
contractors are receiving. That is the rub I have had all 
along. If you could help with that, I would appreciate it.
    General Milley. Absolutely. We will do that.
    [The information referred to follows:]

    According to United States Forces-Afghanistan (USFOR-A), which does 
not break out the numbers by Service, as of August 17, 2015, there are 
10,917 United States contractors in country and another 7,016 Other 
Country Nationals for a total of 17,933 contractors.

    Senator Manchin. Thank you, sir.
    Chairman McCain. Senator Ayotte?
    Senator Ayotte. Thank you, Mr. Chairman.
    Thank you, General, and I want to thank your family for 
their service as well to our Nation.
    I wanted to follow up. You confirmed today what General 
Dunford had also testified to this committee before, that 
Russia is our greatest national security threat. I noticed also 
in your advance policy questions that you stated unambiguously 
that the Army in Europe does not have what it needs. What does 
EUCOM [U.S. European Command] need that it does not have, and 
how important is this as we think about Russia as the most 
significant threat that we are facing?
    General Milley. I think there are two parts to that. One is 
to assure our allies, and the other is to deter Russian 
aggression. I think in both cases additional ground 
capabilities are necessary. The Army is already moving out on 
that to place activity sets over there and preposition 
equipment to either reinforce capabilities that are there, 
forces that are there, or to use that equipment for a variety 
of exercises. There are a lot of tools in the kit bag we can 
use, but I do think we need to increase ground forces on a 
temporary rotational basis in order either to deter Russia or 
assure our allies.
    Senator Ayotte. Thank you.
    I wanted to follow up. You, in answer to Senator Manchin, 
had talked about access to the Guard. One of the things that we 
have seen is a program with the Air Force that is called Total 
Force Enterprise Active Associate Unit. In other words, it is 
total force. At Pease in New Hampshire, we have had an Active 
Duty association between Active Duty Air Force and our Guard 
there that has been really effective.
    I wanted to ask you if that is something that you would 
take a look at as actually actively partnering certain units 
together to have these Active Duty associations because I think 
this model--the Air Force has had some good success with it and 
recognizes, as well, as you have already indicated today, we 
would not have been able to fight the wars in Iraq or 
Afghanistan without the Guard and Reserve. Being able to 
actually do some training and work together with certain units 
I think makes some sense. I wanted to get your thought on that 
and if that is something you would look at as a possibility.
    General Milley. It is, Senator. In fact, I met with your 
TAG [Adjunct General] from New Hampshire, along with all the 
other TAGs east of the Mississippi, about--I guess it was--6-8 
weeks ago, and they brought that up. I am going to try to take 
a look at that and see where it applies to the Army, if that 
Air Force model can apply for greater and fuller integration.
    As you know, the Guard and Reserve were integrated under 
General Abrams when he was Chief of Staff right following 
Vietnam. The Abrams doctrine has served the Nation well, and we 
intend to fully implement that.
    Senator Ayotte. Well, certainly it is a total force needs 
in terms of what we need to do to defend the Nation. I 
appreciate your careful examination of that program which has 
been very successful at Pease.
    I wanted to also follow up, General. How important is 
effective and reliable air missile defense to Army operations? 
Because one thing that has been brought to my attention, we 
have the Patriot. Thirteen of our allies also rely on the 
Patriot to protect their forces. Some of our allies have more 
modern and advanced versions of the Patriot than our troops 
have. I do not agree with that, and I think this committee very 
clearly in the defense authorization--actually the Army 
requested $106 million for Patriot improvement to upgrade our 
use of the Patriot, and that was actually accepted by this 
committee.
    I wanted to get your sense based on your service in the 
Army. What is your assessment of the Patriot air missile 
defense system, and do you fully support the improvement 
funding that the Army requested for this? How important is this 
to our troops?
    General Milley. Well, Senator, let me take the last part 
first, how important it is. To my knowledge--I am not a 
military historian, but I do not think the U.S. Army has come 
under enemy air attack consistently since the invasion of 
Normandy, and that is because of two things. One, we have the 
most dominant Air Force, both naval aviators and the U.S. Air 
Force pilots and capabilities. We want to retain that forever. 
The other piece is because we have a very robust air defense 
capability that is capable of shooting down incoming aircraft.
    Since the modern development of missile technology, that is 
another component. We have come under missile threat. We were 
under missile threat in the first Gulf War and even in the 
second Gulf War. Patriot plays a key role in not only acquiring 
and then destroying incoming fixed-wing aircraft, but also in 
intercepting and destroying incoming missiles. Patriot is a 
very, very key system to the air defense of our allies and our 
own soldiers on the ground.
    Senator Ayotte. Thank you.
    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman, and thank you, 
General, to you and your family for your service.
    I appreciated the great conversation we had last week, and 
should you be confirmed, I look forward to, of course, working 
with you during your tenure.
    I know that you realize, General, the importance of MILCON 
[military construction] funding for readiness, particularly for 

Hawaii in light of the rebalance to the Asia-Pacific. In fact, 
I spent some 4 hours at Schofield Barracks recently and saw the 
direct effect on facilities there when MILCON funding is cut or 
deferred. Should you be confirmed, I hope you will work with 
USARPAC [U.S. Army, Pacific] to ensure that their facilities 
are maintained and modernized where appropriate so that our 
troops have the facilities necessary to efficiently perform the 
important tasks we ask of them.
    General Milley. I will certainly do that, Senator.
    Senator Hirono. Thank you.
    I also know that you share my view that the rebalance to 
the Asia-Pacific is more than just rhetoric. The Navy's 
intentions, for example, are to place 60 percent of its ships 
in this area of responsibility. What do you see as the major 
components of our rebalance strategy?
    General Milley. Well, I think that right now, as I 
mentioned earlier, two of that list of threats that were asked 
to me of Senator Manchin included both China and North Korea. 
The United States Army plays a key role. Eight of the 10 
largest armies in the world are in the Pacific. Clearly, Navy 
and Air Force and Marines are fundamental to success for U.S. 
national security in the Pacific, but the Army is too. We 
currently have forward-deployed forces in Korea that have made 
a significant contribution to keeping the peace for the last 60 
years since the end of the Korean War. We also have forces, as 
you are well aware in Alaska, at Joint Base Lewis-McChord in 
Washington State, and most importantly, in the State of Hawaii. 
There is a considerable amount of Army capabilities in the 
Pacific that play a key role in supporting Admiral Harris as 
the combatant commander and supporting Admiral Harris' PACOM 
[U.S. Pacific Command] strategy.
    Senator Hirono. Well, we recognize that because of the 
budget issues that certain force reductions were inevitable, 
sad to say. Of course, while unfortunate, I do appreciate the 
consideration that was given to the rebalance to the Asia-
Pacific and Hawaii's strategic location and the decisions that 
were made regarding the cuts to our Army.
    Can I expect that, if confirmed, you will continue to give 
ample consideration to our strategic position--and that, of 
course, includes Alaska--and to the importance of the 
rebalance?
    General Milley. Absolutely, Senator. As we go forward, 
balancing of the disposition of the Army forces in accordance 
with the National strategy and balancing that against risk is 
the key task for the Chief of Staff and I will take that.
    Senator Hirono. This committee has spent considerable time 
on the issue of sexual assault in the military, and it still, 
of course, occurs and harassment persists in our military. From 
your testimony and our meeting, I know you find it totally 
unacceptable as well.
    However, while efforts are being made to support and 
encourage victims to come forward, we are becoming more aware 
of the problem of retaliation.
    Can you share with us some of your specific plans to reduce 
not only sexual assault but also to stop the further abuse by 
retaliation?
    General Milley. Well, Senator, as you mentioned, sexual 
assault is just--there is no place for it at all in a 
disciplined military force. 2 years ago, there were, I think it 
was, 24,000 reports of sexual assault. That is an Army corps. 
It is wrong. It is just not acceptable and we cannot accept 
those kinds of casualties. Really that is what they are. 
Victims become casualties. We cannot accept a corps? worth of 
casualties and think we are going to have a ready Army that can 
deal with the threats that were mentioned earlier. It is 
unacceptable.
    The Army has done a lot over the last many years here, and 
there has been some progress. It is not nearly enough, and I am 
fully committed, if confirmed as Chief of Staff, to continue to 
work the entire problem of sexual assault and bring that to 
zero.
    Retaliation is a problem that has recently surfaced in the 
last year or so. I saw the recent study which indicated that 60 
percent of victims report that they have been retaliated 
against, some by chain of command, others by peers. I think 
that by chain of command retaliation, we can get after that 
pretty fast through a variety of tools and holding commanders 
accountable. Peer-on-peer is a little bit more complex, and I 
am going to have to study that to figure out exactly what 
techniques can be used to eliminate peer-on-peer retaliation.
    Senator Hirono. Thank you. This will be an ongoing area of 
concern for many of us on this committee. Thank you for 
whatever can do to improve the situation vastly. Thank you.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chairman.
    Thank you, General Milley. It is great to have you in front 
of the committee today. I want to thank your wife for being 
here as well. Thank you for the support that you have given 
over 34 years or 30 years for your husband. Thank you.
    I will not ask about the National Guard. We have had some 
very in-depth discussions in my office, and I thank you for 
your willingness to work with our wonderful National Guard and 
all of those great young men and women that provide a great 
support system to our Active component members. Thank you for 
that.
    I just wanted to mention we do have--you mentioned the ties 
between our Active component and the Guard, and we do have our 
second BCT [brigade combat team] from Iowa, the Iowa Army 
National Guard, rotating through JRTC [Joint Readiness Training 
Center] right now. We do appreciate that partnership.
    I want to tag on with a little bit on what Senator Hirono 
had also brought up, was the cases of sexual assault in the 
military. I was at the West Point Board of Visitors meeting 
yesterday, and this is a topic that we discussed. You have over 
34 years of experience in the Army, and so you have seen a lot 
of changes through the years. When it comes to sexual assault 
and the way the Army reports this, prosecutes this, we have 
seen some changes in recent years. I would like your takeaway 
from what we have seen just in the last few years. With those 
changes, what do you see? Is it improving? The areas where you 
think we have seen the most impact. If you could just expound 
on that a little bit please.
    General Milley. Thanks, Senator.
    As I mentioned, there has been some improvement. It is not 
good enough, though, but there has been some improvement over 
the last couple of years. We know that the prevalence of 
incidents appears to be down and the numbers of reporting is 
up. It indicates some shift in trust to the chain of command.
    I think the key is to prevent and/or intervene upfront, and 
that comes with a change of culture and fully educating the 
force, a wide variety of training. If an incident does occur, 
though, the first responsibility for that chain of command is 
to protect that victim and then investigate fully with 
professional investigators, CID [Army Criminal Investigation 
Division] investigators, and then hold those perpetrators 
accountable. I think the entire key is within the hands of the 
chain of command, and that is staff sergeants and platoon 
sergeants up through first sergeants and company commanders, 
all the way up through general officers. All of us have to be 
fully engaged in order to get after that.
    A couple of things over 35 years that I have used and seen 
and have emphasized.
    One is the role of the commander, absolutely fundamental. 
An engaged commander makes the difference between success and 
lack of success.
    Second I would say is operate in buddy teams. There is 
great value in operating and using buddy team approaches like 
you would in combat.
    Third is control of the terrain, which is the barracks. We 
cannot necessarily control outside the forts, but we surely as 
commanders can control the barracks. Maintaining good order and 
discipline is fundamental to the barracks. Lastly is alcohol. 
We know that in many, many cases of sexual assault, alcohol is 
a contributing factor. Maintaining good order and discipline 
again in the proper use of alcohol is fundamental.
    I think commanders and the chain of command, the sergeants 
and the captains and the colonels and the generals, are 
fundamental to getting after sexual assault and bringing it to 
an end in our Army.
    Senator Ernst. I appreciate that very much. I do see where 
we seem to have a lower level of incidents. We have a very, 
very long way to go with this.
    One of the points that we raised yesterday at West Point 
with the Board of Visitors is that it is really difficult when 
you have someone like yourself or even me with a lot of gray 
hair standing there telling these young soldiers do not do 
this, do not do this. I think where we can see a lot of shift 
in the culture and the environment is when their peers are 
stepping up and saying do not do it. We have talked about ``not 
in my squad.'' I think that is an important step.
    We have a long ways to go, General. I look forward to 
working with you on this very important topic and protecting 
our sons and daughters as they serve. Thank you very much.
    General Milley. Thank you, Senator.
    Senator Ernst. Thank you, Mr. Chairman.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman.
    General Milley, first I want to commend you on your 
statement. I think it is one of the best statements I have ever 
heard about the role and mission of the Army. It should be 
required reading I think for every member of the Army today.
    One of the questions you answered to the chairman was that 
would you commit to provide your personal views, even if those 
views differ from the administration in power. You said yes to 
that question. I want to underline the importance of that 
question. All of your experience, all of your knowledge, all of 
your wisdom that you have accumulated over the years are of no 
value if you do not share them. You will be operating in the 
highest levels of our Government in a situation that often can 
be intimidating. I want to encourage you to remember that 
question, and when in doubt, speak up. You are where you are 
because of your knowledge and experience, and you have to share 
it and sometimes share it aggressively. I hope you will 
remember that question and remember the commitment you made. I 
think you have a great deal to offer this country, and I just 
want to be sure it gets to the table.
    General Milley. Senator, I guarantee that. I have been in a 
lot of combat, and I will be intimidated by no one.
    Senator King. I believe that, having met you, General.
    A more specific question. Are the Iraqi Security Forces 
willing to fight?
    General Milley. When we left in 2011--I was not there in 
2011 but was there shortly before that--and the Iraqi Security 
Forces were willing to fight. In the years between 2011 and 
today, their chains of command have been decimated and they 
were not getting proper pay and training went down the tubes. 
Bottom line is that if 3 or 4 years go by and you lack 
training, you lack money, you lack equipment, you lack spare 
parts, and most importantly you lack a competent, capable, 
committed leadership, then you can certainly understand why 
units fell apart last year during the ISIS offensive.
    I think there is nothing inherently prohibiting the Iraqi 
Security Forces from a will to fight with the exception of a 
lack of proper leadership. That is fundamental from where I 
sit, and I would like to get a trip over there and talk to our 
commanders on the ground, talk to General Austin, talk to 
General Clark, and others. My assessment is they have the 
potential and the capability to fight, but they must be led 
just like any army must be led to close with and destroy the 
enemies of their country.
    Senator King. It seems to me that when we think about the 
strategic challenges of Afghanistan, Iraq, Syria, the Ukraine, 
all of those are local troops with United States support in one 
way or another. One of the key challenges is how do you teach 
the will to fight. How do you train? Have we learned that? Are 
we at a place where we know what the pressure points are to 
develop, for example, the command mentality that is necessary? 
Because we are in a series of disputes around the world, none 
of which involve directly many, if any, U.S. troops. We are at 
the mercy of how these local people perform. I am wondering 
about the Army's sort of thinking about how to do training. 
That may be one of the most essential tasks that the new Army 
has.
    General Milley. We in the Army think that we do know how to 
develop leaders. The Army does many, many things and does many 
things well, but we definitely produce lots of good leaders 
throughout our force on a day-to-day basis. We know also how to 
do that with other armies, with foreign armies, specifically as 
you mentioned, both Afghanistan and Iraq. We think we can do 
that.
    Well, how do you do that? Leaders have to have confidence 
in their personal skills and their competence. That is 
fundamental. No soldier is going to follow a leader who is 
constantly lost, who is incompetent, who is a cement head out 
there and does not know how to shoot, move, communicate, and 
bring fire on the enemy. No soldier is ever going to follow 
that leader. Competence is key and teaching them the military 
skills necessary at the level they are at.
    The other piece is the leader has to demonstrate compassion 
and love for their soldiers. If they see a leader who does not 
actually care for them, they are not going to follow him.
    The third piece I think is a committed leader, a leader who 
is committed to the cause for which they fight.
    If those three elements are combined together in Iraqi 
leadership at the small unit tactical level and at the 
strategic level, then I think the Iraqi Security Forces have a 
good chance of prevailing.
    Senator King. A year or so ago, Senator Kaine and I were in 
Lebanon, and we saw the training program that involves bringing 
foreign officers to the United States and also providing the 
kind of training that you are talking about. That struck us as 
a very cost-effective technique, particularly bringing them 
here because they get a lot from their peers when they are at 
Fort Benning or at Fort Hood or wherever they are. Is that a 
program that you think should be continued, strengthened, 
emphasized?
    General Milley. Yes, I so, Senator, absolutely. It has been 
valuable in the past over many, many decades with many armies 
around the world, and doing foreign military exchange and our 
education system is value added for foreign armies.
    Senator King. I am a little bit over time, but a very short 
question. How long would it take us to go from a 450,000 back 
to, say, 550,000 if, God forbid, circumstances required it? 
What is the lead time?
    General Milley. Yes, I would have to take that one for the 
record for the analysis and get back to you. I would like an 
opportunity to study that.
    To build a brigade, for example, a brigade combat team, 
call it 3,500-4,000 soldiers--it depends on the type of brigade 
you have. To build that from scratch is about a 3- or 4-year 
period to really get them certified and ready to engage in 
ground combat operations. To regenerate that force from 450,000 
to 550,000--it can be done, but it is not going to be done in a 
very, very short amount of time.
    [The information referred to follows:]

    It would take three to five years to grow the Active component back 
to 550,000 with sufficient funding for incentives and recruitment.

    Senator King. Thank you. Thank you, General.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Wicker?
    Senator Wicker. Thank you, Mr. Chairman.
    General, thank you for your testimony and thank you for 
coming by to see many of us before the testimony.
    I want to ask you about the National Commission on the 
Future of the Army, which was established by the National 
Defense Authorization Act of 2015 [NDAA], and the Army's 
Aviation Restructure Initiative (ARI).
    The National Commission's mandate is to evaluate future 
missions, evaluate the force mix of the total Army, and 
evaluate whether combat aviation assets from the Army National 
Guard should be transferred to the Army.
    I understand from sources within the Pentagon that the Army 
intends to implement certain elements of the Army's ARI as 
early as October 1st of this year. As I expressed to you, 
making these irreversible force structure changes to the Guard 
before we have had a chance to see what the Commission has to 
say about ARI would not be advisable and does not make sense to 
me. The intent of Congress was clear. There should be no 
transfers of helicopters away from the Guard until Congress 
receives and reviews the findings of the Army Commission.
    As such, I would like to know your opinion of the ARI plan, 
which would remove all combat aviation from the Army National 
Guard. Do you support halting transfers of helicopters away 
from the Guard until the Army Commission reports back in 
February of next year?
    General Milley. Thanks, Senator.
    It is my understanding that the transfer by October is in 
accordance with last year's 2015 NDAA, and the 2016 NDAA and 
the one that is under debate right now is the one that is 
talking about halting them. The Army is actually executing 
their last written order, which was last year's authorization, 
as I understand it. I will look into that, though.
    As far as do I support it or not, there are puts and takes 
to this ARI thing. I think the National Guard has some good 
points. The National Guard makes some points that they are 
concerned that it is a slippery slope. I am going to take 
combat capabilities away from them and they will not be able to 
be the strategic and operational Reserve. Fair enough.
    There are also key points on the Army side. One is fiscal. 
There is a billion-dollar a year savings and $12 billion over 
time. I think that is not insignificant given the current 
crunch with sequester, et cetera. Most importantly, I think 
there is a readiness issue. If we do not execute this ARI, then 
I think three of the divisions, the 1st Infantry Division, the 
10th Mountain Division, 25th Division in Hawaii, are not going 
to have armed reconnaissance capability, and we are going to 
blind 3 out of the 10 Active Duty division commanders with 
inability to be able to see a battlefield if they were thereby 
committed.
    On balance, I would favor the transfer. However, I am going 
to await the results of the Commission and I am going to pay 
attention to their recommendations very closely. I will remain 
continually engaged with the Guard and try to do the right 
thing for the total Army.
    Senator Wicker. Well, I am glad to know you are going to 
await the findings of the Commission.
    I would just say to you a couple of things.
    From my conversations with many of our people in the Guard, 
they believe that for many of the States, such as Mississippi, 
our program would be set back for a decade. It would take us 10 
years to get over the loss of these Apaches, and I think would 
do great harm to what we have had over the past, and that is 
that the Active Army and the National Guard units have operated 
seamlessly as one team since September 11 and it has been good 
for the country. I think it is unfortunate that policy fights 
and distrust between the Guard and Active Army have become 
prevalent over the past five years.
    What is your assessment of the current relationship between 
the Army and the Army National Guard? Will you acknowledge that 
the relationship has deteriorated to a point where actually it 
is unseemly?
    General Milley. Well, Senator, as Commander of Forces 
Command, I deal with the National Guard and the U.S. Army 
Reserve on a frequent basis. I am coming at this from an 
operational force point of view, from the fielded forces. I do 
not see that friction in the fielded forces. We train together. 
We operate together. We have partnerships together. I have 
commanded National Guard forces in both Iraq and Afghanistan.
    Senator Wicker. You do not see that in the field.
    General Milley. I do not see that in the field. That is 
correct.
    Senator Wicker. You see it here in the city, do you not?
    General Milley. Maybe some things happen when people come 
to Washington, DC. I do not know. Perhaps there is tension----
    Senator Wicker. I have heard that.
    General Milley. As I understand it, there is tension here 
amongst some of the senior leaders. I will work, along with 
General Grass and General Kadavy, to patch up whatever issues 
there are.
    From a personal perspective, I think there is one Army. 
That is it. There is one Army. We all wear the same uniform and 
it says U.S. Army on our chest, and that is the way we have to 
approach it. The U.S. Army cannot conduct combat operations in 
a sustained way overseas without the use of the National Guard 
and the Reserve. We just cannot do it. We can do short-term 
operations, but sustained ops cannot be done without the Guard 
and Reserve. It is one Army. They are critical to our success.
    Senator Wicker. Well, thank you very much for that. This 
conversation will continue. We had it privately in my office. 
We are discussing it publicly today. I think we can acknowledge 
that the National Guard is a very integral part of what your 
mission will be. I hope these issues can be resolved in a 
mutually satisfactory manner.
    Thank you very much for your service.
    General Milley. Thanks, Senator.
    Chairman McCain. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    General, thank you and your family for all you have done 
for our country. Thanks for taking the time to come to my 
office. I just wanted to follow up on that discussion.
    In regards to military suicides, we talked about the 
importance of pushing situational awareness down the chain of 
command. When I met with the Israeli Defense Forces, they said 
what was critical in reducing suicides was pushing it down the 
chain of command so the squad leader, the platoon leader, who 
could identify it right on the spot, could help. I was 
wondering what your plans are to make sure that at the squad 
level, the platoon leader, the leaders of those squads and 
platoons are aware of the challenge and are ready to try to 
help in eliminating it.
    General Milley. Thanks, Senator.
    I have been in command a lot, and suicide is a horrible, 
tragic thing to see in a unit. The effects, obviously, on the 
family, the unit, et cetera are just like you would have a 
killed in action in combat. It is terrible. It is horrible.
    I think in terms of how we get after it, situational 
awareness is key. Because the Army has done a lot over the last 
couple years to increase situational awareness of the signs and 
the symptoms and then the techniques of intervention, our 
numbers have dropped considerably in suicide. That is one point 
is to continue sustaining and actually increasing situational 
awareness.
    The second is to continue to reduce the stigma. Behavioral 
health, mental health--my view is there but for the grace of 
God, go I. The human psyche is a very fragile thing, and any 
one of us, regardless of how many patches or Ranger tabs or 
anything else anyone has, is not so hard, not so tough that 
they cannot break under a certain, correct combination of 
stressors and pressures. We have to be alert to those signs and 
symptoms, and we have to reach out and be literally our brother 
and sister's keeper.
    That attitude has to happen throughout the force. It has 
happened considerably better than it was in previous years. In 
the last few years, it has improved significantly, and that is 
what I think is contributing to the reduction in suicides is 
the increase in situational awareness, the reduction of stigma, 
and then the intervention on the part of junior soldiers at the 
most junior level.
    Senator Donnelly. Well, I would encourage you in your new 
position to really birddog this and to make sure that the squad 
leaders and the platoon leaders know, hey, let us know if you 
see something going sideways for one of the guys, one of the 
men and women, let them know there is no stigma and that they 
should get help. I know you will do that.
    I wanted to switch to Iraq. I was there recently, met with 
your folks, our whole team. It was right before the push into 
Ramadi and Fallujah began. The discussion was just as you said. 
It is a question of good leadership for the ISF, the Iraq 
Security Forces. As opposed to this plan or that plan, I would 
love to hear your unvarnished advice on what you think our role 
should be in helping the ISF, the Iraqi Security Forces, get 
their leadership back together. What can we do best to help 
them do that?
    General Milley. Senator, I would like also the opportunity 
to get over and visit and talk to the guys on the ground to 
answer that question in a more informed and holistic sort of 
way.
    Based on what I know now and my own experience in both Iraq 
and Afghanistan, there is a wide variety of things we need to 
and should do to help the Iraqi Security Forces in our ``advise 
and assist'' levels of effort. As I understand it, the 
constraint right now is not so much on what we are doing, but 
on the amount of trainees the Iraqi Security Forces are 
providing for our trainers to do. Maintaining a robust train, 
advise, and assist effort, Security Forces assistance effort, 
with the Iraqi Security Forces over a considerable length of 
time is going to go a long way to shoring them up.
    What Senator McCain mentioned earlier about JTAC's [joint 
terminal attack controller] forward I think is something that 
should be seriously considered to improve the effectiveness of 
the enablers, the close air support that is being provided. I 
think advisors going forward with units again is something that 
should be seriously considered. However, there are lots of 
issues with that with security of our people and the risk 
associated with it, et cetera.
    Bottom line is there are things we can do. I would like an 
opportunity, though, Senator, to talk that over with commanders 
on the ground and give you a more informed answer at a later 
date.
    Senator Donnelly. Great.
    I am about out of time. I would just ask you to remember in 
regards Iraq--and I know you will--when you said the Army's 
mission is to win. We have to win there too in order to have 
success in Syria and to help the Iraqi Forces have that kind of 
leadership.
    The last thing I will say is our Article 5 responsibilities 
under NATO [North Atlantic Treaty Organization] with Latvia, 
Estonia, Lithuania. In Korea, their motto is ``fight tonight.'' 
We have to make sure we have the same kind of readiness in 
those areas because we have the same obligations to those 
countries. They have said they would stand with us. We need to 
do the same for them.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Tillis?
    Senator Tillis. Thank you, Mr. Chairman.
    General Milley and Mrs. Milley, congratulations. Thank you 
for your service.
    General Milley, I want to start maybe with going back to 
something that the chairman mentioned in his opening comments. 
Incidentally, I am sorry I had to step out. I have a competing 
committee meeting over in Judiciary that I have to go back to.
    We have sequestration, which I think to a person we all 
recognize is devastating. We have to get rid of it. It is bad 
policy. It should have never been implemented.
    What are your thoughts, though, about ways that we can save 
money? In new your position--and I look forward to supporting 
you in this nomination. What areas in your opinion do we have 
the opportunity to bend the cost curve or increase 
productivity, and how would you go about doing that in your new 
role?
    General Milley. I think there are at least three areas that 
should be seriously considered. Senator McCain has already 
referenced them. One is I think we have to take a hard look at 
overhead. The Army, but not just the Army, the military across 
the board, all the services, to include Department of Defense 
are a very, very large organization with a big bureaucracy with 
a significant overhead.
    Second is acquisition. As already previously mentioned, 
there is a considerable amount of cost, and in many cases 
waste, in the acquisition process. We need to get that under 
control.
    A third and final piece that I think is worth taking a look 
at, there is a wide variety of emerging technologies that 
could, in the out-years, 15-20 years from now, lend itself to 
automated processes and reducing either manpower or manpower 
costs, compensation costs, over time.
    Those would be three pretty big areas that I would want to 
take a look at if confirmed.
    Senator Tillis. Thank you.
    We have Russia creating a looming threat in Europe. We have 
the Pacific and China's expansion or, I should say, increased 
activities there. We have the ongoing war in the Middle East, 
the fight against Islamic extremism.
    General Odierno, I believe said that a 50-brigade Army 
should be adequate to keep these threats in check. Now we are 
on a trajectory for about a 33-brigade Army. Do you think that 
managing or facing those threats is possible with a 33-brigade 
Army?
    General Milley. Senator, are you talking Active brigades? 
Are you talking the total Army brigades? Because right now, 
total Army, we have 60 brigades today. We have 32 in the Active 
component today. The plan that was announced a week or 2 ago 
will take us down to 30 brigades, Active component, and we will 
lose 2 out of the Guard. The bottom line is----
    Senator Tillis. That was the Active, the 33 brigades.
    General Milley. I think from a total Army perspective, we 
have adequate capacity, numbers, of brigade combat teams to 
handle the contingencies that are currently on the books. If we 
do not drop below the 980 force, we have adequate capacity, 
size, but that is with significant risk. That risk is incurred 
in terms of time, the time to the fight, the time to mobilize 
Guard units, the time to get them trained, certified, et 
cetera, and get them to the fight. Then it is also significant 
risk and potential casualties.
    The second piece is not just capacity but capability, the 
readiness of the force and how capable it is to handle that 
type of fight, which is a different fight than what we have 
been dealing with for the last decade and a half.
    We have got a ways to go in terms of improving our 
readiness with respect to the higher end type of combat 
operations.
    Senator Tillis. General Milley, I just want to close by 
saying I look forward to you being in this role. You were one 
of the first people to reach out to me back before I was even 
sworn in to offer information and help me ramp up. You were 
very generous with your time when I spent several days down at 
Fort Bragg, and you have been up here several times. I know you 
to be a very approachable, direct person. I think you are going 
to be a great addition as the Chief of Staff.
    Thanks again to you and your family.
    Chairman McCain. Senator McCaskill?
    Senator McCaskill. Thank you, Mr. Chairman.
    General, thank you. As everyone has expressed, we 
appreciate you coming by our offices and a chance to visit one 
on one, and I certainly appreciated that.
    I want to talk about the cuts and sequestration and the 
issue that we have in front of us in the next 90 to 120 days 
here in Congress.
    The installation-level cuts that the Army announced earlier 
this month are based, of course, on us shrinking to 450,000 
soldiers. As you know and have talked about this morning, there 
is a significant risk that these cuts will not be the last. If 
Congress does not provide some relief from sequester-level 
caps, the Army will be forced to cut an additional 30,000 
Active Duty soldiers.
    This year, the Republicans are attempting to get around the 
statutory budget caps by using the Overseas Contingency 
Operations, or the war fund, which does not have to be paid 
for. It can be put on a credit card. Would you buy back force 
structure using this war fund?
    General Milley. Senator, we would prefer, if possible, the 
budget be in the base. As the recipient of the money, we will 
take the OCO if that is the only mechanism that we can in order 
to sustain readiness, end strength, and modernization.
    Senator McCaskill. Let me ask one that I think is even more 
difficult because then it kind of tramps on whether or not the 
OCO is being used appropriately because there is also an 
obligation you have to only use the Overseas Contingency fund 
for what it was designed to be and that is, an off-the-budget, 
unpaid-for, on the credit card to be used in an emergency for 
the purposes of a contingency operation. That is why it is 
called the Contingency Operations.
    In your advance policy question for this hearing, you noted 
that our technological advantage over current and potential 
adversaries are at risk. We invested in the base budget in 
technology and research for decades to get us to the point that 
we are today where we are the most technologically force in the 
world. If we want the young men and women we will send to war 
in the future to have the same advantages that the men and 
women have today with our technological superiority, can you 
make long-term research and development investments using a 
fund that was designed only to apply to a contingency?
    General Milley. I would have to get back to you on the 
actual legal use of that fund relative to long-term research. I 
think the answer would be no. I think OCO funds are 
specifically targeted to named operations, overseas contingency 
operations. I would have to get back to you to see if that 
could be used. I do not think it could, but I will check and 
get back to you, Senator.
    [The information referred to follows:]

    No. Legally, we can only use OCO funds in this manner if 
appropriated for this purpose by Congress. Current OCO rules and 
practices stipulate that research and development funds are for 
projects required for combat operations in the theater that can be 
delivered in 12 months. In this context, 12 months is considered to be 
a short-term effort.

    Senator McCaskill. The frustrating part of this is the only 
difference between the commitment to put this $40 billion in 
the budget between my friends and colleagues and us on this 
side of the aisle is the willingness to acknowledge that we are 
spending the money, is the willingness to say this belongs in 
the base budget, let us put it in the base budget, let us not 
use an artifice, a gimmick, phoniness, to pretend that somehow 
we are not making an investment in the base needs of our 
military but rather in an overseas contingency operation.
    It remains a great frustration to me and one that I am 
hopeful that we can work out so that we do not go down this 
path and create this precedent that I think is very dangerous 
for the long-term stability of our military and you all's 
abilities to do your jobs in terms of planning and coordinating 
and having what you need going forward. I just think it is a 
very, very irresponsible precedent.
    On sexual assault, I know that several members have talked 
about it to you already. I do want to mention I know you are 
getting after the retaliation. I will continue to monitor that.
    I want to mention briefly at the end of my time the 
incredible training that is going on at Fort Leonard Wood for 
the investigators of sexual assault. This is a special set of 
training that must occur, and I would like your commitment. The 
forensic experimental trauma interview is now being trained 
throughout the military and frankly in the civilian world. The 
expertise that has been developed at the fort on this is 
unparalleled in terms of how you get after a sexual assault 
investigation, particularly interviewing a victim. I would like 
your commitment to familiarize yourself with that training and 
a commitment that you will continue to fight for the adequate 
funding so we can actually get these perpetrators behind bars 
so they are not, in fact, besmirching the amazing and wonderful 
military that we have in this country.
    General Milley. I will absolutely take a deep look at that. 
As I understand it from reports I have, it is the best practice 
and it leads the Nation in its skills.
    Senator McCaskill. It does. It does, in fact.
    My thanks to you and your family for your service.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    General Milley, good to see you. Thank you for your 35 
years of service and to your family who I know has sacrificed a 
lot.
    I wanted to talk--I have a number of questions, as you can 
imagine--about the Army's decision to cut 40,000 troops 
recently. I know that you were not in the ultimate 
decisionmaking but you are going to be tasked with implementing 
this and maybe relooking at it. I would appreciate some of your 
thoughts and views.
    You know, General Dunford last week talked about the 
importance of the military and DOD [Department of Defense] 
focusing on and implementing the defense guidance from the 
Congress. I gave examples of if the CNO [Chief of Naval 
Operations] was told by Congress 11 carriers we need or the 
Chief of Staff of the Air Force, we need A-10s, even though the 
service does not like it, they do it.
    One of the things that I am concerned about is in the 
current NDAA, we have a lot of focus on the Pacific rebalance, 
and there is very strong language, very directive language. The 
U.S. forces under the OPCON [Operational Command] of PACOM 
[U.S. Pacific Command] should be increased. Any withdrawal of 
the U.S. forces outside the continental U.S. Asia-Pacific 
region would therefore seriously undermine the rebalance. A lot 
of focus on the rebalance. It was put in there to provide 
credibility to strategy that this Congress bipartisan supports.
    I have been quite concerned that the Army's decision pretty 
much ignores this. With all due respect to Senator Hirono, I do 
not think the decisions were inevitable. As a matter of fact, I 
think that what was just announced takes a huge chunk, not only 
increasing forces, not only keeping them the same, but dramatic 
increase. As a matter of fact, of the 40,000, a huge proportion 
was from the Asia-Pacific region.
    The idea of fighting tonight, maintaining the rebalance--I 
think it is all undermined. I think it is dramatically 
undermined. I think our allies are going to see it undermined.
    Do you think that the President's rebalance strategy has 
been undermined by dramatically reducing forces despite this 
Congress' defense guidance to the Department of Defense to not 
do that?
    General Milley. I do not think it has necessarily been 
undermined, Senator. From an Army perspective, about 20 percent 
of the Army's combat power is in the Pacific, even with the 
reductions.
    More to your point, though, I agree that the Sense of 
Congress should absolutely inform decisionmaking, and we should 
take that seriously and I think we will.
    Senator Sullivan. It does not look like you did in this 
case.
    General Milley. Well, as you know, I was not in this----
    Senator Sullivan. I know. Again, General, I have the utmost 
respect for you. I am talking about the Army's decision which 
now you are going to have to defend. The Department of Defense, 
the Army did not--did not--abide by the defense guidance of 
Congress. Period. If they read that NDAA amendment.
    General Milley. I will take a hard look at the entire 
issue, and I look forward to working with you on it. I do 
think, Senator, that the Army has substantial capabilities 
committed to the Pacific.
    Senator Sullivan. They have been significantly increased in 
the last 2 weeks, according to this decision. The only airborne 
combat brigade in the entire Asia-Pacific has now been gutted.
    General Milley. I would say that the airborne brigade was 
brought down to a battalion task force with the specific intent 
and design that it could be reversed if funding becomes 
available over the next couple of years. That brigade does not 
go to a battalion, I do not think, until late 2016 or 2017. It 
is designed to go to a battalion task force with the intent of 
reversing it if funding is made available.
    Senator Sullivan. Do you think our allies were supportive 
of this? I mean, the idea of fighting tonight in Korea--that 
BCT was the Reserve cavalry for any contingency in Korea that 
can get there in 7 hours, a very capable, mountain, cold 
weather unit. Do you think that our capability in Korea has 
been decreased by this decision?
    General Milley. The Army, Marines, both have significant 
ground capabilities that are positioned throughout the 
continental United States, Hawaii, Alaska, Fort Lewis, 
Washington, and Okinawa that can respond. We think that it is a 
capable response to mitigate the threat given the current 
situation.
    Senator Sullivan. Mr. Chairman, I will have more questions 
in the second round. Thank you.
    Chairman McCain. Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman and Mr. Ranking 
Member, for this hearing.
    Thank you so much, General Milley, for your service. Thanks 
to your family. You have done extraordinary things, and I am so 
grateful that you are continuing to serve our country.
    I want to talk a little bit about combat integration. I 
want to 
applaud the Army for taking steps towards eliminating combat 
exclusion policies for women by opening up over 20,000 combat 
engineer and associated skill positions to female soldiers in 
June.
    As you look at the positions that still remain closed, what 
reasons might there be for the Army to ask for an exception to 
policy for a position?
    General Milley. The only reason at all, Senator--and there 
has been no decision yet, but everything revolves around 
standards and readiness. The military occupational specialties 
that remain closed currently are infantry armor, some forward 
observers in the field artillery, and then special operations, 
special forces.
    There is a gender integration study ongoing right now by 
Training and Doctrine Command. There is a similar study ongoing 
by the Marines. They are both crosswalking their data. I expect 
to see that information, if I am confirmed, probably in 
September/October and will have to make a decision or a 
recommendation to the Secretary of Defense whether to seek a 
waiver or not. I will take a hard look at all that data and 
make that call at that time.
    Senator Gillibrand. Well, we have seen the success of the 
cultural support teams in Afghanistan and how vital women were 
to those missions to gather vital intelligence as to where 
terrorists were, where weapons were being housed from women and 
children in those homes. I do hope you will focus every effort 
to make sure our best and brightest and all of our best and 
brightest are serving.
    I was concerned about the recent news regarding the eight 
women who failed the first phase of the Army Ranger School for 
the second time due to their inability to accomplish 
subjectively evaluated leadership tasks. These women were 
already officers, ranging from captains to majors with years of 
leadership experience. Why do you think that class of women--
why do you think these women were in such a historically high 
attrition rate? Do you find it alarming that the U.S. military 
academy at West Point is graduating leaders who, after 5 to 6 
years of service, are not able to complete leadership tasks 
that are successfully accomplished by specialists and private 
first classes?
    General Milley. Senator, Ranger School is a very, very hard 
course, male, female, no matter who you are. That is a hard 
course with a high attrition rate. The women that failed--one 
of the key tasks that they failed were patrolling tasks, 
leadership skills, which because they are not in the infantry 
already, they have had a limited opportunity to train to those. 
I expect that those skills would improve over time. Right now 
we have three women who are in the mountain phase, as of 
yesterday anyway--still in the mountain phase of Ranger School, 
and we are observing that to see how that goes.
    The broader issue of women in the infantry, women in armor, 
et cetera--again, there is a very detailed study going on. I 
want to take a hard look at all that and make sure that the 
standards are being met in the readiness force.
    As to whether women can fight or not, there is no doubt. I 
have seen it personally, up close and real. There is no doubt 
in my mind that women can engage in ground combat with the 
enemies of our Nation because they have done it. They have been 
doing it for 10 years.
    Senator Gillibrand. I also want to associate myself with 
the remarks from Senator Ernst, Hirono, and McCaskill about 
sexual assault in the military and how important it is for this 
committee that we solve that problem.
    I do want to just note one thing from your testimony. 
Retaliation is not a new issue. In fact, we have been measuring 
retaliation over the last several years because of our DOD 
surveys. One of the biggest challenges we have and why Senator 
McCaskill raised it is this year's survey--62 percent of 
survivors were retaliated against, perceived retaliation, 
because they reported these crimes. That is the same statistic 
as 2 years ago. It is the same as the 2012 survey. We have a 
real challenge here with retaliation.
    To be clear, the retaliation is fairly diverse. 62 percent 
is--53 percent is social retaliation, peer-to-peer. 35 percent 
is administrative action. 32 percent is professional 
retaliation. 11 percent is punishment for an infraction. If you 
look at all those factors, 35, 32, and 11, arguably more than 
half of the retaliation is through the chain of command. Please 
do study that because there is an issue of perception by female 
members of the military of discrimination. They said in 60 
percent of sexual harassment cases and sexual discrimination 
cases, it came from the immediate commander. You are talking 
about unit commanders who are perhaps creating a toxic climate. 
That command climate really needs to be looked at aggressively 
to make sure that these female soldiers know that they can 
succeed and that their immediate supervisor does not have it 
out for them.
    General Milley. I will make that a focus area, Senator.
    Senator Gillibrand. Thank you.
    Chairman McCain. Senator Lee?
    Senator Lee. Thank you, Mr. Chairman.
    Thank you, General Milley, for your service to our country 
and for your willingness to be considered for this position.
    I really enjoyed our visit last week when we met and 
enjoyed getting to know you a little bit better.
    I want to first join my colleagues in condemning the 
deplorable attacks against our servicemembers in Chattanooga 
last week. I pray for the friends and family members and the 
colleagues of the five servicemembers who lost their lives, and 
I pray for a quick recovery for those who were injured.
    The attacks in Chattanooga last week were the latest in a 
string of deadly assaults on military personnel in facilities 
in the United States, including Fort Hood and the Navy Yard, as 
well as a number of attacks that were planned but that, quite 
fortunately, were disrupted before they could be carried out. 
In the coming months, I hope our military leaders and Congress 
can work together and work in an efficient, effective manner to 
figure out how we can better protect our men and women in 
uniform from these types of attacks in the future.
    One of the concerns that I have heard repeatedly from 
servicemembers in Utah and elsewhere is that they feel 
inadequately informed by military leadership about some of the 
persistent threats against themselves, their families, and the 
facilities where they happen to work. They see threats on the 
news or through social media, but they do not feel like they 
have been given enough information about what is being done to 
protect them or proper guidance on how to protect themselves at 
or away from their workplace.
    General, what is your assessment of how such information is 
being disseminated through the Army and, if confirmed, what you 
might do to improve the effectiveness of information and 
guidance that is coming from Army leadership on these threats 
to our Homeland and to our servicemembers in particular?
    General Milley. Senator, unfortunately, in today's world, 
there is no rear area in this battle against the terrorists of 
ISIS or any other terrorist organization. The rear area of the 
United States is, in fact, vulnerable, and we have to do a 
better job at making sure that vulnerability assessments, 
information awareness is out there with our soldiers and their 
families. There is no doubt in my mind we have to increase that 
throughout the force, throughout the total Army, and indeed, 
throughout the entire military, those things like what to look 
for, signs, indicators of warnings, of reconnaissance and 
surveillance by the enemy, by the terrorists on a particular 
compound or against a particular person.
    Unfortunately, though, a lot of these type of attacks are 
very ambiguous. This one in Chattanooga may or may not have had 
recon ahead of time or any kind of indicators ahead of time, 
may or may not have been a lone wolf. We do not know yet. It is 
too early in the investigation. A lot of times, these things 
are very ambiguous. Both active and passive defensive measures 
at all of our installations, with all of our families, with all 
of our soldiers, sailors, airmen, and marines is going to be a 
necessary requirement in the current environment.
    Senator Lee. Thank you. I appreciate your insight on that.
    I next wanted to follow up on some questions that Senator 
Wicker asked and some comments that he made.
    Among the most contentious issues in this committee over 
the past 2 years has involved the Army's Aviation Restructuring 
Initiative. Now, I understand the Army has been put in a 
difficult position by budget reductions, and over the past 
several years has been exploring a number of options to 
maximize combat power while at the same time figuring out how 
to cut costs.
    Congress has similarly been taking a hard look at this, 
which is why the Commission on the Structure of the Army was 
established in the NDAA.
    If confirmed, will you commit to thoroughly reviewing the 
Army's Aviation Restructuring Initiative and working closely 
with Congress, once the Commission report is delivered next 
year, to help us figure out the best path forward on 
restructure issues?
    General Milley. I absolutely will, and I look forward to 
reviewing that Commission report.
    Senator Lee. What do you think are the biggest threats 
that, should you be confirmed, you will have to prepare the 
Army to address in the coming decade?
    General Milley. I think the Army's fundamental mission of 
engaging in ground combat, winning in ground combat--I think 
that mission remains sound, and I anticipate that mission will 
remain so in the future.
    Senator Lee. The three key tasks in the national security 
documents that are out there is to assure our allies, deter 
opponents, and if necessary, fight and win on the ground. All 
of those are going to be challenges in the years ahead as we go 
forward.
    Thank you very much. I see my time has expired. Thank you, 
Mr. Chairman.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    General, you talked about budget constraints and looking at 
ways to reduce those. One that you did not mention is making 
sure there is no overlap in terms of core competencies and 
missions. I am assuming you think a core competency of the 
Army--I certainly do--is the airborne brigade task force, the 
ability to deploy anywhere on a moment's notice, kick in the 
door.
    General Milley. Airborne operations are a core competency 
in the U.S. Army. That is correct.
    Senator Sullivan. One of the things that I have been 
somewhat concerned about is when you look at the Army's Pacific 
Pathways mission--my office has been asking the Army for weeks 
now on what the costs of that are. We have not been able to get 
any answers on that. To me, do you see the value, in terms of 
our Nation's defense, of BCT with regard to the Army or putting 
soldiers on naval shipping with helicopters and doing 
expeditionary maneuvers throughout the Pacific? What is a 
higher value for the Army?
    General Milley. I think they are both of value to the Army. 
I do think that Army forces on shipping and moving them around 
the Pacific has been done really for over a century. That is 
how the Army moves, by air and by ship.
    Senator Sullivan. You do not see that as redundant to the 
Marine Corps' mission in the Asia-Pacific?
    General Milley. No, not at all. The reason I say that is 
because they complement each other, but the Marine Corps core 
competency is amphibious assault not just movement by sea. What 
we are really talking about for Pacific Pathways is the 
strategic movement of Army forces over the ocean. We are not 
using any gray hulls anyway to do that. We are using black and 
green hulls to do that.
    Senator Sullivan. If you had to choose, though, in austere 
budget times, would the Army want to focus on airborne core 
competencies or a mission that in some people's view looks 
somewhat redundant to another service's?
    General Milley. Well, frankly, Senator, the Army has to do 
both.
    Senator Sullivan. No, but I am just asking if you had to 
choose. In this kind of austere budget, you have to choose.
    General Milley. We have to be able to do both. We have to. 
We do not have a choice. We have to maintain both capabilities, 
forced entry capability for vertical insertion airborne 
assault, and we have to be able to move forces, both air and 
sea, to reinforce in a variety of contingencies.
    Senator Sullivan. We would appreciate it--I would 
appreciate if we can get some numbers on the Pacific Pathways 
in terms of costs.
    General Milley. Sure, absolutely.
    [The information referred to follows:]

    The Army plans to conduct three Pathways per year, with a projected 
estimated total cost of $45 million per year or an estimated average 
cost of $15 million per Pathway.

    Senator Sullivan. I want to turn to another issue, kind of 
emerging threat issues. You and many others who have testified 
have talked about Russia as a principal threat, and certainly 
that is the case in the Ukraine.
    I want to emphasize and talk a little bit more about the 
Arctic. You have probably seen in the last just few weeks there 
have been articles. I just got this in the airport today. 
Russia has made military buildup in the Arctic a strategic 
priority. There is article after article about the Russians 
moving huge force posture, huge force structure, four new BCTs, 
big operations that nobody is even aware of that are taking us 
by surprise all through the Arctic.
    You have probably seen this map that has new airfields, 11 
new airfields, 40 Arctic icebreakers, some nuclear-powered. The 
United States has these forces here. That is it. This recent 
decision we are going to remove a key capability of these and 
we have this as our strategy. This is the 2013 DOD Arctic 
Strategy. It mentions climate change five times and in a 
footnote mentions Russia. This is a joke of a strategy.
    I think during our deliberations for the NDAA, the Congress 
recognized that this is a serious issue, a serious new threat 
environment. We had an amendment that came through the NDAA 
that focused on our interest in the Arctic, the need for a much 
broader assessment, for a much more serious look in terms of 
OPLANS [Operation Plan in Complete Format], in terms of a 
military strategy. That passed unanimously.
    What I was wondering, when you look at--so the Secretary of 
Defense has to put forward this strategy within the next year. 
Our most capable Arctic forces, before we even do the analysis, 
before we do the planning, before we do the OPLAN, we are going 
to remove the most capable, indeed the most lethal Arctic 
warriors that we have. General, it takes a long time to become 
proficient in the Arctic.
    I am wondering what your thought on that is, and if 
confirmed, I think it make sense to do the analysis first, to 
do the OPLAN first, to do the strategy first before we move any 
force structure. Would you commit to work with this committee 
to hold off on moving Arctic forces, particularly given the 
dramatic threat increase until after the Secretary of Defense 
and others have put together an Arctic Strategy, has defense 
guidance from this committee and this Congress? Do you think 
that that is the most logical way to do the planning?
    General Milley. I appreciate that, Senator. I agree with 
you. I think that having an OPLAN first and then figuring out 
your task organization second is the right sequence, and I 
think that is in fact what is about to happen. I think as you 
already mentioned, the Arctic OPLAN, the Arctic Strategy is 
going to get reviewed by OSD [Office of the Secretary of 
Defense], and General Dunford mentioned that the other day.
    Senator Sullivan. Well, there is no OPLAN [Operation Plan 
in Complete Format]. There is no strategy unless you want to 
call this a strategy. I mean, there is a lot of work that needs 
to be done.
    General Milley. There is a lot of work that needs to be 
done, and it is under review, as I understand it. I think you 
asked General Dunford to produce an OPLAN, and I think he 
committed to doing that and I look forward to participating in 
that and will work with that over the course of the next year.
    The forces in Alaska do not get reduced, according to the 
decision I think I heard, until end of 2016 and 2017. An OPLAN 
first, reduction of forces second if still required. I will 
work with you on that.
    Senator Sullivan. Good, because to me, again, I think it 
makes strategic sense to put together the plan, see what the 
combatant commanders need in terms of troops, see what the new 
threat level is, and then make the plan on troop levels once 
you are informed by a real strategy, not a 13-page document. 
Thank you.
    Chairman McCain. General, I just would like to say that 
Senator Sullivan raises this whole issue of the Arctic and the 
recent Russian moves in that region. We need to pay a lot more 
attention to it. We see our friends in Norway, in particular, 
but also Sweden, Finland, those nations there that are 
experiencing things like Russian overflights and Russian 
submarine activities and other--I believe that the Russians 
have--what is it, Senator Sullivan, 50-some icebreakers?
    Senator Sullivan. Close to 40.
    Chairman McCain. Close to 40 icebreakers. I think we have 
one. Is that correct?
    Senator Sullivan. Yes, sir.
    Chairman McCain. We have got a very full agenda, but the 
Arctic I think is another area that we have to be concerned, 
particularly given Russian behavior. Even Sweden, which is 
traditionally, as we know, a very neutral nation, has become 
extremely concerned about Russian activity in their territorial 
waters. As we see climate change--as we see areas of the Arctic 
opening up to being areas of navigation, this is an area that I 
hope we will spend some time on. I thank Senator Sullivan for 
his attention and involvement in what is, I view, a looming 
situation with Russia.
    I thank you, General.
    The committee is adjourned.
    [Whereupon, at 11:21 a.m., the committee adjourned.]

    [Prepared questions submitted to Gen. Mark A. Milley, USA 
by Chairman McCain prior to the hearing with answers supplied 
follow:]

                        Questions and Responses
                            defense reforms
    Question. Do you see the need for modifications of any Goldwater-
Nichols Department of Defense Reorganization Act of 1986 provisions?
    Answer. I do not currently anticipate the need to modify the 
Goldwater-Nichols Act of 1986.
    Question. If so, what modifications do you believe would be 
appropriate?
    Answer. I do not currently anticipate the need to modify the 
Goldwater-Nichols Act.
                       duties and qualifications
    Question. Section 3033 of title 10, United States Code, establishes 
the responsibilities and authority of the Chief of Staff of the Army.
    What is your understanding of the duties and functions of the Chief 
of Staff of the Army?
    Answer. The Chief of Staff of the Army is the senior military 
advisor to the Secretary of the Army and the senior military officer of 
the Army. In addition to his role as an advisor, the Chief of Staff is 
responsible for the effective and efficient functioning of Army 
organizations and commands in executing their statutory missions. The 
Chief of Staff also performs the duties prescribed for him as a member 
of the Joint Chiefs of Staff under section 151 of title 10.
    Question. Assuming you are confirmed, what duties do you expect the 
Secretary of the Army to prescribe for you?
    Answer. If confirmed, I would serve as the senior military advisor 
to the Secretary of the Army and the senior military officer of the 
Army and all its components. I would expect the Secretary of the Army 
to assign me the following duties:

    (a)  Preside over the Army Staff;
    (b)  Transmit the plans and recommendations of the Army Staff to 
the Secretary of the Army and advise the Secretary of the Army on those 
plans and recommendations;
    (c)  Act as the agent of the Secretary of the Army in carrying into 
effect the plans and recommendations of the Army Staff that the 
Secretary of the Army has approved;
    (d)  Perform other duties assigned by the President, Secretary of 
Defense or the Secretary of the Army;
    (e)  Represent the Army in areas related to my functions and 
responsibilities, including to the public and the Department of Defense 
as the Army's military representative to appropriate Department of 
Defense councils;
    (f)  Communicate and advocate for Army policies, plans and programs 
to external audiences, including Congress, interagency partners, 
foreign governments, nongovernmental organizations and the public;
    (g)  Assist the Secretary of the Army in fulfilling his compliance 
functions, including directing the Inspector General to perform 
inspections and investigations as required; and
    (h)  Assist the Secretary of the Army in the performance of the 
following acquisition related functions:
        a.  The development of requirements relating to the defense 
acquisition system;
        b.  The coordination of measures to control requirements creep 
in the defense acquisition system;
        c.  The development of career paths in acquisition for military 
personnel; and
        d.  The assignment and training of contracting officer 
representatives when such representatives are required to be members of 
the armed forces because of the nature of the contract concerned.
    (i)  Serve as a member of the Joint Chiefs of Staff and provide 
independent military advice to the Secretary of Defense, Congress, 
National Security Council and the President. To the extent such action 
does not impair my independence in my performance as a member of the 
Joint Chiefs of Staff, I would keep the Secretary of the Army informed 
of military advice that the Joint Chiefs of Staff render on matters 
affecting the Army. I would inform the Secretary of the Army of 
significant military operations affecting his duties and 
responsibilities, subject to the authority, direction, and control of 
the Secretary of Defense;
    (j)  Represent Army capabilities, programs, policy, and 
requirements in Joint forces;
    (k)  Supervise the execution of Army policies, plans, programs, and 
activities and assess the performance of Army commands in the execution 
of their assigned statutory missions and functions; and
    (l)  Task and supervise the Vice Chief of Staff, Army, the Army 
Staff and, as authorized by the Secretary of the Army, elements of the 
Army Secretariat to perform assigned duties and responsibilities.

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I am privileged to have over 35 years of service in our 
Army, during which I have commanded at every level from Platoon to U.S. 
Army Forces Command including command of the 10th Mountain Division and 
the III Armored Corps. Of note, I had the honor to lead soldiers in 
combat as a Captain and Major along with combat leadership as a Brigade 
Commander, Division Deputy Commander, and Corps Commander. With service 
in Special Forces and conventional units, as well as operational 
experience in a variety of contingencies around the globe, I have a 
comprehensive perspective of the Army, its processes and capabilities. 
My experience includes operations in the Sinai, Somalia, Panama, Haiti, 
the Balkans, Afghanistan, and Iraq, along with tours in Korea and 
Columbia. I have participated in Humanitarian Service, Peacekeeping, 
Peace Enforcement and multiple combat operations. During my most recent 
deployment, as the Commanding General of III Corps and ISAF Joint 
Command, I had the opportunity to apply the full range of Army, joint, 
combined and coalition capabilities in complex environments on my third 
tour in Afghanistan while commanding all the ground forces in combat 
and security force assistance operations. Additionally, I have 
considerable experience on the Joint Staff and Office of the Secretary 
of Defense Staff where I saw firsthand the importance of teamwork 
across the Department of Defense and working with Congress. Finally, as 
the Commanding General of U.S. Army Forces Command, I am responsible 
for the training and readiness of the entire U.S. Army's Operational 
Force based in the Continental United States, which includes most of 
the Army National Guard, U.S. Army Reserve and Active component Regular 
Army--roughly about 70-80 percent of the Total Army. If confirmed, the 
combination of all of these assignments as well as the honor of serving 
closely with our dedicated soldiers, will enable me to lead our Army as 
it meets our Nation's requirements in a complex world.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Chief of Staff of the 
Army?
    Answer. If confirmed, my tenure as Chief of Staff will be marked by 
continuous self-assessment of my ability to perform my duties. As I 
believe necessary, I will employ measures that will improve my ability 
to lead the Army. It is essential in this complex environment that we 
continue to learn and adapt to ensure that our skills remain current 
and able to meet our future challenges.
    Question. What duties and responsibilities would you plan to assign 
to the Vice Chief of Staff of the Army?
    Answer. If confirmed as Chief of Staff of the Army, I would ensure 
the Vice Chief of Staff is responsible for providing me advice and 
assistance in the execution of my duties, specifically with regard to 
manpower and personnel; logistics; operations and plans; requirements 
and programs; intelligence; command, control and communications; and 
readiness. I will review other duties and responsibilities for the Vice 
Chief of Staff of the Army as appropriate after discussions with him 
and the Secretary of the Army.
                             relationships
    Question. If confirmed, what would be your working relationship 
with:

    a. The Secretary of Defense.
    The Chief of Staff of the Army must have a close working 
relationship with the Secretary of Defense. If confirmed, I will be 
responsible to the Secretary of Defense and his Deputy, through the 
Secretary of the Army, for the operation of the Army in accordance with 
the Secretary of Defense's guidance and direction. If confirmed, as a 
member of the Joint Chiefs of Staff, I will serve as a military adviser 
to the President, the National Security Council, and the Secretary of 
Defense as appropriate. I will cooperate fully with the Secretary of 
Defense to ensure that the Army properly implements the policies 
established by his office. In coordination with the Secretary of the 
Army, I will communicate with the Secretary of Defense in articulating 
the views of the Army.
    b. The Deputy Secretary of Defense.
    The Deputy Secretary of Defense performs such duties and exercises 
such power as the Secretary of Defense may prescribe. If confirmed, I 
will be responsible to the Secretary of Defense, and his deputy, 
through the Secretary of the Army, for the operation of the Army in 
accordance with the Secretary's guidance and direction. Also, in 
coordination with the Secretary of the Army, I will communicate with 
the Deputy Secretary in articulating the views of the Army. I will work 
closely with all to ensure that the Army is administered in accordance 
with the guidance and direction issued by the Office of the Secretary 
of Defense.
    c. The Under Secretaries of Defense.
    Acting on behalf of the Secretary of Defense, the Under Secretaries 
perform responsibilities that require them, from time to time, to issue 
guidance and instruction as approved by the Secretary of Defense--and 
in the case of the Under Secretary of Defense for Acquisition, 
Technology, and Logistics, direction--to the Military Departments. If 
confirmed, in coordination with the Secretary of the Army, I will 
communicate with the Under Secretaries in articulating the views of the 
Army. I will work closely with the Under Secretaries to ensure that the 
Army is administered in accordance with the Office of the Secretary of 
Defense's guidance and direction.
    d. The Chairman of the Joint Chiefs of Staff.
    The Chairman of the Joint Chiefs of Staff is the principal military 
advisor to the President, the National Security Council, and the 
Secretary of Defense. Subject to the authority, direction, and control 
of the President and the Secretary of Defense, the Chairman plans the 
strategic direction and contingency operations of the armed forces; 
advises the Secretary of Defense on requirements, programs, and budgets 
that the combatant command commanders identify; develops doctrine for 
the joint employment of the Armed Forces; reports on assignment of 
functions (or roles and missions) to the Armed Forces; provides for 
representation of the United States on the Military Staff Committee of 
the United Nations; and performs such other duties as the law or the 
President or Secretary of Defense may prescribe.
    In conjunction with the other members of the Joint Chiefs, the 
Chief of Staff of the Army assists the Chairman in providing military 
advice to the President, the National Security Council, and the 
Secretary of Defense. If confirmed as a member of the Joint Chiefs of 
Staff, I will provide my individual military advice to the President, 
the National Security Council, and the Secretary of Defense. If 
confirmed, it would be my duty as a member of the Joint Chiefs of Staff 
to provide frank and timely advice and opinions to the Chairman to 
assist him in his performance of these responsibilities. If confirmed, 
and as appropriate, I will also provide advice in addition to or in 
disagreement with that of the Chairman. I will establish and maintain a 
close and professional relationship with the Chairman, and I will 
communicate directly and openly with him on any policy matters 
impacting the Army and the Armed Forces as a whole.
    e. The Vice Chairman of the Joint Chiefs of Staff.
    The Vice Chairman of the Joint Chiefs of Staff assists the Chairman 
in providing military advice to the Secretary of Defense and the 
President. If confirmed, it would be my duty as a member of the Joint 
Chiefs of Staff to ensure that the Vice Chairman receives my frank 
views and opinions to assist him in performing his responsibilities.
    f. The Chiefs of the Other Services.
    If confirmed, as a member of the Joint Chiefs of Staff, it would be 
my duty to engage in frank and timely exchanges of advice and opinions 
with my fellow Service Chiefs. I look forward to developing strong 
working relationships with these colleagues, if I am confirmed.
    g. The Combatant Commanders.
    The combatant commanders are responsible to fight our wars and 
conduct joint military operations around the world. Title 10, U.S. 
Code, section 165 provides that, subject to the authority, direction 
and control of the Secretary of Defense, and subject to the authority 
of the combatant commanders, the Service Secretaries are responsible 
for administration and support of forces that are assigned to unified 
and specified commands. If confirmed, I will cooperate fully with the 
combatant commanders in performing these administrative and support 
responsibilities. I will establish close, professional relationships 
with the combatant commanders and I will communicate directly and 
openly with them on matters involving the Department of the Army and 
Army forces and personnel assigned to or supporting the combatant 
commands.
    h. The Army Component Commanders of the Combatant Commands
    The Army component commanders of the combatant commands exercise 
command and control under the authority and direction of the combatant 
commanders to whom they are assigned and in accordance with the 
policies and procedures established by the Secretary of Defense. The 
combatant commanders normally delegate operational control of Army 
forces to the Army Component Commander. The Secretary of the Army 
generally delegates administrative control of Army forces assigned to 
the combatant commander to the Army component commander of that 
combatant command. The Army Component Commander is responsible for 
recommendations to the Joint Force Commander on the allocation and 
employment of Army forces within the combatant command. If confirmed, I 
will cooperate fully with the combatant commanders and Army Component 
Commanders in performing these responsibilities.
    i. The Secretary of the Army.
    If confirmed, I will establish a close, direct, and supportive 
relationship with the Secretary of the Army. Within the Department of 
the Army, my primary responsibilities as Chief of Staff are to perform 
all duties assigned to me by the Secretary and to serve as the 
Secretary's principal military adviser. My responsibilities would also 
involve communicating the Army Staff's plans to the Secretary and 
supervising the implementation of the Secretary's decisions through the 
Army Staff, commands, and agencies. My actions would be subject to the 
authority, direction, and control of the Secretary. In my capacity as a 
member of the Joint Chiefs of Staff, I would also be responsible for 
appropriately informing the Secretary about conclusions reached by the 
Joint Chiefs of Staff and about significant military operations, to the 
extent this would not impair my independence in performing my duties as 
a member of the Joint Chiefs of Staff. If confirmed, I look forward to 
working closely and in concert with the Secretary of the Army to 
establish the best policies for the Army, taking into account national 
interests.
    j. The Under Secretary of the Army.
    The Under Secretary of the Army is the Secretary's senior civilian 
assistant and principal adviser on matters related to the management 
and operation of the Army. The Under Secretary of the Army performs 
such duties and exercises such powers as prescribed by the Secretary of 
the Army. The Under Secretary's responsibilities require him, from time 
to time, to issue guidance and direction to the Army Staff. If 
confirmed, I will be responsible to the Secretary and to the Under 
Secretary for the operation of the Army in accordance with such 
directives. I will cooperate fully with the Under Secretary to ensure 
that the policies that the Office of the Secretary of the Army 
establishes are implemented properly. I will communicate openly and 
directly with the Under Secretary in articulating the views of the Army 
Staff, commands, and agencies.
    k. The Vice Chief of Staff of the Army.
    The Vice Chief of Staff of the Army serves as the principal advisor 
and assistant to the Chief of Staff. If confirmed, I will establish and 
maintain a close, professional relationship with Vice Chief of Staff of 
the Army.
    l. The Assistant Secretaries of the Army.
    The Assistant Secretaries of the Army have functional 
responsibilities that, from time to time, require them to issue 
guidance to the Army Staff and to the Army as a whole. If confirmed, I 
will establish and maintain close, professional relationships with the 
Assistant Secretaries in order to foster an environment of cooperative 
teamwork between the Army Staff and the Army Secretariat as we address 
the Army's day-to-day management and long-range planning requirements.
    m. The General Counsel of the Army.
    The General Counsel is the legal counsel to the Secretary of the 
Army and the chief legal officer of the Department of the Army. The 
duties of the General Counsel include coordinating legal and policy 
advice to all members of the Department regarding matters of interest 
to the Secretariat, as well as determining the position of the Army on 
any legal question or procedure, other than military justice matters, 
which are assigned to The Judge Advocate General. If confirmed, I will 
establish and maintain a close, professional relationship with the 
General Counsel to assist in the performance of these important duties.
    n. The Inspector General of the Army.
    The Inspector General reports to the Secretary of the Army and is 
responsible for inspections and certain investigations within the 
Department of the Army, such as inquiring into and reporting to the 
Secretary of the Army and the Chief of Staff regarding discipline, 
efficiency, and economy of the Army with continuing assessment of 
command, operational, logistical, and administrative effectiveness; and 
serving as the focal point for the Department of the Army regarding 
Department of Defense Inspector General inspections and noncriminal 
investigations, as well as the Department of Defense inspection policy. 
If confirmed, I will establish and maintain a close, professional 
relationship with the Inspector General of the Army to ensure effective 
accomplishment of these important duties.
    o. The Judge Advocate General of the Army.
    The Judge Advocate General is the military legal advisor to the 
Secretary of the Army and all officers and agencies of the Department 
of the Army. The Judge Advocate General provides legal advice directly 
to the Chief of Staff and to the Army Staff in matters concerning 
military justice; environmental law; labor and civilian personnel law; 
contract, fiscal, and tax law; international law; and the worldwide 
operational deployment of Army forces. The Chief of Staff does not 
appoint The Judge Advocate General, and does not have the personal 
authority to remove her. This enables The Judge Advocate General to 
provide independent legal advice. If confirmed, I will establish and 
maintain a close, professional relationship with The Judge Advocate 
General as my legal advisor and I will assist her in the performance of 
her important duties as the legal advisor to the Secretary of the Army.
    p. The Chief of the National Guard Bureau.
    The Chief of the National Guard Bureau heads a joint activity of 
the Department of Defense and is the senior uniformed National Guard 
officer responsible for formulating, developing, and coordinating all 
policies, programs, and plans affecting more than half a million Army 
and Air National Guard personnel. Appointed by the President, he serves 
as principal advisor to the Secretary of Defense through the Chairman 
of the Joint Chiefs of Staff on National Guard matters. He is also the 
principal advisor to the Secretary and Chief of Staff of the Army and 
the Secretary and Chief of Staff of the Air Force on all National Guard 
issues. As National Guard Bureau Chief, he serves as the department's 
official channel of communication with the Governors and Adjutants 
General. As a member of the Joint Chiefs of Staff, the Chief of the 
National Guard Bureau has the specific responsibility of addressing 
matters involving non-Federalized National Guard forces in support of 
homeland defense and civil support missions. If confirmed, I will 
establish and maintain a close, professional relationship with the 
Chief, National Guard Bureau to foster an environment of cooperative 
teamwork between the Army Staff and the National Guard Bureau, as we 
deal together with the day-to-day management and long-range planning 
requirements facing the Army.
    q. The Director of the Army National Guard.
    The Director, Army National Guard is responsible for assisting the 
Chief, National Guard Bureau in carrying out the functions of the 
National Guard Bureau, as they relate to the Army National Guard. If 
confirmed, I will establish and maintain a close, professional 
relationship with the Director, Army National Guard to foster an 
environment of cooperative teamwork between the Army Staff and the 
National Guard Bureau. This will be essential as we deal together with 
the day-to-day management and long-range planning requirements facing 
the Army to sustain and improve the Army National Guard's operational 
capabilities.
    r. The Chief of the Army Reserve.
    Appointed by the President, the Chief, Army Reserve is the advisor 
to the Chief of Staff of the Army on Army Reserve matters, and is 
responsible for justifying and executing the Army Reserve's personnel, 
operation and maintenance, and construction budgets. As such, the 
Chief, Army Reserve is the director and functional manager of 
appropriations made for the Army Reserve in those areas. In addition, 
the Chief, Army Reserve is responsible for managing the Army Reserve's 
Full Time Support Program and submitting an annual report on the state 
of the Army Reserve through the Secretary of the Army to the Secretary 
of Defense. If confirmed, I will establish and maintain a close, 
professional relationship with the Chief, Army Reserve as we deal 
together with the Army's day-to-day management and long-range planning 
requirements in order to sustain and improve the Army Reserve's 
operational capabilities.
                         vision for the future
    Question. What is your vision for the Army of today and the future?
    The U.S. Army is and must remain the world's premier ground combat 
force capable of conducting sustained campaigns on land to achieve U.S. 
National Security objectives and remain true to our national values. 
The Army is the force, an all volunteer force, uniquely capable of 
winning a decision favorable to the U.S. In order to sustain our edge 
over any adversary, the U.S. Army must be lethal, agile, adaptive, 
innovative, and expeditionary; armed with leader, technological and 
training overmatch. Additionally, the Army, combined with the effects 
of the Navy, Air Force, Marines, Cyber, Space, and Special Operations 
Forces, must present our opponent with overwhelming simultaneous 
multiple dimension problems that paralyze and cause his defeat.
    Question. Given your vision, is the Army ready to meet current 
demands from combatant commanders, downsize the force, modernize and 
improve readiness while transforming? How will you balance these 
competing demands?
    Answer. I recognize, in the face of increasing demands and 
declining resources, we will be forced to assume risk in some areas. If 
confirmed, I will ensure we make those hard decisions through a 
rigorous and deliberate process with the assistance and input of 
Congress. I am concerned that the Army has been required to assume 
future risk by underfunding modernization, and if confirmed, I will 
work to ensure that the Army has the resources to meet the current 
demands of the combatant commanders while transforming and modernizing 
to be successful in the future.
    I have no illusion that balancing competing demands to fulfill the 
National Security Strategy and the combatant commander's requirements 
while significantly downsizing the force in a fiscally constrained and 
uncertain environment will be exceptionally difficult. However the 
Army, as we have for 240 years, will meet the challenge with innovative 
and adaptive leadership and with disciplined and committed soldiers. If 
confirmed, readiness will remain an inviolate benchmark and #1 
priority--no American soldier must ever deploy to combat unready. It is 
my solemn commitment that our troops will be rigorously trained, 
possess the best equipment and be led by leaders of character, 
competence and courage.
    Question. Across the continuum of conflict, as described in the 
National Military Strategy in what areas is the Army currently best 
prepared for? Is this where the Army needs to be given emerging and 
future threats?
    As the Nation's principal ground military force, the Army has the 
obligation to be ready to conduct sustained land operations across the 
spectrum of conflict and win in ground combat. We cannot allow 
ourselves to focus too narrowly on any one scenario. Right now, the 
U.S. Army is highly skilled in counterterrorist and contingency 
operations along with advisory skills and building partner capacity. 
Given emerging and future threats, we will need to sustain our 
counterterrorist, counterinsurgency, advisory, and build partner 
capacity skills while rebuilding our combined arms conventional 
warfighter skills for offense, defense, and stability. Further, we must 
improve our mission command, aviation, fire support, engineer, and 
sustainment skills. Lastly, we must develop our cyber force to a much 
higher level of capability. If confirmed, I will continually assess and 
collaborate with the other Service Chiefs and adapt the Army to first 
meet current needs and position itself for the future.
                    major challenges and priorities
    Question. In your view, what are the major challenges that will 
confront the next Chief of Staff of the Army?
    Russia, China, North Korea, Iran, ISIS and radical violent 
extremist organizations currently challenge the United States each in 
their own way and will likely continue for some time into the future. 
These security challenges exist within a wider context of rapid 
technological change, significant demographic change, global economic 
uncertainty, and geostrategic power shifts of historic proportions. 
Right now the level of uncertainty, the velocity of instability, and 
potential for significant inter-state conflict is higher than it is has 
been since the end of the Cold War in 1989-91. These challenges and 
global context unfold while the U.S. is likely to continue fiscal 
uncertainty and the U.S. Army will continue to shrink. However, as a 
result of the global situation, the demand for ground forces will 
continue to increase even more so since many of our longstanding allies 
have significantly reduced their military forces over the last 25 
years. Maintaining both capacity and capability in all three components 
of the U.S. Army in a rapidly changing and volatile security and fiscal 
environment will be our greatest challenge while simultaneously 
posturing the Army for the future beyond 2020. The next four years will 
bring to the forefront the challenge of maintaining tactical and 
operational advantage over our adversaries. The Army currently benefits 
from an overmatch that enables a historically small number of soldiers 
to accomplish significant operations while minimizing casualties. This 
advantage has a shelf life; the technologies that gave us the advantage 
today are increasingly available to state and non-state adversaries at 
dramatically lower cost than even a decade ago. As that overmatch 
degrades, the risk to soldiers increases. Maintaining readiness in the 
near term and retaining capacity while creating capability for the mid 
and long term will be the Army's greatest challenge given the threat, 
global context, and domestic fiscal environment.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Recognizing the environment we are in, I see two near term 
imperatives for the Army. First, we must build and maintain readiness 
across the Total Force. This readiness must reflect both sufficient 
capacity to meet the demand for Army forces and proficiency in the 
multitude of capabilities that enable the Army to accomplish its 
diverse missions. Second, we must plan and invest for the future. I see 
this done through a deliberate science and technology strategy that 
seeks to exploit research that has the potential for leap ahead 
capabilities in the areas of ``shoot, move, communicate, and mission 
command.''
    If confirmed, I will continue to work closely with Congress and 
address these challenges. We will continue to refine and update our 
training programs to ensure all our soldiers are fully prepared to 
deploy to combat. We will continue to review our reset, force 
modernization and acquisition programs in order to more efficiently 
meet the needs and requirements of today and the future threat. I will 
work closely with the Secretary of Defense, Secretary of the Army and 
the combatant commanders to identify those capabilities needed to 
provide depth and versatility to the joint force in order to provide 
more effective and flexible forces for employment. I will continue to 
review and adjust leader development programs in order to develop 
thinking, adaptable, agile decision makers necessary to operate in an 
increasingly complex and unpredictable environment. I will review our 
soldier and Family Programs to ensure we are meeting their needs.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Chief of Staff of the Army?
    At this point, I am not aware of any problems that would impede the 
performance of the Chief of Staff of the Army.
    Question. If confirmed, what management actions and time-lines 
would you establish to address these problems?
    If confirmed, I will vigorously uphold the standards expected by 
the American people and undertake a deliberate review of key policies 
to ensure that the Army is meeting its current responsibilities and is 
postured to meet the challenges of the future. I will work to maintain 
open lines of communication with this committee, and Congress writ 
large, so that I might benefit from the collective wisdom and 
experience.
    I will also remain committed to improve, and if necessary, 
establish management systems that provide good stewardship of the 
precious, limited and valuable resources that the American people have 
given us to accomplish our mission.
    Question. If confirmed, what broad priorities will you establish?
    I will work closely with the Secretary of the Army to establish 
Army priorities within the guidelines of the President and Secretary of 
Defense. Within that framework, my #1 priority, if confirmed, will be 
readiness across the Total Force. When the Nation calls, the Army must 
be ready with soldiers that are confident they are well trained, well 
armed, and well led. At the same time, our #2 priority is to invest in 
the technologies, organization, and doctrine that will allow us to 
maintain overmatch against future adversaries while retaining the 
ability to adapt to unforeseen challenges. Additional priorities will 
include:

    <bullet>  Keep faith with the All Volunteer Force.
    <bullet>  Maintain our values and close relationship with the 
American People.
    <bullet>  Protect the Force--Our most valuable asset is our 
people--soldiers, families, civilians--and each deserve to be treated 
with dignity and respect and be afforded the best quality of life and 
an equal opportunity to excel based on their merit.
    <bullet>  Develop leaders of character, competence and resilience 
that are fit, agile, adaptive, and innovative.

               organize, train, and equip responsibility
    Question. The Chief of Staff is responsible for organizing, 
training and equipping forces provided to fleet and component 
commanders, including the prioritization of funding and effort to meet 
these needs in the near term, while developing capabilities for the far 
term.
    How would you characterize your experience in force management and 
capability requirement decisions?
    Answer. While leading Forces Command it is my job to ensure that 
the Army is able to provide a sustained supply of highly capable land 
forces to combatant commanders. In that role, I became intimately 
familiar with both the combatant commanders' requirements and the Army 
forces ready to meet them. Additionally, my time serving on the Joint 
Staff and as the Military Assistant to the Secretary of Defense 
provided me significant experiences with the longer term challenges 
facing our military and the critical investment decisions that must be 
made now to ensure we have the capabilities we will need in the future.
    Question. What innovative ideas are you considering for organizing, 
training and equipping the Army?
    Answer. A decade and a half of war has taught us that the Army must 
continually adapt to the missions assigned and the operating 
environment. The Army will continue to innovate as we did in Iraq and 
Afghanistan, focusing our efforts on what soldiers and commanders need 
to accomplish their missions. Our organizational structures need 
agility in order to meet the combatant commanders' request for forces; 
our training must be realistic so that it meets the unique needs of the 
units' assigned mission, while developing the skills to fight and win 
future wars as part of the Joint Force. We need to procure equipment 
that is technologically feasible so that we can quickly and cost 
effectively provide incremental improvements to the field.
    There are a wide variety of emerging technologies that may have 
significant impact on ground warfare including technologies in 
communications for mission command, robotics, nano-technologies, human 
performance, explosives and propellants, hypersonics, directed energy, 
cyber, protective materials for personnel and equipment, and a variety 
of developments in weapons technologies. All of these and more are 
areas of innovation the Army will explore in depth to assess 
applicability at affordable cost.
                    security strategies and guidance
    Question. How would you characterize current trends in the range 
and diversity of threats to national security we face today?
    Answer. The range and diversity of potential threats is increasing 
concurrent with increasing instability in many parts of the world. Our 
adversaries--both state and non-state--recognize the limits of our 
capabilities and capacity. Both state and non-state adversaries have 
employed novel capabilities, created by combining increasingly 
available military and commercial technologies. Accordingly, our 
enemies are increasingly using ``hybrid'' warfare methods that blend 
aspects of conventional and irregular warfare. This creates ambiguity 
and achieves adversary gains below the threshold that has historically 
triggered a U.S. or Allied military response. However, given the 
increased uncertainty, and velocity of global instability converging 
with rapid technological, demographic, economic, and geo-strategic 
power shifts, it is my view that significant conflict with adversary-
state or non-state actors threatening vital U.S. interests is 
increasing in all likelihood.
    Question. The Defense Strategic Guidance issued January 2012 took 
into account a $487 billion dollar reduction in defense resources.
    With the additional $500 billion in cuts to the Department of 
Defense as a result of sequestration, is the Defense Strategic Guidance 
still valid?
    Answer. No. The additional cuts imposed by sequestration would 
impose a significant departure from the level of resources that the 
Defense Strategic Guidance (DSG) assumed. Sequestration will force the 
Army to reduce end strength, readiness, and nearly halt modernization. 
The consequences of these forced actions would degrade our ability to 
provide the trained and ready forces that the DSG requires and increase 
risk to the point where the U.S. Army could not fulfill the missions 
assigned to us in our National Security strategic guidance documents. 
In short, our ways and means will be significantly out of balance with 
our stated ends, which will increase risk to an unacceptable level for 
the Nation. If confirmed, I will provide my best military advice to 
properly balance the national strategic ends-ways-means in order to 
maintain National Security risk at acceptable levels.
    Question. In your view, as the Defense Strategic Guidance was 
issued in January 2012, is that strategic guidance still appropriate 
for the threats we face today or do you think an update is warranted?
    Answer. The 2012 Defense Strategic Guidance was based upon a number 
of assumptions, such as the duration of conflicts, the contributions of 
our allies, and the nature and location of future threats. Some of 
these assumptions now appear optimistic, particularly in light of the 
rise of ISIL, a resurgent Russia, Iran's actions in the Middle East, 
and challenges in the Pacific region. If confirmed, I will provide my 
best military advice to inform policy and guidance as we move forward 
to confront current and future threats.
    Question. In your view, is our defense strategy and current 
establishment optimally structured, with the roles and missions of the 
Military Departments appropriately distributed, and U.S. forces 
properly armed, trained, and equipped to meet security challenges the 
Nation faces today and into the next decade?
    Answer. I believe the structure of the defense establishment and 
the roles and missions of the services are sound. In my view, we need 
to continually reassess our defense strategy in order to update it to 
account for the changing security environment. Resourcing levels must 
also remain predictable and aligned with our national objectives. I am 
concerned that we may underestimate the degree of readiness, end 
strength, and modernization required to confront current and future 
security challenges.
    Question. If confirmed, what changes, if any, would you propose to 
the capabilities, structure, roles, and missions of the Army?
    Answer. If confirmed, I will conduct a deliberate strategic 
assessment to identify any needed changes to the Total Army's 
capabilities, structure, roles, and missions. Such assessments will 
also evaluate capacity. In doing so, I will work with the Chairman, 
Joint Chiefs of Staff, Services Chiefs, and combatant commanders along 
with both the Secretary of the Army and Defense to ensure the Army is 
the right size, with the right structure, and doing the right mission 
to protect the Nation.
          military capabilities in support of defense strategy
    Question. In your opinion, do current military plans include the 
necessary capabilities to meet the defense strategy stated in the 2014 
Quadrennial Defense Review (QDR) and the 2015 National Military 
Strategy? Please identify areas of higher risk.
    Answer. The defense strategy provides that the Army, as part of the 
Joint Force, has to accomplish three tasks. The first priority is to 
defend the homeland; the Army can meet our responsibilities in this 
mission set. The second task is build security globally. While we have 
the capability required, increasing demand for Army forces, while our 
force is getting smaller, strains capacity. We remain engaged in 
Afghanistan, Iraq, Korea, Europe, the greater Middle East, Africa, 
South America, and the Pacific region. The stress of increased missions 
on a smaller force is something I am especially concerned about. Tempo 
will likely increase given the instability around the world and the 
reduction of defense spending by our allies and partners. Lastly, the 
defense strategy tasks the Army to project power and win decisively. 
Here, the risk is significant and trending higher as we train our 
decisive action capability and meet warplan requirements with a 
smaller, less resourced force.
    Question. Does the 2014 QDR specify the correct set of capabilities 
to decisively win in future state to state conflict?
    Answer. The 2014 QDR was based on a set of facts and assumptions 
that did not include the current situation in Eastern Europe and 
Russia, the rise and spread of ISIS along with the disintegration of 
the nation-state in the Middle East, and the increasing military 
capability and foreign policy assertiveness of China. In short, the 
world has become more uncertain and unstable since the 2014 QDR was 
written and consequently we need to review the global assumptions and 
calculations embedded in the 2014 QDR in order to ensure the 
capabilities and priorities align to the realities of the emerging 
situation.
    Question. According to the force sizing construct in the 2014 QDR, 
American forces should be able to ``defeat a regional adversary in a 
large-scale multi-phased campaign, and deny the objectives of--or 
impose unacceptable costs on--another aggressor in another region.''
    In your opinion, is the Army adequately sized to meet the 
Department's force sizing construct in order to address the country's 
current threat environment?
    Answer. The current Chief of Staff of the Army, General Ray 
Odierno, has testified that the Army size in PB16 of 450,000 Regular 
Army, 335,000 Army National Guard, and 195,000 U.S. Army Reserve is 
adequate to meet the demands of the current and future threats but at 
``significant risk.''
    If confirmed, I pledge to work closely with the Secretary of 
Defense, the Secretary of the Army, the Chairman of the Joint Chiefs, 
and our combatant commanders to match end strength, structure, and 
tempo in our Army Force Generation rotational model to meet global 
demands as they change. I will continually evaluate the size and 
capability of the Total Army against emerging threats and provide 
candid assessments on our risk to our senior civilian leadership 
including the President, The Secretary of Defense, The Secretary of the 
Army, the National Security Council, and Members of the U.S. Congress.
    Question. If the Army cannot meet the demands placed on it, how 
will you address this issue?
    Answer. If confirmed, if I ever believe that in my professional 
military judgment that the Army cannot meet the demands in place, I 
will inform the Chairman of the Joint Chiefs, the Secretary of the 
Army, the Secretary of Defense and, if necessary, in my role as a 
member of the Joint Chiefs, the President. As a Nation, we must build 
our strategy based on the threat, resources available, and tolerance 
for risk. I will always provide my candid best military advice to 
protect our Nation.
 sequestered budget control act discretionary caps starting in fiscal 
                           year 2016 onward?
    Question. The fiscal year 2016 budget request assumes that the 
Budget Control Act will be amended in fiscal year 2016. The fiscal year 
2016 Budget Resolution passed by the Senate and House of 
Representatives do not assume this, but instead provides $38 billion of 
the requested spending through the Overseas Contingency Operations 
(OCO) budget.
    Should this OCO funding not be available, what recommendations 
would you have, if confirmed, for how the Army should manage additional 
cuts for fiscal year 2016?
    Answer. This $38 billion constitutes the difference between the 
Fiscal Year 2016 President Budget request for Base requirements and the 
BCA funding level for DOD ($538 billion-$500 billion). The Army's 
portion of this $38 billion is $6 billion ($126 billion-$120 billion). 
For comparison, the fiscal year 2015 Base funding level is $120.6 
billion, an amount that has created resourcing and readiness challenges 
this year.
    The President's Budget request represents the minium resources 
necessary for the Army to support the National Security Strategy. A 
sequestered level budget will further reduce readiness and disrupt 
modernization efforts. Should the government not provide the $38 
billion through additive OCO funding or another source, the Army would 
have no alternative than to further reduce structure, unit readiness 
and will all but stop investment in its Research, Development and 
Acquisition programs. The Army already reduced its force structure and 
military endstrength to the extent possible in fiscal year 2016. 
Impacts to readiness will include cancellation of home-station 
training, reduced maintenance and upkeep of facilities infrastructure; 
reduced logistics and maintenance readiness and IT & Cyber security 
would be further marginalized. The Army would reduce its investment 
account funding by approximately 12 percent of its requested amount, 
spread across its RDTE and procurement accounts.
    Question. What are your views on the impact that these cuts could 
have on readiness for the Army?
    Answer. The Budget Control Act degrades Army readiness. In the 
context of increased, unforecasted global demand, it creates the single 
greatest risk by undermining the Army's ability to provide the 
necessary capacity and capabilities for contingency operations, forcing 
the Army to ration readiness. Regardless of funding levels, if 
confirmed, I will keep training opportunities at our Combat Training 
Centers (CTCs) a priority. The trade off will mean significant 
reductions to home-station training, except for brigades going to CTCs, 
which will compound the readiness reductions. Subsequent decisions to 
commit Army forces will come with high risk and force senior leaders to 
choose between: committing Army units at lower readiness levels or 
delaying military operations. Long term consequences of underfunding 
are significant as operational readiness requires a cumulative 
investment and consistent funding. The Army needs consistent and 
predictable funding year after year to ensure it maintains a level of 
readiness commensurate with the current operational demands; we don't 
have the luxury of long train-up times to react to the emerging and 
immediate contingencies in the current security environment.
    Question. What are your views on the impact that these cuts could 
have on Army capabilities?
    Answer. Sequestration-level cuts leave the Army unable to meet 
Defense Strategic Guidance, including our ability to shape and prevent 
conflict in Europe and the Pacific and to deter adversaries across the 
globe.
    Budget Control Act funding reductions will require the Army to 
further reduce force structure and end strength, and readiness levels 
and further delay modernization. My concern is the smaller force will 
lack the capacity to meet the Nation's security needs as currently 
outlined in the National Defense Strategy. Furthermore, modernization 
reductions will diminish equipping capacity and capability well into 
the future.
                       headquarters streamlining
    Question. The Senate-passed Fiscal Year 2016 National Defense 
Authorization Act directs reforms to consolidate the headquarters 
functions of the Department of Defense and the Military Departments.
    If confirmed, and if the provisions in the bill become law, what 
would be your role in streamlining functions, as well as identifying 
and implementing reductions in the Army headquarters?
    Answer. Over the course of the last two years, the Army assessed 
all of its Department Headquarters functions as required by the 
Department of Defense. Planning and implementation for reductions is 
already well underway. Associated with these reductions, each element 
of the Headquarters has closely examined the functions they perform 
with an eye towards streamlining, modernizing or eliminating the 
function. Should legislation impose further reductions, I would expect, 
if confirmed as Chief of Staff, that I would play a key role in 
advising the Secretary of the Army where I believe we can and cannot 
accept additional risk in our key Headquarters missions.
    Question. What areas and functions, if any, do you consider to be 
priorities for possible consolidation or reductions within the Army?
    Answer. As a result of continued downward trends in our funding, 
the Army has, over the last four years, made great strides in 
eliminating unnecessary functions and organizations. I am proud of what 
the Army has been able to accomplish despite losing billions of dollars 
of base budget funding. Having said that, there are always ways to 
streamline processes and functions. If confirmed, I will continue to 
push for smarter ways of doing business in order to apply maximum 
resources toward increased readiness. In pursuing these opportunities, 
the Army needs to go where the best value lies, examining each 
situation with a clear-eyed cost/benefit perspective. If confirmed, I 
intend to continue reducing Headquarters size and functions in order to 
optimize the tooth-to-tail ratio in favor of combat power in the 
Operating Force.
    Question. To the extent that the Army has functions that overlap 
with the Department of Defense, Joint Staff, or other Military 
Departments, what would be your approach to consolidating and reducing 
redundancy?
    Answer. The Army cannot avoid making tough choices in this budget 
environment. If confirmed, my priorities will be the readiness of our 
forces and the care and support of our soldiers, their families and our 
great civilian workforce. If another element of DOD can better 
accomplish a function currently performed by the Army, then I will so 
advise the Secretary of the Army. Similarly, if a function currently 
performed by another element of DOD can be better performed by the 
Army, it should be looked at as well. The Army cannot afford to be 
bound by the way functions and processes have been performed in the 
past and must make the best decisions for our Nation and our Armed 
Forces.
    Question. Given the plan the Army announced on July 9, 2015, to 
downsize the regular Army by 40,000 soldiers, is headquarters 
downsizing a component of this plan? If so, what are the goals?
    Answer. The reduction of headquarters is part of the Army 
downsizing; the planning and implementation of this is well underway. 
The goal is to reduce all 2-star and above headquarters, both military 
and civilian, as directed by the Secretary of the Army. If confirmed, I 
plan to further review this plan and continue to streamline 
headquarters strengths in order to retain as much combat power as 
possible and further reduce the Army's tooth-to-tail ratio.
                       international partnerships
    Question. Interactions between the land forces of different 
countries are often negotiated at the Chief of Staff level, including 
international exercises, Foreign Military Sales, educational exchanges, 
and protocols for operations.
    If confirmed, how do plan to ensure the U.S. Army continues to 
build strong partnerships, overcome challenges, and exploit 
opportunities in international cooperation?
    Answer. If confirmed, I will emphasize our support to the combatant 
commanders as well as other international engagement programs. These 
include bilateral staff talks with more than two dozen allies and 
partners; adequate resourcing for our regionally aligned forces to 
participate in international exercises; sustaining foreign student 
attendance at the War College and Command and Staff College and other 
professional military education; maximizing U.S. participation at their 
schools through the Schools of Other Nations Program; continuing to 
expand the Military Personnel Exchange Program; and continuing to 
invest in the Army's Foreign Area Officer program. Maintaining strong 
allied partnerships will be one of my goals as Chief of Staff and I 
recognize that Allies are key to the long-term national security of the 
United States.
    Question. How would you characterize your familiarity with 
international military leaders, forums, and processes?
    Answer. At almost every rank over the course of my 35 year career, 
I have had the opportunity to work closely with our international 
partners during exercises and contingency operations and developed 
insights into foreign militaries and processes. As a Captain, I worked 
closely with the Columbian Army for nearly eight months. As a Special 
Forces Captain I worked closely with indigenous forces in Somalia. As a 
Major, I was the S-3 Operations Officer for 2nd BCT, 10th Mountain 
Division, during Operation Uphold Democracy in Haiti and worked with 
multiple allied partners to include Argentinean leaders and those from 
six Caribbean nations. As a Lieutenant Colonel Battalion Commander in 
Korea, I worked closely with the 1st ROK Division along the DMZ. As a 
Colonel in command of the 2nd BCT, 10th Mountain Division, I worked 
closely with multiple armies in Afghanistan, to include international 
NATO Partners and the Afghan National Security Forces. In Iraq, in 
command of the same brigade, I worked closely with United Kingdom and 
Polish Forces, along with Iraqi Security Forces. As Deputy Commanding 
General for Regional Command-East in Afghanistan, I worked closely with 
multiple NATO allies, our Afghan Partners, and Pakistani military. As 
the Commanding General of ISAF Joint Command in Afghanistan, I was 
responsible for the planning and operations of coalition partners 
across the country. The coalition included over approximately 50 
nations and my staff included senior leaders from many of these 
countries allowing me to incorporate several staff systems from partner 
nations. Most recently, as the Commanding General of United States Army 
Forces Command, I visited the United Kingdom and observed their force 
generation processes and operational systems and have had visits from 
several other key allies including Japan. If confirmed, I plan to 
continue to work closely with our international partners and allies 
throughout the world.
                            joint operations
    Question. How would you characterize your familiarity with other 
Services' capabilities including how they organize, train and equip 
their forces?
    Answer. During my 35 years in uniform and through multiple joint 
assignments in addition to seven contingency deployments, I have had 
the opportunity to serve with and develop deep appreciation for the 
other Services' unique capabilities. I have worked very closely with 
the U.S. Air Force, Navy, Marines, and Coast Guard over many years in 
multiple capacities. If confirmed, I look forward to deepening my 
understanding by working closely with the fellow Service Chiefs as part 
of the Joint Chiefs of Staff.
    Question. Are there other innovative ideas you are considering to 
increase Joint interoperability and ensure opportunities to improve 
cross-domain capability and capacity are not missed?
    Answer. The Army is actively involved in joint concept development, 
war-gaming, and experimentation, all designed to improve cross-domain 
capability and capacity. If confirmed, I will work to ensure that 
sufficient resources are applied to implement change and enhance joint 
interoperability. This is a key task--the Army will always operate as 
part of the U.S. Joint Force.
         united states force posture in the asia-pacific region
    Question. The Department continues the effort to rebalance toward 
the Asia-Pacific as announced in the January 2012 Strategic Defense 
Guidance.
    Are you satisfied with the rebalance efforts to date?
    Answer. Yes, I am satisfied with the Army's rebalance efforts to 
the Asia-Pacific region to date and I will continue to emphasize the 
importance of the Asia-Pacific region if confirmed. Approximately 20 
percent of the Active Army is assigned to U.S. Pacific Command. This 
includes one Corps Headquarters, two Division Headquarters, five 
Brigade Combat Teams and one Armored Brigade Combat Team's worth of 
equipment prepositioned on the Korean Peninsula. We are replacing 
forward stationed units with ready rotational units. For example, the 
Army is providing USPACOM with rotational forces, such as Terminal High 
Altitude Area Defense missile batteries and an Armored Brigade Combat 
Team. Shaping activities such as Pacific Pathways builds partner-nation 
capacity and multinational interoperability while also enhancing U.S. 
Army unit readiness and fostering an expeditionary mindset across the 
force. Both the size and importance of the Asia-Pacific region defines 
an integrated multi-service approach as a near imperative. Consistent 
with the Army's Regionally Aligned Forces policy, the Army's current 
force posture in the Asia-Pacific ensures that it is prepared to set 
the theater, shape the security environment and respond to 
contingencies across the full range of military operations in support 
of the combatant commander and National Strategic objectives.
    Question. What do you see as the United States security priorities 
in the Asia-Pacific region over the next couple of years and what 
specific Army capabilities or enhancements are needed in to meet those 
priorities?
    United States security priorities in the Asia-Pacific over the next 
several years are to maintain a credible deterrent posture and provide 
reassuring military presence in the region in order to maintain 
regional stability. The United States should also work to strengthen 
and advance alliances and partnerships, continue to mature our military 
relationships, and maintain peace on the Korean Peninsula. We must work 
with our interagency and multinational partners to bring about the 
verifiable elimination of North Korea's nuclear weapons program. I also 
believe that the United States should continue to mature its strategic 
relationship with India, and work with our interagency and 
multinational partners in the region to counter transnational threats.
    The Army contributes to rebalancing these priorities with a variety 
of Army Forces committed to the region in Korea, Japan, Hawaii, Alaska, 
and at Joint Base Lewis-McChord, along with rapid deployment 
capabilities in the Global Response Force. Through routine exercises 
and engagements such as Pacific Pathways and forward deployed forces in 
the Republic of Korea and Japan, the Army assures allies, deters 
adversaries and remains capable of responding to contingencies if 
required.
    Question. Do the budget cuts and resource constraints associated 
with sequestration threaten the Army's ability to execute the rebalance 
to the Pacific?
    Answer. Yes, budget cuts and resource constraints associated with 
the Budget Control Act and sequestration require the Army to reduce 
force structure, limit training and curtail modernization programs. The 
United States will continue to maintain a robust military footprint and 
pursue international agreements in key locations, to include the Asia-
Pacific. Even in smaller numbers, the presence of soldiers is a strong 
security guarantee to U.S. allies and partners. Further, initiatives 
like Pacific Pathways demonstrate the United States' commitment to its 
Allies and partners by establishing a dynamic presence in the region. I 
am confident that our partners in the region want us to stand by our 
commitments to them.
                                 russia
    Question. What additional steps, if any, are likely to prove most 
effective at deterring Russian aggression in Eastern Europe?
    Answer. To best deter Russian aggression, the United States must 
continue to work with allies using all the elements of national power. 
Militarily, I think it prudent for the Army to continue to work with 
NATO to strengthen its European posture and demonstrate the combined 
ability to respond with capable ground forces in Eastern Europe through 
a variety of exercises and prepositioning equipment contingency stocks. 
If confirmed, I would ensure that the Army supports NATO and EUCOM 
efforts to maintain and adapt capabilities, readiness, and 
responsiveness in our commitment to the sovereignty and security of 
every ally. In my view, we should also continue to fund European 
Reassurance Initiative at current or increased levels.
    Question. What is the Army doing to help NATO? What more can the 
Army do?
    Answer. The Army is supporting NATO with a number of initiatives. 
First, the Army demonstrates the United States' continued commitment to 
NATO through Operation Atlantic Resolve (OAR) actions and exercises 
designed to deter further Russian aggression and reassure NATO Allies 
and partners by maintaining a persistent Army presence in Central and 
Eastern Europe. Second, the Army uses European Reassurance Initiative 
(ERI) funds to increase the Army's presence and improve military 
infrastructure on NATO's eastern flank (to include the creation of a 
complete armored brigade combat team equipment set). Third, the Army 
supports NATO's Readiness Action Plan (RAP) with forces for the NATO 
Response Force (NRF). Last, the Army has a forward 2-star command post 
to assist USEUCOM in force employment and mission command of OAR 
exercises.
    To do more, the Army can expand its support of OAR with additional 
rotations, leverage future ERI investments such as additional 
prepositioned equipment sets, and enhance the NRF by providing 
enablers. Like USPACOM, resource limitations have also affected the 
Army's support to USEUCOM. The Army can provide more support to Europe 
by redistributing forces from other theaters, or improve the readiness 
of uncommitted forces that could respond to Europe. Funding for 
increased readiness (through ERI) would allow the Army to increase the 
number of rotational forces. Specifically, the Army could increase the 
number of exercises and deploy staff expertise to augment our Allied 
and U.S. headquarters in Europe. Finally, establishing OAR as a ``named 
operation'' could allow funds to be used to pay for mobilization and 
deployment of Army National Guard to Europe as part of an overall 
program to use conventional ground forces to deter Russian aggression.
    Question. Does the Army, as part of a combined joint force, have 
what it needs in Europe?
    Answer. No, because of security condition changes in Europe, the 
current United States Army posture does not support a comprehensive 
response according to necessary timelines. However, working with 
USEUCOM, we are in the process of addressing this posture shortfall and 
European Reassurance Initiative funding is critical to supporting that 
effort.
                                 china
    Question. What is your assessment of the current state of the 
United States-China military relationship?
    Answer. The United States-China military-to-military relationship 
is important to the overall bi-lateral relationship. The current state 
of United States-Sino military relations is stable with elements of 
both cooperation and competition.
    Question. What are your views regarding China's interest in, and 
commitment to, improving military relations with the United States?
    Answer. I am of the opinion all countries act in what they define 
to be in their national interests. In this respect, I believe China 
recognizes that it is in its interest to have a positive relationship 
with the United States military. I support those actions that lead to 
improved United States-China relations, of which the military plays a 
part. If confirmed, I am committed to improving military-to-military 
relations with China. Improved United States-China military-to-military 
relationships can increase that stability and reduce miscalculations 
during any crisis or incident situation.
    Question. What is your view of the purpose and relative importance 
of sustained military-to-military relations with China?
    Answer. The purpose of sustained military-to-military relations 
with China is to enable a stable, secure, and prosperous Asia-Pacific 
region in which the United States, as an enduring Pacific power, is a 
key leader. This is of particular significance to our five treaty 
partners in the region, and the relative importance of the region to 
the U.S. in economic, diplomatic, and military terms.
    I believe we should continue to use our military engagement with 
China to establish deeper cooperation where there is clear, mutual 
benefit and to enhance dialogues to reduce risk and manage our 
differences.
    Question. What role do you see for the Chief of Staff of the Army 
in this process?
    Answer. If confirmed, my primary role will be to provide trained 
and ready forces to the combatant commander. Beyond that, the Chief of 
Staff of the Army's responsibilities include Army to Army engagements, 
both with China as well as with our treaty allies and partners in the 
region. As the Department continues to develop the military-to-military 
relationship with China, it will be important to also deepen 
cooperation with our allies and partners to maintain a stable and 
secure Asia-Pacific region.
                          strategic leadership
    Question. How do you plan to foster a dedicated, educated, and 
assigned group of strategic thinkers and planners who rise to the rank 
of general officer within the Army?
    Answer. Developing strategic thinkers, planners, and leaders is one 
of the most important things we do, and is grounded in the best 
possible training, education, and experiences. If confirmed, I will 
work closely with the Secretary of the Army to make appropriate 
investments in our officer corps to ensure we provide opportunities for 
advanced civil schooling, training with industry, joint assignments, 
multinational experience, and other broadening assignments.
                          offset technologies
    Question. During the Cold War, the DOD pursued three key 
technologies to offset the numerical superiority of Soviet conventional 
forces: precision guided munitions, stealth technology, and satellite-
based navigation. These three technologies have given U.S. forces 
unparalleled superiority until now. However, with advancements by our 
emerging adversaries, it seems like the military technological 
superiority is beginning to erode. As a result, it is critical that the 
United States once again focus on offsetting the erosion of our 
technology advantages being achieved by our potential adversaries.
    Which technology priorities do you believe the Army should be 
pursuing to maintain the military technological superiority of the 
United States?
    Answer. I understand the concept of the Third Offset Strategy, 
emphasizing advanced emerging technologies to maintain a qualitative 
edge over any opponent and I strongly support the Secretary of 
Defense's Defense Innovation Initiative. The Army's technology 
priorities enable our future land combat role in the joint fight and 
align to the Army Operating Concept. If confirmed, my priorities will 
be to look at increased range and effectiveness; increased use of 
autonomy to augment existing capabilities; and technology and 
approaches that drive down the cost of our systems. Specifically, the 
Army will explore emerging technologies in:

    <bullet>  Robotics
    <bullet>  Autonomous systems
    <bullet>  Cyber
    <bullet>  Big Data
    <bullet>  IT/Communications/Mission Command
    <bullet>  Human Performance
    <bullet>  Directed Energy weapons/Railguns
    <bullet>  Advanced explosives and propellants
    <bullet>  Nano technology/miniaturization
    <bullet>  Additive manufacturing and 3D printing
    <bullet>  Advanced materials for mobility and protection

    Question. What strategies would you recommend be implemented to 
develop these technology priorities?
    Answer. If confirmed, I will review the Army's long range thirty-
year planning process and determine if our current investment 
strategies are appropriate for the future or need to be adjusted.
    Question. What role should the Army play in their development?
    Answer. The Army must remain globally aware of where and what 
technology is being developed and be ready to refine, leverage, adapt 
and/or acquire those that are necessary to retain dominance. If 
confirmed, I will ensure the Army remains a proponent for the 
development of these needed technologies--whether they are developed 
within our own Science and Technology laboratories/Engineering Centers, 
our sister Service/Agency labs, academia, industry or by our allies.
                             modernization
    Question. Is the Army fully modernized to execute its Operating 
Concept ``Win in a Complex World''?
    Answer. The Army equipment modernization program is designed in 
conjunction with the Army Operating Concept to enhance the lethality, 
mobility, and protection for all of our units and to give them the 
situational awareness they need in the future. Today, the Army 
continues to balance requirements for end strength, current readiness, 
and modernization under the Budget Control Act by accepting risk in 
equipment modernization. The Army cannot afford to fully equip and 
sustain the Total Army with the most modern equipment; therefore, we 
acknowledge fiscal realities by selectively modernizing equipment and 
formations across the Total Army.
    The Army will mitigate future risk to our forces and mission 
accomplishment through sustained S&T investments, leveraging our 
current fleets by investing in incremental improvements, and building 
new by exception. Given fiscal constraints, the Army will likely have 
to continue to delay our next generation of platforms until they are 
cost effective and affordable in order to sustain readiness of the 
force, and maintain sufficient capacity to meet the demands of our 
National Security Strategy and combatant commanders' requirements.
    Question. If it is not, are current acquisition plans adequate to 
achieve this goal?
    Answer. The Army continues to develop acquisition strategies to 
address the gaps and required capabilities that support the Army 
Operating Concept (AOC). The acquisition strategies are dependent on 
stable and predictable resources. Approval of funding levels programmed 
for this requirement will determine how soon we can meet the approved 
AOC. If confirmed, I will work closely with Congress to facilitate 
support for the resourcing and acquisition efforts needed to enable 
implementation of the AOC.
    Question. Does the Army have adequate funding for needed research, 
development test and evaluation?
    Answer. The Army has been forced to make some difficult decisions--
balancing force structure, operational readiness, and modernization. 
Given these three requirements, modernization is the near-term offset 
for the other two. Within the modernization accounts, I fully support 
the Army's continued investment in science and technology. Given the 
fiscal realities facing the Department, I believe that this strategy of 
spending our diminished modernization budget on science and technology 
is appropriate as the seed corn that will enable the Army to maintain 
the overmatch it has today.
    Question. Is the Army at risk of being out matched by superior 
capabilities and weapons?
    Answer. Proliferation of advanced technologies and information 
operations are leveling the playing field and the Army is at risk of 
being matched by near-peer competitors in the outyears. Additionally, 
the proliferating commercially available technology is increasingly 
user-friendly and has empowered the individual, providing access to 
capabilities that were once the exclusive domain of countries and their 
militaries.
                         science and technology
    Question. One of the main objectives of the defense research 
enterprise is to develop advanced technologies that will be of benefit 
to the warfighter. In this regard, it is critical that advancements 
quickly transition from the development phase into testing and 
evaluation and ultimately into a procurement program for the 
warfighter.
    What are some of the challenges you see in transitioning 
technologies effectively from research programs into programs of 
records?
    Answer. In my view, the current acquisition system has not evolved 
sufficiently to keep pace with technological advances in the defense 
industry and the pace of the global commercial market. The rates of 
technological advancement and associated adaptation in today's 
environment have increased exponentially. I think it is prudent and 
necessary to adapt our acquisition system and procurement policies 
accordingly. I look forward to working with OSD and Congress in this 
important area.
    Question. As the Chief of Staff, what steps will you take to ensure 
that the services are benefitting more quickly and directly from the 
research being performed by the defense research enterprise?
    Answer. If confirmed, I will review the Army's long-range planning 
process and will encourage this process to look holistically at 
incorporating the capabilities being developed within the broader 
defense research enterprise as part of the Army strategy. As necessary, 
in conjunction with the other Service Chiefs, I will pursue 
recommendations that will enable the Department to take advantage of 
advanced technologies and make the process more timely and effective.
    Question. Do you feel that defense technologies and systems, 
especially in areas such as mobile communications, computing, and 
robotics, are keeping pace with global and commercial technological 
advances As you know, robust investment in S&T underpins technological 
advances in our military capabilities and is vital for maintain our 
military technological superiority over emerging adversaries.
    Answer. I concur that robust investment in S&T underpins 
technological advances in our military capabilities and is vital to 
maintaining technological superiority. While keeping pace with advances 
in technology is critical in some areas, there are steps to help offset 
advances in other areas. The Army leverages the latest commercial 
technologies and invests in critical enabling technologies that are not 
available off-the-shelf. The Army has protected its S&T investments in 
this fiscally challenging environment. If confirmed, I will continue to 
support a robust S&T investment.
    Question. If confirmed, what metrics would you use to assess 
whether the Army is investing adequately in S&T programs?
    Answer. The Army measures how well S&T transitions into a program, 
which provides some indication of whether we are investing our dollars 
wisely. If confirmed, I will require our S&T community to appropriately 
address the most critical needs of our Army and establish firm metrics 
to ensure our soldiers dominate the battlefield.
    Question. How would you assess the value and appropriate investment 
level for basic research programs?
    Answer. The Army's investment in basic research helps to 
investigate fundamental science that can be used to develop novel and 
innovative capabilities that benefit the Army. The Army included $425.1 
million for basic research in the Fiscal Year 2016 President's Budget 
request. This is approximately 19 percent of the Army's S&T budget. I 
have been advised that a reasonable range of investment levels for 
basic research is approximately 16-20 percent of the Army S&T budget 
and if confirmed, I will continue to support strong basic research.
    Question. What tools would you use to ensure that appropriate 
technologies are transitioning quickly into programs of record?
    Answer. If confirmed, I will review the LIRA (Long-Range Investment 
Requirements Analysis) which maps resources to requirements, programs, 
S&T and logistics. This planning tool, which looks out over 30 years, 
was designed to ensure that a defined plan with resources is in place 
to connect our valuable S&T efforts into our programs at the quickest 
point possible. I will ensure the LIRA provides a systematic planning 
of technology insertion into programs of record.
                          technical workforce
    A significant challenge facing the Department of Defense today is 
an impending shortage of high quality scientific and engineering talent 
to work at Defense laboratories and technical centers.
    Question. In your view, what are the pros and cons of having Active 
Duty Army personnel trained and working as scientists and engineers 
within the Army research and acquisition system?
    Answer. My view is that Active Duty Army personnel trained and 
working as scientists and engineers in Army research and acquisition 
can help operationalize technologies from a soldier's perspective. The 
cost, however, requires the Army to commit to advanced civil education 
for these personnel to ensure necessary professional qualifications. 
The benefit, in my view, outweighs the cost.
    Question. How would you ensure that directors of labs in your 
service have the tools they need to dynamically shape their S&T 
workforce?
    Answer. I understand that Congress has already provided significant 
tools to the Army that enables the directors of the labs to shape their 
science and technology workforce through various National Defense 
Authorization Act authorities. Those authorities allow additional 
capabilities such as direct hire authority for qualified science and 
engineering candidates and managing performance through alternative 
personnel systems. If confirmed, I will encourage and support 
appropriate additional authorities the Army may require.
                       test and evaluation issues
    Question. Are you satisfied with the Army's test and evaluation 
capabilities, including workforce and infrastructure?
    Answer. Based on what I know now, the Army has sufficient 
infrastructure and the appropriate workforce to provide services to all 
test customers. In my view, test and evaluation is critical to ensuring 
the Army continues to reduce program life-cycle cost, as well as to 
ensure future weapon systems are suitable, survivable and effective to 
improve the capabilities of soldiers. If confirmed, I will work closely 
with the Army test and evaluation community and the Office of the 
Secretary of Defense test and evaluation leadership to ensure the 
Army's test and evaluation infrastructure maintains necessary test 
capabilities and processes.
    Question. In which areas, if any, do you feel the Army should be 
developing new test and evaluation capabilities?
    Answer. I have been advised the Army is investing in new test 
capabilities to support unmanned and autonomous systems, survivability, 
hypersonics, directed energy and cyber. The Army is also examining 
opportunities to upgrade existing test capabilities to reduce high-cost 
drivers to make current testing methods more efficient. If confirmed, I 
will work closely with the Army test and evaluation community and in 
concert with the Deputy Under Secretary of the Army and the Office of 
the Secretary of Defense test and evaluation leadership to ensure the 
Army's test and evaluation infrastructure maintains necessary test 
capabilities and processes.
    Question. What are your views on the appropriate roles of OSD 
developmental and operational testing organizations with respect to 
testing of Army systems?
    Answer. It is my understanding that by law, OSD developmental and 
operational test and evaluation organizations are responsible for 
overseeing all major defense acquisition programs, major automated 
information systems, and other acquisition programs. The OSD testing 
organizations ensure appropriate testing is being conducted and that 
the right questions at the each level have been asked and answered.
                        recruiting and retention
    Question. What do you consider to be the key to the Army's success 
in recruiting the highest caliber American youth for service and 
retaining the best personnel for leadership responsibilities?
    Answer. The key to successful recruiting is explaining the Army in 
a manner that resonates with ``today's'' talented youth. Serving on a 
cohesive team with trusted professionals could be one of the most 
important things they ever do is a key message to today's youth who 
want to serve a purpose greater than themselves. If confirmed, I will 
work closely with the Secretary of the Army to ensure sustaining the 
All-Volunteer Force remains a strategic imperative for our Army.
    Question. What steps, if any, do you feel should be taken to ensure 
that current operational requirements and tempo do not adversely impact 
the overall readiness, recruiting, retention, and morale of soldiers?
    Answer. We must ensure that soldiers have the time and resources to 
prepare for and recover from their operational missions. With an 
appropriately sized force we can ensure soldiers have adequate dwell 
time between deployments. Additionally, quality leadership, training, 
meaningful work, and just compensation contribute to overall readiness, 
recruiting, retention, and soldier morale. If confirmed, I will work 
closely with the Secretary of the Army to provide the necessary 
resources to commanders so they can ensure overall readiness, 
recruiting, retention and morale of their soldiers.
    Question. What impact, if any, do you believe the Department's 
proposals aimed at slowing the growth of personnel and health care 
costs will have on recruiting and retention in the Army?
    Answer. I need to study the longer-term institutional implications 
of the personnel and health care costs, to include how these may affect 
recruiting and retention. On health care, we must continue to find ways 
to deliver high quality healthcare to our soldiers and families in 
effective and economical ways without degrading readiness.
    Question. The Army requested a provision for enhanced recruiting 
authorities for the fiscal year 2016 National Defense Authorization 
Act. What programs does the Army plan to implement and what specific 
recruiting needs will those programs address?
    Answer. No response required; question withdrawn.
    Question. If confirmed, will you review the Department of the Army, 
to include the Army National Guard, use of sports marketing and 
advertising purchases as a means of recruitment?
    Answer. Yes, if confirmed, I will work with the Secretary of the 
Army and the Director of the Army National Guard to review sports 
marketing and advertising to ensure our expenditures in this area are 
effective, efficient, and ethical in recruiting the high quality 
soldiers we need.
                         military compensation
    Question. What is your assessment of the adequacy of military 
compensation?
    Answer. My sense is that current military compensation is adequate. 
If confirmed, I will work with the Secretary of the Army to re-evaluate 
and assess compensation to ensure we sustain a high quality All-
Volunteer Force.
    Question. What recommendations would you have for controlling the 
rising cost of personnel?
    Answer. Controlling the rising cost of personnel will require a 
holistic look at how we compensate our personnel (both monetary and 
non-monetary). What I know is that we must continue to provide fair 
compensation to our soldiers that is competitive with other 
opportunities. If confirmed, I will work closely with the Secretary of 
the Army to establish a total compensation package that is competitive 
and maintains a high quality All-Volunteer Force.
    Question. Do you support the Department's compensation and health 
care proposals?
    Answer. Yes, I support the Department's plans for recommendations 
that preserve compensation, health care, and quality of life for 
soldiers, retirees and their families. I think it is important to honor 
our previous commitments to serving soldiers and veterans.
    Question. What is your assessment of military compensation as 
compared to civilian compensation?
    Answer. Military compensation, in general, is adequate, when 
compared to civilian compensation. However, the nature of the work and 
the sacrifice demanded from our soldiers and their families does not 
compare to the civilian sector. If confirmed, I will work closely with 
the Secretary of the Army, to ensure the Army can continue to attract 
our Nation's top talent and compensate them appropriately.
    Question. What areas of military compensation, if any, do you 
believe warrant improvement or modernization?
    Answer. I am interested in the details of the Military Compensation 
and Retirement Commission, specifically the reforms for blended 
retirement options. Whatever decisions are made must be accompanied 
with a robust training and education program so that our soldiers can 
make informed financial decisions for themselves and their Families. If 
confirmed, I will work closely with the Secretary of the Army and the 
other Service Chiefs to implement any final decisions.
                         education for soldiers
    Question. An important feature of the Post-9/11 GI Bill is the 
ability of career-oriented servicemembers to transfer their earned 
benefits to spouses and dependents.
    Answer. What is your assessment of the effect of the Post-9/11 GI 
Bill on recruiting and retention of soldiers?
    Answer. I think the Post 9/11 GI Bill is a valuable incentive and 
helps the Army attract and retain quality soldiers.
    Question. In your view, what has been the effect of the 
transferability option on retention and career satisfaction of 
soldiers?
    Answer. I believe a soldier's ability to transfer his/her Post 9/11 
GI Bill benefit helps the Army retain quality mid-grade and career 
soldiers.
    Question. How important do you believe tuition assistance benefits 
are to young soldiers, and what trends do you see in the Army's ability 
to pay for such programs at current levels over the FYDP?
    Answer. The ability to educate our soldiers is an important benefit 
and I believe it's one of the primary reasons our young Americans join 
the military. It is a key benefit and incentive to sustain the All 
Volunteer Force. There are several education benefits available, of 
which tuition assistance is one. In today's era of reduced budgets, we 
must balance benefits against the money available. If confirmed, I will 
strive to ensure we balance the benefits desired by soldiers with the 
funding provided to us by the Congress.
    Question. What changes, if any, would you recommend to current 
eligibility criteria for tuition assistance?
    Answer. Tuition Assistance is both a valuable benefit to our 
soldiers and our Army and evidences our commitment and investment in 
their future. If confirmed, I will work closely with the Secretary of 
the Army to explore potential improvements and ensure policy changes do 
not adversely affect the force.
    Question. Do you believe that tuition assistance should be used to 
enhance a soldier's career while he or she is in the Army?
    Answer. Absolutely. Tuition assistance is a valuable benefit to our 
soldiers and our Army and supports our culture and beliefs in life-long 
learning.
    Question. Do you agree with the Military Compensation and 
Retirement Modernization Commission that tuition assistance should be 
limited to courses and education that contribute to a soldier's 
professional growth?
    Answer. In principle, I generally agree; however, I am concerned 
about too narrow a scope in defining ``courses and education that 
contribute to a soldier's professional growth.'' The Army's current TA 
policy requires soldiers to first meet with a counselor in order to 
establish a degree plan before taking courses and receiving benefits; 
continued TA benefit receipt is contingent upon working toward that 
degree plan. We want all our soldiers to aspire to be lifelong 
learners.
             assignment policies for women in the military
    Question. As you know, two years ago, the Department rescinded the 
policy restricting the assignment of women to certain units which have 
the primary mission of engaging in direct ground combat operations, and 
has given the Military Services until January 1, 2016, to open all 
positions currently closed to women, or to request an exception to 
policy to keep a position closed beyond that date, an exception that 
must be approved by the Chairman of the Joint Chiefs of Staff and the 
Secretary of Defense. The services have opened a large number of 
positions to service by women and continue to work to develop gender-
free physical and mental standards for all military occupations, 
presumably with the goal of allowing individuals, regardless of gender, 
to serve in those positions if they can meet those standards.
    If confirmed, what role, if any, will you play in the development 
of these standards?
    Answer. My basic position is that all people should be afforded 
equal opportunity to rise in accordance with their merit. Currently, 
U.S. Army Training and Doctrine Command is working to validate the 
standards for all Army occupations. If confirmed, I will work with the 
Secretary of the Army and the other Services Chiefs to ensure that the 
Army has the appropriate mental and physical standards for all military 
occupations.
    Question. Will you ensure that the standards will be realistic and 
will preserve, or enhance, military readiness and mission capability?
    Answer. Yes, I am committed to ensuring the standards are realistic 
for every occupation and that soldiers have the opportunity to serve to 
their full potential. If confirmed, I will work closely with the 
Secretary of the Army and the other Service Chiefs to ensure that the 
standards are realistic and will preserve and enhance military 
readiness and mission capability.
    Question. Do you believe that decisions to open positions should be 
based on bona fide military requirements, and that assignment decisions 
should be made solely on the basis of a servicemember's ability to meet 
validated gender-neutral occupational standards?
    Answer. Yes, positions should be opened based on validated military 
requirements, tied to specific capabilities, skill sets, and 
established gender-neutral standards.
    Question. If so, what steps will you take, if confirmed, to ensure 
that such decisions are made on this basis?
    Answer. If confirmed, I will work with the Secretary of the Army to 
ensure decisions are made based on validated military and force 
readiness requirements.
    Question. To what extent is the Army coordinating with the Marine 
Corps in this effort? Are results from the assessments being shared 
between services?
    Answer. The Army and the Marine Corps have collaborated and shared 
information on their efforts. It is my understanding that the Army has 
shared results with all the Services when preparing the recommendations 
to open positions, units or occupations.
    Question. If the Marine Corps were to make the decision to not open 
all positions as of January 1, 2016, what effect, if any, will that 
have on the Army's decision?
    Answer. If the USMC decides not to open all positions, and if I am 
confirmed, I will work closely to understand the other Services' 
position and rationale in order to provide a fully informed 
recommendation to the Secretary of the Army. That said, my 
recommendation to the Secretary of the Army will be based on my best 
military judgment about what is best for the Army. My recommendation 
will be based on standards and readiness requirements.
    Question. What is your position on whether the Selective Service 
Act should be opened to all genders if the decision is made to open all 
units on January 1, 2016?
    Answer. I believe in maintaining the All-Volunteer Force and that 
we must do everything in our power to preserve it. The opening of 
previously closed positions to women is a step in the right direction 
for women who can meet the physical and mental standards. If confirmed, 
I will review if there is a need to change the Selective Service Act 
and provide my military advice to the Secretary of the Army.
                            force management
    Question. Modularity refers to the Army's fundamental 
reconfiguration of the force from a division-based to a brigade-based 
structure. Although somewhat smaller in size, modular combat brigades 
are supposed to be just as, or more, capable than the divisional 
brigades they replace because they will have a more capable mix of 
equipment--such as advanced communications and surveillance equipment. 
To date, the Army has established over 90 percent of its planned 
modular units, however, estimates on how long it will take to fully 
equip this force as required by its design have slipped to 2019.
    What is your understanding and assessment of the Army's modularity 
transformation strategy?
    Answer. My understanding is the Army has completed modular 
transformation of combat and support brigades. Modular Transformation 
reorganized the Army's Operating Force from large division-sized 
formations designed to defeat traditional threats in conventional 
campaigns to more versatile and deployable brigade-sized units designed 
to support joint force requirements for full spectrum operations. 
Importantly, modularity has allowed the Army to organize as we fight, 
and standardized our brigade combat teams into three configurations--
Armored, Infantry, or Stryker, and established adaptive, Joint Task 
Force capable headquarters at the 2-star level.
    Question. If confirmed, what actions or changes, if any, would you 
propose relative to the Army's modular transformation strategy?
    Answer. The Army is constantly changing. If confirmed, I will 
continue to assess the requirements of the national strategy against 
known and emerging requirements and threats to ensure the Army provides 
the best force structure (both capacity and capability) to support 
combatant commanders and the Nation.
    Question. What is your understanding and assessment of the 
employment and performance of modular combat brigades and supporting 
units in Operations Iraqi Freedom, New Dawn, and Enduring Freedom?
    Answer. I commanded modular brigade combat teams (BCTs) of all 
types in both Iraq and Afghanistan. The modular BCTs have greater 
utility across a broader range of military operations than those of 
previous brigade designs. In Iraq and Afghanistan, modular BCTs were 
effective during both combat and stability operations and far better at 
integrating the capabilities of other tactical elements of the Joint 
Force. Command and control functions are streamlined through the 
permanent task organization of critical core components such as 
engineer, field artillery, and military intelligence. Additionally, the 
standardized designs facilitated transitions and streamlined logistics.
    Question. What changes, if any, would you propose to the modular 
design, the mix of combat and supporting brigades, or modular unit 
employment to improve performance or reduce risk?
    Answer. Currently, I have no proposals to change the Army's modular 
designs. As a matter of routine, the Army analyzes and assesses 
requirements, threats, performance and risk the optimal force mix and 
equipment, spread across the Total Force. The results of this analysis 
will continue to inform Total Force Policy, design and structure. If 
confirmed, I will continually review the designs of our units to ensure 
the proper force mix delivers the right capability at the right time to 
the combatant commanders.
    Question. With respect to the Army's modular combat brigade force 
structure design, General Dempsey's June 2011 pamphlet titled ``CSA's 
Thoughts on the Army's Future,'' directs the Army to assess the 
feasibility of adding a third maneuver battalion to each heavy and 
infantry brigade.
    What is your understanding and assessment of the need to add a 
third maneuver battalion to the modular heavy and infantry brigades?
    Answer. Adding a third maneuver battalion to our brigade combat 
teams increases the Army's operational capability and flexibility and 
is the direct result of the lessons of 14 years of war and operations 
around the world. The change makes the brigade more lethal, flexible, 
and agile. The reorganization also represents a transition to a force 
that is prepared to effectively operate across a broader range of 
potential missions.
    Question. If confirmed, will you continue to implement the decision 
to add a third maneuver battalion to the heavy and infantry combat 
brigades? What force structure or capabilities would you propose to 
reduce in order to increase maneuver forces within the combat brigades?
    Answer. Yes, conversion will continue and is planned to be complete 
in the Active Component by the end of fiscal year 2015. The addition of 
the third maneuver battalion is nearly complete in the Active Component 
and will begin next year for the Army National Guard. I believe the 
third maneuver battalion in a Brigade Combat Team provides the combat 
power necessary to dominate the battlefield at the tactical level.
    Question. How will you manage this given the current drawdown of 
the Active Army?
    Answer. If confirmed, I will assess combatant commander 
requirements to ensure that we provide the best possible mix of 
capabilities within our end strength to support the National Military 
Strategy. The addition of a third maneuver battalion has been underway 
for years, and as a result, our brigade combat teams (BCTs) are more 
capable. Recent force structure reductions will diminish the aggregate 
capacity of the Army without affecting the remaining BCT's capability.
                   aviation restructuring initiative
    Question. The Aviation Restructuring Initiative is intended to 
fully modernize Total Army Aviation by 2028 and reorganize by 2019. Is 
this effort on track? If not, what challenges do you face?
    Answer. The Aviation Restructuring Initiative is on track to ensure 
our Total Army Aviation Force is fully modernized, ready, and tailored 
to meet mission demand in all three components. However, fiscal and 
resource constraints have limited the Army's flexibility.
    Any significant changes to the proposed realignment of aircraft and 
units, or an increase in Army Acquisition Objectives will have an 
adverse effect on unit readiness, modernization programs, and industry 
partners. Current and projected Army force structure and funding levels 
and current Congressional appropriations allow us to keep the best, 
most modern aircraft; standardize the structure of our aviation 
brigades; and balance the capabilities across the components.
                        total army end strength
    Question. Is the Total Army large enough to execute the National 
Military Strategy?
    Answer. The current CSA has testified ``yes, but with significant 
risk.'' The level of resourcing provided under the President's Budget, 
the Army has sufficient capacity, although the ability to execute the 
strategy depends on more than end strength alone. Maintaining adequate 
readiness and capability are also necessary components. Readiness, 
capacity, and capability require sufficient, predictable budgets to 
plan against.
    Question. Is an Active Duty Army of 450,000 large enough to execute 
all potential missions for the operational force while maintaining 
required capabilities in the institutional force?
    Answer. A 450,000 Active Army, 980,000 Total Army force provides 
the minimum capacity to execute the missions envisioned in the current 
national strategy at significant risk, while maintaining the required 
level of generating forces in the institutional Army. The risk to the 
force and missions increases if assumptions in the Defense Strategic 
Guidance (regarding the duration of conflicts, the contributions of our 
allies, and the nature and location of future threats) are invalidated.
    Question. Can the Active Duty Army successfully execute its mission 
at an end strength of 420,000?
    Answer. The U.S. Army cannot execute the missions currently 
assigned in the National Security strategic guidance documents if the 
total Army is reduced to 920,000 (420,000 Active Component, 315,000 
ARNG, 185,000 USAR).
           the national commission on the future of the army
    Question. Will you be prepared to receive and act on 
recommendations from the national commission in 2016?
    Answer. Yes.
          ``institutionalizing'' support for irregular warfare
    Question. A major objective of the Department over recent years has 
been increasing emphasis on lower-end, irregular, counterinsurgency, 
and stability type operations--all of which are areas that place a high 
premium and demands on Army capabilities. In order to ensure that a 
rebalance achieves this objective, and perhaps more importantly is then 
sustainable, senior leaders have stressed the need for the Department 
to ``institutionalize and finance'' the support necessary for the 
irregular warfare capabilities that have been developed over the last 
several years and will be needed in the future.
    What, in your view, does it mean to ``institutionalize'' 
capabilities and support for irregular warfare capabilities in the 
Army?
    Answer. The Army is institutionalizing capabilities and support for 
Irregular Warfare through the development of appropriate doctrine, 
organizations, training, materiel, leadership and education, personnel, 
facilities and policy (DOTMLPF-P) across the Army. Building on our 
experience of the last 14 years, Irregular Warfare has been 
institutionalized into doctrine, leader development and individual and 
collective training. The DOTMLPF-P is an ongoing and standing process.
    Question. What is your understanding and assessment of Army efforts 
to date to institutionalize and support these capabilities?
    Answer. The last 14 years has demonstrated the Army's ability to 
identify and adapt needed capabilities. A key component to 
institutionalizing any capability is to appoint a lead office with 
responsibility and authority for its oversight. The Army has 
established the following leads for the core activities constituting 
Irregular Warfare:

    1)  The U.S. Army Special Operations Command (counterterrorism, 
unconventional warfare, foreign internal defense)
    2)  The U.S. Army War College's Peacekeeping and Stability 
Operations Institute (stability operations)
    3)  TRADOC's Combined Arms Center (counterinsurgency, security 
force assistance, asymmetric warfare).
    The Army also serves as the Executive Agent for the Joint Center 
for International Security Force Assistance which supports the Joint 
Force. The Center for Army Lessons Learned, the Stability Operations 
Lessons Learned and Information Management System ensure that the 
capabilities and skill sets developed over the last 14 years of 
conflict remain relevant. If confirmed, I will continue to assess our 
progress and make any necessary adjustments going forward.
    Question. In your view, what are the obstacles, if any, to 
institutionalizing this kind of support, and what will be necessary to 
overcome them?
    While force structure and program changes may be necessary, they 
are unlikely to prove sufficient to achieve full institutionalization. 
The greater challenge may be found in changing Army culture, attitudes, 
management, and career path requirements and choices, for example 
through adjustments to organization, training, doctrine, and personnel 
policies.
    Answer. Fiscal uncertainty and the subsequent need to downsize 
remain the biggest obstacles to institutionalize and support these 
capabilities. As pressures for cuts in defense spending and force 
structures increase, the Army has to assess which of these capabilities 
it must retain and at what level. Finding the right balance is a 
challenge. Maintaining our doctrine and lessons learned databases is 
achievable, but retaining all of the necessary force structure will be 
more challenging. The Army requires consistent, on-time funding to 
maintain readiness, achieve efficiencies, and ensure that the Total 
Force is prepared to meet the Defense Strategic Guidance and win in a 
complex world.
    Question. In your view, what are the most important changes, if 
any, that might be necessary to complement programmatic changes in 
support of the further institutionalization of capabilities for 
irregular warfare in the Army?
    Answer. The most important changes are how we educate our leaders 
about the conduct of Irregular Warfare, to include Counterinsurgency 
(COIN), Unconventional Warfare (UW), Counterterrorism (CT), Foreign 
Internal Defense (FID), Stability Operations (SO), and Security Force 
Assistance (SFA). Through our professional military education, we must 
maintain competent and committed leaders of character with the skills 
and attributes necessary to meet the warfighting challenges of a 
complex world.
    Question. Institutionalizing support for irregular, 
counterinsurgency, and stability capabilities in the force does not 
mean ignoring the requirement for the Army to be trained, equipped, and 
ready for major combat at the high-end of the full spectrum of 
operations.
    If confirmed, how would you propose to prioritize and allocate the 
Army's efforts and resources to ensure that the force is prepared for 
major combat while at the same time it increases and institutionalizes 
support for irregular, counterinsurgency, and stability operations?
    Answer. Current global instability reinforces that irregular, 
asymmetric and hybrid threats will continue to be central to the future 
operating environment. Consequently, in accordance to the Army 
Operating Concept, we must train and educate our leaders to operate 
effectively in the spectrum of conflict against multiple conflict 
forms. In the training environment, we are replicating those threats 
and conditions to ensure the Army is able to operate in the 
increasingly complex global security environment. We maintain a 
responsive training system underpinned by a robust lessons learned 
process and professional military education that incorporates both 
regular and irregular war to ensure the Army is ready. In light of 
changing threats and the evolving operating environment, we 
continuously review all areas in the span of DOTMLPF-P to ensure the 
Army remains well set to face emerging challenges. This ensures the 
Army is able to respond rapidly to crises and skillfully transition 
between types of military operations as the threat changes.
                         equipment repair/reset
    Question. In your view, is this level of funding sufficient to not 
only prepare Army forces for operations in Afghanistan but to also 
improve the readiness of non-deployed forces for other potential 
contingencies?
    Answer. From my understanding, the Army requested the funding it 
needs to restore combat capability to the equipment returning from 
Afghanistan, commensurate with the Army's enduring need for this 
equipment.
    Question. Is it your understanding that our repair depots are 
operating at full capacity to meet rebuild and repair requirements for 
reset?
    Answer. From my understanding, our repair depots are meeting our 
rebuild and repair requirements.
    Question. What additional steps, if any, do you believe could be 
taken to increase the Army's capacity to fix its equipment and make it 
available for operations and training?
    Answer. If confirmed, I will assess the Army's current capacity to 
repair and replace equipment and make recommendations if necessary. The 
Army will continue to explore new technologies and emerging methods to 
fix equipment and support logistic operations.
    Question. What impact is this level of funding likely to have, if 
any, on the ability of Army National Guard units to respond to Homeland 
Defense and support to civil authorities' missions?
    Answer. Support to the homeland is the Total Army's highest 
priority. Homeland defense and support to civil authorities centers on 
the Army National Guard but utilizes assets from all components. Since 
the Army National Guard is a component of the Total Army, it will be 
affected by decreases in the levels of funding. Decreased funding will 
have a negative impact on the Total Army (Active, National Guard, and 
USAR) readiness levels with decreased capability to respond to Homeland 
Defense and Support to Civil Authorities.
                special operations enabling capabilities
    Question. If confirmed, how would you work with the Commander of 
USSOCOM to address the enabling requirements of Army SOF throughout the 
deployment cycle?
    Answer. The Army works closely with the Joint Staff and USSOCOM in 
the Global Force Management process to ensure resources are provided to 
Geographic Combatant Commanders in accordance with Department of 
Defense priorities. Additionally, Army SOF and conventional 
interoperability training remains a top priority at the Combined 
Training Centers to ensure units maintain the level of shared 
understanding developed throughout the last 14 years of conflict. We 
value our relationship with USSOCOM and continue to evaluate the way we 
support all Geographic Combatant Commands. The continued refinement of 
the Regionally Aligned Force concept and establishment of a Department 
of the Army level liaison cell within USSOCOM should optimize the 
support the service can provide. Sustaining the close relationship that 
conventional forces and SOF have developed during combat operations 
over the past decade and a half is a key training priority.
    Question. Do you agree that Army special operations personnel 
should be managed by U.S. Special Operations Command? Please explain.
    Answer. No, the Army has considerable interaction with the U.S. 
Special Operations Command related to the assignment and development of 
its personnel. If confirmed, I will work with the Secretary of the Army 
to ensure current personnel management policies related to all 
combatant commands are adequate.
                         active army readiness
    Question. Does the Army have adequate readiness levels? If not, 
why?
    Answer. As a result of the Budget Control Act and increased global 
demand, the Army implemented a sustained readiness approach to maintain 
a contingent response capability and fulfill current requirements. With 
the implementation of the Budget Control Act, the Army has only been 
able to sustain approximately one-third of the Regular Army (Active 
Component) at acceptable combat readiness standards. Our objective is 
to maintain two-thirds of the Active component at combat ready 
standards. Similarly, we have not been able to maintain Army National 
Guard units at acceptable levels of readiness. The principal driver for 
this status is inadequate funding to maintain appropriate levels of 
capacity, readiness, and modernization.
    Question. What must be done to improve readiness levels of the 
Active Army?
    Answer. Consistent and predictable funding is necessary to restore 
the appropriate balance between modernization, procurement, end-
strength and force structure. This will stabilize the resource elements 
of Army Readiness: Manning, Equipment, Sustainment, Training and 
Installation Support. This stability coupled with continued gains in 
training proficiency over time will allow the Army to address current 
global demand, while maintaining the readiness required to support 
National Military Strategy contingency requirements.
    Question. What percentage of Active Army units must be fully ready?
    Answer. Readiness requirements are determined across the Total 
Force based on time, capacity, and capability--against planning 
contingencies, combatant command requirements, and resources. Because 
of the constrained fiscal environment, only about 30 percent of Army 
brigades are at acceptable levels of combat readiness. The U.S. Army 
BCT combat readiness rate should be between 60-70 percent.
    Question. How would you characterize Army readiness in its deployed 
and non-deployed units?
    Answer. All Army units and soldiers actively supporting combatant 
commands deploy at the highest levels of assigned mission readiness. 
Outside of deployed forces, the Army has had to focus resources on a 
small number of non-deployed brigade combat teams and enabling forces 
for the global response force. For those non-deployed units at lower 
readiness levels, it will take longer to get them ready to get to the 
fight, potentially losing opportunities with rapid deployment, or 
sending those units quickly but less ready and risking higher 
casualties.
    118. Do you believe the current state of Army readiness is 
acceptable?
    Answer. The CSA, GEN Odierno, has testified that currently the Army 
provides a sufficient amount of forces to fulfill all the requirements 
of the Defense Strategic Guidance but at ``significant risk'' due to 
readiness. Given current readiness levels and uncertain global demands, 
if confirmed, I will assess our readiness levels closely as our #1 
priority and provide candid military advice on our capability to meet 
requirements.
    Question. How do you see operations in Iraq and Afghanistan 
impacting the readiness of Army forces that may be called upon to 
respond to an attack or another contingency?
    Answer. Global demand for Army forces continues to consume 
resources needed to rebuild Army readiness required for contingency 
plans. Iraq and Afghanistan are not the sole source of demand. 
Reductions in planned demand have been supplanted by growth in un-
forecasted global requirements. With decreasing force structure 
capacity and resources, the Army prioritizes readiness efforts for 
Iraq, Afghanistan, and elsewhere at the expense of the non-deployed 
force readiness. The Army will need more time to ready and deploy 
additional forces to meet contingencies, potentially incurring higher 
casualties or jeopardizing mission accomplishment.
              reserve components as an operational reserve
    Question. What is your understanding and assessment of the Army's 
Reserve components in regard strategic depth?
    Answer. I am mindful that, as established in federal statute, the 
purpose of our Reserve Components--the Army National Guard of the 
United States and the United States Army Reserve--is to provide trained 
units and qualified persons for Active Duty whenever more units and 
persons are needed than can be provided by the Regular Army. As such, 
our Reserve Components fulfill many operational demands as well as 
providing strategic depth. If confirmed, I will continue to ensure the 
Total Army is ready to meet the needs of combatant commanders.
    Question. In your view, what are the major challenges to 
maintaining and enhancing the Army Reserve and Army National Guard as a 
relevant and capable operational Reserve?
    Answer. As resources and opportunities for training and operational 
deployments decrease, our principal challenges for preserving the 
Reserve components as an operational Reserve are retaining relevant 
operational experience and readiness. Both the Army National Guard and 
the U.S. Army Reserve are critical to the Nation's defense to provide 
strategic depth and as an operational Reserve. I am, therefore, deeply 
committed to maintaining their readiness as a top priority.
    Question. What are your views about the optimal role for the 
Reserve Component forces in meeting combat missions?
    Answer. Combat missions are conducted by all types of units from 
all three of our components--Regular Army, Army National Guard, and the 
U.S. Army Reserve. The Army must retain the authority to integrate 
personnel and units from all three components to provide our Joint 
force commanders with the best Army force mix for the job at hand. In 
some cases, depending on the types of units required and the specific 
mission, our Reserve and Guard forces can effectively fulfill early 
deploying requirements. In other cases, they are better suited for 
providing operational and strategic depth. The optimal role for Reserve 
component forces will depend on the specific mission requirement 
generated by the combatant commanders and requires careful analysis of 
mission, enemy, terrain, troops available, and significantly, the time 
required to respond to the combatant commander requirement.
    Answer. No. The Nation needs the flexibility to employ personnel 
and units from all three components to fulfill the operational demands 
of our state governors and combatant commanders.
    Question. In your view, how will predictable cycles of 1 year 
mobilized to 5 years at home affect the viability and sustainability of 
the all-volunteer Reserve force?
    Answer. Soldiers, families, and employers have shown strong support 
for the one year mobilized to five years at home rotation rate goals as 
established by the Secretary of Defense. Additionally, mobilization 
experience from the last decade substantiates this as well. The 
viability of the All Volunteer Force is inextricably linked across all 
components. Sustainment of the All Volunteer Force across all three 
Army components--Regular Army, Army National Guard, and U.S. Army 
Reserve--is critical to the long term security of the United States. If 
confirmed, I will remain committed to ensure the operational tempo of 
all three Army components is structured at a pace to sustain the All 
Volunteer Force.
    Question. Advocates for the National Guard and Reserve assert that 
funding levels do not meet the requirements of the Reserve components 
for operational missions.
    Do you agree that the Army's Reserve components are inadequately 
resourced, particularly in view of the commitment to maintaining an 
operational Reserve?
    Answer. No, but I do agree that the spending caps under the Budget 
Control Act have placed significant downward pressure on our budget 
such that a number of hard choices have been made and will need to be 
made if relief does not come. Most of those hard choices have been 
disproportionately taken in the Total Army by the Active Component. In 
fact, as Total Army resources have been reduced since 2011, the 
proportional share of available Total Army resources allocated to our 
Reserve and Guard forces has increased. According to Army projections 
for fiscal year 2021, Reserve and Guard shares of the Army budget will 
have increased by 12.7 percent and 27.8 percent, respectively, since 
fiscal year 2001. Resourcing of any Army component or any Army program 
is a reflection of the total resources provided to Department of the 
Army to fulfill its statutory and strategic roles and responsibilities. 
If confirmed, I will work to ensure that our Reserve Components are 
resourced to provide the Army both operational Reserve and strategic 
depth as we train to confront current and future threats.
                             national guard
    Question. What is your understanding and assessment of changes in 
the global and domestic roles and missions of the Army National Guard 
and the National Guard Bureau in the last decade?
    Answer. The Army National Guard of the United States remains one of 
two viable and important reserve components in the Army. As the Army's 
global and domestic roles and missions change, the personnel and units 
from all three components will be employed to meet demand. The 
experiences of the last decade illustrate this. We have learned that 
``reserve'' is no longer solely defined by geography, but also includes 
both capacity and response time.
    Question. What is your understanding and assessment of the Army's 
commitment to fully fund Defense Department requirements for Army 
National Guard equipment?
    Answer. PB16 funds Total Army endstrength of 980,000. General 
Odierno assesses this is as ``significant risk'' and sufficient to 
fulfill the 2012 DSG but at ``significant risk.'' PB16 does not fully 
fund modernization. These shortages are shared across the Total Force.
    At this time, the Army cannot afford to fully fund requirements, to 
include equipment for any of the components--Regular Army, Army 
National Guard, and U.S. Army Reserve. If confirmed, I will work to 
balance forces, readiness, and modernization across the Total Army to 
best fulfill our responsibilities within the Defense Strategy given the 
resources we are given.
    Question. In your view, do Army processes for planning, 
programming, budgeting, and execution sufficiently address these 
requirements for National Guard equipment?
    Answer. Requirements for National Guard equipment and the two other 
Army components are driven by the process of ``Total Army Analysis'' of 
how the Army will fulfill the National Military Strategy. The challenge 
is managing risk by balancing forces, modernization, and readiness 
across all components to fulfill Army roles and responsibilities for 
national defense.
    The PPBE process is adequate for the Total Force to include the 
National Guard. What is lacking is sufficient funds for all the 
components. Shortages reflect resourcing shortfalls vice processes.
    Question. If confirmed, how would you ensure that these equipment 
needs of the Army National Guard are fully considered and resourced 
through the Army budget process? In your view, what is the appropriate 
role for the Chief of the National Guard Bureau in this regard?
    Answer. If confirmed, I would work closely with the Secretary of 
the Army to fulfill the strategic and fiscal guidance provided by the 
President and the Secretary of Defense within the resource levels 
provided. Federal statute clearly defines the advisory role of the 
Chief of the National Guard Bureau. The Director of the Army National 
Guard, on behalf of the Chief of the National Guard Bureau, is a full 
participant in the discussions and deliberations of how we equip the 
Army and if confirmed, I will work closely with the Director of the 
National Guard to meet the Total Army resourcing challenges.
    Question. What is your understanding and assessment of the role and 
authority of the Director of the Army National Guard, and, in your 
view, how does this compare with the role and authority of the Chief of 
the Army Reserve?
    Answer. The Chief of the Army Reserve is also the Commanding 
General of U.S. Army Reserve Command, and exercises command authority 
over all U.S. Army Reserve personnel and units assigned to the command. 
As such, the Chief of the Army Reserve can more readily adapt Army 
Reserve forces and programs to dynamic strategic and fiscal guidance. 
The Director of the Army National Guard on the other hand does not 
command the Army National Guard. By law, when not federalized, 
personnel and units of the Army National Guard are controlled by the 
Governors of the 54 states and territories to which they are 
apportioned. When federalized, they usually fall under the command of 
the Commander, U.S. Army Forces Command, before they are provided to a 
combatant commander in response to a request for Army forces. The 
Director of the Army National Guard assists the Chief of the National 
Guard Bureau in the performance of his or her duties.
                      family readiness and support
    Question. Soldiers and their families in both the Active and 
Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of concerns among military families as a result of 
the stress of deployments and the separations that go with them.
    What do you consider to be the most important family readiness 
issues for soldiers and their families?
    Answer. If confirmed, I will continue to maintain Family readiness 
by fully supporting the important range of services and programs that 
provide soldiers peace of mind that their Families are being cared for 
during long deployments, changes of station and continued times of high 
operational tempo. At issue here is adequacy of funding to enable our 
support. I will sustain the Army's commitment to a high quality of life 
for soldiers, families and civilians. Our program for this is Total 
Army Strong, which provides commanders the ability to tailor services 
and programs to meet the needs of local military community.
    Programs and services such as the Exceptional Family Member Program 
(considers family members with special needs during the assignments 
process), Child Development Centers (provides soldiers with affordable, 
quality day care), and the Financial Readiness Program (offers soldiers 
financial counseling throughout their careers) are just a few examples 
of the different ways the Army enables soldier and family readiness.
    Question. How would you address these family readiness needs in 
light of future reductions in end strength?
    Answer. If confirmed, my goal would be to maintain an Army of 
strong and resilient soldiers and families. I would, however, as a 
result of the Army's upcoming end-strength reductions, focus on the 
Army's Soldier for Life (SFL) initiative that emphasizes the Army's 
commitment to those who serve from the day the recruit reports for duty 
through transition and continued service as a veteran. The SFL program 
will provide many opportunities for soldiers and families leaving the 
Army as a result of the drawdown.
                        military quality of life
    Question. The Committee is concerned about the sustainment of key 
quality of life programs for military families, such as family support, 
child care, education, employment support, health care, and morale, 
welfare and recreation services, especially as DOD faces budget 
challenges.
    If confirmed, what further enhancements, if any, to military 
quality of life programs would you consider a priority in an era of 
intense downward pressure on budgets?
    Answer. With the restructuring of the Army and the current fiscal 
climate, if confirmed, I would apply resources to programs and services 
that have the greatest impact on sustaining soldier and family 
resilience and thereby Army readiness. I would also look to partner 
with the other Military Departments and local communities to assist the 
Army in ensuring availability of key programs as reasonable cost to all 
soldiers and families, and to strengthen the Army's Soldier for Life 
initiative. If confirmed, I would also want to hear from our soldiers 
and families about those programs that are most important to them and 
those services that they need but we are not providing.
                           suicide prevention
    Question. What is your assessment of the Army's suicide prevention 
program?
    Answer. We need to do more for our soldiers and family members when 
it comes to preventing suicide and mitigating the factors of suicide 
and other high risk behaviors. Our Ready and Resilient efforts deliver 
training, tools, and resources to improve soldiers performance, 
strengthen their resilience and make them stronger and the Army has 
made good progress in the last few years. However, more work needs to 
be done. If confirmed, I will work with the Secretary of the Army to 
continually assess this program to ensure we are meeting the needs of 
our soldiers and that we continue to understand the myriad of causes 
that lead to self-harm. I am committed to prevention and intervention 
to help soldiers who are suffering and risk harm to self.
    Question. In your view, what role should the Chief of Staff of the 
Army play in shaping policies to help prevent suicides and to increase 
the resiliency of all servicemembers and their families?
    Answer. If confirmed, my role is to work with the Secretary of the 
Army to provide policy and resources to Commanders to help them prevent 
suicides and increase resiliency in the force. In my view, suicide 
preventions continue to be a priority mission for all commanders and 
soldiers.
    Question. If confirmed, what actions will you take to ensure that 
sufficient mental health resources are available to servicemembers in 
theater, and to the servicemembers and their families upon return to 
home station?
    Answer. If confirmed, I will ensure that soldiers and their family 
members have access to quality mental health care. As one of my 
priorities, the Army will continue to make quality behavioral health 
care available in innovative ways, such as embedded providers with 
combat units in theater and at home station. We will continue to lead 
the DOD in placing providers where soldiers' families can also easily 
access mental health care. It is critical that soldiers view seeking 
mental health care as a sign of strength. I will maintain the focus on 
mental health care and take every opportunity to improve on the gains 
made in the past several years.
                   medical care for wounded soldiers
    Question. Is the Army adequately resourced to provide all needed 
combat medical support in our active theaters?
    Answer. At the current rate of combatant commander demand, we are 
adequately resourced to provide the needed combat medical support in 
our active theaters. The nature of the strategic environment requires 
the Army to continuously assess its capabilities and force 
requirements. It has taken years to achieve the medical size, 
structure, and capability required. Total Army Analysis has resulted in 
a medical force sufficient to support combatant commands, that best 
meets guidance under established resource constraints, and that 
fulfills the roles and missions we ask of these key battlefield 
enablers.
    Question. Is the Army adequately resourced to care for soldiers in 
the continental United States and overseas garrisons?
    Answer. Current funding levels provide adequate resources to 
sustain medical readiness and provide quality healthcare for soldiers 
worldwide. Army Medicine continues to seek efficiencies and 
opportunities to collaborate with other services, the Veteran's 
Affairs, and the private sector to minimize costs. The successful 
transition to a System for Health is vitally important to the survival 
of Army Medicine as an affordable and viable means to maintain the 
force.
    Question. How does the Army provide follow-on assistance to wounded 
personnel who have separated from Active service?
    Answer. The Army's primary system to assist our wounded personnel 
separating from Active service is through the Soldier for Life 
Transition Assistance Program (SFLTAP). This program provides points of 
contact for assistance once out of the military. For the population 
consisting of the most seriously wounded soldiers, they may qualify for 
the Army Wounded Warrior Program, whose cadre maintains contact with 
seriously injured veterans to provide a continuum of care and support 
as well as smooth transition to the Department of Veteran Affairs. We 
also refer Wounded Warriors who qualify to the Veterans Affairs 
Vocational Rehabilitation and Employment program that further assists 
in the transition process.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Army's support for 
wounded personnel, and to monitor their progress in returning to duty 
or to civilian life?
    Answer. Warrior care will remain an Army priority; it is an 
enduring mission and our sacred obligation. The Army will remain 
committed to ensuring our wounded, ill, and injured soldiers have the 
best health care possible to either successfully remain on Active Duty 
or transition from Military Service and into communities as productive 
Veterans. Additionally, we will continue our collaboration efforts with 
Veterans Affairs to facilitate the seamless transition for our Wounded.
    Question. What is your understanding and assessment of the Army's 
disability evaluation system?
    Answer. The Army is committed to ensuring that all soldiers receive 
the care they need and the benefits they have earned through their 
selfless service. It is my understanding that the disability evaluation 
system (DES) is approaching a steady state balance, as soldier 
disability cases are completed at a rate equal to or greater than cases 
being enrolled on a monthly basis. Collaboration between the Physical 
Disability Agency, Medical Command/Office of the Surgeon General and 
the Veteran's Affairs, and the application of increased manpower and 
resources have dramatically improved capacity, created efficiencies and 
reduced timelines. Average time of completion for Active and Reserve 
Component Soldier cases now meets and exceeds OSD Warrior Care Policy 
goals. The DES Dashboard provides transparency and predictability for 
soldiers, families and commanders and soldiers are increasingly 
satisfied with their understanding of the process and the amount of 
time it takes to complete DES. My assessment is that maintaining 
timelines and improvements will require continued commitment of 
resources in order to care for our most precious asset--our soldiers. 
If confirmed, I will be committed to ensuring we sustain our progress 
and continue to improve where possible.
    Question. Is the Total Army Health care system adequate to meet the 
health care needs of soldiers, families and retirees?
    Answer. Army Medicine is well prepared to support the health care 
needs of soldiers, families and retirees. The Army direct care system 
is made up of 32 primary military treatment facilities and smaller 
clinics across our camps, posts and stations. There is also care 
available through TRICARE contracts near military bases. In addition, 
beneficiaries may access care through non-contracted providers in the 
areas not supported by TRICARE contracts. There are also virtual 
resources available to beneficiaries, such as nurse advice line, that 
supplement face to face care.
             prevention of and response to sexual assaults
    Question. The Fiscal Year 2014 Department of Defense Annual Report 
on Sexual Assault in the Military reflects that substantiated reports 
of sexual assault in the Army resulting in preferral of court-martial 
charges increased by 56 percent from 272 reports in fiscal year 2013 to 
424 reports in fiscal year 2014.
    What is your assessment of this report?
    Answer. Any sexual assault in the U.S. Army is unacceptable. Recent 
survey data estimates that the prevalence of sexual assault in the 
military is decreasing. At the same time, reports of sexual assault 
have seen unprecedented increases in the last three fiscal years. The 
Army views these results as indicators of a continued growing trust and 
confidence in our system, as more victims are reporting. However, if 
confirmed, this issue will have my full attention and continued intense 
focus on this issue by commanders at all levels.
    Question. What is your assessment of the problem of sexual assaults 
in the Army?
    Answer. Sexual assault has no place in our Army and I am personally 
committed to its elimination. Sexual assault not only has a long-
lasting effect on the individual victim, but it also erodes unit 
readiness and command climate. If confirmed, this issue will have my 
full attention.
    Question. What is your assessment of the Army sexual assault 
prevention and response program?
    Answer. As I said earlier, any sexual assault is unacceptable. I 
see some positive progress and have been told the Army Sexual 
Harassment/Assault Response and Prevention (SHARP) Program is moving in 
the right direction. However, I also believe that there is still much 
work to be done. We must continue to increase reporting and eradicate 
prevalence. We must focus on the issue of retaliation to ensure that 
victims feel safe in reporting and that we have established a command 
climate that demands dignity and respect for all soldiers, civilians 
and family members. This issue will have my personal attention.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. Protecting and supporting the victim of sexual assault is 
imperative. Though Army policy favors unrestricted reporting as a 
bridge to offender accountability, I understand that some victims do 
not want an investigation for a variety of personal reasons. In those 
instances, restricted reporting is a vital avenue to allow these 
soldiers to obtain advocacy, medical, mental health, and legal 
services. If we do this right, the services and support provided to 
victims who initially make a restricted report will provide those 
victims with the confidence to convert to an unrestricted report. I 
believe that allowing victims options and multiple avenues for 
reporting sexual assault has been and will remain critical to our 
progress.
    Question. What is your view about the role of the chain of command 
in providing necessary support to victims of sexual assault?
    Answer. Commanders and anyone in a leadership position must set, 
teach, and enforce the best possible standards for supporting victims 
of sexual assault. Specifically, committed, engaged leadership and 
grass-roots prevention campaigns at the squad leader level are critical 
to providing the necessary support to victims of sexual assault. 
Commanding officers are also responsible for setting positive command 
climates that not only help prevent the crime of sexual assault but 
also provide a safe environment where victims feel confident coming 
forward to report. The entire chain of command is absolutely critical 
in creating a climate that prevents sexual assault, protect the 
victims, and hold the perpetrators fully accountable in accordance with 
appropriate legal processes. Our current focus is on the challenge of 
retaliation. Commanders must have visibility of any potential 
retaliation or reprisal and must monitor investigations to ensure 
appropriate accountability.
    Question. What is your understanding of the adequacy of Army 
resources and programs to provide victims of sexual assault the 
medical, psychological, and legal help they need?
    Answer. The Army provides several resources to aid victims of 
sexual assault, including local Medical Treatment Facilities, Sexual 
Assault Response Coordinators (SARCs), Victim Witness Liaisons (VWLs), 
family advocacy, social services, chaplain services, and legal 
services. Army psychiatric counselors and chaplains are confidential 
counseling channels.
    The Army has transformed response services over the past years, 
including professionalizing the Sexual Assault Response Coordinators 
and Victim Advocate education, implementing the Special Victim Counsel 
(SVC) program, and establishing one-stop shops for victims in SHARP 
Resource Centers. The U.S. Army Medical Command sexual assault medical 
management team is designed to provide immediate and long-term patient 
care, which includes assessment and treatment of acute medical 
injuries, assessment of risk for pregnancy, options for emergency 
contraception, assessment of risk of sexually transmitted infections, 
including HIV prophylaxis, to necessary follow-up care and services. 
All patients are offered a referral to behavioral health at their first 
medical encounter and are encouraged to receive psychological care and 
victim advocacy support. In addition, there are long-term care plans 
tailored to meet the individual's patient's medical and behavioral 
health care needs.
    The Army SVC Program makes available to all sexual assault victims 
a specially trained and certified military attorney to represent the 
victim during all phases of a case, including investigation, military 
justice and administrative proceedings. The SVC is also a legal 
assistance attorney who provides both independent representation to the 
victim in the military justice context, and help with any legal issues 
the victim might have. This allows victims to form an attorney-client 
relationship with one attorney to whom they can turn for all their 
legal needs. To provide maximum coverage across the force and 
facilitate face-to-face communication between the SVC and victim, the 
Army maintains approximately 75 SVC stationed at 35 locations. I 
believe this is the right model for the Army and adequately protects 
the legal interest of sexual assault victims.
    Question. What is your view of the steps the Army has taken to 
prevent additional sexual assaults both at home station and deployed 
locations?
    Answer. The Army has made significant, measurable progress to 
prevent sexual assaults both at home and in deployed locations, but 
there is much more work to be done. I have been and will remain 
committed to combating this serious crime. If confirmed, I will build 
on the hard work that has been done and will ensure that Army leaders 
and soldiers across all our formations know that preventing sexual 
assault is one of my highest priorities.
    Question. What is your view of the adequacy of the training and 
resources the Army to investigate and prosecute allegations of sexual 
assault?
    Answer. The Army has one of, if not the best training programs for 
sexual assault investigators in the Nation. The basic two-week course 
is taught by nationally recognized civilian experts in trauma, alcohol 
facilitated sexual assaults, and the psychological effects of sexual 
assault. Course instructors also include experts in the medical aspects 
associated with child sexual assault, and renowned civilian police 
experts from highly regarded special victim investigative units. 
Additionally, I have been informed that the course's lead instructor, 
Mr. Russ Strand, developed the Forensic Experiential Trauma Interview 
(FETI) technique. This innovative interview technique has been crucial 
to obtaining thorough and detailed testimonial evidence from victims of 
sexual assault, thereby setting the stage for successful prosecution. 
Mr. Strand was recognized with the Visionary Award by the Ending 
Violence Against Women International Association for his work on this 
advancement. Furthermore, the sexual assault investigation course and 
training are being taught to civilian law enforcement agencies, and 
college campus police, throughout the United States and Canada. The 
training has been nominated for the 2015 International Association of 
Chiefs of Police/Thomson Reuters Award for Excellence in Criminal 
Investigations. I have been informed that over half of the Army 
investigators in the field have received this training, and are 
employing its principles and processes daily, worldwide. Follow-on 
training courses focus on domestic violence, child abuse and advanced 
forensic crime scene processing. As a result, the Army's investigators 
bring unmatched investigative capabilities to the installations' 
special victim teams. Furthermore, it is my understanding that the Army 
has resourced its Criminal Investigation Command, with 30 specially 
trained, expert civilian Sexual Assault Investigators (SAIs), and 
stationed them at key locations around the world. Each SAI brings the 
wealth of his/her training and expertise to every sexual assault 
investigation. Additionally, the SAIs use their knowledge and expertise 
to mentor less experienced investigators. Working hand-in-hand with 
specially trained sexual assault prosecutors, the special victim 
capability teams on each Army installation work tirelessly to ensure 
that all available evidence is collected and recorded to ensure 
successful prosecutions.
    The military justice system has undergone the most comprehensive 
revision since its implementation more than 50 years ago. Time is 
needed to implement and assess these changes. The training and 
resourcing of specially-selected and trained investigators and 
prosecutors has been a focus of Army efforts and has resulted in 
improved proficiencies for accountability. If confirmed, I will ensure 
that the Army continues to focus on these critical functions.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults occur?
    Answer. I firmly believe the role of the commander is central to 
sexual assault prevention within the military including those behaviors 
and actions that could lead to sexual assault. The commanding officer 
of every unit is the centerpiece of an effective and professional 
warfighting organization. They are charged with building and leading 
their teams to withstand the rigors of combat by establishing the 
highest level of trust throughout their unit.
    Commanding officers are responsible for setting and enforcing a 
command climate that demands dignity and respect for all soldiers. 
Trust in the commander and fellow soldiers is the essential element in 
everything we do. Developing this trust, dedication, and esprit de 
corps is the responsibility of the commanding officer. They do this by 
setting standards, training to standards, and enforcing standards that 
clearly demonstrate intolerance to sexual assault. If confirmed, I will 
ensure standards for sexual assault prevention are met.
    Question. Surveys report that up to 62 percent of victims who 
report a sexual assault perceive professional or social retaliation for 
reporting. If confirmed, what will you do to address the issue of 
retaliation for reporting a sexual assault?
    Answer. The issue of professional or social retaliation is deeply 
concerning and the Army has been working proactively to address what is 
a complex and challenging aspect of changing a culture. Past efforts 
have included the expedited transfer program and the implementation of 
the Special Victim Counsel. Most recently, the Army has spoken with and 
surveyed victims, implemented policy to prohibit retaliation, developed 
training to assist soldiers in identifying and preventing retaliation, 
and implemented policy to investigate and monitor all allegations of 
retaliation.
    Based on recent surveys, the Army has sharpened its focus on 
addressing retaliation. The Army has implemented policy, adapted 
training, and begun collecting data for analysis. Committed, engaged 
leadership and grass-roots prevention campaigns at the squad leader 
level are critical to solving the problem of retaliation.
    Question. Sexual assault is a significantly underreported crime in 
our society and in the military. If confirmed, what will you do to 
increase reporting of sexual assaults by military victims?
    Answer. Recent survey data shows the Army is making significant 
progress in strengthening the Army culture in order to reinforce 
positive command climates where victims: are encouraged to report 
sexual assaults; know they will receive the best medical care and 
support services; their incidents will be thoroughly investigated by 
independent law enforcement experts in coordination with specially 
trained and selected Special Victim Prosecutors; and feel confident 
that offenders will be held appropriately accountable.
    Indicators of this progress include a significant decrease in 
prevalence, particularly for female soldiers, combined with an 
unprecedented increase in reporting. In the past year, the Army also 
experienced the highest conversion rate from restricted to unrestricted 
reports (triggering command notification and law enforcement 
investigation) since the inception of restricted reporting in 2005. The 
Army has also seen a substantial increase in the percentage of male 
victims reporting, an encouraging trend in one of the most challenging 
aspects of this fight given the complex nature of male on male assault.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command, instead of a military 
commander in the grade of O-6 or above as is currently the Department's 
policy, to determine whether allegations of sexual assault should be 
prosecuted?
    Answer. The Commander is responsible for everything the unit does 
and fails to do. This responsibility cannot be overstated. I strongly 
support the Department's current policy. The Uniform Code of Military 
Justice operates both as a criminal justice system and a critical 
component of a commander's authority to maintain good order and 
discipline. I believe our soldiers and national security interests are 
best served by retaining the military commander's key role in the 
military justice decision process. While I greatly value the advice and 
recommendations of our highly proficient judge advocates, I firmly 
believe the military commander's role is indispensable in the 
prosecutorial process. With this responsibility comes accountability. I 
also strongly support holding those few commanders who fall short of 
their responsibilities accountable for their actions or inaction.
    When a unit enters combat, success is directly dependent on the 
Commander's ability to enforce his or her orders and standards. The 
Commander's authority to refer charges to court-martial, especially for 
the most serious offenses such as sexual assault, is essential.
    Question. What additional steps would you take, if confirmed, to 
address the problem of sexual assaults in the Army?
    Answer. I am encouraged by the progress the Army has made, but 
there is much more work to be done. If confirmed, I am committed to 
sustaining the momentum and progress. We have focused significant 
efforts on senior leadership engagement to address this cultural issue. 
To achieve continued progress we will place additional emphasis on 
junior leader/first line leaders taking ownership and helping to 
achieve the culture of dignity and respect required to eradicate sexual 
assault in our Army.
    Question. What is your assessment of the effect, if any, of recent 
legislation concerning sexual assault on the capability of Army 
commanders to prosecute sexual assault cases, including cases where 
prosecution is declined by civilian prosecutors?
    Answer. The Army is in the process of implementing all the 
requirements of the fiscal year 2014 NDAA concerning sexual assault and 
the capability of Army commanders to prosecute sexual assault cases. It 
is too soon in the process to evaluate the effects of all of the 
changes. The Army, like the other Services, will be carefully studying 
the effects, both intended and unintended, of all of the rapid and 
robust changes to the military justice system over the past few years 
and we will share our observations with Congress.
                          religious guidelines
    American military personnel routinely deploy to locations around 
the world where they must engage and work effectively with allies and 
with host-country nationals whose faiths and beliefs may be different 
than their own. For many other cultures, religious faith is not a 
purely personal and private matter; it is the foundation of their 
culture and society. Learning to respect the different faiths and 
beliefs of others, and to understand how accommodating different views 
can contribute to a diverse force is, some would argue, an essential 
skill to operational effectiveness.
    Question. In your view, do policies concerning religious 
accommodation in the military appropriately accommodate the free 
exercise of religion and other beliefs, including individual 
expressions of belief, without impinging on those who have different 
beliefs, including no religious belief?
    Answer. A number of religious (and belief) accommodation 
protections are afforded to soldiers beginning with the First Amendment 
and proceeding through title 10, DOD Directives, and Army policies. 
Yes, I believe our current protections appropriately balance the Army's 
compelling interest in unit cohesion and good order and discipline, on 
the one hand, and soldiers' adherence to their religious beliefs, on 
the other.
    Question. Under current law and policy, are individual expressions 
of belief accommodated so long as they do not impact unit cohesion and 
good order and discipline?
    Answer. Yes, current law and policy appropriately balance unit 
cohesion and good order and discipline with individual expressions of 
belief. Leaders at all levels develop soldiers to embody Army values, 
which emphasize the importance of treating others with dignity and 
respect. These values help create a culture of respect for the 
religious rights and expressions of others, including those who hold to 
no religious beliefs.
    Question. In your view, does a military climate that welcomes and 
respects open and candid discussions about personal religious faith and 
beliefs in a home-port environment contribute in a positive way to 
preparing U.S. forces to be effective in overseas assignments?
    Answer. It has been my experience that being tolerant and accepting 
of differences is a virtue valued by our soldiers, and I believe this 
has been the case since our Nation's founding. America's soldiers are 
diverse. Treating others respectfully clearly has a positive impact on 
operations within or outside of our Nation.
    Question. Would a policy that discourages open discussions about 
personal faith and beliefs be more or less effective at preparing 
servicemembers to work and operate in a pluralistic environment?
    Answer. In my opinion, denying varying attitudes or opinions does 
not provide an opportunity to work through any differences that may 
exist. The Army develops leaders and builds teams. Part of that process 
involves respecting each other's values and beliefs as Americans, 
without forcing others to accept those values or beliefs.
    Question. In your view, when performing official military duties 
outside a worship service, should military chaplains be encouraged to 
express their personal religious beliefs and tenets of their faith 
freely, or must they avoid making statements based on their religious 
beliefs?
    Answer. As I understand current legal protections, all 
servicemembers' beliefs and the expression of those beliefs are 
protected. When opinions are expressed, religious or otherwise, in 
thoughtful consideration of those hearing the discussion or comment, an 
opportunity for meaningful dialogue is opened. All soldiers must treat 
each other with dignity and respect within The Army Profession.
    Question. Do you believe chaplains should be tasked with conducting 
non-religious training in front of mandatory formations, even if they 
may be uniquely qualified to speak on the particular topic, such as 
suicide prevention or substance abuse? If so, do you believe guidance 
provided to those chaplains on what they should and should not say with 
respect to their faith is adequate?
    Answer. If confirmed, I will seek the advice of the Chief of 
Chaplains, the member of the Army Staff charged with advising me on 
these and other matters. Chaplains serve in two distinct roles as 
officers in our Army, both as staff officers and religious leaders. 
Chaplains have historically maintained a balance in both of those roles 
and in their functions of providing religious support and advising 
commanders. If confirmed, I will review the guidance on this topic and 
assess if it is adequate.
                        joint officer management
    Question. What is your assessment of the effectiveness of the 
Goldwater-Nichols-required Joint Qualification System?
    Answer. Without question, Goldwater-Nichols has brought a joint 
mindset to military operations and in doing so improved the Department 
of Defense. Clearly collaboration among Services has improved. If 
confirmed, I will work with the Secretary of the Army to determine to 
what extent Goldwater-Nichols supports the Force of the Future and 
what, if any changes might be needed.
    Question. Do you think additional changes in law or regulation are 
needed to respond to the unique career-progression needs of Army 
officers?
    Answer. While I do not now see any urgent need for change, if 
confirmed, I will work with the Secretary of the Army to determine to 
what extent the current laws and regulations support the Force of the 
Future in a changing environment.
    Question. In your view, are the requirements associated with 
becoming a Joint Qualified Officer, including links to promotion to 
general officer rank, consistent with the operational and professional 
demands of Army line officers?
    Answer. Yes, in my judgment, it is important that Army General 
Officers be joint qualified.
    Question. If not, what modifications, if any, to the requirements 
for joint officer qualifications are necessary to ensure that military 
officers are able to attain meaningful joint and service-specific 
leadership experience and professional development?
    Answer. I feel the joint requirements are adequate today and, if 
confirmed, I will work with the Secretary of the Army to manage the 
officer corps so as to preserve the joint qualification process in the 
future.
    Question. In your view, what is the impact of joint qualification 
requirements on the ability of the services to select the best 
qualified officers for promotion and to enable officer assignments that 
will satisfy service-specific officer professional development 
requirements?
    Answer. I feel the joint requirements are adequate today and help 
identify the best officers for promotion. If confirmed, I will work 
with the Secretary of the Army to manage the impacts on the officer 
corps.
    Question. Do you think a tour with a combatant command staff should 
count toward the Joint tour requirement?
    Answer. Yes. Combatant commanders are inherently joint and provide 
a rich professional experience.
               department of the army civilian personnel
    Question. The committee continues to have an acute interest in the 
Department of Defense civilian and contractors who support our 
soldiers.
    What is your assessment of the current morale of the Department of 
the Army civilian and contractor workforces?
    Answer. The Army civilian workforce has been nothing short of 
stellar and steadfast in support of our Army at war. That said, I am 
concerned with the impact on morale of several years of pay freezes, a 
year without performance bonuses, two rounds of furloughs, and messages 
about downsizing. If confirmed, I will work with the Secretary of the 
Army to ensure we maintain visibility on morale of our workforce. 
Maintaining positive civilian morale is as important as soldier morale 
to the readiness of the Total Force.
    Question. What do you believe is the appropriate proper balance of 
manpower between Department of the Army for uniformed personnel, 
civilian Department employees, and contractor personnel?
    Answer. The appropriate balance should reflect the primacy of the 
warfighter; the Army needs sufficient civilian employees and contract 
support to ensure the most efficient and effective use of uniformed 
personnel. That differs at each echelon of command and by installation 
and organization. If confirmed, I will work with the Secretary of the 
Army to ensure we maintain an appropriate balance of manpower which 
provides the Nation the most effective use of all available resources.
    Question. What workforce flexibilities do you consider necessary 
for the Department of the Army to better manage its workforce?
    Answer. The Army requires greater flexibility from Recruiting and 
Accession to Development, Employment, and Transition to better manage 
its workforce. If confirmed, I'll work closely with the Secretary of 
the Army to examine the policies and resources required to obtain this 
flexibility that allows us to retain top talent.
    Question. How will you manage the further reduction of civilian 
employees?
    Answer. As needed, the Army will continue to promote voluntary 
measures as much as possible to reduce the civilian workforce. Commands 
are encouraged to use reshaping tools such as release of temporary 
employees, not extending temporary and term employees, separation of 
highly qualified experts (HQE), separation of re-employed annuitants, 
attrition, management-directed reassignments, hiring controls, the 
Department of Defense Priority Placement Program and Voluntary Early 
Retirement. If confirmed, I will work with the Secretary of the Army to 
manage reductions in a responsible and compassionate manner.
                              acquisition
    Question. Has acquisition as currently conducted provided the Army 
weapons, equipment and supplies effectively and in a cost efficient 
manner?
    Answer. The defense acquisition system needs to improve in 
timeliness and cost effectiveness in order to provide our soldiers with 
the systems, technologies, and equipment to dominate our adversaries.
    Question. Does the current acquisition system ensure the Army is 
fully modernized in a timely manner?
    Answer. The complexity of processes and rules in the defense 
acquisition system limit flexibility and add time and cost to the 
process of developing and fielding new warfighting capabilities. While 
all involved strive to ensure our soldiers have the best equipment, the 
acquisition process could be simplified and streamlined while retaining 
emphasis on sound program planning and risk mitigation. To achieve this 
goal and ensure our systems can be developed and fielded more quickly, 
we must reduce redundant documentation, provide more flexibility to 
program managers, and place greater emphasis on sound acquisition 
planning. This will inject much-needed agility and flexibility into the 
process while maintaining robust oversight of taxpayer dollars.
    Question. Should the Chief of Staff of the United States Army have 
the authority and responsibility to control Army acquisition programs?
    Answer. The Chief of Staff of the Army plays a critical role in the 
development of Service requirements and the allocation of funding 
necessary to successfully develop and field programs. The operational 
experience and leadership of Service Chiefs are invaluable to 
generating and stabilizing achievable requirements and ensuring the 
resources necessary to achieve these capabilities. Additionally, the 
Service Chiefs are ideally positioned to provide strategic priorities 
and areas of emphasis in the development of warfighting capabilities 
that respond to current and emerging operational threats. If confirmed, 
I will work with the Secretary of the Army to explore opportunities for 
an increased role in the acquisition process in order to drive 
requirements, resources, and acquisition to ensure our soldiers have 
the best possible equipment in a timely manner.
    Question. How will you meet your responsibilities to ensure Army 
acquisition programs stay on schedule, within cost and perform to 
expectations?
    Answer. Achievable and affordable requirements, as well as stable 
and predictable funding, are critical to the success of acquisition 
programs. As a representative of our soldiers' needs, if confirmed, I 
will work to validate and prioritize realistic requirements and request 
stable and sufficient funding be provided to successfully meet our 
capability gaps. This role is especially important during times of 
decreased budgets, such as now, when the Department must implement 
investment decisions with limited resources. Additionally, acquisition 
programs cannot be successful without a trained, professional, and 
experienced workforce. If confirmed, I will promote the qualifications, 
expertise and capability of the acquisition workforce by focusing on 
the recruitment, development, and retention of individuals with 
critical acquisition skill sets in order to provide the Army essential 
capabilities for continued success.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this Committee and other appropriate committees of the Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the Administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
Committee, or designated members of this Committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Chief of Staff of the Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this Committee and 
its staff and other appropriate Committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.

    [Questions for the record with answers supplied follow:]
                                 ______
                                 
               Questions Submitted by Senator Jim Inhofe
                         readiness of the force
    1. Senator Inhofe. General Milley, how do lower readiness levels 
and a smaller force impact our ability to deter aggression?
    General Milley. In order to deter aggression, our capability and 
capacity to rapidly deploy and conduct combat operations to defeat 
enemy objectives must be understood and believed by our opponents. 
Readiness is the core requirement, which underpins deterrence of 
rational opponents. High readiness will result in an increased 
likelihood of deterrence. Size, skills, capability and capacity are 
required to deter rational adversaries. Lower readiness levels and a 
smaller force decrease the likelihood of deterrence and increase the 
likelihood of aggression with respect to rational actors.

    2. Senator Inhofe. General Milley, if a major or even minor 
contingency operation were executed today given the Army's current 
state of readiness and current global commitments, is it possible the 
Army would have to send forces into combat that are not fully trained 
and ready?
    General Milley. The possibility that the Army would have to send 
forces into combat that are not fully trained depends greatly on the 
nature of the contingency, combatant commander timelines, and national 
priorities on our ability to re-allocate forces. Given current 
readiness levels and uncertain global demands, if confirmed, I will 
assess our readiness levels closely as my top priority. I will provide 
candid military advice on our capability to meet requirements to avoid 
having to send forces into combat that are not fully trained and ready.

    3. Senator Inhofe. General Milley, should the United States be 
postured to fight two Major Contingency Operations simultaneously? What 
is the impact of only being postured to fight one Major Contingency 
Operation?
    General Milley. Yes, the U.S. should be postured to fight two major 
contingency operations simultaneously, which is in accordance with the 
2014 QDR. The 2014 QDR asserts that U.S. forces must be capable of 
defeating a regional adversary in a large-scale, multi-phased campaign 
and denying the objectives of--or imposing unacceptable cost on--a 
second aggressor in another region. Being postured to fight two major 
contingency operations simultaneously prevents potential adversaries 
from exploiting a crisis to pursue their objectives and allows us to 
mitigate the risk of unanticipated crises and requirements. Being 
postured to fight only one major contingency operation could force 
undesirable choices between vital national interests and leave the 
U.S., allies, and partners at risk.

    4. Senator Inhofe. General Milley, does priority for readiness, 
training and equipment go to deployed/forward stationed forces followed 
by forces getting ready to deploy? If so, how does that impact the 
readiness of follow on forces back in the U.S. and their ability to 
respond to unforeseen crisis?
    General Milley. All Army units and soldiers actively supporting 
combatant commands deploy at the highest levels of assigned mission 
readiness. Outside of deployed forces, the Army has had to focus 
resources on a small number of non-deployed brigade combat teams and 
enabling forces to preserve a small contingency response capability. 
For non-deployed units at lower readiness levels, it takes longer to 
get them ready to respond to an unforeseen crisis, undermining the 
advantages of rapid deployment.
                            force structure
    5. Senator Inhofe. General Milley, the Army recently announced its 
plan to cut 40,000 soldiers, many having served multiple combat tours 
in Iraq and Afghanistan, and will announce specifics on a cut of 17,000 
civilians from its ranks in Sep. Is this the correct size for our Army 
given threats around the world and demands for ground forces 
everywhere?
    General Milley. This personnel drawdown supports the President's 
Fiscal Year 2016 Budget and is part of the Army's effort to rebalance 
endstrength, readiness, and modernization efforts to shape a 980,000 
Total Army (450,000 AC, 335,000 ARNG, and 195,000 USAR). This force is 
capable of supporting the Defense Strategy, but at a ``significant'' 
level of risk. I believe that a 1.045M Total Force (490,000 AC, 350,000 
ARNG, and 205,000 USAR) at a level of funding adequate to balance end 
strength, readiness, and modernization could better address an 
increasingly unpredictable future security environment.

    6. Senator Inhofe. General Milley, there are currently just over 
20,000 soldiers in South Korea alone. If the Army had to respond to a 
Korea scenario today given its reduced readiness and force structure, 
would the Army be able to source all its combat ready forces from the 
U.S. or it have to take forces from other theaters such as EUCOM and 
CENTCOM, who are already short of forces and resources?
    General Milley. If confirmed, I will thoroughly review the forces 
required in the event of a Korea contingency. However, it is my current 
understanding, in the event of crisis or conflict in Korea, we would 
first deploy ready units not already committed to other operations in 
other theaters. The sourcing of forces for contingency operations (such 
as the Korea scenario) is dependent on the state of readiness and 
commitment of all forces in the Army inventory at the time of 
execution. The possibility exists that the Army would have to draw 
forces away from other combatant commands, such as EUCOM or CENTCOM, in 
order to respond to a Korea scenario.

    7. Senator Inhofe. General Milley, how do you see the three 
components of the Army contributing most effectively to this Nation's 
land power requirements? How important is it to balance the three 
components?
    General Milley. Balancing the three distinct and equally important 
components of the Total Army is critical. The optimal blend of each 
component will depend on the specific mission requirement generated by 
the combatant commanders and requires careful mission analysis and, 
significantly, the time required to respond to the combatant 
commanders' requirement. If confirmed, I will assess the Total Army 
force structure and recommend adjustments as necessary.

    8. Senator Inhofe. General Milley, do you believe our Army has the 
force structure, training and equipment to meet all the requirements in 
the National Military Strategy today?
    General Milley. As outlined in the 2014 QDR, the Army (as part of 
the Joint Force) has to accomplish the three tasks of the defense 
strategy: defend the homeland, build security globally, and project 
power and win decisively. The Army has the force structure, training, 
and equipment to accomplish the first mission, but the second and third 
missions present growing challenges. The Army has the capability to 
build security globally, but ongoing force reductions place a greater 
strain on that capacity. Emergent demands and decreased resources may 
change underlying assumptions, increasing risk to our ability to 
project power and win decisively as our capacity and resources continue 
to decrease.

    9. Senator Inhofe. General Milley, do you think the Army is 
accepting too much risk given the growing instability around the globe?
    General Milley. I concur with GEN Odierno's assessment that a 
980,000 Total Army (450,000 AC, 335,000 ARNG, and 195,000 USAR) will be 
capable of executing the defense strategy outlined in the 2014 QDR at a 
``significant'' level of risk. The 2014 QDR, however, did not account 
for the growing instability that we now see in Russia's aggression in 
the Ukraine, the rise of ISIL, the Ebola crisis, and increasing 
challenges in the Pacific region.

    10. Senator Inhofe. General Milley, how will you know when our 
military has accepted too much risk?
    General Milley. I will know we have accepted too much risk when the 
risk to mission or risk to force is unacceptable. If the Army's 
capacity (i.e., number of troops available) is insufficient to meet the 
National Security and combatant commander requirements, to include war 
plan contingencies, we have reached an unacceptable level of risk to 
mission. If the Army has the capacity, but not the capability (i.e., 
skills and readiness) and is not resourced to fix that shortfall before 
deploying the force, we will have reached an unacceptable level of risk 
to the force. In either case, I will know our Nation has accepted too 
much risk.

    11. Senator Inhofe. General Milley, what are the indicators that 
you look for?
    General Milley. Indicators I look for include the capacity and 
capability of the force to accomplish the mission. Capacity is measured 
by the force's size; capability by its skill and readiness, where 
readiness is a function of manning, training, equipping, and leading. A 
decrease of any of these indicators illustrates or creates increased 
risk. Additionally, any change in the global security environment 
(e.g., increasing instability or volatility) is an indicator of risk. 
Lastly, any increase in our adversaries' relative capability or 
capacity is an indicator of increasing risk.
                         security of the force
    12. Senator Inhofe. General Milley, what are your thoughts 
regarding the security status of Army personnel serving at locations 
both on and off-post?
    General Milley. Force protection is a key task for any commander, 
and there are a wide variety of active and passive measures commanders 
can employ. In all environments, leaders must balance force protection 
with mission accomplishment. As with everything that we do, Army 
leaders at all levels conduct risk analysis to ensure that we mitigate 
risk as low as possible while still maintaining the ability to 
accomplish our missions. For example, commanders can harden structures, 
e.g. bulletproof glass, increase patrols, and coordinate closely with 
federal and civilian law enforcement. It is especially necessary to 
reevaluate all measures due to the recent shootings in Tennessee, as 
DOD is currently doing.

    13. Senator Inhofe. General Milley, do we need to reassess our 
security levels, rules of engagement, training requirements, ability to 
increase manning of armed security personnel, and authorization for 
military personnel to carry government firearms both concealed and 
openly carry to and from duty?
    General Milley. Yes. If confirmed, I will work with OSD to assess 
all those factors. The Army is currently evaluating our options for 
increasing the security posture of our personnel to include both active 
and passive security measures. Arming well-trained soldiers would fall 
into the active measure category while increasing additional security 
layers to facility access points qualify as passive measures. Any 
option considered must comply with existing law. Whichever option we 
decide upon must take into consideration not only the safety and 
security of our soldiers but the communities in which they work.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                 shortfalls in europe--deterring putin
    14. Senator Ayotte. General Milley, in your advance policy question 
responses, you stated that the Army in Europe does not have what it 
needs. Specifically, what does EUCOM need that it does not have?
    General Milley. EUCOM needs additional assets, permanent or 
rotational, to deter Russian aggression and assure allies. The Army is 
in the process of placing activity sets and pre-positioned equipment in 
Europe manned with forces rotating on a temporary basis to assist with 
this mission. I have been briefed that EUCOM is estimating it needs 
additional armor, sustainment, engineering, intelligence, medical, 
fires, and signal; furthermore EUCOM may require additional military 
police assets. If confirmed, I will continue to work with EUCOM to 
further develop these requirements.
              nh army national guard military construction
    15. Senator Ayotte. General Milley, in times of fiscal strain, one 
of the first things that gets cut or delayed is military construction. 
The problem is that these cuts exact a growing readiness toll over 
time. For that reason, I continue to be troubled by the condition of 
New Hampshire Army National Guard readiness centers--a trend that I 
know is reflected around the country. However, the condition of 
readiness centers in New Hampshire is particularly unacceptable. 
According to the Army National Guard Readiness Center Transformation 
Master Plan final report to Congress last year, the average condition 
index (CI) of New Hampshire Army National Guard readiness centers is 
Poor (64 out of a 100 scale), ranking New Hampshire 51 out of the 54 
states and territories evaluated nationwide.
    In total, the New Hampshire Army National Guard has 1 readiness 
center rated `Fair', 12 rated `Poor', and 3 rated `Failing'.
    The Manchester readiness center was constructed in 1938 and does 
not comply with building code standards--as well as life, health, 
safety and Anti-terrorism Force Protection standards. Members of the 
New Hampshire Army National Guard--and servicemembers like them around 
the country--deserve better.
    I am pleased that the Department is finally requesting funding for 
New Hampshire Army National Guard vehicle maintenance shops in Hooksett 
and Rochester for fiscal year 2017, as well as readiness centers in 
Pembroke and Concord for fiscal years 2018 and 2020, respectively. 
Considering the poor state of New Hampshire Army National Guard 
facilities, it is essential that these projects not be postponed and 
that they go forward as currently scheduled.
    When confirmed, will you examine the allocation of military 
construction dollars not only between the Active and Reserve component, 
but also the allocation among the state Army National Guards to ensure 
the optimal allocation?
    General Milley. Yes, if confirmed, I will examine the allocation of 
military construction resources across the Total Army, to include New 
Hampshire Guard facilities.
  endstrength reductions--strategic rationale?--how many involuntary 
                              separations?
    16. Senator Ayotte. General Milley, under the current plan, the 
Army will have to cut about 40,000 Active Duty soldiers in the next 
couple of years in order to reach an Active Duty endstrength of 450,000 
soldiers. In your responses to the advance policy questions, you said, 
``Right now the level of uncertainty, the velocity of instability, and 
potential for significant inter-state conflict is higher than it has 
been since the end of the Cold War in 1989-91.'' You also note that, 
``the demand for ground forces will continue to increase even more so 
since many of our longstanding allies have significantly reduced their 
military forces over the last 25 years.''What is the strategic 
rationale for cutting the size of our Active Duty Army by 40,000 
soldiers (8 percent) in the next two years?
    General Milley. The Army was forced to make reductions as a result 
of the Budget Control Act. Within those resource constraints, the Army 
developed a plan to maintain a balance between endstrength, readiness, 
and modernization. The reductions were informed based on a 
comprehensive analysis of mission requirements and installation 
capabilities.

    17. Senator Ayotte. General Milley, if defense sequestration is not 
reversed and the Army must go down to 450,000 or even 420,000 Active 
Duty soldiers, how many well-performing non-commissioned officers and 
officers will have to be involuntarily separated (given pink slips)?
    General Milley. The Army anticipates that as it reduces from 
490,000 to 450,000 in the Active Component, it will have to 
involuntarily separate approximately 15,000 Noncommissioned Officers 
and Officers. If the Army is directed to go to 420,000, it will have to 
involuntarily separate an additional 13,000 Noncommissioned Officers 
and Officers (28,000 total).

    18. Senator Ayotte. General Milley, we talk about not breaking 
faith with our soldiers. When we give a well-performing soldier who has 
deployed (often multiple times) a pink slip simply to meet a budget-
drive endstrength reduction, I think that is breaking faith.I hope 
Congress will provide the funding necessary to maintain the Army 
endstrength our national security interests require. When confirmed, 
will you work to minimize the use of involuntary separations of well-
performing soldiers?
    General Milley. Yes.
                          poor army readiness
    19. Senator Ayotte. General Milley, in your responses to the 
advance policy questions, you said that ``only about 30 percent of Army 
brigades are at acceptable levels of combat readiness.'' You note that 
number should be between 60-70 percent.What is the primary reason for 
this poor readiness, and what can Congress do to help improve Army 
readiness?
    General Milley. The primary reason is the budget reduction driven 
requirement to make unforecasted trade-offs between endstrength, 
readiness, and modernization and resulting budget uncertainty. Congress 
can assist by providing the predictable funding necessary to restore 
the appropriate balance between modernization, endstrength, and 
readiness.

    20. Senator Ayotte. General Milley, what is the optimal balance 
between having the number of personnel the Army needs and having the 
right equipment to achieve today's strategy?
    General Milley. The optimal balance, informed by resourcing, weighs 
readiness, modernization, and endstrength against National Security 
Requirements. If confirmed, I will ensure no soldier is deployed in 
harm's way without the proper training and equipment. Right now, within 
PB16, the Army can, with ``significant risk,'' field a 980,000 Total 
Army (450,000 AC, 335,000 ARNG, and 195,000 USAR). If the current 
Budget Control Act funding levels remain in place, I will have to work 
with the Secretary of the Army to reduce the Army, perhaps to 920,000 
Total Army (420,000 AC, 315,000 ARNG, and 185,000 USAR) in order to 
ensure we have the right balance of readiness, modernization, and 
endstrength.

    21. Senator Ayotte. General Milley, there has been discussion 
recently about the balance between light infantry forces, medium 
forces, and heavy forces. In view of requirements and likely missions 
in the future, what do you believe is the optimal balance of these 
types of forces?
    General Milley. The Army continually reassesses mission 
requirements to inform decisions regarding force structure. If 
confirmed, I will review the COCOM operational planning requirements to 
ensure the Army has the appropriate force mix.
                      army modernization programs
    22. Senator Ayotte. General Milley, how should the Army balance 
developing and fielding new systems such as the Future Fighting Vehicle 
versus modernizing existing systems such as the Abrams tank and the 
Bradley Fighting Vehicle.
    General Milley. Deployed soldiers must always have the most 
advanced capabilities available while the Army must also prepare for 
future threats. To accomplish this, the Army modernization strategy 
mixes limited development of new capabilities with incremental upgrades 
to existing platforms while also investing in key enabling technologies 
to support future efforts.
    In the current fiscal environment, the Army's Combat Vehicle 
Modernization Strategy focuses on cost-effective replacement of 
obsolete vehicles, maintenance and improvement of proven platforms to 
ensure relevance, and aggressive pursuit of technology development to 
fill anticipated capability gaps. Until resources are available to 
fully develop a Future Fighting Vehicle, the Army will continue Science 
and Technology investment in Infantry Fighting Vehicle enabling 
technologies while focusing its vehicle modernization efforts on 
procurement of the Armored Multi-Purpose Vehicle and incremental 
upgrades to the Abrams, Bradley, and Stryker families of vehicles.
                                 ______
                                 
               Questions Submitted by Senator Joni Ernst
                           drawdown in forces
    23. Senator Ernst. In light of troop reductions and growing 
threats, what recommendations do you have for developing the Army of 
the future that allows fighting units to be scalable and expeditionary 
for a variety of missions?
    General Milley. The U.S. Army is and must remain the world's 
premier ground combat force, capable of conducting sustained campaigns 
on land to achieve U.S. National Security objectives while remaining 
true to our national values. Individual and collective training creates 
capable formations and develops leaders as the source of future 
flexibility. Army units are designed to be scalable and expeditionary 
in order to execute a variety of missions. The Army traditionally task 
organizes forces based on mission analysis and deploys/employs only 
those units necessary for mission accomplishment. Brigade Combat Teams, 
for example, can be task organized by capability, by capacity, or by 
function to execute a variety of missions, from support and assistance 
to major combat operations. If confirmed, I will continually assess and 
collaborate with the other Service Chiefs and adapt the Army to meet 
current needs and position itself for the future.

    24. Senator Ernst. How will a reduction in forces affect readiness 
in the future?
    General Milley. The National Military Strategy requires the Army to 
simultaneously defend the homeland, assure our allies, deter 
adversaries and, when required, defeat one regional aggressor and deny 
an aggressor in another region. Lower readiness levels, constant demand 
and a smaller force will erode readiness for surge missions. The Army 
is prioritizing current operations and shaping over-surge capacity. As 
a result, senior leaders responding to future contingencies will soon 
be forced to decide between committing forces at lower readiness levels 
and partially incurring higher casualties, or delaying the deployment 
of forces to build readiness, jeopardizing mission accomplishment.

    25. Senator Ernst. In conversations with soldiers from the non-
commissioned officer to field grade levels, I am told our soldiers are 
concerned with the operational tempo of the Active Duty force. Some of 
these soldiers claimed Army leaders were failing soldiers by not 
scaling the amount of requirements to the reduced size of the force. 
How will you ensure unit commanders are accurately portraying their 
ability to accomplish assigned tasks and protecting the long-term 
readiness of the force?
    General Milley. The Army relies on the Commander's Unit Status 
Report (USR) to show the unit's ability to accomplish assigned tasks. 
This report requires standard entries which indicate unit readiness 
trends over time and also allows the commander to raise any concerns. 
Long-term readiness trends of the force are reflected in performance 
trends at Army training venues, like maneuver combat training centers. 
The Army strives to communicate combatant command operational tempo 
with the Joint Staff and OSD so that we can prioritize missions for a 
decreasing Army force. Finally, the Army has multiple forums to 
synchronize, manage and distribute mission assignments across the 
force. If confirmed, I will work with the Chairman, Secretary of 
Defense, and Congress on balancing demand with the supply of Army 
forces. I will also personally stress to our commanders that I will 
accept nothing less than their honest assessments on the USR.
                           worldwide threats
    26. Senator Ernst. If Russia represents our greatest threat, what 
recommendations would you offer to deter Russia and reassure allies?
    General Milley. I would recommend that our Army continue to support 
the combatant commander's plans and requirements by increasing our 
posture on NATO's eastern flank, providing additional rotational forces 
and prepositioned stocks, and building additional combat power 
capacities to support multilateral training exercises and enable rapid 
force projection. In my judgment, only a strong posture and close 
cooperation with regional allies will provide this level of both 
assurance and deterrence. Continued funding of the European Reassurance 
Initiative is critical to effect this and support the combatant 
commander's strategy.

    27. Senator Ernst. During your testimony, you said that Russia was 
the greatest existential threat to the United States. How will you 
improve the Army's support to U.S. Army Europe with respect to 
enhancing military intelligence support to operations and force 
protection?
    General Milley. The Army currently provides military intelligence 
support, including counterintelligence force protection, at the 
strategic level with intelligence personnel assigned to the United 
States Army NATO Brigade and the 650th Military Intelligence Group 
(Supreme Headquarters Allied Powers Europe; and at the operational 
level through the assignment to U.S. European Command (EUCOM) of the 
66th Military Intelligence Brigade. The 66th has the ability to 
downward reinforce tactical units operating within EUCOM area of 
responsibility, and is currently doing so in the form of 
counterintelligence support to the units forward deployed to the 
Baltics in support of Operation Atlantic Resolve. Additionally, the 
Army has regionally aligned the 4th Infantry Division with EUCOM, which 
provides additional intelligence support and analytic capacity to EUCOM 
through reachback and through a forward deployed detachment of 
intelligence officers and analysts in Germany. Finally, the 902nd 
Military Intelligence Group, part of the Army Intelligence and Security 
Command, provides general support to counterintelligence efforts as 
required. If confirmed, I will assess whether this level of support 
meets the combatant commander's needs.

    28. Senator Ernst. During your testimony, you said that Russia was 
the greatest existential threat to the United States. How will you 
enhance the Army's support to U.S. Army Europe (USAREUR) with respect 
to enhancing USAREUR's ability to reassure our allies and deter Russian 
aggression through the training of Ukrainian forces?
    General Milley. While the Army is enhancing the U.S. Army Europe's 
(USAREUR) efforts to build Ukrainian capacity within their National 
Guard security forces through a moderate training and equipping 
package, we will remain prepared to increase our assistance to Ukraine 
by providing similar support to the Ukrainian armed forces, if 
authorized. These efforts, if expanded beyond their police-like 
National Guard, will certainly improve their interoperability with NATO 
and build capacity to protect their borders and defend their 
sovereignty, assuring our allies and further deterring Russia. If 
confirmed, I will work closely with USAREUR to ensure we are poised to 
provide ready forces at the right time to meet emerging requirements.

    29. Senator Ernst. As the Army considers sending a second brigade's 
worth of equipment to Europe that would be solely for contingencies as 
well as dedicating the entire 4th Infantry Division to rotating in and 
out of Europe for training, exercises and partner activities, how will 
you balance the threat posed by Russia with the possible need to place 
United States troops further forward in the fight against ISIL in Iraq?
    General Milley. While the Army remains committed to meeting the 
emergent demands of both combatant commanders, budget cuts and force 
structure reductions present the Army with significant challenges given 
declining resources and force structure. At a 980,000 Total Army 
(450,000 AC, 335,000 ARNG, and 195,000 USAR) and structure levels, we 
can satisfy demand and meet the strategy at significant risk. At lower 
budget levels at a 920,000 Total Army (420,000 AC, 315,000 ARNG, and 
185,000 USAR), we face an unacceptable risk to these strategies. In 
either case, the threats posed by Russia and ISIL require different 
Army capabilities. The Army's support to EUCOM focuses on our armored 
formations and building regional interoperability and multilateral 
training, while the current counter-ISIL strategy requires more agile 
and light units trained for advise and assist missions. If confirmed, I 
will work with both combatant commanders to ensure we prudently manage 
risk at whichever end strength the budget allows and provide trained 
and ready forces to meet their differing requirements.
            small arms weapons and ammunition modernization
    30. Senator Ernst. The primary weapon system of the soldier is used 
to accomplish the Army's mission to engage and destroy our Nation's 
enemies in close combat. Despite this, and 14 years of lessons learned 
in thousands of ground combat engagements with the enemy across the 
globe, the Army has not prioritized the development and fielding of new 
small arms weapons. In general, the rifles, pistols, and machine guns 
in the Army provide generally the same capabilities with respect to 
lethality, range, and reliability as they did decades ago. While minor 
modifications have been made to some M4 carbines, these were only 
accomplished after great resistance by the Army and did not address 
lethality and range of the weapon. How will you seek to prioritize the 
modernization of the Army's small arms weapons?
    General Milley. The Army developed a Small Arms Weapon Strategy in 
2014 to ensure our modernization programs provide our soldiers the most 
capable weapons in combat. As you mentioned, all of our current M4 
carbines will be upgraded to M4A1's by 2022. The Army is also 
conducting a comprehensive Small Arms Ammunition Configuration Study 
that addresses several criteria, to include lethality, range, and 
reliability. This study will determine a feasible, suitable, and 
acceptable ammunition configuration in order to develop and implement a 
small arms strategy that ensures overmatch at the lowest tactical level 
in 2025 and beyond. Finally, we must ensure our simulators and 
simulations accurately reflect current small arms capabilities to 
ensure our training is both effective and realistic. If confirmed, I 
will look holistically at our modernization efforts.

    31. Senator Ernst. According to a 2013 RAND study, which was 
conducted on behalf of the Deputy Chief of Staff, Force Development (G-
8), RAND found that the Army dismounted squad had ``the least amount of 
decisive advantages with respect to current and foreseeable threats.'' 
How will you seek to modernize the Army's small arms weapons and 
ammunition inventory for our maneuver squads?
    General Milley. Army Training and Doctrine Command is now 
conducting a Small Arms Ammunition Configuration Study, with the 
Maneuver Center of Excellence at Fort Benning, Georgia, leading the 
study. The USMC and SOCOM are participating as well. Completion of the 
study is expected by Second Quarter fiscal year 2017.
    The study is investigating emerging and future ammunition 
capabilities to ensure continued overmatch for the dismounted 
individual soldier, fire team and squad to 2025 and beyond considering 
both current and emerging threats. The Army will use this foundation to 
inform and update our Soldier Weapons Strategy.
    The study evaluates conventional and non-conventional calibers used 
in carbines, rifles, and light or medium machine guns. This evaluation 
includes existing small arms ammunition system capabilities, commercial 
off-the-shelf capabilities, and emerging and developmental small arms 
ammunition capabilities. The study also includes an extensive review of 
previous ammunition studies by the Army and USMC dating from 2006, 
operational lessons learned collected by the Army, USMC, SOCOM, and 
other joint and coalition forces, and Army post-combat surveys and 
reports.
    If confirmed, I will work with the Committee to address any 
concerns with the Army's small arms strategy.

    32. Senator Ernst. Specifically what new materiel technologies is 
the Army pursuing in small arms to increase range and lethality of the 
Army's small arms weapons?
    General Milley. The Army is funding research to develop and 
demonstrate technologies to increase small arms range and lethality. 
These investments will provide the soldier the ability to provide 
variable effects (from non-lethal to lethal) in a single cartridge at 
ranges greater than currently available. The investments should also 
yield new ammunition with reduced weight and signature, improved 
terminal performance, and increased soft and hard target penetration. 
The Army is also developing an advanced fire control capability that 
rapidly and accurately determines the range of a target, sensors that 
can measure local and downrange conditions, and ballistic sensors to 
reduce trajectory errors.

    33. Senator Ernst. According to U.S. Special Operations Command, 
Lessons Learned/Operational and Strategic Studies Branch, special 
operations servicemembers felt that, ``In Afghanistan, a more rural 
environment, the majority of effective fire is received at greater than 
300 meters. So, when in the open, and engaging targets at a distance, 
most prefer the SCAR-H with the 7.62 ammunition, but when operating in 
tighter spaces, the M4A1 is still the preferred weapon.'' Do you concur 
with this assessment of Special Forces engaged in ground combat in 
Afghanistan that an assault rifle which uses a larger caliber round 
than the 5.56mm EPR would provide greater effects on targets located at 
greater ranges than 300 meters?
    General Milley. Yes, a larger caliber such as 7.62mm provides 
greater effects at greater range. Although, the caliber of ammunition 
and target range are important to the effects on a target, there are 
other factors too. The Army Training and Doctrine Command is conducting 
a Small Arms Ammunition Configuration Study, with the Maneuver Center 
of Excellence at Fort Benning, Georgia, leading the study. The results 
of the study are important to informing future decisions regarding the 
right mix of ammunition and weapons platforms needed to engage 
different types of targets at varying ranges across diverse operational 
environments. I have been advised that the Army will use the results of 
the study to determine the best caliber and other weapons 
characteristics to best achieve the desired target effects at various 
ranges.

    34. Senator Ernst. According to U.S. Special Operations Command, 
Lessons Learned/Operational and Strategic Studies Branch, special 
operations servicemembers felt that, ``In Afghanistan, a more rural 
environment, the majority of effective fire is received at greater than 
300 meters. So, when in the open, and engaging targets at a distance, 
most prefer the SCAR-H with the 7.62 ammunition, but when operating in 
tighter spaces, the M4A1 is still the preferred weapon.'' Understanding 
the organic capability provided by a squad designated marksman, do you 
believe with this battlefield assessment's implication that ``pure-
fleeting'' of 5.56mm ammunition carbine rifles created a capability gap 
within maneuver squads?
    General Milley. At issue is whether the capability gap, if any, 
creates an unacceptable level of risk to force and mission 
accomplishment. While a larger caliber such as 7.62mm provides greater 
effects at greater range, the Army's current assessment is that the 
inherent capabilities of the M4A1, including extensive modifications 
over the past 10 years, appropriately mitigates that risk. The M4A1's 
M855A1 enhanced performance round provides greater range and improved 
down range effect and the M249 Squad Automatic Weapon, organic to 
infantry squads and other networked lethality capabilities, provides 
the ability to engage and destroy point targets at 600 meters. Moving 
forward, the ongoing Small Arms Ammunition Configuration Study is 
intended to inform the process of determining the optimal ammunition 
and caliber combinations for future squad small arms, taking into 
account desired target effects at various ranges.

    35. Senator Ernst. During your testimony, you said that Russia was 
the greatest existential threat to the United States. Currently, Russia 
is aggressively modernizing its small arms and individual soldier 
equipment as a part of its overall military modernization strategy. 
Will you prioritize fielding small arms and ammunition which will 
provide the infantry soldier with weapons and ammunition that have 
greater range, reliability, and lethality, than the current legacy 
small arms weapons in use today?
    General Milley. Yes, if confirmed, I will ensure that, within 
budgetary constraints, we strive to achieve and maintain overmatch 
against any adversary, including at the individual soldier level.

    36. Senator Ernst. In my conversations with soldiers who have 
served in Afghanistan, I am told insurgent forces developed a full 
understanding of the small arms capabilities and limitations of our 
infantry squads. This understanding caused our enemies to use tactics, 
techniques, and procedures to exploit the limited range of the 5.56mm 
ammunition and the M4 carbine by attacking from distances they knew an 
infantry squad could not return effective fire. While infantry squads 
have the capability of a designated marksman with a 7.62mm weapon, 
soldiers had difficulty concentrating small arms fire on enemy 
positions outside of the M4's maximum effective range for a point 
target. What is your response to these reports from soldiers? Do you 
believe our infantry squads are currently equipped with the best small 
arms and ammunition against enemies located at the maximum effective 
range of adversary 7.62mm weapon systems?
    General Milley. Our Infantry squads possess weapons capabilities to 
combat threats at multiple ranges. Adding to the increased capability 
of the M4A1 is the M855A1 enhanced performance round, which provides 
greater range and improved down range effect. The M249 Squad Automatic 
Weapon, also organic to Infantry squads, provides the ability to engage 
and destroy point targets at 600 meters. The Army will continue to 
leverage science and technology and use the Small Arms Ammunition 
Configuration Study to provide our soldiers small arms overmatch 
capability for 2025 and beyond.

    37. Senator Ernst. Last year the Center for Strategic and 
International Studies (CSIS) found serious issues with the Army's 
ability to develop, procure, and field equipment for soldiers and 
squads to include small arms. The report blames a culture of mistrust 
between Army stakeholders with different chains of command and 
unnecessary paperwork required by neither the Office of the Secretary 
of Defense or by Congress which results in a significant drag on the 
Army's acquisition system in this area. A potential example of this is 
that the Army will take more than a decade to acquire a non-
developmental handgun. Are you willing to conduct an impartial 
investigation of the issues raised in this report?
    General Milley. If confirmed, I will review and assess the issues 
raised in this report. I agree that achieving soldier/squad systems 
integration is a significant challenge. To address this, the Army 
approved the first dismounted soldier baseline in September 2014, which 
views soldier systems as a common integrated platform that optimizes 
size, weight, and power to support the mission. The Materiel 
Development, Science and Technology, and requirements communities--in 
particular the Maneuver Center of Excellence--work together to more 
effectively integrate and perform trade-offs among disparate systems. 
To ensure continued innovation, the Soldier Enhancement Program, which 
uses a ``buy, try, decide'' model to bring innovative solutions into 
the formal requirement systems, leverages the input from multiple 
stakeholders to procure the most innovative and effective equipment for 
our soldiers.
    Furthermore, the Army is committed to pursuing improvement in our 
acquisition process by prioritizing proper oversight of weapon system 
development, prevention and mitigation of cost and schedule growth, and 
reduction of unnecessary bureaucracy. Accordingly, the Army is taking a 
close look at its own internal acquisition policies and processes to 
remove unnecessary bureaucracy and eliminate unnecessary or redundant 
requirements on acquisition programs imposed by Army regulation. I have 
been advised that this effort will be completed later this year.
                support of deploying and deployed units
    Senator Ernst. I understand there are currently three pending 
Operational Needs Statements (ONS) from deploying or deployed Army 
units for the Palantir system. The ONSs in question are for the 95th 
Civil Affairs Brigade (#15-20234), 1/1 Special Forces Group (#15-
20390), and 10th Special Forces Group (#15-20428). These ONS were filed 
between 6 and 8 months ago and have yet to be rejected or approved by 
the Army. The Army approved identical ONSs from the 1st and 5th Special 
Forces Groups earlier this spring, yet it is my understanding the three 
ONSs in question remain in limbo. To help my office better understand 
the issue I request answers to the following questions:

    38. Senator Ernst. What is the current status on these three ONSs?
    General Milley. The Army remains committed to providing soldiers 
with what they need to accomplish their missions and recognizes the 
importance of good stewardship and fiscal responsibility. When an 
Operational Needs Statement (ONS) is received, distinct, in-depth 
analyses focused on specific considerations of the request are 
completed at different echelons; each of the three actions is at a 
different stage in the process.
    The ONS from 1/1 Special Forces is still being reviewed at the 
United States Special Operations Command (USASOC) and has yet to be 
passed to Headquarters, Department of the Army (HQDA) for action. 
USASOC is completing a detailed analysis of the request based on its 
Command priorities and the range of potential solutions. They will 
assess the unit's current need and the long term operational and 
sustainment impact of introducing a commercial, non-program of record 
capability into the network architecture of multiple combatant 
commands. For instance, intelligence and signal staffs must coordinate 
accreditation and authority to operate for all new systems introduced 
to each network.
    The ONS from the 95th Civil Affairs Brigade has been endorsed at 
USASOC and is undergoing a detailed review and assessment at HQDA. The 
DA review and analysis carefully weighs the impact of a decision to 
support deployed or deploying commander's requests for force tailoring 
against an equally critical requirement to protect the viability of the 
Army's tested and competitive acquisition program and its related 
funding stream. The DA review process is iterative in order to clarify 
the requirement. On occasion, the requesting unit is able to modify its 
concept for capability employment and amend the scope of the request. 
The 95th ONS is still early in the process and has already experienced 
refinements.
    The ONS from 10th Special Forces has completed the DA review and 
assessment process. It will be presented to the acquisition decision 
authority for approval by the end of the month.

    39. Senator Ernst. When does the Army expect to respond to these 
ONSs?
    General Milley. The original purpose of the Operational Needs 
Statement (ONS) process is to provide deploying commanders a method to 
request materiel capability to address gaps in the unit's organic means 
to accomplish assigned missions. The urgency of these requests is 
evident as the unit will be at risk for mission failure if the 
capability is not provided. The analysis required to support this type 
of request is relatively straight forward. In most cases, decisions to 
adjust existing prioritization and resourcing plans can be reached 
relatively quickly.
    Over time, and in order to fully capitalize on technical advances 
and new capabilities developed in the commercial sector, the Army 
expanded the ONS process to be used for force tailoring and 
enhancement. The calculus surrounding the decision to support this type 
request is far more complex and time consuming. More important, these 
requests are submitted by units that generally already have a basic, 
less capable capability for task accomplishment and are not at risk for 
mission failure. This allows the Army to place a premium on getting the 
answer right.
    The three requests for Palantir fall in this category. As the Army 
remains committed to providing soldiers with the best available 
capability to accomplish their missions, the Army is equally committed 
to making the best decisions when confronted with competing priorities. 
The Army approved 10th Special Forces ONS on 31 July 2015. The review 
and assessment of the final two requests will not be complete until 
later in the summer.

    40. Senator Ernst. Why were identical ONSs filed by 1st and 5th 
Special Forces Groups approved while these ONSs are still pending?
    General Milley. The Operational Needs Statements submitted by the 
1st and 5th Special Forces Groups were endorsed by the United States 
Army Special Operations Command and forwarded to Headquarters, 
Department of the Army for action more than 90 days earlier than the 
requests from the other units. Although the requests are for the same 
commercial solution, the review, assessment, and eventual validation 
decision must take into account the specifics of each unit's situation. 
The three remaining requests each outline distinct concepts for the 
employment of the requested capability with the requesting units slated 
to deploy and operate in different regions of the world. The uniqueness 
of these considerations makes the depth and duration of each review 
different.
    The Department also has resourcing options for requirements 
identified by units deploying into the named operational contingency 
theater. Without this funding, the strategy to support approval of the 
capability for the later requirements is more challenging. 
Additionally, the 95th Civil Affairs Brigade has a significantly 
different organization, mission set and manning posture when compared 
to the Special Forces groups. The unit's concept for employment of the 
capability is also unique and requires different certifications and 
accreditations.

    41. Senator Ernst. What do you view as an acceptable time period 
for a unit to wait for a response to an ONS?
    General Milley. The Army regulation governing the Operational Needs 
Statement (ONS) process does not prescribe a specific timeframe for 
subordinate unit review and assessment. It does, however, prescribe a 
total of 14 days for the Army G-3/5/7 to lead the DA staff's review and 
analysis of the request and provide a response to the requestor. In 
cases where a requesting unit will be at risk for mission failure if 
the capability is not provided, decisions to adjust existing 
prioritization and resourcing plans can be reached relatively quickly. 
However, when units that already have a basic capability for task 
accomplishment submit an ONS to obtain a new or more advanced 
capability, the calculus surrounding the decision to support is far 
more complex and time consuming. On these occasions, the Army places a 
priority on getting the answer right.
                     post-traumatic stress disorder
    42. Senator Ernst. How would referencing Post-Traumatic Stress 
Disorder (PTSD) as Post-Traumatic Stress help improve the Army's 
efforts to de-stigmatize PTSD?
    General Milley. The Army recommends against referencing Post 
Traumatic Stress Disorder (PTSD) as Post-Traumatic Stress (PTS). 
Efforts to normalize soldiers' response to combat stress are important. 
However, it is essential to clearly define PTSD to ensure that soldiers 
who experience serious impairment receive the clinical treatment they 
need. All behavioral health diagnoses, including PTSD, are defined 
according to the American Psychiatric Association and International 
Classification of Diseases diagnostic manuals. A term like ``PTS'' is 
inconsistent with other conditions that can occur as a result of trauma 
(e.g., major depressive disorder). As such, the American Psychiatric 
Association, RAND Corporation, and VA National Center for PTSD have all 
stated that the term ``PTS'' should be avoided.
    It is important for the Army, Department of Defense and Veterans 
Affairs medical practice to remain consistent with national clinical 
standards and diagnostic nomenclature. Clinicians, health care 
administrators, and insurance companies rely upon this standard 
nomenclature for treatment and disability evaluation purposes. Finally, 
the strongest predictors of soldiers willingness to engage in 
behavioral health treatment are their awareness that they have a 
problem and their perceptions of behavioral healthcare. According to 
our medical professionals, both in and outside the Army, changing the 
name PTSD to PTS will not address the known reasons that soldiers are 
reluctant to seek care. The key is to continue efforts to de-stigmatize 
the condition, regardless of the term.
                                 ______
                                 
              Questions Submitted by Senator Dan Sullivan
 executing a credible pacific rebalance and the army's force structure
    43. Senator Sullivan. General Milley, does the U.S. Army listen to 
and follow the President's strategic guidance?
    General Milley. Yes.

    44. Senator Sullivan. General Milley, does this include the 
President's Rebalance to the Asia-Pacific Region?
    General Milley. The Army follows the national strategic guidance 
given to us by the President, including the re-balance to the Asia-
Pacific.

    45. Senator Sullivan. General Milley, does the U.S. Army still 
believe that permanent, forward-stationed units, are critical to 
deterrence?
    General Milley. Yes, a forward presence is critical to both assure 
our allies and deter our adversaries.

    46. Senator Sullivan. General Milley, in your personal opinion, 
does it make any strategic sense for the U.S. Army to reduce forward-
based forces at Alaska's JBER by two-thirds since 2012, especially in 
the middle of Rebalance to the Asia-Pacific?
    General Milley. Given the fiscal realities we face, global 
balancing and disposition of Army forces must be made in accordance 
with National Strategy. The Army is balanced in favor of an Asia-
Pacific Rebalance. With nearly 350,000 U.S. Military assigned, PACOM is 
the largest combatant command in terms of manpower. PACOM has nearly 
3.5 times the number of assigned military personnel than the next 
largest COCOM. Active duty Army personnel committed to PACOM total 
approximately 80,000; EUCOM is the next largest at 32,000. The Army has 
and will continue to maintain forces both CONUS and OCONUS-based that 
are ready to respond to threats from any region around the globe. Given 
approximately 24 percent of the Army's Operational Force's combat power 
is in the Asia-Pacific, even with continued reductions in endstrength, 
the reduction of forces in Alaska does not significantly undermine the 
Rebalance. The Army has substantial ground capabilities committed to 
the Asia-Pacific, positioned throughout continental United States, 
Hawaii, Alaska, Washington State, South Korea and Okinawa that have and 
will continue to perform security cooperation activities with our 
Pacific allies, and remain ready to respond in crisis. Given the 
current situation, our posture towards the Asia-Pacific presents a 
capable response to mitigate regional threats.

    47. Senator Sullivan. General Milley, how does reducing forces in 
Alaska NOT undermine the Rebalance to the Pacific?
    General Milley. Given the fiscal realities we face, global 
balancing and disposition of Army forces must be made in accordance 
with National Strategy. The Army is balanced in favor of an Asia-
Pacific Rebalance. With nearly 350,000 U.S. Military assigned, PACOM is 
the largest combatant command in terms of manpower. PACOM has nearly 
3.5 times the number of assigned military personnel than the next 
largest COCOM. Active duty Army personnel committed to PACOM total 
approximately 80,000; EUCOM is the next largest at 32,000. The Army has 
and will continue to maintain forces both CONUS and OCONUS-based that 
are ready to respond to threats from any region around the globe. Given 
approximately 24 percent of the Army's Operational Force's combat power 
is in the Asia-Pacific, even with continued reductions in endstrength, 
the reduction of forces in Alaska does not significantly undermine the 
Rebalance. The Army has substantial ground capabilities committed to 
the Asia-Pacific, positioned throughout continental United States, 
Hawaii, Alaska, Washington State, South Korea and Okinawa that have and 
will continue to perform security cooperation activities with our 
Pacific allies, and remain ready to respond in crisis. Given the 
current situation, our posture towards the Asia-Pacific presents a 
capable response to mitigate regional threats.

    48. Senator Sullivan. General Milley, if you were one of our allies 
in Asia-Pacific, would you think that, from an Army force perspective, 
that our Rebalance is still credible? Is our Rebalance still credible?
    General Milley. Yes, our rebalance is credible. Approximately 24 
percent of the Army's combat power is in the Pacific. The Army is 
participating in an increased and accelerated exercise and training 
program. With nearly 350,000 U.S. military assigned, USPACOM is the 
largest combatant command and has almost 3.5 times more assigned 
personnel then the next largest COCOM.

    49. Senator Sullivan. General Milley, even though the U.S. Army has 
more forces OpCon to PACOM and JBLM has increased 54 percent since 
2001, don't more forward-stationed troops, like those in Alaska and 
Hawaii provide more credible deterrence?
    General Milley. Forces positioned closest to a threat generally 
provide a strong deterrent capability to known challenges. Also, 
missions such as Pacific Pathways, theater security cooperation with 
allies, and power projection capabilities, provide an additional 
deterrent. Lastly, the Global Response Force still maintains an 
airborne IBCT capability with a worldwide 96-hour deploy capability.

    50. Senator Sullivan. General Milley, which forces--those at JBLM 
or those in Alaska and Hawaii--provide a better deterrence posture 
against threats in the Pacific and the Arctic?
    General Milley. No single location provides a ``better'' deterrent 
posture. The best deterrence is provided by an array of forces forward 
deployed across the AOR coupled with partner-nation exercises, as we 
currently have.
              alaska's bcts (russia and arctic importance)
    Senator Sullivan. General Milley, please consider these points when 
answering the next set of questions:

    <bullet>  Point #1: Thus far, this committee has heard me discuss 
what the Russians are doing the in the Arctic with a huge military 
build-up. The CRS map included with this document ``207856 Arctic Push 
Chart'' is evidence of that.
    <bullet>  Point #2: Recently, the Finnish Defense Ministry told the 
WSJ:
      o  ``In the Arctic area [the Russians] have twofold objectives. 
To secure the Northern Sea Route and [exploit] the energy-resources 
potential. They are increasing their ability to surveil that part of 
the world, to refurbish their abilities for the air force and the 
Northern Fleet. They are exercising their ability to move their 
airborne troops from the central part of Russia to the north.'' 
Importantly he added, ``[The Russians] are masters of chess, and if 
something is on the loose they will take it . . . ''
    <bullet>  Point #3: According to recent news reports,
      o  ``Moscow has undertaken a construction blitz across the Arctic 
to establish military superiority in the region. Russia is constructing 
ten Arctic search-and-rescue stations, 16 deepwater ports, 13 
airfields, and ten air-defense radar stations across its Arctic 
coast.''--Business Insider (June 10, 2015)
    <bullet>  Point #4: According to CRS, the Russians recent conducted 
a HUGE military exercise which included:
      o  38,000 troops
      o  3,360 military vehicles
      o  41 ships
      o  15 submarines
      o  110 Aircraft
      o  Elements of Russia's Western Military District and elite 
Airborne troops
      o  Lasted 5 days and included the long-range destruction of 
simulated enemy land and naval units.
    <bullet>  Point #5: Just a couple months ago Russia's Minister of 
Natural Resources Sergey Donskoy said of the Arctic,
      o  ``There is no alternative to the fields on the shelf. Even the 
so-called shale revolution in the USA has not stopped the companies' 
urge, with support from the state, to extract Arctic oil.''
    <bullet>  Point #6: According to our own estimates, the Arctic 
could hold as much as 15 percent of the world's remaining oil, up to 30 
percent of its natural gas deposits, and about 20 percent of its 
liquefied natural gas.
    <bullet>  Point #7: The U.S. Army just announced last night that 
they are removing 2,600 airborne soldiers from our Nation's only Arctic 
State.

    51. Senator Sullivan. General Milley, in your personal opinion, 
what is Russia doing in the Arctic?
    General Milley. Given above Russian actions and behavior, it is my 
personal opinion that Russia is trying to expand its strategic 
influence in the Artic in order to exploit previously unavailable 
natural resources. Objectively, Russia has increased its military 
presence in the Arctic, reopened abandoned Soviet-era bases, boosted 
troop presence, built new facilities, and refurbished infrastructure 
and air fields across a region that stretches from Russia's borders 
with Norway and Finland to the seas off Alaska. Russian President Putin 
has said a unified system of naval bases for ships and next-generation 
submarines should be created in the region, establishing the Russian 
Arctic Strategic Command in December 2014. Additionally, in October 
2015 President Putin said two satellites will be deployed to monitor 
the Arctic, which he described as a priority because of its strategic 
location and natural resources. The Arctic is one of the world's 
richest regions in oil and natural-gas fields. President Putin has said 
Arctic zones claimed by Russia are believed to hold significant amounts 
of such resources. Additionally, in recent years, Russia has been 
increasing its military presence in the region, where it has competing 
territorial claims with other countries, including Canada and Denmark.

    52. Senator Sullivan. General Milley, in your personal opinion, how 
late are we to recognizing the importance of the Arctic? In comparison 
to Russia and their forces, their ice breakers, and their large 
exercises, are we even in the game?
    General Milley. We are still in the game. The Army is well-postured 
to respond to combatant commander requirements in the Artic or 
throughout the Pacific. While the U.S. Army is fulfilling the 
requirements outlined in the 2013 Arctic Strategy, I will work closely 
with the Department as they develop an operation plan.

    53. Senator Sullivan. General Milley, in your personal opinion, 
does the Administration's current 13-page Arctic Strategy, published a 
year before Russia invaded a sovereign country, fully address the 
increased threat environment in the Arctic?
    General Milley. I have not yet had the opportunity to discuss the 
strategy with the COCOM Commanders, the Service Chiefs, or the 
Administration. If confirmed, I will work with those commanders to 
assess the overall strategy and the Army's role in it and participate 
with the Department in development of an operation plan.

    54. Senator Sullivan. General Milley, in your personal opinion 
then, does it make strategic--or even practical sense--to remove forces 
from the Arctic and my state of Alaska, before we have a strategy? 
Isn't this a classic example of putting the cart before the horse?
    General Milley. Optimally, I would prefer to have a strategic plan 
prior and then determine force structure to support the plan. However, 
given the reduction of the Regular Army by nearly 120,000 soldiers over 
five years, the Army is faced with only undesirable choices. The 
planned reduction of forces in Alaska is based on a comprehensive 
review of strategic requirements and installation capabilities intended 
to best posture a smaller Army to balance the full range of strategic 
demands. That said, the timing of the inactivation and conversion of 
the 4/25 Airborne Brigade Combat Team should allow for completion of 
the DOD Arctic strategy and a review of force structure plans.

    55. Senator Sullivan. General Milley, do you believe that Russia is 
threat in the Arctic, and if so, how big of a threat?
    General Milley. While I believe Russian nuclear capability possess 
the greatest and only military existential threat to the United States, 
they are also a significant regional conventional threat. However, I do 
not believe the Kremlin currently has a desire for a direct armed 
confrontation with the West either in Europe, Asia, or the Artic. I 
define threat as capability plus intent. Russia is clearly increasing 
its capability in the Artic, however it is my opinion that Russia does 
not currently have the intent to militarily confront the United States 
in the Artic. It is my opinion that current Russian intent is to 
maintain and increase access to resources previously unavailable in the 
Artic by establishing transit routes to exploit various oil and mineral 
deposits. Historically however, we know that intent can change quickly, 
and we must remain vigilant and monitor Russian activity in the Artic 
closely. Russia is reactivating several Soviet-era bases and 
constructing ten search-and-rescue stations, 16 deep-water ports, 13 
airfields, and ten air-defense radar stations across its Arctic coast. 
Moscow is also creating a Joint Strategic Command North (JSCN) from 
components of the Northern Fleet in order to maintain a permanent 
military presence in the region. When complete, it will include a naval 
infantry brigade, two mechanized brigades, an air defense division, and 
a coastal missile defense system.
                  role of the secdef in army decisions
    56. Senator Sullivan. General Milley, in DOD, does SECARMY or the 
Army CoS have the direct responsibility to consult with our 
international allies and friends, or does that responsibility rest more 
with the SECDEF?
    General Milley. The Army is responsible to the Office of the 
Secretary of Defense for coordination regarding international relations 
and arrangements. Regarding matters the Army has been given the 
authority to directly coordinate with our allies and friends, the 
responsibility is shared by both the SECARMY and Army Chief of Staff--
with the SECARMY having ultimate responsibility, and the Army Chief of 
Staff managing the execution of those responsibilities.

    57. Senator Sullivan. General Milley, do you believe that the 
SECDEF should at least have a say in important force structure 
decisions in strategic OCONUS locations, especially the dynamic threat 
environment?
    General Milley. Yes, I do.

    58. Senator Sullivan. General Milley, should the SECDEF have been 
consulted in the important force decision to remove forces from Alaska 
and Hawaii?
    General Milley. I do not know if SECDEF was consulted on that 
decision. However, I believe SECDEF should be consulted on major force 
structure decisions.
               4-25 abct capabilities and spartan pegasus
    59. Senator Sullivan. General Milley, where would this Army's 
arctic training, equipment, and force projection come from, if not from 
the two BCTs in Alaska?
    General Milley. The Army's center for arctic training and equipment 
resides in the United States Army Alaska within the Northern Warfare 
Training Center (NWTC) at Fort Wainwright, Alaska, which the Army plans 
to maintain. The NWTC is the U.S. military's premier cold-weather and 
mountain environment training center, which is also tasked with 
developing tactics, techniques and procedures to enhance the Joint 
Forces Doctrine. With regard to force projection, in the event of a 
contingency in the region the Army will provide combat-ready assigned, 
allocated, or apportioned forces to the combatant commander consistent 
with classified contingency plans. Additionally, GEN Brooks has said 
that the airborne battalion task force that will remain after the 
inactivation of 4/25 Airborne Brigade Combat Team will serve as a 
nucleus of arctic/cold weather expertise around which other forces can 
form with prior training to conduct airborne operations in Arctic 
environments such as Exercise Spartan Pegasus, which this year involved 
approximately 150 paratroopers or a company-plus of combat power. The 
airborne battalion task force remaining in Alaska will retain the 
capability to conduct Exercise Spartan Pegasus as well as other 
operations elsewhere in the Indo-Asia Pacific Region.

    60. Senator Sullivan. General Milley, could Exercise Spartan 
Pegasus have been done with any other Army Airborne unit in the Pacific 
or in CONUS?
    General Milley. The Army's center for arctic training and equipment 
resides in the United States Army Alaska within the Northern Warfare 
Training Center (NWTC) at Fort Wainwright, Alaska, which the Army plans 
to maintain. The NWTC is the U.S. military's premier cold-weather and 
mountain environment training center, which is also tasked with 
developing tactics, techniques and procedures to enhance the Joint 
Forces Doctrine. With regard to force projection, in the event of a 
contingency in the region the Army will provide combat-ready assigned, 
allocated, or apportioned forces to the combatant commander consistent 
with classified contingency plans. Additionally, GEN Brooks has said 
that the airborne battalion task force that will remain after the 
inactivation of 4/25 Airborne Brigade Combat Team will serve as a 
nucleus of arctic/cold weather expertise around which other forces can 
form with prior training to conduct airborne operations in Arctic 
environments such as Exercise Spartan Pegasus, which this year involved 
approximately 150 paratroopers or a company-plus of combat power. The 
airborne battalion task force remaining in Alaska will retain the 
capability to conduct Exercise Spartan Pegasus as well as other 
operations elsewhere in the Indo-Asia Pacific Region.

    61. Senator Sullivan. General Milley, what do you suppose Vladamir 
Putin or Kim Jong-un are thinking now that we are dramatically reducing 
the only Arctic-capable Airborne Brigade in the Pacific?
    General Milley. In my assessment, the reduction of the airborne 
brigade to an airborne battalion task force has not had any real 
influence on Russian thinking or decision-making. NATO has been the 
primary threat expressed by President Putin and driving Russia's 
military doctrine in regards to the Arctic. As a general principle, I 
think that North Korea would welcome any drawdown of U.S. forces in the 
region.

    62. Senator Sullivan. General Milley, what is the strategic risk 
that we are assuming by reducing the 4-25, in terms of both the Arctic 
and Pacific regions?
    General Milley. The Army assessed that although 4/25 Airborne 
Brigade Combat Team is converting to an airborne infantry battalion 
task force, it allows USARPAC to retain an airborne capability for 
rapid deployment and vertical insertion as part of joint entry 
operations, or other missions, as needed throughout the entire Pacific 
area of responsibility, to include any potential operations on Fire 
Cross Reef. Based upon approved combatant commander plans and OSD 
requirements, the Army assessed there is limited strategic risk assumed 
in both the Arctic and Pacific regions by reducing 4/25 Airborne 
Brigade Combat Team. If confirmed, I will review the strategic risks 
associated with the 4/25 Airborne Brigade Combat Team decision.
       secretary gates' comments, the 2014 qdr, and the sequester
    63. Senator Sullivan. General Milley, in your personal opinion, are 
the President and the Pentagon still making Army force size decision 
based on the comments of Former Secretary Gates and the resulting 
military strategy documents, including the most recent 2014 QDR?
    General Milley. I have no personal knowledge of planning and 
budgeting decisions under Secretaries Panetta or Hagel and have not had 
the opportunity to discuss with Secretary Carter. However, I believe 
the budget cuts associated with the 2011 Budget Control Act are the 
dominant factor in current planning and budgeting decisions. 
Furthermore, I believe the decisions for sizing the Army are 
fundamentally based upon available fiscal resources and, if confirmed, 
I will advocate for a strategy-based force sizing construct.

    64. Senator Sullivan. General Milley, if the Congress fixes 
Sequestration, will Army Force structure automatically return to 
490,000 or above, or will it remain at the 2014 QDR level of 450,000?
    General Milley. The funding requested by the Fiscal Year 2016 
President's Budget will resource a 980,000 Total Army (450,000 AC, 
335,000 ARNG and 195,000 USAR), and if Congress does not fix 
sequestration, then the Army would reduce to 920,000 Total Army 
(420,000 AC, 315,000 ARNG and 185,000 USAR). If the Congress wants to 
reverse the reductions to the Army and also to Alaska, the Congress and 
the President would have to avert Sequestration at a funding level 
higher than proposed by the President. I have been advised that to keep 
the Total Force at 980,000 (450,000 AC, 335,000 ARNG, 195,000 USAR), 
the President and Congress would have to agree to fund the Army at 
nearly $6B per year above the President's request. There is no 
automatic return to 490,000; it must be funded in the President's 
Budget and approved by Congress.

    65. Senator Sullivan. General Milley, given that 50,000 of the 
80,000 reduction came from the elimination of the temporary end 
strength increase (22,000) and wartime allowance (10,000), reductions 
to Europe (11,300), and the number of trainees, transients, and 
students (7,300), what type strategic thinking did the U.S. Army use to 
decide remove forward forces from Alaska, before looking at CONUS 
installations?
    General Milley. When making any major force structure decision the 
Army considers both quantitative and qualitative factors. These include 
the Military Value Analysis (MVA) Model: Training, Power Projection, 
Well Being and Mission Expansion. The Army takes into account Strategic 
Considerations, Cost and Efficiencies, Readiness Impact, Mission 
Command, Statutory Requirements, Feasibility, Environmental & 
Socioeconomic Impacts and Community Input.

    66. Senator Sullivan. General Milley, General Odierno testified 
that The Army size of 450,000 is adequate to meet the demands of 
current and future threats but at ``significant risk.'' What exactly 
does ``significant risk'' mean, said in way the American people would 
understand?
    General Milley. ``Significant risk'' means that it is questionable 
whether or not the U.S. can achieve stated combatant commander 
objectives without extended delay and substantial cost and casualties.

    67. Senator Sullivan. General Milley, your testimony states that 
some of the assumptions made in the 2012 Defense Strategic Guidance 
``now appear optimistic, particularly in light of the rise of ISIL, a 
resurgent Russia, Iran's actions in the Middle East, and challenges in 
the Pacific region.'' In your personal opinion, do agree with General 
Odierno, is 450,000 adequate to meet the threats of ISIL, an aggressive 
China, a Resurgent Russia, and unpredictable North Korea, and perhaps 
new threats that will emerge in the next few years?
    General Milley. I agree with General Odierno that a 980,000 Total 
Army (450,000 AC, 335,000 ARNG and 195,000 USAR) provides the minimum 
capacity to execute the missions envisioned in the current national 
strategy at ``significant risk.'' I believe, however, that a 1.045 
million Total Army (490,000 AC, 350,000 ARNG and 205,000 USAR) 
resourced at a level of funding adequate to balance end strength, 
readiness, and modernization would address an unpredictable future 
security environment at less risk.

    68. Senator Sullivan. General Milley, if not, what is? Is 490,000 
sufficient?
    General Milley. I believe that a 1.045 million Total Army (490,000 
AC, 350,000 ARNG and 205,000 USAR) at a consistent, predictable level 
of funding adequate to balance end strength, readiness, and 
modernization would be more sufficient to address an increasingly 
unpredictable future security environment.

    69. Senator Sullivan. General Milley, is it disingenuous for 
Administration to entirely blame Sequester for causing Army the 
drawdowns, when the President's own strategic desires for a smaller 
Army are largely driving these reductions within the Pentagon, 
regardless of budgets?
    General Milley. Budget Control Act funding reductions required the 
Army to make some very difficult decisions in order to find some 
balance between end strength, readiness, and modernization. The 
Pentagon's and President's decision to reduce the size of the Army is 
driven by the QDR 2014. It takes both the Congress and the President to 
pass a law and provide funding to avert sequestration and return the 
Army to an Active component endstrength greater than 450,000 or 
420,000. Reducing force structure and end strength, while maintaining 
the barest acceptable level of readiness along with delays in 
modernization was the only responsible way for the Army to execute 
missions within the budget. As the current Chief of Staff of the Army 
has testified, the Army size in PB16 of 980,000 Total Army (450,000 AC, 
335,000 ARNG, and 195,000 USAR) is adequate to meet the demands of the 
current and future threats, but at ``significant risk.'' If confirmed, 
I will assess combatant commander requirements to ensure that we 
provide the best possible mix of capabilities within our resourcing.

    70. Senator Sullivan. General Milley, is this our generation's Task 
Force Smith moment?
    General Milley. If confirmed, I am committed to preventing a repeat 
of Task Force Smith. The historical experience of Task Force Smith 
graphically illustrates the risks our Nation takes when we fail to 
maintain readiness and invest in modernization. As I assess risk to 
mission and risk to force, our Army's history--including Task Force 
Smith--will inform that assessment. As the Army struggles to balance 
end strength, readiness, and modernization in a year of fiscal 
constraint and uncertainty, the lessons of Task Force Smith must not--
and will not--be forgotten.
                  reversibilty of the army's decisions
    71. Senator Sullivan. General Milley, is it accurate that the 
Brigade Task Force left at Fort Richardson, was left there so that the 
Army's decision to remove forces could be reversed?
    General Milley. Converting the 4/25 Airborne Brigade Combat Team in 
Alaska to an airborne battalion task force allows us to preserve combat 
power and provide the foundation for regeneration of combat power in 
the future.

    72. Senator Sullivan. General Milley, what specific things would 
have to happen for this decision to be reversed?
    General Milley. If confirmed, I commit that I will work with you, 
your staff and the Senate Armed Services Committee to ensure the Army 
remains postured and ready to respond to the strategic environment. The 
reductions of the Brigade Combat Teams in Alaska and Georgia to 
battalion task forces are designed to be reversible should the fiscal 
environment improve.

    73. Senator Sullivan. General Milley, if confirmed, do you commit 
to work with me to reverse the Army's decision and to return forces to 
my strategically important state?
    General Milley. If confirmed, I commit that I will work with you, 
your staff and the Senate Armed Services Committee to ensure the Army 
remains postured and ready to respond to the strategic environment. The 
reductions of the Brigade Combat Teams in Alaska and Georgia to 
battalion task forces are designed to be reversible should the fiscal 
environment improve.
           agree with army's recent force structure decision

    74. Senator Sullivan. General Milley, from a strategic location 
perspective, where other than Alaska does placing an airborne BCT best 
address your top three threats of Russia, China, and North Korea?
    General Milley. Russia and China are both regional powers with 
global reach. In a resource constrained environment, a CONUS-based 
airborne brigade combat team, which we have with the Global Response 
Force, is best positioned to respond to the complete range of global 
threats.

    75. Senator Sullivan. General Milley, if your personal opinion 
then, considering the location and the severity of all the threats, do 
you agree with the U.S. Army's decision to downsize strategically 
centric forces in Alaska?
    General Milley. As I discussed in our office call, if confirmed, I 
will rigorously review the decision to downsize forces in Alaska, and I 
will visit Alaska soon to personally review the facts on the ground.

    76. Senator Sullivan. General Milley, in your military judgement, 
is this a strategically-wise decision for the long-term security of the 
United States against threats like Russia, China, and North Korea?
    General Milley. Because of budgetary pressure, the Army had to make 
several difficult decisions to meet the requirements outlined in the 
National Security Strategy while balancing endstrength, readiness and 
modernization. The Army has and will continue to maintain forces--both 
CONUS- and OCONUS-based--that are ready to respond to threats from any 
region around the globe.
                                  jblm
    77. Senator Sullivan. General Milley, do units at JBLM give you as 
much power projection into the Pacific as units in Hawaii and Alaska?
    General Milley. Power projection is a function of both physical 
location and co-located or available resources: airfields, position of 
shipping, port throughput capacities, and rail infrastructure. These 
variables are taken into account to determine deployment timelines. 
However, without access to that analysis and specific contingency 
requirements, I cannot directly answer the question. If confirmed, 
however, I will review the Army's power projection capabilities against 
the combatant commanders' requirements.

    78. Senator Sullivan. General Milley, why is a CONUS-based 
installation (i.e. JBLM) seeing dramatic increases as a result of the 
Rebalance to the Pacific, but the two OCONUS states--that lean into the 
Pacific--are seeing dramatic reductions? Is our Rebalance really 
credible from the continental U.S.?
    General Milley. Without question, the Army has had to make very 
difficult choices, consistent with a reduced budget, to ensure we are 
able to meet National Security objectives and combatant commander 
requirements across all regions. Yes, a rebalance is still credible 
given the facilities, infrastructure, and posture of Army forces at 
JBLM in concert with Alaska and Hawaii. With about 24 percent of the 
Army's combat power residing in the Asia-Pacific, our posture there 
presents a credible assurance to our allies and deterrent to our 
adversaries. Through this posture and continued security cooperation 
activities with our Pacific allies the Army will remain ready to 
respond in crisis.

    79. Senator Sullivan. General Milley, how much longer would it take 
to deploy an airborne or styrker unit from JBLM versus Hawaii or 
Alaska?
    General Milley. Without question, movement of Army forces from 
CONUS to points in the Pacific will take longer than a movement of 
forces already stationed in the Pacific; how much longer is dependent 
on a host of variables, such as shipping, port throughput, rail, 
infrastructure, airfield capability, as well as size of the force and 
destination. If confirmed, I am willing to provide the Committee 
scenario-based timelines in an appropriate classified forum.
           your input into the army force structure decision
    80. Senator Sullivan. General Milley, what was your personal input 
into this force structure decision?
    General Milley. Army Forces in Alaska do not come under U.S. Army 
FORSCOM command or control. Therefore, specific to downsizing forces in 
Alaska, I did not render a recommendation nor participate in discussion 
with respect to those forces.

    81. Senator Sullivan. General Milley, did you advocate on behalf of 
CONUS-based forces, and to detriment of Pacifically-aligned OCONUS 
forces?
    General Milley. No.
                     training in alaska (mva, f-35)
    82. Senator Sullivan. General Milley, have you ever trained in 
Alaska?
    General Milley. No, but if confirmed, I look forward to getting to 
Alaska and seeing firsthand the training opportunities Forts 
Richardson, Wainwright and Greely have to offer.

    83. Senator Sullivan. General Milley, given Alaska's diverse 
training lands, the size of training space, the possibility for joint 
training and international training that already goes on, does it make 
any sense to you of how JBER would be in the bottom third of the 
training category? Does this pass your smell test?
    General Milley. I have been briefed that Joint Base Elmendorf-
Richardson's (JBER) ranking in the bottom third of installations at 
which one or more Brigade Combat Teams are stationed was the result of 
the limited training acreage that is part of the installation, the 
number of ranges, size of impact area and training restrictions. This 
criteria was based on JBER's 54K acres as addressed in the 2013 
Programmatic Environmental Assessment.

    84. Senator Sullivan. General Milley, given the F-35 will be the 
Air Force's new close-air-support platform, and that it will begin to 
arrive in 2019, did the Army's analysis weight the need for joint 
training with the F-35 in close-air-support missions? Is there anywhere 
else in the U.S. other than the JPARC where the Army could fully train 
the CAS mission with the F-35A?
    General Milley. To my knowledge, the Military Value Analysis, which 
informs decision making, does not consider any potential future weapons 
systems capabilities of the other Services. Close Air Support (CAS) can 
be trained at the majority of the Army's major installations and CAS 
can also be trained at the three Maneuver Combat Training Centers as 
part of instrumented Brigade Combat Team live fire and force-on-force 
exercises.

    85. Senator Sullivan. General Milley, before you are confirmed, 
will you release the entire Military Value Analysis (MVA) and Total 
Army Analysis (TAA) documents for all the bases considered to U.S. 
Congress? Please include those documents in your response.
    General Milley. If confirmed, I commit to being transparent with 
the Senate Armed Services Committee and with the entire Congress as I 
work with the Secretary of the Army to carry out my title 10 
responsibilities. In this case, to my knowledge, the Army has followed 
its established processes for decision making. I have been briefed the 
Army has provided the detail requested to the Senate Armed Services 
Committee and Committee staff. If confirmed, I will release any 
documents within my authority that the Committee requests to exercise 
oversight responsibilities, and I will be happy to sit down with you 
and any member of the Committee to further explain our process and 
rationale.

    86. Senator Sullivan. General Millley, if for any reason you cannot 
release the MVA and the TAA documents, if confirmed, do you commit to 
doing so once you are confirmed?
    General Milley. If confirmed, I commit to being transparent with 
the Senate Armed Services Committee and with the entire Congress as I 
work with the Secretary of the Army to carry out my title 10 
responsibilities. In this case, to my knowledge, the Army has followed 
its established processes for decision making. I have been briefed the 
Army has provided the detail requested to the Senate Armed Services 
Committee and Committee staff. If confirmed, I will release any 
documents within my authority that the Committee requests to exercise 
oversight responsibilities, and I will be happy to sit down with you 
and any member of the Committee to further explain our process and 
rationale.
 general questions regarding the u.s. army force structure adjustments 
                         (fiscal year 2016-17)
    87. Senator Sullivan. General Milley, in your personal opinion, 
what alternatives should the U.S. the Army have considered, as opposed 
to reducing strategically-important forces in Alaska and Hawaii?
    General Milley. As stated in my previous testimony and office 
calls, if confirmed, I will participate in the Arctic strategy review 
with the Joint Chiefs of Staff and will review the reduction of forces 
as necessary to determine if there are appropriate alternatives. As I 
previously mentioned, I will visit Alaska soon to personally review the 
facts on the ground.

    88. Senator Sullivan. General Milley, what is the exact number of 
soldiers that will be reduced in Alaska and can you provide an 
installation-specific profile of how many soldiers will reduced from 
each installation and how many soldiers will remain following the 
reductions?
    General Milley. Joint Base Elmendorf-Richardson (JBER) is reduced 
by 82,603 spaces and Fort Wainwright is reduced by 873 spaces for a 
combined total of 82,676 spaces. JBER retains 82000 spaces and Fort 
Wainwright retains 86,223 spaces for a combined total of 88,223 spaces.

    89. Senator Sullivan. General Milley, specifically what elements of 
are being reduced in Alaska and specifically what elements are being 
kept?
    General Milley. In addition to conversion of 4/25 Airborne Brigade 
Combat Team to an airborne battalion task force, reductions are also 
being made to portions of a Chemical, Biological, Radiological, Nuclear 
company, aviation units, music performance teams, the Stryker brigade 
combat team, an explosive ordnance company and a contingency 
contracting team. Most of these reductions are based on design changes 
that impact a significant amount of like units across the Army and are 
not limited to the units in Alaska.

    90. Senator Sullivan. General Milley, what are the exact dates that 
these reductions in Alaska officially begin and end?
    General Milley. These phased reductions will begin in January of 
2016 and continue until 15 October 2016 when the 4/25 Airborne Brigade 
Combat Team inactivates and becomes an airborne battalion task force.

    91. Senator Sullivan. General Milley, what specific cost/strategic 
factors did the U.S. use to make this decision and can you provide all 
of that information to me?
    General Milley. The Center for Army Analysis used four criteria 
consisting of 16 attributes to determine the rank order of the 
installations to best support the Army in meeting defense strategic 
requirements. The most important criteria for ranking installations 
were Training and Power Projection; the other two criteria analyzed 
were Well-Being and Expansibility.
    The Training criteria considered five key attributes: 1) the number 
of acres of maneuver area; 2) training area without environmental 
restrictions; 3) training facilities; 4) volume of restricted airspace 
and 5) the size of an impact area. Power Projection considered: 1) the 
rating of surface deployment infrastructure such as rail loading 
tracks, marshalling area and truck loading ramps; 2) the rating of air 
deployment infrastructure; and 3) deployment support infrastructure 
(e.g., container transfer pads, vehicle scales, and vehicle staging 
areas).
    I have been advised that your comprehensive data request to the 
Secretary of the Army, dated August 4, 2015, for all MVA and TAA 
related data is under review and that you will be advised of the status 
of that review in the forthcoming response.

    92. Senator Sullivan. General Milley, what will be the remaining 
combat elements of the 4-25 ABCT and what missions will they be capable 
of and what missions will they no longer be capable of?
    General Milley. A battalion task force will remain from the 4/25 
Airborne Brigade Combat Team. Planning for its structure is almost 
complete and it will consist of four airborne infantry companies, one 
field artillery battery, one engineer company and a support company 
with a total strength of 1050 soldiers. This airborne battalion task 
force will have the capability to conduct combined arms maneuver 
missions in support of the full range of military operations (Phase 0-
V) in support of a brigade combat team or a division. This airborne 
task force will have a more robust staff and support elements than 
normally found in other battalions throughout the Army enabling them to 
operate independently for 24-48 hours, including sustainment, support, 
intelligence, and communications capabilities. In short, the airborne 
battalion task force will be able to conduct a wide range of combined 
arms maneuver and wide area security missions and will be used in 
conjunction with other Army, joint or combined forces to achieve 
tactical and operational end states.

    93. Senator Sullivan. General Milley, in terms of threats in the 
region and the AOR, including North Korea, China, and Russia, what are 
the specific risks that the United States Army is assuming in relation 
to each of these threats, and in your personal opinion, is the U.S. 
Army accepting too much risk?
    General Milley. Regarding Russia, because of security condition 
changes in Europe, the current United States Army posture does not 
support a comprehensive response for timelines or capacity to deter, 
deny, or defeat Russian aggression. However, working with the United 
States European Command, the Army is in the process of mitigating this 
posture shortfall through expansion and prepositioned equipment--the 
European Reassurance Initiative funding is critical to supporting that 
effort.
    Regarding the Asia-Pacific, the key United States security priority 
is to maintain a credible deterrent posture and provide reassuring 
military presence in the region in order to maintain regional 
stability. North Korea's nuclear weapons are the leading risk to United 
States Army forces and the security of its partners. We must work with 
our interagency and multinational partners to bring about the 
verifiable elimination of North Korea's nuclear weapons program. To 
mitigate the risk of contingencies in the Asia-Pacific, the United 
States Army is working to rebalance its forces committed to the region 
in Korea, Japan, Hawaii, Alaska, and at Joint Base Lewis-McChord, 
enhance the rapid deployment capabilities in the Global Response Force, 
and mature our military relationships through routine exercises and 
engagements such as Pacific Pathways.
    The budgetary pressures forcing the Army to downsize, defer 
modernization, and potentially ration readiness further delay the time 
at which these three essential elements will finally come into balance. 
I am concerned that we not underestimate the degree of readiness, end 
strength, and modernization required to confront current and future 
security challenges in the Pacific AOR and around the globe and, I will 
work to ensure that we do not.

    94. Senator Sullivan. General Dunfrod, in your personal opinion, 
are the U.S. Army's reductions in fiscal year 2016 and fiscal year 2017 
more driven by Sequestration or the 2014 QDR?
    General Milley. The Army's reductions in fiscal year 2016 and 
fiscal year 2017 are driven by both the Budget Control Act of 2011 and 
the 2014 QDR. The Budget Control Act reduced the Army's funding. This 
funding reduction resulted in the 2014 QDR, which was the basis for the 
reduction in the Army's end strength.

    95. Senator Sullivan. General Milley, in the U.S. Army's decision, 
what, if any, thought was given to the recent actions of President 
Putin and the Russian in the Arctic and how heavily were his recent 
aggressive actions weighed?
    General Milley. I have been advised that the decision was made with 
full understanding of Russia's actions in the Arctic and with equally 
full knowledge that the Army is capable of projecting combat power from 
the continental United States on very short notice.

    96. Senator Sullivan. General Milley, recently, General Brooks 
(USARPAC) alluded that he could respond to contingencies in the South 
China Sea, specifically at Fire Cross Reef, utilizing the 4-25 ABCT and 
could do so ``tonight.'' Following these reductions, would this still 
be a true statement?
    General Milley. The Army assessed that although 4/25 Airborne 
Brigade Combat Team is converting to an airborne infantry battalion 
task force, it allows USARPAC to retain an airborne capability for 
rapid deployment and vertical insertion as part of joint entry 
operations, or other missions, as needed throughout the entire Pacific 
area of responsibility, to include any potential operations on Fire 
Cross Reef. Based upon approved combatant commander plans and OSD 
requirements, the Army assessed there is limited strategic risk assumed 
in both the Arctic and Pacific regions by reducing 4/25 Airborne 
Brigade Combat Team. If confirmed, I will review the strategic risks 
associated with the 4/25 Airborne Brigade Combat Team decision.

    97. Senator Sullivan. General Milley, how do these reductions in 
Alaska impact the response to a Korean Peninsula contingency and what 
specifically is that impact?
    General Milley. Even with the reduction of 4/25 Airborne Brigade 
Combat Team, the United States Military and the United States Army in 
particular retains sufficient capability and capacity to respond to a 
conflict on the Korean Peninsula.

    98. Senator Sullivan. General Milley, how do these reductions in 
Alaska impact the Army's ability to quickly respond to contingencies in 
the Arctic?
    General Milley. According to the briefings I have received, the 
reductions in Alaska will not severely limit the Army's ability to 
quickly respond to contingencies in the Arctic. The Army has 
substantial ground capabilities committed to the Asia-Pacific, 
positioned throughout continental United States, Hawaii, Alaska, 
Washington State, South Korea and Okinawa. Active duty Army personnel 
committed to U.S. Pacific Command total approximately 80,000, which is 
more than double those Army forces committed to U.S. European Command, 
the next largest at 32,000. Given fiscal realities and our National 
Strategy, the Army must remain globally balanced given world-wide 
threats. With that in mind, the Army has and will continue to maintain 
forces both CONUS and OCONUS-based that are ready to respond, including 
rapid response, to threats from any region around the globe.

    99. Senator Sullivan. General Milley, how much excess facility 
capacity will Fort Richardson have after the 4-25 ABCT is reduced and 
specifically what excess facilities will those be?
    General Milley. This analysis is ongoing. Overall, Joint Base 
Elmendorf-Richardson's permanent party Army authorizations will 
decrease by about 2,600 from fiscal year 2015, so the Army anticipates 
excess capacity will exist. U.S. Army Alaska and the 25th Infantry 
Division will provide revised facility requirements to the Air Force 
Joint Base Commander in the coming months. If confirmed, I will work 
with the Alaska delegation and the Air Force to ensure you are provided 
this data once available.

    100. Senator Sullivan. General Milley, will the reduction of the 4-
25 negatively affect the DOD/VA Joint venture hospital on JBER?
    General Milley. The DOD/VA Joint Venture Hospital at Joint Base 
Elmendorf Richardson is a venture between the Air Force and Department 
of Veterans Affairs (VA). Over the course of the next few months, Joint 
Base leaders will work with U.S. Army Alaska (USARAK) to assess JBER's 
end state requirements for mission support, infrastructure and 
personnel, to include the joint venture with the VA. This assessment 
will determine the impact of the 4/25 Airborne Brigade Combat Team 
reductions on the DOD/VA Joint Venture Hospital. I have been informed, 
until these requirements are firmly understood, there are no planned 
reductions of services or personnel.

    101. Senator Sullivan. General Milley, how much input did USPACOM 
have in the U.S Army's decision to reduce forces in Alaska and Hawaii 
and what specifically was that input and how heavily was it weighed?
    General Milley. I have been briefed that United States Pacific 
Command (USPACOM) was represented by U.S. Army Pacific (USARPAC) 
throughout the process that determined the recently announced Army 
force structure decisions. This includes: USARPAC input at the 
resourcing panels for units and the Council of Colonels; 2-Star General 
Officer Steering Committee; 3-Star General Officer Steering Committee; 
and culminating briefings to Department of the Army Senior Leaders for 
the Total Army Analysis (TAA) and Military Value Analysis (MVA). Their 
input was weighted commensurate with strategic priorities to include 
the Asia-Pacific rebalance, world-wide operational demands, budgetary 
pressures, and a shrinking Army. Even after this reduction of 40,000 
soldiers from the Army's endstrength, USPACOM will have more Army 
forces available to it than any other overseas combatant command.
    Additionally, during confirmation preparation, I personally 
discussed the Army's decision with both GEN Brooks, Commander USARPAC, 
and ADM Harris, Commander USPACOM. They both indicated to me that the 
reduction of 4/25 Airborne Brigade Combat Team to an airborne battalion 
task force was within the range of acceptable risk.

    102. Senator Sullivan. General Milley, how much input did USEUCOM 
have in the U.S Army's decision to reduce forces in Alaska and what 
specifically was that input?
    General Milley. I have been briefed that United States European 
Command, as represented by United States Army Europe, participated in 
the Army's comprehensive process that facilitated the recent force 
structure decisions. Their input helped inform a decision to best 
posture a smaller Army to fulfill strategic priorities, including the 
Asia-Pacific rebalance, and world-wide operational demands. I do not 
know the specifics of their input or how it was weighted.

    103. Senator Sullivan. General Milley, I have been told that the 
final decision to reduce forces in Alaska and Hawaii came down to 
tradeoff between those forces and the 173rd ABCT in Vicenza, Italy. Is 
this accurate, and if so, specifically what strategic considerations 
(location, deterrence, proximity to threats, access to nearby or 
organic lift, and capabilities) went to making this decision?
    General Milley.I have been briefed this is not accurate. The 
decision to reduce forces in Alaska and Hawaii did not involve a 
tradeoff with forces of the 173rd Airborne Brigade Combat Team in 
Vicenza, Italy.

    104. Senator Sullivan. General Milley, how much input did 
USNORTHCOM have in the U.S Army's decision to reduce forces in Alaska 
and what specifically was that input?
    General Milley. I have been briefed that United States Northern 
Command, as represented by United States Army North, participated in 
the Army's comprehensive process that facilitated the recent force 
structure decisions. Their input, like others, helped inform a decision 
to best posture a smaller Army to fulfill strategic priorities, 
including the Asia-Pacific rebalance, and world-wide operational 
demands. I do not know the specifics of their input or how it was 
weighted.

    105. Senator Sullivan. General Milley, to what extent was the U.S 
Army's decision to reduce forces in Alaska coordinated with ALCOM and 
what concerns were raised/mitigated from this coordination? To what 
extend was this decision coordinated with the Air Force side of JBER 
and what concerns were raised/mitigated from this coordination?
    General Milley. I have been briefed that Alaska Command, as part of 
Northern Command, and represented by Army North, participated in the 
Army's comprehensive process that facilitated the recent force 
structure decisions.
    I have been briefed that Joint Base Elmendorf-Richardson (JBER), 
like the other 29 installations at which substantial Army forces are 
stationed, helped inform and facilitate the Army's decision process 
through participation in two environmental and socio-economic analyses, 
providing input to the Military Value Analysis, and facilitating 
``listening sessions'' for installation communities. Commands were 
solicited to ensure the accuracy of data and Army awareness of issues 
and concerns associated with their installations. While analysis 
focused on potential losses at the former Fort Richardson, it 
considered impacts to JBER as a whole. In both the 2013 and 2015 
processes, JBER and the surrounding community were informed of the 
substantial potential losses, the command provided data and information 
to support the process, and community listening sessions were conducted 
in April 2013 and February 2015. I do not know the specific concerns 
raised or how they were mitigated.

    106. Senator Sullivan. General Milley, to what extent were our 
South Korean Allies consulted on the U.S Army's decision to reduce 
forces in Alaska?
    General Milley. To my knowledge, our South Korean allies were not 
consulted on pending force structure decisions in Alaska.

    107. Senator Sullivan. General Milley, if so, what were their 
concerns and how much were those concerns weighed?
    General Milley. To my knowledge, our South Korean allies were not 
consulted on pending force structure decisions in Alaska.

    108. Senator Sullivan. General Milley, to what extent were our 
Japanese Allies consulted on the U.S Army's decision to reduce forces 
in Alaska? If so, what were their concerns and how much were those 
concerns weighed?
    General Milley. To my knowledge, our Japanese allies were not 
consulted on pending force structure decisions in Alaska.

    109. Senator Sullivan. General Milley, to what extent was section 
1043 of the Fiscal Year 2016 NDAA considered in the U.S Army's decision 
to reduce forces in Alaska?
    General Milley. I have been briefed that section 1043 of the Fiscal 
Year 2016 NDAA was considered in the Army's decision.

    110. Senator Sullivan. General Milley, in your personal opinion, is 
it strategically wise to reduce forces in the Arctic before we have a 
new Arctic strategy and OPLAN?
    General Milley. Optimally, I would prefer to have a strategic plan 
prior and then determine force structure to support the plan. However, 
given the reduction of the Regular Army by nearly 120,000 soldiers over 
five years, the Army is faced with only undesirable choices. The 
planned reduction of forces in Alaska is based on a comprehensive 
review of strategic requirements and installation capabilities intended 
to best posture a smaller Army to balance the full range of strategic 
demands. That said, the timing of the inactivation and conversion of 
the 4/25 Airborne Brigade Combat Team should allow for completion of 
the DOD Arctic strategy and a review of force structure plans.

    111. Senator Sullivan. General Milley, to what extent was section 
1262 of the Fiscal Year 2016 NDAA considered in the U.S Army's decision 
to reduce forces in Alaska?
    General Milley. I have been briefed that section 1262 of the Fiscal 
Year 2016 NDAA was considered in the Army's decision.

    112. Senator Sullivan. General Milley, to what extent were 
Alaska's, and specifically JBER's organic strategic airlift and close 
proximity to large and robust training areas, weighted in the U.S 
Army's decision to reduce forces in Alaska?
    General Milley. There were four major categories considered in the 
Military Value Analysis with capability and power projection as major 
areas of study and analysis conducted over the last year. All major 
installations were likewise evaluated and their results were compared. 
Without question, Joint Base Elmendorf-Richardson, like many 
installations, maintains outstanding facilities and training areas 
manned with dedicated military and civilian professionals. The results, 
however, when compared to all other installations led to the decisions 
made.

    113. Senator Sullivan. General Milley, what countries has the 4-25 
ABCT worked closely with and possibly trained with and what is the 
impact of this reduction on the mil-to-mil relationships with those 
countries following the reduction of this unit?
    General Milley. In fiscal year 2015, 4/25 Airborne Brigade Combat 
Team has 
executed military-to-military engagements with Australia, Thailand, 
Japan, South Korea, Nepal, India, Bangladesh, Canada, Finland, Norway, 
and Chile. These activities have ranged from individual participants 
attending partner nation schools to airborne and battalion-sized task 
forces conducting multilateral exercises. Our 
Pacific partners and Allies consider U.S. military-to-military 
engagements to be a key component of reassurance in a volatile region. 
The Army is still assessing the full implication of the reductions, but 
initial assessments from leaders on the ground indicate that this will 
not impact our commitment to the region and our ability to conduct mil-
to-mil engagements. If confirmed, this is something that I will watch 
closely.

    114. Senator Sullivan. General Milley, following the Air Force's 
initial decision to remove a squadron from Eielson, senior Air Force 
Officials soon went up to Fairbanks and North Pole communities to 
explain the decision. When will this be done in the case of Fort 
Richardson and who will be sent?
    General Milley. I have been advised that the outgoing and incoming 
Commanding Generals, MG Shields and MG Owens, U.S. Army Alaska met with 
and briefed a number of Alaska community leaders, including Senator 
Murkowski, Senator Sullivan, Congressman Young, the Governor and the 
Mayor of Anchorage, after the notification of reduction of forces was 
announced in order to explain the Army's decision. I am unware of a 
townhall type community session held to address local questions and 
concerns. If confirmed, and as I committed to in our office call, I 
will personally visit Alaska and will bring selected members of the 
Army Staff with me to further assess the Alaska installations regarding 
the force structure decision that was made.

    115. Senator Sullivan. General Milley, what impact has the Army 
assessed will occur to the greater Anchorage housing market and to the 
greater Anchorage economy as a result of the decision to reduce the 4-
25 ABCT?
    General Milley. The housing analysis is ongoing. Overall, Joint 
Base Elmendorf-Richardson's (JBER) permanent party Army authorizations 
will decrease by about 2,600 from fiscal year 2015. On-post housing at 
JBER is privatized under an Air Force housing privatization program. 
Across the Army, about 60 percent of soldiers are married. Of those, 
about 30 percent typically live on-post. Only a subset of married 
soldiers living off-post own their own homes. Anchorage's rental 
vacancy rate is 3.9 percent, and the vacancy rate for ownership is 6.7 
percent--both of these are significantly lower than the rest of the 
United States, and are evidence of a housing market where supply is 
lower than demand.
    In the Supplemental Programmatic Environmental Assessment (SPEA), 
the Army used the Economic Impact Forecast System (EIFS) to estimate 
the impact of force structure reductions to the greater Anchorage 
market area. Although the actual reductions are much lower than the 
worst-case scenario analyzed in the SPEA, the sales volume is estimated 
to be a loss of $182M. The estimated income loss is $176M. Employment 
(Indirect) is estimated at a loss is 796 non-federal jobs in the area 
as a result of the reduced direct service contracts and reduced demand 
for goods and services.

    116. Senator Sullivan. General Milley, will installations with 
reductions be allowed to access DOD OEA funds to mitigate the effects 
of these reductions?
    General Milley. As I understand it, depending on each unique local 
set of circumstances, Army installations affected by force structure 
reductions may qualify for assistance from DOD's Office of Economic 
Adjustment (OEA). OEA provides technical and financial assistance to 
states and communities that are impacted by Defense program changes, 
such as a personnel reduction at local military installations. The Army 
coordinated the release of the force structure reduction announcements 
with OEA so that they were prepared and ready to field community 
inquiries regarding possible forms of assistance available through OEA.

    117. Senator Sullivan. General Milley, what effects with the U.S. 
Army's reductions in in Alaska have on USARAK and USARAK's HQ?
    General Milley. United States Army Alaska Headquarters will be 
reduced by 814 spaces as part of the ongoing Department of the Army 
reduction of two-star and above headquarters units.

    118. Senator Sullivan. General Milley, in what ways does the U.S. 
Army's decision to reduce forces in Alaska impact Alaska-based Joint 
training exercises such Red Flag-Alaska, Northern Edge, and Alaska 
Shield?
    General Milley. I have been advised that the impact will be 
minimal. The purpose and intent of these exercises will remain the 
same--that is, to practice deployment and employ for operations in cold 
and austere environments. As in the past, if the Army forces in Alaska 
are employed in other theaters the Army will source from outside Alaska 
allowing additional units in the Army to train in the unique conditions 
of Alaska.

    119. Senator Sullivan. General Milley, before you are confirmed, 
can you please provide the Military Value Analysis (MVA) Model and the 
Total Army Analysis used to make all of the Army's fiscal year 2016-17 
force structure decisions?
    General Milley.If confirmed, I commit to being transparent with the 
Senate Armed Services Committee and with the entire Congress as I work 
with the Secretary of the Army to carry out my title 10 
responsibilities. In this case, to my knowledge, the Army has followed 
its established processes for decision making. I have been briefed the 
Army has provided the detail requested to the Senate Armed Services 
Committee and Committee staff. If confirmed, I will release any 
documents within my authority that the Committee requests to exercise 
oversight responsibilities, and I will be happy to sit down with you 
and any member of the Committee to further explain our process and 
rationale.

    120. Senator Sullivan. General Milley, can you provide more 
information on the U.S. Army's possible desire to convert at National 
Guard brigade at JBLM to Styker brigade?
    General Milley. The plan as I understand it is to convert the 81st 
Armor Brigade, with units in Washington and California, to a Stryker 
brigade with units in Washington, Oregon and California. This 
conversion would provide an additional infantry battalion on the west 
coast and would leverage training available with the Stryker brigades 
located at Joint Base Lewis-McChord.

    121. Senator Sullivan. General Milley, if confirmed, do you pledge 
to ensure that the U.S. Army is completely transparent about the entire 
fiscal year 2016-17 force reductions and makes all the documents used 
to make all of these decision available to Congress?
    General Milley. If confirmed, I commit to being transparent with 
the Senate Armed Services Committee and with the entire Congress as I 
work with the Secretary of the Army to carry out my title 10 
responsibilities. In this case, to my knowledge, the Army has followed 
its established processes for decision making. I have been briefed the 
Army has provided the detail requested to the Senate Armed Services 
Committee and Committee staff. If confirmed, I will release any 
documents within my authority that the Committee requests to exercise 
oversight responsibilities, and I will be happy to sit down with you 
and any member of the Committee to further explain our process and 
rationale.

    122. Senator Sullivan. General Milley, if confirmed, do pledge to 
fully review the Army's reductions decisions, especially in light of 
the emerging concerns in the Asia-Pacific, the Arctic and given that 
there is a pending Arctic strategy?
    General Milley. Yes.

    123. Senator Sullivan. General Milley, the Army has told me that 
they hope to reverse the decision in Alaska. If confirmed, will you 
work with me, and them to bring all the U.S. Army forces back to my 
state and the Arctic?
    General Milley. If confirmed, I will continue to assess the 
disposition of Army forces in accordance with the national strategy, 
and provide my best military judgment and advice on the issue to the 
CJCS, the President and this Committee.
                pacific pathways and redundant missions
    124. Senator Sullivan. General Milley, yes or no, would you agree 
that the DOD needs to avoid mission redundancy in budget constrained 
environment?
    General Milley. Yes.

    125. Senator Sullivan. General Milley, Pacific Pathways is a 
program which puts Army soldiers on Naval Shipping--or commercial 
shipping contracted by the Navy--and lands Army helicopters on ships. 
Is this Army program mission redundant with the core function of the 
U.S. Marine Corps? Which service is best deploying from ships, the U.S. 
Army?
    General Milley. Pacific Pathways is not redundant with the core 
function of the U.S. Marine Corps which is amphibious assault. Pacific 
Pathways exercises the strategic movement of Army forces by sea and 
does not involve Army forces conducting amphibious assault. Strategic 
movement of Army forces by sea complements the movement of Army forces 
by air and is a fundamental requirement to ensure the Army can move 
globally to fulfill its core competency of providing relevant and ready 
land power capability to the combatant commanders as part of the Joint 
Force.
    Pacific Pathways are umbrella operations built upon existing 
exercises. It is an evolution in how the Army conducts existing 
exercises that provide significant return on investment in both 
readiness and support to PACOM's Theater Security Cooperation Plan. 
Each ``Pathway'' is tailorable and scalable, encompassing either a 
heavy, medium, or light force package based on the Pathway's exercise 
scenarios and the training objectives of the Pathway unit. The Army 
plans to conduct three Pathways per year, with a projected estimated 
total cost of $45 million per year or an estimated average cost of $15 
million per Pathway.

    126. Senator Sullivan. General Milley, exactly how much does the 
program Pacific Pathways cost each year and how much does each 
individual ``Pathway cost?''
    General Milley. The Army plans to conduct three Pathways per year, 
with a projected estimated total cost of $45 million per year or an 
estimated average cost of $15 million per Pathway.
                                 ______
                                 
               Questions Submitted by Senator Joe Manchin
                         stryker reprogramming
    127. Senator Manchin. General Milley, the Army recently submitted a 
reprograming request to upgrade the lethality of the Stryker. In light 
of the situation in Ukraine, what is the operational significance of 
this reprogramming request?
    General Milley. The recent aggression against Ukraine presents a 
significant security challenge to the stability of Europe and impacts 
all of the North Atlantic Treaty Organization allies. Heavy combat 
equipment is being prepositioned within Europe to mitigate some of that 
risk. However, the timeline to fully generate decisive combat power, 
and deploy operational forces to man these equipment sets may not set 
the necessary conditions in the earliest phases of a potential 
conflict. Currently assigned United States Army ground forces include 
the 2nd Cavalry Regiment (2CR) Stryker brigade combat team, a Stryker 
unit designed to be rapidly deployable within urban and complex 
environments with a combination of mobility, lethality and 
survivability. To address the capability gap of achieving lethal 
effects against the most likely threats while providing stand-off 
against potential threat weapons systems, the Army's priority is to 
improve lethality of assigned 2CR ground forces. Providing an improved 
direct fire weapon system to support infantry at a greater range and 
improving lethality against a wide array of targets is urgently needed.

    128. Senator Manchin. General Milley, what would be the impact if 
this reprogramming request were not approved?
    General Milley. Approval of the fiscal year 2015 $9.8 million 
Research Development Test and Evaluation reprogramming request will 
enable initiation of developmental engineering and will facilitate 
Original Equipment Manufacturer competitive source selection. Simply 
put, if the reprogramming action is not approved, the commander's 
lethality upgrade will not be met in time to influence, shape, and if 
needed, control potentially volatile situations.
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
                            patriot missile
    129. Senator Shaheen. General Milley, there are currently thirteen 
U.S. allies around the world that have purchased and deployed the 
Patriot air and missile defense system. A number of these partners have 
turned to the Patriot system as a result of emerging threats in Europe 
and the Middle East. Do you agree that the Patriot will be the Army's 
premier air and missile defense system for the next few decades?
    General Milley. Yes, the Patriot is the Army's premier air and 
missile defense program and a critical enabler to the joint air and 
missile defense structure. It will remain a critical system for the 
next few decades. The Army intends to comprehensively modernize 
Patriot, with multiple, phased efforts to maintain and improve system 
capabilities against an evolving threat environment. This strategy 
allows us to defeat both current and emerging threats while sustaining 
the system for the long term through modifications.

    130. Senator Shaheen. General Milley, given the joint environment 
and cooperation needed to counter these threats, do you believe it is 
in the interest of our other allies and partner nations to defend their 
air space and improve interoperability with the U.S. military, by also 
deploying Patriot in their armed forces?
    General Milley. Integrated air and missile defense must be a shared 
responsibility with our allies and partner nations. A focus area of the 
Army's Air & Missile Defense Strategy is to build partner capacity and 
maintain forward presence. The Army continues to pursue increased 
interoperability with allies and partners through exercises and 
training events such as the recent training exercise with Poland.
                      new hampshire national guard
    131. Senator Shaheen. General Milley, the New Hampshire National 
Guard has experienced a 32 percent decline in force structure since 
2007. This percentage is ten times the decrease in the National Guard 
as a whole during the same period. There are seven states with a 
smaller population than New Hampshire, but have a larger guard force 
structure. What is your assessment of this disproportionate 
reduction?
    General Milley. If confirmed, I will coordinate with the Chief of 
the National Guard Bureau and the Director of the Army National Guard 
to assess the force structure of the New Hampshire National Guard. I 
have already been briefed the Army National Guard (ARNG) attempts to 
balance its force structure across the 54 states and territories 
commensurate with the ability of individual states to recruit, train 
and sustain soldiers. I have been advised that in 2007 the New 
Hampshire ARNG had an allocated force structure allowance of 2,254 
spaces and assigned end strength of 1,645 soldiers (72 percent 
assigned). As part of the ARNG Rebalance and Grow plan, this 609 space 
end strength deficit was taken into consideration and New Hampshire 
ARNG force structure was cut in order to right size and improve 
readiness. Upon the completion of the fiscal year 2017 Command Plan 
(May 2015), New Hampshire ARNG will have a targeted programmed strength 
of 1,505,000.

    132. Senator Shaheen. General Milley , currently, New Hampshire 
ranks 51 out of 54 in terms of the poor condition of its facilities and 
armories with many of these structures being more than a half century 
old. In your testimony, you emphasized the importance of the Army 
National Guard as part of the ``total'' or ``one'' army concept. Given 
your support of the Guard, how will you ensure the National Guard has 
the resources it needs to upgrade facilities or fund new military 
construction projects?
    General Milley. The Army will review the current parity model that 
is used to allocate increasingly scarce resources across the Total Army 
and will work to ensure we make the best possible and fairest use of 
our resources to ensure Total Army readiness.

    133. Senator Shaheen. General Milley, the New Hampshire National 
Guard 
employs a unique program called the Care Coordination program. This 
program provides support to guardsmen and their families throughout the 
deployment cycle with mental health issues, suicide prevention, 
employment services, and educational assistance to name a few. I would 
be interested in your perspective on the importance of programs like 
this and the need to ensure that our servicemembers and their families 
have resources available before, during and after overseas deployments.
    General Milley. The Army has invested in a wide array of Family 
Programs that support the Total Army's Soldiers and Families before, 
during, and after deployments. I strongly believe these programs to be 
an investment in the Army's most valuable asset--our people. If 
confirmed, I will be steadfast in my commitment to providing soldiers 
and Families a quality of life commensurate with their service and its 
unique demands, while exercising stewardship of taxpayer dollars. PB16 
includes funding to ensure soldiers and families are prepared to face 
the everyday challenges of military life, and to provide for a ready 
and resilient Total Army.
                                 ______
                                 
           Questions Submitted by Senator Kirsten Gillibrand
                 army aviation restructuring initiative
    134. Senator Gillibrand. General Milley, I recently sent a 
bicameral and bipartisan letter to Secretary McHugh and General Odierno 
related to the Army Aviation Restructuring Initiative and its impact on 
Fort Drum. Inactivation of any of Fort Drum's squadrons would have 
significant negative impacts on the economy of northern New York, 
including the local healthcare and school systems on which the Army 
heavily relies, as well as the Army. Will you ensure that I receive a 
clear explanation regarding the impact of this year's appropriations 
and authorization bills on the 10th Mountain Division?
    General Milley. Yes.
                                 ______
                                 
    [The nomination reference of General Mark A. Milley, USA 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      June 4, 2015.
    Ordered, That the following nomination be referred to the 
Committee on Armed Services:
    The following named officer for appointment as the Chief of 
Staff of the Army and appointment in the United States Army to 
the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., sections 601 and 
3033:

                        To Be General                              
    General Mark A. Milley, 0000
                                ------                                

    [The biographical sketch of General Mark A. Milley, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
           Biographical Sketch of General Mark A. Milley, USA
Source of commissioned service:
    ROTC
Educational degrees:
    Princeton University, BA, Political Science.
    Columbia University, MA, International Relations.
    United States Naval War College, MA, National Security and 
Strategic Studies.
Military schools attended:
    Armor Officer Basic Course.
    Infantry Officer Advanced Course.
    United States Army Command and General Staff College.
    United States Naval War College.
Foreign Language(s):
    Spanish
Promotions:

 
------------------------------------------------------------------------
                Promotions                      Dates of appointment
------------------------------------------------------------------------
2LT.......................................  10 Jun 80
1LT.......................................  28 Nov 81
CPT.......................................  1 Mar 84
MAJ.......................................  1 May 92
LTC.......................................  1 Aug 96
COL.......................................  1 Apr 02
BG........................................  2 Jun 08
MG........................................  2 Mar 11
LTG.......................................  20 Dec 12
GEN.......................................  15 Aug 14
------------------------------------------------------------------------


Major duty assignments:

 
------------------------------------------------------------------------
               From                      To             Assignment
------------------------------------------------------------------------
Aug 14...........................  Present......  Commanding General,
                                                   United States Army
                                                   Forces Command, Fort
                                                   Bragg, North
                                                   Carolina.
Dec 12...........................  Aug 14.......  Commanding General,
                                                   Ill Corps and Fort
                                                   Hood, Fort Hood,
                                                   Texas and OPERATION
                                                   ENDURING FREEDOM,
                                                   Afghanistan.
Nov 11...........................  Dec 12.......  Commanding General,
                                                   10th Mountain
                                                   Division (Light),
                                                   Fort Drum, New York.
Jun 09...........................  Nov 11.......  Deputy Director for
                                                   Regional Operations,
                                                   J-3, Joint Staff,
                                                   Washington, DC.
Jul 07...........................  Jun 09.......  Deputy Commanding
                                                   General (Operations),
                                                   101st Airborne
                                                   Division (Air
                                                   Assault), Fort
                                                   Campbell, Kentucky
                                                   and OPERATION
                                                   ENDURING FREEDOM,
                                                   Afghanistan.
Dec 06...........................  Jul 07.......  Military Assistant to
                                                   the Secretary of
                                                   Defense, Office of
                                                   the Secretary of
                                                   Defense, Washington,
                                                   DC.
Jul 05...........................  Dec 06.......  Chief, Global Force
                                                   Management Division,
                                                   later Assistant
                                                   Deputy Director for
                                                   Joint Operations, J-
                                                   3, Joint Staff,
                                                   Washington, DC.
Dec 03...........................  Jul 05.......  Commander, 2d Brigade
                                                   Combat Team, 10th
                                                   Mountain Division
                                                   (Light), Fort Drum,
                                                   New York and
                                                   OPERATION IRAQI
                                                   FREEDOM, Iraq.
May 03...........................  Dec 03.......  Commander, 2d Brigade
                                                   Combat Team, 10th
                                                   Mountain Division
                                                   (Light), OPERATION
                                                   ENDURING FREEDOM,
                                                   Afghanistan.
Sep 02...........................  May 03.......  Deputy Chief of Staff
                                                   for Transformation, G-
                                                   7, 25th Infantry
                                                   Division (Light),
                                                   Schofield Barracks,
                                                   Hawaii.
Mar 02...........................  Sep 02.......  Commander, United
                                                   States Provisional
                                                   Brigade/Task Force
                                                   Eagle, 25th Infantry
                                                   Division (Light),
                                                   Multinational
                                                   Division (North),
                                                   Eagle Base, Bosnia-
                                                   Herzegovina.
Jun 00...........................  Mar 02.......  G-3, later Chief of
                                                   Staff, 25th Infantry
                                                   Division (Light),
                                                   Schofield Barracks,
                                                   Hawaii.
Aug 99...........................  Jun 00.......  Student, United States
                                                   Naval War College,
                                                   Newport, Rhode
                                                   Island.
Jul 98...........................  Jul 99.......  Senior Battalion Task
                                                   Force Observer/
                                                   Controller,
                                                   Operations Group,
                                                   Joint Readiness
                                                   Center, Fort Polk,
                                                   Louisiana.
Jul 96...........................  Jul 98.......  Commander, 1st
                                                   Battalion, 506th
                                                   Infantry Regiment, 2d
                                                   Infantry Division,
                                                   Eighth United States
                                                   Army, Korea.
Jun 93...........................  Jun 96.......  S-1, later S-3
                                                   (Operations), later
                                                   Executive Officer, 2d
                                                   Brigade, 10th
                                                   Mountain Division
                                                   (Light), Fort Drum,
                                                   New York and
                                                   OPERATION UPHOLD
                                                   DEMOCRACY, Haiti.
Aug 92...........................  Jun 93.......  Student, United States
                                                   Army Command and
                                                   General Staff
                                                   College, Fort
                                                   Leavenworth, Kansas.
Jan 92...........................  Jul 92.......  Foreign Area Officer
                                                   Training Program,
                                                   United States Defense
                                                   Attache Office,
                                                   Bogota, Columbia.
Oct 90...........................  Dec 91.......  Student, Columbia
                                                   University, New York
                                                   City, New York.
Apr 90...........................  Oct 90.......  Student, Defense
                                                   Language Institute,
                                                   Presidio of Monterey,
                                                   California.
Jan 89...........................  Feb 90.......  S-3 (Operations), 5th
                                                   Battalion, 21st
                                                   Infantry Regiment,
                                                   7th Infantry Division
                                                   (Light), Fort Ord,
                                                   California and
                                                   OPERATION JUST CAUSE.
Jun 86...........................  Jan 89.......  Commander, C Company,
                                                   later Commander,
                                                   Headquarters and
                                                   Headquarters Company,
                                                   5th Battalion, 21st
                                                   Infantry Regiment,
                                                   7th Infantry Division
                                                   (Light), Fort Ord,
                                                   California and Multi-
                                                   PNational Force and
                                                   Observer Task Force,
                                                   Sinai, Egypt.
Jun 85...........................  Jun 86.......  Assistant S-2/3,
                                                   Bayonet Combat
                                                   Support Brigade, 7th
                                                   Infantry Division
                                                   (Light), Fort Ord,P
                                                   California.
Oct 84...........................  May 85.......  Student, Infantry
                                                   Officer Advanced
                                                   Course, United States
                                                   Army Infantry School,
                                                   Fort Benning,P
                                                   Georgia.
Jun 82...........................  Oct 84.......  Commander, Operational
                                                   Detachment ``A'', A
                                                   Company, later B
                                                   Company, 2d
                                                   Battalion, 5th
                                                   Special Forces Group,
                                                   Fort Bragg, North
                                                   Carolina.
Feb 81...........................  Jun 82.......  Assistant Battalion
                                                   Maintenance Officer,
                                                   later Platoon Leader,
                                                   A Company, 4th
                                                   Battalion, 68th Armor
                                                   Regiment, 82d
                                                   Airborne Division,
                                                   Fort Bragg, North
                                                   Carolina.
------------------------------------------------------------------------


Summary of joint assignments:

 
------------------------------------------------------------------------
                                         Date                Grade
------------------------------------------------------------------------
Commander, International              May 13-Feb 14   Lieutenant General
 Security Assistance Force Joint
 Command/Deputy Commander,
 United States Forces-
 Afghanistan, OPERATION ENDURING
 FREEDOM, Afghanistan...........
Deputy Director for Regional          Jun 09-Nov 11   Brigadier General/
 Operations, J-3, Joint                                   Major General
 Staff,Washington, DC...........
Deputy Commanding General             Apr 08-Jun 09   Brigadier General
 (Operations), 101st Airborne
 Division (Air Assault)/Combined
 Joint Task Force-76, OPERATION
 ENDURING FREEDOM, Afghanistan..
Military Assistant to the             Dec 06-Jul 07                    Colonel
 Secretary of Defense, Office of
 the Secretary of Defense,
 Washington, DC.................
Chief, Global Force Management        Jul 05-Dec 06                    Colonel
 Division, later Assistant
 Deputy Director for Joint
 Operations, J-3, Joint Staff,
 Washington, DC.................
------------------------------------------------------------------------


Summary of operational assignments:

 
------------------------------------------------------------------------
                                         Date                Grade
------------------------------------------------------------------------
Commander, International             May 13 -Feb 14   Lieutenant General
 Security Assistance Force Joint
 Command/Deputy Commander,
 United States Forces-
 Afghanistan,OPERATION ENDURING
 FREEDOM, Afghanistan...........
Deputy Commanding General             Apr 08-Jun 09   Brigadier General
 (Operations), 101st Airborne
 Division (Air Assault)/Combined
 Joint Task Force-76, OPERATION
 ENDURING FREEDOM, Afghanistan..
Commander, 2d Brigade Combat          Jun 04-Jun 05                    Colonel
 Team, 10th Mountain Division
 (Light), OPERATION IRAQI
 FREEDOM, Iraq..................
Commander, 2d Brigade Combat          May 03-Dec 03                    Colonel
 Team, 10th Mountain Division
 (Light), OPERATION ENDURING
 FREEDOM, Afghanistan...........
Commander, United States              Mar 02-Sep 02                    Colonel
 Provisional Brigade/Task Force
 Eagle, 25th Infantry Division
 (Light), Multinational Division
 (North), Eagle Base, Bosnia-
 Herzegovina....................
S-3 (Operations), 2d Brigade,         Aug 94-Jan 95               Major
 10th Mountain Division (Light),
 OPERATION UPHOLD DEMOCRACY,
 Haiti..........................
Cdr, Headquarters and                 May 87-Nov 87                    Captain
 Headquarters Company, 5th
 Battalion, 21st Infantry
 Regiment, 7th Infantry Division
 (Light), Multi-National Force
 and Observer Task Force, Sinai,
 Eypt...........................
------------------------------------------------------------------------


U.S. Decorations and Badges:
    Defense Distinguished Service Medal.
    Distinguished Service Medal (with Oak Leaf Cluster).
    Defense Superior Service Medal (with 2 Oak Leaf Clusters).
    Legion of Merit (with 2 Oak Leaf Clusters).
    Bronze Star Medal (with 3 Oak Leaf Clusters).
    Meritorious Service Medal (with 5 Oak Leaf Clusters).
    Army Commendation Medal (with 4 Oak Leaf Clusters).
    Army Achievement Medal (with Oak Leaf Cluster).
    Combat Infantryman Badge (with Star).
    Expert Infantryman Badge.
    Master Parachutist Badge.
    Scuba Diver Badge.
    Ranger Tab.
    Special Forces Tab.
    Joint Chiefs of Staff Identification Badge.
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by General Mark 
A. Milley, USA in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    part a--biographical information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Mark A. Milley

    2. Position to which nominated:
    Chief of Staff, United States Army.

    3. Date of nomination:
    4 June 2015

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    June 20, 1958, Winchester, MA (Middlesex County, Massachusetts).

    6. Marital status: (Include maiden name of wife or husband's name.)
    Married; May 4, 1985 to Hollyanne (Haas) Milley.

    7. Names and ages of children:
    [Nominee responded and the information is contained in the 
committee's executive files.]

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.
    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    Member of AUSA, 10th Mountain Division Association, 101st Division 
Association, 82d Airborne Division Association, Special Forces 
Association, 506th Infantry Regiment Association.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.

    MIT Seminar XXI Fellow--National Security Program.
    ROTC Scholarship Princeton University.
    French Airborne Wings (earned and filed).
    Afghan National Army Medal (presented not filed).
    Polish Military Medal (presented not filed).
    French Military Medal (presented not filed).
    Afghanistan Ministry of Interior Symbol of Honor for National 
Police (presented not filed).

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the Administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               General Mark A. Milley  
    This 15th day of May, 2015
                                 ______
                                 
    [The nomination of General Mark A. Milley, USA was reported 
to the Senate by Chairman McCain on August 4, 2015, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 5, 2015.]


 
                   NOMINATION OF LIEUTENANT GENERAL 
  ROBERT B. NELLER, USMC, TO BE GENERAL AND COMMANDANT OF THE MARINE 
                                 CORPS

                              ----------                              


                        THURSDAY, JULY 23, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in Room 
SH-216, Hart Senate Office Building, Senator John McCain, 
(chairman) presiding.
    Committee members present: Senators McCain [presiding], 
Inhofe, Sessions, Wicker, Ayotte, Fischer, Cotton, Ernst, 
Tillis, Sullivan, Graham, Reed, McCaskill, Manchin, Shaheen, 
Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The Senate Armed Services 
Committee meets this morning to consider the nomination of 
Lieutenant General Robert Neller to be the 37th Commandant of 
the Marine Corps.
    General Neller, we thank you for joining us this morning. 
We are grateful for your many years of distinguished service to 
our Nation and for your continued willingness to serve.
    We also welcome members of your family joining us this 
morning, and thank them for supporting you and our Nation. As 
our tradition, at the beginning of your testimony, we invite 
you to introduce any family members that are joining us.
    As our Nation confronts the most diverse and complex array 
of global crises since the end of World War II, the next 
Commandant will be responsible for ensuring that the Marine 
Corps remains the Nation's expeditionary force in readiness. 
After more than a decade of war in Afghanistan and Iraq, our 
marines have remained in high demand, performing the full range 
of theater security and crisis response missions across the 
globe. With instability spreading across the Middle East and 
North Africa, and tension gripping the Asia-Pacific, more than 
ever our Nation is counting on the forward presence, strategic 
agility, power projection, and rapid response that are the 
Marine Corps hallmarks.
    But, as we confront the realities of a more dangerous 
world, drastic reductions in defense spending are forcing our 
marines to take on a growing set of missions with fewer and 
fewer resources. Over the last few years, the Marine Corps has 
been cut from 202,000 Active Duty marines in 2012 to 184,000 
today. Over the next 2 years, the Marine Corps will fall to 
182,000; and, if sequestration returns again, we will be left 
with 174,000 marines, a force ill-prepared and ill-equipped to 
respond to a crisis or major contingency.
    The combination of budget cuts, force reductions, and 
rising demands on our marines has reduced readiness, lengthened 
deployments, cut training and time at home with families, and 
put the Marine Corps under considerable strain. This madness 
must stop. As I said earlier this week, this is not just about 
reversing the effects of sequestration. We must replace the 
arbitrary spending caps on defense that were imposed under the 
Budget Control Act of 2011. That's the only way that we will 
get back to a truly strategic--strategy-driven defense budget.
    As General Dunford emphasized in his most planning--recent 
planning guidance, the Marine Corps is a naval expeditionary 
force. Over this past decade, as the United States was focused 
on the wars in Afghanistan and Iraq, America's potential 
adversaries were investing billions in so-called anti-access 
area denial capabilities that threat the Marine Corps ability 
to fight from the sea. At the same time, budget constraints 
have left the Marine Corps short of its requirements for 
amphibious warships. On the current path, the Marine Corps will 
not have the correct mix of amphibious warships until 2024. 
This is particularly concerning in the Asia-Pacific, where the 
Marine Corps plays an essential role in our rebalance policy. 
Despite growing tensions in the region, our marines still lack 
sufficient sealift and airlift capabilities to respond to a 
major contingency in the Asia-Pacific. We must do better if the 
United States is to accomplish a rebalance that successfully 
reassures our allies and deters our adversaries.
    General Neller, if confirmed, another significant challenge 
you will face is shortfalls in aviation readiness. As you well 
know, high operations tempo over a decade of sustained combat 
has degraded readiness--in marine aviation. Today, nondeployed 
marine aviation squadrons are 20 percent short of the number of 
aircraft needed to train or respond in a crisis. As you will 
surely agree, the Marine Corps aviation bench is simply too 
shallow to be ready for future challenges. We will be 
interested to hear your views on putting the Marine Corps on 
track to restoring aviation readiness.
    Finally, General Neller, if confirmed, you will be 
responsible for recapitalizing and modernizing for future 
challenges. In the air, the Marine Corps is rapidly approaching 
a significant milestone with the initial operational 
capability, or IOC, of the F-35B joint strike fighter. Concerns 
remain about the warfighting capability of these aircraft 
reaching IOC. We will be looking to you, General Neller, to 
ensure our marine aviators have safe and reliable aircraft that 
will allow them to effectively carry out their missions. On the 
ground, the amphibious combat vehicle remains the Marine Corps 
top acquisition priority. Given the importance of replacing our 
aging fleet of amphibious vehicles, the Marine Corps must learn 
the lessons of past failures, such as the expeditionary 
fighting vehicle, and deliver this needed capability on time, 
at cost, and up to expectations. We will be relying on you, 
General Neller, to make sure the job gets done.
    Thank you. We look forward to your testimony.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you, Mr. Chairman.
    I want to join the Chairman in welcoming Lieutenant General 
Neller to the confirmation hearing regarding his nomination to 
be the 37th Commandant of the United States Marine Corps.
    General Neller, welcome to the Armed Services Committee. 
Thank you for your many years of extraordinary service to the 
Corps and to the country. Also, thank your family for their 
service right alongside you every step of the way.
    General Neller, you have an exemplary record of service, 
and you're highly qualified for the position which you've been 
nominated. You have commanded marines from the platoon level to 
the division level, and are--you are currently the commander 
Marine Corps Forces Command and commander Marine Corps Force 
Europe. Before this current assignment, you also commanded U.S. 
Marine Corps Forces for Central Command.
    General Neller, as Commandant of the Marine Corps, you will 
be tasked with the recruiting and retaining of quality force 
and ensuring that force contains the necessary structure and 
readiness levels to meet our Nation's current challenges and 
the posture to respond to tomorrow's crises and contingencies. 
These responsibilities are demanding enough on their own; 
however, you will also be asked to assume control at a time of 
immense financial and fiscal challenge, particularly because of 
sequestration. I know we will discuss a number of these 
challenges this morning.
    Again, thank you for your service and the service of your 
family. Thank you for your great marines, who make us all proud 
every day.
    Thank you, Mr. Chairman.
    Chairman McCain. Thank you.
    General, in order to exercise its legislative and oversight 
responsibilities, it's important that this committee and other 
appropriate committees of the Congress be able to receive 
testimony, briefings, and other communications of information. 
So, would you answer the following questions:
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    [The witness answered in the affirmative.]
    Chairman McCain. Do you agree, when asked, to give your 
personal views, even if those views differ from the 
administration in power?
    [The witness answered in the affirmative.]
    Chairman McCain. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    [The witness answered in the negative.]
    Chairman McCain. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    [The witness answered in the affirmative.]
    Chairman McCain. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    [The witness answered in the affirmative.]
    Chairman McCain. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    [The witness answered in the affirmative.]
    Chairman McCain. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    [The witness answered in the affirmative.]
    Chairman McCain. Do you agree to provide documents, 
including copies of electronic forms of communications, in a 
timely manner when requested by a duly-constituted committee, 
or to consult with the committee regarding the basis for any 
good-faith delay or denial in providing such documents?
    [The witness answered in the affirmative.]
    Chairman McCain. Thank you.
    Welcome, General. Please proceed. Perhaps you'd like to 
introduce your family.

STATEMENT OF LIEUTENANT GENERAL ROBERT B. NELLER, TO BE GENERAL 
               AND COMMANDANT OF THE MARINE CORPS

    General Neller. Thank you, Chairman, Ranking Member Reed.
    My wife, Darcy, is here. Our 40th wedding anniversary is 
next month. I already have the present, so I'm in good shape.
    [Laughter.]
    General Neller. Our three children are not here: Kurt, 
Brett, and Claire. They are off--Kurt lives in Traverse City; 
Brett lives in Houston; and Claire and her husband, Jim, and 
the most important member of our family, grandson Connor, are 
in Austin, Texas. I'll talk a little bit about all of them in 
my statement.
    Chairman McCain. Thank you.
    General Neller. Our parents--our mothers both live in East 
Lansing, Michigan, and both our fathers are deceased and both 
veterans. My brother is a retired Navy captain. My dad served 
in the Army. Darcy's dad and her--his three brothers are all 
World War II vets, served in the war. So, we have a history of 
service in our family.
    So, with that, I would like to present my opening 
statement.
    Chairman McCain, Ranking Member Reed, and distinguished 
members of the committee, thank you for the opportunity to 
appear today.
    Before I offer my brief remarks, I do want to express my 
condolences to the families of the marines and sailor lost in 
the tragic shootings in Chattanooga. Our thoughts are with the 
families as they struggle to cope with this incomprehensible 
loss. For Gunnery Sergeant Sullivan, Staff Sergeant Wyatt, 
Sergeant Holmquist, Lance Corporal Wells, and our shipmate, 
Petty Officer Smith, you will not be forgotten.
    I'll begin by thanking the President and the Secretaries 
Carter and Mabus for their confidence in nominating me for this 
office. I would also like to thank this committee and the 
Congress for your faithful support for our men and women in 
uniform under your leadership. The Marine Corps today is a much 
different and better force than the one I joined 40 years ago.
    I also want to recognize my partner, friend, and strongest 
supporter, who sits with me today, Darcy. We started our Marine 
Corps journey at the same time, although she didn't sign up; 
she just went with it.
    [Laughter.]
    General Neller. She has an unconditional love for marines 
and their families. She understands the difficulties and 
stresses of military families, and serves as a strong advocate 
for their support. While I was off doing what was required, she 
ran the house, worked outside the home, volunteered, raised 
three kids, who all have their own lives and careers and are 
doing very well, thankfully--moved 26 times, to include three 
times overseas, and allowed me to think that I was contributing 
to the effort. Now that we have our first grandson, Connor, I 
have moved down in the pecking order in the Neller household, 
beneath him, the children, and the dogs. As I said, we'll be 
celebrating our 40th anniversary, and I'm thankful that she's 
here with me today.
    I accepted a Reserve commission in the Marine Corps in June 
of 1975 out of the University of Virginia because I wanted to 
get married and I needed a job. When I joined, we had just come 
out of Vietnam. Discipline was not good, equipment was in poor 
condition, and training was poorly resourced and rudimentary. 
Though we were well led and we trained hard, we were not ready. 
So, in those early years, I learned to expect little and to get 
less. But, more importantly, I soon realized that being a 
marine, and an officer in the marines, was much more than just 
that job that I was looking for; it's a profession, it's a 
mindset, it's a life. I came to realize that the marines and 
sailors we serve, and their families, are special people. If 
they are well led by those willing to share the hardship and 
the risk, led by those who firmly but fairly coach, teach, and 
mentor them, and by those willing to ensure they have what they 
need for the mission and for their families, that they could 
accomplish incredible things.
    I had many teachers in those early days, but the best were 
the Vietnam-era staff NCOs [Non-Commissioned Officers] who, for 
whatever reason, took the time to keep me out of my own way, 
mold me, and advise me when those were--when those times were 
tough.
    I also learned the hard grind of life in the infantry, how 
to operate, move, and survive in every clime and place, how to 
lead those that were not always willing, and how to build a 
team. I learned why the Marine Air-Ground Task Force [MAGTF], a 
team of teams, is the way we fight and why we win. I learned 
that we are most effective as a maritime force using the sea as 
maneuver space, and, as soldiers of that sea, we hold an 
advantage over our adversaries when we come from our Navy ships 
both on the surface and in the air. I learned that the support 
and well-being of our families is just as important as the 
ammo, food, and water we need to keep ourselves focused and 
successful in the fight.
    So, over these past years, through the efforts of great 
leaders, like Commandants Wilson and Barrow and those that 
followed, to include our current Commandant, General Dunford, 
and his wife, Ellen, who have set the conditions for our future 
success. With the support of the Congress and the Nation, we've 
kept at it. We've gotten better--better people, better 
equipment, better facilities, better training, better 
education, better leadership--and we were put on a path to 
where we are today--a high-quality corps of men and women who 
are smart, fit, disciplined, trained, experienced, take care of 
each other, and are ready to fight tonight and to provide what 
America expects of her Marine Corps: an expeditionary crisis 
response force in readiness. Although material readiness, 
fiscal and other challenges do exist, and which must be 
addressed, I am immensely proud of where the Corps is today.
    All that said, we cannot rest on our laurels and become 
complacent. I don't have to tell this committee that the 
complexity of the global security environment creates a level 
of uncertainty that increases risk to our Nation, from violent 
extremism across the globe and Cold War-like aggression in 
Eastern Europe, cyberthreats and contested waters in the 
Pacific. Because of the security environment we face, the 
President and our National leadership expects its military to 
be able to provide the military options and capabilities to 
meet these challenges and to protect the security interests of 
the American people. Among those military options they expect 
to have is a Marine Corps that can respond to crisis across the 
full range of military operations. They expect the Marine Corps 
to be the Nation's force in readiness. They demand that, when 
the Nation is least ready and needs us most, the Marine Corps 
will be the most ready, will answer the call, and win.
    In order to be that Marine Corps, we must be willing to not 
just be good, but to get better, be able and willing to look at 
new and different ways of performing our craft that maintain an 
operational edge every day. Every marine we recruit and 
reenlist, every decision we make, all the equipment we procure, 
all the training we do must make us operationally better. 
Flexibility, innovation, dealing with change, uncertainty, 
thinking out of the box, all these things have to be 
commonplace and something that is expected from marines. It has 
been in the past, and it must be so in the 
future.
    Finally, if confirmed, I promise to dedicate myself to 
sustaining and providing the Nation that kind of Marine Corps, 
a Marine Corps of the highest-quality young men and women our 
Nation has to offer, the most disciplined, best-trained and -
equipped and operationally-capable Marine Corps we can afford, 
and the best--to the best of my ability, to ensure the health, 
well-being, and opportunities for success of the men and women 
who accept the challenge to be a U.S. Marine.
    Thank you once again for the opportunity to appear before 
you this morning. I'm ready for your questions.
    Chairman McCain. Well, thank you, General.
    Recently, General Dunford stated to this committee, quote, 
``We cannot execute the 2014 Quadrennial Defense Review with 
the budget cuts as a result of the Budget Control Act.'' He 
continued, stating that ongoing cuts will threaten our ability 
to execute the current defense strategy. Do you agree with that 
statement of General Dunford's?
    General Neller. Chairman, I do believe, if we are held to 
the sequestration level this year and in the following years, 
we will not be able to execute the strategy.
    Chairman McCain. Would this continued sequestration and its 
effects put the lives of the men and women serving in the 
Marine Corps in greater--at greater risk?
    General Neller. Senator, if our readiness is degraded 
because we can't resource the training and we can't modernize 
the force, if we had to commit that force, there would be 
increased risk.
    Chairman McCain. You know, in the 1970s, you referred to 
General Wilson and General Barrow, and you referred to the 
really terrible situation that existed. Do you see a parallel 
to that today with continued sequestration?
    General Neller. Chairman, anytime we come out of conflict, 
there is always risk to this effect. But, they're all 
different. We've--some--we've been able, after 12 years of war, 
to keep a very qualified and capable force. Because we've been 
resourced and supported by the Congress, I don't believe we're 
near that place that you and I remember from the '70s. There's 
always risk that things could happen that could take us there. 
I believe that's what many of us are concerned about. But, 
right now, we're not there. If confirmed, I give you my 
personal pledge that we'll do everything in our power to never 
go back to that place again.
    Chairman McCain. We've spent a lot of billion dollars on 
acquisition, as you know. At least in my view, the ongoing 
scandal is the cost overruns, the F-35B, complete testing of 
the CH-53 heavy-lift helicopter--the list goes on and on of 
cost overruns. Will placing service chiefs in a greater 
position of responsibility of service acquisition programs help 
fix--address this problem, in your view?
    General Neller. Chairman, I don't think any of us who are 
on the receiving end of the acquisition process are totally 
pleased. I'm not a acquisition professional, but I think we all 
wonder why it takes so long, costs so much money, why there's 
delays. So, if confirmed, I would look forward to working with 
this committee and then the Secretary of Defense to improve 
this----
    Chairman McCain. Do you believe that----
    General Neller.--process and involve the service chiefs in 
the process.
    Chairman McCain. Do you believe that we could make this 
process more efficient if you played a role in that process--if 
the service chiefs played a role in that process?
    General Neller. I would like to believe, if confirmed, that 
I could provide value-added to the process and make it more 
effective, Chairman.
    Chairman McCain. Thank you.
    I'm sure you've observed the ongoing situation in Ukraine. 
Would you favor providing defensive weapons to Ukraine?
    General Neller. Chairman, it's my military opinion, if we 
provided additional weapons to the Ukrainians, that they would 
be more capable of defending their territory.
    Chairman McCain. I want to go back, just a second, to the 
budget situation, because there is great controversy on that 
issue. I'm not sure my colleagues on both sides of the Capitol 
understand the consequences, not only for our ability to defend 
the Nation, but the greater risks to the people that we ask to 
defend us. Maybe you could talk to us a little bit about that 
and the impact on retention and morale, and of the--of our All-
Volunteer Force.
    General Neller. Well, Chairman, in my current role as 
commander Marine Forces Command, I try to get out and speak to 
marines and sailors as often as I can. This force is very 
smart. They are informed. So, they are aware of what's going on 
with the funding. I believe they're concerned, they're 
watching. They want to know what's going to go on with 
compensation. They want to know what's going to go on with the 
modernization and training. This Congress and this Nation has 
been very generous to them in the last 12 years, so they've 
created a very high--they have a high expectation in their mind 
of what's--you know, what's supposed to be right. They don't 
have the context I had. They don't understand what it is to go 
short. They'll learn, if they have to.
    So, I do have some concerns about retention. I do have 
marines ask me, ``Hey, what's going to happen about pay and our 
gear and our training and our bases, our housing, and those 
things?'' They know there's choices to be made. But, I believe, 
whatever those choices are--and we can explain them to them, 
and they are reasonable, rational people, and they'll make the 
decision--and I believe that they'll stay. But, that remains to 
be seen.
    Chairman McCain. Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Again, thank you, General, for your service.
    The Marine Corps continues to test, develop, and evaluate 
gender-neutral occupation standards. I think the expectation, 
the goal, is that every MOS [Military Occupational Specialty] 
would be available to qualified female in Marines, as well as 
males. You're just opening up the base infantry course to 
company-grade female officers. Can you comment upon the 
expectations and your commitment to making sure that this is 
accomplished?
    General Neller. Senator Reed, first off, just let me say, 
as I said in my statement, that whatever we do, it's got to at 
least maintain, if not improve, our operational capability. 
Since the Secretary made the decision to open up these MOSs, 
we've done a number of things. First, we assign women in MOSs 
that they already held to previously restricted units to begin 
the process of integration. We've opened up other MOSs that 
were previously closed to female marines, like maintenance MOSs 
and light anti-air defense. Right now, there's--94 percent of 
all MOSs in the Marine Corps are open to females. We sent women 
to Infantry Training Battalion as enlisted marines. They 
volunteered. We ran them through the training, developed data, 
and see what their ability was to pass through--pass that 
curriculum. We also allowed women--have continued to allow 
women to compete in the infantry officers course. The last 
thing we did, in a measured, deliberate way, was to form a task 
force--an integrated task force to put together men and women 
in teams, in units--infantry, artillery, tanks, light-armor 
Amtracs, and run them--prepare them, train them, and run them 
through an evaluation to get some data, because we found there 
was not a lot of data. So, we're still assessing that data, and 
that data will drive, along with operational views, what the 
recommendation to the Commandant will be on opening up those 
remaining MOSs.
    Senator Reed. Thank you, sir. This is a challenge for the--
not only the Marine Corps, but the Army. Just, as we speak, 
there are three women candidates in the mountain phase of 
Ranger School to see if we can validate and create a--in the 
Army, a pathway for Ranger qualifications for females as well 
as males. But, thank you, and I--for your commitment to that.
    Last year, the Personnel Subcommittee had a hearing, and 
the former senior enlisted advisor to the Commandant, Sergeant 
Major Richard Barrett, stated--and I've always listened to 
sergeant majors, they're pretty smart people--but, I thought it 
was remarkable what he said. In his words, ``If we do not get 
hold of slowing down the growth of personnel costs, if we do 
not pay a little more attention to the healthcare that we so 
generously have received in my 33 years, I have never seen the 
level of quality of life, ever--this level. We have never had 
it so good. I make that point because, if we do not get a hold 
of slowing the growth, we will become an entitlements-based, 
healthcare-provided-based Marine Corps, and not a warfighting 
organization.'' He further stated, I am told, in colorful 
tones, that marines care most about the next fight, training, 
and modernization. That, I think, is the dilemma that we all 
face. Can you comment upon that?
    General Neller. I'm not going to speak for Sergeant Major 
Barrett. I've heard the comments. I know Sergeant Major 
Barrett. I think his concern is, is that we created, because of 
the generosity of the Congress and the fact that we were at 
war, and from--for rightful, proper reasons, we did a lot of 
things with medical care, and we had some shortfalls.
    Senator Reed. Right, absolutely.
    General Neller. I mean, our facilities are the best I've 
ever seen. So, we've taken advantage of the situation and the 
money that was available. So, a young marine coming in today, 
when he walks around, or she walks around, they see what they 
see; they don't see what it used to look like. You know, 
Senator Tillis will attest to that down at Camp Lejeune. I 
mean--and the same thing at Camp Pendleton--it's very nice. Not 
perfect. It's good enough. But, it is--it's new. We're going to 
have to sustain that.
    So, I think Sergeant Major Barrett's concern is, How do we 
sustain it? Have we created an expectation that we can meet? If 
we can't meet that, what are the marines going to do? At the 
same time, that's important, but it's as, if not--to me, it's 
more important that the training we give them and the equipment 
we give them has parts, it's maintainable, the training is 
challenging, demanding, interesting, and it's going to improve 
our operational capability. So--and we've done that--so, 
maintaining that level, I think, is what his concern is, and 
much of that is tied to resources.
    Senator Reed. Now, my impression has always been that 
qualify-of-life issues, access to childcare, access to medical 
facilities, are critical, but soldiers and marines understand 
that, if they're not well-trained, well-equipped, and ready to 
go, that's the big quality-of-life issue, because that means 
they survive or they don't survive and the mission gets 
accomplished or doesn't get accomplished. So, we'll have to 
work with that.
    My time is expired. One other issue I'll just put on the 
table. We had a brief chat in the office. The sense that the 
next battle we fight, the first phase will be cyber-dominated, 
so we'll be fighting in the dark. So, perhaps there'll be an 
opportunity for other questions later this morning about how 
marines will relearn some of those old things, like maps and 
lensatic compasses and--you know, that might be very critical 
in the next fight, even though we have the most sophisticated 
equipment in the world.
    Thank you very much for your service.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. The Chairman asked you the question about 
the Ukraine. I was glad he did. I was over there when they had 
the parliamentary elections. For the first time in 96 years, 
they only had one Communist on their Parliament. I mean, 
that's--that's for us, that's for the West, that's their 
allegiance to us.
    Your answer was very similar to General Dunford when you 
said, ``Yeah, we--they should have defensive weapons over 
there.'' What would be your choice, in looking at them, as to 
what priorities, what types of weapons they need the most right 
now?
    General Neller. Senator, I've never been to Ukraine. I've 
been to Georgia. They've made similar requests. I think what 
they're--what I've heard, at least from the Georgians, they're 
looking for defensive weapons--antitank guided-missile-type 
weapons.
    Senator Inhofe. Okay, why don't--for the record, why don't 
you just, kind of, send your suggestions, your--in looking and 
making those evaluations.
    [The information referred to follows:]

    We should continue the provision of non-lethal supplies and 
defensive equipment (counter fire radars) and ISR support to Ukraine 
and continue our training of their forces. If the future dynamics in 
the Ukraine change and necessitate a more robust military response, I 
would recommend the provision of weapons and systems--such as anti-
armor weapons--and the necessary trainers to employ these weapons 
capable of effectively countering the battlefield threats the Ukrainian 
military feels they need the most assistance in defeating.

    Senator Inhofe. I know that they've just finished the B-
model testing in--of the F-35 out in Yuma. You haven't had a 
chance to go over and review it. Now, I understand you will--
you are in the process of doing that now, but what is your 
opinion so far? Have you developed any yet?
    General Neller. Senator, as you said, VMFA-121 [Marine 
Fighter Attack Squadron 121] is the first F-35B squadron out at 
Marine Corps Air Station in Yuma, Arizona. We--our plan was to 
declare IOC with them this month. That's still the plan. They 
did an operational readiness evaluation. From what reports I 
have received, but I have not seen ``the report,'' they did 
very well. That report is with the Commandant, and he's going 
to take a look at that and make a recommendation as--to the 
Secretary, as far as them being IOC. I'd--I'm hopeful that they 
passed. I think they passed. I think one of the concerns we 
have with any new system is the number of spare parts that are 
available to keep the aircraft at the requisite level of 
readiness. But----
    Senator Inhofe. But, you're in the process of making that 
evaluation now, or they are.
    General Neller. The evaluation----
    Senator Inhofe. You'll be inheriting that responsibility.
    General Neller. Sir, the--General Dunford, I believe, is 
going to make the recommendation on IOC soon.
    Senator Inhofe. General Dunford has forecasted that next 
decade will be characterized by small-scale crises in and 
around coastal areas. I understand that the Marine Corps is 
changing its plans for development of the next-generation 
armored combat vehicle from a self-deploying vehicle to a 
wheeled vehicle. I always wonder, when that happens, and when 
things are as tight as they are now, although what we're facing 
now is unprecedented, was that a budget-driven decision or do 
you think it's the right vehicle?
    General Neller. Senator, we had hoped to buy a high-speed 
planing vehicle. It became too expensive and it didn't have the 
reliability. We have not given up on high water speed. We're 
continuing to do research and development.
    In the meantime, we need a new vehicle. The current 
amphibian tractor is over 40 years old. There's not a lot of 
room left to improve it. It's not very survivable on a modern 
battlefield. It has a flat bottom. It's made of aluminum. So, 
we're pursuing off-the-shelf vehicles from vendors, and we're 
going to continue to keep the Amtrac or the amphibian alive, 
and we're going to select down to two vendors, this fall, 
build--take 16 of their vehicles and test them, and then down-
select. So, we believe this vehicle will not only swim--I 
believe it will swim--it'll improve our mobility and 
survivability on land.
    Senator Inhofe. You know, the tragedy in Chattanooga was 
one that we're all--you already expressed your sentiments about 
that, and we all share your sentiments--there is a lot of 
reaction--political reaction. Different people are talking 
about different levels of security that they should be able to 
use, whether it's private weapons, issued weapons. Do you have 
any thoughts on that?
    General Neller. Senator, I know that there's a number of 
studies and investigations ongoing about increasing the force 
protection for those servicemembers of all our services that 
are outside the wire, if you will, outside the major posts and 
stations where we have law enforcement and armed security. 
There's some things we can do right away, just more physical 
protection, protection of glass, glass that you can't see 
inside. Now, that could include arming individuals. There are 
some potential consequences to that. But, I think we need to 
take a look at it. So--but, at the same time, we have 
recruiters out there, and they're out to recruit. The story in 
the media this morning is that they got interviewed and then 
they went back to work. They had to go----
    Senator Inhofe. Yeah.
    General Neller.--recruit. So----
    Senator Inhofe. Well----
    General Neller.--I don't want anything that we do that's 
going to--we need to stay connected to the American people. So, 
whatever we do has to ensure that we continue to go to schools 
and go out there and find those good young men and women that 
want to be marines.
    Senator Inhofe. Yeah, I understand that. But, in terms of 
protection, I think most of up here would look to you--to the 
military, to the uniforms--for advice along these lines. So----
    The last thing I wanted to mention is, we--our schedules 
didn't get together, because of a bill that I'm involved in 
right now. Would you make a point to come by so we have a 
personal visit?
    General Neller. Absolutely, Senator.
    Senator Inhofe. Thank you very much.
    Chairman McCain. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    General Neller, thank you so much for your service to our 
country, your family's sacrifice, because I know it goes hand 
in hand.
    Sir, with that being said, I've asked this question to 
everyone who's come through this committee for their approval, 
and that would be, What do you assess as the greatest risk--or, 
threat the United States of America faces from another country?
    General Neller. If you're asking me about a country, 
Senator----
    Senator Manchin. Who poses the greatest threat to the 
United States?
    General Neller.--I would say another nation-state. I would 
agree with General Dunford that Russia has the most increasing-
capable force, and their actions and the fact that they have 
strategic forces make them the greatest potential threat, 
although I don't think they want to fight us. Right now, I 
don't think they want to kill Americans. I think violent 
extremists want to kill us. Their capability is not that great, 
but their intent is high. The fact that they have a message 
that seems to resonate around the world, not just in this 
country, but in other countries in the Western world, they 
concern me equally.
    Senator Manchin. Your overall view, basically with that. 
So, Russia seems to be the one who has the greatest capability 
of doing harm to us, if they would desire that. So, we have to 
keep our eye on the ball. But, we don't seem to have any 
relations with them, or, if they are, they're just--I've been 
told that the Cold War is colder today than it was when it was 
declared. So, I don't know how you would interact, as far as 
trying to build that relationship or communicate with your 
equals in Russia, or do you have open lines of communications 
with them?
    General Neller. I've met with Russian officers in previous 
places, in previous times. I've never met with--they have a 
naval infantry or a marine corps. If there were opportunities 
to meet with them, like there are with any other country, 
it's--there's always a--it's always good to talk, even if you 
disagree. I met with Chinese officers, and we didn't agree on 
very much, but we had a nice lunch.
    Senator Manchin. I appreciate that.
    Second, I would say that, you know, I think all of our 
hearts go out to the families of the marines who lost their 
life in Chattanooga. We hope that never repeats itself again. 
What's your plan of doing that, to make sure that the Reserve 
offices and recruiting offices are safe and secure around the 
Nation?
    General Neller. Well, Senator, this--whatever we do as a 
military, it's going to have to be consistent. Admiral Gortney 
is the Commander of Northern Command [NORTHCOM], so he's 
ultimately responsible for the force protection, and we provide 
advice. We have a Marine component with NORTHCOM. So, we would 
work with them to implement whatever policies or procedures 
that we could do. But, in the immediate moment, they've 
increased certain levels and measures that they've put in 
place, which I'm not going to discuss here, that I believe are 
prudent at this time. There are some more physical things that 
they're going to look at.
    Senator Manchin. You know there's a lot of discussion here 
on the Hill, basically about those who work in that type of an 
environment should be armed to protect themself with 
government-issues. They've even talked about their own private-
issues, they're bringing them on in for protecting themself. 
So, that seems to be the dialogue that's going on right now. I 
don't know if you have an opinion on that, if you would like to 
see those who work--or, if you worked in a recruitment office, 
would you want to have government-issue arms to protect 
yourself?
    General Neller. Senator, I think we need to take a look at 
it, but I have some concerns about the second- and third-order 
effects of that, particularly on the recruiting--the recruiters 
and their access and things they need to do. There are some 
practical matters that have to be worked out. But, I believe 
that'll all come out in the investigations and the planning 
that's going on right now. So, I'm going to--I would--I'm not 
going to discount it, but I think that's probably at the end 
and the most extreme measure that we could take to do what we 
need to do, which is protect those servicemembers out there 
doing their mission.
    Senator Manchin. If I could ask you, just your view, 
because marines always seem to be the first ones in when we 
have a conflict. With that being said, over in the Middle East 
is Afghanistan and Iraq. What's your feelings about a three-
state solution in Iraq, versus trying to continue to keep a 
one-state Baghdad solution to the problem that we have over 
there? Seems like that we're not getting very much traction on 
going down the same path we've been down. So, I don't know what 
your thoughts would be on a Kurdistan, a Shi'itestan, and 
Sunnistan, and have Baghdad basically have three separates so 
they would have the desire to fight, where we don't have the 
Sunnis' desire to fight right now, it seems.
    General Neller. Senator, I would respectfully say that's 
way out of my lane, to talk about a three-state solution, but I 
do believe----
    Senator Manchin. But, do you think we have--I'm so sorry, 
sir, because my time is running--but, do you think we have a 
problem with getting the Sunnis the will to fight in that area?
    General Neller. I was in Anbar for a year. They'll fight. 
But, they have to believe, like any person who's fighting, that 
the government that supports them is going to support them. So, 
if the Iraqi government can convince the Sunni tribes in Anbar, 
in Saladin, in Diyala, it is my personal, professional opinion, 
they will fight. If they can't do that, they will continue to 
have a hard time.
    Senator Manchin. Thank you so much, sir, appreciate it.
    Chairman McCain. Senator Sessions.
    Senator Sessions. Thank you.
    Thank you, General Neller, for your service, and Ms. 
Neller, for your service and your family's commitment to 
defending America.
    I think you answered well when you said, ``Right now, we 
don't think the Russians want to kill us, but the ISIS [Islamic 
State of Iraq and Syria]--ISIL [the Islamic State of Iraq and 
the Levant] does,'' and actually taking action to that end.
    I had the opportunity to be with a wise member of 
parliament of one of our allies recently, and his comment was 
that our number-one achievable priority now should be to defeat 
ISIS before it grows and becomes even stronger, and that 
there's a danger that it could grow stronger. How would you 
think about that, in terms of our immediate achievable 
priority? Should we be taking more effective action to confront 
the rise of this extremist group in Iraq and in the Levant?
    General Neller. Senator, I believe that the actions we're 
taking now in support of the Iraqi government, the 
effectiveness remains to be seen. Right now, I mean, they're in 
the process of trying to regain control of Ramadi. So, I 
believe that--I believe the Iraqis can do this. I believe they 
have the capability, and, if well led and supported, they have 
the will.
    So, to your bigger question of, Do we need to go after ISIL 
and make sure that they are not able to create a safe haven and 
to continue to foment their violent theories of how life is 
supposed to be?--yes, sir, I do. If confirmed, I would be--look 
forward to offering potential other options that we could 
possibly be more effective. But, right now, I think--I think 
we're going to see some success, here. I may be wrong. But, 
it's not going to be overnight. It's going to take some time.
    Senator Sessions. Well, a key area is al-Anbar region. You 
were there for a year. Were you there when the transformation 
took place--and the marines, I know, were involved in that--
when they--the tribal leaders reacted against al-Qaeda and 
basically ran them out of the area?
    General Neller. Yes, Senator, I was.
    Senator Sessions. So, you've seen that. How did we help 
them? What did we do to convince them that they had the kind of 
support that they could be successful and throw out al-Qaeda? 
Do you believe that we can do that again? Are they capable of 
throwing out ISIS, which I also believe they do not favor, and 
oppose, and wish were not there?
    General Neller. We supported, as we are now, the Iraqi 
Security Forces. The situation was not as--there was--the 
adversary didn't actually hold as much ground then as they do 
now. I'm not aware--I have not been there since I left, in 
2007. I was back in 2011, right at the end, when the U.S. 
forces pulled out. So, my knowledge base is aged, and I would 
hope to go back and see it with my own eyes, if confirmed as 
the Commandant, to get a better understanding of what's going 
on. But, similar to what we're doing now, we provided 
capability, we provided support, we provided training. At the 
end of the day, our goal was that they would own it, because, 
at the end of the day, they have to fix this.
    Senator Sessions. Well, they were successful, to a degree 
that many of us didn't expect. It was a decisive moment in the 
creation of a stabilized Iraq. There's no doubt about it. I 
remember, I believe General Stewart--was it Colonel--I don't 
know if was colonel or general at that time; now he's a defense 
intelligence commander--but, he was there, and we did a lot of 
things that supported them and gave them confidence. Without 
putting large numbers of forces on the ground, without leading 
in combat operations and conducting those operations, do you 
think that providing embedded soldiers with the Iraqi forces, 
with communications systems, with the ability to call in 
airstrikes, resupply, evacuation, those kind of things that an 
embedded American soldier might provide, and the confidence it 
provides--could that be a positive factor in helping the Iraqi 
forces have the confidence necessary to get on the offensive 
and once again throw off these extremists?
    General Neller. Senator, it's been my experience that if we 
have Americans with foreign militaries providing those 
capabilities, that they do perform at a higher level. But, 
there have to be other things in place so that the force 
protection of those forces, those soldiers, sailors, airmen, 
and marines, is also guaranteed.
    Senator Sessions. Well, I thank you, and I trust that you 
will provide the best military advice you can to the President, 
to your superiors, and to the Congress. I'll ask you, Will you, 
when asked, continue to give your best advice?
    General Neller. Yes, Senator, I will.
    Senator Sessions. Thank you.
    Chairman McCain. Senator King.
    Senator King. Senator Sessions, that was a great series of 
questions, because they were the same ones that I had.
    [Laughter.]
    Senator King. So. I appreciate it.
    I just want to touch--refine a couple of those points.
    You're not only being nominated to be Commandant of the 
Marine Corps, you'll be a member of the Joint Chiefs of Staff, 
National Security Council Advisor to the Secretary of Defense, 
Advisor to the President. You don't strike me as a guy that's 
going to be shy about speaking up when you feel it's necessary, 
but I want to urge you to do so. Your value, your experience, 
your wisdom, your judgment is why you're in this position. If 
you don't provide it in an unvarnished way, then you're not 
fulfilling this job. I deeply hope that you will be forthcoming 
and as straightforward as you have been today with the highest 
levels of the administration, because that's just vitally 
important. The President isn't well served if he doesn't have 
people who tell him the straight truth. Are you committed to 
that mission?
    General Neller. I am, Senator.
    Senator King. Thank you.
    Again, to follow up on Senator Sessions' questions about 
our role in Iraq. You were there, as you've mentioned. How do 
we--what are the elements of a successful advise-and-assist 
mission? How do we convey the will to fight, other than simply 
providing weapons and supplies? What are the pieces? What did 
you learn from your experience in Iraq that we--because we are 
going to--we have to have these people fight for themselves. If 
they don't, this battle is lost.
    General Neller. Senator, there's--there is the material 
piece. You have to give equipment that's reliable and works, 
and then you have to train the force to use that equipment, and 
they have to have confidence in it, they have to be competent 
in its use. They have to be able to shoot, use the radios, 
drive. Then they have to be willing to go out and confront 
their adversary. That requires leadership. The most difficult 
part, I believe, will be--there are leaders there. Every--
there's leaders in every unit. You've just got to find them. 
You know, one of the frustrations we had previously, back many 
years ago, was, there were Iraqis there, and we had to make 
sure that the right Iraqi was leading the unit. That wasn't 
always the case.
    So, again, I have not been there. I have not met the 
officers in charge. The marines that are there--from time to 
time, I hear from them. They are not discouraged. They're 
pressing. So, they need people to train. They need the 
equipment. They need the ability to train them. Then they 
need--the Iraqi need--Iraqis need leadership.
    So, it's kind of a stew of things that have to be put 
together. I think we're trying to help them make that stew. 
We'll see, here--as they go toward the Ramadi objective, we'll 
see if they're effective or not.
    Senator King. Well, the discussion today has centered on 
Iraq, but we've also got the problem of Syria, where we don't 
have a security force to be training and working with. My 
concern is that time is running out, in the sense that ISIL is 
not only gaining ground, they're gaining ground 
organizationally. There have been reports recently that they're 
looking more and more like a state. They are governing, they 
are talking about succession of their leadership, and they are 
consolidating in many of the areas where they are. I understand 
the limits of American force, and that we can't do it all with 
airpower, but how do we deal with Syria? We're doing some 
limited training there, but it seems very insignificant, given 
the nature of the threat. We could be very successful in Iraq, 
but you've still got that large ungoverned area of eastern 
Syria that is a potential home base for this group.
    General Neller. Syria, in my mind, is much more complicated 
than Iraq, although--and they are--but they are linked. So, if 
Iraq were able to reestablish their borders, in my military 
opinion, it would facilitate what we would do in Syria. But, 
right now I think the objective to train Syrian opposition 
fighters against ISIL is--with the ability to protect 
themselves--is a prudent move. It hasn't been as successful as 
I believe any of us had hoped. But, right now, I'm--I think 
that's as good as we're going to get right now. But, the Syria 
situation, again, I follow it, but I don't--I'm not there, I 
don't live it every day. It is exponentially, in my mind, more 
complicated than Iraq.
    Senator King. I agree.
    Thank you, General. Thank you, again, for your service.
    Chairman McCain. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, General, and your wife, for the service you and 
your family have given to this country. We look forward to your 
continued service in the future. Thank you, sir.
    When it comes to recruiting and retaining your marines, 
what's the most important thing? Is it modernization? Is it 
having that up-to-date equipment? Is it operations tempo? Is it 
compensation? What's the most important to these young people?
    General Neller. Senator, we've done a lot of surveys to try 
to find out, you know, what is the one thing that convinces a 
marine to stay. It--there is not one thing. It's--could be duty 
station, it could be a chance for special training, it could be 
opportunity to go overseas, could be education, it could be 
just quality of life and the experience that they've had. So, 
every marine is different. So, we have to offer kind of a--you 
know, find out what it is, and, if we want to keep them, 
convince what it is we have to offer them to keep them. So, 
they're--we're fortunate that we've had a lot of marines, we 
have not had problems either recruiting or retaining. I'm not 
naive enough to think that that'll always be the case. But, 
right now, we have sufficient tools, if you will, to convince 
people to stay. I would say, though, for married marines, a lot 
of them, it's housing and childcare and medical.
    Senator Fischer. How are you able to fulfill the combatant 
commanders' requirements? You're looking at reductions as we 
move forward, here, and there are some risks involved with 
those reductions, I think. Are you able, right now, to fulfill 
those requirements? Do you think you will continue to be able--
and do you think you may have to change your role in the future 
in order to meet there requirements required by those commands?
    General Neller. Senator, right now, we believe we are 
meeting the combatant commanders' requirements. The combatant 
commanders have a lot of requirements. Our concern right now, 
as a service--as the Marine Forces Command, my task to the 
Commandant is to help generate the force to meet those 
requirements. So, we are working--you know, we're trying to 
keep the force at a 2-to-1 deployment ratio. If the force gets 
smaller and the requirements don't go down, we're going to be 
inside that, which is of concern to us. So, you're always 
balancing risk to the force versus risk to the mission.
    So, we'll work with the combatant commanders to see if we 
can't figure out new, different, innovative ways to give them 
the capability they need to meet the mission and, at the same 
time, buy us a little more dep-to-dwell [deployment-to-dwell] 
relief.
    Senator Fischer. What's the mission of the Marines?
    General Neller. The mission of the Marine Corps is to 
provide the Nation's force in readiness as crisis response and 
to seize and secure advanced naval bases as part of the naval 
campaign, and to do those things as the President may direct.
    Senator Fischer. Have you seen that mission change during 
your time in the Marines?
    General Neller. No, ma'am, I have not.
    Senator Fischer. As we look ahead at different threats that 
are coming up in the future, do you see the development of the 
anti-access weapons, like the long-range anti-ship missiles--is 
that going to impact the Marines' operations at all?
    General Neller. Clearly, the increasing capabilities of 
potential adversaries and the anti-access area denial 
battlespace is of concern. We talk about this. We exercise it. 
We train it. As we've gotten our forces off the battlefields of 
Iraq and Afghanistan, and gotten back on ship, we're working 
that with our naval partners as part of the naval campaign. 
There's both a technical piece to this and also a tactical 
piece to this. We have to be a little more artful and skillful 
in how we approach this, because they have capability. So, the 
days we could sail where we wanted to sail without 
consideration of that, those days are gone.
    Senator Fischer. So, you think that will have a strategic 
impact, then, on how marines are going to be deployed in the 
future?
    General Neller. We're going to have to be very wary of 
these capabilities, and we're going to have to part--as part of 
a Joint Force and a naval campaign, there will have be the 
conditions set so that we can safely project that Marine Corps 
power ashore.
    Senator Fischer. Thank you, sir. It's an honor to meet you.
    Thank you, Mr. Chair.
    Senator Fischer. Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    I know we had an opportunity to discuss, General, sexual 
assault and the problem around it, and the progress that we see 
in some of the numbers, but the stubborn and cultural issue of 
retaliation. You have certainly made a commitment to me that 
that is going to be a priority for you to figure out the best 
way to get at that, in terms of the culture within the Marine 
Corps.
    I also want to take a moment to acknowledge that the 
Marines have work to do, in terms of recruiting women. As you 
know, only 7 percent of the marines are women. If you're 
confirmed--when you're confirmed, you'll have to make a really 
important decision on whether to recommend that any positions 
remain closed to female marines. What I'm worried about is the 
pipeline. If we are not recruiting more women, you are not 
going to get women in the various positions that will allow the 
kind of integration that's going to ultimately make the Marine 
Corps stronger and better, and make our Nation more secure. So, 
I would love to have some feedback from you, after you're 
confirmed, about any ideas that you have as the chief on how we 
can do a better job of recruiting more women marines.
    General Neller. Absolutely, Senator.
    Senator McCaskill. Let's talk about your audit. I'm a 
former auditor. I'm big on audits. You all--you've been under 
audit longer than any of the other services. You've had the 
opportunity to gain the most from this process. It's my 
understanding that, through the audit process, the Marine Corps 
identified that it, historically, was requesting too much 
annual funding for permanent changes of station, and was able 
to reallocate about 100 million in the 2012 Future Years 
Defense Plan [FYDP] to make better use of those funds. I mean, 
this is a great example. I think people think an audit is like 
going to the dentist; you know, you know you've got do it, and 
it's going to be painful, and, when it's over, you're not sure 
that it really was worth it. But, audits aren't like that, 
because audits reveal a lot that help you allocate resources 
more effectively and figure out where your needs really are and 
maybe, like you've found with the FYDP, that there was an 
ability to move money around in a way that was important to the 
Marines.
    In 2017, all of the services are supposed to have--be 
audit-ready. I've been on this, and on this for as long as I've 
been sitting on this committee, and I'm skeptical that we're 
going to get there by 2017. I'm also concerned that it's the 
last statutory deadline the services and the DOD [Department of 
Defense] must meet. I would like to have your commitment to 
make the audit process within the Marines a permanent priority, 
going forward, so we never again get to this place where we 
have a massive amount of resources with no transparency.
    General Neller. Senator, you have my commitment, if 
confirmed, that we will work this as hard as we can and get a 
clean or a qualified audit that shows that we can account for 
every single penny we spend.
    Senator McCaskill. Let's talk about--thank you for that 
commitment, and I will be like a broken record on the audit 
thing until we get audits from all of our branches and we can 
begin--it would really help us in our jobs. It would help us 
make the case, if we were able to have the transparency that an 
audit provides.
    Let's turn to readiness just for a moment. In response to 
the advance policy questions for this hearing, you noted that 
the current 1-to-2 deployment-to-dwell ratio is unsustainable. 
I want to talk about the fact that the challenges posed by ISIS 
in the Middle East and an aggressive Russia, neither one of 
these were planned for. So, what would the effect be on the 
force if a significant Marine Corps response was required to 
address an unplanned contingency overseas in the near future?
    General Neller. Well, Senator, you'd have to do one of two 
things. You'd have to either grow the force--we believe the 
optimal size force for the Marine Corps is 186,000 marines. We 
can't afford that. So, if we had an--a commitment elsewhere, we 
would take forces that are currently forward deployed, such as 
in the Far East, in Okinawa, and we would have to reposition 
them to wherever that contingency was. We did that during the 
combat in Iraq, and it's only through the past few years we've 
been able to reestablish our presence that we've had, 
historically, in the Pacific. So, we have some options. The 
other option, the least favorable, is, we go all-in. We 
activate our Reserves, and we go and do what needs to be done. 
We've done that before, too. That--you can do that for a short 
period of time, but, as you mentioned, it's not sustainable.
    Senator McCaskill. What is the short period of time? I 
mean, in your best estimate--and I don't want to hold you to 
anything here, but--I mean, what I'm trying to get a handle on 
is, we are wrestling with very difficult decisions about the 
Middle East and Iran's nuclear capability. There are some in 
the Senate that I believe are tempted by the idea that we could 
go in and bomb Iran and set off what could be a war much bigger 
than any that we have been trying--any contingency that we've 
been trying to fight in over the last decade in the Middle 
East. What--I mean, how soon would we have to do emergency 
spending? Is that, in fact, the most efficient way and best way 
to do it?
    General Neller. Senator, I--it's a difficult question. I'd 
have to get back to you, as far as the details, without knowing 
the exact size of the force, what the exact mission was, what 
the combat ratios were, and what we would need to do, what we 
have to accomplish, militarily, to achieve whatever the 
political objective was.
    Senator McCaskill. I--and I know it was kind of a dumb 
question in that regard, because it's very hard for that 
question to be answered without more specifics. I guess I'm 
just trying to get out into the conversation that talking about 
things in the abstract sometimes sound a lot better than what 
it is in reality. The more we are informed about what the 
reality would be, I think, the better job we can do making sure 
you have everything you need.
    I appreciate you. I enjoyed meeting your wife. I understand 
that she and I almost share a birthday. I think, with--we are 
born when we're born, that you're supposed to be really strong 
and capable of being mean and capable of taking no prisoners.
    [Laughter.]
    Senator McCaskill. So, I am pleased----
    Chairman McCain. Senator McCaskill knows about that.
    [Laughter.]
    Senator McCaskill. Yeah. I am pleased that she and I might 
share some of those traits. I think she will be a terrific 
addition to the barracks and to the hosting that you do there 
for so many. I know how proud she is of you and how proud we 
all are of your family.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    General, congratulations on your nomination.
    I also want to echo--I know that many of my colleagues on 
the committee want to echo--what you talked about, in terms of 
our shock and sense of condolences to the families and friends 
of the marines from Chattanooga. We've got to make sure that 
kind of activities don't happen again.
    I wanted to go back to the issue of readiness. You see, 
from this committee's questions, you're going to get a lot of 
different questions from the committee on a whole host of 
different subjects. But, I wanted to ask about the primary 
mission of the Marine Corps infantry, which is the heart and 
soul of the Marine Corps, and it's the mission to close with 
and destroy the enemies of our Nation. Sometimes we don't talk 
about that, that what we're really focused on doing in the 
Marine Corps is being ready to kill the enemies of our country. 
Does that remain the highest priority, in terms of Marine Corps 
training, particularly infantry training, or do you see the 
Marine Corps being pulled in a variety of different areas, 
different missions, different mandates, in terms of training?
    General Neller. Senator, our--you know, we train for a 
variety of missions. I believe--I can only speak for myself, 
but my professional opinion always been is, if I can do the 
high end of the mission, the most high-risk, the most 
dangerous, the most kinetic, that--and I've trained the force 
to do that, and they're disciplined--that I can bring them back 
down to the other end. There are specific things. So, we do 
practice HADR [Humanitarian Assistance Disaster Relief] things. 
We do NEOs [Non-combatant Evacuation Operations]. We do 
training of foreign militaries. But, our primary mission is to 
be a force in readiness that can fight at all parts of the 
range of military operations, but particularly at the high end.
    Senator Sullivan. You know, you and the Chairman were 
talking about the 1970s. As you know, infantry officers in the 
Marine Corps are often encouraged to read a--this book, which I 
think is a great book. It's called ``This Kind of War,'' by 
T.R. Fehrenbach, which actually focuses on the 1950s and the 
Korean War and an example of what you mentioned earlier about 
the Marine Corps being a force in readiness when the country 
was least ready. But, do you worry about levels of readiness 
and training, that we could have another Task Force Smith in 
the next 5 to 10 or 15 years if we don't get our funding and 
training levels in readiness, properly adjusted?
    General Neller. Senator, that's also one of my favorite 
books, not because it's a good story, just because it's a good 
lesson.
    I think that's always in the back of our minds. I think the 
current fiscal situation kind of brings it a little bit more to 
the forefront. But, at the same time, as long as we can recruit 
and retain good marines, and our gear is functional, I don't 
see us going to the point of where--of what happened, 
historically, to that force when it was put on the Korean 
Peninsula. Could it happen? I'm not going to speculate on that. 
All I can tell you is, if confirmed, I will give every ounce of 
effort I possibly can to not ever allow that to happen, just as 
I know--not to speak for General Milley or any other service 
chiefs--I know General Dunford--that's our job. That's why, if 
confirmed as the Commandant, I'm responsible to you that that 
doesn't happen.
    Senator Sullivan. Thank you.
    Let me turn--the Chairman mentioned that the--in his 
statement, the importance of the Pacific rebalance and the 
critical role that the Marine Corps is playing in that. I think 
it's something that this committee, this Congress, is trying to 
support. I think, in some ways, the Obama administration 
undermines their own strategy, in terms of the credibility of 
the strategy, by slashing Army forces in the Asia-Pacific, 
which is what they're proposing to do. I just have a few 
questions related to the rebalance.
    Are you satisfied with how that's going, overall, in terms 
of the credibility of the rebalance for all the services? More 
particularly, are you satisfied with the redeployment of 
marines from Okinawa to Guam, Australia, possibly Hawaii? Do 
you think that, when we do that, that we're going to have the 
strategic lift to take what's a concentrated force now in 
Okinawa to a much more dispersed force--will we have the 
strategic lift to be able to move those forces if and when we 
need them in a contingency?
    General Neller. Senator, I'm not qualified to make a 
comment on the status of the other services, as I simply am not 
witting to what they're doing.
    As far as the Marines, we left Okinawa to go to Iraq and 
Afghanistan. We're back. The force that was there before is 
present. They're training, they're properly equipped, they're 
ready to go. We have changed our deployment. Now, instead of 
one of the battalions going to Okinawa, it goes to Australia 
for 6 months, and then eventually, because of the agreements, 
we'll distribute the force to Guam and put some more marines 
on, on Hawaii.
    I think the concern is, as you state, that once we do this, 
our ability to move that force--training opportunities on 
Okinawa, mainland Japan, Guam, are limited, and you have to be 
able to move to where the training is. You have to move to 
other nations. You have to be able get to Korea, you have to 
get to Thailand, you have to get to the Philippines. To do 
that, you need sealift and airlift.
    So, when we do this--and we will do this--we--we're going 
to have to--that's going to be the hard part. There are some 
opportunities with high-speed vessels and things with the Navy 
and the movement of a three-ship ARG [amphibious ready group] 
from the east Coast to the Pacific area, which will give us 
more lift. So, that's going to have to happen. But, I concur 
with you that the strategic lift is kind of the long pole, 
potentially, in that tent.
    Senator Sullivan. So, right now, you don't believe that 
that--our strategic lift capability matches our proposed 
deployment laydown?
    General Neller. It--I believe it will, but it remains to be 
seen once we get on Guam and have to move these forces around. 
We do a pretty good job right now, but, again, we're not on 
Guam, and we've got decent training in Hawaii, up in the--up at 
the PTA [Pohakuloa Training Area]. But, we still have to be 
able to move these forces around. So, I'm concerned about, 
particularly, gray-hull amphibious lift.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    General Neller, thank you and your family for your service.
    Of course, the Marines are an important part of the 
military presence in Hawaii at Marine Forces Pacific Command 
and at the Kaneohe Bay. We're going to get more marines as we 
move them out of Futenma, Okinawa. So, thank you very much for 
all that you do.
    I also am very committed to the rebalance to the Asia-
Pacific. You mentioned in your advance questions, quote, ``Our 
strong Marine presence in the region"--meaning the Asia-Pacific 
region--"plays a significant role in promoting the regional 
security and stability.'' So, if confirmed, I trust that you 
will continue to support a tangible--tangible rebalance to 
build and maintain the important partnerships that we have in 
this area of the world.
    General Neller. Yes, Senator.
    Senator Hirono. You mentioned, in your--the earlier 
response to Senator Sullivan, how important training is. So, 
the missions that the marines perform, including theater 
security cooperation, exercises with partner nations' forces, 
and contingency operations, require our forces to maintain a 
high level of readiness and training. The availability of 
training ranges, such as Pohakuloa Training Area, which you 
just noted, on the Big Island and others, are critical to the 
Marine Corps' ability to conduct operations in the Pacific. 
Could you share your thoughts on the importance of training 
ranges, especially as we continue the rebalance to the Asia-
Pacific?
    General Neller. Senator, if we're going to do what we need 
to do to be ready, we have to have ranges that support our 
ability to use our weapons and to maneuver the force. One of 
the great advantages of a training area like Pohakuloa is that 
we're able to go up there and drop bombs and shoot artillery 
and do a lot of the things that we need to do. There is some 
maneuver space up there. Plus, we have the advantage--we have 
to actually deploy there. So, you go up there, it's like--
whether--even though it's only a matter of miles, it doesn't 
really matter; you pick up, and you move. So, wherever we go as 
we position this force around the Pacific, we have to be 
concerned that the--that there's ranges and training areas 
there so that that force can, at a minimum, sustain the 
readiness that they have once they arrive.
    Senator Hirono. I think this--this committee is definitely 
aware of the need to have these training areas. We have a 
number of them in Hawaii. But, there are always issues relating 
to making sure that we are in concert with the concerns of the 
community. So, that will remain, especially with regard to 
Pohakuloa.
    You were asked some questions regarding sexual assault in 
the military, which this committee has spent considerable time 
on. So, you note that it is the responsibility of the 
commanders to set a positive climate. So, beyond command 
climate surveys, for example, what other methods are used to 
determine a commander's ability to establish a positive command 
climate, where a marine would feel that he or she could report 
a crime without fear of retaliation? I think this becomes ever 
more important as you integrate women into the various 
positions in the Marine Corps. So, for example, what kind of 
guidance would you give your commanders about specific actions 
they should take to create an environment in which retaliation, 
which is a major focal area for our--for many of us on this 
committee, both overt and particularly the subtle forms of 
retaliations that could occur?
    General Neller. Senator, we have a very detailed selection 
process for those that are--have the opportunity and privilege 
to lead marines. So, a part of--their records are reviewed, and 
a board of senior officers determine that they are the best and 
most capable. Once they assume that office, their seniors in 
the chain of command monitor what goes in that unit, not just 
operationally, but what goes on as far as their discipline. So, 
that's being tracked. We also have courses, before they assume 
command, where we talk to them about what their 
responsibilities are. This topic, along with other topics, are 
part of that. So, they understand their legal responsibility, 
their legal authority, their moral and ethical authority to 
lead their marines.
    Senator Hirono. We recognize, General, that changing the 
culture is not an easy task. So, I know you're aware that this 
issue will be of ongoing concern to all of us.
    Thank you.
    Chairman McCain. Senator Wicker.
    Senator Wicker. General Neller, thank you very much for 
your service. Thanks for coming by the offices to talk to so 
many of us before this hearing.
    How many marines do we have now in the United States?
    General Neller. In the continental United States right now?
    Senator Wicker. I mean, how--in the United States Marines.
    General Neller. Just under 184,000, Senator.
    Senator Wicker. You don't anticipate that number dropping 
very much in the next 4 to 5 years, do you?
    General Neller. We believe that by the end of fiscal 
year17, we'll be down to around 182,000.
    Senator Wicker. So, maybe a drop of only 2,000, Marine 
Corps-wide.
    General Neller. Yes, Senator.
    Senator Wicker. Okay. It would--would it be a mistake to go 
much lower than that?
    General Neller. If we were to go lower than that, Senator, 
the dep-to-dwell ratios that I'm concerned about, and the 
Commandant's concerned about, would be--would increase the risk 
to the force and our ability to meet combatant commanders' 
requirements.
    Senator Wicker. With those requirements and the ratios that 
you want to maintain, how are we doing with recruiting? Are we 
getting the type of young person we need? What motivates 
someone to join the Marine Corps today?
    General Neller. We're doing very well. I think that's 
something that we're watching. But, our manpower director, 
Lieutenant General Brilakis, the other day, briefed us that 
right now, for the next fiscal year, we've already signed up 55 
percent of the requirement. So, those marines are in a pool, 
waiting to come to recruit training. They're not just marking 
time, they're working with their recruiters, voluntarily, to 
get themselves ready to go.
    The quality of those recruits--potential recruits--is very, 
very high. We have a very high standard, and I think that's 
both a credit to our recruiters, and also--reflects in the 
quality of the force.
    On the officer side, we have at least three college 
graduates waiting for every spot to go--become a Marine 
officer.
    So, we're in a very good place. Again, I don't take that 
for granted, but I'm hopeful we can keep that going.
    What inspires or motivates somebody to join the Marine 
Corps? Senator, that varies from individual to individual. It 
could be something to prove, somebody told them they couldn't 
do it, family heritage, want to serve their Nation, want to 
learn a trade, want to get a--the great benefits of the 9/11 
G.I. Bill, or they just want to be a marine.
    Senator Wicker. You were walking through a student union, 
and a poster caught your eye, back in the '70s. Is that right?
    General Neller. Actually, it was a big, tall guy wearing 
those--blue uniform.
    Senator Wicker. Okay. More than a poster.
    What frustrates our Active Duty marines now?
    General Neller. Oh, I think sometimes they get frustrated 
with their leadership. I think we have to work hard to 
challenge these young men and women. They're smart. They want 
to be--they want to do important things that keep them engaged, 
but, when they're done, they want us to say they're done. 
That's fair. So--but, they--because we've done such a good job, 
you know, we're kind of victims of our own success. So, we owe 
them, you know, good training, good gear, good organization, 
good leadership. Then their end of the deal is, show up, bring 
their A-game every day, work hard, train hard, and then, when 
we're done, then they can, you know, take a little bit of a 
break; at the same time, knowing they're never, never not a 
marine.
    Senator Wicker. Let me follow up on your conversation with 
Senator Sullivan about sealift. I want to thank the Marine 
Corps for making the case for the amphibs, and particularly the 
12th LPD [Landing Platform/Dock]. We--I don't think we would 
have gotten the 12th LPD through this committee and through the 
Congress, both houses, on a bipartisan basis, if it had not 
been for the Marine Corps coming and saying that that--we very 
much needed that for us to complete the mission.
    Mr. Brzezinski was here earlier this year and talked about 
the need for the amphibious forces to be in the Baltic. We've 
had discussion about Russia and the seriousness of the Russian 
threat, as well as the more immediate threat of ISIS. But, what 
is the reason for being particularly careful, as Mr. Brzezinski 
mentioned, about the amphib forces in the Baltic Sea area?
    General Neller. Well, Senator, we just actually did an 
exercise in the Baltic with our U.S. and a number of coalition 
ships. It was called Agile Spirit, I believe, commanded by Vice 
Admiral Jamie Foggo, who is the 6th Fleet commander. So, we did 
an exercise in the Baltic. I'm sure it was paid close attention 
to by certain countries in that part of the world----
    Senator Wicker. I hope so.
    General Neller.--as we--I do, too--and as we projected 
power ashore, did a landing with Poles and Lithuanians and 
Estonians, and then trained ashore, and then with U.S. Army 
forces there. So, there is interest in the Baltic because it's 
on the perimeter of certain land masses that you might have to 
gain access to. Then, three NATO [North Atlantic Treaty 
Organization] allies are--that are very small countries, live 
on the east end of the Baltic Sea, and they're concerned about 
potential aggression against them. So, we're there to reassure 
them.
    Senator Wicker. I would say--it's fair to say they 
remember, not too long ago, when there was a different dynamic 
in that area, and they appreciate the Marines being there with 
them and the United States being there with them.
    Thank you for your service, and thank you for your 
testimony, sir.
    Chairman McCain. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you, General Neller, and to your family. 
Congratulations on a wonderful service, thus far.
    A few questions. I want to go back to--you talked a bit 
about gender integration earlier, and we're--I want to kind of 
get your--your take, first, on how it's going, and then the 
kind of philosophy that the Marine Corps is undertaking to 
carry out that mission, if you could talk about that.
    General Neller. Senator, when the Secretary made the 
decision to open up all occupational fields, the service chiefs 
and the services were getting a certain amount of time to take 
a look at how they might do this. We have worked hard to work 
in a way to figure out how we will integrate. We've opened up 
MOSs, we've put marine--female marine officers, staff NCOs, and 
NCOs in units where previously women weren't allowed to serve. 
They've done well. We're going to continue to do that.
    Then, to determine the last part, whether we would, based 
on a standard, allow women to serve in infantry, artillery, 
tanks, light-armored reconnaissance, amphibian tractors, and 
reconnaissance, we formed a task force of volunteers, and we 
put them together as a unit. They trained up and they went to 
29 Palms into the Mountain Warfare Center and did a series of 
tests. Those tests are complete. The data has been collected. 
It's being analyzed, and it'll provide information that will 
inform the Commandant about whether or not he will request a 
waiver for any of those MOSs.
    So, I have not seen all the data. I've seen some of it. 
I've been involved in this process for some time. When we first 
sent volunteer female marines, enlisted, to the Infantry 
Training Battalion to try to gain data and determine their 
ability to complete that course--of the number that went, 
about--they have about a 40--36 percent completion rate. Again, 
you know, we--we're still looking at this. We are--we have not 
made any sort of pre-decision. So, again, whatever we do, it is 
about individual standards, it is about the capability of the 
unit, and that unit becoming better, or at least as good as it 
is now.
    So, that decision's going to come. I believe we had a good 
process. We've got information. It's fact-based. We're working 
with the Army, and we're sharing the data with them. I'm sure 
that General Dunford has spoken to--I know he's spoken to 
General Odierno, and he'll work with General Milley if he is 
confirmed as the next Chief of Staff of the Army.
    Senator Kaine. Can I ask a question about the standard, 
kind of the philosophy in setting the standard? As you set the 
standard in the areas that are not yet gender-integrated, is 
the standard-setting just describing the current functions the 
way we've always done it, or is the standard-setting a new 
analysis of what are the attributes that are the most needed to 
do the best job in this particular MOS?
    General Neller. I have not seen all the different task 
condition standards. They will be functionally-based. They 
won't be--I mean, there may be a screening process for any 
marine, male or female, but it'll be not lift so much weight as 
if you have to load the tank main gun, I have to load the 
Howitzer, I have to prepare the charge, I've got to carry the 
projectile, I've got to drag the cannon, I have to carry the 
load, I have to go this fast, this far, with this much weight. 
It'll be those types of things. So, that's the data we've got 
and what the data says about how men and women did. I went out 
and saw the unit that did the test. It was a very hard test. It 
was hard. Regardless of whatever happens, I'm--you know, I'm--I 
can tell you that the marines out there, particularly the women 
marines, they did a great job. It was pretty motivating.
    Senator Kaine. I'm going to switch gears to an area of the 
Marines that is incredibly important. I'm not sure everybody 
focuses on them. They train in Virginia--and it's good to have 
a UVA [University of Virginia] grad before us--the Marine 
security guards who train at Quantico. Everywhere I travel, if 
I'm ever at a U.S. Embassy, I always stick my head into Post 1 
to thank these important members of, not only the embassy 
family, but important members of the Marine Corps. This is a 
job that is getting more attention. This is a job where I 
think, on Armed Services, we've devoted more resources to it. 
How familiar are you with that unit, and especially in terms 
of, kind of--Do they have the resources they need? Are we 
training enough? Because we sure need them around the world.
    General Neller. Senator, I'm not completely conversant in 
their entire training program of instruction. I--like you, when 
I got to embassies, I talk to the marines. They're very high 
quality, they're very highly screened. It's a great retention 
tool for us to keep marines in. I do worry, because they are so 
capable that we don't--we don't get a lot of them to stay after 
their service. They have--they've got options. You know, I 
always ask them, ``How many of you are going to stay?'' If 
there's any of them that say they are, I immediately volunteer 
myself to be their career planner so I can convince them to 
stay, because they are some of the very best and brightest 
young men and women we have. But, I think they're trained well, 
I think they're resourced well. I've never been to an embassy 
where they told me they were wanting or lacking for anything, 
or the regional security officer. So, I'd have to get back to 
you on any more detail, but my basic rudimentary response is, I 
think they're in good shape.
    Senator Kaine. Great. Thank you very much for your 
testimony.
    Thanks, Mr. Chairman.
    Chairman McCain. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chairman.
    General Neller, thank you very much. Darcy, thank you for 
being here today. I appreciate your great service to our 
Nation.
    I will just fire off one quick question. I apologize, I am 
going to have to step out again. But, one of my top priorities 
has been ensuring that our soldiers and our marines, those 
that--who are really engaged in close contact in combat, and 
those who are taking the majority of casualties in our Nation's 
conflicts, are armed with the best possible weapons available, 
and give them the will and the fight to win. I mean, we have to 
make sure that they have the best possible sidearms, their 
personal weapons. That's one of the first things our young men 
and women do, qualify on their individual weapon.
    So, with that being said, I am very concerned about the 
military's lack of modernizing our small-arms programs. I know 
the marines have recently gone from utilizing the squad 
automatic weapon, the M-249, to the light infantry automatic 
rifle, the IAR. So, I'm glad that they are modernizing in some 
aspects. They still have not modernized the M-4. I would just 
like your thought on the small-arms program, maybe where you 
see we need to go with that, if we do need changes. Just very 
quickly, sir.
    General Neller. Senator, I have complete confidence that 
the weapons we equip our marines with are the very best that we 
can get. The M-4 is not that--you know, even the marines in a 
rifle squad carry an M-16A4, they don't carry an M-4, because 
we want them to have that longer barrel for that longer reach. 
So, talking about weapons is a very emotional subject with 
marines, but I've never heard anybody say they didn't think 
that what they had was going to allow them to be successful in 
a battle.
    We don't want it to be a fair fight. The IAR is a good 
weapon. We're going to keep the SAW [squad automatic weapon], 
but in a different way. We're always looking at better ways to 
improve everything we have. We've fielded the Javelin, we've 
fielded and improved TOW [tube-launched optical-tracked wire-
guided missile], we've got new Howitzers. We're always working 
on the tanks. I mean, so, you know, there's no lack of emotion 
and energy and enthusiasm, when I walk around, about our 
weapons. From everything I can tell, I think everybody's 
satisfied. Doesn't mean there's not better ways to do it that 
we can't look at it, whether it's ammunition, whether it's 
magazines. But, I--my personal view, in my current position, 
is, we're in a good place.
    Senator Ernst. Thank you, General. I appreciate that very 
much.
    In the interest of time, I'll submit my--the other 
questions for the record.
    So, thank you, General Neller, I appreciate it very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    I'd like to thank your family and your friends who are here 
with you today. It speaks volumes about you.
    General Dunford, as Commandant, worked very hard on the 
mental health issue. I just wanted to make sure to get a 
commitment from you to prioritize mental health and suicide 
prevention as part of your readiness for all your marines.
    General Neller. Absolutely, Senator.
    Senator Donnelly. That--as part of that, that there be no 
stigma in seeking help.
    General Neller. Senator, we've worked this, and I can 
personally tell you, as hard as we can. I believe we made 
progress. To the best of our ability, every marine knows how--
knows they're out there, that what we want to do, first and 
foremost, is help them if they need it.
    Senator Donnelly. One of the things, you know, in working 
in this area over the past few years, is finding out how 
critical leadership at the squad and platoon level is to 
finding out mental health problems. You know, I want to make 
sure that your leaders at the squad and platoon level know, 
``Make a call, talk to somebody. If you see one of your marines 
going sideways on you or having struggles"--they probably see 
it before anybody, don't you think, General?
    General Neller. Senator, I agree completely. I can tell you 
that the focus of our training and--as we do the suicide 
prevention and how to react to that--is focused at that level. 
I can give you personal accounts of where sergeants, junior 
staff NCOs, were there at the forefront to either give a hand 
or keep a marine from doing something that they probably wish 
they hadn't done, and saved their lives.
    Senator Donnelly. General, I spoke this morning to the 
Governor in an area that you're very familiar with, Anbar 
Province. We were going over the efforts that are in place 
right now to retake Ramadi and Fallujah, and to protect Haditha 
and obviously all of western Iraq. What is your view on how to 
best rebuild the relationship with the Sunni tribes and to 
partner with them against ISIS?
    General Neller. Senator, again, I have not been in Iraq, in 
Anbar, since I left, on my birthday in 2007. I would like to go 
back and see it for myself. But, I don't think the relationship 
with the Sunni tribes is a real--the issue is not with us, it's 
with the government in Baghdad. They have to believe that their 
central government is going to at least give them some modicum 
of support, that they're going to fix the roads, let the water 
run, give them gasoline, make the electricity work, fix the 
roads, and let them, you know, worship as they see fit. So, 
that relationship that was damaged, it was tenuous, at best; it 
was damaged by previous governments in Iraq. If Mr. Abadi can 
do that, then I think he will gain their support. But, he'll 
have to work really hard.
    Senator Donnelly. In Afghanistan, you know, we face 
significant challenges moving ahead. The Marines have been such 
an important part of securing entire areas of Afghanistan, of 
creating secure regions. As you look at that, what do you see, 
moving forward, as some of the keys to success, to stability 
there, to holding on there?
    General Neller. Senator, I've visited Afghanistan a number 
of times, but I never served there, so my experience base is 
limited. But, again, I think it goes back to the Afghan 
government believing that we're going to be there to support 
them, that the resources are going to be there, and that they 
have the confidence, and that their soldiers have the 
confidence, that there's going to be somebody there to back 
them up. They're similar problems. We need to stay there and 
work with them. I believe, my experience is, that, you know, 
they--if a foreign nation believes that there's somebody that's 
behind them, that they're likely to do the right thing, the 
right way, and hopefully for a longer period of time.
    Senator Donnelly. Well, I will finish with this. My father-
in-law was a Guadalcanal marine, and he would be very proud of 
your service, of all your years of service, and would look very 
much forward to you taking command of the Marine Corps. So, we 
wish you the very best.
    Chairman McCain. Senator Tillis.
    Senator Tillis. General Neller, Ms. Neller, welcome, and 
congratulations. Thank you both for your service.
    General Neller, I want to start--and, first, I apologize 
for having to step out. We had to have a quorum in Judiciary 
Committee, and had to step out briefly, so I apologize if I'm 
asking a question that's already been asked. But, I'd like to 
start by talking about what will be your top ground 
modernization program priorities.
    General Neller. Well, Senator, right now, the two top 
programs--and they are yet to be fielded--is the joint light 
tactical vehicle and the amphibious combat vehicle. Both of 
them are--the JLTV [Joint Light Tactical Vehicle], as I 
understand it, is close to low-rate initial production; and the 
ACV [Amphibious Combat Vehicle], we should down-select to two 
vendors with 16 vehicles this fall, and then we'll eventually 
pick one. So, on those--in that area--and there's a couple of 
other things, but--a radar--a multipurpose radar and a whole 
variety of other things--but, right now, as far as specific 
programs, those two are at the top.
    Senator Tillis. Can you talk a little bit about the reason 
why they're top and the difference it makes, in terms of your 
capabilities?
    General Neller. Well, for the JLTV, we need a wheeled 
vehicle that has more survivability than the Humvee. The 
Humvee's been around since the mid-'80s. We've improved it a 
little bit, but it's--there's only so much growth left in the 
frame. We need something that's going to give us more 
survivability and traffickability. So, we need to recapitalize 
and get a new vehicle. The decision has been made that the JLTV 
is that vehicle. So, we're going to buy 5500 of them, and--I'm 
assuming that they're going to meet the requirement. I have not 
looked at any of the test data, but--I don't even know who the 
vendor is.
    On the ACV, same reason. The amphibious vehicle we have 
today is 40 years old. We've refurbished it, rebuilt it a 
number of times. It's okay. It's okay in the water, and not so 
okay on the ground, particularly if there's IEDs [improvised 
explosive devices], because it's flat-bottomed. It's just not 
survivable. So, we have to--and that, because that vehicle 
spends 90 percent of its time ashore, we have to find something 
that's going to give us more survivability ashore, but that yet 
can still move through the surf and get us to the beach.
    Senator Tillis. That actually leads to the next question I 
had, which has to do with ship-to-shore maneuvers. I got some 
exposure to some of the challenges when I was down at Camp 
Lejeune, a month or so ago. Can you talk a little bit about the 
ship-to-shore maneuvers--all the way from the connectors, LCUs 
[Landing Craft Utilities]--and elaborate on the ACV, in terms 
of the additional capability it gives you, as compared to what 
you have today?
    General Neller. Amphibious warfare is very complicated. It 
involves a lot of moving pieces. You're also subject to the 
vagaries of the weather and the sea. So, we've got to get to 
the objective area in the--in our amphibious ships. We use air-
cushion vehicles and landing craft--large landing craft to move 
heavier loads ashore. Neither the Amtrac or what we--the ACV is 
going to be able to give us a long-range launch, so we have to 
be worried about anti-access area denial. So, we'll work 
through some choreography and sequencing of the force. We want 
to be able to land under cover of darkness, take advantage of 
that for our security. So, this ACV that we buy, just like the 
Amtrac that we have, is--has to have some surf capability, some 
sea-keeping capability, and it's got to move at a certain speed 
so that we can do this with a--under a period of darkness.
    Senator Tillis. The last question I have for you has to do 
with the size of the force. I know that there have been some 
studies from Marine Corps University that was setting the 
optimum size of the Marines at about 186,000--just below 
187,000. We're at 184,000. We're moving to 182,000. That 5,000 
differential, that's a lot of marines and a lot of killing 
capacity. I know, when I met with you in my office, you're the 
sort of person that's going to make it work, no matter what 
your--what you--whatever hand you're dealt. But, are you 
reaching a--I mean, do you think that 182- is a workable 
number, or is that just a number you're working with because 
that's where we are with troop reductions? Or do we need to 
look back at getting to that optimal number, if you agree with 
the assertion that 187- is the optimal number?
    General Neller. Senator, the optimal number for a 3-to-1 
deployment ratio, which is what we would aspire to, is 186-. 
We've built into the--our plan, as we've drawn down, you know, 
some reversibility of that. We know what units we took down, 
and cadred, and what units we would bring back. 182- is at that 
point where we can meet the combatant commanders' requirements 
and provide a 2-to-1 dep-to-dwell, which we think is the 
minimum sustainable level.
    So, yes, we can do it at 182-. 186- would be better. But, 
right now, that's not affordable. If resources were made 
available, or we were required--or able to do that, we would 
grow the force back, but that would take some time.
    Senator Tillis. Thank you, General Neller. I look forward 
to supporting your confirmation.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you, General Neller, for being here, your commitment 
to service, all your sacrifices. Thank you for your family to 
be here. We're very grateful for your dedication.
    You and I had a chance to talk about a lot of these issues 
in advance, and I was very grateful for that meeting. After our 
meeting, I sent you a report that I did summarizing cases at 
four bases in 2013, just as a snapshot to understand what do 
the cases look like. I want to just brief you on that.
    The--in Camp Pendleton, for 2013, they had 50 cases of 
sexual assault alleged. Now, 10 of those cases were from 
spouses, so you have an issue with domestic violence that's 
important to look at. You also had 18 who were civilian. So, 28 
out of 50 are not part of our survey. So, when we surveyed--the 
DOD surveyed sexual assault last year, the estimated 20,000 
sexual assaults, that doesn't include civilians or spouses. So, 
more than half of your Camp Pendleton cases aren't even counted 
in those numbers.
    The other statistic is, the servicemembers was 21. Now, the 
other thing I want you to be aware of, because this is a 
challenge we have in responding appropriately--among your 
spouses, 8 withdrew their complaint within a year, so they 
didn't have confidence in the system, they just didn't--no 
longer wanted to prosecute. Of your civilian complainants, 8 
withdrew during the year. Then, of your servicemembers, 8 
withdrew. So, nearly half of the cases that were reported--and 
to report a case, you've got to put your name on the bottom 
line, you typically get a rape kit, which is very invasive. Any 
one of these situations, it's now public. For them to 
withdraw--nearly half to withdraw within a year does not show 
confidence in the system.
    So, that brings us to what Senator McCaskill raised, is 
this issue of retaliation. How much retaliation is existing? We 
know from the survey that last year it was 62 percent of cases, 
someone who reported a rape was retaliated against during that 
process. Retaliation comes in all forms, as you know: 53 
percent social--peer-to-peer; 35 percent administrative; 32 
percent professional; 11 percent a punishment. So, you know, 
arguably, more than half of these cases, there's some form of 
chain-of-command retaliation.
    So, really do look to the lower-level commanders, the unit 
commanders. We have an issue with sexual harassment and sexual 
discrimination. In all cases, 60 percent of it comes from the 
unit commander. So, you really have to dig deep to begin to 
create a better climate, which I think is going to be essential 
for you to be successful so you have good order and discipline 
within the ranks.
    So, as we talked about, I look forward to working with you 
on that. I think it's very vital.
    I appreciated your answer to Senator Kaine about combat 
integration. One issue that I'd like to raise is, I know that 
the physical fitness tests are gender-normed, and I know that, 
in the case of Colonel Kate Germano, she was trying to create 
even tougher requirements for them so that they could meet 
standards. As you look at your standard review, and as you look 
as to whether you're going to waive--ask for a waiver for any 
positions today, I would urge you not to seek waivers, because 
all you're saying is, there's no one who can meet the standard 
today. But, if we begin to create tougher standards to come 
into the Marines, to make them gender-neutral, you will have 
women who can meet those standards. They just might not be able 
to meet the standard today. So, asking for a waiver says, 
``Under no circumstances can any woman ever meet the 
standard.'' I would caution you not to take that action, 
because, the future of the force, we want all of our best and 
brightest.
    So, I'd like to ask you, just basically, When you are going 
to relook at these issues, do you expect that you will ask for 
an exception or a waiver?
    General Neller. Senator, I have not seen all the data, and 
I'm--don't believe we've, in any way, shape, or form, 
presupposed whether we will or not. I have not talked to the 
Commandant, General Dunford, about this. I will, eventually, 
because he is no longer going to be our Commandant, and then--
so, he's going to have--I would ask that he would, you know, 
inform me as to what we're going to do.
    So, I take all your points. Again, I want every marine to 
have the best opportunity to be successful. Nobody joins the 
Marine Corps to fail. Okay? You know, I'm going to ask marines 
that, ``Anybody join here to fail? No? Good. So, we're going to 
be successful.'' So, we've got to put them in the best place 
where they can be successful and do the best for themselves, 
but, more importantly, for the unit. So, I know this is going 
to talk close scrutiny, and this is not something that anybody 
takes lightly, but we will--again, we want to make sure that we 
have the most operationally capable force. But, I take your 
points, and I do appreciate all the guidance you gave me during 
our meeting.
    Senator Gillibrand. Yeah, thank you, General. I'm very 
grateful for your service.
    Thank you.
    Chairman McCain. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    Thank you, General, for your service. As others have said 
before, it's not only yours, but your family's, and we're 
grateful to you for taking on this very important mission.
    No one joins the Marine Corps to fail. That's for sure. I 
know that you want to give every opportunity to every marine to 
serve to the best of his or her ability. Part of the reasons 
that marines may, in quotes, ``fail,'' or appear to fail, may 
be invisible wounds of war, like post-traumatic stress. My 
colleague, Senator Donnelly, asked about mental health issues. 
Post-traumatic stress is the result of combat-related injuries 
that really have never been recognized in the past as much as 
they are now, and maybe not now as much as they should be. My 
very distinguished colleague and I--Senator McCain--sponsored a 
bill called the Clay Hunt Veteran Suicide Prevention Act to 
provide more research as well as more care to marines and 
others who were injured in duty, often in combat, as a result 
of post-traumatic stress, other invisible wounds, and mental 
health generally, to help prevent suicides that occur among 
them.
    I would welcome your commitment that you will encourage and 
support even more efforts to deal with post-traumatic stress 
and traumatic brain injury and those invisible wounds of war.
    General Neller. Senator, you have my total commitment to 
those actions.
    Senator Blumenthal. Thank you.
    Do you have any specific initiatives that you've 
contemplated--I know it's early to ask you, but--in that area 
to encourage more marines to come forward, to identify 
themselves? Senator Donnelly asked about the stigma that's 
often associated with those kinds of wounds, but I just wonder 
if you have any specific initiative.
    General Neller. You know, Senator, I don't, at this time. 
But, all I can tell you is this. You know, we--like everybody 
else, we learned a lot, the last 12 years. You know, 
unfortunately, we learned a lot about some bad things. I do 
think that the force is--that recognizes these invisible 
wounds--I remember a captain got IED'd several times, and we 
sent him to Landstuhl, and he was berated because he looked 
like he was fine. But, I honestly believe those days are gone.
    That said, and there may be marines out there, or any 
servicemember out there, who's still dealing with something 
that's bugging them. The marines I talk to, and the marines I 
serve with today, I don't know anybody that's not out there, 
reaching out to talk to them, and try to help them. They have 
to--if they believe that you're going to try to help them, 
they'll come forward. There are a lot who have. There may be 
some that--who have not. Those with TBI [tramatic brain injury] 
that have been diagnosed, we need to continue to take care of 
them, because they're part of the force until they're no longer 
on this Earth. So, we're not perfect. We still have a lot to 
learn. Our Wounded Warrior regiment takes care of marines and 
stays in contact with them, even after they're no longer on 
Active service. So, we owe all of them our best support. I 
commit to you that, if confirmed as Commandant, that they're 
going to get it from me.
    Senator Blumenthal. Thank you. Well, I welcome and I 
applaud that commitment and your sensitivity on this issue. I 
can guarantee, without being an expert, that there are marines 
and soldiers and sailors and airmen who are out there with 
wounds that are bugging them, and they need the encouragement 
to come forward.
    Let me shift to----
    Chairman McCain. Could I just interrupt, Senator?
    Are you familiar with the legislation, Clay Hunt Suicide 
Prevention Act?
    General Neller. Sir, I am not.
    Chairman McCain. Thank you.
    General Neller. I will become familiar with it, though, if 
confirmed, or if--I'm interested now. I wasn't aware of it, 
Chairman.
    Chairman McCain. Thank you.
    Senator Blumenthal. We'll make sure that your office 
receives some additional material on it, but Senator McCain has 
really been a champion. I've been very proud to work with him 
on this issue. It's critically important. Twenty-two veterans 
every day in this country, the strongest, best country in the 
history of the world, commit suicide. This bill is an effort to 
correct that problem.
    If I can just focus, in my remaining seconds, on the F-35 
joint strike fighter, I know that we have not yet passed the 
initial operating capability tests and stage. I wonder if you 
could comment on what you see as the importance of this fifth-
generation fighter to the Marine Corps.
    General Neller. Senator, we hope, soon, that we will be 
able to declare, based on our readiness evaluation, that we are 
at IOC.
    As far as the airplane, it's going to replace three 
different airframes: the F-18, the Harrier, and the EA-6B. I'm 
not sure we even realized the potential of this airframe, other 
than the fact that it's a fifth-generation aircraft and we'll 
be able to enter airspace of our adversaries that we weren't 
able to enter before, and safely do whatever the mission is.
    The real exciting thing about this airplane, other than we 
can hold targets at risk as part of the joint force that we 
didn't--weren't able to hold at risk before, is the electronics 
and all the information that this thing is going to be able to 
gather and eventually disseminate to the force on the ground. 
I'm an infantry guy. Planes are nice, but they're really nice 
when they drop bombs and they tell me what's on the other side 
of the hill. So, that's really what I'm interested in. I think, 
you know, this airplane, potentially, if it does what we 
believe it's going to be able to do, is not just going to help 
us do what we do now better, it's going to change how we do 
what we do. That's what we're going to have to learn as we go 
through this.
    So, it is expensive. The more we build, the more our allies 
buy, the cheaper it will be. So, I'm excited about the 
potential that this provides to--not just to the Marine Corps 
and the naval force, but to the joint force.
    Senator Blumenthal. Thank you very much, General.
    Thank you.
    Chairman McCain. Senator Ayotte.
    Senator Ayotte. Thank you, Chairman.
    I want to thank you, General, for your service to the 
country, and your wife, as well, and your whole family. 
Appreciate all that you've done and are willing to take on in 
this important position.
    Wanted to ask you about Iraq. I know that several others 
have asked you about--but having served our country in Iraq, 
and just seeing that the Director of FBI, James Comey, said, 
this week, that ISIS now poses a greater terror threat to the 
U.S. than al-Qaeda, that's pretty telling. What is it that we 
need to do in Iraq now to address ISIS that we're not doing?
    General Neller. Senator, I'm--my time in Iraq is a bit 
dated, although I'm somewhat informed in my current job as to 
what we're doing, as far as Marines and the joint force. So, I 
think we're doing what we need to do right now. We're training 
the Iraqis, we're ensuring the provision of equipment and 
ammunition and supplies. We're working in their operations 
centers, working with them, advising them. The only thing that 
we're not doing is, we're not accompanying them, at least to 
the best of my knowledge.
    So, at the end of the day, whether we do or not, they are 
the ones that are going to have to do this. They are the ones 
that are going to have to restore their territory. I believe, 
based on what I've seen them do in the past, that they have the 
capability to do that. Because we have to defeat ISIS, we have 
to get them to a point where they're insignificant and that 
they're just some people on the Internet saying a bunch of 
stuff, but they don't have any capability or anything to back 
it up. Right now, they are not--that's not where they are. They 
have land, they have terrain, and they're masquerading as a 
country.
    Senator Ayotte. As you look at what is--where we are with 
Iraq and our current force posture in Afghanistan, what we have 
consistently heard from General Dunford and others is that it's 
important that we have a conditions-based withdrawal from 
Afghanistan, as opposed to a calendar withdrawal. Would you 
agree with that? Thinking about what we've seen happen in Iraq, 
post our leaving.
    General Neller. Senator, it's my military opinion that a 
condition-based withdrawal is more effective than one based on 
time.
    Senator Ayotte. Because, obviously, your enemy can wait you 
out and know when you're going to leave, versus what's 
happening on the ground. You would agree with me on that?
    General Neller. I would say that's a accurate statement.
    Senator Ayotte. So, as--one thing you said, in terms of 
what we're doing in Iraq right now, that we've repeatedly had 
raised in this committee--from your experience on the ground, 
generally does the employment of joint terminal attack 
controllers [JTACs] make airstrikes more accurate and 
effective?
    General Neller. I would agree that the provision or that 
capability or having that within a--with a maneuver unit makes 
them more effective.
    Senator Ayotte. So, one of the issues that I think needs to 
be addressed, obviously, right now, as I understand it, with 
Iraqi Security Forces--do you believe that our American 
military dropping airstrikes in Iraq right now would be more 
effective if JTACs were embedded, at the tactical level?
    General Neller. In principle, yes, Senator, but I--there's 
got to be some methodology we've worked out, that I'm not 
witting to, that--you know, for a pilot to go out there, as 
good as they are, to just find a target, there's got to be some 
coordination going on, because we do have Americans within 
their operations centers, so there's got to be some 
coordination where they're being given at least a general 
location or a target or something to look at so that they're 
just not out there flying around. But, I don't know the answer 
to that, but--so--but, if we--there were controllers, generally 
a unit is more effective, yes, ma'am.
    Senator Ayotte. Certainly, that's what the JTACs do on the 
ground, is help our--help ensure that the targets are more 
precise and effective.
    I wanted to ask you also about--you and I spoke briefly 
about this in my office. With what happened in Benghazi, where 
brave Americans were murdered, where are we today, in terms 
of--and one--I think one of the things that all of us were 
really upset about was the fact that our military couldn't 
respond quickly enough to help. Wanted to know where we are 
today. If we had another Benghazi-type attack in North Africa 
or the Middle East tonight, would the Marine Corps be in a 
better position to respond?
    General Neller. Senator, today, post-Benghazi, in what is 
referred to as the new normal, the Marine Corps deployed a 
special-purpose MAGTF, a ground combat unit, and some MV-22 
Ospreys to Spain. That force has grown. It's a full infantry 
battalion spread across three bases, and a squadron of 12 
Ospreys. They have an alert force on a 6-hour alert. If there 
was known to be some sort of indications or warning, they could 
position themselves on other bases in the Mediterranean or even 
in Western Africa. There's a number of security locations we've 
established, where we could go, with the support of the host 
nation.
    So, our capability is much greater, particularly if we have 
some idea that something's going to happen or we know that 
someone is going to go there, and we need to provide them with 
protection. So, we're in a much better place than we were at 
that time.
    Senator Ayotte. Thank you.
    Chairman McCain. Senator Graham.
    Senator Graham. Thank you.
    General, congratulations on your nomination. The Marine 
Corps, in my view, is the--for--pound for pound, the finest 
fighting force that we've ever created. So, let's just keep it 
that way.
    Is it true that ISIL is targeting military personnel and 
their families, calling for attacks against our military 
personnel and their families here at home?
    General Neller. Senator, I'm not aware that they've 
specifically targeted American citizens. I am aware that they 
have put information about American citizens on social media.
    Senator Graham. It's my understanding that they've urged 
people to come after our military personnel and their families, 
and they're encouraging people here and abroad to do so.
    If the recruiters had been armed, do you think things would 
have been different?
    General Neller. Senator, I don't know.
    Senator Graham. I think they would have been. Here's the 
question I don't want to have ever again, ``I don't know"--I 
mean, the answer. Because we've got to know. So, I think it 
would have mattered. I know this is not your job, unilaterally, 
to decide. So, it's now time, in my view, to get real with 
where we stand as a Nation. They're coming after us here and 
everywhere else, and we'd better get ready for--to be able to 
defend our people.
    General Dunford said that he thought the greatest threat to 
America today was Russia, not radical Islam. Do you agree with 
that?
    General Neller. I agree with General Dunford that, as a 
nation-state, Russia is probably the greatest threat. But, I 
believe that the greatest threat to the American people, 
because they say they want to kill us, is radical extremism.
    Senator Graham. Do you agree with me, the greatest threat 
of all is a radical Islamic nation-state with a nuclear weapon?
    General Neller. Any radical organization with a nuclear 
weapon is of great concern, Senator.
    Senator Graham. Do you agree with me that, if Iran--do you 
believe that Iran is a radical Islamic nation-state?
    General Neller. I believe that Iran is a state that is 
involved itself in a number of nefarious activities which have 
created instability across the Middle East and other parts of 
the world.
    Senator Graham. Do you believe the Ayatollah really means 
it when he says, ``Death to America'' and ``Death to Israel"?
    General Neller. Senator, I have never spoken to the 
Ayatollah to ask him that question.
    Senator Graham. I doubt if you will. But, given all the 
behavior of Iran and their past activity, would it be smart to 
assume the worst when it came to the Ayatollah, and not the 
best?
    General Neller. It would be my military advice to continue 
to watch them closely in everything they do, and judge them on 
their actions, and hold them accountable for those things that 
they do that violate international law and disrupt the 
stability of the region and the world.
    Senator Graham. Would you agree they're the primary 
destabilizing influence right now in the Mideast, they're 
supporting extremist organizations that have toppled four Arab 
capitals?
    General Neller. I believe that they are an extremely 
destabilizing force in the Middle East.
    Senator Graham. Do you agree with me, Assad wouldn't last 
15 minutes without Iranian and Hezbollah help?
    General Neller. Sir, I'm aware that the Iranians are 
supporting the Assad government. I don't know, if they 
withdraw, how long he would last or not last.
    Senator Graham. Well, but that's----
    General Neller. But, sir----
    Senator Graham. Put it this way. He's--they're Assad's main 
benefactor.
    General Neller. They are providing a great deal of support 
to him, yes, Senator.
    Senator Graham. Do you agree that the pro-American, pro-
Western government in Yemen was toppled because of Iranian 
support for the Houthis?
    General Neller. I believe that the Houthis received a 
significant amount of support from Iran. To what degree that 
allowed them to topple that government, that----
    Senator Graham. Let's put it----
    General Neller.--would be conjecture on----
    Senator Graham.--this way.
    General Neller.--my part.
    Senator Graham. If Iran stopped supporting the Houthis, do 
you think we'd have a different outcome?
    General Neller. Senator, that would be speculative on my 
part. I've been to Yemen a couple of times. The government they 
had was troubled. They have a huge amount of tribal and 
factionalism in there. Clearly, Iranian support to the Houthis 
facilitated their successful actions in Yemen to topple the 
Hadi government.
    Senator Graham. Do you agree that Hezbollah would have a 
hard time surviving without Iran?
    General Neller. They would certainly not have the same 
capability they have today.
    Senator Graham. So, my point is, from a Marine Corps----
    Chairman McCain. General, you're not answering the 
Senator's questions. Would you answer that question? Do you 
believe in that, or not?
    Senator Graham. General, I'm not trying to put you in a bad 
box. I'm just trying to explain to the American people who the 
Iranians are and what they're up to. That's all I'm trying to 
do.
    Do you agree with me that they are a very destabilizing 
influence in the Mideast, they're the largest state sponsor of 
terrorism, and we should know that?
    General Neller. Yes, Senator.
    Senator Graham. Okay.
    Finally, as to the Marine Corps, you've indicated that, in 
1975, the Marine Corps was a place that was in a bad spot. 
You've come a long way. Do you agree with me that, if we impose 
sequestration and we fully implement by 2021, the Marine Corps 
will be in a bad spot?
    General Neller. Yes, Senator.
    Senator Graham. At a time we need the Marine Corps the 
most.
    General Neller. We would not be able to provide the 
capabilities that we need to provide to the Nation.
    Senator Graham. In your time as a marine, have you ever 
seen a more--a larger need for the United States Marine Corps 
than today, in terms of the threats we face?
    General Neller. Senator, this is a very challenging time, 
and I think it's a--this is a time when a force like the Marine 
Corps would have a great capability to--for the Nation.
    Senator Graham. Thank you very much.
    Chairman McCain. Well, General, before we close, when you 
say, ``We're doing what we need to do in Iraq,'' I think--you 
know, I don't know where you've been. Obviously, ISIS is 
winning in Iraq. For you not to be in favor of us having 
forward air controllers on the ground, in some scholastic 
answer--you know full well, as I do, forward air controllers 
make the difference. There are--75 percent of the sorties that 
are flown return to base without firing a weapon.
    This line about, ``They're the ones that have to do it 
themselves"--General, they can't do it themselves. We know 
that. The Iraqis cannot do it themselves. That's why they're 
losing. That's why they've lost their second-largest city. 
That's why ISIL continues to make gains. The only people that 
are fighting against them are the Iranian-backed Shi'ite 
militias.
    So, the Iraqis have to do it, but, without American 
assistance, including airpower, including forward air 
controllers on the ground, we're going to see the stalemate. 
For you to say, ``We're doing what we need to do,'' then maybe 
you can tell me what we're doing that will win against ISIS. 
Can you tell me that?
    General Neller. Senator, what we're doing, I believe, is 
providing advisor teams and support to train----
    Chairman McCain. That's succeeding, and that's causing 
success, is that right?
    General Neller. It's stemmed the tide for ISIS, but it is 
not removing them from Iraq, so it is not----
    Chairman McCain. So, you believe that ISIS is----
    General Neller.--succeeding right now.
    Chairman McCain. So, you believe that ISIS is losing.
    General Neller. No, sir, I do not.
    Chairman McCain. You believe they're winning.
    General Neller. No, sir, I don't believe they're winning, 
either. I believe they're at a stalemate right now.
    Chairman McCain. They're at a stalemate. When you have a 
stalemate, then, when the enemy controls the largest--second-
largest city in--about a third of it--and the only people that 
are fighting against them are Shi'a militias backed by 
Iranians, with Suleimani, who was responsible for the deaths, 
in General Dunford's testimony, of 500 marines and soldiers, 
orchestrating the attacks, I don't think we are, quote, ``doing 
what we need to do,'' General.
    I'm going to give you some written questions. I--I'm very 
disappointed in a number of your answers.
    Let me just go back again. You know what happened in that 
recruiting station, don't you? The guy walked up to the door 
and shot and killed four marines. You know--that was in the 
media. I'm sure, no matter what job you're holding, you knew 
that, didn't you?
    General Neller. Yes, Senator.
    Chairman McCain. Then shouldn't we have had those marines 
be able to defend themselves?
    General Neller. Senator, the marines needed to have the 
force protection they need. At the recruiting station, there 
was only one individual wounded. It was at the Reserve Center 
where they were--where they killed. But, yes, they should have 
been able to defend themselves, Senator.
    Chairman McCain. Thank you.
    I'll have some questions for the record.
    Chairman McCain. But, General, if you think we're doing 
what we need to do in Iraq and Syria, then we have a real 
strong and different view of the situation there. We lost too 
many good marines in the Battle of Fallujah and Ramadi. Senator 
Graham and I were over there. One of my sons fought there. For 
so--for us to say we're doing what we need to do, I think, 
frankly, is not in keeping with the appreciation we should have 
for the sacrifice that those brave young people made.
    Senator Reed. Well, Mr. Chairman, I just simply want to say 
I don't think anyone understands the sacrifices that the 
marines made in Iraq better than General Neller. I think his 
comments are his professional opinions, based upon what he 
knows, not as the commander in Iraq, but as the aspirant to be 
the Commandant. But, I certainly think that there's no one that 
feels more deeply about the situation in Iraq on a personal 
level, from leading marines there, than General Neller, and 
that should be part of the record.
    Thank you.
    Chairman McCain. This meeting is adjourned.
    [Whereupon, at 11:49 a.m., the hearing was adjourned.]

    [Prepared questions submitted to Lieutenant General Robert 
B. Neller, USMC by Chairman McCain prior to the hearing with 
answers supplied follows:]

                        Questions and Responses
                            defense reforms
    The Goldwater-Nichols Department of Defense Reorganization Act of 
1986 and the Special Operations reforms have strengthened the 
warfighting readiness of our Armed Forces. They have enhanced civilian 
control and the chain of command by clearly delineating the combatant 
commanders' responsibilities and authorities and the role of the 
Chairman of the Joint Chiefs of Staff. These reforms have also vastly 
improved cooperation between the services and the combatant commanders, 
among other things, in joint training and education and in the 
execution of military operations.
    Question. Do you see the need for modifications of any Goldwater-
Nichols Act provisions?
    Answer. No, not at this time.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A.
    Question. Should service chiefs be given greater authority over and 
responsibility for their service's acquisition programs?
    Answer. I am in favor of ensuring that Service Chiefs have an 
appropriate balance of authority and responsibility over their 
service's acquisition programs, and believe there must be appropriate 
accountability throughout the process. Understanding that many of these 
programs are lengthy, complicated and expensive, I share the 
frustration of many in the services that we cannot produce an important 
combat capability in a more timely and affordable manner.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commandant of the Marine Corps?
    Answer. Section 5043 in title 10 of United States Code clearly 
prescribes the duties and functions of the Commandant of the Marine 
Corps. The Commandant, subject to the authority, direction, and control 
of the Secretary of the Navy, leads the recruiting, training, 
organizing, and equipping of the Marine Corps to support military 
operations by combatant commanders. As a member of the Joint Chiefs of 
Staff, the Commandant is responsible for advising the President, the 
National Security Council, the Homeland Security Council, and the 
Secretary of Defense.
    Question. What background and experience, including joint duty 
assignments, do you possess that you believe qualifies you to perform 
these duties?
    Answer. In my over 40 year career as a Marine, I have served in a 
variety of key service and joint assignments that I believe qualify me 
to perform the duties of Commandant. I have commanded Marines at all 
levels including general officer commands as Commanding General, 3rd 
Marine Division, Commander, Marine Forces Central Command, and my 
current assignment as Commander, U.S. Marine Forces Command and 
Commander, U.S. Marine Forces Europe. Other successful general officer 
assignments have included Director of Operations on the Joint Staff and 
President, Marine Corps University. In addition to these leadership 
assignments, I have served as the Director, Operations Division, Plans, 
Policies and Operations (PP&O) Directorate, Headquarters Marine Corps, 
Director of Operations, II Marine Expeditionary Force, and Deputy 
Commanding General, I Marine Expeditionary Force (Forward) during 
Operation Iraqi Freedom 05-07.
    Question. Do you believe that there are any steps that you need to 
take to enhance your ability to perform the duties of the Commandant of 
the Marine Corps?
    Answer. I do not at this time see the need for significant changes 
in activities or structures to enhance my ability to perform the duties 
of the office to which I have been nominated. However, I am confident 
that opportunities for improvement can and should be pursued. If 
confirmed, I will continue to study and seek to better understand the 
full range of issues affecting the Marine Corps and our broader 
National Security.
                             relationships
    Question. Other sections of law and traditional practice establish 
important relationships between the Commandant of the Marine Corps and 
other officials. Please describe your understanding of the relationship 
of the Commandant to the following officials:
    Secretary of Defense.
    Answer. The Secretary of Defense is the principal assistant to the 
President in all matters relating to the Department of Defense. Subject 
to the direction of the President, the Secretary of Defense has 
authority, direction, and control over the Department.
    Question. Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense is the Chief Management 
Officer of the Department, acting for and on behalf of the Secretary, 
performing duties and exercising authority the Secretary of Defense 
prescribes. Subject to the authority, direction and control of the 
Secretary of the Navy, I would be responsible to the Secretary of 
Defense and the Deputy Secretary of Defense for the operation of the 
United States Marine Corps.
    Question. The Under Secretaries of Defense.
    Answer. The Under Secretaries of Defense are the principal staff 
assistants and advisers to the Secretary regarding matters related to 
their functional areas. Within their areas, Under Secretaries exercise 
policy and oversight functions. They may issue instructions and 
directive type memoranda that implement policy approved by the 
Secretary applicable to all DOD components.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman is the principal military advisor to the 
President and Secretary of Defense. The President directs 
communications between himself and the Secretary of Defense to the 
Combatant Commanders via the Chairman of the Joint Chiefs of Staff and 
may assign duties to the Chairman to assist the President and the 
Secretary of Defense in performing their command function. If 
confirmed, I would cooperate fully with the Chairman in the performance 
of his responsibilities.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. The Vice Chairman of the Joint Chiefs of Staff performs his 
duties as a member of the Joint Chiefs of Staff, and other duties as 
assigned by the Chairman with the approval of the Secretary of Defense. 
If confirmed, I would cooperate fully with the Vice Chairman in the 
performance of his responsibilities.
    Question. The Secretary of the Navy.
    Answer. The Secretary of the Navy is the head of the Department of 
the Navy and is responsible for, and has authority to conduct, all of 
its affairs. Except for the title 10 duties and responsibilities as a 
member of the Joint Chiefs of Staff, the Commandant performs his duties 
under the authority, direction, and control of the Secretary of the 
Navy and is directly responsible to the Secretary. The function of the 
Headquarters, Marine Corps, is to assist the Secretary of the Navy in 
carrying out his responsibilities. As a member of the Joint Chiefs of 
Staff, the Commandant is responsible for advising the President, the 
National Security Council, the Homeland Security Council, and the 
Secretary of Defense.
    Question. The Under Secretary of the Navy.
    Answer. The Under Secretary of the Navy is the deputy and principal 
assistant to the Secretary, and acts with full authority of the 
Secretary in managing the Department. The Under Secretary serves as the 
Chief of Staff of the Secretariat and the Chief Operating Officer of 
the Department. He acts for and on behalf of the Secretary, performing 
duties and exercising authority the Secretary prescribes. If confirmed, 
I would be responsible to the Secretary of Navy and the Under Secretary 
for the operation of the United States Marine Corps.
    Question. The Assistant Secretaries of the Navy.
    Answer. The four Assistant Secretaries of the Navy set the 
Department of the Navy's strategic direction by developing and 
overseeing policies and programs within their respective functional 
areas. If confirmed, I will ensure coordination with the Assistant 
Secretaries in addressing matters that may impact their respective 
domains.
    Question. The General Counsel of the Navy.
    Answer. The General Counsel is the chief legal and ethics officer 
of the Department of Navy and serves as counsel to the Secretary and 
other Secretariat officials. The General Counsel's duties include 
providing legal and policy advice to officials of the Department of the 
Navy, as well as making the controlling legal determinations within the 
Department. If confirmed, I would establish and maintain a close 
professional relationship with the General Counsel and his staff, and 
would actively seek his guidance to ensure that United States Marine 
Corps policies and practices are in strict accord with the law and the 
highest principles of ethical conduct.
    Question. The Judge Advocate General of the Navy.
    Answer. The Judge Advocate General of the Navy provides legal and 
policy advice to the Secretary of the Navy, directs the Judge Advocate 
General's Corps, and is primarily responsible for providing legal 
advice and services regarding the Uniform Code of Military Justice. In 
coordination with the General Counsel of the Navy, the Judge Advocate 
General serves as military legal advisor to the Secretary of the Navy. 
The Judge Advocate General maintains a close relationship with the 
General Counsel and the Staff Judge Advocate to the Commandant on 
matters of common interest.
    Question. The Assistant Commandant of the Marine Corps.
    Answer. With the approval of the Secretary of the Navy, the 
Assistant Commandant has the authority and duties with respect to the 
Marine Corps as the Commandant delegates or assigns to him. Orders 
issued by the Assistant Commandant in performing such duties have the 
same effect as those issued by the Commandant. If confirmed, the 
Assistant Commandant and I will work seamlessly to ensure the 
successful operation of the United States Marine Corps.
    Question. The Chiefs of Staff of the Army and Air Force.
    Answer. The Chiefs of Staff of the Services organize, train, and 
equip their respective forces. Combatant commanders cannot ensure 
preparedness of their assigned forces without the full cooperation and 
support of the Service Chiefs. As a member of the Joint Chiefs of 
Staff, the Service Chiefs are obligated to provide military advice. The 
experience and judgment of the Service Chiefs provide an invaluable 
resource for the combatant commanders and the national command 
authority. If confirmed, I will continue the close bond between the 
Commandant of the Marine Corps and the Service Chiefs.
    Question. The Combatant Commanders.
    Answer. The combatant commanders are responsible to the President 
and to the Secretary of Defense for the performance of missions 
assigned by the President or by the Secretary with the approval of the 
President. Subject to the direction of the President, the commander of 
a combatant command performs duties under the authority, direction, and 
control of the Secretary of Defense; and is directly responsible to the 
Secretary for the preparedness of the command to carry out missions 
assigned to the command. Title 10 makes the Commandant of the Marine 
Corps responsible for organizing, training, and equipping forces in 
support of combatant commanders. Fundamentally, these duties and 
responsibilities are to prepare the Marine Corps to fight and win on 
the battlefield. Provision of the service specific and joint 
capabilities required by combatant commanders to perform their 
missions--today and in the future--forms a large basis of the 
Commandant's responsibility. Today's security environment dictates that 
the USMC work closely with the combatant commanders to execute our 
national military strategy.
                    major challenges and priorities.
    Question. In your view, what are the major challenges that will 
confront the next Commandant of the Marine Corps?
    Answer. The next Commandant of the Marine Corps will continue to be 
faced with the readiness challenges that exist during a period of 
fiscal austerity. The Marine Corps is the nation's force-in-readiness, 
and the next Commandant will be responsible for ensuring the Nation has 
that immediate response capability when they need it. Other significant 
challenges confronting the next Commandant will include modernization 
and recapitalization of equipment for the future force.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. The current Commandant and the Corps' senior leadership 
have been wrestling with these challenges for the past several years. 
Today our Marines are operating forward around the globe performing the 
mission of America's expeditionary force-in-readiness. If confirmed, I 
will ensure those Marines deployed and those next to respond have the 
resources and training they need to be successful. I will also continue 
some of the initiatives instituted to meet our readiness and training 
challenges such as developing better readiness metrics, improving 
leader-to-led ratios, identifying key enlisted leader billets and 
investing more time in the development of those key leaders. If 
confirmed, I will also work with the Congress on reforming our 
acquisitions process to achieve a faster, more cost effective means of 
getting the equipment that our warfighters need for today and tomorrow.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Commandant of the 
Marine Corps?
    Answer. If confirmed, readiness will remain a top priority. I will 
ensure that the American people have a Marine Corps that's ready to 
respond when the Nation is least ready.
    We are a people organization. We have the finest young men and 
women in our ranks that the Nation has to offer. I will look at ways 
and means to continue to recruit and retain the highest quality 
individuals and provide the best opportunities for each Marine to be 
successful.
                         most serious problems
    Question. What do you consider to be the most serious problems in 
the execution of the functions of the Commandant?
    Answer. The most serious problems in the execution of the functions 
of the Commandant are the ability to meet the title X responsibilities 
of manning, training, and equipping the expeditionary crisis response 
force needs of the combatant commanders in today's security environment 
within the fiscal constraints of the current economic landscape. The 
task of applying resources in a way that successfully addresses both 
near-term and long-term challenges is a difficult one for every service 
even in a normal budget process. The request for forces in response to 
the ``New Normal'' security environment challenge clearly presents 
problems to both the Services who provide forces and combatant 
commanders who request them. More immediately, the continuation of 
sequestration or of `sequestration-like' budgeting practices affixes 
every Service Chief in a position where short-term remediation efforts 
begin to dominate their time, at the expense of long-term service 
planning, concept development and human capital management.
    Question. If confirmed, what management actions and associated 
timelines would you establish to address these problems?
    Answer. If confirmed, I will pursue institutional reforms to 
improve readiness reporting and assessment. To mitigate fiscal 
challenges I will seek balance between current readiness demands and 
future modernization through a strategy development process that 
examines today's security requirements and future challenges.
               organize, train, and equip responsibility
    Question. The Commandant of the Marine Corps is responsible for 
organizing, training and equipping forces provided to Corps and 
component commanders, including the prioritization of funding and 
effort to meet these needs in the near term, while developing 
capabilities for the far term.
    How would you characterize your experience in force management and 
capability requirement decisions?
    Answer. I would characterize my experience as well versed and 
justly qualified. Over the last three years, I served two years as 
Commander, Marine Forces Central Command, and the last year as 
Commander, U.S. Marine Forces Command and Commander, U.S. Marine Forces 
Europe. I was primarily responsible for force management and capability 
requirement decisions in all three capacities to promote regional 
security, maintain proven partnerships and interagency cooperation, and 
deter and defeat transnational threats.
    Question. What innovative ideas are you considering for organizing, 
training and equipping the Marine Corps?
    Answer. The Marine Corps has proven itself in combat throughout its 
history, but more pertinently, over the past 14 years in Iraq and 
Afghanistan. The unique organization of America's force-in-readiness as 
an air-ground team, naval in character and expeditionary in nature, has 
been proven as relevant to address the nation's crisis and contingency 
response options. If confirmed, I will continue to exercise the title X 
responsibilities of the Commandant of the Marine Corps to meet this 
relevant and necessary national requirement.
    I will continue to look at ways to improve how Marines are trained 
and educated to meet future security challenges, exercise 
experimentation to identify ways to improve how our Marine Air-Ground 
Task Forces (MAGTFs) are employed, and leverage new systems and 
innovative technologies to improve how we perform our mission.
                    security strategies and guidance
    Question. How would you characterize current trends in the range 
and diversity of threats to national security we face today?
    Answer. Current trends are producing an increasingly complex 
security environment. State and non-state actors alike present a 
challenge to U.S. and international security. Proliferation of nuclear 
weapons and technology among non-nuclear states and non-state actors 
will remain a top concern. Adversaries have access to advanced, dual 
use technologies, scientific techniques, and open source knowledge that 
could result in the engineering of chemical and biological weapons and 
improved dispersal methods. Terrorists continue to seek capability to 
conduct a significant attack against the United States, and cyberspace 
will increase as a contested domain.
    Should major operations and campaigns occur, they are likely to 
have a significant maritime and littoral dimension.
    The Defense Strategic Guidance issued January 2012 took into 
account a $487 billion dollar reduction in defense resources.
    Question. With the additional $500 billion in cuts to the 
Department of Defense as a result of sequestration, is the Defense 
Strategic Guidance still valid?
    Answer. I concur with what Chairman Dempsey testified to earlier 
this year, that we are on the edge of acceptable risk. Further cuts 
will require a reassessment of the strategy.
    Question. In your view, as Russian aggression and the emergence of 
ISIL have occurred since the Defense Strategic Guidance was issued in 
January 2012, is that strategic guidance still appropriate for the 
threats we face today or do you think an update is warranted?
    Answer. Although Russia has asserted more opportunistic aggression 
since the DSG was published, engagement remains an important means to 
achieving regional stability. Enhancing the capabilities of partner 
nations and conducting interoperable coalition operations remains 
significant. As for ISIL, DSG objectives of security, non-
proliferation, countering violent extremists, and upholding commitments 
remain valid. The DSG appropriately identifies continued U.S and allied 
presence in the region to achieve these objectives.
    Question. In your view, is our defense strategy and current 
establishment optimally structured, with the roles and missions of the 
Military Departments appropriately distributed, and U.S. Forces 
properly armed, trained, and equipped to meet security challenges the 
Nation faces today and into the next decade?
    Answer. The Defense Strategy as laid out in the 2014 Quadrennial 
Defense Review and the Defense Strategic Guidance is still valid, with 
the roles and missions of the Military departments adequately 
distributed to meet current and potential threats.
    Question. If confirmed, what changes, if any, would you propose to 
the capabilities, structure, roles, and missions of the defense 
establishment?
    Answer. I believe continual assessment is necessary to ensure the 
Department is optimally aligned to safeguard our national defense. If I 
identify an area that needs change, I will address it in the 
appropriate forums.
          military capabilities in support of defense strategy
    Question. In your opinion, do current military plans include the 
necessary capabilities to meet the defense strategy stated in the 2014 
QDR? Please identify areas of higher risk.
    Answer. Yes, but I am very concerned that over the past few years, 
the Marine Corps' ability to recapitalize and modernize for the future 
security environment has been undermined due to lower than optimal 
budgets and the need to fully resource deployed and next-to-deploy 
Marines.
    Question. Does the 2014 QDR specify the correct set of capabilities 
to decisively win in future high-intensity warfare?
    Answer. The 2014 QDR correctly specifies the set of capabilities 
needed to win decisively in future high-intensity warfare, but the 
Marine Corps needs to keep its technological advantage by investing 
more in the long-term modernization of its warfighting equipment. I do 
not believe that the current budget levels allow for that modernization 
to occur given the other demands on the Marine Corps.
    According to the force sizing construct in the 2014 QDR, American 
forces should be able to ``defeat a regional adversary in a large-scale 
multi-phased campaign, and deny the objectives of--or impose 
unacceptable costs on--another aggressor in another region.''
    Question. In your opinion, does the Department's force sizing 
construct provide adequate capability to address the country's current 
threat environment?
    Answer. The Marine Corps is the Nation's force-in-readiness and is 
sized to 182,000 Marines to meet the current guidance. In my opinion, 
this is the maximum allowable risk that the Marine Corps can accept in 
the current threat environment. We are operating at a 1 to 2 deployment 
to dwell ratio, which is not sustainable over the long term.
    Question. Is the Marine Corps adequately sized to meet this 
requirement?
    Answer. The Marine Corps is adequately sized to meet the current 
requirement in the short term, but I am concerned about our capacity to 
meet unexpected operational demands, especially in the event of a Major 
Contingency Operation. We would be ``all in,'' and would be unable to 
support other commitments around the world to include theater security 
cooperation.
    Question. If the Marine Corps cannot meet the demands placed on it, 
how will you address this issue?
    Answer. The Marine Corps is the Nation's force-in-readiness and I 
will ensure that those Marines deployed and next-to-deploy are fully 
supported. I will take risk in home station units readiness, which is 
our Ready Force that can respond to crises or major combat operations.
                           defense reduction
    Question. In your view, what have been/will be the impacts of the 
following defense budget reductions on the Marine Corps' capability, 
capacity, and readiness:
    Initial Budget Control Act reduction of $487 billion?
    Answer. The passage of the Budget Control Act coincided with our 
planned reduction in force structure. Since our end strength above 
182,000 was financed in OCO, we were able to operate effectively. 
However, we already had to accept risk by reducing our end strength to 
182,000.
    Question. Sequestration in FY 2013?
    Answer. The Marine Corps was able to absorb the mandated cuts due 
to sequestration in 2013 primarily by leveraging unencumbered Overseas 
Contingency Operations funds and unexpended investment resources. 
However, the furlough of civilians during the summer of 2013 severely 
damaged the morale of our Civilian Marines.
    Question. Reduction of $115 billion in projected spending in the FY 
2015 budget, in line with the 2014 Quadrennial Defense Review?
    Answer. The Bipartisan Budget Act of 2013 provided the Marine Corps 
with a stable funding profile for both Fiscal Years 2014 and 2015. Even 
with this stability, the funding levels were below the optimal level to 
achieve balance across the force in terms of readiness and 
modernization. I have concerns about underfunding our investment 
programs, which is critical to the long-term readiness of the Marine 
Corps.
    Question. Sequestered Budget Control Act discretionary caps 
starting in FY 2016 onward?
    Answer. If the Marine Corps budget for FY 2016 and beyond is capped 
at the Budget Control Act levels, the Marine Corps will be unable to 
meet its obligations to the Defense Strategic Guidance and the National 
Security Strategy. The permanent end strength of the Marine Corps would 
need to be reduced below the planned levels of 182,000. I would need to 
rely on Overseas Contingency Operations funding, which are not subject 
to the discretionary caps, to meet the obligations under the DSG and 
the NSS.
    The fiscal year 2016 budget request assumes that the Budget Control 
Act will be amended in fiscal year 2016. The fiscal year 2016 Budget 
Resolution passed by the Senate and House of Representatives do not 
assume this, but instead provides $38 billion of the requested spending 
through the Overseas Contingency Operations (OCO) budget.
    Question. Should this OCO funding not be available, what 
recommendations would you have, if confirmed, for how the Marine Corps 
should manage additional cuts for fiscal year 2016?
    Answer. Without OCO, the Marine Corps would not be able to meet the 
requirements of the current Defense Strategic Guidance and would result 
in a Marine Corps with fewer trained and ready Active Duty battalions 
and squadrons than would be required for a single major contingency.
    Question. What are your views on the impact that these cuts could 
have on readiness for the Corps?
    Answer. We are relying on OCO funding today for many requirements 
that have become enduring. Without OCO, the readiness of the Marine 
Corps will be significantly impacted, especially to home-station units. 
I will shift as many resources as needed to ensure the readiness of 
units deployed and those next-to-deploy.
    Question. What are your views on the impact that these cuts could 
have on Marine capabilities?
    Answer. The capabilities of the Marine Corps will be diminished.
                       international partnerships
    Question. Interactions between the naval and marine forces of 
different countries are often conducted at the Chief of service level, 
including international exercises, Foreign Military Sales, educational 
exchanges, and protocols for operations.
    If confirmed, how do you plan to ensure the Marine Corps continues 
to build strong partnerships, overcome challenges, and exploit 
opportunities in international cooperation?
    Answer. I believe that in order to be postured as the nation's 
crisis response force, we must continuously engage with ally and 
partner security forces around the globe, to gain access and build 
relationships. The Marine Corps does this through its component 
headquarters to the Combatant Commands. The current security climate 
and fiscal uncertainty call for increased cooperation with our allies 
and partners to encourage burden-sharing, project United States 
presence, and build security globally. Security Cooperation activities, 
such as those executed by the Marine Expeditionary Units and Special 
Purpose Marine Air-Ground Task Forces, enable our own operational 
readiness while developing interoperability with our strategic partners 
and building partner security force capabilities to support more 
effective coalition operations and contribute to their own defense. 
However, our strategic engagement should focus not only on our most 
capable partners, but also on the partner security forces who can 
benefit from the ethos, professionalism, and relatively smaller size of 
the Marine Corps.
    If confirmed, I would seek to maintain the current initiatives that 
have made the Marine Corps the partner of choice for amphibious 
operations and combined arms, while orienting the Service for the 
future operating environment.
    Question. How would you characterize your familiarity with 
international marine leaders, forums, and processes?
    Answer. As a result of my previous experiences, including most 
recently my positions at Marine Forces Central Command and Marine 
Forces Europe, I am very familiar with international Marine and Naval 
Infantry leaders, as well as leaders of other international allies and 
partners who share similar mission sets. If confirmed, I will continue 
to leverage various means to build and reinforce personal relationships 
to cooperatively build a more secure and stable international 
environment. These engagement opportunities will range from senior-
level conferences and formal staff talks to personal interaction during 
travel to partner nations or visits by partner nation leaders to the 
U.S. I will continue to leverage service programs, such as Foreign 
Military Sales and personnel exchanges, to advance U.S. Government and 
Department of Defense objectives.
                            joint operations
    Question. Naval operations are becoming increasingly ``joint'' as 
Marines plan to deploy in larger numbers and on a wider range of ships; 
the U.S. Army and Air Force begin to invest in counter-maritime 
capabilities; and air and naval forces continue to develop and 
implement interoperable capabilities to defeat anti-access and area-
denial (A2/AD) networks--a process that started with the Air-Sea Battle 
Concept in 2010.
    How would you characterize your familiarity with the other 
services' capabilities and how they organize, train and equip their 
forces?
    Answer. In my current position I have become very familiar with how 
the Army and Air Force organize, train, and equip and as Marines we 
work side by side with and share a similar approach to problem solving 
as the Navy. The most salient aspect of Joint Force capabilities is 
that we are all reliant on the capabilities of the other Services, 
Special Operations Command, other departments within the U.S. 
Government, and our closest allies to execute the diverse set of 
missions needed to ensure our continued security.
    Question. Are there other innovative ideas you are considering to 
increase Joint interoperability and ensure opportunities to improve 
cross-domain capability and capacity are not missed?
    Answer. As our Nation's premier crisis response force in readiness, 
there is a high probability that forward stationed and deployed Marine 
Expeditionary Forces will be the first forces on the scene of a 
developing crisis. As such Marines will provide critical enabling 
capabilities for follow-on Joint Forces. Therefore, interoperability is 
a must.
    If confirmed, I will work closely with the other Service Chiefs and 
combatant commanders to increase our ability to share information in an 
environment where we are likely to lose communications or security for 
periods of time. In the current and future threat environment it is 
essential that the services continue to develop our compatibility, 
through equipment procurement, electronic systems, and training 
regimens. In this way, the Marine Corps, as the Nation's force in 
readiness, will not only be the most ready when the Nation is least 
ready, but also be able to bring other services into the fight when 
necessary.
                       capacity and end strength
    Question. Is the Marine Corps' end strength large enough to execute 
the 2015 National Military Strategy? (CD&I)
    Answer. The currently budgeted force, which decreases to 182k in 
FY17, remains the force that assumes the maximum allowable risk that 
can meet the current Defense Strategic Guidance. The Marine Corps has 
yet to fully analyze the 2015 National Military Strategy to determine 
if the planned force size is adequate to meet the new strategy.
    Question. Is the capacity of the Corp's sufficient? Is the balance 
between the institutional support base and the deployable combat units 
about right? (CD&I)
    Answer. The current budgeted force is the maximum allowable risk 
that I am willing to accept. We are operating at a 1 to 2 deployment to 
dwell ratio, which is not sustainable over the long term. Our capacity 
to meet unexpected operational demands is stressed, especially in the 
event of a Major Contingency Operation.
    Question. What is you view as how to best leverage the Marine Corps 
Reserves?
    Answer. The Marine Corps Reserve and its associated programs exist 
to augment, reinforce and sustain the Active component as an integral 
part of the Marine Corps Total Force. In addition to providing 
operational and strategic depth, they provide individual augmentation 
to regional Marine Forces and Marine Expeditionary Force staffs to 
reinforce the Active Component across all warfighting functions.
    Question. Are the end strength, capabilities and readiness of the 
Marine Reserves adequate to reinforce the Active component for current 
operations? For planned contingencies?
    Answer. Yes, however many of the same concerns regarding readiness, 
training, and education that I expressed for the Active Force also 
apply to the reserves.
                       headquarters streamlining
    Question. The Senate-passed Fiscal Year 2016 National Defense 
Authorization Act directs reforms to consolidate the headquarters 
functions of the Department of Defense and the Military Departments.
    If confirmed, and if the provisions in the bill become law, what 
would be your role in streamlining functions, as well as identifying 
and implementing reductions in the Marine Corps headquarters?
    Answer. I will appoint key representatives to work with 
counterparts from the Department of Defense and our sister services to 
consider functions that could potentially be consolidated or 
streamlined. We will first and foremost make recommendations and 
decisions that are critical to the mission. If any decisions result in 
reductions in personnel, the Marine Corps will make those decisions 
following a strategic review of our workforce.
    Question. What areas and functions, specifically and if any, do you 
consider to be the priorities for possible consolidation or reductions 
within the Marine Corps?
    Answer. I have no specific recommendations at this time. We would 
obviously look for areas of redundancy or where consolidation or 
reductions would be the least impactful. The potential for 
consolidation or reduction of functions is not something to take 
lightly. A thorough review and analysis of what we do now, what could 
be done better, what makes sense, and the resulting impact on our 
personnel, both military and civilian, must be completed before any 
recommendations and decisions are made.
    Question. To the extent that the Corps has functions that overlap 
with the Department of Defense, Joint Staff, or other Military 
Departments, what would be your approach to consolidating and reducing 
redundancy?
    Answer. These decisions would need to be made on a case-by-case 
basis. I would first require a thorough analysis of what is currently 
being done by all staffs and departments, what could be done better, 
what makes sense and the resulting impact on our personnel, both 
military and civilian. These steps must be completed before any 
recommendations and decisions are made. If decisions require reductions 
in personnel, the Marine Corps will make those decisions following a 
strategic review of our workforce.
    Question. Is the Marine Corps on track to reduce the size of its 
headquarters in accordance with Secretary of Defense's directive of 
2013?
    Answer. The Marine Corps is on track to meet the Secretary of 
Defense's direction to reduce the size of its headquarters, to include 
the number of civilians and military personnel. I will commit to 
working with the Secretary and the Congress to keep our headquarters as 
lean as possible while providing support to the operating forces 
throughout the world.
                               readiness
    Question. What is your general assessment of the current state of 
readiness of the Marine Corps?
    Answer. For over a decade, Marines have proven their mettle in 
responding to a wide range of crises worldwide. Doing so, however, has 
caused stress on home station units. We have appropriately prioritized 
the readiness of those Marines who are forward deployed and in harm's 
way. I am concerned about the long term implications to our equipment 
modernization and infrastructure sustainment should sequestration-level 
funding return.
    Question. Are the infantry regiments and battalions of the Marine 
Corps at acceptable levels of readiness?
    Answer. Our deployed infantry battalions and regimental command 
elements are ready to operate across the range of military operations. 
However, full spectrum readiness varies among home station infantry 
units. We depend on a budget that protects current unit readiness and 
long-term investments--this is all part of balanced institutional 
readiness. Currently, institutional readiness is out of balance as 
resources that would otherwise have been applied to non-deployed units 
and investment accounts are re-prioritized to deployed and next-to-
deploy units to safeguard near-term operational unit level readiness. 
The availability of amphibious shipping for training further 
complicates the attainment of full spectrum readiness for all infantry 
units.
    Question. Are units in the key supporting arms (i.e. armored 
reconnaissance, tank, artillery and engineers) at acceptable levels of 
readiness?
    Answer. Our forward deployed and forward engaged units are ready to 
operate across the range of military operations. However, full spectrum 
readiness varies among home station units.
    Since the Marine Corps deploys task organized forces to meet 
combatant commander requirements, key supporting arms units continue to 
balance the demands of providing ready units to task organized forces 
for worldwide employment against the requirement to generate whole unit 
capabilities to operate across the full range of military operations.
    Question. What is the level of readiness in the fixed and rotary 
winged squadrons and wings? Is this adequate?
    Answer. Over a decade of sustained combat operations and high 
operations tempo, coupled with chronic underfunding of sustainment 
activities and the current fiscal environment has led to degraded 
readiness in Marine Aviation. We are currently able to meet all 
operational commitments with ready forces, but these forces often 
achieve the required level of readiness just prior to deployment. 
Prioritizing forward deployed readiness comes at the expense of next-
to-deploy and non-deployed units.
    Current levels of readiness are not adequate for our nation's 
force-in-readiness. Across the Marine Aviation fleet, our non-deployed 
squadrons are 20 percent short of the required number of aircraft 
needed to train or to respond to contingency or crisis. Among the 
factors contributing to readiness shortfalls are: aviation depot 
capacity and throughput shortfalls; underfunding in flying hour and 
other sustainment and logistics accounts; lack of experienced and 
qualified personnel; slower than needed procurement funding for 
recapitalization of legacy aircraft.
    Question. How deep is the ``bench'' of ready units available for 
deployment beyond the deployed MAGTFs and Special Purpose MAGTFs?
    Answer. Home station units constitute the ready force that would 
respond to unforeseen crises or major contingency. The Marine Corps 
retains the capacity to support its portion of the strategy; however, I 
am concerned about our ability to generate ready follow-on or surge 
forces should they be requested by the combatant commanders. Since the 
Marine Corps fights as task organized forces, I am particularly 
concerned about Marine Corps aviation readiness. Our ready aviation 
``bench'' is too shallow and does not have the resources it needs to 
train and be ready for future challenges. Specific details cannot be 
discussed in this unclassified forum.
    Question. Given current operational tempo is the Corps able to 
maintain its desired BOG dwell ratios for its ground and air units?
    Answer. The Marines Corps seeks to allocate forces supporting 
current operations with a deployment-to-dwell range of 1:2 to 1:3 for 
the majority of our units. We will work with the combatant commanders 
and provide forces that support operational and Service requirements.
    Question. If readiness is not at acceptable levels, what is your 
vision and plan to achieve required levels?
    Answer. The Marine Corps continues to reconstitute to a ready force 
after over a decade of persistent conflict. As the Nation's ready 
force, the Marine Corps does not have the luxury to take an operational 
pause after completing major operations in Iraq and Afghanistan. I will 
prioritize the resetting of Marine Corps equipment and restore home 
station readiness. Near-term readiness remains a top priority. I will 
work with the Department's leadership and the Congress to ensure the 
Marine Corps is properly resourced to deliver a ready Marine Corps 
today and in the future.
    Question. If confirmed, what will be your priorities for 
maintaining readiness in the near term, while modernizing the Corps to 
ensure readiness in the out years?
    Answer. Near-term operational readiness and the readiness of those 
Marines who are forward deployed and forward engaged remain my top 
priority. I will ensure that our manning, training, and equipping 
processes support the next generation of ready Marines to answer the 
Nation's call. I will work with the Department's leadership and the 
Congress to ensure the Marine Corps is properly resourced to deliver a 
ready Marine Corps today and in the future.
                                 budget
    Question. Is the Marine Corps' budget adequate to execute 
operations, maintain readiness, procure needed weapons and equipment, 
modernize, and sustain quality of life?
    Answer. The FY 2016 budget represents the limit of acceptable risk 
for the Marine Corps in terms of both end strength and funding; while 
we can meet the requirements of the Defense Strategic Guidance today, 
there is no margin. The budget rightly prioritizes near-term readiness 
at the expense of modernization and facilities, which is not 
sustainable in the long-term.
                     financial management and audit
    Question. The Department of Defense Office of Inspector General 
recently withdrew its previously clean opinion on the Marine Corps' 
FY12 Statement of Budgetary Activity (SBA). This is a significant 
setback not only for the Marine Corps, but also for the Department, as 
the Marine Corps was supposed to be the first service to attempt an 
audit, and the clean opinion was initially hailed as evidence of the 
Department's progress on audit.
    Should the Marine Corps have declared it was audit ready in FY14, 
given the fact it has not corrected its known financial management 
weaknesses?
    Answer. Yes, we were ready for the FY14 audit. We had successfully 
completed all the work and answered all the audit questions from the 
auditors for both the FY12 and FY13 audits, and we were prepared to do 
the same for FY14. We also knew the nature and impact of previously 
identified Marine Corps and DOD financial management and system 
weaknesses, and we understood the status of ongoing corrective actions. 
None of these known weaknesses were showstoppers for the audit, and 
corrective actions frequently take multiple years to fully implement. 
Conducting the FY14 audit helped identify additional Marine Corps 
improvement areas, and resulted in the DODIG and our Independent Public 
Accounting firm identifying a significant DOD-wide accounting issue.
    Question. If confirmed, how will you ensure that the Marine Corps 
is implementing corrections to its financial management systems and 
processes necessary to ensure it can undergo audit of its full 
financial statement in FY18?
    Answer. The Marine Corps has a well-established plan to be ready 
for the full financial statement audit by FY18 and to implement 
improvements to its financial management and business processes and 
systems. Success in achieving full auditability is a top priority as we 
demonstrate good stewardship of the nation's resources, and we are 
committed to making fiscally informed decisions.
                        recruiting and retention
    Question. What do you consider to be the key to the Marine Corps' 
success in recruiting the highest caliber American youth for service 
and retaining the best personnel for leadership responsibilities?
    Answer. The key to Marine Corps' recruiting success is the 
continued focus on finding highly qualified young men and women who are 
seeking the challenge of serving their nation. Continued access by 
recruiters to high schools and colleges not only assures the 
opportunity to engage a diverse and quality market, but also a market 
with the proven mental abilities to serve in technically challenging 
fields. Another key component of our recruiting success is the Marine 
Corps' image of smart, tough, elite warriors. The time proven 
intangible benefits of service, pride of belonging, leadership, 
challenges, and discipline are what we offer. Those attributes are what 
allows us to remain America's Force in Readiness.
    Question. What steps do you feel should be taken to ensure that 
current operational requirements and tempo do not adversely impact the 
overall readiness, recruiting and retention, and morale of the Marine 
Corps?
    Answer. Effective recruiting will require that we continue to 
maintain a high quality and properly resourced recruiting force. I also 
believe sustaining an operational tempo of at least 1:2 will ensure 
that our readiness, retention, and morale remain high.
    Question. What is your assessment of current recruiting standards, 
particularly DOD-wide criteria for tier-one recruits, and their 
propensity to accurately predict minimal attrition and future success 
in military service?
    Answer. If confirmed, I will carefully review the compensation 
reforms and the effects on recruiting and retention.
    Question. What impact, if any, do you believe the Department's 
proposals aimed at slowing the growth of personnel and health care 
costs will have on recruiting and retention in the Marine Corps?
    Answer. I believe the Department's reforms can promote recruiting 
and retention necessary to maintain the All-Volunteer Force. If 
confirmed, I will continue to carefully review all compensation reforms 
for any effects on recruiting and retention.
    Question. Do you believe that if Congress does not support these 
proposals, the resultant pressure on training and modernization 
resources could begin to harm retention?
    Answer. I believe that all personnel costs--including compensation 
reforms--must be viewed through the lens of overall readiness, to 
include training, equipping, and modernizing our Marine Corps. If 
confirmed, I will carefully review the compensation reforms and the 
effects on overall readiness to ensure your Marine Corps has the proper 
balance to maximize its crisis response and warfighter capabilities.
                         military compensation
    Question. What is your assessment of the adequacy of military 
compensation?
    Answer. The Marine Corps is meeting our recruiting and retention 
goals, and the current compensation package helps produce the force we 
need. If confirmed, I will continue to assess the adequacy of military 
compensation to ensure we recruit and retain the highest quality 
Marines.
    Question. What recommendations would you have for controlling the 
rising cost of personnel?
    Answer. Given the fiscal constraints on the Department of Defense, 
I believe that the compensation proposals put forward by the President 
in the 2016 budget request are reasonable measures to slow the growth 
in military compensation in order to strike a balance between personnel 
costs, training, equipment, and modernization that protects readiness.
    Question. Do you personally support the Administration's 
compensation and health care proposals?
    Answer. Yes, I support these proposals. They slow the rate of 
compensation growth which is necessary for the Marine Corps to maintain 
readiness under current budget constraints. This budget achieves the 
necessary and appropriate balance in compensation, training, equipment 
and modernization. It sustains the recruitment and retention of high-
quality personnel needed to defend our Nation, while still providing 
quality compensation and health care benefits to our Marines. If 
confirmed, I will continually assess compensation and health care to 
ensure that we continue to maintain this balance.
    Question. As the Marine Corps has the highest percentage of 
servicemembers who leave after their first term, what is your 
assessment of the adequacy of compensation and benefits available for 
non-career servicemembers?
    Answer. By design, the Marine Corps is a young service and 
purposefully retains fewer servicemembers at the first reenlistment 
decision point than the other services. Today, we are meeting all of 
our recruiting and retention goals and the quality of the force is 
extraordinary. Based on those facts, I believe compensation and 
benefits for non-career servicemembers are adequate.
    Question. Former Commandant, General Amos, and the Sergeant Major 
of the Marine Corps Barrett have talked about the nexus between what 
marines are paid today and the dangers associated with becoming, as 
they put it, ``an entitlement-based, health-care providing based Marine 
Corps,'' implying a relationship between the military compensation and 
benefit system and the ethos of military service.
    Do you share these concerns?
    Answer. Our Marines must be paid adequately and their families 
should be supported through various programs like housing, child care, 
health care, and commissary and exchanges. However, the Marine Corps' 
primary recruiting and retention motivator is our culture and warrior 
ethos; it is what Marines sign up for and what we deliver.
    Question. If so, what are the implications for the All-Volunteer 
Force?
    Answer. If confirmed, I will continually assess compensation to 
ensure that we continue to maintain the right balance between 
compensation, training, equipment, and modernization.
                         education for marines
    Question. An important feature of the Post-9/11 GI Bill is the 
ability of career-oriented Marines to transfer their earned benefits to 
spouses and dependents.
    What is your assessment of the effect of the Post-9/11 GI Bill on 
recruiting and retention of Marines?
    Answer. I believe that the Post-9/11 GI Bill positively contributes 
to recruiting and retaining high quality Marines. For recruits, 
education benefits, including the Post 9/11 GI Bill, are cited as the 
most influential benefit in making the decision to join the Marine 
Corps. In regard to retention, the ability to transfer Post 9/11 GI 
Bill benefits directly influences retention by requiring 4 additional 
years of service. In addition, 53 percent of Marines indicated that the 
ability to transfer their benefits was an influence to stay in the 
Marine Corps.
    Question. In your view, what has been the effect of the 
transferability option on retention and career satisfaction of Marines?
    Answer. According to Marine Corps surveys, for all non-retirement 
eligible Marines who were required to make an FY15 reenlistment 
decision, 53 percent indicated that the ability to transfer their 
benefits was an influence to stay in the Marine Corps.
    Question. How important do you believe tuition assistance benefits 
are to young Marines, and what trends do you see in the Marine Corps' 
ability to pay for such programs at current levels over the FYDP?
    Answer. Post-secondary education is an important part of individual 
Marines personal and professional development. Encouraging qualified 
Marines to utilize any and all resources to better themselves via 
education and training is part of the Marine Corps ethos. This leads to 
better Marines and in turn better citizens. I understand that the 
Marine Corps is adequately funded to provide tuition assistance 
benefits to qualified Marines. In addition, the Post 9/11 GI Bill 
provides a very generous education benefit.
    Question. What changes, if any, would you recommend to current 
eligibility criteria for tuition assistance?
    Answer. I believe the Marine Corps is properly executing the 
tuition assistance program. I have no recommendations to change current 
Marine Corps eligibility criteria at this time. However, as with other 
programs, we are constantly reviewing eligibility criteria for 
efficient and effective use of resources.
             assignment policies for women in the military
    Question. The Department in January, 2013, rescinded the policy 
restricting the assignment of women to certain units which have the 
primary mission of engaging in direct ground combat operations, and 
gave the military services until January 1, 2016, to open all positions 
currently closed to women, or to request an exception to policy to keep 
a position closed beyond that date, an exception that must be approved 
by the Chairman of the Joint Chiefs of Staff and the Secretary of 
Defense. The Marine Corps continues to develop gender-free physical and 
mental standards for all military occupations, presumably with the goal 
of allowing individuals, regardless of gender, to serve in those 
positions if they can meet those standards.
    If confirmed, what role will you play in the development of these 
standards?
    Answer. If confirmed, I will ensure that during the review, 
validation and development of Marine military occupational standards, 
they are operationally-relevant, occupation-specific, and gender-
neutral.
    Question. If confirmed, will you ensure that the standards are 
realistic and preserve, or enhance, military readiness and mission 
capability?
    Answer. Yes.
    Question. Do you believe that decisions to open positions should be 
based on military requirements and that assignment decisions should be 
made solely on the basis of a servicemember's ability to meet validated 
gender-neutral occupational standards? If so, what steps would you take 
to ensure that such decisions are made on these bases?
    Answer. Yes. The Marine Corps Force Integration Plan is a 
deliberate, measured, and responsible approach to research, set 
conditions and integrate female Marines into ground combat arms MOSs 
and units to the maximum extent possible. The Marine Corps' unwavering 
focus remains on combat effectiveness and ensuring the fullest success 
of each Marine. Recommendations to the Secretary of the Navy, Secretary 
of Defense, and the Congress will be made in that context.
    Question. Do you believe that any marine, male or female, who can 
meet the performance criteria the Corps is currently testing and 
validating, should be given the opportunity to serve in those 
occupations, including Infantry?
    Answer. The Marine Corps' top priority is combat effectiveness and 
the accompanying high state of readiness to meet emerging challenges 
across the range of military operations. The Marine Corps will ensure 
that all individuals regardless of gender are assigned to serve in an 
occupational specialty for which they are most fully qualified.
  relationship between staff judge advocate to the commandant of the 
marine corps and counsel for the commandant, united states marine corps
    Question. How are the legal responsibilities of the Marine Corps 
allocated between the Staff Judge Advocate to the Commandant and the 
Counsel for the Commandant?
    Answer. The Staff Judge Advocate to the Commandant of the Marine 
Corps (SJA to CMC) is the senior uniformed legal advisor to the 
Commandant and Headquarters, Marine Corps staff and agencies. In 
particular, the SJA to CMC supervises and manages the legal matters 
arising in the Marine Corps regarding military justice, operational 
law, civil and administrative law, legal assistance, and ethics, and 
any other matters as directed by the SECNAV and the CMC.
    The Counsel for the Commandant of the Marine Corps, as a component 
of the Office of the General Counsel of the Navy, provides the Marine 
Corps with legal advice in the following areas: acquisition law, 
including international transactions; business and commercial law; real 
and personal property law; civilian personnel and labor law; fiscal 
law; environmental law; intellectual property law; ethics and standards 
of conduct.
    Question. Who has responsibility for providing legal advice on 
military justice matters in the Marine Corps?
    Answer. The SJA to CMC is responsible for delivering military 
justice advice to the Commandant of the Marine Corps and Headquarters 
Marine Corps. In all other commands throughout the Marine Corps, judge 
advocates are responsible for providing legal advice on military 
justice matters.
    Question. What is the role, if any, of the Counsel for the 
Commandant in the duty assignments of Marine Corps judge advocates?
    Answer. The Counsel for the Commandant has no formal role in the 
duty assignments of judge advocates. The statutory responsibility for 
the assignment of Marine Corps judge advocates remains with the 
Commandant. By SECNAVINST, the SJA to CMC is responsible for advising 
DC, M&RA on the assignment of judge advocates.
    Question. What is your view of the need for the Staff Judge 
Advocate to the Commandant to provide independent legal advice to the 
Commandant of the Marine Corps?
    Answer. The ability of the SJA to CMC to provide independent legal 
advice to the Commandant is paramount. The SJA to CMC's legal advice is 
independent because he is not subject to evaluation or supervision in 
the content of his advice from anyone other than the Commandant. 
Similarly, 10 U.S.C section 5046 prohibits any officer or employee 
within the Department of Defense (DOD) from interfering with the SJA to 
CMC's ability to provide independent legal advice to CMC.
    Question. What is your view of the responsibility of Marine Corps 
judge advocates to provide independent legal advice to Marine Corps 
commanders?
    Answer. Like the SJA to CMC, Marine Corps judge advocates at all 
levels must be able to provide--and commanders must receive--
independent advice. 10 U.S.C section 5046 also prohibits interference 
with the ability of Marine judge advocates to provide independent legal 
advice to their commanders.
                        joint officer management
    Question. What is your assessment of the effectiveness of the 
Goldwater-Nichols-required Joint Qualification System?
    Answer. I believe that the Goldwater-Nichols joint officer 
requirements have improved the breadth of experience and overall 
quality of our senior officers. In addition, the establishment of the 
`experience path' a few years ago to attain Joint Qualification created 
another avenue for our best performing field grade officers to be fully 
qualified. It has proved to be a valuable enhancement to Goldwater-
Nichols.
    Question. Do you think additional changes in law or regulation are 
needed to respond to the unique career-progression needs of Marine 
officers?
    Answer. No.
    Question. In your view, are the requirements associated with 
becoming a Joint Qualified Officer, including links to promotion to 
general and flag officer rank, consistent with the operational and 
professional demands of Marine officers?
    Answer. Yes. The requirements are consistent with the Marine Corps' 
ongoing efforts to continue with the alignment, cooperation and 
coordination between the services and the combatant commanders in joint 
training, education, and execution of military operations.
    Question. If not, what modifications, if any, to the requirements 
for joint officer qualifications are necessary to ensure that Marine 
officers are able to attain meaningful joint and service-specific 
leadership experience and professional development?
    Answer. N/A
    Question. In your view, what is the impact of joint qualification 
requirements on the ability of the services to select the best 
qualified officers for promotion and to enable officer assignments that 
will satisfy service-specific officer professional development 
requirements?
    Answer. The requirements for joint qualification are complementary 
with the successful career path of our most competitive officers.
    Question. Do you think a tour with a Combatant Command staff should 
count toward the Joint tour requirement?
    Answer. Yes. The mission of the Combatant Commands staff is 
directly related to the achievement of unified actions that supports 
the national security strategy, national military strategy and 
strategic planning of combined operations.
    Question. What factors do you consider most important in the 
difficulty experienced by field grade Marine Corps officers in 
satisfying joint requirements for promotion?
    Answer. Given the current high operational tempo, the biggest 
difficulty in satisfying joint requirements is career timing of the 
most competitive officers. Naturally, there is a high demand within the 
service for the top officers for both command and other key billets. 
The Marine Corps makes joint assignments a priority as early as the 
rank of Major and nominates the most competitive officers to joint 
billets that complement their professional development.
    Question. Do you think that, in today's operational environment, 
these requirements for promotion to O-7 should be modified?
    Answer. No.
    Question. What steps are being taken to ensure that officers who 
are competitive for promotion to general officer rank are able to 
fulfill all joint education and experience requirements?
    Answer. Field grade officers are assigned to Joint Duty assignments 
and to JPME II producing schools (War Colleges) based on their 
performance. Our most competitive officers are provided those 
assignments.
    Question. How do you plan to foster a dedicated, educated, and 
assigned group of strategic thinkers and planners who rise to the rank 
of flag rank officer?
    Answer. Through a closely monitored manpower process, we will 
continue to formally screen and select our best officers beginning 
early in their careers for resident joint education, screen them for 
command of operational units, and assign them to key joint billets that 
complement their professional development.
                          military health care
    Question. What is your assessment of the medical care provided to 
Marines wounded or injured on the battlefield?
    Answer. When Marines go into harm's way, Navy Medicine personnel 
are with them to provide outstanding medical care. Our Marines have a 
special bond with their physicians and corpsmen and this relationship 
has been well-earned over countless generations by caring for our 
wounded Marines on the battlefield. During our most recent conflicts, 
we have seen significant advances in combat casualty care that have led 
to unequalled survival rates for our injured. Throughout all echelons 
of care--from the battlefield to the bedside--we have improved our 
capabilities and rapidly implemented clinical practices that saved 
lives. These efforts have transformed trauma care both in the military 
and the civilian sector. We have also made significant progress in 
treating traumatic brain injuries and post-traumatic stress disorder as 
well as ensured that all our wounded Marines have access to exceptional 
military treatment facilities to aid in their recovery and 
rehabilitation.
    Question. What is your assessment of the health care available to 
Marines and their families in their home stations?
    Answer. Health care is crucial to mission readiness and an 
important component of quality of life for our Marines and their 
families. Marines must be medically ready to meet their demanding 
responsibilities and they also must be confident that their families 
have access to high quality health care. Within the Marine Corps, we 
rely on Navy Medicine to promote, protect and restore our health and 
they perform these responsibilities very well. I am pleased that our 
Marines and their families receive exceptional care at our Navy 
military treatment facilities and will work to ensure this remains a 
priority.
                      family readiness and support
    Question. Marines and their families in both the Active and Reserve 
components have made, and continue to make, tremendous sacrifices in 
support of operational deployments. Senior military leaders have warned 
of concerns among military families as a result of the stress of 
deployments and the separations that go with them.
    What do you consider to be the most important family readiness 
issues in the Marine Corps, and, if confirmed, how would you ensure 
that family readiness needs are addressed and adequately resourced, 
especially in light of current fiscal constraints?
    Answer. The most important issues are providing timely and accurate 
communication to our Marines and their families while properly 
resourcing the support functions on our bases and stations. If 
confirmed, I will ensure the Marine Corps provides Marines and families 
with a comprehensive and effective community-based support system. In 
this time of fiscal constraint, I will have to prioritize our core 
programs that support the Marine warfighter and families.
                    morale, welfare, and recreation
    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, especially in light of deployments. These programs must be 
relevant and attractive to all eligible users, including Active Duty 
and Reserve personnel, retirees, and their eligible family members.
    What challenges do you foresee in sustaining and enhancing Marine 
Corps MWR programs, particularly in view of the current fiscal 
environment and, if confirmed, are there any improvements you would 
seek to achieve?
    Answer. Our greatest challenges are the fiscal realities of 
sequestration. If confirmed, I will ensure that we sustain priority 
programs that support the health, welfare and morale of our Marines and 
families. Ensuring access to those programs that support these 
priorities is paramount. I will also maintain a dialogue with our 
Marines and families to ensure that our MWR programs adapt to meet 
their highest priority needs.
                           suicide prevention
    Question. The numbers of suicides in each of the services continue 
to be of great concern to the Committee.
    If confirmed, what role would you play in shaping suicide 
prevention programs and policies for the Marine Corps to prevent 
suicide and increase the resiliency of Marines and their families?
    Answer. Suicide prevention is a leadership issue. Leadership 
attention to risk factors has helped reduce deaths; however, we must 
remain vigilant. If confirmed, my priority is to continue the progress 
the Marine Corps is making in reducing deaths by suicide. As leaders, 
it is our duty to reduce barriers associated with seeking help. My 
strategy is to enhance help-seeking behaviors and provide training to 
rapidly identify and provide assistance to those at heightened risk. 
The resiliency and well-being of our Marines and their families will 
remain a top priority.
                       wounded warrior regiments
    Question. Servicemembers who are wounded or injured in combat 
operations deserve the highest priority from their service and the 
Federal Government for support services, healing and recuperation, 
rehabilitation, evaluation for return to duty, successful transition 
from Active Duty if required, and continuing support beyond retirement 
or discharge. Despite the enactment of legislation and renewed emphasis 
over the past several years, many challenges remain.
    What is your assessment of the effectiveness of the Marine Corps 
Wounded Warrior Regiments in facilitating the treatment and management 
of wounded, ill, and injured Marines?
    Answer. The Wounded Warrior Regiment currently meets or exceeds the 
mandates set forth by Congress regarding the facilitation of medical 
and non-medical care for wounded, ill and injured Marines. Through the 
Recovery Coordination Program, we provide essential individualized 
assistance to Marines and families, ensuring we keep faith with those 
who have served. The Marine Corps continuously evaluates our wounded 
warrior and caregiver programs and incorporates lessons learned and 
best practices to improve policies and support. While the landscape of 
warrior care has changed, the Marine Corps remains committed to 
maintaining the services necessary to support Marines and their 
families.
    Question. If confirmed, are there additional strategies and 
resources you would pursue to increase service support for wounded 
Marines, and to monitor their progress in returning to duty or to 
civilian life?
    Answer. We must continue to fund our recovery care coordinators and 
the support they provide to recovering Marines and their families. At 
the same time, we will evaluate the effectiveness of this program over 
time. If confirmed, I will ensure that we are proactively identifying 
symptoms and addressing psychological health needs. The shift in the 
demographic of wounded warriors requires that we focus on care for 
those with behavioral health issues and chronic illnesses. I view this 
as a continuing commitment from the Marine Corps to its Marines. 
Overall, I believe the flexibility of the current program allows the 
services to develop and implement new programs as needs arise, and I 
support this intuitive process.
                 sexual assault prevention and response
    Question. What is your assessment of the problem of sexual assaults 
in the Marine Corps?
    Answer. Sexual assault has no place in our Corps. It not only has a 
long-lasting effect on the individual victim but it also erodes unit 
readiness and command climate. The Marine Corps has placed particular 
emphasis on eliminating sexual assault and I believe we are making 
progress. If confirmed, I will continue to build on the current 
foundation. The bottom line is that even one sexual assault is too many 
and everyone agrees that more needs to be done.
    Question. What is your assessment of the Marine Corps sexual 
assault prevention and response program?
    Answer. I see positive indicators that our SAPR Program is heading 
in the right direction. From FY12 to FY14, there was a 30 percent 
decrease in the number of Marines experiencing unwanted sexual contact. 
In that same time period, the number of victims and bystanders willing 
to file reports increased 94 percent. However, I also believe that 
there is still much work to do. We must continue to increase reporting 
and decrease prevalence. We need to emphasize prevention, instill in 
our Marines the duty to be active and responsible bystanders, and 
integrate the SAPR Program with other aspects of behavioral health.
    Question. What is your view about the role of the chain of command 
in providing necessary support to victims of sexual assault?
    Answer. Commanding Officers are responsible for their Marines, 
including setting positive command climates that both prevent the crime 
of sexual assault and provide a safe, non-retaliatory environment in 
which victims feel confident coming forward to report. We believe that 
the increase in sexual assault reporting is, in part, due to the faith 
and trust our Marines have in their chain of command. In addition, 
commanders ensure that any Marine who files an unrestricted report has 
timely and comprehensive access to supportive services. The fact that 
more Marines file Unrestricted Reports--which automatically trigger 
command notification--shows that Marines find this support invaluable.
    Question. What is your understanding of the adequacy of Navy and 
Marine Corps resources and programs to provide victims of sexual 
assault the medical, psychological, and legal help they need?
    Answer. I understand that the Marine Corps, with help from the 
Navy, provides and continues to expand each of these services. Naval 
medical support for sexual assault victims is more accessible and 
sensitive now than ever before. Victims also have access to non-medical 
counseling services; chaplains to provide pastoral care during on and 
off-business hours; a 24/7 Sexual Assault Helpline at each installation 
provides access to a credentialed victim advocate around the clock; our 
Victims' Legal Counsel Organization (VLCO) confidentially assists each 
victim through the investigation and prosecution process, ensuring that 
victims understand their rights and remain informed. Since standing up 
on 1 Nov 2013, VLCO has provided legal services to over 1,000 victims, 
including military dependents and have represented clients at all 
stages of the military justice process to ensure victims' rights and 
interests are protected. Every major Marine Corps installation has a 
VLCO office, and to date, no eligible victim of sexual assault has been 
turned away from VLC services. However, I fully understand that the 
true measure of the effectiveness of these programs is how well they 
meet the needs of the victim.
    Question. What is your view of the steps the Marine Corps has taken 
to prevent additional sexual assaults both at home station and deployed 
locations?
    Answer. I am encouraged, though not satisfied, by our efforts to 
prevent sexual assault throughout the Marine Corps. Our prevention 
efforts have focused on command climate and bystander intervention.
    These efforts include the development and refinement of innovative 
training tools and programs for use by commanders to educate their 
Marines on the impact of sexual assault and how best to prevent it. 
These initiatives will help us sustain and build upon our efforts to 
reach the stated purpose of the SAPR Program: to reduce--with a goal to 
eliminate--sexual assault from the Corps.
    Regarding sexual assault in deployed locations, I believe, as an 
expeditionary force in readiness, our at-home activities prepare our 
Marines for a deployed environment. Our efforts at home establish the 
baseline for those deploying. Besides the efforts outlined above, our 
pre-deployment SAPR training program includes additional bystander 
intervention and risk reduction strategies. The training also provides 
information pertaining to host country customs, mores, and religious 
practices. In addition, the training identifies first responders who 
will be available during deployment, to include law enforcement, legal, 
sexual assault response coordinators, uniform victim advocates, 
healthcare personnel, and chaplains.
    Question. What is your view of the adequacy of the training and 
resources of the Navy and Marine Corps to investigate and prosecute 
allegations of sexual assault?
    Answer. I am encouraged by the progress we have made in many areas 
of victim response, but our goal is to further improve these services 
so that more victims stay engaged in the process and, as a result, more 
offenders will be held accountable.
    The Marine Corps continues to strengthen the qualification 
standards for all judge advocates handling special victim cases to 
include increased experience, training and prior court-martial 
experience. The Marine Corps places a premium on ensuring each counsel 
is provided with formal training and trial preparation advice, in 
addition to the mentorship and on-the-job training offered by 
supervisory JAs. To this end, the legal community has quadrupled the 
training budget in the last fiscal year. Leading this training and 
advice effort are the Trial and Defense Counsel Assistance Programs 
which provide training and advice by serving as centralized resources 
and helping to spread best practices throughout the regions. In 
addition, the Marine Corps employs six Highly Qualified Experts (HQEs), 
seasoned civilian attorneys with significant experience in complex 
criminal litigation.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults occur?
    Answer. I believe the role of the Commander is central to sexual 
assault prevention within the military. The commanding officer of every 
unit is the centerpiece of an effective and professional warfighting 
organization. They are charged with building and leading their Marines 
to withstand the rigors of combat by establishing the highest level of 
trust throughout their unit. Commanding officers are responsible for 
setting and enforcing a command climate that is non-permissive to 
sexual assault, a climate in which the spirit and intent of the orders 
and regulations that govern the conduct of our duties will be upheld. 
Trust in the Commander and fellow Marines is the essential element in 
everything we do. Developing this trust, dedication, and esprit de 
corps is the responsibility of the commanding officer. They do this by 
setting standards, training to standards, enforcing standards, and 
exemplifying those standards.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. Removal of commanders' convening and disposition authority 
will adversely affect good order, discipline, and combat effectiveness. 
Commanders are responsible for everything that happens within their 
command. Based on their responsibility to maintain good order and 
discipline and to ensure the welfare of every Marine and Sailor in the 
command, commanders exercise their military justice authority as a 
moral imperative.
    Commanders meeting their responsibilities, advised by lawyers 
(SJAs, prosecutors), are in a better position to make a just decision. 
There is no more demanding position than Commander and none more 
carefully selected or closely scrutinized.
    As a practical matter, removing commanders from the military 
justice process in favor of lawyers will result in fewer sexual assault 
prosecutions. Prosecutors tend to focus on prosecutorial merit. 
Assuming the threshold for probable cause is reached, commanders are 
more likely than prosecutors to send a case forward irrespective of the 
chances of getting a conviction.
    Marines must know that their Commander sent a Marine to court-
martial, not an unknown third-party prosecutor, who plays no daily role 
in developing and maintaining the bond of trust essential to combat 
effectiveness. I believe that the trust that is required for good 
order, discipline, and combat effectiveness can only be built and 
maintained when Marines know that commanders have the authority to hold 
accountable marines who violate that trust.
    Question. What additional steps would you take, if confirmed, to 
address the problem of sexual assaults in the Marine Corps?
    Answer. I believe we have made progress, but we still have work to 
do. If confirmed, I plan to further the progress of Marine Corps' SAPR 
efforts and ensure that all Marines are committed to preventing the 
crime of sexual assault. We will continue to implement bystander 
intervention programs, risk reduction measures, focus on offenders, and 
the further integration of SAPR and Behavioral Health issues, such as 
substance abuse. We will also study sexual assault as it relates to 
other, often co-occurring behaviors like sexual harassment and hazing.
    Question. What is your assessment of the effect, if any, of recent 
legislation concerning sexual assault on the prosecution of sexual 
assault cases in the military, including cases where prosecution is 
declined by civilian prosecutors?
    Answer. Since FY12, Congress has passed almost 100 legislative 
provisions to improve sexual assault prevention and reporting. These 
have included provisions to improve and expand reporting and training, 
as well as a host of provisions impacting the legal process, such a 
Victim Legal Counsel and changes to the UCMJ. We have implemented or 
are in process of implementing many of these provisions. We believe 
these changes have helped to increase reporting and provide the victim 
an increased voice in the court-martial process. We think these changes 
need some run time before we feel their full implementation. We 
appreciate Congress' concern on this important issue.
                     amphibious fleet requirements
    Question. How would you characterize the current state of Navy and 
Marine Corps joint operations and what is your vision for the future? 
What gaps or shortfalls exist today? What changes would you advocate to 
strengthen or expand Navy and Marine Corps joint operations?
    Answer. Our ability to work together remains solid and unparalleled 
but is somewhat limited by our shortfall in amphibious warships. We 
currently have only 30 amphibious warships, which is short of our 
fiscally constrained requirement of 33. We won't reach 33 until 2018 
and will not have the correct mix of amphibious warships until 2024. I 
would advocate for the authorization of multi-year and block buy 
procurements of amphibious warships, which would sustain the current 
shipbuilding plan and eventually achieve and maintain the required 
amphibious warship inventory. Further, having additional amphibious 
capacity will enable us to train both our staffs and operating forces 
in a more routine manner above the Amphibious Readiness Group/Marine 
Expeditionary Unit level.
    Question. What alternatives would you consider to augment 
amphibious ships in providing lift to Marine Corps units? In what 
scenarios would these alternatives be necessary and appropriate?
    Answer. There are several alternative platforms that should provide 
an adequate yet limited base of operations. Some of the alternative 
platforms include Mobile Landing Platform (MLP), MLP/Afloat Forward 
Staging Base (AFSB), T-AKE and other platforms contained in the 
Maritime Prepositioning Force (MPF) inventory. Alternative platforms 
can be used in a wide range of assigned Marine Air Ground Task Force 
(MAGTF) seabased operations to meet Combatant Commander requirements. 
These platforms are not warships and have little to no self-protection, 
thus would be more applicable and useful in routine mil-to-mil 
exchanges and exercises, perhaps Humanitarian Assistance/Disaster 
Relief (HA/DR), and other Theater Security Cooperation (TSC) engagement 
roles and missions.
    Question. What is your view of the need for and size of the Navy's 
amphibious fleet?
    Answer. The Department of the Navy's investment in amphibious 
warships represents critical investments that enable Naval forces to 
execute their assigned forward presence and crisis response missions. 
The Chief of Naval Operations (CNO) and current Commandant of the 
Marine Corps (CMC) have determined that the force structure required to 
support a 2.0 Marine Expeditionary Brigade (MEB) Assault Echelon is 38 
amphibious warfare ships, as communicated to the House and Senate 
Appropriations and Armed Services committees by SECNAV/CNO/CMC letter 
dated 7 Jan 2009. Given fiscal constraints, the Department of the Navy 
(DON) determined a minimum inventory of 33 total amphibious warfare 
ships, including 11 LHD/LHA(R), 11 LPD 17, and 11 LSD 41/49s; this 
represents the limit of acceptable risk in meeting the 38-ship 
requirement for the Assault Echelon in a two MEB forcible entry 
operation. The Long Range Plan for Construction of Naval Vessels for 
2015 does not meet the 11/11/11 amphibious warship inventory until 
FY24. It should be noted that with the addition of the 12th LPD, the 
new agreed to fiscally constrained amphibious warship number is 34. 
This inventory provides only the minimum capacity for steady state 
Amphibious Ready Group/Marine Expeditionary Unit deployments and 
single-ship deployments for theater security cooperation activities. 
Furthermore, this inventory does not provide the capacity to support 
additional independent amphibious warship demands, such as maritime 
security operations. A reduction in capacity detracts from the ability 
of the Navy and Marine Corps to accomplish forward presence and crisis 
response missions in today's exceptionally dynamic and uncertain 
operational environment. The disadvantage of not meeting the 
requirement of 38 ships results in our Nation accepting higher risk in 
its ability to rapidly respond to surge demand, an emerging crisis, or 
contingency response.
    Question. What alternatives do you for see if the amphibious fleet 
is allowed to decline in size or capabilities?
    Answer. There is no alternative to our existing amphibious warship 
fleet. However, should future constraints require routine augmentation 
of the amphibious fleet, we will pursue alternative lift platforms in 
much the same way as we are currently exploring today. However, while 
these ships will help bridge the gap to the Combatant Commander demand 
signal for upwards of 54 amphibious ships, they come with significant 
limitations and are more useful during routine engagement operations 
during Phase 0 and Phase 1 operations. Reducing the size or capacity of 
the amphibious fleet will significantly increase the risk and reduce 
the capability to deter aggression, respond to crises, and meet current 
OPLAN requirements.
    Question. What risks are associated with these alternatives?
    Answer. Alternative lift platforms are capable ships and can 
augment, with multiple limitations, selected amphibious warship mission 
sets, but these alternative platforms are not amphibious warships, and 
as such, do not possess the necessary capabilities for full-scale 
conflict. They do not meet the requirements necessary to embark and 
deploy an amphibious assault echelon for forcible entry operations. 
Specifically, they lack adequate force protection and the utility 
required to operate above the permissive level.
                       naval surface fire support
    Question. The DDG-1000 program was initiated to fill the capability 
gap for naval surface fire support. The original requirement for 24 to 
32 DDG-1000 ships, each with two 155mm Advanced Gun Systems, was 
reduced to 12 ships, then to 10 ships, then to 7 ships, and finally to 
3 ships.
    In your view, does the total Navy program, with this significant 
reduction in the number of DDG-1000 destroyers, meet the Marine Corps' 
requirement for naval surface fire support?
    Answer. Current and projected naval surface fire support is 
inadequate. With the truncation of the DDG-1000 program, a maximum of 
six 155mm Advanced Gun Systems will be available for service in the 
fleet when all three ships are fully operational at the end of the 
decade. This will not support the doctrinal capacity requirements of a 
Marine Expeditionary Brigade. Current destroyer and cruiser fleets with 
existing 5"/54 and 5"/62 (Mk 45) lightweight guns have limited 
capability beyond thirteen nautical miles which diminishes the effects 
of naval surface fires in an anti-access, area denial environment. The 
Marine Corps has established a ninety-six nautical mile range 
requirement to meet current operational employment concepts. We are 
supportive of the Navy's hyper-velocity projectile as an interim 
solution and the electro-magnetic railgun as a possible solution in the 
long term. The risk assumed by a lack of surface fires will put 
additional demand on our already taxed tactical aviation assets.
    Question. What other capabilities would you rely upon to help meet 
naval surface fire support requirements?
    Answer. In the absence of adequate naval surface fire support 
capability and capacity, we will rely on manned aviation platforms and 
future armed remotely piloted aircraft delivered fires, and ground-
based artillery and rockets. Naval Surface Fire Support (NSFS), with 
necessary range and effects to support expeditionary operations in the 
littorals, is an essential complementary capability to aviation and 
ground-based indirect fires, referred to as the triad of fires. The 
triad of fires provides a balanced approach. With current capability of 
NSFS being insufficient, we will have to rely on aviation delivered 
fires, and when feasible, ground-based indirect fires. However, 
analysis conducted to date indicates that neither will provide adequate 
capacity in some operational scenarios and during different phases of 
operations (e.g. afloat ground systems will be unavailable to fire in 
support of maneuvering units and aviation units will be heavily tasked 
in an A2AD environment).
                    asia-pacific force dispositions
    Question. Do you believe the planned joint force mix of tactical 
aircraft is sufficient to meet current and future threats in the Asia-
Pacific theater of operations where the ``tyranny of distance'' is such 
a major factor?
    Answer. I would have to defer to the PACOM Commander's assessment 
of the Joint Force tactical aircraft mix requirement. Marine Corps 
aviation is prepared to do its part in supporting operations in the 
PACOM Theater.
    My biggest concern in this area is the degraded readiness of the 
aircraft we currently have on hand.
    Question. Do you believe we have sufficient sealift and airlift 
capabilities to move Marines around the Asia-Pacific Theater for both 
training and contingency purposes?
    Answer. No. There is not enough amphibious warship capability to 
support an assault echelon of two Marine Expeditionary Brigades 
required for contingency response. The Navy and the Marine Corps have 
determined that 38 amphibious warships are needed in the inventory to 
support this requirement. There are 30 amphibious warships in inventory 
today.
    The Department of the Navy (DON) determined a minimum force of 33 
total amphibious warships represents the limit of acceptable risk in 
meeting the 38-ship requirement. Based on a wartime operational 
availability rate of 90 percent, 33 ships [11 LHD/LHA(R), 11 LPD 17, 
and 11 LSD 41/49] are the minimum number in inventory necessary to meet 
the requirement for 30 operationally available warships while taking 
into account those ships in heavy maintenance and modernization periods 
that are unlikely to meet OPLAN timelines. The amphibious force 
inventory will reach the 11/11/11 requirement in FY24 with the delivery 
of LHA 8.
    Helping to bridge the shortfall of intratheater lift for training 
is the JHSV. For example, a JHSV will be based in Guam in order to 
fulfill lift requirements for the training hub in Guam and the Marianas 
Islands. JHSV helps to fulfill this requirement by providing the lift 
for Marines traveling to Tinian to utilize the range proposed for 
Tinian. JHSV is also planned to be based in other areas in the Asia-
Pacific, such as Singapore, to fulfill similar training requirements 
throughout the AOR.
    Question. What alternative concept of operations, platforms, and 
basing opportunities exist to address potential shortfalls in this 
area?
    Answer. There are no alternatives that have been developed to 
mitigate the wartime or contingency response requirement for an 
amphibious fleet.
    The Navy's Military Sealift Command (MSC) maintains numerous 
auxiliary platforms (T-AKE, MLP, AFSB, LMSR, JHSV, etc.) which have 
been successfully used in Phase 0/1 operations. MARFORPAC routinely 
uses T-AKEs for Theater Security Cooperation events in the Asia-Pacific 
Theater. The Navy is exploring additional Phase 0/1 tasking options for 
MSC vessels in order to free combatant vessels for higher level 
tasking.
    MSC contracts the high speed transport ship WESTPAC Express to 
rapidly move Marines throughout the Asia-Pacific Theater. The Joint 
High Speed Vessel (JHSV) will complement the requirement for intra-
theater lift of Marines when it is deployed to the Asia-Pacific 
Theater.
                        anti-access/area denial
    Question. Over the past few years, much has been made of the 
emerging anti-access and area denial capabilities of certain countries 
and the prospect that these capabilities may in the future limit the 
maritime freedom of movement and action in certain regions.
    Do you believe emerging anti-access and area denial capabilities 
are a concern?
    Answer. Yes, the United States faces a growing range of challenges 
in gaining access and operating freely in the maritime, air, and cyber 
commons. Most prominently, the proliferation of technologies that 
allows potential adversaries to threaten naval and air forces at 
greater ranges complicates our access to some regions (anti-access), as 
well as our ability to maneuver within those regions (area denial), 
including the littoral and landward areas. These technologies include 
long-range ballistic and cruise missiles supported by state of-the-art 
command and control, and integrated targeting networks; guided rockets, 
artillery, missiles, and mortars; advanced submarines and ``smart'' 
mines; advanced integrated air defense systems; fifth-generation 
fighter aircraft with enhanced sensors and weapons; and electronic 
warfare, cyber, and space capabilities. Certainly a distinct challenge 
during wartime, these military technologies are also a concern in 
peacetime. For example, the free flow of goods and services can be 
threatened or impeded by state or non-state actors employing A2/AD 
technologies in key maritime crossroads.
    Question. If so, what do you believe joint forces need to be doing 
now and in the next few years to ensure continued access to all 
strategically important segments of the maritime domain?
    Answer. We need to pursue a multifaceted approach, as we are, in 
fact, already doing. For example, Marines in the operating forces are 
strengthening and expanding our partnerships with friendly nations that 
share our concerns. These partnership activities often result in new 
opportunities for basing U.S. Forces overseas or increased options for 
temporary support during emerging contingencies. Partnership activities 
also help improve interoperability so that we have greater capability 
and capacity to defeat such threats. Concurrently, the Air-Sea Battle 
concept looked at the problem from a system versus system perspective. 
The insights from that effort generated understanding that a limited 
number of exquisite systems can always be overwhelmed by an 
exponentially larger number of simple, inexpensive systems: a six-shot 
revolver is better than a bow and arrow, and may even defeat six bows 
and arrows, but is quickly overwhelmed by 100 bows and arrows. These 
ASB insights have been subsumed into a more comprehensive effort, Joint 
Access and Maneuver in the Global Commons, which looks at the ways and 
means to defeat adversary strategies, not just systems. That effort 
will address issues such as the use of all domains: air, land, sea, 
space and cyber to create access. This 5 Domain joint force will be 
capable of creating the conditions to project military power in 
contested areas with freedom of action. This concept will also explore 
distributed MAGTF maneuver, expeditionary advanced base operations, 
streamlining and integrating our intelligence and operations functions, 
and fully networking the naval team. What we envision is an integrated 
naval force--a network of sensors, shooters, and information sharers, 
afloat and ashore. The final goal is not to set conditions everywhere, 
but to set the conditions we require at the right time and place of our 
choosing to achieve superiority in a manner with which the enemy cannot 
cope.
    Question. If confirmed, you would play an important role in the 
process of transforming to meet new and emerging threats?
    Answer. The senior leadership of the Navy and Marine Corps convened 
this past June to develop the guidance that is driving the Littoral 
Operations in a Contested Environment concept. I was directly involved 
with that in my present assignment as Commanding General, Marine Corps 
Forces Command--just as I've been directly involved in major Navy-
Marine Corps exercises, such as Bold Alligator--in improving our 
ability to operate in A2AD contested regions. If confirmed as 
Commandant, I'll continue to build upon that unified naval effort, not 
only by working with the Chief of Naval Operations to provide unified 
guidance and direction, but by ensuring the right leaders are in place 
at the appropriate subordinate echelons. Further our efforts as a naval 
force will be integrated with our joint and coalition partners. On that 
end I will continue to work on our interoperability and compatibility.
    Question. Concerning capability and capacity to meet new and 
emerging threats, what are your goals regarding transformation of the 
Marine Corps?
    Answer. The Marine Corps has historically been a very adaptive 
organization. Conceptually, I think we are already on the right track 
through the development of Expeditionary Force 21 and the Littoral 
Operations in a Contested Environment concept. My job as Commandant, 
should I be confirmed, will be to ensure our organization and processes 
impart certain time-honored skill sets, knowledge, beliefs, and 
professional judgment to our Marines, while also creating the 
conditions that allowing them to understand and adapt effectively as 
the future unfolds. We will continue to emphasize our expeditionary 
roots and the ability to deploy, employ, and sustain on short notice as 
our nation's force in readiness. Finally we need to continually refine 
how we recruit, train and educate our Marines so that they can fight 
and win regardless of what the future holds. We know that we will face 
chaotic and lethal adversaries. We know that we will often operate in 
the urban littorals where the mental and physical strength of our 
Marines will be challenged. So we know that we must continue to evolve 
and improve the individual Marine. Finally, we face many challenges and 
it is therefore important that we encourage and foster innovation in 
everything we do. We're bringing in great people who want to serve our 
Nation as Marines. It's the Commandant's job to create the conditions 
that allow them to evolve the Marine Corps so that we provide what the 
Nation requires.
                                 china
    Question. How has China's aggressive assertion of territorial and 
maritime claims, particularly in the South China Sea and East China 
Sea, affected security and stability in the region?
    Answer. China's actions in the South and East China Seas, as well 
as its rapid military modernization and growing defense budgets, have 
led many in the region, including the United States, to question its 
long-term intentions. China's vague assertions and enforcement of its 
unilateral territorial claims, as well as their aggressive land 
reclamation efforts in the South China Sea have a destabilizing effect 
in the region and have generated territorial disputes with other 
regional actors. Many of these disputes involve U.S. Treaty Allies and 
partners, with whom we have long-standing cooperation and defense 
commitments. Our Allies and partners in the region are increasingly 
looking to the U.S. for leadership and support in the face of these 
challenges, and so our response to China's challenges to the existing 
international norms and laws should be firm and consistent.
    Question. What is your assessment of the current state of the 
United States-China military relationship?
    Answer. The U.S. military-to-military relationship is a critical 
component of our overall bilateral relationship and an important aspect 
of our regional strategy. This is particularly important as China's 
military modernizes its capabilities and expands its presence, drawing 
our forces into closer contact and increasing both opportunities for 
concrete cooperation, as well as the risk of accidents or 
miscalculations. Currently the military relationship is contributing to 
overall stability in the region by developing patterns of interaction 
and habits of cooperation through both bi-lateral and multilateral 
engagements. This stability allows us to increase measured cooperation 
with China in areas of overlapping interests, while improving our 
ability to manage other aspects of the security relationship. Further 
improvement of our military relationship with China can strengthen 
trust and transparency.
    Question. What are your views regarding China's interest in and 
commitment to improving military relations with the United States?
    Answer. I believe China recognizes the United States will have an 
enduring presence in the Pacific and therefore has a clear interest in 
sustaining military-to-military contacts. If confirmed as CMC, I will 
continue to support United States policy objectives and strategies 
toward China in order to develop areas of practical cooperation and 
risk-mitigation in a way that protects our national interests and 
supports overall stability in the Asia-Pacific region.
    Question. What is your view of the purpose and relative importance 
of sustained military-to-military relations with China?
    Answer. Military to military relations are an important part of not 
only our bi-lateral relationship with China, but is also an important 
facet of our overall strategy to Rebalance to the Asia-Pacific. 
Sustaining a military-to-military relationship with China supports our 
United States objectives by demonstrating to the region that the United 
States and China can engage in practical cooperation in areas of mutual 
interest to deliver public goods and maintain regional stability. 
Sustained military contact with China at the policy and senior leader 
level also provides opportunities to develop common views on the 
international security environment and constructively manage any 
differences. Our overall goal is to promote our national interests by 
reinforcing international norms and standards, and strengthening 
regional understanding, transparency, and familiarity amongst all 
nations in the Asia-Pacific. Our approach to this relationship with 
China must be conducted in a thoughtful way that promotes the common 
interest of regional security and stability.
    Question. What role do you see for the Commandant in this process?
    Answer. I believe that the Commandant of the Marine Corps plays a 
pivotal role to personally sustain meaningful working relationships 
with his counterparts all over the world, particularly in the Asia-
Pacific where we have more than 22,000 Marines forward stationed or 
forward deployed west of the International Dateline. I believe that our 
strong Marine presence in the region plays a significant role in 
promoting the regional security and stability that have afforded many 
Asia-Pacific nations, including China, unprecedented economic growth 
and prosperity. As CMC, I would continue to strengthen our regional 
partnerships, alliances, and the regional security architectures that 
have fostered this positive environment.
                                 russia
    Question. What additional steps, if any, are likely to prove most 
effective at deterring Russian aggression in Eastern Europe?
    Answer. A continued, strong, whole-of-government approach is 
essential. Political and economic consequences are critical aspects of 
the international response to Russian aggression. Militarily, the U.S. 
must remain prepared and committed to our NATO allies and stand ready 
to counter military aggression against NATO members. I believe our 
continued commitment of Article 5-related planning, training, and 
adjustments to U.S. and NATO force posture, to include the basing of 
forces and pre-positioning of material, along with our contributions to 
Operation ATLANTIC RESOLVE, have enhanced readiness and better prepares 
the entire alliance to deter Russian aggression in Eastern Europe.
    Question. What can the Marine Corps do to help NATO?
    Answer. Ultimately, we stand prepared to provide exceptionally 
capable expeditionary forces to fight alongside our allies. These 
forces have been tested in combat for more than a decade and maintain 
constant readiness. These forces also exercise and train regularly with 
our NATO allies--current examples include Exercises SABER STRIKE in 
Lithuania this June and TRIDENT JUNCTURE in Portugal, Spain, and Italy, 
which continues throughout the fall. Such exercises ensure 
interoperability with NATO maritime nations and strengthen teamwork 
throughout the alliance.
    Question. Does the Marine Corps, as part of a combined joint force, 
have what it needs in Europe?
    Answer. The Marine Corps does not have a large force permanently 
postured in Europe, although we have capable and ready forces available 
to respond quickly to emergent crises. Due to a shortfall in United 
States amphibious shipping in the European theater, the Marine Corps 
relies on land-based Special Purpose Marine Air Ground Task Force 
(SPMAGTF), based in Spain to serve as the `most ready and capable' 
Marine crisis response force inside the EUCOM and AFRICOM Areas of 
Responsibility (AORs). However, it should be noted, that while SPMAGTF-
CR-AF is a credible and capable response force, the Marine Corps always 
prefers to respond as a U.S. Navy and Marine Corps Team, such as the 
robust capability sets found in the Marine Expeditionary Unit and 
Amphibious Readiness Group. To further mitigate our risk, we pre-
position equipment, both afloat in our Maritime Pre-positioning 
Squadrons, and in storage caves within Norway. The most potent and 
likely Marine Corps force contributions to large-scale operations in 
Europe would be expeditionary forces, which leverage our strategic 
mobility and operational flexibility. These may include MAGTFs deployed 
on amphibious shipping or transported to Europe via strategic airlift 
and linked up with prepositioned equipment in the theater.
                   army and marine corps cooperation
    Question. What are your views regarding the joint development and 
acquisition of Army and Marine Corps equipment?
    Answer. In my experience, the Marine Corps and the Army collaborate 
whenever our mission profiles converge. From a business perspective, 
collaboration leverages significant Army fiscal, manpower, and test 
resources in the refinement of operational capabilities requirements 
and the research, development, and acquisition of technical solutions 
to meet those requirements. Long term benefits include lower average 
unit costs for both services.
    Question. Do you believe the Joint Staff should have a role in 
synchronizing Army and Marine Corps requirements and service programs?
    Answer. The Army and Marine Corps Board (AMCB) works at every level 
to make sure both services collaborate on best practices. I believe the 
AMCB provides sufficient oversight to synchronize requirements and 
programs.
    Question. What programs would you consider to be candidates for 
joint program development for the Army and Marine Corps?
    Answer. I am confident in knowing the Marine Corps actively seeks 
opportunities where it makes sense to conduct joint program 
development. A partial list of collaborative efforts includes, the 
Joint Light Tactical Vehicle; Joint Battle Command-Platform, Blue Force 
Tracker and Nett Warrior; robotics systems; and more than twenty 
different infantry system programs encompassing direct and indirect 
fire weapons, anti-tank systems, night vision and thermal sighting 
equipment, individual protection such as body armor and helmets, and 
reconnaissance gear.
             marine corps forces special operations command
    Question. Marine Corps Forces, Special Operations Command (MARSOC), 
is a subordinate component command to the U.S. Special Operations 
Command (USSOCOM) established in 2005.
    What is your assessment of the progress made in standing up and 
growing MARSOC, and what do you consider to be the principal issues 
that you would have to address to improve its operations?
    Answer. MARSOC has made tremendous progress over the last nine 
years and has become not only an important component to USSOCOM, but 
has also enabled better interoperability between the Marine Corps and 
USSOCOM. MARSOC has supported combat deployments to Afghanistan where 
Marines have both conducted Village Stability Operations and partnered 
with Afghan National Army Commando Battalions. Marine Raider Battalions 
have recently aligned to USAFRICOM, USCENTCOM and USPACOM to ensure 
Marine SOF provides regionally astute and culturally proficient teams 
and companies to their respective Theater Special Operations Commands.
    MARSOC's professionalization of the force has become commensurate 
with USSOCOM career management and development as the Marine Corps has 
supported the implementation of career paths for enlisted Critical 
Skill Operators, and recently, for Marine Special Operations Officers. 
These career paths allow Marines to serve in MARSOC, or SOF related 
billets, in the Joint Force and MAGTF for the duration of their career. 
Although that in itself is significant, improvements are still needed 
in how and to what level we integrate SOF and special operations 
capabilities in a complementary manner. I believe the SOF-MAGTF linkage 
is critical to ensure the combatant commanders and Joint Force is best 
supported, not only during crisis-response situations, but also as part 
of enduring special operations supporting their Theater Campaign Plans.
                            recapitalization
    Question. The Marine Corps intends to concurrently recapitalize 
several of its front line systems. The MV-22 Osprey tilt-rotor aircraft 
and the Joint Strike Fighter are both in production now.
    Do you believe that these production plans are realistic in light 
of the demands on resources imposed by maintaining current readiness?
    Answer. Yes, absolutely, they are one and the same. Every dollar 
spent on modernization has a direct and tangible effect on current 
readiness. Likewise, every dollar decremented from our procurement of 
future systems increases both the cost and complexity of maintaining 
our legacy systems beyond their projected life.
    The real key to reducing risk in capacity and recovering readiness 
is in recapitalization. We are roughly halfway through our transition 
of every aircraft in our inventory and must constantly balance current 
readiness and modernization to maintain our operational advantage and 
increase it as we buy a newer force.
    Question. Do you believe that these modernization programs will 
survive unless Congress amends the Budget Control Act to eliminate or 
reduce the effects of sequestration for fiscal year 2016 and beyond?
    Answer. If we return to the sequestration-level cuts in Fiscal Year 
2016, we will face serious risks to the modernization plans we 
currently have and may have to reassess the overall modernization 
strategy. This could result in consequences which could lead to reduced 
readiness rates in highly demanded capabilities.
    Question. Is it your understanding that MV-22 readiness rates in 
Iraq, Afghanistan, and in the United States have achieved desired 
levels?
    Answer. The MV-22 has met and exceeded every readiness metric 
during years of wartime flying and CONUS training while clearly 
establishing itself as one of the safest aircraft ever flown. The 
SPMAGTFs have achieved a 75 percent readiness, while the MEUs are at 69 
percent. Fleet-wide readiness has increased from 53 percent to 62 
percent between 2010 to 2015. But, I believe our readiness rates with 
this fantastic aircraft (and all our USMC aircraft for that matter) 
need to be better than that. As a force in readiness I can't have 25-31 
percent of my aviation assets ``down.'' In fact right now, across the 
USMC, 19-20 percent of my aviation assets that are supposed to be on 
the flight line (not in scheduled depot maintenance) aren't able to 
fly. That is unsatisfactory for the nation's force in readiness. I 
intend to work with you to turn that around--quickly.
    Question. In your view, will the MV-22 be sustainable over time at 
an acceptable cost?
    Answer. Yes. The vast capabilities of the aircraft outweigh the 
costs associated with a tiltrotor when compared to conventional rotary 
winged aircraft. The MV-22's ability to travel farther with more 
payload than conventional helicopters helps reduce the logistical 
demands of supporting operations with many more conventional 
helicopters. Cost per flight hour has decreased by 21 percent between 
2010 and 2015. ($11,651 to $9,163 per flight hour). We continue to work 
with all stakeholders to identify ways to drive out cost from MV-22 
sustainment.
                     modernization of capabilities
    Question. The Marine Corps' current concepts for modernization of 
its amphibious capabilities includes ships, ship to near-shore or shore 
connectors--such as the LCAC--and armored amphibious combat vehicles. 
Modernization across these systems is complex, technically challenging, 
and potentially unaffordable given the budget environment today and for 
the foreseeable future.
    What is your assessment of the current capability of amphibious 
maneuver and assault systems in the Navy and Marine Corps?
    Answer. We currently possess the correct amphibious maneuver and 
assault systems to support Combatant Commander engagement and demand 
across the Range Of Military Operations (ROMO). Expeditionary Force-21 
(EF-21) describes the capability and capacity necessary to execute 
MAGTF seabased operations from concept of employment, technology and 
specific Tactics Techniques and Procedures (TTPs) necessary for 
success. We are also a force in transition as new equipment is fielded 
and optimized for seabased application. We will also continue to 
improve naval integration and interoperability between Navy and Marine 
forces as we develop future complementary and supporting capacities and 
capabilities.
    As ACV characteristics and capabilities are developed, they will 
have to be integrated within our future comprehensive surface connector 
strategy. We are actively considering the capabilities and limitations 
of the Navy's current fleet of surface connectors and their future 
development of replacements for those vehicles when developing 
requirements for ACV procurement to ensure interoperability. The Navy 
and Marine Corps are fully integrated on requirements development for 
the ACV. Finally, we ultimately remain committed to a high water speed 
vehicle as part of a complementary family of surface and air 
connectors. We'll continue to work with the Navy on requirements within 
the context of the Surface Connector Council.
    Question. If confirmed, how would you propose to prioritize 
development and acquisition among needed capabilities for sea basing, 
connectors, and armored amphibious assault and tactical mobility ashore 
to achieve your vision for a full spectrum force?
    Answer. In order to achieve a full spectrum force, a balanced 
approach that procures a family of systems is necessary to deliver the 
required capabilities. Amphibious warships and the supporting 
sustainment ships are the foundation for amphibious operations and 
establishment of a seabase. Interoperability of the Seabase with the 
elements of the Marine Air Ground Task Force (MAGTF) is key when 
considering maneuver from the seabase to the objective (Operational 
Maneuver From the Sea (OMFTS)/Ship To Objective Maneuver (STOM)) and is 
accomplished by surface and vertical connector assets (ACV/LCAC/V-22/
HSV/LCU, etc). Current and continued amphibious program development and 
application will provide the needed capability afloat and ashore for 
full spectrum operations. Through leadership and careful consideration 
of the needs of this force, we can prioritize procurement in such a 
manner that we maintain our current competencies while pursuing 
transformational modernization as systems become older. This will allow 
us to avoid equipment obsolescence while building a family of systems 
ready to confront the challenges of the decades to come.
    Question. In your view, what is necessary to ensure that 
modernization of the amphibious force--ships, connectors, and 
vehicles--is achievable and affordable in the near and long term?
    Answer. Fully fund, sustain, and deliver the current USMC and Navy 
Programs Of Record (POR) for procurement and sustainment of MAGTF 
warfighting functions and equipment . . . and sustain the necessary 
support for Navy programs that enable Navy/Marine seabased force 
projection and response. We must ensure delivery of new/improved 
capabilities to the fighting force, and equally important, maintain 
current and legacy equipment to operational and tactical design 
readiness levels. We should also accelerate delivery or return to 
service/improvement of priority programs and equipment that directly 
contribute to higher unit readiness and operational deployability. For 
example, accelerate delivery of LHA-8 and the ACV program, and 
procurement of LX(R) . . . and when feasible due to funding or priority 
constraints/restraints, extend legacy systems/platforms until full 
operational capability (FOC) of the replacement is achieved. These 
actions completed through thoughtful and deliberate programmatics will 
ensure a modern and highly capable seabased MAGTF force for today and 
tomorrow.
    Question. In your view, will projected reduction in Marine Corps 
end strength, if implemented, reduce the Navy's and Marine Corps' 
requirement for amphibious ships?
    Answer. No. There is no direct correlation between Marine Corps end 
strength and amphibious warfare ship requirements. The amphibious 
warfare ship requirement is based on forward presence and rotational 
Amphibious Ready Groups (ARG)/Marine Expeditionary Units (MEU) as well 
as deployment and employment the Assault Echelons (AEs) of two Marine 
Expeditionary Brigades (MEBs). Regardless of end strength, the Marine 
Corps will always possess the ability to generate forward deployed MEUs 
and rotational forces to support day-to-day combatant commander forward 
presence and shaping requirements, as well the ability to generate the 
AEs of two MEBs to support forcible entry operations contained in major 
war plans.
    Question. Given your vision of future high-intensity combined arms 
combat inland, fighting a peer or near peer opponents, are current 
modernization plans and budgets adequate?
    Answer. While the Marine Corps is postured to conduct operations 
across the range of military operations, our highest priority 
modernization efforts are those associated with our core competencies: 
amphibious forcible entry and crisis response. These core competencies 
require continued development of our capabilities for surface and air 
ship-to-shore movement, command and control from a seabase, operational 
reach, and Marine Expeditionary Units, Marine Expeditionary Brigades, 
and Special Purpose Marine Air-Ground Task Forces. Our high priority 
modernization programs have been protected at the expense of both lower 
priority modernization and infrastructure maintenance or development. 
Moreover, fiscal constraints and rapidly changing technology and our 
current acquisition processes prevent necessary and timely investment 
in critical capabilities such as: intelligence, surveillance, 
reconnaissance, cyber, electronic warfare, and information warfare. In 
the end, we must maintain the warfighting capacity to ensure that our 
combined arms Marine Expeditionary Forces are trained and equipped to 
meet an uncertain future.
    Furthermore, a return to BCA-level spending/full sequestration 
would further exacerbate institutional readiness imbalances. More 
tradeoffs would be made in acquisitions of needed equipment, essential 
training, living and work spaces, family support centers, and end 
strength to protect the Marine Corps' performance of its statutory 
obligations. Sequestration impacts on key modernization programs will 
have catastrophic effects on achieving desired capabilities to defeat 
emerging threats and will place an unacceptable burden on legacy 
programs such as the AAV (40 + y/o) and the HMMWV (out of productions 
since 2012).
                       amphibious combat vehicle
    Question. The Navy/Marine Corps amphibious assault capability today 
includes a large number of self-deploying amphibious assault vehicles 
(AAV-7) to carry infantry ashore, and a smaller number of small vessels 
called connectors that can ferry other vehicles, such as tanks and 
artillery, and supplies from ships to shore.
    The Marine Corps has changed its plans for development of a next-
generation armored combat vehicle. Instead of investing in development 
of a new self-deploying amphibious assault tracked combat vehicle, the 
Marine Corps intends to reduce technical and fiscal risk by acquiring a 
wheeled combat vehicle. Currently four foreign designs are being 
evaluated. A down select to two is scheduled to occur within months. 
The two finalists are to be evaluated in splash tests designed to 
assess effectiveness in amphibious movement from assault ship to shore.
    Is the USMC confident that these foreign-designed wheeled armored 
personnel carriers as observed to date will be able to swim in combat 
conditions, and in varying sea states?
    Answer. Yes, we are confident that at least two contractors will be 
capable of delivering prototypes with the capacity to achieve water 
mobility performance on par with or greater than our existing assault 
amphibian along with the capabilities needed for the landward portion 
of the ACV mission profile. The Marine Corps has conducted extensive 
open-ocean and surf zone testing of various prototype 8x8 armored 
personnel carriers that represent current available technology. This 
testing contributed to the development of both our ACV requirements and 
our over-arching modernization strategy.
    It should be noted that only two of the five proposed designs for 
ACV 1.1 are based on foreign designs--one of which was specifically 
required to enable the conduct of amphibious operations for that 
nation's naval infantry.
    Question. If the wheeled vehicles cannot swim, what is the 
operational risk that the U.S. Navy may be unable to carry a sufficient 
number of connectors to transport all of the wheeled personnel carriers 
ashore within the required time period?
    Answer. In order to rapidly build up combat power ashore we need 
self-deploying amphibious combat vehicles. Our Ground Combat and 
Tactical Vehicle Strategy (GCTVS) is predicated upon maintaining this 
capability. Nonetheless, we still rely heavily on the Navy to enable 
our surface movement from ship to shore using the inventory of Landing 
Craft Air Cushion (LCAC) and Landing Craft Utility (LCU) connectors. If 
the ACV cannot swim, the number of sorties carried out by surface 
connectors will increase, which will in turn lengthen the time it takes 
to place decisive capabilities on the objective and place the force and 
mission at risk.
    Importantly, I believe the basis of this question will prove to be 
counterfactual. I am confident that the ACV will possess the capacity 
to achieve water mobility performance on par with or greater than our 
existing assault amphibian. That said, our phased modernization 
strategy mitigates risk to the Marine Corps' ability to sustain surface 
forcible entry through the development and subsequent employment of 
complementary amphibious armored personnel carriers. The current AAV is 
undergoing a survivability upgrade and a focused sustainment 
improvement regimen. Simultaneously, the wheeled portion or other two 
thirds of our required armored lift will be fielded and incrementally 
improved to ensure the full range of required capabilities are 
available via ACV. Finally, the strategy allows for the replacement of 
the upgraded AAV in the mid-2030's. This replacement will be informed 
by a mid-2020s decision point regarding the achievability and 
application of high water speed capability and a comprehensive 
assessment of ship-to-shore options.
    Question. Do you support the Marine Corps' decision to develop and 
field a wheeled armored vehicle to replace the AAV-7, the current 
amphibious assault vehicle?
    Answer. Yes, the current phased modernization strategy provides a 
responsible means to realize significant near term improvements in 
capability while sustaining surface assault capacity without high 
acquisition risk and cost. The combination of modernized AAV and 
incrementally improved and fielded Amphibious Combat Vehicles (ACV) is 
a well thought out portfolio approach that balances the competing 
demands of performance, cost and, schedule in a period of marked fiscal 
constraints while providing the Marine Corps with multiple options to 
adapt as the future unfolds. The improved capabilities inherent in our 
current ACV competitors will provide our Marines with superior mobility 
on the modern battlefield.
    Question. In your view, where does armored amphibious assault fit 
in the set of capabilities required to field a credible amphibious 
operations capability?
    Answer. Armored amphibious surface assault is absolutely essential 
to our ability to field a credible amphibious capability that poses 
menacing dilemmas simultaneously and in depth across all domains; air, 
maritime, land, cyber, and space. To this end, surface assault elements 
will complement, and be complemented by, vertical envelopment 
capabilities (CH-53K, MV-22). These maneuver elements will work in 
concert with capabilities that provide Naval and Aviation fires 
(manned--F35 and unmanned--UAS / UAX), and other defensive and 
offensive (Electronic Warfare, Cyber, Information Operations) 
capabilities. Of course, this dynamic collective capability, which will 
operate from the sea base--often distributed--will be synchronized with 
command and control systems and logistics sustainment. With this, we 
must always view amphibious operations within a Joint construct. The 
salient point is that each of these capabilities relies upon one 
another to generate the synergy, tempo, kinetic, and cognitive effect 
necessary to impose our will on our adversaries.
    The increased likelihood of operations in the littorals requires a 
renewed focus on the Marine Corps' responsibility to be organized, 
trained and equipped, ``for service with the fleet in the seizure and 
defense of advanced naval bases.'' The Naval services have long sought 
to develop complementary means of conducting vertical and surface 
littoral maneuver from increased distances, and via multiple 
penetration points, using the sea as maneuver space to offset the range 
and precision of modern weapons.
                           f-35b requirements
    Question. The Marine Corps has stated that its F-35B requirement is 
420 aircraft. The total number of F-35s planned for the Department of 
the Navy is currently set at 680.
    Do you believe that the current plan for 680 aircraft can fully 
accommodate the needs of both the Navy and the Marine Corps?
    Answer. The Marine Corps has looked at this number carefully a 
number of times based on our global commitments, plans, COCOM 
requirements, and the national defense strategy. In 2013 McKinsey and 
Company was hired by AT&L to do an F-35 Operations and Sustainment Cost 
Reduction Strategy study. The study applied requirements of the 
National Defense Strategy to include deployment and warfighting 
contingencies. The results of that study were that the Marine Corps was 
buying the right number of aircraft.
    Answer. In near term, however, we are not buying enough airplanes. 
Our legacy airframes are aging and have been supporting combat 
operations for 15 straight years. Continuing to repair and modernize 
those aircraft will only get us so far and we are beyond the point now 
where we need to recapitalize the fleet. We have driven efficiency into 
our procurement plan and as a result, our total aircraft inventory 
today is 10 percent larger than what our inventory will be at the 
completion of the F-35 transition.
    Question. How do you assess the progress of the first squadron to 
be equipped with the F-35B as they complete fielding? Are they on track 
to achieve initial operational capabilities on time?
    Answer. I believe we are on track to achieve initial operational 
capability. The Deputy Commandant for Aviation sent a team to assess 
the IOC readiness of that squadron last week. I've been informed that 
the inspection went well. The current Commandant is analyzing the data 
from the event and is expected to make a statement about it soon.
                                  -53k
    Question. The first flight for the CH-53K has been postponed once 
again, the latest delay of many for the $25 billion program.
    What is your assessment of the current status of the CH-53K 
program? Is it on track to achieve initial operational capabilities on 
time?
    Answer. The CH-53K will transition to first flight this year and 
production is on a schedule that meets the timeline for delivering 
aircraft as currently planned and budgeted. The recent CH-53K technical 
challenges have been overcome and developmental test continues. 
Progress continues in all phases of the program and we have no major 
emerging concerns. Developmental Test revealed minor developmental 
discoveries. These discoveries are normal for any new program of this 
type. We believe that finding these issues prior to first flight will 
ultimately improve testing efficiency.
    Question. What is the effect of the CH-53K delays on the CH-53E 
fleet? On overall USMC readiness?
    Answer. The CH-53E transition to the CH-53K is already slow due to 
the shallow ramp rate in production and the transition scheduled to be 
complete by 2028. Consequently, we will have to continue to operate the 
CH-53E for a longer period of time than originally planned. We 
currently have a shortage of CH-53Es, and that problem is exacerbated 
by the need to operate the legacy fleet longer than anticipated. We 
have a major four year readiness recovery program in the making to 
ensure we gain maximum service life and capability from the 53E fleet. 
However, we can't sustain the 53E indefinitely and any future budgetary 
reductions to the CH-53K program will aggravate this situation. The 
Marine Corps is strongly committed to keeping the program on track and 
keeping the Program of Record buy in order to avoid the inventory 
shortfalls we are experiencing now.
                       joint acquisition programs
    Question. What are your views regarding joint acquisition programs, 
such as the Joint Tactical Radio System and the Joint Strike Fighter?
    Answer. I support joint solutions to common capability gaps. 
Working with other Services is, and always has been, a major element of 
the Marine Corps overall Research and Development (R&D) and Procurement 
strategy. Our limited budgets demand that we adhere rigorously to the 
well-established Department of Defense (DOD) hierarchy of materiel 
alternatives. If we cannot find a solution to our materiel needs in the 
commercial marketplace, we always look next to take advantage of 
investments that other Services, DOD Components, or our foreign 
partners are making. This reduces our need to spend R&D dollars on 
unilateral efforts, and it gives all participants involved with joint 
programs the opportunity to reduce unit procurement costs, and 
ultimately, life-cycle operation and maintenance costs. The end result 
is realized in the form of commonality and affordability across the 
Services making it much easier to share sustainment resources such as 
training, maintenance equipment, and supplies.
    Question. Do you see utility in encouraging the services to conduct 
more joint development, especially in the area of helicopters and 
unmanned systems?
    Answer. Yes. Encouraging joint development begins with 
collaboration of requirements during the Joint Capabilities Integration 
and Development System process and the Joint Requirements Oversight 
Council (JROC). This is a key element of fostering joint development 
among the Services. The Marine Corps is working with the Army on 
unmanned systems and robotics.
    Question. If so, what enforcement mechanisms would you recommend 
implementing more joint program acquisition?
    Answer. Within the Department of Defense, the enforcement 
mechanisms are well established. The JROC plays an important role in 
harmonizing the Services warfighting requirements and ensuring that 
joint program opportunities are fully examined.
                          religious guidelines
    Question. American military personnel routinely deploy to locations 
around the world where they must engage and work effectively with 
allies and with host-country nationals whose faiths and beliefs may be 
different than their own. For many other cultures, religious faith is 
not a purely personal and private matter; it is the foundation of their 
culture and society. Learning to respect the different faiths and 
beliefs of others, and to understand how accommodating different views 
can contribute to a diverse force is, some would argue, an essential 
skill to operational effectiveness.
    In your view, do policies concerning religious accommodation in the 
military appropriately accommodate the free exercise of religion and 
other beliefs, including individual expressions of belief, without 
impinging on those who have different beliefs, including no religious 
belief?
    Answer. Yes, the religious accommodation policies are sufficient. 
They strike a balance between individual expression of belief and the 
needs of the Marine Corps to maintain good order and discipline, unit 
cohesion, military readiness, and combat effectiveness.
    Question. Under current law and policy, are individual expressions 
of belief accommodated so long as they do not impact unit cohesion and 
good order and discipline?
    Answer. Yes, however we must also consider any impact on military 
readiness and combat effectiveness.
    Question. In your view, does a military climate that welcomes and 
respects open and candid discussions about personal religious faith and 
beliefs in a home-port environment contribute in a positive way to 
preparing U.S. forces to be effective in overseas assignments?
    Answer. The Marine Corps respects individuals' personal religious 
faith and we believe that the current policy accommodates our Marines 
and balances individual beliefs with the needs of the Marine Corps.
    Question. Would a policy that discourages open discussions about 
personal faith and beliefs be more or less effective at preparing 
servicemembers to work and operate in a pluralistic environment?
    Answer. The Marine Corps respects individuals' personal religious 
faith and we believe that the current policy accommodates our Marines 
and balances individual beliefs with the needs of the Marine Corps.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this Committee and other appropriate committees of the Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the Administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
Committee, or designated members of this Committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commandant of the Marine 
Corps?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this Committee and 
its staff and other appropriate Committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.

    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                         counter-isil strategy
    1. Senator McCain. Is our current strategy against ISIL succeeding?
    General Neller. To date, our strategy is not succeeding. Though we 
have made it difficult for ISIL to operate openly in many areas, and we 
are supporting allies who are confronting ISIL on the battlefield with 
some success, ISIL still holds many of the areas they have gained, and 
they appear to have traction with and support from many in the region. 
They remain positioned in Iraq, have made gains in Syria, have 
established a presence in Libya and have gained adherence from Boko 
Haram in Nigeria, Al Shabab in Somalia and even some Taliban in 
Afghanistan. Additionally, and as concerning, is the impact their 
information campaign has had in gaining recruits willing to travel to 
join them especially from the Western World and to radicalize others in 
the homeland of the U.S. and our allies, to execute acts of terror at 
home. They are both a threat as a physical force and in their ability 
to incite terrorist actions through their messaging.

    2. Senator McCain. Are the ends, ways and means of this strategy 
aligned to achieve the goal of degrading and destroying ISIL in a 
duration of time that does not pose unacceptable levels of risk to U.S. 
national security interests?
    General Neller. To defeat any adversary, all elements of national 
power must be employed with sufficient and comparable effort to do so, 
and at present this does not appear to be the case. I say that tempered 
by the fact in my current assignment, I am not immersed on a daily 
basis in the national strategy. If confirmed, this would be something 
that would have my personal attention. That said, based on our current 
level of effort in the military LOOs, and the success thus far achieved 
in denying a sanctuary and Building Partner Capacity (BPC), unless 
changed by some yet to be seen dynamic, e.g., a change in the 
leadership of the primary combatants or their primary supporters, or a 
greater commitment of Turkish or GCC forces to ground offensive action 
in Iraq and/or Syria, I believe the campaign timeline to ``defeat'' 
ISIL at the current level of effort and the success of the current LOOs 
must be viewed in years.

    3. Senator McCain. You characterized the current conflict with ISIL 
in Iraq and Syria as a ``stalemate.'' You said that neither side is 
winning. However, as General David Petraeus has said about the fight 
against ISIL, ``these are fights where, if you are not winning, you are 
probably losing, because time in not on your side? Would you agree with 
that assessment?
    General Neller. I would agree that a stalemate with ISIL is not an 
acceptable option for the United States or its allies, if only because 
stalemate, as a resolution, permits the establishment and continuation 
of what would become a nation state that is engaged in hostilities with 
U.S. interests. At the tactical level today, I see a stalemate. After 
the appearance of ISIL on the battlefield in Syria, and then in Iraq, 
they made rapid gains. In Iraq, these gains were partially due to the 
poor leadership and readiness of the Iraqi Security Forces but also due 
to the disenfranchisement of the Iraqi Sunni in the areas where ISIL 
made their advances. These advances have been stopped and to some 
degree reversed, due in some part to the actions of the U.S. and other 
coalition members, but until the territorial integrity of Iraq is 
reestablished there will be no ``win.'' Further, it is important to 
recognize there are financial costs associated with war, and all are 
aware of fiscal situation of this country and many others. In this 
regard, I believe Gen Petraeus is correct. For this to drag on without 
an end in sight will challenge us not only fiscally, but from the 
perspective of the support of the American people, which is critical to 
any U.S. military effort. The best way to gain the support of the 
American people is to be successful. We are not winning, in the sense 
that the metrics one would expect to see in a successful military 
campaign are not necessarily evident.

    4. Senator McCain. Have our operations to date seized the strategic 
and operational initiative from ISIL? If not, why?
    General Neller. No, to date, they have not. Our actions in support 
of the Iraqi Security Forces did stop the ISIL advance and push it back 
to the current state. Since then Ramadi and Fallujah have fallen and at 
this time, ISF operations supported by Shiite Popular Militia Forces 
supported by Iran are attempting to take back these towns and to push 
ISIL back from the Bajii area. The Kurds in the north are holding/
making some progress. If the Iraqi's were able to apply pressure on 
ISIL in multiple areas at the same time it would force ISIL to fight on 
multiple fronts, increasing the possibility of collapsing the ISIL 
forces in Iraq. So at the operational level of the campaign they have 
not seized the initiative.
    Without being there to see with my own eyes I am not well 
positioned to answer the ``why not.'' Based on what I have read in open 
source materials, the ISF lacks the aggressive spirit and combat 
leaders to take the fight to the enemy. ISIL is willing to fight and 
die for their cause. Strategically, I cannot speak of how all the 
coalition, especially the GCC nations who have a stake in this fight, 
are working together to synchronize their efforts, not just militarily 
but across all the elements of national power. The United States cannot 
do this alone and must build a coalition for both Iraq and for Syria to 
take the fight to ISIL and stabilize the region as a whole.

    5. Senator McCain. Our current counter-ISIL strategy assumes that, 
with enough United States and coalition training, assistance, and 
support, including air strikes, ground forces in Iraq and Syria will 
develop sufficient capability and will to go on the offensive against 
ISIL, defeat them on the ground, take back territory in their countries 
from ISIL, and put ISIL on the path to defeat. Do you think this 
assumption about Iraqi and Syrian forces is realistic? If not, how 
would our strategy have to change in order to maintain our goals of 
degrading and destroying ISIL?
    General Neller. Based on my experience with the Iraqis, though now 
somewhat dated, I believe the assumption for Iraqi forces is realistic. 
There is at least a standing force to begin with and I believe they can 
be trained to defeat ISIL. To do so they need equipment and training to 
fight as a unit. More importantly, they must be paid, have a reasonable 
belief that if wounded they will receive medical care, and if they die 
their family will receive something. Most importantly, they must have 
good leadership. Finally, all of this will be for naught if the Bagdad 
government does not provide an equitable level of support to the Sunni 
Iraqis and treat them in a just way. This is probably the most 
difficult piece and the part which if it is not corrected will continue 
to fuel a Sunni insurgency against the Baghdad government. At the end 
of the day, the Iraqis have to fight the fight and win the fight. They 
can do this.
    Though I have met with the Jordanian leadership on several 
occasions from 2012-2013, my sense of the fight in Syria is dated. I 
have no sense of the quality, skill, intelligence, and motivation of 
those who are being trained to fight against ISIL, so based on that and 
based on the results achieved thus far, my military opinion is that 
this will be much more difficult. As I stated in my testimony, Iraq is 
complicated but at least all but ISIL are on the same side of the line 
of contact. Syria is exponentially more complex due to all the various 
players: the Assad regime, Russia, Iran/IRGC, Hezbollah, Lebanon, and 
Israel, Syrian Opposition factions, Al Nusra, Kurds, Turkey, Jordan, 
the GCC nations and ISIL who fight on one comingled battlespace.

    6. Senator McCain. Given the attacks conducted in Little Rock, 
Arkansas; Fort Hood, Texas; and Chattanooga, Tennessee, should our 
soldiers, sailors and airmen, and marines serving in the United States 
be armed to protect themselves? If so, what should commanders account 
for in training, operations and threat assessments?
    General Neller. First and foremost, it must be our absolute 
priority to provide adequate protection to our servicemembers, 
regardless of duty station. We need to remain ever vigilant and 
prepared to modify our posture based on the threats we face. These 
measures already include the presence of armed security at our gates, 
base security forces/Military Police, and unit duty officers being 
armed and other force protection processes and measures in place. 
Additional measures can be put in place when called for.
    While I am confident that the security of our major bases in the 
Marine Corps is adequate to protect the force and our families on base, 
security at our approximately 1500 Recruiting Stations/Sub Stations and 
approximately 150 Reserve Centers, many of which we share with other 
Services, are somewhat less secure. Our Reserve Centers could more 
easily have armed servicemembers on duty since they have weapons 
present and a means to secure them. I believe we are doing this at the 
present time, in compliance with state and local laws, and where the 
marine bearing the weapon has met all the qualifications to carry a 
weapon and has received the necessary instruction in the rules of use 
of force.
    Recruiting stations are the most problematic. At present, there are 
limitations on storage for ammunition and weapons in some locations. We 
could remedy this, but it will take time and funding, all of which can 
be provided. Another important consideration to me is the time taken 
away from the recruiting mission to perform and sustain these 
requirements, and more importantly time taken away from efforts to find 
and recruit the best men and women to be U.S. Marines and the potential 
that bearing arms might restrict recruiters' access to the places where 
they find these same young Americans--high schools and college 
campuses.
    I have a responsibility to protect all our marines and their 
families. The safety of the force will be among my highest priorities 
and I will be paying close attention to the investigations and 
Secretary of Defense directed reviews into the recent tragedy in 
Chattanooga to identify areas where we can make improvements, including 
examining whether and how to arm the force. I will also seek the views 
of the recruiting force on this issue. In the meantime, we must look at 
immediate improvements to harden their facilities as well as other 
security actions that we can implement now.
    I am not ready to say, at this time, that we should. I will make 
force protection one of my highest priorities, including in appropriate 
environments and conditions, arming the force.
    Regarding what commanders should account for in training, 
operations and threat assessments, the Commandant has directed a review 
of our authorities for carrying weapons and policies regarding 
qualifications, training levels and frequency, and applicable 
certifications. That review, and the lessons we glean from the ongoing 
investigations and Secretary of Defense directed reviews into the 
tragedy in Tennessee will inform our way forward. What I can say is 
that we need to proceed with caution when introducing additional armed 
personnel into the public environment.
                                  iran
    7. Senator McCain. How would you characterize the Iranian regime's 
regional ambitions? Do you believe Iran is currently succeeding in 
achieving those regional goals?
    General Neller. In my opinion, Iran sees itself as the preeminent 
power in the Middle East. They believe this is their historical 
heritage and right. Their actions around the region, in support of 
other Shiite followers, have caused instability within existing 
governments, many of whom are allied with the U.S. I believe Iran 
causes problems in Bahrain, and Iranian adventurism will continue to 
find footholds there and elsewhere so long as there is an audience 
predisposed to receive it. So, in varying degrees, Iran is succeeding 
in shaping and changing the political environment in Yemen, Southern 
Lebanon, Syria and Iraq to their view and against United States 
security interests.

    8. Senator McCain. Do you believe that the Assad regime in Syria, 
Houthi forces in Yemen, and Hezbollah are as operationally effective as 
they have been in large part due to Iranian support?
    General Neller. Based on my information and understanding, Iranian 
support, from weapons, training, funding, active participation of 
Iranian advisors and even in some cases units, has been a significant 
contributor to the effectiveness of each of these groups. Hezbollah has 
probably benefitted the most. They are a de facto Iranian state within 
Lebanon that would not have the weaponry or military capability they do 
without Iranian support.

    9. Senator McCain. Do you believe that the United States is doing 
enough to counter Iran's malign influence in Iraq, Syria, and the 
region at large? If not, what more can and should be done?
    General Neller. Wherever possible we should step up our efforts 
against Iran's malign activities. We know that Iran is involved or 
complicit in destabilizing countries from Iraq to Syria, Lebanon, and 
Yemen and throughout the region. It is also clear that Iran uses 
support to militants, support to terrorist groups, and hybrid warfare, 
all of which are eminently activities NOT in the national security 
interests of the United States. It is in our interest to push back in 
every possible way against these destabilizing and damaging actions. 
The Iranians must be watched constantly, and when they violate treaties 
and laws such as through the shipment of illegal arms to their proxies, 
they must be confronted.
    We should be more aggressive in this area, to include sharing 
information about their illegal and destabilizing activities. We must 
never give them a ``pass'' on things they do which are illegal and 
impact our interests and those of our allies. I will endeavor to 
provide my best military advice on any requested military options for 
countering Iranian aggression, whether that aggression is direct or 
through their proxies.
                                 ______
                                 
                 Questions Submitted by Senator Inhofe
                         readiness of the force
    10. Senator Inhofe. How do lower readiness levels and a smaller 
force impact our ability to deter aggression?
    General Neller. The Marine Corps is operating with elevated risk in 
meeting the tenets of the defense strategy. At funding below the 
President's Budget request, we would have less readiness and inadequate 
forward presence to assure allies or respond to crisis in the manner 
needed. The defense strategy requires a sustained ability to deter 
aggression, operate effectively across all domains, and respond 
decisively to emerging crises and contingencies. The Marine Corps, as 
the nation's expeditionary-force-in-readiness, does this by defending 
the homeland with forward presence. Smaller, less ready forces will 
produce fewer forward deployed forces, resulting in increased risk to 
our national security interests.

    11. Senator Inhofe. Should the United States be postured to fight 
two Major Contingency Operations simultaneously? What is the impact of 
only being postured to fight one Major Contingency Operation?
    General Neller. Given the complex global security environment and 
the requirements for safeguarding U.S. interests detailed in our 
national documents such as the National Security Strategy, the National 
Defense Strategy, and the National Military Strategy, we must be able 
to effectively fight our adversaries in more than one theater of war, 
even if our capability only allows for winning in one theater and 
deterring/holding in the other.
    Being postured to fight one Major Contingency Operation reduces the 
military's deterrent effect and would likely reduce the confidence of 
our allies and partners.

    12. Senator Inhofe. Given the current force structure of the Marine 
Corps sized at 182,000 and a global environment that is becoming more 
unstable, how do you get the Marine Corps back to a goal of 1 to 3 
deployment to dwell ratio without growing the Marine Corps knowing the 
world is not getting safer? How much longer can the Marine Corps 
sustain the 1 to 2 ratio?
    General Neller. We believe the optimal size force for the Marine 
Corps is 186,000 marines. As previous Commandants have testified, the 
186K force was designed as a 1:3 deployment to dwell force; however, 
this force is unaffordable. That being said, the American People expect 
the Marine Corps to be nation's force and readiness, and they demand 
that when the Nation is least ready and needs us most, the Marine Corps 
will be the most ready, will answer the call and win. At our current 
size of approximately 184,000, the Marine Corps seeks to allocate 
forces supporting current operations with a deployment-to-dwell range 
of 1:2 to 1:3 for the majority of our units. Utilizing that range, we 
will work with the combatant commanders and provide forces that support 
operational and Service requirements. As an integral part of the Marine 
Corps Total Force, the Marine Corps Reserve will continue to play a key 
role in providing the essential shock absorber for the Active 
Component.
    182,000 is the minimum force where we can meet the combatant 
commanders' requirements and provide a two to one deployment to dwell. 
We are working with the Joint Staff and combatant commanders to develop 
new, different, innovative ways to give the combatant commanders the 
capability they need to meet the mission, and at the same time, buy the 
Marine Corps more dep-to-dwell relief. If we were to go lower than 
182,000 marines, the reduced deployment-to-dwell ratios would increase 
the risk to the force, the time we need to prepare for deployments, and 
sustain our readiness and our ability to meet combatant commander's 
requirements.

    13. Senator Inhofe. Given the Marine Corps current state of tiered 
readiness and current global commitments, if a major or even minor 
contingency operation were executed today in one of the COCOMs, is it 
possible the Marine Corps would have to send forces into combat that 
are not fully trained and ready? Would you have to take forces from 
other COCOMs? If yes, what would be the impact on operations in those 
COCOMs?
    General Neller. Today forces that are forward deployed are ready to 
operate and fight tonight. That said, if a major contingency/operation 
arose and the majority/all of the force were required, we would deploy 
them at their current state of readiness. This is not optimal, but if 
necessary, we will do the Nation's bidding. Marines do not run away 
from a crisis or fight. Although we are always committed to generating 
ready forces, a strategic surprise or another situation of vital 
national interest may erupt where national leaders order the deployment 
of forces that are not sufficiently manned, trained, and equipped--
essentially not being fully ready for the mission.
    We will do everything in our power to protect the readiness of 
marines deploying into harm's way and look to the Congress for the 
support required to guarantee this readiness. A return to sequestration 
level spending puts the military on the path to degraded readiness and 
the hollowing of the force. Deploying such an unready force, whose 
readiness could have been protected, is unacceptable.
    If we had a commitment elsewhere, we would take forces that are 
currently forward-deployed, such as in the Far East and Okinawa, and we 
would have to reposition them to wherever that contingency was. We did 
that during the combat in Iraq. The other option--the least favorable-- 
is we go all in. We activate our reserves and we go and do what needs 
to be done. We've done that before, but it's not sustainable for more 
than a short period of time.
    It's a difficult question without knowing the exact size of the 
force, what the exact mission was, what the combat ratios were, what we 
would need to do, and what we would have to accomplish militarily to 
achieve the political objective. Wherever they are assigned around the 
globe, the combatant commanders will get Marines who are smart, fit, 
disciplined, trained, experienced, take care of each other, and are 
ready to fight tonight and to provide what America expects of her 
Marine Corps: an expeditionary crisis response force in readiness.
                         security of the force
    14. Senator Inhofe. Do we need to reassess our security levels, 
rules of engagement, training requirements, ability to increase manning 
of armed security personnel, and authorization for military personnel 
to carry government firearms both concealed and openly carry to and 
from duty?
    General Neller. We learned a great deal in the aftermath of the 
Washington Navy Yard shooting and developed a comprehensive list of 
recommendations that was approved by both Secretary of the Navy and the 
Secretary of Defense. The recommendations became a task list that 
included directed improvements specific to both Marine Forces Reserve 
and Marine Corps Recruiting Command. In addressing Chattanooga, we've 
reconstituted the Washington Navy Yard Integrated Product Team to 
ensure that the earlier work informs our observations for the future.
    USMC actions following the 16 July Chattanooga shooting will focus 
on the following: Arming/Enhanced Security Postures, Improved Physical 
Security, and Alert & Notification/Information Sharing. While a great 
deal of emphasis is being placed on the arming of personnel, we also 
need to look at the long-term and sustainable approach to improving the 
physical security of our facilities. We know that we have challenges in 
our desire to improve mass notification and warning capabilities at our 
off-installation facilities, and we're exploring a number of possible 
solutions; nothing is off the table. The recent events have identified 
a continuing risk that all military personnel face every day while 
carrying out their duties, and we must ensure that we are prepared and 
ready to address this risk. To continue supporting the security and 
safety of our Marines, a review of security, force protection, and 
arming policies has been conducted. All our commanders have been 
directed to conduct a review of their current antiterrorism, physical 
security and force protection policies, procedures, and measures. If 
higher guidance or local conditions were to require the arming of 
security personnel, commanders are charged to ensure that all 
applicable requirements are properly addressed, documented, and 
enforced.
    Rules for the use of force are in place, and weapons qualification 
and training requirements are well-documented. Aboard our 
installations, we have a cadre of Military Police and Civilian Police 
officers who provide 24 hour security. Commanders have established 
auxiliary security forces aboard the installations to augment law 
enforcement personnel in the event of increased force protection 
requirements or emergencies. Commanders also have authorities to 
establish Camp Guard units.
    Commanders have authority to allow personnel to carry concealed 
weapons in the performance of their duties and all authorizations are 
provided in writing. Open carrying of weapons is currently limited to 
personnel in an on-duty status. The ability to carry weapons to and 
from duty is limited by policy to General Officers and Criminal 
Investigators.
                providing lethal weapons to the ukraine
    15. Senator Inhofe. In your opinion, what types of lethal weapons 
and assistance should the United States be providing the Ukraine to 
help defend their terrorist?
    General Neller. Russian aggression and their support to separatists 
in Ukraine and elsewhere are deeply troubling. That said, given the 
nature of the crisis, the pursuit of a diplomatic solution remains the 
optimal way to achieve a resolution consistent with our national 
interests and the interests of our allies in the region. In the 
meantime, we should continue the provision of non-lethal supplies and 
defensive equipment (counter fire radars) and ISR support to Ukraine 
and continue our training of their forces. If, in the future, the 
dynamics in Ukraine necessitate a more robust military response, I 
would recommend the provision of weapons and systems--such as anti-
armor weapons--and the commensurate trainers to employ the weapons 
capable of effectively countering the battlefield threats the Ukrainian 
military feels they need the most assistance in defeating.
                                 ______
                                 
                 Questions Submitted by Senator Cotton
                                  iran
    Senator Cotton. General Neller, I am sure during your time at I MEF 
Deputy Commanding General you saw the reports of Marines killed in 
Iraq, and might have known Marines that were killed in the Beirut 
Marine Corps Barracks bombing in 1983. Iranian terrorists and proxies 
have a long, infamous record of killing Americans around the world. The 
deal cut with Iran on their nuclear program will lift sanctions not 
only for the Iranian economy, but also for some of the worst actors 
within the Iranian regime. These are entities that form a nexus of 
companies and organizations that support not only proliferation and 
Iran's attempts to create a bomb, but also coincidentally support 
terrorist groups like Hezbollah, and Iranian militias in Iraq who have 
targeted and killed many American men and women in uniform with 
explosively formed penetrators (EFP).

    16. General Neller, what do you say to the survivors and families 
of our men and women killed by Iranian proxies and bombs over the last 
35 years knowing that we are going to underwrite their continued terror 
campaign by lifting sanctions against all of these bad actors, 
including IRGC Quds Force Commander Ghassem Suleimani?
    General Neller. I did know Marines killed in Beirut and like you 
have seen first-hand death on the battlefield. When I have met and 
talked with the families of those we lost, I did my best to comfort 
them and to assuage their grief. As you know first-hand, this is hard. 
I tell them that their loved ones did their duty and we who knew them 
are enormously proud to have served alongside such brave men and women 
like those who have lost their lives at the hands of the cowards who 
hide behind weapons of terror. I can only hope and pray that these 
words and our willingness to talk with them, provides them some 
comfort. Regardless if we end up with an agreement with the Iranians on 
their nuclear program, I give you my word that this regime's nefarious 
and destabilizing actions, assuming that they continue, will have my 
closet attention and that Marines will be both aware of this threat and 
be prepared to counter them, wherever they may be.
                                  asia
    17. Senator Cotton. Asia is arguably the most important region in 
the world economically for the United States. Asian nations surpassed 
Europe as our leading trade partners in 1977, and total trade with Asia 
is double the trade with Europe. Asia is our largest source of imports 
and second largest export market (outside of North America), and the 
region has outpaced every other region on in the growth of exports 
since 2005. The United States trades more with South Korea than with 
Germany, more with Singapore than with France, and more with Japan than 
with the United Kingdom, Germany, and France combined. The U.S. must 
have a sustained role in the region, and that role is secured by 
American military might. Marine amphibious forces remain a critical 
capability in demonstrating American military might.
    As the Commandant will the amphibious combat vehicle remain a top 
priority for the Marine Corps?
    General Neller. Yes. The Amphibious Combat Vehicle (ACV) is the 
centerpiece of the Marine Corps' Ground Combat and Tactical Vehicle 
Strategy (GCTVS) and a key enabler of our operational concept--
Expeditionary Force 21. As such, ACV is the Marine Corps' number one 
ground acquisition program and is critical to our ability to conduct 
expeditionary amphibious operations as well as to provide armored 
protected mobility and maneuver during the conduct of operations 
ashore.
    Armored amphibious surface assault and maneuver ashore are 
absolutely essential to our amphibious capability. The Naval services 
have long maintained the need to possess complementary means of 
conducting vertical and surface littoral maneuver from increased 
distances, and via multiple penetration points, using the sea as 
maneuver space to offset the range and precision of modern weapons. The 
ACV is vital to our ability to meet our statutory obligations to the 
Nation.

    18. Senator Cotton. How important will amphibious capabilities be 
for our Allies in the Pacific? How will you ensure amphibious 
interoperability with our Allies?
    General Neller. Amphibious capability will always be important in 
areas dominated by the littorals. As such, we prize both the 
capabilities of our allies in the Pacific and our ability to 
interoperate with them. Further, amphibious capabilities are 
increasingly important for our partners and allies as they are pursuing 
ways to meet Humanitarian Assistance/Disaster Relief (HA/DR) missions 
and crisis response demands in the region.
    Interoperability is also essential and allows the U.S. to work in 
inclusive and coordinated ways to counter challenges to regional 
security and stability. Interoperability is ensured over time by a 
commitment by each state to work together on shared interests. We are 
able to do this through the Marine Rotational Force--Darwin, a unit we 
are looking to increase the size and scope; our units stationed in 
Okinawa and Hawaii; the 31st Marine Expeditionary Unit (MEU) which is 
based in the Pacific; as well as the 11th, 13th, and 15th MEU's based 
out of San Diego which regularly transit the region.
                                 ______
                                 
                Questions Submitted by Senator Sullivan
                              top priority
    19. Senator Sullivan. General Neller, in your role as commandant 
you are charged with manning, training and equipping marines for 
service as directed by the president. When confirmed, what do you see 
as an area that will require your immediate attention, what will be 
your first priority?
    General Neller. The current Commandant and the Corps' senior 
leadership have been wrestling with the current fiscal and readiness 
challenges for the past several years. Today, our marines are operating 
forward around the globe performing the mission of America's 
expeditionary force-in-readiness. If confirmed, my number one priority 
will be to ensure those marines deployed and those next to respond have 
the resources and training they need to be successful. I will also 
continue initiatives instituted to meet our readiness and training 
challenges such as developing better readiness metrics, improving 
leader-to-led ratios, identifying key enlisted leader billets and 
investing more time in the development of those key leaders.
                              pacific lift
    20. Senator Sullivan. General Neller, the current Commandant has 
said in multiple forms (hearings, public speaking engagements, answers 
to Advanced Policy Questions from the SASC), that lift capacity to 
support the shifting laydown of forces in the Pacific theater will be 
insufficient and constitutes a major concern for you. In your response 
to the Committee's questions you stated that you ``look forward to 
working with the Services and the U.S. Pacific Command to address'' the 
lift needs in the Pacific. In your prepared questions you state, 
``There is not enough amphibious warship capability to support an 
assault echelon of two Marine Expeditionary Brigades required for 
contingency response . . . There are no alternatives that have been 
developed to mitigate the wartime or contingency response requirement 
for an amphibious fleet.'' General Neller, if confirmed, what are some 
of the ways you would consider to address this pending shortfall? Does 
Congress need to appropriate more funds?
    General Neller. Increased funding for amphibious warships will 
certainly be important. It is true that we currently lack the 33 ships 
in a mix of 11 LHD/LHA(R), 11 LPD, and 11 LSD/L(X)R required to embark 
an assault echelon of two Marine Expeditionary Brigades (MEB). The 
current Plan for Construction of Naval Vessels for 2015 does not meet 
the required mix until fiscal year 2024. I'd like to mention the fact 
that the amphibious ship total will actually be 34 because of the 
wisdom of the Congress in providing funds to support the requirement of 
a 12th LPD. My recommendation is to authorize multi-year and block buy 
procurements to ensure that the current shipbuilding plan stays on 
schedule. This will allow both the service and industry to operate on a 
predictable and more cost effective schedule which will ensure the 
maturation of this plan and prevent its completion from continually 
getting pushed further into the out years.

    21. Senator Sullivan. General Neller, do we have sufficient lift in 
the Pacific to accommodate the Marine Corps redeployments from Okinawa? 
If no, how confident are you that we will have it by the time the 
marines begin redeploying throughout the Pacific?
    General Neller. Amphibious warfare ships provide the best 
operational capability and embarkation capacity to enable marines to 
conduct missions throughout the Pacific. We currently have 30 
amphibious warfare ships in the battle force inventory, which is below 
even the agreed upon minimum number of ships in a fiscally constrained 
environment (33), let alone the optimal number (38) for crisis and 
contingency response. Our first redeployment from Okinawa to Guam is 
scheduled for fiscal year 2021 which pre-dates the completion of the 33 
ship amphibious fleet by several years. This will further stress an 
already under-size fleet. All this said, we must: focus on 
recapitalizing our amphibious warship inventory by protecting and 
properly funding the ship building program; improve the readiness/
maintenance of the ships we have; and continue to develop alternative 
lift platforms for Phase 0 and Phase 1 operations.

    22. Senator Sullivan. General Neller, as Admiral Roughead testified 
to the SASC in April, do you believe we should also consider moving 
additional naval and maritime assets forward into the theater to 
support our peacetime and contingency lift?
    General Neller. Yes, I agree with Admiral Roughead that the more 
forward presence we achieve in the Pacific with naval and maritime 
assets, the better we will be able to accomplish our peacetime missions 
as well as respond to crisis and contingency operations. Additionally, 
he is correct that simply moving assets around the Pacific is not 
optimal. Creating additional operational capability and embarkation 
capacity will provide us the best freedom of movement and allow us to 
most effectively handle the significant number of missions in this 
massive theater.
                            pacific pathways
    23. Senator Sullivan. General Neller, over the last two years, the 
U.S. Army has been conducting an expeditionary-like set of exercises 
called Pacific Pathways. During these exercises, U.S. Army forces 
deploy off ships to exercise with our allies in the Asia-Pacific 
Region. Recently, General McMaster testified in front of the Airland 
Subcommittee stated about the Army's new Operating concept, ``We're 
emphasizing really two concepts . . . one is expeditionary maneuver.'' 
General Neller, in your personal opinion, in a budget constrained 
environment, can we afford to have an Army mission in the Pacific that 
is redundant with another service's long-standing mission?
    General Neller. The Pacific is a significantly large AO, with such 
a large number of opportunities to train and operate with allies and 
partners, that there is sufficient space for operations of both the 
Marine Corps and the Army. However, as the service with primary DOD 
Directive and title 10 responsibility for the development of amphibious 
doctrine, tactics, techniques, and equipment, our capabilities are 
reliant on the Nation's investment in our partnered Navy programs. It 
is therefore imperative that the Marine Corps maintain its historic and 
habitual relationship with the Navy aboard amphibious assault ships in 
order to respond with well trained and well equipped amphibious forces. 
Insufficient inventory and operational availability of the Navy's 
amphibious warships for training and readiness of marines makes 
increased demand problematic. Any U.S. Army expansion to a greater 
capability in amphibious operations should not come at the cost of U.S. 
Marine Corps amphibious training and readiness or negatively impact our 
historic and habitual relationship with the U.S. Navy aboard ships.

    24. Senator Sullivan. General Neller, in testimony before the SASC, 
General Milley said that the U.S. Army ``has to do both'' missions of 
seaborne capabilities and airborne assault capabilities. In your 
personal opinion, does the U.S. Army have to do both, or does the 
Marine Corps already provide this nation's amphibious assault 
capabilities?
    General Neller. Based on title 10, the Marine Corps is responsible 
to be organized, trained and equipped to come from the sea across the 
range of military operations, and therefore provide amphibious assault 
capabilities. The Marine Corps has primary responsibility for the 
development of amphibious doctrine, tactics, techniques, and equipment, 
our capabilities.

    25. Senator Sullivan. General Neller, in your personal opinion, 
what is view on Pacific Pathways? Is it redundant to the Marine Corps 
mission in the Pacific?
    General Neller. The Pacific Pathways seeks to increase and enhance 
allied and partner engagement and interoperability training throughout 
the PACOM AOR. The Pacific AOR is sufficiently large and complex that 
it supports operations by both the U.S. Marines, and the U.S. Army 
without it necessarily being redundant. We look forward to continuing 
to work with the U.S. Army to maximize the impact and dividends that 
accrue to our operations in the Pacific and prevent any redundancies in 
order to achieve the best return on our investments in the region.
                         marine corps missions
    26. Senator Sullivan. General Neller, the Marines Corps has many 
missions, including producing responsible and engaged citizens, whether 
they serve four or forty years. Can you comment on this mission of the 
Marine Corps?
    General Neller. Returning Marines to civilian life as responsible 
and engaged citizens is a hallmark of marine training and culture. It 
is my goal that our ethos of Honor, Courage, and Commitment guides 
everything we do, whether conducting humanitarian assistance overseas 
in places like Nepal this year, supporting Americans at home like in 
Hurricane Sandy, or fighting terrorism while building partner capacity 
in places like Iraq. From boot camp to the battlefield and back home 
again, the Marine Corps seeks to set up marines for success.
    One part of this is helping marines transition. Our Transition 
Readiness Program is designed to prepare marines for transition to 
civilian life. The Marine Corps Transition Readiness Program does this 
by preparing and connecting transitioning marines with resources to 
successfully meet educational, employment or entrepreneurship goals 
throughout their career to ensure success once they move to civilian 
life. The Personal Readiness Seminar that marines attend after arriving 
at their first permanent duty station helps plant the seed for their 
future. Topics include an overview of personal and professional 
development services, and financial topics such as banking and 
financial services, savings and investments, living expenses, 
understanding debt, and servicemembers' consumer rights. The intent is 
to get marines thinking about transition early, so that they may 
recognize opportunities while they serve that will prepare them for 
success after service.
                                 ______
                                 
                 Questions Submitted by Senator Shaheen
                          integration of women
    27. Senator Shaheen. Last fall the Marine Corps established the 
Ground Combat Element Integrated Task Force to evaluate the performance 
of women in combat units. I understand that this task force is wrapping 
up part of its evaluation this month. Can you discuss the metrics you 
will use to determine whether or not women may serve in infantry units?
    General Neller. The data which was collected during the GCEITF is 
still being collated and analyzed. It encompasses a number of 
performance-based metrics that will inform whatever decision the 
Commandant makes to the SECDEF on the integration of women into the 
ground combat element which includes: infantry, artillery, armor 
(tanks, LAVs and Amphibian Vehicles), combat engineers and 
reconnaissance units. Whatever recommendation is made will be based on 
the Marine Corps' unwavering focus on combat effectiveness and ensuring 
the fullest success of each marine. Any recommendations to the 
Secretary of the Navy, Secretary of Defense, and the Congress will be 
made in that context.

    28. Senator Shaheen. The former commanding officer of the 4th 
Recruit Training Battalion at Marine Corps Recruit Depot Parris Island 
in South Carolina has received much attention after being relieved for 
cause in June. This case has raised questions regarding the level of 
support female recruits receive to ensure their success. While other 
services have integrated basic training, why does the Marine Corps 
segregate women during boot camp, and would integrated basic training 
increase combat effectiveness?
    General Neller. The purpose of recruit training is to make marines 
out of the fine young men and women who step forward to take the 
challenge to join our Corps. The young men and women who arrive at the 
recruit depots to begin the process are generally away from home for 
the first time. They have brought with them diverse perceptions of 
right and wrong. Equally eclectic is their understanding of permissible 
behavior. Their experiences with authority figures may have been good 
or bad, proper or improper/abusive. In general, they arrive with 
immature, undeveloped and unfocused thoughts on professionalism and 
professional conduct. The only thing they have in common is their 
desire to be a marine. By capitalizing on that desire, recruit training 
transforms these individuals from many diverse backgrounds into marines 
imbued with a common set of values and standards.
    At the recruit depots, civilians are transformed into basic 
marines. It is a physically and mentally challenging ordeal, one that 
requires constant supervision. Drill instructors control and manage the 
transformation through 24 hour/day interaction with their recruits. 
They teach core values, institutional rights and wrongs and what 
constitutes proper authority. This teacher-student/father-son/mother-
daughter relationship is the heart and soul of the recruit training 
experience and success or failure of the socialization process rests 
squarely on this process. After much research and analysis, we believe 
that keeping male and female recruits separate at this entry level of 
training allows for the most effective transformation from civilian to 
marines.
    After recruit training, the Marine Corps, unlike other Services, 
has a block of training entitled Marine Combat Training between recruit 
training (socialization) and military occupational skills training. It 
is at Marine Combat Training that newly forged marines are actually 
taught combat skills. This training has been integrated since March 
1997. The important distinction from other Services is that this 
training occurs after recruit training, after the intense 
transformation process which replaces diverse and confused perspectives 
of right and wrong with strong and clear marine standards of behavior, 
and after vulnerable, tentative civilians have developed the values, 
mental and physical toughness, self-reliance and confidence essential 
to earn the title marine.
                       deployment to dwell ratio
    29. Senator Shaheen. In your advanced policy questions, you state 
that the Marine Corps is operating at a 1 to 2 deployment to dwell 
ration. You state that this is not sustainable over the long term. Can 
you discuss in further detail the impact high operational tempos have 
on marines and their families as well as on the reserve force?
    General Neller. As the Nation's force-in-readiness, the Marine 
Corps must maintain a high state of readiness within our home station 
units as they constitute the ready force that would surge to unexpected 
crises and major contingencies. At a 1 to 2 deployment to dwell ratio, 
the time at home station to prepare for the next deployment is 
compressed, which reduces the time to train and the time after a 
deployment to be with our families.
    In order to continue operating in a high operational tempo, such as 
a 1 to 2 deployment to dwell ratio, risk is placed on unit readiness as 
personnel are sourced to protect the readiness of deployed or `next-to-
deploy' units. This decision is necessary when validated operational 
requirements exceed resource availability. To reduce stress and 
impacts, the Marine Corps will continue to ensure that our quality of 
life programs focus on core requirements and provide support in the 
critical areas that directly impact marines and families; e.g. Yellow 
Ribbon Reintegration Programs, family readiness programs, and the 
Military Family Life Consultant Program. Our Reserve Force is fully 
integrated with the Active Component and, as such, deals with the same 
stresses and impacts as the Active Component under this scenario but at 
a reduced tempo of 1 to 5. Our quality of life programs are developed 
for the needs of our Reservists as well.
                        marines on foreign ships
    30. Senator Shaheen. I understand the Marine Corps is considering 
deploying marines aboard foreign ships to increase response times for 
contingency operations. What are the risks associated with this 
strategy, and is it driven by fiscal considerations?
    General Neller. For decades, the Marine Corps has conducted 
amphibious interoperability training with allies and partners to 
develop their organic capability and our ability to operate with them 
should a crisis occur. We currently conduct amphibious training with 
Japan, Australia, Republic of Korea, Thailand, the Philippines, the 
United Kingdom, France, the Netherlands, Italy, and Spain. While 
developing the capacity to operate more seamlessly with our allies/
partners remains a priority, the Marine Corps is not seeking 
relationships that might compromise the ability to command and control 
U.S. forces. The Marine Corps must retain the capability to respond 
immediately to threats to our Nation's security. For the Marine Corps, 
this means retaining the maritime flexibility offered by U.S. 
amphibious ships.
                                 ______
                                 
                Questions Submitted by Senator Donnelly
                amphibious combat vehicle (acv) program
    31. Senator Donnelly. General Neller, the Marine Corps has 
identified the Amphibious Combat Vehicle as a top priority program. 
What capabilities beyond ACV 1.1 do you want to see in ACV 1.2?
    General Neller. As I stated during recent testimony, we are 
confident that ACV 1.1 will achieve water mobility performance that is 
on par with our existing assault amphibian, yet with significantly 
enhanced protection and improved land mobility. Water mobility and 
range are obviously very important to us. The sooner we get these--
without trading critical armored protected mobility, land mobility, and 
troop carrying capacity--the better.
    Importantly, ACV 1.2 will include our ACV mission role variants. 
These mission role variants include Command & Control and Recovery 
platforms, but could also include other variants identified at a later 
date.

    32. Senator Donnelly. What in your view is the future of amphibious 
combat vehicles for the Marine Corps?
    General Neller. Future amphibious combat vehicles must have the 
capability to rapidly transition from ship to shore, use the natural 
and man-made waterways in the littoral regions as maneuver space, and 
once ashore, provide the protected mobility necessary to deliver the 
infantry to their objectives--be they against an opposing enemy force 
or in support a host nation's request for humanitarian assistance.
    Our phased acquisition approach supports this effort. ACV 1.1 will 
be an amphibious combat vehicle that will provide armored protected 
lift for two infantry battalions. Near simultaneously, we will be 
conducting critical survivability upgrades to our AAV fleet to provide 
armored protected lift capability for four infantry battalions. In 
fielding ACV 1.2, we will modernize the required protected lift for 
four more infantry battalions. Concurrently, the Marine Corps is 
supporting S&T efforts to pursue a High Water Speed (HWS) capability 
that will enable an Amphibious Force to rapidly transition from stand-
off distance at a sea base to objectives ashore and utilize other 
littoral and inland waterways as maneuver space.
    The bottom line is that the Marine Corps' has established an 
affordable and technologically feasible strategy that will provide the 
Nation with the ability to use the sea as a maneuver space across the 
range of military operations.

    33. Senator Donnelly. How important will amphibious capabilities be 
for our Allies in the Pacific?
    General Neller. Amphibious capabilities are increasingly important 
for our partners and allies as they are pursuing ways to meet HA/DR and 
crisis response demands in the region. Interoperability allows the U.S. 
to work in inclusive and coordinated ways to counter challenges to 
regional security and stability. Interoperability is ensured overtime 
by a commitment by each state to work together on shared interests.

    34. Senator Donnelly. How will you ensure amphibious 
interoperability with our Allies?
    General Neller. The Marine Corps currently promotes 
interoperability with our partners and allies through robust exercise 
and engagement plans. For example, we hold annual service-level staff 
talks with some of our strongest partners in the Asia-Pacific. These 
staff talks help facilitate our allies' amphibious development by 
coordinating activities such as exercises, personnel exchanges, 
international military education and training (IMET), foreign military 
sales, and general security cooperation efforts between services.
               naval surface warfare center lab structure
    35. Senator Donnelly. General Neller, Naval Surface Warfare Center 
Crane in Indiana is the largest supporter of the Marine Corps across 
all NAVSEA activities. The Marine Corps relies on the Surface Warfare 
Center lab structure to meet many of its RDT&E, depot maintenance and 
in-service engineering support needs. If confirmed, how will you work 
with the Navy to ensure Marine Corps requirements are adequately 
prioritized by NAVSEA and the Surface Warfare Centers?
    General Neller. The Marine Corps has an ongoing, mutually 
beneficial relationship with the NAVSEA Warfare Centers. This 
partnership deliberately strengthens the understanding of needs and 
capabilities through continuous communication and coordination. For 
example, we host an annual ``Warfare Center Week'' at Quantico with 
proven productive working sessions where the participants discuss and 
gain mutual understanding of Warfare Center capabilities, program 
information, and program needs. We conduct this event early in the 
calendar year to enable and inform resource planning for the following 
fiscal year. Negotiations on scope of work continue through the spring, 
producing ``Task-books'' with the coordinated specificity to assign the 
required Warfare Center technical support to individual Program 
Managers and define the required funding. As an added key link in this 
teamwork, the Warfare Centers have established a Marine Corps 
Coordination team. The engineering staff at Marine Corps Systems 
Command participates in biweekly teleconferences with this team to 
address emerging opportunities and issues. Continuous engagement with 
collaborative processes and open dialogue helps us ensure Marine Corps 
requirements are fulfilled through the unique capabilities of the 
NAVSEA Warfare Center enterprise.
                       sniper rifle modernization
    36. Senator Donnelly. General Neller, in recent weeks media reports 
have highlighted concerns among current and former marine snipers about 
the range, accuracy and lethality of the M40A5. What are the top 
priority capability enhancements in the Marine Corps' current efforts 
to upgrade from the M40A5 to the M40A6?
    General Neller. Top priority capability enhancements from the M40A5 
to M40A6 are an improved ergonomic adjustable stock which is lighter 
and more ergonomically adjustable for individual shooters along with an 
improved and more durable barrel; in addition the weapon is lighter and 
more transportable due to decreased weight and length. Each M40A6 will 
also receive a Scout Sniper Ballistic Calculator adding to the enhanced 
accuracy of the sniper suite by increasing first hit probability.

    37. Senator Donnelly. Will the new M40 variant have an extended 
effective firing range beyond that of the M40A5?
    General Neller. No, the M40A6 like the M40A5 is accurate out to 
1000 yards. The Marine Corps is continuing its validation of other 
weapon systems to determine if adoption of another system in different 
calibers is a material solution for our requirements and we are 
participating in SOCOM and U.S. Army testing and evaluation of the PSR 
in both 300 Win Mag and .338 Lapua.

    38. Senator Donnelly. What is your assessment of the feasibility 
and advisability of moving to a .300 or .388-caliber round for use by 
marine snipers?
    General Neller. We are evaluating both calibers in conjunction with 
Special Operations Command and the U.S. Army. Further, we are also 
looking at the feasibility of replacing M107 SASR with a weapon that 
uses .300 Winchester Magnum or .338 Lapua ammunition. Our current .308 
caliber weapon (the existing M40 Sniper Rifle) provides range to 1000 
yards and allows us to train on all existing sniper ranges. Both .300 
Winchester Magnum and .338 Lapua would give us extended range to 1200+ 
m and provide accuracy for the anti-personnel mission. Finally, .338 
Lapua has potential for an anti-material mission.

    39. Senator Donnelly. General, Naval Surface Warfare Center Crane 
supports Marine Corps Forces Special Operations Command with weapons 
systems like the MK-13 .300 WINMAG Precision Sniper Rifle AND THE 7.62 
Combat Assault Rifle, both of which were developed by NSWC Crane for 
the Special Warfare community. How can the expertise and capabilities 
available at NSWC Crane be leveraged in future conversations about 
modernizing marine sniper rifles?
    General Neller. We currently leverage both the expertise and 
knowledge of NSWC Crane and are active participants in many of their 
programs. We have leveraged them in such things as the SOPMOD kit or 
M4A1 CQBW kit, we were active participants in the SCAR and coordinate 
with them on most programs especially SOCOM weapons and equipment. We 
will continue to leverage their abilities into the future.
              ground based operational surveillance system
    40. Senator Donnelly. General Neller, GBOSS is built by NSWC Crane 
as the Lead System Integrator. How do you believe G-BOSS can impact or 
improve our force protection efforts stateside or abroad to monitor the 
flow of foreign fighters across lines?
    General Neller. The G-BOSS system originated in 2006 through the 
Urgent Needs Process in support of our marines engaged in OIF and OEF. 
Their positive impact to improving our force protection and 
intelligence collection efforts against our enemies, including foreign 
fighters, in Overseas Contingency Operations have been detailed in 
numerous lessons learned and After Action Reports. The current GBOSS 
Family of Systems with its three variants--GBOSS Heavy, GBOSS Medium, 
and GBOSS Light--scale well to our Marine Air Ground Task Force (MAGTF) 
structure and allow for operations involving units down to the company 
level. Primarily, G-BOSS is used in support of overseas operations for 
force protection, check point security, route reconnaissance, patrol 
over-watch, IED emplacement detection, intelligence collection, and 
personnel/vehicle identification.
    In May of 2013, the Deputy Commandant for Plans Policies and 
Operations (DC PP&O) in coordination with Deputy Commandant for Combat 
Development and Integration (DC CD&I) developed a DOTMLPF Change 
Request requirement document for G-BOSS. The requirement details the 
interim transition plan for current G-BOSS related equipment 
inventories from post OIF and OEF to steady state operations. It also 
defines a steady state interim requirement for 41 total G-BOSS systems 
that support Marine Corps' persistent ground surveillance requirements. 
In 2015 a Letter of Clarification increased that requirement through 
Fiscal Year 2020 to our currently funded 52 Systems. These 52 systems 
support deployed Marine Forces, Special Purpose (SP) MAGTF-Central 
Command and the Marine Expeditionary Unit (MEU) Augmentation Program 
(MAP) as well as sustaining home station training. The Marine Corps' 
Director of intelligence has initiated comprehensive MAGTF sensing 
strategy to identify how future MAGTFs will ``sense'' to achieve 
battlespace awareness. G-BOSS and other similar capabilities will serve 
as key assets in that future strategy.
    The Marine Corps does not intend to use GBOSS as a home station 
base security system in anything other than a short term augmentation 
role to our existing systems. GBOSS is a tactical system, designed to 
be expeditionary and rugged with integral power systems including 
generators that would be as ill matched to long term CONUS Bases and 
Station Force Protection requirements as it would not compare favorably 
in capability for cost against other less tactical purpose built base 
security systems that would require less sustainment, training, and 
maintenance.
                   muscatatuck urban training center
    41. Senator Donnelly. General Neller, the Marine Expeditionary Unit 
has a vital role in our post-9/11 force. They have performed in 
Afghanistan, Iraq, Africa, Turkey, and Kosovo, to mention just a few. 
They also have the task of spearheading the Humanitarian and Disaster 
Relief mission so vital to our international partners. The Marine Corps 
has utilized Camp Atterbury and Muscatatuck Urban Training Center 
previously as a cost-saving option for pre-deployment training. How can 
these facilities be of greater service to facilitate more training 
opportunities for the Marine Corps?
    General Neller. Initial analysis is that we keep both locations 
gainfully employed throughout the calendar year. Muscacatuck has been 
scheduled and used frequently by Marine Special Operations Command 
(MARSOC), Marine Forces Reserve (MFR), Expeditionary Operations and 
Training Group (EOTG II MEF), Training and Education Command (TECG), 
and the Marine Corps Warfighting Lab. Atterbury has the preponderance 
of use by a host of elements from MFR, which use it as primary training 
grounds for reserve elements from MO, IL, IN, and TN, as well as 
MARSOC, and Recruiting Station Indianapolis. Loss of either would have 
a huge impact on MFR training for the greater Midwest.

    [The nomination reference of Lieutenant General Robert B. 
Neller, USMC follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 15, 2015.
    Ordered, That the following nomination be referred to the 
Committee on Armed Services:
    The following named officer for appointment as Commandant 
of the Marine Corps and appointment in the United States Marine 
Corps to the grade indicated while assigned to a position of 
importance and responsibility under title 10, U.S.C., sections 
601 and 5043:
                        To Be General                              
    Lt. Gen. Robert B. Neller, 0000.
                                ------                                

    [The biographical sketch of Lieutenant General Robert B. 
Neller, USMC, which was transmitted to the committee at the 
time the nomination was referred, follows:]
         Biographical Sketch of Lt. Gen. Robert B. Neller, USMC
Source of commission:
    Platoon Leaders Course (PLC)
Educational degrees:
    University of Virginia, BA, 1975.
    Pepperdine University, MA, 1981.
Military schools:
    The Basic School, 1976.
    Armor Officers' Advanced Course, 1983.
    Amphibious Warfare School, 1984.
    Marine Corps Command and Staff College, 1991.
    NATO Defense College, 1994.
    Joint & Combined Warfighting School, 1995.
    Capstone, 2004.
    Joint Force Air Component Commander, 2005.
    Navy Strategic Thinking Course/Executive Business, 2010.
    Senior Executive EEO Seminar, 2010.

    Joint Qualified Officer.
Promotions:

 
------------------------------------------------------------------------
                Promotions                      Dates of appointment
------------------------------------------------------------------------
2nd Lt....................................  4 Jun 75
1st Lt....................................  4 Jun 77
Capt......................................  1 Sep 79
Maj.......................................  1 May 86
Lt. Col...................................  1 Aug 92
Col.......................................  1 Oct 97
Brig. Gen.................................  1 Jan 03
Maj. Gen..................................  21 Jan 07
Lt. Gen...................................  11 Jan 11
------------------------------------------------------------------------


Summary of assignments:

 
------------------------------------------------------------------------
               From                      To             Assignment
------------------------------------------------------------------------
Jul 14...........................  Present......  Commander, United
                                                   States Marine Corps
                                                   Forces Command;
                                                   Commanding General
                                                   Fleet Marine Force
                                                   Atlantic; Commander,
                                                   United States Marine
                                                   Corps Forces Europe
                                                   (Lt. Gen.).
Aug 12...........................  Jun 14.......  Commander, U.S. Marine
                                                   Corps Forces, Central
                                                   Command (Lt. Gen.).
Jan 11...........................  Aug 12.......  Director for
                                                   Operations, J-3,
                                                   Joint Staff (Lt.
                                                   Gen.).
Aug 09...........................  Dec 10.......  President, Marine
                                                   Corps University
                                                   (Maj. Gen.).
Jun 07...........................  Aug 09.......  Commanding General, 3d
                                                   Marine Division (Maj.
                                                   Gen.).
Aug 05...........................  Jun 07.......  Deputy Commanding
                                                   General, I Marine
                                                   Expeditionary Force
                                                   (Forward) (Brig. Gen./
                                                   Maj. Gen).
Jul 02...........................  Aug 05.......  Director, Operations
                                                   Division, Plans,
                                                   Policy and Operations
                                                   (Col./Brig. Gen).
Mar 02...........................  Jul 02.......  Assistant Division
                                                   Commander, 2d Marine
                                                   Division (Col.).
Dec 01...........................  Mar 02.......  Deputy Director of
                                                   Operations, EC/J-3,
                                                   U.S. European Command
                                                   (Col.).
Jun 01...........................  Dec 01.......  Assistant Division
                                                   Commander, 2d Marine
                                                   Division (Col.).
Jul OO...........................  Jun 01.......  Assistant Chief of
                                                   Staff, G-3, 2d Marine
                                                   Division (Col.).
Jun 98...........................  Jul 00.......  Commanding Officer,
                                                   6th Marines, 2d
                                                   Marine Division
                                                   (Col.).
Jul 97...........................  Jun 98.......  Assistant Chief of
                                                   Staff, G-3, II Marine
                                                   Expeditionary Force
                                                   (Col./Lt. Col.).
Jul 94...........................  Jul 97.......  Staff Officer, Policy
                                                   and Requirements
                                                   Division, Supreme
                                                   Headquarters Allied
                                                   Powers Europe (Lt.
                                                   Col.).
Jun 93...........................  Jan 94.......  Executive Officer, 7th
                                                   Marines, 1st Marine
                                                   Division (Lt. Col.).
Jul 91...........................  Jun 93.......  Commanding Officer, 3d
                                                   Light Armored
                                                   Infantry Battalion,
                                                   1st Marine Division
                                                   (Maj./Lt. Col.).
Jun 91...........................  Jul 91.......  Plans Officer, 1st
                                                   Marine Division
                                                   (Maj.).
Jul 88...........................  Jul 90.......  Commanding Officer,
                                                   Marine Corps Security
                                                   Force Company Panama
                                                   (Maj.).
Jul 86...........................  Jul 88.......  Project Officer,
                                                   Headquarters, Marine
                                                   Corps (Maj.).
May 83...........................  Jun 86.......  Instructor; Company
                                                   Executive Officer,
                                                   Defense Section Head,
                                                   The Basic School
                                                   (Capt./Maj.).
Feb 81...........................  Sep 82.......  Company Commander,
                                                   Alpha Company, 1st
                                                   Battalion, 1st Marine
                                                   Division (Capt.).
May 80...........................  Feb 81.......  Headquarters Element
                                                   OIC/Personnel
                                                   Officer, Headquarters
                                                   Company, 1st
                                                   Battalion, 1st Marine
                                                   Division (Capt.).
Nov 79...........................  Apr 80.......  Director of Students,
                                                   Marine Corps Recruit
                                                   Depot San Diego
                                                   (Capt.).
Nov 78...........................  Nov 79.......  Aide De Camp, Marine
                                                   Corps Recruit Depot
                                                   San Diego (Capt./1st
                                                   Lt.).
Jun 77...........................  Nov 78.......  Assistant Series
                                                   Commander; Series
                                                   Commander, Marine
                                                   Corps Recruit Depot
                                                   San Diego (1st Lt.).
May 76...........................  Apr 77.......  Platoon Commander,
                                                   Company L, 3rd
                                                   Battalion, 4th
                                                   Marines, 3rd Marine
                                                   Division (2nd Lt.).
Oct 75...........................  Apr 76.......  Student, The Basic
                                                   School (2nd Lt.).
------------------------------------------------------------------------


Summary of joint assignments:

 
------------------------------------------------------------------------
                                         Date                Grade
------------------------------------------------------------------------
Director for Operations, J-3,         Jan 11-Aug 12            Lt. Gen.
 Joint Staff....................
Deputy Director of Operations,        Dec 01-Mar 02                    Col.
 EC/J-3, U.S. European Command..
Staff Officer, Policy and             Jul 94-Ju1 97                Lt. Col.
 Requirements Division, Supreme
 Headquarters Allied Powers
 Europe.........................
------------------------------------------------------------------------


Summary of operational assignments:

 
------------------------------------------------------------------------
                                         Date                Grade
------------------------------------------------------------------------
Commanding General, 3rd Marine        Mar 09-Mar 09           Maj. Gen.
 Division/Operation Enduring
 Freedom........................
Deputy Commanding General, I          Feb 06-Feb 07          Maj. Gen./
 Marine Expeditionary Force
 (Forward)......................
Operation Iraqi Freedom.........      Oct 05-Oct 05          Brig. Gen.
Staff Officer, Policy and             Jan 97-Feb 97                Lt. Col.
 Requirements Division, Supreme
 Headquarters Allied Powers
 Europe/Operation Allied Force..
Commanding Officer, 3d Light          Dec 92-Feb 93                Lt. Col./Maj.
 Armored Battalion, 1st Marine
 Division Operation Restore Hope
Commanding Officer, Marine Corps      Feb 90-Ju1 90                Maj.
 Security Force Company Panama
 Operation Promote Liberty......
Commanding Officer, Marine Corps      Dec 89-Jan 90                Maj.
 Security Force Company Panama
 Operation Just Cause...........
Commanding Officer, Marine Corps      Aug 88-Dec 89                Maj.
 Security Force Company Panama
 Operation Contingency Security.
------------------------------------------------------------------------


Decorations
    Defense Distinguished Service Medal
    Legion of Merit
    Bronze Star
    Defense Meritorious Service Medal
    Meritorious Service Medal
    Joint Service Commendation Medal
    Navy and Marine Corps Commendation Medal
    Navy and Marine Corps Achievement Medal
    Combat Action Ribbon
    Joint Meritorious Unit Award
    Navy Unit Commendation
    Marine Corps Expeditionary Medal
    National Defense Service Medal
    Armed Forces Expeditionary Medal
    Iraq Campaign Medal
    Global War on Terrorism Service Medal
    Armed Forces Service Medal
    Sea Service Deployment Ribbon
    Navy Arctic Service Ribbon
    Navy and Marine Corps Overseas Ribbon
    Marine Corps Drill Instructor Ribbon
    NATO Medal

                                ------                                

    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Lieutenant 
General Robert B. Neller, USMC in connection with his 
nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    part a--biographical information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Robert Blake Neller.

    2. Position to which nominated:
    Commandant of the Marine Corps.

    3. Date of nomination:
    15 July 2015.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    9 February 1953, Camp Polk, LA.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Married to D'Arcy A. Neller (39 years). Maiden name: Dutch.

    7. Names and ages of children:
    [Nominee responded and the information is contained in the 
committee's executive files.]

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.
    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    Lifetime Member, University of Virginia Alumni Association.
    Member, Marine Corps Association.
    Lifetime Member, Third Marine Division Association.
    Member, AARP.
    Military Officers Association of America.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.
    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the Administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                            Lieutenant General Robert B. Neller, USMC  
    This 8th day of July, 2015
                                 ______
                                 
    [The nomination of Lieutenant General Robert B. Neller, 
USMC was reported to the Senate by Chairman McCain on August 4, 
2015, with the recommendation that the nomination be confirmed. 
The nomination was confirmed by the Senate on August 5, 2015.]


 
                     NOMINATION OF ADMIRAL JOHN M.
                 RICHARDSON, USN, TO BE CHIEF OF NAVAL
                               OPERATIONS

                              ----------                              


                        THURSDAY, JULY 30, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Ayotte, Fischer, Cotton, Ernst, Tillis, Sullivan, 
Reed, Manchin, Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, 
and King.

            OPENING STATEMENT OF SENATOR JOHN McCAIN

    Chairman McCain. Good morning. The Senate Armed Services 
Committee meets today to consider the nomination of Admiral 
John Richardson to be the 31st Chief of Naval Operations.
    Admiral Richardson, we thank you for joining us this 
morning. We're grateful for your many years of distinguished 
service to our Nation and for your continued willingness to 
serve.
    We also welcome members of your family who are joining us 
this morning, and thank them for supporting you and the Nation. 
As is our tradition, at the beginning of your testimony we will 
invite you to introduce any family members that are joining us.
    The next Chief of Naval Operations will lead our Navy in 
confronting the most diverse and complex array of global crises 
since the end of World War II. With instability spreading 
across the Middle East and North Africa, more than ever our 
Nation is counting on the forward presence, power projection, 
and rapid response that the Navy uniquely delivers.
    In the Asia-Pacific, China is undertaking an ambitious 
naval buildup that seeks to project power and influence in key 
waterways of the Asia-Pacific and beyond. While our rebalance 
to the Asia-Pacific has shown some success, this policy has not 
yet addressed the shifting military balance in any serious 
manner. While some would rather avoid a discussion of our 
competition with China, this relationship will be a serious 
challenge for our Navy. And yet, while worldwide challenges 
like these grow, the Defense Department has grown larger but 
less capable, more complex but less innovative, more proficient 
at defeating low-tech adversaries but more vulnerable to high-
tech ones. And worse, the self-inflicted wounds of the Budget 
Control Act and sequestration-level defense spending have made 
all of these problems worse.
    Now more than ever, a strong Navy is central to our 
Nation's ability to deter adversaries, assure allies, and 
defend our national interests. And yet, by any measure, today's 
fleet of 273 ships is too small to address these critical 
security challenges. The Navy's requirement is 308 ships. The 
bipartisan National Defense Panel calls for a fleet of 323 to 
346 ships. And our combatant commanders say they require 450 
ships. With continuing high operational tempo and drastic 
reductions to defense spending, we will conduct the downward--
we will continue the downward spiral of military capacity and 
readiness until Congress acts.
    Admiral Richardson, there are several challenges that will 
require the next Chief of Naval Operations' personal 
leadership. I look forward to discussing many of these today.
    First, each Ford-class aircraft carrier has experienced 
more than $2 billion in cost growth. This program continues to 
be plagued by technology immaturity, concurrent development and 
production, and a lack of reliability test data for critical 
systems. This is unacceptable. I repeat, unacceptable. And I 
fully expect the Navy's ongoing study of alternative aircraft 
carrier designs to provide real options.
    Next, the Navy still needs to justify the littoral combat 
ship's transition to a frigate, which is required in the Senate 
NDAA, and all 3 of the LCS mission packages must overcome major 
technology integration challenges to deliver the promised 
warfighting capability.
    Several other important new shipbuilding efforts will 
require the Service Chief's leadership in the coming years, 
including building the first Ohio-class replacement submarine, 
building the first Flight-3 destroyer with the new air and 
missile defense radar, and integrating the Virginia payload 
module on attack air--submarines. In naval aviation, it will 
take strong leadership to address the strike fighter shortfall, 
oversee the smooth and timely integration of the F-35 joint 
strike fighter into the fleet, and ensure the right 
requirements for the first unmanned carrier-launched airborne 
surveillance and strike system. We must also maintain our 
advantage in the capability and capacity of our munitions. 
Fielding new weapons, like the long-range anti-ship missile, 
and improving existing ones, like the family of standard 
missiles, will continue to be essential. Our ships and planes 
have been operating at a sustained high operational tempo for 
over a decade. And it shows. Clearing maintenance backlogs and 
restoring the Navy's readiness will be a priority.
    Finally, we cannot forget about our members of the United 
States Navy. High operational tempo and lucrative opportunities 
outside the Navy continue to drive some our best talent to 
leave the service. I'm interested in your plans to manage 
operational tempo and views on how best to provide a 
competitive and modern compensation package that provides the 
right retention incentives. No matter how many dollars we 
spend, we won't be able to provide our military the equipment 
they need with a broken defense acquisition system that takes 
too long and costs too much. With this year's National Defense 
Authorization Act, this committee has embarked on a major 
effort to reform this system, including ways to empower our 
service leaders to manage their own programs and take on 
greater accountability.
    Admiral Richardson, we are interested to hear your views on 
improving defense acquisition based on your many years of 
service. Thank you. We look forward to your testimony.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    Let me join you in welcome Admiral Richardson and his 
family--his father, his wife, his daughter. Thank you all very 
much. We all understand that no one serves alone in the Navy or 
elsewhere, so thank you very much.
    You have an extraordinary record of service to the Nation 
in the Navy, and we thank you for that. You have a remarkable 
record as the Director of Navy Nuclear Propulsion Program, your 
current assignment. And, in that assignment, you are familiar 
with many of the issues Senator McCain raised: acquisition. How 
do you design a program that's not only effective but is 
affordable? And those are one of the major issues you're going 
to confront as the CNO.
    You'll be asked to ensure that we have a quality force--
that's recruiting, training--and, in this respect, ensuring the 
highest ethics are employed in the service, particularly when 
it comes to the issues of domestic violence, which we've seen 
all too often in the military services. That's another role we 
expect you to play.
    We have a world that is full of crises, and the Navy is one 
of the major ways that we project force and we deal with 
uncertainty and changing conditions. And it remains that way. 
But, as the Chairman has pointed out, one of the issues you'll 
face is affordability. How do we afford all the ships that we 
need? How do we bring on the next class of ballistic missile 
submarine, the Ohio replacement class? And then, these 
challenges are exacerbated by the prospect of looming 
sequestration or temporary arrangements to get by year to year 
rather than a long-range plan to fund the Navy and the other 
services.
    So, all of these challenges will be before you. I'm 
confident that you will be able to face them, and look forward 
to your testimony this morning.
    Thank you very much, Mr. Chairman.
    Chairman McCain. Admiral, before we continue, let me ask 
you the standard questions that we ask all of military 
nominees.
    In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of the Congress be able to receive 
testimony, briefings, and other communications of information. 
Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Admiral Richardson. Yes, sir.
    Chairman McCain. Do you agree, when asked, to give your 
personal views, even if those views differ from the 
administration in power?
    Admiral Richardson. I do.
    Chairman McCain. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Admiral Richardson. No, sir.
    Chairman McCain. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Admiral Richardson. I will.
    Chairman McCain. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Admiral Richardson. Yes, sir.
    Chairman McCain. Will those witnesses be protected from 
reprisals for their testimony or briefings?
    Admiral Richardson. They will.
    Chairman McCain. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    Admiral Richardson. Yes, sir.
    Chairman McCain. Do you agree to provide documents, 
including copies of electronic forms of communications, in a 
timely manner when requested by a duly-constituted committee, 
or to consult with the committee regarding the basis for any 
good-faith delay or denial in providing such documents?
    Admiral Richardson. Yes, sir.
    Chairman McCain. Welcome. And please proceed.

  STATEMENT OF ADMIRAL JOHN M. RICHARDSON, USN, NOMINEE TO BE 
                   CHIEF OF NAVAL OPERATIONS

    Admiral Richardson. Thank you. Chairman McCain, Senator 
Reed, and distinguished members of the committee, I am honored 
and humbled to appear before you as the nominee to be our next 
Chief of Naval Operations. I am grateful for the confidence of 
President Obama, Secretary Carter, and Secretary Mabus.
    I'd like to begin by thanking Admiral John Greenert and his 
wife, Darlene, for their magnificent service to our country for 
over 40 years, and especially for their role in leading our 
Navy these past 4 years. They have been tireless and superb 
advocates for our sailors, their families, our Navy, and our 
Nation.
    I'm grateful to have my family here with me today, 
Chairman, as you recognized, as they have been throughout my 
entire career.
    My dad is here with me today. My dad's a retired Navy 
captain who served with distinction for 25 years through the 
Cold War. And I remember, like it was yesterday, the nights 
that my mom and we six kids would get together in our living 
room, and my dad would come out in his service dress blues and 
his seabag. We would say goodbye for 6 months, and then we 
would carry on, supporting each other until my dad came back 
home. I got my start in the Navy from my dad, and he continues 
to advise me, sometimes vigorously, and make me proud.
    My wife, Dana, is here.
    Chairman McCain. I had the same experience.
    Admiral Richardson. Yes, sir.
    [Laughter.]
    Admiral Richardson. My wife, Dana, is also here. Dana and I 
met as classmates in York High School in southern Maine, and we 
married just as soon as we could after I graduated from the 
Naval Academy. And over the last 33 years, Dana has raised our 
five children while I was away at sea, and has supported Navy 
families in every way possible. She's always been there with 
me, challenging me and adding perspective that I long ago grew 
to depend on.
    Our daughter, Rachel, one of our five children, is here 
representing the Richardson tribe. She's a student at the 
University of Virginia and is a summer intern in the Amputee 
Center at Walter Reed.
    Our oldest son, Nathan, is a Navy lieutenant. He and his 
wife are serving overseas in Naples, Italy. Our other son, 
Daniel, is doing research for renewable fuels in Hawaii. Our 
two youngest children, Matthew and Veronica, are visiting 
family in Oregon before they return home to go back to school.
    If you ask Dana, she would say, ``We're just a typical Navy 
family.'' We have moved 20 times, our kids have attended dozens 
of schools, we've lived all around the country and overseas. 
Today, the Richardson family, like so many other Navy families, 
is ready to continue to serve our Nation.
    I am also conscious that I am here before this committee 
for the very first time, and I want to thank you for your 
leadership in keeping our Nation secure and keeping our Navy 
the strongest that has ever sailed the seas. And, if confirmed, 
I very much look forward to working closely with you to 
continue that important work.
    I see the naval profession as a bond of trust and 
confidence with the American people and with our sailors. And I 
hold some core beliefs about our Navy that guide me. The Navy 
must be at sea, underway. It must be present around the world, 
protecting American interests, enabling access to international 
markets and trade, responding to crises, and providing 
security. We are at our best when we operate with others, 
including our fellow services, especially the Marine Corps, as 
well as with our partners and allies.
    The muscle and bones of the Navy are our ships, submarines, 
and aircraft, highly capable, exercised frequently, well 
equipped, and ready to operate from the sea and far from home. 
But, the heart and soul of our Navy are our sailors. Every day 
around the world, our sailors can be found on, under, and over 
the sea. They are smart, resourceful, committed Americans who 
want to be part of something special, to serve their country by 
being part of a high-performing team. They are rightly proud of 
what they do. And they are a formidable force. Despite a 
growing set of challenges and some significant strains, they 
continue to go to sea to do what must be done today, and to 
adapt and innovate in order to prevail tomorrow. It is a 
privilege to work with, and especially to lead, such a capable 
and resilient team.
    America sends us their sons and daughters, their brothers 
and sisters, their fathers and mothers to go to sea with us, 
potentially into harm's way. In return for that sacrifice, our 
Navy must provide them a positive and respectful environment 
where they can thrive and achieve their highest potential.
    And finally, the American people demand, as they should, 
that we execute our mission in a prudent and responsible way, 
worthy of their confidence in us.
    The bottom line is that, in any situation, in any 
competition, and certainly in any fight, America expects that 
their Navy will find a way to win. And we will.
    Mr. Chairman and members of the committee, if confirmed, I 
will give everything I have to honor and strengthen the bonds 
of trust and confidence that your Navy has with our Nation and 
its people.
    Thank you. And I look forward to your questions.
    Chairman McCain. Thank you, Admiral.
    Admiral Richardson, General Dunford recently stated--made a 
couple of statements in his appearance before this committee. 
One was that he said we can't--we cannot execute the 2014 
Quadrennial Defense Review with the budget cuts as a result of 
Budget Control Act, known as sequestration. He continues 
stating that ongoing cuts will threaten our ability to execute 
the current defense strategy. Do you agree with that?
    Admiral Richardson. Yes, sir, I do.
    Chairman McCain. Do you believe that, as other witnesses 
have--in uniform have stated, that continued adherence to 
sequestration will put the lives of the men and women serving 
in the Navy at greater risk?
    Admiral Richardson. Yes, sir, I do.
    Chairman McCain. You do.
    Are you seeing what I'm hearing, that there is becoming a 
morale problem and possibly, over time, a retention problem 
because of the effects of sequestration on ability to plan, 
ability to train, readiness, long deployments, et cetera?
    Admiral Richardson. Senator, from my experience, when I get 
around the fleet--and I do a fair amount of that--morale 
remains high, but there is a degree of unsettledness and 
uncertainty that arises from uncertainty in the fiscal 
environment. And so, as we manage our way through continuing 
resolutions, the looming sequestration--sequestration always 
looming over us, and manage our way through these times of 
reduced resources, there is an unsettled feeling in the force 
as this uncertainty clouds the air. They remain committed, as I 
said in my statement, to doing the job that they have been 
given. They want to be trained properly to execute the mission. 
And so, that's the way I see it right now.
    Chairman McCain. Which sequestration is a hindrance to.
    Admiral Richardson. It is, yes, sir.
    Chairman McCain. Department of Defense has announced a 2-
month gap of aircraft carrier presence in the Middle East later 
this fall while we are conducting air operations from the 
carrier there. Does that concern you?
    Admiral Richardson. Sir, that does concern me, but I would 
say that the overriding message that I hope is clear is our 
firm commitment to a naval presence in that region. We've been 
there for decades.
    Chairman McCain. And the absence of the carrier doesn't 
really authenticate a commitment.
    Admiral Richardson. Sir, I think the commitment does remain 
strong, and we'll work to mitigate----
    Chairman McCain. So, does this impair our ability to carry 
out operations, the absence of the carrier?
    Admiral Richardson. Sir, I think we will mitigate the 
absence--any absence of the carrier through other capabilities, 
using the entire----
    Chairman McCain. Tell me one other--tell me what replaces 
an aircraft carrier, Admiral.
    Admiral Richardson. Well, sir, you could use other air 
assets, strike assets to mitigate that gap.
    Chairman McCain. For example.
    Admiral Richardson. Land-based air or----
    Chairman McCain. So, now you're--believe that land-based 
air can replace the presence of the carrier?
    Admiral Richardson. Sir, there's no question about the 
value of an aircraft carrier in the region, sir.
    Chairman McCain. Well, then that doesn't comport with what 
you just said.
    Admiral Richardson. Sir, I was trying to make the point 
that--about our long-term commitment in the region.
    Chairman McCain. I'm talking about a 2-month gap in the 
short term.
    Admiral Richardson. Yes, sir. That gap is a reflection of 
the earlier strains on the force, long-term commitments----
    Chairman McCain. Yeah, but my question was, Is that going 
to hinder our ability to carry out the needed operations in the 
region, where obviously there's conflict taking place?
    Admiral Richardson. Without that carrier, there will be a 
decrement in our capability there, yes, sir.
    Chairman McCain. After more than 2 million--billion dollars 
in cost growth of the first three Ford-class carriers, what--
it's an example, and a glaring example, of cost overruns and 
schedules delays. What extent would giving the Chief of Naval 
Operations greater responsibility for acquisition programs help 
reduce cost overruns, schedule delay, and fix this problem, 
which, at least in the view of many of us, have difficulty 
justifying to our taxpayers?
    Admiral Richardson. Sir, I share your concern about the 
cost overruns of the carrier, and I agree with you that they 
are unacceptable. From my experience, controlling cost and 
schedule while delivering capability really resides from 
adhering to a few fundamental principles. One is clear command 
and control that is lean and agile. We've got to have a 
definition of requirements that is informed by available 
technology and available resources. You've got to have a stable 
design and a build plan before you begin production. And 
finally, you have to have informed and close oversight. I think 
that the Chief of Naval Operations is involved in every step--
every one of those four steps. And, if confirmed, I look 
towards--forward to being very involved in acquisition.
    Chairman McCain. Well, unfortunately, the last Chief of 
Naval Operations testified before this committee that he didn't 
know who was responsible for it. I hope you're aware of the 
changes that we're trying to make in the NDAA [National Defense 
Authorization Act] which would make the Chief of Naval 
Operations more involved.
    And finally, do you believe that it's appropriate, or would 
you be supportive of, a provision in the NDAA which calls for 
examinations of alternative platforms for aviation, as opposed 
to what is basically, right now, the only game in town?
    Admiral Richardson. Mr. Chairman, I look very much forward 
to supporting that study completely and seeing what information 
it produces.
    Chairman McCain. Thank you.
    Senator Reed.
    Senator Reed. Well, thank you, Mr. Chairman, Admiral 
Richardson.
    Following on the Chairman's questioning, the biggest 
program--new program coming online is the Ohio-class 
replacement. And you talked about sort of getting it right, 
from the beginning, which is requirements. And you're in a very 
significant position right now with your participation on the 
nuclear reactor program. Are you satisfied with the 
requirements, as they exist today, of 16 missile tubes on the 
Ohio-class, one of the most significant aspects?
    Admiral Richardson. Senator, the current requirements for 
the Ohio replacement program are exactly what we need to 
continue to deliver that capability.
    Senator Reed. And not only now, but if you're the CNO, 
you'll continue to look closely at those requirements to ensure 
that they're necessary and sufficient, though.
    Admiral Richardson. Yes, sir.
    Senator Reed. The other--what other requirements in--with 
respect to the Ohio-class replacement do you think are 
critical, besides the two? Are there any other key, sort of, 
game changers that you're looking at?
    Admiral Richardson. Yes, sir. Certainly, as I look at the 
Ohio replacement program, a program that will be defending the 
Nation well into the--for 50 years--well, potentially into 
2080s--there are some things that you must build into the ship 
that you must get right from the very start, and then there are 
some things inside the ship where you allow technology to 
mature and advance. I would say that a critical component that 
must be addressed from the start is--in addition to the missile 
tubes--is stealth. And we've paid a great--amount of time and 
energy to make sure that we have the stealth requirements of 
the submarine right.
    Senator Reed. Very good.
    One of the things that we have done in the last several 
years in the National Defense Authorization Act is create a 
sea-based deterrence fund to try to aid the construction and 
deployment of this new class of submarines. And the Navy is 
developing plans to use this sea-based deterrence fund. Do you 
have any notion of when those plans will be forthcoming and 
available to us?
    Admiral Richardson. Sir, first, you know, the creation of 
this fund, I think, highlights the existential importance of 
this program to our Nation, and also that executing this 
program will require a combination both of resources and 
authorities. We're conducting a study right now to both mature 
the design and mature the build plan. We should get that 
completed by the fall timeframe, and I look forward to 
collaborating when we have that more mature.
    Senator Reed. And the essence underlying this national sea-
based deterrence fund, the same logic, I presume, will apply--
this is maybe a comment more than a question--to the necessity 
as we go forward to replace the air- and land-based legs of the 
triad, also. Because, a service--exclusively service-funded 
program is very expensive, given competing demand. So, is that 
your logic?
    Admiral Richardson. Yes, sir, I agree with that logic. Sir, 
these are critical builds to reconstitute our strategic triad. 
Yes, sir.
    Senator Reed. Thank you.
    One of the other areas which gives us an edge, and we hope 
increasing edge, an increasing one, is the labs and the test 
facilities and the intellectual infrastructure of the Navy. And 
it's all over the country. We have the Naval Under-Warfare 
Center in Newport, but there are so many critical aspects of 
this. Particularly in these difficult budgetary times, do you 
have any concerns about appropriate funding for the 
laboratories? And will we lose out, in terms of their 
contribution to national security?
    Admiral Richardson. Sir, I think it's absolutely critical 
that we maintain this intellectual capital to inform our 
decisions, not only today, but even more so into the future, 
addressing your concern that programs like Ohio replacement 
remain attuned and relevant, going forward. It's absolutely 
critical that we fund this so that we can remain relevant. Also 
look forward to participating in discussions that can make them 
more agile and competitive with their private-sector 
counterparts, as well.
    Senator Reed. Just a final point. I think your comments are 
right on target. You need an infrastructure of research 
centers, the Navy, other services, but they have to be much 
more agile, much more connected to commercial procurement, 
commercial enterprise, and that's a challenge that you'll have 
to take on as you assume these duties.
    Thank you very much.
    Admiral Richardson. Thank you, sir.
    Chairman McCain. Before I recognize Senator Ayotte, I'd 
like you to affirm that the finest shipyard on earth is the 
Portsmouth Naval Shipyard. Is that correct?
    [Laughter.]
    Chairman McCain. Thank you.
    Senator Ayotte.
    Senator Ayotte. Well, thank you, Chairman. I appreciate 
your confirming what we all know, and certainly what Senator 
King agrees with me about, that the Portsmouth Naval Shipyard 
is the finest naval shipyard on earth.
    [Laughter.]
    Senator Ayotte. We have a great partnership between Maine 
and New Hampshire on this shipyard.
    And I actually know that you have a history with the 
shipyard. I certainly have been there before, and----
    Admiral Richardson. Yes, ma'am, I sure do.
    Senator Ayotte.--we look----
    Admiral Richardson. I--well, that's where my wife and I 
met, was up there, and we dated all around Portsmouth. So, we 
go all the--that's our----
    Chairman McCain. See? Just as I----
    [Laughter.]
    Senator Ayotte. So, we will welcome you back to the 
shipyard, and we'd enjoy that.
    But, I thank--I very much thank you and your family for 
your service to the country and willingness to take on this 
important leadership position during these challenging times.
    And yesterday, before the Committee on Readiness, Senator 
Kaine and I hosted a hearing that was focused on best practices 
at our Nation's public and private shipyards. And I believe my 
staff provided that testimony to you.
    Admiral Richardson. Yes, ma'am.
    Senator Ayotte. And one of the things that came out that is 
happening at the Portsmouth Naval Shipyard is a very strong 
partnership between labor and management that has driven 
performance significantly, where they are producing--producing 
the work they're doing on our attack submarine fleet ahead of 
schedule, under budget. And a takeaway from the hearing was 
that some of these best practices that are being put in place, 
that we need a better mechanism to share those among the 
shipyards before--public shipyards--to ensure that we can learn 
from each other to make sure that that strong partnership is 
there for excellent performance between labor and management. 
And I know that the Naval Sea Systems Command, NAVSEA, Labor-
Management Partnership Forum is an important start in that 
effort, but I think there can be more done, based on the 
hearing we had yesterday.
    So, I wanted to ask you about this issue, and your 
commitment to ensuring that we institutionalize best practices 
among our workforce and relationships between labor and 
management among all the four shipyards.
    Admiral Richardson. Yes, ma'am. First, I would say that 
they just are a magnificent team up in Portsmouth. And all of 
our public yards are absolutely strategic jewels in our 
Nation's capability. Even in my current job as Director of 
Naval Reactors, we are very involved with the shipyards. And it 
has been a thrust of my time here as the director to do exactly 
that, ma'am, is that we can share best practices, and we can 
share lessons learned, as well, more effectively. And so, that 
has been a--an emphasis of my time here, and will continue, if 
confirmed as CNO.
    Senator Ayotte. I appreciate it.
    As we look at the request for combatant commanders for the 
support from our attack submarine fleet, and then we look at--
we have--currently, we have about 54 attack submarines, and 
we're only meet of half of combatant commanders' request for. 
And as we look at some of the activity, particularly in the 
Asia-Pacific region, we know that there's--this is very 
important, to have this capacity. And yet, where we're headed 
is the number of attack submarine fleet--of subs is actually 
going down to 41 as we look forward to 2029. And so, one thing 
that this committee has done is really focusing on having the 
Navy procure at least two Virginia-class submarines per year.
    What are your thoughts on this shortfall and how we address 
it? Now, overriding everything, of course, is sequester and our 
need to resolve that. But, going forward, assuming we can work 
together to resolve that, which has got to be top priority, 
what's your thought on making sure that we have what we need?
    Admiral Richardson. Ma'am, I think it's very clear, and can 
show hard evidence that we currently enjoy superiority in the 
undersea domain. But, that domain is hotly contested, and we 
cannot rest for a minute and remain confident. We have to 
continue to keep pressing.
    To address your question, ma'am, exactly as you say, we've 
got to continue to try and mitigate that dip in attack 
submarine force level before the--below the requirement of 48, 
and we are doing everything we can to mitigate that. One is 
that the two Virginia-class submarines per year are a critical 
part of that program, very highly successful, continuing to 
deliver below budget and ahead of schedule. That must continue, 
and we must continue to try and reduce that construction time.
    As well, we're looking to do what we can to extend the life 
of our current Los Angeles-class attack submarines and every 
other thing we can to mitigate that trough.
    Senator Ayotte. I thank you.
    And I know that my time is expired, but I know the Chairman 
would share this concern, since we're in this public forum, 
that we say something about what Russia did yesterday in the 
United Nations, in terms of blocking the request for an 
investigation into MH-17. And I think it shows--it's not 
related to this hearing, but it shows our concerns that we've 
been trying to address in this committee on Russia.
    And I thank you for your willingness to serve in this 
important position.
    Admiral Richardson. Thank you, ma'am.
    Chairman McCain. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman. And I was hoping 
you would introduce me by saying I'm from the home of the 
greatest Naval Surface Warfare Center in southern Indiana, that 
naval bastion.
    Chairman McCain. I'll try to do that in the future.
    Senator Donnelly. Thank you, sir.
    [Laughter.]
    Senator Donnelly. Admiral, thank you. And, to your family, 
thank you very, very much. Like the Chairman and like you, 
Admiral, my dad was a Navy veteran. He was a little bit below 
decks on the ship, but loved every minute of having a chance to 
be part of it.
    When we look foreign and we look at the challenges we have 
in the nuclear area in regards to submarine warfare, one of my 
greatest concerns is the efforts to attack us, cyber-wise, to 
find out our technology, to find out our plans, to find out how 
we plan to map it out, going forward. And so, it's not only on 
the naval side, but on our contractor side. And I was wondering 
what is being done to make sure that there's no backdoors open 
with our contractors that other countries can get into.
    Admiral Richardson. Senator, I share your concern about 
activity in the cyberdomain. As we speak today, that is a hotly 
contested domain. And, just on our defense and Navy networks, 
we are, you know, subject to tens of thousands of attacks per 
day. Attribution is very difficult, but, just like in other 
domains, success, I think, revolves around being properly 
organized, trained, and equipped. And Navy is moving out in 
that area with 10th Fleet, the formation of cybermission teams 
that would provide not only defensive and support capabilities, 
but offensive tools that would be available, should our leaders 
choose to use those.
    With respect to protecting our networks, we use a variety 
of tools. Some of those exact techniques, I'm reluctant to talk 
about in an open forum.
    Senator Donnelly. Right.
    Admiral Richardson. But, we do maintain, both from a 
physical security, a cybersecurity, and personnel, appropriate 
measures to prevent those sorts of intrusions.
    Senator Donnelly. And I know you're working hard on it, and 
working in connection with our contractors to go over best 
practices with them to ensure that every avenue to the 
technology, to the intellectual capital, is cut off.
    One of the things we do at Crane Naval Warfare Center is, 
we collaborate a lot with the Air Force on systems and how to 
save money and how to kind of be able to--and I know this is a 
subject dear to the Chairman's heart--How do we make every 
dollar go a little bit further? How do we work in coordination 
to see if something can fit on--in both the Navy and in the Air 
Force? And I'm sure you would want to continue that effort.
    Admiral Richardson. Absolutely. Everywhere we can, not only 
meet the requirements of the mission, but be more efficient and 
effective, I'm very open to that. And particularly with respect 
to the work there at Naval Surface Warfare Center Crane, and 
their work in fighting the proliferation of counterfeit parts 
and those sorts of things is a big part of maintaining our 
security in the cyberdomain.
    Senator Donnelly. Thank you. And I had the privilege of 
traveling with you to one of our facilities. And, during that 
time, we had a discussion about the mental health of our 
sailors. And I am sure that you will continue the efforts of 
Admiral Greenert in making sure that--the mental health 
challenges our men and women face, that you're there to make 
sure there's no stigma and that services and assistance are 
available.
    Admiral Richardson. Senator, absolutely will remain fully 
committed to that, to help our sailors be fully part of a 
connected team so that, when challenges come of any sort, they 
can fall back and feel--and get support.
    Senator Donnelly. Let me ask you this. What keeps you up at 
night? What is your greatest concern? Number one, logistics-
wise, what do you need the most? And, number two is, what's the 
greatest danger you see out there, in your job?
    Admiral Richardson. Senator, I think the Chairman mentioned 
it, and it's been discussed here already at the hearing. The 
thing that has my attention is the growing complexity and 
urgency of our security environment around the world. Our 
Nation is pulled in so many different directions, not only the 
Indo-Asia-Pacific, but also we mentioned Russia and their 
activity in Europe, and certainly the activity in the Middle 
East. Contrasting to that is--sequestration, I think, is a 
symptom of sort of a level of awareness that I look forward, if 
confirmed, to enhancing, to make that message more vivid so 
that we can close the gap between the growing requirements in 
the security environment, and things like sequestration would--
which would threaten the resources to address it.
    Senator Donnelly. Admiral, thank you for your service to 
the country.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton.
    Senator Cotton. Admiral, thank you very much for your 
service. And thanks, to your family, for their service, as 
well. The Navy is unique among our services, that, in wartime 
or peacetime, the deployment pace does not really change, and 
we know it puts strains on families. So, both for what you 
represent for our sailors and what you represent for all their 
families, we're grateful for all of their service.
    Admiral, is China an adversary?
    Admiral Richardson. Senator, I think China is a complex 
nation. They are clearly growing in every dimension. Many of 
the things that they do sort of have an adversarial nature to 
them. They--they've got a vastly growing nation. Their activity 
in the South China Sea in land reclamation certainly has 
potential to destabilize that region.
    Senator Cotton. So, it doesn't sound like rosy relationship 
right now with China, between the United States and our allies, 
but various published reports have speculated that civilian--
our Civilian Nuclear Cooperation Agreement with China that the 
Obama administration has submitted to Congress may facilitate 
the transfer of sensitive nuclear equipment and technology to 
the People's Liberation Army's Navy. This is very troubling to 
me. And, given the trends you cite, I would imagine any 
increase in the capability and lethality of the PLA navy would 
also worry you. Do you believe that the United States Navy has 
a appreciable military advantage over the PLA navy at this 
point, especially regarding nuclear naval capabilities?
    Admiral Richardson. Senator, this is something I obviously 
watch extremely closely. The details of this are very, very 
technical and difficult to discuss in an open forum. I would 
look forward to discussing those in a classified setting with 
you.
    But, we have taken a look very closely at the successor 
agreement to continuing to exchange nuclear technologies. I 
believe that, in aggregate, we would be better with a renewed 
successor agreement than without it.
    Senator Cotton. Even if you suspected or knew that the PLA 
navy was going to divert that civilian nuclear technology 
towards nuclear naval systems?
    Admiral Richardson. Senator, again, the details of exactly 
that assessment are classified, but I can say, with a fair 
degree of confidence, that we are better with this agreement 
than we are without it.
    Senator Cotton. Okay, thank you.
    Right now, the Navy is on a budgetary path to 260 ships or 
less. Do you agree with the findings of the 2014 National 
Defense Panel, which was a bipartisan and congressionally 
mandated group of experts, that we should have a target force 
of between 325-346 ships?
    Admiral Richardson. Sir, I think that the strategic 
environment--you know, we could easily justify an appetite for 
more ships, but another dimension of the strategic environment 
is the resource part of that environment. Our current plan for 
a 308-ship Navy represents, right now, the very best balance to 
meet the demands, not only of the security environment, but 
also to do that with available resources.
    Senator Cotton. Secretary of the Navy Ray Mabus has said 
that quantity has a quality of its own. Do you believe that 
that is true? And, if so, is 308 ships going to be enough of a 
quantity to give us that quality of its own kind?
    Admiral Richardson. I 100 percent agree with Secretary 
Mabus about the quality of the number of ships. And the current 
plan does allow us to meet our responsibilities in the defense 
strategic guidance, albeit with some risk.
    Senator Cotton. In the recently issued National Military 
Strategy, General Dempsey, the Chairman of the Joint Chief of 
Staff, describes the need to counter certain revisionist 
states--Russia, China, Iran, North Korea principally among 
them. But, he also writes that the U.S. military advantage has 
begun to erode. Are there areas in which the U.S. Navy's 
military advantage has begun to erode, relative to our 
adversaries?
    Admiral Richardson. Senator, this is a very dynamic 
environment, and the technological environment is changing very 
rapidly. As the Chairman mentioned, we've got to become more 
agile in our acquisition systems to stay competitive in that 
realm. But, I'm confident that, with the support of this 
committee and with Congress and the innovation of the Navy, we 
will do that. But, as you said, you know, some of our readiness 
is starting to--we're still recovering from the effects of the 
2013 sequestration as we continue to build our readiness back 
up so that we've got appropriate responses forces for global 
contingencies.
    Senator Cotton. So, the flip side of what you just said is, 
without adequate support from this Congress, then our military 
advantage, as it relates to our Navy, may, in fact, begin to 
erode?
    Admiral Richardson. Yes, sir.
    Senator Cotton. Well, I hope that we provide you and all 
the sailors that you represent the adequate support you need, 
both to modernize our fleet and to continue to be a forward-
deployed force to project American power.
    Admiral Richardson. Thank you, Senator. I look forward to 
working with you.
    Chairman McCain. We might now hear from the Newport News 
Naval Shipyard, Senator Kaine.
    Senator Kaine. And Norfolk, as well, Mr. Chair.
    Chairman McCain. Norfolk. Excuse me. Both.
    [Laughter.]
    Senator Kaine. Thank you, Mr. Chair.
    And thanks, Admiral Richardson. And congrats to your 
cavalier daughter, Rachel. We're glad to have her here, as 
well, and your family.
    You've got a big day Saturday. The launch of the USS John 
Warner, a Virginia-class sub, at the Norfolk base, a former 
chair of this committee, and wonderful colleague. And that's a 
great program, actually, to exemplify a couple of issues. The 
Chair asked questions about acquisition reform. The Virginia-
class program, because of this kind of ``coopetition'' between 
the shipyard at Newport News and Electric Boat in Connecticut, 
has been a pretty solid program, in terms of delivering the 
subs, as contracted, on time, on budget.
    Admiral Richardson. Yes, sir.
    Senator Kaine. Are there lessons from that acquisition 
strategy that, you know, we replicate on Ohio-class or other 
platforms?
    Admiral Richardson. Senator, we intend to leverage all of 
those lessons to design and deliver the Ohio-class, using many 
of the same tools that have been successful in Virginia. And we 
hope to bring to you a design that is very mature. That was one 
of the key successes to the Virginia program. We hope to 
provide you a stable build plan that, if funded with 
predictable funds, will allow the team of shipyards at Newport 
News and Electric Boat to allocate risk and deliver those 
submarines, along with the Virginia-class, at the lowest 
possible price.
    Senator Kaine. Another aspect of the USS John Warner is--
it's obviously a nuclear sub, and you are the--currently the 
commander of Navy Nuclear Propulsion. When we talk about 
sequester and the effects of sequester on the defense mission, 
sometimes I think we ought to make sure we're broadening our 
view. In your current role, you work very closely with the 
Department of Energy around nuclear reactor work, as well, 
don't you?
    Admiral Richardson. Yes, sir.
    Senator Kaine. And sequester doesn't just affect defense by 
affecting the Department of Defense. The nondefense accounts, 
Department of Energy being one, that are affected by sequester 
also have a significant effect on our national security, isn't 
that correct?
    Admiral Richardson. Senator, that's exactly right. And 
Secretary Moniz has been very clear about the national security 
mission that he has in the Department of Energy, not only for 
naval reactors, which he fully supports, but also in the 
nuclear weapons business.
    Senator Kaine. So, if we were just to fix sequester in the 
defense accounts, but not fix sequester in the nondefense 
accounts, things like nuclear research through the DOE that has 
a direct impact on national security would still be 
compromised, correct?
    Admiral Richardson. That's true, yes, sir.
    Senator Kaine. I want to ask you about readiness and the 
measures of readiness. Because Senator Ayotte and I are chair 
and ranking on the Readiness Subcommittee. Let's get into the 
metrics a little bit.
    My understanding is, normally you have about a third--Navy 
would have about a third of its ships forward deployed to 
support regional commanders, but then have an additional 
component, usually three carrier strike groups and three ARGs, 
in a surge status, so kind of trained up and ready to deploy 
within 30 days. Talk to us about how sequestration and 
budgetary uncertainty affects that surge capacity, the 
readiness to respond to the unforeseen contingency.
    Admiral Richardson. Yes, sir.
    Senator, certainly, our priority has been--and Admiral 
Greenert's made this clear--that we will not deploy forces 
unless they are fully ready. And so, those forward-deployed 
strike groups and amphibious-ready groups will be ready in 
every respect. But, to meet our responsibilities in the Defense 
Strategic Guidance, we also need that surge force to respond to 
contingencies once those forward-deployed forces have done 
their mission. Currently, you know, our requirements are that 
we have three carrier strike groups and three amphibious-ready 
groups ready to deploy in the event of a contingency. Right 
now, we are at one of those three. We are on a path to recover 
so that we've got full readiness in both of those areas by 
2020, but that also is contingent on stable and reliable 
funding to get us there.
    Senator Kaine. And so, from the earlier testimony, even the 
forward-deployed--when we end up with this 2-month carrier gap, 
the forward-deployed is affected by budgetary uncertainty, and 
then, up until 2020, our surge capacity and readiness is--has 
been significantly affected, and we hope to get back to that 
surge capacity that we think is optimal.
    Admiral Richardson. Yes, sir.
    Senator Kaine. Just last item, quickly. Senator King and I 
were in India in October and visited the shipbuilders at the 
Magazon docks in Mumbai. And there was a great deal of pride 
there, and a great deal of desire to partner with the United 
States. I like the fact that you mentioned the Indo-Asia-
Pacific region. I view India and the Indian navy as a partner 
of growing importance as we look at this pivot to Asia. And I 
think there's a strong desire to partner with the United 
States, participate in naval exercises. They do more joint 
exercises with the U.S. than any other nation, and I would just 
like your opinion about that as my final question.
    Admiral Richardson. Senator, I agree, there's tremendous 
importance to that region, and also potential to further those 
relationships. And, if confirmed, I look forward to getting 
personally involved in making those ties stronger.
    Senator Kaine. Great. Thank you so much.
    Thanks, Mr. Chairman.
    Chairman McCain. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, Admiral, for being here today. And I do want to 
take special time and thank your father, your wife, Dana, and 
your daughter, Rachel, for accompanying you today.
    And, Rachel, a special shout-out to you for serving at 
Walter Reed right now. I have a dear friend that recently went 
through the Amputee Center. So, thanks so much for all your 
great service, as well.
    Admiral, in reference to the Iran nuclear agreement, the 
Obama administration has continuously said, over and over 
again, that the alternative to the Iran nuclear agreement is 
war. He--the President has made it clear in his statement, that 
the only alternative is war. So, as I'm out visiting with other 
people, that's kind of the response. It's picked up, and people 
are saying, ``Oh, we have to go to war if we don't sign this 
agreement.''
    In your best military judgment, do you believe that the 
only alternative to this nuclear agreement is war?
    Admiral Richardson. Senator, I think--my way of answering 
that would be that a major mission of our Armed Forces, the 
Joint Force and certainly the Navy, is to use all means 
necessary to deter that type of war, not only through 
preventing Iran from getting a nuclear weapon, but also by 
deterring any kind of--many of the other tools that they use to 
disrupt activity in that region. So, they've got considerable 
conventional forces, ballistic missiles, surface forces, and 
they've talked about mining the Straits of Hormuz, they support 
terrorist organizations throughout the region. We need to use 
the full set of capabilities that the Joint Force and the Navy 
can deliver to deter that. And that military contribution is 
also just a subset of a whole-of-government approach along with 
our allies in the region.
    Senator Ernst. So, a whole-of-government approach. And I 
think that's extremely important, that we remember that, that 
we do not have to sign this agreement, and that does not 
necessarily mean that we will be going to war with Iran. Is 
that your assessment?
    Admiral Richardson. Ma'am, I do support a whole-of-
government approach and----
    Chairman McCain. Admiral, you were just asked to give your 
personal opinion, if asked for it. The Senator is asking for 
your opinion as to whether there are other options besides 
going to war with Iran.
    Admiral Richardson. I think that there are other options 
besides going to war.
    Chairman McCain. Thank you.
    Senator Ernst. Thank you, Admiral.
    Thank you.
    Since we're on that topic, Iran's military budget is 
approximately $11 billion per year on defense. Its posture, 
however, is bolstered by a variety of asymmetric and relatively 
low-cost capabilities and tactics, including swarming at sea, 
artillery rockets, ballistic missiles, and UAVs. And, as you 
know, through this agreement, Iran will gain about $150 
billion, due to sanctions relief, and the ability to purchase 
more advanced weapons and equipment through the lifting of the 
U.N. arms embargo. And even if a small portion of the sanctions 
relief money is directed towards their military capabilities in 
Iran, what types of weapons and equipment do you believe that 
Iran would purchase to improve its ability to project force 
within the Persian Gulf?
    Admiral Richardson. Well, ma'am, I think that we would, as 
we have been throughout, be sensitive to the proliferation 
market in weapons. And so, I would be very concerned about them 
increasing their ballistic missiles fleet--force, as well as 
their anti-ship cruise missiles, the mines, and the surface 
combatants that you mentioned, as well.
    Senator Ernst. Okay. Well, I appreciate that.
    And I do think it is something that we have to be ever 
vigilant about. This is a very serious matter that we are 
facing today with Iran and its potentially increased military 
capabilities in that region. This is not an American problem, 
this is not an Iranian problem, this is a worldwide problem.
    So, I appreciate your attention to the matter, and I do 
look forward to supporting you in your confirmation.
    Thank you, Admiral.
    Admiral Richardson. Thank you, ma'am.
    Senator Ernst. Thank you, Mr. Chair.
    Chairman McCain. Senator King.
    Senator King. Thank you, Mr. Chair.
    Admiral, in this day and age where people move around so 
much, and particularly service families, it's hard to determine 
where someone is from. My definition is, it's where you went to 
high school, so I claim you as a proud son of the State of 
Maine. Delighted to have you here today.
    A second point. I spent some time, a year ago, on one of 
your Virginia-class submarines under the ice in the Arctic. 
When I came home, my wife said, ``What most impressed you?'' 
And I think she expected to hear about the marvelous technology 
and the amazing command center and all of that. And I said, 
``No, what really impressed me was the young people on that 
boat.''
    And you have extraordinary people. The officers, of course, 
were excellent. But, what really I noticed was the spirit and 
dedication and pride of the enlisted people, of the sailors. It 
was their boat, and they were so engaged and proud of the work 
that they were doing. I just want to commend you and pass along 
the observation that you are taking command of an extraordinary 
group of people. And, of course, the technology, which we've 
talked a lot about today, is important. But, ultimately, it 
seems to me it's the people that are going to make the 
difference.
    Admiral Richardson. Senator, thank you for that 
recognition. And I could not agree with you more. And I am so 
privileged for the opportunity presented here today.
    Senator King. One of the questions that the Chairman asked 
you at the beginning--he goes through a set of standard 
questions--is, Will you give your personal opinion when called 
upon in your position? I want to emphasize that. You're going 
to be in the National Security Council. You're going to be in 
the Oval Office. You're going to be at the upper reaches of the 
decisionmaking process at the Pentagon. You've got to speak up. 
If--you have extensive experience, wisdom, and background to--
judgment to be brought to be bear on these questions. And I 
hope there'll be that--we all experience that moment in a 
meeting where you say, ``Should I say something, or not?'' I 
hope you'll remember this moment and, even if it's the 
President of the United States, say, ``Mr. President, I have to 
respectfully disagree.'' We need that from you, and I think 
that's one of the most important things that you bring to this 
position.
    Will you give me a commitment that you're going to be just 
this side of obnoxious in making your case at the highest 
levels of the United States Government?
    Admiral Richardson. Sir, I specialize in going well beyond 
obnoxious.
    [Laughter.]
    Admiral Richardson. And I look forward, if confirmed, to 
participating in those discussions. And I will use----
    Chairman McCain. If you need practice in that, Senator King 
will help you out.
    [Laughter.]
    Admiral Richardson. Thank you, sir.
    Senator King. Thank you, Mr. Chair. Your confidence is 
overwhelming.
    [Laughter.]
    Senator King. I mentioned about the Arctic. I see the 
Arctic as an area of tremendous both opportunity and challenge. 
Characterize our force structure and capabilities in the 
Arctic, vis-a-vis Russia, particularly in the area of 
icebreakers.
    Admiral Richardson. Senator, the United States is an Arctic 
nation, and the security environment in the Arctic is changing 
as navigation passages open and access to natural resources, 
you know, opens up, as well. We must remain engaged in the 
Arctic. The Navy is on a--has developed a roadmap to increase 
our capability in the Arctic to pace this changing security 
environment. We are partnering closely with the whole of 
government and other sister services, particularly of the Coast 
Guard, in this area.
    Senator King. But, isn't it true that, in terms of 
icebreakers, which are the roadbuilders of the Arctic, we have 
one little country road, and--they have a bunch of interstate 
highways, or something like 40 icebreakers, we have one.
    Admiral Richardson. Yes, sir. Senator--Admiral Zukunft, 
from the Coast Guard, has testified, I think, in very clear 
terms, that we need to address this icebreaker situation.
    Senator King. I think it's a serious problem that we're 
going to have to really put some attention to. And I understand 
it's in the Coast Guard's jurisdiction, but it's--it certainly 
affects your ability to operate in that region.
    Admiral Richardson. We're absolutely closely partnered, no 
daylight between us on that.
    Senator King. In your advance policy questions, you 
mentioned that you believed it would be in the national 
interests that we accede to the Law of the Sea Treaty. Could 
you expand on that a bit?
    Admiral Richardson. Senator, I do believe that. I think 
that becoming part of that community would give us a great deal 
of credibility. And, particularly as it pertains to these 
unfolding opportunities in the Arctic, this provides a 
framework to adjudicate disputes and participate as everybody, 
you know, moves to, you know, improve their capability and 
posture in the----
    Senator King. Well, in fact, because we're not members of 
that treaty, we are in--we are literally losing ground in the 
Arctic, isn't that correct?
    Admiral Richardson. I think that becoming part of that 
treaty is an important part of our movement into the Arctic, 
yes, sir.
    Senator King. Thank you, Admiral. Thank you for your 
service.
    Admiral Richardson. Thank you, Senator.
    Chairman McCain. Thank you, Admiral, for that testimony on 
the Arctic. I know that Senator Sullivan will have more on 
that. But, we--it seems to me that the--just the icebreaker 
situation is indicative of the difference in emphasis that 
Russia and the United States seem to place. Would you agree 
with that?
    Admiral Richardson. Sir, if you just look at the resources, 
they've been very focused in the Arctic for a long time.
    Chairman McCain. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair.
    Admiral Richardson, thank you for being here. 
Congratulations to you and your family. And thank you all for 
your years of service.
    I also want to thank you for the time we spent in my office 
answering a range of questions.
    One general question that I would have here, and would 
appreciate your personal opinion and your candor, is--it 
relates to the current advantage that we enjoy with our 
adversaries, like Russia and China, and the specific threats to 
those gaps being narrowed as a result of sequestration if you 
have to deal with that in 2016.
    Admiral Richardson. Yes, sir. As I said, the pace of 
technological change is just picking up. And so----
    Senator Tillis. Can you talk to specific areas where you--
that are your greatest concern?
    Admiral Richardson. I would say that, in particular, the 
ability to use a long-range precision-guided munition, a 
weapon, to target with greater and greater precision at longer 
and longer distances, this anti-access area denial capabilities 
that we've talked about many times, are a particular concern.
    Senator Tillis. The--what advice would you give us, as 
we're sitting here and we're trying to conference the defense 
authorization, and we're trying to get an appropriations 
process going--if you're kind of guiding us through what we 
need to do to help you do your job, what do you need to tell 
us? What do we need to stop doing, what do we need to start 
doing?
    Admiral Richardson. Senator, I think that we've proposed a 
solid plan, and we've mentioned, already, the effects of 
sequestration and uncertainty in the fiscal environment, the 
budget environment. And perhaps the greatest thing that we 
could do together is put in place a long-term and predictable 
stream of funding.
    Senator Tillis. Thank you for that.
    I'm going to get a little bit more parochial now with my 
marines down in North Carolina. And I know the Commandant of 
the Marine Corps has frequently stated that the combatant 
command requirement, I think, for amphibious ships across a 
range of operations exceeds 50. I think the minimum is 38. Yet, 
we're at 30 operating today, and it doesn't look like we'll 
obtain a amphibious fleet of more than 34 across 30 years of a 
shipbuilding plan. Are you concerned with that? And what more 
do we need to do? What can Congress do to help you overcome 
that ship shortfall?
    Admiral Richardson. Senator, this is an area where Navy and 
Marine Corps have been discussing and, again, have realized 
together that, although the requirement--the military 
requirement is 38, the current fiscal environment is going to 
drive us to 34. I appreciate the assistance of Congress to 
getting us to 34. To address those--that gap between the 
requirement and what we can resource, we're looking at 
augmenting our lift there with other platforms besides gray 
hulls. Gray hulls are absolutely, you know, the requirement 
that's needed for the high-end threat, but there may be 
applications and opportunities to lift marines using other 
platforms.
    Senator Tillis. Thank you.
    And again, I want to tell you I look forward to you--your 
confirmation. I wholeheartedly support it.
    I would ask some questions about concerns in the Arctic, 
but I have a feeling that my colleague here is going to do a 
better job of that than I can, because he's got bird's-eye 
view. But, I think it is an area that we all share a concern, 
and would appreciate your support in addressing his and all of 
our concerns.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman. Thank you, Mr. 
Ranking Member.
    Thank you, Admiral, for being here. Thank you for your 
service. I'm grateful for your family's service, as well. We're 
very pleased to have you in front of this committee.
    I want to talk a little bit about combat integration. I 
strongly believe that we should have appropriate standards that 
meet the needs of the positions and that allow anyone who meets 
those standards to be able to do those jobs. According to your 
advance policy questions, the Navy will provide a written 
report to the Secretary of Defense in September of 2015 with 
validation of standards as gender-neutral. Ninety-five percent 
of Navy jobs are already open to both men and women. And my 
understanding is that the remaining positions are Special 
Operations positions. Can you tell me how you will work with 
Special Operations Command to assess if you will need to ask 
for an exception? And what, if anything, would you--would lead 
you to ask for an exception, particularly with regard to the 
Navy SEALs?
    Admiral Richardson. Ma'am, it's true that, currently, we 
have more than 95 percent of the jobs open, as you said, to 
women already. I was privileged to be the commander of the 
submarine force as we integrated women into the submarine 
force, and that integration has gone spectacularly. They've----
    Senator Gillibrand. That's good news.
    Admiral Richardson.--really have done a terrific job.
    Those discussions, I think, must begin with mission 
effectiveness. And I'm interested in any plan that would 
improve our mission effectiveness in those areas. We have 
really just the Special Operations Forces that remain to be 
evaluated. I'm not familiar with the details of those 
discussions at those time, but, if confirmed, looking forward 
to getting very involved with Special Operations Command to 
make sure that we give everybody a fair opportunity.
    Senator Gillibrand. Thank you.
    And a related issue, prevalence of sexual assault in the 
military still remains quite high. And one of the biggest 
concerns this whole committee shares is the rate of 
retaliation; that, in fact, of all those who reported, 62 
percent were retaliated against. And that's the same rate as it 
was 2 years ago. And retaliation takes many forms. Fifty-three 
percent experienced social retaliation, peer-to-peer. Thirty-
five percent experienced adverse administrative action. Thirty-
two percent experienced professional retaliation. And 11 
percent received punishment for an infraction. So, arguably, 
more than half of that retaliation is coming from their chain 
of command or from some command structure.
    So, I would urge you to look very heavily at this issue of 
retaliation, because, unfortunately, the effect of it is, less 
survivors come forward. And if you have less survivors coming 
forward, you have less cases to investigate, and you will 
convict less rapists.
    And I want to just give you a thumbnail sketch of data that 
we got from one naval base. There were--and this is the--for 
the year of 2013 at Camp Pendleton--there were 15 cases 
considered, two court-martial charges preferred, two proceeded 
to trial, two convicted of sexual assault. So, two out of 15 
went forward. What we know about the crime of rape, it has very 
little false reporting. Some estimate between 2 and 5 percent 
are false reports. So, in those cases, you were only able to 
get about 10 percent cases to move forward. So, I think we have 
to do better, in terms of doing the investigations, assessing 
viability of witnesses and credibility of witnesses, and 
bringing more cases to trial, because two out of 15 is not a 
great rate.
    So, those are challenges that you will have. This committee 
is very interested in it. I hope you will make a commitment 
that you will work with me and the rest of us on trying to end 
the scourge of sexual violence, because it does result, 
unfortunately, in a lot of people leaving the military. And so, 
a lot of your women, a lot of your men, are leaving because 
they are experiencing assault within their own ranks.
    Admiral Richardson. Ma'am, you have my full commitment that 
I'll spare no effort to eliminate--we can't be--we can't rest 
until sexual assault is eliminated from the services. I can't 
think of anything more toxic to teamwork than that insider 
threat that preys upon the confidence between team members. I'm 
fully committed to eliminating this.
    Senator Gillibrand. And one of your challenges will be in 
lower command structures, where, in the last survey, women 
responded to experiencing some form of sexual harassment and 
sexual discrimination. Sixty percent of that harassment, they 
reported, was from their unit commander. So, there's an issue 
with some commanders that they really need to be trained better 
to eradicate sexual harassment and sexual discrimination, 
because, again, it creates a negative climate that perhaps is 
more permissive toward sexual assault.
    Admiral Richardson. Yes, ma'am, I think that is absolutely 
the most productive battleground. If we're going to solve this, 
we're going to solve it with the deck-plate leaders, the chief 
petty officers, the officers who are in the spaces and will 
eliminate not only sexual assault, but those precursor 
behaviors that start us down the road.
    Senator Gillibrand. Exactly.
    For the record, I will submit a question about cyber. I'm 
very grateful for your interest in cyber. And I--my question 
for the record will be, What career paths do you see for 
members of the Navy who want to make cyber their career?
    Admiral Richardson. Yes, ma'am, I'll look forward to that.
    Senator Gillibrand. Thank you.
    Admiral Richardson. Yes, ma'am.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    And, Admiral, good to see you again. Great to see your 
family. My father was also a Navy officer, also a father of six 
kids. When I joined the Marine Corps, he reminded me, on a 
daily basis, that the Marine Corps was Department of the Navy. 
Is that true?
    Admiral Richardson. That is true, yes, sir.
    Senator Sullivan. Oh, okay. I'll make sure he knows that.
    [Laughter.]
    Senator Sullivan. I do want to touch on the Arctic. The 
actual numbers are, as Senator King mentioned, one icebreaker 
for the United States, about 40 for Russia. They're building 
five to six new ones. Some of them are nuclear-powered. I mean, 
we are completely just not even in the game. And you know the 
importance.
    I must admit, I was a little disappointed by your answer to 
Senator King, because what's--what I see is happening is, the 
Arctic and icebreakers are becoming kind of a bureaucratic 
football. So, for example, 4 months ago, I asked Assistant 
Secretary of the Navy Stackley to just give me a straight-up 
answer on the Arctic, on icebreakers. He kind of did the same 
thing, ``Well, it's a little bit in the Coast Guard realm.'' 
Well, the question is, Is it in the national interests of the 
United States to have more than one icebreaker when the 
Russians are trying to own the Arctic? What's your answer?
    Admiral Richardson. I think the answer is clearly yes.
    Senator Sullivan. Okay. So, I think what we need to do is 
not keep talking about--I've never gotten an answer from the 
Assistant Secretary of the Navy. Four months ago. I never got 
an answer. We just need to know, Do we need it? How many? And 
then, How do we get there? No more, kind of, ``Well, it's the 
Coast Guard's problem, not really the Navy's.'' In the '70s, 
the Navy was the service that supplied icebreakers to the 
country, wasn't it?
    Admiral Richardson. Yes, sir, I believe so.
    Senator Sullivan. Yeah. So, I think we need to just get 
through the bureaucratic redtape. It's clearly in the national 
interests. You just stated it, everybody states that we need to 
move forward and quit kind of doing the football back and forth 
between the Navy and the Coast Guard. Would you agree with 
that?
    Admiral Richardson. Senator, I am not interested in a 
bureaucratic approach to this. We need to have a plan of 
action. And I look forward, if confirmed, to working with the--
our partners in the Coast Guard to address this in real terms.
    Senator Sullivan. Okay. And it would be good to hear back 
from Assistant Secretary Stackley. I asked him a question on 
this 4 months ago. He said he'd get back me. He never has.
    Just a real quick question, just a yes-or-no answer. We had 
an amendment in the NDAA supporting the Pacific rebalance that 
said it was the sense of the Congress that the services should 
increase force posture to give credibility to the rebalance. Is 
it--should services be free to ignore the defense guidance of 
the Congress--just yes or no--in the NDAA?
    Admiral Richardson. No.
    Senator Sullivan. Okay.
    Finally, I want to draw your attention to the chart and 
some of the handouts we had here. This relates to China's 
reclamation activities in the South China Sea. This is an 
example. It's 18 months, before and after, of the Fiery Cross 
Reef. I'm sure you're familiar with it, Admiral. It's actually 
a 2.7 square--2.7 million square meters, 505 football fields, a 
3,000-meter airstrip long enough for any PRC military aircraft. 
It's just a huge--one of their large reclamation projects.
    We were recently in Singapore, a number of us, at the 
Shangri-La Dialogue, and Secretary Carter gave a speech, that I 
thought was quite strong, on what our policy is. But, there 
seems to be a confusion in the policy. So, Secretary Carter 
stated, ``We will continue to fly, sail, and operate wherever 
international law allows.'' He then stated, ``After turning an 
under---after all, turning an underwater rock into an airfield 
simply does not afford the rights of sovereignty or permit 
restrictions on international air or maritime transit.''
    However, PACOM Commander Harris, just 2 weeks ago at the 
Aspen Security Forum, stated, ``It is U.S. policy to afford a 
12-minute limit around all of the islands that are in the South 
China Sea. And it's been a longstanding policy, not because 
they're occupied by China or built up by China, but just in 
general.'' He later clarified his statement to include islands 
and formations.
    Do you think--first of all, to me, that's very confusing 
policy--do you think that we need to clarify that? And do you 
think that Admiral Harris's statement is just a de factor 
recognition of China's reclamation strategy? And is it your--in 
your best professional judgment, should we be sailing within 12 
nautical miles and not allowing the facts-on-the-ground 
strategy to be changed by China to essentially recognize Fiery 
Cross Reef and other places?
    It's a really important issue, and there's no clarification 
from the White House, State Department, or Department of the 
Navy. I think Secretary Carter and Admiral Harris's statements 
are actually very contradictory. That kind of uncertainty can 
create miscalculations.
    Admiral Richardson. Senator, I think it's absolutely 
important that the Navy continue to be present in that region, 
for a number of reasons, to provide our continued presence, 
that we are there as a matter of routine in international 
waters. We do have to respect the legitimately claimed 
territorial boundaries. I think that Secretary Carter and 
Admiral Harris would agree with me there. And so----
    Senator Sullivan. But, does that mean respecting that, in 
terms of a 12-nautical-mile radius?
    Admiral Richardson. Sir, I'd have to look at exactly which 
of those claims are legitimate. It's a dynamic situation. 
There's competing claims down there. But, the bottom line is, 
we need to get down there, understand the truth, make that very 
clear, and be present in that area so that we don't get 
shouldered out of the South China Sea.
    Senator Sullivan. Mr. Chairman, I'll be submitting 
questions for the record to make sure that the policy of the 
United States is clarified on this important issue, because 
right now it's very murky.
    Chairman McCain. Good luck.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I join Senator Sullivan in hoping that this issue is 
clarified, because I think it is so important to our national 
security, and I'd like to work with him in seeking additional 
answers.
    And I recognize that those answers will involve more than 
just your input and contribution. But, on your contribution, 
thank you so much for the great work that you've done 
throughout your career to assure that our submarine force is 
unmatched in the world in its power, stealth, and strength.
    And I want to thank you and your family for your service, 
and ask you, first of all, whether you can commit to coming 
back to Connecticut to visit our sub base there as one of your 
first official visits after you're confirmed, as I expect you 
to will be.
    Admiral Richardson. Yes, sir.
    Senator Blumenthal. Thank you.
    On the subject of our submarine force, the Ohio replacement 
program--you probably know more about it than most anyone else 
in the Navy and in our Department of Defense. And I believe 
that you are committed to it, personally and professionally. Is 
that correct?
    Admiral Richardson. Absolutely, Senator. It's our number-
one modernization priority.
    Senator Blumenthal. And in that regard, as the number-one 
priority of modernization in the United States Navy, the 
pricetag is likely to be in the range of $100 billion, which 
seems staggering and obviously has to be met, even though the 
Navy has other programs, other modernization efforts, and other 
shipbuilding projects. Have you given any thought to how that 
will be possible to do?
    Admiral Richardson. Senator, as a--as you and I have 
discussed, this is an absolutely critical program for the 
country, and we are doing everything in the Navy to make sure 
that we not only get the requirements right and stable, but 
that we treat our cost targets like any other performance 
parameter for that program. And we are driving and on a good 
track to achieve all of those cost targets.
    Having said that, as you said, it will be a significant 
investment for the Nation, one that I believe must be done. If 
we absorb that entire cost within the Navy, that will come at a 
tremendous price, in terms of our other responsibilities in 
ships and aircraft. I don't, either, want to leverage that on 
our sister services, and so I look forward to working closely 
together with the Department and Congress to address this.
    Senator Blumenthal. Really, it should be seen as a 
challenge for our entire national defense, not just the Navy, 
because its ramifications and contributions to our defense 
range well beyond just seapower.
    Admiral Richardson. Yes, sir, I would agree.
    Senator Blumenthal. Let me move to another aspect of the 
Navy's combat capability, the F-35, which, according to the 
analysis I've seen, will be six times more effective than 
legacy fighters in air-to-air combat, five times more effective 
in air-to-ground combat, six times more effective in 
reconnaissance and suppression of air defenses. Again, another 
investment--a good word, an appropriate one, I think--to use in 
our national defense.
    I noted that the fiscal year 2016 (FY-2016) budget request 
from the Navy included 16 fewer F-35 aircraft in the last 3 
years of the Future Years Defense Plan than were anticipated 
just 1 year before. Can you shed some light on that request? 
And also, I'd appreciate your assurance that the F-35 is still 
a priority for the Navy.
    Admiral Richardson. Senator, the Navy remains committed to 
the F-35 Lightning as an essential part of our future air wing. 
It is the aircraft that is designed from the ground up to 
address, you know, the fifth-generation challenges in 
information warfare. So, we do remain committed to that.
    The adjustments in the President's budget request for 
fiscal year 2016, again, just reflect some of the extremely 
difficult choices that we're making to balance the best way to 
address the national security challenges within the resources 
provided.
    Senator Blumenthal. And the F-35, like the Ohio replacement 
program, is really essential to all of our national defense. 
Obviously, the other services share in the costs and the 
benefits of it. And I'm hoping that the strategy here will be a 
combined Department of Defense commitment to the investment 
that's required.
    Admiral Richardson. Senator, if confirmed, I look forward 
to exploring all those options.
    Senator Blumenthal. Thank you. I look forward to seeing you 
in New London as the Chief of Naval Operations. Thank you very 
much.
    Admiral Richardson. Thank you, Senator.
    Senator Blumenthal. And again, thank you to your family, as 
well.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    And, Admiral, we appreciate the opportunity to have you 
with us. And I believe you have the background and the 
dedication and the character to lead the Navy. And this 
Congress, I believe and am confident, will support you. I hope 
that you understand that you have to give us the straight 
facts, tell us what you believe, and, if there are problems, 
I'll--bring them forward to us, and I believe Congress will 
respond if in any way possible.
    Will you, as you've committed, I think, in your written 
answers, but will you give your best judgment to the President 
of the United States and to Congress on all issues of which 
you're inquired of?
    Admiral Richardson. Yes, sir, I will.
    Senator Sessions. Thank you for that.
    I see you've had background as a submarine development 
squadron and other submarine effort--other commands. Do you 
feel that that will assist you as we deal with the Ohio-class 
development?
    Admiral Richardson. Yes, sir, I do.
    Senator Sessions. Give us some of the ideas that you bring 
to bear on the development of the Ohio-class, which we all know 
is important and essential, but also we know we've got some 
budget constrictions out there that are going to place that 
program in jeopardy if we don't watch it. And I think, more 
than a lot of programs, failure on the beginning to get it 
right in the procurement process could endanger that program. 
So, give us your thoughts about what you think needs to be done 
as we go forward.
    Admiral Richardson. Yes, sir. I think you've got it exactly 
right, sir, that you've got to get that--the requirements set. 
And the Navy has done that. We are working towards providing a 
mature design so you've got to have a mature and stable design 
before you begin production so that you're not dealing in 
managing costly change orders after you've begun production. 
And then I hope to provide a program--a build plan that would 
allow for stable and predictable funding. That allows us--the 
Navy to work very closely with the shipbuilders to provide a 
production line that results in the lowest cost per unit.
    Senator Sessions. I think most of us have come to 
understand how unpredictability and uncertainty and alterations 
of schedule can drive up cost. And sometimes that's Congress, 
sometimes it's Department of Defense's fault, other times the 
contractors have to be held to account. But, are you--will you 
help us remain committed to maintaining the kind of schedule 
that keeps cost at the lowest level?
    Admiral Richardson. Absolutely, sir. And what we've found 
is that we've got tremendous commitment on the part of our 
shipbuilders. They are as committed to driving costs down as we 
are. And there are ample opportunities to deliver high-end 
warfighting capability at the appropriate price, delivers the 
capability that's required for the Nation, and provides 
businesses a chance to thrive, as well.
    Senator Sessions. You made reference earlier to the triad, 
our nuclear defense triad--aircraft, submarines, and land-based 
ICBMs. Do you believe that remains a critical part of our 
defense structure?
    Admiral Richardson. Yes, sir, I do.
    Senator Sessions. Some have questioned that. And I guess 
you're familiar with those concerns. I believe you're correct. 
I think Congress believes you're correct. But, I hope you will 
keep us informed on that, because some would suggest otherwise. 
I think that would be a big mistake at this point in time.
    You and I had the opportunity to discuss just efficiencies. 
I serve on the Armed Services Committee and the Budget 
Committee. I feel the tensions there very intensely. It's been 
said in--that the Defense Department--in and around the Defense 
Department, but each service is committed to maintaining 
personnel levels. They fear that if their personnel levels 
drive--drop, they'll be diminished in their influence and 
power. Tell me, Are you committed to maintaining the defense--
the Navy fleet at the level it needs to be, but, at the same 
time, maintaining personnel levels, like private businesses 
have to do, lean and productive?
    Admiral Richardson. Senator, absolutely. And so, we must 
maintain--what we deliver is capability. And we want to, 
particularly as the environment--the technological environment 
changes, there will be new opportunities that open up for our 
people. We want to make sure that we keep our people employed 
in the very best possible way doing things that people do best. 
And so, I am committed to making sure that we do that in as 
lean and agile a fashion as possible.
    Senator Sessions. And sometimes rules that we pass in 
Congress make that difficult for you. I hope that you will keep 
us informed on how we can help you achieve that goal.
    Thank you, Mr. Chairman.
    Chairman McCain. Well, Admiral, we thank you for your 
testimony this morning, and we thank you for responding with 
your personal opinion when it's requested. You're taking on a 
very difficult task in very difficult times, and I'm sure that 
you are well qualified, and we will attempt to make sure that 
your nomination is confirmed before we depart for our ill-
deserved August recess.
    This hearing is adjourned.
    [Whereupon, at 11:00 a.m., the hearing was adjourned.]

    [Prepared questions submitted to Admiral John M. Richardson 
by Chairman McCain prior to the hearing with answers supplied 
follow:]

                        Questions and Responses
                            defense reforms
    Question. Do you see the need for modifications of any Goldwater-
Nichols Department of Defense Reorganization Act of 1986 provisions? If 
so, what modifications do you believe would be appropriate?
    Answer. Goldwater-Nichols was revolutionary in its time and has 
helped to transform the Department of Defense. However, much has 
changed in the past 30 years in both the Joint Force and the security 
environment. As such, I believe a review would be useful. If confirmed, 
I would work closely with the Secretary of Defense and the Secretary of 
the Navy if such a review were undertaken.
                                 duties
    Question. Section 5033 of title 10, United States Code, describes 
the duties of Chief of Naval Operations and requires that the person 
nominated to fill the job have had significant experience in joint duty 
assignments, including at least one full tour of duty in a joint duty 
assignment as a flag officer.
    What is your understanding of the duties and functions of the Chief 
of Naval Operations?
    Answer. Under the authority, direction, and control of the 
Secretary of the Navy, the Chief of Naval Operations is responsible for 
organizing, training and equipping forces that will be provided to 
combatant, fleet and component commanders; serves as the primary 
maritime advisor to the President and Secretary of Defense; is the 
senior Uniformed Leader of the Navy; and represents the Navy on the 
Joint Chiefs of Staff.
    Question. What background and experience, including joint duty 
assignments, do you possess that you believe qualifies you to perform 
these duties?
    Answer. My career has afforded me a broad range of experience as a 
Naval Officer and Joint Warfighter. I have been privileged to command 
the submarine USS Honolulu, Submarine Development Squadron 12, 
Submarine Group 8, Submarine Allied Naval Forces South, Naval Submarine 
Forces, and served as the Director of the Naval Nuclear Propulsion 
Program.
    My Joint assignments included the Naval Aide to the President, the 
Assistant Deputy Director for Regional Operations on the Joint Staff, 
and the Director of Strategy (J5) for U.S. Joint Forces Command.
    I have also served on a number of Navy staffs including U.S. 
Pacific Fleet, the Navy Staff, and U.S. Naval Forces Europe and Africa.
    Question. Do you meet the joint requirements for the position, 
including at least one full tour of duty in a joint duty assignment, or 
did you require a waiver?
    Answer. I meet the Joint requirements for the position.
    Question. Do you believe that there are any steps that you need to 
take to enhance your ability to perform the duties of the Chief of 
Naval Operations?
    Answer. No.
                             relationships
    Question. Other sections of law and traditional practice establish 
important relationships between the Chief of Naval Operations and other 
officials. Please describe your understanding of the relationship of 
the Chief of Naval Operations to the following officials:
    Secretary of Defense.
    Answer. The Secretary of Defense is the principal assistant to the 
President in all matters relating to the Department of Defense. As a 
Service Chief and member of the Joint Chiefs of Staff, the Chief of 
Naval Operations (CNO) is a military adviser to the Secretary of 
Defense, particularly regarding matters of naval warfare, policy, and 
strategy.
    Question. Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense, on occasion, serves as 
acting Secretary in the absence of the Secretary. During these periods, 
the CNO's relationship with the Deputy Secretary will essentially be 
the same as with the Secretary. The Deputy Secretary is also 
responsible for the day-to-day operation of the Department of Defense. 
If confirmed, I will endeavor to interact regularly with the Deputy 
Secretary to provide my best possible professional military advice and 
the same level of support as I would the Secretary.
    Question. The Under Secretaries of Defense.
    Answer. Under current DOD Directives, Under Secretaries of Defense 
coordinate and exchange information with DOD components, to include the 
Services, in the functional areas under their cognizance. If confirmed 
as CNO, I will respond and reciprocate, and use this exchange of 
information as I communicate with the Chairman of the Joint Chiefs of 
Staff to provide military advice to the Secretary of Defense.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The CNO is a member of the Joint Chiefs of Staff and, as 
such, works with and through the Chairman in the execution of duties. 
Along with the other Service Chiefs, if confirmed I will be a member of 
the Joint Chiefs of Staff tasked with the responsibility for actively 
reviewing and evaluating military matters and offering professional 
military advice to the President, National Security Council, and 
Secretary of Defense.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. When functioning as the Acting Chairman, the Vice 
Chairman's relationship with combatant commanders is that of the 
Chairman. Also, the Vice Chairman has the same rights and obligations 
as other members of the Joint Chiefs of Staff. If confirmed, I would 
exchange views with the Vice Chairman on any defense matter considered 
by the Joint Chiefs of Staff. The Vice Chairman also heads or has a key 
role on many boards that affect readiness and programs and, therefore, 
the preparedness of naval forces. If confirmed, I will establish a 
close relationship with the Vice Chairman on these critical issues.
    Question. The Secretary of the Navy.
    Answer. The CNO is responsible, under the Secretary of the Navy for 
providing properly organized, trained, and equipped forces to support 
combatant commanders in the accomplishment of their missions. In 
addition, the CNO assists the Secretary of the Navy in the development 
of plans and recommendations for the operation of the Department of the 
Navy. The Navy enjoys a productive, collaborative environment within 
the Department, and if confirmed, I will work closely with the 
Secretary of the Navy to perpetuate it.
    Question. The Under Secretary of the Navy.
    Answer. The Under Secretary of the Navy is the principal assistant 
to the Secretary of the Navy and is first in line of succession. The 
Under Secretary performs such duties, and exercises such powers, as the 
Secretary shall direct. If confirmed, I look forward to establishing a 
close relationship with the Under Secretary to achieve the Secretary's 
goals.
    Question. The Assistant Secretaries of the Navy.
    Answer. The Assistant Secretaries of the Navy work with the Under 
Secretary to achieve the Secretary's goals. Like the Under Secretary, 
the Assistant Secretaries perform such duties, and exercise such 
powers, as the Secretary shall direct. If confirmed, I will work with 
the Assistant Secretaries to achieve the Secretary's goals.
    Question. The General Counsel of the Navy.
    Answer. The General Counsel of the Navy serves as legal advisor to 
the Department of the Navy and performs such functions as the Secretary 
of the Navy shall direct and as necessary to provide for the proper 
application of the law and effective delivery of legal services within 
the Department. If confirmed, I will work closely with the General 
Counsel to achieve the Secretary's goals.
    Question. The Judge Advocate General of the Navy.
    Answer. Under 10 USC Sec.  5148(d), the Judge Advocate General 
(JAG) of the Navy performs duties relating to any and all Department of 
Navy legal matters assigned by Secretary of the Navy. The JAG provides 
and supervises the provision of all legal advice and related services 
throughout the Department of the Navy, except for the advice and 
services provided by the General Counsel. It is important that the CNO 
receive independent legal advice from his senior uniformed judge 
advocates. If confirmed, I will work closely with the JAG and seek the 
JAG's legal advice.
    Question. The Commandant of the Marine Corps.
    Answer. A unique historical and operational relationship exists 
between the Navy and the Marine Corps. Many of our capabilities, 
programs, and personnel issues are inextricably linked. Our forces 
deploy together, and both must be ready on arrival. If confirmed as 
CNO, my relationship with the Commandant of the Marine Corps must be 
exceptionally close and I will be committed to making every facet of 
the Navy-Marine Corps team stronger.
    Question. The Chief of the Navy Reserve.
    Answer. Under 10 USC Sec.  5143, the Chief of the Navy Reserve 
serves on the staff of the CNO and is the principal adviser on Navy 
Reserve matters to the CNO and is the commander of the Navy Reserve 
Force. The Chief of the Navy Reserve has an essential role in advising 
CNO of Navy Reserve capabilities alignment to Navy's Total Force 
mission and operations. If confirmed, I am committed to working with 
the Chief of the Navy Reserve to continue and enhance the vast progress 
and Total Force synergies we have achieved.
    Question. The Chiefs of Staff of the Army and Air Force.
    Answer. Our Armed Forces must work together to recognize each 
other's strengths and to complement each other's capabilities. We must 
achieve and maintain synergy in warfare, training, and procurement to 
ensure each Service contributes optimally to Joint and combined 
operations. If confirmed, I am committed to working with my 
counterparts to enhance Joint interoperability and other aspects of the 
Joint relationship in order to improve the war fighting capabilities of 
the United States.
    Question. The combatant commanders.
    Answer. The CNO's responsibility as a Service Chief is to provide 
properly organized, trained, and equipped forces to the combatant 
commanders to accomplish their military missions. If confirmed, I will 
work to foster close working relationships with the Unified and 
Specified Combatant Commanders.
                    major challenges and priorities
    Question. In your view, what are the major challenges that will 
confront the next Chief of Naval Operations?
    Answer. The international security situation is becoming more 
demanding and complex as both state and non-state actors challenge our 
national interests. Simultaneously, we face an era of fiscal challenges 
and uncertainty. Against this backdrop, the principal focus of the next 
CNO will be to provide relevant, ready naval forces to meet today's 
challenges, as well as to modernize the Navy to protect America's 
interests in the future.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will remain focused on providing adaptable, 
agile, and effective war fighting capabilities. Working with the fleet 
commanders and the Commandant of the Marine Corps, I will continue to 
work to establish a sustainable forward presence that is consistent 
with our force structure and can quickly respond to crises and deter 
conflict. As well I will work to ensure that the Navy, operating as 
part of the Joint Force, will remain capable of winning in conflict 
should deterrence fail.
    As we address increasingly complex security challenges, the Navy 
has an obligation to deliver present and future capability in a 
fiscally responsible manner. I will work diligently with leadership to 
ensure that we deliver the most effective Navy possible for the 
resources we are provided. This must include close oversight to drive 
out inefficiencies and waste.
    Finally, the Navy's success depends on attracting and retaining 
high quality people. I will devote myself to enhancing the Navy's 
ability to develop leaders--for today and tomorrow. This must include a 
comprehensive approach that provides opportunity for each member of the 
Navy to reach their full potential, that develops a diverse and 
adaptable force, and that supports our Navy families who share in the 
sacrifice to strengthen our Nation.
    Question. Recognizing that challenges, anticipated and unforeseen, 
will drive your priorities to a substantial degree, if confirmed, what 
other priorities, beyond those associated with the major challenges you 
identified above, would you set for your term as Chief of Naval 
Operations?
    Answer. If confirmed, I would look forward to more fully exploiting 
the electromagnetic spectrum and to harnessing the potential of 
revolutionary advances in information technologies.
                         most serious problems
    Question. What do you consider to be the most serious problems in 
the execution of the functions of the Chief of Naval Operations?
    Answer. For any Chief of Naval Operations, there is always the 
challenge of balancing the need for the Navy to be ready today and the 
need to modernize for the future. This tension is more acute today 
because we face uniquely complex problems in both the security and 
fiscal environments--as the security demands increase, the resources to 
address these demands are harder to obtain.
    Exacerbating these diverging trends, the environment demands faster 
and faster responses--as a result we absolutely must be more agile.
    Question. If confirmed, what management actions and associated 
timelines would you establish to address these problems?
    Answer. Becoming more agile and responsive is relevant in every 
dimension of the CNO's responsibilities--organizing, training, and 
equipping. If confirmed, I would look forward to working with Defense 
Department leadership and the Congress to improve our Navy's 
responsiveness.
               organize, train, and equip responsibility
    Question. The Chief of Naval Operations is responsible for 
organizing, training and equipping forces provided to fleet and 
component commanders, including the prioritization of funding and 
effort to meet these needs in the near term, while developing 
capabilities for the far term.
    How would you characterize your experience in force management and 
capability requirement decisions?
    Answer. I have years of relevant experience in this area. By virtue 
of my time as commander, Submarine Development Squadron 12, and 
commander, Submarine Forces, I am very familiar with providing ready 
forces and capabilities to meet combatant commander demands. Through my 
time as commander, Submarine Group Eight, and Deputy Commander, U.S. 
Sixth Fleet, I am familiar with defining and requesting forces and 
capabilities to execute combatant commander responsibilities. Finally, 
as a member of the Joint Staff serving in J3 during Operations Iraqi 
Freedom and Enduring Freedom, I was responsible for adjudicating all 
combatant commander requests with the ability of the services to 
provide forces and capabilities.
    Question. What innovative ideas are you considering for organizing, 
training and equipping the Navy?
    Answer. I anticipate a sustained focus on how the Navy can continue 
to improve both the process and substance of how it organizes, trains, 
and equips its forces. If confirmed, I will work closely with the 
Secretaries of the Navy and Defense, as well as with the Congress, to 
develop initiatives in each of these areas.
                    security strategies and guidance
    Question. How would you characterize current trends in the range 
and diversity of threats to national security we face today?
    Answer. As Dr. Kissinger testified in January, I believe that the 
traditional power and state structures in many areas of the world are 
being challenged by different models of governance and power. This 
trend is manifesting itself concurrent with advances in technology that 
allow both state and non-state actors--even individuals--to act with 
increasing range, precision, and speed. The Navy faces an increasing 
array of diverse threats that will challenge our superiority and hamper 
our access and ability to operate around the world.
    Question. The Defense Strategic Guidance issued January 2012 took 
into account a $487 billion dollar reduction in defense resources.
    With the additional $500 billion in cuts to the Department of 
Defense as a result of sequestration, is the Defense Strategic Guidance 
still valid?
    Answer. The fiscal year 2016 President's Budget Request is the 
minimum funding necessary in order to execute the Defense Strategic 
Guidance and 2014 Quadrennial Defense Review (QDR). Should the budget 
be cut below the PB16 levels, the defense strategy would need to be 
revised.
    Question. In your view, as Russian aggression and the emergence of 
ISIL have occurred since the Defense Strategic Guidance was issued in 
January 2012, is that strategic guidance still appropriate for the 
threats we face today or do you think an update is warranted?
    Answer. The guidance in the Defense Strategic Guidance and the 
Quadrennial Defense Review remains relevant. No strategy will ever be 
able to anticipate all surprises. This reality reinforces the 
imperative to continue to do our best strategic thinking even as we 
develop forces that can remain balanced, responsive, and adaptive to 
unforeseen challenges.
    Question. In your view, is our defense strategy and current 
establishment optimally structured, with the roles and missions of the 
military departments appropriately distributed, and U.S. forces 
properly armed, trained, and equipped to meet security challenges the 
Nation faces today and into the next decade?
    Answer. I believe our strategy and structure is essentially sound. 
The reality of a dynamic security and fiscal environment demands that 
both our strategy and structure be continually assessed and adapted. Of 
particular concern is the need to remain ready today and to modernize 
for tomorrow in a fiscally constrained environment.
    Question. If confirmed, what changes, if any, would you propose to 
the capabilities, structure, roles, and missions of the defense 
establishment?
    Answer. If confirmed, I will continue to examine options that 
increase the adaptability and agility of current and planned Naval 
forces to further enhance the natural advantages they offer through 
their forward presence and responsiveness. I would also look forward to 
working with other leaders across the defense enterprise to identify 
additional areas where we can improve our ability to address a 
broadening range of challenges. I see the need to reconstitute our 
nuclear deterrent forces and to fully exploit the potential of 
information technologies as areas of particular priority.
          military capabilities in support of defense strategy
    Question. In your opinion, do current military plans include the 
necessary capabilities to meet the defense strategy stated in the 2014 
QDR? Please identify areas of higher risk.
    Answer. The fiscal year 2016 President's Budget provides for the 
minimum necessary capabilities to meet the defense strategy stated in 
the 2014 QDR, albeit with considerable risk. The strategic environment 
is very dynamic. If confirmed, I will remain personally involved to 
ensure that maximize the Navy's capability within available resources 
and to provide leadership with my most accurate and timely assessment 
of the Navy's ability to meet strategic objectives.
    Question. Does the 2014 QDR specify the correct set of capabilities 
to decisively win in future high-end engagements?
    Answer. I believe so. This is an extremely dynamic environment, and 
if confirmed, I will remain personally engaged to ensure that I 
maximize the Navy's capabilities within available resources and provide 
leadership with my most accurate assessment of the Navy's ability to 
win in a high-end fight.
    Question. According to the force sizing construct in the 2014 QDR, 
American forces should be able to ``defeat a regional adversary in a 
large-scale multi-phased campaign, and deny the objectives of--or 
impose unacceptable costs on--another aggressor in another region.'' In 
your opinion, does the Department's force sizing construct provide 
adequate capability to address the country's current threat 
environment?
    Answer. Currently yes. But after three years of budget shortfalls 
and a high operating tempo, the Navy currently operates with 
considerable risk in its ability to fully execute this warfighting 
mission in accordance with existing plans. The fiscal year 2016 
President's Budget Request begins to put the Navy on a path to 
recovery. If confirmed, I will work with my fellow leaders to maximize 
the Navy's abilities within available resources.
    Question. Is the Navy adequately sized to meet this construct?
    Answer. The Navy's 2014 update to the 2012 Force Structure 
Assessment calls for a force of 308 ships. Provided sufficient 
readiness is restored and maintained across the Fleet, this fleet size 
should support the highest priority requirements for both presence and 
``surge'' in the event of increased tensions or outright conflict. The 
fiscal year 2016 President's Budget puts the Navy on a path to procure 
the right mix of ships as defined by the Navy projections, though there 
are some capability risks of concern--amphibious ships, attack 
submarines, small surface combatants, aircraft inventory, and other 
modernization efforts.
    Question. If the Navy cannot meet the demands placed on it, how 
will you address this issue?
    Answer. If confirmed, I would work closely with the Secretary of 
the Navy, the Secretary of Defense and Chairman of the Joint Chiefs of 
Staff to prioritize missions to meet the most critical objectives in 
protecting national security, and evaluate and clearly articulate areas 
of risk.
                           defense reduction
    Question. In your view, what have been/will be the impacts of the 
following defense budget reductions on the Navy's capability, capacity, 
and readiness:
    Initial Budget Control Act reduction of $487 billion?
    Answer. The initial reduction from the Budget Control Act of 2011 
placed abrupt, deep fiscal constraints on the Navy, which required hard 
choices and prioritization. This sudden topline-driven reduction 
compelled us to accept risk in our defense strategy in key areas. The 
Navy needs the restoration of adequate and predictable funding to 
recover balance, resilience, and adaptability.
    Question. Sequestration in fiscal year 2013?
    Answer. Sequestration in fiscal year 2013 resulted in a $9 billion 
shortfall to the Navy's budget, compelling reductions in afloat and 
ashore operations, and particularly in ship and aviation maintenance 
and training. This resulted in degraded readiness and fleet response 
capacity, ultimately contributing to excessively long deployments for 
Carrier Strike Groups and Amphibious Ready Groups. In addition, the 
Navy cancelled five ship deployments and delayed the deployment of the 
USS Harry S. Truman Strike Group by six months. Civilian furloughs, 
combined with hiring freezes and no overtime for our civilian 
employees, contributed to reduced maintenance and sustainment output. 
We are still recovering from these cuts, particularly in crisis 
response capacity. The fiscal year 2016 President's Budget Request puts 
the Navy on a path to recover by fiscal year 2020.
    Question. Reduction of $115 billion in projected spending in the 
fiscal year 2015 budget, in line with the 2014 Quadrennial Defense 
Review?
    Answer. Congress's passage of the Bipartisan Budget Act of 2013 
averted some of the BCA cuts in fiscal year 2014-2015, but still 
resulted in significant funding shortfalls in fiscal year 2014-2015 and 
extended budget caps through fiscal year 2023. For fiscal year 2015, 
the funding shortfall compelled the Navy to further reduce procurement 
of weapons and aircraft, slow modernization, and delay upgrades to all 
but the most critical shore infrastructure. If we are held to current 
statutory budget levels for fiscal year 2016-2019, the Navy would not 
be able to execute the defense strategy as currently written.
    Question. Sequestered Budget Control Act discretionary caps 
starting in fiscal year 2016 onward?
    Answer. If funded at less than the fiscal year 2016 President's 
Budget Request, the Navy would be unable to execute the defense 
strategy as currently written. The required cuts would force us to 
further delay critical warfighting capabilities, reduce readiness of 
forces needed for contingency responses, further downsize weapons 
capacity, and forego or stretch procurement of force structure as a 
last resort.
    Question. The fiscal year 2016 budget request assumes that the 
Budget Control Act will be amended in fiscal year 2016. The fiscal year 
2016 Budget Resolution passed by the Senate and House of 
Representatives do not assume this, but instead provides $38 billion of 
the requested spending through the Overseas Contingency Operations 
(OCO) budget.
    Should this OCO funding not be available, what recommendations 
would you have, if confirmed, for how the Navy should manage additional 
cuts for fiscal year 2016?
    Answer. The fiscal year 2016 President's Budget is the minimum 
funding necessary for the Navy to execute its responsibilities in the 
current defense strategy. The severity of those cuts would determine 
the degree to which critical warfighting capabilities would be further 
delayed, the readiness of forces needed for contingency responses would 
be further eroded, weapons inventories would be further reduced, and 
procurement of force structure would be cancelled or further postponed.
    Question. What are your views on the impact that these cuts could 
have on readiness for the Navy?
    Answer. The cuts would have a significant impact on readiness for 
the Navy. If cut, my advice would be to prioritize the readiness of 
forces forward deployed. This would come at the expense of surge and 
response forces. In addition, ship and aviation depot maintenance 
backlogs would increase and shore infrastructure would further 
deteriorate, creating greater risk of mishaps or serious injury.
    Question. What are your views on the impact that these cuts could 
have on Navy capabilities?
    Answer. These cuts would also have a significant impact on the 
Navy's capabilities, resulting in a smaller, less capable force. 
Modernization and asymmetric capabilities could be slowed, and 
inventories of critical assets would be insufficient to execute the 
current strategic requirements for the Navy.
                       headquarters streamlining
    Question. The Senate-passed Fiscal Year 2016 National Defense 
Authorization Act directs reforms to consolidate the headquarters 
functions of the Department of Defense and the military departments.
    If confirmed, and if the provisions in the bill become law, what 
would be your role in streamlining functions, as well as identifying 
and implementing reductions in the Navy headquarters?
    Answer. It is crucial for the Department to carefully align 
resources to the highest priority missions, functions, and tasks, and I 
am committed to continuing to examine management activities and improve 
efficiency of operations at all levels. If confirmed, I will work with 
the Department and Congress to continue to make significant strides in 
gaining efficiencies and savings through a more appropriate alignment 
of workforce to workload, a streamlining of operations, and the 
optimization of mission delivery while reducing redundancies and 
overhead.
    Question. What areas and functions, specifically and if any, do you 
consider to be the priorities for possible consolidation or reductions 
within the Navy?
    Answer. Every area and function must be considered as a potential 
candidate for reductions. While I view right-sizing the staff to be a 
critical responsibility, it requires a thoughtful approach. If 
confirmed, I will specifically explore areas where greater use of 
advanced processes and technology could add value. I will exchange 
information and best practices with other leaders across the defense 
enterprise and the private sector to ensure we consider all 
alternatives.
    Question. To the extent that the Navy has functions that overlap 
with the Department of Defense, Joint Staff, or other military 
departments, what would be your approach to consolidating and reducing 
redundancy?
    Answer. If confirmed, I will look forward to participating in a 
Department-wide examination of functional overlaps to identify areas 
for greater streamlining.
                       international partnerships
    Question. Interactions between the naval forces of different 
countries are often negotiated at the Chief of Navy level, including 
international exercises, Foreign Military Sales, educational exchanges, 
and protocols for operations. For example, recent former Chiefs of 
Naval Operations were able to draw on their experience to gain 
international cooperation on the Codes for Unplanned Events at Sea 
(CUES) by the Western Pacific Naval Symposium and the use of France's 
aircraft carrier Charles de Gaulle in the fight against the Islamic 
State.
    If confirmed, how do plan to ensure the U.S. Navy continues to 
build strong partnerships, overcome challenges, and exploit 
opportunities in international cooperation?
    Answer. I believe we are stronger when we operate together, engaged 
with allies and partners, and if confirmed would enthusiastically 
continue to take advantage of these opportunities. Through activities 
like leader-to-leader engagements, student exchanges, exercises, and 
information sharing, the Navy is already providing a foundation for 
strengthening alliances and improving our combined capabilities. I 
would seek to maintain these activities and expand upon them where 
possible.
    Question. How would you characterize your familiarity with 
international naval leaders, forums, and processes?
    Answer. Many of my assignments have afforded me the opportunity to 
establish solid relationships with international naval leaders and key 
forums throughout the world. If confirmed, I look forward to fostering 
those relationships and building new ones through a robust engagement 
plan.
                            joint operations
    Question. Naval operations are becoming increasingly ``joint'' as 
marines plan to deploy in larger numbers and on a wider range of ships; 
the U.S. Army and Air Force begin to invest in counter-maritime 
capabilities; and air and naval forces continue to develop and 
implement interoperable capabilities to defeat anti-access and area-
denial (A2/AD) networks--a process that started with the Air-Sea Battle 
Concept in 2010.
    How would you characterize your familiarity with the other 
Services' capabilities and how they organize, train and equip their 
forces?
    Answer. I have been privileged to serve on the Joint Staff, Joint 
Forces Command, and on several operational staffs. In these 
assignments, I gained an appreciation for the capabilities and 
processes that the other Services bring to the Joint Force.
    Question. Are there other innovative ideas you are considering to 
increase Joint interoperability and ensure opportunities to improve 
cross-domain capability and capacity are not missed?
    Answer. If confirmed, I will work closely with the other Service 
Chiefs and combatant commanders to seek new ways to combine forces in 
adaptive and responsive force packages. I look forward to improving 
information sharing standards and architectures within the Naval and 
Joint Forces to enhance interoperability.
                        recapitalizing the fleet
    Question. Despite the Navy's 308-ship requirement to meet the 
maritime demands of the National Military Strategy, it is currently 
operating with 272 battle force ships. Additionally, the Congressional 
Budget Office (CBO) has concluded that the Navy has underestimated the 
costs for its shipbuilding plan by approximately 11 percent.
    Do you consider the 308-ship force structure requirement to be 
appropriate given the current and future strategic environment? If not, 
please describe what changes may need to be made.
    Answer. Currently, yes. The 308-ship FSA update was completed in 
2014 based on the 2014 Quadrennial Defense Review. The 308-ship battle 
force possesses the minimum capability and capacity to continue 
protecting American interests, to deter or contain conflict and, if 
called upon, to fight and win our Nation's wars.
    Question. Do you agree with the CBO's assessment that there is 
significant cost risk associated with executing the Navy's shipbuilding 
plan?
    Answer. The Navy and CBO are in relatively close agreement in our 
cost estimates for the first ten years of the 30 year shipbuilding plan 
because we have a good understanding of the ships' requirements and 
costs. Beyond the first ten years, our estimates begin to diverge 
largely due to uncertainty in costing and differing inflation 
projections. As the near term is most relevant from an execution 
perspective, the relatively small differences pose limited risk to the 
shipbuilding plan. If confirmed, I will be personally engaged to ensure 
that the Navy maintains accurate estimates of costs for shipbuilding.
    What actions do you believe are necessary to execute the Navy's 
shipbuilding plan within the Navy's budget estimates?
    Answer. An immediate concern is maintaining a viable shipbuilding 
program while also building the Ohio replacement class submarine. I 
will work with Defense Department and Congressional leaders to address 
this challenge.
    Question. How would you characterize the risks to national security 
posed by the current shortfall in battle force ships and tactical 
aircraft?
    Answer. Today, the Navy meets all requirements of the current 
defense strategy, albeit with considerable risk.
    Question. What adjustments to the respective shipbuilding programs 
are necessary and appropriate to reduce operational risk?
    Answer. Based on our current strategy, I believe the fiscal year 
2016 President's Budget Request reflects the best balance of available 
resources to meet our requirements. If confirmed, I will continuously 
evaluate this question as a critical part of my responsibilities.
    Question. What further adjustments would you consider if the Navy's 
shipbuilding program comes under further pressure due to cost growth?
    Answer. The Navy is working hard to reduce cost growth and increase 
affordability and stability within our shipbuilding programs. Should 
these measures prove inadequate, if confirmed I will work with Defense 
Department leaders and the Congress to determine the appropriate 
responses and to develop acceptable adjustments.
                      ford-class aircraft carriers
    Question. After more than $2 billion in cost growth in each of the 
first three Ford-class aircraft carriers, the costs of these ships 
range from $11.5 billion to $13.5 billion.
    Do you support the on-going Navy study of alternatives for future 
development of aircraft carriers that would replace or supplement the 
Ford-class carrier?
    Answer. I fully support the Department's decision to consider 
alternatives to the current aircraft carrier design as well as changes 
to the existing Ford-class design to reduce cost while retaining 
essential capability. The study will provide insight into the 
requirements, capabilities, costs, and alternatives for aircraft 
carriers.
    Question. In your view, should the Navy build 11 Ford-class 
aircraft carriers or should the Navy pursue a different mix of 
platforms for sea-based tactical aviation?
    Answer. The current plan for the Ford-class construction is the 
Navy's best approach for meeting the demand for an 11-aircraft carrier 
force. We are not where we need to be on costs and are working hard to 
reduce them---more effort is needed. While providing the needed 
capability to meet current and projected threats, delivery of this 
class will also provide major lifecycle savings compared to Nimitz-
class carriers ($4B/ship due to reduced crewing and maintenance 
requirements). If confirmed, I look forward to further reducing the 
acquisition cost of the Ford-class ships.
    Question. What options would you pursue to control the cost of 
aircraft carriers and ensure individual responsibility of officials in 
charge of different aspects of the acquisition program?
    Answer. I believe that acquisition discipline arises from adhering 
to four basic behaviors:

    (1)  A clear command and control structure that clearly specifies 
authorities, responsibility, and accountability;
    (2)  Unambiguous program requirements, defined early in the process 
and informed by realistic assessments of technological maturity and 
affordability;
    (3)  A stable and mature design and build plan before entering into 
production; and
    (4)  A close and knowledgeable oversight process to ensure delivery 
of the required capability on time and within budget.

    The Navy has taken action to incorporate these behaviors and drive 
improved performance. CVN 79 is now benefiting from design maturity, 
stable requirements, and a cost-effective construction plan. I will 
seek further opportunities to routinely review and align the 
requirements and costs for this program.
    Question. If confirmed, how do envision being personally involved 
in the oversight of this program?
    Answer. If confirmed as the Chief of Naval Operations, I will be 
personally involved in acquisition, to include the CVN program. In each 
of my preceding positions, I have engaged with those in my command to 
make clear my standards and expectations and directly monitor 
performance in meeting these standards. I would continue this approach 
as CNO.
    Question. The Director of Operational Test and Evaluation's Fiscal 
Year 2014 Annual Report states the reliability of four systems--the 
electromagnetic aircraft launching system, advanced arresting gear, 
dual band radar, and advanced weapons elevators--are the most 
significant risks to the USS Gerald R. Ford (CVN-78) for successfully 
completing initial operational test and evaluation.
    What is your understanding of the testing and reliability status of 
each of these key systems on CVN-78, which is scheduled to deliver in 
March 2016?
    Answer. My understanding for each of these systems is:

        The Electromagnetic Aircraft Launching System (EMALS) has 
        nearly completed all initial land based developmental testing 
        with some shared inverter and reliability testing remaining. 
        EMALS is currently conducting certification testing of the 
        first production hardware on board CVN-78. Over 100 deadloads 
        have been successfully launched in shipboard testing. While not 
        meeting its original reliability growth curve, EMALS 
        reliability is tracking to the revised reliability growth plan 
        reviewed with DOT&E staff in early fiscal year 2015.

        The Advanced Arresting Gear (AAG) is conducting land based 
        developmental testing with deadloads, and will begin land based 
        developmental aircraft testing at the end of this calendar 
        year. Certification testing of the production hardware on board 
        CVN 78 is scheduled to begin in late July 2015. AAG is not 
        meeting its original reliability growth plan due to technical 
        design issues but a revised plan was reviewed with DOT&E staff 
        in early fiscal year 2015. The Navy will commence AAG 
        reliability tracking when land based performance testing begins 
        this summer.

        Dual Band Radar (DBR) has been in use at Wallops Island 
        supporting land based integration and testing since March 2014; 
        land based testing will continue through June 2016. Shipboard 
        radar subsystem testing began in May 2015, and shipboard radar 
        testing starts in August 2015. DBR has just begun reliability 
        tracking at Wallops Island, and will continue through post-
        delivery testing onboard CVN 78. The DBR reliability growth 
        plan was revised and reviewed with DOT&E staff in early fiscal 
        year 2015.

        Finally, the Navy has completed the functional demonstration of 
        the Advanced Weapons Elevator (AWE) at the land based test 
        site. While behind schedule, shipboard installation is in 
        progress, and testing will commence in August of this year. AWE 
        reliability tracking begins at ship delivery and will continue 
        through post-delivery testing.

    Clearly, the maturity and reliability of each of these systems is 
not where the Navy would like them to be. Navy leadership attention is 
focused on expeditiously completing these test programs and 
demonstrating effective operation and suitable reliability to support 
Initial Operational Test & Evaluation in 2018.
    Question. What is your understanding of the measures being taken to 
ensure these key systems are stable for the next aircraft carrier, USS 
John F. Kennedy (CVN-79)?
    Answer. CVN 79 is benefitting from a much more stable design and 
near complete test programs for the developmental technologies as well 
as construction experience on FORD. For each of these key systems, 
hardware design is complete and detailed test and installation 
experience is known. Shipboard test performance remains a risk. The 
Navy has incorporated lessons learned from these test programs and 
shipboard installation into CVN 79 plans. As a cost-saving measure, the 
Navy is adapting a proven off-the-shelf radar (Enterprise Air 
Surveillance Radar (EASR)) to replace the DBR on all future Ford-class 
hulls and air-capable amphibious ships.
                     ohio-class replacement program
    Question. Navy leaders have testified that the Ohio-class 
Replacement Program will require significant investment and will result 
in equivalent reductions in the Navy budget, if a higher Navy topline 
or outside funding is not provided.
    What is your recommendation for how the Ohio-class Replacement 
Program should be funded?
    Answer. It is absolutely critical for the Nation to replace the 
Ohio-class submarines. The Navy is doing everything it can to limit 
requirements and control costs for this ship. Without increased 
shipbuilding funding in fiscal year 2021 and beyond, the Ohio 
Replacement Program will consume the majority of the Navy's annual 
shipbuilding budget, costing the equivalent of 2-3 ships per year. If 
confirmed, I look forward to working with Defense Department leadership 
and the Congress to address this significant challenge.
    Question. What additional Congressional authorities do you believe 
are necessary for the Ohio-class Replacement Program?
    Answer. Obtaining sufficient funding to build the Ohio Replacement 
Program (ORP) while also preserving other shipbuilding is a significant 
challenge for the Navy. As the ORP design matures and the build plan is 
mapped out, if confirmed, I will work with the Assistant Secretary for 
Research, Development, and Acquisition to review the ORP shipbuilding 
and procurement strategies, including an assessment of additional 
authorities that might improve the cost and efficiency of ORP 
production and related shipbuilding programs. When that work is 
complete, I look forward to discussing the plan with the Congress.
    Question. Navy leaders have testified that 12 Ohio-class 
replacement submarines must be procured and the Ohio-class Replacement 
Program schedule cannot be delayed in order to ensure the first 
deterrent patrol occurs in 2031.
    Do you support the view that there is no room for delay of the 
Ohio-class Replacement Program?
    Answer. Yes, the Navy has stretched the Ohio-class to the maximum 
extent possible, from 30 to 42 years. There is no room for further 
delay of the ORP.
    Question. What is the minimum number of Ohio-class replacement 
submarines that must be procured to meet mission requirements?
    Answer. A 12-ship, 16-missile tube SSBN force has sufficient 
flexibility and capacity, and satisfies national strategic deterrent 
requirements in a cost efficient manner.
    Question. What further support could Congress provide to ensure the 
Ohio-class Replacement Program remains on schedule?
    Answer. If confirmed, I look forward to being personally engaged 
with Defense Department leaders and the Congress to find ways to fund 
and execute both the Ohio replacement and the rest of the shipbuilding 
plan.
    Question. Do you assess Ohio-class replacement submarines will have 
the capabilities and attributes needed to perform their unique mission 
in the 2030s?
    Answer. Yes. The program is being designed to provide the Nation's 
most survivable nuclear deterrent into the 2080s, and will deliver the 
core essential military capabilities required by our Nation in a cost 
effective and fiscally responsible manner.
    Question. How confident are you that the program will be able to 
produce Ohio-class replacement submarines that meet current cost 
estimates (i.e., $14.5 billion for the lead ship with plans and $5.2 
billion for hulls 2-12)?
    Answer. I am confident the program will deliver at the current cost 
estimate.
    Question. Congress established the National Sea-Based Deterrence 
Fund in section 1022 of the Carl Levin and Howard P. `Buck' McKeon 
National Defense Authorization Act for fiscal year 2015.
    What are your views on how the Navy should use this Fund to acquire 
Ohio-class replacement submarines?
    Answer. The Navy is currently undertaking a thorough review of the 
program design and build plan, costs, authorities, and other issues 
that could affect how the Fund might best be used. If confirmed, I look 
forward to sharing the results of that with you in order to inform the 
best way forward.
                     attack submarine force levels
    Question. The Navy's most recent statement of requirements for 
attack submarine force levels was 48 attack submarines. However, the 
Navy projects that the number of attack submarines will fall as low as 
41 boats and remain below the 48-boat requirement for 16 years.
    What options exist to ensure the Navy deploys attack submarines 
sufficient to meet the requirements of the combatant commanders and 
other intelligence, surveillance, and reconnaissance needs?
    Answer. The Navy can partially mitigate the attack submarine 
shortfall through multiple parallel efforts: continuing procurement of 
two Virginia-class attack submarines (SSNs) per year; shortening the 
construction timeline for Virginia-class submarines; extending the 
deployments of select Virginia-class attack submarines; and extending 
the service lives of select SSN 688 attack submarines.
    Question. What risks are being incurred by allowing the attack 
submarine force levels to remain below 48 for 16 years?
    Answer. Under current planning guidance, an attack submarine force 
level below 48 will increase the risk of gaps in our coverage for 
indications and warning of potential hostile action, and delay or 
reduce the arrival of submarines critical to warfighting if conflict 
should arise.
                   chinese nuclear attack submarines
    Question. According to the Department of Defense, in the next 
decade, in addition to expanding its force of nuclear powered attack 
submarines (SSNs), China likely will construct a guided missile attack 
submarine (SSGN) incorporating better quieting technologies.
    What are the implications for the U.S. Navy, as well as U.S. 
military operations in the Pacific, of the deployment by the Chinese of 
new nuclear submarines incorporating better quieting technologies?
    Answer. Our Nation currently has superiority in the undersea 
domain. Military effects from the undersea domain enable and support 
joint forces in the air, surface, cyber, land, and space domains to 
gain access and be more effective. It is critical that we maintain 
superiority under sea in order to achieve desired military outcomes and 
strategic influence. The U.S. advantage is being challenged by China 
and Russia, and we must be alert to an advancing and adapting threat. 
Quieter and more capable submarines will require that the Navy 
continually improve our undersea capabilities.
    Question. According to the Nuclear Proliferation Assessment 
Statement submitted by the President, ``China's strategy for 
strengthening its military involves the acquisition of foreign 
technology as well as greater civil-military integration.'' The report 
notes that ``one notable area of interest is China's selection of 
domestic manufacturers for the AP-1000, which is a civil nuclear 
reactor's canned motor pumps. These are the same domestic manufacturers 
contracted to produce the pumps for China's first generation nuclear-
powered ballistic missile submarine.
    What are the risks pertaining to the possible diversion of civil 
nuclear reactor technology for military use--particularly for quieting 
Chinese submarines and providing longer patrol time?
    Answer. These questions are very difficult to discuss in an 
unclassified environment. As requested by the Congress, in my role as 
Director, Naval Reactors I submitted a classified report on 24 April 
2015. These topics were also discussed at classified briefings with the 
Senate Foreign Relations Committee on 11 May 2015 and the House Foreign 
Affairs Committee on 3 June 2015. If desired, I look forward to 
continuing those discussions in a classified setting.
    Question. Can you assure the committee that there will be no risk 
of military diversion resulting from the United States-China nuclear 
cooperation agreement?
    Answer. While it is impossible to state that there will be ``no 
risk,'' per the terms of the successor United States-China Atomic 
Energy Act Section 123 Agreement each party agrees any material, 
equipment, components, technology, and information transferred pursuant 
to this Agreement shall not be used for any nuclear explosive device, 
for research on or development of any nuclear explosive device, or for 
any military purpose. Enhancements included in the successor Agreement 
help to strengthen enforcement of the terms of the Agreement.
    Question. Given China's activities in the South and East China 
Seas, in your view, does it make sense at this time to agree to expand 
civil-nuclear cooperation?
    Answer. The successor United States-China Atomic Energy Act Section 
123 Agreement ensures continued United States access to China's 
civilian nuclear complex, allowing for the development of a culture of 
best practices on nuclear security and safety, as well as the 
opportunity to ensure Chinese nonproliferation policies are consistent 
with international nonproliferation norms. I believe that the United 
States' ability to achieve a positive outcome in this effort is 
enhanced through an open and active relationship fostered under this 
Agreement.
    Question. What message could this cooperation send to our allies in 
the region who look to the United States to respond to increasing 
Chinese military and political influence in the region?
    Answer. I believe that the successor United States-China Atomic 
Energy Act Section 123 Agreement is intended to reaffirm that the U.S. 
will remain an active partner in the Pacific, and to reassure our 
partners and allies of the U.S. commitment to strategic balance in the 
region.
    Question. In your role as Director of Naval Reactors, what actions 
did you take to ensure the AP-1000 pump design and its components would 
not enable the Chinese Navy to advance their submarine reactor pump 
technologies?
    Answer. The AP-1000 reactor coolant pumps are designed by Curtiss 
Wright, the same company that produces the U.S. Navy's reactor coolant 
pumps. The military and commercial product lines are segregated at the 
Curtiss Wright facility. Personnel, cyber and physical security 
protocols are enacted at Curtiss Wright and our other critical military 
suppliers to protect U.S. Navy technology.
    Question. What role does your office play in reviewing license 
applications for the export of nuclear technology?
    Answer. The Department of Defense, including the U.S. Navy and 
Naval Reactors, is involved in reviewing civil nuclear technology 
export license requests. These reviews, which are informed by 
Intelligence Community assessments, evaluate the implications of 
potential diversion to military programs and are an important part of 
the Interagency process used to adjudicate export license requests.
                    ballistic missile defense (bmd)
    Question. The Navy plays an important role in defending the Nation 
against the threat of long range ballistic missile attack and in 
defending allies, friends, and deployed forces against theater 
ballistic missile threats.
    In conjunction with its 2014 Force Structure Assessment update, the 
Navy informed the committee that the entire 88-ship large surface 
combatant requirement includes having a BMD capability, with 40 of 
these needing the advanced BMD 5.X capability. Today, the Navy has 33 
BMD-capable ships, with just three of these having the advanced BMD 5.X 
capability. In 2020, the Navy projects having 39 BMD ships, with 16 
having BMD 5.X.
    Do you view ballistic missile defense as a core Navy mission?
    Answer. Yes, it is a proven capability the Navy provides to the 
Joint Force.
    Question. What options should be explored to reduce the shortfall 
in meeting the stated requirement of having 88 BMD-capable ships, 
including 40 with the advanced BMD 5.X capability?
    Answer. The Navy is on a path to field 88 large surface combatants, 
to include 40 new and modernized DDGs equipped with advanced BMD 
capability.
    Question. Do you support removing BMD capability from Ticonderoga-
class guided missile cruisers as part of the Navy's proposed cruiser 
phased modernization plan?
    Answer. Given my current understanding of the issue, I do. This 
represents one of the difficult choices forced by tight financial 
constraints. At this point, the Navy has determined that the benefits 
to investing in DDG modernization, to include its BMD enhancements, are 
greater than those that would result from retaining BMD capability on 
the CGs.
    Question. If so, how do you reconcile having a shortfall to the 
stated BMD requirement and removing BMD from large surface combatants?
    Answer. Investing in DDG modernization is the most cost effective 
path to meeting our BMD requirement.
                     amphibious fleet requirements
    Question. What is your view of the need for and size of the Navy's 
amphibious ship fleet?
    Answer. Amphibious ships are a critical element of our joint force 
capabilities. I support the current requirement of 38 amphibious ships 
and the plan to build 34, given fiscal constraints. If confirmed, I 
look forward to working closely with the Commandant and the Secretary 
of the Navy to continue to support amphibious shipping.
    Question. What alternatives would you consider to augment 
amphibious ships in providing lift to Marine Corps units? In what 
scenarios would these alternatives be necessary and appropriate?
    Answer. Increased fleet operations have strained combatant 
scheduling and reduced our fleet commanders' tasking flexibility. As 
such, the Navy has evaluated methods to use auxiliary ships to 
augment--not replace--our most capable amphibious ships. We have 
successfully embarked marine detachments on ships such as the afloat 
forward staging bases (AFSB), destroyers, littoral combat ships (LCS), 
mobile landing platforms (MLP), and joint high-speed vessels (JHSV). 
Military Sealift Command (MSC) also maintains additional auxiliary 
platforms which are successfully operating with marine detachments 
today. These platforms help mitigate shortfalls of amphibious shipping.
    None of these alternatives provide the same breadth or depth of 
capabilities resident in our amphibious fleet. Their use is most 
appropriate in settings where the risks of combat are believed to be 
low, and where the greatest needs are for lift, rather than the broader 
suite of military capabilities offered by more capable amphibious 
platforms.
    If confirmed, I will continue to work closely with the Marine 
Corps, the Secretary of the Navy, and others to identify the most 
appropriate solutions to supporting Marine Corps activities and 
operations around the globe, given existing resources.
                       littoral combat ship (lcs)
    Question. In December 2014, the Secretary of Defense announced his 
decision to upgrade the Littoral Combat Ships, designated LCS-33 
through LCS-52, to provide a more capable and lethal small surface 
combatant, generally consistent with the capabilities of a frigate.
    Do you support the Secretary of Defense's decision to upgrade the 
LCS?
    Answer. Yes, I believe the modifications to the LCS design will add 
valuable lethality and survivability to the final 20 hulls.
    Question. What is your understanding of the acquisition strategy 
for the LCS and LCS mission modules, as modified by the Secretary of 
Defense's decision?
    Answer. The Secretary of Defense's decision to procure a modified 
LCS (Frigate) to follow the LCS Flight 0+, will produce 32 LCS and 20 
Frigates. The acquisition strategy procures three LCS per year through 
fiscal year 2018. Frigate procurement starts in fiscal year 2019 with 
two ships, and continues with three ships per year from fiscal year 
2020 through fiscal year 2025. The Navy is updating the mission module 
procurement plan.
    Question. Are you concerned by the personnel and configuration 
management issues that are presented by fielding and sustaining LCS 
Flight 0, LCS Flight 0+, the upgraded LCS (frigate), and 
``backfitting'' frigate-like capabilities on existing LCS, as well as 
the managing the various mission modules and mission module increments?
    Answer. The Small Surface Combatant Task Force examined a range of 
configurations and platforms before arriving at the plan that was 
subsequently approved by the Secretary of Defense. The Navy is working 
with the shipbuilders to incorporate the changes. If confirmed, 
ensuring that this plan delivers the best outcome in a cost effective 
manner will be one of my top priorities.
    Question. If so, and if you are confirmed, how would you propose 
managing and simplifying these configuration issues?
    Answer. If confirmed, I will assess whether any additional steps 
are required beyond a close collaboration with the program manager and 
the shipyards.
    Question. What is your view of the peacetime and wartime mission of 
the LCS?
    Answer. LCS provides the Navy with critical capabilities to address 
validated gaps in Surface Warfare (SUW), Mine Countermeasures (MCM), 
and Anti-Submarine Warfare (ASW) in both open ocean and the littorals. 
LCS also supports deployed forward presence to meet combatant commander 
demand.
    Question. What is your assessment of the requirements for 
survivability of the LCS Flight 0, Flight 0+, and LCS (frigate)?
    Answer. LCS survivability requirements were analyzed by Naval Sea 
Systems Command, which determined they are adequate to meet the 
missions expected of the ship. The work performed by the Small Surface 
Combatant Task Force identified several survivability enhancements for 
the Frigate that will be back-fitted as practical in LCS.
    Question. What is your assessment of the delivered survivability 
capability of the LCS Flight 0, Flight 0+, and LCS (frigate)?
    Answer. The delivered survivability capability of LCS meets the 
requirements laid out in the LCS Flight 0+ Capabilities Development 
Document (CDD).
    Question. Do you support the Navy force structure assessment 
requirement of 52 small surface combatants?
    Answer. Currently yes. I support the Force Structure Assessment 
(FSA) requirement of 52 small surface combatants. The Navy plans to 
meet this requirement with a combination of 32 LCS and 20 Frigates.
                       tactical fighter programs
    Question. The F-35 Joint Strike Fighter Program, which is the 
largest and most expensive acquisition program in the Department's 
history, was formally initiated as a program of record in 2002 with a 
total planned buy of 2,443 aircraft for the U.S. At projected 
procurement rates, the aircraft will be procured by the Department well 
into the 2030 decade to reach its total quantity buy. The program has 
not yet completed its systems development and demonstration phase, and 
is not due to enter full rate production until 2019, 17 years after its 
inception.
    The Navy's fiscal year 2016 budget request indicates a program of 
record of 369 F-35C, with Navy procurement continuing throughout the 
life of the F-35 procurement program.
    The overall requirement for 2,443 aircraft was established nearly 
20 years ago. Since that time, however, there have been countervailing 
pressures to: (1) reduce force structure to conserve resources; (2) 
improve capability to respond to prospective adversary technological 
advances and increased capabilities from updated threat assessments; 
and (3) respond to an evolving national defense strategy.
    Do you believe the Navy's F-35C requirement is still valid?
    Answer. Yes, the F-35C will be a vital part of the future Carrier 
Air Wing.
    Question. Do you believe the Navy can afford and needs to procure 
310 more F-35Cs with a procurement cost of over $42 billion?
    The F-35C provides essential 5th generation strike fighter 
capability to our Carrier Air Wings. Without this capability, we cannot 
achieve air superiority. The Department of the Navy currently has a 
requirement for 340 F-35Cs. If confirmed, I will work with the Chairman 
and other service chiefs to revalidate the appropriate number of 
aircraft the Navy requires to meet the mission.
    Do you believe that the Navy will still want to buy the F-35C, an 
aircraft design that will be 30 years old before the Navy production is 
scheduled to finish?
    Answer. The Navy is committed to making the F-35C the next Carrier 
Air Wing fighter, complementing the F/A-18E/F until that aircraft 
reaches the end of its lifetime in the 2030s.
    Question. Do you believe the Navy's current and planned force mix 
of tactical aircraft is sufficient to meet current and future threats 
around the globe, and most especially in the Asia-Pacific theater of 
operations where the ``tyranny of distance'' is such a major factor?
    Answer. Currently, I do. There are capability, inventory, and 
readiness aspects to delivering the required force mix. If confirmed, I 
will work with leadership to determine the best options to pace the 
threat in a dynamic security and fiscal environment.
    Question. The Secretary of the Navy recently remarked that he 
believed the F-35 should be and would be the Nation's last manned 
fighter aircraft. Do you believe this to be true?
    Answer. If confirmed, I will work with the Secretary of the Navy to 
aggressively advance the development of unmanned systems. It is crucial 
that we push the boundaries of what unmanned technologies can achieve; 
the next generation in tactical aviation will play a large part in this 
transformation.
    Question. What will be your role in leading capabilities and 
requirements development to increase the role of unmanned aerial combat 
systems in the Navy?
    Answer. If confirmed, I intend to make the continued development of 
unmanned systems a hallmark of my tenure. I intend to push the Navy 
into new ways of thinking about combinations of people and technologies 
to maximize our operational advantage.
    Question. How do you see the future balance developing between 
manned and unmanned combat aircraft for the Navy's future force 
structure?
    Answer. I believe that the advent of advanced information 
technology is redefining the approach to obtaining the most effective 
relationship between people and technology. There is vast potential to 
change the balance of manned and unmanned platforms in general, and 
this potential is a key to helping the United States minimize the risk 
to our people and stay ahead of rapidly evolving threats.
                               readiness
    Question. What is your assessment of the current readiness of the 
Navy to meet national security requirements across the full spectrum of 
military operations?
    Answer. While forward deployed Navy forces continue to meet 
readiness standards, I am most concerned about the Navy's ability to 
meet the timelines associated with providing either follow-on or 
``surge'' forces should they be requested by combatant commanders. For 
instance, we are currently not meeting our required crisis response 
capacity and do not fully recover until 2020.
    Question. What is your assessment of the near-term trend in the 
readiness of the Navy?
    Answer. The 2016 President's Budget Request provides the minimum 
resources to achieve the levels of readiness to meet requirements by 
2020. This plan still includes considerable risk, and does not allow 
for any unexpected contingencies.
    Question. How critical is it to find a solution to sequestration 
given the impacts we have already seen to readiness in fiscal year 
2013?
    Answer. It is absolutely critical. Without relief from the current 
budget caps, we will fall farther below requirements to the point that 
the Navy will not be able to meet our responsibilities in the current 
strategy.
    Question. What is your understanding and assessment of the methods 
currently used for estimating the funding needed for the maintenance of 
Navy equipment?
    Answer. To estimate the resources needed for maintenance, the Navy 
takes a requirements-based approach that first defines the required 
level of readiness for a given unit at a particular time, for a 
particular mission. This accounts for personnel, equipment, 
sustainment, training, and ordnance. Efforts are made to ensure that 
units are appropriately ready, balancing the operational availability 
to the warfighters consistent with expected employment. While this 
analytical approach provides discipline and predictability to the 
system, recent budget perturbations and uncertainty makes cost and 
associated readiness estimates much more complex, and drives up the 
cost/readiness in nearly every case. When readiness suffers--
particularly in maintenance--it can take years to recover.
    Question. Given the backlog in equipment maintenance over the last 
several years, do you believe that we need an increased investment to 
reduce this backlog?
    Answer. The fiscal year 2016 President's Budget Request, with OCO 
funding, fully funds ship maintenance to continue life cycle 
maintenance reset of CVNs and surface force ships. To address workload 
to be completed in our public shipyards, Navy also funds additional 
workforce and will send selective submarines to private shipyards. Navy 
funds aviation depot maintenance to capacity, increasing funding as 
throughput improves.
    Question. How important is it to reduce the materiel maintenance 
backlog in order to improve readiness?
    Answer. It is very important to the Navy. Maintenance and training 
backlogs have delayed deployments, which have in turn forced extensions 
for those already deployed. Since 2013, many CSGs, ARGs, and destroyers 
have been on deployment for 8-10 months or longer. This comes at a cost 
to the resiliency of our people, sustainability of our equipment, and 
service lives of our ships. Readiness shortfalls take stable and 
predictable funding over a period of years to correct, and force 
operational units to extend beyond sustainable levels.
    Question. How important is it to receive OCO funding 2 or 3 years 
after the end of combat operations in order to ensure all equipment is 
reset?
    Answer. It is very important. We remain reliant on OCO funding for 
ongoing overseas operations, reset, and enduring requirements.
    Question. In your judgment, is the current and recent operational 
tempo adversely affecting the readiness or retention of sailors on 
Active Duty and in the Reserve component?
    Answer. There is no doubt that our sailors and their families are 
mission focused--they are proud to do their job--making significant 
sacrifices--as they serve the Nation. Having said that, in my 
experience, the dominant factor that is negatively affecting our 
sailors' professional experience in the Navy, and the stress that their 
families experience, is the frustration associated with things like 
delays to getting underway, deployment extensions, training delays and 
gaps, delays in maintenance periods, and last-minute parts 
availability. These avoidable unpredictabilities are the single biggest 
detractor to quality of service.
    Question. If confirmed, what will be your priorities for 
maintaining readiness in the near term, while modernizing the Navy to 
ensure readiness in the future?
    Answer. If confirmed, I will strive to achieve the appropriate 
balance between these two imperatives. My first priority will be to 
deliver a sustainable level of mission-ready forward presence and 
contingency response capacity to the combatant commanders. However, 
these near-term priorities cannot be made at the expense of the 
capability and capacity of the Navy's future force. We must maintain 
commitment to modernize our Navy to meet tomorrow's challenges, 
particularly the need to modernize our undersea strategic deterrent, 
and to address emerging opportunities in information technology. If 
confirmed, I will work with Defense Department leadership and the 
Congress to achieve adequate and predictable resources to meet current 
readiness and employment requirements while investing in the future.
    Question. In years past, Congress has based additional readiness 
funding decisions on the Service Chief unfunded priorities lists. 
However, in recent years those lists have not been provided or have 
arrived too late to help in our markup process.
    If confirmed, do you agree to provide unfunded priorities lists to 
Congress in a timely manner beginning with the fiscal year 2017 budget 
request?
    Answer. Yes. I will make all efforts to comply with Congressional 
direction.
    Question. In the past, a number of ships failed inspections by the 
Board of Inspection and Survey (INSURV), including Aegis cruisers and 
destroyers, due to poor material condition. The Navy classified INSURV 
inspection results in 2008 and stopped using pass-fail criteria in 
2012.
    Do you support the current policy of keeping INSURV results 
classified?
    Answer. Yes, getting an unvarnished assessment of our ships is 
critical to understanding the readiness level of the fleet. 
Furthermore, the detailed readiness assessment of our forces should be 
kept from any potential adversaries.
    Question. Do you support the current grading criteria, which lack a 
pass/fail determination?
    Answer. Yes. I believe that the existing system, which grades ships 
using a holistic score and compares them to other ships in their class, 
provides more useful insight about a ship's condition and the path to 
correct deficiencies.
    Question. Given INSURV no longer provides failing or unsatisfactory 
scores, how will you ensure Congress is promptly notified when the 
material condition of a ship is unsatisfactory?
    Answer. If confirmed, I will work to ensure that the readiness of 
our fleet is promptly known to Defense Department leadership and the 
Congress.
    Question. Navy leaders have stated rotational deployments will be 
stabilized and more predictable through continued implementation of an 
improved deployment framework called the Optimized Fleet Response Plan 
(O-FRP).
    What is your understanding of the O-FRP?
    Answer. O-FRP is designed to align manning, maintenance, and 
modernization of our platforms with training in order to achieve 
readiness and meet regional needs in the most effective and efficient 
manner. O-FRP should allow the Navy to achieve stable and predictable 
7-month deployments, which will help to reset our readiness and 
increase certainty for our sailors and families.
    Question. Do you support implementation of the O-FRP?
    Answer. Yes. As O-FRP goes forward, if confirmed I will work 
closely with the fleet commanders to continuously review effectiveness 
of O-FRP in meeting our strategic objectives.
    Question. To what extent will implementation of the O-FRP improve 
the material readiness of the fleet?
    Answer. O-FRP is designed to improve material readiness by 
providing greater stability and predictability in maintenance 
schedules. Restoring predictability to maintenance periods, when 
combined with sufficient and predictable resources in our shipyards and 
depots should allow for better maintenance outcomes and improved 
overall fleet readiness.
    Question. What metrics should Congress use to track the material 
readiness and material condition of Navy ships and aircraft, as well as 
the effectiveness of O-FRP?
    Answer. If confirmed, I will work to ensure that the material 
readiness of our fleet is promptly known to Departmental leadership and 
the Congress.
            united nations convention on the law of the sea
    Question. Officials of the Department of Defense, including 
previous Chiefs of Naval Operations, have advocated for accession to 
the Law of the Sea Convention.
    Do you support United States accession to the United Nations 
Convention on the Law of the Sea?
    Answer. I support accession to the Convention. Being a party to the 
Convention enhances the United States' security posture by reinforcing 
freedom of the seas and rights vital to ensuring our global force 
posture. The Convention provides legal certainty in the world's largest 
maneuver space. Access would strengthen the legal foundation for our 
ability to transit through international straits and archipelagic 
waters; preserve our right to conduct military activities in other 
countries' Exclusive Economic Zones (EEZs) without notice or 
permission; reaffirm the sovereign immunity of warships; provide a 
framework to counter excessive maritime claims; and preserve our 
operations and intelligence-collection activities. Joining the 
Convention would also demonstrate our commitment to the rule of law, 
strengthen our credibility among those nations that are already party 
to the Convention, and allow us to bring the full force of our 
influence in challenging excessive maritime claims. Finally, it would 
secure for us a leadership role in shaping and influencing future 
maritime developments.
    Question. How would you respond to critics of the Convention who 
assert that accession is not in the national security interests of the 
United States?
    Answer. There are significant national security impacts from 
failing to join the Convention. By remaining outside the Convention, 
the United States remains in scarce company with Iran, Venezuela, North 
Korea, and Syria, and foregoes the most effective way to counter 
undesirable changes in the law or to exercise international leadership. 
By not acceding to UNCLOS we deny ourselves the ability to challenge 
changes to international law as a result of the practice of nations at 
the local, regional, or global level. As some states seek to interpret 
treaty provisions in a manner that restricts freedom of navigation, 
U.S. reliance on customary international law as the legal foundation 
for our military activities in the maritime becomes far more vulnerable 
and needlessly places our forces in a more tenuous position during 
operations. Moreover, by failing to join the Convention, some countries 
may come to doubt our commitment to act in accordance with 
international law.
    Question. In your view, what impact, if any, would U.S. accession 
to the Law of the Sea Convention have on ongoing and emerging maritime 
disputes such as in the South China Sea and in the Arctic?
    Answer. Acceding to the Convention would strengthen our credibility 
and strategic position on issues pertaining to these regions. While we 
do not take sides in the various territorial disputes in the South 
China Sea, we do have a national security interest in ensuring disputes 
are resolved peacefully, countries adhere to the rule of law, and all 
nations fully respect freedom of the seas. However, we undermine our 
leverage by not signing up to the same rule book by which we are asking 
other countries to accept. As for the Artic, the other Arctic coastal 
nations (Russia, Canada, Norway, and Denmark (Greenland)) understand 
the importance of the Convention and are in the process of utilizing 
the Convention's procedures to establish the outer limits of their 
extended continental shelves (ECS) in the Arctic. The United States has 
a significant ECS in the Arctic Ocean, but cannot avail itself of the 
Convention's mechanisms to gain international recognition of its ECS. 
We must put our rights on a treaty footing and more fully and 
effectively interact with the other seven Arctic Council nations who 
are parties to the Convention.
         united states force posture in the asia-pacific region
    Question. The Department continues the effort to rebalance toward 
the Asia-Pacific as announced in the January 2012 Strategic Defense 
Guidance.
    Are you satisfied with the rebalance efforts to date?
    Answer. Thus far, I am satisfied with our rebalance efforts, as 
they have resulted in a significant adjustment in United States Navy 
force structure and capabilities in the Asia-Pacific region.
    Question. What do you see as the United States security priorities 
in the Asia-Pacific region over the next couple of years and what 
specific Navy capabilities or enhancements are needed in to meet those 
priorities?
    Answer. The Indo-Asia-Pacific region is becoming a priority not 
only for the United States, but for the world. Rising economies, access 
to natural resources, critical trade routes, and growing navies all 
present both opportunities and risks. In order to protect our 
interests, the United States faces a range of challenges in the Asia-
Pacific region, including provocations by North Korea and the growth of 
its ballistic missile programs, as well as China's expansion into the 
Pacific and Indian oceans, supported by their rapidly growing navy.
    Going forward, a whole-of-government approach is warranted. 
Moreover, I believe we must address this challenge in a regional 
context--continuing to enhance relations with and the capabilities of 
regional allies and partners. For our part, as this is such a vast 
maritime theater, the Navy must continue to prioritize the full 
spectrum of our capabilities towards the Pacific.
    Question. Do the budget cuts and resource constraints associated 
with sequestration threaten your ability to execute the rebalance to 
the Pacific?
    Answer. Resourcing levels below the fiscal year 2016 President's 
Budget Request would necessitate reworking the current defense 
strategy, including the rebalance to the Pacific.
                        anti-access/area denial
    Over the past few years, much has been made of the emerging anti-
access and area denial capabilities of certain countries and the 
prospect that these capabilities may in the future limit the U.S. 
Navy's freedom of movement and action in certain regions.
    Question. Do you believe emerging anti-access and area denial 
capabilities are a concern?
    Answer. Yes. The development and proliferation of advanced systems 
that can sense, target and strike ships at increasing ranges and 
accuracy is a vital concern to me. If confirmed, I will work with other 
defense leaders and leaders in industry to develop technologies that 
assure access by the joint force.
    Question. If so, what do you believe the Navy needs to be doing now 
and in the next few years to ensure continued access to all 
strategically important segments of the maritime domain?
    Answer. The free use of the maritime commons is critical to the 
global economic system and U.S. national interests. The Navy will 
continue to first and foremost be present and exercise freedom of 
navigation in international waters and to reassure our allies and 
partners. Further the Navy must continue to develop new concepts, 
platforms, and technologies that can effectively address this emerging 
threat to access.
    Question. If confirmed, you would play an important role in the 
process of transforming the Navy to meet new and emerging threats. 
Concerning capability and capacity to meet new and emerging threats, 
what are your goals regarding transformation of the Navy?
    Answer. If confirmed, one of my primary goals would be to ensure 
the Navy fully exploits the potential offered by advances in 
technology, and particularly information technology, to enhance our 
ability to rapidly and adaptively combine forces and capabilities. To 
support this aim, the acquisition processes that design and build these 
capabilities must become more agile. Finally, we must consider what 
changes must be made to the way that we train and employ our people to 
ensure that our sailors remain on the cutting edge of capability. If 
confirmed, I will ensure that the Navy incorporates these changes 
swiftly and effectively.
                          china assertiveness
    Question. How has China's aggressive assertion of territorial and 
maritime claims, particularly in the South China Sea and East China 
Sea, affected security and stability in the region?
    Answer. China's actions in the South and East China Seas, as well 
as its rapid military modernization and growing defense budgets, have 
led many in the region, including the United States, to question its 
long-term intentions. China has still not clarified its 9-Dash Line 
claim, and it continues to conduct land-reclamation and construction 
activities in the South China Sea. Such behavior has been destabilizing 
for the region and has increased the risk of miscalculation or conflict 
among regional actors. Our allies and partners in the region are 
increasingly looking to the United States for leadership and support in 
the face of these challenges, and so our response to China's challenges 
to the international maritime order should be firm and consistent.
                                 china
    Question. What is your assessment of the current state of the 
United States-China military relationship?
    Answer. The United States-China military-to-military relationship 
is a critical component of our overall bilateral relationship and an 
important aspect of our regional maritime strategy. Right now, I 
believe the military relationship is contributing to stability in the 
region. This stability allows us to increase cooperation on areas of 
overlapping interests, while improving our ability to manage other 
aspects of the security relationship responsibly. The broader bilateral 
relationship can improve through strengthening trust and transparency 
between the two militaries.
    Question. What are your views regarding China's interest in and 
commitment to improving military relations with the United States?
    Answer. I believe China recognizes the United States will have an 
enduring presence in the Pacific and therefore has a clear interest in 
sustaining military-to-military contacts. If confirmed, I will continue 
to use the military relationship as a tool to build sustained and 
substantive dialogue, develop areas of practical cooperation, and 
manage competition in a way that protects national interests and 
supports overall stability in the relationship and the Asia-Pacific 
region.
    Question. What is your view of the purpose and relative importance 
of sustained military-to military relations with China?
    Answer. Mil-Mil relations are an important part of our bilateral 
relationship. They can be fruitful because of a shared military 
culture, this is true for navies in particular as we operate together 
in international waters governed by common rules and must communicate 
with one another. The goal would be to protect national interests by 
strengthening understanding, transparency, and familiarity. This must 
be done in a thoughtful way that protects our interests.
    Question. What role do you see for the Chief of Naval Operations in 
this process?
    Answer. I believe the CNO plays a pivotal role to personally 
sustain a meaningful working relationship with all of his counterparts 
around the world, to the end of promoting the international rules and 
norms that have been the foundation of regional stability for decades 
and have afforded nations such as China unprecedented economic growth 
and prosperity.
                            unmanned systems
    Question. The Navy's current plan for the Unmanned Carrier-Launched 
Airborne Surveillance and Strike (UCLASS) system aircraft is to develop 
an airframe optimized for unrefueled endurance (14 hours) and the ISR 
mission.
    Given the combat radius of the planned Carrier Air Wing, are you 
concerned the Navy's aircraft carriers will lack the ability to project 
power at relevant distances, given emerging anti-access/area-denial 
threats?
    Answer. I am concerned. The rapidly evolving technological and 
security environments require that we continually work to develop 
concepts and capabilities that will allow us to maintain assured access 
and project power when needed. That is why our planned modernization 
integrates the warfighting capabilities of the entire Air Wing 
including strike fighter, airborne electronic attack, and command and 
control modernization to assure access in contested environments. As 
part of this integrated approach, the UCLASS program is designed to 
provide both Intelligence, Surveillance, Reconnaissance, and Targeting 
and future strike capabilities. If confirmed, I look forward to 
participating with other defense leaders and industry to ensure success 
in this critical area.
                           strategic thinking
    Question. How do you plan to foster a dedicated, educated, and 
assigned group of strategic thinkers and planners who rise to the rank 
of flag rank officer?
    Answer. The Navy has several opportunities for an officer to 
develop into a strategic leader. The Naval War College, Naval Post 
Graduate School, and other services' schools provide a rich education 
in strategy and policy. As well, the Navy has programs with other 
colleges and universities both in the United States and abroad that 
provide opportunities to become educated in strategic thinking. We are 
and will continue to pursue initiatives to improve in this vital area.
                  conventional vs. nuclear deterrence
    Question. What role do you see for the Navy in conventional 
deterrence?
    Answer. Naval forward presence is critical to conventional 
deterrence. Captured in the phrase that the Navy is ``where it matters, 
when it matters'' is the ability to be forward to enhance stability and 
deter undesired behavior.
    Question. How do strategic and conventional deterrence complement 
one another?
    Answer. It is a complementary relationship. Our Nation's strategic 
deterrent has been a bedrock of peace and stability, precluding major 
wars for over 50 years. The Navy's contribution to this is the SSBN 
force, which has provided a survivable and responsive capability and 
100 percent alert coverage since the 1960s. That force recently 
celebrated its 4,000th strategic deterrent patrol. Complementing this 
strategic deterrent, as discussed above, our conventional naval forces 
are present to be seen and to reassure our partners that we have a 
global reach that protects the international system. Both work in 
tandem within the Joint force to guarantee stability.
                          offset technologies
    Question. During the Cold War, the DOD pursued three key 
technologies to offset the numerical superiority of Soviet conventional 
forces: precision guided munitions, stealth technology, and satellite-
based navigation. These three technologies have given U.S. forces 
unparalleled superiority until now. However, with advancements by our 
emerging adversaries, it seems like the military technological 
superiority is beginning to erode. As a result, it is critical that the 
United States once again focus on offsetting the erosion of our 
technology advantages being achieved by our potential adversaries.
    Which technology priorities do you believe the Navy should be 
pursuing to maintain the military technological superiority of the 
United States?
    Answer. The advances in information technology--via cyber 
capabilities and in the electromagnetic spectrum--present significant 
future potential. Related, these technologies, when coupled with 
precision guidance and sensors, present significant opportunities for 
unmanned systems. The advent of additive manufacturing (3D printing) 
technology is another area that should be aggressively pursued. 
Finally, advances in power generation and conditioning allow for 
opportunities in directed energy weapons. Just as important as any 
technology, the process by which the Navy develops and fields new 
capabilities must become more agile. We must learn and adapt faster.
    Question. What strategies would you recommend be implemented to 
develop these technology priorities?
    Answer. If confirmed, I look forward to continuing the momentum the 
Navy has established to develop and deploy innovative technologies and 
to refine our staff organization and processes to become more adaptable 
and agile. My sense is that closer collaboration with industry will 
enhance our effectiveness in this endeavor.
    Question. What role should the services play in their development?
    Answer. The Services play a vital role in resourcing the research 
and development to address needs, lead creative thinking about the 
future, and ensure that promising approaches survive the leap from 
research to production. If confirmed, this will get my personal 
attention.
                         science and technology
    Question. One of the main objectives of the defense research 
enterprise is to develop advanced technologies that will be of benefit 
to the warfighter. In this regard, it is critical that advancements 
quickly transition from the development phase into testing and 
evaluation and ultimately into a procurement program for the 
warfighter.
    What are some of the challenges you see in transitioning 
technologies effectively from research programs into programs of 
records?
    Answer. If confirmed, I intend to work with Defense Department 
leadership and the Congress to enhance the Navy's ability to develop 
capabilities that can be rapidly prototyped and tested in the field, 
and if successful, integrated into the fleet. I believe this will 
accelerate the learning cycle and allow capability to enter the Navy at 
a pace more comparable to the private sector. This must be done 
thoughtfully, keeping in mind that Naval systems must operate reliably 
for extended periods of time in hostile maritime environments. 
Continued mission success and the safety of our sailors depend on these 
capabilities.
    Question. As the Chief of Naval Operations, what steps will you 
take to ensure that the services are benefitting more quickly and 
directly from the research being performed by the defense research 
enterprise?
    Answer. Leveraging the research being conducted elsewhere in the 
defense enterprise, ensuring we don't duplicate efforts unnecessarily, 
and bringing the technical communities together to share information 
are all high priorities for me. Our technical workforce needs to be 
able to spend time interacting with researchers and attending 
professional workshops. If confirmed, I will engage with universities, 
industry, and research institutions to work on our toughest challenges.
    Question. Do you feel that defense technologies and systems, 
especially in areas such as mobile communications, computing, and 
robotics, are keeping pace with global and commercial technological 
advances? If not, what do you suggest that the Department do to keep up 
with the pace of global technological change?
    Answer. Global technological advancements are profound, and I 
believe that we should monitor and leverage them that at every 
opportunity, as they represent a source of tremendous advantage. If 
confirmed, I look forward to identifying specific areas where we can 
trust commercial markets to produce capabilities that are suitable--
even preferable--to independently developing them ``in house.''
    Question. As you know, robust investment in S&T underpins 
technological advances in our military capabilities and is vital for 
maintain our military technological superiority over emerging 
adversaries.
    If confirmed, what metrics would you use to assess whether the Navy 
is investing adequately in S&T programs?
    Answer. Given the challenges associated with identifying a benefit, 
it may be most useful to ensure that a fixed percentage of overall 
funding remains allocated to basic research. I believe the Defense 
Department, to include the Navy, must have a robust understanding of 
the areas of basic research that are likely to provide those advances 
most relevant to its missions, and invest in those that are least 
likely to attract adequate funding from other sources. If confirmed, I 
would ensure that the Navy's analysis in this area remains robust.
    Question. How would you assess the value and appropriate investment 
level for basic research programs?
    Answer. I believe that our current investment in basic research is 
appropriate given the current fiscal reality.
    Question. What tools would you use to ensure that appropriate 
technologies are transitioning quickly into programs of record?
    Answer. If confirmed, this will be an area of keen interest during 
my tenure as CNO. At every level of this organization, we recognize 
that delivering technological superiority to our warfighters is of 
paramount importance yet often happens too slowly. I would assist the 
Secretary in the acquisition process to ensure that the warfighter's 
needs are properly articulated, prioritized, and resourced, and that 
the requirements process is agile enough to drive an even faster pace. 
The Navy has already started moving in this direction with Task Force 
Innovation, establishing a DASN for unmanned systems, and establishing 
the office of OPNAV N99 to focus on transitioning new technologies more 
quickly.
                          technical workforce
    Question. A significant challenge facing the Department of Defense 
today is an impending shortage of high quality scientific and 
engineering talent to work at Defense laboratories and technical 
centers.
    In your view, what are the pros and cons of having Active Duty Navy 
personnel trained and working as scientists and engineers within the 
Navy research and acquisition system?
    Answer. The Navy is continually assessing the appropriate roles for 
military, civilian, and contractor personnel to determine the best 
approach to meeting our research and acquisition needs. If confirmed I 
look forward to exploring this issue more fully.
    Question. How would you ensure that directors of labs in your 
service have the tool they need to dynamically shape their S&T 
workforce?
    Answer. If confirmed, I will work with the directors and the 
resource sponsors to ensure that we maintain a system that is 
responsive to the needs of the current S&T environment, including 
people, security, and instrumentation and tools.
                       test and evaluation issues
    Question. What do you see as the role of the developmental and 
operational test and evaluation communities with respect to rapid 
acquisition, spiral acquisition and other evolutionary acquisition 
processes?
    Answer. The operational test and evaluation communities play a 
critical role in ensuring the systems the Navy produces are ready for 
the stresses of extended operation at sea and ultimately for combat. 
This community ensures that our systems will perform to expectations 
and allow our sailors and commanders to have the capability and 
confidence in their gear that they need to win.
    Question. Are you satisfied with the Navy's test and evaluation 
capabilities, including workforce and infrastructure?
    Answer. Yes.
    Question. In which areas, if any, do you feel the Navy should be 
developing new test and evaluation capabilities?
    Answer. New technologies and rapid prototyping and fielding schemes 
will likely require us to develop new test and evaluation capabilities 
as well--capabilities that will evaluate new systems in ways that both 
provide the confidence in the system's performance and also are 
responsive. If confirmed, I look forward to working closely with 
Defense Department leadership and the Congress to explore ways to 
achieve both of these aims.
    Question. What are your views on the appropriate roles of OSD 
developmental and operational testing organizations with respect to 
testing of Navy systems?
    Answer. The evaluation performed by OSD developmental and 
operational testing organizations is critical to delivering combat 
ready systems. If confirmed, I look forward to continuing to partner 
with these organizations.
                        recruiting and retention
    Question. What do you consider to be the key to the Navy's success 
in recruiting the highest caliber American youth for service and 
retaining the best personnel for leadership responsibilities?
    Answer. Today our recruiting and retention numbers are at historic 
highs. Maintaining this quality as the economy improves will be 
critical to our ability to command the seas and provide options to 
national leadership. Key to recruiting and retaining high quality 
personnel will be to remain true to our values and beliefs. People with 
talent such as we see joining our ranks have many choices--and they 
chose to join our Navy team because we work together in high-preforming 
teams that stand for something noble and true. We must always remain 
vigilant to ensure that our behaviors remain consistent with our 
values. As such, our ability to revise and renew outdated and 
cumbersome policies, practices, and technologies, to permit our current 
and future generations to fulfill their potential and their desire to 
serve, will be critical to keeping people on our team.
    Question. What steps, if any, do you feel should be taken to ensure 
that current operational requirements and tempo do not adversely impact 
the overall readiness, recruiting, retention, and morale of sailors?
    Answer. Central to recruiting and retaining high quality personnel 
and maintaining readiness and morale is our ability to provide sailors 
deployment predictability and the resources necessary to carry out 
their mission. Years of continuing resolutions, coupled with the long-
lasting negative effects of sequestration in 2013 and the looming 
threat of sequester in the future have increased frustration and 
anxiety in our sailors. This ``say-do mismatch'' over time erodes 
trust, and factors heavily into a family's decision to stay Navy or 
recommend a career in the naval service to others.
    Question. What impact, if any, do you believe the Department's 
proposals aimed at slowing the growth of personnel and health care 
costs will have on recruiting and retention in the Navy?
    Answer. If communicated properly and put in the appropriate context 
by leadership, slowing growth, while still meeting expectations 
regarding those matters that sailors and their families value most, 
should allow the Navy to make appropriate adjustments in a controlled 
and sustainable manner. Our sailors want to be fairly compensated for 
their hard work and sacrifice, but they also join and stay in the Navy 
for the sense of purpose and teamwork that comes from operating around 
the world as part of high-performing units on advanced platforms.
                         military compensation
    Question. What is your assessment of the adequacy of military 
compensation?
    Answer. To win in the challenging future security environment, we 
must continue to recruit and retain high-quality people and their 
families. Our warfighting readiness and ability to win a future 
conflict depends on this. My general sense is that the basic structure 
of the compensation system is about right. There may be additional room 
to achieve greater efficiencies or provide even higher levels of 
satisfaction, but doing so will require developing deeper insight into 
the specific needs and desires of our sailors and civilians. If 
confirmed, I look forward to working closely with the Secretary of the 
Navy and the Secretary of Defense on these types of initiatives.
    Question. What recommendations would you have for controlling the 
rising cost of personnel?
    Answer. I agree with the recent Military Compensation and 
Retirement Modernization Commission (MCRMC) findings that our current 
system is generally sound, although we must continue to look for 
efficiencies where possible. I support proposals to modernize our 
retirement system so long as our sailors are given supporting education 
to make choices to best support their families. My inclination is that 
the MCRMC recommendation to combine some commissary and exchange 
functions make sense; I would like to study this more closely. If 
confirmed, I will work with my fellow Chiefs to continue to seek out 
opportunities to better align servicemember needs with support, both 
through compensation and through updates to how we manage our people.
    Question. Do you support the administration's compensation and 
health care proposals?
    Answer. I support opportunities to find efficiencies in how we 
manage and pay for the healthcare of our sailors and families, but am 
mindful of the absolute need to keep our commitments to fairly reward 
them for their service. As we work through this process, our priority 
must be to ensure we continue to recruit and retain high quality people 
and their families. Our warfighting readiness and ability to win a 
future conflict depends on this.
                         education for sailors
    Question. An important feature of the Post-9/11 GI Bill is the 
ability of career-oriented servicemembers to transfer their earned 
benefits to spouses and dependents.
    What is your assessment of the effect of the Post-9/11 GI Bill on 
recruiting and retention of sailors?
    Answer. According to quick polls and surveys, the Post 9-11 GI Bill 
has a positive effect on both recruiting and retention. It provides 
excellent opportunities for academic, technical, intellectual, 
personal, and professional development of our servicemembers and their 
families. This contributes to overall readiness, quality, and morale of 
our force.
    Question. In your view, what has been the effect of the 
transferability option on retention and career satisfaction of sailors?
    Answer. The Post-9/11 GI Bill benefits and the ability to transfer 
unused portions to dependents contribute significantly to both the 
retention and morale of our force and have the potential to strengthen 
our country's educational base and technological leadership.
    Question. How important do you believe tuition assistance benefits 
are to young sailors, and what trends do you see in the Navy's ability 
to pay for such programs at current levels over the FYDP?
    Answer. I share CNO Greenert's commitment to tuition assistance. 
Sailor demand for tuition assistance remains strong and our plan is to 
maintain funding at the current level. Such assistance continues to be 
a key component of the Navy's Learning Strategy and supports overall 
readiness by providing academic, technical, intellectual, and 
professional development for our sailors.
    Question. What changes, if any, would you recommend to current 
eligibility criteria for tuition assistance?
    Answer. I do not recommend any changes to the program at this time. 
Current law and policy provide the Services sufficient flexibility to 
tailor the Tuition Assistance Program to meet the requirements for our 
sailor's personal and professional development while meeting the Navy's 
warfighting requirements.
    Question. Do you believe that tuition assistance should be used to 
enhance a sailor's career while he or she is in the Navy?
    Answer. Yes. Navy-funded education through tuition assistance or 
other means is a strategic investment in our people. Sailors develop 
critical thinking skills, broadening their intellectual base, and 
acquire the ability operate effectively in complex environments--
regardless of the specific course of study.
    Question. Do you agree with the Military Compensation and 
Retirement Modernization Commission that tuition assistance should be 
limited to courses and education that contribute to a sailor's 
professional growth?
    Answer. As long as we do not become too restrictive regarding our 
definition of what ``contributes to a sailor's professional growth,'' I 
believe that Navy-funded education should both enhance the professional 
growth of our people and the effectiveness of our Navy. As with other 
personnel programs this will have to be closely studied and thoroughly 
communicated in order to achieve the desired positive effect.
             assignment policies for women in the military
    Question. As you know, 2 years ago, the Department rescinded the 
policy restricting the assignment of women to certain units which have 
the primary mission of engaging in direct ground combat operations, and 
has given the military services until January 1, 2016, to open all 
positions currently closed to women, or to request an exception to 
policy to keep a position closed beyond that date, an exception that 
must be approved by the Chairman of the Joint Chiefs of Staff and the 
Secretary of Defense. The services have opened a large number of 
positions to service by women and continue to work to develop gender-
free physical and mental standards for all military occupations, 
presumably with the goal of allowing individuals, regardless of gender, 
to serve in those positions if they can meet those standards.
    If confirmed, what role will you play in the development of these 
standards?
    Answer. If confirmed, I will ensure we follow Department guidance 
and meet our reporting obligations under the law. The Navy will provide 
a written report to the Secretary of Defense in September 2015 with 
validation of standards as gender neutral in accordance with Public 
Laws stating that occupational standards ``accurately predict 
performance of actual, regular, and recurring duties of a military 
occupation; and are applied equitably to measure individual 
capabilities.'' We are on track to certify that these validated 
standards are in use or will be in use by 30 Sep 2015 at schools and in 
training.
    Question. Will you ensure that the standards will be realistic and 
will preserve, or enhance, military readiness and mission capability?
    Answer. Yes, if confirmed I will ensure that all standards will be 
operationally relevant and accurately reflect the tasks required to 
accomplish the mission.
    Question. Do you believe that decisions to open positions should be 
based on bona fide military requirements?
    Answer. Over 95 percent of Navy jobs are already open to both men 
and women. The Navy will continue to open positions to obtain the 
talent necessary to best meet military requirements.
    Question. If so, what steps will you take, if confirmed, to ensure 
that such decisions are made on this basis?
    Answer. If confirmed I will continue our present course. Warren 
Buffet has been quoted as saying that as he grew up, he had the 
privilege of only having to compete against 50 percent of the 
population. The Navy's goal is to ensure that we do not afford that 
advantage to any potential adversary. Our missions will be executed by 
the best qualified and most capable people, regardless of gender. In 
order to preserve unit readiness, cohesion, and morale, and to limit 
attrition, lessons learned from the surface, aviation, and submarine 
integration will be used to ensure future and continued success.
    Question. In 2011, the Navy opened service on submarines to women.
    What is the implementation status of this decision?
    Answer. I am pleased with progress being made; we are moving 
forward smoothly and deliberately. Women can now serve on all three 
types of submarines; SSBNs, SSGNs, and SSNs. To date, 56 women are 
currently serving onboard submarines, including 40 nuclear-trained 
officers and 16 supply officers. Sixteen submarine crews in Ohio- and 
Virginia-class submarines are integrated. In June 2015, the Navy 
announced the names of the first enlisted female submariners. These 
sailors will be assigned to the first two of eighteen submarine crews 
and will report to USS Michigan in 2016. The women and the men are 
performing superbly.
    Question. What challenges still exist and what proactive measures 
are submarine force leaders taking?
    Answer. The integration of women into the submarine community is 
progressing smoothly and deliberately. As the force moves toward 
integrating enlisted females in 2016, the Navy will continue to adhere 
to the principles and will benefit from the lessons learned that have 
led to success to date. The crews that will receive these females will 
have appropriate levels of training and certification to ensure they 
are prepared for these sailors. Additionally, the enlisted sailors are 
being assigned to crews that are already integrated with female 
officers.
                      family readiness and support
    Question. Sailors and their families in both the Active and Reserve 
components have made, and continue to make, tremendous sacrifices in 
support of operational deployments. Senior military leaders have warned 
of concerns among military families as a result of the stress of 
deployments and the separations that go with them.
    What do you consider to be the most important family readiness 
issues for servicemembers and their families?
    Answer. Each Navy family has unique needs driven by their own 
personal circumstances and geographic location. From pay and 
compensation, to deployment predictability, to healthcare, our families 
have unique concerns that unit leadership must address in a timely and 
compassionate manner. Our sailors tell us that predictability, combined 
with tailored communication before, during, and after deployments helps 
bring families together, building bonds that improve unit readiness and 
cohesion.
    Question. How would you address these family readiness needs in 
light of global rebasing, deployments, and potential future reductions 
in end strength?
    Answer. I believe that most family issues are best addressed and 
cared for at the local level by commanders and senior enlisted leaders 
whom sailors and their families know and trust. If confirmed, it would 
be my responsibility to ensure that commanders have access to the 
information and resources they need to respond to local concerns in a 
timely and compassionate manner. Additionally, it would be my 
responsibility to set a climate and environment that encourages candid 
and unsolicited family feedback, good or bad. This direct information, 
whether shared through our Ombudsmen network or electronically is an 
important look into command climate and readiness.
                        military quality of life
    Question. The Committee is concerned about the sustainment of key 
quality of life programs for military families, such as family support, 
child care, education, employment support, health care, and morale, 
welfare and recreation services, especially as DOD faces budget 
challenges.
    If confirmed, what further enhancements, if any, to military 
quality of life programs would you consider a priority in an era of 
intense downward pressure on budgets?
    Answer. If confirmed, I will continue to give the current family 
support programs high priority and to remain fully engaged in this 
area; monitoring it closely to ensure it remains responsive to 
families' needs and receives the appropriate level of support. In this 
endeavor, I hope to learn from our people and outside industry what 
additional initiatives we might introduce to better retain needed 
support while driving costs down.
                           suicide prevention
    Question. The numbers of suicides in each of the Services continues 
to concern the Committee.
    What is your assessment of the Navy's suicide prevention program?
    Answer. There is no single proven solution to prevent suicide. 
Every suicide is a tragedy, and even one is too many. Our goal to 
eliminate suicides will be realized through continued efforts in 
communications, skills training, policy, and research. Progress may 
fluctuate from year to year, but our Navy's commitment will be rock 
steady--we will spare no effort to reach those sailors who are 
suffering in this way. This is an area where we need to continue to 
improve, and if confirmed I am committed to leading that effort.
    Question. In your view, what role should the Chief of Naval 
Operations play in shaping policies to help prevent suicides both at 
home and in theater and to increase the resiliency of all 
servicemembers and their families?
    Answer. The CNO's role is to ensure that our sailors first and 
foremost understand that suicide prevention is a priority mission. The 
CNO must also ensure that unit leaders have the information, training, 
tools, practices, and policies to be healthy, resilient, and mission 
ready day in and day out. I believe that suicide prevention extends 
beyond simple policy guidance and oversight, and that it must be a 
command-led effort to first connect with sailors who may be in 
distress, and then to guide them to the appropriate means to help them 
successfully arrive at a ``safe harbor'' where they will be more at 
peace.
    Question. If confirmed, what actions will you take to ensure that 
sufficient mental health resources are available to servicemembers in 
theater, and to the servicemembers and their families upon return to 
home station.
    Answer. If confirmed, I will continue efforts to make resources and 
direct care more accessible to sailors and their families. We will 
continue to embed mental health providers directly within operational 
units. I believe these deckplate resources are a crucial element in 
helping to detect stress injuries early before they lead to decreased 
mission capability and mental health problems. We are also embedding 
mental health providers in primary care settings to ensure these 
resources are available upon return to the home station. Finally, I 
will do all that I can to reduce the stigma associated with asking for 
help so that our sailors take full advantage of the available 
resources.
             prevention of and response to sexual assaults
    Question. The fiscal year 2014 Department of Defense Annual Report 
on Sexual Assault in the Military reflects that substantiated reports 
of sexual assault in the Navy increased by 17 percent from 420 reports 
in fiscal year 2013 to 491 reports in fiscal year 2014.
    What is your assessment of this report?
    Answer. The report makes clear that while the Navy is making some 
progress to eliminate sexual assault, we still have much work to do.
    Question. What is your assessment of the problem of sexual assaults 
in the Navy?
    Answer. The Navy's success is predicated on high-performing teams 
bonded through trust and respect. Sexual assault within our ranks has a 
poisonous effect on unit performance and cohesion, reflecting a breach 
of trust. While I believe that we recognize the seriousness of the 
crime, there is additional work to do both to eliminate this crime, and 
to provide the strongest possible support to survivors. To be 
successful, we must do more to break the continuum of harm that starts 
with harassment or a hostile climate, and far too often ends in sexual 
violence.
    Question. What is your assessment of the Navy sexual assault 
prevention and response program?
    Answer. I firmly support the Navy's sexual assault prevention and 
response program. Having said that, eliminating sexual assault remains 
a challenging and complex problem. If confirmed, I will build upon 
current efforts and deepen my understanding of how to lead efforts to 
improve Navy responses, enhance accountability, and protect all of our 
sailors from this crime.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. In my view, having both these reporting options provides 
survivors a critical range of options., and both supports our goals of 
getting victims the care they need and holding offenders appropriately 
accountable.
    Question. What is your view about the role of the chain of command 
in providing necessary support to victims of sexual assault?
    Answer. Commanders must lead the way in our efforts to eliminate 
sexual assault. Commanders support victims through participation in the 
Sexual Assault Case Management Group (SACMG) meetings held monthly, 
during which commanders address the needs and desires of survivors to 
ensure that they are receiving appropriate access to sexual assault 
response coordinators, sexual assault prevention and response victim 
advocates, healthcare, and counseling, as well as ensuring all of the 
proper arrangements for any requested expedited transfers are being 
made. When sexual assault does occur, commanders must lead decisive 
response efforts, including the responsibility for appropriate criminal 
or administrative actions against offenders.
    Most importantly, elimination of sexual assault and the behaviors 
that lead to sexual assault will be manifested by deckplate 
leadership--the chief petty officers and junior officers in the spaces. 
These leaders respond to their Commanding Officer (CO). That CO is 
accountable to remain fully engaged in establishing the proper climate 
and ensuring that his or her team is following through.
    Question. What is your understanding of the adequacy of Navy 
resources and programs to provide victims of sexual assault the 
medical, psychological, and legal help they need?
    Answer. I believe the Navy has sufficient resources and authorities 
to address the needs of victims. Needs and requirements are regularly 
assessed to ensure that sufficient resources are available.
    Question. What is your view of the steps the Navy has taken to 
prevent additional sexual assaults both at home station and deployed 
locations?
    Answer. Sexual assault prevention requires multiple, layered 
efforts at several levels working in concert. Navy sexual assault 
prevention incorporates cultural improvement through engaged 
leadership, education and awareness, intervention, accountability, and 
partnerships across Navy organizations. Policy alone will not stop 
sexual assault; it requires action at the fleet level and involves all 
leaders.
    Question. What is your view of the adequacy of the training and 
resources the Navy to investigate and prosecute allegations of sexual 
assault?
    Answer. The Navy has increased the training and resources applied 
to the investigation and prosecution functions. The Naval Criminal 
Investigative Service (NCIS) has increased the number of investigators 
trained to investigate sexual assault offenses and enhanced its 
protocols to ensure these investigations are conducted or overseen by 
personnel qualified in this specialized field. The JAG Corps has 
similarly refined the training provided to judge advocates prosecuting 
or advising commanders in these cases, most notably requiring every 
attorney serving as lead trial counsel in a sexual assault case to be 
special victim qualified. As the law enforcement and legal components 
have individually improved, they have also endeavored to become more 
collaborative, both in training and execution. NCIS and the JAG Corps 
participate in an annual Special Victims Capabilities Course, attended 
by numerous members of the response community including trial and 
defense counsel, paralegals, Victims' Legal Counsel, and Victim 
Advocates. NCIS also created the Adult Sexual Assault Program (ASAP) in 
the Navy's largest fleet concentration areas to provide a distinct and 
recognizable group of personnel to investigate sexual assault related 
offenses. Upon receiving a report, ASAP personnel employ a surge team 
response. Members of the team collaborate with trial counsel and victim 
advocate personnel, resulting in the faster delivery of an 
investigative package to the convening authority. These types of 
functions are critical to responding to sexual assault, which in turn 
is essential to the commander's ability to maintain good order and 
discipline. With the dynamic nature of this area and the fluidity of 
our force, we cannot afford to reduce the training and resources 
currently provided--we must continue to seek ways to improve.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults occur?
    Answer. Engagement by the chain of command is essential as we 
create a culture at all levels that is intolerant of actions and 
behaviors that lead to sexual assault.
    Elimination of sexual assault and the behaviors that lead to sexual 
assault will be manifested by deckplate leadership--the chief petty 
officers and junior officers in the spaces. These leaders respond to 
their Commanding Officer. That CO is accountable to remain fully 
engaged in establishing the proper climate and ensuring that his or her 
team is following through.
    Question. Surveys report that up to 62 percent of victims who 
report a sexual assault perceive professional or social retaliation for 
reporting. If confirmed, what will you do to address the issue of 
retaliation for reporting a sexual assault?
    Answer. Retaliation is unacceptable. If confirmed, I will continue 
our efforts to address and confront this issue. Everyone needs to be 
sensitive to the perception of retaliation, recognize its signs, and 
step in to eliminate it. Training to recognize and eliminate 
retaliation has been added to the training curriculum for first line 
supervisors, prospective command leadership and in the future sailor 
training for fiscal year 2016. In addition, each installation-based 
Sexual Assault Case Management Group (SACMG) specifically asks for any 
experiences of retaliation against any reporters of crime, or against 
first responders or witnesses during its monthly review of open cases 
of sexual assault.
    Question. Sexual assault is a significantly underreported crime in 
our society and in the military. If confirmed, what will you do to 
increase reporting of sexual assaults by military victims?
    Answer. If confirmed, I will continue the progress being made by 
Navy leaders around the fleet. Increases in sexual assault reporting 
provide some hope that the Navy is making progress to elevate sailors' 
trust and confidence in command leadership and in the SAPR process. 
Better understanding of the precursors, indicators and behaviors 
associated with this crime, awareness of the multiple avenues to 
report, trust that the command will take all reports seriously, and 
confidence that the command will support survivors throughout the 
process, have all contributed to the increase in reporting. We must 
keep sailors' trust in the response process by ensuring the chain of 
command is central to this response.
    One area of concern is that the RAND report of 2014 indicated that 
male reporting rate is very low. We are incorporating male victim 
scenarios into our training and awareness, better understanding and 
removing barriers to male reporting, and continuing evaluation of 
support services to ensure they are gender-responsive.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command, instead of a military 
commander in the grade of O-6 or above as is currently the Department's 
policy, to determine whether allegations of sexual assault should be 
prosecuted?
    Answer. I support the Department's current policy. The Uniform Code 
of Military Justice operates as both a criminal justice system and a 
critical component of a commander's authority to maintain good order 
and discipline. I believe our military members and national security 
will best be served by retaining the military commander's key role in 
the military justice decision process. While the Navy cannot do without 
the legal analyses and recommendations provided by our highly 
proficient judge advocates, and I demand that all leaders in the 
Services to take advantage of this expertise, I firmly believe the 
military commander's role is indispensable in the prosecutorial 
process.
    Question. What additional steps would you take, if confirmed, to 
address the problem of sexual assaults in the Navy?
    Answer. If confirmed, I will continue to enhance our prevention 
efforts through responsive fleet-wide training based on what we've 
learned, addressing the spectrum of destructive and inappropriate 
behaviors to improve our ability to recognize and interrupt the 
continuum of harm as early as possible. I intend to continue command 
and leadership engagement and involvement at all levels.
    We have enhanced our response efforts by full implementation of 
Deployed Resiliency Counselors on large deck ships, enhanced NCIS 
investigative capability using specially trained Master-at-Arms, and 
continued legal assistance to victims through our Victims' Legal 
Counsel program. I will continue to assess the extent to which these 
resources are effective and sufficient. We will incorporate male victim 
scenarios into our training and awareness, better understanding and 
removing barriers to male reporting, and continuing evaluation of 
support services to ensure they are gender-responsive.
    Question. What is your assessment of the effect, if any, of recent 
legislation concerning sexual assault on the capability of Navy 
commanders to prosecute sexual assault cases, including cases where 
prosecution is declined by civilian prosecutors?
    Answer. It is still too early to fully understand the impact of 
recent legislative changes. Initial surveys indicate that the changes, 
particularly those related to victims' rights, have increased trust in 
the system. That trust has led to increased victim reporting and 
participation, which we believe is enhancing commanders' ability to 
prosecute sexual assault cases, including those in which prosecution is 
declined by civilian authorities.
                          religious guidelines
    Question. American military personnel routinely deploy to locations 
around the world where they must engage and work effectively with 
allies and with host-country nationals whose faiths and beliefs may be 
different than their own. For many other cultures, religious faith is 
not a purely personal and private matter; it is the foundation of their 
culture and society.
    Learning to respect the different faiths and beliefs of others, and 
to understand how accommodating different views can contribute to a 
diverse force is, some would argue, an essential skill to operational 
effectiveness.
    In your view, do policies concerning religious accommodation in the 
military appropriately accommodate the free exercise of religion and 
other beliefs, including individual expressions of belief, without 
impinging on those who have different beliefs, including no religious 
belief?
    Answer. Yes.
    Question. Under current law and policy, are individual expressions 
of belief accommodated so long as they do not impact unit cohesion and 
good order and discipline?
    Answer. Yes.
    Question. In your view, does a military climate that welcomes and 
respects open and candid discussions about personal religious faith and 
beliefs in a home-port environment contribute in a positive way to 
preparing U.S. forces to be effective in overseas assignments?
    Answer. In my view, a military climate that welcomes and respects 
open and candid discussion about personal religious faith in garrison 
can positively prepare U.S. forces to be effective in overseas 
assignments. However, there must be clear guidance about the importance 
of mutual respect and trust.
    Question. Would a policy that discourages open discussions about 
personal faith and beliefs be more or less effective at preparing 
servicemembers to work and operate in a pluralistic environment?
    Answer. I believe that a military climate that welcomes and 
respects open and candid discussion about personal religious faith in 
garrison can positively prepare U.S. forces to be effective in overseas 
assignments. In a world that appears to be increasingly committed to 
expressing religious belief, possessing this skill is necessary to not 
only understand our adversaries, but also understand our partner 
nations (consistent with the National Strategy on Integrating Religious 
Leader and Faith Community Engagement into U.S. Foreign Policy). Any 
policy that discourages open discussion diminishes our ability to 
develop these skills. However, there must be clear guidance about the 
importance of mutual respect and trust.
    Question. In your view, when performing official military duties 
outside a worship service, should military chaplains be encouraged to 
express their personal religious beliefs and tenets of their faith 
freely, or must they avoid making statements based on their religious 
beliefs?
    Answer. I believe that current Navy instructions and Chief of 
Chaplains training notices provide adequate guidance to Chaplains 
regarding how to serve as a Chaplain in a pluralistic environment while 
maintaining the tenets of their faith.
    Question. Do you believe chaplains should be tasked with conducting 
non-religious training in front of mandatory formations, even if they 
may be uniquely qualified to speak on the particular topic, such as 
suicide prevention or substance abuse? If so, do you believe guidance 
provided to those chaplains on what they should and should not say with 
respect to their faith is adequate?
    Answer. Yes. Chaplains, like all naval officers should be prepared 
to provide training in subject matter areas they may have an expertise 
in or have specialized training that would be of benefit to members of 
the command. I believe that current Navy instructions and Chief of 
Chaplains training notices provide adequate guidance to Chaplains 
regarding how to serve as a Chaplain in a pluralistic environment while 
maintaining the tenets of their faith.
                        active duty end strength
    Question. The Navy's Active Duty end strength is projected to grow 
from 323,000 in 2013 to 327,000 this year to 330,000 personnel in 2020. 
The Navy has made great strides in improving the ``fit'' and ``fill'' 
of sea-going billets in recent years.
    What are your greatest personnel management concerns?
    Answer. If confirmed, I want to ensure that the Navy has the 
necessary policies and statutes in place to adequately recruit and 
retain the next generation of sailors with the talent and skills to man 
our fleet. My efforts will be focused on obtaining sufficient and 
persistent insight into the needs and desires of current and 
prospective sailors and Navy civilians, with the goal of enhancing our 
ability to tailor our programs to continue to attract and retain the 
best talent. These trends can change quickly--if we wait too long, we 
may find ourselves unprepared and unable to effectively respond.
    Question. What additional force management tools does the Navy 
need, and which of these require Congressional authorization?
    Answer. The current force management authorities and tools are very 
complex. If confirmed, I would be an active participant in Secretary of 
Defense Carter's Force of the Future effort to pursue a broad range of 
initiatives aimed at attracting and retaining talent. I would seek to 
engage in a thorough review of existing tools and authorities, and 
would look forward to working with Defense Department leadership and 
the Congress to pursue necessary adjustments.
                        joint officer management
    Question. What is your assessment of the effectiveness of the 
Goldwater-Nichols-required Joint Qualification System?
    Answer. Goldwater-Nichols was revolutionary in its time and has 
helped to transform the Department of Defense. However, much has 
changed in the past 30 years in both the Joint Force and the security 
environment. As such, while I do not see any urgent need for specific 
changes, I believe a review would be useful. If confirmed, I would work 
closely with the Secretary of Defense and the Secretary of the Navy if 
such a review were undertaken.
    Question. Do you think additional changes in law or regulation are 
needed to respond to the unique career-progression needs of Navy 
officers?
    Answer. While I do not currently see any urgent need for change, I 
do believe that this is an area appropriate for renewed evaluation. If 
confirmed, I would welcome the chance to work closely with the 
Secretary of Defense and the Secretary of the Navy if such a review 
were undertaken.
    Question. In your view, are the requirements associated with 
becoming a Joint Qualified Officer, including links to promotion to 
general and flag officer rank, consistent with the operational and 
professional demands of Navy line officers?
    Answer. I do not see any urgent need for immediate change. Having 
said that, I believe that a review would be useful and if confirmed, I 
look forward to exploring this issue in cooperation with the other 
members of the Joint Chiefs.
    Question. If not, what modifications, if any, to the requirements 
for joint officer qualifications are necessary to ensure that military 
officers are able to attain meaningful joint and Service-specific 
leadership experience and professional development?
    Answer. If confirmed, I look forward to working on this issue with 
Defense Department leadership and the Congress.
    Question. In your view, what is the impact of joint qualification 
requirements on the ability of the services to select the best 
qualified officers for promotion and to enable officer assignments that 
will satisfy Service-specific officer professional development 
requirements?
    Answer. We operate and fight as a Joint team. While meeting all of 
the many demands for advancement is a challenge, I firmly believe that 
developing appropriate joint understanding is a critical element of 
higher-level leadership. If confirmed, I look forward to exploring 
whether there are more effective ways to achieve this objective, and if 
so, discussing them in greater depth with Defense Department leadership 
and the Congress.
    Question. Do you think a tour with a combatant command staff should 
count toward the Joint tour requirement?
    Answer. Yes.
          department of the navy talent management initiatives
    Question. On May 13, 2015, the Secretary of the Navy announced 
several talent management initiatives, including: changes to Navy 
fitness tests, a transition to the same uniform for males and females, 
increasing female enlisted accessions, opening all operational billets 
to women, tripling the length of maternity leave from 6 to 18 weeks, 
expanding the Career Intermission Program, altering the promotion 
selection board process, revising year group management, ending General 
Military Training as it currently exists, and increasing graduate 
education opportunities.
    Do you support these changes?
    Answer. Yes.
    Question. Which of these changes, if any, do you believe should be 
modified, delayed, or eliminated?
    Answer. I support each of these new initiatives and if confirmed, 
look forward to implementing them in a thoughtful and responsible way.
                              navy reserve
    Question. What is your vision for the roles and missions of the 
Navy Reserve, and, if confirmed, what objectives would you seek to 
achieve with respect to the Navy Reserve's organization, end strength, 
and force structure?
    Answer. The Navy Reserve, over 58,000 strong, fully accomplishes 
its mission of delivering strategic depth and operational capability to 
the Navy, Marine Corps, and Joint Force. As part of the Navy's Total 
Force of Active and Reserve sailors supported by Government civilians, 
Navy Reserve sailors bring value through scalable utilization options 
to meet Navy requirements. Approximately 25 percent of the Navy Reserve 
delivers operational support on any given day, increasing Total Force 
operational capacity. The manner in which the Navy employs its Reserve 
component provides responsive and flexible options to meet Navy mission 
requirements. If confirmed, I will support efforts to leverage our Navy 
Reserve capacity in new areas where our Reserve component could 
increase Total Force efficiency and effectiveness in executing the 
mission.
    Question. What is your understanding and assessment of the Navy 
Reserve as an operational Reserve, as opposed to its long standing 
traditional role as a strategic Reserve?
    Answer. The Navy Reserve is both operational and strategic. The 
Navy's integrated approach to Total Force employment enables Reserve 
sailors and Reserve units to train for strategic requirements, while 
also supporting Navy's day-to-day operations. Operationally, the Navy 
Reserve's capability is routinely utilized to support mission 
requirements through scalable employment options. Strategically, the 
Navy Reserve's capacity provides a surge force for the Navy. We should 
retain a Navy Reserve that is both operational and strategic, thereby 
providing maximum flexibility to meet unknown future requirements. 
Commanders have assured access to their Reserve component sailors, so 
we can confidently assign missions to the Navy Reserve where it makes 
operational and fiscal sense.
    Question. In your view, what are the major challenges to 
maintaining and enhancing the Navy Reserve as a relevant and capable 
operational Reserve?
    Answer. Our Navy Reserve is as relevant and capable today as it has 
been at any time in our history. We have invested in our people and our 
equipment, we have an integrated Total Force approach to filling 
operational and support missions, and we honor the service of our 
Reserve sailor's families and employers. In the future, we need to 
continue investing in our Navy Reserve with an appropriate level of 
discretionary funding and equipment recapitalization to meet mission 
requirements. Moreover, as we continue to support the Secretary of the 
Navy's Task Force Innovation and sailor 2025 initiatives, we will 
maintain a robust ability to recruit and retain the highest caliber 
sailors by delivering flexible career paths and opportunities that 
enable a lifetime of service.
    Question. What are your views about the optimal role for the 
Reserve component forces in meeting combat missions?
    Answer. The optimal role for the Reserve component is as a partner 
in the Navy Total Force, where we view missions in terms of 
capabilities first, and then decide where the capability should reside. 
The value of the Navy Reserve is in both their strategic capacity to 
provide sailors and units for mobilizations in support of Global Force 
Management requirements, as well as their operational capacity to 
provide daily support to the fleet through flexible access options.
    Question. In your view, should the Department of Defense assign 
homeland defense or any other global or domestic civil support missions 
exclusively to the Reserves?
    Answer. The Navy's approach to utilizing the Reserve component is 
to examine each mission from a Total Force perspective and decide what 
capabilities are needed, how often we need them, and what component is 
best suited to carry them out. In my opinion, this approach has worked 
well and could usefully be applied more broadly across the defense 
enterprise.
                    nuclear naval propulsion program
    Question. Executive Order 12344 ``Nuclear Naval Propulsion 
Program'' of February 1, 1982, which was codified in section 2511 of 
title 50 United States Code, states ``The director [of the Naval 
Nuclear Propulsion Program] shall be appointed to a serve a term of 8 
years, except the Secretary of Energy and the Secretary of the Navy 
may, with mutual concurrence, terminate or extend the term of the 
respective appointments.''
    Is it your understanding that both the Secretary of Energy and 
Secretary of the Navy have concurred on releasing you from your term as 
Director?
    Answer. Yes.
    Question. In your view, is 8 years the appropriate length of tenure 
for the position of Director of the Naval Nuclear Propulsion Program? 
Please explain.
    Answer. The Naval Nuclear Propulsion Program currently has a superb 
record of safety and effectiveness that is founded on a culture defined 
by deep expertise, honest and detailed self-assessment, an unwavering 
focus on facing the facts, and doing the technically right thing. This 
approach serves as a model for the Navy and the Nation to discipline 
very complex technology operating in harsh environments. The Director 
must set the tone in each of these areas. Based on my 3 years as 
Director, I strongly support an 8 year tenure for the Director as the 
best way to keep this model intact.
    Question. What is your view of the role of the Director of the 
Naval Nuclear Propulsion Program in the preservation of the Program's 
unique fail-safe culture of zero defects engineering, personnel 
excellence, and training?
    Answer. Since the beginning of the Program under Admiral Rickover, 
the Director has played a critical role, both inside and outside the 
Program, to preserve and sustain the culture. It is true to this day.
    Question. What is your view of the role of the Chief of Naval 
Operations in the preservation of the Naval Nuclear Propulsion 
Program's unique fail-safe culture of zero defects engineering, 
personnel excellence, and training?
    Answer. The CNO plays a key role, working with the Director of 
Naval Reactors and Fleet Commanders, to ensure that the Program gets 
the resources needed to preserve the culture of excellence. If 
confirmed, I look forward to continuing to support the NNPP as CNO.
    Question. How would you characterize the professional relationship 
between the Director of the Naval Nuclear Propulsion Program and the 
Chief of Naval Operations, including the responsibility to organize, 
train, and equip nuclear-powered vessels?
    Answer. In my experience both as Director and as a career nuclear 
operator, there is a strong professional relationship between the 
Director of Naval Reactors and the CNO. This relationship is founded on 
a common understanding of the importance of nuclear powered warships in 
our Nation's defense, the importance of the Program's record of safety 
and effectiveness in ensuring access around the world, and in the 
importance of the Naval Reactors organization as a model for achieving 
sustained excellence. If confirmed, I will continue to enhance this 
professional relationship.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this Committee and other appropriate committees of the Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
Committee, or designated members of this Committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Chief of Naval Operations?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this Committee and 
its staff and other appropriate Committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain
                            size of the navy
    1. Senator McCain. Admiral Richardson, from 2006 to 2012, the 
Navy's requirement was around 313 ships. In Navy's latest assessment 
earlier this year, the number was revised to 306 ships. Since 2012 and 
the 313-ship Navy, our national security challenges and the demands on 
our Navy have only grown, yet the size of the fleet the Navy says we 
need has decreased. How can you explain the decline in the fleet 
requirement in view of Russian aggression, the Chinese military 
buildup, the Islamic State conquests, and expanding Iranian state-
sponsored terrorism and support to anti-American regimes?
    Admiral Richardson. The current security environment is dynamic 
with an increasing array of diverse threats. The Navy has identified 
that sourcing all Global Combatant Commander requests would require 
about 450 combatant ships with requisite supporting structure and 
readiness. However, with an equally dynamic fiscal environment, our 
strategy must also consider the fiscal limitations and accept risk 
against known threats and reduced capacity to respond to unforeseen 
developments in order to meet the highest priority security missions.
    The Navy's Force Structure Assessment produces the minimum 
requirement to meet the future steady state and warfighting 
requirements determined by the Navy's analytical process, with an 
acceptable degree of risk (i.e., does not jeopardize joint force 
campaign success). The Navy's 2014 update to the 2012 Force Structure 
Assessment calls for a force of 308 ships. This assessment is informed 
by operating concepts, including employment cycles, crewing constructs, 
and operating tempo limits. To meet the dynamic security environment, 
the Navy utilizes cost-effective approaches to increase our presence, 
such as forward basing, forward operating, and forward stationing 
ships. By increasing the number of ships forward stationed and forward 
based and improving our deployment preparation process through the 
Optimized Fleet Response Plan (O-FRP), the Navy can deliver the same 
amount of presence with fewer ships. Provided sufficient readiness is 
restored and maintained across the Fleet, a fleet size of 308 ships 
should support the highest priority requirements for both presence and 
``surge'' in the event of increased tensions or outright conflict.

    2. Senator McCain. Admiral Richardson, from 2006 to 2012, the 
Navy's requirement was around 313 ships. In Navy's latest assessment 
earlier this year, the number was revised to 306 ships. Since 2012 and 
the 313-ship Navy, our national security challenges and the demands on 
our Navy have only grown, yet the size of the fleet the Navy says we 
need has decreased. If confirmed, will you realistically revalidate the 
fleet requirement in light of the most diverse and complex array of 
global crises since the end of World War II?
    Admiral Richardson. Yes. The reality of a dynamic security and 
fiscal environment demands that both our strategy and structure be 
continually assessed and adapted, including our fleet requirements. The 
Navy conducts a Force Structure Assessment when there is a significant 
change in the global security environment. I will provide my best 
assessment of the requirements in light of the security environment, 
the fiscal constraints, and the resultant risk.
                       glenn defense marine asia
    3. Senator McCain. Admiral Richardson, you were the consolidated 
disposition authority for cases in which Navy personnel were reviewed 
for their involvement with a Navy contractor, the owner and CEO of 
Glenn Defense Marine Asia, Leonard Francis. Last January, he pled 
guilty to conspiracy to commit bribery, bribery, and conspiracy to 
commit fraud charges in Federal district court, admitting to what the 
Department of Justice described as a decade-long conspiracy involving 
``scores'' of Navy officials, tens of millions of dollars in fraud, and 
millions of dollars in bribes and gifts, including: over $500,000 in 
cash; hundreds of thousands of dollars in prostitution services; travel 
expenses, including first class airfare, luxurious hotel stays and spa 
treatments; lavish meals, including Kobe beef, Spanish suckling pigs, 
top-shelf alcohol and wine; and luxury gifts, including Cuban cigars, 
designer handbags, watches, fountain pens, designer furniture, 
electronics, ornamental swords and hand-made ship models. In exchange, 
Mr. Francis solicited and received classified and confidential U.S. 
Navy information, including ship schedules. Francis also sought and 
received preferential treatment for his company in the contracting 
process. Based on your experience as the consolidated disposition 
authority, why do you believe so many senior career officers and Navy 
civilians became involved with this criminal enterprise?
    Admiral Richardson. The events remain the subject of an ongoing 
federal investigation led by the Department of Justice. It would be 
inappropriate for me to discuss details of the cases or my personal 
opinions while the investigation is still in progress. Across our Navy 
the vast majority of our officers, enlisted and civilians conduct 
themselves with honor and integrity. As CNO, I intend to make character 
and integrity a hallmark of my tenure.

    4. Senator McCain. Admiral Richardson, you were the consolidated 
disposition authority for cases in which Navy personnel were reviewed 
for their involvement with a Navy contractor, the owner and CEO of 
Glenn Defense Marine Asia, Leonard Francis. Last January, he pled 
guilty to conspiracy to commit bribery, bribery, and conspiracy to 
commit fraud charges in Federal district court, admitting to what the 
Department of Justice described as a decade-long conspiracy involving 
``scores'' of Navy officials, tens of millions of dollars in fraud, and 
millions of dollars in bribes and gifts, including: over $500,000 in 
cash; hundreds of thousands of dollars in prostitution services; travel 
expenses, including first class airfare, luxurious hotel stays and spa 
treatments; lavish meals, including Kobe beef, Spanish suckling pigs, 
top-shelf alcohol and wine; and luxury gifts, including Cuban cigars, 
designer handbags, watches, fountain pens, designer furniture, 
electronics, ornamental swords and hand-made ship models. In exchange, 
Mr. Francis solicited and received classified and confidential U.S. 
Navy information, including ship schedules. Francis also sought and 
received preferential treatment for his company in the contracting 
process. Do you believe senior Navy officials were aware of this 
problem? If so, why was nothing done to stop it?
    Admiral Richardson. The events remain the subject of an on-going 
federal investigation led by the Department of Justice. It would be 
inappropriate for me to discuss the case while the investigation is 
still in progress. As CNO, I intend to make character and integrity a 
hallmark of my tenure.

    5. Senator McCain. Admiral Richardson, you were the consolidated 
disposition authority for cases in which Navy personnel were reviewed 
for their involvement with a Navy contractor, the owner and CEO of 
Glenn Defense Marine Asia, Leonard Francis. Last January, he pled 
guilty to conspiracy to commit bribery, bribery, and conspiracy to 
commit fraud charges in Federal district court, admitting to what the 
Department of Justice described as a decade-long conspiracy involving 
``scores'' of Navy officials, tens of millions of dollars in fraud, and 
millions of dollars in bribes and gifts, including: over $500,000 in 
cash; hundreds of thousands of dollars in prostitution services; travel 
expenses, including first class airfare, luxurious hotel stays and spa 
treatments; lavish meals, including Kobe beef, Spanish suckling pigs, 
top-shelf alcohol and wine; and luxury gifts, including Cuban cigars, 
designer handbags, watches, fountain pens, designer furniture, 
electronics, ornamental swords and hand-made ship models. In exchange, 
Mr. Francis solicited and received classified and confidential U.S. 
Navy information, including ship schedules. Francis also sought and 
received preferential treatment for his company in the contracting 
process. If you are confirmed, what will you do to ensure this type of 
criminal corruption will not happen again?
    Admiral Richardson. I will continue the efforts to educate Navy 
personnel on the standards of ethical conduct required of all 
servicemembers and continue to evaluate the state of ethics culture and 
demand the highest commitment of integrity. Finally, I will review any 
assessments of the contracting and husbanding processes conducted in 
light of these events, and work with the Secretary of the Navy to 
ensure proper oversight measures are in place and enforced and efforts 
are taken to increase the transparency of the process. When necessary, 
I will ensure that individuals are held accountable when they fail to 
live up to their ethical responsibilities.
                  unsubstantiated lobbying allegations
    6. Senator McCain. Admiral Richardson, Congress established 
specific prohibitions to limit indirect lobbying, including the Anti-
Lobbying Act, which prohibits the use of taxpayer funds by federal 
agencies to conduct grassroots lobbying to pressure Congress to support 
``any legislation or appropriation by Congress''. There are also 
prohibitions against using appropriated funds to support or defeat 
legislation pending before Congress. The DOD Inspector General recently 
completed a review of remarks you made to attendees of the 2014 Annual 
Symposium Naval Submarine League in which you suggested, in part, that 
attendees should contact their Members of Congress to support the Ohio-
class replacement submarine and the National Sea-Based Deterrence Fund, 
as part of your ``Commander's Guidance.'' The DOD Inspector General 
concluded that you did not spend taxpayer funds on publicity to engage 
in grass-roots lobbying and did not violate applicable standards. If 
you are confirmed, do you commit to working with the Secretary of the 
Navy, the General Counsel of the Navy, and the Judge Advocate General 
of the Navy to provide clear guidance to ensure that Navy officials 
understand the permissible role and the limitations under the law, in 
communications intended to influence Congress?
    Admiral Richardson. Yes. I have already begun this effort from my 
present position, and will continue to work to ensure Navy officials 
understand the limitations under the law in this important area.
                    nuclear naval propulsion program
    7. Senator McCain. Admiral Richardson, in February 1982, Executive 
Order 12344 entitled ``Nuclear Naval Propulsion Program'' was signed 
and later codified in title 50 United States Code. Among other 
direction, it states ``The director [of the Naval Nuclear Propulsion 
Program] shall be appointed to a serve a term of 8 years, except the 
Secretary of Energy and the Secretary of the Navy may, with mutual 
concurrence, terminate or extend the term of the respective 
appointments.'' In your view, is 8 years the appropriate length of 
tenure for the position of Director of the Naval Nuclear Propulsion 
Program? Please explain.
    Admiral Richardson. Based on my 3 years as Director, I strongly 
support an 8 year tenure for the Director as the appropriate model to 
ensure program continuity, technical expertise and rigorous self-
assessment.

    8. Senator McCain. Admiral Richardson, in February 1982, Executive 
Order 12344 entitled ``Nuclear Naval Propulsion Program'' was signed 
and later codified in title 50 United States Code. Among other 
direction, it states ``The director [of the Naval Nuclear Propulsion 
Program] shall be appointed to a serve a term of 8 years, except the 
Secretary of Energy and the Secretary of the Navy may, with mutual 
concurrence, terminate or extend the term of the respective 
appointments.''If confirmed, are you confident the Naval Nuclear 
Propulsion Program's unique fail-safe culture of zero defects 
engineering, personnel excellence, and training will remain intact and 
your early transition will not adversely impact the program?
    Admiral Richardson. The Naval Nuclear Propulsion Program's unique 
culture of rigorous engineering, personal excellence, training and 
honest self-assessment is not based on a single individual but on an 
overall culture of knowledge and accountability throughout the Program. 
Although I am transitioning earlier than anticipated, the culture that 
is in place, including the systems, procedures, and other leadership, 
will ensure that the NNPP will retain its standards. Having said that, 
I strongly support the 8-year tenure for future Directors.
                       littoral combat ship (lcs)
    9. Senator McCain. Admiral Richardson, in December 2014, the 
Secretary of Defense announced his decision to upgrade the Littoral 
Combat Ships, designated LCS-33 through LCS-52, to provide a more 
capable and lethal small surface combatant, generally consistent with 
the capabilities of a frigate. Do you support the Secretary of 
Defense's decision to continue production of LCS, including the upgrade 
to a so-called Frigate?
    Admiral Richardson. I support the Secretary of Defense's decision 
to continue Littoral Combat Ship (LCS) production, and procure a 
Frigate (FF) based on the LCS Flight 0+ design. The 20 Frigates and 32 
LCSs will fulfill the 52-ship Small Surface Combatant requirement in 
the Navy's latest Force Structure Assessment.
    The Frigate modifications to the LCS design will add lethality and 
survivability features as well as organic SUW and ASW multi-mission 
capability.

    10. Senator McCain. Admiral Richardson, in December 2014, the 
Secretary of Defense announced his decision to upgrade the Littoral 
Combat Ships, designated LCS-33 through LCS-52, to provide a more 
capable and lethal small surface combatant, generally consistent with 
the capabilities of a frigate. In your view, what problem is the 
Frigate upgrade necessary to solve? In other words, why is the current 
LCS with its mission modules insufficient?
    Admiral Richardson. Littoral Combat Ship (LCS) Flight 0+ and its 
associated mission packages are sufficient and meet JROC-validated 
requirements in surface warfare (SUW), anti-submarine warfare (ASW), 
and mine countermeasures (MCM).
    Following SECDEF direction in February 2014 to provide alternative 
proposals for a small surface combatant that is even more lethal, 
survivable, and mission capable than the LCS Flight 0+, Navy 
established the Small Surface Combatant Task Force (SSCTF). The SSCTF 
analyzed 600 modified-LCS designs, 50,000 new ship designs, and 18 
existing designs and ultimately recommended a modified design of LCS 
Flight 0+ to SECDEF. This recommendation incorporated the most cost-
effective improvements to the lethality and survivability of the LCS.
    In December 2014, following a review by CAPE, DOT&E, and AT&L, 
SECDEF approved Navy's recommendation to procure 20 modified-LCS. These 
ships, along with the 32 focused-mission LCS Flight 0/0+ will fulfill 
the 2014 re-validated Force Structure Assessment requirement for 52 
small surface combatants. In January 2015, SECNAV designated this 
multi-mission SUW/ASW ship as a Frigate.
    Frigates will execute the same SUW/ASW missions as LCS but will 
incorporate additional lethality and survivability upgrades, accepting 
less risk, thus increasing its utility to the combatant commander.
                           goldwater nichols
    11. Senator McCain. Admiral Richardson, in your response to our 
advance questions, you stated the Goldwater-Nichols Department of 
Defense Reorganization Act of 1986 ``was revolutionary in its time and 
has helped to transform the Department of Defense. However, much has 
changed in the past 30 years in both the Joint Force and the security 
environment. As such, I believe a review would be useful.'' In your 
view, what types of reforms should a review of Goldwater-Nichols 
address?
    Admiral Richardson. At this point, I am not sufficiently informed 
to identify specific areas where I think Goldwater-Nichols should be 
modified. However, the Act was written over 30 years ago, in an 
environment that is significantly different than the one we face today. 
Given that reality, I believe that a comprehensive review should be 
done that examines each part of the Act, with the goal of determining 
what revisions can be made to advance the intent of the original Act.
                    other defense acquisition reform
    12. Senator McCain. Admiral Richardson, I am deeply concerned that 
the United States is beginning to lose its technological dominance. In 
this year's defense bill the Senate has proposed giving the Department 
a number of new authorities and acquisition waivers to access non-
traditional sources of technology in Silicon Valley and in other 
innovative places around the globe. I fear, however, that the Pentagon 
will not use these authorities--preferring to stick with business as 
usual. How can the Navy better access and integrate commercial and 
military technology to remain ahead of its potential adversaries?
    Admiral Richardson. I appreciate Congress' proposals to give the 
Department some new authorities and acquisition waivers to access non-
traditional sources of technology in Silicon Valley and other 
innovative areas. In my view, doing this effectively would include 
redefining the relationships and connections between our Navy Research 
and Development (R&D) centers and those centers in private industry and 
academia with the goal of lowering barriers between the Navy and non-
Navy centers of innovation. As well, I will focus on making adjustments 
within the Navy to better streamline processes to take advantage of 
what we learn; to convert new ideas into effective programs. In this 
way I hope to mainstream innovation within the Navy.

    13. Senator McCain. Admiral Richardson, the naval nuclear 
propulsion program has had a longstanding tradition of innovation and 
the ability to attract top-notch talent going back to the 1950s. The 
development of the USS Nautilus launched in 1954, the development of 
much of our strategic deterrent in the 1950s, and the launch of the 
first reconnaissance satellites from that era mark a time when the U.S. 
could successfully deploy operational capability rapidly and maintain 
its technological dominance. Are there any acquisition reform lessons 
that can be learned from the 1950s and early 1960s, such as with the 
development of the Nautilus program, as well as from the subsequent 
experience of the naval nuclear propulsion program?
    Admiral Richardson. Cornerstones of the Naval Reactors Program's 
acquisition success have been based on the following:
    a.  Not resting on past successes. NR continues to put in the hard 
work necessary to technically understand the actions to be 
accomplished, to garner support, and to pull together the best 
manufacturers and engineers to work the challenge. NR strives daily to 
hold the appropriately high standard, both from a technical and 
acquisition perspective. Per ADM Rickover, ``another principle for 
managing a successful program is to resist the natural human 
inclination to hope things will work out, despite evidence or doubt to 
the contrary.'' Fighting this tendency requires a government staff that 
is technically competent to be able to effectively oversee the industry 
contractors hired to deliver the needed products. First and foremost, 
identifying the key risks and challenges that we confront and putting 
in place effective risk mitigation plans is critical. This requires 
involved, technically competent government managers. Finally, we 
continue to be self-critical, learning from past challenges and 
evaluating ways to improve the way we and our contractors do business.
    b.  Recognizing the uncertain budget going-forward. From the very 
beginning, NR understood the challenge of balancing the need for robust 
technical plans with cost consciousness. During tight budget 
environments, this balance can be challenging to maintain and technical 
needs frequently, are at risk of becoming secondary to cost pressures. 
NR continually fights this pressure, requiring an in-depth 
understanding of the technical risks and challenges inherent in each of 
its undertakings and ensures that Program budget requests align with 
technical plans. Additionally, NR personnel are trained to make the 
hard technical decisions required to ensure programs are delivered 
within budget and schedule.
    c.  Ensuring personal responsibility. NR emphasizes the need for 
every engineer in the organization to feel personally responsible for 
their decisions, since mistakes can result in technical failures, 
inability to meet warfighting needs, and drive costs up. ADM Rickover 
was known to say, ``Unless one person . . . can be identified when 
something goes wrong, then no one has really been responsible.'' This 
mindset informs how we go about our daily business, designing and 
manufacturing propulsion plants for the long term and living with the 
consequences of our decisions.
    d.  Continuity--NR insists that managers and engineers be experts 
in their areas and act though they will have their job forever. 
Otherwise, there would be inadequate knowledge, experience, and 
corporate memory and people can rotate out of jobs without having to 
face the consequences of their decisions.
    e.  Bringing in the best talent. NR demands the sharpest talent, 
and today more than ever the competition is keen. Making decision that 
properly balance risk, effectiveness, and cost. that requires well-
trained technical personnel that are empowered to make tough technical 
decisions. We work extremely hard to identify, recruit, and retain the 
cream of the crop. Today's competitive environment more than ever is 
making retaining this top talent at NR exceptionally challenging.
    Overall, Naval Reactors success is not based on any revolutionary 
or magic acquisition strategies. Its foundation is based on talented 
individuals being vested in their decisions, continual self-assessment 
and improvement, and hard work.
                               __________
             Questions Submitted by Senator Roger F. Wicker
                  ohio-class replacement program (orp)
    14. Senator Wicker. Admiral, senior Navy leaders--including the 
current Chief of Naval Operations--have said that the Ohio-class 
replacement submarine program (ORP) is the Navy's top priority program. 
Do you agree that the Ohio Replacement Program is the Navy's top 
priority program?
    Admiral Richardson. Yes, it is an absolutely critical, even 
existential, program for the Nation and our number one modernization 
priority.
              potential consequences of orp cost overruns
    15. Senator Wicker. As you've said in your responses to the 
Committee's advance questions: ``It is absolutely critical for the 
Nation to replace the Ohio-class submarines. The Navy is doing 
everything it can to limit requirements and control costs for this 
ship. Without increased shipbuilding funding in fiscal year 2021 and 
beyond, the Ohio Replacement Program will consume the majority of the 
Navy's annual shipbuilding budget, costing the equivalent of 2-3 ships 
per year.'' I am deeply concerned by the second part of your response 
that insufficient shipbuilding funds could cost the Navy the equivalent 
of two to three ships per year.Can you elaborate for us your personal 
assessment of:
    -  The need for additional shipbuilding funding;
    -  The potential impact of ORP on other shipbuilding programs; and
    -  How much worse this impact could be if ORP experiences schedule 
delays or cost overruns?
    Admiral Richardson. The Ohio replacement is an absolutely critical 
program for the country, and we are doing everything we can in the Navy 
to ensure that we deliver a submarine that meets the Nation's security 
requirements at the most judicious cost possible. To this end, we are:
    -  ensuring that the performance requirements of the platform are 
adequate and stable before beginning design
    -  ensuring that design is stable and mature before beginning 
construction
    -  will build these platforms in a way that leverages all lessons 
from the successful Virginia-class program
    -  meets all cost targets; in fact the Navy is considering cost 
targets as equivalent to every other performance parameter for the 
program.
    We are on a good track to achieve all these goals.
    Even when all of the above goals are met the Ohio Replacement 
Program represents a significant investment for the Nation, an 
investment that I believe is absolutely imperative.
    If the Navy is forced to ``absorb'' the entire cost of ORP within 
Navy accounts, it will of necessity come at the expense of other 
capabilities, to include construction of additional ships and/or 
aircraft. If funded at projected levels, the Ohio Replacement Program 
would equal about half of the shipbuilding funding each year starting 
in fiscal year 2026.
    I look forward to working with Defense Department leaders and 
Congress to formulate the necessary authorities and appropriations to 
fund ORP in a way that does not devastate the Navy budget, including 
the shipbuilding program.
                             sequestration
    16. Senator Wicker. In fiscal year 2013, the Navy implemented 
numerous cuts in response to sequestration. This included cancellation 
of five ship deployments and the delayed deployment of a carrier strike 
group to the Middle East. Since 2013 we've witnessed the rise of ISIS, 
Russia's aggression in Eastern Europe, and a belligerent North Korea. 
Given sequestration's impending return a little more than two months 
from now, we must acknowledge that the world is more dangerous today 
than it was in 2013. What is your view on how sequestration would 
threaten DOD's ability to decisively project power abroad?
    Admiral Richardson. If we return to sequestration in fiscal year 
2016, the Navy would be unable to execute the defense strategy as 
currently written. The required cuts would force us to further delay 
critical warfighting capabilities for the future, and reduce readiness 
of today's forces needed for contingency response, including further 
reduction in our stocks of weapons and munitions. As a last resort, we 
would cancel or stretch procurement of needed force structure. If 
funded at sequestration levels, the Navy would be unable to satisfy 
currently-expressed direction to provide power projection capacity, 
specifically in the areas of strike fighters, command and control 
platforms, and electronic warfare assets, advanced radar and missiles, 
and munitions.

    17. Senator Wicker. In fiscal year 2013, the Navy implemented 
numerous cuts in response to sequestration. This included cancellation 
of five ship deployments and the delayed deployment of a carrier strike 
group to the Middle East.Since 2013 we've witnessed the rise of ISIS, 
Russia's aggression in Eastern Europe, and a belligerent North Korea. 
Given sequestration's impending return a little more than two months 
from now, we must acknowledge that the world is more dangerous today 
than it was in 2013. What is your assessment of the impact 
sequestration would have on our expeditionary forces?
    Admiral Richardson. If we return to sequestration in fiscal year 
2016, the Navy would be unable to execute the defense strategy as 
currently written. The required cuts would force us to further delay 
critical warfighting capabilities for the future, and reduce readiness 
of today's forces needed for contingency response, including further 
reduction in our stocks of weapons and munitions. As a last resort, we 
would cancel or stretch procurement of needed force structure. If 
funded at sequestration levels, the Navy would only be able to provide 
a contingency response force of one Carrier Strike Group (CSG) and one 
Amphibious Ready Group (ARG), significantly less surge capacity than 
our operational plans (OPLANs) require.

    18. Senator Wicker. In fiscal year 2013, the Navy implemented 
numerous cuts in response to sequestration. This included cancellation 
of five ship deployments and the delayed deployment of a carrier strike 
group to the Middle East. Since 2013 we've witnessed the rise of ISIS, 
Russia's aggression in Eastern Europe, and a belligerent North Korea. 
Given sequestration's impending return a little more than 2 months from 
now, we must acknowledge that the world is more dangerous today than it 
was in 2013. Certain sectors of the defense industry--such as 
shipbuilding--are extremely capital intensive. Our fiscally constrained 
environment threatens to close production lines that would take years 
to restart. Given your prior experience as the Director of Naval 
Nuclear Propulsions Program, what is your assessment of the risks to 
DOD industrial base given our current budget environment?
    Admiral Richardson. The shipbuilding industrial base is a national 
strategic jewel--we must preserve it. To best sustain this base, and 
also get the best value for the Nation, program stability and 
predictability are critical. This is especially true in shipbuilding, 
where construction can span years. Disruptions in naval ship design and 
construction plans are significant because of the long lead time, 
specialized skills, and extent of integration required. Instability, 
unpredictability, and cancellations caused by sequestration will likely 
cause some suppliers and vendors to close their businesses, and 
experience shows that it would take years to recover from the loss of 
the skilled, experienced and innovative workforce--if it were even 
possible. To the maximum extent possible, the Navy is committed to 
protecting shipbuilding and the industrial base under funding.
                               __________
            Questions Submitted by Senator Claire McCaskill
                joint requirement for electronic attack
    19. Senator McCaskill. Admiral Richardson, in testimony this year 
before the Senate Armed Services Committee, the current Chief of Naval 
Operations, Admiral Greenert, stated that an additional 15 Growlers are 
needed to fulfill the Navy's requirement for airborne electronic 
attack. While other platforms have electronic attack capability, it is 
my understanding that the Navy's analysis showed that no platform could 
replace the full-spectrum capability of the Growler. Admiral Greenert 
then noted that an ongoing study is looking at the joint requirement 
for airborne electronic attack. Will this study inform the Navy's 
decision on airborne electronic attack for fiscal year 2017 and across 
the FYDP?
    Admiral Richardson. The current study will provide insight that 
will allow the Navy to optimize our EA-18G procurement plan and force 
structure to meet all joint EA-18 G requirements.
                               __________
          Questions Submitted by Senator Kirsten E. Gillibrand
                                 cyber
    20. Senator Gillibrand. Admiral Richardson, I appreciate your 
interest in cyber. I believe this is a critical issue for our military. 
We need to start growing cyber warriors. How do you envision the career 
path for sailors who specialize in cyber?
    Admiral Richardson. I am committed to growing cyber warriors in the 
Navy. We have created the Cyber Warfare Engineer (CWE/1840) designator 
to attract and manage the best technical talent in this field. Our CWEs 
are officers that specialize in cyber operations for up to 10 years. 
After this period, they can transition to our Information Professional 
(IP/1820) or Information Warfare (IW/1810) communities or separate from 
the Navy and return to public or private sector careers. In addition to 
CWEs, we are establishing 44 teams of Sailors to support the Cyber 
Mission Force (CMF). The Navy teams include officers (designators: CWE/
1840, IP/1820, and IW/1810) and enlisted personnel (ratings: cryptology 
(CT), information technology (IT), intelligence specialist (IS)). The 
Navy does not have a separate career path for CMF Sailors beyond that 
specified by their designator or rating.
                           combat integration
    21. Senator Gillibrand. Admiral Richardson, you said that the 
determination about whether to open remaining Navy positions to women 
would be dependent on ensuring mission effectiveness. Can you please 
describe the potential ways in which allowing women to compete for 
these positions might harm mission effectiveness?
    Admiral Richardson. I never meant to imply that allowing women to 
compete for any position might harm mission effectiveness. My comment 
was only to point out that, as with the introduction of any new 
capability to the force, the ultimate test is whether the effectiveness 
of the team is enhanced by that new addition. As I testified, over 96 
percent of all Navy jobs are already open to women. Our experience to 
date in integrating women into previously closed occupations has been 
extremely successful, and women continue to serve with distinction and 
perform in a manner that enhances our mission effectiveness.
                               __________
                Questions Submitted by Senator Tim Kaine
                workload at public and private shipyards
    22. Senator Kaine. Admiral Richardson, some of our public shipyards 
are experiencing a need for additional employees, while at the same 
time our private shipyards and repair facilities are preparing for a 
temporary decrease in workload. Is the Navy aware of this situation and 
what plans have been developed to mitigate disruptions in the workforce 
of our ship construction and repair industries?
    Admiral Richardson. I am very aware of these concerns. For new ship 
construction, the Navy has focused on stabilizing workload through the 
use of multi-year and block-buy procurements.
    For repair work, the Regional Maintenance Centers (RMC) work with 
both public and private shipyards to reach a shared understanding of 
projected workload. To execute this workload, the Naval Shipyards are 
focused on increasing workforce productivity by improving throughput 
and overall efficiency and performance. Where capacity exceeds that of 
the public yards, efforts are made to bring in the private shipyards to 
share the burden. The nature of ship repair work often results in a 
fluctuating workload, but by taking a shared approach to address the 
total challenge, the best balanced and stable workload is derived and 
allocated in a way that will keep both public and private shipyards 
optimally employed.
                               __________
             Questions Submitted by Senator Mazie K. Hirono
                         asia pacific rebalance
    23. Senator Hirono. In regards to the Rebalance to the Asia-Pacific 
I know we are on a path to base 60 percent of our ships in the Pacific. 
What do you envision in terms continuing or advancing our mil-to-mil 
engagements which could help enhance security and prosperity in the 
region?
    Admiral Richardson. The Navy's military-to-military engagement will 
continue to support the broader Department of Defense strategy in the 
region. The Navy is adapting our posture to be more geographically 
distributed, operationally resilient, and politically sustainable in 
the Pacific. At the same time, we are working with regional partners to 
improve their maritime security and maritime domain awareness in order 
to increase regional capability and deter further conflict.
                     pacific missile range facility
    24. Senator Hirono. The Pacific Missile Range Facility continues to 
be an outstanding facility--it is the only range in the world capable 
of tracking objects in the surface, subsurface, air, and space realms 
simultaneously. My hope is that the Navy continues to treat this 
national asset as a priority. There appears to be a need to update 
underwater test range capabilities, which I believe the Navy is 
beginning to address. How valuable is PMRF to the Navy and 
organizations such as the Missile Defense Agency for testing, 
evaluation, and readiness?
    Admiral Richardson. The Pacific Missile Range Facility (PMRF) is a 
valuable and integral part of the Navy's training range capability and 
hosts important Test and Evaluation (T&E) capabilities as well. PMRF's 
unique and strategic mid-Pacific location, combined with range space, 
instrumentation, and logistics support, provides important capabilities 
to Ballistic Missile Defense testing and helps sustain Navy readiness. 
The PMRF underwater range capability is under consideration for 
improvements, along with other key readiness upgrades that compete for 
limited resources.

    25. Senator Hirono. If confirmed, can I have your commitment that 
you will do what you can to ensure that PMRF maintains its status as a 
premier facility?
    Admiral Richardson. Yes. PMRF's contribution to Navy readiness, as 
well as its role in test and evaluation of important future weapon 
systems, is widely recognized and understood.
                                red hill
    26. Senator Hirono. I continue to be concerned about the fuel 
storage tanks at Red Hill on Oahu. I understand that the fuel held in 
these tanks is essential to many military operations in the Pacific. At 
the same time, the aquifer that residents depend on for their water 
supplies must be protected from contamination. If confirmed will you 
monitor this situation and step in where required?
    Admiral Richardson. The Navy is fully committed to operating and 
maintaining Red Hill to the highest standards of safety to ensure the 
protection of Hawaii's drinking water. The Navy routinely evaluates and 
tests the water beneath and around the Red Hill complex, and I will 
continue the oversight of that process to monitor this strategic asset 
and ensure the safety of the drinking water. To ensure complete 
transparency with the local community, the Navy routinely works with 
local regulators in carrying out monitoring and testing in accordance 
with required standards.
    For example, the Navy has strict procedures in place to identify 
and quickly respond to any release of fuel. Additionally, the Navy has 
nine groundwater monitoring wells and an additional sampling point to 
routinely test ground water in and around the Red Hill Bulk Fuel 
Storage Facility. This monitoring system is part of a 2008 State of 
Hawaii's Department of Health approved groundwater protection plan. The 
Navy routinely submits its analytical test results and summary 
evaluations to the State of Hawaii's Department of Health and the U.S. 
Environmental Protection Agency for review, assessment and approval.
    Currently, under Administrative Order of Consent (AOC) 
collaboration, the Navy, Defense Logistics Agency, U.S. Environmental 
Protection Agency and State of Hawaii Department of Health are 
identifying best available, practicable technologies to upgrade the Red 
Hill tanks to further protect Hawaii's drinking water, and retain the 
facility's ability to support current military operations and maintain 
Pacific Command's strategic fuel reserve.
    Since 2006, the Navy and Defense Logistics Agency invested $145 
million to modernize Red Hill facilities and environmental testing 
capabilities. We plan to invest an additional $70 million in Red Hill 
over the next five years to further enhance the structural integrity of 
all tanks and the facility's operational efficiency. These numbers do 
not include additional work that would be required through the AOC.

    27. Senator Hirono. How would the Administrative Order on Consent 
(AOC) between EPA, Hawaii Department of Health, and the Navy affect 
naval operations in the PACOM AOR?
    Admiral Richardson. The mission requirements for naval operations 
in the PACOM AOR will continue to be met by the Red Hill fuel facility 
on Oahu if the AOC is finalized in its current form. The current draft 
AOC, as approved by the Navy, includes timelines for facility 
modifications that allow anticipated Naval operations in the Pacific 
AOR to be executed as scheduled.
                          navy energy program
    28. Senator Hirono. Secretary Mabus has set out a very forward-
thinking approach to the Navy's energy needs and has strongly made the 
case that focusing on diversifying fuel sources and improving energy 
efficiency will save money and improve the effectiveness of our forces. 
Are you committed to implementing Secretary Mabus' strategy and, if so, 
what will your priorities be in this area?
    Admiral Richardson. Yes, I am committed to implementing Secretary's 
Mabus' strategy for diversifying fuel sources and increasing the energy 
efficiency of our forces to enhance combat capability. In this way, the 
United States enhances its strategic position by becoming less 
dependent on imported fossil fuels.
    To achieve this end, I am committed to diversifying the Navy's fuel 
supply and stressing the importance of the Navy's testing and 
certification of advanced alternative fuels. Additionally, I will 
continue the emphasis on innovative technology in operational energy 
that improves the energy efficiency of the Fleet.

    29. Senator Hirono. Also, is the Navy on track to sail its ``Great 
Green Fleet'' by 2016?
    Admiral Richardson. Yes, Navy is on track to meet the Secretary of 
the Navy's goal of sailing the Great Green Fleet in 2016.
                                 ______
                                 
    [The nomination reference of Admiral John M. Richardson, 
USN follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      June 4, 2015.
    Ordered, That the following nomination be referred to the 
Committee on Armed Services:
    The following named officer for appointment as Chief of 
Naval Operations and appointment in the United States Navy to 
the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., sections 601 and 
5033:

                        To Be Admiral                              
    Admiral John M. Richardson, 1324.
                                ------                                

    [The biographical sketch of Admiral John M. Richardson, 
USN, which was transmitted to the committee at the time the 
nomination was referred, follows:]
         Biographical Sketch of Admiral John M. Richardson, USN
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Admiral John 
M. Richardson, USN in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    part a--biographical information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John M. Richardson.

    2. Position to which nominated:
    Chief of Naval Operations.

    3. Date of nomination:
    June 4, 2015.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 8, 1960; Petersburg, VA.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Married to Dana Richardson (formerly Dana Silva).

    7. Names and ages of children:
    [Nominee responded and the information is contained in the 
committee's executive files.]

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.
    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    None.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the Administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-E of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-E 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   John M. Richardson  
    This 22nd day of May, 2015

    [The nomination of Admiral John M. Richardson, USN was 
reported to the Senate by Chairman McCain on August 4, 2015, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on August 5, 2015.]


 
 NOMINATIONS OF MR. JOHN CONGER TO BE PRINCIPAL DEPUTY UNDER SECRETARY 
OF DEFENSE, COMPTROLLER; MR. STEPHEN P. WELBY TO BE ASSISTANT SECRETARY 
 OF DEFENSE FOR RESEARCH AND ENGINEERING; MS. ALISSA M. STARZAK TO BE 
  GENERAL COUNSEL OF THE DEPARTMENT OF THE ARMY; AND MR. FRANKLIN R. 
 PARKER TO BE ASSISTANT SECRETARY OF THE NAVY FOR MANPOWER AND RESERVE
                                AFFAIRS

                              ----------                              


                      Thursday, November 19, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain, 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Ayotte, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Reed, 
Gillibrand, Donnelly, Kaine, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The Senate Armed Services 
Committee meets this morning to consider the nominations of Ms. 
Alissa M. Starzak to be General Counsel of the Department of 
Army; Mr. Franklin R. Parker to be Assistant Secretary of the 
Navy for Manpower and Reserve Affairs; Mr. John Conger to be 
the Principal Deputy Under Secretary of Defense, Comptroller; 
and Mr. Stephen P. Welby to be Assistant Secretary of Defense 
for Research and Engineering.
    We welcome all of you here this morning, as well as members 
of your families. As is our tradition, at the beginning of your 
testimony, we welcome you to introduce those members of your 
family joining you this morning.
    Ms. Starzak is currently the Deputy General Counsel at the 
Department of Defense. She has also served as counsel and a 
professional staff member on the Senate Select
    Committee on Intelligence and as Assistant General Counsel 
at the Central Intelligence Agency. I look forward to your 
testimony on a number of pressing issues inside Army and the 
Department of Defense.
    Mr. Parker is currently Chief Counsel of the Maritime 
Administration in the Department of the Transportation. The 
Navy office of Manpower and Reserve Affairs has the great 
responsibility of taking care of our sailors, marines, and 
their families and the Navy's civilian employees. I look 
forward to your testimony on how you plan to support the most 
important part of the Navy, its people.
    Mr. Conger is currently the Assistant Deputy Under 
Secretary for Installations and Environment. The Comptroller's 
office, where he has been nominated to serve has a critical 
role to play at this time of budgetary challenges. The 
Department of Defense spends more than half a trillion dollars 
a year, but after years and years of effort, it still cannot 
pass an audit. The Department is alone among Federal agencies 
in being unable to provide the Congress or the American 
taxpayer assurances that their dollars are spent as 
appropriated. It is hardly surprising that according to the 
Government Accountability Office, the Department of Defense is 
at high risk for waste, fraud, and abuse due to decades of 
financial mismanagement.
    After 2 decades of empty promises, many of us are extremely 
skeptical that the Department will be able to audit its 
financial statements in 2017 as the law requires. While the 
organization of the Comptroller is also dual-hatted to serve as 
the Chief Financial Officer, those financial management duties 
are often dominated by the annual work of creating and 
defending the budget. Mr. Conger, this committee is interested 
in hearing what steps could be taken now to begin reversing 
this trend.
    Finally, Mr. Welby is currently the Deputy Assistant 
Secretary for Systems Engineering at the Department of Defense. 
The position of Assistant Secretary of Defense for Research and 
Engineering has long been vacant. So we are eager to have the 
position filled on a permanent basis. As you know, defense 
research and innovation is essential to maintaining the 
cutting-edge technologies that provide superior capabilities 
and protection for our warfighters.
    I have concerns regarding the ability of the Defense 
Department to transition technologies from the laboratory to 
the warfighter in an effective, efficient, and timely manner. 
At the same time, the Department is chasing innovative 
companies in places like Silicon Valley, but it does not appear 
to be making the necessary changes to its research, 
contracting, and acquisition policies that would allow us to 
take advantage of commercial innovation. The challenges faced 
by the Defense Innovation Unit Experimental, which Secretary 
Carter launched to better connect the Department with Silicon 
Valley, is one embodiment of these concerns. I look forward to 
your testimony on how you plan to lead the defense research 
enterprise and how you will accelerate defense innovation and 
technology transition.
    I thank the witnesses for their willingness to serve and I 
look forward to their testimony.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, witnesses, for your willingness to serve and 
your service to date. Thank you very much. I join the chairman 
in welcoming you here to this hearing to fill these important 
vacancies in the Department of Defense. As we heard during the 
hearing we held earlier this week, managing an organization as 
large as the Department of Defense can be very challenging and 
requires strong leadership. If confirmed, I am confident that 
the nominees before us will have that strong leadership 
profile.
    Mr. Conger, who has been nominated to be the Principal 
Deputy Under Secretary of Defense for Comptroller, has 
extensive experience working on national security issues. As a 
congressional staff, Mr. Conger worked on budget and 
appropriations matters and has a deep appreciation for how the 
annual budget process works. In addition, Mr. Conger has 
overseen the Energy, Installations, and Environmental portfolio 
at the Department, providing oversight management of the 
Department's $850 billion real property portfolio. Mr. Conger's 
knowledge and experience will be critical in an era of 
constrained budget resources, as well as ensuring the 
Department finally achieves a clean audit of its financial 
statements, as the chairman has indicated.
    Mr. Welby, who has been nominated to be the Assistant 
Secretary of Defense for Research and Engineering, serves as 
the Deputy for that position. Mr. Welby is well positioned for 
this job, given his strong technical background and experience 
both in government and industry. If confirmed, he will be 
responsible for ensuring that our research programs and 
institutions that perform cutting-edge R&D [Research and 
Development], like the defense labs and DARPA [Defense Advanced 
Research Projects Agency], are as innovative and effective as 
possible. I want to hear his plans to advocate for and champion 
those labs, their people, and the important advanced technology 
products that they produce for our warfighters.
    Ms. Starzak, who has been nominated for the position of the 
Army General Counsel, has extensive legal experience in 
positions that have prepared her well for this position. After 
her private sector experience, Ms. Starzak has worked in the 
Office of the CIA [Central Intelligence Agency] General 
Counsel, she served as counsel on the Senate Select Committee 
on Intelligence and currently serves as the Deputy General 
Counsel in the DOD's [Department of Defense's] General 
Counsel's Office. Ms. Starzak will be joining a new command 
team with a new Army Secretary and Chief of Staff where they 
will work together to address the many challenges that the Army 
faces.
    Mr. Parker, who has been nominated for the position of 
Assistant Secretary of the Navy for Manpower and Reserve 
Affairs, appears well suited to lead Navy personnel programs. 
His experience in the Navy General Counsel's Office and as 
Chief Counsel for the Maritime Administration, as well as his 
private sector experience, will give him a unique perspective 
to apply to the many important challenges he will face.
    Again, I thank you, Mr. Chairman, for holding this hearing 
and I look forward to hearing from the witnesses.
    Chairman McCain. There are standard questions that are 
asked of all nominations, and I will go through these questions 
and you can respond by simply saying ``I do'' or responding in 
the negative.
    In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of the Congress are able to receive 
testimony, briefings, and other communications of information. 
Have you adhered to the applicable laws and regulations 
governing conflicts of interest?
    Mr. Conger. Yes.
    Mr. Welby. Yes.
    Ms. Starzak. Yes.
    Mr. Parker. Yes.
    Chairman McCain. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Conger. No.
    Mr. Welby. No.
    Ms. Starzak. No.
    Mr. Parker. No.
    Chairman McCain. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in hearings?
    Mr. Conger. Yes.
    Mr. Welby. Yes.
    Ms. Starzak. Yes.
    Mr. Parker. Yes.
    Chairman McCain. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Conger. Yes.
    Mr. Welby. Yes.
    Ms. Starzak. Yes.
    Mr. Parker. Yes.
    Chairman McCain. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Mr. Conger. Yes.
    Mr. Welby. Yes.
    Ms. Starzak. Yes.
    Mr. Parker. Yes.
    Chairman McCain. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Mr. Conger. Yes.
    Mr. Welby. Yes.
    Ms. Starzak. Yes.
    Mr. Parker. Yes.
    Chairman McCain. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee or 
to consult with the committee regarding the basis for any good 
faith delay or denial in providing such documents?
    Mr. Conger. Yes.
    Mr. Welby. Yes.
    Ms. Starzak. Yes.
    Mr. Parker. Yes.
    Chairman McCain. Mr. Conger, we will begin with you. 
Welcome.

   STATEMENT OF MR. JOHN CONGER TO BE PRINCIPAL DEPUTY UNDER 
               SECRETARY OF DEFENSE, COMPTROLLER

    Mr. Conger. Thank you, Mr. Chairman, Senator Reed, members 
of the committee. It is a privilege to be here to answer your 
questions regarding my nomination to the position of Principal 
Deputy Under Secretary of Defense for Comptroller. I am humbled 
and honored by the support I have received from President 
Obama----
    Chairman McCain. Would you like to mention a family member 
who is here?
    Mr. Conger. Absolutely. I would like to introduce and offer 
my deepest appreciation for my wife, Kristine Minami. I could 
not set out on this demanding path without her love and strong 
support.
    Chairman McCain. Welcome.
    Mr. Conger. I would also like to recognize my son, Conner 
Minami, who is only 4 and not here today.
    Chairman McCain. He will miss it.
    [Laughter.]
    Mr. Conger. Yes.
    I appreciate the support that I have received from the 
President, from Secretary Carter, who originally hired me into 
the Pentagon in 2009 when he was the Under Secretary for 
Acquisition, Technology and Logistics, the support I received 
from Deputy Secretary Work and Under Secretary McCord.
    I would also like to recognize my dad who, along with my 
grandfather and my uncle, served in the U.S. Navy and set a 
strong example of public service.
    For more than 20 years, I have worked national security 
issues, both as a congressional staffer, most of that working 
appropriations and budget issue, and in senior Pentagon 
positions overseeing the Department's Installations, 
Environment and Energy portfolio. Each has taught me important 
lessons that, if confirmed, I would bring to this new and 
challenging role.
    Mr. Chairman, the defense budget details a carefully 
balanced set of priorities and risk with clearly more risk than 
any of us desire. The Department has worked to balance 
readiness to meet today's complex security challenges with the 
need to ensure that we are investing in future capabilities. As 
you have articulated well, the risk would be unacceptable if we 
were forced to adhere to the caps in the Budget Control Act. I 
am glad to see that we have achieved a reprieve from those 
limits for 2016 and 2017.
    The DOD [Department of Defense] Comptroller has a critical 
role in providing the justification to Congress why the funds 
we have requested are critical to meeting to our strategy. This 
office has the unique capability and responsibility to 
associate resource decisions with their real world impacts to 
better inform Congress as it deliberates.
    As you know, this case is made more difficult by the fact 
that the DOD has not passed a financial audit. Without a clean 
audit, it is harder to make the case that we are efficiently 
using all of the funds Congress has provided us, even as we 
request more. In this environment, I believe it is absolutely 
critical that we dedicate ourselves to passing this audit, both 
for the improvement to financial management that it promises 
and for the credibility that it will provide to our requests 
for more funding.
    If confirmed, I will work tirelessly to assist Under 
Secretary McCord and the Department's leadership in meeting 
these challenges. I am grateful for your consideration, and I 
look forward to your questions.
    [The prepared statement of Mr. Conger follows:]

                 Prepared Statement by Mr. John Conger
    Thank you, Mr. Chairman, Senator Reed, Members of the Committee. It 
is a privilege to be here to answer your questions regarding my 
nomination to the position of Principal Deputy Under Secretary of 
Defense for Comptroller. I am humbled and honored by the support I have 
received from President Obama, from Secretary Carter (who originally 
hired me into the Pentagon in 2009 when he was the Under Secretary of 
Defense for Acquisition, Technology and Logistics), from Deputy 
Secretary Work and from Under Secretary McCord.
    Before continuing, I would like to introduce and offer my deepest 
appreciation to my wife and partner, Kristine Minami. I could not set 
out on this demanding path without her love and strong support. I'd 
also like to recognize the joy of my life, my son Conner Minami, who is 
only 4 and is not here today.
    I would also like to thank my Dad who, along with my grandfather 
and my uncle, served in the U.S. Navy and set a strong example of 
public service.
    For more than 20 years, I've worked national security issues, both 
as a congressional staffer--most of that working appropriations and 
budget issues--and in senior Pentagon positions overseeing the 
Department's Installations, Environment and Energy portfolio. Each has 
taught me important lessons that, if confirmed, I would bring to this 
new and challenging role.
    Mr. Chairman, the defense budget details a carefully balanced set 
of priorities and risk, with clearly more risk than any of us desire. 
The Department has worked to balance readiness to meet today's complex 
security challenges with the need to ensure that we are investing in 
future capabilities. As you have articulated well, the risk would be 
unacceptable if we were forced to adhere to the caps in the Budget 
Control Act, and I am glad to see we have achieved some reprieve from 
those limits for FY 2016 and FY 2017.
    The Under Secretary of Defense (Comptroller) has a key role in 
providing the justification to Congress why the funds we have requested 
are critical to meeting our strategy. This office has the unique 
capability and responsibility to associate resource decisions with 
their real world impacts to better inform Congress as it deliberates.
    As you know, that case is made more difficult by the fact that the 
DOD has not passed a financial audit. Without a clean audit, it is 
harder to make the case that we are efficiently using all of the funds 
Congress has provided us, even as we request more. In this environment, 
I believe it is absolutely critical that we dedicate ourselves to 
passing this audit--both for the improvement to financial management 
that it promises and for the credibility it will provide to our 
requests for more funding.
    If confirmed, I will work tirelessly to assist Under Secretary 
McCord and the Department's leadership in meeting these challenges. I 
am grateful for your consideration, and I look forward to your 
questions.

    Chairman McCain. Thank you.
    Mr. Welby?

STATEMENT OF MR. STEPHEN P. WELBY TO BE ASSISTANT SECRETARY OF 
              DEFENSE FOR RESEARCH AND ENGINEERING

    Mr. Welby. Mr. Chairman, Senator Reed, members of the 
committee, it is an honor to appear before you this morning as 
the nominee to serve as the Assistant Secretary of Defense for 
Research and Engineering. I wish to thank the President and 
Secretary Carter for their support of my nomination.
    Chairman, I would like to also take a moment to thank my 
wife Kimberly, my son Bradan, and my daughter Claire, who are 
here today.
    Chairman McCain. Welcome.
    Mr. Welby. I would also like to particularly acknowledge my 
father, Patrick Welby, who is behind me whose service in the 
Army and whose service as a New York City fire officer, until 
he was injured in the line of duty, really taught me the true 
meaning of public service.
    Chairman McCain. Welcome, sir.
    Mr. Welby. Our military technology advantage is essential 
to supporting our Nation's ability to deter aggression and to 
succeed in conflict. Today our technology edge is challenged by 
the globalization of technology the globalization of technical 
talent and the emergence of foreign military capabilities 
particularly intended to directly counter our own military 
strengths. This increasingly competitive global technology 
environment demands more agile approaches to technology 
delivery and development and faster adoption of new, innovative 
solutions that can offset the growing technical capabilities of 
potential threats. The Department needs to commit to 
continuously refreshing the core technologies that sustain our 
defense and that mitigate technological surprise and that 
support our modernization efforts. The Department also needs to 
focus on the effectiveness and efficiency of our research and 
engineering establishment to ensure that the delivery of 
advanced capabilities can be conducted in a fiscally 
constrained environment.
    If confirmed, I am committed to ensuring that our defense 
research and engineering enterprise remains focused on 
sustaining the technological superiority of U.S. forces, both 
addressing the demands of our current conflicts and addressing 
the needs of the evolving security environment, by accelerating 
the delivery of advanced capabilities that can make a critical 
difference from laboratory to battlefield.
    I thank you, Mr. Chairman and members of the committee, for 
your time and attention, and I look forward to answering your 
questions this morning.
    [The prepared statement of Mr. Welby follows:]

               Prepared Statement by Mr. Stephen P. Welby
    Mr. Chairman, Senator Reed, members of the committee, it is an 
honor to appear before you this morning as the nominee to serve as 
Assistant Secretary of Defense for Research and Engineering. I wish to 
thank the President and Secretary Carter for their support of my 
nomination. I would also like to thank my wife Kimberly, my son Bradan, 
and my daughter Claire, who are here today, for their support and 
encouragement and I'd like to particularly acknowledge my Father, 
Patrick Welby--whose service as a New York City Fire Officer, until he 
was injured in the line of duty, taught me the true meaning of a career 
in public service.
    Our military technology advantage is essential to our nation's 
ability to deter aggression and prevail in conflict. Today, our 
technical edge is challenged by the globalization of technology and the 
emergence of foreign military capabilities intended to directly counter 
our own technical strengths. This increasingly competitive global 
environment demands more agile approaches to technology development and 
faster adoption of new, innovative solutions that can offset the 
growing technical capability of potential threats. The Department must 
continuously refresh the core technologies that sustain our defense 
advantage, that mitigate technological surprise, and that support our 
modernization efforts. The Department must also focus on the 
effectiveness and efficiency of the research and engineering 
enterprise, to allow the delivery of advanced capabilities faster in a 
fiscally constrained environment.
    If confirmed, I am committed to focusing the defense research and 
engineering enterprise with a focus on sustaining the technological 
superiority of U.S. forces--addressing both the demands of our current 
conflict and the needs of the evolving strategic environment--by 
accelerating the delivery of the advanced capabilities that can make a 
critical difference, from laboratory to battlefield.
    I thank you Mr. Chairman and members of this committee for your 
time and attention, and I look forward to answering your questions.

    Chairman McCain. Ms. Starzak?

STATEMENT OF MS. ALISSA M. STARZAK TO BE GENERAL COUNSEL OF THE 
                     DEPARTMENT OF THE ARMY

    Ms. Starzak. Good morning, Mr. Chairman, Ranking Member 
Reed, and members of the committee. I am honored to appear 
before you today. I would like to begin by expressing my 
gratitude to President Obama for my nomination, as well as to 
Secretary Carter for his support.
    I would not be here today if it were not for the family, 
friends, and coworkers who have supported me over the years. I 
especially want to thank my wonderful family, including my 
husband, Andrew Ferguson, who is here with me today, and my 
sister, Jocelyn Starzak, who is also here.
    Chairman McCain. Welcome.
    Ms. Starzak. I also want to thank my parents and my two 
amazing children who are 3 and 6 and therefore not here today. 
Throughout my life, my family has taught me the value----
    Chairman McCain. Next time it will be required attendance 
for all children.
    [Laughter.]
    Ms. Starzak. Throughout my life, my family has taught me 
the value of serving others. My goal has always been to live up 
to the expectations that they have set.
    I also want to thank those, both civilian and military, 
that I have had the privilege of working with during the 4 and 
a half years I have spent serving in the Department of Defense 
Office of General Counsel. Their commitment to protecting 
America and improving the lives of the dedicated men and women 
who serve all of us by putting themselves in harm's way for our 
country inspires me every day.
    The role of the Army General Counsel is, first and 
foremost, to provide solid and timely legal advice to Army 
senior leadership. If confirmed, that would be my first 
priority. I believe my background and experience in the 
executive branch, the Congress, and the private sector have 
well prepared me to serve this function.
    If confirmed as the Army General Counsel, I am committed to 
working closely with the Army Judge Advocate leadership to 
address the legal challenges facing the Army. I strongly 
believe in the value of having civilian and military lawyers 
work together to offer the best possible legal advice to our 
clients.
    If confirmed, I will make every effort to live up to the 
confidence that has been placed in me.
    I am grateful for your consideration, and I look forward to 
your questions.
    [The prepared statement of Ms. Starzak follows:]

              Prepared Statement by Ms. Alissa M. Starzak
    Good morning Mr. Chairman, Ranking Member Reed, and members of the 
Committee. I am honored to appear before you today. I would like to 
begin by expressing my gratitude to President Obama for my nomination, 
as well as to Secretary Carter and Acting Secretary Fanning for their 
support.
    I would not be here if were not for the family, friends and co-
workers who have helped me over the years. I especially want to thank 
my wonderful family, including my husband Andrew Ferguson and my two 
amazing children. It is unfortunate they could not be here with me 
today.
    I also want to thank those--both civilian and military--that I've 
had the privilege of working with during the four and a half years I 
have spent serving in the Department of Defense Office of General 
Counsel. Their commitment to protecting America and improving the lives 
of the dedicated men and women who serve all of us by putting 
themselves in harm's way for our country inspires me every day.
    The General Counsel of the Army advises Army leadership on the 
legal implications of the many challenges facing the Army. I believe my 
background and experience in the Department, the Congress and the 
private sector have well prepared me to serve in this role.
    I am committed to working closely with the Army Judge Advocate 
leadership, and strongly believe in the value of having
    civilian and military lawyers work together to offer the best 
possible legal advice to our clients.
    If confirmed, I will make every effort to live up to the confidence 
that has been placed in me.
    I am grateful for your consideration, and I look forward to your 
questions.

    Chairman McCain. Thank you.
    Mr. Parker? Welcome.

 STATEMENT OF MR. FRANKLIN R. PARKER TO BE ASSISTANT SECRETARY 
          OF THE NAVY FOR MANPOWER AND RESERVE AFFAIRS

    Mr. Parker. Thank you, Mr. Chairman, Senator Reed, and 
members of the committee. It is an honor and a privilege to be 
here before you today.
    Joining me today, I am honored to have a wide swath of my 
family, my wife Ann, my son Franklin. His little sister Diana 
was not able to be here today, and it is probably a good thing 
for everyone. My mother Janice, my father Franklin, my sister 
Lisa, my uncle Glynn, my cousin Frank, my sister-in-law Luong, 
and my good friend, Steve Raden.
    Chairman McCain. Is there anyone who could not make it?
    [Laughter.]
    Mr. Parker. There were a couple.
    Chairman McCain. Welcome to all of you. I know this is a 
proud moment for you.
    Mr. Parker. I am honored and privileged to be here today 
regarding my nomination for the position of Assistant Secretary 
of the Navy for Manpower and Reserve Affairs.
    Before we begin, I would like to thank President Obama, 
Secretary Carter, and Secretary Mabus for their support of my 
nomination. I would also wish to express my sincere 
appreciation to my colleagues, both past and present, 
specifically those at the Departments of the Navy and 
Transportation and at the Maritime Administration, for whom I 
hold the greatest respect.
    I thanked my family previously, but in particular, I would 
like to recognize my father, Franklin Parker; my uncle, Glynn 
Parker; and my cousin, Frank Harris, whose service in the Air 
Force and Army and whose experiences as Vietnam veterans 
instilled in me the deepest appreciation for our servicemembers 
and the sacrifices and contributions that they routinely make 
for our Nation. It is on the shoulders of these men and women 
that we all truly stand.
    Lastly, I wish to acknowledge with deepest gratitude my 
grandfather, Fred Curls, who passed away earlier this year at 
the age of 96. I thanked him not only for his service in the 
National Guard but also for serving as my inspiration to enter 
public service and for teaching me that anything is possible in 
our great Nation.
    Mr. Chairman and members of the committee, it is a 
privilege to be considered for this opportunity to serve our 
men and women in uniform, as well as our civilian personnel who 
share their mission and complement their efforts to uphold our 
defense. Their commitment to our Nation deserves not only our 
respect but a corresponding obligation to them and their 
families that we make every possible effort to honor and 
support their service.
    Over the course of my career, I have worked in the private 
sector, as well as in both defense and civilian agencies. I 
have performed legal and nonlegal roles. I have served as an 
action officer, a manager, a senior executive, and as a member 
of agency leadership. In every context, however, the one 
constant has been the primacy of people. Our people conceive, 
create, enable, and execute everything we do. People are our 
greatest and most powerful asset, and this is no truer than for 
those who serve in our Nation's defense.
    In this realm, it is critical that our decisions always 
support readiness, that we bolster the morale of our force, 
that we seek to create an environment that is free from 
harassment and abuse, and that we ensure that our personnel 
have the tools they need to be successful in the field and 
healthy at home. These needs are even more pronounced as we 
continue to manage multiple conflicts and threats in a highly 
constrained fiscal environment.
    If confirmed, my highest priority will be to ensure that 
our manpower and Reserve policies and practices meet the 
standards that the men and women of our Navy and Marine Corps 
deserve. I view this not only as an honor but as an obligation.
    If confirmed, I look forward to working with this committee 
and the Congress to provide the best for our servicemembers and 
civilian personnel. In so doing, I will make every effort to 
reward the faith you have placed in me and that our men and 
women who serve have placed in us. I am truly grateful for your 
consideration of our my nomination, and I look forward to your 
questions. Thank you.
    [The prepared statement of Mr. Parker follows:]

              Prepared Statement by Mr. Franklin R. Parker
    Thank you, Mr. Chairman, Senator Reed, members of the committee. I 
am honored to appear before you today regarding my nomination for the 
position of Assistant Secretary of the Navy for Manpower and Reserve 
Affairs. Before we begin, I would like to thank President Obama, 
Secretary Carter, and Secretary Mabus for their support of my 
nomination. I also wish to express my sincere appreciation to my 
colleagues past and present--specifically those at the Departments of 
the Navy and Transportation, and the Maritime Administration--for whom 
I hold the utmost admiration and respect. In addition, I wish to thank 
my family--my wife, my children, my parents and my sister--whose 
steadfast support enables everything I do. In particular, I would like 
to recognize my father Franklin Parker, my uncle Glynn Parker, and my 
cousin Frank Harris, whose service in the Air Force and Army instilled 
in me the deepest appreciation for our servicemembers, and the 
sacrifices and contributions they routinely make on behalf of our 
Nation. It is on the shoulders of these women and men that we all truly 
stand. Lastly, I wish to acknowledge, with deepest gratitude, my 
grandfather Fred Curls who passed away earlier this year at the age of 
96. I thank him not only for his service in the National Guard, but 
also for serving as my inspiration to enter public service and for 
teaching me that anything is possible in our great Nation. Mr. Chairman 
and members of the committee, it is a privilege to be considered for 
this opportunity to serve our men and women in uniform as well as our 
civilian personnel who share their mission and complement their efforts 
to uphold our defense. Their commitment to our Nation deserves not only 
our respect, but a corresponding obligation to them and to their 
families that we will make every possible effort to honor and support 
their service. Over the course of my career, I have worked in the 
private sector as well as in both defense and civilian agencies. I have 
performed legal and non-legal roles, and have served as an action 
officer, a manager, a Senior Executive, and a member of Agency 
leadership. In every context, however, the one constant has been the 
primacy of people. Our people conceive, create, enable and execute 
everything we do. People are our greatest and most powerful asset, and 
this is no truer than for those who serve in our Nation's defense. In 
this realm it is critical that our decisions always support readiness, 
that we bolster the morale of our force, that we seek to create an 
environment that is free from harassment and abuse, and that that we 
ensure that our personnel have the tools they need both to be 
successful in the field and healthy at home. These needs are even more 
pronounced as we continue to manage multiple conflicts and threats in a 
highly constrained fiscal environment. If confirmed, my highest 
priority will be to ensure that our manpower and Reserve policies and 
practices meet the standards that the men and women of our Navy and 
Marine Corps deserve. I view this not only as an honor but as an 
obligation. If confirmed, I look forward to working with this committee 
and the Congress to provide the best for our servicemembers and 
civilian personnel. In so doing, I will make every effort to reward the 
faith you have placed in me, and that our women and men who serve have 
placed in us. I am truly grateful for your consideration of my 
nomination, and I look forward to your questions.

    Chairman McCain. Thank you.
    Mr. Conger, we talked about an audit. For 15 years, we have 
been talking about an audit. For 15 years, we have legislated 
the requirement for an audit. For 15 years, we have not gotten 
one. What do you think the chances are of getting one this time 
around?
    Mr. Conger. So the progress that the Department has made 
and the new thing that has happened even this year is that the 
service budgets are under audit right now. They are not 
necessarily going to pass an audit this year, but they are 
under audit for the first time. The Marine Corps has been under 
audit for several years. So there has been a considerable 
amount of progress.
    Chairman McCain. There was a recognition of failure of the 
Marine Corps audit as well.
    Mr. Conger. Yes. So the Marine Corps audit that had 
originally received a clean audit but then later that was 
retracted was because of an anomaly that was discovered and 
appropriately retracted. But that actually helps the rest of 
the audit----
    Chairman McCain. So the answer to my question is do you 
think we will have an audit this year.
    Mr. Conger. I think that the budgets of the services are 
under audit, but they are not necessarily going to pass. 
Experience shows that----
    Chairman McCain. When do you think we will have an audit, a 
complete audit just like every other branch of government has 
undergone?
    Mr. Conger. It is hard to predict when we will pass an 
audit.
    Chairman McCain. It certainly is. You really put your 
finger on it. It is hard to predict especially after 15 years 
of failure.
    Mr. Conger. But the difference now is that we are being 
audited, and that process will point out what needs to be 
fixed. Those corrective actions will improve our chances each 
year, each subsequent year----
    Chairman McCain. Each year?
    Mr. Conger. Yes. Yes, sir.
    Chairman McCain. I can tell you that is not exhilarating to 
me saying ``each year,'' after 15 years of failure, Mr. Conger. 
I am sorry that I sound so pessimistic. The taxpayers of 
America, after all these years, still cannot get an audit, and 
you are telling me that each year we will get better.
    Mr. Conger. Yes, sir.
    Chairman McCain. I want you to do better. Okay? That is 
what I want. That is what the Congress and the American people 
want. We want an audit that the American people and this 
committee and the Members of Congress can look at and then make 
the right decisions. Without us knowing those fundamental 
facts, it is very hard for us to legislate on behalf of the 
American people.
    Mr. Conger. I agree, Mr. Chairman.
    Chairman McCain. Ms. Starzak, Congress, as you know, for 
years now and in the latest authorization bill, which we are 
told the President will be signing today or tomorrow or very 
soon, specifically prohibited the transfer of Guantanamo 
detainees to the United States in both the authorization bill 
and the defense appropriations bill.
    Does the Constitution in your view authorize the President 
to act contrary to the law, including laws he signed as 
President? I am specifically referring to the recurring rumor 
that is banging around out there that the President will act by 
executive order to close Guantanamo. Now, in your view, does 
the President have that constitutional authority?
    Ms. Starzak. Senator, I do not believe that issue would 
come before me as Army General Counsel, but I have no reason to 
question the constitutionality of those restrictions.
    Chairman McCain. I am not asking whether you question it. I 
am asking whether you believe that the President has the 
constitutional authority to act by executive order to close 
Guantanamo Bay. I just read you a list of the requirements when 
you come before this committee.
    Ms. Starzak. Senator, as I think the Attorney General 
testified earlier this week, I believe the statutory 
restrictions would prohibit transferring detainees to the 
United States.
    Chairman McCain. Mr. Parker, same question.
    Mr. Parker. Senator McCain, this is not an issue that I 
have worked on.
    Chairman McCain. I understand that, Mr. Parker. It is the 
right of this committee to ask questions that we feel are 
important.
    Mr. Parker. Absolutely, Senator McCain. I just am not in a 
position to provide an answer on this particular question. It 
is not one that I have looked into and really have----
    Chairman McCain. Then we will await your written answer 
while you look into it.
    [The information referred to follows:]

    This seems to be an issue beyond the scope of the position for 
which I am being considered. I would defer it to the appropriate 
offices with authority on this issue.

    Chairman McCain. Mr. Welby?
    Mr. Welby. Chairman, I am neither a lawyer nor have any 
particular experience in this matter. So I would have to go 
with the advice of others on this topic.
    Chairman McCain. I understand.
    [The information referred to follows:]

    I am not a lawyer and I lack the personal background and training 
to provide an appropriate response to this question. It is my 
understanding that this issue would not fall under the purview of 
ASD(R&E).

    Mr. Conger?
    Mr. Conger. Sir, I am not a lawyer, nor have I looked into 
this particular issue. I would have to get back to you, sir.
    [The information referred to follows:]

    Mr. Chairman, I agree that this is an important issue. However, I 
am not an attorney and know that such complex legal issues are best 
assessed by the appropriate legal experts. I would refer such a 
question to them to ensure you got an accurate and informed answer to 
your question.

    Chairman McCain. Mr. Parker, the Marines recently released 
the results of their major research study on combat 
integration. Before reviewing the report, Secretary Mabus 
indicated he will not support any exceptions to policy to close 
any ground combat elements to women, and he also said that he 
would not even review the conclusions of the Marines study.
    Are you familiar with the Department of the Marine Corps? 
Ground Combat Element Integrated Task Force report?
    Mr. Parker. I am aware of the report, Senator.
    Chairman McCain. Would you have made the same decision as 
Secretary Mabus before conducting a review of the report?
    Mr. Parker. Senator McCain, I am aware of the report, but I 
have not had an opportunity to review the report and I have not 
spoken with Secretary Mabus. Without having reviewed the report 
and its analysis and its findings, without having spoken with 
the Secretary about his thought process, I cannot offer an 
opinion on whether or not I would have made the same decision 
as Secretary Mabus.
    Chairman McCain. Would you agree that this will be in your 
area of responsibility?
    Mr. Parker. Absolutely, Senator McCain. Once a decision is 
made by the Department of the Secretary of Defense--by the 
Office of the Secretary of Defense, I will be closely involved 
in implementation of whatever decision is made.
    Chairman McCain. Well, we would want to know your view on 
this issue, Mr. Parker. So I would hope that you would take a 
look at this task force report and get back to us as to your 
views on it.
    [The information referred to follows:]

    If I were developing the Department of the Navy's position, I would 
avail myself of all information and facts related to the issue, as I 
understand Secretary Mabus did. Now that Secretary Carter has announced 
his decision to open all operational specialties to women, the only 
remaining issue is implementation. All qualified servicemembers will be 
able to serve in all occupational specialties based on their ability to 
meet operationally relevant, occupation-specific, individual standards, 
and it is my view that this policy will maximize the combat 
effectiveness of the Navy and Marine Corps.

    Chairman McCain. Finally, Mr. Conger, would you agree that 
we have a lot of work to do in accounting for both the number 
of personnel, as well as the expenses associated with our 
responsibilities? For example, we do not know how many civilian 
employees we have. We do not know how many contract employees 
we have. We are thinking about a mandate on end strength for 
both civilian personnel such as we have for uniformed 
personnel. What do you think about that?
    Mr. Conger. I think that it is critically important to know 
how many people we have in the Department and that the 
personnel office should have that information in order for us 
to be able to budget appropriately.
    Chairman McCain. I thank you. I thank the witnesses.
    Senator Reed. Thank you very much, Mr. Chairman.
    Mr. Conger, we have had a series of very thoughtful 
hearings at the direction of the chairman about revisions at 
the Department of Defense, Goldwater-Nichols. This week we had 
former GAO [Government Accountability Office] Director David 
Walker. We had General Punaro and others.
    I will quickly reveal my lack of accounting knowledge by 
asking--I got the impression that one way might be to get our 
arms around the audit is to not do it individually by service 
by service but start at the Department of Defense level because 
their materiality issues are much different than in the 
particular services. Again, this is a real question.
    Is there a different approach to the audit process that we 
could take that would be more effective than what we have been 
doing the last several years in terms of trying to get the 
services to do audits to then build on them to do a DOD audit?
    Mr. Conger. So I appreciate the approach that you are 
suggesting or contemplating, and I understand the differences 
in materiality that evolve from looking at the larger 
enterprise. The Department has a strategy that has been moving 
the ball forward. We have been giving regular updates to this 
committee on the progress on that. I do not believe that the 
Department is planning on changing its strategy.
    Senator Reed. Again, I am reflecting what the chairman has 
said and what we have all known. This is a strategy that is 
being pursued for 15 years resulting in the inability to 
produce the audit. I think it would be useful if at least you 
could sort of, as you push this along, think there might be an 
alternate way to do this. Again, these are really talented 
individuals who made the suggestions.
    Mr. Conger. Yes. If confirmed, I would be happy to look at 
alternative strategies and try and figure out more effective 
ways to accomplish this.
    Senator Reed. Thank you.
    Mr. Welby, thank you for your service and thank you for 
your father's service. Thank you, sir.
    One of the aspects of your responsibilities are the 
government laboratories. They play a key role. At times, we get 
complaints or comments that they are antiquated in terms of 
equipment, management, in terms of their ability to function as 
they have in the past as real incubators for change and 
innovation. Can you give us some thoughts about your particular 
approach to the laboratories and how we can engage them better?
    Mr. Welby. Senator, thank you.
    I began my career as an intern in an Army research 
laboratory here in Maryland and spent a decade kind of working 
on cutting-edge problems that really made a difference, early 
GPS [Global Positioning System] activities, early work on 
unmanned air vehicles, some of the roots of some of the 
artificial intelligence briefings that are going on today. I 
think the energy and excitement that I see in the workforce in 
our laboratories is critical to ensuring that we are on the 
cutting edge of getting capabilities that matter to our 
warfighters. The laboratories have served as an incubator of 
technology and as a coupler to take advanced technology and 
drive it towards military needs.
    If confirmed, I do intend to very closely look at the state 
of our laboratories, the state of their capital equipment, but 
most importantly, I am concerned with the state of our people 
to ensure that we have the right mix of talent, the right mix 
of skills in our laboratories. I am particularly concerned with 
the graying of our laboratory workforce, and I want to make 
sure that we refresh the talent that will serve us in the 
future in the laboratories.
    Senator Reed. Thank you, Mr. Welby.
    Ms. Starzak, one of the roles you will have to play is to 
work very closely with the Judge Advocate General of the Army, 
the uniformed individual that is your counterpart. You have had 
extensive experience at the CIA, Department of Defense, et 
cetera. Can you give us sort of a notion of how you intend to 
work and share responsibilities and emphasis?
    Ms. Starzak. Senator, my understanding is that the Army 
TJAG General Darpino has a number of separate responsibilities, 
as well as our joint responsibilities. I think it is very 
important that she be able to provide independent advice to the 
Secretary on the issues that are in her jurisdiction. I think 
we would work together very well. I know General Darpino. She 
is terrific.
    Senator Reed. She has been very helpful to this committee 
on a host of issues. Again, I think the combination of the two, 
you will be very effective for the Secretary of the Army.
    Just a final question, Mr. Parker, and that is, again, in 
the hearings that the chairman has, I think, very thoughtfully 
put together, the Goldwater-Nichols issues have come up again 
and again. One aspect--and he has alluded to it--is civilian 
personnel. Your responsibilities will include sort of the 
incentives for, the number of, looking at how they are 
integrated with Active Duty military personnel. Can you give us 
any ideas, as you begin, of what insights or what approaches 
you might take to deal more effectively with civilian 
personnel?
    Mr. Parker. Senator Reed, that is an extremely important 
issue, and that is one that will be one of the top priorities, 
if confirmed, for me, really taking a look at the existing 
authorities and how best we can make sure that we modernize 
them in order to attract, recruit, and retain the highest 
quality workforce that we possibly can. I know there are a 
number of efforts ongoing as we speak, both in terms of looking 
at existing authorities, also in terms of talent management, 
and I would continue to work, if confirmed, in those areas, and 
I would be open to and I would work with the committee as well 
in seeking the input of the committee and the Congress for ways 
to best implement solutions to some of these issues.
    I think one last aspect that is extremely important, 
however, is that whatever reforms are made, that we do not 
compromise readiness in the process. Maintaining that important 
balance is something else that I would make sure to prioritize, 
if confirmed.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton?
    Senator Cotton. Ms. Starzak, you were a lead investigator 
for the Senate Intelligence Committee majority staff study into 
the CIA's rendition, detention, and interrogation practices. In 
your time as a lead investigator, did you access and review a 
set of documents known as the Panetta Review?
    Ms. Starzak. Senator, I had access to materials at the CIA 
facility that they provided. That includes what I believe to be 
the Panetta Review, although it was not called that when I was 
on the committee. I left for the Department in 2011.
    Senator Cotton. Did you access and review the Panetta 
Review more than once?
    Ms. Starzak. Senator, I believe I had access to it. I do 
not remember at this point, 4 and a half years later, how often 
I accessed it.
    Senator Cotton. Do you believe that computer forensic 
analysis would indicate how many times it was accessed?
    Ms. Starzak. Senator, I am sorry. I am not a computer 
expert. I do not know.
    Senator Cotton. Do you recall recording, making use of, or 
taking notes about the content of the Panetta Review?
    Ms. Starzak. Senator, I do not recall doing that.
    Senator Cotton. As you know, the CIA believes the 
Intelligence Committee staff should never have had access to 
the Panetta Review. Are you aware of how or why the CIA 
computer system set up for committee staff to review CIA 
documents included the Panetta Review?
    Ms. Starzak. Senator, I have no idea. My understanding is 
that the computer system was set up for the committee's access, 
and the committee staff accessed all documents through the 
system that was set up.
    Senator Cotton. Did you ever speak to any current or former 
CIA official's staff or contractors about making the Panetta 
Review accessible on this computer system?
    Ms. Starzak. Senator, I had no discussions about that 
particular document.
    Senator Cotton. None whatsoever.
    Ms. Starzak. None with the CIA staff, no.
    Senator Cotton. Are you aware of other Intelligence 
Committee staffers who spoke to any current or former CIA 
official's staff or contractors about making the Panetta Review 
accessible on that computer system?
    Ms. Starzak. Senator, I just do not know.
    Senator Cotton. A committee staff member or members printed 
out a hard copy of the Panetta Review and removed it from the 
secure CIA document review facility and transported it to 
committee offices. Under the procedures agreed to by the 
committee and the CIA at the time, were committee investigators 
free to remove hard copies of any document they wished from the 
secure facility without consultation and authorization by the 
CIA?
    Ms. Starzak. Senator, as I mentioned, I left the committee 
in 2011. I believe, based on media reports, that that incident 
happened long after I had left the committee. I am not familiar 
with the circumstances of that arrangement.
    Senator Cotton. So you do not recall the agreement that the 
committee had with the CIA about all access to any document, 
not just the Panetta Review?
    Ms. Starzak. Senator, my understanding is that issues were 
supposed to be worked out with the CIA, but again, I do not 
know the specifics of that particular document.
    Senator Cotton. Was there an agreed upon process by which 
the CIA could authorize the removal of certain hard copies of 
documents from that facility?
    Ms. Starzak. Senator, the CIA did clear documents to be 
brought back to the committee SCIF [Sensitive Compartmental 
Information Facility]. That was certainly something that had 
happened. That was how the review was brought back. It was 
brought back through the CIA.
    Senator Cotton. Are you aware if the committee gained such 
authorization from the CIA to remove the hard copy of the 
Panetta Review?
    Ms. Starzak. Senator, as I mentioned, I was not at the 
committee at the time that it was reviewed, or at least media 
reports suggest it was reviewed. So I just do not know.
    Senator Cotton. Media reports suggest that it was reviewed 
for the first time in 2010 when you were at the committee and a 
lead investigator there.
    Ms. Starzak. Senator, you asked when it was removed. Maybe 
I misspoke. I meant when it was removed from the CIA facility.
    Senator Cotton. When is it your understanding that it was 
removed from the CIA facility?
    Ms. Starzak. Senator, I do not know. I know it was not 
removed at the time I was at the committee.
    Senator Cotton. Are you aware of the identity of the 
committee staff members who took part in printing and removing 
the Panetta Review?
    Senator Cotton. Senator, as I mentioned, I was not at the 
committee at the time. All I have seen are the same media 
reports that everyone has seen.
    Senator Cotton. Okay. I want to call your attention to a 
poster.
    [The information referred to follows:]
      
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Cotton. The first page of each document in the 
Panetta Review contains a lengthy step as shown there. In 
relevant part, it reads, this classified document should not be 
distributed without express permission from DRG-RDI [Director's 
Review Grasp for Rention, Detention, and Interrogation] or 
CIA's Office of General Counsel. This document also contains 
material protected by the attorney-client and attorney-work 
product privileges. Furthermore, this document constitutes 
deliberative work product protected by the deliberative process 
privilege. It should not be relied upon by persons outside of 
DRG-RDI.
    Do you recall seeing this stamp on the Panetta Review?
    Ms. Starzak. Senator, it is probably more than 5 years 
since I would have seen it. I do not remember it at this time.
    Senator Cotton. Do you recall speaking with anyone in the 
CIA or on the Intelligence Committee staff about seeing a stamp 
such as this on the Panetta Review?
    Ms. Starzak. Senator, I do not remember discussing it.
    Senator Cotton. You are a member of the DC Bar and the 
California Bar during the relevant times?
    Ms. Starzak. Senator, I am inactive in California, but I am 
a member of the DC Bar and inactive in California.
    Senator Cotton. At the time in 2010 and 2011?
    Ms. Starzak. Yes, Senator.
    Senator Cotton. Were you aware that the DC and California 
professional responsibility rules regarding proper handling of 
privileged documents that may have been inadvertently disclosed 
by the CIA to committee staff?
    Ms. Starzak. Senator, I believe that the inadvertent 
disclosure applies to litigation issues. I think congressional 
oversight is significantly different. In fact, with respect to 
that statement, I would note that Congress actually does not 
recognize deliberative process privilege as being something 
that protects disclosure from Congress. So, for example, this 
committee has requested a number of documents that are 
protected--that could arguably be protected by deliberative 
work product. The Department of Defense provides them--has 
provided documents as recently as this week that would be 
potentially subject to that privilege from outside disclosure.
    Senator Cotton. It will be your position, if confirmed as 
General Counsel of Army, that this committee is entitled to 
review any material that you or anyone in the Army 
inadvertently or unintentionally discloses to Congress?
    Ms. Starzak. Senator, I think the executive branch and the 
Congress do not always agree on the scope of privileges. I 
think that is actually an important thing. I think it is part 
of the separation of powers. We always expect tension between 
the executive branch and Congress on exactly what material can 
be disclosed.
    I think that the important part is comity between the two. 
So my understanding with respect to disclosure is often that 
the executive branch tries to accommodate Congress to the 
maximum extent possible.
    Certainly in the context of the review, the CIA review, the 
committee was provided access to more than 6 million pages. 
Many of them were deliberative in nature. Many of them were 
prepared by attorneys. There was no indication at the time that 
that was inadvertent.
    Senator Cotton. Thank you, Ms. Starzak.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thanks to the witnesses for your service.
    All of you have come up within the kind of Federal family, 
DOD certainly but also intel agencies or DARPA or the DOT 
[Department of Transportation].
    We have just gotten a 2-year budget deal and an NDAA 
[National Defense Authorization Act]. The 2-year budget deal 
also lifts for the second 2-year budget deal in a row to a 
significant extent the BCA [Budget Control Act] caps imposed in 
August of 2011.
    In your current positions, talk about what difference it 
makes to getting the missions done that we have gotten a 2-year 
budget deal that lifts the pressure of the BCA caps. I will 
start with Mr. Conger.
    Mr. Conger. So in my current responsibility set, with 
oversight over installations, energy, and environment issues, I 
think it is most starkly presented in the context of facility 
maintenance at our installations. When we are constrained by 
the budget and we have choices to make as far as where to take 
risk, we take that risk in facility maintenance over readiness 
of operational forces. That is the prudent thing to do. 
Facilities degrade slower than readiness does.
    However, when there is more flexibility provided, more 
budget available, we are able to perform that maintenance. 
Frankly, it is better in the long run to do the maintenance 
upfront. So I think that is probably the starkest place where 
the dynamics change.
    Senator Kaine. Thank you, Mr. Conger.
    Mr. Welby?
    Mr. Welby. Senator, quickly just the ability for stability 
to allow us to plan I think is critical, and I appreciate the 
efforts here to ensure that we have the stability required to 
allow us to plan. Science and technology advancements are made 
over time. It requires a continuity of effort and focus. I 
believe that the stability that the budget agreement offers 
allows us to have that focus at least over the next 2 years.
    Senator Kaine. Ms. Starzak?
    Ms. Starzak. Senator, I agree with those comments. I am not 
an expert in that particular area but I agree.
    Senator Kaine. Mr. Parker?
    Mr. Parker. Senator, I agree with those comments as well. 
In my current position with the Maritime Administration at the 
Department of Transportation, it does help provide stability 
especially for our defense sealift programs like our maritime 
security program. Being able to have that certainty for the 
next couple years definitely helps to ensure that those 
programs can continue to operate.
    Senator Kaine. The chair and ranking on this committee have 
really pushed the notion that we need to provide the certainty. 
I would just like to say to all my colleagues I think what the 
budget deal does is it starts to normalize two things: first, 
2-year budgets instead of a 1-year budget, which gives all of 
you a better planning horizon and enables more stability for 
the reasons you have described; and second, the notion that the 
BCA caps are a discipline, a starting point, a default but not 
a straightjacket. For the second 2-year budget deal in a row, 
we have treated BCA caps in that way, and I think that is very, 
very positive. I am interested in your testimony.
    Ms. Starzak, one of the issues that I am kind of interested 
in is when we do the NDAA, we put a lot of policy into it and a 
lot of it is legal policy. You have been in the General 
Counsel's Office in the DOD and now going in the position with 
the Army, the largest of the service branches. Maybe the issue 
that we have talked about, just to use it as an example, the 
biggest in terms of policy is the set of reforms that we have 
made with respect to military sexual assault. Talk a little bit 
about the challenge of taking those reforms and then 
implementing them throughout the DOD or just within the Army. 
In the particular case of the legal reforms with respect to the 
way we are trying to treat the sexual assault problem, what is 
your assessment of the progress we are making in having those 
reforms percolate down through the entire organization?
    Ms. Starzak. Senator, there have been significant reforms 
in recent years, particularly on the military justice side. I 
believe the Department is currently implementing more than 50 
pieces of legislation addressing military justice and sexual 
assault. They have been challenges, honestly. I think the major 
reforms, the article 32, for example, major reforms to article 
60, which relates to the back end of prosecutions have been 
significant. The Department has--they are doing their best to 
make changes to the manual for courts martial, for example, to 
ensure that there is common understanding of how those will be 
applied. But it is incremental. I think there has been a lot of 
change in a very short period of time. So the Department is 
struggling in some ways to keep up.
    Senator Kaine. Mr. Conger, I was interested in your answer 
to Senator McCain's questions about the audit because I hear 
more recently--you know, coming in and there is not an audit, 
it seems like are you kidding me. But I do not have the 
background or the history of we are going to have an audit for 
year after year after year. Go into this issue of who is now 
under audit. Talk about the four branches, which branches are 
under audit, and how long have they been under audit. So did 
the Marines start before the others?
    Mr. Conger. Yes. The first year that the Marine Corps 
budget was audited was in fiscal year 2012.
    Senator Kaine. Then tell me about the other service 
branches.
    Mr. Conger. The other service branches will be under audit 
for their fiscal year 2015 budget, and that will be the first 
time.
    Senator Kaine. For the first time.
    So the Marines have been under audit since 2012 but have 
not yet gotten a clean audit.
    Mr. Conger. That is right.
    Senator Kaine. You would expect, I guess, that if the other 
service branches go under for the first time in 2015, it is not 
likely that they are going to get a clean audit the first time 
around?
    Mr. Conger. Absolutely.
    Senator Kaine. But the fact was before 2012, nobody was 
even under audit. I guess the process is you put them under 
audit and then you work with the service branches to get them 
to not only be under audit but to start to pass audits.
    Mr. Conger. Yes, sir. It is not a trivial thing to be under 
audit. The auditors expect a certain responsiveness. When they 
ask for documentation for a particular transaction, you are 
supposed to be able to provide that in a reasonable amount of 
time. We just did not have the systems in place to be 
responsive at all.
    Senator Kaine. Is there also then a need for an audit not 
just of the service branches but kind of overall? Again, I am 
not an accountant, but the overall OSD [Office of the Secretary 
of Defense] enterprise. Are there additional audits that really 
need to be done in addition to the four service branches?
    Mr. Conger. So in addition to the four service branches, 
the defense agencies will have their budgets under audit. In 
addition to the budget parts of the audit, there will need to 
be an audit of inventory, the existence and completeness. 
Essentially do you know everything that you have got whether it 
is real property, buildings--and I work on that piece of it 
right now--but also every piece of equipment, every tank, every 
aircraft carrier. Do you have that inventory comprehensive? Do 
you have a value associated with that? Do you know how much 
that book value is of that particular asset? Then documentation 
of all the liabilities of the Department.
    Senator Kaine. I have gone over time, but this is very, 
very critical to the committee. If Senator Manchin was here, he 
would not follow up and just pile on on this. It is so 
important that this be done, and if you can make a major 
advance on this audit issue, then we will put a statue of you 
up out here.
    Mr. Conger. Thank you very much, Senator.
    Senator Reed [presiding]. Senator Tillis, on behalf of the 
chairman.
    Senator Tillis. Thank you, Senator Reed.
    Ms. Starzak, you said something that made me kind of look 
back at the family. You were talking about the tension between 
the branches, and I think that is what you are saying here. If 
you cannot follow the discussion, just understand we are kind 
of doing our fiduciary responsibility for our roles. For the 
youngsters here, we are not trying to be mean.
    But I do have to ask you some questions about Guantanamo 
Bay, and I am going to try to ask them in the context of the 
job that you would be moving into. If the President directed 
the transfer of detainees from Guantanamo Bay to the United 
States, in your professional judgment would the officers of the 
Department of Army be at legal risk of violation of the Anti-
Deficiency Act?
    Ms. Starzak. Senator, it is unclear what role the 
Department of the Army would have in that, and so I think it 
very much depends on that question.
    Senator Tillis. I am not an attorney, but I know attorneys 
move quickly into hypotheticals when you get a response like 
that. So hypothetically, if we had Army officers involved in 
the transfer of Gitmo detainees, do you think that they could 
potentially be in violation of the Anti-Deficiency Act?
    Ms. Starzak. Senator, my understanding is that there are 
appropriations restrictions that address the transfer of 
Guantanamo detainees to the United States. I do not have any 
reason to think the Army officers would necessarily be involved 
in that effort.
    Senator Tillis. But it would seem to me in the hypothetical 
that in a way you could extend your legal judgment should the 
Army be involved to anyone else because it is going to be one 
branch of the services. So I think if, in the hypothetical, 
they were involved, do you believe that they would be in 
violation or potential violation of the Anti-Deficiency Act?
    Ms. Starzak. Senator, Anti-Deficiency Act prohibitions--if 
there is a restriction in an appropriations bill, that 
potentially leads to an Anti-Deficiency Act violation. So if 
something is done inconsistent with a restriction in an 
appropriations act, yes, it would be a violation of the Anti-
Deficiency Act.
    Senator Tillis. Ms. Starzak, thank you for that answer.
    The administration typically invokes article II, section 3 
of the Constitution when they are arguing against the Anti-
Deficiency Act. What is your legal opinion on whether the 
Faithful Execution Clause still applies in a situation where 
there is an affirmative prohibition against the use of funds 
under the law?
    Ms. Starzak. Senator, I think it is very circumstance-
dependent. I think you have to look at exactly what the law is, 
potentially exactly what the constitutional infirmity might be.
    Senator Tillis. What we will do is I would like maybe we 
can either get another hypothetical or get to the specific 
circumstance, and we will submit that for the record for 
follow-up questions. Thank you.
    Mr. Conger, it is amazing to me when you think about the 
Department of Defense and every single private sector company 
that they work with has to do an audit every year, and they 
have done it every year for a long, long time. In fact, it is 
probably a requirement for them to do business with the 
Department of Defense.
    As somebody who came from an audit firm, it is remarkable 
to me that we are having difficulty auditing an organization 
that has a half trillion dollar budget. As somebody--if you 
were thinking about a board of directors and you came back to 
the board every year and said, well, we just cannot get the 
audit working, you know, what is the likelihood that they are 
going to make an investment in an enterprise that I would like 
to make more investments in?
    My question for you is if they fail to meet the audit-ready 
status, if any part of the organization fails to meet the 
audit-ready status by 2017, who specifically should be held 
accountable for that failure?
    Mr. Conger. So it depends on which part of the organization 
is not meeting its responsibilities. People should be held 
accountable for those things that they are responsible for and 
have the authority to be able to execute.
    Senator Tillis. We will submit for the record--I want to 
know the specific person who should lose their job if they fail 
again to produce an audit-ready status in 2017. But instead of 
putting you on the spot here, we will put you on the spot in 
the written questions.
    Senator Tillis. This also relates to Guantanamo Bay. If you 
are confirmed as the Comptroller, would you support the use of 
appropriated funds to execute the transfer of detainees from 
Guantanamo Bay to the United States?
    Mr. Conger. So not having--the simple answer, Senator, is 
that we should be following the provisions in the law. So I 
would expect us to do that. I would rely on legal advice to 
decide exactly how we would apply those funds.
    Senator Tillis. Because I know that we will have the 
opportunities to submit questions, that is another specific 
question that I would like to get your answer to.
    Senator Tillis. I am sensitive to time. Mr. Parker, I just 
have a question for you. I will try and get in under the wire. 
The Marine Corps recently released the results of their major 
research study on combat integration. Are you familiar with 
that report?
    Mr. Parker. I am aware of the report, Senator.
    Senator Tillis. Are you familiar with the Department of the 
Marine Corps? recommendations? Specifically before I ask that 
question, given the time, do you support the decision of 
Secretary Mabus to not allow the Marine Corps? recommendation 
to go before the Secretary of Defense?
    Mr. Parker. I am aware that the Secretary has provided a 
recommendation to the Secretary of Defense, but I am not 
aware----
    Senator Tillis. Do you think it is wise to take the people 
who are on the ground that completed this extensive research to 
not have that be instructive to the Secretary's decision-making 
process?
    Mr. Parker. I am not aware of the Secretary's decision-
making process.
    Senator Tillis. So do you or do you not agree with the 
decision of Secretary Mabus to not allow the Marine Corps? 
recommendation to go forward to the Secretary of Defense?
    Mr. Parker. I am not aware of what Secretary Mabus 
forwarded to the Secretary of Defense. I am not aware of what 
was----
    Senator Tillis. It is my understanding that his 
recommendation is not to allow the Marine Corps? 
recommendations to go to the Secretary of Defense. Do you think 
that is a good or bad idea?
    Mr. Parker. I have not spoken to Secretary Mabus about his 
thought process and about his review of the report.
    Senator Tillis. We will submit that for the record so you 
will have the opportunity to speak with the Secretary.
    Senator Tillis. This is just another hypothetical question. 
If you extend the thought process that I think Secretary Mabus 
may have, do you believe that women should be required to 
register for the draft?
    Mr. Parker. You know, that is a complex question that----
    Senator Tillis. It is actually a pretty simple question if 
you take a look at Secretary Mabus' apparent policy trajectory. 
So that is another one we are--given that I guess it may be 
complex, that will be another one we will submit for the 
record.
    Senator Tillis. Thank you, Mr. Chair.
    Senator Reed. Thank you, Senator Tillis.
    On behalf of Chairman McCain, let me recognize Senator 
King.
    Senator King. Thank you, Mr. Chair.
    Ms. Starzak, I just want to clarify the record on this 
business of the Panetta Review. When did you leave the 
Intelligence Committee?
    Ms. Starzak. Senator, I left in May of 2011.
    Senator King. When was the removal of the document and 
taken to the secure facility here in the Senate?
    Ms. Starzak. Senator, I do not know the exact date. I was 
not on the committee at the time. It was certainly after I left 
the committee.
    Senator King. Late 2013. Does that sound correct?
    Ms. Starzak. That is approximately my understanding from 
media reports.
    Senator King. In other words, you had been gone from the 
committee for 2 years when this action took place.
    Ms. Starzak. Yes, Senator.
    Senator King. You had nothing to do with it whatsoever.
    Ms. Starzak. No, Senator.
    Senator King. Thank you. I just was confused by the prior 
line of questioning. I wanted to clarify that.
    Mr. Welby, one of the issues that we are continually 
talking about here is how to develop technology and how to get 
it into the hands of our military in a timely way. Talk to me 
about how we can accelerate the adoption of technology and 
handle the whole issue of R&D in the Defense Department.
    Mr. Welby. Senator, in the commercial sector, time to 
market is what drives business success. I believe increasingly 
speed is going to be a critical measure for our research and 
development enterprise. I believe that we need to exercise the 
Department's muscles in prototyping and demonstration, the 
tools that allow us to take capabilities that are developed in 
the laboratory, in industry, defense and non-defense, and put 
them into a military context, get operators exposed to those 
ideas to short circuit the long requirements process that we 
have today.
    Senator King. Specifically, do you intend some kind of 
reorganization or restructuring in order to make that happen? 
Just saying it here in this committee is not going to make it 
happen. If Senator Inhofe was here, he would tell you that 
currently it takes 23 years to get a new airframe from 
conception to the tarmac and into flight. That is unacceptable.
    Mr. Welby. Senator, I entirely agree.
    Two things that have happened recently that I have had a 
hand in that have been working to accelerate that process. We 
have shifted one of the four offices in ASDR&E [Assistant 
Secretary of Defense for Research and Engineering] and renamed 
it to focus it on concept prototyping as a way to rapidly move 
technology forward, to accelerate that process of moving 
material from the lab into the field.
    But I think most importantly, we have begun structural 
changes to the way we buy. With this committee's support, the 
Department has refocused its efforts on modular open system 
architectures, on ways that we can plug and play technologies, 
new emerging technologies, into existing systems so we do not 
have to go through that long lifecycle with a tightly 
integrated system. Today if you buy a computer, you can plug 
new cards into it to increase its capability over time. We want 
our military systems to have that same kind of plug and play 
upgradeability to allow us to insert technology faster over 
time.
    Senator King. I would urge you to pursue that aggressively 
because it seems to me that is one of the serious problems. If 
we are going to build, for example, the new Ohio class, it is 
going to have a 40-year life. It has to be designed in such a 
way as to be upgradeable. Otherwise, it is obsolete the day it 
hits the water.
    Mr. Welby. I agree entirely.
    Senator King. The other issue with R&D--we had a very 
interesting hearing here a couple weeks ago about carriers, and 
it became apparent through the discussion that the overruns on 
the new carrier are largely attributable to the fact that we 
are doing R&D while we are building the ship. How do we 
separate R&D from construction of a new class of weapon system?
    Mr. Welby. Senator, I believe that there is a series of 
questions that need to be asked at the start of any 
modernization program, any acquisition program focused on risk 
and particularly the technological risk, the risk associated 
with the technologies, with the manufacturing technology we 
plan to use, with the technology we would use to integrate 
those systems.
    In 2009, this committee established the Deputy Assistant 
Secretary of Defense for Systems Engineering position, the 
position I currently hold, to advise the Under Secretary and 
Secretary on technical risk on programs, and I have been doing 
my best over that period of time to kind of bring that 
conversation forward. I think we have done a much better job 
over the last 5 years in terms of not starting programs without 
a clear understanding of the maturity of the capabilities that 
go into them. That discipline is critical to ensuring that we 
can manage the cost and schedule and reliability of our 
programs.
    Senator King. Well, you have some challenges with Ohio 
class coming, the new strike bomber coming. We are talking 
about some major weapon systems. I hope that you will focus 
very intensively on time and risk. I think those are the two 
factors.
    Mr. Conger, I am out of time, but I just want to join my 
colleagues in saying there is no more important mission from 
the financial point of view than getting this audit system in 
place. I tell people in Maine that we cannot audit the 
Department of Defense, and their jaws drop. We got to fix that.
    Mr. Conger. I understand, Senator.
    Senator King. Yes, sir. Thank you.
    Senator Reed. Thank you, Senator King.
    On behalf of the chairman, Senator Sullivan, please.
    Senator Sullivan. Thank you, Mr. Chair.
    Ms. Starzak, I just want to kind of follow up and give you 
a little more context on the--you have been getting a lot of 
questions on Gitmo [Guantanamo Bay]. I think what it does it 
reflects, obviously, an area of focus that this committee has 
been very interested in, the chairman, Senator Ayotte, all of 
us really. There are provisions in the NDAA. It looks like the 
President is going to sign that.
    But I think you see some of the frustration because it 
actually represents a broader frustration with an 
administration and a White House that sometimes seems to 
blatantly, in a lot of our views, ignore the law and do what 
they think they can do despite the fact that the law or the 
Constitution says otherwise. It has been kind of a theme, and 
it cross well beyond the military issues.
    So let me just ask a couple of questions and even a 
hypothetical or two that relate to this kind of--so the oath of 
office that the members of the military take, that actually all 
of you take--to whom or to what are you pledging an oath to?
    Ms. Starzak. Senator, the oath is to the Constitution of 
the United States.
    Senator Sullivan. Correct. All the members of the military, 
when they take their oath--is it to the same entity?
    Ms. Starzak. Yes, Senator.
    Senator Sullivan. So let us say kind of like what the AG 
[Attorney General] said recently in her testimony that it seems 
pretty clear that under the current law and the law that the 
President is getting ready to sign, the authority to close 
Gitmo resides with the Congress. I am not going to ask you if 
you agree with that or not.
    But let us say you do agree with that. Let us say you look 
and you are a smart lawyer, that you see that you think that is 
correct. It seems like the Attorney General of the United 
States was leaning that way in testimony. It would be good to 
know, for written testimony, if you can provide your answer on 
that, once you look at the NDAA provision. I am not going to 
ask you here right now.
    Senator Sullivan. But let us assume that you look at the 
NDAA provision, you get back to this committee, you say you 
think that the authority to close Gitmo firmly resides with the 
Congress of the United States. Then the White House, regardless 
of that, says they are going to do it anyway. As the chairman 
said, there are some rumblings along those lines. You are the 
General Counsel of the Army. What would you do? What would you 
do? If you came out with a written opinion, maybe it was not 
public, but maybe it was internal, saying you cannot do this, 
Mr. President, and then the White House overrules you and says 
we are doing it anyway, what would you do as the General 
Counsel of the United States Army?
    Ms. Starzak. Senator, I think, if confirmed as Army General 
Counsel, my role would be to mitigate against risk of legal 
implications for the Army. So I would specifically look at the 
legal implications for the Army. I think that would be a 
significant challenge, obviously, if there was a disagreement. 
Ultimately, though, I would point out----
    Senator Sullivan. If you thought the President was 
violating the law or the Constitution and you had in a written 
statement stated that either publicly or to the White House and 
they said, hey, forget it, we are doing it anyway, what would 
you do?
    Ms. Starzak. Senator, like I said, I think that the 
importance would be from my written legal advice to apply to 
the Army. There are internal ways to ensure that your legal 
opinion is heard. Ultimately, though, the lawyer for the 
executive branch is the Department of Justice. So it is really 
up to the Attorney General to make a final determination on 
interpretation of legal provisions or on----
    Senator Sullivan. So you would not resign if you thought 
that the White House was undertaking actions that were clearly 
contrary to the law or the Constitution?
    Ms. Starzak. Senator, I think you would have to look very 
carefully at the circumstances. It is very hard to talk about 
that as a hypothetical issue. It is hard to determine what 
would happen.
    Senator Sullivan. Okay. So just for the record, in terms of 
your written comments, if you could get back to us on--take a 
look at the NDAA provision, take a look at what the Attorney 
General is saying, and if you can directly answer the question, 
does the President of the United States, in light of the NDAA, 
have the authority to unilaterally without any congressional 
authorization shut down Gitmo. Can you get back to us on that?
    Ms. Starzak. Senator, I will look at that.
    Senator Sullivan. Can you get back to us?
    Ms. Starzak. Yes. Yes, Senator.
    Senator Sullivan. Mr. Parker, you know, one of the big 
issues that I know probably recognize--it is an issue that all 
of us are concerned about--are the high rates of suicide among 
military members, among our veterans. I know that you talked 
about in your testimony that you support efforts to encourage 
resilience among sailors and marines and their families. I 
appreciate that. Do you have any specific initiatives or ideas 
to help prevent suicide among Active Duty members or members of 
the Reserve?
    I am a reservist in the Marines. Like a lot of members in 
the military, I have seen the devastation that suicide can have 
with regard to units. Are you familiar with the Clay Hunt 
Suicide Prevention Act that the Congress passed at the 
beginning of this year?
    Mr. Parker. Senator, every suicide is a tragedy. I 
understand that the Department is working very hard to try to 
do what it can to reduce the numbers of suicides. I know there 
are a number of programs in place that it is currently 
administering to really help individuals come forward and seek 
help, to help others to intervene when they see that there is a 
situation that might lead down that road. I know it is 
something that, if confirmed--it is something I will take 
extremely seriously. I will try to continue to implement and 
work through the programs that exist and also see if there are 
other ways to help address this terrible issue. I will be happy 
to work with the committee as well and seeking the committee's 
ideas on how best to address it also.
    Senator Sullivan. Great. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Sullivan.
    On behalf of Chairman McCain, Senator Donnelly, please.
    Senator Donnelly. Thank you, Mr. Chairman.
    To the entire group, to Mr. Parker and to everybody else, 
we have been working on this suicide issue for a long time now, 
for a number of years. Last year we were able to get in the 
NDAA that every servicemember can get a mental health 
assessment. This year's NDAA--I worked together with Joni Ernst 
and Roger Wicker and John Boozman. We were able to get 
additional mental health assistance through what is called the 
care package. For private practitioners, mental health 
professionals, they can get special training to make them 
servicemember-friendly. Physician assistants we have been 
talking about as well. So if you will keep this on the front of 
the burner because we lost over 400 young men and women last 
year to suicide that were Active Duty, Guard, and Reserve 
combined. It is critically important for each one of them. That 
is a brother or a sister, mom or dad, son or daughter who is 
gone and lives have been turned completely upside down.
    So you all work in different areas. You are the 
Comptroller. You are Manpower and Reserve. But it will touch 
each and every one of you each and every day. We appreciate 
your efforts to stay on top of that.
    Mr. Welby, I wanted to ask you specifically in regards to 
your efforts, the importance of DOD's R&D efforts to maintain 
our military's technological edge. As we work to improve 
collaboration across government, academic, and private sector 
enterprises--and this is something that I know is critical to--
well, to our whole country but also to Mr. Heinrich because of 
his home state. How do you view the role and the value of our 
military labs in the long term? To my State too because of the 
labs there.
    Mr. Welby. Of course. Senator, I believe the DOD labs are a 
critical resource for the Department. I believe that they 
represent the key engine by which we map technology from the 
larger academic and private sector into those domains that are 
militarily critical. There are things in our laboratories that 
no one else will do, the key efforts we have in propulsion, in 
energetics, the military-specific IT [Information Technology] 
work that goes on, our biomedical teams. It is an amazing 
caliber of people and talent in our laboratories. I think it is 
critical that we preserve those. I think it is critical that we 
couple them to operational needs. It is critical to connect to 
them to a much larger community globally and in academia to 
ensure that we are getting talent and ideas flowing to our 
laboratories.
    Senator Donnelly. One of the things we have seen recently 
is the sale of IBM's [International Business Machines] 
semiconductor manufacturing business to a foreign-held company. 
It pretty much threw a wrench into our Trusted Foundry Program. 
What I am wondering is where we are with the strategy to manage 
supply chain risk for microelectronics going forward.
    Mr. Welby. Senator, the Department reacted to the concern 
over the sale of the IBM Trusted Foundry to the GlobalFoundries 
group. We have built a series of mitigations to the loss of 
that capability, a near-term mitigation that ensures that the 
trusted facility remains available to the Department for a 
period of time, that allows us to make lifetime buys of 
critical parts that come off that line. It preserves the 
security context in which we ensure trust in that facility at 
least for the near term.
    In the long term, we need to recognize that the 
globalization of the microelectronics sector, microelectronics 
being so critical to our defense technology--it is going to 
require us to adapt the way we do business in microelectronics. 
We are going to need to be smarter about how we ensure the 
integrity of the devices we buy.
    Senator Donnelly. One of the other areas we will probably 
have to continue to increase on is detection of counterfeit and 
similar things. Is it not?
    Mr. Welby. I agree and that is part of our strategy, to 
ensure that the parts that we do buy are in fact trustworthy. 
Our efforts with the Joint Federated Analysis Center, the work 
going on at places like Crane or at Sandia National Labs that 
are supporting this nationwide network that allows us to look 
into electronics and ensure that they do only the things that 
we want them to do is going to be critical to that long-term 
strategy.
    Senator Donnelly. Thank you.
    I am just about out of time, but I want to ask Mr. Conger. 
You know the issue of audits is critical to us. You have heard 
it. You have heard it from other members as well. Do you have 
an audit game plan, a list of metrics, that we can follow 
whether we are on target, whether you have the people you need 
to do the work you need to create this audit culture across the 
board that by this year, we expect to be at this point, by the 
following year, we expect to be at this point so we have a road 
map as opposed to just hoping that we can get somewhere on 
this?
    Mr. Conger. Yes. The Department does have such a plan. It 
provided an update on that plan on Monday I believe to this 
committee, and we can certainly provide that----
    Senator Donnelly. Will you update that if you are in that 
position?
    Mr. Conger. Absolutely. I would be intimately involved in 
updating that plan regularly.
    Senator Donnelly. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you.
    Senator Ayotte, on behalf of Chairman McCain.
    Senator Ayotte. I thank the chair.
    I want to thank all of you for being here and your family 
as well.
    Mr. Conger, I wanted to ask you. You are currently 
performing the duties of Assistant Secretary of Defense for 
Energy, Installations and Environment. In that capacity, you 
are responsible for oversight of DOD's environmental cleanup 
programs. As you know, in 2014 chemicals used in Air Force fire 
fighting foam were discovered in the well water in Portsmouth, 
New Hampshire. This is a very concerning issue for my 
constituents in that area. The so-called PFCs [Perfluorinated 
Compound] have been associated with certain types of cancer. 
Together with Senator Shaheen, I have worked closely with the 
Air Force, the EPA [Environmental Protection Agency], the 
Agency for Toxic Substances and Disease Registry to ensure the 
Air Force cleans up the mess it made and the Federal Government 
provides full support to the local community.
    Mr. Conger, do you agree that it is important for the Air 
Force to clean up the mess that was created in the Portsmouth 
area in the well water and make every effort to notify 
personnel who may have been exposed to these PFCs and provide 
necessary support for the local community?
    Mr. Conger. Senator, I absolutely agree that that is 
important. I have been in regular contact with Miranda 
Ballentine, my Air Force counterpart, who has been working very 
hard on this issue personally and has gone up and, I think, 
done town halls up in the community as well.
    Senator Ayotte. Well, I appreciate that, and when you are 
confirmed for this new position, I would appreciate your 
continued focus and attention on making sure the people of 
Portsmouth are fully supported, people are notified that may 
have been exposed to PFCs, including military personnel, and 
that we do all we can to ensure that obviously the mess is 
cleaned up and that anyone who needs any assistance on the 
health end gets it.
    Mr. Conger. Yes, Senator.
    Senator Ayotte. Thank you very much.
    So, Ms. Starzak, I wanted to just clarify one thing. You 
have been Deputy General Counsel for legislation at the 
Department of Defense since May of 2011. Is that right?
    Ms. Starzak. That is correct, Senator.
    Senator Ayotte. In that capacity since you have been in 
that position, the law has really been the same with regard to 
transfers from Guantanamo. The defense authorization, at least 
since I have been on this committee and since you have been 
Deputy General Counsel, has said that it does prohibit 
transfers from Guantanamo to the United States of America. 
Would you agree with that?
    Ms. Starzak. Senator, yes. With respect to domestic 
transfers, the law has not significantly changed.
    Senator Ayotte. Right. Obviously, there has been changes on 
the international transfers. Also on the military construction 
appropriation, the provision has essentially been the same, 
which is prohibiting resources going toward modification or 
construction in the United States of America?
    Ms. Starzak. That is correct, Senator.
    Senator Ayotte. So I know that Senator Sullivan had asked 
you--we are going to give you some time to review the 
provisions, but you have already been Deputy General Counsel. 
The provisions are what the provisions have been. So I want to 
make sure I understand. Do you believe those provisions are 
constitutional?
    Ms. Starzak. Senator, as I said to Senator McCain, I have 
no reason to doubt the constitutionality of those provisions. 
As you mentioned, the restrictions have been in place for some 
time. We have abided by them to date.
    Senator Ayotte. I think that is what we all really want to 
be assured of. I know as the General Counsel for the Army--the 
reality is I was just in Guantanamo and most of the guards 
there are in the Army. So this is going to be a direct issue 
for you to face as Army General Counsel if the President makes 
the decision that he is not going to follow this law. Would you 
recommend that the President follow the law?
    Ms. Starzak. Senator, my understanding is that the 
Department is--certainly the Department but the administration 
at large is looking to work with Congress on those provisions. 
I think as the Attorney General stated, it is very important to 
follow the law.
    Senator Ayotte. Well, I appreciate that.
    I do have a question. So on May 31st of 2014, there was the 
so-called Taliban Five transfer that occurred. You were Deputy 
General Counsel at that point for legislation. The law at that 
time provided--in clear violation of the law, Congress was not 
given 30 days notification of the transfers of those five very 
dangerous individuals in exchange for one of the prisoners of 
war, Bowe Bergdahl. So I wanted to ask you were you aware of 
that transfer in advance, and did you advise both the Secretary 
of Defense and anyone in the White House of what the law was 
and what the law they were supposed to follow at the time in 
notifying us?
    Ms. Starzak. Senator, I was not involved in the legal 
determination about whether the 30-day notice would apply at 
that time.
    Senator Ayotte. In any way?
    Ms. Starzak. I was not involved in the legal analysis on 
that point.
    Senator Ayotte. Were you aware of the transfer in advance?
    Ms. Starzak. Very shortly in advance, not at the time--the 
day before basically.
    Senator Ayotte. So you did not raise the issue of the law?
    Ms. Starzak. Senator, I think at that point, the Department 
of Justice had issued or had concluded that the 30-day notice 
did not apply in the very specific circumstances of that case 
because it was an attempt to save the life of Sergeant 
Bergdahl.
    Senator Ayotte. Well, it is not how I read the provision. 
But I do appreciate your answer on it. Thank you.
    Senator Reed. Thank you very much, Senator Ayotte.
    Senator Heinrich, please.
    Senator Heinrich. Thank you.
    Mr. Welby, welcome. I have a couple of questions for you. 
First, I wanted to get your thoughts on the direction of 
directed energy in the coming years. I started my career in 
directed energy at Air Force Research Labs, then Philips Labs a 
couple of decades ago let us say. But a lot has changed and in 
some very positive ways in recent years. I think this is an 
area where we are once again really seeing a great focus and 
some real opportunities. So I just wanted to get your thoughts 
on where you see those opportunities and what specific programs 
within directed energy that you would be advocating for in this 
position.
    Mr. Welby. Senator, I have also had a long engagement and 
very effective engagement with the folks out at Kirtland on 
directed energy of course. It has always been one of these 
technologies that is just another 10 years away, but I think it 
is here. I think we now are realizing the opportunities of 
those years of investment in this capability.
    I point to the Navy's deployment on the Ponce of a directed 
energy system as a prototype for close-in defense. The Navy has 
been talking about that demonstration publicly. I think it is 
an example of the near-term viability of directed energy as a 
real game changer for future military operations.
    I am very excited about the ability of solid state lasers 
today to scale in interesting ways, the ability for fiber laser 
technology to really now begin to see its fruition, and quite 
frankly also the technology of solid state bar lasers and what 
is happening in those areas. I think that we are only limited 
by imagination and how it might apply in these technologies. I 
think many of the power challenges, diode brightness challenges 
are now being resolved. So I am very excited about it. I think 
that we have teams that are thinking not only about the 
technology now but thinking about their application, and I 
think that is a very exciting time for directed energy.
    Senator Heinrich. I could not agree more, and I look 
forward to working with you through this transition because, as 
you said, historically it has always been something that is a 
few years away, and now we are seeing real opportunities for 
application. I think it is important that we make that 
transition and start fielding these technologies in ways that 
can really support our warfighters.
    The MILCON [Military Construction] process has done, I 
think, an incredible job of making sure that we adequately 
modernize our bases around the country even at times when 
resources have been relatively limited. I want to ask you about 
the prioritization of the MILCON towards our DOD labs. Are we 
doing enough there to make sure that our labs are actually 
modernizing at the pace to support their missions?
    Mr. Welby. Senator, I recognize the many competing demands 
for the pool of military construction dollars. Often, of 
course, operational requirements challenge the long-term 
investment in our research facilities. I do believe that the 
provisions that allow us to reallocate a certain fraction of 
RDT&E investment into near-term modernization and maintenance 
provides an excellent mechanism to allow laboratory directors 
to cover those most critical needs. But I expect that as we 
start to think about the future of our laboratories, we will be 
identifying opportunities where we will see challenges in terms 
of our facilities and the need to think about the new 
capabilities, new test facilities, new experimental facilities. 
We need to be thinking about how we balance that in the overall 
request.
    Senator Heinrich. Thank you very much.
    I will yield back, Chairman.
    Senator Reed. Well, thank you very much, Senator Heinrich.
    The situation is that Senator McCain will not be returning. 
I have to go to the floor for the beginning of the debate on 
the flood bill. So I am proposing unanimous consent that at the 
conclusion of Senator Gillibrand's testimony--Senator King has 
already an opportunity--excuse me--her questioning that the 
hearing be adjourned. Is there any opposition?
    [No response.]
    Senator Reed. Hearing no opposition, Senator Gillibrand.
    Senator King. Is there not something mischievous we could 
do while McCain is not here?
    [Laughter.]
    Senator Reed. I am trying to keep my title as the most
    boring person in the United States Senate. There is no 
mischief allowed.
    [Laughter.]
    Senator Gillibrand. Yes, sir.
    Ms. Starzak, there was a report issued yesterday, I do not 
know if you saw it. It was published by the Associated Press, 
and it was criticizing the military justice system for 
concealing cases of child sexual abuse. This report found that 
just over half of sex offenders in military prisons were child 
sex offenders, and many of them are serving lesser prison terms 
as a result of lenient plea deals. More needs to be done to 
protect children from sexual predators.
    Additionally, this report highlights the lack of 
transparency in court martial proceedings. For example, 
transcripts and pretrial agreements are only available through 
FOIA [Freedom of Information Act] requests, which is obviously 
not the case for civilian courts.
    What can be done to improve our military justice system in 
trying to punish child sex offenders, and how can we increase 
transparency in the military justice system such as moving it 
to PACER [Public Access to Court Electronic Records] or a 
PACER-like system that we have in the civilian world? Why does 
a military judge have no knowledge of or no ability to impact 
plea deals? Would you support changing that?
    Ms. Starzak. Senator, I am aware of the article. I did read 
it. Obviously, any incidents of child sexual abuse is 
absolutely horrific. I think the Department needs to do all it 
can to ensure that we do not have that problem, that we prevent 
it in the first instance. I think the Department is certainly 
interested in pursuing changes, if necessary, to ensure that.
    With respect to your question on transparency, that is 
something the Department has been looking at very closely over 
the past few months. I anticipate that the Department is likely 
to have a recommendation on that front that will come to 
Congress hopefully in the near future.
    Senator Gillibrand. How do you think we can increase our 
confidence in the military justice system? In the context of 
military sexual assault, you have a 62 percent retaliation rate 
for people who do actually have the courage to come forward and 
report that they have been sexually assaulted. What do you 
think the best approach is to stop retaliation and change the 
climate?
    Ms. Starzak. Senator, I think, unfortunately, retaliation 
is a very difficult problem to tackle. I do not think it is 
entirely military justice-oriented. I think it is very 
important to change climate with respect to retaliation. I 
think one of the main issues that the Department has been 
looking at are ways to get at that problem, and I think 62 
percent is, obviously, completely unacceptable. Victims have to 
have a voice in the process. They have to feel like they can 
come forward. That is critical just for the integrity of the 
military.
    So I certainly share your concerns with respect to that. I 
think the Department has been looking at the retaliation 
problem very closely and hopefully we will come up with some 
recommendations on that issue.
    Senator Gillibrand. Some have used the argument that there 
are insufficient numbers of military lawyers to implement the 
Military Justice Improvement Act. You appear to agree that more 
lawyers are needed in your advance policy questions where you 
said to address emerging requirements, including special victim 
capabilities and special victims counsel, the Army JAG [Judge 
Advocates General] Corps is planning to grow.
    How do you reconcile this plan to grow the JAG Corps to 
address what we all agree is a top concern for the military 
with claims that there are insufficient numbers of judge 
advocates to implement MJIA [Military Justice Improvement Act]?
    Ms. Starzak. Senator, my understanding is that the Military 
Justice Improvement Act requires attorneys at the 2006 level, 
which is very high in the military justice world. So I think 
that there are not the numbers of 2006's necessary. So I do not 
think those two are necessarily inconsistent. I think the 
growth that we are seeing is at the prosecutor level, the 
people who are actually in court level, not at the 2006 level.
    Senator Gillibrand. I think that the bill only says the 
decision-maker has to be 06 or above, which is not dissimilar 
to the current decision-making for non-lawyers who are 
commanders, but the people involved in these cases can be more 
junior.
    But there seems to be a need to professionalize the lawyers 
within the military so that they actually get some specialized 
training. In the civilian world, for example, only very rare 
DAs' [District Attorney] offices have successful records for 
prosecuting rape cases such as the Manhattan DA's office where 
they have had a victims crime unit since the 1970s. Because 
they have specialized, because they have allowed seniority to 
develop amongst their prosecutors, they actually can take some 
of the hardest cases and actually get convictions.
    Have you considered a way to professionalize the 
prosecutor's office within the military so that we can get 
better conviction rates and get better prosecution of these 
very tough cases?
    Ms. Starzak. Senator, one of the changes that we have seen 
in recent years is the implementation of a special victims 
prosecutor program in the Army. So I understand that there is 
now a set of prosecutors in the Army who are more experienced 
who oversee the prosecution of sexual assault cases. They tend 
to be people with significantly more experience in military 
justice, and they also, during the course of their training, do 
a 2-week detail to a DA's office to learn specifically how 
special victims units work. So I think that that is an 
important thing to look at. I think they certainly have been 
developing in that area.
    Senator Gillibrand. So I would like you, for the record, to 
give me some recommendations for how we can professionalize all 
of the services' prosecution units so that we can really make 
the military the state of the art in terms of being able to 
prosecute effectively violent crimes in the military. Thank 
you.
    [The information referred to follows:]

    I agree that it is critical to have a well-trained, professional 
Judge Advocate General (JAG) Corps. I believe that the Army JAG Corps 
has made great strides in recent years in providing specialized 
training to prosecutors, particularly to special victim prosecutors, 
who handle sexual assault and domestic violence cases. Those 
prosecutors conduct training with major civilian special victims units 
and attend an array of courses and symposia annually at both the Army 
JAG Corps' School and at various civilian locations, all focused on 
improving their prosecutorial skills. If confirmed, I will work closely 
with The Judge Advocate General and the Provost Marshal General to 
identify areas where further improvement is possible in the areas of 
investigating and prosecuting crime.

    Chairman McCain [presiding]. Senator King, did you have any 
additional----
    Senator King. No. Thank you.
    Chairman McCain. Good.
    Ms. Starzak, I just had to leave to go to a hearing on a 
Permanent Subcommittee on Investigations, of which I am a 
member, and the issue is child abuse and sexual exploitation. 
Thanks to technology, it has become a much more serious issue. 
So it is not part of the military, but it is an issue that, 
because we are an All-Volunteer Force, spills over into the 
military. So I hope you will have a look at that issue and ways 
that it may apply to the United States Army. It is a very 
unpleasant subject to discuss, and some of us shy away from it. 
But it is a growing problem in America and the world rather 
than one that is getting smaller. So I hope you will take the 
time to look at that and how it relates to the men and women 
who are in the military.
    By the way, on the issue of sexual assaults, I hope you 
will look at a number of the measures that we have already put 
in this year's defense authorization bill, a number of measures 
over the last 2 years. If you think those measures are 
inadequate, we would be more than happy to listen to any 
recommendations that you have to improve. I am very happy with 
the work of particularly Senator Lindsey Graham, who was a JAG 
lawyer for some 33 years, who I think struck the right balance 
in the legislation that we passed. Senator Gillibrand has been 
heavily involved in this issue as well. So we look forward to 
working with you.
    We thank all the witnesses. There may be some follow-up 
questions that hopefully we can get in before the end of the 
week when Congress takes a well deserved rest for a week. We 
will try to--our incompetent and insubordinate staff seems to 
be amused by that comment.
    [Laughter.]
    Chairman McCain. We will try to get--when we get back, 
reporting--your nominations reported out of the committee and 
to the floor of the Senate as soon as we get back. Hopefully we 
can get that done and let you get to work.
    I thank the witnesses. I especially thank all the family 
members who have come here today. I know that it is a moment of 
great pride for them as you were nominated by the President of 
the United States to assume great positions of responsibility 
and authority, so I thank you for your willingness to serve and 
do not think you are going to enjoy coming before this 
committee. Thank you.
    This hearing is adjourned.
    [Whereupon, at 11:03 a.m., the hearing was adjourned.]
    [Prepared questions submitted to Mr. John Conger by 
Chairman McCain prior to the hearing with answers supplied 
follow:]

                        Questions and Responses
                             relationships
    Question. What is your understanding of the relationship between 
the Principal Deputy Under Secretary of Defense (Comptroller) and each 
of the following?
    The Secretary of Defense.
    Answer. The Under Secretary of Defense (Comptroller) is the 
principal assistant and advisor to the Secretary on fiscal and 
budgetary matters. If confirmed, as the Comptroller's principal 
assistant, I will support the Secretary in the entire range of 
responsibilities of the Comptroller that the Secretary may require.
    Question. The Deputy Secretary of Defense.
    Answer. My relationship with the Deputy Secretary of Defense will 
be based on the same role as described above. I have worked closely 
with the Deputy Secretary on installations and environmental issues and 
I would expect to have a similar relationship as Principal Deputy Under 
Secretary of Defense (Comptroller). If confirmed, I would support the 
Deputy Secretary in any matter within the purview of the Comptroller 
that the Deputy Secretary may prescribe.
    Question. The Under Secretary of Defense (Comptroller).
    Answer. The Principal Deputy Under Secretary of Defense 
(Comptroller) is the primary assistant and advisor to the Comptroller. 
If confirmed, I will do everything I can to help manage the Comptroller 
organization and represent the Comptroller when called upon to do so.
    Question. The other Under Secretaries of Defense.
    Answer. If confirmed, I will continue to work closely with the 
Under Secretaries, to carry out the policies and guidance of the 
Secretary and Deputy Secretary.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military advisor to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, I will work closely with the 
Chairman and Vice Chairman of the Joint Chiefs of Staff, both directly 
and more frequently through their Director for Force Structure, 
Resources, and Assessment on any matter pertaining to resourcing our 
forces and military operations and financial management.
    Question. The Secretaries of the Military Departments.
    Answer. If confirmed, I will work closely with the Secretaries of 
the Military Departments on the entire range of resource allocation, 
budget execution, and other financial management issues. More 
frequently, I will work through the Military Department Assistant 
Secretaries for Financial Management. I will ensure that they are aware 
of the President's and the Secretary of Defense's policies and 
priorities and assist them in implementing Departmental policies and 
programs as they may relate to their specific Services.
    Question. The heads of the defense agencies.
    Answer. If confirmed, I will continue to work closely with the 
heads of the defense agencies in any matter pertaining to resources and 
financial management. I will ensure that they are aware of the 
President's and the Secretary of Defense's policies and priorities and 
assist them in implementing Departmental policies and programs as they 
may relate to the specific agency.
    Question. The Assistant Secretaries for Financial Management of the 
Military Departments.
    Answer. The Department's Comptroller and I will work very closely 
with the Assistant Secretaries for Financial Management of the military 
departments in the development and execution of budgetary matters, 
fiscal policy, and initiatives of the President and the Secretary of 
Defense. If confirmed, I will work closely with the Assistant 
Secretaries in contributing to the successful development and 
implementation of effective DOD policies and programs and management of 
the defense budget.
    Question. The General Counsel of the Department of Defense.
    Answer. The Office of the Under Secretary of Defense (Comptroller) 
works closely with the Department's Office of the General Counsel on a 
daily basis. I will, if confirmed, consult and coordinate with the 
General Counsel on all legal matters, and specifically, matters related 
to fiscal and budgetary issues that may have legal implications.
    Question. The Director, Office of Cost Assessment and Program 
Evaluation.
    Answer. The Comptroller and Director of the Office of Cost 
Assessment and Program Evaluations are partners in managing the annual 
Program/Budget Review process and developing the budget and 
accompanying Future Year Defense Program that supports the National 
Security Strategy. If confirmed, I will coordinate and work closely 
with the Director in meeting his or her duties and in providing advice, 
assessments, and options to the Secretary or Deputy Secretary.
    Question. The Deputy Chief Management Officer.
    Answer. If confirmed, I will continue to work to improve the 
management of the Department's complex operations and organization. In 
particular, I will work with the Deputy Chief Management Officer on 
developing and implementing the Secretary's reform agenda as well as 
improving the systems that provide management information, particularly 
financial management information, and the development of appropriate 
metrics in those areas.
    Question. The Director for Force Structure, Resources, and 
Assessment on the Joint Staff.
    Answer. If confirmed, I will work with the Director for Force 
Structure, Resources, and Assessment on the Joint Staff in the 
management of the Program Budget Review process and all other matters 
relating to resourcing our forces and military operations.
    Question. The Director, Office of Management and Budget.
    Answer. If confirmed, I will assist the Comptroller in managing the 
near near-daily interaction with the Office of Management and Budget on 
the preparation and execution of the Department's budgets, and the 
advancement of both the Administration's and the Department's 
management priorities.
    Question. The Comptroller General.
    Answer. If confirmed, I will continue to review the recommendations 
of the Comptroller General and the Government Accountability Office 
regarding DOD financial matters and, as required, support actions to 
improve the Department's processes.
       duties of the principal deputy under secretary of defense 
                             (comptroller).
    Question. The Principal Deputy Under Secretary of Defense 
(Comptroller) assists the Under Secretary of Defense (Comptroller) in 
the performance of his or her duties and acts for him when the Under 
Secretary is absent. The duties of the Comptroller of the Department of 
Defense are set forth in section 135 of title 10, United States Code, 
and in DOD Directive 5118.3. Among the duties prescribed in statute are 
advising and assisting the Secretary of Defense in supervising and 
directing the preparation of budget estimates of the Department of 
Defense, establishing and supervising Department of Defense accounting 
policies, and supervising the expenditure of Department of Defense 
funds.
    What background and experience do you possess that qualifies you to 
perform the duties of the Principal Deputy Under Secretary of Defense 
(Comptroller)?
    Answer. I have more than 20 years of experience working on national 
security issues, both as a congressional staffer and in senior Pentagon 
positions. In each of these roles, I have worked to shape the defense 
budget, and each has provided valuable experience that I will leverage, 
if confirmed, to assist the USD (Comptroller) in developing and 
managing that budget.
    I spent most of my time as a congressional staffer working for a 
senior member of the House Appropriations and Budget Committees, where 
I not only developed a deep understanding of the congressional 
processes used to construct the annual budget and appropriations bills, 
but the underlying defense policies we were trying to affect, from 
military construction to quality of life to acquisition programs.
    As a senior leader in the Pentagon for most of the last 6 years, I 
have overseen the DOD's $850 billion real property portfolio of more 
than 500 installations (encompassing 500,000 buildings and structures) 
and the roughly $40 billion annual budget for military construction, 
family housing, facilities sustainment, base operations, environment, 
and energy programs. In this role I have directly managed an 
organization of about 200 civilian, military and contractor employees, 
and an annual program budget of approximately $400 million.
    Moreover, in my role as Senior Real Property Official for DOD, I 
oversee the audit readiness efforts the Services and Agencies undertake 
to assert existence and completeness for real property and our work to 
achieve proper valuation of our real property assets and environmental 
liabilities. I participate in the DOD's Financial Improvement and Audit 
Readiness (FIAR) meetings chaired by the USD (Comptroller) and the 
Deputy Chief Management Officer, and I chair my own Functional Business 
Governance Board that I use to drive the use of standards and monitor 
progress toward auditability.
    Question. Describe how the Office of the Secretary of Defense for 
Comptroller should prioritize both its comptroller and financial 
management duties.
    Answer. The comptroller and the financial management duties are 
complementary priorities--two parts of a whole. I will assist the 
Comptroller in advising and assisting the Secretary in the preparation 
of the budget and will also assist the Comptroller in executing his 
fiduciary responsibility to supervise the execution of the funds 
enacted by Congress.
    Question. Describe your knowledge of accounting and financial 
management principles and how you have applied this knowledge in 
previous positions.
    Answer. I am not an accountant by education and training but in my 
current capacity, I have worked closely with Comptroller personnel and 
have acquired a working knowledge in the practical application of 
accounting and auditing standards as they apply to my functional 
responsibilities for installations and environment. I am a firm 
believer that our financial stewardship responsibilities involve all of 
the functional business areas. If confirmed, I intend to continue my 
practical education and encourage my peers to do the same.
    In addition, in my experience as a congressional staffer and as a 
senior manager in the DOD, I have become intimately familiar with the 
account structure, processes, and rules associated with the DOD budget, 
its associated appropriations and individual line items.
    In my Pentagon role, I have been a resource manager for 
approximately $400 million in annual spending and provided oversight 
for $40 billion in accounts covering military construction, family 
housing, facilities sustainment, base operations, environment, and 
energy programs.
    In each of these roles, I had the responsibility to review 
investment priorities, identify offsets for higher priority actions, 
and make recommendations to my leadership based on financial and 
accounting information as well as other factors.
    Question. Do the indirect relationships between the DOD CFO and the 
service CFOs hinder the ability to effectively direct and coordinate 
efforts to improve financial management in the Department of Defense?
    Answer. I do not believe so. There are indirect relationships 
across multiple DOD portfolios between OSD principals and their Service 
counterparts--not just financial management. Ultimately, the authority 
vested in the Secretary of Defense and the Deputy Secretary of Defense 
gives the Department the appropriate ability to provide direction and 
policy guidance to the Services. This principle applies as much to 
improving financial management as to other aspects of managing the 
Department.
    Question. Do you believe the structure of the dual hatted 
Comptroller/CFO position allows for the appropriate level of attention 
to both functions?
    Answer. I do. Moreover, budget and execution are closely related, 
especially when resources--whether slated for the future or current--
are limited. Knowledge of one supports the other, both prospectively 
and retrospectively. The synergistic relationship between the two 
enhances management and oversight by the Under Secretary over each of 
these two functions.
                             defense budget
    Question. Given the growing strategic threats the United States 
faces with respect to a resurgent Russia, North Korean cyberattacks, 
and the rise of the Islamic State, how does the current level of 
defense spending adequately confront these challenges?
    Answer. The FY 2016 budget request provides for the necessary 
resources to execute the nation's defense strategy with manageable risk 
and was developed with the identified challenges in mind, though as 
Secretary Carter testified earlier this year, it requires us to accept 
elevated risk in some areas. I have seen that in the installations 
portfolio as we accept lower funding in facilities sustainment, 
ultimately pushing larger repair bills into the future.
    Ultimately, this budget balances the need to maintain a ready force 
to confront today's challenges with the need to ensure we can continue 
to meet challenges into the future. While readiness must take top 
priority, we must ensure the Department's investment accounts are 
funded to sustain, recapitalize, and improve our capabilities, so we 
can meet future challenges.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the Principal Deputy Under Secretary of Defense (Comptroller)/Chief 
Financial Officer?
    Answer. The USD (Comptroller)'s ongoing challenge--and therefore 
the PDUSD's as well--is to develop credible, defensible defense budgets 
that balance multiple priorities and requirements, ensuring our ability 
to meet the challenges posed by current threats while investing in our 
future capabilities so we can continue to meet the Nation's security 
needs into the future. These resource decisions directly impact the 
ability of our Armed Forces to continue to fulfill their missions.
    At the same time, the USD (Comptroller) has a critical role in 
providing the justification to Congress why these funds are critical to 
meeting our strategy, and why the Budget Control Act spending levels 
are insufficient. This office has the unique capability and 
responsibility to associate resource decisions with their real world 
impacts to better inform Congress as it deliberates.
    The next 2 years will also be pivotal as the Department strives to 
achieve audit readiness by 2017. The Comptroller and his Principal 
Deputy have indispensable leadership roles in both helping the 
Department to meet this goal and driving them to prioritize it. I 
recognize the importance of this effort in achieving the credibility 
necessary to secure the increased resource levels referenced above.
    Lastly, we need to build the financial management workforce of the 
future. I am familiar with the substantial amount of effort that has 
gone into building a training program for the financial workforce, and 
I recognize continued momentum will take effort. This is particularly 
important as the Department strives toward auditability, recognizing 
that will need to be a sustained effort, not simply a dash toward 2017.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. This is a team effort. If confirmed, I will work closely 
with other senior officials in DOD, our Comptroller staff, the Military 
Departments and Defense agencies, the Office of Management and Budget, 
and Congress to develop policies to meet these challenges.
    I will also provide my commitment, leadership, and support to our 
staff in the immediate office of the Comptroller, the Defense Finance 
and Accounting Service, and the Defense Contract Audit Agency in 
meeting these priorities.
    I will ensure that we maintain our progress on the centerpiece of 
our financial management improvement efforts, which is achieving 
auditable financial statements.
    In building the workforce of the future, we need to maintain and 
enhance the quality of our financial management workforce. It is 
important to continue the commitment made in implementing the course-
based certification program for Defense financial managers that was 
authorized by Congress in the National Defense Authorization Act for FY 
2012.
                          financial management
    Question. What is your understanding and assessment of the efforts 
and progress that have been made in DOD since 1999 toward the goal of 
being able to produce a clean audit?
    Answer. DOD has made significant progress in the last 6 years 
towards achieving auditable financial statements. Since 2009, the 
Department has established a clear set of priorities that have 
translated this important initiative into an enterprise-wide effort, 
involving all functional communities with strong senior leader support. 
However, the size, scope, and complexity of the Defense Enterprise 
continue to pose challenges. Now, there is an increased understanding 
of what is required and a commitment to succeed.
    I understand there is a substantial amount of work ongoing, 
including efforts to address some of the most challenging problems. 
Under the leadership of Mike McCord, the current Comptroller, the 
Department is already executing an updated strategy to achieve 
auditable statements on its Statement of Budgetary Resources through 
audits of successive Schedules of Budgetary Activity.
    As you know, audit requirements involve far more than budget 
information, and I have been watching efforts on real property more 
closely than others. Existence and completeness of our real property 
inventory is a requirement for audit, for example. In this area, 
inventories and controls are significantly stronger than they once 
were, but there is schedule risk. The Navy, for example, will only 
assert for existence and completeness in 2016, which leaves little 
margin for any schedule slips that may happen due to unforeseen 
circumstances.
    Question. In your view, what are the main impediments within the 
Department that prevent it from achieving the 2010 National Defense 
Authorization Act goal of ensuring the financial statements of the 
Department of Defense are validated as ready for audit by not later 
than September 30, 2017?
    Answer. In my view, the main impediments involve change management. 
We are trying to review and transform where necessary, long standing 
business processes that have been supporting our missions for many 
years, but are NOT always sufficient to meet financial audit 
requirements. In some cases, we have also implemented modern, more 
compliant systems to facilitate the necessary changes while also 
helping to sustain them. Changing a huge, global enterprise in a 
resource constrained, dynamic national security environment is a truly 
daunting task. But the Department is committed to making these changes 
and becoming ready for audit. If confirmed, I'm prepared to continue to 
be a part of leading this change.
    Question. What is your understanding and assessment of the recent 
withdrawal of the Marine Corps' fiscal year 2012 clean audit opinion 
for its Statement of Budgetary Resources? In your view, what are the 
implications of this withdrawal of the opinion for the Department of 
Defense?
    Answer. My understanding of the withdrawal of the Marine Corps 2012 
Opinion is that it occurred because of an audit finding that occurred 
while the Marine Corps' auditors were completing their work. Because 
they were working under contractual and time constraints and didn't 
have time to determine the actual impact on their opinion, there was no 
practical way for them to investigate the issue before they had to 
close out their work. The OIG--who issued the opinion for FY 2012 and 
who administers the Marine Corps audit contract--were also concerned 
that the uncertainty that this situation created required them to 
withdraw their opinion. Until there is a more thorough review, we will 
not know the full implications.
    While I recognize this is discouraging for a Marine Corps team that 
has been such a leader in the Department on audit readiness, it 
represents great value for the Department if we apply the lessons we 
learn here to the larger audits in advance.
    Question. What role do you expect to play, if confirmed, in the 
Department's efforts to achieve a clean audit opinion?
    Answer. If confirmed, I will work with Under Secretary Mike McCord 
and other senior leaders in the Department to champion DOD's efforts at 
becoming audit ready and eventually achieving a clean audit opinion. 
``Championing'' can take many forms, including change management, 
attaining resources, and--most certainly--promoting and sustaining this 
as a high priority for the Department.
    Question. How will your efforts differ, if any, from previous 
initiatives that have been unsuccessful?
    Answer. My efforts will be in support of our current game plan 
that, as I mentioned before, is producing positive results. Previous 
efforts were not successful because they lacked senior leadership 
support and were limited to a narrow functional group. That has 
changed. If confirmed, I will be joining the Comptroller team at a good 
time as we are turning our attention to the balance sheet--assets and 
liabilities. My work on existence and completeness of real property and 
environmental liabilities should allow me to immediately contribute to 
this initiative.
    Question. What is your assessment of the resources and time that 
will be required by the Department of Defense to achieve independent 
audit readiness, to obtain a modified adverse or qualified opinion, and 
to obtain an unmodified ``clean'' opinion?
    Answer. My assessment is that achieving audit readiness by the 
currently required statutory date is a very ambitious goal that will 
likely require some amount of additional resources. The experience of 
non-defense, cabinet level agencies that have successfully followed 
this path indicates that it requires an incremental investment to get 
ready for, and actually support this new kind of audit. Despite the 
cost, this investment represents a necessary, positive change.
    Once we begin, this audit regimen will continue each year, and 
based on other agencies (e.g., Homeland Security), it will take a 
number of years to actually begin to achieve positive audit opinions. 
Getting into audit is critical though and we are just beginning that 
process in the largest parts of DOD. The budgetary, manpower, and 
systemic resources DOD commits toward audit must be appropriate and, 
most importantly, sustained, in order to sustain the positive progress 
needed to achieve and then maintain a clean opinion.
    Question. What incentives or authorities do you think would help 
the Services and Defense Agencies to prioritize activities that would 
accelerate the process of achieving a ``clean'' opinion?
    Answer. I believe the Military Departments and Defense Agencies 
currently have the needed incentives and authorities to achieve a clean 
audit opinion. However, managing audit preparations alongside other 
competing mission requirements has and always will be a challenge, 
given scarce resources. I also do not know that accelerating 
preparations or audits will yield better results. The Services already 
have audits underway and I understand that the Fourth Estate is 
accelerating its preparatory timelines. I think that providing budget 
stability and sustained, constructive oversight will help us maintain 
focus on this important goal.
                           gao high risk list
    Question. What is your understanding and assessment of the 
Government Accountability Office's (GAO) placement of Defense Financial 
Management on its ``High Risk List'' since 1995?
    Answer. Given the Department's size, complexity, and lack of 
auditable financial statements, the GAO's consistent placement of DOD 
Financial Management on its High Risk List is fair. Without passing an 
audit, one cannot know for certain that Defense decisions are made 
based on timely and accurate data, and that appropriate controls are in 
place to prevent fraud, waste and abuse of resources.
    The GAO's most recent report indicates that while leadership 
commitment, capacity, and our action plan objectives are partially met, 
the DOD has yet to show demonstrated progress and an ability to monitor 
that progress. These things, among others, prevent the Department from 
getting off the High Risk List. These kinds of constructive criticism 
from the GAO have proven useful in setting FIAR strategy, seeking 
resources, and implementing audit enablers, such as enterprise resource 
planning systems.
    Question. If confirmed, how will you work to have DOD Financial 
Management removed from the High Risk List?
    Answer. The GAO has a prescribed process for removing a subject 
from the High Risk List that involves satisfying them on five criteria. 
Given GAO's assessment on the Department's Leadership Commitment, 
Capacity, and Action Plan, the way to convince GAO to remove DOD 
Financial Management from the High Risk List appears to be to 
Demonstrate Progress and an ability to Monitor that progress. We are 
certainly on the verge of demonstrating progress as part of our audit 
readiness efforts, and it would seem that removal from the High Risk 
List will happen naturally as the audit readiness effort proceeds.
    Question. In addition to Defense Financial Management, the GAO 
identifies Defense Contract Management, Supply Chain Management, and 
other areas where the obligation and tracking of taxpayer dollars is 
also ``High Risk''. Why do you believe the GAO consistently finds 
problems with DOD in these areas involving the spending of taxpayer 
dollars?
    Answer. In my judgment, each of these functional areas reflects a 
culture that is mission oriented and often focuses on results without 
adequately linking those results to costs and process controls. Our 
size, our de-centralized organizational construct and functionally 
stove-piped, non-standard way of doing business result in weaknesses in 
processes that result in problems that are often highlighted in audits. 
Frequent turnover of personnel only perpetuates these problems. I can 
point to changes in systems and processes, as well as initiatives such 
as FIAR that are beginning to address the root cause of some of these 
problems. I'm encouraged that GAO's last report highlighted some of 
these changes and provided us credit for them, while also pointing out 
that we have much more work to do.
                        chief management officer
    Question. What is your understanding and assessment of the Chief 
Management Officer and Deputy Chief Management Officer's past efforts 
to improve the business operations of the Department of Defense?
    Answer. The Department formally established the DCMO on October 17, 
2008 with the responsibility to better synchronize, integrate, and 
coordinate the business operations of DOD. Additionally, the Department 
gave the DCMO specific duties in strategic planning, performance 
management, process improvement, and defense business systems 
oversight. Since that time, the DCMO's responsibilities have continued 
to grow.
    Most recently, on December 4, 2013, former Secretary of Defense 
Chuck Hagel announced an organizational review that directed the 
strengthening of the DCMO to better coordinate and integrate DOD's 
business affairs by creating a leadership focused on management 
concerns and creating a single management, business oversight, and 
administrative organization within OSD and across DOD. This was done by 
realigning the Director of Administration and Management (DA&M) and its 
components under the DCMO, and realigning the oversight of business 
systems from DCMO to the DOD CIO. The new DCMO is focused on four 
activities: management, policy, and analysis; administration; planning, 
performance, and integration; and compliance and open government. The 
DCMO reorganization, with its refocused mission, was completed on 
October 1, 2014.
    I believe the current DCMO is properly organized, with the right 
authorities, to continue to improve the management and business 
operations of the DOD.
    Question. Are there responsibilities performed by the Comptroller 
that you believe should be reassigned to the Chief Management Officer 
or the Deputy Chief Management Officer of the Department of Defense?
    Answer. To the best of my knowledge, I am not aware of any 
responsibilities that should be realigned from Comptroller to the Chief 
Management Officer or the Deputy Chief Management Officer. If 
confirmed, I will reassess the duties and responsibilities assigned to 
both offices and will offer my advice to the Comptroller.
    Question. Are there responsibilities performed by the Chief 
Management Officer that you believe should be performed by the 
Comptroller?
    Answer. To the best of my knowledge, I am not aware of any 
responsibilities that should be realigned from the Chief Management 
Officer to the Comptroller. If confirmed, I will reassess the duties 
and responsibilities assigned to both offices and will offer my advice 
to the Comptroller.
              authorization for national defense programs
    Question. Do you believe that an authorization pursuant to section 
114 of title 10, U.S. Code, is necessary before funds for operation and 
maintenance, procurement, research and development, and military 
construction may be made available for obligation by the Department of 
Defense?
    Answer. I believe the Department has an obligation to follow the 
law, to include fiscal law that governs authority to spend funds.
                    funding for military operations
    Question. As long ago as 1995, the Department of Defense has paid 
for the cost of ongoing military operations through supplemental 
appropriations. Current law requires that DOD include in its annual 
budget submission a request for those incremental increased costs 
associated with ongoing military operations, now called Overseas 
Contingency Operations (OCO).
    What is your understanding and assessment of the history, current, 
and future use of OCO appropriations to fund the cost of ongoing 
military operations?
    Answer. The key is providing sufficient resources to support our 
deployed troops. The use of the Overseas Contingency Operations (OCO) 
budget has successfully funded operations since FY 2010. The amount 
requested in the OCO budget has decreased significantly. Given the 
uncertainty of the current world situation, it is important that we 
retain some budget flexibility to deal with emergent needs and that we 
be cautious about prematurely eliminating OCO funding. If confirmed, I 
would look forward to working with the oversight committees to review 
the use of a separate OCO budget or whether other funding mechanisms 
could be utilized. If confirmed, I will ensure that the leadership is 
aware of all statutory requirements to include the OCO funding levels 
for FY 2016 and FY 2017 included in the Bipartisan Budget Act of 2015
    Question. Uniformed leaders in DOD have testified to Congress that 
constraints and limitations on the execution of OCO appropriations make 
it difficult to exercise necessary flexibility when needed to meet a 
wider than operations range of military requirements.
    What is your understanding and assessment of the statutory and 
regulatory constraints or limitations on the execution of OCO 
appropriations?
    Answer. I am not aware of any unreasonable statutory or regulatory 
limitations on the use of OCO funds. If confirmed, I will make a point 
to work with the unformed leadership to identify major impediments and 
challenges in executing OCO funds and ensure that we have adequate 
funding tools to continue supporting our warfighters.
    Question. If confirmed, what changes, if any, would you propose to 
law, policy, or regulation that govern the execution of OCO?
    Answer. I am not in an informed position to recommend changes. If 
confirmed, I will review the current body of law, policy and 
regulations governing the execution of OCO funds and seek improvement 
as necessary.
                 tracking and timeliness of dod reports
    Question. The responsibility for tracking Congressionally-required 
reports largely is the responsibility of the Under Secretary of Defense 
(Comptroller).
    Based on your experience in both the legislative and executive 
branches, how do you evaluate DOD's current system for tracking and 
evaluating the sufficiency of reports required by Congress, and 
delivering required reports in a timely fashion?
    Answer. During my time in the Pentagon, I have worked closely with 
the Office of the Assistant Secretary of Defense for Legislative 
Affairs to identify and track reporting requirements. The established 
system works well and in my experience, the requirements are accurately 
captured, assigned and tracked. Coordination on sufficiency always 
includes a review by the Office of General Counsel to ensure we are 
meeting the requirements in law.
    I believe the Department makes every effort to prepare 
congressional reports in a timely manner. Often reports request data 
that require unique data gathering processes that make it difficult to 
meet the established deadline. There is always room for improvement and 
if confirmed, I will work to ensure the reports assigned to the 
Comptroller's office are timely and responsive.
    Question. If confirmed, would you support efforts on behalf of the 
Department to review current reporting requirements and, where 
appropriate, recommend elimination of reporting requirements?
    Answer. Yes
    Question. If so, how would you intend to implement such a plan in 
order to achieve efficiencies?
    Answer. Secretary Carter has already challenged the Department to 
seek reform proposals and efficiencies in all our business processes. A 
review of current congressional reporting requirements falls within 
that direction. If confirmed, I would work with my colleagues across 
the Department, particularly the Assistant Secretary of Defense for 
Legislative Affairs, to identify reports that may no longer be needed 
and work with the oversight committees to eliminate those reports that 
no longer serve any purpose.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this Committee and other appropriate committees of the Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
Committee, or designated members of this Committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Principal Deputy Under 
Secretary of Defense (Comptroller)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this Committee and 
its staff and other appropriate Committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis of any good faith delay or denial in providing such 
documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Kelly Ayotte
                      department of defense audit
    1. Senator Ayotte. Mr. Conger, do you believe that the Department 
of Defense is on track to achieve full audit readiness by September 30, 
2017?
    Mr. Conger. I believe that we have established a credible plan that 
will position us to achieve full audit readiness by September 30, 2017. 
It is also an ambitious plan and will require significant leadership 
focus over the next 2 years. It will require change management and 
execution throughout all business areas--not just financial management. 
If confirmed, I will actively support our CFO and DCMO in monitoring 
execution of this plan.

    2. Senator Ayotte. Mr. Conger, what major tasks remain before 
reaching full audit readiness, and what is the primary obstacle to the 
September 30, 2017 deadline?
    Mr. Conger. Three areas present particularly challenging obstacles. 
Feedback from our recent budgetary audits indicates ability to provide 
auditors complete transaction universes with adequate supporting 
documentation is one. The second and related area involves business 
systems controls and the sheer number of systems that need to be 
reconciled. Finally, the processes used to acquire assets will need to 
be changed to capture the information necessary to properly value these 
assets. Our current risk-based plans address each of these. If 
confirmed, I will actively participate in risk mitigation relating to 
these challenges.

    3. Senator Ayotte. Mr. Conger, do you agree that full audit 
readiness is not just a state to be achieved, but one that we must 
maintain perpetually?
    Mr. Conger. I do agree that full audit readiness, along with 
ongoing annual audits will establish an improved state of business 
discipline that must be obtained. The only thing more important in 
earning positive audit opinions is keeping them so sustainment of our 
audit ready state is always an important consideration.

    4. Senator Ayotte. Mr. Conger, what key metrics will you monitor as 
audits are carried out?
    Mr. Conger. We will measure progress using a three-pronged 
approach:

    1) We have established interim milestones for each critical 
capability required for full financial statements auditability, such as 
policy decisions and process changes needed to value assets. I will 
closely monitor progress against each of these milestones on the 
critical path.
    2) We have established key metrics that focus on our critical 
capabilities relating to our audit plan. For example, we will track the 
number of successful system reconciliations and the reduction in 
unsupported journal vouchers as a way of monitoring our remediation 
efforts.
    3) We will also prioritize our SBA audit findings and begin to 
track status of remediation.

    5. Senator Ayotte. Mr. Conger, do you commit to making audit 
readiness a top priority if you are confirmed?
    Mr. Conger. I do. It is clearly already a DOD-wide priority. If 
confirmed, I am committed to continuing to support it in this new role.

    6. Senator Ayotte. Mr. Conger, once confirmed, will you proactively 
keep my office informed regarding the Department of Defense audit?
    Mr. Conger. I will definitely keep your office informed of our 
progress on the audit. With so many competing priorities, we 
particularly value the interest and support from members of our 
oversight committees. The Comptroller staff routinely provides updates 
to your staff, either as requested or pursuant to release of our semi-
annual reports. If confirmed, I will ensure that you will continue to 
be kept informed of our progress on this initiative.
                                 ______
                                 
               Questions Submitted by Senator Thom Tillis
                             qualifications
    7. Senator Tillis. Mr. Conger, What are your qualifications to 
serve as the Deputy Chief Financial Officer of the world's largest and 
most expensive bureaucracy at a time when it cannot account for how it 
spends hundreds of billions of taxpayer dollars?
    Mr. Conger. I have more than twenty years of experience working on 
national security issues, both as a Congressional staffer and in senior 
Pentagon positions. In each of these roles I have worked to shape the 
defense budget, and each has provided valuable experience that I will 
leverage, if confirmed, to assist the USD (Comptroller) in developing 
and managing that budget.
    I spent most of my time as a Congressional staffer working for a 
senior member of the House Appropriations and Budget Committees, where 
I not only developed a deep understanding of the Congressional 
processes used to construct the annual budget and appropriations bills, 
but the underlying defense policies we were trying to affect, from 
military construction to quality of life to acquisition programs.
    As a senior leader in the Pentagon for most of the last 6 years, I 
have overseen the DOD's $850 billion real property portfolio of more 
than 500 installations (encompassing 500,000 buildings and structures) 
and the roughly $40 billion annual budget for military construction, 
family housing, facilities sustainment, base operations, environment, 
and energy programs. In this role I have directly managed an 
organization of about 200 civilian, military and contractor employees, 
and an annual program budget of approximately $400 million.
    Moreover, in my role as Senior Real Property Official for DOD, I 
oversee the audit readiness efforts the Services and Agencies undertake 
to assert existence and completeness for real property and our work to 
achieve proper valuation of our real property assets and environmental 
liabilities. I participate in the DOD's Financial Improvement and Audit 
Readiness (FIAR) meetings chaired by the USD (Comptroller) and the 
Deputy Chief Management Officer, and I chair my own Functional Business 
Governance Board that I use to drive the use of standards and monitor 
progress toward auditability.
    If confirmed to be Principal Deputy Under Secretary of Defense 
(Comptroller), I am committed to work with the USD (Comptroller) to 
ensure the Department meets its goal to be audit ready by 2017.
                                 ______
                                 
             Questions Submitted by Senator Mazie K. Hirono
                  working to achieve dod auditability
    8. Senator Hirono. Mr. Conger, DOD's financial management has been 
on GAO's High Risk List since 1995 because of pervasive deficiencies in 
its financial and related business management systems, processes, and 
controls. GAO has stated that, ``DOD's risk management policies 
associated with preparing auditable financial statements are not in 
accordance with widely recognized guiding principles for effective risk 
management. And, DOD continues to experience impediments to deploying 
its planned modern business systems on schedule and with the intended 
capabilities.'' If confirmed, what steps do you intend to take in order 
to ensure that each service effectively manages its risk, deploys 
capable business systems in a timely manner, and meets its auditability 
deadline?
    Mr. Conger. I firmly believe we are on the right track and while we 
still have work ahead, we are making progress. The most recent GAO High 
Risk update acknowledges our progress and notes that the Department 
needs additional emphasis on monitoring progress in measurable way. In 
the Department's most recent audit readiness status report, a risk-
based approach is being employed to address deficiencies identified in 
ongoing budgetary audits, as well as in the new areas that relate to 
the full financial statements that will be audited beginning in FY 
2018. If confirmed, I plan to actively participate in the governance 
and oversight process, ensuring that we are positioned to meet our 
auditability deadlines. This oversight also will provide specific 
emphasis on business systems controls that are critical to sustaining a 
state of audit readiness.
                                 ______
                                 
    [The nomination reference of Mr. John Conger follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     March 4, 2015.
    Ordered, That the following nomination be referred to the 
Committee on Armed Services:
    John Conger, of Maryland, to be a Principal Deputy Under 
Secretary of Defense, vice Michael J. McCord, resigned.
                                ------                                

    [The biographical sketch of Mr. John Conger, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Mr. John Conger
Education:
    <bullet>  Massachusetts Institute of Technology
      <bullet>  1987-1993
      <bullet>  M.S. Aeronautics and Astronautics (1993)
      <bullet>  B.S. Aeronautics and Astronautics (1991)

    <bullet> International Space University
      <bullet>  Summer 1995
      <bullet>  Certificate of Completion (1995)

    <bullet> George Washington University
      <bullet>  1994-1996
      <bullet>  M.A. Science, Technology and Public Policy (1996)
Employment Record:
    <bullet> Department of Defense

      <bullet>  Performing the Duties of the Assistant Secretary of 
Defense (Energy, Installations & Environment)
      <bullet>  December 2014-Present

      <bullet>  Acting Deputy Under Secretary of Defense (Installations 
& Environment)
      <bullet>  September 2012-December 2014

      <bullet>  Assistant Deputy Under Secretary of Defense 
(Installations & Environment)
      <bullet>  June 2009-Present

    <bullet> Office of Congressman Chet Edwards

      <bullet>  Associate Appropriations Committee Staff
      <bullet>  January 2007-June 2009

      <bullet>  Legislative Director
      <bullet>  January 2001-June 2009

    <bullet>  House International Relations Committee
      <bullet>  Professional Staff
      <bullet>  August 2000-January 2001

    <bullet>  Office of Congressman Sam Gejdenson
      <bullet>  Legislative Assistant
      <bullet>  January 1999-August 2000

    <bullet>  Office of Congresswoman Jane Harman
      <bullet>  Legislative Assistant
      <bullet>  October 1997-January 1999

    <bullet>  Adroit Systems Inc.
      <bullet>  Legislative Affairs Analyst
      <bullet>  October 1995-October 1997

      <bullet>  Airborne Reconnaissance Systems Analyst
      <bullet>  June 1993-October 1995
Honors and Awards:
    <bullet>  Military Order of the Purple Heart Special Recognition 
Award (2008)
    <bullet>  National Association of State Approving Agencies 
Outstanding Support Award (2008)
    <bullet>  Military Officers Association of America Paul W. Arcari 
Award (2007)
    <bullet>  Military Coalition Freedom Award (2006)
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Mr. John 
Conger in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John Charles Conger.

    2. Position to which nominated:
    Principal Deputy Under Secretary of Defense (Comptroller).

    3. Date of nomination:
    March 4, 2015.

    4. Address: (List current place of residence and office addresses.)
    [The nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 4, 1969, Los Angeles, CA.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Married to Kristine Minami.

    7. Names and ages of children:
    [The nominee responded and the information is contained in the 
committee's executive files.]

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    Massachusetts Institute of Technology (1987-1993).
     M.S. Aeronautics and Astronautics (1993).
     B.S. Aeronautics and Astronautics (1991).
    International Space University (Summer 1995).
     Certificate of Completion (1995).
    The George Washington University (1994-1996).
     M.A. Science, Technology and Public Policy (1996).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Performing the Duties of the Assistant Secretary of Defense 
(Energy, Installations & Environment),
     Department of Defense,
     Washington, DC,
     December 2014-Present.
    Acting Deputy Under Secretary of Defense (Installations & 
Environment),
     Department of Defense,
     Washington, DC,
     September 2012-December 2014.
    Assistant Deputy Under Secretary of Defense (Installations & 
Environment),
     Department of Defense,
     Washington, DC,
     June 2009-Present.
    Associate Appropriations Committee Staff,
     Rep. Chet Edwards,
     Washington, DC,
     January 2007-June 2009.
    Legislative Director,
     Rep. Chet Edwards,
     Washington, DC,
     January 2001-June 2009.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Professional Staff Member,
      House International Relations Committee,
      Washington, DC,
      August 2000-January 2001.
    Legislative Assistant,
      Rep. Sam Gejdenson,
      Washington, DC,
      January 1999-July 2000.
    Legislative Assistant,
      Rep. Jane Harman,
      October 1997-January 1999.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    N/A.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    Member, Japanese American Citizens League.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Democratic Precinct Chair, MD District 20, 2005-2006.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    N/A.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $500 to CHET EDWARDS FOR CONGRESS on 5/13/10.
    $250 to OBAMA FOR AMERICA on 6/18/11.
    $500 to OBAMA FOR AMERICA on 7/15/12.
    $250 to OBAMA FOR AMERICA on 10/16/12.
    $250 to FRIENDS OF HEATHER (MIZEUR) on 5/21/14.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Awards/Recognitions:
      Military Order of the Purple Heart Special Recognition Award 
(2008).
      National Association of State Approving Agencies Outstanding 
Support Award (2008).
      Military Officers Association of America Paul W. Arcari Award 
(2007).
      Military Coalition Freedom Award (2006).

    Fellowships:
      NASA Space Grant Fellowship (full tuition at GWU, 1994-96).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Articles:
      ``DOD, Climate Change, and National Security,'' The Environmental 
Forum (published by the Environmental Law Institute), March-April 2014.
      ``Space Visions of a New Generation,'' co-authored with Lawrence 
Friedl, Space Policy Journal, May 1996.

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years of which you have 
copies and are on topics relevant to the position for which you have 
been nominated.
    I've made public comments on a number of occasions (panels, etc) 
but do not generally work from prepared texts. The exception is formal 
testimony, and I have submitted formal statements for the record on 
each of the following occasions.
    Testimony:
      Statement on FY16 Budget Request (used same statement for each):
      3/11/2015 SASC
      3/3/2015 HAC-Milcon
      3/3/2015 HASC
      Statement on FY15 Budget Request (used same statement for each):
      4/2/2014 SAC-Milcon
      4/2/2014 SASC
      3/12/2014 HAC-Milcon
      Statement on FY14 Budget Request (used same statement for each):
      5/9/2013 SAC-Milcon
      4/24/2013 SASC
      4/11/2013 HAC-Milcon
      Statement on Sikes Act Amendments
      3/21/2013 House Natural Resources Subcommittee on Fisheries, 
Wildlife, Oceans and Insular Affairs
      Statement on Base Realignment and Closure
      3/14/2013 HASC

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    The witnesses will be protected from reprisal consistent with the 
law.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                          John Conger  
    This 18th day of March, 2015

    [The nomination of Mr. John Conger was reported to the 
Senate by Chairman McCain on December 7, 2015, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 14, 2015.]
                              ----------                              

    [Prepared questions submitted to Mr. Stephen P. Welby by 
Chairman McCain prior to the hearing with answers supplied 
follow:]

                        Questions and Responses
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Defense for Research and Engineering?
    Answer. The Assistant Secretary of Defense for Research and 
Engineering (ASD(R&E)) is the principal staff advisor to the Under 
Secretary of Defense for Acquisition, Technology, and Logistics 
(USD(AT&L)) and to the Secretary and Deputy Secretary of Defense, for 
research and engineering matters. The ASD(R&E) serves as the Chief 
Technology Officer for the Department of Defense.
    Question. What background and experience do you possess that you 
believe qualify you to perform these duties?
    Answer. I believe my strong, multidisciplinary background in 
technology and technical leadership has prepared me well to perform 
these duties. I have over 28 years of professional experience as an 
engineer and technologist, serving both in and out of government, 
working on cutting-edge technology development. I am currently serving 
as the Acting Principal Deputy Assistant Secretary of Defense for 
Research and Engineering and as the Deputy Assistant Secretary of 
Defense for Systems Engineering (DASD(SE)). As the DASD(SE), I serve as 
the senior leader for the Department's systems engineering workforce, 
support the Military Departments and Defense Agencies in the execution 
of engineering and development efforts, and advise the USD(AT&L) on the 
technical execution and risk of major defense acquisition programs. I 
began my technical career in a defense laboratory, and I have 
previously served in a number of leadership roles at DARPA. If 
confirmed, I believe my background and experience would enable me to 
discharge the responsibilities of the ASD(R&E) to develop technology 
that enhances the operational capabilities required by our armed 
forces.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of Defense for Research and Engineering?
    Answer. I believe that I have the necessary background, skills, and 
ability to perform the duties of the ASD(R&E).
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense will assign to you?
    Answer. If confirmed, I expect the Secretary to assign me duties 
and functions commensurate with those of a Chief Technology Officer, 
and any other duties the Secretary may deem appropriate.
                             relationships
    Question. Section 138(b)(8) of title 10, United States Code, and 
DOD Directive 5134.3 discuss the responsibilities and functions of the 
Assistant Secretary of Defense for Research and Engineering. Other 
sections of law and traditional practice also establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Assistant Secretary of Defense 
for Research and Engineering with the following:
    The Deputy Secretary of Defense.
    Answer. If confirmed, I would work closely with the Deputy 
Secretary to provide advice and assistance commensurate with the role 
of a Chief Technology Officer, including transitioning technology to 
the field, prioritizing science and technology investments, supporting 
a culture of institutional innovation, and leveraging technology to 
enhance current and future military capabilities.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. The ASD(R&E) is subject to the authority, direction, and 
control of the USD(AT&L). If confirmed, I expect to support the 
USD(AT&L) with technology insight and technical leadership for the 
defense research and engineering community.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. If confirmed, I would work closely with the Under Secretary 
of Defense for Intelligence to ensure our research and engineering 
needs are synchronized across the Department. I believe intelligence on 
emerging adversary capabilities is critical to informing and shaping 
our defense research and engineering programs.
    Question. The Under Secretary of Defense (Comptroller).
    Answer. If confirmed, I would work closely with the Under Secretary 
of Defense (Comptroller/Chief Financial Officer) to ensure that 
investments in research and engineering meet the overall priorities of 
the Department and are managed in accordance with DOD policy.
    Question. The Under Secretary of Defense for Personnel and 
Readiness.
    Answer. If confirmed, I would work closely with the Under Secretary 
of Defense for Personnel and Readiness to ensure that our current 
research and engineering workforce is ready to support the needs of the 
Department, and to ensure that the technical talent necessary for the 
future readiness of our forces would be available to the Department.
    Question. The Deputy Chief Management Officer of the Department of 
Defense.
    Answer. If confirmed, I would work closely with the Deputy Chief 
Management Officer of the Department of Defense on issues regarding the 
effective and efficient execution of the Department's research and 
engineering practices.
    Question. The Service Secretaries.
    Answer. If confirmed, I would work to foster a close working 
relationship with the Military Departments to support their research 
and engineering priorities and technology investments and to ensure 
that the overall Department research and engineering portfolio is 
aligned and balanced.
    Question. The Service Acquisition Executives.
    Answer. Research and Engineering is critical to the overall 
acquisition process, so I view the Service Acquisition Executives as 
being among the primary customers of the knowledge and capabilities 
developed through the defense research and engineering enterprise. If 
confirmed, I would work closely with the Secretaries of the Military 
Departments and the Service Acquisition Executives on research and 
engineering matters that leverage technology for their missions.
    Question. The Service Science and Technology Executives.
    Answer. The Service S&T Executives are responsible for developing 
and executing the science and technology programs for their respective 
Service. If confirmed, I would work to share technical insights and to 
ensure that the overall DOD S&T investment is coordinated and provides 
the best possible military capabilities and return on the taxpayer's 
investment.
    Question. The Directors of Department of Defense Laboratories and 
Research Centers.
    Answer. If confirmed, I would work closely, through the heads of 
the DOD components, with the Directors of Defense Laboratories and 
Research Centers to provide them with the guidance, resources, and 
support needed to deliver technology in support of DOD needs. I would 
also work to establish and maintain standards for laboratory and 
research center performance.
    Question. The Director of the Defense Advanced Research Projects 
Agency.
    Answer. If confirmed, I would work closely with the Director of the 
Defense Advanced Research Projects Agency (DARPA) to ensure that DARPA 
continues to explore new technical fields, create technological 
surprise, and develop new technologies that have a profound impact on 
national security in accordance with DOD Directive 5134.10.
    Question. The Director of the Defense Threat Reduction Agency.
    Answer. If confirmed, I would work with the Director of the Defense 
Threat Reduction Agency on research and engineering matters, including 
those pertaining to weapons of mass destruction.
    Question. The Joint Staff.
    Answer. If confirmed, I would work closely with the Joint Staff to 
consider technology options and alternate procedures to enhance DOD 
systems and ensure our warfighters are affordably equipped with 
superior warfighting capabilities.
    Question. The Director, Defense Test Resource Management Center.
    Answer. If confirmed, I would work with the Director, Defense Test 
Resource Management Center to consider technology options and alternate 
procedures to enhance the effectiveness and efficiency of the test 
resources employed in the test and evaluation of DOD systems, including 
new and developing requirements such as cybersecurity testing.
    Question. The Director, Operational Test and Evaluation.
    Answer. If confirmed, I would work with the Director, Operational 
Test and Evaluation, to include consideration of technology options and 
alternate procedures for enhancing the operational test and evaluation 
of DOD systems.
    Question. The Director of the Joint Improvised Explosive Device 
Defeat Office.
    Answer. If confirmed, I would work with the Director of the Joint 
Improvised-Threat Defeat Agency, or any successor to it, to identify 
technology and system solutions for defeating current threats and 
countering future anticipated threats.
    Question. The Department of Defense Chief Information Officer.
    Answer. If confirmed, I would work closely with the Chief 
Information Officer to provide and align technology options to support 
the delivery and cyber protection of enhanced information management, 
information assurance, satellite communications, navigation and timing, 
spectrum utilization, and global military telecommunications 
capabilities.
    Question. The Director of the Defense Information Systems Agency.
    Answer. If confirmed, I would work closely with the Director of the 
Defense Information Systems Agency to support the provision, operation, 
and surety of the Department's globally accessible enterprise 
information infrastructure, command and control, and information-
sharing capabilities.
    Question. The Director of the White House Office of Science and 
Technology Policy.
    Answer. If confirmed, I would work closely with the Director of the 
White House Office of Science and Technology Policy to ensure DOD 
research and engineering goals and priorities are aligned with the 
Administration's goals and priorities.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of Defense for Research and 
Engineering?
    Answer. The Department currently faces the most technically 
challenging future defense environment we have seen since the Cold War. 
I believe the critical task for the ASD(R&E) will be protecting the 
future technological edge of U.S. forces, by ensuring that the 
warfighter has access to technical capabilities that counter, defeat, 
and provide compelling overmatch against those that can be fielded by 
any potential adversary. U.S. military technological strength provides 
the critical underpinning to U.S. conventional deterrence. Today's 
emerging competitive technology environment will require faster and 
smarter development and adoption of innovative, technologically enabled 
capacities that offset the growing technical capabilities of potential 
threats.
    A second challenge involves ensuring that we can affordably deliver 
advanced capabilities in an efficient and effective manner, to permit 
modernization to continue at pace, even in a fiscally constrained 
environment. This challenge motivates the use of novel technologies and 
new system concepts and architectures that enable significant 
reductions in overall lifecycle cost.
    A third challenge is the need to refresh continually the core 
technologies that support our defense advantage--the disruptive 
breakthrough capabilities that allow the U.S. to ``leap ahead'' of 
potential adversaries. The discovery engine that underpins our 
warfighting technologies offers a critical hedge against uncertainty, 
mitigates against technological surprise, and supports our system 
development efforts.
    A fourth critical challenge is the need to ensure that the defense 
research and engineering enterprise is responsive to the demands of 
both the current conflict and the developing strategic environment--
accelerating those advanced capabilities that can make a critical 
difference from laboratory to battlefield.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I would develop research and engineering 
plans that address these and other challenges, leveraging the strengths 
of the Military Departments and Defense Agencies to meet the defense 
science and technology needs of the warfighter. These plans would 
emphasize opportunities for increased effectiveness and efficiency 
across the Department's research and engineering enterprise.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Office of the Assistant 
Secretary of Defense for Research and Engineering?
    Answer. A long-term challenge for the defense research and 
engineering enterprise is the ``graying'' of our workforce, within the 
office of the ASD(R&E), across the Military Departments and Defense 
Agencies, and within the defense industrial base. Our senior workforce 
possesses significant skill and experience, but over the near term the 
R&E enterprise will see an accelerated loss of experience as a 
significant fraction of its workforce retires. Attracting, developing, 
and retaining talent with critical twentyfirst century skills in 
domains such as advanced microelectronics, cybersecurity, embedded 
software development, and data analytics will be a significant 
challenge to the performance of the functions of the Office of the 
ASD(R&E) over the next decade.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. If confirmed, I would work with other OSD offices and the 
Military Departments to explore creative solutions to refresh the 
technical talent of the Department's workforce. Solutions may include 
specific workforce development initiatives, opportunities to provide 
greater flexibility to those who wish to spend a ``tour'' with the 
Department as part of their career, and innovative projects to enhance 
the environment and culture of the Department's research and 
engineering institutions to make them more attractive to key talent.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues that must be addressed by the Assistant Secretary of 
Defense for Research and Engineering?
    Answer. If confirmed, I expect my priorities for the Department's 
research and engineering enterprise to be consistent with those 
established by the Secretary and the USD(AT&L).
    These priorities would include:
    1)  Responsively addressing the technological needs of the 
warfighter in support of ongoing operations.
    2)  Developing technologically enabled capabilities that establish 
and preserve U.S. military technological advantage against potential 
adversaries.
    3)  Developing leap-ahead science and technology that offer a long-
term disruptive advantage to U.S. forces.
    4)  Maintaining the capacity of the Department to attract and 
retain the best and brightest scientists and engineers.
    5)  Encouraging appropriate relationships with academia and 
industry to pursue cutting-edge science and technology.
    6)  Enhancing warfighting capabilities by supporting acquisition 
programs with technologies that make weapon systems more effective and 
affordable.
    Question. What defense technologies do you consider the highest 
priorities for development to enhance DOD's ability to pursue its 
designated missions?
    Answer. I believe that an effective research and engineering 
program must focus on balance--balance between near- and long-term 
technology development and balance between pursuing technology that 
supports continuous improvement in military capability and technology 
with the potential for more revolutionary impact. There are many 
opportunities to leverage technology to provide capability advantage 
for U.S. forces. Today, near-term opportunities exist in areas such as 
autonomy, data analytics, communications, electronic warfare, 
propulsion, cyber-defense, undersea technologies, advanced 
manufacturing, and space technologies that can shape new systems 
concepts and operational architectures. Over the longer term, emerging 
ideas in areas such as quantum science, material science, biology, and 
new computational architectures will feed future capability 
opportunity.
    Question. What will be your strategy for developing these 
technologies in a manner to support needed defense capabilities in a 
timely and cost-effective way?
    Answer. If confirmed, I would look at all available development 
strategies and evaluate them against the constraints of being timely 
and cost-effective. I believe that the future competitive national 
security environment will drive the Department to place increasing 
value on the pace by which we move technologically enabled capabilities 
from concept to field. To accelerate our pursuit and exploration of 
innovative concepts, the Department must make best use of its own in-
house capabilities, those of academia, and those of industry--large and 
small. We must also be open to new engagement with innovative non-
traditional commercial entities and make better use of the global 
capabilities of our partners and allies.
                  investment in science and technology
    Question. If confirmed, what metrics will you use to assess the 
size and portfolio of investments made under the defense science and 
technology (S&T) program?
    Answer. I believe the Department's S&T program must forge ever-
closer relationships with the requirements, intelligence, acquisition, 
sustainment, and logistics communities as it discovers, develops, and 
matures advanced technologies. Metrics and measures can help the S&T 
community assess its effectiveness in meeting the needs of these 
communities. The Department's current S&T investments range from those 
addressing long-term, strategic objectives to those focused on 
narrower, nearer-term project goals, and appropriate metrics must be 
established that reflect the differences in nature, goals, and risk 
versus payoff of the work. If confirmed, I would leverage the ongoing 
efforts of the 17 communities of interest under the Reliance 21 process 
to identify and characterize technology impact through performance 
measures. The Better Buying Power 3.0 initiative is also focused on 
improving performance of the S&T enterprise by developing metrics and 
measures that can help identify where we are having the most impact in 
creating options to help shape future military competition, moving 
technology into the hands of our warfighters, and creating 
opportunities for new and novel military capabilities. If confirmed, I 
would leverage these ongoing efforts.
    Question. What role should the Assistant Secretary of Defense for 
Research and Engineering play in the detailed development and 
coordination of service and agency S&T investment strategies, programs, 
and budgets?
    Answer. I believe the ASD(R&E) should provide investment and 
management guidance that integrates Military Department and Defense 
Agency efforts to provide a full spectrum of DOD capabilities. Each of 
the Military Departments and Defense Agencies S&T programs should 
leverage and complement each other's efforts. The ongoing Reliance 21 
effort provides an overarching framework to support joint S&T planning 
and coordination, ensuring that the joint DOD S&T community provides 
solutions and advice to the Department's senior-level decision makers, 
warfighters, Congress, and other stakeholders in the most effective and 
efficient manner possible. If confirmed, I anticipate leveraging the 
Reliance 21 process to support information sharing, alignment of 
effort, coordination of priorities, and support for scientists and 
engineers across the Department.
    Question. What, in your view, is the role and value of S&T programs 
in meeting the Department's transformation goals and in countering 
irregular, catastrophic, traditional, and disruptive threats?
    Answer. The Department's S&T portfolio plays a vital role in 
producing and maintaining operational advantages for our force, in 
meeting the Department's goals for transformation, and in countering 
irregular, catastrophic, traditional, and disruptive threats. The DOD 
S&T program provides the foundation for all of the Department's 
capability development. An investment in S&T that is balanced across 
near-term capabilities and long-term technological options ensures that 
critical warfighter challenges are met with effective, multi-domain 
solutions. With the warfighter and national security in mind, our 
scientists and engineers generate innovative solutions to address the 
vast array of current and future threats.
    Question. What S&T areas do you consider underfunded by the 
Department?
    Answer. The ASD(R&E) and the DOD Components balance S&T resources 
across the budget submission to ensure that resources are applied to 
the highest payoff areas and are focused on the most critical emerging 
technologies. The Department continually assesses which technology 
areas have the greatest opportunity to bring advantage to our 
warfighters and we develop new programs and focus research in those 
areas. Routine communication among the ASD(R&E) and DOD Component S&T 
executives is critical to ensure we remain closely aligned and focused 
on the most critical threats. While I believe the overall S&T budget is 
appropriate, given the many demands on national security resources, I 
believe there are a number of fastmoving areas where the Department 
should consider additional emphasis. Some potential examples include: 
Advanced robotics; autonomous, distributed and collaborative systems; 
new frontiers in quantum science; new computing architectures; new 
engineering, design and manufacturing capabilities; advanced cyber-
security capabilities and increased emphasis on prototyping and 
experimentation. If confirmed, I would work with the Military 
Departments and Defense Agencies to ensure that our portfolio of 
investment is balanced and adequately focused on these and other 
potential high-payoff S&T areas.
    Question. In your judgment, will the funding levels in these areas 
affect the Department's ability to meet the threats of the future?
    Answer. In a time of significant pressure on resources, the 
Department has continued to protect stable S&T funding, in order to 
preserve its capacity and prepare for an uncertain future. I believe, 
with appropriate balancing across technical opportunity, the 
Department's S&T budget is sufficient to prepare adequately for the 
threats of the future.
    Question. Do you feel that the Department's current science and 
technology investment strategy strikes the appropriate balance between 
funding innovative, disruptive technologies and addressing near-term 
operational needs and military requirements?
    Answer. Yes, I believe the current DOD S&T investment strategy 
strikes an appropriate balance between funding innovative, disruptive 
technologies (such as new capabilities for directed energy weapons) and 
addressing near-term operational needs and military requirements (such 
as software and systems capabilities to increase operator 
effectiveness). As technology evolves and the threat changes, DOD must 
constantly re-examine and adjust our S&T strategies to ensure that this 
balance is maintained.
                             basic research
    Question. Given the continuing nature of basic research and the 
broad implications and applications of discovery-focused and 
innovation-focused sciences, what criteria would you use, if confirmed, 
to measure the success of these programs and investments?
    Answer. DOD's investment in basic research has played and continues 
to play a central role in creating and preserving our military 
technological advantage. Today's fielded technologies are rooted in and 
dependent upon the basic research discoveries of past decades. Basic 
research introduces disruptive change, born of new knowledge and 
physical insight, but this change typically emerges over time.
    If confirmed, I would continuously assess our investments in basic 
science and discovery by asking a series of questions about each 
effort:
    <bullet>  Does this basic research investment lead to the creation 
of new fields of interest and/or help mitigate DOD capability 
challenges?
    <bullet>  Do the investments lead to original approaches and novel 
technical strategies to meet DOD needs?
    <bullet>  Does this investment lead to original, multidisciplinary 
approaches or support radically new perspectives?
    <bullet>  Are the results of this research contributing to and 
being vetted by the broader community, including universities, 
industry, and through publication in peer reviewed journals?
    <bullet>  Do the types of problems and approaches supported by this 
DOD investment selectively attract the finest scientists and engineers 
in the Nation to build a broader and smarter national security 
community?
    I believe these questions provide a test of the relevance and 
quality of DOD's S&T investments.
    Question. What concerns do you have, if any, about current levels 
of funding for Department basic research? How would you plan to address 
those concerns?
    Answer. I believe that, in the context of finite resources, the 
current level of funding for the Department's basic research is 
reasonable, and represents a historically stable balance with overall 
S&T funding. Stability of research funding is necessary to provide 
continuity of research capabilities. If confirmed, this is an area I 
would watch closely.
    Question. If confirmed, how would you determine whether there is an 
adequate investment in basic research to develop the capabilities the 
Department will need in 2025?
    Answer. If confirmed, I would review existing studies of the 
Department's basic research activities and budgets. Making this 
assessment is, in part, a subjective one, depending on the balance of 
research opportunities, near-term needs and long-term investments, and 
input from experienced S&T resources. This includes input from external 
sources, including the National Research Council and the Defense 
Science Board.
    Question. If confirmed, what steps, if any, will you take to 
increase efforts in unfettered exploration, which has historically been 
a critical enabler of the most important breakthroughs in military 
capabilities?
    Answer. If confirmed, I would reemphasize to the DOD Components S&T 
executives, my belief that basic research is a critical component of 
our future military capability, and that the Department--from its 
senior officials to its bench scientists--should engage and be engaged 
with the Nation's and the world's leading scientists and engineers. If 
confirmed, I would also commit to the Department's policy of minimizing 
restrictions on Department scientists to perform and interact with 
great research, and to reinforce our policy that sponsored fundamental 
research shall be performed without restriction, other than those 
restrictions imposed by law or national regulation.
                        chief technology officer
    Question. If confirmed, as Assistant Secretary of Defense for 
Research and Engineering, you will be the Chief Technology Officer 
(CTO) of the Department of Defense.
    What do you see as the role of the CTO of the Department of 
Defense?
    Answer. The role of the Chief Technology Officer of the Department 
is defined in the ASD(R&E) charter. The charter defines the role of the 
ASD(R&E) as the Principal Staff Assistant to the USD(AT&L) and the 
Secretary on all technical matters. The ASD(R&E) should provide 
guidance to shape the DOD S&T program and should lead efforts to 
develop technology options for the Department. The CTO should also 
contribute significantly to ensuring that major acquisition programs 
are conducted with acceptable technological risk.
    Question. What experience do you have in your career that will 
enhance your ability to serve as CTO of DOD?
    Answer. My broad background in defense technology development 
provides the critical background and requisite knowledge to permit me 
to serve effectively as CTO of DOD. This experience includes time spent 
as a researcher in a defense laboratory, as a program manager and 
senior leader directing major research investments at DARPA, working 
critical technology programs with each of the Military Departments, and 
my experience over the past five years as the DASD(SE) within the 
Office of the ASD(R&E)
    Question. Do you believe the position for Assistant Secretary of 
Defense for Research and Engineering currently has adequate authorities 
to exercise the responsibilities of a CTO?
    Answer. Yes
    Question. How are the activities of the Advanced Manufacturing 
Institutes being incorporated into the Department's science and 
technology activities?
    Answer. I am aware that each of the Advanced Manufacturing 
Institutes currently has an S&T lead to connect each Institute back to 
the Department's broader science and technology activities. If 
confirmed, I would review the interaction of the planned work of the 
Advanced Manufacturing Institutes with the Department's science and 
technology activities.
    Question. What is the status of the Department's long-range 
research and development planning activities? What noteworthy results 
have been realized from that initiative so far?
    Answer. The Long-Range Research and Development Planning Program is 
a line of effort under the Defense Innovation Initiative which is 
focused on identifying emerging technology and materiel opportunities 
that could strengthen DOD capabilities in a competitive future national 
security environment. Since November 2014, I have been leading the 2015 
LRRDPP study, which has included engaging technical experts across the 
Department's research and engineering enterprise, as well as academic, 
not-for-profit, and defense and non-defense commercial organizations, 
to identify emerging opportunities for future military innovation. The 
classified LRRDPP study continues to identify opportunities to 
accelerate and demonstrate new system concepts that can inform future 
materiel plans.
    It is also anticipated that this effort will identify key research 
and engineering areas for assessment and prioritization in future 
research and engineering planning. To date, among other input, the 
study has completed its review of over 400 submissions received from 
outside the Department in response to the 2014 Request for Information 
and have conducted site visits, meetings, and interviews with DOD and 
Department of Energy labs, small businesses, corporate research and 
development centers, academic institutions and intelligence community 
organizations. We are in the process of synthesizing the results of 
this study into a set of classified recommendations for the Deputy 
Secretary of Defense. We have synthesized the results of the first 
phase of the study into a set of classified recommendations for the 
Deputy Secretary of Defense. The second phase of the study is ongoing.
    We anticipate that these specific results will emphasize themes 
supporting the use of limited autonomy to enable deploying manned and 
unmanned systems together in new ways to enable new capabilities, 
themes that permit the execution of precision capabilities from long 
range, and themes that provide new ways to counter the complex threat 
environment we anticipate when operating against technologically 
advanced actors in the future.
                          offset technologies
    Question. During the Cold War, the DOD pursued three key 
technologies to offset the numerical superiority of Soviet conventional 
forces: precision guided munitions, stealth technology, and satellite-
based navigation. These three technologies have given U.S. forces 
unparalleled superiority until now. However, with advancements by our 
emerging adversaries, it seems like the military technological 
superiority is beginning to erode. As a result, it is critical that the 
United States once again focus on offsetting the technology advantages 
being gained by our adversaries.
    Which technology priorities do you believe the Department of 
Defense should be pursuing to maintain the military technological 
superiority of the United States?
    Answer. Since the Cold War, U.S. forces have had assured 
conventional military technology dominance over every adversary they 
have faced or might have faced. The combination of precision weapons, 
advanced intelligence surveillance and reconnaissance systems, stealth, 
digital command and control, and space-based capabilities including 
navigation and communications have provided clear technology overmatch 
against any potential adversary. Over the last 30 years, others have 
had significant opportunity to study the systems and technologies that 
advantage U.S. military capabilities. In recent years, other nations 
have begun to field systems that are closing the gap with U.S. 
capabilities and, in some cases, directly challenging the technical 
advantages we have used in the past to enable U.S. power projection. 
This is a result of specific investments made by potential future 
competitors, the globalization of advanced technology, supply chains, 
and technical talent, and the loss of technical data through cyber 
exfiltration.
    I believe that the Department of Defense should pursue innovative 
technologies that will minimize the effectiveness of these foreign 
investments and create the opportunity to impose extraordinary cost on 
future adversaries. These technological priorities should shift future 
national security competition from areas where U.S. advantages are 
narrowing to areas where U.S. strengths in agility, flexibility, and 
technical execution can flourish. Critical to executing these 
priorities will be identifying opportunities to drive cost out of 
future systems--through advanced design technologies; prototyping and 
demonstration; and advanced, flexible manufacturing capabilities to 
reduce risk. If confirmed, these areas would be a high priority for me.
    Question. What strategies would you recommend that Secretary Carter 
implement to develop these technology priorities?
    Answer. The Department is emphasizing the need to pursue innovative 
system concepts and technology solutions being developed within the 
Department itself, within the defense sector, and within the non-
defense commercial sector, where the pace of technology adoption is 
often greater. We have increased our engagement with technology 
developers globally to ensure that we have awareness of and can 
leverage the best technical capabilities, regardless of source. Most 
importantly, the Department is reemphasizing the importance of 
prototyping, demonstration and experimentation as a means to mature 
rapidly emerging technical capabilities, gain insight into the 
operational capabilities they might offer, and to more rapidly inform 
modernization program development. These three approaches--(1) openness 
to innovation, (2) speed from idea to implementation, and (3) 
prototyping, demonstration, and experimentation to inform decision 
making--provide a means to explore new offsetting technological 
advantages, and if confirmed, these approaches would be a priority for 
me.
    Question. What role do the Services have to play in their 
development?
    Answer. I believe that the Military Departments play an essential 
role in developing, maturing, and fielding the future systems necessary 
to shape the future competitive strategy of the Department.
                technology readiness assessment process
    Question. Have you participated in or observed the development of 
Technology Readiness Assessments to support Milestone Decisions for 
defense acquisition programs?
    Answer. Yes, as the DASD(SE), I have observed and supported the 
Technology Readiness Assessment process and its employment in defense 
acquisition decisions.
    Question. What is your assessment of the value, strengths, and 
weaknesses of the current process?
    Answer. The Technology Readiness Assessment process provides a 
valuable measure of the maturity of critical technology elements in a 
defense acquisition program and can be useful in highlighting areas 
where relatively immature technologies may increase acquisition program 
risk. The existing process, however, reduces this very complex and 
somewhat subjective assessment to a single number, which offers limited 
insight into the actual risk that an acquisition system may bear. There 
are many technical risks that should be assessed in evaluating a 
defense acquisition program, including integration risk, supply chain 
risks, and reducibility risks. Technology Readiness Assessments can 
contribute, but they are only one part of a holistic assessment of 
overall program risk. If confirmed, I would be particularly attentive 
to ASD(R&E) efforts to assess the full range of technical risk as part 
of our efforts in support of defense acquisition programs.
    Question. Would you recommend any changes to the processes used for 
the assessment of technological maturity and integration risk of 
critical technology elements?
    Answer. In my current assignment as DASD(SE), I led an evaluation 
of our acquisition technical risk management process and have published 
guidance to the Department on more effective formal risk management, 
with a particular focus on improving our capacity for active risk 
mitigation. If confirmed, I would continue to investigate methodologies 
that would provide better insight into technology maturity and 
integration risks in the context of an overall acquisition program risk 
management framework.
    Question. Are you satisfied that the Assistant Secretary of Defense 
for Research and Engineering is properly staffed and resourced to 
support decision makers in complying with the technology certification 
and assessment requirements that are its responsibility?
    Answer. I believe the Office of the ASD(R&E) is currently 
adequately staffed to perform its various responsibilities with respect 
to technology certification and assessment.
    Question. What changes, if any, would you anticipate making, if 
confirmed, in this process?
    Answer. If confirmed, I do not anticipate proposing any changes to 
the current technology certification and assessment requirements, but I 
would seek to leverage better these assessments as part of an increased 
emphasis on technical risk management and mitigation as a critical 
engineering function.
     coordination of defense s&t internally and with other agencies
    Question. If confirmed, how do you intend to integrate the S&T 
programs of the Services and Defense Agencies to reduce redundancy, 
leverage investments, and promote cooperation in order to achieve 
greater efficiency and technological advancement? Will you use existing 
structures such as Reliance 21?
    Answer. If confirmed, I would expect to continue to employ the 
Reliance 21 process to integrate and coordinate Military Department and 
Defense Agency S&T programs. The Reliance 21 process has been 
successful in leveraging S&T efforts across the DOD Components to 
improve efficiency and effectiveness, spur collaboration, and reduce 
undesirable duplication of effort.
    Question. Do you believe the mechanisms of coordination between 
federal civilian agencies and the Department are adequate to ensure 
that the military can best leverage the advances of agencies such as:
    National Science Foundation on defense needs for basic science, 
especially in social sciences?
    Answer. DOD funds basic research in targeted areas deemed most 
critical for defense but also relies heavily on complementary basic 
research insights funded by U.S. Government agencies such as the 
National Science Foundation. I believe that coordination between the 
DOD and NSF is critical and is currently adequate and effective.
    In the social sciences in particular, where defense efforts tend to 
be more narrowly scoped for particular regions and problems, DOD 
projects frequently build on NSF-funded basic research insights 
regarding the more universal drivers and mechanisms for conflict and 
cooperative behavior at individual and group levels. Without a robust 
NSF investment in social sciences, DOD would need to divert its social 
science research funds away from specific defense issues to fill in 
those foundational gaps.
    Question. National Aeronautics and Space Administration on 
hypersonics and other space research and the viability and availability 
of testing facilities?
    Answer. I believe the current level of coordination of DOD efforts 
with NASA is adequate and effective. NASA provides input for our 
biennial Space S&T Strategy report and the Department reviews draft 
NASA technology roadmaps to identify areas for cooperative activities. 
In addition, NASA and DOD participate in numerous forums where our 
staffs interact, at both the working and senior levels, to discuss and 
coordinate our efforts.
    Question. National Institutes of Health on areas in which military 
medical research and vaccine development overlap with civilian medical 
needs?
    Answer. I believe the current level of coordination of DOD efforts 
with NIH is adequate and effective. The focus of NIH investment (the 
broad health needs of the Nation) and the focus of DOD health care S&T 
investment (the specific and unique medical needs of the warfighter) 
differ, but in areas where military and civilian research needs overlap 
many programs are complementary and mutually supportive. The degree of 
collaboration in these areas is extensive. For example, programs for 
the development of Human Immunodeficiency Virus vaccines are 
collaborative efforts with the aim of meeting programmatic objectives 
of both the NIH and the military. These efforts have made use of the 
extensive laboratory and clinical trials managed and maintained by the 
military while taking advantage of the extensive fundamental and 
applied research effort of both the NIH and the military focused on 
developing new vaccine candidates. The synergy between these programs 
was critical to the development of the only vaccine candidate that 
provided some degree of protection against HIV and for improvements to 
the vaccine that will ultimately be used to protect both military and 
civilian populations. If confirmed, I will work with the ASD (Health 
Affairs) and the Surgeons General to foster collaborative research and 
development efforts with NIH in areas of mutual interest.
    Question. Intelligence Community in setting defense research 
priorities to prepare for future threat environments?
    Answer. I believe that the DOD effectively leverages the 
Intelligence Community to inform defense research prioritization and 
planning. In my current role as DASD(SE), I support the reinvigorated 
initiatives under Better Buying Power 3.0 focused on integrating 
acquisition, intelligence, and requirements more closely. One 
additional initiative is the Science and Technology Intelligence Needs 
Plan that informs the intelligence community on the Department's 
intelligence needs for S&T. If confirmed, I would ensure that dialogue 
between the Department and the Intelligence Community is open and 
transparent.
    Question. Department of Homeland Security on Homeland defense and 
national security-related science?
    Answer. I believe that the current level of coordination of DOD 
efforts with the Department of Homeland Security is adequate and 
effective and provides strategic leverage across the technology 
investments being made by the two Departments.
    Question. If confirmed, how would you work with other federal 
agencies and the Office of Science and Technology Policy to improve 
coordination?
    Answer. If confirmed, I would work with other federal agencies and 
with the OSTP to ensure that DOD research and engineering are well 
coordinated with other government efforts.
                          technology strategy
    Question. What weaknesses, if any, do you see in the current 
Defense S&T strategic planning process?
    Answer. I observe that the current Defense S&T strategic planning 
process is significantly labor intensive--which can create challenges 
in generating timely recommendations to support the Department's annual 
budget submission.
    Question. What do you believe are the key attributes for a good 
technology strategic plan that can be effectively utilized for 
programming and budgeting purposes?
    Answer. I believe an effective technology strategic plan should 
include (1) specific, time-phased, and actionable recommendations for 
technology development and demonstration; (2) a clear mapping between 
technology activities and potential outcomes, demonstrating clear 
relevance to the Department's mission; and (3) specific quantified 
goals and targets to provide insight into progress.
    Question. If confirmed, how would you work to ensure that strategic 
plans are utilized during the budget planning and programming process?
    Answer. If confirmed, I would work to make Reliance 21 and the 
Communities of Interest more strategic in their planning and more 
efficient and effective in implementation through directly, explicitly, 
and transparently linking Reliance 21 recommendations to ASD(R&E) 
budget inputs and recommendations.
                         technology transition
    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years. Challenges remain, however, in successfully 
transitioning new technologies into existing programs of record, 
fielded systems, and major weapon systems and platforms.
    How would you assess the effectiveness of current transition 
systems?
    Answer. The current system is most effective when transitioning 
technological capabilities to support existing programs of record. The 
S&T laboratories are well connected and responsive to the needs of the 
program offices. Initiatives such as the Rapid Innovation Fund and 
Foreign Comparative Test provide program offices with access to non-
traditional small businesses and international businesses--sources of 
new and novel solutions.
    The current system is less able to recognize and transition 
opportunistic capability--new and emerging technologies opportunities 
that emerge during development or which disrupt current acquisition 
plans. In these cases the Department needs to be more effective at 
assessing technical opportunity and creating opportunities to deploy 
more rapidly emerging capabilities to achieve maximum benefit with 
minimum impact. If confirmed, I would work to improve mechanisms for 
planned and opportunistic technology transition into DOD systems.
    Question. What challenges exist in technology transition within the 
Department?
    Answer. A key challenge in technology transition is the mismatch 
between the risk acceptance posture of technology developers and that 
of acquisition program managers. Technology developers are motivated to 
take risk and to explore the art of the possible, while acquisition 
managers are motivated to minimize risk and to pursue stable, well-
understood capabilities to minimize overall acquisition program risk. I 
believe that aligning incentives so as to motivate program managers 
continually to review technology options to improve performance and 
reduce cost, and to motivate technologists to harden, demonstrate, and 
de-risk emerging technologies, would significantly aid technology 
transition.
    Question. What would you do, if confirmed, to address these 
challenges?
    Answer. If confirmed, I would vigorously support the Better Buying 
Power 3.0 direction to emphasize technology insertion and technology 
refresh in program planning. Initiatives under Better Buying Power that 
emphasize modular, open system architectures, initiatives that support 
rapid technology insertion, and initiatives that promote increased use 
of rapid prototyping and experimentation to mature and derisk 
technologies and demonstrate operational utility all help increase the 
Department's ability to transition research and development more 
quickly and effectively to operational use.
    Question. What is the role of the Assistant Secretary of Defense 
for Research and Engineering in facilitating communication between 
technical communities, acquisition personnel, and end users to speed 
technology transition?
    Answer. I believe an effective ASD(R&E) must work closely with the 
requirements community, the acquisition community, the research and 
development community, and the operational communities to provide new 
technologies that sustain our technological superiority against 
potential future adversaries. The ASD(R&E) must coordinate across this 
broad set of communities: coupling technical opportunity to emerging 
requirements; informing technology development with operational 
feedback; and aiding transition of capabilities from research and 
development to acquisition. If confirmed, I would connect and 
coordinate these diverse communities to speed technology transition 
from concept to field.
    Question. Do you believe that we need to change the manner in which 
we fund technology transition in the Department of Defense? If so, what 
changes would you recommend?
    Answer. Technology development is sometimes challenged by the 
availability of nonprogram-specific applied technology funding used to 
mature technologically driven capabilities, to prototype and experiment 
with emerging system concepts, and to support bridging technology 
development to support the transition of technology to programs of 
record and the warfighter. While the Department has protected S&T 
funding levels, Advanced Component Development and Prototypes funds are 
increasingly consumed by the demands of modernization programs and 
other uses directly tied to specific acquisition programs. If 
confirmed, I would explore ways to provide the flexibility needed to 
improve technology transition.
                  systems engineering and prototyping
    Question. Do you feel that the Department of Defense has sufficient 
systems engineering expertise in its current workforce or contractor 
base?
    Answer. Based on my engagement across this community and with 
acquisition leadership in each of the Components, I believe that the 
current systems engineering technical capacity and capability 
supporting the DOD is sufficient. I also believe that this workforce 
possesses and has demonstrated strong technical capabilities. It will 
be important to ensure that the workforce is technically refreshed as 
new challenges arise, and as technical disciplines mature.
    Question. What will be the impact of further reductions in 
personnel to the ability to execute the systems engineering missions of 
the Assistant Secretary of Defense for Research and Engineering?
    Answer. System Engineering oversight functions that are part of the 
Military Departments and OSD headquarters elements will likely be 
impacted by proposed across-the board headquarter staff reductions, and 
additional efficiencies will need to be identified to meet mission 
requirements
    Question. What changes, if any, do you believe should be made in 
the Department's systems engineering organization and practices?
    Answer. I have worked with the Military Departments to optimize 
organic systems engineering practices. These are now reflected in 
policy, the foremost example being the recently updated DOD Instruction 
5000.02 that revised DOD systems engineering policy, and reflects a 
stronger engineering participation and technical risk consideration 
across the acquisition activities. Our current systems engineering 
organizations and practices are adequate but should evolve as 
engineering tools and methods are developed and matured.
    Question. What is the value of competitive prototyping in 
increasing the success of DOD acquisition efforts?
    Answer. Competitive prototyping is most effective at increasing the 
likelihood of success of DOD acquisition efforts when it drives real 
risk reduction in the actual product that the Department will acquire 
and field. Under the right conditions, competitive prototyping can be 
expected to have several benefits to DOD programs, including: reduction 
of overall technical risk; validation of cost; validation of design; 
evaluation of the manufacturing process; and refinement of program 
requirements. Competitive prototyping imposes costs, since the 
Department must carry multiple offerors far enough through the design 
process to produce prototypes for evaluation. This cost penalty can 
sometimes reduce the advantage of competitive prototyping, making it 
most effective in cases where the cost/benefit ratio is clearly 
advantageous, where multiple design options merit further exploration, 
or where the competitive environment drives early return on lifecycle 
cost.
    Question. If confirmed, how will you work to increase the amount of 
systems engineering projects and competitive prototyping efforts that 
are undertaken by the Department of Defense and its contractor base?
    Answer. In my current role as DASD(SE), I have supported robust 
systems engineering and risk-appropriate, cost-effective prototyping. 
If confirmed, I would continue to emphasize a robust systems 
engineering process across the Department's acquisition portfolio.
                       venture capital strategies
    Question. In recent years, some components of the Department of 
Defense have attempted to follow the lead of the intelligence community 
by using venture capital firms to make investments in developing 
technologies.
    What role do you believe that venture capital firms should play in 
DOD's investments in developing technologies, including in the Small 
Business Innovation Research program?
    Answer. I believe that small, early-stage companies are a 
significant driver of innovation in our Nation--leveraging U.S. 
strengths in entrepreneurship, acceptance of risk, and access to 
technical talent and smart capital to create businesses that are 
shaping the commercial technology landscape. I believe the Department 
needs to be engaged with innovative early-stage firms throughout the 
country, to explore the relevance of applying cutting-edge commercial 
capabilities to meet the Department's needs and to encourage small 
innovative companies to see the Department as a smart and engaged 
potential customer for their ideas. The Department's Small Business 
Innovation Research program is a very effective means of engaging these 
companies. If confirmed, I would explore an alternative means to reach 
out to these companies, such as by using venture-capital-like 
approaches to engage companies early, with the objective that they 
consider the Department's requirements among the targets for their 
product development priorities.
    Question. What advantages and disadvantages do you see in the use 
of venture capital strategies?
    Answer. Venture capital strategies could permit the Department to 
engage innovative companies in a natural way--by supporting their need 
for critical investment to support the development of innovative 
capabilities. This could provide the Department with access to 
innovation that we might not be able to reach through other approaches. 
Venture capital strategies, however, are inherently risky. Most early 
stage companies likely will not achieve breakthrough innovations, and a 
venture capital strategy must be patient enough to accept the risk 
profile associated with making a number of investments with the goal of 
seeing a fraction of them yield concrete benefit.
    Question. When DOD does decide to use venture capital strategies, 
what steps do you believe the Department should take to ensure that DOD 
funds are invested in technologies and companies that properly reflect 
national defense priorities, avoid the potential for conflicts of 
interest by industry partners, and ensure that the Department's 
investments are not diluted?
    Answer. I believe it would be critical to evaluate carefully 
investments made through a venture capital strategies approach, and to 
assess whether leveraging a venture capital strategy is truly the most 
effective and appropriate model for investing in a particular 
technology or engaging a particular company.
    Question. What other strategies do you intend to employ, if 
confirmed, to ensure that the nation's most innovative companies work 
on Department of Defense research and engineering programs?
    Answer. In April, Secretary Carter announced the Defense Innovation 
Unit-experimental, an activity in the San Francisco Bay Area to provide 
a mechanism to increase the Department's presence in an area of 
significant entrepreneurial innovation. Communication and outreach 
efforts are effective ways to attract and engage innovative companies. 
If confirmed, I would explore methods to increase the Department's 
engagement with and outreach to the most innovative companies across 
the Nation.
                   international research cooperation
    Question. In your view, how should increased globalization of 
defense technology affect DOD's research and technology development and 
investment strategy?
    Answer. The increased globalization of defense technologies 
provides both opportunities and challenges for the Department. To the 
extent DOD can leverage technology developments in allied and friendly 
nations, DOD will be able to redirect resources to address other 
critical needs. This would also provide opportunities for DOD to 
increase commonality with these nations, creating increased 
efficiencies for all. However, globalization of defense technology 
creates challenges to our technological superiority through 
proliferation of advanced military capabilities.
    Question. What is your assessment of the value of cooperative 
research and development programs with international partners?
    Answer. Our international cooperative research and development 
programs are based on equitable investment by all participants. In 
addition to reducing cost burdens, these cooperative programs enable us 
to interact with the best and brightest in many nations. Cooperative 
research and development programs deepen our defense relationships with 
our allies and other partner nations.
    Question. In your view, what are the obstacles to more effective 
international cooperation, and, if confirmed, how would you address 
those obstacles?
    Answer. Successful international cooperative research and 
development programs require trusted partnerships between the nations 
involved in them. These require commitment by all parties, which 
includes providing adequate levels of funding and involvement. If 
confirmed, I would attentive to ensuring our proposed international 
cooperative efforts address these commitments.
    Question. How will increased international technology cooperation 
affect our domestic defense industrial base?
    Answer. International cooperative research and development programs 
can provide opportunities for the industrial base to work with and 
develop relationships in other nations. This can lead to increased 
business opportunities through creation of trusted partnerships. It can 
also provide the Department with increased access to world-class 
research and researchers.
    Question. How should DOD monitor and assess the research 
capabilities of our global partners and competitors, and of the global 
commercial sector?
    Answer. DOD maintains awareness of global S&T and commercial 
capabilities through our global technology watch efforts and through 
the Military Departments' regional and global international S&T 
offices. If confirmed, I would support and strengthen these critical 
tools for providing situational awareness of the competitive global S&T 
landscape.
                          test and evaluation
    Question. What are your views on the adequacy and effectiveness of 
the Department's development and operational test and evaluation 
activities?
    Answer. I believe the Department's developmental test and 
evaluation and operational test and evaluation activities are adequate 
and effective. Test activities play a critical role in informing 
acquisition decision making and in identifying programmatic 
opportunities for application of additional engineering and risk 
mitigation resources.
    Question. What will be the impact of further reductions in 
personnel on the ability to execute the test and evaluation missions of 
the Assistant Secretary of Defense for Research and Engineering?
    Answer. Further reductions in test and evaluation workforce 
capacity would require the Department to identify new efficiencies to 
effectively execute its T&E mission and will require careful planning 
and management attention. Developmental test and evaluation oversight 
functions that are part of the Military Departments and OSD 
headquarters elements will likely be impacted by proposed across-the-
board headquarter staff reductions, and additional efficiencies will 
need to be identified to meet mission requirements
    Question. What changes do you anticipate will be made in the 
Department's developmental testing organization and capabilities?
    Answer. I do not anticipate changes to the Department's 
developmental testing organization and capabilities. The establishment 
of the position of the Director of Developmental Test and Evaluation, 
now the DASD(DT&E), significantly strengthened the Department's test 
discipline and practice, and I have had the privilege of working 
closely with the DASD(DT&E) in my current capacity.
    Question. What modifications would you recommend to the test and 
evaluation processes in the Department of Defense to more efficiently 
and quickly develop and deliver operationally effective and suitable 
technologies to the warfighter?
    Answer. I believe that the test community needs to be engaged early 
and continuously with acquisition programs to ensure that opportunities 
for early, effective, and cost efficient test are designed into program 
plans and that test activities produce actionable information to inform 
programmatic decision making. I also believe that strong DT&E can be an 
effective way to minimize risk, and to avoid discovery of issues in 
OT&E by identifying and correcting issues early in the design and 
development process. If confirmed, I would support efforts to improve 
the test community's early and continuous engagement.
                         small business issues
    Question. If confirmed, how would you work to ensure that the Small 
Business Innovation Research (SBIR) program serves a useful purpose in 
meeting the Department's research goals?
    Answer. The policy oversight and responsibility for the SBIR/STTR 
falls within the Department's Office of Small Business Programs. If 
confirmed, I would work closely with the Director of Small Business 
Programs to ensure that the program remains focused on innovation and 
technology advancement and aligned with the Department's overall 
research goals. The SBIR /STTR program is a major contributor in 
meeting the Department's research goals and fosters a broad and 
innovative small business industrial base to meet critical warfighter 
needs.
    Question. What recommendations would you suggest to the SBIR 
program to improve the transition of S&T capabilities into acquisition 
programs?
    Answer. The recent Better Buying Power 3.0 included efforts focused 
on improving the transition of SBIR-developed S&T capabilities into 
acquisition programs. Last year the Department included transition 
goals and incentives in DOD Instruction 5000.02. If confirmed, I would 
pursue reinforcing these initiatives to continue to improve SBIR 
transition with guidance, education, and training across the 
Department.
    Question. What recommendations would you suggest to the SBIR 
program to improve its ability to attract non-traditional defense 
contractors, such as small startup companies, into the program?
    Answer. If confirmed, I would explore avenues to continue to 
improve the ability of DOD to attract non-traditional defense 
contractors through a comprehensive outreach and communication 
strategy. Annually the Department reviews over 10,000 SBIR/STTR 
proposals, of which approximately one-third are from newly formed 
businesses engaging with the Department for the first time. The 
Department recently has significantly increased its outreach to 
minorities, HUB zone, and underserved states, and I believe these 
efforts should be fostered and expanded.
    Question. What guidance or direction do you consider necessary 
regarding transition of the research results of SBIR programs to major 
weapon systems and equipment?
    Answer. I believe the Department has adequate guidance and 
direction to support transition of SBIR results to major systems 
acquisition, but these efforts require continuous emphasis by 
Department advocates identifying and leveraging opportunities for 
transition.
    Question. What emphasis would you place, if confirmed, on 
participation by the acquisition community in setting research 
priorities for the SBIR and in accepting new solutions into existing 
programs of record?
    Answer. I believe the acquisition and S&T communities must be 
strongly engaged in setting research priorities for the SBIR program to 
ensure the relevance of these efforts to the Department's research 
goals and to foster transition from SBIR to programs of record. If 
confirmed, I would emphasize these efforts.
    Question. In your judgment, are modifications needed to the 
Department's SBIR program to ensure it meets the Department's goals and 
is updated to support research costs of the small business community?
    Answer. I am currently unaware of the need for any modifications to 
the Department's SBIR program.
                          defense laboratories
    Question. What is your overall assessment as to the technical 
capabilities and quality of Defense laboratories relative to their 
Department of Energy, FFRDC, industry, academic and foreign peers?
    Answer. I believe that DOD laboratories are a critical and unique 
component of the Department's research and engineering enterprise. They 
provide the science, technology, and engineering expertise to DOD that 
allows our Nation to maintain a technological edge over potential 
adversaries. DOD technical expertise also plays a prominent role in 
developing technologies that benefit the Nation as a whole. While 
Department of Energy, FFRDCs, industry, academic, and foreign 
laboratories make vital contributions, they cannot replace the unique 
capabilities and expertise of the in-house Defense laboratories and 
their unique focus on, and access to, U.S. warfighter needs. 
Furthermore, subject matter expertise developed in the DOD laboratories 
provides the knowledge necessary to evaluate and mold technologies 
developed by private industry and academia to meet DOD's unique needs. 
The DOD laboratories' complete focus on the warfighter and the mission 
make them unique, irreplaceable assets.
    Question. What are your views on the most effective management 
approach for personnel at these facilities?
    Answer. I believe that the most effective management approaches for 
the Defense laboratories are ones that provide laboratory leadership 
with the flexibility needed to shape their workforce to meet the 
rapidly changing needs of the warfighter. The authorities currently 
granted to defense laboratories as Science and Technology Reinvention 
Laboratories are appropriate for managing the personnel at DOD 
laboratories and, with the support of Congress, are continually being 
refined to meet the changing laboratory workforce management needs of 
the DOD.
    Question. A review of defense laboratories operations shows various 
deficits in personnel management, infrastructure renewal, physical 
plant recapitalization rate, support services adequacy, etc. Some 
analyses have indicated that these deficiencies result from excessive 
centralized control.
    Do you support significantly increased delegation of operating 
authority to the lab director?
    Answer. I believe empowering individual leaders at the lowest 
appropriate level is part of the necessary flexibility for effectively 
managing a laboratory. There is a complementary need for some 
centralized coordination in order to ensure that resources are expended 
both efficiently and effectively. I currently am unaware of a need 
significantly to increase delegation but, if confirmed, I would study 
this issue and recommend changes as appropriate.
    Question. If confirmed, what steps, if any, will you take to 
improve the quality, technical capabilities, and mission performance of 
the Defense laboratories?
    Answer. If confirmed, and building on the work of Better Buying 
Power 3.0 to look at laboratory return on investment, I would assess 
the current quality, technical capabilities, and mission performance of 
the Defense laboratories. I would then work in collaboration with the 
heads of the DOD components, and through them, the laboratories to 
implement any needed changes.
    Question. Would you support transitioning certain laboratory 
capabilities into FFRDCs or Government Owned-Contractor Operated 
facilities?
    Answer. I am currently unaware of any capabilities that should be 
transitioned to FFRDCs or Government Owned-Contractor Operated 
facilities. If confirmed, I would make any needed recommendations as 
part of the assessment of laboratory capabilities.
                    laboratory personnel management
    The Department's research and development laboratories perform 
unique functions in serving national security missions and do not 
readily fit into the general operational management structure.
    Question. Would you support increasing the flexibility of the 
laboratories on personnel matters?
    Answer. The quality of the Department's research and development 
laboratories is completely dependent on the ability of the labs to 
attract, recruit, and retain topnotch technical talent with skill sets 
critical to military innovation. Increased flexibility in personnel 
matters is an important factor in recruiting and retaining the high-
caliber workforce needed by the DOD's laboratory enterprise. I support 
making maximum use of available direct and flexible hiring authorities 
for scientists and engineers, as well as allowing full use of all 
Science and Technology Reinvention Laboratory personnel authorities in 
order to compete to attract the best and brightest talent to the DOD 
laboratories.
    Question. What particular workforce challenges does the Assistant 
Secretary of Defense for Research and Engineering have?
    Answer. Recruiting and retaining a world-class technical workforce 
is a pressing challenge for the defense research and engineering 
enterprise. The DOD mission requires specialized scientific and 
engineering skills and the Department needs to compete effectively to 
identify and leverage this limited talent pool. I believe that 
attracting, developing, and retaining talent with critical twenty-first 
century skills in domains such as advanced microelectronics, 
cybersecurity, embedded software development, and data analytics will 
be a significant challenge to the Office of the ASD(R&E) over the next 
decade.
    An additional long-term challenge for the defense research and 
engineering enterprise is the ``graying'' of the workforce, within the 
Office of the ASD(R&E), across the Military Departments and Defense 
Agencies, and within the defense industrial base. The senior workforce 
possesses significant skill and experience, but over the near term the 
R&E enterprise will see an accelerated loss of experience as a 
significant portion of its workforce retires. If confirmed, I would be 
attentive to these challenges.
    Question. How do the personnel flexibilities of the Office of the 
Assistant Secretary of Defense for Research and Engineering compare to 
those of DARPA or the Defense Laboratories? Should the Office of the 
Assistant Secretary of Defense for Research and Engineering be 
permitted to use the same hiring flexibilities as these organizations?
    Answer. I believe personnel flexibility is critical for recruiting 
and retaining the best and the brightest to our laboratory enterprise. 
DARPA and the Science and Technology Reinvention Laboratories (STRLs) 
have special authorities with regard to personnel flexibility, that do 
not apply to the Office of the ASD(R&E), I believe that these personnel 
procedures, including those applicable to OASD (R&E), have been 
adequate for the needs of the DOD, although I note that increased 
flexibility can prove useful for any part of the DOD.
                  scientific and technical conferences
    Question. A recent GAO study indicated that the lengthy and 
burdensome approval processes for legitimate conference attendance 
requests at the Department of Defense have severely curtailed 
attendance at academic conferences. Has the work and mission of the 
laboratories and the Office of the Assistant Secretary of Defense for 
Research and Engineering been hindered by conference approval processes 
and travel limitations?
    Answer. Collaboration with scientific colleagues is key to the 
success of DOD laboratory and Office of the ASD(R&E) personnel, as is 
the ability to share technical findings with the broader research 
community. Scientific exchange is one of the primary vehicles for the 
exchange of new ideas and is a vehicle through which new concepts and 
technological innovation bloom. Academic and technical conference 
participation for the DOD professional workforce, including scientists 
and engineers, is an essential element of the S&T mission and a 
critical means of achieving and maintaining global technological 
superiority.
    While the Defense Laboratories and the Office of the ASD(R&E) 
continue to meet their mission, the conference approval processes and 
travel limitations have hindered this type of important collaboration. 
If confirmed, I would work with the USD(AT&L), the Deputy Chief 
Management Officer, and the Components to explore means to reduce 
unnecessary impediments to technical collaboration.
    Question. Has the application of the new conference approval 
processes since the issuance of OMB Memorandum M-12-12 ``Promoting 
Efficient Spending to Support Agency Operations'' improved the 
effectiveness of the DOD research and engineering community in 
executing its designated missions?
    Answer. The September 23, 2015 memorandum from the Deputy Secretary 
of Defense and the associated DOD Conference Guidance Version 3.0 
issued simultaneously by the Deputy Chief Management Officer recognize 
the importance of participation in technical meetings, symposia and 
conferences to the DOD Science and Engineering community. These revised 
policies have significantly streamlined approval authorities for 
technical conference attendance and are intended to remove unintended 
barriers to technical collaboration, while maintaining appropriate 
management visibility and management to control travel costs. I expect 
that implementation of this revised policy will address previous 
concerns over burdensome local implementation of M-12-12 policy.
    Question. Does the application of the conference approval process 
in DOD align with best practices of the commercial sector or leading 
public and private academic institutions?
    Answer. Recent revisions to conference approval policy are intended 
to align DOD practice more closely with best practice of leading public 
and private institutions. If confirmed, I will monitor and assess 
impacts of this recent policy change on the research and engineering 
workforce.
               technical and acquisition workforce issues
    Question. In your view, does the Department have adequate technical 
expertise within the government workforce to execute its designated 
acquisition and technical development missions?
    Answer. I believe the current scientific and engineering workforce 
numbers and skill mix are sufficient to meet DOD's current acquisition 
and technical development needs, but several trends raise future 
concerns. The first trend is the large number of employees in the 
technical workforce nearing or at retirement age. We expect that 
approximately half of the technical workforce will be eligible to 
retire in the next 10 years. The second challenge is with the most 
recent hires: those with 0-5 years of experience. Studies indicate that 
the individuals in this age group may expect to change jobs every 3-5 
years. Consequently DOD will need to compete with industry to retain 
the newest employees. Finally, in fast moving technical areas, the 
Department will need to refresh, retrain, and upgrade the skills of its 
acquisition and technical development workforce. If confirmed, I would 
carefully monitor workforce data for early indications of excessive 
turnover and/or accelerated loss of key skills.
    Question. What efforts will you undertake, if confirmed, to improve 
the technical capabilities of DOD in critical areas, such as systems 
engineering, information assurance, social and cultural sciences, and 
software engineering?
    Answer. The DOD Science, Technology, Engineering and Mathematics 
workforce represents a diverse set of very specific technical skills. 
Critical, high demand skills such as systems engineering, cyber 
security and information assurance, large data analytics, social and 
cultural modeling, and software engineering are areas that require 
particular and continued attention. Other domains, such as nuclear 
engineering, aerospace engineering, naval architecture, and energetics, 
in which DOD--unique skill sets are required, also merit specific 
attention. As DASD(SE), I have worked closely with leaders across the 
engineering community to address critical technical capabilities needed 
by the DOD workforce. Mitigation actions have included improved 
training and education, development of guidance and best practices, and 
investment in the development of new methodologies to address DOD 
challenges. If confirmed, I would continue to work with the engineering 
and scientific communities to address these needs to ensure we have a 
workforce that can meet current and future DOD challenges.
               defense advanced research projects agency
    Question. What is your view of the appropriate relationship between 
the Assistant Secretary of Defense Research and Engineering and the 
Director of DARPA?
    Answer. The Director of DARPA reports to the USD(AT&L) through the 
ASD(R&E), I believe this the appropriate relationship. In my current 
position, I have an excellent, strong, and ongoing relationship with 
DARPA.
    Question. What do you believe is the proper research mission for 
DARPA?
    Answer. Since its founding, DARPA has a long history of being an 
effective engine of transformative innovation. DARPA's ability to apply 
innovative solutions to address some of the most difficult problems 
that face the DOD, now and in the future, has been the cornerstone of 
its success. The agile, flexible, and inventive nature of the agency's 
organizational culture has been successful in driving the pace of 
technology development for the National Security enterprise. I believe 
the proper role for DARPA is to conduct high-risk, high-payoff research 
for the Department, and to share that work with the Military 
Departments and others within the government.
    Question. What adjustments do you expect to make, if confirmed, to 
the current style of DARPA research program management and investment 
strategy?
    Answer. If confirmed, I would work closely with DARPA, as well as 
the Military Departments and other DOD Components, to provide a 
balanced technology portfolio across the Department. Based on my 
current awareness of the DARPA research program and investment 
strategy, I do not see a need to make significant adjustments to the 
agency's current strategy.
    Question. What do you believe are the key characteristics of an 
effective DARPA director?
    Answer. I believe an effective DARPA Director should have the 
ability to develop and communicate a vision of the DARPA research 
program, have the ability to attract exceptional technical talent to 
the agency, have the ability to motivate teams internal and outside the 
agency to take on challenges of national importance, be able to connect 
and bridge DARPA research to the operational and acquisition community, 
and be prepared to take on the most critical technical challenges that 
face the Department.
    Question. What, in your view, is the appropriate relationship 
between DARPA and the Service S&T programs?
    Answer. I believe that the DARPA and the Military Department S&T 
programs should be coordinated, supportive, and complementary. DARPA is 
particularly focused on pushing the envelope to develop high-risk, 
high-payoff, leap-ahead advances, while the Military Department S&T 
programs draw upon and further develop these and other technological 
advancements to maintain the broad and deep technology base required to 
develop innovative capabilities for the warfighter. DARPA's strategy 
allows the agency to pursue opportunistic thrusts to dramatically 
advance particular technical capabilities, while the Military 
Department S&T programs seek a more balanced risk portfolio.
    Question. What, in your view, is the appropriate relationship 
between DARPA and the Service laboratories?
    Answer. I believe that the programs relationship between the 
Military Department laboratories and DARPA is one of being partners in 
developing technology solutions for the warfighter.
   science, technology, engineering and mathematics (stem) education
    Question. Do you believe that DOD specifically and the Nation as a 
whole is facing a crisis in STEM education?
    Answer. As the government's largest employer of federal scientists 
and engineers, the Department has a large stake in identifying and 
attracting necessary STEM talent. This, in turn, means the Department 
depends on the Nation's success in producing a capable, competitive 
talent pool in STEM fields.
    STEM education and maintenance of a vibrant STEM workforce are 
national security imperatives. Today's military capabilities reflect 
the great reach and impact that scientists, engineers, and 
technologists have made on our national security and economy. DOD's 
future STEM capacity, however, is at risk. In 2008, the percentage of 
engineering graduates among all university graduates in the United 
States remained among the lowest in the world, at 4.4 percent (by 
comparison, China was among the highest at 31 percent). The Department 
of Labor predicts that in the next decade, 80 percent of jobs will 
require STEM skills, yet according to the Department of Education, less 
than 25 percent of college students pursuing bachelor's degrees will be 
specializing in STEM fields. Excellence in is imperative to national 
security and the Nation's economic well-being; however, as much of 
DOD's workforce approaches retirement, DOD and industry will face a 
significant challenge in attracting superior STEM talent.
    Question. In your view, how will this affect DOD's ability to 
pursue its missions?
    Answer. I believe that the health of the STEM talent pool directly 
affects DOD's ability to pursue its mission and goals. The Department 
seeks to ensure continued success at recruiting STEM talent, enhancing 
STEM education, and providing opportunity to the children of military 
families, and assuring a STEM-capable workforce through strategic 
outreach
    Question. What role do you think DOD should play in supporting STEM 
education?
    Answer. I believe the Department should be actively engaged at all 
levels across the Science, Technology, Engineering and Mathematics 
education continuum--pre-college through graduate--and, more 
importantly, work with the Office of Science and Technology Policy, the 
National Science Foundation, the Department of Education, and other 
Federal components involved in national security, to generate a ``whole 
of government'' approach to address national security STEM workforce 
development.
    Question. How do DOD's efforts fit in with the larger STEM 
education program consolidation initiative announced by the President?
    Answer. DOD efforts span a broad educational continuum, from 
elementary through graduate school and into workforce development. The 
Department's STEM efforts align with the Administration's larger STEM 
education program consolidation initiative in numerous ways. DOD 
collaborates with the lead Federal agencies--the Department of 
Education (pre-kindergarten through 12th grade STEM education), and the 
National Science Foundation (undergraduate through graduate STEM 
education). It also works with the Smithsonian Institution (informal 
STEM education) as well as with other Federal agencies on a regular 
basis through the Federal Interagency Working Groups (IWGs). For 
example, DOD contributed to the development of the Federal STEM 
Education 5-Year Strategic Plan and IWG charters, and it continues to 
provide significant input about its programs to joint agency efforts in 
support of enhancing evaluation and increasing the impact of the 
Federal investments in STEM education. DOD actively advises and assists 
with implementation of the Federal STEM Education 5-Year Strategic 
Plan.
                        health of r&d enterprise
    Question. What is your assessment of the current health of the 
DOD's R&D enterprise as a whole?
    In general, I believe the health of the DOD's R&D enterprise is 
good, but there are signs of stress as a result of reduced DOD manpower 
and budget. DOD is seeing some indications that retention of younger 
employees is a potential concern. Another trend is a growing number of 
employees in the technical workforce nearing or at retirement age. 
Approximately half of the technical workforce will be eligible to 
retire in the next 10 years. The cumulative effect of downsizing, 
reduced opportunities for technical collaboration, and uncertainty 
about future funding stability may be having a negative impact on the 
overall health of the R&D enterprise by decreasing the Department's 
reputation as an employer of choice.
    Question. Are rules currently in place to govern DOD R&D conducive 
to a healthy enterprise?
    Answer. I believe current statutory authorities, rules, and 
regulations have been sufficient for a healthy R&D enterprise, but the 
Department finds itself in competition for critical technical talent 
and is challenged by the flexibility of the current processes.
    Question. DOD has recently taken criticism for not devoting enough 
funding to constructing and upgrading facilities for R&D. If confirmed, 
how would you address that issue?
    Answer. If confirmed, I will assess the effectiveness of existing 
authorities in addressing concerns over constructing and upgrading 
facilities for R&D.
    Question. How would you work to reduce the overall costs of the R&D 
enterprise, while still maintaining the integrity and quality of the 
Department's R&D work? In which areas would you strive to build 
efficiency?
    Answer. I have not assessed the efficiency of the current R&D 
enterprise. Under the Better Buying Power 3.0 initiative, the 
Department is taking a holistic look at costs and overhead across the 
R&D enterprise, with the goal of improving performance and efficiency. 
If confirmed, I would strongly support this effort.
    Question. How do you think continued budgets under sequestration 
will affect DOD science and technology funding?
    Answer. I believe the threat of sequestration significantly affects 
the Department's ability to perform effective long-range S&T planning. 
To date, the Department has made a concerted effort to prioritize and 
protect S&T funding in its budget requests. If, however, the full 
effect of sequester were triggered in any year, I believe that there 
would be an immediate reduction to S&T budgets.
                     defense innovation initiative
    Question. Former Secretary Hagel recently established a broad, 
Department-wide initiative to pursue innovative ways to sustain and 
advance the country's military superiority and improve business 
operations. How has the Department integrated that initiative with 
Research and Engineering?
    Answer. One of the lines of effort under the Defense Innovation 
Initiative is focused on identifying emerging technology and material 
opportunities that offer opportunity to strengthen DOD capabilities in 
a competitive future national security environment. The effort, called 
the Long-Range Research and Development Planning Program (LRRDPP), was 
named in reference to the seminal 1973 study that identified many of 
the key military thrusts of the last 30 years. Since November 2014, I 
have been leading the 2015 LRRDPP study, which has engaged technical 
experts across the Department's research and engineering enterprise, as 
well as seeking separate input from academic, not-for-profit, and other 
private sector sources to identify emerging opportunities for future 
military innovation. The classified LRRDPP study, when fully completed 
early next year, should identify opportunities to accelerate and 
demonstrate new system concepts that can inform future materiel plans. 
This effort will also identify key research and engineering areas for 
assessment and prioritization in future research and engineering 
planning.
    Question. How would you further those efforts?
    Answer. While the current LRRDPP effort has been a valuable 
assessment of emerging technology and system opportunities, I believe 
the Department needs to establish a stronger capacity to conduct 
regular, periodic, independent assessments of broad emerging defense 
and non-defense technology opportunities, both to inform our DOD's 
science and technology investment priorities and to ensure that the 
Department is continuously experimenting with new and emerging 
technologies that can inform and improve the effectiveness and 
efficiency of critical military capabilities.
    Question. How would you increase the effectiveness of the Long-
Range Research and Development Program Plan (LRRDPP)?
    Answer. The initial LRRDPP effort focused largely on future weapon, 
air combat, maritime, and space capabilities to counter emerging peer 
and near-peer state actors. It did not include an assessment of 
technology-enabled future land combat. Earlier this year, the Deputy 
Secretary of Defense requested an LRRDPP follow-on study, with the 
participation of key technology and operational experts from the U.S. 
Army, U.S. Marine Corps, and U.S. Special Operations Force communities, 
of emerging technical opportunities for future land combat. This effort 
is currently under way.
                        trusted foundry program
    Question. What is the status of the ``Trusted Foundry'' program for 
providing a secure source of microchips for sensitive defense systems?
    Answer. The Defense Microelectronics Activity (DMEA) manages the 
DOD Trusted Foundry Program. This program provides the Department and 
other government agencies with access to trusted microelectronics 
design and manufacturing capabilities necessary to meet the 
confidentiality, integrity, availability, performance, and delivery 
needs of U.S. Government customers. DMEA accredits suppliers as 
``trusted'' in the areas of integrated circuit design, aggregation, 
brokerage, mask manufacturing, foundry, post processing, packaging/
assembly, and test services. These services cover a broad range of 
technologies and are intended to support both new and legacy 
applications; both classified and unclassified. There are currently 72 
DMEA-accredited suppliers covering 153 services, including 22 suppliers 
that can provide full-service trusted foundry capabilities.
    Question. What is being done to respond to the recent announcement 
that IBM plans to sell its Foundry capabilities to a foreign controlled 
company based in the United Arab Emirates?
    Answer. In July 2015, Global Foundries purchased IBM's U.S.-based 
Trusted. DOD, the IC, and the Department of Energy assessed how the 
loss of access to the Trusted Foundry's specialized IBM technology, IP, 
and R&D knowledge would disrupt their current and future national 
security programs. Based on this assessment, the DOD determined that 
continuity of supply of unique trusted products over the short- and 
mid-term is critical, and that a revised strategy is needed to ensure 
long term access to trusted state of the art microelectronics.
    For the short- and mid-term, DOD continues to work directly with GF 
to ensure appropriate accreditations can be in place for the successor 
company to serve as a DOD Trusted Supplier. For the long term, the DOD 
is taking a broad look toward future, state-of-the-art needs, 
projections for the commercial microelectronics marketplace, and 
technology solutions that may enable access to commercial fabrication 
facilities, to inform alternative approaches to ensuring access to 
trusted, state of the art microelectronics.
    Question. How might the Department mitigate the risks of losing 
that capability to a company with foreign ownership?
    Answer. The Department is studying long-term options and 
alternatives to the current Trusted Foundry approach. The DOD is taking 
a broad look toward future, state-of-the-art needs, projections for the 
commercial microelectronics marketplace, and technology solutions that 
may enable access to commercial fabrication facilities, to inform 
alternative approaches to ensuring access to trusted, state of the art 
microelectronics. The vision for these new approaches involves shifting 
the burden of hardware assurance from policies that restrict access to 
the commercial sector, to technologies and processes that enable 
cooperation. Options include improved hardware and software assurance 
tools for analyzing provenance and functionality, new technology 
capabilities to enable trust from untrusted sources, and continued 
maturation of the broader trusted supplier network that DMEA certifies. 
DOD and other federal agencies are contributing to these analyses, to 
identify sustainable approaches to securing the microelectronics supply 
chain of the future.
    Question. How does the Trusted Foundry program support a secure 
supply chain for field-programmable gate array (FPGA) chips?
    Answer. The current Trusted Foundry program does not address FPGA 
chips; it provides access to custom-manufactured application specific 
integrated circuits (ASICs). FPGAs are frequently a more affordable 
alternative to ASICs, but unlike ASICs, they are commercial-off-the-
shelf items produced for a broad market of users. FPGAs have unique 
trust issues. They are globally designed and manufactured, and unlike 
ASICs there are currently no U.S.-based foundries supplying FPGAs for 
DOD use.
    It is DOD policy to employ protections that manage risk in the 
supply chain for components or subcomponent products such as FPGAs. The 
Department has issued guidance on supply chain risk management 
practices to address components such as FPGAs. If confirmed, I would 
support efforts to continue to mature these practices as we learn more 
about their effectiveness.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information. Do you agree, if 
confirmed for this high position, to appear before this Committee and 
other appropriate committees of the Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
Committee, or designated members of this Committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Research and Engineering?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this Committee and 
its staff and other appropriate Committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 

    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Mazie K. Hirono
                our own anti-access/area denial strategy
    1. Senator Hirono. Mr. Welby, there is much concern about China's 
ability to deploy cost-effective ``anti-access/area denial'' 
capabilities in the Pacific that could frustrate our ability to project 
power into that theater in the event of conflict. However, China must 
also ``project power'' across the South China Sea to secure the series 
of island chains that ring their mainland. This geography offers the 
United States and its allies in the region the ability to present China 
with an effective and affordable anti-access/area denial challenge. In 
other words, the very technology trends that we are expressing concern 
about could be harnessed to check China's power projection capability. 
Could our own anti-access/area denial strategy help the U.S. and our 
allies help to contain China's military in a conflict?
    Mr. Welby. The combatant commander, U.S. Pacific Command, is 
responsible for developing the plans and strategies to conduct 
operations in the South China Sea and other areas of the Western 
Pacific. We work closely with the commander and his staff to identify 
the current and future capabilities PACOM will need, in order to guide 
our research and development efforts. ASD(R&E) is actively pursuing 
technologies that will improve existing PACOM capabilities and 
developing new technical capabilities that will allow U.S. and allied 
forces under U.S. PACOM command to maintain a credible deterrent and 
successfully execute PACOM plans. These efforts include technical 
efforts focused on addressing ``anti-access/area denial'' capabilities 
as well as efforts focused on creating asymmetric advantages for U.S. 
Forces. If confirmed, I will continue to emphasize these efforts.

    2. Senator Hirono. Mr. Welby, have you considered this concept in 
the context of your ``Third Offset Strategy''?
    Mr. Welby. The Secretary and Deputy Secretary are exploring the 
concept of a ``Third Offset Strategy'' to address specific challenges 
we see in future conflicts due to the rapidly evolving global national 
security environment and the proliferation of advanced technical 
capabilities. Technology is one aspect of this discussion. In support 
of these efforts, ASD(R&E) has been evaluating technical approaches 
that can mitigate against the growing anti-access/area denial challenge 
and that can create asymmetric advantages for U.S. Forces in a future 
competitive environment. I consider these efforts critical to 
maintaining our warfighters technical edge in a future competitive 
technology environment.

    3. Senator Hirono. Mr. Welby, what technologies would you want to 
develop to support this idea?
    Mr. Welby. Working with the Services, the combatant commanders, and 
others, ASD(R&E) has identified and is pursuing a number of 
technologies that have the potential to deliver significant new or 
improved capabilities to the Joint Force in a range of militarily 
relevant domains including, but not limited to: Missile Defense, Air 
Warfare and strike, Maritime warfare, Land Warfare, Communications, and 
Surveillance. Many of these areas may also be able to take advantage of 
emerging concepts in electronic warfare, advanced computing (including 
applications of large data and deep learning), and advances in manned-
unmanned teaming and systems. If confirmed, I would prioritize these 
efforts.
          science & technology to support combatant commanders
    4. Senator Hirono. Mr. Welby, although the combatant commanders 
(such as PACOM) are the ones who actually execute military operations, 
it seems like many times their needs and requirements are subordinate 
to the needs and priorities of the Military Service bureaucracies. As a 
result research programs are not established that connect with their 
priorities and these needs go unmet. How will you work to ensure that 
the needs of PACOM and the other combatant commanders are adequately 
prioritized by the Services as they build their science and technology 
and research budgets and programs?
    Mr. Welby. ASD(R&E) works to insure that the long term needs of 
combatant commanders shape the science and technology investments of 
the Department. ASD(R&E) maintains liaisons with all of the Combatant 
Commands. These liaisons also perform outreach to the Service Component 
Commanders in each command. If confirmed, I will work to ensure that 
the Department's research and engineering enterprise deepens its 
connections to the combatant commanders, including PACOM.

    5. Senator Hirono. Mr. Welby, what programs would you strengthen to 
better connect research activities to the combatant commanders?
    Mr. Welby. If confirmed, I will work to promote active dialog and 
interaction between the combatant commanders and their subordinate 
Service Component Commanders with the R&D activities within the Office 
of the Secretary of Defense and those in the Service Research & 
Development organizations. I particularly believe that our programs 
focused on Experimentation and Concept Prototyping offer an excellent 
opportunity for engagement--as these efforts provide an excellent 
opportunity to jointly explore the operational impacts of emerging 
technology and to accelerate emerging capabilities to the force.
                                 ______
                                 
    [The nomination reference of Mr. Stephen P. Welby follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 19, 2015.
    Ordered, That the following nomination be referred to the 
Committee on Armed Services:
    Stephen P. Welby, of Maryland, to be an Assistant Secretary 
of Defense, vice Zachary J. Lemnios, resigned.
                                ------                                

    [The biographical sketch of Mr. Stephen P. Welby, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Stephen P. Welby
Education:
    MS Computer Science, The Johns Hopkins University, Baltimore, MD, 
1996

    MS Applied Mathematics, The Johns Hopkins University Baltimore, MD, 
1991

    MS Business Administration, Texas A&M University, Texarkana, TX, 
1988

    BS Chemical Engineering, The Cooper Union for the Advancement of 
Science and Art, Manhattan NY, 1987

Employment Record:
    <bullet>  United States Department of Defense--Washington, DC
      <bullet>  Deputy Assistant Secretary for Systems Engineering
      <bullet>  September 2009-Present

    <bullet>  Raytheon Missile Systems--Tucson, Arizona
      <bullet>  Deputy Vice President, Advanced Missiles and Unmanned 
Systems
      <bullet>  February 2009-September 2009

    <bullet>  Self Employed, Independent Aerospace and Defense 
Consultant--Bethesda, Maryland
      <bullet>  August 2008-February 2009

    <bullet>  Defense Advanced Research Projects Agency--Arlington, 
Virginia
      <bullet>  Director and Deputy Director, Tactical Technology 
Office (2004-2008)
      <bullet>  Acting Director and Deputy Director, Information 
Exploitation Office (2001-2004)
      <bullet>  Program Manager, Information Systems and Special 
Projects Offices (1997-2001)
      <bullet>  October 1997-August 2008

    <bullet>  US Army Research Laboratory--Adelphi, MD
      <bullet>  Project Engineer and Team Leader
      <bullet>  1988-1997

    <bullet>  US Army School of Engineering and Logistics, Red River 
Army Depot--Texarkana, TX
      <bullet>  Engineering Intern
      <bullet>  1987-1988

Honors and Awards:
    <bullet>  Full Undergraduate Academic Scholarship, The Cooper Union 
for Advancement of Science and Art

    <bullet>  Secretary of Defense Award for Exceptional Public Service

    <bullet>  Secretary of Defense Exceptional Civilian Service Award

    <bullet>  Department of the Army Achievement Medal for Civilian 
Service

                                ------                                

    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Mr. Stephen P. 
Welby in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Stephen Patrick Welby

    2. Position to which nominated:
    Assistant Secretary of Defense for Research and Engineering

    3. Date of nomination:
    March 19, 2015.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    3 February 1965, Manhattan, NY.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Married, Spouse: Kimberly Jean Villa.

    7. Names and ages of children:
    [Nominee responded and the information is contained in the 
committee's executive files.]

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    MS Computer Science, The Johns Hopkins University, Baltimore, MD, 
1996
    MS Applied Mathematics, The Johns Hopkins University Baltimore, MD, 
1991
    MS Business Administration, Texas A&M University, Texarkana, TX, 
1988
    BS Chemical Engineering, The Cooper Union for the Advancement of 
Science and Art, Manhattan NY, 1987

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    2009-Present, Deputy Assistant Secretary for Systems Engineering, 
United States Department of Defense, Washington, DC
    2009-2009, Deputy Vice President, Advanced Missiles and Unmanned 
Systems, Raytheon Missile Systems Tucson, Arizona
    2008-2009, Self Employed, Independent Aerospace and Defense 
Consultant, Bethesda, Maryland
    2004-2008 Director and Deputy Director, Tactical Technology Office 
Defense Advanced Research Projects Agency Arlington, Virginia

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    2001-2004 Acting Director and Deputy Director, Information 
Exploitation Office Defense Advanced Research Projects Agency 
Arlington, Virginia
    1997-2001 Program Manager, Information Systems and Special Projects 
offices Defense Advanced Research Projects Agency Arlington, Virginia
    1988-1997 Project Engineer and Team Leader U.S. Army Research 
Laboratory, Adelphi, Maryland
    1987-1988 Engineering Intern U.S. Army School of Engineering and 
Logistics, Red River Army Depot, Texarkana, Texas
    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    None

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    Senior Member, Institute of Electrical and Electronics Engineers
    Member, International Council on Systems Engineering

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Full Undergraduate Academic Scholarship, The Cooper Union for 
Advancement of Science and Art
    Secretary of Defense Award for Exceptional Public Service
    Secretary of Defense Exceptional Civilian Service Award
    Department of the Army Achievement Medal for Civilian Service

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years of which you have 
copies and are on topics relevant to the position for which you have 
been nominated.
    See attached for a copy of the latest three speeches given.
    Below table summarizes speeches or presentations done over the past 
five years. Speeches are highlighted in yellow.
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                     Stephen P. Welby  
    This 7th day of April, 2015

    [The nomination of the Mr. Stephen P. Welby was reported to 
the Senate by Chairman McCain on December 7, 2015, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 14, 2015.]
                              ----------                              

    [Prepared questions submitted to Ms. Alissa M. Starzak by 
Chairman McCain prior to the hearing with answers supplied 
follow:]

                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I believe that Goldwater-Nichols and other reforms 
significantly improved interservice and joint relationships within the 
Department of Defense. The principles that animated Goldwater-Nichols--
including enhancing civilian control of the military, improving 
military advice to civilian leaders, strengthening the role of 
combatant commanders to allow them to accomplish the missions assigned 
to them, and encouraging joint officer management--continue to apply 
today. I understand that there is currently a desire to take a careful 
look at Goldwater-Nichols to assess whether any changes are necessary. 
Although at this time, I am unaware of any need to amend Goldwater-
Nichols, I look forward to being involved in those discussions, if 
confirmed, and to recommend any changes I believe to be warranted 
through the established process.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. As noted above, I am not aware of any need to amend 
Goldwater-Nichols.
                                 duties
    Question. What is your understanding of the duties and functions of 
the General Counsel of the Department of the Army?
    Answer. The duties and functions of the General Counsel of the Army 
are determined and assigned by the Secretary of the Army. The General 
Counsel provides legal advice to the Secretary of the Army, the Under 
Secretary, the Assistant Secretaries, and other offices within the Army 
Secretariat and serves as the chief legal officer of the Department of 
the Army responsible for determining the controlling legal positions of 
the Department. I understand that the General Counsel's 
responsibilities extend to any matter of law and to other matters as 
directed by the Secretary, to include overseeing matters in which the 
Army is involved in litigation, taking final action on certain claims 
filed against the Army, providing professional guidance to the Army's 
legal community, and establishing and administering the Army's policies 
concerning legal services.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Because of the broad nature of the duties and 
responsibilities of the office, the Army General Counsel must not only 
have good judgment and legal skills, but also the ability to build 
strong relationships and work collaboratively with individuals in the 
Army, across the Executive branch, and in the Congress. I believe my 
experience, both inside and outside the Department of Defense, has 
prepared me for this role.
    After receiving a Bachelor of Arts degree, magna cum laude, from 
Amherst College, I attended the University of Chicago Law School, where 
I was an editor on the Law Review and graduated with honors. After 
graduation, I served as a law clerk to the Honorable E. Grady Jolly, on 
the U.S. Court of Appeals for the Fifth Circuit in Jackson, 
Mississippi. I subsequently moved to Washington, DC, to practice law at 
the law firm of O'Melveny and Myers, where I focused on compliance, 
corporate investigations and white collar defense. In 2005, I joined 
the Office of General Counsel at the Central Intelligence Agency, 
before becoming a counsel on the Senate Select Committee on 
Intelligence in 2007. I currently serve as a Deputy General Counsel in 
the Department of Defense Office of General Counsel, working on a 
variety of legal issues related to Congress, including issues directly 
related to the Army. I believe that this legal and practical 
experience--in three branches of government--will serve me well in 
addressing the wide range of issues that will face the Department of 
the Army.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the General Counsel of 
the Department of the Army?
    Answer. I am confident that I have the necessary legal and 
professional experience, analytic skills, and leadership abilities to 
be the General Counsel of the Department of the Army. If I am 
confirmed, I will establish and maintain close and professionally 
cooperative relationships with the talented and dedicated attorneys in 
the Office of the General Counsel, with The Office of The Judge 
Advocate General of the Army, and with other offices dealing with 
matters of mutual interest in order to provide the best possible legal 
services to all members of the Department of the Army.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Army would prescribe for you?
    Answer. If I am confirmed, I will be ready to execute the 
responsibilities of the General Counsel set forth in the General Order 
prescribing the duties of each principal officer of Headquarters, 
Department of the Army. In addition to these duties, I anticipate that 
the Secretary of the Army will expect me to manage the Office of 
General Counsel efficiently and effectively, ensuring that it provides 
accurate and timely legal advice. I also anticipate that the Secretary 
will expect me to work collaboratively with The Judge Advocate General, 
the General Counsels of the Department of Defense, the other Military 
Departments, and the Defense Agencies, and the legal staff of other 
federal agencies.
    Question. In carrying out your duties, how will you work with the 
General Counsel of the Department of Defense?
    Answer. While the General Counsels of the Army, Navy and Air Force 
serve as the chief legal officers of their respective departments, the 
General Counsel of the Department of Defense is the chief legal officer 
and final legal authority for the entire Department of Defense. If 
confirmed, I intend to continue the close professional relationship I 
have with Mr. Robert Taylor, the Acting General Counsel of the 
Department of Defense, by meeting regularly and collaboratively working 
in furtherance of the best interests of the Department of Defense.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the General Counsel of the Department of the Army?
    Answer. The General Counsel of the Department of the Army must 
provide accurate and timely legal advice on the full spectrum of 
matters that arise in the Army. In a time of shrinking budgets, the 
General Counsel will be confronted with significant legal matters 
related to balancing and transitioning the Army. In addition, I expect 
that the General Counsel will confront significant challenges related 
to the prevention of, and response to, sexual assault, military and 
civilian personnel policies, acquisition, and compliance with 
environmental law.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I plan to prioritize legal issues consistent 
with the Secretary of the Army's priorities, and to work closely with 
the Secretary, the Chief of Staff, The Judge Advocate General, and the 
attorneys in the Office of the General Counsel to provide timely, 
accurate, and candid legal advice. If confirmed, I will also ensure 
that the Office of the General Counsel is appropriately resourced and 
staffed to address those priorities.
    Question. What do you see as the most significant legal issues the 
Army will face in the coming year?
    Answer. In an environment of declining resources, the Army is 
facing difficult policy choices and a period of significant transition. 
Those efforts to rebalance and reform the Army will invariably involve 
significant legal questions. Although it is difficult to predict 
exactly what other significant legal issues will arise in the coming 
year, if confirmed, I will work closely with the talented team of 
attorneys and judge advocates in the Office of the General Counsel to 
address those issues.
    Question. Does the Army Office of the General Counsel have the 
resources to deal with these problems?
    Answer. At this time, I believe the Office of the General Counsel 
has the resources needed to address the many difficult legal issues 
confronting the Army today. If I am confirmed, I will be in a better 
position to evaluate this important management and leadership issue.
    Question. What broad priorities will you establish in terms of 
issues which must be addressed by the Office of the General Counsel of 
the Department of the Army?
    Answer. If confirmed, I plan to carefully examine the structure and 
functioning of the Office of General Counsel to ensure that it 
continues to appropriately address the needs of the Army as changes are 
made to the Army's operating framework. To provide high-quality, timely 
legal advice, the Army legal community must be integrated into the 
broader Army community and involved at all stages of the decision-
making process. If confirmed, I also intend to carefully review 
programs for attorney recruitment and retention to ensure that the 
Office has the skills and capacity to address the challenges of the 
future.
                             relationships
    Question. What is your understanding of the formal and informal 
relationship between the General Counsel of the Army and the following 
offices?
    The General Counsel of the Department of Defense.
    Answer. I understand that the Acting General Counsel of the 
Department of Defense, Mr. Robert Taylor, has worked closely with the 
General Counsels of the Military Departments. If confirmed, I intend to 
continue the professional relationship I have with Mr. Taylor, which 
will include routine consultation, communication, and cooperation on 
matters of mutual interest, furthering the best interests of the 
Department of the Army and the Department of Defense.
    Question. The Secretary of the Army.
    Answer. As the head of the Department of the Army, the Secretary of 
the Army is responsible for all affairs of the Department. If 
confirmed, my primary responsibility will be to provide the Secretary 
with clear, concise, and correct legal advice and counsel, and to 
perform the duties and functions he has assigned. In order to execute 
these responsibilities to the highest standard, I intend to establish a 
strong relationship with the Secretary of the Army that will enhance my 
ability to communicate with him directly and candidly on all matters.
    Question. The Chief of Staff of the Army.
    Answer. The Chief of Staff of the Army is the senior military 
officer of the Department of the Army and a member of the Joint Chiefs 
of Staff. The Chief of Staff is directly responsible to the Secretary 
of the Army on all matters except those related to his role as a member 
of the Joint Chiefs of Staff. If confirmed, I will work closely with 
The Judge Advocate General to continue the excellent relationship 
between the Army General Counsel, the Chief of Staff, and the Army 
Staff.
    Question. The Assistant Secretaries of the Army.
    Answer. I understand that the five Assistant Secretaries of the 
Army perform the duties and responsibilities assigned to them in 
statute and prescribed by the Secretary of the Army. In broad terms, 
the Assistant Secretaries formulate and oversee policies and programs 
within their functional areas. As the chief legal officer of the 
Department of the Army, the General Counsel is responsible for 
providing legal advice, counsel, and guidance to the Assistant 
Secretaries and their staffs. If confirmed, I will seek to establish 
strong, productive relationships with each of the Assistant Secretaries 
and ensure that the Office of the General Counsel continues to provide 
timely and correct legal advice to their respective staffs.
    Question. The Judge Advocate General of the Army.
    Answer. In coordination with the Army General Counsel, I understand 
The Judge Advocate General serves as military legal advisor to the 
Secretary of the Army and the primary legal advisor to the Chief of 
Staff of the Army, members of the Army Staff, and members of the Army 
generally. Additionally, I recognize that The Judge Advocate General 
has the primary responsibility for providing legal advice and services 
regarding the Uniform Code of Military Justice (UCMJ) and the 
administration of military discipline. A close, professional 
relationship between the civilian and uniformed members of the Army's 
legal community is critical. If confirmed, I will work collaboratively 
with The Judge Advocate General to provide the best possible legal 
support to the Army.
    Question. The Inspector General of the Department of Defense.
    Answer. The Inspector General of the Department of Defense is 
responsible for advising the Secretary of Defense on criminal 
investigative matters and all other matters relating to the prevention 
and detection of fraud, waste, and abuse within the Department of 
Defense. If confirmed, I will work with the Inspector General of the 
Department of Defense on matters related to the Department of the Army 
to ensure that Army interests are fully and fairly represented and to 
ensure Army actions taken as a result of Department of Defense 
Inspector General recommendations are executed in compliance with 
applicable law, directives, and regulations.
    Question. The Inspector General of the Army.
    Answer. The Inspector General of the Army reports directly to the 
Secretary of the Army regarding the discipline, efficiency, and economy 
of the Army, and on other matters specifically assigned by the 
Secretary. If confirmed, I anticipate maintaining a close and 
professional relationship with The Inspector General to ensure that he 
and his staff have the legal advice and support they require for 
mission success.
    Question. The General Counsels of the other military departments.
    Answer. Like the General Counsel of the Army, the General Counsels 
of the other Military Departments serve and act under the authority, 
direction, and control of the Secretaries of their respective 
Departments. If confirmed, I would expect to work closely with them on 
matters of mutual interest. I know that the Acting General Counsel of 
the Department of Defense, Mr. Taylor, facilitates this effort in order 
to best use the legal services across the Department of Defense. I look 
forward to participating in this effort.
    Question. The Attorney General and the Department of Justice.
    Answer. The Attorney General is the chief legal officer of the 
Executive Branch and may issue controlling guidance on certain legal 
issues. I also know the Attorney General and the Department of Justice 
represent the Department of the Army in litigation before Federal 
district courts and State courts. I view a strong relationship between 
the Army and the Department of Justice to be critical to success, and 
if confirmed, I will work in conjunction with The Judge Advocate 
General and the General Counsel of the Department of Defense to ensure 
the continuation of the Army's current cooperative relationship with 
the Attorney General and the Department of Justice.
             relationship with the judge advocate general.
    Question. In carrying out your duties if you are confirmed, how 
will you work with the Judge Advocate General of the Army?
    Answer. It is essential that the Army General Counsel maintain a 
close and cooperative relationship with The Judge Advocate General. A 
productive and positive relationship sets the tone and the direction 
for the effective delivery of legal services to the Army at all 
echelons. I know The Judge Advocate General shares this view, and if 
confirmed, we will work together to ensure the Offices of the General 
Counsel and The Judge Advocate General work closely together in the 
spirit of teamwork to deliver the best possible legal services to the 
members of the Army.
    Question. How are the legal responsibilities of the Department of 
the Army allocated between the General Counsel and the Judge Advocate 
General?
    Answer. The Army General Counsel serves as the chief legal officer 
for the Department of the Army. As a component of the Army Secretariat, 
the Office of the Army General Counsel is charged to provide advice to 
the Secretary of the Army and other Secretariat officials on any 
subject of law and on other matters as directed by the Secretary of the 
Army. The Army General Counsel is authorized to provide the controlling 
legal opinion in any matter for the Army. The Judge Advocate General is 
the chief legal advisor to the Chief of Staff of the Army, members of 
the Army Staff, and members of the Army generally. In coordination with 
the Army General Counsel, The Judge Advocate General serves as the 
military legal advisor to the Secretary of the Army. The law prohibits 
interference with the ability of The Judge Advocate General to provide 
independent legal advice to the Secretary of the Army, which I fully 
support. The Judge Advocate General provides supervision over the 
delivery of a wide-range of legal services across the Army. The Judge 
Advocate General also has primary responsibility for providing legal 
advice and services regarding the Uniform Code of Military Justice and 
the administration of military discipline. The Offices of the Army 
General Counsel and The Judge Advocate General have a well-developed 
and supportive working relationship in their respective 
responsibilities. If confirmed, I will work to continue this productive 
partnership for the benefit of the Army.
    Question. If confirmed, how would you ensure that legal opinions of 
your office will be available to Army attorneys, including judge 
advocates?
    Answer. I understand the respective offices of the General Counsel 
and The Office of The Judge Advocate General have a longstanding 
routine and cooperative working arrangement. Open lines of 
communication and collaboration are essential to ensure legal views and 
opinions issued by the Office of the Army General Counsel and the 
Office of The Judge Advocate General are readily available to all Army 
attorneys, both civilian attorneys and judge advocates. If confirmed, I 
will support this relationship in a positive manner.
    Question. In response to attempts within the Department of Defense 
to subordinate legal functions and authorities of the Judge Advocates 
General to the General Counsels of the Department of Defense and the 
military services, Congress enacted legislation prohibiting any officer 
or employee of the Department of Defense from interfering with the 
ability of the Judge Advocates General of the military services and the 
legal advisor to the Chairman of the Joint Chiefs of Staff to provide 
independent legal advice to the Chairman, service secretaries, and 
Service Chiefs.
    What is your view of the need for the Judge Advocate General of the 
Army to have the authority to provide independent legal advice to the 
Secretary of the Army and the Chief of Staff of the Army?
    Answer. I believe it is essential that the expertise of The Judge 
Advocate General be available to the Secretary of the Army and the 
Chief of Staff of the Army. I fully support the law, in both principle 
and in spirit, empowering The Judge Advocate General of the Army to 
provide independent legal advice honed by years of experience and 
informed judgment on military affairs to the Secretary of the Army and 
the Chief of Staff of the Army.
    Question. What is your view of the responsibility of Army judge 
advocates to provide independent legal advice to military commanders?
    Answer. Army commanders are charged with the responsibility to 
maintain discipline and to ensure the lawful conduct of the forces 
under their control, in addition to the proper functioning of their 
unit or organization. Army Judge Advocates at all levels provide 
valuable aid to commanders and leaders to maintain discipline and to 
help avoid a myriad of legal pitfalls in the day-to-day business of 
command. A Judge Advocate's ability to provide candid legal advice to a 
commander and staff, both openly and in confidence as needed, is 
absolutely critical. Army commanders need and deserve the best legal 
advice and judgment available. This is best achieved when Judge 
Advocates are empowered to provide commanders with independent legal 
advice, supported by appropriate guidance from supervising attorneys.
    Question. If confirmed, would you propose any changes to the 
current relationships between the uniformed judge advocates and the 
Army General Counsel?
    Answer. If confirmed, I will always look for opportunities to 
improve and to strengthen the relationships between the uniformed judge 
advocates and the staff of the Office of the General Counsel. At this 
time, I am not aware of any need for change, and my understanding is 
that the current relationship works well.
    Question. Are legal opinions of the Office of the Army General 
Counsel binding on all Army lawyers?
    Answer. Because the Army General Counsel is the chief legal officer 
for the Department of the Army as directed by the Secretary of the 
Army, legal opinions issued by the Office of the Army General Counsel 
are controlling throughout the Department of the Army. As a general 
matter, however, I understand that opinions are typically drafted in 
collaboration with The Judge Advocate General. If confirmed, I would 
ensure that significant legal opinions are informed by the expertise of 
both civilian attorneys and judge advocates.
    Question. How will you ensure that such legal opinions are 
available to Army lawyers?
    Answer. Written opinions of the Office of the General Counsel for 
the Department of the Army are distributed in the ordinary course of 
business, using normal departmental distribution processes. If 
confirmed, I expect to continue this practice.
    Question. If confirmed, are there specific categories of Army 
Counsel legal opinions that you expect to reconsider and possibly 
revise? If so, what categories?
    Answer. I am not aware of any specific categories of Army General 
Counsel legal opinions in need of reconsideration or revision. If 
confirmed, however, as the need arises, I would review opinions 
warranting revision consistent with contemporary law in consultation 
with the appropriate attorneys and subject matter experts within the 
Army and elsewhere as appropriate.
    Question. Article 6 of the Uniform Code of Military Justice gives 
primary jurisdiction over military justice to the Judge Advocates 
General of the Army, Navy, and Air Force.
    How do you view the responsibilities of the Army General Counsel in 
the performance of military justice matters with regard to the Judge 
Advocate General of the Army?
    Answer. The Judge Advocate General's responsibilities to ensure the 
proper administration of the military justice system require direct and 
independent advice to the Secretary of the Army. If confirmed, I look 
forward to supporting The Judge Advocate General on military justice 
matters with consultation, advice, and assistance, as needed.
                attorney recruiting and retention issues
    Question. If confirmed, how do you assess your ability to hire and 
retain top quality attorneys and provide sufficient opportunity for 
advancement?
    Answer. I believe my background and experience have prepared me to 
meet the challenges of recruiting and retaining top quality attorneys 
and providing meaningful and rewarding opportunities for those 
attorneys to advance. Nevertheless, I believe the Army will face 
significant challenges in the coming years as we compete with the 
private sector and other federal employers for quality attorneys, while 
shrinking resources will force us to demand more from the highly 
qualified attorneys we already have. If confirmed, I will work to 
ensure the Army allocates sufficient resources to attract and select 
only the best qualified candidates for military and civilian attorney 
positions. In doing so, I will work closely with the Office of The 
Judge Advocate General to retain the best attorneys to provide first-
rate legal services to the Army, its commanders, soldiers, and family 
members.
    Question. In your view, does the Department of the Army have a 
sufficient number of civilian and military attorneys to perform its 
missions?
    Answer. My understanding is the Army General Counsel has a 
sufficient number of civilian attorneys to perform its mission, and the 
Judge Advocate General's Corps (JAG) has enough military and civilian 
attorneys to meet its current requirements. To address emerging 
requirements, however, including special victim capabilities (required 
by the FY2013 National Defense Authorization Act) and special victim 
counsel (required by the FY2014 National Defense Authorization Act), 
the Army JAG Corps is planning to grow. Recognizing that as the Army 
draws down, legal support requirements may increase, I will closely 
monitor these emerging requirements and ensure they are resourced 
appropriately.
    Question. In your view, what incentives to successful recruiting 
and retention of attorneys, if any, need to be implemented or 
established?
    Answer. I understand the legal market is projected to become 
increasingly competitive over the next several years, with fewer 
students graduating from law school and a likely increase in hiring by 
private sector law firms. In my view, it is crucial that the Army renew 
our commitment to funding current incentive programs, like student loan 
repayment and career retention bonuses, notwithstanding the current 
fiscal challenges. These programs are needed to attract and retain the 
highest quality attorneys.
                            detainee issues
    Question. What role do you expect to play, if confirmed, in 
addressing legal issues regarding detainees?
    Answer. Although issues relating to the treatment of detainees most 
often arise in combatant commands, there are many Army judge advocates 
serving in those combatant commands, and the General Counsel of the 
Army may in some circumstances have an appropriate role in assisting 
those judge advocates with legal issues regarding detainees.
    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no individual in the custody or 
under the physical control of the United States Government, regardless 
of nationality or physical location, shall be subject to cruel, 
inhuman, or degrading treatment or punishment.
    In your view, is the section 1403 prohibition in the best interest 
of the United States? Why or why not?
    Answer. Yes, I believe this prohibition is in the best interest of 
the United States and is fully consistent with protecting our national 
security.
    Question. Do you believe that the phrase ``cruel, inhuman, or 
degrading treatment or punishment'' has been adequately and 
appropriately defined for the purpose of this provision?
    Answer. The Detainee Treatment Act of 2005 and the Military 
Commissions Act of 2009 define ``cruel, inhuman, or degrading treatment 
or punishment'' as the cruel, unusual, and inhumane treatment or 
punishment prohibited by the Fifth, Eighth, and Fourteenth Amendments 
to the U.S. Constitution. I think this definition provides a clear 
standard for ensuring that detainees in the custody of the U.S. 
Government are treated in a humane manner.
    Question. What role do you believe the General Counsel of the Army 
should play in the interpretation of this standard?
    Answer. The General Counsel should play an independent role in 
advising the Secretary of the Army and those who fall under his command 
on the standards governing the treatment of persons detained by the 
U.S. Army, including any interpretation of this legal standard.
    Question. What role do you believe the Judge Advocate General of 
the Army should play in the interpretation of this standard?
    Answer. The Judge Advocate General of the Army should be intimately 
involved in the interpretation of legal standards governing the 
treatment of detainees and should provide independent legal advice to 
the Secretary of the Army. The Judge Advocate General and the lawyers 
she leads--many of whom have served multiple deployments--bring 
experience and an important perspective to these and many other 
operational matters. If confirmed, and if called on to offer any 
guidance on this standard, I would expect to work collaboratively with 
The Judge Advocate General to provide clear advice to the field.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations, FM 2-
22.3, issued in September 2006, and in DOD Directive 2310.01E, the 
Department of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes, I support the requirements in revised Army Field 
Manual on Interrogations, FM 2-22.3, issued in September 2006, and DOD 
Directive 2310.01E, reissued on August 14, 2014, that all detainees and 
detained personnel be treated humanely and with respect for their 
dignity.
    Question. Section 2441 of title 18, United States Code, as amended 
by the Military Commissions Act of 2006, defines grave breaches of 
common article 3 of the Geneva Conventions, including torture and cruel 
and inhuman treatment.
    In your view, does section 2441 define these terms in a manner that 
provides appropriate protection from abusive treatment to U.S. 
detainees in foreign custody and to foreign detainees in U.S. custody?
    Answer. I believe section 2441 provides an appropriate standard for 
protecting both U.S. detainees in foreign custody and foreign detainees 
held in our custody.
    Question. Section 812 of title 10, United States Code states: ``No 
member of the armed forces may be placed in confinement in immediate 
association with enemy prisoners or foreign nationals not members of 
the armed forces.''
    Consistent with the statute, what recommendations would you provide 
the Secretary of the Army, if confirmed regarding the possible holding 
of foreign detainees at DOD Regional Corrections Facilities and 
Disciplinary Barracks?
    Answer. In the event that the Secretary of the Army sought my 
advice on such a matter, I would ensure that my advice was consistent 
with applicable law, including section 812.
    Question. What types of modifications would be needed at military 
detention facilities to ensure they are compliant with domestic and 
international law as well as meeting the special security 
considerations necessary for the safe detention of foreign law of war 
detainees?
    Answer. At this time, I am not familiar with what modifications, if 
any, would be needed to ensure that a military detention facility 
complies with domestic and international law.
    Question. If confirmed, what recommendations would you have for 
addressing the safety and security of the general public living near 
these facilities?
    Answer. If confirmed, I would defer to law enforcement experts 
about what measures would be necessary to ensure the safety and 
security of the general public living near these facilities, and would 
work closely with them to ensure that safety issues are appropriately 
and lawfully addressed.
    Question. In November 2012, the U.S. Government Accountability 
Office (GAO) published a report titled: Guantanamo Bay Detainees: 
Facilities and Factors for Consideration if Detainees Were Brought to 
the United States. That reported noted that only one DOD facility, the 
U.S. Disciplinary Barracks at Fort Leavenworth, Kansas, currently holds 
``inmates with sentences exceeding 5 years as well as inmates sentenced 
to death.'' The report also stated: ``in order to conform with 
international law and DOD policies . . . '' detainees are to be 
``protected from public curiosity (for example, pictures of detainees' 
faces are not disseminated publicly).''
    In your view, what steps would need to be taken in the handling of 
law of war detainees in order to comply with international law and DOD 
regulations, including the ``public view'' prohibition raised by GAO?
    Answer. The Department of Defense takes seriously its obligation to 
comply with the Geneva Conventions and other legal requirements 
relating to the treatment of detainees, including the requirement not 
to hold detainees out for public curiosity. If confirmed, I would 
ensure any advice I provide regarding law of war detention is 
consistent with those requirements.
       criminal jurisdiction over contractors on the battlefield
    Question. The Military Extraterritorial Jurisdiction Act (MEJA) was 
enacted in 2000 to extend the criminal jurisdiction of the U.S. courts 
to persons employed by or accompanying the Armed Forces outside the 
United States.
    In your view, does MEJA provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Iraq, Afghanistan, 
and other areas of combat operations?
    Answer. I believe that the Military Extraterritorial Jurisdiction 
Act of 2000 (MEJA) does provide appropriate criminal jurisdiction over 
contractor employees in areas of combat operations. Although these 
types of prosecutions are rare, MEJA is an effective tool to hold 
contractors and Department of Defense civilian employees accountable 
for serious criminal acts. All people supporting our Armed Forces, 
regardless of their location, should be held accountable for their 
actions, and MEJA can be an effective means of achieving that end.
    Question. What changes, if any, would you recommend to MEJA?
    Answer. My understanding is that MEJA is sufficient in its current 
form.
    Question. What role would you expect to play, if confirmed, in 
developing Administration recommendations for changes to MEJA?
    Answer. If confirmed, I expect to be actively involved in any 
effort to develop Administration recommendations for changes to MEJA. 
Because MEJA applies to civilian personnel working across the 
Department of Defense and its contractors, I would certainly work with 
officials in other agencies and military departments on any recommended 
changes to MEJA.
    Question. Section 552 of the National Defense Authorization Act for 
Fiscal Year 2007 extended criminal jurisdiction of the military courts 
under the Uniform Code of Military Justice to persons serving with or 
accompanying an armed force in the field during time of declared war or 
a contingency operation, such as our current operations in Afghanistan.
    In your view, does the UCMJ provide appropriate jurisdiction for 
alleged criminal actions of contractor employees in Afghanistan and 
other areas of combat operations?
    Answer. Yes. The UCMJ provides appropriate jurisdiction for alleged 
criminal actions of contractor employees in Afghanistan and other areas 
of combat operations. Civilians serving with or accompanying our Armed 
Forces overseas who commit crimes should be held appropriately 
accountable. While it is difficult to prepare for every scenario that 
may arise in a deployed environment, article 2 of the UCMJ provides a 
means to address the misconduct of civilians accompanying the force in 
areas of combat operations.
    Question. What is your view of the procedures agreed upon by the 
Department of Defense and the Department of Justice to reconcile 
jurisdictional responsibilities under MEJA and the UCMJ?
    Answer. If confirmed, I am prepared to examine, from an Army 
perspective, the relationship between the Department of Justice and the 
Department of Defense and to give thought to whether it reflects the 
appropriate balance.
    Question. What changes, if any, would you recommend to the UCMJ to 
ensure appropriate jurisdiction for alleged criminal actions of 
contractor employees?
    Answer. I have no recommendations for any such changes to the UCMJ 
at this time. If confirmed, and if after further review I perceive a 
need, I will recommend any changes I believe to be warranted.
              identification of potential extremist views
    Question. In your view, do current Army policies limit the ability 
to include information about extremist views in official records that 
may assist in the identification of potential threats?
    Answer. No. To my knowledge, current Army policy does not limit the 
ability to include this type of information in official records. The 
Army maintains several types of records that may help identify 
individuals whose extremist views could pose a threat. These official 
records include, but are not limited to, records managed by several 
U.S. Army commands, such as the U.S. Army Human Resources Command, the 
U.S. Army Criminal Investigation Command, and the U.S. Army 
Intelligence and Security Command.
    Question. Do current Army procedures hinder the ability to share 
this type of information with other official agencies charged with 
identifying and monitoring potential extremist or terrorist activities?
    Answer. My understanding is that Army procedures do not prohibit 
sharing this type of information with other official agencies where 
appropriate. Documents collected in official records are available to 
individuals or organizations that have a ``need to know,'' which 
includes appropriate law enforcement agencies.
    Question. What is your understanding of how the Army balances the 
need to identify and respond to potentially harmful extremist views 
held by soldiers against individual privacy and respect for the right 
of soldiers to hold and express personal beliefs?
    Answer. Commanders are responsible for building healthy and 
positive social climates based on dignity and respect for treatment of 
one another, and maintaining good order and discipline. As such, the 
Army emphasizes the exercise of calm and prudent judgment to achieve 
the proper balance between security and the need to preserve a 
soldier's right of expression. I understand that the Army gives 
commanders discretion and latitude to balance the mission of 
safeguarding the security of the United States while preserving the 
constitutional right of expression.
    Question. Do you see a need for a change in this balance?
    Answer. I do not currently see a need for change, but I am prepared 
to examine this issue if confirmed.
                          religious guidelines
    Question. In your view, do Department of Defense policies 
concerning religious accommodation in the military appropriately 
accommodate the free exercise of religion and other beliefs, including 
individual expressions of belief, without impinging on those who have 
different beliefs, including no religious belief?
    Answer. I believe the Department of the Army and the Department of 
Defense's policies support the goals of religious tolerance and mutual 
respect. If confirmed, in this area as well as other areas, I would 
ensure all Army policies uphold the Constitutional tenets of the Free 
Exercise and Establishment clauses of the First Amendment.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. I have been advised that under current Army policy, when 
participating in mandatory official events, chaplains are not compelled 
to offer prayers that are inconsistent with their personal beliefs or 
faith, but they are expected to remain sensitive to the pluralistic 
Army and society they serve. Given the diversity of religious views in 
the Army, this policy appears to strike the proper balance.
    Question. Section 533 of the FY13 National Defense Authorization 
Act (P.L. 112-239), as amended by section 532 of the FY14 National 
Defense Authorization Act (P.L. 113-66) protects rights of conscience 
of members of the armed forces and chaplains and prohibits, so far as 
possible, use of such beliefs as the basis of any adverse personnel 
action, discrimination, or denial of promotion, schooling, training, or 
assignment. Members of some religious denominations have sincerely held 
beliefs in opposition to same-sex marriage.
    In your view, may a member of the armed forces who has a sincerely 
held belief in opposition to same-sex marriage be subject to adverse 
personnel action or similar other adverse action, if he or she shares 
those personal views on the subject in a personal capacity?
    Answer. If soldiers wish to express their personal views about this 
issue in an open forum and caveat those as such, it is within their 
right to do so, and they will not be subject to adverse personnel 
action or similar other adverse action for expressing those views. This 
is a fundamental right, and if confirmed, I will ensure that all Army 
policies protect this and similar rights.
         role in the officer promotion and confirmation process
    Question. What is your understanding of the role of the General 
Counsel of the Department of the Army in ensuring the integrity and 
proper functioning of the officer promotion process?
    Answer. I understand the Secretary of the Army is responsible for 
the proper functioning of the Department of the Army's promotion 
selection process. The Army General Counsel is responsible for ensuring 
that the conduct of the board process conforms to all legal 
requirements; this includes reviewing all Memoranda of Instruction and 
selection board reports to ensure they comport with statutory 
standards. The Office of the Army General Counsel works closely with 
the Office of The Judge Advocate General to advise the Secretary of the 
Army of any case in which a selection board report or selection board 
process fails to adhere to the statutory standards and to provide 
counsel on appropriate corrective action.
    Question. Do you see a need for change in this role?
    Answer. I have been advised that the current process is working 
well; however, if I am confirmed and determine that a change is 
necessary and proper, I would work closely with the Assistant Secretary 
of the Army (Manpower and Reserve Affairs), The Judge Advocate General, 
and the Deputy Chief of Staff, G-1, to effect such change. Proper 
execution of this process is essential to maintaining the trust of the 
Army Officer Corps, the Congress, and the American people.
                      general officer nominations
    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general and flag officers must be evaluated 
by senior leaders in the Services and in the Office of the Secretary of 
Defense prior to nomination for promotion and certain assignments.
    If confirmed, what role, if any, would you play in the officer 
promotion system, particularly in reviewing general officer 
nominations?
    Answer. I have been informed that for all Army officer promotions, 
including general officer promotions, the Office of the Army General 
Counsel, in coordination with The Office of The Judge Advocate General, 
plays an active role in the officer promotion system, to include 
reviewing Memoranda of Instruction that govern the conduct of promotion 
selection boards and subsequent promotion selection board reports.
    Question. What is your understanding of the role of the General 
Counsel of the Department of the Army in ensuring the legal sufficiency 
of statutory selection board processes?
    Answer. I understand the Secretary of the Army is responsible for 
the proper functioning of the Department of the Army's promotion 
selection process. Prior to approval by the Secretary of the Army, all 
Memoranda of Instruction for officer promotion selection boards are 
reviewed by the Office of the Army General Counsel, in coordination 
with the Office of The Judge Advocate General, to ensure the 
Secretary's instructions conform to statutes and accurately reflect his 
guidance regarding attributes necessary for service in the next grade. 
All reports of promotion selection boards are processed through the 
Office of the Army General Counsel prior to final action on the report 
by the Secretary. The Army General Counsel must be satisfied that the 
Army has met applicable statutory standards and that individual 
selection board reports conform to the law. The Army General Counsel 
must advise the Secretary of the Army of any case in which a selection 
board report fails to adhere to the statutory standards, either 
generally or with regard to a particular officer being considered for 
promotion. In advising the Secretary of the Army and the Office of the 
Assistant Secretary of the Army (Manpower and Reserve Affairs), the 
Army General Counsel helps to ensure that Army promotion policies 
properly implement applicable laws and regulations and are fairly 
applied.
    Question. What is the role, if any, of the General Counsel of the 
Department of the Army in reviewing and providing potentially adverse 
information pertaining to a nomination to the Senate Armed Services 
Committee?
    Answer. It is my understanding that under current Department of the 
Army practice, regarding General Officer nominations, the Office of the 
Army General Counsel reviews each selection board report, as well as 
departmental communications to the Committee, the President, and the 
Secretary of Defense, to ensure that the reports and communications 
comply in form and substance with law and applicable directives and 
regulation. The Office of the Army General Counsel gives special 
attention to cases of nominees with substantiated or potentially 
adverse information and cases with reportable information in order to 
ensure that such information is reported to the Senate Armed Services 
Committee in a timely, accurate, and comprehensible manner.
                  military personnel policy and cases
    Question. In your view, what role, if any, should the General 
Counsel and civilian attorneys assigned to the Office of General 
Counsel play in military personnel policy and individual cases, 
including cases before the Board for Correction of Military Records?
    Answer. If confirmed, I will work with the Secretary of the Army, 
the Assistant Secretary of the Army (Manpower and Reserve Affairs), and 
other senior leaders to ensure that the Army properly develops and 
fairly applies military personnel policies. If I am confirmed and 
become aware that the Department did not fairly and lawfully apply 
military personnel policies, I will take appropriate action to ensure 
that the Army properly resolves the issue. I understand and fully 
respect the independent role that the Army Board for the Correction of 
Military Records (ABCMR) plays in the correction of military records, 
and if confirmed, I will coordinate with the Assistant Secretary of the 
Army (Manpower and Reserve Affairs), who exercises overall 
responsibility for the Army Review Boards Agency regarding the legal 
sufficiency of ABCMR recommendations to the Secretary of the Army.
                 sexual assault prevention and response
    Question. The Fiscal Year 2013 Department of Defense Annual Report 
on Sexual Assault in the Military reflects that reports of sexual 
assaults in the Army increased by 51% from fiscal year 2012 to 2,149 
reports of sexual assault in fiscal year 2013.
    What is your assessment of this report?
    Answer. Although the Department of Defense did not conduct a study 
of the prevalence of sexual assault in fiscal year 2013, I understand 
there are indications that the increase in reporting in fiscal year 
2013 reflects an increased willingness of victims to come forward 
rather than an increase in the number of sexual assaults. Nevertheless, 
there is still more to do to prevent and punish the crime of sexual 
assault. If confirmed, I intend to provide my full support in helping 
the Army achieve this goal.
    Question. What is your assessment of the Army's sexual assault 
prevention and response program?
    Answer. I understand that the Army has taken substantial steps to 
addressing the issue of sexual assault. Through the combined efforts of 
military and civilian leaders at all echelons, I am informed that the 
Army has implemented an unprecedented number of program and policy 
initiatives to address this insider threat.
    I support the Army's commitment to a holistic approach to change 
culture, prevent sexual assault and harassment in the ranks, support 
and advocate for victims, and hold offenders appropriately accountable.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. I am informed that since implementing the restricted 
reporting option (which does not initiate a law enforcement 
investigation) in 2005, the number of total reports has continued to 
increase. The restricted reporting option gives victims time to 
understand the process, seek the counseling and care they need, and to 
consult with an attorney if they wish. I understand the conversion of 
restricted reports to unrestricted continues to increase, which I 
believe is an indication that victims are gaining more trust in the 
system. If confirmed, I will ensure that the Army continues to work to 
improve upon its response system and to enhance victim support.
    Question. What is your view about the role of the chain of command 
in providing necessary support to the victims of sexual assault?
    Answer. I believe the chain of command has an important role to 
play in providing compassionate care and necessary support to victims 
of sexual assault. As a general matter, the commander--as well as the 
commander's subordinate commanders and staff members--has a 
responsibility to care for soldiers in the commander's charge. I 
understand that the Army is working hard to foster a climate in which 
victims trust their chain of command to support them if and when sexual 
offenses occur.
    Question. What is your understanding of the adequacy of Army 
resources and programs to provide victims of sexual assault the 
medical, psychological, and legal help they need?
    Answer. My understanding is that the Army is dedicated to providing 
soldiers, civilians and eligible family members who are the victims of 
sexual assault with extensive medical, psychological, and legal support 
services. I am aware that sexual assault victims are offered the 
services of a Sexual Assault Response Coordinator (SARC) and a Victim 
Advocate (VA). When a victim of sexual assault comes to any Military 
Treatment Facility in the Army, his or her medical needs are managed by 
a Sexual Assault Clinical Provider and his or her behavioral health 
care is provided by the Sexual Assault Behavioral Health Provider. 
Victims of sexual assault are also entitled to the services of a 
Special Victim Counsel. The Army Special Victim Counsel program is 
staffed, resourced, and supported by the Department of the Army; the 
Army JAG Corps is currently growing to meet emerging requirements.
    Question. What is your view of the steps the Army has taken to 
prevent additional sexual assaults both at home station and deployed 
locations?
    Answer. I understand that both the Secretary of the Army and the 
Chief of Staff of the Army have made the prevention of sexual assault a 
top priority and are providing resources consistent with that 
prioritization. As a result, leaders at every echelon and in every 
location must be committed to preventing sexual assaults and caring for 
victims, and the Army is working diligently to ensure that all soldiers 
share these commitments.
    Question. What is your view of the adequacy of the training and 
resources the Army has in place to investigate and prosecute 
allegations of sexual assault?
    Answer. I understand that the Army has invested substantial 
resources and training toward the investigation and response to 
allegations of sexual assault. As stated above, the Secretary of the 
Army and Chief of Staff have made the prevention of sexual assault a 
top priority and are providing resources consistent with that 
prioritization.
    Question. What is your view on the value of the Army's Special 
Victims Counsel Program? Has this program had an impact on the 
reporting and prosecution of allegations of sexual assault in the Army? 
If so, what is that impact?
    Answer. My understanding is that the Special Victim Counsel Program 
has been successful for both victims and commanders. The feedback from 
victims is that this program is an invaluable resource as they navigate 
the administrative, medical and justice systems within the Army. 
Commanders indicate that they can now act with confidence that they 
understand the victim's position and preferences.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults occur?
    Answer. I believe that commanders can drive change in culture. 
Commanders are responsible for everything their command does or fails 
to do, which includes training soldiers on how to prevent sexual 
assault and holding all leaders accountable for creating a culture that 
does not tolerate sexual assault. As part of these responsibilities, 
commanders are responsible for fostering respect within their units, 
creating a climate in which sexual assaults and sexual harassment are 
not tolerated, holding offenders accountable, and cultivating an 
environment in which victims feel comfortable reporting all forms of 
misconduct.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. I think it is difficult to fully assess the potential 
impact of such a significant change to the military justice system. 
Requiring a judge advocate outside the chain of command to determine 
whether allegations of sexual assault should be prosecuted would, in 
effect, create a separate justice system for sexual assault cases, with 
uncertain consequences. The Army must encourage a climate in which 
victims feel comfortable in reporting misconduct, perpetrators of 
sexual assault are held accountable for the crimes they commit, and all 
soldiers believe the system to be fair and transparent. I believe that 
both commanders and judge advocates have important roles to play in all 
components of that effort.
    Question. What additional steps would you take, if confirmed, to 
address the problem of sexual assaults in the Army?
    Answer. If confirmed, I will be an ardent supporter of the Army 
Sexual Harassment/Assault Response and Prevention Program and will work 
with the Secretary of the Army, the Chief of Staff of the Army, the 
Assistant Secretary of the Army (Manpower & Reserve Affairs), and the 
Deputy Chief of Staff, G-1 to ensure that eliminating sexual assault 
remains a top priority throughout the Army.
                  assignment of women in the military
    Question. In January 2013, Secretary of Defense Panetta rescinded 
the 1994 Direct Ground Combat Definition and Assignment Rule, excluding 
women from assignment to units and positions whose primary mission is 
to engage in direct combat on the ground. The Military Departments are 
required to develop detailed plans for implementation of this directive 
and to complete integration of women into newly opened positions and 
units as expeditiously as possible, considering good order and 
judicious use of fiscal resources, but no later than January 1, 2016. 
Any recommendation to keep an occupational specialty or unit closed to 
women must be personally approved by the Chairman of the Joint Chiefs 
of Staff and by the Secretary of Defense.
    If confirmed, what role, if any, would you expect to play in the 
evaluation of the plans of the Department of the Army to integrate 
women into occupational specialties or recommendations to keep specific 
occupations or units closed to women?
    Answer. If confirmed, I would expect to provide legal advice 
regarding plans to integrate women into those occupational specialties.
recommendations of the response systems to adult sexual assault crimes 
                                 panel
    Question. On June 27, 2014, the Response Systems to Adult Sexual 
Assault Crimes Panel (RSP) released its report fulfilling the 
requirements of section 576 of the Fiscal Year National Defense 
Authorization Act (P.L. 112-239). This report contained 132 
recommendations in the areas of victim services, victim rights, the 
role of the commander in the military justice process, and the 
investigation, prosecution and adjudication of sexual assault.
    If confirmed, what role, if any, would you expect to play in the 
evaluation of the recommendations of the RSP for possible 
implementation in the Department of the Army?
    Answer. If confirmed, I would expect to work closely with The Judge 
Advocate General to advise the Secretary of the Army about the RSP's 
recommendations and, where appropriate, how they should be implemented.
                        whistleblower protection
    Question. Section 1034 of title 10, United States Code, prohibits 
taking retaliatory personnel action against a member of the armed 
forces as reprisal for making a protected communication. By definition, 
protected communications include communications to certain individuals 
and organizations outside of the chain of command.
    If confirmed, what actions will you take to ensure that senior 
military leaders understand the need to protect servicemembers who 
report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. The General Counsel has the primary role of advising the 
Secretary of the Army and those who fall under his authority on the 
standards governing treatment of servicemembers reporting misconduct to 
any appropriate authority. I am fully committed to protecting those who 
report misconduct to appropriate authorities. Army policy provides for 
reporting and investigation of retaliatory actions, and for appropriate 
corrective and disciplinary action. Additionally, the Secretary of the 
Army, pursuant to the requirements of section 1034 of title 10, has a 
special obligation to ensure appropriate action is taken to correct the 
record of those who have been subjected to reprisal and to ensure 
appropriate disciplinary action is taken against those who engage in 
prohibited personnel actions against servicemembers reporting 
misconduct. It is critical for senior Army leaders to be aware of legal 
requirements so as to avoid improper retaliatory actions against those 
who bring matters of interest to our attention. My staff and I will 
work to ensure statutory and policy requirements are understood and 
appropriately executed.
                   support to army inspector general
    Question. What role, if any, do you think the General Counsel of 
the Army should have in reviewing the investigations and 
recommendations of the Army Inspector General?
    Answer. The Inspector General is a key member of the Secretariat, 
and if confirmed, as counsel to all Secretariat officials, I will 
ensure the Office of the General Counsel of the Army continues its 
current professional relationship with The Inspector General. I 
personally intend this to include routine, direct, and candid 
communications. I have been advised that Army General Counsel's office 
routinely provide independent and objective legal advice to the Office 
of The Inspector General in regard to all matters that relate to 
Inspector General programs, duties, functions, and responsibilities. In 
coordination with The Judge Advocate General, I will oversee the 
provision of effective legal guidance to the Office of The Inspector 
General in conducting investigations and making recommendations. 
Additionally, based on the Army General Counsel's responsibility to 
review legal and policy issues arising from the Army's intelligence and 
counterintelligence activities, I will work closely with The Inspector 
General concerning proper reporting of the Army's intelligence 
oversight activities.
                           civilian attorneys
    Question. Judge advocates in the armed forces benefit from an 
established career progression, substantial mentoring and training 
opportunities, and exposure to a broad spectrum of legal areas and 
leadership responsibilities. By contrast, civilian attorneys in the 
military departments normally do not have established career programs 
and may do the same work for many years, with promotion based solely 
upon longevity and vacancies.
    What is your understanding of the personnel management and career 
development system for civilian attorneys in the Army?
    Answer. Civilian career development is important to me, and it is 
my understanding that all civilian attorneys and paraprofessionals 
supporting Army legal services are now covered by a comprehensive 
career program that promotes and facilitates their recruitment, 
training, education, development, advancement and retention. To achieve 
these goals, a career program office was established. I have been 
informed that the career program office publishes two governing 
documents, which the Army terms ``Army Civilian Education, Training, 
and Education Development System'' plans. There are separate guides for 
civilian attorneys and paraprofessionals, but both are functionally 
tailored to the legal career field and combine formal training with 
developmental assignments.
    Question. In your view does that system need revision? If so, what 
do you see as the major problems and what changes would you suggest?
    Answer. From what I have been told, the career program is still in 
its early stages of operation, and program evaluation is ongoing. If 
confirmed, I will serve as the career program's functional chief, and 
will advocate for, or direct, revisions when appropriate.
                                 client
    Question. In your opinion, who is the client of the General Counsel 
of the Department of the Army?
    Answer. The client of the General Counsel of the Department of the 
Army is the Department of the Army, acting through its authorized 
officials.
                           acquisition issues
    Question. What role should the General Counsel play in ensuring 
that Army procurement programs are executed in accordance with the law 
and DOD acquisition policy?
    Answer. If confirmed, I will work closely with the Secretary of the 
Army, the Under Secretary of the Army, the Assistant Secretary of the 
Army for Acquisition, Logistics and Technology, the Chief Information 
Officer, the Director of Small Business Programs, and other senior Army 
officials to ensure that Army acquisition programs comply with 
applicable laws, regulations, and policies. The Army's acquisition 
leadership must accomplish its primary mission of acquiring equipment 
and services for the Department while complying with an extensive 
framework of legal and policy requirements. Army lawyers best support 
this mission through early involvement in acquisition program and 
procurements and through proactive assistance in identifying potential 
issues and shaping effective, legally-supportable business strategies 
throughout the acquisition life-cycle.
    Question. What role should the General Counsel play in ensuring 
that Army acquisition officials understand flexibilities provided by 
Congress in the acquisition and financial statutes and can take 
advantage of those flexibilities to act in the best interests of the 
Army?
    Answer. I believe the legal community is uniquely suited to assist 
Army officials in this area. If confirmed, I will work closely with the 
Department's senior leadership to ensure that Army acquisition programs 
and financial operations comply with their governing legal and policy 
framework but also to question and modify program strategies that 
reflect an inaccurate or unduly restrictive interpretation of 
applicable authorities.
    Question. What role should the General Counsel play in ensuring 
that ethics provisions on conflict of interest are followed both by 
Army personnel and by Army contractors?
    Answer. It is essential that the Department have well-understood 
business rules designed to avoid or mitigate organizational and 
personal conflicts of interest. Army lawyers play an important role in 
this area through robust programs for acquisition ethics training and 
proactive involvement in the Army's acquisition, logistics and 
technology programs and contracting operations. If confirmed, I will 
work closely with the Assistant Secretary of the Army for Acquisition, 
Logistics and Technology and other Army senior leaders to foster an 
organizational climate that is sensitive to the importance of avoiding 
conflicts of interest and that appropriately addresses specific 
situations that arise.
    Question. Allegations of fraud and abuse during contingency 
contracting in Iraq and Afghanistan have been wide-spread.
    What role should the General Counsel play in ensuring that Army 
personnel are properly trained in contingency contracting and are 
supervised in the performance of their duties?
    Answer. If confirmed, I will work closely with the Secretary of the 
Army, the Under Secretary of the Army, the Assistant Secretary of the 
Army for Acquisition, Logistics and Technology, and other senior 
officials to ensure that the Army legal community continues to support 
the contingency contracting initiatives adopted in response to the 2007 
Report of the Commission on Army Acquisition and Program Management in 
Expeditionary Operations, also known as the ``Gansler Commission 
Report.'' I would also work closely with The Judge Advocate General of 
the Army and other senior leaders in the Army legal community to ensure 
that an appropriate level of legal resources are allocated in support 
of contingency contracting.
                    detecting conflicts of interest
    Question. Personal and organizational conflicts of interest have 
become a major concern. DOD's expanded use of private contractors being 
tasked to perform key functions that the services had formerly 
performed in-house and the new requirement to fill thousands of DOD 
civilian positions with experienced, qualified individuals present 
challenges in preventing conflicts of interest and the appearance of 
conflicts of interest.
    What do you think the Army should do, and what should the General 
Counsel's role be, in ensuring that the Army identifies personal and 
organizational conflicts of interests and takes the appropriate steps 
to avoid or mitigate them?
    Answer. Because of their potential not only to result in an unfair 
competitive advantage, but also to damage the credibility of the 
institution, conflicts of interest are unacceptable in any 
organization. As the Army's Designated Agency Ethics Official (DAEO), 
the General Counsel is responsible for management and oversight of the 
Army Ethics Program. These duties include ensuring that Army personnel 
who are required to file financial disclosure reports do so at the 
appropriate time and that ethics counselors timely review these reports 
to prevent or mitigate conflicts of interest. In addition, if 
confirmed, I will help ensure that other circumstances of potential 
conflict of interest are addressed promptly, consistent with legal 
requirements.
    Question. What is your understanding of the steps the Army takes to 
identify and address potential conflicts of interest during the hiring 
process?
    Answer. At this time, I am not aware of the steps the Army takes to 
identify and address conflicts of interest during the hiring process. 
If confirmed, I will look into that issue and ensure that appropriate 
safeguards exist.
                              legal ethics
    Question. What is your understanding of the action a Department of 
the Army attorney or an Army judge advocate should take if the attorney 
becomes aware of improper activities by a Department of the Army 
official who has sought the attorney's legal advice and the official is 
unwilling to follow the attorney's advice?
    Answer. If an Army attorney suspects that the Army official, either 
in exercising functions or in failing to do so, violates a law or 
standard of conduct, the attorney should immediately bring the matter 
to the attention of the attorney's supervisor. If not satisfactorily 
resolved at that level, the matter should be brought to higher level 
supervisory lawyers or authorities in the chain of supervision or 
command.
    Question. Do you believe that the present limits on pro bono 
activities of government attorneys are generally correct as a matter of 
policy or does the policy need to be reviewed and revised?
    Answer. I understand the former Army General Counsel established a 
supportive and permissive pro bono legal practice policy for the Office 
of the Army General Counsel, consistent with statutory restrictions 
prohibiting federal employees from representing clients before the 
federal government, including the federal courts. Many rewarding pro 
bono activities are available to government attorneys in their private, 
non-official capacity in areas such as family law, consumer law, 
landlord-tenant disputes, and other civil and criminal law matters. If 
confirmed, I would review pro bono policies to determine whether any 
change would be appropriate.
    Question. In your view, do the laws, regulations, and guidelines 
that establish the rules of professional responsibility for attorneys 
in the Department of the Army provide adequate guidance?
    Answer. Much of the value and respect for the law depends on the 
proper ethical conduct of lawyers. I believe that the laws, 
regulations, and guidelines establishing rules for attorney 
professional responsibility for the Department of the Army are well 
developed and adequate. The Army's ethical rules are based on the 
American Bar Association Model Rules of Professional Conduct. Both 
uniform and civilian Army attorneys are subject to state licensing 
authority ethical codes. By regulation, Army attorneys must remain, at 
all times, in good standing with a at least one licensing authority in 
the United States, including those of U.S. states, U.S. territories, 
the District of Columbia, or the Commonwealth of Puerto Rico. This 
complimentary system of ethical oversight is implemented on a day-to-
day basis by the exercise of competent and conscientious supervision by 
experienced Army attorneys at all levels. If confirmed, I would consult 
and review the current professional responsibility policy and systems 
with The Judge Advocate General and, as appropriate, seek revisions and 
improvements.
            litigation involving the department of the army
    Question. What is your understanding of the relationship between 
the Department of the Army and the Department of Justice with respect 
to litigation involving the Department of Defense?
    Answer. Under section 516 of title 28 of the U.S. code, the 
authority to represent the military departments in litigation is 
reserved to the Department of Justice, under the direction of the 
Attorney General. It is my understanding the Department of Defense and 
the Department of the Army, along with the other military departments, 
have a positive and mutually supportive relationship with the 
Department of Justice. I understand coordination between the Department 
of Justice and the military departments is timely and consistent on 
every level. If confirmed, I will work collaboratively with The Judge 
Advocate General and the General Counsel of the Department of Defense 
to ensure the interests of the Army are fully understood and 
appropriately pursued with the Department of Justice in litigation.
    Question. In your view, does the Department need more independence 
and resources to conduct its own litigation or to improve upon its 
current supporting role?
    Answer. In general, because of established close working 
relationships, I think the Department of Justice is effective in 
defending the interests of the Department of the Army. If confirmed, I 
will routinely consult with The Judge Advocate General and the General 
Counsel of the Department of Defense to determine whether adequate 
authority and resources are available to protect the full measure of 
the Army's interests in litigation.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this Committee and other appropriate committees of the Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
Committee, or designated members of this Committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the General Counsel of the 
Department of the Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this Committee and 
its staff and other appropriate Committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Tom Cotton
                             panetta review
    1. Senator Cotton. Ms. Starzak, during your hearing, you responded 
to a number of my questions by stating that your employment with the 
Senate Select Committee on Intelligence ended years ago and that you do 
not recall details of the events I inquired about. Please make every 
effort to refresh your memory of these events. Also, please describe 
what efforts you have taken to refresh your memory, including any 
conversations with colleagues and any review of news articles, notes, 
files, e-mails, and other records that you possess or to which you can 
gain access.
    Ms. Starzak. Consistent with the rules established by the Senate 
Select Committee on Intelligence for discussion or review of Committee-
sensitive material, I have no access to non-public Committee material 
related to the Committee's study for review. I do not possess any 
notes, files or emails related to the review to refresh my memory.
    During the hearing, questions were asked about events that occurred 
after I left the Committee in 2011. As I was not personally involved in 
those events, I have no additional information about them.

    2. Senator Cotton. Ms. Starzak, the first page of each document in 
the Panetta Review contains the following lengthy stamp: ``This 
classified document was prepared by the CIA Director's Review Group for 
Rendition, Detention, and Interrogation (DRGRDI) for DRG-RDI's internal 
discussion purposes and should not be used for any other purpose, nor 
may it be distributed without express permission from DRG-RDI or CIA's 
Office of General Counsel. This document contains [certain classified 
information]. This document also contains material protected by the 
attorney-client and attorney work-product privileges. Furthermore, this 
document constitutes deliberative work product, protected by the 
deliberative-process privilege, and is not a final, conclusive, 
complete, or comprehensive analysis of DRG-RDI or CIA. Rather, it was 
created to suit the needs of DRG-RDI, in support of informing senior 
Agency officials about broad policy issues. While every effort was made 
to ensure this document's accuracy, it may contain inadvertent errors. 
For this reason, and because this document selectively summarizes, 
draws inferences from, or omits information from the sources it cites, 
it should not be relied upon by persons outside DRG-RDI.''
    As a trained attorney I would hope that one would read this caveat 
and feel it best to consult with interested parties to best preserve 
governmental prerogatives, exercise proper congressional oversight, and 
meet ethical and legal obligations.

    a. When you saw this stamp, did you notify and seek guidance from 
any CIA officials?
    i. Who specifically did you seek guidance from?
    ii. Did these CIA officials provide you with any instructions?

    b. Did you notify or seek guidance from any SSCI officials?
    i. Who specifically did you seek guidance from?
    ii. Did these SSCI officials instruct you to continue your review 
without notifying the CIA?
    Ms. Starzak. I participated in many conversations with CIA officers 
related to the study and the provision of documents to the Committee. 
Although the terms of reference for the study provided to the CIA by 
the Committee suggested that the Committee intended the study to 
examine issues that could arguably be subject to privilege, I do not 
remember having any conversations in which CIA officers or attorneys 
indicated that CIA was seeking to withhold documents from the Committee 
pursuant to deliberative-process, attorney-client or attorney work-
product privileges. Indeed, many of the documents I reviewed in 
connection with the study--including some documents the CIA delivered 
to the Committee's space in the Hart Senate Office building--were 
marked as deliberative or predecisional or had been prepared by CIA 
attorneys. I am not aware of any claims that these documents were 
provided to the Committee inadvertently, notwithstanding their markings 
or the fact that they were prepared by or for attorneys. As such, the 
caveat referenced above would not have provided the document a 
different legal status than many of the other documents that the CIA 
provided to the Committee for the purpose of congressional oversight.
    I have no memory of seeking guidance from either CIA or SSCI 
officials about the particular document referenced, which was one of 
the more than six million pages of CIA records to which SSCI staff had 
access at the CIA facility.

    c. Did you notify or seek guidance from any other officials, 
advisors, attorneys, or persons apart from those you may have consulted 
at the CIA or with SSCI?
    Ms. Starzak. No.

    d. Have you ever been asked to speak to an investigator regarding 
an individual who may have accessed, removed, or had knowledge of the 
removal of a hard copy of the Panetta Review Document to SSCI offices?
    Ms. Starzak. No.

    e. Did you ever speak with the Senate Sergeant-at-Arms or the CIA 
Inspector General during their investigations relating to the discovery 
and removal of these documents?
    Ms. Starzak. No.
                           rdi investigation
    3. Senator Cotton. Ms. Starzak, the SSCI rules of procedure 10.4 
states that the ``Committee staff shall assist the minority as fully as 
the majority in the expression of minority views, including assistance 
in the preparation and filing of additional, separate, and minority 
views, to the end that all points of view may be fully considered by 
the Committee and the Senate.''

    a. Do you believe you fully complied with this rule during your 
time with the committee?
    Ms. Starzak. I am not aware of any minority views being prepared 
related to the RDI investigation during my time on the Committee.

    b. Senator Cotton. During your time with the SSCI, did you ever 
request that access to CIA documents during the RDI investigation be 
denied or turned off for any Republican committee staff member?
    i. Senator Cotton. If so, was your request denied, overridden, or 
reversed?
    Ms. Starzak. Republican Committee staff was provided access to CIA 
documents at the CIA facility throughout the two and half years I 
worked on the study. I never requested that access to CIA documents be 
denied for any Republican Committee staff member.
    I do recall an isolated incident in which the CIA temporarily 
suspended a minority committee staff member's access to documents after 
majority staff requested to reconfigure the computer system. The 
reconfiguration of the system mistakenly resulted in the temporary 
suspension of the minority staff member's access to certain CIA 
documents, an outcome that was never intended. Once the error was 
identified, the CIA restored the minority staff member's access to CIA 
records as quickly as possible.
                             bergdahl case
    4. Senator Cotton. Ms. Starzak, President Obama traded five 
hardened Taliban commanders for Sgt. Bowe Bergdahl, who served in the 
military branch you would like to advise. The GAO found that President 
Obama broke two laws with this trade--a 30-day congressional 
notification requirement and the Anti-Deficiency Act.

    a. Do you agree with the GAO that President Obama broke the law 
twice with this transfer?
    Ms. Starzak. The Department of Defense prepared a notification to 
Congress on the conclusions of the report, stating that it disagreed 
with GAO's conclusions. That notification is attached.

    b. Susan Rice has stated that Sgt. Bergdahl served honorably. Is it 
your position as well that Sgt. Bergdahl served honorably? Should the 
Army encourage other soldiers to serve as honorably as Sgt. Bergdahl?
    Ms. Starzak. I understand that there are preferred charges pending 
against SGT Bergdahl alleging desertion and misbehavior before the 
enemy, both of which are offenses under the Uniform Code of Military 
Justice. Given the possibility that these charges may go to trial, I 
believe it would be inappropriate for me to characterize SGT Bergdahl's 
service or to comment on his guilt or innocence.
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
                                 ______
                                 
               Questions Submitted by Senator Thom Tillis
                             guantanamo bay
    5. Senator Tillis. Ms. Starzak, In the event that the President 
directed the transfer of detainees from Guantanamo to the United 
States, in your professional legal judgment, would officers of the 
Department of the Army be at legal risk for a violation of the Anti-
Deficiency Act if they were to execute a transfer of detainees from 
Guantanamo to the United States, contrary to the prohibition against 
use of appropriated funds for that exact purpose?
    Ms. Starzak. The Department of the Army's operations are currently 
funded by a continuing resolution that incorporates funding 
restrictions from the Department of Defense Appropriations Act, 2015. 
Sections 8112 and 8113 of the DOD Appropriations Act, 2015 prohibit the 
use of funds to, respectively, ``transfer, release, or assist in the 
transfer or release to or within the United States, its territories, or 
possessions'' Guantanamo detainees and ``construct, acquire, or modify 
any facility in the United States, its territories, or possessions to 
house'' Guantanamo detainees. If the Department of the Army were to act 
in a manner inconsistent with those funding restrictions, it could 
potentially be a violation of the Antideficiency Act.

    6. Senator Tillis. Ms. Starzak, what do you believe is the proper 
authority under which the President could decide to unilaterally close 
Guantanamo and move inmates to the U.S. by executive action?
    Ms. Starzak. There are currently statutory prohibitions on the 
transfer of detainees from Guantanamo Bay to the United States. As 
such, I believe it is appropriate for the Administration to engage with 
Congress to address those statutory restrictions on the transfer of 
detainees.

    7. Senator Tillis. Ms. Starzak, the administration typically evokes 
article II, section III of the Constitution when arguing against an 
anti-deficiency act violation. What is your legal opinion on whether 
the faithful execution clause still applies in a situation where there 
is an affirmative prohibition on use of funds in the law?
    Ms. Starzak. The Constitution requires the President to take care 
that the laws are faithfully executed. To the extent that Congress 
lawfully imposes restrictions on the use of appropriated funds, the 
Take Care Clause would require the President to comply with those 
funding restrictions.
                                 ______
                                 
              Questions Submitted by Senator Dan Sullivan
                             guantanamo bay
    8. Senator Sullivan. Ms. Starzak, after reviewing at the NDAA 
provision and the Attorney General's recent statements regarding 
Guantanamo Bay, does the authority to close Guantanamo Bay reside in 
the Congress of the United States?
    Ms. Starzak. I believe this is a reference to the comments of the 
Attorney General to the House Judiciary Committee in which she 
indicated that the law currently does not allow for the transfer of 
detainees from Guantanamo to the United States. My understanding is 
that the National Defense Authorization Act for FY 2016 and 
restrictions from the Department of Defense Appropriations Act, 2015 
incorporated into the continuing resolution currently funding DOD's 
operations prohibit the transfer or release of Guantanamo detainees to 
or within the United States through December 31, 2016. Thus, I agree 
with the Attorney General that, to the extent that closure of the 
Guantanamo Bay detention facility requires the transfer of a number of 
detainees to the United States for continued detention, the law does 
not currently allow for that.

    9. Senator Sullivan. Ms. Starzak, does the President, in light of 
the FY 2016 NDAA, have the authority to unilaterally shut down 
Guantanamo Bay without Congressional authorization?
    Ms. Starzak. As noted above, in light of the FY 2016 NDAA and 
restrictions from the Department of Defense Appropriations Act, 2015 
incorporated into the continuing resolution currently funding DOD's 
operations, to the extent that closure of the Guantanamo Bay detention 
facility requires the transfer of a number of detainees to the United 
States for continued detention, the law does not currently allow for 
that.
                                 ______
                                 
    [The nomination reference of Ms. Alissa M. Starzak 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 13, 2015.
    Ordered, That the following nomination be referred to the 
Committee on Armed Services:
    Alissa M. Starzak, of New York, to be General Counsel of 
the Department of the Army, vice Brad Carson, resigned.
                                ------                                

    [The biographical sketch of Ms. Alissa M. Starzak, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
             Biographical Sketch of Alissa Michelle Starzak
Education:
    <bullet>  Amherst College
      <bullet>  1991-1995
      <bullet>  AB
    <bullet>  University of Chicago
      <bullet>  1997-2000
      <bullet>  JD

Employment Record:
    <bullet>  Department of Defense (Washington, DC)
      <bullet>  Deputy General Counsel (Legislation)
      <bullet>  May 2011--Present
    <bullet>  U.S. Senate Select Committee on Intelligence (Washington, 
DC)
      <bullet>  Counsel
      <bullet>  January 2007-May 2011
    <bullet>  Central Intelligence Agency (Washington, DC)
      <bullet>  Assistant General Counsel
      <bullet>  August 2005-January 2007
    <bullet>  O'Melveny & Myers (Washington, DC)
      <bullet>  Attorney
      <bullet>  November 2001--August 2005
    <bullet>  U.S. Court of Appeals for the Fifth Circuit (New Orleans, 
LA)
      <bullet>  Judicial Law Clerk to the Honorable E. Grady Jolly
      <bullet>  2000-2001

Honors and Awards:
    None

                                ------                                

    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Ms. Alissa M. 
Starzak in connection with her nomination follows:]
                          
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                   
                   COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Alissa Michelle Starzak.

    2. Position to which nominated:
    General Counsel, Department of the Army.

    3. Date of nomination:
    January 13, 2015.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 3, 1973, Binghamton, NY.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Married to Andrew G. Gerguson.

    7. Names and ages of children:
    [Nominee responded and the information is contained in the 
committee's executive files.]

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    Amherst College, 1991-1995, AB, May 1995.
    University of Chicago, 1997-2000, JD, June 2000.

    9.Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    May 2011-Present: Deputy General Counsel (Legislation), Department 
of Defense, Pentagon, Washington, DC.
    January 2007-May 2011 : Counsel, Senate Select Committee on 
Intelligence, U.S. Senate, Washington, DC.
    August 2005-January 2007: Assistant General Counsel, Central 
Intelligence Agency, Washington DC.
    November 2001-August 2005: Associate, O'Melveny & Myers, 
Washington, DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Judicial Law Clerk to the Honorable E. Grady Jolly, U.S. Court of 
Appeals for the Fifth Circuit, 2000-2001.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Obama for America, 2012, $200.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    N/A.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years of which you have 
copies and are on topics relevant to the position for which you have 
been nominated.
    None.


    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Alissa M. Starzak  
    This 7th day of April, 2015

    [The nomination of Ms. Alissa M. Starzak was reported to 
the Senate by Chairman McCain on December 7, 2015, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 14, 2015.]
                              ----------                              

    [Prepared questions submitted to Mr. Franklin R. Parker by 
Chairman McCain prior to the hearing with answers supplied 
follow:]

                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    What modifications to Goldwater-Nichols Act provisions, if any, do 
you believe are necessary for the readiness of the armed forces?
    Answer. If confirmed, I will assess whether there is a need for 
changes to the Goldwater-Nichols provisions. Given that changes would 
likely have implications across all Services and the potential to alter 
the basic command and control and operational readiness of our forces, 
any proposed changes would have to be carefully considered by senior 
leadership across the Department of Defense (DOD). In the area of 
personnel policy, I understand the Goldwater-Nichols provisions that 
govern promotion policies are nearly thirty years old and, if 
confirmed, I will review those in detail to see if they continue to 
meet the needs of our current force.
                                 duties
    Question. Section 5016 of title 10, United States Code, provides 
that the Assistant Secretary of the Navy for Manpower and Reserve 
Affairs shall have ``as his principal duty the overall supervision of 
manpower and Reserve component affairs of the Department of the Navy.''
    If confirmed, what duties do you expect that the Secretary of the 
Navy will prescribe for you?
    Answer. If confirmed, I believe the Secretary of the Navy will 
require me to provide overall supervision and oversight of manpower and 
Reserve component affairs for the Navy and Marine Corps. I would be 
responsible for developing integrated policies and programs related to 
military personnel (Active and Reserve components) and the civilian 
workforce. Additionally, I would provide the necessary oversight of our 
total force--military, civilians and contractors--to ensure the most 
efficient workforce balance.
    Question. What actions will you take to enhance your ability to 
perform the duties of the Assistant Secretary of the Navy for Manpower 
and Reserve Affairs?
    Answer. If confirmed, I will apply my experience in government 
service to further my understanding and knowledge of the Department of 
the Navy, its people and organizations. I will diligently evaluate the 
challenges it faces and the resources necessary to sustain and 
transform it. I will seek advice and counsel from the military and 
civilian personnel of the Department and from Members of Congress and 
their staffs.
    Question. In carrying out these duties, what would be your 
relationship with the following officials:
    The Secretary of the Navy.
    Answer. The Secretary of the Navy is responsible for conducting all 
the affairs of the Department of the Navy and for formulating and 
implementing policies and programs consistent with the policies and 
objectives established by the President and the Secretary of Defense. 
If confirmed, I will work with the Secretary of the Navy to help him 
achieve his goals, particularly those involving manpower issues. My 
role will be defined in part by powers he may choose to delegate to me.
    Question. The Under Secretary of the Navy.
    Answer. The position of Under Secretary of the Navy is currently 
vacant. As the Chief Operating Officer of the Department of the Navy, 
the Under Secretary plays a significant role in prioritizing and 
synchronizing the efforts of the Assistant Secretaries of the Navy. If 
confirmed, I would establish a close, direct, and supportive 
relationship with the new Under Secretary of the Navy, or the person 
acting in that capacity.
    Question. The other Assistant Secretaries of the Navy.
    Answer. If confirmed, I would coordinate with them on our combined 
interests and work together to support the Secretary's goals.
    Question. The General Counsel of the Navy.
    Answer. The General Counsel is the senior civilian legal advisor to 
the Secretary, the Under Secretary, and the Assistant Secretaries and 
their staffs. If confirmed, I expect to consult and rely upon the 
General Counsel on a variety of legal issues in discharging my 
responsibilities.
    Question. The Judge Advocate General of the Navy.
    Answer. The Judge Advocate General is the senior uniformed legal 
advisor to the Secretary of the Navy and Chief of Naval Operations and 
serves as the Department of Defense Representative for Ocean Policy 
Affairs. If confirmed, I expect to consult and rely upon the Judge 
Advocate General on a variety of legal issues in discharging my 
responsibilities.
    Question. The Inspector General of the Navy.
    Answer. The Naval Inspector General is the senior investigating 
official in the Department of the Navy and the principal advisor to the 
Secretary of the Navy, Chief of Naval Operations and the Commandant of 
the Marine Corps on all matters concerning inspection, investigations, 
and audit follow-up. If confirmed, I will establish and maintain a 
close and professional relationship with the Naval Inspector General.
    Question. The Chief of Legislative Affairs of the Navy.
    Answer. The Chief of Legislative Affairs is responsible for 
developing legislative strategies for the Navy. If confirmed I will 
work closely with him as it relates to the Department's legislative 
requirements for manpower and personnel and to ensure an open and 
candid dialogue with the oversight committees and individual Members of 
Congress and their respective staffs.
    Question. The Under Secretary of Defense for Personnel and 
Readiness.
    Answer. The Under Secretary of Defense for Personnel and Readiness 
is the principal staff assistant and advisor to the Secretary and 
Deputy Secretary of Defense for Total Force Management as it relates to 
readiness, Active and Reserve component affairs, health affairs, 
training, and personnel requirements and management. These 
responsibilities include the issuance of guidance to the Military 
Departments. If confirmed, I will develop a close and professional 
relationship with the Under Secretary of Defense for Personnel and 
Readiness. I will continuously communicate and coordinate with the 
Under Secretary of Defense for Personnel and Readiness on matters of 
mutual interest, articulating the views of the Department of the Navy. 
I will ensure that the Department of the Navy is administered in 
accordance with guidance and direction from the Department of Defense.
    Question. The Principal Deputy Under Secretary of Defense for 
Personnel and Readiness.
    Answer. The Principal Deputy Under Secretary of Defense for 
Personnel and Readiness advises the Under Secretary of Defense for 
Personnel and Readiness and, from time to time, performs 
responsibilities that require the issuance of guidance to the Military 
Departments. If confirmed, I will continuously communicate and 
coordinate with the Principal Deputy Under Secretary of Defense for 
Personnel and Readiness on matters of mutual interest and in 
furtherance of the best interests of the Department of the Navy and the 
Department of Defense.
    Question. The Assistant Secretary of Defense for Manpower and 
Reserve Affairs.
    Answer. This is a new position and currently not filled. The 
Assistant Secretary of Defense for Manpower and Reserve Affairs is 
responsible for the overall supervision of manpower and Reserve affairs 
of the Department of Defense. If confirmed, I will communicate and 
coordinate with the new Assistant Secretary of Defense for Manpower and 
Reserve Affairs, or the person acting in that capacity, in the 
development of programs and policy related to military and civilian 
personnel in furtherance of the best interests of the Department of the 
Navy and the Department of Defense.
    Question. The Assistant Secretary of Defense for Readiness.
    Answer. This is a new position and currently not filled. The 
Assistant Secretary of Defense for Readiness is responsible for 
advising the Principal Deputy Under Secretary of Defense for Personnel 
and Readiness on key readiness and training issues. If confirmed, I 
will communicate and coordinate with the new Assistant Secretary of 
Defense for Readiness, or the person acting in that capacity, on 
matters of mutual interest and in furtherance of the best interests of 
the Department of the Navy and the Department of Defense.
    Question. The Chief of Naval Operations.
    Answer. The Chief of Naval Operations is the senior military 
officer of the Department of the Navy and has a direct reporting 
relationship to the Secretary of the Navy. If confirmed, I would work 
with the CNO to support the Secretary in areas of manpower policy as 
well as program execution.
    Question. The Vice Chief of Naval Operations.
    Answer. The Vice Chief of Naval Operations is the second highest-
ranking commissioned officer in the United States Navy, and serves as 
the second-in-command for the Chief of Naval Operations. If confirmed, 
I will work very closely with the Vice Chief of Naval Operations, as 
required, on manpower issues.
    Question. The Chief of Naval Personnel.
    Answer. The Chief of Naval Personnel is responsible to the Chief of 
Naval Operations for Navy's manpower readiness. If confirmed, I would 
maintain a close relationship with the Chief of Naval Personnel, ensure 
that the manpower, personnel, training, and education needs of the Navy 
are met, and to provide the best possible support for sailors and their 
families.
    Question. The Commandant of the Marine Corps.
    Answer. The Commandant is the highest-ranking officer in the United 
States Marine Corps and has a direct reporting relationship to the 
Secretary of the Navy. If confirmed, I would work with the Commandant 
to support the Secretary in areas of manpower policy as well as program 
execution.
    Question. The Assistant Commandant of the Marine Corps.
    Answer. The Assistant Commandant of the Marine Corps is the second 
highest ranking officer in the United States Marine Corps and serves as 
the second-in-command for the Commandant of the Marine Corps. If 
confirmed, I will work very closely with the Assistant Commandant of 
the Marine Corps, as required, on manpower issues.
    Question. The Deputy Commandant of the Marine Corps for Manpower 
and Reserve Affairs.
    Answer. The Deputy Commandant of the Marine Corps for Manpower and 
Reserve Affairs assists the Commandant by planning, directing, 
coordinating, and supervising both Active and Reserve forces. If 
confirmed, I would maintain a close relationship with the Deputy 
Commandant of the Marine Corps for Manpower and Reserve Affairs, ensure 
that the manpower, personnel, training, and education needs of the 
Marine Corps are met, and to provide the best possible support for 
Marines and their families.
    Question. The Surgeon General of the Navy.
    Answer. The Surgeon General of the Navy is the Chief of the Bureau 
of Medicine and Surgery. If confirmed, I would look to the Surgeon 
General for advice and insights on the spectrum of medical affairs 
affecting our Navy and Marine Corps personnel.
    Question. The Chief of Navy Reserve.
    Answer. The Chief of Navy Reserve is the principal advisor on Navy 
Reserve matters to the Chief of Naval Operations and the commander of 
the Navy Reserve Force. If confirmed, I would work closely with the 
Chief of Navy Reserve on the numerous operational and policy matters 
affecting the Reserve component of the Navy.
    Question. The Commander, Marine Forces Reserve.
    Answer. The Commander, Marine Forces Reserve, is the principal 
advisor to the Commandant on Marine Forces Reserve matters. If 
confirmed, I would work closely with Commander, Marine Forces Reserve 
on the numerous operational and policy matters affecting the Marine 
Forces Reserve.
    Question. Marines, sailors and their families.
    Answer. Those men and women who answer the call to duty and service 
are our Nation's most valuable national security assets. If confirmed, 
I will work to ensure sailors and marines are fully trained, integrated 
and ready when called upon. I will also work diligently to care for 
sailors, marines and their families across the Department of the Navy 
to ensure they enjoy a comfortable quality of life that meets their 
individual and collective needs as they serve and sacrifice on behalf 
of our Nation. Additionally, I would meet with sailors and marines 
wherever they are stationed, when practicable, to gain their insights 
and to remain informed of the issues and concerns most important to 
them.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. If confirmed, I believe my personal background, my 
educational and my professional experiences qualify me for this 
position.
    The son and nephew of Vietnam veterans--my father an Air Force 
Captain, my uncle an Army Lieutenant Colonel--I was raised with a deep 
appreciation for what it means to be called to serve our Nation. It was 
instilled in me at an early age that we must always respect our 
servicemembers and their service, and that we must always care for them 
as they have for us. Following 9/11, I left the practice of law to 
pursue a life of public service. After earning an advanced Public 
Policy degree in Political Advocacy and Leadership from Harvard 
University's John F. Kennedy School of Government, I returned to 
private legal practice specializing, in part, in legislative and 
regulatory affairs, where I gained valuable experience working with 
Congressional offices on public policy issues.
    In 2009, I was honored to receive an appointment as Special 
Assistant (attorney-advisor) to the General Counsel of the Department 
of the Navy. During this extraordinary opportunity, I worked on a range 
of matters that provided me with critical insight into issues impacting 
the Department, its servicemen and women, and its civilian personnel. I 
was afforded the unique opportunity to participate in DOD's 
Comprehensive Review Working Group, which examined the impacts of a 
repeal of the ``Don't Ask Don't Tell'' policy; exploring the potential 
effects of one of the most significant military personnel policy 
changes of our time. For my service, I was honored to receive the 
Department of the Navy's Meritorious Public Service Award in 2011 and 
the Distinguished Public Service Award in 2012.
    In 2012, I was appointed as Chief Counsel for the Maritime 
Administration (MARAD) at the U.S. Department of Transportation (DOT), 
where I serve not only as MARAD's chief legal officer, but also as its 
third-ranking official. In this capacity, my responsibilities include 
not only legal matters, but also impact broader personnel, management, 
and policy concerns in support of MARAD's mission. Core to this mission 
is the training, employment, and retention of the U.S. merchant 
mariners and maritime professionals who support our Nation's commercial 
and military sealift requirements. In addition to my core duties as 
Chief Counsel, I have been closely involved in other personnel-related 
initiatives such as serving on DOT's Senior Executive Service (SES) 
Performance Review Board, participating in Office of Personnel 
Management-led interagency efforts to improve SES onboarding practices, 
and playing various roles in hiring, diversity, mentoring, quality of 
life, professional development, outreach and other efforts.
    I believe the sum of my experiences in private practice and 
government; my efforts on both military and civilian personnel matters; 
my legal familiarity with governmental authorities and limitations; my 
perspective having served in both defense and civilian agencies; my 
understanding of government processes, organizations, and dynamics; my 
roles as an action officer, a Senior Executive and as a member of 
senior Agency leadership; my work with Congressional offices and staff, 
and the deep respect and appreciation I hold for the women and men who 
serve our Nation, equip me with the skills I need to effectively 
perform the duties of this position.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Assistant Secretary of the Navy for Manpower and Reserve 
Affairs?
    Answer. In my view, the fundamental challenge facing the Assistant 
Secretary of the Navy for Manpower and Reserve Affairs is effectively 
manning the entire force, which equates to balancing military readiness 
with future requirements. Manning the force with the right manpower mix 
of qualified military, civilian, and contractor personnel in the 
current and foreseeable fiscal environment will be a critical 
challenge. The Department of the Navy must continue to recruit, train 
and retain the very best, maintain the superior pay and benefits 
package our sailors and marines deserve, and ensure the best care for 
our wounded warriors and their families.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    If confirmed, I will work within the Department of the Navy-
Department of Defense framework to address manpower requirements while 
supporting our servicemen and women and their families. I will work to 
ensure that major headquarters are properly adjusted per congressional 
and SECDEF guidance. I will support SECDEF and SECNAV initiatives such 
as Force of the Future, Task Force Innovation, and Talent Management 
initiatives to enhance flexibility in career and workforce management 
and help develop and retain the Department of the Navy's highly trained 
personnel. I will address requirements by garnering the expertise of 
the civilian and military leadership within the Department of the Navy, 
the Office of the Secretary of the Navy, and the Office of the 
Secretary of Defense, and will be open to input from Members of 
Congress and the Department's oversight committees.
                systems and support for wounded soldiers
    Question. Servicemembers who are wounded or injured in combat 
operations deserve the highest priority from the Navy and the Federal 
Government for support services, healing and recuperation, 
rehabilitation, evaluation for return to duty, successful transition 
from Active Duty if required, and continuing support beyond retirement 
or discharge. Despite the enactment of legislation and renewed emphasis 
over the past several years, many challenges remain.
    What is your assessment of the progress made to date by the Navy to 
improve the care, management, and transition of seriously ill and 
injured marines and sailors, and their families?
    Answer. I am aware that the Navy and Marine Corps take seriously 
the importance of caring for the medical needs of their personnel and 
their families. I understand the Navy Safe Harbor program and Marine 
Corps Wounded Warrior Regiment programs were established to improve and 
integrate support services, and speed delivery of coordinated care. In 
addition to these programs, I am aware the Navy 21st Century sailor and 
marine initiative has been established to address other areas to 
provide the full spectrum of whole life support. If confirmed, I will 
continue to support and optimize these and other vital programs for 
Wounded Warriors and their families.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Navy's support for 
wounded marines and sailors, and to monitor their progress in returning 
to duty or to civilian life?
    Answer. If confirmed, I will continue to work closely with the 
Secretary of the Navy, Vice Chief of Naval Operations, Assistant 
Commandant of the Marine Corps, Assistant Secretary of Defense (Health 
Affairs), Surgeon General of the Navy, the Department of Veterans 
Affairs leadership, and the veteran service and non-profit 
organizations in local communities to continually evaluate and improve 
existing programs and initiatives provided to our wounded and their 
families. In addition I will look to continue the Department's Annual 
Wounded Warrior Hiring conference. I will continue to champion the best 
practices of training, hiring and retaining our wounded, ill and 
injured servicemembers into both government and private career 
opportunities. I thank Congress for its continued support, as I believe 
our Nation and our Department owe these wounded sailors and marines a 
debt that can never fully be paid.
                       officer management issues
    Question. As the Assistant Secretary of the Navy for Manpower and 
Reserve Affairs you would have significant responsibilities with regard 
to officer management policies, the promotion system, and recommending 
officers for nomination to positions of authority and responsibility.
    If confirmed, what changes, if any, would you make to the officer 
management system?
    Answer. I understand the officer management systems, and in 
particular the promotion system, are constantly being evaluated and 
efforts made to improve them. I am not yet familiar with the specifics 
of the program, or the results of the latest evaluations. However, if 
confirmed, I will fully consider and evaluate any recommendations from 
Navy and Marine Corps leadership for system improvement.
    Question. Do you believe the current Navy procedures and practices 
for reviewing the records of officers pending nomination by the 
President are sufficient to ensure the Secretary of the Navy, the 
Secretary of Defense, and the President can make informed decisions?
    Answer. It is my understanding that the Navy's processes and 
policies to identify eligibility and suitability for appointment or re-
appointment as officers provide sufficient information for these 
decisions. If confirmed, I will fully support efforts to enhance 
personnel suitability screening associated with nominations for 
appointments to higher positions of leadership, trust and 
responsibility.
    Question. In your view, are these procedures and practices fair and 
reasonable for the officers involved?
    Answer. To the best of my knowledge, current procedures for vetting 
personal and professional information seek to protect the rights of 
individual officers and the interests of the Navy in advancing only 
those who have clearly demonstrated exceptional character, competence, 
and commitment to the Nation's values. If confirmed, I will support 
these vetting processes and, for any changes proposed, I will ensure 
the due process rights of individual officers are protected.
     technical training and assignment of general and flag officers
    Question. In your view, do a sufficient number of general and flag 
officers have advanced training and degrees in scientific and technical 
disciplines?
    Answer. Anecdotally, it has been my personal experience that the 
general and flag officers I have worked with predominantly have 
sufficient training and degrees to fulfill their responsibilities. In 
my previous position as an attorney in the Office of the General 
Counsel of the Navy, it was apparent to me that many of the general and 
flag officers with whom I interacted had scientific and technical 
backgrounds likely obtained through a scientific or technical 
undergraduate and/or graduate degree.
    If confirmed, I will closely monitor the inventory of senior 
officer personnel to ensure our Navy and Marine Corps has officers with 
the technical and scientific training necessary to perform their 
duties.
    Question. Are the career paths for officers with technical skills 
appropriate to ensure that the services can execute complex acquisition 
programs, adapt to a rapidly changing technological threat environment, 
and make informed investment decisions on DOD and Army resources? If 
not, what will you do to address this deficiency?
    Answer. It is my understanding that there are multiple factors that 
affect a general/flag officer's ability to ensure the effective 
execution of complex acquisition programs. I understand that the 
Department of the Navy policy for the Acquisition Workforce requires 
that those general/flag officers serving in positions with oversight 
responsibility for major acquisition programs have at least 10 years of 
experience, prior experience in a Critical Acquisition Position, as 
well as prior experience as an acquisition Program Manager or Deputy 
Program Manager.
    Additionally, I understand that the Department of the Navy (DON) 
attempts to provide a robust development program for its acquisition 
program leaders. For example, I understand the Assistant Secretary of 
the Navy for Research, Development and Acquisition has Acquisition War 
Rooms that provide well-researched lessons learned on what has been 
successful in Shipbuilding/Combat Systems Acquisition as they relate to 
current programs. Newly selected leaders are required to go through the 
War Rooms. Further, DON offers an ``Understanding Industry'' course 
that arms participants with an understanding of the mindset of Industry 
leaders, better equipping participants to more effectively negotiate 
business arrangements. Additionally, I understand DON allows selected 
acquisition leaders to participate in the Secretary of Defense 
Corporate Fellowship Program, a year-long training opportunity with 
Industry to gain first-hand experience with corporate operations. 
Combined with existing acquisition experience, Defense Acquisition 
University training, and graduate education, these initiatives are 
intended to collectively develop well-rounded Program Managers.
    Question. In your view do current general and flag officer 
assignment policies provide and incentivize qualified officers to serve 
in acquisition programs? Do tour lengths for those assignments enable 
and empower such officers to effectively manage acquisition programs? 
If not, what changes do you believe are necessary to improve the 
effectiveness of senior officers assigned those duties?
    Answer. I am aware the DON has policy to ensure that acquisition 
officers promote at the same rate as those in non-acquisition 
positions. In addition, I understand the department has made efforts to 
incentivize those leading and executing acquisition programs. There are 
more than ten different awards recognized in the annual DON Acquisition 
Excellence Awards Ceremony, with multiple others submitted for 
recognition at the Under Secretary of Defense Acquisition, Technology 
and Logistics (USD (AT&L)) level. The department also recognizes 
leaders of acquisition programs in the USD (AT&L) magazine. DON policy 
requires tour lengths that are consistent with OSD policy, i.e., four 
years (or closest major milestone) for those leading major programs and 
three years for those serving as Program Executive Officers. Beyond 
that, DON's Program Review process attempts to ensure program leaders 
are empowered to make decisions to effectively manage their programs.
    If confirmed, I will evaluate whether there is a relevant and 
sufficient match between acquisition education requirements and senior 
officer training and education.
                  general and flag officer nominations
    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general and flag officers must be evaluated 
by senior leaders in the Services and in the Office of the Secretary of 
Defense prior to nomination.
    Answer. [Noting that the guidance has been updated as DOD 
Instruction 1320.04 in January 2014]
    Question. If confirmed, what role would you play in the officer 
promotion system, particularly in reviewing general and flag officer 
nominations?
    Answer. The officer promotion system is governed by the Defense 
Officer Personnel Management Act and the Reserve Officer Personnel 
Management Act. If confirmed, I will review all flag and general 
officer nominations prior to approval by the Secretary of the Navy. If 
there are any concerns, I would consult with the Chief of Naval 
Personnel or the Deputy Commandant of the Marine Corps for Manpower and 
Reserve Affairs to discuss the issues prior to routing the nomination 
to the Secretary.
    I understand that current regulations and procedures provide senior 
civilian oversight to ensure information relevant to prospective 
nominees is appropriately considered by promotion boards and officials 
within the recommending hierarchical chain. If confirmed, I will engage 
with and monitor these processes to preserve the integrity of the 
promotion system to ensure that the officers promoted are physically, 
mentally and morally qualified to serve at the highest levels.
    Question. What is your assessment of the ability of the Services to 
timely document credible information of an adverse nature for 
evaluation by promotion selection boards and military and civilian 
leaders?
    Answer. I believe that consideration of all information is critical 
to ensuring the reliability of selection board results. I consider this 
to be a vitally important responsibility. If confirmed, I would 
carefully review the selection process for military and civilian 
leaders to ensure information of an adverse nature is properly 
evaluated. It is my understanding that the Navy's process to identify 
credible information of an adverse nature for evaluation by promotion 
selection boards and military and civilian leaders provides sufficient 
information for these decisions. If confirmed, I will review and 
monitor these processes to determine if there are areas for 
improvement.
    Question. If confirmed, what steps will you take to ensure that 
only the best qualified officers are nominated for promotion to general 
and flag officer rank?
    Answer. I understand that a thorough screening process and review 
is conducted on convening orders for flag and general officer selection 
boards to ensure clear guidance is provided to all flag and general 
officer selection board members. While I am not fully aware of the 
existing process within the Department of the Navy for developing and 
promulgating selection criteria for general and flag officers, if 
confirmed I would examine this process closely. If confirmed, I will 
provide the Secretary my frank assessment of the existing processes and 
will make recommendations regarding any changes necessary to ensure the 
best qualified officers are nominated.
                        end strength reductions
    Question. In this year's budget request and Future Years Defense 
Program, the Department proposes making additional cuts to the Marine 
Corps active and Reserve component end strengths. The Department 
proposes reducing the marine Active component to 182,000 by 2020, and 
plans to keep the Marine Corps forces at 182,000 if sequestration 
continues.
    In your view, can the Marine Corps meet national defense objectives 
at the strength levels proposed without sequestration? What about at 
the strength levels proposed with sequestration?
    Answer. I understand the Commandant of the Marine Corps has 
testified that the Marine Corps can meet the requirements of the 
Defense Strategic Guidance today at the President's Budget levels, but 
there is no margin. Lowering end strength due to sequestration or 
enforcement of the Budget Control Act funding caps would not allow the 
Marine Corps to execute the current Defense Strategic Guidance. I 
understand a new strategy would need to be developed that would take 
into account fewer warfighting units available to deploy in defense of 
the Nation.
    Question. If the Marine Corps must reduce its active component end 
strength to 182,000, where does the Marine Corps take risk with respect 
to the national defense strategy?
    Answer. I understand the Commandant of the Marine Corps has 
testified that the Marine Corps has been forced to prioritize near-term 
readiness for forward deployed marines and assume risk in home station 
readiness, modernization, infrastructure sustainment, and quality of 
life programs.
    If confirmed, I will work with Marine Corps leadership to minimize 
the risk to overall Service readiness.
    Question. What is your understanding of the need for additional 
force shaping tools requiring legislation beyond what Congress has 
provided the past three years?
    Answer. I understand Congress has given the Marine Corps the 
authorities necessary to accomplish its present drawdown. If confirmed, 
I will assess Departmental processes and results to ensure the Marine 
Corps reduces end strength in a smart, measured way and identifies any 
additional legislative changes needed in a timely manner.
    Question. In your view, should the number of general and flag 
officers in the Marine Corps and Navy be reduced commensurate with the 
drawdown of total Marine and Navy end strength?
    Answer. I am aware that the Services recently conducted a 
Congressionally-directed review of active component general and flag 
officer billets. A similar review is underway now for the Reserve 
component. If confirmed, I will ensure that any recommendations 
regarding changes in the number of authorized flag and general officers 
are based on the needs of the Navy and Marine Corps, considering the 
nature of responsibilities associated with any specific position.
                            lessons learned
    Question. What do you believe are the major personnel lessons 
learned from Operation Enduring Freedom (OEF) and Operation Iraqi 
Freedom (OIF) which you would seek to address if confirmed as Assistant 
Secretary of the Navy for Manpower and Reserve Affairs?
    Answer. I am confident that there are valuable personnel lessons 
learned from OEF and OIF. The sacrifices of our sailors and marines, 
and their families in support of these operations, were made at great 
cost. It is impressive that all the Services have been able to maintain 
a high-quality all-volunteer force through more than a decade of combat 
operations. The continuous integration of Active Duty and Reserve 
forces throughout and since these Operations has been remarkable as 
well. I am aware that there have been many lessons from OEF and OIF 
about the impacts of stress on the force, and there is still more to 
learn and to do in support of the physical and mental resiliency of our 
sailors and marines, and for veterans seeking to reintegrate with their 
families and communities, to include transitioning from the uniform. If 
confirmed, I will seek out and review the hard-earned lessons learned 
with senior leaders within the Department of the Navy.
                           suicide prevention
    Question. The numbers of suicides in each of the services continue 
to be of great concern to the Committee.
    If confirmed, what role would you play in shaping suicide 
prevention programs and policies for the Department of the Navy to 
prevent suicides and increase the resiliency of marines, sailors and 
their families?
    Answer. I share the Department of the Navy view that every suicide 
is a tragedy, and that suicide is also a leadership issue. I understand 
that the Services have taken significant steps to improve suicide 
prevention efforts. If confirmed, I will support efforts to encourage 
strength and resilience among sailors, marines and their families, and 
to foster command climates supportive of psychological health and help-
seeking behavior. It is critical that the Department continues to 
emphasize the importance of personal responsibility, peer-support and 
bystander intervention, and that it continues to emphasize that seeking 
help is a sign of strength.
                      family readiness and support
    Question. Marines, sailors and their families in both the active 
and Reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of concerns among military families as a result of 
the stress of deployments and the separations that go with them.
    What do you consider to be the most important family readiness 
issues for marines, sailors and their families, and, if confirmed, how 
would you ensure that family readiness needs are addressed and 
adequately resourced, especially in light of current fiscal 
constraints?
    Answer. Sailors, marines and their families are the Department of 
the Navy's greatest assets. Addressing their needs can be more 
challenging in times of war or contingency operations, particularly in 
a fiscally constrained environment. If confirmed, I will work with the 
Services to ensure that, to the greatest extent possible, the 
Department remains agile and responsive to the needs of servicemembers 
and their families, within fiscal realities. Whether assisting them in 
transitioning to civilian life, or providing financial education 
throughout their service, addressing their needs and desires will be 
essential to success.
                    morale, welfare, and recreation
    Question. Morale, Welfare, and Recreation (MWR) programs are 
critical to enhancement of military life for marines, sailors and their 
families, especially in light of deployments. These programs must be 
relevant and attractive to all eligible users, including active-duty 
and Reserve personnel, retirees, and families.
    What challenges do you foresee in sustaining Navy MWR programs, 
particularly in view of the current fiscal environment and, if 
confirmed, are there any improvements you would seek to achieve?
    Answer. It is vitally important not to marginalize MWR program 
contribution to readiness and retention. If confirmed, I will work with 
the Services to ensure program relevance and sustainability. I am aware 
that in a fiscally constrained environment, it is critical to optimize 
MWR's revenue generating capability and to protect the profitability of 
the military exchanges that help fund MWR programs.
                 sexual assault prevention and response
    Question. What is your assessment of the Navy's sexual assault 
prevention and response program?
    Answer. In recent years, I understand over 150 program and policy 
initiatives have been implemented in an effort to provide a 
comprehensive approach to sexual assault prevention and response 
(SAPR).
    I am aware that in Fiscal Year 2014 (FY14), reports of sexual 
assault in the Department continued to increase over previous years, 
though I understand that an increase in sexual assault reports may not 
necessarily represent increased incidents of sexual assault. For a 
crime that is universally underreported, the Department believes this 
trend may represent in part an improved command climate since when a 
sailor or marine trusts the command to respond appropriately, he or she 
is more likely to make a report. I understand that the DON is also 
committed to further efforts to address sexual assault through new 
training initiatives, such as bystander intervention training. Despite 
these efforts, however, I concur with the Department's view that there 
is more work to be done and that this issue requires continued focus at 
the highest levels.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. I understand that the system allowing both restricted and 
unrestricted reporting is valuable to ensure that all persons have 
access to support services.
    If confirmed, I would be committed to ensuring that victims have 
the option whether to report and, if they decide to do so, they can 
report in a manner that respects their privacy, their rights, and their 
desire to participate in the military justice system.
    Question. What is your view about the role of the chain of command 
in providing necessary support to the victims of sexual assault?
    Answer. Through their words and deeds, commanding officers set the 
tone for, and are ultimately responsible for, command climate. As a 
result, they are the lynchpin for establishing and maintaining a 
positive command climate.
    Every commander must be held accountable for ensuring the well-
being of each individual within the command. The chain of command is 
integral to providing compassionate care and support to victims. It is 
also fundamental to implementing command-wide training on how to 
support survivors and ensuring implementation of military policies 
regarding sexual assault prevention and response.
    Question. What is your understanding of the adequacy of Navy 
resources and programs to provide victims of sexual assault the 
medical, psychological, and legal help they need?
    Answer. I am aware that the Department has placed a significant 
focus on providing support to victims. I have been informed that 
victims are offered a range of resources to provide them with the 
proper physical, emotional and legal support. I understand that newly 
established programs and positions such as Sexual Assault Response 
Coordinators (SARC), deployed resiliency counselors, and Victims' Legal 
Counsel (VLC) have afforded important guidance, support, and advocacy 
for victims. Meanwhile, I understand the medical community strives to 
provide individuals with compassionate, competent, and victim-centered 
care.
    Question. What is your view of the steps the Navy has taken to 
prevent additional sexual assaults both at home station and deployed 
locations?
    Answer. I understand that the Department is aggressively attempting 
to address the problem of sexual assault no matter where an offense is 
committed. Specifically, I understand that SARCs, deployed resiliency 
counselors, and VLCs are available worldwide. The Department has also 
established peer-to-peer training for every sailor and marine. Given 
the connection between alcohol use and sexual assault, the Department 
has established alcohol sales policies on every Navy installation. In 
addition, I understand the Department has established new base security 
measures in resident housing. If confirmed, I will support continued 
efforts to eliminate all forms of sexual assault, in all locations, and 
will advocate for the continuous development of effective new 
approaches to combat the crime and to support victims.
    Question. What is your view of the adequacy of the training and 
resources Navy has in place to investigate and prosecute allegations of 
sexual assault?
    Answer. I understand there has been significant focus on ensuring 
sufficient resources and training for NCIS and Navy and Marine Corps 
judge advocates. I am aware that NCIS is required to investigate every 
allegation of sexual assault and I understand that changes have put 
into place specialists who handle investigations, courtroom litigation 
and provide victim support.
    Adequacy of training and resources for investigation, prosecution, 
and defense of allegations of sexual assault is critical to ensuring a 
thorough investigation and fair trial of sexual assault cases while 
protecting both the victim's privacy interests and the constitutional 
rights of the alleged offenders. If confirmed, I will monitor the 
Department's training and resources closely to ensure that they 
sufficiently prepare and equip those who investigate and prosecute 
sexual assault allegations.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults occur?
    Answer. I believe that preventing and responding to sexual assault 
is not just a legal issue--it is a leadership issue. The chain of 
command is responsible for the health and well-being of the 
servicemembers they have been entrusted to lead and plays a fundamental 
role in the Department of the Navy's (DON's) prevention and response 
efforts. As a result, the chain of command must practice, promote and 
reinforce these efforts at every level in order to create an 
environment and culture in which sexual assault is not tolerated.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. I believe that, in the military environment, the chain of 
command has a central role in ensuring the well-being of 
servicemembers, but I also understand concerns that have been expressed 
regarding the role of the chain of command in sexual assault 
prosecutions. If confirmed, I will closely examine this important 
question, and will keep an open mind regarding options for improving 
the system for prosecutions of sexual assault.
    Question. What additional steps would you take, if confirmed, to 
address the problem of sexual assaults in the Navy?
    Answer. If confirmed, I would continue ongoing work to implement 
statutory mandates, Secretary of Defense initiatives, and Service 
initiatives, and would monitor these new initiatives for effectiveness 
as they are implemented. I would consider any independent 
recommendations and would also continue collaboration with 
Congressional oversight committees; keeping an open mind regarding 
their concerns and suggestions for addressing this important issue. In 
addition, I would stress the importance of training as well as the 
significance of a commitment from leadership at all levels to create 
and sustain a climate that refuses to tolerate sexual assault or 
retaliation against survivors.
                          religious guidelines
    Question. In your view, do Department of Defense policies 
concerning religious accommodation in the military appropriately 
accommodate the free exercise of religion and other beliefs, including 
individual expressions of belief, without impinging on those who have 
different beliefs, including no religious belief?
    Answer. I understand the Department of the Navy (DON) and the 
Department of Defense (DOD) take very seriously the Constitutional 
freedom expressed in the First Amendment for the free exercise of 
religion on the part of all citizens, including members in military 
service, and respects those who observe no religion. I am aware that 
commanders, leaders, and chaplains are responsible for ensuring those 
rights are afforded to all of our sailors, marines, their families, and 
DON civilians, and for striving to protect their civil liberties to the 
greatest extent possible, consistent with military requirements.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by military chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. The Navy's Chaplain Corps provides religious support to the 
Navy, Marine Corps and the Coast Guard on the basis of the 
servicemembers' respective free exercise rights. Chaplains provide 
prayers on many occasions in both private and public settings, and I 
understand chaplains are never required to pray outside of their 
individual convictions, beliefs, religious traditions, or the tenets of 
the religious organization that provides their endorsement to DOD and 
DON. I understand that there are no Department policies that restrict 
prayers, either in manner or content, though chaplains are encouraged 
to be respectful of other faiths when praying during official 
ceremonies where attendance is mandatory.
    Question. Section 533 of the FY13 National Defense Authorization 
Act (P.L. 112-239), as amended by section 532 of the FY14 National 
Defense Authorization Act (P.L. 113-66) protects rights of conscience 
of members of the armed forces and chaplains of such members, and 
prohibits, so far as possible, use of such beliefs as the basis of any 
adverse personnel action, discrimination, or denial of promotion, 
schooling, training, or assignment. Members of some religious 
denominations have sincerely held beliefs in opposition to same-sex 
marriage.
    In your view, may a member of the armed forces who has a sincerely 
held belief in opposition to same-sex marriage be subject to adverse 
personnel action or similar other adverse action, if he or she shares 
those personal views on the subject in a personal capacity?
    Answer. I understand that sailors and marines may express 
sincerely-held moral or religious views about same-sex marriage when 
speaking in a personal capacity, but must avoid any appearance that 
they are expressing an official position. DOD's Equal Opportunity 
policy (DODD 1020.02E) guarantees all servicemembers an environment 
free from harassment or discrimination on the basis of race, color, 
national origin, religion, sex, or sexual orientation. Having an 
environment free from discrimination helps ensure that sailors and 
marines reach their potential and contribute as much as possible to the 
mission. So while I understand the Department recognizes that some 
servicemembers may hold very sincere religious convictions in good-
faith opposition to same-sex marriage, it nevertheless requires all 
sailors and marines to abide by DOD's Equal Opportunity policy in their 
official capacities.
                           officer accessions
    Question. What, in your view, is the appropriate relative 
distribution from the sources of commission to meet the Navy's officer 
accessions requirements and sustain the viability of the Naval Academy, 
Reserve Officer Training Corps, and the Officer Candidate School?
    Answer. My understanding is that each commissioning source brings 
different strengths in terms of prior military experience, academic 
background, diversity, and indoctrination into military culture. The 
existence of different commissioning sources likely makes naval service 
appealing to a wider range of young men and women than would be 
attracted by any single program. If confirmed, I would need to look at 
the reasons each Service relies on a particular source for a specific 
number of officer commissions each year, to determine whether the 
relative distribution is appropriately aligned with the skills and 
experiences necessary to meet the requirements of the force.
                      united states naval academy
    Question. What is your assessment of the policies and procedures at 
the United States Naval Academy to prevent and respond appropriately to 
sexual assaults and sexual harassment and to ensure essential 
oversight?
    Answer. My understanding is that the United States Naval Academy 
(USNA) possesses policies and procedures designed to prevent and 
respond appropriately to sexual harassment and sexual assaults and to 
ensure essential oversight. I believe it is critical at every level to 
promote a positive command climate that does not tolerate any form of 
sexual assault,or sexual harassment. I understand that the USNA 
recognizes this and that the highest levels of school leadership are 
engaged on this issue. Recently, the USNA has played an integral part 
in the launch of the ``It's On Us'' campaign that addresses prevention 
of sexual assault on college campuses and has participated in a number 
of civilian institutional forums designed to share best practices. If 
confirmed, one of my highest priorities will be to support the ongoing 
efforts to strengthen the USNA programs and policies that attempt to 
eliminate sexual assault and sexual harassment.
    Question. What is your assessment of the policies and procedures at 
the United States Naval Academy to ensure religious tolerance and 
respect?
    Answer. It is my understanding that the USNA follows Department of 
Defense and Department of the Navy policies on religious accommodation 
and has procedures in place aimed at ensuring religious tolerance, 
respect, and support for midshipmen, faculty, and staff in their 
personal faith choices. I fully support this Constitutional right and 
recognize its importance to our Nation and the Department of the Navy. 
If confirmed, I will take all the necessary steps to ensure that the 
Department of the Navy's policies reflect religious tolerance for all 
faiths.
             assignment policies for women in the military
    Question. The Department of Defense, in January, 2013, rescinded 
the policy restricting the assignment of women to certain units which 
have the primary mission of engaging in direct ground combat 
operations, and gave the military services until January 1, 2016, to 
open all positions currently closed to women, or to request an 
exception to policy to keep a position closed beyond that date, an 
exception that must be approved by the Chairman of the Joint Chiefs of 
Staff and the Secretary of Defense. The services were tasked to develop 
gender-free physical and mental standards for all military occupations, 
presumably with the goal of allowing individuals, regardless of gender, 
to serve in those positions if they can meet those standards and have 
submitted their reports and recommendations to the Military Departments 
who in turn provided their recommendations to the Secretary of Defense 
no later than 30 September 2015 for review and final decision.
    If confirmed, what role will you play in the development of these 
standards?
    Answer. If confirmed, I believe my role would be oversight and 
advice to the Secretary of the Navy regarding these standards.
    Question. If confirmed, will you ensure that the standards are 
realistic and preserve, or enhance, military readiness and mission 
capability?
    Answer. Yes, if confirmed, I will work closely with both the Navy 
and Marine Corps and seriously consider their respective input in 
development or implementation of the standards.
    Question. Do you believe that decisions to open positions should be 
based on bona fide military requirements? If so, what steps would you 
take to ensure that such decisions are made on this basis?
    Answer. I understand the Department of the Navy is committed to 
evaluating the requirements of each position in order to select and 
train sailors and marines, who can meet the requirements of their 
military occupational specialties, regardless of the gender of the 
individual. My understanding is that decisions will not be based on 
which positions to open, but rather on what positions require an 
exception to remain closed. I understand that exceptions to policy (if 
any) would be subject to a very high bar and that military requirements 
would be the primary consideration for any such exceptions.
    Question. If an exception to policy is requested, what criteria 
should be used to determine whether to grant or deny that exception?
    Answer. It is premature for me at this time to offer my opinion on 
the appropriate criteria for granting exceptions to policy. However, I 
understand that criteria related to military requirements would play a 
central role if any exceptions are requested. I share the Navy and 
Marine Corps view that it is imperative to always maintain the high 
military standards that are necessary in defense of our Nation.
                     legislative fellowship program
    Question. Each year, the Services assign mid-career officers to the 
offices of Members of Congress under the Legislative Fellows Program. 
Upon completion of their legislative fellowships, officers are required 
to be assigned to follow-on positions in their services in which they 
effectively use the experience and knowledge they gained during their 
fellowships.
    What is your assessment of the process for the recruitment, 
selection, preparation, and assignment to Members of Navy officers in 
the Legislative Fellows program?
    Answer. I understand that the Navy and Marine Corps Legislative 
Fellows programs are open to a wide variety of Line and Staff Corps 
officers permanent grades of O2 to O5 and some E-6 to E-9. Competition 
is keen, and the selection process focuses primarily on individual 
performance, promotion potential, career, timing, breadth of 
experience, academic and subspecialty qualifications, needs of the Navy 
and Marine Corps, and availability for follow-on assignment, as well as 
communication skills, aptitude, personality, and the general ability to 
adapt to a Capitol Hill work environment. I understand that Fellow 
selectees are provided with training within the Office of Legislative 
Affairs and in a Capitol Hill workshop, and that they are offered the 
opportunity to earn a Legislative Additional Qualification Designator 
(AQD).
    Question. What is your assessment of the value of the Legislative 
Fellows program to the Navy and the utilization of officers who have 
served as legislative fellows?
    Answer. I understand the Fellows program educates Navy personnel on 
the workings of the legislative branch of government, while enhancing 
Navy/Marine Corps' ability to fulfill its role in the national policy 
development process. I understand that the Navy/Marine Corps benefit 
from assignment of personnel to Congress by bringing a unique 
perspective to the process of drafting and passing legislation, and by 
affording the incumbent an opportunity to learn about the legislative 
process. Specifically, Fellows receive instruction and hands-on 
experience in a Congressional office through dedicated training and 
developmental activities; a full-time, one-year assignment to the staff 
of a Member of Congress who serves on a Defense-related subcommittee; 
and liaison with the Navy/Marine Corps Office of Legislative Affairs 
(OLA).
       management and development of the senior executive service
    Question. The transformation of the Armed Forces has brought with 
it an increasing realization of the importance of efficient and forward 
thinking management of senior executives.
    What is your vision for the management and development of the Navy 
senior executive workforce, especially in the critically important 
areas of acquisition, financial management, and the scientific and 
technical fields?
    Answer. I am very interested in supporting the development and 
management of the senior executive workforce for the Department of the 
Navy. The quality and capabilities of the civilian executive leadership 
is vital to the functioning of the Department. If confirmed, I will 
work to ensure that senior executives have a diverse portfolio of 
experiences and strong leadership skills that support the Department's 
mission and organizational goals. I understand that the Department has 
an enterprise approach to senior executive management through an 
Executive Management Advisory Panel and an annual Talent and Succession 
Management process. My understanding is that these processes were 
designed to ensure the Department has the leadership and technical 
talent for the mission including acquisition, financial, scientific and 
technical capabilities. If confirmed, I will review the executive 
management process and ensure that the policies are in place to 
attract, retain, and develop the best senior executives for all 
positions.
      balance between civilian employees and contractor employees
    Question. The Navy employs many civilian employees and contractors. 
In many cases, contractor employees work in the same offices, serve on 
the same projects and task forces, and perform many of the same 
functions as federal employees. Both contractors and civilians make up 
an integral part of the Department's total workforce.
    Do you believe that the current balance between civilian employees 
and contractor employees is in the best interests of the Navy?
    Answer. I believe the Department of the Navy's best interests are 
served by achieving and maintaining the right balance of military, 
federal civil servants and contractor employees in each organization 
and set of functions. I am aware that for each function, the Department 
of the Navy must consider the most appropriate, effective, and cost-
efficient source of labor to meet mission requirements. If confirmed, I 
would be committed to identifying and maintaining the optimal mix of 
military, federal civil servants, and contractor personnel and to 
practices that ensure the best stewardship of taxpayer resources.
    Question. In your view, has the Department utilized contractors to 
perform basic functions in an appropriate manner?
    Answer. For every function, the Department should consider the most 
appropriate and effective sources of labor, and apply scrutiny to 
processes at all levels to ensure that no inherently governmental 
functions are outsourced. It is also critical for the Department to 
examine mission requirements and best stewardship practices of existing 
resources when determining the most effective use of contractors. If 
confirmed, I am committed to working with the Secretary of the Navy, 
the Under Secretary, and other leaders to assess the extent of the 
Department's reliance on contractors and to ensure compliance with law 
and policy.
    Question. Do you believe that the Navy should undertake a 
comprehensive reappraisal of ``inherently governmental functions'' and 
other critical government functions, and how they are performed?
    Answer. I understand that the Federal Activities Inventory Reform 
(FAIR) Act, the Federal Acquisition Regulation (FAR), and the Total 
Force Management statutes of title 10 govern the proper sourcing of 
labor. It is always in our best interest to carefully review the 
direct, indirect, and potentially unintended consequences of a decision 
to contract out functions, and to take precautions to ensure that 
inherently governmental functions are not outsourced. If confirmed, I 
am committed to enforcing the processes necessary to perform this 
analysis, and to ensuring Departmental compliance with the FAIR Act and 
the FAR.
    Question. Are there non-monetary reasons why the Navy would need or 
desire one type of manpower over the other? If so, provide relevant 
examples where of those reasons? Under what circumstances should cost 
be used as the primary factor?
    Answer. I understand there are multiple factors that contribute to 
workforce mix decisions, many of which are non-monetary. If the duties 
are deemed inherently governmental, (for example work that involves key 
fiduciary responsibilities) then the work must be sourced by military 
or federal civilian employees, without consideration for cost. 
Similarly, cost might not be the driving factor when sourcing a short-
term project that requires highly specialized expertise not readily 
found in the federal workforce. However, cost would likely be used as a 
primary factor when filling requirements that are neither inherently 
governmental nor core business processes of the Department of the Navy. 
Additionally, in some cases, it may be desirable for certain positions 
to be used as shore rotation billets even if, narrowly considered, the 
positions might be filled by civilians at lower cost (since it is not 
reasonable to expect sailors and marines to spend their entire careers 
assigned to ships and other operational units). For every function, the 
Department should consider the most appropriate, effective, and cost-
efficient source of labor to meet the mission requirement.
    Question. If confirmed, will you work with other appropriate 
officials in the Navy to review the contractor and civilian force mix 
for cost and mission effectiveness?
    Answer. Yes. If confirmed, I will work with other appropriate 
officials in the Department to review the contractor and civilian force 
mix. As required by statute, if confirmed, I will also work closely 
with the Under Secretaries of Defense for Personnel and Readiness, 
Comptroller, and Acquisition, Technology and Logistics, to ensure that 
the Department of the Navy continues to operate in a manner consistent 
with the Department of Defense guidance.
    Question. Would you agree that the balance between civilian 
employees and contractor employees in performing Navy functions should 
be determined by the best interests of the Navy and its mission 
requirements?
    Answer. Absolutely, and the Department of the Navy's continuous 
success in mission accomplishment hinges upon continuing to employ the 
most effective and appropriate workforce mix of available labor 
sources.
    Question. If confirmed, will you work to remove any artificial 
constraints placed on the size of the Navy's civilian and contractor 
workforce, so that the Navy can hire the number and type of employees 
most appropriate to accomplish its mission?
    Answer. If confirmed, I will support efforts to ensure that the 
Department of the Navy has the most appropriate, effective, and cost-
efficient workforce to accomplish its many missions, within available 
resources. I will also support efforts to remove any inappropriate 
constraints on the size of the civilian or contractor workforce.
                  acquisition and technology workforce
    Question. The Department of Defense is in a global competition for 
the highest quality STEM professionals at the entry-level, mid-career, 
and senior levels. These individuals are charged with managing billions 
of dollars' worth of taxpayer resources in complex acquisition 
programs, directly providing technical support to military operations, 
supporting the development of technically informed policies and 
regulations in areas ranging from cybersecurity to use of drones; and 
performing world class research and engineering functions in in house 
labs and centers.
    Do you feel that the Navy can currently compete with the private 
sector for the highest quality technical performers at the early 
career, mid-career, and senior levels?
    Answer. I understand that the Department of the Navy is 
experiencing some success in regard to hiring the highest quality 
technical performers across the full career spectrum and, for the most 
part, is competitive with the private sector for the Nation's best and 
brightest talent. Our country's technical workforce is driven by the 
opportunity to practice hands-on science and engineering within one's 
chosen discipline. The Department continues to provide such 
opportunities for prospective candidates at generally competitive 
salary rates. However, I understand Departmental hiring managers face 
significant hurdles in the hiring process that are not shared by 
private sector employers. Streamlining the hiring process to overcome 
these hurdles would allow the Department of the Navy to increase its 
hiring success rate across early career, mid-career, and senior levels. 
I understand several current Departmental proposals are aimed at 
broadening workforce talent recruitment (including STEM occupations) 
and retaining personnel by expanding career opportunities and 
developing talent management processes.
    Question. How will you work to enhance policies and flexibilities 
necessary to allow the Navy to compete with the private sector for this 
talent?
    Answer. I understand the Department of the Navy's ability to 
compete for and retain talented technical performers at all career 
levels is dependent upon streamlining the hiring process and ensuring 
that the technical workforce is engaged in hands-on research, 
development, test, and evaluation (RDT&E) initiatives. Specifically, I 
understand that direct hiring authority at the Navy Warfare Center and 
Laboratory levels would facilitate the Department's ability to compete 
for talent, as would providing technical hiring managers with the 
flexibility to identify and hire appropriate talent within a timeframe 
that is consistent with that of the private sector. In addition, I 
understand that the Department of the Navy's Task Force Innovation 
provides its workforce the opportunity to improve the DON through new 
and innovative ideas, to assist not only with mission execution, but 
also with workforce attraction and retention.
    If confirmed, I will work very closely with the Assistant Secretary 
of the Navy (Research, Development & Acquisition), the Chief of Naval 
Operations, the Commandant of the Marine Corps, and other Departmental 
leaders to ensure that policies, practices, and new initiatives fully 
leverage the flexibility authorized by Congress to enable the 
Department of the Navy to remain competitive with the private sector in 
attracting talent.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this Committee and other appropriate committees of the Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
Committee, or designated members of this Committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Navy for Manpower and Reserve Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided in a timely manner to 
this Committee and its staff and other appropriate Committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                   Questions Submitted by Thom Tillis
                      women in combat integration
    1. Senator Tillis. Mr. Parker, the Marines recently released the 
results of their major research study on combat integration. Before 
reviewing the report, Secretary Mabus indicated that he will not 
support any exceptions to policy to close any ground combat elements to 
women. Are you familiar with the Department of the Marine Corps' Ground 
Combat Element Integrated Task Force report?
    Mr. Parker. I am aware that the Marine Corps submitted a report 
internal to the Department of Defense on the Ground Combat Element 
Integrated Task Force, but I am not aware of any official release of 
that report.

    2. Senator Tillis. Would you have made the same decision as 
Secretary Mabus before conducting a thorough review of the report and 
understanding the rigorous research efforts done to prepare the report?
    Mr. Parker. My understanding is that Secretary Mabus thoroughly 
reviewed the Marine Corps report and submitted a consolidated 
Department of the Navy (DON) recommendation to the Secretary of 
Defense, as directed by Secretary Panetta and Chairman Dempsey in their 
guidance on this policy. The official decision in this matter is 
currently with the Secretary of Defense.

    3. Senator Tillis. The Marine Corps' research demonstrated that 
women suffered higher injury rates among women than men when engaged in 
field combat exercises and training. Does that concern you?
    Mr. Parker. Injured sailors and marines always concern me 
regardless of the circumstances leading to the injury.

    4. Senator Tillis. Mr. Parker, Do you support the decision of 
Secretary Mabus not to allow the Marine Corps recommendation to go 
forward to the Secretary of Defense?
    Mr. Parker. I am aware that Secretary Mabus has submitted his 
recommendation to the Secretary of Defense and included in his 
submission all recommendations and supplemental materials provided by 
the Commandant of the Marine Corps and the Chief of Naval Operations.

    5. Senator Tillis. If yes, wouldn't it be best to allow the 
Secretary of Defense to review all recommendations and research 
materials and then make a decision?
    Mr. Parker. It is my understanding that Secretary Mabus thoroughly 
reviewed all provided materials before making his final recommendation 
to the Secretary of Defense and that Secretary Carter intends to 
carefully review all data and recommendations before making a final 
decision.

    6. Senator Tillis. Mr. Parker, Do you believe women should be 
required to register for the draft?
    Mr. Parker. I understand that the decision to rescind the 1994 
Direct Combat Definition and Assignment Rule may require an analysis of 
the Military Selective Service Act. If confirmed, I will further review 
the Military Selective Service Act and work with Congress, if 
requested, on this issue.
                             guantanamo bay
    7. Senator Tillis. Mr. Parker, In the event that the President 
directed the transfer of detainees from Guantanamo to the United 
States, in your professional legal judgment, would officers of the 
Department of the Navy be at legal risk for a violation of the Anti-
Deficiency Act if they were to execute a transfer of detainees from 
Guantanamo to the United States, contrary to the prohibition against 
use of appropriated funds for that exact purpose?
    Mr. Parker. If confirmed, this is an issue for which I would have 
to seek legal counsel. Generally, I understand that if an agency incurs 
an obligation in excess or in advance of amounts that are legally 
available, the agency has violated the Anti-Deficiency Act.

                            command climates
    8. Senator Sullivan. Mr. Parker, how will you encourage strength 
and resilience and foster supportive command climates?
    Mr. Parker. Developing and maintaining resilient sailors, marines 
and families with effective fitness, readiness and transition programs 
while decreasing and deterring destructive behaviors through awareness, 
training, and accountability has been a priority in the Department of 
the Navy. If confirmed, I will continue the emphasis on core programs 
including physical readiness, substance abuse prevention, family 
readiness, suicide prevention, sexual assault prevention and response, 
sexual harassment prevention, equal opportunity, transition assistance 
and hazing prevention.
                       suicide prevention efforts
    9. Senator Sullivan. Mr. Parker, do you have any specific ideas for 
initiatives to prevent suicide in our military?
    Mr. Parker. Every death by suicide is a tragedy and an unacceptable 
loss to the Department of the Navy. Suicide is a difficult problem and 
despite diligent efforts by the Department of the Navy, DOD and the 
nation, we still do not know how to prevent all suicides. However, 
there are evidence-based practices that are known to reduce risk by 
improving protective factors, reducing risk factors, and reaching out 
and providing help and resources to those at risk. If confirmed, 
continuing robust suicide prevention programs in the Navy and Marine 
Corps will be a priority for me. I will ensure that the Navy and Marine 
Corps suicide prevention programs monitor the latest research on 
suicide prevention and implement procedures that show potential to 
reduce suicides.

    10. Senator Sullivan. If so, what are your specific ideas?
    Mr. Parker. If confirmed, I will ensure that the Navy and Marine 
Corps suicide prevention programs monitor the latest research on 
suicide prevention and implement procedures that show potential to 
reduce suicides.
                                 ______
                                 
    [The nomination reference of Mr. Franklin R. Parker 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    March 26, 2015.
    Ordered, That the following nomination be referred to the 
Committee on Armed Services:
    Franklin R. Parker, of Illinois, to be an Assistant 
Secretary of the Navy, vice Juan M. Garcia III.
                                ------                                

    [The biographical sketch of Mr. Franklin R. Parker, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Franklin R. Parker
Education:
    <bullet>  Yale University
      <bullet> 1992-1996
      <bullet> Bachelor of Arts, Sociology
    <bullet> Stanford Law School
      <bullet> 1996-1999
      <bullet> Juris Doctor
    <bullet> Harvard University, John F. Kennedy School of Government
      <bullet> 2002-2004
      <bullet> Master in Public Policy, Political Advocacy and 
Leadership

Employment Record:
    <bullet>   U.S. Department of Transportation, Maritime 
Administration (Washington, DC)
      <bullet> Chief Counsel
      <bullet> February 2012-Present
    <bullet> U.S. Department of the Navy, Office of the General Counsel 
(Washington, DC)
      <bullet> Special Assistant (Attorney-Advisor) to the General 
Counsel
      <bullet> August 2009-February 2012
    <bullet> Winston & Strawn LLP (Washington, DC)
      <bullet> Associate
      <bullet> January 2005-August 2009
    <bullet> Catholic Charities, Archdiocesan Legal Network 
(Washington, DC)
      <bullet> Pro Bono Legal Clinic Volunteer
      <bullet> January-August 2009
    <bullet> National Conference of State Societies (Washington, DC)
      <bullet> General Counsel (Volunteer)
      <bullet> March 2008-August 2009
    <bullet> Taylor Business Institute (Washington, DC/Chicago, IL)
      <bullet> Member of the Board of Governors (Volunteer)
      <bullet> June 2005-August 2009
    <bullet> Illinois State Society (Washington, DC)
      <bullet> Member of the Board of Directors (Volunteer)
      <bullet> June 2005-August 2009
    <bullet> Obama for America (Washington, DC/Various States)
      <bullet> Volunteer
      <bullet> March 2007-December 2008
    <bullet> Obama for Illinois (Chicago, IL)
      <bullet> Member of the Policy and Research Staff
      <bullet> July-December 2004
    <bullet> AmericaSpeaks (Cambridge, MA/Washington, DC)
      <bullet> Volunteer
      <bullet> October 2003-April 2004
    <bullet> Trust for Public Land (Boston, MA)
      <bullet> Summer Analyst/Summer Associate
      <bullet> June-August 2003
    <bullet> Massachusetts Public Interest Research Group (Boston, MA)
      <bullet> Volunteer
      <bullet> February-May 2003
    <bullet> Taylor Business Institute (Cambridge, MA/Chicago, IL/
Washington, DC)
      <bullet> Ad hoc consulting assistance
      <bullet> August 2002-June 2005
    <bullet> In-Common (Cambridge, MA)
      <bullet> Student Peer Counselor (Volunteer)
      <bullet> Approx. September 2002-January 2003
    <bullet> Brobeck, Phleger & Harrison LLP (Palo Alto, CA)
      <bullet> Associate
      <bullet> August 2000-November 2001
    <bullet> Big Brothers, Big Sisters of San Francisco and the 
Peninsula (East Palo Alto, CA)
      <bullet> Tutor and Mentor (Volunteer)
      <bullet> Approx. October 2000-May 2002
    <bullet> San Francisco 49ers Academy (East Palo Alto, CA)
      <bullet> Tutor and Mentor (Volunteer)
      <bullet> Approx. October 2000-May 2002
    <bullet> East Palo Alto Community Law Project (East Palo Alto, CA)
      <bullet> Pro Bono Legal Clinic Volunteer
      <bullet> Approx. August 2000-November 2001
    <bullet> Pillsbury, Madison & Sutro LLP (San Francisco, CA)
      <bullet> Associate
      <bullet> October 1999-July 2000
    <bullet> San Francisco Lawyer's Committee for Civil Rights (San 
Francisco, CA)
      <bullet> Pro Bono Legal Clinic Volunteer
      <bullet> Approx. October 1999-July 2000
    <bullet> Pillsbury, Madison & Sutro LLP (San Francisco, CA)
      <bullet> Summer Associate
      <bullet> July-August 1998
    <bullet> Mayer, Brown & Platt LLP (Chicago, IL)
      <bullet> Summer Associate
      <bullet> June-July 1998
    <bullet> Pillsbury, Madison & Sutro LLP (San Francisco, CA)
      <bullet> Summer Associate
      <bullet> June-August 1997
    <bullet> Street Law (Palo Alto/San Jose, CA)
      <bullet> Volunteer Instructor
      <bullet> Approx. October 1997-May 1998
    <bullet> United States Senator Paul Simon (Washington, DC)
      <bullet> Judiciary Committee Intern
      <bullet> Approx. June-August 1996

Honors and Awards:
    <bullet> Department of the Navy, Distinguished Public Service Award 
(2012)
    <bullet> Department of the Navy, Meritorious Public Service Award 
(2011)
    <bullet> Winston & Strawn LLP, Pro Bono Commitment to Service Award 
(2009)

                                ------                                

    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Mr. Franklin 
R. Parker in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Franklin R. Parker.

    2. Position to which nominated:
    Assistant Secretary of the Navy for Manpower and Reserve Affairs.

    3. Date of nomination:
    March 26, 2015.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 12, 1974 in Joliet, Illinois.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Married to Anne Hong Nguyen.

    7. Names and ages of children:
    [Nominee responded and the information is contained in the 
committee's executive files.]

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    Providence Catholic Hiqh School (1988-1992): High School Diploma 
(June 4, 1992).
    Yale University (1992-1996): Bachelor of Arts (May 27, 1996).
    Stanford Law School (1996-1999): Juris Doctor (June 13, 1999).
    Harvard University, John F. Kennedy School of Government (2002-
2004); Master in Public Policy (June 10, 2004).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    U.S. Department of Transportation, Maritime Administration 
(Washington, DC)--Chief Counsel (February 2012-Present).
    U.S. Department of the Navy (Washington, DC)--Special Assistant 
(Attorney-Advisor) to the General Counsel (August 2009-February 2012).
    Winston & Strawn LLP (Washington, DC)--Associate (January 2005-
August 2009).

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    U.S. Senator Paul Simon (Washington, DC)--Judiciary Committee 
Intern (Approx. June-August 1996).
    U.S. Congressman Mel Reynolds (Washington, DC)--Legislative Intern 
(Approx. June-August 1994).
    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    <bullet> State Bar of California (admitted 1999).
    <bullet> District of Columbia Bar (admitted 2004).
    <bullet> United States District Court for the District of Columbia 
(admitted December 2006: not active).
    <bullet> United States Supreme Court Bar (admitted 2011).

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    05/19/2010--$200.00 (Newell, Felton via Newell for Congress).
    08/05/2012--$1,000.00 (Obama, Barack via Obama for America).
    09/03/2012--$1,500.00 (Obama, Barack via Obama for America).
    09/19/2012--$1,000.00 (Obama Victory Fund 2012).
    09/29/2012--$1,500.00 (Obama Victory Fund 2012).

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Distinguished Public Service Award, U.S. Department of the Navy 
(2012).
    Meritorious Public Service Award, U.S. Department of the Navy 
(2011).
    Pro Bono Commitment to Service Award, Winston & Strawn LLP (2009).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years of which you have 
copies and are on topics relevant to the position for which you have 
been nominated.
    Copies of representative speeches are provided with this 
questionnaire.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Franklin R. Parker  
    This 6th day of April, 2015

    [The nomination of Mr. Franklin R. Parker was reported to 
the Senate by Chairman McCain on December 7, 2015, with the 
recommendation that the nomination be confirmed The nomination 
was confirmed by the Senate on December 14, 2015.]


 NOMINATIONS OF HONORABLE MARCEL J. LETTRE II TO BE UNDER SECRETARY OF 
  DEFENSE FOR INTELLIGENCE; MR. GABRIEL O. CAMARILLO TO BE ASSISTANT 
 SECRETARY OF THE AIR FORCE FOR MANPOWER AND RESERVE AFFAIRS; MR. JOHN 
 E. SPARKS TO BE A JUDGE ON THE COURT OF APPEALS FOR THE ARMED FORCES; 
AND VICE ADMIRAL KURT W. TIDD, USN TO BE ADMIRAL AND COMMANDER, UNITED 
                        STATES SOUTHERN COMMAND

                              ----------                              


                      WEDNESDAY, DECEMBER 9, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:14 p.m. in Room 
SD-106, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Fischer, Ernst, 
Reed, Gillibrand, Donnelly, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. We welcome all of our 
nominees here this afternoon, as well as members of your 
families. As is our tradition, at the beginning of your 
testimony, we welcome you to introduce any members of your 
family that are joining us today.
    Admiral Tidd, you have been nominated to serve as the next 
Commander of U.S. Southern Command [SOUTHCOM]. If confirmed, 
you will be responsible for overseeing a region facing a 
daunting array of security and governance challenges. At the 
same time, however, you will be forced to confront those 
challenges without the support you require due to persistent 
resource shortfalls that plague our efforts in the region.
    In testimony before this committee in March, General John 
Kelly, USMC, the outgoing SOUTHCOM Commander, framed the impact 
of these longstanding resource shortfalls in stark terms by 
stating: ``This presents more than just risks to our national 
interests; U.S. Southern Command has accepted risk for so long 
in this region that we now face a near-total lack of awareness 
of threats and the readiness to respond, should those threats 
reach crisis 
levels.''
    Of particular concern is the deteriorating situation in 
Central America, where feeble governance, endemic corruption, 
and weak security institutions are allowing transnational 
criminal organizations to operate with impunity. Despite our 
efforts to counter these ruthless groups and the drugs they 
traffic into our country, it is clear we are not winning the 
war.
    Demand for the drugs, heroin, methamphetamine, and cocaine, 
is too high and the profits too great to dissuade these 
criminals from their illicit actions. We, of course, must 
improve and adequately resource our drug interdiction strategy, 
but we must also reduce demand here at home. To be clear, the 
threat posed by these groups extends beyond the drugs they 
smuggle into our communities. The smuggling routes they control 
are also used to traffic weapons, bulk cash, and even humans 
and pose a direct threat to our national security.
    While the challenges within the SOUTHCOM area of 
responsibility [AOR] are significant, there are also 
opportunities. Colombia, once on the cusp of becoming a failed 
state, has emerged from decades of conflict as a remarkable 
example of what sustained U.S. support and engagement can 
achieve. Admiral, I look forward to your thoughts today on how 
you intend to approach both the enormous challenges and 
opportunities within the SOUTHCOM area of responsibility.
    Mr. Lettre, if confirmed to be the Under Secretary of 
Defense for Intelligence, you would serve as the principal 
intelligence advisor to the Secretary of Defense. The position 
of Under Secretary of Defense for Intelligence was created in 
2002 in the wake of the 9/11 attacks to better integrate, 
oversee, and prioritize intelligence resources and capabilities 
throughout the Department. This mission has never been more 
important.
    Currently, the United States faces an increasingly complex 
global threat environment where terrorist organizations are 
metastasizing and now exercise state-like capabilities, and 
nation-state adversaries are increasingly asserting power, even 
through irregular and asymmetric means. Every component of our 
Defense Department must have timely intelligence to understand 
the varied threats we face, to prepare for potential conflict, 
and to respond swiftly, accurately, and decisively when 
necessary. In an age of decreasing budgets, accurate and timely 
intelligence becomes all the more vital. We look forward to 
discussing how Mr. Lettre plans to address his important 
mission.
    Mr. Camarillo, you are nominated to serve as the Assistant 
Secretary of the Air Force for Manpower and Reserve Affairs. 
You currently serve as the Principal Deputy Assistant Secretary 
of the Army for Acquisitions Logistics and Technology. If 
confirmed as Assistant Secretary of the Air Force, you would be 
responsible for the overall supervision of manpower and reserve 
component affairs of the Department of the Air Force.
    The Air Force is challenged with implementation of 
congressionally mandated reductions in headquarters personnel 
to transform what is currently a bloated infrastructure into a 
lean and responsive organization. I hope your recent experience 
in the Army headquarters will also bring a new, fresh 
perspective to the Air Force's remotely piloted aircraft [RPA] 
personnel community. The Air Force must move away from legacy 
organizational structure in this vital area. The Air Force must 
also embrace the use of enlisted and warrant officer RPA pilots 
as it builds a viable career force. I look forward to hearing 
your views on this subject.
    Mr. Sparks, you have faithfully served as Commissioner to 
the United States Court of Appeals for the Armed Forces for 14 
years. You are a graduate of one of the finest educational 
institutions in the world, the United States Naval Academy, and 
you served with distinction as an officer in the United States 
Marine Corps. I cannot imagine a more able and qualified 
individual than you to serve as judge on the highest court in 
our military justice system.
    Our committee has been at the vanguard of recent 
significant changes to the military justice system, 
establishing new protections for victims of sexual assault 
while preserving the rights of those military members accused 
of criminal activity and while empowering the vital and 
necessary ownership of good order and discipline by military 
commanders. As an individual nominated to serve as a judge, 
neither I nor any of my colleagues would expect you to comment 
on a matter that might cause you to be disqualified on any 
future case that may come before the court. However, I look 
forward to hearing your views on the state of military justice 
as they are informed by your wealth of experience.
    We will begin with you, Secretary Lettre, and move down the 
list. As I said, please feel free to introduce your family 
members after Senator Reed predicts what will happen on 
Saturday.
    Senator Reed. I have only one question. Mr. Sparks, did you 
play football at Navy?
    Mr. Sparks. I did not, Senator.
    Senator Reed. Then you have the potential to be nominated 
to the position----
    [Laughter.]
    Senator Reed. With that, Mr. Chairman, I have a statement 
that simply describes the expertise and the increasing level of 
responsibilities and service of these gentlemen, which makes 
them all in my view well qualified for the jobs. I would ask 
unanimous consent my statement be made part of the record and 
then allow you to continue.
    [The prepared statement of Senator Reed follows:]

                Prepared Statement by Senator Jack Reed
    Thank you very much, Mr. Chairman. I join you in welcoming our 
nominees, and I thank you for holding this hearing to fill important 
military and civilian vacancies in the Department of Defense. The 
positions for which these individuals have been nominated involve 
significant and challenging duties. If confirmed, I am confident that 
these nominees are up to the challenge.
    Mr. Lettre, who has been nominated for the position of Under 
Secretary of Defense for Intelligence, is well suited to serve as the 
principal staff advisor for the Secretary of Defense on intelligence 
matters. In addition to serving as the Principal Deputy to the previous 
Under Secretary for Intelligence or the last 2 years and Acting Under 
Secretary of Defense for Intelligence for the last 7 months, Mr. Lettre 
served as a Special Assistant to Secretaries of Defense Chuck Hagel, 
Leon Panetta, and Bob Gates, including serving as Deputy Chief of Staff 
to Secretary Panetta. He also served as Principal Deputy Assistant 
Secretary of Defense for Legislative Affairs. Prior to his executive 
branch service, Mr. Lettre was the Senior Defense and Intelligence 
Advisor and then Senior National Security Advisor to the Senate 
Majority Leader. He also served on the staff of the House Permanent 
Select Committee on Intelligence from 2002 to 2005. As intelligence is 
a key factor in all of our critical operational challenges, I look 
forward to hearing Mr. Lettre's ideas for improvement and reform.
    Mr. Camarillo, nominated for the position of Assistant Secretary of 
the Air Force for Manpower and Reserve Affairs, will face many 
challenges managing Air Force military and civilian personnel. Mr. 
Camarillo comes from the Army where he currently serves as Principal 
Deputy Assistant Secretary of the Army for Acquisition, Logistics & 
Technology. Prior to his Army experience, he practiced law in the 
private sector. We hope that Mr. Camarillo's broad and varied 
experience will bring fresh ideas and solutions to the challenges he 
will face.
    Mr. Sparks has an extensive military and military justice 
background that makes him well-qualified to serve as a judge on the 
United States Court of Appeals for the Armed Forces. He began his 
military career as a Marine infantry officer, so he has experienced 
first-hand the need for good order and discipline in a combat unit. He 
also has extensive experience as a Marine judge advocate, and most 
recently has served as a Commissioner to the Court to which he has been 
nominated as a judge. With this extensive relevant experience, Mr. 
Sparks will bring a very valuable perspective to this court, which is 
sometimes referred to as the ``Supreme Court for the military,'' a 
court consisting of civilian judges that is, in most cases, the final 
arbiter of the fairness and correct application of the UCMJ.
    Vice Admiral Tidd, nominated for promotion to admiral and 
assignment as Commander, United States Southern Command, holds the 
title of the Navy's ``Old Salt,'' the longest serving surface warfare 
trained officer on Active Duty. Vice Admiral Tidd has served in 
positions of distinction throughout his career, positions including the 
Assistant to the Chairman of the Joint Chiefs of Staff, the director 
for Operations for the Joint Staff, and the Commander of U.S. Naval 
Forces Southern Command and U.S. 4th Fleet. Particularly in this era of 
constrained resources, the next commander will need to leverage the 
capabilities of the interagency and of the international community in 
order to faithfully carry out SOUTHCOM's mission. Vice Admiral Tidd's 
knowledge and experience have equipped him well for this undertaking.
    Again, I thank you Mr. Chairman for holding this hearing, and I 
look forward to hearing from our witnesses.

    Chairman McCain. Thank you.
    Before we begin with the witnesses, we have standard 
questions for our civilian nominations, and that is Mr. Lettre 
and Mr. Camarillo and Mr. Sparks. If you will just respond to 
the questions. Admiral Tidd as well. All right. Admiral Tidd, 
you will have one last question.
    For all four of you then, in order to exercise its 
legislative and oversight responsibilities, it is important 
that this committee and other appropriate committees of the 
Congress are able to receive testimony, briefings, and other 
communications of information. Have you adhered to the 
applicable laws and regulations governing conflicts of 
interest? Just say yes or no.
    Mr. Lettre. Yes.
    Mr. Camarillo. Yes.
    Mr. Sparks. Yes, I have.
    Admiral Tidd. Yes.
    Chairman McCain. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Lettre. No.
    Mr. Camarillo. No.
    Mr. Sparks. No.
    Admiral Tidd. No.
    Chairman McCain. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in hearings?
    Mr. Lettre. Yes.
    Mr. Camarillo. Yes.
    Mr. Sparks. Yes.
    Admiral Tidd. Yes.
    Chairman McCain. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Lettre. Yes.
    Mr. Camarillo. Yes.
    Mr. Sparks. Yes.
    Admiral Tidd. Yes.
    Chairman McCain. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Mr. Lettre. Yes.
    Mr. Camarillo. Yes.
    Mr. Sparks. Yes.
    Admiral Tidd. Yes.
    Chairman McCain. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Mr. Lettre. Yes.
    Mr. Camarillo. Yes.
    Mr. Sparks. Yes.
    Admiral Tidd. Yes.
    Chairman McCain. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a dually constituted committee 
or to consult with the committee regarding the basis for any 
good faith delay or denial in providing such documents?
    Mr. Lettre. Yes.
    Mr. Camarillo. Yes.
    Mr. Sparks. Yes.
    Admiral Tidd. Yes.
    Chairman McCain. Admiral Tidd, do you agree, when asked, to 
give your personal views even if those views differ from the 
administration in power?
    Admiral Tidd. Yes, I do.
    Chairman McCain. All right.
    Mr. Secretary, please begin.


    STATEMENT OF HONORABLE MARCEL J. LETTRE II, TO BE UNDER 
             SECRETARY OF DEFENSE FOR INTELLIGENCE

    Mr. Lettre. Chairman McCain, Senator Reed, members of the 
committee, I am honored----
    Chairman McCain. By the way, could I just interrupt? Your 
complete statements will be made part of the record.
    Go ahead, please.
    Mr. Lettre. I am honored to be here with you this afternoon 
as you consider my nomination as Under Secretary of Defense for 
Intelligence.
    I would like to begin by introducing my family and guests 
in attendance today. I am privileged to introduce my wife 
Simmons; my daughters, McKinley, age 13, and Amelia, age 11; my 
brother, Peter Lettre, who has come down from Brooklyn, New 
York; my mother-in-law, Millie Ravenel, who has come up from 
Raleigh, North Carolina; my mother from Fredericksburg, 
Virginia, Mary Lettre, a proud Army wife and former teacher; 
and my father, Marcel Lettre, Sr., a retired Army colonel, 
Airborne Ranger and Vietnam combat veteran, who I might add 
successfully avoided a Pentagon tour during his 27 years of 
service.
    [Laughter.]
    Chairman McCain. Miraculous. Congratulations to all the 
family members, and we are very pleased that you would take the 
time to be here. I know this is a proud time for you.
    Mr. Lettre. Thank you, Mr. Chairman.
    I am also pleased that a number of other friends and 
colleagues are here, including two college friends and former 
colleagues, Jason Forester and Andrew Williams. Thanks, guys.
    Chairman McCain. Thank you.
    Mr. Lettre. Finally, I would like to thank the defense 
leaders I have had the privilege to work with over the last 7 
years, including Secretary Carter, Deputy Secretary Bob Work, 
former Secretaries Bob Gates, Leon Panetta, and Chuck Hagel, 
and former Under Secretaries Mike Vickers, Michele Flournoy, 
and Jim Miller.
    I am honored that President Obama has nominated me as Under 
Secretary of Defense for Intelligence.
    If confirmed, I will be proud to serve the men and women of 
the U.S. military and the defense intelligence enterprise. Our 
people, their dedication to mission, their skills, their 
integrity, and innovative spirit are our true strategic 
advantage.
    Mr. Chairman, I believe we are facing one of the most 
complex geostrategic landscapes we have seen in several 
decades, and the need for integrated, informed, cutting-edge 
intelligence has never been greater. If confirmed, I intend to 
focus on three priorities.
    First, fostering jointness and integration across defense 
intelligence, a critical source of our strategic advantage. In 
this regard, I look forward to a continued partnership with 
Director of National Intelligence Jim Clapper and the leaders 
of the 17 organizations that make up the Intelligence 
Community. I also applaud this committee's efforts to review 
the record of defense and intelligence reforms spurred by the 
1986 Goldwater-Nichols Act and other subsequent reform 
initiatives. I welcome a dialogue on further initiatives that 
we can undertake to enhance the efficiency, effectiveness, and 
agility of defense intelligence.
    Second, providing intelligence support to current 
operations. We must bring the powerful capabilities of defense 
intelligence to bear on a range of pressing current operational 
challenges, most notably, countering ISIL [the Islamic State of 
Iraq and the Levant], countering Russian aggression, 
operationalizing the Asia-Pacific rebalance, providing 
intelligence support to cyber defense, countering proliferation 
of weapons of mass destruction, and ensuring stability in 
Afghanistan.
    Third, investing in innovative future capabilities. As the 
Department pursues technologies and operational concepts that 
will ensure a strong advantage over adversaries for decades to 
come, what Bob Work has called the ``third offset,'' five 
investment areas are particularly important for ensuring an 
enduring and innovative defense intelligence advantage: 
capabilities that ensure global coverage; operating in anti-
access, area-denial environments; counterterrorism and 
counterproliferation; cyber defense; and countering insider 
threat. Even as resources remain constrained, we must sharpen 
the impressive capabilities that keep America's superior 
technological edge.
    This committee's oversight and guidance steer these 
efforts. I look forward to contributing to a close partnership 
shaped by strong and regular dialogue between defense 
intelligence leaders and this committee in order to further the 
committee's oversight responsibilities.
    We must implement our priorities in defense intelligence 
while being ever vigilant about the need for vigorous 
protection of the principles, rights, and freedoms from which 
America gains its strength.
    Our intelligence analysts must always hear from our leaders 
that we expect them to speak truth to power, to call it as they 
see it.
    Above all, those of us privileged to serve in these 
positions of responsibility recognize that we owe our citizens 
and our families our full focus and our full energy on keeping 
the Nation safe and secure.
    Thanks, Mr. Chairman.
    [The prepared statement of Mr. Lettre follows:]

             Statement by the Honorable Marcel J. Lettre II
    Chairman McCain, Senator Reed, Members of the Committee, I am 
honored to be before you here this afternoon as you consider my 
nomination as Under Secretary of Defense for Intelligence.
    To begin, I'd like to introduce my family and guests in attendance 
today and recognize several individuals who shaped my life toward a 
role in public service.
    I'm privileged to introduce:

    <bullet>  My wife Simmons;
    <bullet>  My daughters McKinley, age 13, and Amelia, age 11;
    <bullet>  My brother, Peter Lettre;
    <bullet>  My mother-in-law, Millie Ravenel, who drove up from 
Raleigh, North Carolina;
    <bullet>  My mother, Mary Lettre, a proud Army wife and teacher;
    <bullet>  And my father, Marcel Lettre, Sr., a retired Army 
Colonel, Airborne Ranger and Vietnam combat veteran--who, I might add, 
successfully avoided a Pentagon tour during his 27 years of service.

    I am also pleased that a number of other friends and colleagues are 
in attendance today--thank you for being here.
    And, finally, I would like to thank the defense leaders I have had 
the privilege to work for over the last seven years--including 
Secretary Ash Carter, Deputy Secretary Bob Work, former Secretaries Bob 
Gates, Leon Panetta, and Chuck Hagel, and former Under Secretaries Mike 
Vickers, Michele Flournoy, and Jim Miller.
    I am honored that President Obama has nominated me as Under 
Secretary of Defense for Intelligence.
    If confirmed, I will be proud to serve the men and women of the 
U.S. military and the defense intelligence enterprise. Our people--
their dedication to mission, their skills, their agility and innovative 
spirit--are our true strategic advantage.
    Mr. Chairman, I believe we are facing one of the most complex 
geostrategic landscapes we have seen in several decades, and the need 
for integrated, informed, cutting edge intelligence has never been 
greater. If confirmed, I intend to focus on three priorities.
    First, fostering jointness and integration across defense 
intelligence--a critical source of our strategic advantage. In this 
regard, I look forward to a continued partnership with Director of 
National Intelligence Jim Clapper and the leaders of the 17 
organizations that make up the Intelligence Community. I also applaud 
this committee's efforts to review the record of defense and 
intelligence reform spurred by the 1986 Goldwater-Nichols Act and other 
subsequent reform initiatives. I welcome a dialogue on further 
initiatives that we can undertake to enhance the efficiency, 
effectiveness, and agility of defense intelligence.
    Second, providing intelligence support to current operations. We 
must bring the powerful capabilities of defense intelligence to bear on 
a range of pressing current operational challenges--most notably, 
countering ISIL, countering Russian aggression, operationalizing the 
Asia-Pacific rebalance, providing intelligence support to cyberdefense, 
countering proliferation of weapons of mass destruction, and ensuring 
stability in Afghanistan.
    Third, investing in innovative future capabilities. As the 
Department pursues technologies and operational concepts that will 
ensure a strong advantage over adversaries for decades to come--what 
Bob Work has called the ``Third Offset''--five investment areas are 
particularly important for ensuring an enduring and innovative defense 
intelligence advantage--capabilities that ensure: global coverage; 
operating in anti-access, area-denial environments; counterterrorism 
and counterproliferation; cyberdefense; and countering insider threat. 
Even as resources remain constrained, we must sharpen the impressive 
capabilities that keep America's superior technological edge and 
protect its advantages over its adversaries.
    This committee's oversight and guidance steers these efforts. I 
look forward to contributing to a close partnership shaped by strong 
and regular dialogue between defense intelligence leaders and this 
committee in order to further this committee's oversight 
responsibilities.
    We must implement our priorities in defense intelligence while 
being ever vigilant about the need for vigorous protection of the 
principles, rights and freedoms from which America gains its strength.
    Our intelligence analysts must also always hear from our leaders 
that we expect them to speak truth to power, to call it as they see it.
    And, above all, those of us privileged to serve in these positions 
of responsibility recognize that we owe our citizens and our families 
our full focus and our full energy on keeping the Nation safe and 
secure.
    Thank you and I look forward to your questions.

    Chairman McCain. Thank you.
    Mr. Camarillo?

    STATEMENT OF MR. GABRIEL O. CAMARILLO, TO BE ASSISTANT 
  SECRETARY OF THE AIR FORCE FOR MANPOWER AND RESERVE AFFAIRS

    Mr. Camarillo. Mr. Chairman, Senator Reed, members of the 
committee, I am grateful for the opportunity to appear before 
the committee today, and I also appreciate the confidence that 
President Obama, Secretary Carter, and Secretary James have 
placed in me by supporting my nomination as Assistant Secretary 
of the Air Force Manpower and Reserve Affairs.
    I begin by thanking my family for their love and support. I 
am joined today by my wife Nicole and my two children, which 
include my 12-year-old son Ethan and my 7-year-old daughter 
Natalie. They are equally grateful to this committee for 
providing them with the basis for an excused absence from 
school.
    Chairman McCain. Is it the one with the bow in her hair?
    Mr. Camarillo. Yes, Senator.
    Chairman McCain. You certainly look beautiful today. Thank 
you.
    Mr. Camarillo. I would be remiss if I did not thank my 
parents, my siblings, and countless colleagues and mentors who 
have enabled me to succeed. Working with the dedicated airmen, 
soldiers, sailors, marines, and Department civilians that I 
have encountered remains the highest honor of my career. Their 
talent and dedication sets an example for our Nation, and their 
enduring contributions remain our greatest asset.
    Over the past 5 years, I have been extremely privileged to 
serve with Army soldiers and civilians in support of the Army's 
acquisition efforts. This experience has underscored the vital 
importance of our people, the talent they contribute, and the 
expertise that they provide. As Secretary James has stated, the 
Air Force's greatest strength is its people. If confirmed, I 
will dedicate my efforts to ensuring that Active Duty, National 
Guard, Reserve, and civilian airmen receive the support that 
they need as they work selflessly to defend our country.
    Thank you again for considering my nomination, and I look 
forward to your questions.
    [The prepared statement of Mr. Camarillo follows:]

              Prepared Statement by Mr. Gabriel Camarillo
    Mr. Chairman, Senator Reed, Members of the Committee,
    I am grateful for the opportunity to appear before the Committee 
today. I also appreciate the confidence that President Obama, Secretary 
Carter and Secretary James have placed in me by supporting my 
nomination as Assistant Secretary of the Air Force.
    I begin by thanking my family for their love and support. I am 
joined by my wife, Nicole, and my two children, which include my 12 
year-old son Ethan and my 7-year old daughter Natalie. They are equally 
grateful to this Committee for providing them with the basis for an 
excused absence from school.
    I would be remiss if I did not thank my parents, siblings and 
countless colleagues and mentors who have enabled me to succeed. 
Working with the dedicated airmen, soldiers, sailors, marines and 
department civilians I have encountered remains the highest honor of my 
career. Their talent and dedication sets an example for our Nation, and 
their enduring contributions remain our greatest asset.
    Over the past five years, I have been extremely privileged to serve 
with Army soldiers, civilians and contractors in support of the Army's 
acquisition efforts. This experience has underscored the vital 
importance of our people, the talent they contribute, and the expertise 
they develop. As Secretary James has stated, the Air Force's greatest 
strength is its people. If confirmed, I will dedicate my efforts to 
ensuring that our Active Duty, National Guard, Reserve and civilian 
airmen receive the support they need as they work selflessly to defend 
our country.
    Thank you again for considering my nomination, and I look forward 
to your questions.

    Chairman McCain. Thank you.
    Mr. Sparks?

  STATEMENT OF JOHN E. SPARKS, TO BE A JUDGE ON THE COURT OF 
                  APPEALS FOR THE ARMED FORCES

    Mr. Sparks. Chairman McCain and Senator Reed, members of 
the committee, thank you all for having me here today. I would 
like to thank as well the President for his expression of 
confidence in me today.
    I am joined here by my wife of 40 years Wendy, my daughter 
Adrianne, my son Casey, and my sister, Mrs. Constance Williams 
from Philadelphia. And a number of colleagues in the back I
believe.
    Chairman McCain. Welcome.
    Mr. Sparks. Senator, I have been involved with military 
justice in one aspect or another for over 30 years now. This is 
an area of the law that I often refer to as my second great 
love. My first great love, of course, is seated behind me. I 
have been passionate about public service, and of the 44 years 
of public service I have behind me, I would not trade a single 
day of it for anything.
    For the 14 years prior to my recent retirement from Federal 
civilian service, I had the privilege of working at the U.S. 
Court of Appeals for the Armed Forces. It was truly a pleasant 
and professionally rewarding experience and one that I will 
forever treasure.
    Although many members of the public may not be familiar 
with this particular court, in my view it is the centerpiece of 
the military justice system. Established in 1950, it has more 
than fulfilled Congress? intent to establish a specialized, 
independent civilian appellate court for the review of courts 
martial. If confirmed for a seat on the court, I pledge to 
uphold its reputation for integrity, intellectual honesty, and 
independence. I hope to join a long line of respected jurists 
who have, indeed, made this an honorable court.
    Thank you, and I am prepared, as well as the others, for 
questions from the committee.
    [The prepared statement of Mr. Sparks follows:]

                Prepared Statement by Mr. John E. Sparks
    Good afternoon Senator McCain and members of the committee. I thank 
you for having me here today and I would like to take this opportunity, 
as well, to thank the President for his expression of confidence in me. 
I am joined by my wife Wendy and several other members of my family.
    I have been involved with military justice in one aspect or another 
for over 30 years now. So, this is an area of the law that has always 
been my great passion. I am passionate about public service as well, 
and of the 44 years of public service I have behind me, I would not 
trade a day of it for anything.
    For the 14 years prior to my recent retirement from federal 
civilian service, I had the privilege of working at the U.S Court of 
Appeals for the Armed forces. It was truly a pleasant and 
professionally rewarding experience, and one that I will forever 
cherish.
    Although many members of the public may not be familiar with this 
particular court, in my view, it is the centerpiece of the military 
justice system. Established in 1950, it has more than fulfilled 
Congress's intent to establish a specialized, independent civilian 
appellate court for the review of courts-martial. If confirmed for a 
seat on the court, I pledge to uphold its reputation for integrity and 
intellectual honesty, and I hope to join a long list of respected 
jurists who have indeed made it an honorable court.
    Thank you, and I am prepared for any questions the committee may 
have for me.

    Chairman McCain. Thank you.
    Admiral?

       STATEMENT OF VICE ADMIRAL KURT W. TIDD, USN, TO BE
     ADMIRAL AND COMMANDER, UNITED STATES SOUTHERN COMMAND

    Admiral Tidd. Chairman McCain, Ranking Member Reed, 
Senators, I am honored to meet with you today as the 
President's nominee to command U.S. Southern Command. I am 
excited by the opportunities and the challenges accompanying 
this position, and I am humbled by the enormous shoes that I 
will fill if you confirm this nomination.
    I know General John Kelly is held in high regard by this 
body as an absolutely candid combatant commander and as a 
leader of unquestioned integrity, enjoying your full trust and 
confidence. If confirmed, I am committed to being as candid and 
forthright as General Kelly and will work closely with this 
committee to build the same bonds of trust and confidence.
    Before introducing two family members with me today, I 
would like to mention several who were unable to be here. My 
dad served 34 years in the Navy. He is a combat veteran of 
World War II, Korea, and Vietnam. He is my mentor and role 
model, the single most influential person I look to for advice 
on how to lead and guidance on how to serve.
    That said, like most service families, my mother was the 
real unsung hero, raising two sons and moving households over a 
score of times while Dad was at sea.
    Dad's health prevents him from being here today, but he is 
watching on C-SPAN.
    We lost Mom this time last year, but her impact lives on in 
our extended family and in all the families whose lives she 
touched.
    My parents inspired my brother, Mark, and me to serve in 
the Navy. Mark took a slightly different path. Spending over 3 
decades as a Navy chaplain, including multiple combat tours, he 
recently retired as the Navy's 25th Chief of Chaplains. As I 
like to tell people, my big brother Mark is the good Admiral 
Tidd.
    My wife and partner of 24 years, Eileen, is here today, 
along with our youngest daughter Jacqueline, a high school 
senior. Our oldest daughter Katherine is a college freshman and 
hopefully is studying for exams right now.
    Like all of my family, Eileen has spent a lifetime in 
service of our Nation. She is a retired military physician with 
7 years in the Army where she earned a 1st Armored Division 
combat patch and a bronze star during Desert Shield and Desert 
Storm, followed by 13 years as a Navy physician. As a retiree, 
she continues to serve as a volunteer physician at Walter Reed 
National Military Medical Center.
    Eileen is the guiding force in our family. She holds 
everything together at home and allows me to pursue this Navy 
adventure. Her continued dedication and personal sacrifice are 
the real reason that I sit here today.
    U.S. Southern Command contrasts real security challenges 
with plentiful opportunities. Within our shared Americas, we 
have partners who welcome our presence, who are eager to work 
together to confront the challenges posed by unequal 
prosperity, imperfect governance, and pervasive insecurity. 
Unlike other geographic regions, in the Americas we have no 
nation able or interested in posing a credible threat to our 
way of life. But we do have transnational criminal 
organizations that prey upon this region and we have external 
nations and non-state actors who are competing for influence 
and threatening our shared interests.
    If confirmed, I will work with this committee to ensure 
that SOUTHCOM's requirements continue to be relentlessly 
articulated and that innovative means are identified to deal 
with them.
    In closing, I would like to thank the members of this 
committee for the support you provide the men and women who 
protect our Nation. In an era characterized by self-promotion 
and instant fame, they remain motivated by notions of duty, 
honor, courage, and selflessness. They calmly confront fear and 
terror because they value the love and the trust of their 
teammates. Thank you for supporting them and for recognizing 
the irreplaceable role that they play safeguarding our uniquely 
blessed Nation.
    If confirmed, I look forward to serving alongside these men 
and women in U.S. Southern Command, to partnering with our 
interagency teammates safeguarding the defense of the United 
States. I look forward to continuing the dedicated work of 
previous SOUTHCOM commanders who built a solid team with 
partner nations who shoulder the responsibility of safeguarding 
our shared Americas. I am honored and humbled to have been 
nominated for this position, and I look forward to your 
questions.
    Chairman McCain. Thank you, Admiral.
    Mr. Sparks, I will have no questions for you except to say 
thank you for your many years of outstanding service, and we 
are glad you are going to be able to continue it as a member of 
the Court of Appeals. Thank you.
    Mr. Sparks. You are welcome, sir.
    Chairman McCain. Mr. Lettre, let me give you a quote from 
Secretary Gates, the one favorite of many of us on both sides, 
Republican and Democrat. ``In the 40 years since Vietnam, we 
have a perfect record in predicting where we will use military 
force next. We have never once gotten it right.'' Does that 
have something to do with intelligence?
    Mr. Lettre. Mr. Chairman, it absolutely has everything to 
do with intelligence. I am familiar with the quote. I know that 
even in the recent hearings that you chaired here at the 
committee, former Secretary Gates mentioned that as a way of 
pointing out that we need to be agile and innovative. That is 
certainly true in intelligence where we can expect to be 
surprised all the time. In that regard, we also need to 
recognize that that surprise can come from places where we do 
not expect it. It can also come from adversaries who are trying 
to move faster than we are.
    As we look at the responsibilities that we all have to 
invest in defense intelligence capabilities, if confirmed, my 
focus would really be on building the kind of capabilities for 
the future that allow for global coverage, that allow us to be 
able to adapt when surprise has occurred and react rapidly and 
outpace our adversaries with the strategic advantages that we 
bring to bear with the broader military capability.
    Chairman McCain. Mr. Secretary, I just want to point out to 
you--and I am sure you are aware--that there have been 
significant allegations about distortion of intelligence 
information as it comes up through Central Command [CENTCOM] to 
the President of the United States. This committee has been 
looking at it and we will continue looking at it. There have 
been whistleblowers and others. We have reached no conclusion 
on this situation, but we will be continuing to look at it. I 
suggest that you also make yourself aware of these allegations 
and can help us resolve them one way or the other. It is very 
disturbing--these kinds of allegations, as I am sure you 
understand.
    Mr. Lettre. Senator, I take those allegations and I view 
them very seriously. As I said in my opening statement, 
analysts need to be able to know they can speak truth to power 
and to call it like they see it. As you know, one of the most 
rigorous investigative capacities that we have is the 
Department's IG [Inspector General], and it is currently 
investigating that. We are, as you are, awaiting the IG's 
results and look forward to taking swift actions as appropriate 
once the IG is done with its work.
    Chairman McCain. Thank you.
    Mr. Camarillo, you are stepping into a situation where we 
have just fundamentally in the 2016 defense authorization bill 
changed the retirement system. We have mandated a 7 and a half 
percent reduction in staffs over 4 years to 30 percent. One of 
the major areas that we are working on is the unfortunate 
tooth-to-tail trend that has continued to cause us to have 
bloated staffs, too many senior officers. It is going to be one 
of the major areas of our hearings and investigation in the 
coming year. It is a consensus on this committee, as well as 
from the witnesses we have had in our series of hearings of 
outside individuals with many years of experience, both in and 
out of the Pentagon, that we need to do something about it. I 
hope you understand and appreciate that.
    Mr. Camarillo. Senator, I do. Certainly the Department, as 
I understand it, is working right now to come into compliance 
with those requirements established under the Defense 
Authorization Act. Secretary Carter I think announced today he 
looks forward to working with the committee on a broad review 
of the headquarters and Goldwater-Nichols issues that you have 
identified. Certainly if I am confirmed, I look forward to 
doing the same as part of that effort in collaboration with 
this committee.
    Chairman McCain. Thank you.
    Finally, Admiral Tidd, you mentioned General Kelly in your 
testimony, and we agree. He did an outstanding job and did 
speak truth to power.
    But more disturbing is what he noted in his testimony that 
frankly because of sequestration, which has nothing to do with 
you or him--it was an action taken by Congress--that in the 
maritime domain, he said he has been forced to sit and watch 
nearly 75 percent of illicit trafficking pass through his AOR 
into the United States. Have you had a chance to authenticate 
or look at that? It is a pretty alarming fact that he has cited 
in is testimony before this committee. Do you have a view on 
that?
    Admiral Tidd. Yes, Mr. Chairman, I do. I have seen the 
figures that he cited, and I think, if anything, they may 
understate the gravity of the challenge. That said, I think 
what he has done is taken advantage of opportunities to work 
with partners to try to mitigate some of those shortfalls.
    But with regard specifically to sequestration, I would have 
to agree with the words that he used, which is that it would be 
catastrophic, that the effects of sequestration specifically 
with regard to the U.S. Southern Command would be catastrophic. 
That is simply because of the difficulty that it poses in terms 
of being able to plan effectively, the inability to take 
advantage of long-term planning to have the right forces in 
place, and recognition that as the theater that probably is the 
last in terms of priority of resources because of very valid 
considerations in other parts of the world, if there are fewer 
forces available to be able to meet the challenges, that will 
affect SOUTHCOM most. I think it is a very serious 
consideration.
    Chairman McCain. Thank you.
    Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman.
    I will follow the chairman's lead by saying, Mr. Sparks, 
thank you very much for your service in so many different 
capacities and I look forward to your continued service.
    Let me ask Secretary Lettre. One of the areas which is 
increasingly disturbing I think not only to myself but to the 
committee is our inability to counter the information campaign 
of ISIL, which has many effects both in the region and 
globally. This is a complicated interagency process. The State 
Department probably has as big a lead as you might.
    Can you talk about in your prospective role what you would 
be doing to help this effort not only to get information from 
their social contacts, et cetera, but also to disrupt their 
ability to communicate and attract adherents?
    Mr. Lettre. Senator, there really are two areas where I 
would be most interested in seeing, if confirmed, how I could 
contribute by catalyzing effort in the defense intelligence 
enterprise.
    One is in support of the interagency efforts. Clearly, 
there are parts of our government who have the lead 
responsibility for either in diplomatic channels or here in the 
homeland with respect to the responsibilities of DHS [the 
Department of Homeland Security] and FBI [the Federal Bureau of 
Investigation] to look at effective ways to counter the violent 
extremist message, and the extent to which we can contribute to 
that appropriately with defense intelligence capability, I 
would like to do so.
    The second area gets back to the point made earlier about 
innovation. This is an area where our adversaries are able to 
leverage--I think it was mentioned in the hearing earlier this 
morning that sometimes you see as many as 90,000 Twitter 
comments or individuals on Twitter echoing the comments of 
violent extremists and the savages associated with ISIL. This 
is something that they are capable of doing on a very rapid and 
immediate timescale, and as a government, we have not found the 
right formula for being able to respond to that.
    This really does require focused innovation within 
government. Within the defense intelligence enterprise, it 
requires us to look at how to better leverage our understanding 
of open source information and how to better understand social 
media and its role.
    The final piece is this is a very good example of where the 
best and brightest minds of the U.S. industry can be brought to 
bear to help us with solutions here, whether it is in Silicon 
Valley or other parts of the region where creativity and 
innovation is occurring. Outreach to those communities is 
essential on this score.
    Senator Reed. Thank you, Mr. Secretary.
    Secretary Camarillo, the chairman made this comment in his 
opening remarks, and I second it, which is that there is an 
acute shortage of Air Force personnel that are flying UAVs 
[unmanned aerial vehicles]. In situations in the past, 
particularly in Vietnam with the Army, when we needed a huge 
increase in helicopter pilots, we went to warrant officers. Are 
you going to embrace that notion, I hope?
    Mr. Camarillo. Senator, there is no question that 15 years 
of sustained high demand for ISR [intelligence, surveillance, 
and reconnaissance] capabilities has created some significant 
challenges for the Air Force. I know for a fact that Secretary 
James and General Welsh and others are looking right now at a 
variety of courses of action to address this ongoing demand, 
one of which includes increasing the throughput of training 
programs for pilots. I think some of the statistics were 190 
pilots a year to about 300 pilots a year. These and other 
efforts--I certainly know that they are looking at all of 
those. If confirmed, I certainly would want to examine those 
options and work with Secretary James and General Welsh to get 
a result that addresses the shortfall.
    Senator Reed. I think the chairman and I share the same 
view, which is this is a highly specialized occupation, which 
you do not really have to put someone through the process of 
flying and then commanding and then doing a staff job, et 
cetera. Again, my best analogy would be the numerous and 
incredibly effective warrant officers that flew in Vietnam, in 
fact, were the backbone of the Army aviation elements in 
Vietnam.
    Admiral Tidd--and this alluded also to I think comments you 
responded to with the chairman. You have an AOR that is always 
under-resourced, but also one that requires, more than any 
other perhaps or as much, interagency cooperation. You need DEA 
[the Drug Enforcement Administration] because a lot of that 
illicit traffic is drugs. It is not anything else. You need FBI 
to help you. You need CDC [the Centers for Disease Control and 
Prevention], for example, to be able to partner with you in 
terms of health in the region, which is an important part. It 
goes back to the point also the chairman made about 
sequestration, how it hampers your ability to respond.
    But more broadly, just a sense of how you want to work on 
this interagency process, bring all these entities together in 
a more effective way.
    Admiral Tidd. Senator Reed, the interagency is absolutely 
critical to the activities and the operations of U.S. Southern 
Command. I think as you know, they are very well represented 
down there within the headquarters with senior capable members 
who are able to draw directly upon their organizations. The 
role of the military commander, frankly, is to act as the 
enabling platform to be able to pull together and help support 
and coordinate the activities. In most cases, as you have 
recognized, it will not necessarily be a military end game to 
deal with the kinds of security threats that we will be working 
with down there. Oftentimes it may be a partner nation, a law 
enforcement agency, a partner nation military or a U.S. law 
enforcement activity, and probably in the last instance does it 
end up being a U.S. military. But the role of the combatant 
commander to be able to pull together, synchronize all of those 
activities and focus some of the efforts, particularly taking 
advantage of the experience that we have in understanding 
networks and being able to orchestrate an effective strategy to 
detect, illuminate, and ultimately to take apart networks.
    Senator Reed. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman McCain. Senator Ernst?
    Senator Ernst: Thank you, Mr. Chair.
    Thank you, gentlemen, for appearing in front of us today, 
and I want to thank your beautiful families for being here as 
well. I know they are very proud of you.
    Secretary Lettre, I would like to start with you. I am 
concerned about military intelligence support to our 
warfighters and our current military intelligence force 
structure.
    As we are facing complex and growing threats at home and 
abroad, the work of our intelligence professionals in answering 
tactical, operational, and strategic level intelligence 
requirements in support of the warfighter and national 
decision-makers remains vital to defending our country.
    I was informed that you did have a very good discussion 
with my staff yesterday. Thank you for taking time to do that. 
I do look forward to working with you on ways that we can 
enhance our Nation's military intelligence capabilities.
    Now, in your statement, you list as one of your top 
priorities to ensure that current operations receive necessary 
intelligence support. I do believe there is a need to enhance 
our efforts against ISIL and other terrorist groups not only in 
the CENTCOM areas of responsibility but also in Africa where 
they are making headway in expanding the so-called caliphate.
    In Europe, both General Philip Breedlove, USAF and General 
Benjamin Hodges, USA have told me they need more military 
intelligence capacity to counter Russian and transnational 
terrorist groups. Considering the past intelligence failures 
that we have had on anticipating Russian actions since 2008, we 
really cannot afford to be surprised by our adversaries again.
    Will you commit to me that if you are confirmed, you will 
examine DOD military intelligence capabilities, their force 
structure and command relationships as INSCOM [U.S. Army 
Intelligence and Security Command] plays a role in that as well 
and seriously consider those reforms which could enhance our 
intelligence support to the warfighter?
    Mr. Lettre. I will, Senator. As the committee considers its 
review of Goldwater-Nichols and defense reform, I think there 
are a number of areas within defense intelligence that would 
make sense to look at. One of the questions is the roles of 
Service intelligence and how it can be best postured and 
optimized across each of the Services, the Army, the Navy, the 
Air Force, and the Marine Corps, in support of the warfighter, 
and I think that is a reasonable area to be looking at over 
time as the committee considers these reform efforts.
    Senator Ernst: Thank you, Secretary.
    Are there any specific examples that you would give or any 
specific intelligence capabilities that you believe we should 
be doing better, investments that should be made which could 
enhance those capabilities? Any specific examples?
    Mr. Lettre. A couple that immediately come to mind, 
Senator, reference the previous question about open source 
information in social media. We are in a world where vast 
amounts of information are available in an unprecedented way, 
and being able to ensure that our warfighters and our analysts 
who are supporting the warfighters are able to leverage that to 
maximum extent is one.
    A second area is around the theme of integrated effort, 
jointness essentially for defense intelligence. We have a 
tremendous opportunity to use different intelligence 
disciplines to tip and cue each other. A human intelligence 
report tipping from the Army perhaps, tipping a signals 
intelligence capability that then provides us imagery in a very 
rapid way to get at an operational mission in support of an 
operational mission. There is much more opportunity to leverage 
that than we have been able to in past. With technology and big 
data analytics heading where it is, if we can marshal those 
capabilities and harness them, that can bring powerful 
strategic effect to the United States military.
    Senator Ernst: Fantastic. I look forward to working with 
you on that.
    Mr. Chair, that is all I have. Thank you.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman.
    Before beginning my questions, I think one of the most 
important things that should be brought before this committee 
is that Mr. Lettre and his dad and brother through-hiked the 
Appalachian Trail from Maine to Georgia, which to me indicates 
a high level of perseverance, stamina, and I do not know about 
the intelligence parts.
    [Laughter.]
    Chairman McCain. And insanity.
    [Laughter.]
    Senator King. Yes, well, okay. It is quite an achievement, 
and my hat is off to you. Starting in Maine, of course, was a 
good decision.
    You mentioned 17 agencies, and we are talking about a total 
intelligence budget of $70 billion a year. I just plead with 
you to be aware and try to find areas of overlap and 
duplication where we can save the taxpayers some money and yet 
still be effective in terms of what you are doing is critically 
important. We heard this morning from Secretary Carter and 
General Selva about the importance of intelligence in this war 
with ISIL. But to the extent that you see areas of overlap, I 
hope that is something you will bring to us, bring to the 
Intelligence Committee, and bring to Jim Clapper so that we can 
try to do this as effectively as we can.
    Mr. Lettre. It will remain a focus for me, if confirmed, 
Senator, based on directions so far from this committee and 
from the Secretary of Defense, to look for areas to reduce 
headquarters, for example, across the Department of Defense at 
the 25 to 30 percent level. The same thing is being looked at 
across defense intelligence in order to lean out headquarters 
where we can.
    But I would say that one of the main purposes of my office, 
in parallel with Director Clapper and his team, is to look for 
both efficiencies and effectiveness so that those 17 
organizations increasingly are working in a joint way so that 
the whole is greater than the sum of its parts operationally 
but also from a good stewardship of the taxpayer dollar 
perspective as well.
    Senator King. Thank you.
    One of the great challenges and very recent challenge in 
terms of intelligence is the going dark phenomenon, worldwide 
encryption, which means that unless some solution is found 
which is very difficult, as you know, signals intelligence is 
not going to be as important as it once was. Do you see or do 
you believe it should be a priority to rebalance toward human 
intelligence in order to compensate for this loss of capacity?
    Mr. Lettre. That is one piece of the response that is 
necessary, Senator. We need to pursue excellence in all of our 
intelligence disciplines, human intelligence, signals 
intelligence, geospatial intelligence, and so forth.
    But within the confines of the going dark problem, I think 
it is important to underscore it is, unfortunately, the case 
that adversaries are learning from the amazing operations that 
our military and our intelligence and law enforcement community 
are able to conduct and learning how to avoid the watchful eye. 
That is a troublesome dynamic. It certainly puts at risk our 
ability to successfully interdict terrorist plots.
    Senator King. I just want to be sure we are reacting to 
this changed intelligence battlefield in an agile manner and in 
a quick manner, not saying, well, we have always done it this 
way for the last 15 or 20 years. I think the landscape is 
changing significantly just in the past 6 months, and we have 
to really react to that.
    One final, not really a question, but the issue of analytic 
integrity. The chairman mentioned this. This is something that 
is of the gravest concern because if our leaders, if the 
President is not getting good intelligence, good, straight 
information, it can have disastrous results and I mean 
disastrous results. Not only do we look forward to the 
Inspector General's report, but I think as a leader of an 
intelligence agency, you have to continually--continually--work 
on the issue of analytic integrity. There is always a human 
tendency to tell the boss what they want to hear, and I hope 
that that will be a priority for you.
    Mr. Lettre. It will remain a priority, Senator. This is 
also an area where the Secretary of Defense and other defense 
leaders have made a point of repeating how important it is that 
their expectations are met, that analysts know they can and 
should speak truth to power.
    Senator King. There are expectations for good data. That is 
the expectation that we want to meet.
    Mr. Camarillo, I have used up my time. I would like for the 
record if you could give us your thoughts. We did a piece on 
retirement in the Defense Authorization Act, as you know. What 
other areas of attention should we be making in terms of 
personnel focusing on efficiency but also retention and 
recruitment? I would like very much to have your thoughts on 
that.
    Mr. Sparks, I think the issue that is of grave concern to 
all of us on sexual assault is the issue of how do we deal with 
retaliation. That seems to be one of the major stumbling blocks 
to a successful culture change in this area. Again, for the 
record, if you could----
    Chairman McCain. If I could ask--we have sufficient time if 
you would rather just get verbal responses.
    Senator King. Okay. That would be fine.
    Mr. Camarillo, do you have any thoughts on this issue of 
what else should we do other than what we have done on 
retirement in order to ensure that we have sufficient 
recruitment and retention to maintain the high level of 
professionalism that the Air Force has now achieved?
    Mr. Camarillo. Senator, I would want to first have the 
opportunity to examine the current tools and incentives that 
the Air Force employs and how effective they are in retaining 
the talent they need for their airmen moving forward before I 
would give you that assessment.
    However, I will say that I think the Department is 
conducting--and the Air Force is part of it--a comprehensive 
review right now of what those incentives need to be, whether 
we are looking at military compensation, retirement, in 
conjunction with the efforts taken by this committee, as well 
as some of the incentives that were provided in the recent 
Defense Authorization Act in the area, for example, going back 
earlier to the RPA [remotely piloted aircraft] pilots.
    I think we would have to look systematically at all of 
these options in conjunction with the other areas explored by 
this committee in defense reform to give you a complete answer. 
If confirmed, I look forward to working with you on that.
    Senator King. I certainly hope so because I think as we 
move out of the recession and the economy improves, the 
retention and recruitment could prove more difficult. I think 
it is something we need to attend to before it becomes a 
serious problem.
    Mr. Sparks, your thoughts on retaliation and how we 
criminalize it or punish it or discourage it. It seems to me 
that is at the core of part of the problem of not reporting 
sexual assaults in the
military.
    Mr. Sparks. Thank you, Senator, and I agree.
    I will say this about sexual assault and specifically 
sexual assault victims, that the good work that has been done 
up to this point by Congress, the media, and others, the 
attention they have focused on this issue is welcomed and, 
quite frankly, long awaited.
    I was heartened by the provisions in the most recent 
authorization act dealing with sexual assault victims and their 
ability to report and the provisions that actually prevent or 
are designed to prevent retaliation against those who support 
sexual assault victims or report on their behalf. I believe 
that time will tell whether or not this is enough. But I would 
only hope that the good work done in Congress and elsewhere 
will continue.
    Senator King. I appreciate that, and I am not entirely sure 
of what the proprieties are in terms of your interaction with 
Congress, if and when you are confirmed, but to the extent you 
can provide us with some of your accumulated wisdom as we 
continue to work on this problem, I think that would be very 
helpful to the committee. I appreciate that.
    Mr. Sparks. Yes, sir.
    Senator King. Admiral, we have talked about this, the idea 
that we are, at this moment in time when we are suffering from 
literally a heroin epidemic all over the country, including 
tragically in my State of Maine. What is it you need in order 
to interdict more of those ships? Is it intelligence? Is it 
ships? Is it manpower? What is the shortfall? I mean, we are 
spending a lot of time here talking about the threat of ISIL, 
and in the meantime, we have this other threat that is killing 
in my State 200 or 300 people a year.
    Admiral Tidd. Senator, I think all of the elements that you 
have identified are critical. It takes the putting together of 
a comprehensive network to be able to understand the network 
that is currently moving drugs. But as we have seen, these 
transnational criminal networks are also capable of moving 
weapons, bulk cash. They are engaged in human trafficking. It 
is an entity that is a network out there, and we have to 
understand that network. We have to be able to illuminate it 
and dismantle it. That is going to take the efforts of the 
elements of our intelligence community, our law enforcement 
community, ultimately pieces of our military, not the high-end 
pieces of the military frankly, but enough to be able to 
support that end game of interdiction.
    Senator King. Because you are where you are, assuming you 
are approved at SOUTHCOM, you are going to be in the point of 
this. To the extent you can tell us what you need, not 
necessarily in terms of military assets, but comprehensively, 
because this is a true crisis in this country today, and supply 
is part of the problem. Obviously, we need to talk about 
treatment, prevention, and all of those issues. But supply is 
part of it. My understanding is a great deal of this heroin 
particularly is coming up from south of our borders.
    Admiral Tidd. That is correct. My understanding is that all 
of the heroin that comes into the United States is coming from 
countries just to the south of our border.
    It is for that reason that, if confirmed, I would 
absolutely look forward to working with you to try to describe 
in a compelling manner just exactly what the force elements 
might be. But I would caution that there will be no single-
source, single-point solution to this problem. If there was, it 
would have been discovered and implemented a long time ago.
    As you have pointed out and as we have discussed, the 
supply reduction is only a piece of the problem. The demand 
reduction is the part that an equal degree of effort will, 
obviously, have to be devoted to. If we cannot really make a 
dent in that demand side, it is akin to having the best bilge 
pump in the world in your boat, but if you cannot repair that 
hole in the hull by solving the demand side, then the boat is 
going to sink.
    Senator King. I agree. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. I think you will see, Admiral, that a 
great deal of that, an overwhelming majority of that heroin is 
coming across the Sonora-Arizona border, which is obviously 
very disturbing to all of us who live in the State. It has 
reached--``epidemic'' is not the word, but there has been a 
dramatic increase in drug overdose deaths in both the Midwest 
and Northeast as a result of this, including Maine when it gets 
really cold.
    Senator Ayotte is on her way here. I would just like to say 
that we will move your nominations as quickly as possible. If, 
unfortunately, we are in next week, I will see if we cannot get 
it to the floor of the Senate. If you receive written questions 
from any of the members, please return the answers as rapidly 
as you can.
    You are coming to these positions in what most experts 
believe are the most challenging times in our history since the 
end of World War II. I do not think there is much argument 
about that. It will probably require long hours and time away 
from your families, and we regret that. We are very honored 
that your family is here today in support of you.
    If Senator Ayotte does not show up, I am going to have to 
let her ask another day, do you think, Jack?
    Senator Reed. That is why they pay you to be chairman, Mr. 
Chairman.
    [Laughter.]
    Chairman McCain. The only other request I would have of 
you, Mr. Sparks and Vice Admiral Tidd, you might work up a 
condolence note to be delivered to Senator Reed sometime late 
Saturday afternoon.
    [Laughter.]
    Chairman McCain. This hearing is adjourned.
    Senator Reed. Thank you, Mr. Chairman. Go Army.
    [Whereupon, at 3:09 p.m., the hearing was adjourned.]
                              ----------                              


    [Prepared questions submitted to the Honorable Marcel J. 
Lettre II by Chairman McCain prior to the hearing with answers 
supplied
follow:]

                        Questions and Responses
                                 duties
    Question. What is your understanding of the role, duties, and 
functions of the Under Secretary of Defense for Intelligence (USD(I))?
    Answer. My understanding is that the Under Secretary of Defense for 
Intelligence (USD(I)) is responsible for supporting the Secretary of 
Defense in discharging his intelligence-related responsibilities and 
authorities under title 10 and title 50 of the United States Code 
(U.S.C.).
    This includes: serving as the principal intelligence advisor to the 
Secretary of Defense; exercising authority, direction, and control on 
behalf of the Secretary of Defense over all intelligence organizations 
within the Department of Defense; ensuring that intelligence 
organizations in the Department of Defense are manned, organized, 
trained, and equipped to support the missions of the Department; 
ensuring that the DOD Components, which are also elements of the 
Intelligence Community, are responsive to the Director of National 
Intelligence (DNI) in the execution of the DNI's authorities; ensuring 
that the combatant commanders, the Joint Chiefs of Staff, and the 
civilian leadership of the Department are provided with appropriate 
intelligence support; ensuring that counterintelligence activities in 
the Department are conducted and managed efficiently and effectively; 
ensuring that other sensitive activities which the Department conducts 
or supports are conducted and managed efficiently and effectively; 
overseeing Defense Department personnel, facility, and industrial 
security to ensure efficiency and effectiveness; serving as the Program 
Executive for the Military Intelligence Program, and ensuring that the 
DOD Components funded by the National Intelligence Program are robust, 
balanced, and in compliance with the guidance and direction of the DNI; 
and ensuring that the Department provides the U.S. Congress with 
intelligence-related information sufficient to execute its oversight 
responsibilities.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. If confirmed, I believe I have the proper background and 
experience to effectively perform the duties of the Under Secretary of 
Defense for Intelligence. I have had the privilege of serving as the 
Acting Under Secretary since May of this year, performing all of the 
functions of the office. Prior to that, I served as the Principal 
Deputy Under Secretary of Defense for Intelligence under Michael G. 
Vickers. In both positions, I have had the opportunity to develop 
strong working relationships with other senior leaders across the 
Intelligence Community along with pursuing key initiatives in 
operational support to policy makers and warfighters, intelligence 
capabilities development, and integration for the Defense Intelligence 
Enterprise.
    Additionally, I have been honored to serve as Special Assistant 
under three Secretaries of Defense. In that capacity, I advised the 
Secretary of Defense on a range of matters pertaining to U.S. national 
security, including intelligence-related matters. With functional 
responsibilities as the civilian deputy chief of staff to Secretary 
Panetta, I supported the Secretary of Defense on defense strategy, 
budget development, acquisition oversight, national security policy 
initiatives, and crisis management. I also led two Secretary of Defense 
transition teams. For my work in support of Secretary of Defense 
priorities, I am honored that Secretary Panetta presented me the 
Defense Distinguished Public Service Award.
    As Principal Deputy Assistant Secretary of Defense for Legislative 
Affairs, I had responsibilities on a team executing legislative 
programs on Departmental priorities including the defense budget and 
policy; Iraq, Afghanistan and Pakistan; strategic nuclear arms control 
matters, including the ratification of the New START Treaty; 
acquisition and export control reforms; information operations, and 
Secretary Gates' efficiencies initiative. For my work on strategic 
nuclear arms control matters, Secretary Gates awarded me the 
Exceptional Public Service Award.
    As Senior Defense and Intelligence Advisor and then as Senior 
National Security Advisor to the U.S. Senate Minority and then Majority 
Leader, I handled all ``Gang of Eight'' intelligence matters for the 
Leader, and shaped legislation and policy initiatives in areas 
including: Iraq and Afghanistan strategy; counterterrorism; enhancing 
foreign intelligence collection and sensitive intelligence operations; 
countering proliferation of weapons of mass destruction; and assisting 
in securing passage of defense and intelligence authorization bills, 
appropriations bills, and war supplementals.
    As a Professional Staff Member on the U.S. House of Representatives 
Permanent Select Committee on Intelligence, I supported the 
intelligence after-action reviews on the 9/11 terrorist attacks and on 
Iraqi weapons of mass destruction, and advised on the 2004 Intelligence 
Reform and Terrorism Prevention Act which created the Director of 
National Intelligence.
    Prior to these positions, I served in the private sector, the 
foreign policy research sector, and on a congressional commission 
examining the organization and efficiency of the U.S. Government 
regarding intelligence and programs to counter Weapons of Mass 
Destruction (WMD).
    Serving in both the Legislative and Executive Branches of the 
government has given me a multi-faceted appreciation for the role of 
intelligence. I have served as an intelligence consumer, ensuring the 
nation's senior decision makers are supported with intelligence 
products on important decisions. I have gained an appreciation of the 
statutory roles of the Secretary of Defense, the Director of National 
Intelligence, and other senior leaders in ensuring effective 
intelligence capabilities. I have familiarity with a range of 
intelligence operations and capabilities. I have experience working 
intelligence resourcing issues through the National Intelligence 
Program and Military Intelligence Program, knowledge of key 
trajectories for our acquisition and investment programs, and awareness 
of key counterintelligence and security priorities. I am personally 
committed to supporting the Secretary of Defense in focusing on the 
needs of the warfighter, particularly in intelligence support.
    Finally, my experience has given me a deep appreciation for the 
important role of oversight, from within the executive branch as well 
as by the legislative and judicial branches of government.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the USD(I)?
    Answer. If confirmed, I believe the most significant action that I 
would need to take would be to assist the Secretary of Defense in 
executing his priorities by ensuring that he receives timely and 
accurate intelligence to support Presidential decision-making. 
Additionally, in accordance with the Secretary's priorities, I would 
ensure that our Defense Intelligence Enterprise is postured to both 
adequately support our warfighting combatant commanders with current 
operations and to tackle the challenges of the future. That said, I 
believe that I need to more deeply understand the challenges posed by 
the new fiscal environment, the resource constraints that will be faced 
ahead, and the opportunities for further efficiencies across the 
Defense Intelligence Enterprise, as we sustain and strengthen OUSD(I)'s 
budgetary oversight.
    Question. What major challenges do you foresee in fulfilling these 
duties and functions?
    Answer. If confirmed as the USD(I), the major challenges that are 
likely to confront me are the continued unprecedented scope and pace of 
global operations and unmet demand for intelligence in an era of 
intelligence-driven operations; the need to adapt to a rapidly changing 
intelligence environment; the need to address longer-term challenges to 
prevent strategic surprise while fully supporting ongoing operations; 
and the need to do all this in a more constrained fiscal environment. 
Additionally, we must improve on protecting intelligence sources and 
methods and preventing unauthorized disclosure of information. The next 
USD(I) will need to overcome these challenges while ensuring Defense 
Intelligence is postured with the IC to continue to provide world-class 
intelligence.
   goldwater-nichols department of defense reorganization act of 1986
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    However, the global environment has changed a great deal since 
Goldwater-Nichols was enacted, while the relationships and 
responsibilities of DOD's various components have not. This Committee 
has begun a comprehensive review of the United States' defense 
organization to identify challenges and potential reforms to the 
Department of Defense and the armed forces.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. My present duties have not yet afforded me an opportunity 
to systematically review and address any potential modifications to the 
Goldwater-Nichols Act provisions that would improve the Department's 
defense intelligence enterprise performance, but I am prepared to work 
with this committee and other stakeholders to pursue any initiatives 
that will improve the effectiveness of the Defense Intelligence 
Enterprise.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I look forward to contributing to the dialogue ahead on 
whether potential modifications to the Goldwater-Nichols Act provisions 
might further advance the performance of defense intelligence. Reform 
efforts of the last thirty years under Goldwater-Nichols, and 
intelligence reform efforts since 9/11, have achieved tremendous gains 
in ensuring jointness and integrated effort across intelligence 
organizations, pursuing operational speed and agility, and spurring 
innovation and adaptation in the face of major strategic and 
technological change. I look forward to continuing to work with the 
committee to pursue initiatives that would continue to advance this 
integration, agility, and innovation in defense intelligence.
                             relationships
    Question. In carrying out your duties, how will you work with the 
following:
    The Secretary of Defense.
    Answer. Pursuant to statute, departmental directives, and direct 
guidance from the Secretary of Defense, if confirmed as USD(I) I will 
serve as the Principal Staff Assistant and advisor to the Secretary of 
Defense on all matters concerning intelligence, counterintelligence, 
and security, and exercise SecDef authority, direction and control over 
the Defense Intelligence Enterprise.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed as USD(I), I will provide support to the 
Deputy Secretary consistent with that which I would provide to the 
Secretary, as described above, in support of the Deputy Secretary's 
responsibilities and priorities.
    Question. The other Under Secretaries of Defense.
    Answer. If confirmed as USD(I), I will work closely with each of 
the Under Secretaries, their Principal Deputies, and senior teams, as I 
have while serving as the Acting USD(I). A close relationship between 
the Under Secretary of Defense for Policy and the USD(I), and their 
Principal Deputies, is particularly important, so I intend to fully 
support those relationships. In my former positions within the 
Department, as Special Assistant to the Secretary of Defense, Principal 
Deputy Assistant Secretary of Defense for Legislative Affairs, and 
Principal Deputy USD(I), I had positive relationships with the Under 
Secretaries, which I would continue to develop if confirmed as USD(I).
    Question. The Chief Information Officer.
    Answer. The Chief Information Officer (CIO), like its predecessor 
the Assistant Secretary of Defense for Networks and Information 
Integration, has had oversight of enabling capabilities which are 
central to the conduct of intelligence and security-related activities. 
If confirmed, I will work closely with the CIO to ensure that this 
support remains robust.
    Question. The Deputy Assistant Secretary of Defense for Detainee 
Policy.
    Answer. If confirmed, I will work closely with the DASD for 
Detainee Policy on the intelligence aspects of detainee policy and 
operations.
    Question. The Assistant Secretary of Defense for Special 
Operations/Low Intensity Conflict (ASD SOLIC).
    Answer. USD(I) and the ASD SO/LIC work closely together in several 
areas, and this close partnership has grown substantially in recent 
years. If confirmed as the USD(I), I will contribute to ensuring that 
this close partnership continues.
    Question. The Service Secretaries and the Service Intelligence 
Directors.
    Answer. If confirmed as USD(I), I will serve as the Program 
Executive for the Military Intelligence Program. As appropriate, I will 
work with the Secretaries of the Military Departments and the Service 
Intelligence Directors to ensure their intelligence requirements are 
met, that the Military Departments and Services develop intelligence 
capabilities appropriate for the current and future security 
environment, and that the intelligence organizations contribute to 
meeting the intelligence needs of their respective Military Department/
Service, the Joint Force, the Department, and the Nation.
    Question. The General Counsel of the Department of Defense (DOD).
    Answer. In my previous positions in DOD, I have worked closely with 
the General Counsel and his staff. If confirmed as USD(I), I will 
continue to closely collaborate with the General Counsel and seek his 
advice on the legal issues that impact USD(I)'s duties and functions.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. In my previous positions in DOD, I have worked closely with 
the Chairman and Vice Chairman of the Joint Chiefs of Staff, and other 
senior leaders on the Joint Staff, on a range of issues. If confirmed 
as USD(I), I will seek to continue this close relationship to ensure 
that Defense Intelligence and the Intelligence Community meet the 
requirements of the Joint Staff and Combatant Commands.
    Question. The commanders of the Combatant Commands, including U.S. 
Special Operations Command (USSOCOM) and U.S. Cyber Command.
    Answer. If confirmed as USD(I), I will seek to ensure that the 
intelligence needs of the commanders of the Combatant Commands, 
including the commanders of U.S. Special Operations Command and U.S. 
Cyber Command, are met.
    Question. The Directors of the Defense intelligence agencies.
    Answer. If confirmed as USD(I), I will exercise the Secretary of 
Defense's authority, direction, and control over NSA, NGA, NRO, and 
DIA. I will also help sustain the deep relationship shared with the DNI 
by working with the Office of the DNI to ensure clear and consistent 
guidance is provided to the Defense intelligence agencies.
    Question. The Director of National Intelligence.
    Answer. Since serving as the Acting USD(I), I have sought to 
maintain a strong relationship with the DNI. If confirmed as USD(I), I 
intend to continue my full support of our mutual goal of greater 
Intelligence Community integration. Because the USD(I) is dual-hatted 
as the DNI's Director of Defense Intelligence, if confirmed, I will 
advise the DNI on Defense Intelligence capabilities.
    Question. The Director of the Central Intelligence Agency.
    Answer. If confirmed as USD(I), I will work to sustain the 
relationship I have developed as the Acting USD(I) with the Director 
and Deputy Director of the Central Intelligence Agency (CIA) and their 
senior team.
    Question. The Director of the National Counterterrorism Center.
    Answer. If confirmed as USD(I), I will work to bolster the already 
close relationship I have developed as the Acting USD(I) with the 
Director of the NCTC.
    Question. The Director of the National Counterproliferation Center.
    Answer. If confirmed as USD(I), I will work to maintain the 
relationship I have developed as the Acting USD(I) with the Director of 
the NCPC.
    Question. The Deputy and Assistant Directors of National 
Intelligence.
    Answer. If confirmed as USD(I), I will fully support and cooperate 
with the Principal Deputy, Deputy and Assistant Directors of National 
Intelligence to ensure integration and unity of effort in the direction 
and oversight of the Defense Intelligence Enterprise.
    Question. Officials in the Department of Homeland Security with 
intelligence responsibilities.
    Answer. If confirmed as USD(I), I will serve as the Secretary of 
Defense's focal point for intelligence, counterintelligence, and 
security matters for senior officials from the Department of Homeland 
Security (DHS) and will seek to ensure a strong working relationship 
with the Under Secretary for Intelligence and Analysis.
                               priorities
    Question. How would you anticipate developing priorities for 
allocating your time and resources as the USD(I)?
    Answer. If confirmed, I would develop priorities for allocating my 
time consistent with priorities set by the Secretary of Defense and 
Director of National Intelligence. In general, I would anticipate 
dividing my time broadly between oversight of current intelligence 
operations, the development of future intelligence capabilities, and 
the integration of intelligence across the Department of Defense and 
with the full range of national security partners, as well as internal 
management of OUSD(I) operations and other duties the Secretary may 
assign. In what will continue to be a resource-constrained environment, 
I will seek to ensure that resources are strategically allocated to, 
and across, the Defense Intelligence Enterprise.
    Question. If confirmed, what would be your priority issues to be 
addressed by the OUSD(I)?
    Answer. If confirmed, I would continue to execute the priorities of 
our organization during my tenure as the Acting USD(I), including: (1) 
ensuring that the full weight of Defense intelligence capabilities are 
brought to bear to disrupt, dismantle, and defeat al-Qaeda and the 
Islamic State in Iraq and the Levant, creating and sustaining stability 
in Afghanistan and Iraq, countering Russian aggression, bolstering our 
national cyber defense, preventing the proliferation of weapons of mass 
destruction, operationalizing the Asia-Pacific Rebalance, and 
supporting other ongoing operations in which the Department is engaged 
or may be engaged; (2) ensuring that intelligence operations conducted 
by the Department of Defense are effective and in compliance with all 
relevant statutes, authorities, directives, and policies; (3) ensuring 
that the Defense Intelligence Enterprise is postured to prevent 
strategic surprise, fully exploit emerging opportunities, and pursuing 
innovative future capabilities; and (4) ensuring that the Defense 
Intelligence Enterprise is as efficient as possible. I would expect to 
pay particular attention to ensuring that: we have the right collection 
and analytical priorities; that we have a robust ISR architecture (both 
space and airborne), today and in the future; that the Department's 
clandestine operations are fully integrated with those of the CIA and 
National Clandestine Service; that the President's highest priority 
intelligence programs are fully resourced; that analysis addresses the 
needs of policy makers and operational commanders; that intelligence is 
timely, accessible, and independent; and, where appropriate, that we 
aggressively exploit advances in technology to improve our intelligence 
capabilities.
    Question. If confirmed, how would you balance the need to provide 
intelligence support to the war-fighter with the need to provide 
intelligence support to policy makers?
    Answer. In support of the Secretary's own commitments to both 
ensure the strength of today's fighting force and provide the President 
with his best national security advice, if confirmed, I would work to 
ensure the Defense Intelligence Enterprise continues to satisfy 
intelligence requirements foremost in support of current military 
operations and planning but also in collaboration with Interagency 
partners to inform political-military decision-making by our national 
leaders. In the USD(I)'s dual-hatted capacity as both a Defense and 
National Intelligence official, if confirmed I would seek to 
consistently identify and communicate the critical intelligence needs 
of the war-fighter.
    Question. If confirmed, how will you ensure that the Geographic 
Combatant Commands are adequately assessing and prioritizing their 
intelligence needs?
    Answer. If confirmed as USD(I), I would seek to strengthen 
integration and collaboration between the Geographic Combatant Commands 
and components of the Defense Intelligence Enterprise to inform the 
allocation of tools and expertise to efficiently assess and prioritize 
intelligence needs suited to their respective missions. These 
intelligence needs should be continually assessed and prioritized in 
consideration of those of each other Combatant Command and the fluidity 
of the threat environment in some areas of operations, given current 
resource constraints. If confirmed as USD(I), I also would work to 
ensure fruitful communication with the Defense Intelligence Enterprise 
and between the Combatant Commands to support intelligence integration 
in functional and topical areas where their needs cross the geographic 
boundaries from one command to another.
    Question. If confirmed, how would you ensure intelligence 
activities carried out by special operations forces are adequately 
coordinated and deconflicted with other activities carried out by the 
intelligence community?
    Answer. Special Operations Forces coordinate their intelligence 
activities with the Intelligence Community as required by applicable 
law, policy, and agreements. My understanding is that USSOCOM liaises 
with members of the Intelligence Community in the Washington, D.C. 
area, at the Headquarters in Tampa, Florida, and on the battlefield. If 
confirmed as USD(I), I would work to ensure the demonstrable gains 
achieved in intelligence coordination with the interagency and 
international partners during the past several years are not only 
sustained but continue to improve. If confirmed, I also would welcome a 
continued dialogue with the committee to ensure clear, coherent and 
regular reporting to the congressional oversight committees of these 
activities, consistent with critically important committee oversight 
responsibilities.
                    cyber and information operations
    Question. In the Advance Policy Questions for your recent 
confirmation as Principal Deputy Under Secretary of Defense for 
Intelligence, the committee noted that ``Information operations, as 
currently defined by DOD, include electronic warfare, operational 
security, computer network operations, psychological operations, and 
military deception. Each of these lines of operations is unique and 
complex, and, in some cases, they are interwoven. The establishment of 
U.S. Cyber Command organizationally separated cyber operations from the 
other elements making up `information operations.'''
    The committee asked you how this separation complicates integration 
across these elements, and what is your understanding of the 
Department's efforts to mitigate its impact?
    You responded at that time as follows: ``If confirmed, I look 
forward to studying this question further. My current understanding is 
that Information Operations as currently defined refers to the 
integration of various information activities to achieve effects across 
the information environment, which includes the cyber domain. The 
establishment of U.S. Cyber Command does not change the relationship of 
cyberspace operations to the other capabilities necessary for DOD to 
conduct information and cyber-related operations. It will, however, 
enhance our ability to conduct information operations in the cyber 
domain.''
    Have you studied this question further? What is your current view 
of how well the Department is integrating across the elements of 
``information operations,'' and especially across electronic warfare 
and cyber?
    Answer. As PDUSD(I) and Acting USD(I), I have continued to engage 
in this set of issues, working in collaboration with and in support of 
the broader Defense Department team of stakeholders, under guidance 
from the Secretary and the Principal Cyber Advisor.
    The April 2015 DOD Cyber Strategy has set a framework for guiding 
planning, programming, and budgeting, as well as strategy, capability 
development, and operations, regarding the cyber domain. We are using 
this strategy to support DOD's ability to build and maintain ready 
Cyber Mission Forces and their capability to conduct cyberspace 
operations. In implementing this strategy, particular emphasis is being 
placed on integrating cyberspace operations to enable information 
operations and electronic warfare. Implementation efforts to date have 
revealed the requirement for further study on how best to integrate 
electronic warfare effectively within all DOD capabilities.
    I view the establishment and continued buildout and adaptation of 
U.S. Cyber Command as a positive development to meeting the challenges 
of effectively operating within the cyber domain. If confirmed as 
USD(I), I look forward to continuing to participate in refining 
organizational relationships and authorities within the Department to 
improve integration of cyber efforts without compromising the agility 
necessary for success in this domain.
             efficiencies in human intelligence collection
    Question. In signals intelligence (SIGINT), imagery intelligence 
(IMINT), and space reconnaissance, the Department of Defense (DOD) and 
the Intelligence Community (IC) decades ago consolidated national-level 
activities into single agencies--the National Security Agency, the 
National Geospatial Intelligence Agency, and the National 
Reconnaissance Office, respectively. However, in the sole area of human 
intelligence (HUMINT) collection, DOD and the IC maintain separate, 
stand-alone programs in the CIA and the Defense Intelligence Agency 
(DIA).
    Twenty years ago, the Aspin-Brown Commission, led successively by 
two former Secretaries of Defense, catalogued the historical problems 
that limited the effectiveness of clandestine HUMINT operations 
conducted by DOD, and recommended that HUMINT operations be 
consolidated in the CIA, with DOD maintaining a cadre of military case 
officers for assignment to CIA.
    The problems that the Aspin-Brown Commission described 20 years ago 
persist to the present day.
    In the Advance Policy Questions for your recent confirmation as 
Principal Deputy Under Secretary of Defense for Intelligence, the 
committee asked you what the justification is for maintaining two 
organizations in this mission area in a time of severe budget 
austerity?
    You responded that ``the Department of Defense maintains organic 
human intelligence (HUMINT) collection capabilities because it operates 
under different authorities than the CIA and also responds to different 
customers, priorities, requirements, and targets.''
    To clarify, the committee's question was aimed at the Department's 
national-level HUMINT program conducted under title 50, U.S.C., and 
funded by the National Intelligence Program (NIP), and not the 
Department's tactical HUMINT activities. The National Clandestine 
Service administered by the CIA also operates under title 50, U.S.C. 
and NIP budget, and is charged with providing HUMINT support to the 
Defense Department.
    Question. In this era of reduced budgets, manpower pressures, and 
interest in reducing duplication and overhead in DOD, do you think the 
Aspin-Brown Commission's recommendation should be reconsidered today?
    Answer. I have an open mind to exploring any ideas the Committee 
believes should be explored that may improve the effectiveness of 
defense HUMINT capabilities. DOD has unique customers, priorities, 
requirements and targets that need to be met. At the same time, it is 
important not to have unnecessary redundancy and wasteful duplication 
in any mission area. In my experience to date, the recent evolution of 
defense HUMINT capabilities, including those in the Defense Clandestine 
Service, has been a sound, efficient, and effective approach to meeting 
defense intelligence requirements and has strengthened capabilities. In 
order to ensure successful efforts in this regard, strong leadership, 
clear guidance, rigorous standards and effective operational concepts 
are needed. Under any model, close CIA and DOD relationships and 
collaboration are critical. Recent modernization efforts launched at 
CIA also require us to continue to review how to optimize our close 
partnership and collaboration. I welcome a continued dialogue with the 
committee on this important capability area.
 responsiveness of defense intelligence agencies to combatant command 
                        operational requirements
    Question. This committee and some current and former senior 
officers and officials in DOD are concerned that DOD intelligence 
Agencies are not sufficiently responsive to DOD operational, wartime 
requirements.
    Are you aware of these concerns and do you think they have a valid 
basis?
    Answer. I am aware of these views. The need for continuous 
improvement of our support to the warfighter is not only valid, it is 
essential. If confirmed, meeting the requirements of the warfighter 
will be central to my decisionmaking.
    The support that DOD Intelligence Agencies provide to the 
warfighter during times of war or threat to national security have been 
a longstanding oversight concern to Congress, the Chairman, and the 
Secretary of Defense. As one manifestation of this concern, in the 
Goldwater-Nichols DOD Reorganization Act of 1986, Congress directed the 
Chairman to conduct biennial assessments of the Combat Support Agencies 
(CSA)- including DIA, NGA and NSA--to assess this crucial facet of 
their operations. These, and other reviews, have yielded regular 
reports on how best to posture, and adapt, the support of DOD 
intelligence agencies for responsiveness to DOD operational, wartime 
requirements. If confirmed, I look forward to working with the 
committee to seek to implement any adjustments and refinements that can 
be identified that will strengthen agency responsiveness to 
operational, wartime requirements.
    Question. How would you address these concerns?
    Answer. When the biennial assessments and CSA review teams identify 
systemic areas of concern that may impact optimizing support to the 
warfighter--such as communications, information technology, foreign 
disclosure, and foundational intelligence--these insights need to drive 
additional emphasis on resolving them through the operational oversight 
and resource allocation systems. Doing so will require innovative 
solutions and collaboration across the Defense Intelligence Enterprise. 
If confirmed, I will seek to ensure that the CSAs continue to address 
these shortcomings to the satisfaction of the warfighter they support.
    intelligence, surveillance, and reconnaissance (isr) task force
    Question. In 2008, Secretary of Defense Robert Gates established 
the ISR Task at the most senior levels of the Department to address 
acute shortfalls in intelligence support to military operations in Iraq 
and Afghanistan. The establishment of this Task Force reflected the 
failure of the existing ISR planning and programming process in the 
military departments and across the Office of the Secretary of Defense 
(OSD).
    The ISR Task Force was an effective expedient solution to an 
immediate problem, but since it by-passed established processes and 
organizations, it responded only to symptoms and did not fix the 
underlying causes of the problems.
    What is your perception of the underlying causes of the failure of 
the Services and OSD to recognize and respond to the demand signal from 
battlefield commanders, and how would you propose to correct them?
    Answer. If confirmed, I will remain committed to ensuring the 
Nation does its best to meet warfighter requirements, particularly in 
terms of ISR support. Many of the underlying issues associated with the 
challenge of providing timely and effective ISR support to the 
warfighters highlighted in 2008 still exist today. USDI, in 
coordination with other elements of the Department, CCMDs, and 
Services, are actively seeking methods to improve this situation. The 
successor to the ISR Task Force, the ISR Operations Directorate, has 
now been successfully integrated into the OUSDI. Its charter includes 
developing solutions to warfighter ISR requirements ahead of the Future 
Years Defense Program, within 18-24 months of the identification of the 
warfighters' requirements. These rapid acquisition efforts streamline 
the acquisition process. While accepting risk, this approach maximizes 
innovation to match emergent ISR requirements with capability residing 
in industry. These activities, conducted under close oversight of USDI 
and the USD AT&L, are a necessary complement to the traditional program 
of record acquisition process.
  allocation of intelligence, surveillance, and reconnaissance (isr) 
       assets through the global force management process (gfmap)
    Question. In the Senate version of the National Defense 
Authorization Act (NDAA) for Fiscal Year 2015, and the accompanying 
report (S. Rept. 113-176), the Committee voiced strong concerns about 
the process and underlying analysis supporting the allocation of ISR 
assets to the combatant commands under the Global Force Management 
Process (GFMAP). While these GFMAP problems are numerous, the Committee 
noted in particular that, since the events of September 11th, U.S. 
Central Command (CENTCOM) has received the overwhelming share of ISR 
assets, to the point where the Committee expressed doubt that ``a 
rigorous analysis would consistently rank the lowest priorities of one 
combatant command higher than the highest priorities of other combatant 
commands.'' While CENTCOM's ISR needs remain extremely high, there are 
serious and growing requirements in Africa, Europe, and the Pacific.
    What actions, if any, have been taken by the Office of the Under 
Secretary of Defense for Intelligence to respond to these concerns and 
the direction in section 1058 of the NDAA for Fiscal Year 2015?
    Answer. Balancing ISR requirements across the combatant commands 
remains a challenge, and I share the committee's concern about the 
shortfalls that exist for ISR in regions like Africa, Europe and the 
Pacific. With the ongoing operations to counter ISIL in Iraq and Syria, 
urgent operational needs continue to drive high demand in USCENTCOM for 
ISR, while serious and growing requirements exist in Africa, Europe and 
the Pacific. In my tenure, OUSDI has focused its efforts to provide the 
warfighter with ISR in three core areas: ensuring a rigorous review of 
requirements in order to allocate available ISR as optimally as 
possible across CCMDs; seeking to gain more efficiency out of available 
ISR through efforts such as dynamic reallocation of platforms; and 
seeking to grow the number of ISR platforms and associated 
capabilities.
    Question. What further actions would you recommend?
    Answer. I remain open to the possibility that automated and 
operational research and systems analysis tools can help improve the 
acquisition and GFM processes. I am also open to continuing to explore 
the option of supporting unfulfilled ISR requirements with contract 
capability when and where it makes sense. Lastly, improving 
coordination and cooperation with key allies who may possess identical 
or complementary ISR resources can augment our capabilities.
      improving the integration of intelligence operations and of 
                 intelligence systems and strike assets
    Question. Success in modern warfare will depend on synchronizing 
the operations of different types of satellites and diverse airborne 
intelligence, surveillance, and reconnaissance (ISR) platforms, and the 
rapid sharing of data with and among strike assets. Today, however, 
imagery systems are tasked separately from signals intelligence 
systems, and satellites are controlled separately from airborne 
systems. The ability to share information from intelligence systems 
directly with strike assets, and even between the strike platforms 
themselves, is poor.
    The Under Secretary of Defense for Intelligence is the one official 
in the executive branch with strong direct oversight authority over 
both National Intelligence Program and Military Intelligence Program 
budgets and programs.
    What changes do you think are necessary in operational tasking 
processes and program planning to achieve synchronized support to 
strike operations?
    Answer. Synchronizing the diverse satellite and airborne ISR 
collectors and shrinking the timeline to targeting is a difficult 
challenge but is increasingly important in the threat environments we 
face now and projected in the future, including in high-end anti-access 
area-denial warfighting scenarios. This is a challenge with no single 
solution and thus requires constant advancements in standardizing data, 
developing advanced ISR analytics, improving interoperability, and 
refining processes to receive, analyze, and push data from our ISR 
processing, exploitation and dissemination (PED) nodes to strike 
assets. At the same time, many of our latest generation assets such as 
the F-35 are ISR nodes themselves, allowing us to expand our collection 
network. While a positive development, this adds to the complexity of 
synchronizing ISR and combat operations.
    In order to address this challenge, USDI has been working across 
the Department to mature the Defense Intelligence Information 
Enterprise (DI2E) to improve intelligence data standards, sharing, and 
interoperability. Likewise, we are taking steps to factor in 
intelligence support considerations much earlier in the acquisition 
process. I believe we can improve the common operating picture 
capability for our future weapons systems by identifying upfront in the 
acquisition process requirements associated with linking the entire ISR 
constellation of programs to the tactical user.
              intelligence support to cyber mission forces
    Question. The Department of Defense (DOD) is establishing Cyber 
Mission Teams (CMTs) to support the war plans of the combatant 
commands. Among these units' missions is to create effects on the 
battlefield in integrated operations with electronic warfare and 
traditional weapons systems engaged in kinetic operations. Having the 
ability to affect adversary weapons systems and battlefield command and 
control will require special and focused intelligence collection.
    What guidance and direction have been given to the national 
intelligence agencies to support the Department's needs for 
intelligence support to offensive cyber operations?
    Answer. Planning for cyber operations and capability development is 
generally informed by the DOD Cyber Strategy released in April 2015. 
The development of options for DOD offensive cyber operations, like 
military operations within other domains, receives intelligence support 
from the national intelligence and combat support agencies consistent 
with the relative prioritization of the specific combatant commander 
requirements and guidance and direction from the Secretary of Defense 
and the Director of National Intelligence.
    Question. Are the intelligence community and DOD's foreign material 
acquisition and exploitation (FMA/E) programs today properly 
prioritizing the collection of intelligence needed to support the CMTs?
    Answer. I believe CMT needs are appropriately prioritized but that 
this requires regular attention, review, and refinement. The Department 
annually incorporates national and defense foreign materiel priorities 
in providing strategic guidance to the Military Departments, Combatant 
Commands, and the Test and Evaluation community through the DOD Foreign 
Materiel Annual Plan. Since at least 2013, strategic guidance has 
included advancing U.S. understanding of foreign military capabilities 
in several priority areas, including cyber capabilities. This past 
year, DIA and USCYBERCOM supported ranking DOD cyber requirements, 
resulting in more than two dozen prioritized cyber-specific 
requirements. For next year, USCYBERCOM is expected to not only provide 
unique cyber requirements but to also support ranking the overall DOD 
top priorities list for foreign materiel.
    Question. Does the National Security Agency (NSA) provide adequate 
insight into the data it collects that could be useful for the Cyber 
Mission Teams and FMA/E programs?
    Answer. Based on analysis I have been provided so far, it appears 
that NSA provides relevant insight and the Department has improved the 
coordination process across key stakeholders to ensure the exchange of 
intelligence information and provision of support to cyber mission 
forces and FMA/E programs.
    Question. Is there an effective process in place to task NSA 
collection?
    Answer. The Department continues to use the established collection 
requirements process to drive collection supporting the CMF and cyber 
requirements, and based on analysis that I have been provided so far, 
it appears effective.
    Question. What priority would you assign to providing such support, 
and how would you propose to shift resources to this task?
    Answer. The previous USD(I) established development of intelligence 
support to cyber operations as one of his five long-term capability 
development priorities for the Defense Intelligence Enterprise. If 
confirmed, I intend to continue these prioritized efforts in alignment 
with the Department's overall Cyber Strategy. Given the current state 
of the CMF build out, the Department continues to study the high 
priority need for intelligence support to the CMF and cyberspace 
operations. Studies identify a continued strong demand signal for 
intelligence analysis. If confirmed, I will continue to refine cyber 
intelligence priorities as more of the CMF becomes fully operational.
  relationship with respect to the assistant secretary of defense for 
       special operations and low intensity conflict (asd solic)
    Question. How are responsibilities for the oversight of the 
activities and programs of special operations forces delineated between 
the USDI and ASD SOLIC?
    Answer. The Secretary of Defense has assigned oversight 
responsibility for intelligence and intelligence-related activities to 
various officials in DOD, consistent with law and executive order. 
Primarily, the Secretary of Defense has assigned oversight of 
intelligence and intelligence related activities to the Under Secretary 
of Defense for Intelligence (USD(I)), and oversight of special 
operations and low intensity conflict policy to the Assistant Secretary 
of Defense for Special Operations and Low Intensity Conflict (ASD(SO/
LIC)) in their respective charter directives.
    The Department oversees SOF intelligence and intelligence-related 
activities during: (1) the conduct of the activity, (2) the capability 
development and approval process, (3) the funding and budgeting 
processes for both capabilities and activities, and (4) the reporting 
of clandestine activities to Congress. This oversight requires 
collaboration and partnership between USDI and ASD/SOLIC across a range 
of mission areas.
    The USD(I) is responsible for oversight of all intelligence and 
intelligence related activities, development and execution of the 
Military Intelligence Program (MIP) and oversight of MIP-funded 
intelligence-related capabilities, programs, and production of the 
clandestine quarterly activity reports to Congress. The OUSD(I) staff 
conducts these functions in concert with the ASD (SO/LIC) staff.
    As the acting USD(I), one of my priorities has been to increase 
integration between OUSDI and DOD components and staff. We work daily 
and closely with ASD (SO/LIC) to identify shortfalls in intelligence 
support to SOF as we develop plans, programs, or activities that 
support SOF capability to conduct their assigned missions. I will 
continue to foster this collaboration.
    Question. Are there any programs that are currently overseen by the 
USDI that would be more appropriately overseen by ASD SOLIC?
    Answer. In response to the National Defense Authorization Act for 
Fiscal Year 2015, OUSDI and ASD (SO/LIC) staff are reviewing USSOCOM 
intelligence and intelligence-related programs. The review is still 
being conducted. Should the review identify potential programs whose 
oversight could properly change from current arrangements, we will work 
together with ASD (SO/LIC) to develop appropriate proposals and would 
consult with the Armed Services committees.
                 personnel security and insider threats
    Question. The Committee has enacted significant legislation in 
recent National Defense Authorization Acts mandating and guiding urgent 
reforms in personnel security processes and insider threat detection 
and prevention. The recent severe breach in personnel security records 
held by the Office of Personnel Management has now also driven a re-
evaluation of which element or elements of the government should 
conduct background investigations (BIs) and be responsible for 
protecting the information that such investigations produce.
    What are your views about the pace of this reform effort?
    Answer. I support the need for personnel security process reform. 
With regard to the pace of these efforts, a sense of urgency is 
needed--recognizing the complexity of the system architecture and the 
amount of interagency coordination which must be accomplished to 
achieve the desired reforms. Recent National Defense Authorization Act 
provisions increase and improve the Department's ability to prevent, 
deter, detect, and mitigate actions by any DOD personnel who represent 
a threat to DOD personnel, facilities, operations, or resources.
    Question. What are your views about whether the Department of 
Defense should be responsible for conducting BIs and protecting that 
sensitive data?
    Answer. As a member of the Suitability and Security Performance 
Accountability Council (PAC), the Department has been participating in 
the on-going Office of Management & Budget (OMB)-led review of the 
background investigation process that began in July 2015. A key focus 
area of this review is to prioritize the security of sensitive 
personnel data. If confirmed, I will continue to work with the PAC and 
our interagency partners to implement the OMB review recommendations, 
to include ensuring that any entity conducting investigations has 
sufficient cybersecurity protections.
                   duplicative intelligence oversight
    Question. The Office of the Under Secretary of Defense for 
Intelligence (OUSD(I)) oversees all aspects of the large Department of 
Defense (DOD) intelligence agencies, the service components of the 
National Intelligence Program, and the Military Intelligence Program-
funded activities and programs of the military services and U.S. 
Special Operations Command. This oversight covers policy, budgets, 
acquisition programs, personnel, information technology (IT), and 
operations. OUSDI maintains staff to oversee all these activities even 
though functional expertise for policy, acquisitions, personnel, and IT 
resides in the Offices of the Under Secretaries of Defense for Policy; 
Acquisition, Technology and Logistics; and Manpower and Readiness; and 
the Office of the Chief Information Officer (CIO), respectively. In 
addition, the Assistant Secretary of Defense for Special Operations and 
Low Intensity Conflict ASD(SOLIC) oversees all aspects of U.S. Special 
Operations Command, including its intelligence activities and programs.
    In the Advance Policy Questions for your recent confirmation as 
Principal Deputy Under Secretary of Defense for Intelligence, the 
committee asked you whether the OUSD(I) staff should continue to 
duplicate the functions and resources of these other Under Secretaries, 
the CIO, and ASD(SOLIC), and if so, why?
    You responded as follows: ``In support of the USD(I), I look 
forward to assessing this in more detail, if confirmed, as the current 
fiscal environment does require a careful look to ensure inefficiencies 
and unnecessary duplication are eliminated across headquarters 
elements.''
    Have you assessed this matter since you began serving as Principal 
Deputy? Could efficiencies and more effective oversight be achieved by 
jointly leveraging these existing pillars of functional expertise for 
oversight of intelligence programs, personnel, policy, and IT issues?
    Answer. If confirmed, I will continue to place a priority on 
eliminating inefficiencies and unnecessary duplication across 
headquarter elements. I have an open mind to ideas the Committee might 
wish to explore for continuing to refine effectiveness and efficiency 
of intelligence programs, personnel, policy and IT issues.
    In my experiences to date, each of the Under Secretaries, the CIO, 
and ASD(SOLIC) bring unique capabilities and expertise to bear. Joint, 
integrated approaches to oversight and management across these key 
functions and organizations are effective in ensuring complex strategic 
challenges are comprehensively addressed. This approach takes best 
advantage of the complementary nature of the expertise arrayed across 
OSD, including the unique intelligence, counter-intelligence and 
security expertise resident in the OUSDI staff. For example, USD(I)'s 
close partnership with the DOD CIO in responding to the Office of 
Personnel Management breach leverages both organizations' unique areas 
of expertise while ensuring that defense intelligence and defense 
information responses to the breach are fully coordinated and not 
duplicative.
        u.s. special operations command intelligence operations
    Question. In your view, how are intelligence operations carried out 
by special operations personnel different from those carried out by 
others in the intelligence community?
    Answer. In my view, Special Operations Forces (SOF) intelligence 
activities and capabilities are consistent with how other DOD service 
components execute and develop intelligence activities. SOF organic 
intelligence capabilities focus on the SOF Commander's mission critical 
information needs, which enable SOF to accomplish missions assigned by 
the Geographic Combatant Commander (GCC). Intelligence Community 
components do not typically focus on these tactical intelligence 
requirements due to capacity limitations or the short timelines 
associated with supporting ongoing GCC operations.
    In my view, the unique set of SOF missions range from enduring, 
current, to emergent, all of which require very precise and detailed 
intelligence to ensure their operations achieve national security 
objectives. The range of missions unique to SOF also requires agile and 
flexible intelligence capabilities in order to meet operational 
timeline requirements. This allows our most sensitive operations, such 
as hostage rescue operations, to take advantage of opportunities as 
they arise and/or respond sufficiently to emergent needs or crises.
    Lastly, SOF intelligence activities are expected to be coordinated 
fully with the IC partners to ensure the necessary de-confliction and 
to avoid redundancy. Also, any intelligence discipline specific 
activities must follow the relevant intelligence coordination 
processes, for instance the Intelligence Community Directive 304 
coordination process for any human intelligence activities.
    Question. If confirmed, how would you ensure intelligence 
activities carried out by special operations forces are adequately 
coordinated with other activities carried out by those in the 
intelligence community?
    Answer. If confirmed, I would continue to work to advance efforts 
to integrate SOF intelligence capabilities with those of the 
Intelligence Community. These efforts have strengthened coordination 
among and between SOF and the Intelligence Community. In my 
intelligence oversight role, I would ensure SOF intelligence activities 
adhere to the appropriate coordination process and provide visibility 
of these activities to Congress through the clandestine quarterly 
reporting process.
               need for independent intelligence analysis
    Question. Intelligence analysis should be independent and free of 
command chain and political pressure that it reach a certain 
conclusion, including a conclusion that fits a particular policy 
preference.
    If confirmed, how would you ensure that all intelligence analysts 
within the DOD, including those who may be seconded to offices that are 
not part of the defense intelligence structure, are free from such 
pressure?
    Answer. It is imperative that DOD intelligence analysis be 
objective and free from pressure of any kind. Analysts are expected to 
``speak truth to power'' and to call it as they see it. If confirmed, I 
will make the necessity of protecting the analytic integrity within 
their organizations a point of emphasis in my interactions with the 
senior leadership of the Defense Intelligence Enterprise, as I have 
done in the past. I will also seek to ensure that DOD intelligence 
training emphasizes analytic integrity requirements as established in 
Intelligence Community Directive 203 (Analytic Standards) and Joint 
Publication 2-0 (Joint Intelligence)--safeguarding analytic 
objectivity, integrity, and independent of political consideration.
    Finally, I will look for opportunities to support analytic 
ombudsman programs across the enterprise. My intent is to make sure 
that our analytic leadership and workforce are fully knowledgeable of 
the required integrity standards and that analysts have effective 
recourse available to them if they believe that the independence of 
their analysis is being hindered in any way.
    Question. Has your office investigated the charges that 
intelligence assessments in U.S. Central Command of the emergence of 
the Islamic State terrorist group and the failure of the Iraqi Army 
were altered inappropriately? If so, what was the result of the 
investigation?
    Answer. The allegations involving the U.S. Central Command are 
being thoroughly and impartially investigated by the DOD Inspector 
General. As such, it is neither necessary nor appropriate for my office 
to conduct a separate, parallel investigation. If confirmed, I will 
review and implement as appropriate recommendations developed by the IG 
that protect and strengthen the integrity of our analytic processes.
                   analytic capabilities and capacity
    Question. In the Advance Policy Questions for your recent 
confirmation as Principal Deputy Under Secretary of Defense for 
Intelligence, the committee noted that the DOD Inspector General (IG) 
had recently issued an assessment of DOD long-term intelligence 
analysis, which concluded that the Department has significant problems 
in three areas. One is broadly termed ``non-traditional support'' to 
the combatant commands in such areas as shaping the environment and 
deterring potential adversaries, partner engagements, long-term 
analysis for campaign planning, and evaluation of cyber threats. A 
second is scientific and technical intelligence support to the 
acquisition process. A third problem area is lack of in-depth expertise 
in the analytic workforce.
    The committee asked you whether you agreed with the IG's 
assessment, and, if so, how do you believe the Department can address 
these problems despite declining budgets and personnel levels, while 
sustaining support for counterterrorism and other transnational 
requirements, and the pivot to the Pacific?
    You stated that ``I am not familiar with this assessment, but if 
confirmed, I will review it and discuss the IG's observations with Dr. 
Vickers to ascertain the best way to address the issues raised.''
    What have you done to follow up on this issue since your 
confirmation?
    Answer. I have reviewed the referenced IG report and believe that 
fully addressing its findings are challenged in that, as the Committee 
notes, the Department is in an era of budgetary constraints. 
Nevertheless, a number of initiatives are underway to mitigate the 
concerns raised.
    In the current global environment, the Department's intelligence 
requirements (traditional, non-traditional, acquisition support, cyber, 
and others) are expanding, while our analytic budgets are constrained. 
This limits the ability to fully satisfy our intelligence requirements. 
The enterprise must instead maximize efficiencies, and effectively 
prioritize our Defense Intelligence Enterprise operations to ensure 
that we are applying our available resources against the Department's 
highest needs. As Acting USD(I), and at the direction of Congress, I 
have directed my staff to develop the Integrated Defense Intelligence 
Priorities (IDIP) framework as a means to appropriately integrate the 
full range of Department customer intelligence requirements into one 
tool. If confirmed, I will continue to make the IDIP development a 
high-emphasis effort to effectively allocate and manage our analytic 
efforts against our highest priority requirements.
    I believe that one way to significantly bolster our analytic 
capacity is to leverage and integrate the intelligence capabilities of 
our foreign partners to the maximum extent possible. Accordingly, as 
PDUSD(I) and Acting USD(I) I have made the strengthening and proactive 
expansion of our defense intelligence partner engagement program a 
priority effort. I believe these engagement initiatives, along with 
continued advances in information technology and intelligence sharing 
via capabilities such as Battlefield Intelligence Collection & 
Exploitation System (BICES) can achieve significant benefits in 
enhancing our collective intelligence capacity and detecting and 
preventing threats. If confirmed, I will continue to place significant 
emphasis in this area.
    Regarding analytic workforce expertise, the Department is beginning 
implementation of a skills certification program for all-source 
analysts that will better enable it to assess analyst capabilities and 
to guide future hiring and development of the analyst cadre. If 
confirmed, I will work with the Service and agency leadership to look 
for resource-neutral opportunities to increase our analysts' expertise.
    The demand for Intelligence Mission Data (IMD) is outstripping the 
Department's ability to meet the operational requirements of advanced 
weapons systems, both those fielded and still being acquired. IMD, 
providing the foundation for operational mission data, is the result of 
scientific and technical intelligence (S&TI) analysis, and is used to 
define the capabilities of these advanced weapon systems. There are 
many simultaneous National and DOD efforts underway to better support 
integration of intelligence into the capability development and 
acquisition process to address S&TI support to the acquisition process. 
From policy changes to significant resource reallocation, the 
enterprise has established and is refining a governance structure to 
identify, prioritize, and address resourcing and prioritization of 
cradle-to-grave IMD requirements.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this Committee and other appropriate committees of the Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
Committee, or designated members of this Committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of Defense 
for Intelligence?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this Committee and 
its staff and other appropriate Committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                ------                                


    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain
                        gao satellite oversight
    1. Senator McCain. Mr. Lettre, I understand the Director of 
National Intelligence (DNI) has been aggressively opposed to allowing 
the Government Accountability Office (GAO) to review satellite 
acquisition programs at the National Reconnaissance Office (NRO). As 
you know, the GAO serves an important oversight role and provides 
critical insight into Department of Defense's (DOD) unclassified space 
programs. Do you believe NRO programs should be exempted from the same 
level of waste, fraud, and abuse scrutiny?
    Mr. Lettre. If confirmed, I will fully support congressional 
oversight of the Defense Intelligence Enterprise and continuously 
improve the responsiveness of the Defense Intelligence Enterprise to 
congressional oversight.
    Intelligence Community Directive 114, effective June 30, 2011, 
establishes the Intelligence Community (IC) policy to cooperate ``to 
the fullest extent possible'' with the GAO. DOD Instruction 7650.01, of 
January 27, 2009 sets out the DOD policy to cooperate with the GAO and 
to ``allow the GAO full access to all records that are not exempt from 
disclosure to the GAO.'' I fully support these policies, and their 
appropriate application to the DIE as a whole, including the NRO. Since 
the Defense Intelligence Enterprise is charged to protect some of the 
nation's most sensitive national security information, we must take 
into account established protections for this information in the 
context of the full breadth and scope of GAO reviews.
                       intelligence against isil
    2. Senator McCain. Mr. Lettre, in your opening statement, you list 
as one of your top priorities ``ensuring that current operations 
receive necessary intelligence support''. We have been surprised to 
hear, during our recent trips to the bases conducting operations 
against the Islamic State of Iraq and the Levant (ISIL), that there 
remains a strong demand for more intelligence support, particularly 
from defense support agencies and interagency partners. What steps will 
you take in your position, if confirmed, to review whether operations 
against ISIL are getting sufficient intelligence support and how can 
you help reallocate resources if needed?
    Mr. Lettre. While serving as Acting Under Secretary of Defense for 
Intelligence, I have sought to ensure that current operations receive 
necessary intelligence support, which I would continue to pursue, if 
confirmed. I have traveled in the United States Central Command 
(USCENTCOM) area of operations to seek the perspectives and insights 
from our front line forces and commanders, particularly from our 
special operations forces. Within the Department, my staff has 
supported deep-dive intelligence and operations studies to better scope 
the threat posed by ISIL. I have asked all Defense Intelligence 
Enterprise components to participate in these assessments in order to 
look for any disconnects between headquarters-level views and the 
warfighter, and to better focus the Defense Intelligence Enterprise 
against the global and expanding ISIL threat. A particular area of 
focus has been the need to continuously improve support to targeting, 
enhancing both the capacity and timeliness of reach-back and forward-
based support. While USCENTCOM is leading the Department's response 
against ISIL in Syria and Iraq, the Department recognizes that ISIL is 
a global threat which requires a global, federated response. At 
Secretary Carter's direction, we are reviewing the level of 
intelligence support to counter-ISIL operations and will be ready to 
adjust resource allocation as circumstances dictate.

    3. Senator McCain. Mr. Lettre, why do you think it took so long for 
the Intelligence Community and the military to view ISIL as a terrorist 
entity with state-like capabilities?
    Mr. Lettre. ISIL is a threat to the United States, and it is a 
multi-dimensional one, continuing to undermine security and stability 
in Iraq and Syria, posing a growing challenge transregionally as it 
seeks to solidify a presence in as many as eight other areas in Africa 
and other regions, and posing a serious threat of conducting external 
attacks in Europe and against U.S. interests and the U.S. homeland, 
including through inspiring lone actors.
    The Intelligence Community has been monitoring ISIL, its 
predecessor organizations, and its evolution for some time, but remains 
very challenged by the difficulty of collection against the ISIL 
network. ISIL remains an adaptive and rapidly moving organization, with 
leaders who appear to aspire to govern territory and establish a 
caliphate while also conducting terrorist activities.
    I am not satisfied with our knowledge of this enemy. The 
Intelligence Community has done impressive work to continue to improve 
our collection and build our analytic expertise in understanding ISIL, 
its centers of gravity, and its vulnerabilities, but we need to 
continue to focus efforts on further improving our intelligence 
posture, and providing support to all of the lines of effort focused on 
degrading and defeating ISIL. If confirmed, I intend to continue to 
seek to catalyze these intelligence efforts within the defense 
intelligence enterprise.

    4. Senator McCain. Mr. Lettre, what steps will you take to ensure 
that the defense intelligence enterprise is more nimble and capable of 
supporting operations from the moment those operations begin?
    Mr. Lettre. In today's environment, it is more important than ever 
for the Defense Intelligence Enterprise to adapt rapidly to changing 
conditions. An important part of our responsibilities is ensuring the 
best possible support to warfighters. This means being prepared to 
adjust the level and the type of support as quickly as circumstances 
demand. For established contingency plans (CONPLANs), the Department 
has a process that identifies Combatant Command (CCMD) priorities for 
intelligence support, evaluates current capabilities, and identifies 
shortfalls and knowledge gaps. Each CONPLAN has a National Intelligence 
Support Plan (NISP) in which Combat Support Agencies (CSA) provide a 
detailed concept of support. My staff reviews the NISPs and works with 
the CSAs to ensure the CONPLAN is realistic, executable, and nimble in 
delivering capabilities to support CCMD operations. For unanticipated 
contingencies, an abbreviated version of this process can be applied to 
ensure optimized intelligence support to CCMD priorities.
    Through this process, we strive to ensure that the combatant 
commanders have the right mix of intelligence assets they require, 
including support from National Technical Means.
    For high priority operations, senior leader involvement is 
essential to provide oversight at all levels in order to expedite 
allocation of assets to address identified shortfalls. Intelligence 
support is a limited commodity, and difficult allocation decisions are 
necessary to mitigate risk as much as possible. If confirmed, I will 
seek to drive the kind of constant dialogue essential to ensuring that 
urgency of support is well understood, and to focus all members of the 
Defense Intelligence Enterprise toward consistent and strategic 
priorities.

    5. Senator McCain. Mr. Lettre, if you believe a combatant commander 
is not properly allocating resources within the command, and perhaps 
not providing the right support to the warfighter, how can your office 
address or influence that misallocation of resources?
    Mr. Lettre. The Department has established approaches and 
management systems by which we constantly reassess and readjust 
resource allocation based on our priorities and changing world 
circumstances. My office is directly involved in the process run by the 
Joint Staff that results in the Secretary's orders allocating resources 
to combatant commanders. There are multiple points throughout the 
process where USD(I) provides input on appropriate resource allocation. 
We also partner with the combatant commanders, multiple agencies within 
and outside the Department of Defense, and many foreign counterparts to 
help develop and improve methods to share information between the 
United States and its friends and allies. Our efforts to assist the 
combatant commanders also include seeking innovative methods to develop 
and field new capabilities where and when it makes good sense to do so 
to support the force of the future. If analysis indicates that senior-
level attention is warranted to address significant reallocation needs, 
I can, and if confirmed, will engage at my level with combatant 
commanders, defense intelligence leaders, and other key stakeholders to 
assess the needs and bring senior-level attention to critical resource 
allocation matters.

    6. Senator McCain. Mr. Lettre, how can your office encourage more 
timely and robust interagency support to the warfighter during the 
beginning phases of a conflict?
    Mr. Lettre. If confirmed, a priority will be to extend integration 
and by extension, foster agility, across National and Defense 
Intelligence programs. The OUSD(I) has established relationships 
throughout the DOD, particularly with the Defense Intelligence 
Enterprise, as well as our interagency partners. In the beginning of a 
crisis or conflict, we leverage these relationships to respond to the 
emergent needs. In my experience, the beginning phases of a conflict 
surface two kinds of needs: surge support of existing resources--
collection and analysis--for new operational activity and senior 
decision-making; and new resource and capacity needs, based on new 
strategic, operational, and tactical challenges. We therefore need to 
continue leveraging mechanisms for rapidly reallocating intelligence 
resources and fulfilling new urgent operational needs. If confirmed, I 
will continue to work closely with the entire intelligence enterprise 
to ensure the warfighter receives the appropriate level of timely 
support.
                            detention policy
    7. Senator Ayotte. Mr. Lettre, Operation Inherent Resolve 
spokesman, Colonel Steve Warren, recently said that ``certainly it's 
our preference to capture in all cases. It allow[s] us to collect 
intelligence.'' If we were to capture Ayman al-Zawahiri or Abu Bakr al-
Baghdadi tonight, where would we detain them for long-term law of war 
detention and interrogation?
    Mr. Lettre. The appropriate disposition for a detainee, consistent 
with U.S. domestic law and international law, is determined on the 
basis of all the facts and circumstances, including the national 
security interests of the United States and its allies and partners, 
and the actions that the detainee has engaged in. Depending on the 
circumstances, detainees may be prosecuted in the United States, 
detained in their home countries, or detained in a third country. The 
U.S. Government makes assessments regarding the appropriate disposition 
of detainees on a case-by-case basis.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand
                       intelligence capabilities
    8. Senator Gillibrand. Mr. Lettre, earlier this year, I asked 
Assistant Secretary of Defense Michael D. Lumpkin about our 
intelligence, surveillance, and reconnaissance (ISR) capabilities and 
he said we have an ISR shortage for all of our operations. Do we 
currently have the appropriate amount of ISR for each combatant 
command?
    Mr. Lettre. No. One of the greatest challenges the Department faces 
in the ISR domain is meeting the warfighter demand for ISR. The 
Department addresses this challenge through a continuous process of ISR 
asset allocation where we carefully balance defense priorities against 
risk. We also seek opportunities to cultivate and enhance information 
sharing agreements with our allies which can help bring partner 
capabilities to bear. Lastly, we explore innovative ways of fielding 
ISR capabilities to support the force of the future. To give one 
example, the Department is actively pursuing an effort to increase its 
unmanned MQ-1/9 ISR combat air over the next four years.

    9. Senator Gillibrand. Mr. Lettre, in a situation where 
transnational terrorism and non-state actors can pose as much of a 
threat as hostile nations, how do we prioritize ISR resources?
    Mr. Lettre. The Department has established processes by which we 
constantly reassess and readjust resource allocation based on our 
priorities and changing world circumstances. This process addresses 
threats to the Nation and its interests posed by state and non-state 
actors alike. If I am confirmed, one of my highest priorities will be 
to drive intelligence operations and activities to satisfy national 
security requirements and shape intelligence efforts to best support 
current operations and political-military decision making. The United 
States must remain vigilant against the threat posed by adversaries 
while aggressively pursuing ISR capabilities to achieve success in 
counter-terrorism and related operations.

    10. Senator Gillibrand. Mr. Lettre, I was dismayed to hear 
allegations that senior officials at U.S. Central Command (CENTCOM) 
were altering the analysts' reports on ISIL to make these reports 
appear more favorable. Not only is this unethical, but our leaders 
cannot make smart decisions if those decisions are not based on fact. 
What can be done to ensure that unethical practices such as these are 
prevented and that those who do so are held accountable?
    Mr. Lettre. The Department shares your concerns about the 
allegations involving the U.S. Central Command. The Department of 
Defense Office of the Inspector General (DOD IG) is currently 
conducting an investigation of the allegations to determine whether 
there was any falsification, distortion, delay, suppression or improper 
modification of intelligence information; any deviations from 
appropriate intelligence analysis processes, or internal controls 
regarding the intelligence analysis; and any misconduct or failure to 
follow established processes. Pending the outcome of the DOD IG 
investigation into the matter, it still remains unknown whether the 
allegations regarding senior officials at CENTCOM are valid or not.
    The Secretary of Defense and the Director of National Intelligence 
recognize the need to ensure the analytic integrity of defense 
intelligence. They have made a point of restating how important it is 
that analysts know they can and should provide their honest analysis 
and are truly expected to call it as they see it. The Defense 
Intelligence Enterprise adheres to a distinct set of standards and 
processes concerning analytic integrity. I am committed to emphasizing 
the importance of analytic integrity in defense analysis; and if 
confirmed, I will seek to ensure these standards are clearly understood 
at all levels across the enterprise.
                                 ______
                                 
    [The nomination reference of the Honorable Marcel J. Lettre 
II
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    August 5, 2015.
    Ordered, That the following nomination be referred to the 
Committee on Armed Services:
    Honorable Marcel John Lettre II, of Maryland to be the 
Under Secretary of Defense for Intelligence, vice Michael 
Vickers, resigned.
                                ------                                

    [The biographical sketch of Honorable Marcel John Lettre 
II, which was transmitted to the committee at the time the 
nomination was referred, follows:]
         Biographical Sketch of Honorable Marcel John Lettre II
Education:
    <bullet>  Harvard University John F. Kennedy School of Government, 
Cambridge, Massachusetts
      o  1998-2000
      o  Masters in Public Policy Degree awarded June 2000

    <bullet>  University of the South, Sewanee, Tennessee
      o  1990-1994
      o  Bachelor of Arts Degree awarded June 1994
Employment Record:
    <bullet>  Office of the Secretary of Defense
      o  Principal Deputy Under Secretary of Defense (Intelligence)
      o  As of 1 May 2015, Acting Under Secretary of Defense 
(Intelligence)
      o  2013-2015

    <bullet>  Office of the Secretary of Defense
      o  Special Assistant to the Secretary of Defense
      o  2011-2013

    <bullet>  Office of the Secretary of Defense
      o  Principal Deputy Assistant Secretary of Defense (Legislative 
Affairs)
      o  2009-2011

    <bullet>  Office of Senate Majority Leader Harry Reid (Minority 
Leader 2005-2006)
      o  Senior National Security Advisor
      o  2007-2009

      o  Senior Defense and Intelligence Advisor
      o  2005-2007

    <bullet>  U.S. House of Representatives Permanent Select Committee 
on Intelligence
      o  Professional Staff Member
      o  2002-2005

    <bullet>  Booz Allen Hamilton
      o  Associate
      o  2000-2001

    <bullet>  Commission to Assess the Organization of the Federal 
Government to Combat the Proliferation of Weapons of Mass Destruction
      o  Senior Policy Analyst
      o  1998-1999

    <bullet>  Office of the President, American University
      o  Senior Staff Assistant
      o  1995-1997

    <bullet>  Carnegie Endowment for International Peace
      o  Junior Fellow/ Program Associate, Nuclear Non Proliferation 
Project
      o  1994-1995
Honors and Awards:
Department of Defense Recognitions
    <bullet>  Department of Defense Medal for Distinguished Public 
Service (2013)
    <bullet>  Office of the Secretary of Defense Medal for Exceptional 
Public Service (2011)
Academic Recognitions
    <bullet>  Award for Excellence in Student Teaching (2000)
    <bullet>  Nominee for Best Policy Analysis Exercise (2000)
    <bullet>  Phi Beta Kappa (1994)
    <bullet>  Bachelors Degree awarded Magna Cum Laude, with Honors 
(1994)
    <bullet>  Pi Sigma Alpha Political Science Honor Society (1994)
    <bullet>  Order of the Gown Academic Honor Society (1991-1994)
    <bullet>  Wilkins Scholarship (1990-1994)
    <bullet>  Eagle Scout (1989)

                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by the Honorable 
Marcel J. Lettre II in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    part a--biographical information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Marcel John Lettre II.

    2. Position to which nominated:
    Under Secretary of Defense for Intelligence.

    3. Date of nomination:
    August 5, 2015.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 9, 1972.
    Gainesville, Georgia.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Married to Simmons Covington Lettre (``Simmons'').
    (Maiden name: Renee Fitzsimmons Covington).

    7. Names and ages of children:
    [Nominee responded and the information is contained in the 
committee's executive files.]

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.

    Terry Sanford Senior High School
    Fayetteville, North Carolina
    1987-1990
    High School Diploma (June 1990)

    University of the South
    Sewanee, Tennessee
    1990-1994
    Bachelor of Arts in Political Science (June 1994)

    American University
    Washington, DC
    1995-1996
    Non-Degree Coursework (2 classes in economics)

    Harvard University John F. Kennedy School of Government
    Cambridge, Massachusetts
    1998-2000
    Masters in Public Policy (June 2000)

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    November 2013-Present.
    Principal Deputy Under Secretary of Defense for Intelligence,
    (Acting Under Secretary, May 2015-Present),
    Office of the Secretary of Defense,
    Department of Defense,
    The Pentagon, Washington, DC.

    April 2011-November 2013.
    Special Assistant to the Secretary of Defense,
    Office of the Secretary of Defense,
    Department of Defense,
    The Pentagon, Washington, DC.

    April 2009-April 2011.
    Principal Deputy Assistant Secretary of Defense (Legislative 
Affairs),
    Office of the Secretary of Defense,
    Department of Defense,
    The Pentagon, Washington, DC.

    October 2007-April 2009.
    Senior National Security Advisor,
    Office of Senate Majority Leader Harry Reid,
    U.S. Senate,
    The Capitol, Washington, DC.

    April 2005-October 2007.
    Senior Defense and Intelligence Advisor,
    Office of Senate Majority Leader Harry Reid (2007),
    Office of Senate Minority Leader Harry Reid (2005-2006),
    U.S. Senate,
    The Capitol, Washington DC.

    March 2002-April 2005.
    Professional Staff Member,
    Permanent Select Committee on Intelligence,
    U.S. House of Representatives,
    The Capitol, Washington, DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    Member, Council on Foreign Relations
    Member, Appalachian Trial Conservancy

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Contribution to Obama Victory Fund, October 2012, $2,500.
    Contributions to Friends for Harry Reid, October 2010, $500.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.

    University and Earlier
    Eagle Scout
    Phi Beta Kappa
    Bachelors Degree awarded Magna Cum Laude, with Honors
    Wilkins Scholarship
    Pi Sigma Alpha Political Science Honor Society
    Order of the Gown Academic Honor Society

    Graduate School
    Award for Excellence in Student Teaching
    Nominee for Best Policy Analysis Exercise

    Department of Defense Recognitions
    Department of Defense Medal for Distinguished Public Service
    Department of Defense Medal for Distinguished Public Service, 
Bronze Palm
    Office of the Secretary of Defense Medal for Exceptional Public 
Service

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.

    Interview with Marcel Lettre, ``Transformation Manager: Making 
Defense Intel More Responsive to Today's Threats,'' KMI Media Group, 
May 5, 2015, http://www.kmimediaaroup.com/topics/424-articles-qif/q-a-
marcel-lettre/6678-q-amarcel-lettre

    Ashton B. Carter, with Marcel Lettre and Shane Smith, ``Keeping the 
Technological Edge,'' Chapter 6 in Keeping the Edge: Managing Defense 
for the Future. Cambridge, MA: Preventive Defense Project, Belfer 
Center for Science and International Affairs, Harvard Kennedy School, 
2001.

    Marcel Lettre, ``Observations During the Early Response to the 
World Trade Center Incident, September 11th, 2001,'' Personal narrative 
available on the internet, September 2001.

    Marcel Lettre and James Anderson, eds. Passing the Torch: 
Recommendations to the Next President on Emerging National Security 
Issues, New York, NY: Council for Emerging National Security Affairs, 
November 2000.

    Marcel Lettre, ed. Former-Soviet Nuclear Weapon and Sensitive 
Export Status Report, Washington, DC: Carnegie Endowment for 
International Peace and Monterey Institute, July 1995.

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years of which you have 
copies and are on topics relevant to the position for which you have 
been nominated.

    ``Persistence, Resilience and Innovation: Driving Defense 
Intelligence Transformation in GEOINT.'' U.S. Geospatial Intelligence 
Foundation, Washington DC, June 25, 2015.
    ``Succeeding in the Open--The Military Dimension.'' George T. 
Kalaris Intelligence Conference, Washington DC, September 24, 2015.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No (Currently serving as the Acting Under Secretary of Defense, 
Intelligence).
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Marcel J. Lettre II  
    This 13th day of November, 2015

                                ------                                

    [The nomination of the Honorable Marcel J. Lettre II was 
reported to the Senate by Chairman McCain on December 15, 2015, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on December 16, 2015.]
                              ----------                              


    [Prepared questions submitted to Mr. Gabriel O. Camarillo 
by Chairman McCain prior to the hearing with answers supplied 
follow:]

                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    What modifications to Goldwater-Nichols Act provisions, if any, do 
you believe are necessary for the readiness of the Armed Forces?
    Answer. Goldwater-Nichols constituted a historic and important 
effort to modernize the military for the late 20th century comprised of 
an all-volunteer force. It is also an excellent example of Congress' 
important role in overseeing the Department of Defense and promoting 
reform as means to ensure our national security. As the threats the 
Nation faces continue to evolve, however, it is important to 
continually reassess our organizational structure and processes to 
ensure we are best prepared to defend the country from these threats. 
Accordingly, if confirmed, I am fully committed to working with Air 
Force leadership, my counterparts throughout the Department of Defense 
and Congress to evaluate the success of Goldwater Nichols and whether 
any modifications are prudent.
                                 duties
    Question. Section 8016 of title 10, United States Code, provides 
that the Assistant Secretary of the Air Force for Manpower and Reserve 
Affairs shall have ``as his principal duty the overall supervision of 
manpower and reserve component affairs of the Department of the Air 
Force.''
    If confirmed, what duties do you expect that the Secretary of the 
Air Force will prescribe for you?
    Answer. As you have indicated, the principal duties of the 
Assistant Secretary of the Air Force are to support and execute the 
tasks assigned by the Secretary of the Air Force. It is my 
understanding that these duties include providing guidance, direction, 
and oversight for Air Force military and civilian manpower/personnel 
programs; medical readiness and health care; and Reserve Component 
affairs. The Assistant Secretary is also responsible for oversight of 
the operation of the Air Force Review Boards Agency and its component 
boards. If confirmed, I will work hard to execute these duties to the 
best of my abilities, as well as any other duties or tasks assigned to 
me by the Secretary.
    Question. What actions will you take to enhance your ability to 
perform the duties of the Assistant Secretary of the Air Force for 
Manpower and Reserve Affairs?
    Answer. If confirmed, I will conduct a thorough review of current 
Air Force organizations, programs and personnel dedicated to the 
support of airmen and their families to better understand the specific 
challenges, resources and efforts needed to support the Total Force. If 
confirmed, I will seek input from a broad array of internal and 
external stakeholders committed to the well-being of our airmen, to 
include Congress, and work to maintain open and continuous engagement 
regarding matters affected by my performance of the duties associated 
with this office.
                             relationships
    Question. In carrying out these duties, what would be your 
relationship with the following officials:
    The Secretary of the Air Force.
    Answer. If confirmed, I will maintain regular communication and 
engagement with the Secretary of the Air Force. I will provide the 
Secretary with my honest assessment and advice and support the 
Secretary in the implementation of her decisions and policy.
    Question. The Under Secretary of the Air Force.
    Answer. If confirmed, I will work closely with the Under Secretary, 
including communication on a regular basis.
    Question. The other Assistant Secretaries of the Air Force.
    Answer. If confirmed, I will establish and maintain close and 
professional relationships with each of the Assistant Secretaries and 
seek to foster collaboration, working together to support airmen and 
their families in the day-to-day management and long-range planning 
efforts of the Air Force.
    Question. The General Counsel of the Air Force.
    Answer. The Air Force General Counsel has a significant role to 
play in virtually all policy decisions in the Air Force. If confirmed, 
I expect to have a strong relationship with the General Counsel to 
obtain consistent and sound legal advice in the execution of my duties 
as an Assistant Secretary.
    Question. The Inspector General of the Air Force.
    Answer. If confirmed, I will establish and maintain a constructive 
relationship with the Inspector General as this office has an important 
role in inquiring into and reporting on matters that directly affect 
Air Force readiness (such as efficiency, training, discipline, and 
morale).
    Question. The Chief of Legislative Liaison of the Department of the 
Air Force.
    Answer. If confirmed, I will establish and maintain a close and 
professional relationship with the Director of Legislative Liaison who 
to help the Director ensure that the Air Force maintains positive 
relations with Congress while coordinating the Air Force's legislative 
strategy.
    Question. The Under Secretary of Defense for Personnel and 
Readiness.
    Answer. If confirmed, I intend to maintain a productive and 
effective working relationship with the civilian leadership in the 
Office of the Secretary of Defense, including the Under Secretary of 
Defense for Personnel and Readiness. I will communicate openly and 
directly with the Under Secretary of Defense for Personnel and 
Readiness to articulate the views of the Department of the Air Force, 
the needs of airmen and their families, and their impact on readiness.
    Question. The Principal Deputy Under Secretary of Defense for 
Personnel and Readiness.
    Answer. If confirmed, I would maintain the same productive and 
effective relationship with the Principal Deputy that I intend to 
establish with the Under Secretary of Defense for Personnel and 
Readiness.
    Question. The Assistant Secretary of Defense for Manpower and 
Reserve Affairs.
    Answer. If confirmed, I would expect to establish the same 
productive and effective relationship with the Assistant Secretary of 
Defense for Manpower and Reserve Affairs that I intend to establish 
with all civilian leadership in the Office of the Secretary of Defense.
    Question. The Assistant Secretary of Defense for Readiness.
    Answer. If confirmed, I would expect to establish the same type of 
harmonious relationship with the Assistant Secretary of Defense for 
Readiness that I intend to establish with all civilian leadership in 
the Office of the Secretary of Defense.
    Question. The Chief of Staff of the Air Force.
    Answer. The Chief of Staff of the Air Force, except as otherwise 
prescribed by law, performs his duties under the authority, direction 
and control of the Secretary of the Air Force and is directly 
responsible to the Secretary. If confirmed as the senior civilian 
charged with supervision and direction of policy for manpower and 
reserve affairs, I would work closely with the Chief of Staff to carry 
out the duties prescribed by the Secretary of the Air Force.
    Question. The Deputy Chief of Staff of the Air Force for Manpower 
and Reserve Affairs.
    Answer. I understand that many of the functions and operations 
relating to Air Force personnel are executed by the Deputy Chief of 
Staff for Manpower, Personnel, and Services. If confirmed, I would work 
in concert with the Deputy Chief of Staff for Manpower and Reserve 
Affairs to ensure that such execution is consistent with policies 
approved by the Office of the Secretary of the Air Force.
    Question. The Surgeon General of the Air Force.
    Answer. If confirmed, I will work closely with the Surgeon General 
of the Air Force to ensure the Air Force medical system supports a 
medically ready force and strives to maintain quality medical support 
to airmen.
    Question. The Chief, National Guard Bureau.
    Answer. If confirmed, I expect to maintain a close working 
relationship with the Chief of the National Guard Bureau on matters 
relating to the National Guard and the Air National Guard. Among my 
priorities, if confirmed, will be ensuring that our National Guard is 
capable of meeting mission requirements.
    Question. The Director of the Air National Guard.
    Answer. If confirmed, I would maintain close collaboration and 
clear communication with the Air National Guard. The Reserve Components 
are a critical part of the Total Force and contribute significantly to 
Air Force mission success. If confirmed, one of my priorities will be 
to work hard to understand and address Air National Guard issues and 
challenges.
    Question. The Chief of Air Force Reserve.
    Answer. If confirmed, I expect to also maintain close collaboration 
and clear communication with the Chief of Air Force Reserve. I 
recognize, however, that due to the title 10 mission associated with 
the Air Force Reserve, the specific issues and concerns would be 
distinct.
    Question. Airmen and their families.
    Answer. Airmen and their families form the backbone of Air Force 
readiness and are therefore essential to the success of its missions. 
If confirmed, my top priority will be to promote the interests and 
well-being of airmen and their families in the development of policies, 
programs and procedures under the purview of the Assistant Secretary of 
the Air Force for Manpower and Reserve Affairs.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I believe that my combined policy, business and management 
experience, including the past five and half years in the Department of 
Defense, has prepared me to contribute directly to the success of the 
Air Force through the development of policies, programs and processes 
to address the needs of airmen and their families.
    In my current position as Principal Deputy Assistant Secretary of 
the Army (Acquisition, Logistics & Technology), I help oversee the 
acquisition functions of the Army, including research and development, 
procurement, logistics and sustainment across a significant investment 
portfolio that spans over 600 programs and $72 billion in contracting 
actions for goods and services in fiscal year 2015. This position has 
provided me keen expertise regarding the Department's programming, 
budgeting and execution processes, the impacts of equipment training 
and readiness on title 10 missions, the significant challenges 
associated with talent management and retention as it relates to the 
Army acquisition workforce, and the equipping needs of the Army 
National Guard.
    I have also proudly committed much of the rest of my career to 
public service, having previously served as legislative staff in the 
House of Representatives, as a civil servant in local government, and 
for five and a half years as a civilian appointee in the Department of 
Defense. The needs of our Service men and women have shaped virtually 
every position I held in public service, to include support for quality 
of life programs and base housing at Lemoore Naval Air Station while I 
worked for Rep. Calvin Dooley, the impact of Fort Bliss and Army 
soldiers on the local economy of El Paso, TX, and the equipping needs 
of soldiers for nearly six years in the Department of the Army. During 
my career, I've gained a deeper appreciation for the needs of soldiers, 
sailors, airmen and marines and the vital mission they fulfill in 
defense of our Nation.
    Moreover, as a lawyer in the private sector, I have been involved 
in the development and management of personnel policies and have been 
active in the recruiting, mentoring and talent management efforts. If 
confirmed as Assistant Secretary of the Air Force, I look forward to 
applying this experience in support of the Air Force, airmen and their 
families, and Total Force readiness.
                            major challenges
    Question. In your view, what are the major challenges confronting 
the next Assistant Secretary of the Air Force for Manpower and Reserve 
Affairs?
    Answer. In my view, the most significant challenge facing the 
Assistant Secretary of the Air Force for Manpower and Reserve Affairs 
is ensuring that the Air Force continues to recruit, train, develop and 
retain talented professionals. In a rapidly changing world that 
presents unique challenges to the Department of Defense and our Armed 
Forces, the foundation of success for the Air Force is and will 
continue to be the airmen--Active Duty, guard, reserve, civilians and 
civil air patrol--that carry out the Air Force's many missions. Making 
sure the Air Force continues to recruit, develop, and retain the best 
of our Nation's diverse talent is critical for the future and a major 
focus for the Office of the Assistant Secretary of the Air Force for 
Manpower and Reserve Affairs.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. If confirmed, I would look to build on the Air Force's 
Total Force construct to explore innovative approaches to attracting 
and developing talented professionals in the Air Force.
    Similarly, if confirmed, I would consider new approaches to 
recruit, attract and retain an All-Volunteer Force of agile and 
inclusive airmen. Today's labor market dynamics require flexible, 
modern approaches to make sure the Air Force of the future has the 
numbers, talents, and diversity to needed to remain the best Air Force 
in the world.
    Also, if confirmed, I would carefully review the many current and 
proposed authorities the Services have for managing and developing the 
tremendous talent across the force to make sure they provide maximum 
capability for the Air Force to continue developing and retaining the 
airmen needed for the future.
                systems and support for wounded soldiers
    Question. What is your assessment of the progress made by the Air 
Force to improve the care, management, and transition of seriously ill 
and injured airmen?
    Answer. It is my understanding there has been steady progress 
improving the care of Wounded, Ill and Injured (WII) Airmen as result 
of combined efforts across the Air Force. My understanding is that the 
Air Force has established Care Management Teams to guide WII Airmen 
through their recovery and transition and to ensure they have 
appropriate primary, specialty and mental health care by monitoring 
their access and utilizing clinical case managers. I understand that 
the Air Force currently evaluates WII Airmen through the Disability 
Evaluation System (DES) to ensure those unable to continue serving 
receive their full benefits.
    If confirmed, are there additional strategies and resources that 
you would pursue to increase the Air Force's support for wounded 
airmen, and to monitor their progress in returning to duty or to 
civilian life?
    If confirmed, I will assess the effectiveness of these programs and 
their resources to determine which adjustments or strategies are needed 
to ensure that wounded airmen receive the best support and care 
possible.
                       officer management issues
    Question. As the Assistant Secretary of the Air Force for Manpower 
and Reserve Affairs you would have significant responsibilities with 
regard to officer management policies, the promotion system, and 
recommending officers for nomination to positions of authority and 
responsibility.
    If confirmed, what modifications would you make to provide the Air 
Force the force management tools necessary to meet the needs of the 
21st century joint, all-volunteer force?
    Answer. A strong emphasis on force management is critically 
important to the long-term development of a Total Force capable of 
meeting current and future Air Force missions and requirements. If 
confirmed, I would review the set of management tools applied toward 
this critical function and develop strategies to address any needed 
changes, as appropriate.
    Question. Do you believe the current Air Force procedures and 
practices for reviewing the records of officers pending nomination by 
the President are sufficient to ensure the Secretary of the Air Force, 
the Secretary of Defense, and the President can make informed 
decisions?
    Answer. I have not had the opportunity to conduct a detailed review 
of the processes and procedures used in the Air Force to review officer 
records prior to nomination. If confirmed, I would conduct a review of 
these procedures to ensure that they facilitate informed decisions 
regarding the best qualified officers selected for promotion.
    Question. In your view, are these procedures and practices fair and 
reasonable for the officers involved?
    Answer. If I am confirmed, it is my understanding that one of my 
responsibilities, delegated by the Secretary of the Air Force, would be 
to interview Board Presidents, members and recorders to ensure boards 
follow all applicable laws, instructions and administrative directives. 
If confirmed, this will provide me a great opportunity to interact with 
individuals directly involved with these procedures and practices and 
directly assess their effectiveness and impacts.
    Question. What modifications, if any, to the requirements for joint 
officer qualifications are necessary to ensure that military officers 
are able to attain meaningful joint and service-specific leadership 
experience and professional development?
    Answer. It is my understanding that the requirements for joint 
officer qualifications are currently under review. If confirmed, I will 
carefully evaluate the results to determine their effect on the Air 
Force.
    Question. In your view, what is the impact of joint qualification 
requirements on the ability of the services to select the best 
qualified officers for promotion and to enable officer assignments that 
will satisfy service-specific officer professional development 
requirements?
    Answer. I believe there are benefits to joint qualifications and 
assignments as officers develop experience that is useful for broad 
professional development and future service assignments. I have not had 
a chance to make an assessment of any impacts associated with joint 
assignments on Air Force officer professional development. It is my 
understanding that the Air Force is currently undertaking a review of 
joint officer qualifications and if confirmed, I will study this review 
when completed and engage with the Secretary of the Air Force on any 
changes or modifications deemed appropriate in the area of professional 
development.
    Question. Do you recommend changes to the Defense Officer Personnel 
Management Act (DOPMA) to recruit and retain the best and brightest Air 
Force officers?
    Answer. My understanding is our talent management systems may need 
to be more permeable to attract and retain the Force of the Future. I 
look forward to Secretary Carter's announcement on the Force of the 
Future initiatives. If confirmed, I will assess these initiatives and 
recommendations before engaging with Secretary James on any potential 
changes for the Air Force.
    Question. Do you agree with recent testimony before the Committee 
that the military services should significantly reduce the size and 
number of the officer corps?
    Answer. If confirmed, I will work with Air Force senior leadership 
to review and ensure that our force (Active and Reserve Components), 
our military (officer and enlisted) and civilians, as well as 
contracted support, are sized both effectively and efficiently to meet 
Air Force requirements and missions. Technical Training and Assignment 
of General Officers
    Question. In your view, do a sufficient number of general officers 
have advanced training and degrees in scientific and technical 
disciplines?
    Answer. Although I cannot answer this question definitively at this 
time, if confirmed, I will be in a better position to assess the Air 
Force's needs regarding advanced training and degrees in scientific and 
technical disciplines for general officers.
    Question. Are the career paths for officers with technical skills 
appropriate to ensure that the services can execute complex acquisition 
programs, adapt to a rapidly changing technological threat environment, 
and make informed investment decisions on DOD and Air Force resources? 
If not, what will you do to address this deficiency?
    Answer. I understand that the Air Force goes to great lengths to 
manage its officer corps to ensure it develops a talented, professional 
acquisition workforce to manage investment in critical warfighting 
capabilities for the Air Force. One of my priorities as Principal 
Deputy Assistant Secretary of the Army has been to ensure that talent 
management and training in the Army acquisition workforce enables us to 
respond to a rapidly evolving threat environment calling for expertise 
in key technical areas. If confirmed, I will work with Air Force 
leadership to assess the needs of the Air Force acquisition workforce 
and work collaboratively to address any needed changes in policies or 
programs.
    Question. In your view do current general officer assignment 
policies provide and incentivize qualified officers to serve in 
acquisition programs? Do tour lengths for those assignments enable and 
empower such officers to effectively manage acquisition programs? If 
not, what changes do you believe are necessary to improve the 
effectiveness of senior officers assigned those duties?
    Answer. I have not had an opportunity to review the effect of 
current Air Force officer assignment policies on the management of Air 
Force acquisition programs. If confirmed, this is certainly an area I 
will review in collaboration with Air Force leadership.
                      general officer nominations
    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general officers must be evaluated by senior 
leaders in the Services and in the Office of the Secretary of Defense 
prior to nomination.
    If confirmed, what role would you play in the officer promotion 
system, particularly in reviewing general officer nominations?
    Answer. I have been informed that both the Secretary of the Air 
Force and the Chief of Staff are directly involved in the General 
Officer nomination process. If confirmed, I look forward to supporting 
them through the duties assigned to the Assistant Secretary of the Air 
Force for Manpower and Reserve Affairs.
    Question. What is your assessment of the ability of the Services to 
timely document credible information of an adverse nature for 
evaluation by promotion selection boards and military and civilian 
leaders?
    Answer. My understanding is that the Department of the Air Force 
gathers information from multiple organizations to document and present 
adverse information to promotion selection boards. If confirmed, I will 
be in a better position to assess the timeliness of this process and 
its effect on promotion selection boards.
    Question. If confirmed, what steps will you take to ensure that 
only the best qualified officers are nominated for promotion to general 
officer rank?
    Answer. As previously stated, both the Secretary of the Air Force 
and the Chief of Staff are involved in this matter. If confirmed, I 
will provide my best advice and counsel to the Secretary of the Air 
Force to ensure the Air Force continues to nominate the best and most 
qualified officers for promotion to the rank of General Officer.
            crewing for remotely piloted aircraft squadrons
    Question. The Air Force has been experiencing problems with manning 
its fleet of remotely piloted aircraft (RPA), specifically Predators 
and Reapers. A recent internal Air Force email from the head of Air 
Combat Command to the Air Force Chief of Staff said these fleets are 
being strained to the breaking point because of overstressing air crews 
in trying to maintain 65 RPA orbits. This has been continuing issue 
since demand for UAV services has outstripped capacity to produce 
aircrews from the beginning of UAV deployments.
    Air Force budget documents indicate that the Air Force is planning 
to add 434 personnel authorizations to the MQ-9 force structure in 
fiscal year 2016. Increased authorizations, however, do not equate to 
additional personnel in the squadrons. The Air Force has proposed 
increases to the RPA community in the past that did not result in the 
similar increases in air crews.
    We understand that the fiscal year 2017 Department of Defense (DOD) 
budget request will increase the demand for RPA orbits well beyond 65 
orbits, although the Air Force will not be asked to shoulder the 
responsibility for the additional orbits.
    What steps do you believe the Air Force and DOD should take to 
improve the Air Force's ability to sustain the current force?
    Answer. I have been informed that in response to the current 
shortage of remotely piloted aircraft pilots, the United States Air 
Force has launched several initiatives to improve total manning to 100 
percent within the existing organizational construct. I understand that 
these initiatives will require some time to accomplish and utilize 
Active Duty, Reserve, Guard, Department of the Air Force Civilians, and 
where appropriate, contracted support, operational, training, and 
mission support functions throughout the Intelligence Surveillance and 
Reconnaissance (ISR) Enterprise.
    The RPA Enterprise has grown exponentially, while conducting surge 
operations, over the past 15 years of conflict to support warfighter 
demands. The resourcing for this critical enterprise has occurred 
within the existing personnel and programming constraints of the AF 
which has limited the ability to develop a fully sustainable weapon 
system. If confirmed, I will conduct a review of current and planned 
efforts to address the manning requirements for RPA aircrews and work 
with the Secretary of the Air Force to address any additional steps 
required to meet this demand.
    Question. How would the Air Force deal with additional demand if it 
had to provide aircrews for the additional orbits?
    Answer. My understanding is that the Air Force will continue to 
provide combatant commanders with ISR, situational awareness and strike 
capability. I have been informed that the Air Force would prioritize 
warfighter requirements and explore a range of options to meet the 
additional demand with a mix of Total Force resources, to include 
potential Reserve and Guard mobilization. If confirmed, I would review 
and assess the effect of these strategies before determining whether 
any additional or modified approaches are necessary or appropriate.
    Question. Do you see a need for any changes in legislation to 
enable the Department to solve these RPA crew problems?
    Answer. It is my understanding the National Defense Authorization 
Act for Fiscal Year 2016, Congress included flight, bonus and incentive 
pay provisions for RPA aircrew personnel. If confirmed, I would assess 
the effect of these statutory authorities before making any 
recommendations for additional legislative action.
                   air force end strength reductions
    Question. In the National Defense Authorization Act for Fiscal Year 
2016, Congress authorized an Active Duty end strength for the Air Force 
of 320,715.
    In your view, can the Air Force meet national defense objectives at 
this strength level?
    Answer. Based on information I have received, it is my 
understanding that an Active-Duty workforce of approximately 321,000 
would likely be sufficient to meet today's national defense objectives 
and operational requirements. If confirmed, however, I look forward to 
conducting a review and assessment of the Air Force's end strength 
requirements in coordination with the Air Force leadership.
    Question. If budget caps effective in current law remain in place, 
how will the Air Force's active- and reserve component end strengths be 
impacted?
    Answer. My understanding is that budget caps will drive the Air 
Force to evaluate/re-prioritize its various programs and missions and 
those choices will directly influence Air Force end-strength 
requirements. It is likely that the Air Force would be required to 
divest or trim back missions and explore a corresponding reduction in 
our Total Force workforce. That said, if confirmed, I will have an 
opportunity to further assess the Air Force Total Force requirements 
and will advocate for an active-reserve force mix of the future the 
remains both effective and efficient.
    Question. What is your understanding of the need for additional 
force shaping tools requiring legislation beyond what Congress has 
provided the past three years?
    Answer. I have not yet had an opportunity to review the effects of 
current force shaping tools available to the Air Force. If confirmed, I 
would conduct an assessment of all force shaping tools available to the 
Air Force, including recent authorities provided by the Congress, and 
make recommendations for additional force shaping tools as necessary.
    Question. In your view, should the number of general officers in 
the Air Force be reduced commensurate with the drawdown of total Air 
Force end strength?
    Answer. I have not had the opportunity to review the processes and 
analysis used by the Air Force to right-size the General Officer corps. 
I am aware that the Air Force has implemented reductions required 
across the Department of Defense consistent with the Air Force 
drawdown. If confirmed, I would review these efforts and work with the 
Secretary of the Air Force to determine whether further efforts are 
required.
                            lessons learned
    Question. What do you believe are the major personnel lessons 
learned from the last fifteen years of sustained combat operations 
which you would seek to address if confirmed as Assistant Secretary of 
the Air Force for Manpower and Reserve Affairs?
    Answer. Prolonged combat operations have taken a significant toll 
on airmen, who continue to meet unplanned mission requirements creating 
a normalized surge environment while resources continue to decrease. 
Having the resources to maintain a deliberate and steady force 
structure and end-strength that can adapt to emerging threats is 
imperative to success. The unique skills grown through military service 
need a steady and consistent budgeting process to maintain readiness as 
well as the modernization of weapon systems to carry out the mission. A 
stable and predictable balance of investment between readiness, 
modernization and manpower is required to allow the Air Force to 
adequately train, develop, and equip airmen to meet the demands of a 
complex security environment.
         national guard organization, equipment, and readiness
    Question. Legislative proposals introduced in recent years and 
recommendations of the Commission on the National Guard and Reserves 
have proposed numerous changes to the roles and responsibilities of the 
National Guard and Reserves. Several of the proposed changes have been 
implemented, and numerous others are under consideration.
    How do you assess the changes in the role and authorities of the 
Chief of the National Guard Bureau?
    Answer. From my perspective, the changes to the roles, mission and 
authorities of the Chief of the National Guard Bureau elevated the 
National Guard to a level of visibility needed to ensure it is properly 
equipped and resourced to carry out its dual-role mission.
    Question. How do you assess the changes in the roles and mission of 
the Air National Guard?
    Answer. The Air National Guard is engaged across all Air Force 
mission sets. Like the Regular Air Force, they have undergone 
significant transformation to increase their roles in cyber, space, 
remotely piloted aircraft and other emerging missions our combatant 
commanders need for today's operating environment. While I have not 
been involved in the recent analysis efforts the Air Force has 
undertaken regarding the mission mix between components, I look forward 
to participating and engaging in that effort.
    Question. In your view, do the current Air Force processes for 
planning, programming, and budgeting sufficiently address the 
requirements of the Air National Guard? What is the appropriate role of 
the Chief of the National Guard Bureau and the Director of the Air 
National Guard in this regard?
    Answer. My understanding is that the Air Force planning, 
programming and budgeting process is managed as a Total Force activity 
with full participation from the Air National Guard and the Air Force 
Reserve. The Director of the Air National Guard, as a full member of 
the CNGB staff plays a dual role of participating in the overall Air 
Staff budgeting process while concurrently keeping the CNGB apprised of 
relevant issues. If confirmed, I look forward to engaging with the Air 
National Guard and Air Force Reserve to ensure that a Total Force 
approach is maintained.
    Question. In your view, what should be the Chief of the National 
Guard Bureau's role, if any, in the assignment of Directors and Deputy 
Directors of the Air National Guard?
    Answer. It is my understanding the Directors and Deputy Directors 
of the ANG are appointed by the Secretary of the Air Force in 
consultation with the Chief of Staff of the Air Force and the Chief of 
the National Guard Bureau. I believe this consultative role played by 
the CNGB is appropriate.
                           suicide prevention
    Question. The numbers of suicides in each of the services continue 
to be of great concern to the Committee.
    If confirmed, what role would you play in shaping suicide 
prevention programs and policies for the Department of the Air Force to 
prevent suicides and increase the resiliency of airmen and their 
families?
    Answer. Even one suicide in the Air Force is too many, and I 
understand that the Air Force has responded to this problem through a 
comprehensive approach focusing on airmen fitness, resiliency, care and 
support. It is my understanding that the Air Force Suicide Prevention 
Program employs evidence-based methods and consists of a leadership-
driven, Coordinated Community Approach. I fully support this strategy 
as consistent with a Comprehensive Airman Fitness and Wingman Culture. 
Airmen are impressively resilient but are also subject to many 
challenges. If confirmed, I will work to ensure that the Air Force 
continues to provide a wide range of quality services to support airmen 
and families while firmly establishing a culture of positive support 
where airmen seeking assistance is seen as a sign of strength. If 
confirmed, I will also work with the Secretary of the Air Force to 
implement efforts to reduce suicides by providing oversight and 
assuring that this issue is appropriately prioritized and addressed. I 
will work collaboratively with our sister Services, DOD, VA and other 
stakeholders to optimize our effectiveness, promote resilience and 
ensure that our Airman and families receive the best medical and 
support services.
                      family readiness and support
    Question. Airmen and their families in both the active and reserve 
components have made, and continue to make, tremendous sacrifices in 
support of operational deployments. Senior military leaders have warned 
of concerns among military families as a result of the stress of 
deployments and the separations that go with them.
    What do you consider to be the most important family readiness 
issues for airmen and their families, and, if confirmed, how would you 
ensure that family readiness needs are addressed and adequately 
resourced, especially in light of current fiscal constraints?
    Answer. Taking care of people is the Air Force's number one 
priority. The most important family readiness issues for airmen and 
their families is investment in airmen and family programs and the MWR 
Portfolio. MWR and family programs have a direct impact to retention, 
resiliency, and readiness. These programs contribute directly to 
building a ``community'' of airmen and families. Support for airmen 
family readiness is one of my priorities, as it is vital to the long-
term success of the Air Force. If confirmed, I look forward to 
reviewing and identifying any needs in this area.
                    morale, welfare, and recreation
    Question. If confirmed, what challenges do you foresee in 
sustaining Air Force MWR programs in the future fiscal environment of 
the Air Force?
    Answer. Robust and successful MWR programs contribute significantly 
to mission success while reinforcing the sense of community among 
airmen and their families. Constrained resources present tough 
challenges to the Air Force's efforts to sustain MWR programs. I 
understand that the Air Force leadership recognized the importance of 
MWR programs and recommended funding in the fiscal year 2016 budget and 
out-years consistent with this priority. In the coming years, retaining 
adequate resources for these programs in an uncertain fiscal 
environment presents the greatest challenge. MWR Programs are the right 
investment for airmen and their families; even in times of scarce 
resources as they are directly tied to resilience, morale and 
ultimately readiness/mission performance.
                          military health care
    Question. In your view, what should the Air Force Medical Service 
do to improve access to care in its medical facilities?
    Answer. In my view, to improve access for our airmen and their 
families, the Air Force Medical Service must identify, validate, 
standardize and implement the best access-related practices from across 
the Air Force, the military health system, as well as civilian 
medicine. Additionally, the enhanced care delivery venues the Air Force 
Medical Service already employs should continue to be developed and 
leveraged to ensure that patients receive the right care from the right 
provider, at the right time and in the right setting.
    Question. If confirmed, how would you work with the Surgeon General 
of the Air Force to improve the healthcare experience for airmen and 
their families?
    Answer. Providing excellent healthcare to airmen and their families 
is a paramount objective and if confirmed, I will work with the Surgeon 
General to review current and planned efforts to maintain and improve 
the highest quality and safest care possible.
                 sexual assault prevention and response
    Question. In 2014, there was what the Department described as an 
``unprecedented 53 percent increase in victim reports of sexual 
assault. In fiscal year 2014, victims made 4,660 Unrestricted Reports 
and 1,840 initial Restricted Reports of sexual assault. Also in fiscal 
year 2014, the Department saw the number of victims who converted 
Restricted Reports to Unrestricted Reports increase from an average of 
15 percent to 20 percent. According to the 2014 RAND Military Workplace 
Study approximately 72 percent of servicemember victims who indicated 
they made a sexual assault report said they would make the same 
decision to make a report if they had to do it over again. The Rand 
Study also indicated the percentages of Active Duty personnel who 
experienced unwanted sexual assault declined in 2014, from 6.1 percent 
to 4.3 percent for women and from 1.2 percent to 0.9 percent for men. 
The Department also concluded the estimated gap between reporting and 
prevalence of sexual assaults was at the narrowest point since the 
Department began tracking this data.
    What is your assessment of the Air Force's sexual assault 
prevention and response program?
    Answer. It is my understanding the Air Force is making progress in 
preventing and responding to this crime with support and funding from 
Congress. Since fiscal year 2012, reports of sexual assault in the Air 
Force have risen, while estimated prevalence trends have fallen, 
indicating the program's progress in both preventing sexual assault and 
increasing airmen's confidence in the program. Another indication of 
airmen's confidence is the increase in the percentage of unrestricted 
reports,
    However, the emphasis on these and other Air Force-wide efforts 
must continue and there is still much work to be done. For example, 
I've been informed the Air Force will introduce newly enhanced service-
wide prevention training in January 2016 to continue to further combat 
the problem of sexual assault in our service. If confirmed, improving 
the Air Force's prevention and response efforts will be one of my top 
priorities and I eagerly look forward to the opportunity to work with 
Air Force leadership to further address this crime.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. I believe giving victims the ability to choose between 
filing a restricted or unrestricted report allows access to services 
that are unmatched in the civilian community. In addition, this allows 
victims to seek care confidentially, if they prefer, and to mitigate 
concerns regarding career impact or retaliation. A victim may need 
care, but be reluctant to report an assault because they do not want a 
formal investigation. Until the Air Force instituted restricted 
reporting, these victims were unable to see a SARC and obtain the 
services they so desperately needed to heal. Now victims are able to 
start the healing process and engage in all the support SARC and the 
Air Force provide without being required to participate in a formal 
investigation. This also allows the Air Force to preserve evidence from 
victims who come forward to support future investigations, should they 
later decide to change their report to unrestricted.
    Question. What is your view about the role of the chain of command 
in providing necessary support to the victims of sexual assault?
    Answer. Commanders actively support sexual assault prevention and 
response programs and are responsible for supporting victims, as well 
as for conducting the criminal justice procedures that enable the 
accused to be held appropriately accountable. Commanders notified of a 
sexual assault must take immediate steps to ensure the physical safety, 
emotional security and medical treatment needs of a victim are met, and 
that the appropriate investigative agency and sexual assault response 
coordinator is notified. Furthermore, the commander's role is to 
protect sexual assault victims, witnesses, bystanders, first responders 
and other parties to the incident from coercion, ostracism, 
maltreatment, discrimination, reprisal and retaliation.
    It is my understanding that every commander in the Air Force is 
provided training prior to taking command to ensure that he or she is 
fully informed of all the available resources to support a victim of 
sexual assault. Through their training and support from their sexual 
assault response coordinator, a commander is made aware of the array of 
personnel actions, to include expedited transfers, which are available 
and may be appropriate.
    Question. What is your understanding of the adequacy of Air Force 
resources and programs to provide victims of sexual assault the 
medical, psychological, and legal help they need?
    Answer. I understand that the Air Force provides a multitude of 
resources to assist victims of sexual assault. Regarding legal support, 
the Special Victims' Counsel (SCS) program provides holistic legal 
representation to victims, ranging from advising victims on all aspects 
of the military justice process to traditional legal assistance. 
Victims who do not desire SVC representation can still seek traditional 
legal assistance at the legal office for issues that may stem from a 
sexual assault, such as breaking a lease, divorce or other personal 
legal matters. Further, Victim Witness Assistance Program personnel in 
the legal office assist victims and witnesses through the military 
justice process and assist Sexual Assault Prevention and Response 
personnel and SVCs in providing care to victims.
    My understanding is that victims also have a variety of medical and 
psychological resources available to them. The Air Force Medical 
Service has trained Sexual Assault Nurse Examiners available to every 
Military Treatment Facility to serve as the medical point of contact 
post-assault when medical care for the purposes of collecting forensic 
evidence or assessing and treating medically-related injuries is 
necessary. Victims are offered mental health support by providers who 
are expertly trained to deliver both crisis-counseling services and 
ongoing care often needed when overcoming trauma events.
    If confirmed, I look forward to the opportunity to closely review 
these programs and resources to determine whether any modifications or 
augmentations are needed or appropriate.
    Question. What is your view of the Air Force's Special Victim 
Counsel Program?
    Answer. I've been informed that since the Program's groundbreaking 
establishment in 2013, the Air Force's Special Victims' Counsel Program 
has served 2005 clients, including 58 child clients. In my view, the 
Program has been successful assisting victims of sexual assault 
navigate the military justice process and resolve legal issues 
associated with their sexual assault, to include retaliation and 
privacy concerns. If confirmed, I look forward to supporting the 
Special Victim Counsel program as part of the Air Force's comprehensive 
efforts to address and prevent sexual assault.
    Question. What is your view of the steps the Air Force has taken to 
prevent additional sexual assaults both at home station and deployed 
locations?
    Answer. In my view, the decrease in prevalence and the increase in 
reporting are strong indicators that the Air Force`s efforts are making 
progress. I understand that the Air Force has built a robust response 
system that's unmatched in the civilian community and will continue 
expanding its prevention strategy designed to eliminate sexual assault 
from its ranks. If confirmed, I am committed to supporting these 
efforts.
    Question. What is your view of the adequacy of the training and 
resources Air Force has in place to investigate and prosecute 
allegations of sexual assault?
    Answer. I have not yet had an opportunity to assess the adequacy of 
training and resources employed by the Air Force for investigation and 
prosecution of cases. I am aware that the Air Force established a 
worldwide special victim's investigation and prosecution capability. 
These prosecutors and investigators received specialized training in 
investigating and prosecuting sexual assault cases and currently assist 
other agents and judge advocates across the Air Force in the 
investigation and prosecution of sexual assault cases. If confirmed, I 
will assess the adequacy of these programs and their required resources 
to determine whether any recommended changes are needed.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults occur?
    Answer. I believe that the chain of command is vital in creating 
and maintaining a professional and respectful climate in every military 
unit. The ability to set standards and enforce them through judicial 
and non-judicial punishment is critical to ensuring that all airmen 
reflect Air Force values and standards of conduct.
    Question. Surveys report that up to 62 percent of victims who 
report a sexual assault perceive professional or social retaliation for 
reporting. If confirmed, what will you do to address the issue of 
retaliation for reporting a sexual assault?
    Answer. Addressing fears of retaliation is critical to any efforts 
to encourage greater reporting of sexual assault and providing care for 
victims. Climate surveys and other research indicate, airmen have a 
high level of trust and confidence in their commanders. What is 
becoming more apparent is that the ``retaliation'' that is often 
discussed is in the form of negative responses or a perceived stigma 
from their fellow airmen.
    Retaliation not only harms the lives and careers of victims, 
bystanders, witnesses and first responders, but it also undermines 
military readiness and weakens the culture of dignity and respect. 
Without question, retaliation has no place in the Air Force. If 
confirmed, I intend to work closely with the prevention and response 
professionals to institute education for commanders and airmen at all 
levels about the impact of sexual assault on an individual and proper 
ways to care for one another.
    As part of these efforts, commanders must be prepared and trained 
to understand the immense trauma that accompanies any sexual assault, 
to include the behavioral and mental health issues that may arise in 
connection with these crimes. If confirmed, I will work to ensure that 
in-depth training and guidance on sexual assault trauma is assists 
commanders in their efforts to support victims in recovery.
    Additionally, I understand that a recent change to Air Force policy 
requires airmen be advised of their right to request review by a 
general officer if they believe the Commander's recommendation for 
involuntary (administrative) discharge was initiated in retaliation for 
having made an unrestricted report of sexual assault within the 
previous twelve months. I look forward to further reviewing the effects 
of these and other policies and programs if confirmed.
    Question. Sexual assault is a significantly underreported crime in 
our society and in the military. If confirmed, what will you do to 
increase reporting of sexual assaults by military victims?
    Answer. I believe the key to increased reporting is a two part 
message: First we must to continue emphasize that sexual assault and 
sexual harassment have no place in the Air Force. However, should a 
sexual assault occur, we should encourage victims to select a reporting 
option and get the care they need. To sustain these efforts, we must 
properly resource efforts across the spectrum of reporting, response 
and prevention.
    The most under-reporting group in the Air Force is male victims. In 
the last year, the Air Force specifically focused on the subject of 
``male victimization'' during annual Sexual Assault Prevention and 
Response training. In a further effort to increase reporting, the Air 
Force led the DOD by offering Sexual Assault Prevention and Response 
services to civilian employees. This important effort has opened the 
door for ALL airmen to be treated with dignity and respect, and to be 
empowered to start down the path of healing as valued members of the 
service. If confirmed, I will continue to look for ways to better serve 
victims of this crime.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command, instead of a military 
commander in the grade of O-6 or above as is currently the Department's 
policy, to determine whether allegations of sexual assault should be 
prosecuted?
    Answer. The commander and the judge advocate must continue to play 
a significant role in the effective prosecution of this crime. 
Continuing the strong partnership between commanders and their legal 
advisors is critical to address the needs of victims and to hold 
alleged offenders appropriately accountable. If confirmed, I would 
closely review the current policies and procedures in place to ensure 
that we foster an environment in which victims feel safe and 
comfortable in reporting such crimes, as we continue to work toward 
eradication of sexual assault from the Air Force.
    Question. What additional steps would you take, if confirmed, to 
address the problem of sexual assaults in the Air Force?
    Answer. If confirmed, I will work to ensure that the Air Force 
continues to apply the necessary leadership, resources and manpower 
toward the goal of eliminating sexual assault from the Air Force. I 
believe the Air Force is making progress in these efforts, and the new 
five-year prevention and response strategy General Welsh recently 
signed will help to build on this success. A continued emphasis on a 
comprehensive approach with an emphasis on prevention will help the Air 
Force achieve this goal.
                          religious guidelines
    Question. American military personnel routinely deploy to locations 
around the world where they must engage and work effectively with 
allies and with host-country nationals whose faiths and beliefs may be 
different than their own. For many other cultures, religious faith is 
not a purely personal and private matter; it is the foundation of their 
culture and society. Learning to respect the different faiths and 
beliefs of others, and to understand how accommodating different views 
can contribute to a diverse force is, some would argue, an essential 
skill to operational effectiveness.
    In your view, do policies concerning religious accommodation in the 
military appropriately accommodate the free exercise of religion and 
other beliefs, including individual expressions of belief, without 
impinging on those who have different beliefs, including no religious 
belief?
    Answer. I fully support the Constitutional principles protecting 
the free exercise of an individual's religious views and the freedom 
from established religious practices within the workplace. It is my 
understanding that Air Force policy supports the rights of every Airman 
to practice the religion of their choice or subscribe to no religious 
belief at all. I have not, however, had the opportunity to observe the 
implementation of these policies throughout the Air Force. If 
confirmed, I would continue the Air Force's commitment to upholding the 
Constitutional tenets of the ``free exercise'' and ``establishment'' 
clauses, and review policies as necessary to assure continued 
compliance with the First Amendment.
    Question. Under current law and policy, are individual expressions 
of belief accommodated so long as they do not impact unit cohesion and 
good order and discipline?
    Answer. I understand that Air Force policy is aligned with the law 
and OSD policy supporting an individual's right to express and request 
accommodation for their sincerely held beliefs unless their expressions 
of belief impacts military readiness, unit cohesion, good order, 
discipline, health and safety or mission accomplishment. If confirmed, 
I will review these policies as required.
    Question. In your view, does a military climate that welcomes and 
respects open and candid discussions about personal religious faith and 
beliefs in a garrison environment contribute in a positive way to 
preparing U.S. forces to be effective in overseas assignments?
    Answer. I believe that airmen should confidently express their own 
beliefs while respecting and being sensitive to the viewpoints of 
others who differ from their own. Open, respectful and candid 
discussions will help prepare our airmen to respect the different 
faiths and beliefs of others throughout the world.
    Question. Would a policy that discourages open discussions about 
personal faith and beliefs be more or less effective at preparing 
servicemembers to work and operate in a pluralistic environment?
    Answer. I have not had an opportunity to review the impact such 
discussions have on preparing airmen for missions, but I believe that 
any policy discouraging airmen from exercising their Constitutional 
rights would be less effective at preparing servicemembers to work in a 
pluralistic environment.
    Question. In your view, when performing official military duties 
outside a worship service, should military chaplains be encouraged to 
express their personal religious beliefs and tenets of their faith 
freely, or must they avoid making statements based on their religious 
beliefs?
    Answer. Chaplains should be provided the same opportunities as all 
airmen to respectfully express their personal religious beliefs without 
fear of any adverse personnel action. I understand that chaplains are 
trusted to serve Airman and to understand when it is appropriate to 
engage in discussions of faith, religion, or spirituality to encourage 
personal and family health and to enhance Airman resiliency. I also 
understand that Chaplains are trained and expected to be sensitive to 
the needs and beliefs of a pluralistic Air Force reflecting a diversity 
of beliefs.
    Question. Do you believe chaplains should be tasked with conducting 
non-religious training in front of mandatory formations, even if they 
may be uniquely qualified to speak on the particular topic, such as 
suicide prevention or substance abuse? If so, do you believe guidance 
provided to those chaplains on what they should and should not say with 
respect to their faith is adequate?
    Answer. I understand that Chaplains are professionals trained to 
provide their expertise at these events in an appropriate manner. I 
have not had an opportunity to review in depth the Air Force's policy 
concerning the use of Chaplains in non-religious training. If 
confirmed, I will study this issue to determine if changes in policy 
are necessary.
                           officer accessions
    Question. What, in your view, is the appropriate relative 
distribution from the sources of commission to meet the Air Force's 
officer accessions requirements and sustain the viability of the Air 
Force Academy, Reserve Officer Training Corps, and the Officer 
Candidate School?
    Answer. I understand that the Air Force employs a balance among 
three officer accession sources to develop high quality officers 
reflecting a diversity of education, thought, and background. I 
understand that the Air Force projects approximately 4,447 officer 
accessions in fiscal year 2018 to meet required end strength, which 
will require a balanced mix of officers from these sources. If 
confirmed, I will review the processes and analysis employed to 
determine the relative distribution of accessions and work to ensure 
that a balanced approach is maintained to achieve a talented and 
diverse group of officers.
    Question. As force levels for all the services continue to be 
impacted by both the rising cost of personnel and budget caps, how 
would you, if confirmed, evaluate and make adjustments, if any, to the 
relative distribution among sources of commissioning to meet 
potentially lower officer accession requirements?
    Answer. My understanding is that current approach employed by the 
Air Force affords flexibility to meet changing end strength 
requirements.
    Question. What is your assessment of the ability of the Department 
to restore end strength if required in response to an emerging national 
security threat?
    Answer. I have not yet had an opportunity to assess the efficacy of 
current tools and processes to restore Air Force end strength in 
response to urgent threats and operational needs. I understand that the 
Air Force utilizes accession capacity to maintain the ability and 
flexibility to help surge the Air Force in response to any emerging 
national security threat. If confirmed, I would review these processes 
to determine whether any changes or adjustments are required.
    Question. In your view, does the Defense Officer Personnel 
Management Act need to be updated to support Air Force Officer 
accessions?
    Answer. I have not had sufficient time to review the process for 
conducting Air Force Officer accessions to determine whether DOPMA 
reforms are needed. I am aware that as part of the Department of 
Defense current Force of the Future study, several DOPMA reforms are 
being considered. Several modified approaches to DOPMA could help in 
retaining individual airmen in specific cases and support the 
management of niche or technical career fields where current up-or-out 
models restrict progression, prohibit permeability, and limit retention 
of some key talent. Given the wide reaching effects of such changes, I 
would first undertake a thorough review of the impacts on the Air Force 
and the grounds for legislative reform. .
                    united states air force academy
    Question. What is your assessment of the policies and procedures at 
the United States Air Force Academy to prevent and respond 
appropriately to sexual assaults and sexual harassment and to ensure 
essential oversight?
    Answer. I have not yet had a chance to review the specific policies 
and procedures in place at the Air Force Academy. If confirmed, I would 
expect the Air Force Academy to be in full compliance with OSD and AF-
wide policy.
    Question. What is your assessment of the policies and procedures at 
the United States Air Force Academy to ensure religious tolerance and 
respect?
    Answer. I have not yet had a chance to review the policies and 
procedures in effect at the Air Force Academy. I believe that common 
standards and policies throughout the Air Force, including the Air 
Force Academy, contribute to a culture of religious tolerance and 
respect for diversity. If confirmed, I would expect the Air Force 
Academy to remain in full compliance with OSD and Air Force-wide 
policy.
             assignment policies for women in the military
    Question. The Department of Defense, in January, 2013, rescinded 
the policy restricting the assignment of women to certain units which 
have the primary mission of engaging in direct ground combat 
operations, and gave the military services until January 1, 2016, to 
open all positions currently closed to women, or to request an 
exception to policy to keep a position closed beyond that date, an 
exception that must be approved by the Chairman of the Joint Chiefs of 
Staff and the Secretary of Defense. The services are working now to 
develop gender-free physical and mental standards for all military 
occupations, presumably with the goal of allowing individuals, 
regardless of gender, to serve in those positions if they can meet 
those standards.
    If confirmed, what role will you play in the development and 
implementation of these standards?
    Answer. It is my understanding the Air Force has already developed 
and validated their mental and physical standards as being gender 
neutral and in-compliance with public law. As Assistant Secretary of 
the Air Force for Manpower and Reserve Affairs, my role would be to 
ensure the Air Force implements and maintains these physical and mental 
standards in compliance with these laws. If confirmed, I will help 
ensure the Air Force Inspector General is also engaged to validate the 
physical and mental occupational standards and to ensure that our 
implementing methodologies are in compliance with applicable statutes.
    Question. If confirmed, will you ensure that the standards are 
realistic and preserve, or enhance, military readiness and mission 
capability?
    Answer. Yes. My understanding is that current Air Force policy 
supports the view that operational effectiveness and success results 
from having airmen who are well trained and well led, with the key 
component being airmen who meet the individual physical and mental 
standards regardless of gender.
    Question. Do you believe that decisions to open positions should be 
based on bona fide military requirements? If so, what steps would you 
take to ensure that such decisions are made on this basis?
    Answer. I believe decisions to open positions should be based not 
solely on bona fide military requirements, but should take into account 
unit readiness, cohesion, morale, maintaining the best quality and most 
qualified people, and having a viable career path.
    My understanding is that the Air Force has undertaken several 
studies related to the review of open positions that included 1) 
validation of the physical occupational standards associated with the 
six closed career fields; 2) a re-validation of the physical entry 
standards currently in use for all of our currently open career fields; 
and 3) a re-validation of the mental entry standards for all our career 
fields. If confirmed, I would review these assessments and associated 
criteria before determining whether any adjustments are needed.
    Question. If an exception to policy is requested, what criteria 
should be used to determine whether to grant or deny that exception?
    Answer. I have not had a sufficient opportunity to review cases 
where exceptions to policy would be required. I believe criteria used 
to evaluate such requests would likely take into account impacts on 
unit readiness and talent management among others. If confirmed, I will 
review Air Force career fields to confirm whether such cases exist and 
the factors used in determining whether an exception is warranted. .
                     legislative fellowship program
    Question. Each year, the Services assign mid-career officers to the 
offices of Members of Congress under the Legislative Fellows Program. 
Upon completion of their legislative fellowships, officers are required 
to be assigned to follow-on positions in their services in which they 
effectively use the experience and knowledge they gained during their 
fellowships.
    What is your assessment of the process for the recruitment, 
selection, preparation, and assignment to Members of Air Force officers 
in the Legislative Fellows program?
    Answer. My understanding is the Air Force has a robust vetting, 
placement and follow on process for officers in the Legislative Fellows 
program. I look forward to learning more about it if confirmed.
    Question. What is your assessment of the value of the Legislative 
Fellows program to the Air Force and the utilization of officers who 
have served as legislative fellows?
    Answer. My understanding is the Legislative Fellows Program is part 
of the Professional Military Education portfolio and is very 
competitive. Again, I look forward to learning more about it if 
confirmed.
       management and development of the senior executive service
    Question. What is your vision for the management and development of 
the Air Force senior executive workforce, especially in the critically 
important areas of acquisition, financial management, and the 
scientific and technical fields?
    Answer. Having served as Principal Deputy Assistant Secretary of 
the Army for Acquisition, Logistics and Technology, I have significant 
experience in senior executive talent management in the acquisition 
workforce and the need for expertise in scientific, engineering and 
technical career fields. I believe that a successful talent management 
strategy across all career fields requires several key elements. First, 
success in developing executive talent begins at the earliest stages of 
an individual's career, where mentorship, leader development, retention 
efforts and career broadening experience are all critical in 
identifying the pool of future senior executives. Second, efforts must 
be made to cultivate diversity within the population of senior 
executives, with a range of experience and skills that contribute to 
mission success. Finally, I believe that current executives often 
benefit from continued leadership training and broadening assignments 
to further develop their individual careers.
    In acquisition, engineering and scientific career fields, career 
civilian employees should receive career path counseling early and 
often in their careers. Civilian career opportunities that provide 
growth and responsibility over time are critical to Department-wide 
goals to retain talented professionals in these career fields.
    In all these areas, we must recognize, attract and retain talent to 
meet the needs of a 21st century security environment. If confirmed, I 
look forward to supporting the Secretary of the Air Force in these 
efforts.
                   manpower and personnel sufficiency
    Question. The Air Force has faced challenges to its manpower and 
personnel sufficiency to successfully navigate looming major force 
structure efficiencies in a budget constrained environment, 
particularly with its ISR combat air patrol crew ratios, F-35 Joint 
Strike Fighter program, and RAP community.
    If confirmed, will you commit to monitoring the Air Force's 
progress towards developing a sufficient manpower and personnel program 
to address these challenges?
    Answer. Yes, I will.
    Question. How do you plan on addressing the manpower shortage in 
the RAP community and making the RAP career path a more attractive 
option for future airmen?
    Answer. The innovation that the Air Force has delivered since the 
early 2000's in the realm of remotely piloted vehicles and ISR is truly 
amazing. Continuing to ensure our Air Force can innovate and deliver in 
this career field will be one of my top priorities. I look forward to 
working with others in the Department as well as the Congress to ensure 
that the Air Force meets these critical requirements.
      balance between civilian employees and contractor employees
    Question. The Air Force employs many contractors and civilian 
employees. In many cases, contractor employees work in the same 
offices, serve on the same projects and task forces, and perform many 
of the same functions as federal employees. Both contractors and 
civilians make up an integral part of the Department's total workforce.
    Do you believe that the current balance between civilian employees 
and contractor employees is in the best interests of the Air Force?
    Answer. As noted above, the Department of Defense, including the 
Air Force, currently relies on a total workforce comprised of military, 
civilian employees and contracted support to meet missions and 
requirements. If confirmed, I would work with the Secretary of the Air 
Force, and leaders across the Air Force to assess the current mix of 
military civilians and contracted support against current and projected 
resources and missions while ensuring that the Air Force remains 
compliant with all applicable statutes and policies across the 
Department.
    Question. In your view, has the Air Force utilized contractors to 
perform basic functions in an appropriate manner?
    Answer. I have not yet had an opportunity to review the roles and 
functions assigned to contractors across the Air Force. If confirmed, I 
would work with the Secretary of the Air Force, and leaders across the 
Air Force to assess this matter so as to ensure compliance with the law 
and with OSD policy.
    Question. Do you believe that the Air Force should continuously 
assess ``inherently governmental functions'' and other critical 
government functions, and how they are performed?
    Answer. Yes, I do.
    Question. What should be the primary factor in determining the 
allocation of work between the civilian and contractor workforces?
    Answer. The primary factor should be compliance with rules 
regarding inherently governmental functions. Consideration of the 
duties and functions that should reside within the government must be a 
primary consideration in allocating any work between a civilian 
workforce and contracted support.
    Question. If confirmed, will you work with other appropriate 
officials in the Air Force to review the contractor and civilian force 
mix for cost and mission effectiveness?
    Answer. If confirmed, I would support all efforts to ensure 
compliance with the law, and if modifications are determined to be 
necessary, to work with Congress as necessary.
    Question. Would you agree that the balance between civilian 
employees and contractor employees in performing Air Force functions 
should be determined by the best interests of the Air Force and its 
mission requirements?
    Answer. Yes, I agree.
    Question. If confirmed, will you work to remove any artificial 
constraints placed on the size of the Air Force's civilian and 
contractor workforce, so that the Air Force can hire the number and 
type of employees most appropriate to accomplish its mission?
    Answer. If confirmed, I will work with Air Force leaders to ensure 
compliance with all applicable statutes regarding the civilian-
contractor force mix. I would also review the current and projected 
force mix against mission requirements and recommend adjustments as 
appropriate.
    Question. The Air Force submitted a reprogramming request to the 
congressional defense committees this summer to address civilian 
personnel cost underestimations resulting from a budgeting error and 
indicated that the same issue exists for the fiscal year 2016 budget. 
The Air Force further indicated that had Congress not supported the 
reprogramming request, some civilian employees would have been 
furloughed.
    What steps has the Air Force taken to remedy the budget shortfall 
for fiscal year 2016?
    Answer. I have not yet had an opportunity to review the 
circumstances that gave rise to the reprogramming request in question. 
I understand that the Air Force is currently working to identify 
resources to meet these requirements from other programs and sources. 
If confirmed I will work closely with the Secretary of the Air Force 
and leaders across the Air Force to fully source civilian pay 
requirements for fiscal year 2016 and to prevent similar issues in the 
future, provided that such shortfalls can be identified and addressed 
earlier.
    Question. If confirmed, what steps would you take to ensure this 
personnel management problem is corrected and does not reoccur?
    Answer. If confirmed I will ensure that the Air Force remains 
committed to sourcing the civilian pay funds needed to sustain our 
workforce and that our future budget submissions accurately depict 
civilian workforce resource requirements.
                        headquarters reductions
    Question. The Department of Defense is currently under a mandate to 
reduce its headquarters staff by 20 percent. This mandate included 
guidance from Secretary Carter, who was Deputy Secretary of Defense at 
the time, to strive for a goal of a 20-percent reduction in government 
civilian staff by eliminating activities and to not grow subordinate 
headquarters.
    To this date, how many Air Force civilians have been divested as a 
result of this 20 percent reduction?
    Answer. My understanding is the Air Force fiscal year 2016 budget 
submission included a reduction of 790 management headquarters and 8600 
non-management headquarters civilian positions.
    Question. What financial options were offered to those employees 
who were divested? Was ERA/VSIP used?
    Answer. My understanding is that VERA/VSIP was offered in fiscal 
year 2015.
    Question. How many have been retrained and moved into other jobs 
within the Air Force?
    Answer. It's been explained to me that all remaining reductions or 
outplacements will be made by the end of fiscal year 2016.
    Question. How many of the positions ``reduced'' were cuts to 
unencumbered billeted positions?
    Answer. Of the these 1,400 positions reduced from headquarters, 
administrative, and support activities, about 500 were unencumbered as 
a result of prior sequestration driven hiring controls.
    Question. How many military billets were cut as a result of the 20 
percent reduction?
    Answer. The Air Force fiscal year 2016 budget submission included a 
reduction of 2,200 military positions.
    Question. Provide examples of functions and activities that were 
eliminated as a result of the Air Force's 20 percent headquarters 
reduction.
    Answer. One of the ways the Air Force met this reduction was to 
consolidate installation management support at multiple headquarters 
locations into a single staff.
    Question. Was the reduction met through a 20 percent reduction in 
government civilian staff as directed by Secretary Carter, or was it 
met through a combination of civilian and military billets? Provide the 
percentages for each type of manpower reduced.
    Answer. I haven't been briefed in detail on this topic, but I will 
explore it deeper if confirmed.
    Question. How many billets, military and civilian, were moved from 
management headquarters to subordinate commands and detachments, 
specifically the Twenty Fifth Air Force and the Installation Mission 
Support Center?
    Answer. Again, I haven't been briefed in detail on this topic, but 
am committed to understanding how and why the Air Force took this 
course of action to meet the 20 percent reduction target.
                  acquisition and technology workforce
    Question. The Department of Defense is in a global competition for 
the highest quality STEM professionals at the entry-level, mid-career, 
and senior levels. These individuals are charged with managing billions 
of dollars' worth of taxpayer resources in complex acquisition 
programs, directly providing technical support to military operations, 
supporting the development of technically informed policies and 
regulations in areas ranging from cybersecurity to use of drones; and 
performing world class research and engineering functions in in house 
labs and centers.
    Do you feel that the Air Force can currently compete with the 
private sector for the highest quality technical performers at the 
early career, mid-career, and senior levels?
    Answer. Despite the intensifying domestic and international demand 
for STEM professionals, I believe the Air Force competes well with the 
private sector in attracting, recruiting and retaining our Nation's 
best and brightest. As Secretary Carter recently stated, our airmen 
have the opportunity to work with the most cutting-edge technologies 
spanning everything from robotics to biomedical engineering. I believe 
that the Air Force mission affords opportunities to STEM professionals 
unlike any other outside of the Department of Defense. My experience in 
Army acquisition is consistent. However, the combination of emerging 
threats and the rapid pace of technological change call for further 
efforts to attract, train and develop talented professionals in the 
acquisition workforce. If confirmed, I will work with Air Force 
leadership continue and build upon efforts to ensure we can attract, 
recruit and retain the highest quality technical workforce necessary to 
keep our technological edge.
    Question. How will you work to enhance policies and flexibilities 
necessary to allow the Air Force to compete with the private sector for 
this talent?
    Answer. Over the last several years, the Congress has provided the 
Department of Defense with expanded personnel authorities for our 
technical workforce. Other authorities, such as broadended and 
expedited civilian hiring and compensation authorities, will help the 
Air Force continue to compete with the private sector for the best 
talent. If confirmed, I will review the Air Force's implementation of 
these authorities and tools and ensure that the Air Force adopts the 
necessary policies to fully implement the provided authorities.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this Committee and other appropriate committees of the Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
Committee, or designated members of this Committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Air Force for Manpower and Reserve Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided in a timely manner to 
this Committee and its staff and other appropriate Committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                ------                                


    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain

                       REMOTELY PILOTED AIRCRAFT

    1. Senator McCain. Mr. Camarillo, as you are aware, the 
U.S. Army operates some of the same medium altitude ISR 
platforms as the Air Force, using warrant officers and enlisted 
personnel to supervise and conduct ISR and strike operations, 
and their units are led by few officers. What is your 
assessment of the Air Force reintroducing a warrant officer 
program or using enlisted personnel to operate its Remotely 
Piloted Aircraft (RPA) fleets to increase manning and reduce 
costs, as well as relieve manning level stress on other rated 
career fields?
    Mr. Lettre. Given the ongoing high demand for ISR 
capabilities, is my understanding that the Air Force is 
actively exploring a range of options to address the shortfall 
of RPA operators. My understanding is that the Air Force is 
seriously considering several approaches to meet requirements 
for RPA operators, to include enlisted personnel. As demand for 
critical Air Force assets increases, I believe that the Air 
Force must continue to assess and maximize the full capability 
of its talented officer and enlisted airmen.

                   AIR FORCE WARRANT OFFICER PROGRAM

    2. Senator McCain. Mr. Camarillo, in the Air Force's 
response to the National Commission on the Structure of the Air 
Force's (NCSAF) recommendation (#42) on Up or Out policy, the 
Commission recommends, ``Congress should amend restrictive 
aspects of current statutes that mandate `up-or-out' career 
management policies to enable the Air Force to retain airmen of 
all components actively working in career fields where 
substantial investment in training and career development has 
been made and where it serves the needs of the Air Force.'' In 
your opinion, would reinstituting a warrant officer program in 
the Air Force attract and keep certain skilled people who are 
more interested in remaining in a particular career field 
rather than worrying about additional institutional 
requirements they must accomplish for promotion in the officer 
ranks?
    Mr. Camarillo. My understanding is that the Air Force has 
taken deliberate steps to grow and retain manpower in critical 
areas using several approaches. These include increased 
accessions, retention incentives, retraining efforts and 
reserve component utilization. If confirmed, I would first 
assess the effectiveness of these combined efforts to help 
determine whether alternative strategies are required.

    3. Senator McCain. Mr. Camarillo, do you believe certain 
career fields could receive benefit from a warrant officer 
program in operational or technical positions such pilot 
training instructor pilots, remotely piloted aircraft pilots, 
and cyber warfare specialties?
    Mr. Camarillo. I believe that it is a priority for the Air 
Force to consider a range of options to meet the high demand 
for skilled positions in order to maintain readiness and 
mission effectiveness. If confirmed, I would closely review 
this proposal as part of a comprehensive effort to address 
requirements for technical expertise.
                                ------                                


              Questions Submitted by Senator Kelly Ayotte

                           AIR NATIONAL GUARD

    4. Senator Ayotte. Mr. Camarillo, you are nominated to be 
the Assistant Secretary of the Air Force for Manpower and 
Reserve Affairs. Have you reviewed the January 2014 National 
Commission on the Structure of the Air Force report?
    Mr. Camarillo. Yes.

    5. Senator Ayotte. Mr. Camarillo, the Commission concluded 
that the Air Force has committed the resources necessary to 
allow the Reserve component to ``maintain the same standards of 
skill and operational readiness as the Active component.'' That 
has certainly been my experience, and we could not have carried 
out the wars in Iraq and Afghanistan without the Reserve 
component. The commission also concluded that the ``capability 
delivered by traditional Reservists and Guardsmen who do not 
serve continuously on Active Duty--costs less than the force 
structure provided by `full time' personnel.'' If confirmed, in 
this environment of growing threats and constrained defense 
budgets, will you work with your colleagues to look for 
opportunities where we can maximize the use of Reserve 
component personnel to accomplish missions and provide 
capabilities at a lower cost to the taxpayer?
    Mr. Camarillo. Yes. The Reserve component has provided 
critical support to Air Force missions throughout the course of 
sustained combat operations. If confirmed, I intend to work 
with Air Force leadership to continue to seek opportunities 
where we can maximize the use of Reserve component personnel to 
lower costs while still effectively employing the AF's 
capabilities to fulfill our assigned missions.
                                ------                                


              Questions Submitted by Senator Joe Donnelly

                       AIR FORCE ASSOCIATE UNITS

    6. Senator Donnelly. Mr. Camarillo, in its 2014 report, the 
National Commission on the Structure of the Air Force 
recommended creating more Associate Units. The Commission noted 
that hosting these units on Reserve component bases ``is 
inherently less expensive because those bases tend to have 
fewer non-operational facilities than Active component 
installations do.'' If confirmed, will you work to expand the 
number of Reserve-led Associate Units in the Air Force? Please 
explain.
    Mr. Camarillo. If confirmed, I will work with Air Force 
leadership to explore potential benefits of economically 
feasible basing options, including looking closely at the 
potential benefit of further hosting of associated units on 
Reserve component bases.
                                ------                                


          Questions Submitted by Senator Kirsten E. Gillibrand

                             CYBER SECURITY

    7. Senator Gillibrand. Mr. Camarillo, DOD is continuing to 
expand its Cyber Mission Force, which serves to defend against 
cyberattacks and offer cyber support to military operations. 
Funding is expected to end next year, and it is not clear how 
we will train future cyber warriors after then. What do you 
think should be the role of the different Services and the Air 
Force specifically in training our cyber operators?
    Mr. Camarillo. The development and training of a cyber 
mission workforce remains a critical priority across the 
Department in response to rapidly evolving threats. I recognize 
that the military services, including the Air Force, will play 
a significant role in recruiting, training, and managing talent 
to meet cyber defense requirements. If confirmed, I will work 
with stakeholders to address these requirements currently met 
by NSA and CYBERCOM.

    8. Senator Gillibrand. Mr. Camarillo, if each Service 
trains these cyber warriors separately, how can we ensure each 
service meets a high standard of training?
    Mr. Camarillo. If confirmed, I would work with CYBERCOM, 
the military services and other organizations across the 
Department to ensure that training standards and best practices 
are consistently applied in the development of our cyber 
workforce.

    9. Senator Gillibrand. Mr. Camarillo, the Air Force will 
have cyber protection teams in the Reserve component that will 
serve as part of its contribution to the Cyber Mission Forces. 
What do you see as the role of the Reserve components in 
serving the cyber mission?
    Mr. Camarillo. I see the Reserve components as having a 
critical role as a member of the Total Force Cyber Protection 
Team, operating side-by-side with Active Duty airmen.

                            WOMEN IN COMBAT

    10. Senator Gillibrand. Mr. Camarillo, as I'm sure you are 
well aware, just last week Secretary of Defense Ash Carter 
announced that all combat roles would be open to women, and 
that he would not grant any exceptions to the Services. The Air 
Force has embraced the integration of women, having already 
opened the preponderance of billets to women. What steps are 
needed to ensure integration is completed effectively?
    Mr. Camarillo. As Secretary Carter has stated, integration 
will follow a deliberate process that focuses on readiness and 
combat effectiveness while ensuring that all positions are 
filled according to ability, not gender. My understanding is 
the Air Force is currently working to finalize and submit an 
integration plan to Secretary Carter by January 1, 2016. If 
confirmed, I look forward to working with Air Force leadership 
in the implementation of this policy.

    11. Senator Gillibrand. Mr. Camarillo, how do we ensure 
that women continue to be successful in the Air Force?
    Mr. Camarillo. My understanding is that the Air Force is 
committed to ensuring all of our airmen, regardless of gender, 
have the opportunity to succeed and carry out rewarding careers 
in service to our nation. If confirmed, I look forward to 
supporting ongoing Air Force efforts to promote diversity and 
unlock talent in the workforce. This includes several retention 
initiatives, such as the Career Intermission Program and the 
Air Force's recent establishment of a mentoring program. If 
confirmed, I would review these and other initiatives and work 
with Secretary James to ensure that all servicemembers have an 
equal opportunity to succeed in their careers.
                                ------                                

    [The nomination reference of Mr. Gabriel O. Camarillo 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 13, 2015.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Gabriel Camarillo of Texas, to be an Assistant Secretary of the Air 
Force, vice Daniel Ginsberg.
                                ------                                

    [The biographical sketch of Mr. Gabriel O. Camarillo, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
            Biographical Sketch of Mr. Gabriel O. Camarillo
Education:
    <bullet>  Stanford University Law School
      o  1999-2002
      o  Juris Doctor

    <bullet>  Georgetown University
      o  1995-1998
      o  Bachelor of Arts
Employment Record:
    <bullet>  Office of the Assistant Secretary of the Army 
(Acquisition, Logistics, and Technology), Department of the Army, 
Pentagon, Arlington, VA
      o  Position: Principal Deputy Assistant Secretary of the Army 
(Acquisition, Logistics, and Technology)
      o  December 2012-present
    <bullet>  Office of the Assistant Secretary of the Army 
(Acquisition, Logistics, and Technology), Department of the Army, 
Pentagon, Arlington, VA
      o  Position: Special Assistant to the Assistant Secretary of the 
Army (Acquisition, Logistics, and Technology)
      o  May 2010-December 2012
    <bullet>  Kaufman Legal Group, Los Angeles, CA
      o  Position: Associate
      o  May 2009-May 2010
    <bullet>  Sutton Law Firm, San Francisco, CA
      o  Position: Of Counsel
      o  August 2008-April 2009
    <bullet>  Obama Campaign for Change, Albuquerque, NM
      o  Position: Deputy Voter Protection Coordinator
      o  September 2008-November 2008
    <bullet>  Sutton Law Firm, San Francisco, CA
      o  Position: Associate
      o  August 2004-August 2008
    <bullet>  Office of Representative Calvin Dooley, Fresno, CA
      o  Position: Field Representative
      o  March 2004-August 2004
    <bullet>  Lisa Quigley for Congress, Fresno, CA
      o  Position: Campaign Manager
      o  September 2003-March 2004
    <bullet>  Akin Gump, LLP, Austin, TX
      o  Position: Associate
      o  September 2002-September 2003
    <bullet>  Akin Gump, LLP, Austin, TX
      o  Position: Summer Associate
      o  July 2001-August 2001
    <bullet>  Jenkens and Gilchrist PC, Austin, TX
      o  Position: Summer Associate
      o  June 2001-July 2000
    <bullet>   Adam Schiff for Congress, Pasadena, CA
      o  Position: Finance Consultant
      o  July 2000-August 2000
    <bullet>  Jenkens and Gilchrist PC, Austin, TX
      o  Position: Summer Associate
      o  June 2000-July 2000
    <bullet>  City of El Paso, Texas, Office of Economic Development, 
El Paso, TX
      o  Position: Intern/Research Associate
      o  June 1999-August 1999
    <bullet>  Office of Representative Calvin Dooley, Washington, DC
      o  Position: Legislative Assistant/Deputy Press Secretary
      o  May 1998-May 1999
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Mr. Gabriel O. 
Camarillo in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    part a--biographical information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Gabriel Omar Camarillo

    2. Position to which nominated:
    Assistant Secretary of the Air Force (Manpower & Reserve Affairs)

    3. Date of nomination:
    April 13, 2015.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 25, 1976.
    El Paso, Texas, USA.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Married to Pilar Nicole Tidball.

    7. Names and ages of children:
    [Nominee responded and the information is contained in the 
committee's executive files.]

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    <bullet>  Stanford University Law School, Stanford, CA, 1999-2002, 
Juris Doctor (2002).
    <bullet>  Georgetown University, Washington, DC, 1995-1998, 
Bachelor of Arts (1998).
    <bullet>  St. Mary's University, San Antonio, TX, 1994-1995, 
(Transfer to Georgetown University).
    <bullet>  J.M. Hanks High School, El Paso, TX, 1990-1994, High 
School Diploma.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    <bullet>  Principal Deputy Assistant Secretary of the Army 
(Acquisition, Logistics & Technology), Department of the Army, 
Pentagon, Arlington, VA, December 2012-present.
    <bullet>  Special Assistant to the Assistant Secretary of the Army 
(Acquisition Logistics & Technology), Department of the Army, Pentagon, 
Arlington, VA, May 2010-December 2012.
    <bullet>  Associate, Kaufman Legal Group, Los Angeles, CA, May 
2009-May 2010 (On extended leave of absence from 2010-2014).
    <bullet>  Of Counsel, Sutton Law Firm, San Francisco, CA, August 
2008-April 2009.
    <bullet>  Deputy Voter Protection Coordinator, Obama Campaign for 
Change, Albuquerque, NM, September 2008-November 2008.
    <bullet>  Associate, Sutton Law Firm, San Francisco, CA, August 
2004-August 2008.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    <bullet>  Field Representative, Office of Representative Calvin 
Dooley, Fresno, CA, March 2004-August 2004.
    <bullet>  Intern/Research Associate, City of El Paso, Texas, Office 
of Economic Development, June-August 1999.
    <bullet>  Legislative Assistant/Deputy Press Secretary, Office of 
Representative Calvin Dooley, Washington, DC, May 1998-May 1999.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    California Bar Association
    Texas Bar Association
    Association of the United States Army

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    While practicing law in 2010, I represented the following political 
committees:
    <bullet>  Alfredo Amezcua for Mayor 2010.
    <bullet>  Blue America PAC.
    <bullet>  Bass for Assembly 2008.
    <bullet>  Strengthening California Through Leadership.
    <bullet>  Karen Bass for Congress.
    <bullet>  Adeena Bleich 2009.
    <bullet>  Brave New PAC.
    <bullet>  Friends of Barbara Boxer.
    <bullet>  PAC for a Change.
    <bullet>  Boxer/Franken 2009
    <bullet>  Boxer/Oberstar 2010.
    <bullet>  Reid/Boxer 2010.
    <bullet>  Bradford for Assembly 2009.
    <bullet>  Bradford for Assembly 2010.
    <bullet>  Friends of Betsy Butler for Assembly 2010.
    <bullet>  Courage Campaign Civic Action Fund.
    <bullet>  Courage Campaign Issues Committee.
    <bullet>  Californians for a Democratic Majority.
    <bullet>  Californians for Fair Elections.
    <bullet>  Californians for a Fresh Start.
    <bullet>  John Chiang for Controller 2010.
    <bullet>  Judy Chu for Congress 2010.
    <bullet>  Judy Chu for Congress.
    <bullet>  Coto for Assembly 2008.
    <bullet>  Coto for Assembly 2012.
    <bullet>  California United Homecare Workers PAC.
    <bullet>  California Voters First.
    <bullet>  California Working Families.
    <bullet>  For Our Children's Future.
    <bullet>  Rocky J. Delgadillo for Attorney General.
    <bullet>  California Progress.
    <bullet>  Mitchell Englander for City Council 2011.
    <bullet>  Bob Foster for Mayor 2010.
    <bullet>  Election Watchdog, Sponsored by: Consumer Watchdog 
Campaign.
    <bullet>  Californians for Real Insurance Reform, Sponsored by: 
Consumer Watchdog Campaign.
    <bullet>  Fuentes for Assembly 2010.
    <bullet>  Fuentes Reform CA Ballot Measure Cmte.
    <bullet>  Tamar Galatzan for School Board.
    <bullet>  Tamar Galatzan for City Council 2009.
    <bullet>  Monica Garcia for State Assembly 2010.
    <bullet>  Chris Garland for Assembly 2010.
    <bullet>  Wendy Greuel for Controller 2009.
    <bullet>  Mothers Against Gang Violence.
    <bullet>  Janice Hahn for Lieutenant Governor 2010.
    <bullet>  Friends of Hannah Beth Jackson 2008.
    <bullet>  Hollywood Chamber of Commerce PAC.
    <bullet>  Homes for LA Families.
    <bullet>  Human Rights Campaign: California Marriage PAC--No on 8.
    <bullet>  IBEW, Local No. 11 PAC.
    <bullet>  IBEW, Local 18, AFL-CIO: Water & Power Defense League.
    <bullet>  Believing in a Better California.
    <bullet>  Kevin de Leon 2010.
    <bullet>  Kevin de Leon for Senate 2010.
    <bullet>  Los Angeles Area Chamber of Commerce PAC.
    <bullet>  Committee to Reform LA--Yes on Measure R.
    <bullet>  Los Angeles Area Chamber of Commerce Issues Committee.
    <bullet>  Level the Playing Field 2010.
    <bullet>  Manuel Perez for Assembly.
    <bullet>  Committee to Re-Elect Assemblymember Manuel Perez.
    <bullet>  Padilla for Senate 2010.
    <bullet>  California 2020.
    <bullet>  Dr. Richard Pan for Assembly 2010.
    <bullet>  Taxpayers for Chris Parker for BOE 2010.
    <bullet>  Los Angeles Court Reporters Political Action Committee 
aka PARLAC.
    <bullet>  John A. Perez for Assembly 2010.
    <bullet>  Building California's Future: John A. Perez Ballot 
Measure Committee.
    <bullet>  IJA Plumbers Local 78 PAC.
    <bullet>  Bill Rosendahl for City Council.
    <bullet>  Schiff for Congress.
    <bullet>  USA PAC.
    <bullet>  Local 6434 State PAC.
    <bullet>  Local 6434 Issues Committee.
    <bullet>  SEIU Local 721 State and Local PAC.
    <bullet>  SEIU Local 721 State Issues & Initiatives Committee.
    <bullet>  SEIU Local 721 CLC Workers' Strength Committee.
    <bullet>  Coalition for a Responsible Government.
    <bullet>  Save South Pasadena Schools.
    <bullet> Torres for Assembly 2010.
    <bullet> Californians for Trust, Responsibility, Unity & 
Empowerment PAC.
    <bullet> United Firefighters of Los Angeles City State PAC.
    <bullet> United Firefighters of Los Angeles City Issues Committee.
    <bullet> Mayor's Committee on Governmental Ethics and 
Accountability.
    <bullet> Antonio R. Villaraigosa for Mayor 2009.
    <bullet> Vote Strong CA State PAC.
    <bullet> Citizens for Waters.
    <bullet> Working Californians.
    <bullet> Working Californians Issues Committee.
    <bullet> Das Williams for Assembly 2010.
    <bullet> Women's Political Committee--State.
    <bullet> Women's Political Committee--Federal.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    None.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.

    None.

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years of which you have 
copies and are on topics relevant to the position for which you have 
been nominated.

    <bullet>  March 2015: Army Industry Day, hosted by Aerospace 
Industries Association.
    <bullet>  March 2015: General Officer/Senior Executive Service 
Force Integration Course.
    <bullet>  March 2015: National Defense Industrial Association 
Procurement Division Luncheon.
    <bullet>  November 2014: Gilbert A. Cuneo Lecture, Contract and 
Fiscal Law New Developments Course, Judge Advocate General School.
    <bullet>  October 2014: Association of the United States Army Small 
Business Forum.
    <bullet>  September 2014: Army Acquisition Center of Excellence 
Course.
    <bullet>  June 2014: General Officer/Senior Executive Service Force 
Integration Course.
    <bullet>  February 2014: Munitions Executive Summit.
    <bullet>  January 2014: Fort Bliss Small Business Conference.
    <bullet>  October 2013: Association of the United States Army Small 
Business Forum.
    <bullet>  September 2013: 10th National Small Business Conference, 
National Defense Industrial Association.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Gabriel O. Camarillo  
    This 14th day of April, 2015

                                ------                                

    [The nomination of the Mr. Gabriel O. Camarillo was 
reported to the Senate by Chairman McCain on December 15, 2015, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on December 16, 2015.]
                                ------                                

    [Prepared questions submitted to Mr. John E. Sparks by 
Chairman McCain prior to the hearing with answers supplied 
follow:]

                        Questions and Responses
                                 duties
    Question. Subchapter XII chapter 47 of title 10, United States 
Code, establishes the United States Court of Appeals for the Armed 
Forces (USCAAF) and provides for its organization and administrative 
procedures.
    What is your understanding of the duties and functions of the 
USCAAF and its judges?
    Answer. Congress established the court in 1950 to provide 
specialized independent civilian review of courts-martial with the goal 
of promoting good order and discipline in the Armed Forces while also 
ensuring just treatment of the accused.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I spent 7 years as an infantry officer, 15 years as an 
Active Duty judge advocate, and almost 15 years as the senior adviser 
to a judge on the USCAAF. My duties as an infantry officer included 
time spent as an executive officer and a commanding officer of a rifle 
company. My years as a judge advocate included extensive trial 
experience as a military prosecutor, defense counsel and military 
judge. As adviser to a sitting USCAAF judge, I was intimately involved 
in the research and drafting of appellate opinions for that judge.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of a judge on the USCAAF?
    Answer. I continue to stay abreast of developments in military 
justice and the criminal law generally, and I do not believe there are 
other actions I need to take at this point.
                             relationships
    Question. What are the respective roles of each of the following 
with respect to the military justice system, and if confirmed, what 
would your relationship be with:
    The Secretary of Defense.
    Answer. Under 10 U.S.C. 113, the Secretary of Defense exercises 
``authority, direction, and control'' over the Department of Defense. 
Although the Secretary is not involved in day-to-day military justice 
matters, he is ultimately responsible for setting policy with regard to 
all matters affecting the Department including the area of military 
justice. Article 141 of the UCMJ provides that USCAAF ``is located for 
administrative purposes only in the Department of Defense.'' This is 
consistent with the congressional drafters' intent that the court be 
established as an independent entity outside of the purview of the 
Secretary while also recognizing, at the time, that the court would 
need some level of support. As far as I could tell from my years 
working at the court, this arrangement has worked well and the 
relationship between the Department and the court is a good one. If 
confirmed I would strive to maintain the quality of this important 
relationship.
    Question. The Chief Judge of the USCAAF.
    Answer. Under Article 143, the Chief Judge is determined by 
seniority of commission. The Chief Judge is for all practical purposes 
the ``agency head,'' so to speak. As such, he has a variety of 
administrative duties that the associate judges do not have. I have 
known the current Chief Judge for about 13 years and our relationship 
is one of mutual respect. If confirmed, I expect this relationship of 
mutual respect and collegiality to continue.
    Question. Judges of the CAAF.
    Answer. Except for the administrative duties lodged in the Chief 
Judge, the judges of the USCAAF are equal, differing only in seniority. 
I have known all of the current judges on the court for a number of 
years. As with the current Chief Judge, my relationship with the 
associate judges has been one of mutual respect and I do not expect 
this to change if I am confirmed.
    Question. The military courts of criminal appeals.
    Answer. The courts of criminal appeals are established under 
Article 66 of the UCMJ to conduct mandatory appellate review of cases 
``in which the sentence, as approved, extends to death, dismissal of a 
commissioned officer, cadet or midshipman, dishonorable or bad-conduct 
discharge, or confinement for one year or more.'' I have always been 
impressed with the competence of the judges sitting on these courts and 
the quality of their work. It has been my experience that they have a 
healthy respect for the USCAAF judges and that the relationship between 
the lower courts and the USCAAF is a good one. If confirmed, I would 
not expect this to change.
    Question. The General Counsel of the Department of Defense.
    Answer. Under 10 U.S.C. 140(b), the General Counsel of the 
Department of Defense is the chief legal officer of the Department, and 
performs such duties as the Secretary may prescribe. Though not 
normally involved in the day-to-day operation of the military justice 
system, the General Counsel is substantially involved in the 
formulation of the Department's legal policy and its legislative 
recommendations to Congress. Although I expect my relationship with the 
General Counsel would be one of mutual respect if I am confirmed, I do 
not expect that it will be marked by frequent interaction.
    Question. The Judge Advocates General of the Army, Navy, and Air 
Force, and the Staff Judge Advocate to the Commandant of the Marine 
Corps.
    Answer. Under Article 6 of the UCMJ, the Judge Advocates General 
are statutorily responsible for the administration of military justice 
within their respective services. The relationship of the judges of the 
USCAAF to the Judge Advocates General must therefore, while remaining 
mutually respectful, always maintain the distance essential to the 
appearance, and indeed the actuality, of judicial neutrality and 
independence.
                              legal issues
    Question. What do you anticipate would be the most significant 
legal issues you will be called upon to address if confirmed as a judge 
of the USCAAF?
    Answer. As far as I know, cases involving sex offenses such as 
child pornography, child sex abuse and sexual assault continue to 
occupy a significant portion of the court's docket. Regarding sexual 
assault cases in particular, I anticipate that a number of new issues 
will likely confront the court given the changes to the statutory 
offenses in recent years, including issues likely to arise concerning 
the very important role of the special victims counsel. Secondly, I 
anticipate that the issue of the continued viability of the military 
death penalty may eventually find its way to the court, depending what, 
if anything, the Supreme Court ends up saying about the death penalty 
generally.
                       jurisdiction of the uscaaf
    Question. In your view, has the USCAAF fulfilled the expectations 
of Congress when the Court was established in 1951?
    Answer. Yes. The court continues to provide effective and necessary 
civilian review of military cases and remains an independent bulwark 
against unlawful influence.
    Question. In your view, are there any legislative changes needed 
regarding the role and responsibilities or the jurisdiction of the 
USCAAF?
    Answer. None that come to mind at this time.
                        decisions of the uscaaf
    Question. Please describe the three decisions of the USCAAF since 
2005 which you believe to have been the most significant.
    Answer. United States v. Denedo, 66 M.J. 114 (C.A.A.F. 2008). The 
accused in this case pleaded guilty in 1999 to certain offenses. Seven 
years later he discovered that his court-martial conviction rendered 
him eligible for deportation. He petitioned the Court of Criminal 
Appeals for a writ of error coram nobis alleging that his defense 
counsel had not informed him of this potential consequence. The lower 
court denied his petition and he appealed to the USCAAF. The USCAAF 
held that Denedo had met the requirements for such a writ.
    United States v. Miller, 67 M.J. 385 (C.A.A.F. 2009). This case 
overruled longstanding case law that suggested an accused was on notice 
of a lesser included offense under Article 134 because every enumerated 
offense under the UCMJ was per se prejudicial to good order and 
discipline. Thus, Miller rejected the notion of implied elements.
    United States v. Fosler, 70 M.J. 225 (C.A.A.F. 2011). This case 
held that a specification charged under Article 134 must allege either 
expressly or by necessary implication one of the terminal elements of 
Article 134 or else it fails to state an offense. Previously, the 
express allegation of the terminal elements of Article 134 had not been 
viewed as necessary.
    Question. What is your view of the role of stare decisis in terms 
of prior decisions of the USCAAF?
    Answer. The doctrine of stare decisis is an essential guiding 
principle for any appellate court since it provides consistency and 
stability in the law. There may be instances where a precedent has 
become unworkable or other developments in the law have reduced the 
precedent to nothing more than a less than useful relic of a prior era. 
In such cases the continued vitality of the precedent should be 
examined. Otherwise, courts should adhere to the doctrine for the 
reason stated.
    Question. In view of Article 36 of the UCMJ, what is your view as 
to the hierarchy of sources of law that must be applied by the USCAAF 
in addressing rules of evidence and procedure in the administration of 
the military justice system?
    Answer. Generally, the courts have considered the following 
hierarchy of sources: the Constitution as applied to members of the 
armed forces; the UCMJ and other applicable statutes; the Manual for 
Courts-Martial and other applicable Executive Orders and presidential 
issuances; other rules incorporated into military practice under 
authority recognized by the Manual for Courts-Martial; and other 
executive branch issuances. As a general matter, the courts under 
Article 36 have applied the provisions of the Manual for Courts-Martial 
unless a Manual provision is contrary to or inconsistent with the UCMJ 
or the Constitution.
    Question. In your view, what is the appropriate standard for 
determining when the USCAAF should apply a Rule for Courts-Martial or 
Military Rule of Evidence that is different from the rule generally 
applied in the trial of criminal cases in the Federal district courts?
    Answer. Under Article 36, if the matter is governed by the Manual 
for Courts-Martial, and the provision is ``not contrary to or 
inconsistent with'' the UCMJ or the Constitution, the courts generally 
have determined that the Manual provision is applicable. If there is no 
rule in the Manual, the courts have looked to the rules generally 
applicable to the trial of criminal cases in the federal district 
courts to the extent not inconsistent with the UCMJ. Further, if a 
properly issued executive branch rule is more protective of the accused 
than the rule generally applied in federal courts or at common law, the 
courts generally have viewed the executive branch issuance as 
applicable.
                        military justice system
    Question. In your view, what are the major strengths and weaknesses 
of the military justice system?
    Answer. In my view the following are strengths of the system, 1) 
qualified defense counsel provided free of charge to the accused at 
both the trial and appellate level; 2) Article 31 of the UCMJ which 
affords the accused greater protections against self-incrimination than 
most civilian criminal justice systems; 3) a system of appellate review 
within each service and by the USCAAF with certiorari to the U.S. 
Supreme Court; and 4) sufficient resources devoted to the trial of 
criminal cases so that each case receives the necessary and appropriate 
amount of attention.
    I consider the following to be weaknesses remaining in the system, 
1) because of the very nature of a military organization there remains 
the constant potential for unlawful influence to affect the disposition 
of cases before and after trial; and 2) the military's inability to 
overcome a flawed perception among some members of the public and the 
media that the military justice system is not at all protective of an 
accused person's rights and is therefore, anything but a credible 
criminal justice system.
    Question. In your opinion, does the military justice system afford 
a fair and just system for military personnel accused of violations of 
the UCMJ?
    Answer. In the context of the need to maintain good order and 
discipline, I believe the military justice system is both fair and 
just. However, that is not to say that there isn't well founded 
criticism of the system, or that there are not problems with the system 
upon which reasonable minds might debate. Because the system rests upon 
the delicate balance between maintaining good order and protecting the 
rights of the accused, the military courts, the USCAAF and Congress 
must remain vigilant to ensure that the system is, and is perceived to 
be, a credible criminal justice system.
    Question. In your view, does the military justice system 
appropriately address the rights of victims of offenses prosecuted in 
courts-martial?
    Answer. Prior to the recent, and welcomed, attention to sexual 
assault victims, I would have disagreed with the statement that the 
system appropriately addresses the rights of victims. However, the 
recent emphasis on victims (including provisions in the most recent 
Authorization Act) has resulted in changes that I believe in time will 
sensitize the system to the interests and welfare of all crime victims.
    Question. What is your view of the relationship between the rights 
of service personnel and the disciplinary role of commanders?
    Answer. With the advent of the UCMJ in 1950, I believe the Congress 
struck an appropriate, albeit delicate, balance. Commanders must have 
the authority to enforce good order and discipline in order to maintain 
morale and to ensure the readiness of the fighting force. Thus, the 
UCMJ retains the commander's role as the convening authority with 
respect to referring charges, selecting court members, and post-trial 
review. On the other hand, it provides an accused statutory protection 
against unlawful influence and a robust appellate review process to a 
civilian court completely insulated from any command structure. 
Although there are some very obvious differences between the military 
system and most civilian systems, Congress recognized that there are a 
wide variety of situations arising in the military environment that 
simply have no analog in civilian society.
    Question. Do you think that changes to the military justice system 
are called for in light of the experiences of the Armed Services in 
Iraq and Afghanistan?
    Answer. My perception from afar is that the military justice system 
appears to have adapted to the frenzied pace of a decade or more of 
combat operations. However, Congress may wish to elicit experiences of 
those on the ground to determine whether any changes are warranted.
    Question. In your view, are changes to the military justice system 
called for in light of changes in American criminal jurisprudence?
    Answer. At the moment, I believe the USCAAF has done an admirable 
job of blending elements of federal civilian criminal jurisprudence 
into the military system when it has deemed it appropriate.
                   capital cases in the armed forces
    Question. The ability of the military justice system to provide 
qualified personnel and resources necessary to capably defend and 
prosecute death penalty cases and respond to the constitutional 
requirements associated with such cases has come under scrutiny.
    What is your understanding of the requirements under constitutional 
precedent for the defense of a capital case?
    Answer. Strickland v. Washington, 466 U.S. 668 (1984), is the 
seminal case for examining the performance of defense counsel in 
capital cases. Strickland requires the defendant to prove both that the 
counsel's representation was deficient, and that there is a reasonable 
probability that, but for the counsel's deficiency, the outcome of the 
trial would have been different. In more recent cases, the Supreme 
Court has held that failure to conduct a thorough investigation of 
potential mitigating factors may constitute ineffective assistance of 
counsel. (See Wiggins v. Smith, 123 S.Ct. 2527 (2003); Porter v. 
McCollum, 130 S.Ct. 447 (2009).
    Question. Based on your review of military jurisprudence regarding 
death penalty cases since the U.S. Supreme Court ruling in Furman v. 
Georgia, what are the issues or errors that have most frequently 
resulted in overturning of death sentences on appeal?
    Answer. My experience is that ineffective assistance of counsel is 
the leading reason that military death sentences are overturned.
    Question. What do you consider to be the essential elements in 
preparing court-martial practitioners for the prosecution and defense 
in capital cases?
    Answer. First and foremost, I believe each side of the case should 
employ at least one experienced criminal trial litigator. The defense 
should have at least one lawyer who is specially trained and qualified 
in the trial of capital cases. All counsel should be well trained in 
the use and examination of expert witnesses--particularly, mental 
health experts and mitigation specialists. Although I am far from 
possessing any expertise in capital litigation, my experience in 
reading the records in these types of cases over the years reveals to 
me that these may be areas of concern.
                           command influence
    Question. The problem of command influence, including instances 
involving judge advocates as well as commanders, is a constant threat 
to the military justice system.
    What is your view as to the role of the USCAAF in addressing this 
problem?
    Answer. Because of its unique status as an independent entity, 
separate and apart from the uniformed military establishment, the 
USCAAF remains the bulwark against unlawful influence. I believe the 
court has embraced its responsibility in this area over the years and 
continues to abide by its own view that unlawful command influence is 
the mortal enemy of military justice, and where it is found to exist, 
judicial authorities must take those steps necessary to preserve both 
the actual and apparent fairness of court-martial proceedings.
                                ------                                


    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain
                      military justice credibility
    1. Senator McCain. Mr. Sparks, in your response to advance policy 
questions you stated you consider one of the weaknesses of the military 
justice system to be ``the military's inability to overcome a flawed 
perception among some members of the public and the media that the 
military justice system is not at all protective of an accused person's 
rights and is therefore, anything but a credible criminal justice 
system.'' If confirmed, what would be your role in assuring that our 
military justice system is a credible criminal justice system?
    Mr. Sparks. Senator, I believe this is an issue of lack of 
education on the part of some in the media and some in the public 
generally. In recent years a few civilian lawyers, have given the 
public some insight into the military justice system. However, the 
perspective is generally a relatively narrow one--and this is not a 
criticism. Also, in recent years a few USCAAF judges have participated 
as adjunct professors at some of the local law schools. Certainly, all 
of these efforts have helped to educate the public. However, those of 
us in the military justice community can advance the cause though 
efforts to reach an even broader audience. Therefore, if confirmed, I 
hope to participate in legal education conferences and to speak at 
undergraduate institutions as well as law schools if invited.
                               __________
              Questions Submitted by Senator Kelly Ayotte
                            military courts
    2. Senator Ayotte. Mr. Sparks, given the greater protections now 
available to military defendants, and considering appellate judges' 
inability to observe the tone and demeanor of a witness, among other 
things, do military courts of appeal still need fact-finding authority? 
Why or why not?
    Mr. Sparks. Senator, the issue of the adequacy of the lower courts' 
exercise of their factual sufficiency review is often raised at the 
USCAAF, therefore, it would not be appropriate for me to opine on the 
necessity of such authority. I am, however aware of some of the views 
on both sides of the issue. One view is that this authority is 
virtually unreviewable by the USCAAF, and is simply a relic of a bygone 
era before the UCMJ required military trial judges. Another view is 
that this authority is still necessary to protect an accused from 
overzealous court members who, however imperceptibly, might still be 
vulnerable to the effects of command influence. However, I believe the 
Judge Advocates General are better suited to answer this significant 
policy question.

    3. Senator Ayotte. Mr. Sparks, the requirement for a Care inquiry 
and the often lengthy presentencing hearing prevent servicemembers from 
simply pleading guilty and accepting a negotiated punishment as in a 
civilian court. Since military defendants have greater protections 
against self-incrimination than civilians and have independent counsel 
provided free of charge, is the Care inquiry still necessary, or could 
the military justice system be streamlined with respect to guilty 
pleas? Please explain.
    Mr. Sparks. Senator, it is true that the inquiry required under 
United States v. Care is a more searching inquiry than that used in 
most jurisdictions including the federal district courts. However, in 
my view the inquiry has two advantages. First, notwithstanding the 
talented defense counsel in the system, there are areas of the law that 
remain unsettled. The inquiry allows the military judge to assure 
herself that the accused is admitting guilt to the right offense(s) 
and/or accepting the proper scope of criminal liability. Second, it 
allows the accused to put forth on the record the factual basis for his 
plea which, in turn, gives appellate authorities the ability to more 
effectively exercise their review of the case. So, yes, I believe the 
Care inquiry is still necessary.

    4. Senator Ayotte. Mr. Sparks, Article III judges are ultimately 
responsible for civilian sentences. In the military system, that 
determination is made by the finder of fact; often by juries made up of 
military members with no point of reference for determining a just 
punishment, save the disparate recommendations of opposing lawyers. Do 
you think that military juries should determine sentences? Why or why 
not?
    Mr. Sparks. Senator, both the current system where the accused can 
choose court-martial members for sentencing or a judge and a system 
that would involve only judge-alone sentencing have their advantages. 
The current system is an historical feature of the court-martial system 
as it existed in 1950 when the UCMJ was enacted. Since there were no 
military judges then, the members were the sole sentencing authority. 
Many still think that the traditional model remains well suited for the 
military. Part of the rationale, even today, is that the members from 
the command are better situated than any lawyer to determine what 
sentence best promotes good order and discipline in their commands. 
Further, in 1983 Congress directed the Secretary to establish an 
advisory commission to study a variety of military justice issues. One 
of the issues was whether the sentencing authority should be exercised 
by the military judge alone. That commission concluded that 
participation of military members in court-martial punishment decisions 
fosters understanding of military justice by all servicemembers and 
belief in the fairness of the system. See Report of the Military 
Justice Act of 1983 Advisory Commission (1984). Under the judge-alone 
alternative, it is thought that sentence disparity could be greatly 
reduced and that a wider range of evidence could be presented to a 
judge without fear of its misuse. Although I tend to favor the 
traditional model, I believe the judge-alone model has a number of 
beneficial aspects. Should this issue arise in the committee, I hope it 
will receive thorough consideration.

    5. Senator Ayotte. Mr. Sparks, some military justice practitioners 
complain that it is difficult for military juries--often made up of 
members who have no experience with courts-martial--to choose an 
appropriate sentence from a range that often spans from no punishment 
at all to years in prison. Would it be helpful to provide guidelines 
for sentencing similar to those in the Federal system? Why or why not?
    Mr. Sparks. Senator, I am generally against sentencing guidelines 
for member sentencing since crafting instructions for the lay members 
is likely to cause considerable confusion and to result in unnecessary 
appellate litigation. However, if a judge-alone model is ever adopted, 
some guidance might be useful. Even then, the intricate guidelines used 
in the Article III courts are not likely to work well in the military 
adversarial sentencing setting.
                               __________
          Questions Submitted by Senator Kirsten E. Gillibrand
                            military justice
    6. Senator Gillibrand. Mr. Sparks, there have been a number of 
reports and appeals concerning the lack of transparency of the court-
martial process both at the trial and appellate level. Do you believe 
transparency is important and what role do you see Court of Appeals for 
the Armed Forces (CAAF) having on this issue?
    Mr. Sparks. Senator, I believe that transparency is important in 
the court-martial process. It is my view that access to pleadings and 
other filings, with some limited exceptions (like classified filings), 
can actually enhance the public's understanding of the military justice 
system.

    7. Senator Gillibrand. Mr. Sparks, do you think the military 
justice system should adopt something like PACER [Public Access to 
Court Electronic Records]?
    Mr. Sparks. Senator, I am not familiar enough with the PACER system 
to offer a comparative model. I would simply say that use of FOIA seems 
an overly burdensome and inefficient means for providing access to 
court-martial documents. I believe the USCAAF currently provides online 
access to all briefs in granted cases. Additionally, oral argument 
audio files are available on the court's website. Pleadings and other 
filings are provided free upon request to the Clerk of Court unless the 
filings are sealed or classified. Although the USCAAF can continue to 
serve as a model for access, the issue of uniform access to court 
documents among the services is one that would appear to be within the 
purview of the Secretary.

    8. Senator Gillibrand. Mr. Sparks, Federal civilian prosecutors 
have a uniform standard for indicting a citizen (i.e., reasonable 
likelihood of a conviction). The military has a probable cause 
standard. Do you see that as a problem as it regards crime victim 
expectation of results of trial?
    Mr. Sparks. Senator, I have read no reports nor have I seen any 
data on the probable cause standard as it relates to victim 
expectations. Thus, I am unable to conclude one way or the other 
whether this is a problem.

    9. Senator Gillibrand. Mr. Sparks, what is your position on the 
Service courts overturning sexual assault trial convictions for 
``factual insufficiency"--when those appellate judges were not even at 
the trial, never saw the victim or the demeanor of witnesses, and 
simply read a transcript and decided their judgement outweighs the 
first-hand experience and judgement of the panel that actually heard 
the case and convicted the accused?
    Mr. Sparks. Senator, to a similar question asked by Senator Ayotte, 
I responded as follows:
    ``Senator, the issue of the adequacy of the lower courts' exercise 
of their factual sufficiency review is often raised at the USCAAF, 
therefore, it would not be appropriate for me to opine on the necessity 
of such authority. I am, however aware of some of the views on both 
sides of the issue. One view is that this authority is virtually 
unreviewable by the USCAAF, and is simply a relic of a bygone era 
before the UCMJ required military trial judges. Another view is that 
this authority is still necessary to protect an accused from 
overzealous court members who, however imperceptibly, might still be 
vulnerable to the effects of command influence. However, I believe the 
Judge Advocates General are better suited to answer this significant 
policy question.''

    10. Senator Gillibrand. Mr. Sparks, in your advance policy 
questions, you talk about the perception that the military justice 
system is balanced against the accused, the challenge of undue command 
influence, and the balance that the military justice system strikes. 
You said ``because of the very nature of a military organization there 
remains the constant potential for unlawful influence to affect the 
disposition of cases before and after trial.'' That ``Prior to the 
recent, and welcomed, attention to sexual assault victims, I would have 
disagreed with the statement that the system appropriately addresses 
the rights of victims. However, the recent emphasis on victims 
(including provisions in the most recent Authorization Act) has 
resulted in changes that I believe in time will sensitize the system to 
the interests and welfare of all crime victims.'' And in your response 
to whether the military justice system affords servicemembers a fair 
and just system you said that in the context of good order and 
discipline it does. Do you view good order and discipline as a 
separate, although parallel element to administration of justice?
    Mr. Sparks. Senator, no doubt all would agree that the maintenance 
of good order and discipline is a requirement for an effective fighting 
force. My experiences have shown me that the fair and proper 
administration of justice through use of the military justice system is 
but one means of promoting order and discipline. Another means might be 
the establishment of training programs that inspire confidence and 
foster loyalty and respect not only up and down the chain but also 
among the members of the command. Still another may be the institution 
of programs that keep morale high. I certainly do not profess to be a 
military leadership scholar, but I hope this is a fair response to your 
question as I understand it.

    11. Senator Gillibrand. Mr. Sparks, do you believe that separating 
commanders from the judicial aspect and empowering trained prosecutors 
would lead to a more credible and just system?
    Mr. Sparks. Senator, I am not a policymaker, but during my time as 
an infantry officer and later as a judge advocate, it seemed to me that 
Congress had given the commander an appropriate role in the military 
justice system. I do believe this is an important policy issue worthy 
of debate with valid concerns on both sides of the question. From a 
judicial perspective, this issue does not significantly impact how the 
USCAAF reviews the cases that come before it.

    12. Senator Gillibrand. Mr. Sparks, are you concerned that the 
rhetoric about cracking down on offenders--especially sexual assault 
offenders--regardless of evidence, plays into the narrative that the 
military justice system is not balanced?
    Mr. Sparks. Senator, I am not aware of specific statements you may 
be referencing or by whom such statements may have been made. I can 
only say that the best way to counter inaccurate perceptions of the 
military justice system is to educate the uninformed, whether they are 
members of the media or the public generally. However, in doing so, we 
should be open to hearing ideas from those outside the military justice 
community on improving the system.

    13. Senator Gillibrand. Mr. Sparks, what role does the CAAF have in 
addressing these issues?
    Mr. Sparks. Senator, the issues of the probable cause standard's 
effect on victims' expectations, the factual sufficiency authority of 
the service courts and the commander's role in the military justice 
system are, in my view, policy determinations beyond the purview of the 
CAAF. The main responsibility of the CAAF is 1) to ensure the court-
martial has proceeded in accordance with the procedures and principles 
set forth in the UCMJ and the Manual for Courts-martial and 2) to 
ensure the accused has received a constitutionally fair trial. As for 
addressing how the public perceives the system, I believe CAAF judges, 
as well as others in the field, can and should take the opportunity 
when presented to speak publicly about the military justice system.

    14. Senator Gillibrand. Mr. Sparks, Congress and the CAAF have 
recently strengthened the role of a special victim's counsel at the 
pretrial, trial and appellate stage. Do you agree that victims have 
certain rights both before and during trial that can only be protected 
if the victim has access to both the service appellate courts and CAAF?
    Mr. Sparks. Senator, the USCAAF has held that under certain 
circumstances a sexual assault victim has standing to seek relief in 
the appellate courts including the USCAAF. See LRM v Kastenberg, 72 
M.J. 364 (C.A.A.F. 2013).

    15. Senator Gillibrand. Mr. Sparks, you have served in your current 
position as Commissioner to the Chief Judge of the U.S. Court of 
Appeals for the past 15 years. Do you anticipate any difficulty moving 
from staff to the bench?
    Mr. Sparks. I do not. I have known all of the current judges on the 
court for many years. I served on Active Duty with one judge. I believe 
all of the judges respect my background and experience and our 
relationship has always been one of mutual respect. Since learning of 
my nomination, the judges have been, without exception, very supportive 
as I have moved through the nomination process and each has expressed 
their hope that I will be confirmed.

    16. Senator Gillibrand. Mr. Sparks, having worked closely under 
current and previous judges, how will you be able to bring independent 
judgment to bear on any precedents these judges might have set?
    Mr. Sparks. Senator, in one of my advance policy questions I stated 
my belief that the doctrine of stare decisis is an essential guiding 
principle for maintaining consistency and stability in the law. I 
believe this principle is more important than the view of any 
particular individual. Therefore, the author of any particular opinion 
would be irrelevant to me in determining whether the precedent should 
be followed or overruled.
                               __________
    [The nomination reference of the Mr. John E. Sparks 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 30, 2015.
    Ordered, That the following nomination be referred to the 
Committee on Armed Services:
    John E. Sparks, of Virginia to be a Judge of the United 
States Court of appeals for the Armed Forces for the term of 
fifteen years to expire on the date prescribed by law, vice 
James Edgar Baker, term expiring.
                              ----------                              

    [The biographical sketch of Mr. John E. Sparks, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Mr. John E. Sparks
Education:
    <bullet>  University of Connecticut School of Law
      o  Sept 1983-May 1986.
      o  Juris Doctorate.
    <bullet>  U.S. Naval Academy
      o  Jul 1972-Jun 1976
      o  Bachelor of Science
Employment Record:
    <bullet>  Officer, U.S. Marine Corps, Jun 1972-Jan 1998.
    <bullet>  Special Assistant to the Secretary of Agriculture, Feb 
1998-Jan 1999.
    <bullet>  Principal Deputy General Counsel, Dept of the Navy, Jan 
1999-Dec 2000.
    <bullet>  Commissioner U.S. Court of Appeals for the Armed Forces, 
Dec 2000-Jul 2015.
Honors and Awards:
    <bullet>  Military Awards
      o  Defense Superior Service Medal
      o  Meritorious Service Medal (2 awards)
      o  Navy Commendation Medal (2 awards)
      o  National Defense Medal
    <bullet>  Federal Civilian Awards
      o  Secretary of the Navy Distinguished Public Service Award

                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Mr. John E. 
Sparks in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    part a--biographical information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John Edward Sparks.

    2. Position to which nominated:
    Associate Judge, U.S. Court of Appeals Armed Forces.

    3. Date of nomination:
    July 30, 2015.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 15, 1953.
    La Rochelle, France.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Married to Ruth Annette (Cummings) Sparks.

    7. Names and ages of children:
    [Nominee responded and the information is contained in the 
committee's executive files.]

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.

    Undergraduate:
    Attended: U.S. Naval Academy
    Degree Granted: BS
    Degree Received: 2 Jun 1976

    Graduate:
    Attended: Univ of Connecticut School of Law
    Degree Granted: JD
    Degree Received: 17 May 1986

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    I was employed as commissioner to the Honorable James E. Baker, 
U.S. Court of Appeals for the Armed Forces, from Dec 2000 to Jul 2015. 
I am currently retired from federal service.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Until recently, I served as an adviser to the Military Justice 
Review Group, a working group directed by the Secretary of Defense to 
conduct a comprehensive review of the Uniform Code of Military Justice 
and the Manual for Courts-Martial. My prior government service includes 
duties as a commissioned officer in the U.S. Marine Corps from June 
1976 to January 1998. I spent my last tour of Active Duty as a deputy 
legal advisor on the National Security Council staff (1996-1998). Upon 
my retirement from Active Duty, I served as the Special Assistant to 
the Secretary of Agriculture from February 1998 to January 1999. I left 
that position to assume the duties as Principal Deputy General Counsel 
of the Navy and served until December 2000.
    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    I have no such relationships.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    I am not a member of nor do I hold office in any of the 
aforementioned types of organizations.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.

    Military Awards:
    Defense Superior Service Medal.
    Meritorious Service Medal (2 awards).
    Navy Commendation Medal (2 awards).
    National Defense Medal (2 awards).

    Civilian awards:
    Secretary of the Navy Distinguished Public Service Award.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years of which you have 
copies and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes, to the extent such requests and questions do not include 
judicial deliberative matters.
    (d) Will you cooperate in providing witnesses and briefers in 
response to congressional requests?
    Yes, to the extent such requests and questions do not include 
judicial deliberative matters.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this committee?
    Yes, but see (c) and (d) above.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted committee, or to consult with the committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes, but see (c) and (d) above.
                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                       John E. Sparks  
    This 4th day of September, 2015

                                ------                                

    [The nomination of Mr. John E. Sparks was reported to the 
Senate by Chairman McCain on December 15, 2015, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on April 5, 2016.]
                              ----------                              


    [Prepared questions submitted to Vice Admiral Kurt W. Tidd, 
USN by Chairman McCain prior to the hearing with answers 
supplied follow:]

                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions? If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. As an officer whose career was directly transformed by this 
legislation, I believe the Goldwater-Nichols Act revolutionized the 
U.S. military and significantly improved the conduct of joint 
operations. However after almost three decades and multiple changes to 
the strategic environment, we should welcome a comprehensive review. At 
this time I do not have any specific recommendations for modifications 
to the Act, though I believe we must give serious consideration to 
incentivizing our national security interagency partners to achieve the 
same kinds of improvements that the Goldwater-Nichols Act brought to 
the Department of Defense. If confirmed, I look forward to providing 
this Committee appropriate recommendations on this or other issues.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U. S. Southern Command (SOUTHCOM)?
    Answer. The 2011 Unified Command Plan (UCP) establishes 
USSOUTHCOM's missions, responsibilities, and geographic area of 
responsibility (AOR). The latter encompasses 31 countries and 16 
dependencies and areas of special sovereignty in Central America, South 
America, and the Caribbean. Per the UCP, the Commander of U.S. Southern 
Command is responsible for:

    <bullet>  Detecting, deterring, and preventing attacks against the 
United States.
    <bullet>  Planning for and executing military operations, including 
detection and monitoring of the aerial and maritime transit of illicit 
drugs, and detention operations at Naval Station Guantanamo Bay.
    <bullet>  Ensuring unified actions among subordinate commands.
    <bullet>  Maintaining security of and carrying out force protection 
measures.
    <bullet>  Exercising force protection responsibilities for the 
command.
    <bullet>  Designating and establishing readiness requirements.
    <bullet>  Providing trained and ready joint forces to other 
combatant commands.
    <bullet>  Planning, conducting, and assessing security cooperation 
activities.
    <bullet>  Planning and conducing the evacuation and protection of 
U.S. citizens.
    <bullet>  Providing U.S. military representation to international 
and national agencies.
    <bullet>  Providing advice and assistance to chiefs of U.S. 
diplomatic missions in negotiations of rights, authorizations, and 
facility arrangements required in support of military missions.
    <bullet>  Providing the single point of contact on military matters 
within the AOR.
    <bullet>  Assuming combatant command of security assistance 
organizations in the event of war or an emergency that prevents control 
through normal channels, or as directed.
    <bullet>  Commanding U.S. forces conducting peace or humanitarian 
relief operations.
    <bullet>  Planning for and conducting military support to stability 
operations, humanitarian assistance, and disaster relief.
    <bullet>  Planning for, supporting, and conducting the recovery of 
astronauts, space vehicles, space payloads, and objects.
    <bullet>  Defense of the Panama Canal and Panama Canal area.

    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I am honored the President nominated me to be the Commander 
of U.S. Southern Command. I have served in a variety of U.S. Navy, 
joint, and interagency assignments, including operational and staff 
positions in the Pentagon and National Security Council Staff, as well 
as tours commanding and supporting coalition forces in Operations Iraqi 
Freedom and Enduring Freedom. In particular, my experience commanding 
U.S. Naval Forces Southern Command and U.S. 4th Fleet significantly 
contributed to my understanding of USSOUTHCOM's AOR. Naval forces under 
my command directly supported Joint Interagency Task Force South's 
detection and monitoring mission. Additionally, a number of assignments 
associated with counterterrorism policy and operations introduced me to 
the value of building cooperative networks to understand and target 
adversary networks--an approach well-suited to a number of regional 
security challenges in the USSOUTHCOM AOR. As the former director for 
Operations (J3), Joint Staff, I gained the experience and insight to 
direct the operations of a geographic combatant command, as well as a 
clear understanding of the challenges of joint force allocation and 
management. My current assignment as Assistant to the Chairman of the 
Joint Chiefs of Staff has given me strategic experience to understand 
the complexities and interdependencies of the global security 
environment. I have also gained a deep appreciation for the importance 
of cooperating with partner nations and forging international 
alliances. In this role I serve as the Chairman's direct liaison with 
the Secretary of State, and work to enhance military support to foreign 
policy objectives. Over the past 2 years I traveled extensively, 
building relationships with senior diplomats and Chiefs of Missions, 
and observing the effective execution of the diplomatic arm of national 
security policy. If confirmed, these collective experiences have 
prepared me to embrace the opportunities and meet the challenges of 
commanding U.S. Southern Command.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the SOUTHCOM 
Commander?
    Answer. If confirmed, I will seek insight from key leaders and 
experts within the Executive and Legislative branches of the U.S. 
Government to enhance my knowledge of U.S. foreign policy objectivities 
in USSOUTHCOM's AOR. I will also engage with military, defense, and 
governmental leaders of nations throughout the region to strengthen 
existing relationships and identify new avenues for cooperation. I will 
reach out to experts in academia and think tanks to better understand 
the evolving internal issues affecting Latin American and Caribbean 
security. Engagement and collaboration with law enforcement agencies 
will also be a focus, as will seeking new opportunities where 
USSOUTHCOM can amplify law enforcement activities in the region. Global 
security challenges are evolving rapidly and I intend to focus on how 
extra-hemispheric actors, as well as illegally armed non-state actors, 
may appear or attempt to gain influence in our hemisphere. Finally, if 
confirmed, I hope to build on my modest appreciation of Spanish and 
begin to familiarize myself with Portuguese. I firmly believe effective 
communication and cultural understanding are critical to successful 
engagements with partner nations, especially in this critical region.
                             relationships
    Question. Section 162(b) of title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the Combatant Commands. 
Other sections of law and traditional practice, however, establish 
important relationships outside the chain of command. Please describe 
your understanding of the relationship of the Commander, U.S. Southern 
Command, to the following:
    The Secretary of Defense.
    Answer. The Commander performs his duties under the authority, 
direction, and control of the Secretary of Defense, and is responsible 
for accomplishing the military missions directed by the President and 
the Secretary of Defense and for exercising command authority over the 
forces assigned by the Secretary of Defense.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense performs duties delegated 
by the Secretary and performs the Secretary's duties in his absence. 
The Commander communicates regularly with the Deputy Secretary and 
provides information and support necessary for the Deputy Secretary to 
perform these duties.
    Question. The Under Secretaries of Defense.
    Answer. The Commander does not have a direct command relationship 
with the Under Secretaries of Defense. The Commander does regularly 
communicate with the Under Secretaries on strategic and regional 
security issues as appropriate.
    Question. The Chairman and Vice Chairman of the Joint Chiefs of 
Staff.
    Answer. The Chairman is the principal military advisor to the 
President and Secretary of Defense and serves as the key communication 
link between the combatant commanders and the President. The Vice 
Chairman performs the duties prescribed by the Chairman, and performs 
the Chairman's duties in his absence or disability. To enable the 
Chairman and Vice Chairman to perform their respective roles and 
duties, the Commander of U.S. Southern Command routinely provides 
information to the Chairman and Vice Chairman on significant events and 
issues in the Command's AOR.
    Question. The Assistant Secretary of Defense for Homeland Defense 
and America's Security Affairs.
    Answer. The Commander does not have a direct command relationship 
with the Assistant Secretary of Defense for International Security 
Affairs, but regularly coordinates with the Assistant Secretary on 
issues related to Western Hemisphere security.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict.
    Answer. The Commander does not have a direct command relationship 
with the Assistant Secretary of Defense for Special Operations and Low 
Intensity Conflict, but regularly exchanges information and coordinates 
with the Assistant Secretary on issues of mutual concern and interest. 
The Assistant Secretary is responsible for many of the activities 
conducted every day within the U.S. Southern Command AOR, including 
counterterrorism, information operations, the Department of Defense 
counternarcotics program, building partnership capacity initiatives, 
and humanitarian and disaster relief efforts.
    Question. The Service Secretaries and Service Chiefs.
    Answer. The Service Secretaries are responsible for administration 
and support to the forces assigned to the combatant commands. The 
Service Chiefs are responsible for organizing, training, and equipping 
forces in their respective departments for assignment to the Combatant 
Commands. The Commander does not have a direct command relationship 
with the Service Secretaries and Service Chiefs, but regularly 
communicates with and coordinates on issues of mutual concern and 
interest, working closely with them to understand service capabilities, 
convey combatant command requirements, and effectively employ service 
capabilities to successfully conduct U.S. Southern Command's mission.
    Question. The other combatant commanders, particularly U.S. 
Northern Command (NORTHCOM).
    Answer. The Commander, U.S. Southern Command, maintains an 
exceptionally close relationship with other combatant commanders, 
especially with the Commander of U.S. Northern Command. The combatant 
commanders are in frequent communication, maintaining a shared 
perspective on trans-regional threats, coordinating on issues of mutual 
concern, sharing information, and preventing or removing any gaps or 
seams along regional boundaries. When directed or specified by the 
Secretary of Defense, the relationship between combatant commanders 
becomes formalized in order to plan and execute specific operational 
plans.
    Question. U. S. Chiefs of Mission within the U. S. Southern Command 
area of responsibility (AOR).
    Answer. The Commander does not have a formal relationship with the 
Chiefs of Mission. The U.S. Ambassador is responsible for directing and 
supervising all U.S. Government activity in the host nation, with the 
exception of U.S. military activities under the direction and 
coordination of the Combatant Commander. However, Geographic Combatant 
Commanders routinely discuss issues of mutual interest and concern with 
the Chiefs of Mission in the Command's AOR and coordinate security 
cooperation activities with the Chief of Mission and country team. The 
combatant commanders negotiate force protection arrangements with the 
Chiefs of Mission as appropriate. If confirmed, I intend to maintain 
close coordination and contact with the Chiefs of Mission throughout 
the U.S. Southern Command AOR, working together to execute our mutual 
responsibilities to achieve our shared national security objectives. I 
will continue to host annual sub-regional conferences with the Chiefs 
of Mission to exchange perspectives and gain regional insight.
                            major challenges
    Question. If confirmed as the Commander of the U.S. Southern 
Command, you will be responsible for all military operations in that 
region. These include operations supporting homeland defense and 
security, counter-narcotics efforts in source and transit countries, 
responses to natural disasters, detainee operations at Guantanamo Bay, 
and the development of democratic values within the militaries of the 
region, among others.
    In your view, what are the major challenges and problems you would 
confront if confirmed as the next Commander of SOUTHCOM?
    Answer. Today, no nation in the region poses a direct, credible 
conventional military threat to the United States. Although there are 
many longstanding border disputes, there is minimal risk of inter-state 
armed conflict between neighboring countries. As I understand it, Latin 
America and the Caribbean has witnessed significant progress--
especially in terms of democratic consolidation; the growth of market-
based economies; and the protection of human rights--however the region 
still faces numerous persistent unresolved challenges.
    Many countries face economic and social challenges, institutional 
problems, and malicious activities by non-state actors. These 
challenges are inter-related. Pervasive inequality, chronic 
unemployment, lack of economic opportunities, and deteriorating citizen 
security drive migration and propel young men and women to join violent 
criminal gangs, as well as set the conditions for radicalization within 
the region's small Muslim communities. Lack of state presence, 
ineffective governance, and weak rule of law provide fertile ground for 
the drug trade and spread of powerful criminal networks; these 
networks, coupled with criminal violence, threaten political, 
financial, and security institutions and jeopardize the stability of 
some partner nations. In certain countries there is a troubling trend 
toward authoritarianism: elected leaders that shun democratic 
standards, abuse human rights, muzzle the press, and suppress 
opposition. Public frustration with endemic corruption feeds social 
protests and, in the case of Guatemala, can even bring down a sitting 
president. Environmental disasters such as hurricanes, earthquakes, 
volcanoes, floods, and drought loom as ever-present dangers.
    Finally, in recent years, growing competition for regional 
influence by nations like China, Russia, and Iran present challenges to 
our aim to broaden security cooperation within and across the region.
    Question. If confirmed, what plans do you have for addressing these 
challenges and problems?
    Answer. If confirmed, I will defend the southern approaches to the 
United States and work with partners in the U.S. Government and the 
region to advance security, prosperity, and stability in the Western 
Hemisphere. Given U.S. Southern Command's minimal force allocation, I 
will maximize the use of all available resources, explore innovative 
opportunities, and leverage the full spectrum of relationships and 
partnerships to best mitigate risks.
    I will prioritize the development of creative and non-traditional 
approaches--including the use of alternative platforms to support DOD's 
detection and monitoring mission--and facilitate improved information 
sharing with partner nations. As appropriate, I will encourage 
bilateral and multilateral training, security cooperation activities, 
and exercises to strengthen defense cooperation; build partner nation 
capacity; encourage increased responsibility and global leadership; and 
advance common interests and values. I will emphasize the ability to 
rapidly and effectively respond to contingencies in concert with 
partner nations, the interagency, and private organizations. I will 
ensure U.S. Southern Command remains vigilant against the threat of 
terrorism and violent extremism by working closely with our partners to 
monitor and if necessary deter terrorist threats to the U.S. homeland 
or our partner nations. Finally, I will continue to ensure the safe, 
humane, and legal treatment of detainees at Joint Task Force 
Guantanamo.
                       building partner capacity
    Question. In the past few years, Congress has provided DOD a number 
of temporary and permanent authorities to build the capacity of partner 
nations' security forces and institutions.
    In your view, what should be our strategic objectives in building 
the capacities of partner nations in the SOUTHCOM AOR?
    Answer. In my view, the strategic objectives of building partner 
capacity (BPC) are to increase the capability of partner militaries to 
address threats within their own territories; to foster regional 
cooperation among and between partner nations; and to promote a 
peaceful, cooperative international order. Probably to a greater degree 
than other Geographic Combatant Commands, U.S. Southern Command relies 
heavily on BPC activities to help generate a layered defense of the 
U.S. homeland. These activities cultivate capable partners who are 
willing and able to work cooperatively to confront shared security 
challenges. Appropriate BPC efforts in the USSOUTHCOM AOR should focus 
on improving regional domain awareness and information sharing; the 
ability of partner nations to support `end game' interdiction 
operations; and the continued professionalization of regional defense 
forces.
    Question. In your view, are existing authorities and resourcing 
sufficient to meet these strategic objectives?
    Answer. In my view, maintaining current authorities to conduct BPC 
and DOD security cooperation activities will be critical to meeting 
these strategic objectives. The role of the Congress in supporting DOD 
by granting the flexibility to address emerging threats will also be 
key to the continued success of our efforts. USSOUTHCOM has long 
operated as an economy-of-force command, receiving minimal force 
allocation and resources. This has forced the Command to accept risk in 
many of its missions. If confirmed, I will assess strategic and 
readiness risks across the spectrum of USSOUTHCOM missions and work to 
mitigate them to the extent possible.
    Question. Are there ways in which existing authorities could be 
reformed to more effectively and efficiently respond to requirements in 
the SOUTHCOM AOR?
    Answer. I know that the Congress recently recognized transnational 
organized crime as an increasing threat to national security and 
granted the Department greater flexibility to address this challenge. 
This type of support--which helps DOD address an adaptive adversary--is 
critical to defending the homeland. If confirmed, I will assess the 
threat environment to ensure I have the flexibility I need to address 
evolving challenges, especially when it comes to missions like 
countering transnational organized crime and counterterrorism, and will 
keep the Congress informed of any necessary or recommended authority 
changes.
    Question. In your view, what is the appropriate balance between 
efforts to build partnership capacity at the tactical and operational 
level and at the institutional and ministerial-level?
    Answer. I believe these efforts should be executed in tandem. As I 
understand it, U.S. Southern Command focuses on building the tactical 
and operational capacity of regional defense and security forces. 
USSOUTHCOM also works closely with organizations and programs like the 
William J. Perry Center and the Defense Institution Reform Initiative 
(DIRI) to promote good governance and accountability, and strengthen 
strategic planning and budgeting processes at the ministerial level.
    Question. Do you believe the ability of a partner nation to sustain 
U.S.-provided equipment and capabilities should be a key factor in 
determining the level and type of assistance to be provided?
    Answer. Absolutely. As I understand it, U.S. Southern Command works 
closely with partner nations to provide appropriate equipment and 
sustainment training tailored to each individual nation's needs and 
abilities. The United States strives to be the partner of choice to 
countries around the world, and to do so we must be responsive 
partners. If confirmed, I will work to ensure the United States remains 
the region's security partner of choice.
          use of military forces for civilian law enforcement
    Question. Throughout the Western Hemisphere there is increased use 
of militaries to conduct policing and public security roles.
    What is your assessment of this trend? In your view, are these 
permanent shifts or temporary measures taken while the capabilities of 
police forces are improved?
    Answer. As I understand it, in the face of rising crime and violent 
insecurity and within the constraints of their own national laws, some 
democratic governments in the region have resorted to deploying their 
militaries to support overwhelmed, outgunned, and at times corrupt 
police forces. In many countries, the military is among the most 
trusted institutions, and public opinion polls show that many of the 
region's citizens support the use of the military in domestic security 
functions. I believe these are and should be temporary measures that 
are taken while civilian police forces are improved and the judicial 
sector is strengthened. This will not happen overnight, however--and 
until then, we should remain supportive as regional militaries fill 
this critical capability gap.
    Question. In your view, what are the benefits and risks of 
militaries taking on more public-security tasks?
    Answer. Civilian leaders in the region are doing their best to 
improve citizen security. However, as militaries take on more public 
security tasks, there is potential risk for human rights violations or 
increased corruption in the military ranks. I understand that U.S. 
Southern Command has a robust Human Rights Initiative. This program 
promotes respect for human rights and subordination to civilian 
authority among the region's military and defense forces. If confirmed, 
I will emphasize the importance of human rights. I will also support 
and encourage partner nations as they transition domestic security 
missions back to civilian police forces.
                    dod counter-narcotics activities
    Question. DOD serves as the single lead agency for the detection 
and monitoring of aerial and maritime foreign shipments of drugs 
flowing toward the U.S. On an annual basis, DOD's counter-narcotics 
(CN) program expends approximately $1.0 billion to support the 
Department's CN operations, including to build the capacity of U.S. 
Federal, State, and local law enforcement agencies, and certain foreign 
governments, and provide intelligence support on CN-related matters and 
a variety of other unique enabling capabilities. Much of this funding 
is directed towards the SOUTHCOM AOR.
    In your view, what is the appropriate role of DOD--and by extension 
SOUTHCOM--in U.S. counterdrug efforts?
    Answer. I believe the Department's current role is appropriate and 
a good use of DOD's unique capabilities. By law, the Department of 
Defense is the lead federal agency for detection and monitoring of 
aerial and maritime transit of illicit drugs into the United States. In 
this role, the Department supports the U.S. Coast Guard and other U.S. 
law enforcement agencies that are engaged in interdiction and 
apprehension activities. U.S. Southern Command accomplishes this 
mission through its component Joint Interagency Task Force South (JIATF 
South). U.S. Southern Command also works to build the capacities of 
partner nation militaries to conduct successful detection, monitoring, 
and interdiction operations in support of U.S. and partner nation law 
enforcement efforts. These efforts complement other U.S. counterdrug 
programs, such as the Department of State's eradication and alternative 
economic development programs and the Drug Enforcement Agency's arrest, 
extradition, and prosecution of illicit traffickers. In its supporting 
role, DOD must consider a much broader perspective than simply 
supporting the disruption of illicit drugs. We must take a network 
perspective--understanding the entire value chain and its facilitation 
of other transnational threats. It is not enough to see and stop the 
drug flow; we must understand the adaptive networks that direct and 
support this flow if we hope to have more of an impact.
    Question. How would you measure the effectiveness of U.S. and DOD 
counter-narcotics programs?
    Answer. Rather than saying effective, I believe Department of 
Defense counternarcotics programs get positive results from very 
limited resources. As I understand it, in fiscal year 2015 JIATF 
South's Operation MARTILLO resulted in the disruption of 192 metric 
tons of cocaine destined for the United States. This success would not 
have been possible without significant contributions by partner nations 
and Allies, who helped disrupt 108 metric tons of cocaine. Every year, 
JIATF South and its international partners disrupt approximately three 
times the amount of cocaine seized at or within U.S. borders--while 
receiving only 1.7 percent of the total U.S. counterdrug budget. Apart 
from measuring cocaine seizures, I also believe it is important to look 
at the impact of U.S. counternarcotics programs on partner nations, 
especially in terms of stability, citizen security, and the capability 
of military and security forces to successfully support and conduct 
counterdrug operations. I am aware of the significant and growing 
number of drug related deaths in the United States. Our national 
strategy places great emphasis on the demand side of the equation, 
while DOD counternarcotics programs contribute primarily to the supply 
side. We will explore how we might do more, in creative and innovative 
combinations.
    Question. In your view, what should be the role of the U.S. in 
countering the flow of narcotics to nations other than the U.S.?
    Answer. Regardless of destination, the flow of narcotics leaves a 
trail of corruption, violence, death, and large sums of money that fund 
nefarious activities and destabilizes entire regions. As the world's 
principal consumer of cocaine, the United States has a responsibility 
to help our partners address this challenge. In my view, the U.S. 
should work to build the capacity of partner nations to counter illicit 
trafficking, both individually and collectively, in the maritime, air, 
and land domains. Given that the globalized illicit economy supports a 
diverse network of organized crime groups, extremist organizations, and 
terrorists, we have a responsibility to aggressively share information 
with other nations, especially as it relates to international security. 
If confirmed, I will seek ways to increase JIATF South's current 
information sharing authorities, and enhance U.S. Southern Command's 
efforts to build partner nation capacity.
                                 heroin
    Question. General John Kelly, Commander of U.S. Southern Command, 
testified before the Armed Services Committee on March 12, 2015 that 
``we are in the middle of a serious epidemic, in--particularly when it 
comes to heroin.'' General Kelly went on to note that ``100 percent of 
it is produced . . . in the Latin America. About half of it is produced 
in Mexico, and the rest of it is produced further south in various 
parts of the Central American isthmus and South America.''
    What is your assessment of the threat posed by the trafficking of 
heroin into the United States from Mexico, Central and South America?
    Answer. The threat posed by heroin in the United States is serious. 
While U.S. demand for cocaine has been decreasing over the past few 
years, demand for heroin has more than doubled since 2007. In response, 
criminal organizations have ramped up heroin production in Mexico, 
Colombia, and Guatemala. Heroin is available in larger quantities, used 
by a larger number of people, and is causing an increasing number of 
overdose deaths. I have been told that Mexican transnational criminal 
organizations control drug trafficking across the Southwest Border and 
are moving to expand their share of U.S. illicit drug markets, 
particularly heroin markets.
    Question. What more should be done to combat what General Kelly has 
deemed a ``serious epidemic?''
    Answer. Given the nature of how heroin is produced and smuggled in 
the USSOUTHCOM AOR, I believe the most effective way to address this 
threat is to focus on building the capacity of regional partners to 
detect and illuminate the criminal networks engaged in this activity, 
and to interdict the flow of dangerous drugs like heroin and 
methamphetamine as close to the point of origin as possible. Because 
heroin is often smuggled in small quantities via established smuggling 
routes, it is extremely difficult to intercept it once it is en route. 
We have significant experience leading coalition efforts that build 
networks to defeat networks; in this case we can work with our 
interagency and regional partners to dismantle transnational criminal 
organizations.
                countering transnational organized crime
    Question. Criminal networks are not only expanding their 
operations, but they are also diversifying their activities, resulting 
in a convergence of transnational threats that has evolved to become 
more complex, volatile, and destabilizing.
    What is your assessment of the threat to the United States posed by 
transnational organized crime?
    Answer. In my opinion, transnational organized crime (TOC) poses a 
significant and growing threat to U.S. national security. TOC networks 
operate with blatant disregard for national sovereignty, the rule of 
law, and citizen security. These sophisticated and dangerous criminal 
networks generate enormous revenue, particularly from the trafficking 
of illegal drugs, and cause significant damage to the environments in 
which they operate. Exploiting technological developments, TOC networks 
have expanded and their illicit operations threaten the security of 
citizens and the stability of some political and economic institutions. 
In the Western Hemisphere TOC networks fuel corruption and exploit 
insufficient state presence and weak rule of law. We have no 
indications of this in the USSOUTHCOM AOR, though the potential exists 
for terrorist organizations to work with TOC networks to transport 
special interest aliens, terrorists, or weapons of mass destruction 
into the United States.
    Question. What is your understanding of the President's July 2011 
strategy to combat transnational criminal organizations?
    Answer. As I understand it, the President's strategy aims to build, 
balance, and integrate all the tools of American power to combat 
transnational organized crime and related threats to U.S. national 
security to ensure the threat is degraded to a public safety problem 
manageable by partner nation law enforcement organizations.
    Question. What kind of additional support, if any, would you 
envision DOD--and SOUTHCOM in particular--providing to U.S. law 
enforcement to combat transnational organized crime?
    Answer. The primary ways TOC will be addressed are through law 
enforcement capacity building efforts, adroit diplomacy with partner 
nations, and the use of innovative policy tools such as counter threat 
finance capabilities to break the financial back of criminal networks. 
DOD will rarely be the lead agency in efforts to combat TOC, except 
where activities fall into unique DOD capability areas (i.e. detection 
and monitoring and supporting interdiction operations). USSOUTHCOM 
supports the broader U.S. Government effort through detection and 
monitoring operations; support to U.S. and partner nation law 
enforcement operations; and by building the security capabilities of 
vetted partner military units through counternarcotics training, 
equipping, and infrastructure support. DOD can also assist law 
enforcement efforts through the development of comprehensive 
intelligence. Our unique DOD capabilities and experience working across 
the interagency can and should be applied to TOC. DOD can support law 
enforcement organizations by working in close collaboration to 
illuminate, characterize, and understand the organization, function, 
and vulnerabilities of criminal networks. I envision a more 
comprehensive effort to gather and integrate disparate knowledge from 
across the U.S. Government-law enforcement organizations, DOD, the 
intelligence community, and open source information--to paint a broader 
picture of this agile adversary and how they respond to our efforts. 
Working directly with Chiefs of Mission and country teams, we can also 
help our partners more effectively enforce the rule of law.
                   central american security strategy
    Question. The President announced on January 29, 2015 a strategy 
entitled Promoting Prosperity, Security and Good Governance in Central 
America, principally focused on promoting enhanced trade, security, and 
governance in Guatemala, El Salvador, and Honduras--the so-called 
Northern Triangle.
    What is your understanding of the President's Central America 
strategy?
    Answer. As I understand it, the Strategy for U.S. Engagement in 
Central America broadens the vision for how we achieve security in the 
sub-region. The Strategy prioritizes three interconnected objectives: 
prosperity, governance, and security. It outlines how the United States 
will work with international organizations and regional governments to 
put the region on a course to sustained, broad-based economic growth, 
better government performance, and improved security conditions
    Question. How do you envision SOUTHCOM's activities in the region 
complementing the President's strategy?
    Answer. Although DOD is not the focus of the strategy nor the 
recipient of the additional funding requested by the President, 
Congress recognized the important role security plays in addressing the 
region's long-standing challenges and provided additional funding 
towards that end, increasing USSOUTHCOM's capacity to complement the 
President's strategy.
    U.S. Southern Command's efforts to build the capacity of the 
Central American security forces--as well as its title X responsibility 
to detect and monitor the aerial and maritime transit of illicit 
drugs--directly support the President's vision of a more secure and 
stable Central America. If confirmed, I will ensure USSOUTHCOM 
activities focus on helping partner nations secure their borders; gain 
domain awareness; disrupt illicit trafficking and transnational 
criminal networks; maintain professional security forces that respect 
human rights and uphold the rule of law; and build stronger defense 
institutions.
                         counter threat finance
    Question. What are your views on the role of DOD in counter threat 
finance activities?
    Answer. In accordance with the Department of Defense Directive 
5205.14 on counter threat finance policy, the Department of Defense 
should use its unique capabilities, such as network analysis, to 
support the interagency and work with partner nations to deny, disrupt, 
and degrade the ability of adversaries to use global and illicit 
financial networks to negatively affect U.S. interests.
    Question. What do you believe is the appropriate role, if any, of 
SOUTHCOM in supporting counter threat finance activities?
    Answer. I do believe that USSOUTHCOM has an appropriate role 
supporting counter threat finance activities with its unique 
capabilities. Finance is an important layer of network activity. If we 
are to understand criminal networks and more effectively counter them--
we must integrate our understanding of finance, logistics, leadership, 
and other layers of the network into a more holistic understanding. For 
example, in support of the Department of the Treasury, U.S. Southern 
Command recently stood up a Counter Threat Finance Branch that helps 
map illicit networks, conducts all-source intelligence analysis and 
production, and works with U.S. and regional partners to support 
targeted financial measures and U.S. law enforcement efforts. These 
efforts enhance the U.S. and partner nation efforts to disrupt the 
global illicit economy and combat money laundering and terrorist 
financing.
                                 mexico
    Question. Much of the illegal narcotics supply comes into Mexico 
from the SOUTHCOM AOR. While Mexico is in the U.S. Northern Command 
AOR, the rest of Latin America is in the SOUTHCOM AOR.
    What is your vision of how SOUTHCOM and NORTHCOM should work 
together in a fully coordinated effort with respect to Mexico and other 
security challenges?
    Answer. I am told that the staffs of U.S. Southern Command and U.S. 
Northern Command regularly collaborate on issues related to the Mexico-
Guatemala-Belize border to eliminate any seam that might pose a 
weakness in the forward defense of the Homeland. Also, the Joint 
Operating Area for JIATF South was purposefully designed to overlap 
both commands' areas of responsibility to remove any boundaries in the 
air and maritime arenas. I understand that there is a Mexican liaison 
officer at JIATF South, and that the staffs of both commands are in 
constant communication, participate in exercises, and attend regional 
conferences, which often includes attendance by Mexican officials.
    If confirmed, I will aggressively support this coordination and 
seek additional ways to foster collaboration between the Mexican and 
Central American militaries to encourage cooperation on shared security 
challenges, including illicit trafficking, transnational organized 
crime, and illegal migration.
                            terrorism threat
    Question. General John Kelly, in testimony before the Armed 
Services Committee on March 12, 2015, noted concern that the ``relative 
ease with which human smugglers moved tens of thousands of people to 
our nation's doorstep also serves as another warning sign: these 
smuggling routes are a potential vulnerability to our homeland. As I 
stated last year, terrorist organizations could seek to leverage those 
same smuggling routes to move operatives with intent to cause grave 
harm to our citizens or even bring weapons of mass destruction into the 
United States.''
    Do you share General Kelly's concern about the potential for 
terrorist organizations to exploit smuggling routes into the United 
States for nefarious purposes?
    Answer. Yes, I do share General Kelly's concern. Drugs are but one 
manifestation of the overall problem of illicit trafficking. The 
overarching threat to our national security--of which drugs are one 
part--is the range of illicit commodities and traffickers, including 
those that facilitate the movement of `special interest aliens' (SIAs) 
from countries such as Syria, Pakistan, and Iran. There is a risk that 
terrorist organizations could exploit SIA networks, established 
smuggling routes, or other regional vulnerabilities--including lax 
immigration and border security, corrupt government officials, or the 
capabilities of criminal organizations--to move terrorists into the 
United States or into the region.
    I am also deeply concerned by the proven threat posed by foreign 
fighters. I understand there has been a small but steady stream of 
individuals and their families leaving the region to join ISIL in Syria 
or Iraq. This is especially concerning considering that many partner 
nations are unable to monitor the potential return of foreign fighters 
and often lack robust counterterrorism legislation to address this 
threat.
    Question. What should SOUTHCOM do in order to counter this threat?
    Answer. I believe USSOUTHCOM must continue collaborating closely 
and aggressively with its interagency, regional, and international 
partners--as well as providing intelligence support to regional U.S. 
Country Teams and interagency operations--to ensure our nation and 
those of our friends remain secure. If confirmed, I will also work 
tirelessly to ensure U.S. Southern Command develops, maintains, and 
aggressively employs the required intelligence capabilities to 
identify, monitor, and deter threats to the U.S. homeland or partner 
nations.
                       interagency collaboration
    Question. What is your assessment of the current level of 
coordination between DOD and civilian agencies in SOUTHCOM's AOR?
    Answer. USSOUTHCOM plays an enormously important role as an 
enabling platform for interagency operations and activities across the 
region. There are more than 30 interagency representatives integrated 
into the headquarters staff, allowing U.S. Southern Command to marshal 
in-house expertise to align military engagement activities within 
interagency frameworks, programs, and activities. USSOUTHCOM's Security 
Cooperation Organizations--mostly co-located in U.S. Embassies across 
the region--work side-by-side with civilian U.S. agencies to ensure 
seamless execution of U.S. security policies within each host nation. I 
understand there is also routine discussion and coordination between 
senior leaders from U.S. Southern Command, the United States Agency for 
International Development, and the Department of State Bureaus of 
Western Hemisphere Affairs and International Narcotics and Law 
Enforcement.
    Question. If confirmed, how would you work to ensure that DOD 
efforts in your AOR complement the efforts of civilian agencies?
    Answer. I firmly believe that seamless interagency coordination and 
execution is critical to effective and efficient U.S. security and 
foreign policy. If confirmed, I will continue to strengthen this 
coordination. I will also conduct periodic assessments of U.S. Southern 
Command's activities to identify areas for improving synchronization of 
efforts between U.S. Southern Command and civilian agencies, while also 
engaging with counterparts at the Department of State and other 
interagency entities to identify new opportunities for collaboration.
                                  cuba
    Question. In light of the Administration's rapprochement with the 
government of Cuba, what is your view of the need to review and, 
potentially, revise U. S. policies regarding security cooperation with 
Cuba?
    Answer. As I understand it, the United States and Cuba have 
cooperated on anti-drug efforts for over a decade, with a U.S. Coast 
Guard Drug Interdiction Specialist stationed at the U.S. Embassy in 
Havana. Coast Guard officials have also engaged with Cuban officials 
regarding oil spill prevention, planning, and response issues under the 
auspices of the International Maritime Organization (IMO).
    U.S. military engagement with the Cuban military is currently 
restricted under U.S. policy. In compliance with all applicable U.S. 
polices and laws, I understand DOD is exploring avenues for cooperation 
with Cuba on shared interests like humanitarian and medical issues, 
disaster relief, and limited exercise and conference attendance. 
Currently, the monthly fence line meeting with the Cuban Army Frontier 
Brigade is one of the few direct channels to Cuba's military.
    Question. What is your opinion about the pros and cons of military-
to-military contact with Cuba?
    Answer. Given that Cuba's military and security forces have long 
regarded the United States as its greatest threat to national security 
and are antagonistic to the presence of the U.S. Naval Station in 
Guantanamo Bay, the Cuban government will likely be hesitant to engage 
in high-profile military-to-military engagements, preferring low-level 
interaction on medical and humanitarian issues. An example of such 
engagement is when Cuban medics joined U.S. personnel from the USNS 
Comfort to provide medical care at a hospital in Haiti earlier this 
year.
    Any military-to-military engagement plan must be developed within a 
larger, comprehensive U.S. Government engagement strategy that 
leverages all efforts to achieve U.S. national objectives; namely a 
stable, prosperous, and democratic Cuba. In general, based on our 
proven track record improving partner nations' military professionalism 
and respect for human rights, I believe engagement by our U.S. military 
could positively influence democratic governance, nurture and develop 
professional defense forces, and encourage greater regional 
cooperation. While normalization of relations opens up new avenues of 
cooperation, the U.S. military will not work with anyone who is not 
vetted or does not respect human rights. So if a decision is taken to 
change U.S. policy toward Cuba, mil-to-mil engagement may provide 
opportunities to improve conditions for the Cuban people.
                               venezuela
    Question. U. S. -Venezuelan relations have continued to be strained 
as President Maduro continues to propagate anti-American rhetoric, 
import increasing amounts of military armament, politicize the 
Venezuelan military forces, traffic illegal narcotics throughout the 
region, and export his brand of populism to the region.
    What is your view of President Maduro's intentions in the region?
    Answer. President Maduro publicly expresses his opposition to the 
United States, regularly criticizing the U.S. Government, its policies, 
and its relations with Latin America.
    Question. What is your understanding of the current state of 
military-to-military relations between the U. S. and Venezuela?
    Answer. My understanding is that military-to-military relations 
with Venezuela are minimal, despite U.S. Southern Command's efforts to 
maintain interaction and dialogue with the Venezuelan military. U.S. 
Southern Command invites Venezuelan military personnel to international 
and regional military forums, but they simply do not show up. JIATF 
South maintains an open position for a Venezuelan liaison officer; 
however, for several years, Venezuela has chosen to leave the position 
unfilled. If confirmed, I will continue to seek engagement 
opportunities with the Venezuelan military, in accordance with U.S. 
policy.
    Question. How would you assess Venezuelan relations with China, 
Cuba, Iran, and Russia vis-a-vis the national interests of the United 
States?
    Answer. Venezuela has strengthened its bilateral ties with Cuba, 
China, Iran, and Russia over the past few years, although it appears 
President Maduro does not have the strong personal ties his predecessor 
had with the leaders of those countries. If confirmed, I will monitor 
developments in Venezuelan foreign relations closely, particularly as 
they relate to U.S. national security interests.
    Question. What is your understanding of the extent to which 
Venezuelan government or military forces are involved in the drug 
trade?
    Answer. My understanding is that there are widespread allegations 
of Venezuelan government and military involvement in the drug trade, 
and that various government officials have been sanctioned under the 
Foreign Narcotics Kingpin Act.
    Question. What is your assessment of the impact of Venezuela's 
deteriorating economic situation on the stability of the government and 
its relationship with the broader region?
    Answer. As I understand it, Venezuela faces domestic economic 
challenges. Regionally, Venezuela's long-running border and maritime 
territorial disputes with its neighbors Guyana and Colombia continue. 
It is also a major drug transshipment point that fails to engage in 
consistent, strategic, and broad cooperation with international counter 
narcotics efforts.
                                 brazil
    Question. What is your understanding of Brazil's security role in 
South America and the broader region?
    Answer. As I understand it, Brazil seeks to take a greater global 
leadership role, particularly on issues related to maritime security 
and peacekeeping operations. Brazil has deployed security forces to its 
borders to address illicit trafficking and criminal activity. It is 
also an active contributor to regional and international peacekeeping 
and stability efforts, including leading the United Nations 
Stabilization Mission in Haiti.
    Question. How would you assess U.S.-Brazil security cooperation?
    Answer. As I understand it, the U.S. and Brazilian militaries 
cooperate on a number of issues, including counternarcotics, 
counterterrorism, disaster preparedness, humanitarian assistance, and 
aviation and port security. As the two largest democracies and 
economies in the Western Hemisphere, the United States and Brazil are 
natural partners, and both countries have committed to deepening 
security cooperation efforts.
    Question. If confirmed, how might bilateral security coordination 
be improved?
    Answer. As I understand it, the United States-Brazil Defense 
Cooperation Agreement (DCA) and General Security of Military 
Information Agreement (GSOMIA) will strengthen bilateral defense 
relations and enable greater cooperation between the United States and 
Brazil in defense-related matters, especially research and development, 
commercial initiatives, logistics support, technology security, and the 
acquisition and development of defense products and services. If 
confirmed, I will look to advance cooperation in these areas, focusing 
on joint exercises and the exchange of information and equipment, 
especially to improve the conduct of international peacekeeping 
operations.
                                 panama
    Question. What is your assessment of U.S.-Panamanian security 
cooperation, particularly in the area of counter-narcotics efforts?
    Answer. My understanding is that U.S.-Panama security cooperation 
is extremely close. The United States enjoys a strong partnership with 
all Panamanian security services and Panama actively cooperates with 
the U.S. on counternarcotics efforts, to include supporting U.S. Coast 
Guard maritime operations; responding to interdiction cues from JIATF 
South; and collaborating with the Drug Enforcement Administration. 
Panama is a strong supporter of Operation MARTILLO, a multinational 
counter illicit trafficking operation to disrupt organized crime groups 
by limiting their ability to use Central America as a transit zone. 
Additionally, Panama's commitment to the security of the Canal has been 
exemplary, as shown by Panama's 2013 interdiction of the Motor Vessel 
Chong Chon Gang and its cooperation with the United Nations to 
determine if sanctions violations occurred.
                                ecuador
    Question. How would you characterize the current status of counter-
narcotics cooperation between the United States and the government of 
Ecuador?
    Answer. As I understand it, the Ecuadorian government's closure of 
the U.S. Embassy's Office of Security Cooperation in April 2014 greatly 
reduced bilateral counternarcotics collaboration. Despite this setback, 
the United States continues to support Ecuador's security forces in 
limited ways. Ecuador participates in the annual U.S. Coast Guard-
sponsored Multilateral Counterdrug Summit, which enhances bilateral 
cooperation in combating maritime drug trafficking and improving 
prosecution of maritime trafficking cases. While the closure of the 
Office of Security Cooperation certainly complicates military-to-
military engagement and security cooperation between our two countries, 
the United States remains open to mutually beneficial engagement 
opportunities in the future.
             southcom's military service component commands
    Question. Like all of the Combatant Commands, SOUTHCOM has military 
service component commands that implement the plans and policies of the 
Combatant Commander. Each of the component commands also have 
responsibility to the Services they represent. It seems SOUTHCOM, 
however, exercises limited command and control in directing specific 
activities and limited oversight of the activities of the component 
commands.
    If confirmed, will you review the command and control relationship 
and share your findings with the committee?
    Answer. Yes, I will.
    Question. SOUTHCOM does not have any assigned forces and--as a 
result--is required to compete for forces within the global request for 
forces process. Given the Department's focus on the greater Middle East 
and Asia-Pacific, do you believe the SOUTHCOM Commander will be able to 
secure the necessary personnel to accomplish its partnering and 
engagement mission within its AOR? If not, how would you assess the 
risk to U.S. strategic interests in the region?
    Answer. U.S. Southern Command has long operated as an economy-of-
force command. Persistent ISR shortfalls negatively impact the 
Command's ability to monitor threat networks in the region and to 
identify indicators and warnings for potential crises. With regard to 
forces, even a small change in force allocation makes an enormous 
difference in the Command's ability to engage with partner nations and 
ensure a defense in depth of the homeland. If confirmed, I will 
advocate aggressively to ensure that USSOUTHCOM's requirements are 
adequately sourced. I will also seek innovative alternatives to 
traditional force sourcing solutions.
                              acquisition
    Question. Do you feel that the military services are responsive to 
SOUTHCOM requirements when prioritizing resources for acquisition 
programs, for example, with respect to drug interdiction platforms?
    Answer. Given global defense priorities, the Services do their best 
to be responsive and source USSOUTHCOM requirements. While the U.S. 
Navy has competing requirements, the U.S. Coast Guard has committed a 
50 percent increase in cutters equipped with a helicopter flight deck, 
plus a commensurate plus-up in maritime patrol aircraft hours to 
support JIATF South's detection and monitoring mission. To help 
mitigate shortfalls, I understand that USSOUTHCOM also makes good use 
of a variety of innovative approaches, like adapting anti-IED 
technology for use in counterdrug operations in dense jungle and 
mountainous terrain.
    Question. Would SOUTHCOM missions benefit from its own dedicated 
acquisition budget and authority, especially for rapid acquisition and 
deployment of new capabilities?
    Answer. From my understanding of USSOUTHCOM's current 
organizational construct, changes of this nature would require the 
creation of a new acquisition branch and the hiring of additional 
personnel. Currently, I do not believe that USSOUTHCOM would be able to 
manage changes of this nature. However, if confirmed, I can examine 
that possibility and report back to the Committee if I believe such a 
change would be beneficial.
                                colombia
    Question. Plan Colombia has demonstrated that a multi-year, 
sustained partnership can achieve significant and lasting results in 
the area of security cooperation. Plan Colombia has enabled the 
Colombian government to make significant gains against the FARC 
(Revolutionary Armed Forces of Colombia) and other paramilitary forces 
in Colombia, as well as enabled the government to secure many 
previously ungoverned areas.
    What is your assessment of the current security situation in 
Colombia?
    Answer. Thanks to our sustained assistance and their political 
will, Colombia has been transformed from a near failed state into a 
major regional player exercising significant political influence, 
including South America's most professional security forces, and a 
dynamic economy. In a little over a decade, homicide and kidnapping 
rates have plummeted and terrorist attacks are down 50 percent. The 
number of FARC combatants has been reduced from 822,000 in 2002 to 
fewer than 8,000 today. The FARC is profoundly unpopular, routinely 
polling at about 3 percent domestic popular support. Colombia now sets 
the standard for hemispheric law enforcement and counternarcotics 
efforts, and now exports its security expertise to other countries in 
the region.
    Although Colombia's transformation is remarkable, they will still 
face a violent period with many challenges even if a peace deal is 
reached. For Colombia to successfully consolidate the promise of this 
decades long struggle, the United States must remain a fully engaged 
post-peace accord partner.
    Question. What lessons should be drawn from Plan Colombia to inform 
building partner capacity efforts elsewhere in the SOUTHCOM AOR and 
beyond?
    Answer. We can learn a lot from the Colombian experience. We should 
look to Colombia, not just for examples of where we got it right, but 
where they did, and why. Colombia had effective core institutions, a 
strong sense of national identity, and a commitment to a market 
economy, institutional democracy, and fundamental freedoms. Most 
importantly, after the struggles of the 1990s, Colombia's leaders 
possessed one thing that is indispensable to the success of security 
assistance: tenacious political will. They came up with their own plan 
(Plan Colombia)--what they called a `Colombian solution to a Colombian 
problem'--that involved modernization and professionalization of their 
Armed Forces, respect for human rights, and welcoming U.S. training and 
intelligence support with open arms. Policy continuity over successive 
Colombian administrations was also a key factor and, again, a 
reflection of their enduring commitment to a goal we shared. This goal 
was not just shared by the Colombians; bipartisan support in the U.S. 
Congress and a `whole of U.S. Government' approach was also 
instrumental to Plan Colombia's success. While the U.S. has spent 
approximately $10 billion to train the Colombian military and support 
the Colombian government, the Colombians outspent us by a significant 
margin.
    Question. How should U.S. security cooperation programs and 
activities evolve as the security situation in Colombia continues to 
improve?
    Answer. Although Colombia's economic and security transformation is 
remarkable, the proliferation of weapons and criminal organizations and 
the potential for violent competition after the FARC demobilizes will 
continue to pose significant challenges. Colombia's topography, 
jungles, and difficult terrain will complicate efforts to consolidate 
state institutions and extend government presence into remote areas 
once run by the FARC.
    Continued U.S. engagement will be critical to ensure Colombia can 
consolidate the success it has achieved over the past 15 years. In 
addition to continued counterdrug cooperation, I understand that U.S. 
Southern Command is supporting the Colombian military's modernization 
and transformation efforts as they prepare for a new, post-peace accord 
role that is more outwardly focused on international missions such as 
peacekeeping.
    Question. What programs should continue in order to ensure that the 
progress that has been made is sustained?
    Answer. Current programs such as Civil Military Support Elements 
and Information Operations will be critical to supporting the 
Government of Colombia's efforts to extend state influence and security 
throughout all parts of the country. Military cooperation will remain 
essential to maintain and expand on hard-fought security gains and 
manage emergent security concerns. Given the government's focus on 
implementing its new counternarcotics strategy, SOUTHCOM will need to 
remain focused in this area, while also expanding training for 
international peacekeeping operations.
    Question. How do you envision the U.S. security cooperation 
programs and activities evolving in the event of a successful outcome 
of the Colombian--FARC peace negotiations?
    Answer. As Colombia nears the end of a 51-year conflict, now is the 
time to position the United States, Colombia's leading ally, to support 
successful implementation of a peace agreement. Consolidation of the 
gains achieved to date and establishment of state authority throughout 
its sovereign territory will require sustained effort for years to 
come. Continued targeted assistance will be essential to the Colombian 
government as it begins peace implementation, helping reassure the 
Colombian public of the benefits of a peace agreement and the strength 
of our bilateral partnership. Such assistance will also help build the 
conditions for a just and durable peace.
    The Disarmament, Demobilization, and Reintegration (DDR) process 
will likely be a long-term endeavor that will require U.S. assistance 
on a range of issues. Immediate support to this process would likely 
include planning and logistical assistance, as well as support in 
constructing zones for demobilized guerillas and demining efforts. The 
movement of the FARC to DDR zones will likely create vacuums that need 
to be filled by the effective presence of the state--and there will no 
doubt be an important security component to this. I also believe the 
U.S. military should continue its core support to Colombia as it 
combats cocaine cultivation, production, and trafficking and fights 
transnational organized crime.
    Question. How would you approach the issue of respect for human 
rights in the Colombian military?
    Answer. If confirmed, I will maintain the U.S. Southern Command's 
Human Rights Initiative and ensure that respect for human rights 
continues to be a key element of the U.S. military's engagement with 
Colombia.
    Question. Colombia has demonstrated a willingness to become more 
involved internationally, to include increased engagements with 
regional partners, signing a Cooperation and Security of Information 
Agreement with NATO in 2013, and President Santos' announcement at the 
United Nations General Assembly meeting in September 2015 that his 
country would contribute 5,000 personnel to U.N. international 
peacekeeping missions over the next three years.
    What are your views on these developments?
    Answer. This demonstrates a significant return on our investment. A 
prospering Colombia at peace has the potential to be a global partner 
on security, democracy, and trade issues. In the security realm, 
Colombia has one of the most capable militaries in the region and is 
the region's premiere `security exporter,' sharing counterterrorism and 
counternarcotics expertise with Central America, Mexico, and the 
Dominican Republic. They are also contributing to international 
security efforts; the Colombian Navy currently has a ship off the coast 
of Somalia protecting World Food Programme shipments (in support of 
NATO's anti-piracy operation OCEAN SHIELD).
    Question. In what ways should SOUTHCOM assist Colombia in its 
efforts to assume a greater role internationally?
    Answer. As the Colombian military carefully plans its transition to 
a post-peace accord role, USSOUTHCOM can assist with planning and other 
efforts, as well as expanding activities that support the U.S.-Colombia 
Action Plan on Regional Security Cooperation. I think USSOUTHCOM can 
also contribute to Colombia's plan to transform its military force by 
providing training in missions such as peacekeeping operations, as well 
as support the Colombian military's long-term modernization and self-
sufficiency.
         western hemisphere institute for security cooperation
    Question. The Western Hemisphere Institute for Security Cooperation 
(WHINSEC), which replaced the School of the Americas in 2001, has the 
mission of contributing to theater cooperation activities through the 
education and training of students in the Western Hemisphere from 
Canada to Chile.
    What is the relationship between SOUTHCOM and WHINSEC?
    Answer. WHINSEC does not fall under U.S. Southern Command's command 
authority, but it is one of many valuable tools available to strengthen 
military-to-military relations in the region. I also understand the 
Commander of U.S. Southern Command is a member of WHINSEC's Board of 
Visitors. If confirmed, I look forward to joining this distinguished 
group.
    Question. In your view, does WHINSEC promote the national security 
interests of the United States in the Western Hemisphere?
    Answer. DOD educational institutions like WHINSEC provide 
professional education, and training opportunities to eligible 
personnel within the context of the democratic principles set forth in 
the Charter of the Organization of American States (OAS), while 
fostering confidence and cooperation among the participating nations, 
and promoting democratic values and respect for human rights. 
Instilling these principles in partner nation militaries absolutely 
enhances the national security of the United States.
    Question. In your view, what more--if anything--does WHINSEC need 
to do to emphasize human rights in its curriculum?
    Answer. From what I understand, WHINSEC has a very comprehensive 
human rights curriculum in place. USSOUTHCOM's Human Rights Office does 
not have the capacity to directly plan and execute human rights 
training to partner nation militaries. Instead the office depends upon 
third parties like WHINSEC to plan and conduct the training. If 
confirmed, I will continue to monitor and assess the human rights 
curriculum and will stress the value of WHINSEC attendance for 
personnel from regional militaries and security forces.
    Question. Will you attend the regularly scheduled WHINSEC Board of 
Visitors meetings?
    Answer. Yes, I will, if confirmed.
                   iranian influence in latin america
    Question. There has been increased concern in recent years about 
Iran's growing interest in Latin America, particularly its relations 
with Venezuela, which in turn has played a key role in Iran's expanding 
relations with Bolivia, Ecuador, and Nicaragua. There has been 
disagreement, however, over the extent and significance of Iran's 
relations with the region.
    What is your assessment of Iran's military presence and objectives 
in the region?
    Answer. I believe Iran's efforts in the region have primarily been 
undertaken to circumvent international sanctions which have resulted in 
Iranian diplomatic and political isolation. I believe Iran also intends 
to undermine U.S. influence in the USSOUTHCOM region. While Iranian 
engagement and influence had waned in recent years, President Ruhani 
has indicated Tehran intends to increase economic, scientific, and 
cultural ties with Latin America. I am not aware of any increase in 
uniformed Iranian military presence in the region.
    Question. What is the extent of Iran's military-to-military 
engagement with Latin American countries?
    Answer. As the foremost state sponsor of terrorism, Iran's 
involvement in the region remains a matter for concern. Iranian overt 
engagement has focused mainly on enhancing its economic and diplomatic 
ties to the region, and it has not made significant progress in 
increasing its arms sales to the region.
    Question. What is your understanding of Hezbollah's activities in 
the hemisphere?
    Answer. As I understand it, Lebanese Hezbollah maintains an 
extensive regional network of supporters and sympathizers in the 
region, some of whom are involved in trade-based money laundering and 
other illicit activities to generate revenue, a portion of which goes 
to support the parent organization in the Middle East. Despite this 
focus on financial gain, Lebanese Hezbollah maintains an operational 
infrastructure in the region with the capability to conduct or support 
Iranian or Hizballah terrorist attacks with little to no warning.
               special operations personnel in embassies
    Question. U.S. Special Operations Command deploys personnel to work 
with country teams in a number of priority countries where the United 
States is not engaged in direct action operations, but rather trying to 
stop the spread of violent extremism. Their mission is to support the 
priorities of the Ambassador and the Geographic Combatant Commander's 
theater campaign plan against terrorist networks.
    If confirmed, what do you intend to do to make sure the goals of 
special operations personnel deployed to these countries are aligned 
closely with those of the Ambassadors they are working with?
    Answer. If confirmed, I would personally reach out to Ambassadors 
in the region to ensure our activities remain aligned with their 
objectives. Prior to deploying any forces, we would provide planning 
direction through USSOUTHCOM's Theater Campaign Plan. Military 
personnel embedded within U.S. Country Teams use this direction to 
develop Country Cooperation Plans, which directly support and are 
aligned with their respective Ambassadors' Mission Strategic Resource 
Plans. Prior to and during execution of activities, my staff would 
review all deployments, including that of Special Operation Forces, to 
ensure they meet requirements that have been vetted by the Ambassador 
and the U.S. Country Teams.
    sexual assault prevention and response in u.s. southern command
    Question. What is your assessment of the challenges in implementing 
an effective sexual assault prevention and response program in U.S. 
Southern Command and the SOUTHCOM area of responsibility?
    Answer. Sexual assault has no place in the U.S. military. It has a 
devastating and life-long impact on the victims and is detrimental to 
unit morale, cohesiveness, and readiness. Ensuring an unambiguous zero 
tolerance policy across any large organization is a critical priority. 
Further, there should be no doubt or ambiguity that sexual assault is a 
violation of the Uniformed Code of Military Justice and will be 
investigated and prosecuted accordingly under all applicable 
regulations and policies. If confirmed, I will communicate and enforce 
a culture in which all personnel uphold the highest standards of 
respect for their fellow servicemembers.
    Question. What steps would you take to create an environment that 
encourages reporting and investigation of sexual assault, and that 
provides appropriate accountability for substantiated allegations of 
sexual assaults within deployed forces in a joint environment, and how 
would you, if confirmed, ensure such accountability?
    Answer. Deployed joint forces confront command and control issues 
inherent to the differences among Services and missions across 
sometimes very long distances. If confirmed, I would ensure that all 
sexual assault allegations are fully investigated, that perpetrators 
are held accountable by their appropriate chains of command, and that 
all victims are cared for and shielded from retribution. The Department 
of the Army, which is the executive agency for U.S. Southern Command, 
has instituted a comprehensive Sexual Harassment/Assault Response and 
Prevention (SHARP) program training support package to provide training 
to all military personnel. This includes a zero tolerance policy that 
ensures all incidents are handled using the exact procedures outlined 
in Department of Defense directives and policy, which promote sensitive 
care, confidential reporting for victims of sexual assault, and 100 
percent accountability for those who commit these crimes. U.S. Southern 
Command recently appointed a second Sexual Assault Response Coordinator 
to the Headquarters, which is an excellent step towards ensuring a 
culture of accountability and support. If confirmed, I would continue 
to communicate and enforce this zero tolerance policy while creating 
and fostering a culture of support and protection for victims.
    Question. Recently, this Committee received testimony about 
troubling allegations concerning sexual assault by senior officials for 
coalition partners in Afghanistan.
    In your view, what is the appropriate role for a U.S. military 
commander who is working with senior foreign officials of partner 
nations, if that U.S. officer becomes aware of allegations of sexual 
misconduct by the foreign officer or by officials of the foreign 
nation?
    Answer. If confirmed, I would direct all U.S. personnel serving 
under my command to immediately report any such allegation through 
their chain of command. In the case that coordination is required with 
the foreign military or government, I would work closely with the U.S. 
Ambassador in the foreign nation with the foreign military or 
government, I would work closely with the U.S. Ambassador in the 
foreign nation.
    Question. If confirmed, what direction would you give to U.S. 
personnel assigned in the SOUTHCOM AOR who become aware of such 
allegations?
    Answer. If confirmed, I would direct all U.S. personnel serving 
under my command to immediately report any such allegation through 
their chain of command. I will also emphasize discipline in the ranks 
and a strong culture of accountability and personal responsibility.
    Question. Under what circumstances would you expect U.S. personnel 
under your command to intervene to stop such misconduct if they suspect 
it or observe it?
    Answer. U.S. personnel should immediately report any such 
misconduct through their chain of Command. Direct intervention should 
only occur in the case of a life or death situation.
        mental health of servicemembers and stress on the force
    Question. The Committee is concerned about the stress on military 
personnel and their families resulting from repeated deployments and 
their access to mental health care to deal with this increased stress.
    In your view, are there sufficient mental health assets embedded 
within U.S. Southern Command to address the mental health needs of the 
military personnel, particularly for those who have experienced 
multiple deployments in Iraq and Afghanistan, as well as military 
families?
    Answer. As I understand it, the majority of forces that deploy 
within the USSOUTHCOM AOR rely on their parent service for medical care 
during post-deployment, including the very important post-deployment 
monitoring of mental health. During deployment, I am told USSOUTHCOM's 
Command Surgeon closely monitors all command mental health issues and 
ensures that the command provides immediate support, if necessary. 
Personnel assigned to the U.S. Southern Command Headquarters have their 
medical needs met through a small U.S. Army Health Clinic located at 
the Headquarters. I have been told that a mental health professional is 
assigned to this clinic and that patients may also be referred to the 
local VA hospital, clinics, and civilian providers to address their 
mental health needs. I understand that family members and retirees are 
also supported by the Garrison Employee Assistance Program as well as 
TRICARE.
              humanitarian assistance and disaster relief
    Question. What should be the role for the U.S. military in 
humanitarian assistance and disaster relief in the SOUTHCOM AOR?
    Answer. As outlined in the Unified Command Plan, the U.S. military 
is responsible for conducting foreign humanitarian assistance and 
disaster relief operations in support of the lead federal agency 
(USAID/OFDA), at the direction of the President or the Secretary of 
Defense in response to a request from the affected host nation.
    Question. Are the resources necessary to fulfill this role 
currently available to the SOUTHCOM Commander? If not, what additional 
resources are necessary?
    Answer. As I understand it, mandated budget and workforce 
reductions have impacted U.S. Southern Command's ability to rapidly 
respond to a significant contingency without substantial headquarters 
augmentation. If confirmed, I would examine USSOUTHCOM's current 
capabilities to respond to a natural disaster or humanitarian crisis 
and work through the Joint Staff and Services to source requirements.
                       law of the sea convention
    Question. The United Nations Convention on the Law of the Sea is 
pending consideration in the United States Senate.
    What is your view on whether or not the United States should join 
the Law of the Sea Convention?
    Answer. As an official policy matter, I defer questions associated 
with the U.N. Law of the Sea Convention to the Secretary of the Navy. 
However, as a senior joint officer with relevant maritime experience, I 
fully support the U.S. accession to the Convention.
    Question. How would being a party to the Law of the Sea Convention 
help or hinder the United States' security posture?
    Answer. The United Nations Convention on the Law of the Sea 
(UNCLOS) codifies navigation and overflight rights on the high seas and 
ensures rights of transit through international straits, both of which 
are essential for the mobility of U.S. armed forces. UNCLOS supports 
our National Security Strategy and helps advance our economic and 
security objectives. As a senior Naval officer I know that as a matter 
of customary law, the U.S. is already in compliance.
                         science and technology
    Question. As with other Combatant Commands, a Science and 
Technology (S&T) advisor is assigned to support SOUTHCOM.
    If confirmed, what would be your priorities for the SOUTHCOM 
Science and Technology advisor?
    Answer. My priorities for the Science and Technology Advisor would 
focus on applying innovative and sustainable technologies that support 
Command priority missions and maintain security and stability in the 
AOR. That would include technologies like surveillance, non-lethal 
weapons, communications, logistics, information sharing, foliage 
penetration, cyber security, and maritime security. Science and 
technology is an excellent tool to foster enduring partnerships and 
coalition collaboration. I would also direct the Science and Technology 
Advisor to continue working with established and new partners, both 
domestically and internationally, to mitigate any technology surprises 
that would challenge theater security.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this Committee and other appropriate committees of the Congress?
    Answer. Yes, I do.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes, I do.
    Question. Do you agree, if confirmed, to appear before this 
Committee, or designated members of this Committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, U.S. Southern 
Command?
    Answer. Yes, I do.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this Committee and 
its staff and other appropriate Committees?
    Answer. Yes, I do.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes, I do.
                                ------                                


    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Kelly Ayotte

    Guantanamo
    1. Senator Ayotte. Admiral Tidd, General Kelly has been a strong 
and consistent advocate of the men and women of Joint Task Force 
Guantanamo, who conduct safe, legal, humane, and transparent detention 
operations that keep dangerous terrorists off the battlefield and 
increase the safety of Americans. Admiral Tidd, if confirmed, will you 
follow General Kelly's example and serve as a strong and consistent 
advocate for the men and women of Joint Task Force Guantanamo, and 
ensure that they have the necessary resources and facilities to 
complete their task?
    Admiral Tidd. If confirmed, just as Gen Kelly has been, as their 
commander I will be the most aggressive advocate for the men and women 
under my command. The men and women of our armed forces are by far our 
most valuable resource. They volunteer to serve their country out of a 
strong sense of honor, duty, and courage. The personnel serving at the 
Joint Task Force Guantanamo exemplify these traits every day as they 
perform the demanding, and often thankless mission of conducting humane 
and principled detention operations.

    2. Senator Ayotte. Admiral Tidd, will you look for opportunities to 
highlight the professionalism and performance of the guard force that 
performs such a difficult job so well?
    Admiral Tidd. If confirmed, I will always prioritize the well-being 
and morale of those serving our nation. The men and women conducting 
detention operations at the Joint Task Force Guantanamo execute their 
duties in a stressful environment, in which they face near-constant 
verbal and physical assault by detainees. In the face of those 
challenges, the guard force and medical personnel maintain the highest 
professional standards and I will always recognize their outstanding 
work.
                                 heroin
    3. Senator Ayotte. Admiral Tidd, addressing the devastating heroin 
epidemic in New Hampshire has been a major priority of mine. We've seen 
a dramatic increase in the number of drug deaths, and I know many other 
States are also struggling with this epidemic too. According to the 
Drug Enforcement Administration (DEA), heroin and fentanyl are most 
commonly brought into the United States through the Southwest border. I 
have discussed this at length with General Kelly and worked to include 
funding to reduce the flow of drugs through the Southern Command 
(SOUTHCOM) area of operations and into the United States. A consistent 
problem has been the lack of interdiction assets, such as vessels and 
helicopters. If confirmed, will you come back within a few weeks and 
tell me what specific additional resources you need to more effectively 
fight the flow of drugs through SOUTHCOM's area of operations?
    Admiral Tidd. If confirmed, I am committed to being candid and 
forthright about SOUTHCOM's requirements for its mission to detect and 
monitor illicit narcotics bound for the United States. There is no easy 
solution to stop the flow of drugs into our nation. It will require the 
concerted efforts of the military, intelligence community, law 
enforcement, and partner nations to detect, illuminate, and ultimately 
dismantle these criminal networks that have proven they can move drugs, 
weapons, bulk cash, and people into our country. I will work closely 
with you and the committee to maximize available resources, explore 
innovative solutions, and leverage partnerships to mitigate risks.
                                 ______
                                 
              Questions Submitted by Senator Dan Sullivan
             russian influence in south and central america
    4. Senator Sullivan. Admiral Tidd, in March, General Kelly 
testified that Russia has continued to boost its military presence in 
Central and South America. He cited examples of increased Russian 
activity and influence in the region, from Russia's naval deployments 
to the Caribbean to various stops in countries like Cuba, Venezuela, 
and Nicaragua. Given the international sanctions against Russia, could 
you characterize Russia's actions in Central and South America as the 
beginning of Russia's strategic ``rebalance'' to Central and South 
America?
    Admiral Tidd. Russia's presence in Central and South America is 
less than it was during the Cold War period. I do not believe that 
Russia is a direct military threat in the hemisphere; however, Russia 
is expanding their presence in the region, competing directly with the 
U.S. for influence in our hemisphere. Russia will likely continue to 
engage in this hemisphere, in an attempt to escape the diplomatic 
isolation imposed as a result of its illegal invasion/annexation in 
Crimea/Ukraine.

    5. Senator Sullivan. Admiral Tidd, since General Kelly's testimony 
in March, have Russian activities in Central and South America 
increased, decreased, or stabilized?
    Admiral Tidd. Russian activities in Central and South America are 
above traditional norms established a decade ago, but the only 
appreciable growth has been its engagement with Nicaragua.

    6. Senator Sullivan. Admiral Tidd, what specific examples can you 
give of Russia's recent actions in the region that have occurred since 
General Kelly's testimony in March?
    Admiral Tidd. Since March 2015, Russia maintained a small military 
presence, collected information about the region and the U.S., and 
projected naval power. I am aware of Russia conducting four naval 
deployments to the SOUTHCOM region in the last year--an oceanographic 
and hydrographic research ship to Nicaragua; an intelligence collection 
ship to the U.S. east coast and Caribbean; and another oceanographic 
research ship to the Caribbean. Notably, all of the naval deployments 
involved data or intelligence collection.

    7. Senator Sullivan. Admiral Tidd, what are the ramifications of 
Russia's actions in Central and South America on U.S. interests--like 
Russia's recent moves to deepen its economic and military relationship 
with Argentina and other countries in the region?
    Admiral Tidd. I believe Russia's actions in the region are aimed at 
competing with the U.S. for regional influence. As a result of resource 
constraints, causing SOUTHCOM to reduce engagement, I believe Russia 
may be able to gain some increased influence. I am not aware of any 
Russian overtures to the recently elected Argentine government, which I 
understand may be far more open to engagement than the previous 
government with other regional nations, including the United States. 
Russia has three partners of choice throughout the SOUTHCOM area of 
responsibility--Venezuela, Nicaragua, and Cuba.

    8. Senator Sullivan. Admiral Tidd, do you agree with current 
SOUTHCOM Commander General Kelly that Russia's power-projection in 
Central and South America constitutes a ``clear return to Cold War 
tactics''? Why or why not?
    Admiral Tidd. Russia's actions world-wide are concerning on many 
levels. Russia's tactics in Latin America do not appear militarily 
challenging, but do pose direct competition for regional influence. 
Russia's engagement in the SOUTHCOM area of responsibility in some ways 
resembles tactics that it employed during the Cold War. However, I 
suspect that their tactics are more than ``back to the future'' Cold 
War business. I am mindful of their hybrid warfare strategy in the 
Ukraine that uses sophisticated disinformation and leverages organized 
crime and proxies. Pursuing a gradualist approach designed to stay 
below a threshold that would provoke intervention is part of the Russia 
hybrid warfare playbook; actions that do not seem directly challenging 
may still be meaningful steps toward Russian objectives that are 
counter to United States interests. I will keep a weather eye on this. 
I will stay closely linked with EUCOM--to better understand Russian 
strategy and activities, to learn best practices of NATO and our 
European allies that can be transferred to SOUTHCOM, and to be able to 
provide support to EUCOM and the United States grand strategy as it 
relates to Russia.
                                 ______
                                 
          Questions Submitted by Senator Kirsten E. Gillibrand
                    drug interdiction in puerto rico
    9. Senator Gillibrand. Admiral Tidd, interdiction of drugs in 
Puerto Rico is a challenging but necessary task. A GAO report from June 
2014 found that, however, during fiscal years 2009 through 2013, the 
Coast Guard met the target of their primary performance measure--the 
removal rate of cocaine from noncommercial vessels in the transit 
zone--only once. What is your understanding of the status of 
interdiction in Puerto Rico?
    Admiral Tidd. I will have to consult with the U.S. Customs and 
Border Protection and the U.S. Coast Guard with regard to interdictions 
in and around Puerto Rico. The Department of Defense has the statutory 
responsibility to detect and monitor aerial and maritime transit of 
illegal drugs bound for the United States. The law enforcement agencies 
have the authority for interdiction and apprehension.

    10. Senator Gillibrand. Admiral Tidd, to what extent does SOUTHCOM 
support interdiction efforts in Puerto Rico?
    Admiral Tidd. The Joint Interagency Task Force South (JIATF South), 
an interagency joint task force subordinate to SOUTHCOM, operates in 
the transit zone to support interdiction of all known northbound 
illicit targets of interest, to include those that might end up in 
Puerto Rico. JIATF South fuses intelligence and shares that information 
with NORTHCOM and the U.S. Coast Guard, which generally conducts 
interdiction around Puerto Rico.

    11. Senator Gillibrand. Admiral Tidd, to the extent that SOUTHCOM 
is involved, do you feel there are enough resources to successfully 
execute its mission and what else might be needed?
    Admiral Tidd. Understanding global priorities and the limited 
resources available to address those priorities, I do believe that 
SOUTHCOM lacks sufficient maritime and air assets to effectively 
conduct its detection and monitoring mission in support of law 
enforcement interdiction efforts. As multiple SOUTHCOM Commanders have 
previously testified, stemming the flow of illicit drugs is extremely 
complex. It requires the development of actionable intelligence and a 
range of air and maritime assets to ultimately support interdiction and 
apprehension of traffickers. If confirmed, I will seek to mitigate this 
shortfall of forces by developing creative and non-traditional 
solutions, and I will continue to foster the partnerships with our law 
enforcement and partner nations who have been critical in this mission.
                     sexual assault internationally
    12. Senator Gillibrand. Admiral Tidd, in your advance policy 
questions, you talked about the importance of reporting up the chain of 
command any incidence of sexual assault by a partner foreign nation 
force. Since these incidents do not fall under the Uniform Code of 
Military Justice (UCMJ), but do impact our ability to operate and 
potentially how we are viewed by the local population, what more can we 
do to ensure that this kind of behavior is addressed?
    Admiral Tidd. U.S. Military Servicemembers are expected to uphold 
the highest standards of personal conduct and respect for good 
governance; they should respect others and actively demonstrate that 
respect to our partner nation (PN) personnel in a way that the PN 
leadership and forces would want to emulate. If our forces detect or 
suspect instances of sexual assault by PN military forces, our forces 
must report that immediately to their chain of command and PN 
leadership. Should PN leadership indicate an unwillingness to act, then 
I would expect our most senior U.S. representatives (diplomatic and 
military) to meet with senior officials of the PN to impress upon them 
the need to take action.

    13. Senator Gillibrand. Admiral Tidd, what can we do in situations 
in which the local authorities do not act on the information we 
provide?
    Admiral Tidd. Should PN leadership indicate an unwillingness to 
act, then I would expect our most senior U.S. representatives 
(diplomatic and military) to meet with senior officials of the PN to 
impress upon them the need to take action. If local authorities do not 
act on the information the U.S. provides, the senior U.S. Military 
Commander and the Country Team, in coordination with the Departments of 
Defense and State, could reassess ongoing operations and engagements 
with the partner nation. Partnering activities could be scaled back, as 
necessary or appropriate, to stress the unacceptability of this 
inaction.

    14. Senator Gillibrand. Admiral Tidd, how can DOD and the military 
work with other parts of the U.S. Government--like the State Department 
and the U.S. Agency for International Development (USAID)--to help the 
victim of these assaults?
    Admiral Tidd. I am aware of the services available to assist our 
servicemembers who have been victims of sexual assault. If confirmed, I 
will engage senior interagency representatives to better understand 
their capabilities and services available for non-U.S. military victims 
of sexual assault and how we could partner if this were to be observed 
by U.S. forces in the region.
                                 ______
                                 
    [The nomination reference of the Vice Admiral Kurt W. Tidd, 
USN follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  October 28, 2015.
    Ordered, That the following nomination be referred to the 
Committee on Armed Services:
    The following named officer for appointment in the United 
States Navy to the grade indicated while assigned to a position 
of importance and responsibility under title 10, U.S.C., 
section 601:
                        To Be Admiral                              
    Vice Admiral Kurt W. Tidd, 0000
                                ------                                

    [The biographical sketch of Vice Admiral Kurt W. Tidd, USN, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
         Biographical Sketch of Vice Admiral Kurt W. Tidd, USN
Promotions:

 
------------------------------------------------------------------------
           Dates of appointment                      Promotions
------------------------------------------------------------------------
07 JUN 1978...............................  Ensign
07 JUN 1980...............................  Lieutenant (junior grade)
01 JUL 1982...............................  Lieutenant
01 SEP 1988...............................  Lieutenant Commander
01 JUN 1993...............................  Commander
01 JUL 1999...............................  Captain
14 JUL 2006...............................  Designated Rear Admiral
                                             (lower half) while serving
                                             in billets commensurate
                                             with that grade
01 SEP 2006...............................  Rear Admiral (lower half)
01 DEC 2009...............................  Rear Admiral
26 JUL 2012...............................  Vice Admiral, Service
                                             continuous to date
------------------------------------------------------------------------

Assignments and Duties:

 
------------------------------------------------------------------------
         Assignments and Duties                From             To
------------------------------------------------------------------------
U.S. Naval Academy, Annapolis, MD        JUN 1978         AUG 1978
 (Instructor for Naval Science).
Surface Warfare Officers School          AUG 1978         APR 1979
 Command, Newport, RI (DUINS).
USS SEMMES (DDG 78) (Main Propulsion     APR 1979         FEB 1981
 Assistant).
Surface Warfare Officers School          FEB 1981         FEB 1981
 Command, Newport, RI (DUINS).
USS AMERICA (CV 66) (Boilers Officer)..  MAR 1981         JAN 1983
Fleet Combat Training Center, Atlantic,  JAN 1983         APR 1983
 Dam Neck, VA (DUINS).
Commander, Cruiser Destroyer Group       MAY 1983         MAY 1984
 EIGHT (Flag Lieutenant/Aide).
Defense Language Institute, Monterey,    MAY 1984         AUG 1984
 CA (DUINS).
University of Bordeaux, France           SEP 1984         SEP 1986
 (Student) Olmsted Scholar.
Surface Warfare Officers School Command  OCT 1986         MAY 1987
 Newport, RI (DUINS).
USS DEYO (DD 989) (Operations Officer).  MAY 1987         JAN 1989
Armed Forces Staff College, Norfolk, VA  JAN 1989         JUL 1989
 (Student).
U.S. Military Representative to NATO     AUG 1989         AUG 1991
 Military Committee, Brussels, Belgium
 (Aide).
XO, USS LEFTWICH (DD 984)..............  AUG 1991         DEC 1992
Office of the Chief of Naval Operations  JAN 1993         AUG 1993
 (Action Officer) (N51).
The Atlantic Council, Washington, D.C.   AUG 1993         JUN 1994
 (Federal Executive Fellow).
Office of Program Appraisal (Political   JUN 1994         AUG 1995
 Military and Special Projects)--SECNAV.
Office of the Chief of Naval Operations  SEP 1995         AUG 1996
 (Assistant for Long Range Planning)
 (NOOK).
CO, USS ARTHUR W RADFORD (DD 968)......  SEP 1996         OCT 1998
Commander, FIFTH Fleet (Deputy           OCT 1998         APR 2001
 Assistant Chief of Staff for
 Operations) (N3 A).
Office of the Chief of Naval Operations  APR 2001         JUL 2001
 (Branch Head, Warfare Policy and
 Doctrine Branch) (N51).
Office of the Chief of Naval Operations  AUG 2001         DEC 2003
 (Deputy for Operations and Strategy)
 (N3).
Commodore, Destroyer Squadron FIVE ZERO  DEC 2003         MAR 2005
National Security Council, Washington,   MAR 2005         JUL 2006
 DC (Director of Combating Terrorism).
National Security Council (Director,     JUL 2006         AUG 2008
 Strategic Capabilities Policy).
Commander, Carrier Strike Group EIGHT..  AUG 2008         AUG 2009
Joint Staff (Vice Director for           AUG 2009         AUG 2011
 Operations) (J3).
Commander, U.S. Naval Forces, U.S.       AUG 2011         JUL 2012
 Southern Command/.
Commander, United States FOURTH Fleet/   JUL 2012         OCT 2013
 Joint Staff (Director for Operations)
 (J3).
Assistant to the Chairman of the Joint   OCT 2013         To Date
 Chiefs of Staff.
------------------------------------------------------------------------

Medals and Awards
    Defense Superior Service Medal
    Legion of Merit with two Gold Stars
    Defense Meritorious Service Medal
    Meritorious Service Medal with two Gold Stars
    Navy and Marine Corps Commendation Medal with three Gold Stars
    Navy Unit Commendation with one Bronze Star
    Navy ``E'' Ribbon with two ``Es''
    Navy Expeditionary Medal with two Bronze Stars
    National Defense Service Medal with two Bronze Stars
    Armed Forces Expeditionary Medal with two Bronze Stars
    Iraq Campaign Medal
    Global War on Terrorism Expeditionary Medal
    Global War on Terrorism Service Medal
    Sea Service Deployment Ribbon with three Bronze Stars
    Navy and Marine Corps Overseas Service
    Ribbon with one Bronze Star
    Expert Pistol Shot Medal
    Expert Rifle Marksmanship Medal
Special Qualifications
    BS (Foreign Affairs) U.S. Naval Academy, 1978
    MA (Political Science) University of Bordeaux, 1986
    Olmsted Scholar, 1986
    Designated Surface Warfare Officer, 1980
    Designated Joint Qualified Officer, 1989
    Capstone, 2007-4
    Designated Level IV Joint Qualified Officer, 2009
Foreign Language
    French.
Summary of Joint Duty Assignments

 
------------------------------------------------------------------------
              Assignment                      Dates            Rank
------------------------------------------------------------------------
U.S. Military Representative to NATO    AUG 89-JUL 91     LCDR
 Military Committee, Brussels, Belgium
 (Aide).
National Security Council, Washington,  MAR 05-JUL 06     CAPT
 DC (Director of Combating Terrorism).
National Security Council, Washington,  JUL 06-AUG 08     CAPT
 DC (Director, Strategic Capabilities
 Policy).
Joint Staff (Vice Director for          AUG 09-AUG 11     RDML
 Operations) (J3).
Joint Staff (Director for Operations)   JUL 12-OCT 13     VADM
 (J3).
Assistant to the Chairman of the Joint  OCT 13-TO DATE    VADM
 Chiefs of Staff.
------------------------------------------------------------------------


                                ------                                

    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Vice Admiral 
Kurt W. Tidd, USN in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    part a--biographical information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Kurt W. Tidd.

    2. Position to which nominated:
    Commander, U.S. Southern Command.

    3. Date of nomination:
    October 28, 2015.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 26, 1956.
    Honolulu, Hawaii.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Married to Eileen Scanlan Tidd, MD, MPH.

    7. Names and ages of children:
    [Nominee responded and the information is contained in the 
committee's executive files.]

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    None.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the Administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                         Kirt W. Tidd  
    This 30th day of September, 2015

                                ------                                

    [The nomination of the Vice Admiral Kurt W. Tidd, USN was 
reported to the Senate by Chairman McCain on December 15, 2015, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on December 16, 2015.]



NOMINATIONS OF HONORABLE PATRICK J. MURPHY TO BE UNDER SECRETARY OF THE 
 ARMY; DR. JANINE ANNE DAVIDSON TO BE UNDER SECRETARY OF THE NAVY; AND 
    HONORABLE LISA S. DISBROW TO BE UNDER SECRETARY OF THE AIR FORCE

                              ----------                              


                       TUESDAY, DECEMBER 15, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
Room SD-G50, Dirksen Senate Office Building, Senator John 
McCain (chairman) presiding.
    Members present: Senators McCain, Inhofe, Wicker, Ayotte, 
Cotton, Rounds, Ernst, Tillis, Sullivan, Reed, Nelson, 
McCaskill, Manchin, Shaheen, Gillibrand, Blumenthal, Donnelly, 
Hirono, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. We welcome all our nominees 
here this morning as well as members of your families. As is 
our tradition at the beginning of your testimony, we welcome 
you to introduce any members of your family joining you today.
    Mr. Murphy, you served as congressman for the 8th District 
of Pennsylvania from 2008 to 2011. You served in the United 
States Army as a judge advocate. While on Active Duty, you 
served as a military instructor at West Point. By the way, that 
was an excellent game on Saturday.
    Senator Reed. I do not know.
    Chairman McCain. It was actually very competitive, and I 
think the Black Knights can be proud of their performance. I 
really do.
    Mr. Murphy. I agree.
    Chairman McCain. Against arguably one of the best 
quarterbacks in the country. So I think they can be proud.
    Mr. Murphy. Yes, sir.
    Chairman McCain. It was amazing. If confirmed, you would 
serve as Under Secretary of the Army.
    Dr. Davidson, you also served in the military as an Air 
Force officer and pilot. You previously served in assignments 
in the Department of Defense [DOD] as Deputy Assistant 
Secretary of Defense for Plans, and as Director for Stability 
Operations, Capabilities. If confirmed, you would serve as 
Under Secretary of the Navy.
    Ms. Disbrow----
    Ms. Disbrow. Disbrow, Senator.
    Chairman McCain. Thank you. I apologize for the 
mispronunciation. Ms. Disbrow, you currently serve as Acting 
Under Secretary of the Air Force having served as Assistant 
Secretary of the Air Force for Financial Management and 
Comptroller since July 2014. Ms. Disbrow, you also served our 
Nation in uniform as a colonel in the Air Force. You were also 
beaten by Navy. If confirmed, you would serve as Under 
Secretary of the Air Force.
    This committee honors your military service of all three 
witnesses and your continued willingness to serve our Nation. 
Each of you, if confirmed, will begin your service as Under 
Secretaries of the military departments with less than a year 
remaining in this Administration. Some might ask what positive 
impact you could possibly have in those positions during an 
abbreviated term.
    If confirmed, I encourage you to defy those who believe 
they can simply wait you out. I challenge each of you to be 
impatient, yet prudent, as you undertake your important 
responsibilities. The next year will be a sprint, not a 
marathon. There is much work to be done and not a minute to be 
wasted.
    Among the most critical of your duties, if confirmed, is to 
serve as the chief management officer of a military department. 
You will have the leading role within your respective Services 
to develop a comprehensive business enterprise architecture and 
transition plan to guide the development of its business 
systems and processes during a time of severe fiscal restraint 
in one of the most dangerous national security climates that 
this Nation has ever seen.
    I look forward to hearing your views on how you would 
undertake this challenge and how your experience and leadership 
will enable our military departments to be ready to fight and 
win for our national security.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman. I want to 
join you in welcoming the witnesses. I also want to thank you 
for holding this hearing so that we can begin to fill these 
important positions of Under Secretary of the Services.
    I welcome all the nominees and their families. I want to 
recognize Congressman Patrick Murphy who has been nominated to 
be Under Secretary of the Army, and thank him for his 
willingness to serve. Mr. Murphy was elected to the United 
States House of Representatives in 2006, and in so doing, he 
became the first veteran of Operation Iraqi Freedom to serve in 
Congress.
    During his tenure, he served on the House Armed Services 
Committee and the House Permanent Select Committee on 
Intelligence. He was an extraordinarily capable member. As the 
chairman noted, in his military career he was an assistant 
professor of the Department of Law at the United States 
Military Academy under our mutual friend, General Pat Finnegan. 
He distinguished himself there and continues to do so, serving 
on the board on the visitors. Thank you, Congressman, for your 
service.
    Dr. Davidson has been nominated to be Under Secretary of 
the Navy. Dr. Davidson served on Active Duty with the Air Force 
followed by serving in the private sector and academia, think 
tanks, and for the Government, and most recently with the 
Council on Foreign Relations. Dr. Davidson has also served as 
the commissioner on the National Commission on the Structure of 
the Air Force, and currently serves as a member of the Reserve 
Forces Policy Board. She has long experience in dealing with 
public policy issues in all of these positions, and she is 
imminently qualified.
    Ms. Disbrow has been nominated to be Under Secretary of the 
Air Force. Ms. Disbrow served on Active Duty with the Air 
Force, and has since served as a civilian in several Federal 
agencies, including the National Security Council, the Joint 
Staff, and most recently as Assistant Secretary of the Air 
Force for Financial Management and Comptroller. Once again, she 
also brings great talent, integrity, and diligence to her task.
    Let me thank you, Mr. Chairman, for holding this hearing, 
and I look forward to going forward with you on these 
nominations.
    Chairman McCain. Thank you. Could I just add that it is not 
in any way imperative for an individual to serve as one of our 
civilian leaders in our Department of Defense. But I think it 
is very helpful because all three of you have had the 
experience of serving with the men and women who are performing 
so admirably throughout the world. You bring an understanding 
and perhaps sensitivity to the challenges that they face in 
these very challenging times. I view it as not a requirement, 
but I think it is certainly a definite advantage that the men 
and women who are serving will have under your duties as 
civilian authorities over them.
    I have to ask the standard questions, and if you would 
please respond by saying yes or no to answer to these 
questions. These are the standard questions for all nominees.
    In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress be able to receive 
testimony, briefings, and other communications of information. 
Have you adhered to applicable laws and regulations governing 
conflicts of interests? You say ``I have'' if you have. If you 
have not, we would be interested.
    [Laughter.]
    [A chorus of ayes.]
    Chairman McCain. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    [A chorus of nays.]
    Chairman McCain. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record and hearings?
    [A chorus of ayes.]
    Chairman McCain. Will you be cooperative in providing 
witnesses and briefers in response to congressional requests?
    [A chorus of ayes.]
    Chairman McCain. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    [A chorus of ayes.]
    Chairman McCain. Do you agree if confirmed to appear and 
testify upon request before this committee?
    [A chorus of ayes.]
    Chairman McCain. Do you agree to provide documents, 
including copies of electronic forms of communication in a 
timely manner when requested by a duly constituted committee, 
or to consult with the committee regarding the basis for any 
good faith delay or denial in providing such documents?
    [A chorus of ayes.]
    Chairman McCain. Why do we not begin with you, Secretary 
Disbrow?

    STATEMENT OF HONORABLE LISA S. DISBROW, NOMINEE, UNDER 
                   SECRETARY OF THE AIR FORCE

    Ms. Disbrow. Thank you, Mr. Chairman, Senator Reed, and 
members of the Armed Services Committee. It is an honor to 
appear before you today. I want to thank President Obama for 
nominating me, and I appreciate the confidence and support 
Secretary Carter and Secretary James have for my nomination as 
Under Secretary of the Air Force.
    The privilege of appearing before you today is only 
possible because of the love and support from my remarkable 
family. Joining me today is my husband, Harry, my daughter, 
Stephanie, her husband, T.J., and my grandson, Parker, my son, 
Derrick, and my brother, David from Boston. Unfortunately my 
two stepdaughters and their families who live in Phoenix could 
not join us today, and my parents who reside in Fredericksburg 
were unable to join us.
    Chairman McCain. Welcome, and, Parker, we will give you a 
debrief on the hearing.
    [Laughter.]
    Chairman McCain. Glad he is here.
    Ms. Disbrow. I want to mention the importance of numerous 
colleagues and mentors who have supported me from the very 
beginning when I graduated from Officer Training School 30 
years ago in 1985 until today. Thank you all. Representing them 
today is my friend and colleague, Lynda Mallow from Alexandria, 
Virginia.
    During my time on Active Duty in the Air Force, the 
National Reconnaissance Office, the National Security Council, 
the Joint Staff, and now Headquarters Air Force, it has been my 
privilege to serve with men and women from all Services, who 
have dedicated their lives to defending this great Nation. If 
confirmed, I will do my utmost in ensuring those who put their 
lives on the line for this country are supported in every way 
possible.
    The Under Secretary of the Air Force is responsible for the 
efficient and effective management of the Air Force, and for 
providing for the welfare of more than 674,000 Active Duty, 
Reserve, Guard, and civilian airmen and their families. I work 
hard every day to ensure that they receive the resources and 
the support they need to keep this Nation safe. Additionally, 
if I am confirmed, I am committed to working closely with 
Congress to make certain our Air Force needs are clearly 
articulated, and that you have all the information you need to 
perform your duties as authorizers and appropriators.
    Thank you again for considering my nomination. Thank you 
for your service, and I look forward to your questions.
    [The prepared statement of Ms. Disbrow follows:]

              Prepared Statement by Honorable Lisa Disbrow
    Mr. Chairman, Senator Reed, Members of the Armed Services 
Committee. It's an honor to appear before the committee today.
    I would like to thank President Obama for nominating me, and I 
appreciate the confidence and support of Secretary Carter and Secretary 
James for my nomination as Under Secretary of the Air Force.
    The privilege of appearing before the committee today is only 
possible because of the love and support from my remarkable family. 
Joining me today is my husband Harry, who himself served 26 years in 
the United States Air Force as an F-15 pilot; our daughter Stefanie and 
son, who is also known as our beautiful grandson Parker; our son Derek; 
and my brother David, from Boston. Unfortunately, some family members 
couldn't make it--my step-daughters and their families in Phoenix, and 
my parents, who live in Fredericksburg.
    I also want to mention the importance of many colleagues and 
mentors who have supported me from the very beginning when I graduated 
from Officer Training School, 30 years ago on July 4th, 1985 up to now. 
Thank you. Representing them today is our friend, Lynda Mallow, from 
Alexandria VA.
    During my time, on Active Duty in the Air Force; the National 
Reconnaissance Office; the National Security Council; the Joint Staff 
and now Headquarters Air Force, it has been my privilege to serve with 
the men and women from all Services who have dedicated their lives to 
defending this great nation.
    If confirmed, I will do my utmost in ensuring those who put their 
lives on the line for this country are supported in every way possible.
    The Under Secretary of the Air Force is responsible for the 
efficient and effective management of the Air Force and for providing 
for the welfare of more than 674,000 Active Duty, Guard, Reserve and 
civilian airmen and their families.
    I work very hard every day to ensure they receive the resources and 
the support they need to keep this country safe.
    Additionally, if I am confirmed I am committed to working closely 
with Congress to make certain our Air Force needs are clearly 
articulated and that you have all the information you need to exercise 
your roles as authorizers and appropriators.
    Thank you again for considering my nomination, thank you for your 
service; and I look forward to your questions.

    Chairman McCain. Dr. Davidson?

STATEMENT OF DR. JANINE ANNE DAVIDSON, NOMINEE, UNDER SECRETARY 
                          OF THE NAVY

    Dr. Davidson. Good morning. Chairman McCain, Ranking Member 
Reed, distinguished members of the committee, I am truly 
honored to be here today as the nominee for Under Secretary of 
the United States Navy. I am grateful to President Obama, 
Secretary Carter, and Secretary Mabus for giving me the 
opportunity, if confirmed, to help lead the finest Navy and 
Marine Corps in the world.
    I would like to begin by thanking my family for joining me 
here today and supporting me, starting with my husband, David 
Kilcullen, and my stepson, Harry. Their love and good humor 
keep me grounded every day. My sister, Jennifer Parker, is also 
here, along with her kids, Colin, Alyssa, and Sarah, and my 
brother, Jim Davidson and his wife, Melanie. My mother, Joanne, 
a Navy wife, who expertly orchestrated 18 family moves in 35 
years as so many Navy families have done, is no longer with us, 
but I know that she would be delighted at the prospect of my 
rejoining the Navy family.
    Chairman McCain. Welcome to all. Thank you.
    Dr. Davidson. Finally, I want to thank my father, Retired 
Rear Admiral Jim Davidson, for coming all the way from 
California to be here today.
    Chairman McCain. Thank you, Admiral.
    Dr. Davidson. Of course, it did help that he was already in 
town for the Army-Navy game.
    [Laughter.]
    Dr. Davidson. Throughout my career, I have counted on my 
family's love and support, and in the case of my father, who 
proudly served for 35 years as a Navy supply corps officer, I 
learned to appreciate how much military power truly does depend 
on getting the right gear to the right places at the right 
time, something our globally deployed force does better than 
any military in the history of the world, thanks to 
professionals like my dad and his many, many shipmates.
    If confirmed, I will work tirelessly with the members of 
this committee and your staffs to ensure that we have the most 
competitive, creative, and, above all, combat ready Navy and 
Marine Corps in the world. This vision would drive my work 
every day in the service of our proud civilians, sailors, and 
marines.
    The United States Navy and Marine Corps play a central role 
in the U.S. defense strategy. They provide forward presence to 
reassure our friends and deter our adversaries. They are our 
force in readiness, prepared to go wherever required anywhere 
in the world, and they are ready to fight America's enemies to 
keep us safe.
    After years of high op tempo [operational tempo], combat 
operations, and growing fiscal constraints, the Navy and Marine 
Corps face great challenges in resetting and modernizing their 
forces to meet current threats, while also preparing for a 
complex future. They also face a renewed opportunity as a 
critical instrument of national power for a new century and a 
new global environment.
    As Under Secretary of the Navy, if confirmed, I will work 
with the Navy and Marine Corps leader to ensure that we restore 
readiness across the fleet, manage a complex investment 
portfolio to acquire the right capabilities, and that we 
innovate and experiment to ensure we have the right concepts 
that can sustain our military edge in the face of growing 
threats.
    I am a proud member of the Navy family, having grown up 
surrounded by the ships, the people, and the bases that 
constitute our maritime power. I am a proud veteran, having 
served as an Air Force officer for 10 years, flying C-130 and 
C-17 transport planes. I am a proud former Pentagon civil 
servant and former deputy assistant secretary of defense, where 
I helped oversee the Pentagon's contingency planning processes 
and the global basing strategies.
    I have spent my entire life surrounded by America's best 
and brightest, those uniformed men and women who sacrifice so 
much to keep us safe. If confirmed, I will do my very best to 
ensure that our sailors and marines remain unmatched in their 
training, their equipment, and their readiness. It is a solemn 
obligation, and I would be immensely proud to serve with them.
    I am honored to be here today. Thank you.
    [The prepared statement of Dr. Davidson follows:]

               Prepared Statement by Dr. Janine Davidson
    Good Morning
    Chairman McCain and Senator Reed, distinguished members of the 
committee, I am truly honored to be here today as the nominee for Under 
Secretary of the United States Navy. I am grateful to President Obama, 
Secretary Carter, and Secretary Mabus for giving me the opportunity, if 
confirmed, to help lead the finest Navy and Marine Corps in the world.
    I'd like to begin by thanking my family for joining me here and 
supporting me: Starting with my husband, David Kilcullen and my 
stepson, Harry. Their good humor and wit keep me grounded every day. My 
sister, Jennifer Parker, is also here, along with my nephew Colin, my 
brother Jim Davidson, and his wife Melanie. My mother Joanne, a Navy 
wife who expertly orchestrated 18 family moves in 35 years, as so many 
Navy families have done, is no longer with us, but I know she would be 
delighted at the prospect of my re-joining the Navy family. Finally, I 
want to thank my stepmom, Sarajane Wallace and my father, retired Rear 
Admiral, Jim Davidson, for coming all the way from California to be 
here today. Of course it did help that they were already in town for 
the Army-Navy game. So special thanks goes to the committee staff for 
working out that timing for us all. Throughout my career, I have 
counted on my family's love and support; and in the case of my father, 
who served proudly for 35 years as a Navy Supply Corps officer, I 
learned to appreciate how much military power truly does depend on 
getting the right gear to the right place at the right time, something 
our globally deployed force does better than any military in the 
history of the world thanks to professionals like my Dad and his many 
many shipmates.
    If confirmed I will work tirelessly with the members of this 
committee and your staffs to ensure that we have the most competitive, 
creative, and above all, combat-ready Navy and Marine Corps in the 
world. This vision would drive my work every day in the service of our 
proud civilians, sailors and marines.
    The United States Navy and Marine Corps play a central role in U.S. 
defense strategy--they provide forward presence to reassure our friends 
and deter our adversaries, they are our force in readiness--prepared to 
go wherever required anywhere in the world, and they are ready to fight 
America's enemies to keep us safe.
    After years of high-tempo combat operations and growing fiscal 
constraints, the Navy and Marine Corps face great challenges in 
resetting and modernizing their forces to meet current threats while 
also preparing for a complex future. They also face a renewed 
opportunity as a critical instrument of national power for a new 
century and a new global environment. As Under Secretary of the Navy, 
if confirmed, I will work with Navy and Marine Corps leaders to ensure 
we restore readiness across the fleet, manage a complex investment 
portfolio to acquire the right capabilities, and that we innovate and 
experiment to ensure we have the right concepts that can sustain our 
military edge in the face of growing threats.
    I am a proud member of the Navy family, having grown up surrounded 
by the ships, the people, and the bases that constitute our maritime 
power. I am a proud veteran, having served as an Air Force officer for 
10 years, flying C-130 and C-17 transport planes. I am a proud former 
Pentagon civil servant, and a former Deputy Assistant Secretary of 
Defense, where I served with America's finest defense leadership and 
helped oversee the Pentagon's contingency planning process and global 
basing strategies. I've spent my entire life surrounded by America's 
best and brightest--those uniformed men and women who sacrifice so much 
to keep us safe. If confirmed, I will do my very best to ensure that 
our sailors and marines remain unmatched in their training, their 
equipment, and their readiness. It is a solemn obligation and I would 
be immensely proud to serve with them.
    I am honored to be here today. Thank you.

    Chairman McCain. Congressman Murphy, welcome.

   STATEMENT OF HONORABLE PATRICK J. MURPHY, NOMINEE, UNDER 
                     SECRETARY OF THE ARMY

    Mr. Murphy. Thank you, Mr. Chairman, Ranking Member Reed, 
and distinguished members of the Senate Armed Services 
Committee. It is a privilege to appear in front of you here 
today.
    Mr. Chairman, I would like to introduce my family. Right 
behind me I have my wife, Jenny Murphy, my daughter, Maggie 
Murphy, age 9, my son Jack, age 6, my mom and dad, Jack Murphy 
and Marge Murphy. My father was a Navy enlisted man during 
Vietnam. My two uncles, though, were Army, both Vietnam 
veterans. My grandfather and Jenny's grandfather both served 
the Navy in the Pacific in World War II. Jenny's grandfather 
served in the USS Hornet in a Doolittle Raid.
    Chairman McCain. Welcome. Thank you all. Welcome.
    Mr. Murphy. Mr. Chairman, I am a third generation veteran, 
and I am eternally grateful for my family teaching me the ethos 
of duty, honor, country.
    I would like to thank President Obama, Secretary Carter, 
and Acting Secretary Fanning for placing their trust and 
confidence in me with this nomination. Mr. Chairman and members 
of this committee, I hope to earn your support and confirmation 
as Under Secretary of the Army. My experiences as an Iraq war 
veteran and congressman give me the unique perspective to be 
successful in this position.
    I will make sure that the Army is manned, trained, and 
equipped to accomplish what General Milley recently articulated 
as his fundamental task: to win in the unforgiving crucible of 
ground combat. I will make sure that our troops do not have a 
fair fight, that they have a tactical and technical advantage 
against our enemies.
    If confirmed, I will work closely with this committee to 
ensure that we continue to have the best possible Army to 
defend our Nation. Thank you.
    [The prepared statement of Mr. Murphy follows:]

                Prepared Statement by Mr. Patrick Murphy
    Thank you Chairman McCain, Ranking Member Reed, and distinguished 
members of the Senate Armed Services Committee for the privilege of 
appearing before you today.
    Mr. Chairman, I'm a third generation veteran and I'm eternally 
grateful for my family teaching me the ethos of Duty, Honor, Country.
    I'd like to thank President Obama, Secretary Carter, and Acting 
Secretary Fanning for placing their trust and confidence in me with 
this nomination.
    Mr. Chairman and members of the Committee, I hope to earn your 
support and confirmation as Under Secretary of the Army. My experience 
as an Iraq War Veteran and Congressman give me the unique perspective 
to be successful in this position.
    I will make sure our Army is manned, trained, and equipped to 
accomplish what General Milley recently articulated as its fundamental 
task: to win in the unforgiving crucible of ground combat.
    I will make sure our troops do not have a fair fight. I will make 
sure they have the tactical and technical advantage over our enemies.
    If confirmed, I will work closely with this Committee to ensure we 
continue to have the best Army possible to defend our Nation.
    Thank you.

    Chairman McCain. Thank you all. Congressman Murphy, is ISIS 
[the Islamic State of Iraq and Syria] contained?
    Mr. Murphy. Senator, I am not currently, as you know in 
government, but let me tell you what I know from my personal 
perspective, Mr. Chairman. When you look at things like the 
Russia----
    Chairman McCain. Why do you not start out by saying yes or 
no?
    Mr. Murphy. I would say no because, Mr. Chairman, when you 
look at things like the Russian airliner, when you look at 
things like the Paris attack, which killed civilians, when you 
look at things like the ISIS inspired attack in California, 
when you look at ISIS operations currently in Ramadi and Mosul, 
I am concerned, as we all are concerned. I think Secretary 
Carter and General Milley have said that we must accelerate our 
prosecution in the war against ISIS immediately. If confirmed, 
Mr. Chairman, I will do just that to make sure we take the 
fight to them.
    Chairman McCain. Thank you. Dr. Davidson, one of the 
sources of great personal concern, as well as my regular duties 
in the United States Senate, is the cost overruns of the 
aircraft carriers. We need aircraft carriers. In fact, I am of 
the view that we need more. But I have great difficulty going 
back to Arizona and talk about a $2 billion cost overrun of one 
ship, and frankly, we are now seeing that with the next 
aircraft carrier, the Kennedy, the Ford. It is $2 billion, and 
another $2 billion cost overrun. We cannot justify that to the 
taxpayers. So far, to be honest with you, we have not seen any 
progress.
    Now, in the defense bill that we passed, we called for a 
study on alternative aircraft carriers or platforms instead of 
the only game in town, which seems to be able to name its own 
price. I want you to get on that issue, and I hope you 
understand how difficult it makes life for every member of this 
committee who supports the defense authorization bill, all of 
whom think that sequestration is doing great damage to our 
ability to defend the Nation. I do not know if you have looked 
into that issue, but I strongly suggest you do so.
    Dr. Davidson. Yes, Senator. I am aware of the cost overruns 
and the delays in the Ford Carrier Acquisition Program, and it 
is deeply troubling. I absolutely share your concern. The 
Carrier Strike Group is a strategic asset. We absolutely need 
that for our power projection, for our global responsibilities. 
If confirmed, I absolutely will look into what lessons can be 
learned going forward and to see what we can do to drive some 
costs down. I am open to all options to ensure that we can 
continue to project power.
    Chairman McCain. We have mandated a study, and I want that 
mandate to be taken seriously. We cannot justify these kinds of 
multibillion-overruns. The American taxpayer will not stand for 
it.
    Ms. Disbrow, the Air Force 2 years in a row came before 
this committee and argued strenuously to take the A-10 aircraft 
out of commission. Because of actions of this committee and 
legislation signed by the President, that was not allowed.
    We now read that when we finally, after 16 months, decided 
to take out the fuel trucks which were providing millions and 
millions of dollars to fund ISIS' terrorist activities, that 
guess what airplane is employed to take out those fuel trucks? 
The A-10.
    Have you looked into the issue of the A-10 and whether the 
Air Force should continue to take the position that the A-10 
should be phased out? If you do support that position, could 
you tell us what you view as an adequate replacement for what 
arguably is the most capable close air support aircraft in our 
inventory?
    Ms. Disbrow. Mr. Chairman, this is an incredible asset for 
the United States Air Force and for the Nation. The demand has 
just increased, as you referenced. We are taking a hard look at 
it, and if confirmed, I will look forward to working towards an 
acceptable plan for recapitalizing this incredibly important 
mission area.
    All options are on the table. We are looking at the multi-
mission aircraft that we have currently planned as well as 
other options. The Chief of Staff, the Secretary, and I, if 
confirmed, take this very seriously and look forward to working 
with this committee on an acceptable phased plan.
    Chairman McCain. I hope beginning next year you will not 
come before this committee with a request to phase out the A-10 
aircraft when at least during this period of time when 
according to the President of the United States yesterday, we 
will be stepping up our air attacks in both Iraq and Syria. It 
is pretty obvious that the A-10 aircraft is one of the major 
tools to be used to try to destroy ISIS from the air, which 
happens to be impossible, but at least the intensification is a 
small step forward.
    Finally, Congressman Murphy, real quick. We have in this 
legislation of the 2016 NDAA [National Defense Authorization 
Act] mandated a reduction of headquarters staff by 25 percent, 
and cost savings from overall administrative support by about 
$10 billion over a 5-year period. One thing I think we have 
gained from testimony before this committee by many outside 
experts that have had years and years of experience, that the 
staffs are too large and they are redundant, and with some 
going so far as to say that the Secretarial staff and the 
military staff should be consolidated into a single Service 
staff. Now, that has not been the view of this committee yet. 
We are examining it, but some have gone so far as to suggest 
that.
    Do you have a view on that issue? First of all, do you 
agree with what we did in the 2016 act requiring the 
headquarters staff reductions, and what is your view of the 
staff situation?
    Mr. Murphy. Senator, yes, I agree with what was put into 
place. Two, I believe in the principle that you must lead by 
example. It is about the warfighter. It is about tooth-to-tail. 
Mr. Chairman, members of this committee, I think what the Army 
has tried to do by leading by example, in the past year they 
have cut--again, was given 20 percent reductions. The Army has 
met that and exceeded that. They have had 25 percent 
reductions. That has resulted in 3,600 personnel that have been 
moved out. And when you look at that----
    Chairman McCain. When you say ``moved out,'' has the size 
of the force been reduced by that number?
    Mr. Murphy. That is correct. Not the size--it is pushing 
them down to--it is the middle management, so it is about spans 
of control. When you used to have four spans of control, now it 
is to eight, which is positive because it is the middle 
management. I should say we are getting rid of the cheapest 
labor. It is making sure that we effectuate positive change. 
When you look at positive change--so when you look at----
    Chairman McCain. We want to reduce numbers also, Mr. 
Murphy.
    Mr. Murphy. I understand, Mr. Chairman. When we look at our 
brigade combat teams and other things, when we are saying we 
want to make sure we have the most capable Army during this 
time, we are looking at that. But I agree with the 12 hearings 
that you have had on Goldwater-Nichols. We need to get after it 
and lead by example in this role. I will give you that 
commitment, absolutely.
    Chairman McCain. Thank you. I congratulate the witnesses 
and their willingness to serve. Now that we have a quorum, I 
would like to ask the committee to consider three civilian 
nominations and one flag officer nomination.
    First, I ask the committee to consider the nominations of 
the Honorable Marcel J. Lettre to be Under Secretary of Defense 
for Intelligence, Mr. Gabriel Camarillo to be Assistant 
Secretary of the Air Force for Manpower and Reserve Affairs, 
and Mr. John Sparks to be a judge on the Court of Appeals for 
the Armed Forces.
    Is there a motion to favorably report these nominations?
    Senator Reed. So moved.
    Chairman McCain. Is there a second?
    Senator Shaheen. Second.
    Chairman McCain. All in favor, say aye.
    [A chorus of ayes.]
    Chairman McCain. Finally, I ask the committee to consider 
the nomination of Vice Admiral Kurt W. Tidd, USN, to be admiral 
and Commander, United States Southern Command. Is there a 
motion to favorably report Admiral Tidd's nomination to the 
Senate?
    Senator Reed. So moved.
    Senator Hirono. Second.
    Chairman McCain. All those in favor, say aye.
    [A chorus of ayes.]
    Chairman McCain. Thank you.
    Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you, Congressman Murphy, Dr. Davidson, Secretary Disbrow. Let 
me follow up with the line of questioning that the chairman 
started. In fact, the chairman's efforts throughout the many 
months we have been here to focus on reorganization and 
streamlining the Department of Defense.
    You have responded, Congressman. Dr. Davidson, in your new 
capacity, what do you identify as the best initial approaches 
to streamlining headquarters and eliminating headquarters 
personnel?
    Dr. Davidson. Yes, Senator. I support the efforts in 
streamlining headquarters. I am not familiar with all the 
details about how the Navy and Marine Corps are doing it, but I 
think it is important that we take a data-driven approach and 
make sure that we do so in a way that sustains our combat 
effectiveness and also the morale of the workforce. But I 
absolutely support any efforts that will improve efficiency. We 
absolutely cannot afford in these times of fiscal constraints 
to be having bloated staffs.
    Senator Reed. Secretary Disbrow?
    Ms. Disbrow. The Air Force under Secretary Gates and 
Secretary Hagel have taken many efforts to streamline our 
staff, but it is not enough. We are looking now, in alignment 
with the NDAA that was just approved, to continue to look at 
the layers, to look at areas where we can consolidate, and 
while we consolidate in those areas, reduce staff.
    We have had some success in our facility support area, as 
well as our intelligence area for reducing overhead as we 
consolidate and centralize. We continue to look de-layering, 
and we have an independent study right now under way with two 
phases: first, to identify the scope of our problem, and then 
to offer areas where we can put the right skill set in the 
right places, which is critical as we downsize. Not enough work 
done. A lot of work to do. I will look forward to working with 
this committee, if confirmed.
    Senator Reed. Just a follow-up question, and you all might 
respond, is that one of the points that has been made over and 
over again is that in the civilian sector, most major companies 
have combined their logistics transportations systems into one 
entity, and DOD has TRANSCOM [U.S. Transportation Command] and 
a logistical operation separate. From a Service perspective, 
how would you try to sort of combine those activities into one 
more efficient, or would that be something that we would have 
to wait on DOD sort of action?
    Ms. Disbrow. Senator, this is an important area to look at. 
I think all options have to be on the table. We have not as a 
Department had a chance to look at synergies between agencies 
and combatant commands. In this specific area, I know there are 
some duplicative IT [information technology] systems, so I 
think some streamlining can be done there with parts, and 
supply, and warehousing. I know there are some efficiencies we 
can find there.
    This is an area that, again, I think we need to have all 
options on the table and take a hard look at.
    Senator Reed. Dr. Davidson, your comments.
    Dr. Davidson. Yes, Senator, I would agree with my 
colleague. This is not just an issue that affects one Service 
or each Service, I mean, from TRANSCOM to DLA [Defense 
Logistics Agency] and other things. My sense is that we need to 
actually take a look at it, see if we can find efficiencies, 
while also maintaining our ability to get the items that need 
to get to the fleets, and the soldiers, and the airmen as well, 
without sort of undermining the Service-level supply chain. But 
I absolutely think that it needs to be looked at fresh, and I 
am open to absolutely all options.
    Senator Reed. Congressman Murphy.
    Mr. Murphy. Senator Reed, if confirmed, as the chief 
management officer of the United States Army, I will look at 
top to bottom review, and make sure that we have the 
efficiencies within the organization so we can refocus on those 
warfighters that are keeping our families safe.
    Senator Reed. I presume in that capacity, all of you will 
be making recommendations or receiving recommendations, but 
certainly making good recommendations to the Department of 
Defense, because some of these functions are at a defense 
level, and you will be actively engaged in giving your best 
advice to the Secretary.
    Mr. Murphy. Absolutely.
    Senator Reed. Thank you very much. Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I have had an 
opportunity to work with Secretary Disbrow. I have not had a 
chance to really meet the two of you, so I spent a lot of time 
researching, and quite frankly I do not think I have ever said 
this before. I think we have three people here that are going 
to do great jobs, and I appreciate your background, what you 
bring to the table, and your opening statements.
    Before this committee, Secretary Gates testified and this 
is a quote, ``Without proper and predictable funding, no amount 
of reform or clever reorganization will provide America with 
the military capable of accomplishing the missions assigned 
it.''
    Now, I raise that question because I agree with that 
statement. I look at the threat that we are facing in this 
country now, and I think we are in the most threatened position 
we have ever been in. We have countries, like North Korea, and 
Iraq, Iran, and Syria, Yemen, that are run by questionable 
people who are gaining a capability of a weapon and a delivery 
system, and it is really dangerous, you know.
    I look at that, and I would ask you, do you all agree with 
Secretary Gates' statement that I just quoted?
    Mr. Murphy. I would agree, Senator, often that--I would 
agree, yes.
    Dr. Davidson. Senator, I would definitely agree with 
Secretary Gates.
    Senator Inhofe. Yes?
    Ms. Disbrow. Yes, Senator. This is an area where there is 
not enough resource right now, and it is that fine art of 
balance between today's readiness needs and modernizing our 
force that is important.
    Senator Inhofe. Yes. I cannot remember who it was that 
testified, but he was reminding us that back in 1961, 51 
percent of our budget was spent on defending America. It is 
down to 15 percent now. This is the mismatch that I see out 
there in a time that we have such great threats. You are 
inheriting this mess. You are not at fault in this thing, but 
do you think that this is just inadequate defense funding?
    Dr. Davidson. Senator, it is something that absolutely 
concerns me. We cannot shortchange national defense, especially 
now in a time of such uncertainty. I think that what it is 
important to do, and if confirmed I will work very hard with 
the Navy and Marine Corps leadership to do, is to try to 
determine exactly what we mean when we say we are accepting 
more risk.
    Senator Inhofe. Yes. Yes.
    Dr. Davidson. I think that is really important, and I look 
forward to working with the committee to make sure that you 
have all the information that you need to understand whether or 
not we are going too far on those cuts.
    Senator Inhofe. Yes. Do you agree with that?
    Mr. Murphy. Yes.
    Senator Inhofe. Yes. Secretary Disbrow, in one of the 
prehearing questions asked of you, it says, ``What is your 
assessment of the current readiness of our Air Force to meet 
national security requirements across the full spectrum of 
military operations?'' Your response was, ``Our combat coded 
unit's readiness is assessed against a full spectrum of 
military operations. Less than one-half of those units are 
rated as ready.'' I know you are concerned about it. How 
concerned are you, and what do you see as the remedy for that?
    Ms. Disbrow. This is a critical priority, Senator. Our 
combat coded readiness varies across major weapons systems, but 
are critical in fighters. On average, about 50 percent of our 
inventory on any day is not ready.
    Senator Inhofe. Yes, and that is very disturbing, and right 
now I am not sure what can be done about that. I think that I 
say to Mr. Murphy, the question was asked of you, ``What is 
your assessment of the current readiness of the Army to meet 
the national security,'' and you talked about, ``However, given 
the decreasing resources and the shrinking capacity of the 
Army, the Army is mortgaging future readiness and response 
capabilities.''
    Now, I have always felt that it is true, and I think that 
is obvious that when you are strapped the way we are strapped 
right now with the expectations of a policy that we are 
supposed to be following with the resources that we have, you 
have to give up something. You give up modernization. You give 
up readiness. You give up maintenance. Which of those things 
concerns you the most right now, because you're going to have 
to give up some of those.
    Mr. Murphy. Senator, it is all about readiness for 
warfighters, and I think when you give up modernization--when I 
said in my opening statement we need to give our warfighters 
the tactical and technical advantage because we do not want a 
fair fight with our enemies, that that that is what you are 
mortgaging when you do not invest in weapons systems, et 
cetera, or as much as you would like to.
    But I would say to you, sir, the numbers itself--when I 
left Congress 5 years ago, we were at 45 brigade combat teams 
on Active Duty. We are now down to 31 brigade combat teams. 
That is what I shared with you earlier, my concern. We have to 
make sure that it is about readiness.
    Senator Inhofe. Also, I look at this, we are giving up 
superiority, and we have always been superior. I am out of time 
here, but I will read this statement of Secretary Hagel. He 
said, ``American dominance on the seas, in the skies, and in 
space can no longer be taken for granted.'' I think that is 
true. Do you think it is true?
    Dr. Davidson. Senator, I think that it risks being true if 
we do not take care right now on readiness, and balancing 
current readiness with modernization. If confirmed, readiness 
will be one of my absolute top priorities.
    Senator Inhofe. Yes. Thank you.
    Ms. Disbrow. Senator, I am very concerned about our 
adversaries and their growing capabilities across the board, 
the speed at which they are modernizing their own forces. It is 
a critical concern. The Air Force is the smallest it has been 
since its inception, and with demand only increasing, those two 
things do not match. We have a threat that we need to keep pace 
with and go beyond.
    Senator Inhofe. Thank you. I think that is also true with 
the Army. Thank you, Mr. Chairman.
    Chairman McCain. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman. I thank each of 
you for your service to our country and your willingness to 
serve in the very important capacities for which you have been 
nominated, and your families as well.
    Talking about readiness, Dr. Davidson, I am assuming that 
you would agree that the Ohio replacement program is critical 
to our sea power superiority. I would like your commitment that 
you would anticipate that the Ohio replacement program will 
continue to be one of the number one priorities of the Navy.
    Dr. Davidson. Yes, Senator. The Ohio replacement is the 
number one priority for the Navy, and I support that. If 
confirmed, I look forward to working with this committee to 
find a way to properly fund it.
    Senator Blumenthal. As you also know, the Navy estimates 
that it needs 48 attack submarines, junior class submarines. 
Yet it projects the number of attack submarines will actually 
fall as low as 41, and remain below the required 48 for the 
next 16 years. This struck four calls into question the Navy's 
ability to meet the requirements of combatant commanders around 
the world and other intelligence, surveillance, and 
reconnaissance [ISR] needs.
    The sub is an extraordinary versatile and important 
platform for our armed services, not only in offense, but also 
in surveillance, intelligence, and launching special 
operations, as you well know. Are you committed to the present 
policy of continuing to procure two Virginia-class submarines 
every year?
    Dr. Davidson. Yes, Senator, I am.
    Senator Blumenthal. Thank you. Shifting to another area 
that I think is critically important. Congressman Murphy, you 
alluded to it in the reference to downsizing the transition of 
our military men and women out of the armed services. We are 
going to be seeing more and more downsizing of our military, 
and many very qualified and dedicated men and women who have 
served our Nation transitioning.
    I would like your commitment that enabling better 
transition will be a commitment of yours. We are going to 
actually have a hearing this afternoon in the Veterans Affairs 
Committee where I am the ranking member on this very issue. It 
has been an extraordinary time for our Nation in keeping faith 
with our veterans to provide the education, and skill training, 
and housing, and healthcare, including mental healthcare, that 
many of our veterans need to meet the invisible wounds of war--
post-traumatic stress [PTS] and traumatic brain injury. I would 
like a commitment from each of you that it will be a priority.
    Mr. Murphy. Yes, sir.
    Dr. Davidson. Yes, Senator.
    Ms. Disbrow. Yes.
    Senator Blumenthal. Let me just finish on an issue that has 
been of great concern to me and, I believe, the chairman and 
ranking member. Hundreds of thousands of veterans have less 
than honorable discharges because they were transitioned out of 
the military and were suffering at the time from undiagnosed 
PTS. I worked with Secretary of Defense Hagel to revise the 
rules and allow these veterans to petition to correct their 
records.
    On September 3, 2014, Secretary Hagel issued policy 
guidance that the Boards for Correction of Military Naval 
Records would give ``liberal consideration of PTS-related 
discharge upgrade requests.'' He directed a public messaging 
campaign and outreach effort. But unfortunately, despite his 
commendable change in policy and the commitment of Secretary 
Carter in his nomination hearing sitting where you are now, 
there really has been too little done.
    In fact, at the end of August, the Department of Defense 
reported to this committee that only 201 veterans across all 
Services have applied for these upgrades. There are about 
260,000 veterans from the Vietnam war alone who are prohibited 
this day from accessing VA [Department of Veterans Affairs] 
healthcare and support because of less than honorable 
discharges, and many of them suffer from PTS. They need to be 
reached, and the public messaging campaign really needs to be 
undertaken in earnest. I would urge you to pursue those steps, 
each of you within your respective Services, and I would 
welcome your comments.
    Mr. Murphy. Senator, you have my commitment to do just 
that.
    Dr. Davidson. Senator, I think this is an incredibly 
important issue, and I look forward, if confirmed, to working 
with the VA, Navy, and Marine Corps leadership to ensure that 
we are doing it right.
    Ms. Disbrow. Senator, I am passionate in this area. We have 
done some effort, but not enough. But the Vice Chief and I in 
my current capacity have commissioned an independent study to 
see the scope of the problem in the Air Force. We are concerned 
about all airmen who separate, particularly those with less 
than honorable, who may have fallen through the cracks for 
benefit relief.
    We have the Surgeon General and our JAG [Judge Advocate 
General] involved, and we are coming up with an action plan, 
and we are working this hard. More work to be done.
    Senator Blumenthal. I thank each of you for those answers 
and your commitment. Again, thank you for your service. Thank 
you, Mr. Chairman.
    Chairman McCain. Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman. I want to thank 
each of you for being here, for your willingness to serve and 
for the service that you have given our country so far. I think 
you are all tremendously qualified.
    I wanted to ask you, Dr. Davidson, so part of the challenge 
that we often face when we think about readiness, we cannot 
forget about recruiting and retaining quality people and making 
sure that we treat those who serve well. Part of that is their 
living conditions. I wanted to ask you, you are nominated to 
serve as the Under Secretary of the Navy, and I want to 
highlight an issue for you at the Portsmouth Naval Shipyard, 
which is the Navy center of excellence for fast attack nuclear-
powered submarine maintenance, modernization, and repair.
    When a submarine arrives for long-term maintenance, the 
junior enlisted sailors assigned to that submarine, they stay 
in the barracks at the shipyard. Earlier this year, I was very 
disappointed when I saw the conditions at Building 191 
Barracks, which was the junior enlisted barracks. The barracks 
violate current building and fire codes. They do not have an 
operational fire suppression system. They do not have code 
compliant ventilation, and you can tell it when you are in it. 
They frequently suffer from sewage failures, rat infestation, 
mold, hot water failures. I believe our junior enlisted sailors 
deserve a lot better than that.
    The shipyard itself has been highlighting this issue for 
quite some time, but the Navy hadn't prioritized the funding. 
After I visited the barracks, both Senator Shaheen and Senator 
King joined me, when we did the defense authorization in 2016, 
including language to note the unacceptable conditions on 
Building 191. This language emphasized the committee's 
expectations that for Fiscal Year 2017 the Navy will request 
funding and address this issue for the replacement barracks.
    I have to say I am very pleased that the Navy post the 
defense authorization did move the sailors into better living 
conditions, but they are temporary. There still needs to be a 
permanent solution for this barracks issues and the living 
conditions to make sure that they are appropriate. I wanted to 
ask for your commitment, Dr. Davidson, if you are confirmed, 
will you examine this issue and work to ensure the Navy in its 
Fiscal Year 2017 budget looks at this issue, honors its 
commitments, and really complies with the direction of the 
Senate Armed Services
    Committee on this issue?
    Dr. Davidson. Yes, Senator. Thank you for highlighting that 
and for your leadership. If confirmed, I will take a look at 
the progress being made and ensure that we are working to 
ameliorate the situation.
    Senator Ayotte. Thank you. Thank you very much. I also 
wanted to ask each of you, on the issue of auditing, auditing 
being services. It has been a great frustration in this 
committee, as you know, over the years on the auditing of the 
Pentagon. I wanted to ask each of you what your commitment will 
be--we have repeatedly seen the deadline slip, and we know that 
if we look across the rest of government, that being able to 
make a valid financial audit does not happen in the Pentagon, 
but happens in so many other areas of government.
    I would like each of your commitment that you are going to 
prioritize this because this has been a frustration for this 
committee for years.
    Mr. Murphy. Senator, you have my commitment, if confirmed, 
that this is a top priority.
    Dr. Davidson. Senator, you have my commitment as well. 
Thank you.
    Ms. Disbrow. You have my full commitment.
    Senator Ayotte. Thank you, because as we look at the 
resource challenges, we want to be able to make sure that we 
can tell the taxpayers of this country that we are accounting 
for all of the dollars, and that we are ensuring that we do the 
best to make sure that those dollars are spent wisely.
    That said, we have had recently so much testimony before 
this committee about the problems with issues within the 
Pentagon, issues with how we get the best for our warfighter. 
Something that General Flynn said recently before our committee 
very much struck me. Essentially what he said was that it was 
the Pentagon that he felt most often--"I found myself fighting 
the Pentagon as much or more than our enemies.''
    We have seen time and time and again where our warfighters 
do not get what they need, or the process upon which they have 
to go through or, you know, the examples that are given in 
Secretary Gates' books and other examples just are absolutely 
wrong. I want to hear from each of you what are we going to do 
to make sure this changes so that when our warfighters need 
something in theater, that there is a way that we get it to 
them as soon as possible so that they can continue to defend 
our Nation and defeat our enemies?
    Ms. Disbrow. Senator, every day my focus is combat power, 
and that involves readiness for today's fight, modernizing for 
tomorrow's fight. We continue to look at processes to include 
the warfighting requirements process to make sure that it is 
well--reviewing with combatant commanders what those needs are, 
where the capability gaps are, and how to best and quickly 
solve those gaps.
    We are working with the acquisition community to change the 
way we acquire systems and to ensure we are getting innovative 
solutions into our processes for decision quickly, and that we 
are pushing that capability to the warfighter as quickly as 
possible. You have my commitment, if confirmed.
    Dr. Davidson. Senator, you have my commitment that I will 
work with the Navy leadership and the Marine Corps leadership 
to ensure that we put the focus on the combatant commanders and 
on the warfighter. All of our processes should be looked at 
with that lens in mind. If I am confirmed, you have my 
commitment that I will absolutely do that.
    Mr. Murphy. Senator, absolutely. What we will bring to this 
job as chief management officers of our respective branches, we 
need to be thinking about how this affects the warfighter, and 
empowering them to do what is necessary to keep our families 
safe. You absolutely have my commitment.
    Senator Ayotte. Thank you.
    Chairman McCain. Dr. Davidson, I hope you will look at that 
issue there of the living conditions. It is not acceptable, and 
it is not very helpful to the All-Volunteer Force. I hope you 
will give that some priority.
    Senator King because of his advanced age would like to go 
ahead of Senator Donnelly.
    [Laughter.]
    Senator King. I have so many thoughts now.
    [Laughter.]
    Senator King. I appreciate it. I do have to be at an 
Intelligence Committee meeting.
    Ms. Disbrow and Dr. Davidson, you all will each be facing 
decisions involving long-term major investments in new or 
rebuilt weapons systems. The Ohio-class submarine has already 
been mentioned, and the long-range strike bomber. Experience 
has taught us that this is where the problems of overruns come 
most dramatically in a new or a major upgrade.
    The other challenge is that both of those systems will be 
40-year assets. With technology changing at the rate that it 
does, we have had an extraordinary series of hearings here on 
procurement and on technology and integration. I hope that you 
will pay particular attention to, A, the potential for 
catastrophic overruns in new programs, and B, the challenge of 
building a new platform that is modular, if you will, or 
modifiable so that we do not face technological obsolescence 10 
years into a 40-year platform.
    Dr. Davidson, I know you have given some thought to this 
subject.
    Dr. Davidson. Yes, Senator. I think it is really important 
that we take a hard look at our acquisition processes, and also 
the private sector in how they innovate quickly because I think 
you are absolutely right that we have to worry about long lead 
time programs that could potentially not keep pace with the 
threat. That is something that I am very concerned about, and I 
think we need to take a look at it.
    I think that there have been a lot of lessons learned from 
some of the acquisition problems that we have had in the past, 
and if confirmed, I will work with the Navy leadership, Sean 
Stackley, in particular, our acquisition assistant secretary, 
to make sure that we apply those lessons going forward, 
especially given the challenge of things like the Ohio 
replacement, which definitely will----
    Senator King. There have been many lessons. I want to be 
sure they have been learned.
    Dr. Davidson. I agree.
    Senator King. Ms. Disbrow?
    Ms. Disbrow. Yes, Senator. The focus specific to our long-
range strike bomber, which is a critical capability, we were 
focused on life cycle costs to keep costs down by stabilizing 
requirements. We are very focused on what you described as this 
open system approach to acquiring this capability area so we 
can rapidly keep up with changing technology and bring it in 
without as much concern for integration, and without the length 
of time that many of our past programs have taken. That is the 
focus of this important program.
    Senator King. Mr. Murphy, it seems to me one of the crucial 
requirements of our Army in these days is training other 
people. We have been through a long series of training in Iraq. 
It does not appear to have been all that effective. I would 
hope that this might be a focus. How can we train other 
fighters effectively so that when the time comes we do not have 
to send in our own troops to take care of a situation in Mosul 
or Raqqa?
    I commend to you some serious thought and research on what 
works, what has not worked, again, lessons learned, because I 
think this is becoming a more and more important mission.
    Mr. Murphy. Senator King, I think you saw the Chief of the 
Staff of the Army, General Milley, just yesterday at the Center 
for National Security come out and talk about those advise and 
assist battalion brigades that are necessary, experts like John 
Nagel, who is now headmaster at Haverford School, has talked 
about that. He served under General Petraeus like I have. Those 
type of systems in place I think are critical when you project 
in the future what it will be over the next 50 years, what we 
need to be doing.
    I will say to you, Senator, it is not just about training 
them to fight so we can come home, but it is also that 
political solution that is desperately needed so they have the 
will to fight, so they believe in their government. When you 
look at the Sunni population from Damascus to Baghdad, you 
know, we need to encourage them that they have a government 
that they can believe in. Or whatever it is, that political 
solution needs to be found just as well.
    Senator King. I completely agree. If the government in 
Baghdad had been more inclusive starting 10 years ago, we might 
not have had the rise of ISIS, or at least the ease with which 
they took that territory.
    One final, and this falls into the category of a 
suggestion. We have been talking about headquarters staff and 
how to reduce it. There are two different approaches. One is a 
big reorganization and re-looking. Another that often can work 
without the disruption of a total reorganization is a 
combination of what amounts to a hiring freeze and attrition 
because in any workforce, there is 5 or 10 percent attrition in 
any year.
    If you have somebody who is in charge of saying do we 
really need to refill this position, you avoid a lot of the 
disruption, and yet you will get where you want to get in a 
systematic way. In my experience, one person in your 
organization has to be in charge of saying, okay, we need to 
fill this positon or we do not, combine that with 
reorganization. It is an effective way to get there, sometimes 
more effective than waiting for the big reorganization that 
never seems to come.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman. Ms. Disbrow, the 
U.S. Army operates some of the same medium-altitude ISR 
platforms as the Air Force does. But they use warrant officers 
and enlisted personnel to supervise and to conduct some ISR end 
strike operations, and their units are led by a few officers. 
Compare that with the Air Force where we are using officers 
throughout that same operation.
    What is your assessment of the Air Force reintroducing a 
warrant officer program or using enlisted personnel to operate 
its remotely-piloted aircraft [RPA] fleets to increase the 
manning and reduce costs as well as really manning level 
stress, which right now I understand is occurring. Could you 
share that with us?
    Ms. Disbrow. Senator, it has been my experience that our 
airmen can do anything we ask and train them to do. They are a 
highly capable force. Our Secretary and Chief are taking a hard 
look at enlisted and how to integrate enlisted skills to 
include our RPA stressed force.
    Right now, the main focus is on increasing the training 
pipeline, which is really the root cause for the shortfall we 
have. But the Secretary and Chief are finalizing their 
findings, and I expect them to share those findings shortly on 
how to integrate the enlisted force in the RPA career field 
area. We have experience in space as well as other intelligence 
areas of integrating well our enlisted force.
    Senator Rounds. You would be open to such a proposal?
    Ms. Disbrow. Senator, I remain open to all proposals.
    Senator Rounds. Very good. Senator King started with a line 
of questioning right after the chairman had earlier begun this. 
But I would like to begin with Dr. Davidson and then follow up 
with Ms. Disbrow. In addition to the more than $2 billion in 
cost growth on each of the Ford-class aircraft carrier, key 
systems on the USS General R. Ford continue to demonstrate 
technology immaturity and be concurrently designed and built, 
most notably, the advanced arresting gear, which has incurred a 
development cost that has quadrupled, and development time that 
has nearly tripled.
    If confirmed, what role would you envision playing in 
controlling the cost of aircraft carriers and ensuring 
individual accountability? But even more, the suggestion is 
that we have the NDAA directed study of future aircraft carrier 
alternatives that would replace or supplement Ford-class 
aircraft carriers.
    Specifically my question is this. Do we start over again, 
or do we look at duplicating what is a system which has now 
gone through the development phase? How do you reconcile 
starting over, looking at other alternatives as directed by the 
NDAA study, or simply copying or duplicating what we have found 
successful? How do you look at the two? I am going to ask this 
of both of you two.
    Dr. Davidson. Yes, Senator, I think that is exactly the 
challenge that we face. Number one, in taking the lessons that 
we have learned from the problems with the Ford to include 
making sure that you have advanced technology that is already 
ready to go, that you have defined requirements, and that you 
have a stable program, and a trained acquisition workforce that 
knows how to oversee these programs and that knows how to 
balance it overall. Those are important lessons taking forward 
no matter which route we choose.
    That said, I look forward to reviewing the report on 
alternatives and to see if there are affordable ways to ensure 
that we continue to have a carrier fleet that will be able to 
project the power that we need to do.
    Senator Rounds. Would it not be fair to assume that if we 
are going to duplicate what we are already doing, the cost per 
copy should go down and not up?
    Dr. Davidson. Yes, Senator, I think that that is their 
desire. If I am confirmed, I will take a look at that to make 
sure that that is the direction that we are headed.
    Senator Rounds. Specifically with the LRSB [long-range 
strike bomber] that we are looking at, if we start out 
suggesting a certain number be built and then we average the 
cost of the design development over that number, if we do not 
produce that number of LRSBs, then the cost per unit would go 
up. Would you be committed that if we identify an appropriate 
number which should be built, that we follow through with the 
number of LRSBs that we originally started out with? Would you 
support that that is an appropriate directive long term for the 
Air Force?
    Ms. Disbrow. These kinds of cost overruns are unacceptable, 
and I do support and I do commit to this acquisition strategy 
that we are developing for this very important capability area. 
You have my commitment, Senator.
    Senator Rounds. Did we learn anything with the F-22?
    Ms. Disbrow. We have learned lessons from all our major 
acquisitions. It is about matching the acquisition strategy to 
the technology maturity, and to do that and lay that schedule 
in in a realistic way----
    Senator Rounds. Specifically, though, with the F-22, we did 
not plan on just building 200 units, and yet that is what we 
ended up with. Was that a mistake to shut it down early?
    Ms. Disbrow. The F-22 is an incredibly capable aircraft. We 
would love to have more of that aircraft. We need to watch as 
we go forward with these aircraft programs that we are----
    Senator Rounds. Is it not fair to say, though, that the 
cost per unit would have gone down if we would have been 
building more than the number than we had originally intended?
    Ms. Disbrow. Senator, I agree with that type of math, yes.
    Senator Rounds. Thank you. Thank you, Mr. Chairman.
    Chairman McCain. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman. Secretary 
Disbrow, I want to thank you and your family. Dr. Davidson, I 
want to thank you and your family. Congressman Murphy, I was 
privileged to serve with you in the House for a number of 
years. You, and Jenny, and your family are close friends, and 
we are honored by all of you stepping up to serve our country.
    One of the areas that we have continued to focus on here, 
and I know that your various forces have as well, is ending 
suicide, ending suicide among our men and women. You are 
responsible for readiness. You are responsible for training. 
You are the chief management officers.
    I want to make sure that one of your main focuses is 
getting that number to zero. It is over 400 again last year. It 
looks like we will be over 400 again this year. Every one of 
those young men and women is somebody's husband or wife, mom or 
dad, brother or sister.
    One of the areas that has been challenging is stigma. I 
want to make sure that you are willing to work on eliminating 
that stigma, and making it a sign of strength that people go to 
try to have somebody to talk to.
    Mr. Murphy. Absolutely, Senator. As you know, the signature 
injuries of the Iraq-Afghanistan War are TBI, traumatic brain 
injury, and PTSD, post-traumatic stress disorder. Of the 2.7 
million Iraq-Afghanistan veterans, over a half million have 
PTSD.
    We need to make sure that our soldiers, our warfighters 
when they come home have the resources necessary. Now, part of 
that is the stigma, is to make sure that they understand that 
just like physical health is very important when we have a PT 
[physical training] test, that that mental health is just as 
important. That is why the Army has begun an initiative, really 
embedded help teams in the brigade--at the brigade level where 
they are to make sure that those soldiers know when they are 
showing up at PT that they know where those mental health 
professionals are.
    I will say nationwide, there is a mental health 
professional shortage. We are doing our best to get after it, 
to get the best and brightest to come in there both on the 
civilian and the uniform side. But this needs to be a national 
effort.
    Senator Donnelly. Thank you. Dr. Davidson?
    Dr. Davidson. Yes, Senator. This is an issue that I think 
is an absolute tragedy, and if confirmed it will be an enormous 
priority for me as I know it already is for the Navy 
leadership. They are seized with this issue.
    The issue of stigma, I think, is really important, and what 
we need to do is focus on education for the commanders, peers, 
and chaplains, and that is what the Navy has been focusing on. 
They have some programs I think that should help, but it is an 
enormous, enormous tragedy and an enormous problem, and I look 
forward to working on it.
    Senator Donnelly. Thank you. I think, Secretary Disbrow, 
you and everyone else will find that the more you push it down 
to the lowest possible level in terms of responsibility. They 
are the ones who see it first, who see one of their 
servicemembers going a little bit sideways. Any efforts you can 
put into that would appreciated.
    Ms. Disbrow. Yes, Senator. Every life is precious, and you 
have my commitment to do everything to do to change the 
culture, to look for symptoms, and be there for our people.
    Senator Donnelly. Thank you. Two other things. Each of your 
organizations has different best practices on how to end 
suicide. By law, we require you to work together to focus on 
best practices. If the three of you would continue to talk 
outside of this room today and over the next year and into the 
future, the more you talk with each other, you will find that 
one has something that is working, one has something else that 
is working. Joint effort helps to move the entire ball along.
    Additionally, General Chiarelli has worked very hard on the 
handoff from the Department of Defense to the VA. We have had a 
real challenge of what is called the formulary where some of 
our men and women are receiving certain prescriptions while in 
DOD to try to work with their mental health challenges, and 
when they go over to the VA, they are put onto something 
completely different. We really need you to work with the VA in 
making this a seamless handoff so that one day they are not in 
one place, and the next day they are not in another place.
    I apologize. I am a little short on time. I just wanted to 
get into two other things. Congressman Murphy, one of the 
things we are going to see in the future is we are going to be 
bringing JLTV [the Joint Light Tactical Vehicle] on line. I 
want to make sure that as you do that that you look at how you 
integrate bringing the Humvees that are out there to continue 
to modernize and upgrade them, as well as bringing JLTV online 
so you have a whole program of all of those vehicles moving 
forward. Will you commit to that, sir?
    Mr. Murphy. Yes, Senator.
    Senator Donnelly. Okay. Finally, there are real challenges 
in what strategy to move forward in Syria and in Iraq. There 
are a number of different opinions here and elsewhere on no fly 
zones, on safe zones, on how to best coordinate with the Sunni 
tribal leaders, how to work best with the Kurds.
    We really need you to provide your unvarnished opinion. 
Going along to get along in this area only causes heartache and 
trouble. I want to make sure that, all of you have a phenomenal 
amount of experience, of service to our country. It does not do 
any of us any good if you put that in a closet. Will you 
continue here and in your new positions to provide your 
unvarnished opinion as to what you think is the best way to 
move forward in strategy and elsewhere?
    Mr. Murphy. Yes, Senator.
    Dr. Davidson. Yes, Senator.
    Ms. Disbrow. Yes, I will.
    Senator Donnelly. Thank you so very, very much. Thank you, 
Mr. Chairman.
    Chairman McCain. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair, and thanks to all of 
you for being here. Congratulations on your nominations and to 
your families as well. We are so glad that you are able to join 
us today.
    We will start with Congressman Murphy and Dr. Davidson, 
please. As you know, Secretary Carter just recently announced 
that all occupational specialties will be open not only for 
men, but now also for women. I do support providing women every 
opportunity to serve in any sort of capacity. However, I do 
want to make sure that standards are not lowered, and that this 
move is enhancing our military combat effectiveness.
    I am a bit disturbed at how it appears the Secretary has 
somewhat muzzled our agencies and the Services to a point where 
the Services have not been able to provide us with the data and 
the input either before the decision was made, and even now 
after the decision was made, on gender integration within the 
different Services. I would like some follow up on that.
    But for both of you, please, if there are only a small 
number of women that are able to qualify for combat military 
occupational specialties [MOS], would you support them lowering 
the standards to enable a larger number of women to participate 
in these types of activities? Congressman Murphy?
    Mr. Murphy. Senator, no, I would not. The Army is a 
standard space organization. We have PT tests, and we have 
MOSs, military occupational specialties, that are elite units, 
like our Rangers, our Delta Force, et cetera. They have to go 
through immense training to go through those schools and 
capabilities.
    There are women in our ranks and in our future ranks that 
will be able to meet those standards and wanting to do those. 
They now have access to that. Ranger School is open forever now 
to women. But we will not lower our standards because it is 
clear that we have an MOS that has laid out what those 
capabilities are to accomplish the mission.
    Senator Ernst. Very good. Thank you.
    Mr. Murphy. You have my commitment.
    Senator Ernst. Thank you. And, Dr. Davidson?
    Dr. Davidson. Senator, now that the decision has been made, 
I assume that if I am confirmed, implementation will be my 
priority. My guiding principle on this issue is absolutely not 
to lower the standards and to ensure combat readiness. I was 
the first woman to fly the C-130 tactical aircraft in the Air 
Force, and if they had lowered the standards just to let people 
like me do it, that would have been a tragedy for combat 
readiness. I am committed to make sure that does not happen.
    Senator Ernst. Thank you. I appreciate that very much. I 
hear the same thing from a number of women that I have served 
with also that we do not want to see those standards lowered. 
The second question along that same line of effort, since we 
have now opened up all of our MOSs to women, let us talk a 
little bit about Selective Service then. If all of you would 
participate in the discussion, please. Do you think that 
Selective Service should now include females, Congressman?
    Mr. Murphy. Ma'am, if confirmed, I am absolutely willing to 
look into that. I do believe, though, it is a broader national 
question that needs to be had, and I look forward to working 
with you and the committee to address it.
    Senator Ernst. Thank you.
    Dr. Davidson. Senator, I understand that there is a high-
level interagency discussion on this issue, and I agree with my 
colleague that it is an issue for the American people. If I am 
confirmed, I will look forward to engaging with you in that 
discussion.
    Senator Ernst. Okay. Secretary?
    Ms. Disbrow. I do see a need to review the Selective 
Service processes, and I look forward to working with you. 
There are many perspectives on this, and I look forward to 
working with this committee on those.
    Senator Ernst. Certainly, and I look forward to that 
discussion as well.
    Chairman McCain. You have all three successfully ducked the 
question.
    Senator Ernst. Exactly, yes. But I do understand there 
needs to be a very broad discussion about this, but I think 
that the President has opened that door. I think the Secretary 
has opened that door now by opening all MOSs to women. I would 
be proud to have my daughter register for the Selective 
Service, so I think it is something that we do need to have a 
serious discussion on. If there is a way that you can influence 
that, certainly would look forward to your comments as we move 
forward with this.
    Just very briefly, Congressman, I know you are a former 
company grade officer, and I appreciate your service so very 
much. We have had a lot of problems. We need some common sense 
when it comes to acquisition within the Pentagon, and we can 
talk further about this, but small arms upgrades in the Army. 
We have seen the request for proposals that have been put out 
on just a simple handgun. I would like to have your commitment 
that we will take a look at this and make sure that we are 
moving forward in a smart manner.
    Mr. Murphy. Absolutely, ma'am. Yes.
    Senator Ernst. Okay. I know my time is up. Thank you, Mr. 
Chair.
    Chairman McCain. Dr. Davidson, you had no role in causing 
the C-130 to be the most uncomfortable aircraft in the 
inventory to ride in. Do you bear any responsibility for that?
    Dr. Davidson. I feel your pain, Senator.
    Chairman McCain. Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman, and I want to 
thank all of three of you and your families for the support 
they give you, for willing to be confirmed for this job.
    My question to all three of you is going to be why do you 
want the job and what is your first reason or your first 
priority when you are confirmed? Ms. Disbrow, we will start 
with you. Why do you want the job?
    Ms. Disbrow. I feel I can make a difference, Senator. My 
focus for my entire career has been all about combat power, and 
I see shortfall areas. I see readiness problems. I see 
processes that need reform. I think I can make a difference.
    Senator Manchin. What have you identified as the number one 
problem, and what do you want to change?
    Ms. Disbrow. Readiness and----
    Senator Manchin. That is the biggest.
    Ms. Disbrow.--and meeting demands while we are modernizing.
    Senator Manchin. Doctor?
    Dr. Davidson. Senator, I would like this job because I 
think we are at an incredibly important inflection point in the 
United States. We have to reset and also think about 
modernizing for the future. My priority is also readiness. The 
Navy has some serious shortfalls when it comes to aviation 
readiness and ship maintenance. If confirmed, those will be my 
first priorities.
    Senator Manchin. Pat?
    Mr. Murphy. Senator, I joined the Army when I was 19 years 
of age, and I joined because I love my country. When the 
President asked me to serve in this capacity, I had to check 
with my boss first, but once I got the green light I said yes. 
It is because we are at a defining moment in the Nation's 
history, and we need the best and the brightest to be in these 
roles to make sure we get after it against ISIS and against 
other folks that are trying to do our families harm.
    My top priority, sir, and what I am most excited about is 
that chief management officer role. We have to get after it 
when we talk about redundancies, when we talk about spending, 
when we talk about auditability, and these issues. We cannot 
come back to Congress year after year after year and say we are 
working on it, we are working on it. We need to execute.
    Senator Manchin. I will ask all three of you another 
question. What is the greatest threat the United States of 
America faces? We will start with you, Congressman.
    Mr. Murphy. Senator, I would concur with General Milley, 
the Chief of Staff of the Army, who says that Russia is our 
number one strategic threat. But the immediate threat to our 
families right now I would say would be ISIS. If confirmed, I 
will do everything I can to let my voice be heard as a former 
warfighter to make sure that we are getting after it 
strategically and tactically.
    Dr. Davidson. Senator, I also agree with the chairman, the 
vice chairman, and other defense leaders that Russia is the 
greatest strategic threat, but that we also have to remain 
focused on the ISIS threat currently.
    Ms. Disbrow. Senator, I think the greatest threat is that 
we need to keep ahead of our adversaries and how quickly they 
are changing. There are adversaries we are not even aware of. I 
think our biggest threat is continuing to keep a laser focus on 
keeping ahead of our adversaries.
    Senator Manchin. Admiral Mullen about 5 years ago when I 
first came to the Senate testified before us, and the question 
was asked of him what the greatest threat the United States 
faces. I thought I would hear the same as I heard from you all. 
He said without blinking an eye the debt of this Nation is the 
greatest threat that we face because we will not be able to 
maintain everything that you all are concerned about.
    How concerned are all three of you about the debt this 
Nation faces, and also the Department of Defense not even being 
able to stay on track to get an audit done by 2017? The only 
agency in the Federal Government that is not audited. What is 
your commitment to getting this place audited? Doctor, we will 
start with you and go right to down the line.
    Dr. Davidson. Senator, I agree that we should not 
exacerbate the problems that we already face by complicating 
our own processes here at home and our own budgeting processes. 
If confirmed, I will make it a priority to focus on the audit 
problem. I know that the Navy and Marine Corps are making some 
progress there, but that there is a long way to go.
    Senator Manchin. Congressman Murphy?
    Mr. Murphy. Senator, to me it is a great threat. We need to 
get after it. I was a Blue Dog for a reason. I put forth and 
passed legislation like the Improper Payments Recovery Act, 
which identified tens of billions of dollars that we were 
improperly paying. I look forward to using that legislation and 
other legislation to get after it within the Department of 
Army, and it is long overdue.
    Ms. Disbrow. You have my full commitment to audit. This is 
something that needs to continue to progress. We have found 
many weaknesses, and we are working those hard. We are on track 
to meet the Congress' requirements for full audit.
    Senator Manchin. Let me just say as I finish here, is that 
the military is the thing that keeps us united as a Nation, if 
you will, but also it is the one that keeps us in a bipartisan 
effort. This committee works in a bipartisan effort. I think 
the support we receive back home is bipartisan for our 
military. But they want to make sure that we are being 
efficient in how we do things and the amount of money that we 
are spending, and not just keeping that we are short on funds, 
but we spend the money wisely.
    There are redundancies throughout the entire Department. If 
you listen to GAO [Government Accountability Office] reports 
and everybody else's reports on this, but it just will not 
change from within. For some reason, it inherently will not 
change. That is why I was asking you what is your passion 
because you have to have a passion to go in there and want to 
make change. You are going to ruffle some feathers, so I would 
hope that you all would take that passion with you and make 
change. Thank you.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman, and I want to 
thank the nominees for their service to our country and 
willingness to serve, and I also want to thank the families. I 
know how much the families also serve even though they might 
not have the title, so it is great to see so many families 
here.
    Congressman Murphy, I want to dig into a couple of issues 
relating to the Army. First, the whole issue of the tooth-to-
tail ratio. I know General Milley has been very focused on 
this. As a matter of fact, I saw Acting Secretary Fanning at 
the Army-Navy game. Sorry, Jack, about the result there.
    Senator Reed. Thank you, sir.
    [Laughter.]
    Senator Sullivan. Okay. But I think it is a really 
important issue, and we are hearing about it all the time. One 
example recently just in testimony a couple of weeks ago, the 
Office of the Secretary of Defense has 77 flag officers. Is our 
U.S. Army tooth-to-tail ratio too strongly focused on the tail? 
If so, what do we do to fix it? I know it is a big concern of 
the Chief of Staff of the Army as well as Acting Secretary 
Fanning.
    Mr. Murphy. Senator, it is an absolute concern. I do 
believe the Army's focus is on the tooth, but that does not 
mean that we do not need to make improvements in the tail. Part 
of that effort----
    Senator Sullivan. You think we are too heavily weighted. If 
you look at the U.S. military compared to almost any other 
military in the world, we are very, very heavy on the tail.
    Mr. Murphy. Senator, I look forward to work with you on 
this. I would say to you that----
    Senator Sullivan. What is your opinion?
    Mr. Murphy. I am concerned, and I think that we need to 
increase the tooth and less in the tail. I think, Senator, you 
do that first by saying what is the tooth. I look at studies 
like McKenzie and others----
    Senator Sullivan. Is a brigade combat team--an airborne 
brigade team, a tooth?
    Mr. Murphy. Yes.
    Senator Sullivan. Yes. I think General Milley would agree 
that we are too heavy in the tail, and I want to get your 
commitment certainly to work with this committee to actually 
focus more on the warfighter.
    Mr. Murphy. You have that commitment, Senator.
    Senator Sullivan. There is a lot of talk about Russia, and 
a lot of the members of the Joint Chiefs in the past year when 
they came up for their confirmation hearing talked about Russia 
as the number one threat.
    One area that has been a focus of the committee is in the 
Arctic, and the Russians have dramatically, dramatically built 
up their forces in the Arctic: four new BCTs, just this year a 
new Arctic military command, 11 new airfields. Just last week 
they announced deploying cutting-edge S-400 missile defense 
systems in the Arctic. Do you know what the U.S. Army is 
planning on doing in the Arctic right now?
    Mr. Murphy. Are you asking me, Senator?
    Senator Sullivan. Yes.
    Mr. Murphy. Sorry, I just want to make sure. I am aware of 
what the Army plan is that they are looking at, that they have 
not made a commitment to yet.
    Senator Sullivan. What is that just so people understand--
--
    Mr. Murphy. Senator, as you know, Chief of Staff of the 
Army Milley is reviewing that decision, but it is that are we 
going to make a brigade combat team to make it a battalion 
level and not a brigade level.
    Senator Sullivan. Again, that is the ultimate tooth, right, 
for the U.S. military, a brigade combat team, an airborne 
brigade combat team, the ultimate kick in the door capability. 
What do you think Vladimir Putin would think of that if we are 
removing the only airborne BCT in the Arctic, the only airborne 
BCT in the entire Asia-Pacific while the Russians dramatically 
build up their forces? How do you think Vladimir Putin would 
react to that?
    Mr. Murphy. Senator, I think that is a hypothetical. I am 
not----
    Senator Sullivan. It is not a hypothetical. I guarantee you 
he is looking at the issue right now.
    Mr. Murphy. Senator, I think the Russian president looks at 
that we have 80,000 troops in the Pacific, and I think he looks 
at the fact that we have done this----
    Senator Sullivan. Taking our only airborne BCT, one of the 
most strategic assets in the U.S. military in the entire Asia-
Pacific, in the entire Arctic, and we are getting rid of it. 
What do you think Vladimir Putin would think of that when he is 
building up in the region? Huge.
    Mr. Murphy. Senator, I think that is why the new leadership 
in the Army, which I am not part of yet, but if confirmed I 
will be, is reviewing that decision.
    Senator Sullivan. Let me ask another question. Because this 
committee and the Congress are concerned about the Arctic, we 
had a commitment in the NDAA for an OPLAN [operational plan] 
plan for the Arctic, first time ever. The Secretary and General 
Dunford both committed to make that a robust OPLAN for the 
Arctic.
    If confirmed, I would like your commitment to make sure we 
have an OPLAN first with the Secretary and the chief of staff 
or the chief of the armed services committed to saying it would 
be a robust OPLAN. I would like your commitment if confirmed to 
make sure we are not moving a single soldier out of the Arctic 
until that OPLAN is completed. I believe I have gotten this 
commitment from General Milley.
    A frustration of mine, though, has been when I go home, I 
hear that our troops are continuing to move forward with 
disbanding the 425, which is not the commitment that I received 
from the Army senior leadership. I need right now here, if 
confirmed, you would confirm to make sure we first complete 
this robust Arctic OPLAN before we move a single soldier out of 
the Arctic. Can I get that confirmation?
    Mr. Murphy. Senator, you have my commitment that I will 
review it and that I will do that as you--whether it was you in 
the Marine Corps or me as a paratrooper in the 82nd Airborne 
Division, when we are at the rough ranges, it is ready, aim, 
fire, not fire, aim, ready.
    Senator Sullivan. Exactly. Will you make sure we get after 
it?
    Mr. Murphy. I know General Milley is after this. He is 
going to the Arctic. I am not trying breaking any news, but he 
is going to Alaska to visit, and he is, I believe, planning to 
go to the JRTC [Joint Readiness Training Center] down in 
Louisiana. You have my commitment, Senator, that I will review 
it when I get in there and brief you and the whole SASC to make 
sure that we are doing the right thing.
    Senator Sullivan. But not moving a single soldier out of 
the Arctic until that OPLAN is completed. That is the 
commitment----
    Mr. Murphy. That is my understanding that is what----
    Senator Sullivan. That is the commitment I need from you 
right now.
    Mr. Murphy. That is the commitment that I believe that the 
Army, that General Milley has made to you currently, Senator. I 
concur with General Milley, yes.
    Senator Sullivan. Thank you.
    Chairman McCain. Senator, I think you made your point.
    [Laughter.]
    Chairman McCain. Senator Shaheen.
    Senator Shaheen. First of all, congratulations to each of 
you, and thank you very much to your families and to each of 
you for your willingness to continue to serve the country 
because each of you have actually been serving.
    I want to begin, Assistant Secretary Disbrow, with you. As 
you may be aware, the Pease International Tradeport in 
Portsmouth, New Hampshire, because of previous activity of the 
Air Force being there, the three wells that are used by the 
community have been contaminated. The Air Force has been very 
good at coming up and listening to people in the community, 
hearing the concerns that they have, and taking responsibility 
to address the situation.
    But I just want to make sure that if confirmed that you 
will commit to ensuring that the Air Force continues to provide 
the resources that are necessary to complete the well treatment 
systems and to continue the work with the local community.
    Ms. Disbrow. Senator, you have my commitment. We are 
working hard with you and your team to ensure we are 
identifying those who may have been exposed. We are working the 
cleanup effort, and we continue to work with you on the blood 
level testing issue.
    Senator Shaheen. Thank you very much. Dr. Davidson, I am 
not going to reiterate what Senator Ayotte said about the base 
housing at the shipyard, but it is something obviously that 
Senator King and I will also continue to watch very closely, 
and appreciate your willingness to ensure that action is taken 
to address that.
    In one of the hearings we have had in the last few weeks 
about military reform, one of the issues that we heard from 
people testifying was concern about cutbacks to research and 
development that would affect the capacity of our military to 
have the innovation that it needs to stay ahead of the 
competition, to stay ahead of the national security challenges 
to the country.
    A number of people testifying talked about the Small 
Business Innovation Research [SBIR] Program and how important 
that is in developing new technologies. They also talked about 
the role of small businesses because so much of our innovation 
comes from small business. I know that it has been a challenge 
getting DOD up to the commitment that it has to ensure that a 
certain percent of contracts, 5 percent of its business, go to 
small businesses.
    Can each of you talk about the challenges you see to 
ensuring that we continue to work with small businesses, which 
are so critical to our defense industrial base in this country, 
and about what you think we can do to remove some of those 
obstacles to ensuring that our small businesses are working 
closely with DOD. Congressman Murphy, I will ask you to begin.
    Mr. Murphy. Thank you, Senator. It is critical. I mean, 98 
percent of the business of the workers in America are small 
business. I am in the private sector now. I work for an actual 
law firm. We cater to small businesses. These are small 
businesses, 16,000 of them that are mostly privately held.
    It is critical, and we need to make sure that when we 
partner, that they understand what we are trying to do, and 
they understand that they need to be on time and on budget. A 
lot of times because they are so agile, they are performing, in 
many cases, over performing. You have my commitment that we 
continue that focus.
    Senator Shaheen. Dr. Davidson, are there any specific 
actions that you think can be taken to ensure that we continue 
this effort in a robust way?
    Dr. Davidson. Yes, Senator. I share your enthusiasm for 
this issue, and I appreciate your leadership. I know that the 
Navy has programs to reach out to small businesses, and that 
they actually have been doing fairly well at that. I think that 
the challenge that we need to work on going forward is the 
barriers that we have of small businesses actually trying to 
work with the government. Sometimes it is so overwhelming for 
them.
    Senator Shaheen. Right.
    Dr. Davidson. I look forward, if confirmed, to working with 
the committee to the extent that some of those are legislative, 
but many of the ones that are policy oriented, the Navy can get 
on right away.
    Senator Shaheen. I would agree the Navy has been very 
effective, particularly with the SBIR Program. Secretary 
Disbrow.
    Ms. Disbrow. Senator, the Air Force also has this as a 
concern area. We actually exceeded our goal for 2015 for the 
percentage of obligations that went to small businesses. We 
exceeded by 4 percent our target for a total of 18 percent.
    We also have a small team that works on the headquarters 
Air Force staff that does this every day. They work for the 
Under Secretary position. If confirmed, I will help guide and 
focus them on this critical area. They have developed a great 
website that gets to what my colleague raised as an issue, 
which is how do small businesses bring their innovative ideas 
in. They are able to actually expose what they are doing to our 
team so that we can match them to the right places where we are 
looking for proposals.
    Senator Shaheen. Great. Thank you all very much.
    Chairman McCain. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman. All of you are 
exceptionally qualified for these positions, and I congratulate 
you.
    Dr. Davidson, you were an Air Force officer. Is that going 
to put you in an uncomfortable role being in the Navy?
    Dr. Davidson. Senator, actually I think my having been an 
Air Force officer helps me bring a joint focus to my leadership 
in the Navy.
    Senator Nelson. This will sound parochial, and in part it 
is, but one of the lessons of Pearl Harbor was that you do not 
put all your eggs in one basket. You disperse your assets. 
Presently, well, shall I say formerly, we always have with our 
aircraft carriers in the Atlantic Fleet, presently they have 
not been dispersed. They are all in one home port, and I have 
pictures where all five aircraft carriers were tied up at the 
same time. Do you have any thoughts about dispersing?
    Dr. Davidson. Senator, I appreciate the issue of dispersing 
from a geopolitical and a national security perspective. If 
confirmed, I am open to any ideas to look at that issue.
    Senator Nelson. The policy of the United States Navy, just 
so you know since you said you are open to looking at all 
issues. The policy of the United States Navy from every CNO 
[Chief of Naval Operations] for the last 15 years that I have 
been here, and previous to that for every CNO, is you disperse 
your assets, just like we have in the Pacific Fleet. We have 
the six aircraft carriers homeported in three ports for the 
obvious reason.
    Because of the budget crunch, the work on dispersing the 
Atlantic fleet five carriers was stopped or, shall I say, 
delayed. It will be an issue in front of you. Secretary Mabus 
knows this issue inside and out, the CNO, the previous CNO, and 
every CNO going way back.
    At some point we are going to have to just face the music 
so that you do what we have always done, not only in the 
Pacific, but also the Atlantic. It just does not make sense 
from a national security standpoint to put all of them in one 
place.
    That second place, and I said it is going to sound 
parochial, and it is. That second place has always been 
Mayport, Florida and Mayport is ready. The channel was dug. It 
is down below 50 feet. It is ready. They bring the carriers in 
there from time to time. But the long and short of it is that 
you have to then go in and put in the nuclear facilities for 
homeporting, and that is an expenditure. But at the end of the 
day, that is an expenditure that we have to make.
    Secretary Disbrow, we are going to have some major 
expenditures in the Air Force. Of course, the cost overruns 
have been really something on the F-35, but now as we look to 
the future, B-52s that are a lot older than you have to be 
replaced, and the long-range strike bomber would eventually 
replace them as well as the B-1s. We would still keep the B-2s. 
What do you think about that?
    Ms. Disbrow. Senator, we have to begin that planning of the 
heel-to-toe tradeoff so that we do not have gaps in this 
critical bomber area.
    Senator Nelson. Okay, Mr. Chairman.
    Chairman McCain. Thank you very much. Thank you. We will, 
depending on how long the smooth running operation, well-oiled 
machine runs here in the Senate, we will see if we can get your 
nominations through before we leave on a well-deserved 
Christmas vacation. Senator Reed?
    Senator Reed. Again, let me thank you, Mr. Chairman, for 
scheduling these hearings and moving so expeditiously to get 
these confirmations completed. Thank you, Mr. Chairman.
    Chairman McCain. Thank you. Thanks to the witnesses and 
their families.
    This hearing is adjourned.
    Mr. Murphy. Thank you.
    [Whereupon, at 11:05 a.m., the hearing was adjourned.]
                              ----------                              


    [Prepared questions submitted to the Honorable Patrick J.
Murphy by Chairman McCain prior to the hearing with answers 
supplied follow:]

                        Questions and Responses
                            defense reforms
    Question. The Committee has recently held a series of hearings on 
defense reform.
    What modifications of Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 provisions, if any, do you believe would be 
appropriate?
    Answer. The ongoing hearings focused on the Goldwater-Nichols 
Reorganization Act of 1986 are both timely and necessary. The 
Goldwater-Nichols framework for National Security has served the Nation 
well, but our current global environment is dramatically different from 
the Cold War environment of the 1980s. If confirmed, I will fully 
support the hearings as required. If significant amendments are passed, 
I will ensure the Army fully coordinates and executes implementation of 
those amendments.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. As a third generation veteran, strong family values and 
accountability were instilled by my mother and father. My father's time 
in the Navy, and as a Philadelphia police officer, as well as my 
mother's service to the Catholic Church and legal profession, taught by 
example what leadership looks like. My public service and private 
sector experience make me uniquely qualified to serve in this position. 
I have dutifully served our Nation in some capacity for over twenty-
three years, highlighted by two operational deployments (Iraq and 
Bosnia) as an Army officer, as an assistant professor at the United 
States Military Academy, serving on the national security committees as 
a member of the House of Representatives in the Armed Services, 
Appropriations, and the Select Intelligence Committees, and even today 
as a member of the United States Military Academy Board of Visitors. As 
a small business owner, law firm partner serving as outside general 
counsel to small businesses, and as an academic, I possess the unique 
public and private sector background to perform the duties of Chief 
Management Officer. If confirmed, I look forward to serving as the 
Army's Under Secretary.
                                 duties
    Question. Section 3015 of title 10, United States Code, states the 
Under Secretary of the Army shall perform such duties and exercise such 
powers as the Secretary of the Army may prescribe.
    What is your understanding of the duties and functions of the Under 
Secretary of the Army?
    Answer. By statute, the Under Secretary of the Army performs such 
duties and exercises such powers as the Secretary of the Army 
prescribes. By regulation, the Under Secretary is the Secretary's 
principal civilian assistant and principal advisor on matters related 
to the management and operation of the Army. To that end, the Under 
Secretary is charged with communicating and advocating Army policies, 
plans, and programs to external audiences, including Congress, 
interagency partners, foreign governments, nongovernmental 
organizations, and the American public. The Under Secretary also 
advises the Secretary on the development and integration of Army 
programs and the Army budget. Finally, pursuant to section 904 of the 
National Defense Authorization Act for Fiscal Year 2008, the Under 
Secretary is the Chief Management Officer of the Department of the 
Army.
    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Under Secretary of the Army, as set 
forth in section 3015 of title 10, United States Code, or in Department 
of Defense regulations pertaining to functions of the Under Secretary 
of the Army?
    Answer. If confirmed, I will review and assess the duties and 
functions currently assigned to, and performed by, the Under Secretary, 
and I will discuss with the Secretary of the Army any changes I believe 
may be necessary to enhance the Under Secretary's ability to support 
the Secretary of the Army's efforts to ensure that the Department of 
the Army is effectively and efficiently administered.
    Question. Assuming you are confirmed, what additional duties, if 
any, do you expect will be prescribed for you?
    Answer. I am confident that the Acting Secretary will assign me 
duties that most appropriately support his efforts to ensure that the 
Department of the Army is effectively and efficiently administered, 
taking into consideration my background and experience.
    Question. Section 904(b) of the National Defense Authorization Act 
for Fiscal Year 2008, directs the Secretary of a military department to 
designate the Under Secretary of such military department to assume the 
primary management responsibility for business operations.
    What is your understanding of the business operations 
responsibilities of the Under Secretary of the Army?
    Answer. By statute and regulation, the Under Secretary is assigned 
the position of Chief Management Officer of the Army. In that position, 
the Under Secretary is the principal adviser to the Secretary of the 
Army on the effective and efficient organization and management of the 
Army's business operations, and is responsible for carrying out 
initiatives the Secretary of the Army approves for the business 
transformation of the Army.
    Question. How do you perceive your role in setting the agenda for 
the Army Chief Management Officer?
    Answer. I perceive my role as the Chief Management Officer would 
include recommending to the Secretary of the Army methodologies and 
measurement criteria to better synchronize, integrate and coordinate 
the business operations of the Department of the Army. In addition, I 
perceive that my role as the Chief Management Officer would include 
developing and submitting to the Secretary of the Army for approval a 
comprehensive business transformation plan and a well-defined 
enterprise-wide business system architecture and transition plan.
                             relationships
    Question. If confirmed, what would be your working relationship 
with:
    The Secretary of Defense.
    Answer. The Secretary of Defense, as head of the Department of 
Defense, possesses full authority, direction, and control over all of 
its elements. If confirmed, and subject to the authority, direction, 
and control of the Secretary of the Army, I would communicate with the 
Secretary of Defense on matters involving the Department of the Army. I 
would cooperate fully with the Secretary of Defense to ensure that the 
Department of the Army fulfills the Administration's national defense 
priorities and, mindful of my role as the Army's Chief Management 
Officer, I would make certain that the business operations of the Army 
are effectively and efficiently organized and managed to ensure their 
optimal alignment in support of Department of Defense and Department of 
the Army missions.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense performs such duties and 
exercises such powers as the Secretary of Defense may prescribe. The 
Deputy Secretary is also the Chief Management Officer of the Department 
of Defense. If confirmed, and subject to the authority, direction, and 
control of the Secretary of the Army, I would be responsible to the 
Secretary of Defense--and to his Deputy--for the operation of the Army. 
I would also be responsible for providing information to the Deputy 
Secretary of Defense regarding the Army's business operations to assist 
him in the performance of his duties as the Chief Management Officer of 
the Department of Defense.
    Question. The Chief Management Officer and Deputy Chief Management 
Officer of the Department of Defense.
    Answer. The Deputy Chief Management Officer of the Department of 
Defense assists the Deputy Secretary of Defense in synchronizing, 
integrating, and coordinating business operations within the Department 
of Defense. If confirmed as Under Secretary, I will provide information 
to the Deputy Secretary of Defense and the Deputy Chief Management 
Officer regarding the Army's business operations to assist them in the 
performance of their Chief Management Officer duties, and I will work 
closely with the Deputy Chief Management Officer on the full range of 
matters involving the management of the Department of Defense.
    Question. The Secretary of the Army.
    Answer. The Secretary of the Army is the head of the Department of 
the Army and is responsible for, and has authority to conduct, all of 
its affairs. If confirmed, my relationship with the Secretary of the 
Army will be close, direct, and supportive. As Chief Management 
Officer, I would be accountable to the Secretary for the effective and 
efficient organization and management of the Army's business operations 
and for carrying out initiatives he approves for the business 
transformation of the Army. I understand that all of my actions would 
be subject to the authority, direction, and control of the Secretary of 
the Army.
    Question. The Chief of Staff of the Army.
    Answer. The Chief of Staff of the Army is the senior military 
advisor to the Secretary of the Army, is directly responsible to the 
Secretary of the Army, and performs his duties under the authority, 
direction, and control of the Secretary of the Army. The Chief of Staff 
also performs the duties prescribed for him by law as a member of the 
Joint Chiefs of Staff. It is vital that all leaders of the Department 
of the Army, both civilian and military, work closely together as one 
team to face the many challenges confronting our Nation. If confirmed, 
I will coordinate with the Chief of Staff of the Army in the 
performance of my duties.
    Question. The Assistant Secretary of the Army for Civil Works.
    Answer. The Assistant Secretary of the Army for Civil Works has, as 
a principal duty, the overall supervision of missions associated with 
the development and management of the Nation's water resources, support 
for commercial navigation, restoration, protection and management of 
aquatic ecosystems, flood risk management, and engineering and 
technical support services. If confirmed, I will build a strong 
professional relationship with the Assistant Secretary, and I would 
cooperate fully with the Assistant Secretary in advancing and defending 
the Army's Civil Works Program.
    Question. The other Assistant Secretaries of the Army.
    Answer. The four other Assistant Secretaries of the Army set the 
Army's strategic direction by developing and overseeing policies and 
programs within their respective functional areas. If confirmed, I will 
work to establish and maintain close, professional relationships with 
each of the Assistant Secretaries, and I will foster an environment of 
cooperative teamwork to ensure that we work together effectively on 
both the day-to-day management and long-range planning needs of the 
Army. In particular, in my role as the Chief Management Officer of the 
Army, I will coordinate with the Assistant Secretaries in addressing 
any matter related to business operations or business transformation 
that may impact their respective domains.
    Question. The General Counsel of the Army.
    Answer. The General Counsel is the chief legal and ethics officer 
of the Department of Army and serves as counsel to the Secretary and 
other Secretariat officials. The General Counsel's duties include 
providing legal and policy advice to officials of the Department of the 
Army, as well as determining the position of the Army on all legal 
questions and procedures. If confirmed, and particularly given my 
experience as an Army Judge Advocate, I will work to establish and 
maintain a close, professional relationship with the General Counsel of 
the Army, and I will actively seek his or her guidance to ensure that 
Army policies and practices are in strict accord with the law and the 
highest principles of ethical conduct.
    Question. The Inspector General of the Army.
    Answer. The Inspector General of the Army is charged with inquiring 
into, and reporting on, the discipline, efficiency, readiness, morale, 
training, ethical conduct and economy of the Army, as directed by the 
Secretary of the Army or the Chief of Staff of the Army. If confirmed 
as Under Secretary, I will work to establish and maintain a close, 
professional relationship with The Inspector General of the Army to 
ensure the effective accomplishment of these important duties.
    Question. The Surgeon General of the Army.
    Answer. The Surgeon General is the principal advisor to the 
Secretary of the Army and to the Chief of Staff of the Army on the 
military health service system. In that role, The Surgeon General is 
charged with maintaining a medically ready military force, as well as a 
trained and ready medical force. If confirmed, I will work to establish 
and maintain a close, professional relationship with The Surgeon 
General to ensure that the Army's health care systems and medical 
policies effectively and uniformly support the Army's objectives, 
responsibilities, and commitments across the total force.
    Question. The Army Business Transformation Office.
    Answer. In accordance with section 908 of the National Defense 
Authorization Act for Fiscal Year 2009, the Secretary of the Army 
established the Office of Business Transformation to assist the Army 
Chief Management Officer in carrying out business transformation 
initiatives. The Office of Business Transformation is headed by the 
Director of Business Transformation, who is appointed by and reports to 
the Army Chief Management Officer. If confirmed, I will work closely 
and directly with the Army Business Transformation Office in carrying 
out initiatives the Secretary of the Army approves for the business 
transformation of the Army.
    Question. The Judge Advocate General of the Army.
    Answer. The Judge Advocate General of the Army is the legal advisor 
to the Chief of Staff of the Army, the Army Staff, and members of the 
Army generally. In coordination with the Army General Counsel, The 
Judge Advocate General serves as the military legal advisor to the 
Secretary of the Army. The Judge Advocate General also directs the 
members of the Judge Advocate General's Corps in the performance of 
their duties and, by law, is primarily responsible for providing legal 
advice and services regarding the Uniform Code of Military Justice and 
the administration of military discipline. If confirmed as Under 
Secretary, I look forward to establishing a close, professional and 
inclusive relationship with The Judge Advocate General, and I will 
always welcome her views regarding any legal matter under 
consideration.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief of the National Guard Bureau is a principal 
advisor to the Secretary of Defense, through the Chairman of the Joint 
Chiefs of Staff, on matters involving non-federalized National Guard 
forces and on other matters as determined by the Secretary of Defense. 
The Chief of the National Guard Bureau is also the principal advisor to 
the Secretary of the Army and the Chief of Staff of the Army on matters 
relating to the Army National Guard. If confirmed, and subject to the 
authority, direction, and control of the Secretary of the Army, I will 
establish a professional relationship with the Chief of the National 
Guard Bureau, and I will work closely with him to utilize the talents 
available within the Army National Guard to strengthen the Total Army.
    Question. The Director of the Army National Guard.
    Answer. The Director, Army National Guard is responsible for 
assisting the Chief, National Guard Bureau in carrying out the 
functions of the National Guard Bureau, as they relate to the Army 
National Guard. If confirmed, I will establish and maintain a close, 
professional relationship with the Director, Army National Guard to 
foster an environment of cooperative teamwork between the Department of 
the Army and the National Guard Bureau. I will also seek the input of 
the Director of the Army National Guard on all matters of policy and 
procedure that may impact Army National Guard soldiers and their 
families.
    Question. The Army Chief of Chaplains.
    Answer. From the earliest days of the Army, chaplains have been an 
integral part of the total force. Chaplains are often the first to 
respond to incidents of death, combat casualty, suicide, and sexual 
assault. The programs that the Chaplains lead serve to bolster soldier 
and family resiliency in these difficult times. The Army Chief of 
Chaplains leads the Army Chaplains Corps in its primary mission of 
providing religious support to the Army, and advises the Secretary of 
the Army and Chief of Staff of the Army on all matters of chaplaincy. 
If confirmed as Under Secretary, I will work to establish and maintain 
a close, professional relationship with the Chief of Chaplains because 
I understand the importance of, and value in, consulting with him in 
the exercise of my responsibilities.
    Question. The Under Secretaries of the Navy and Air Force.
    Answer. If confirmed, I will work to establish and maintain a 
close, professional relationship with the Under Secretaries of the Navy 
and the Air Force, and I look forward to engaging in frank exchanges of 
advice and opinions with them regarding issues that impact all the 
military departments.
                    major challenges and priorities
    Question. In your view, what are the major challenges, if any, that 
you would confront if confirmed as Under Secretary of the Army?
    Answer. I believe that the Army's primary challenge will be to meet 
the Nation's security needs with reduced and uncertain budgets. With 
the spread of ISIL, the resurgence of Russia and the growth of China, 
the world is increasingly complex, and combatant commanders' demand for 
forces is not diminishing. Yet, the Army has been downsizing, and I 
have been advised that the fiscal uncertainty caused by sequestration 
hinders planning and the efficient execution of the Army's mission.
    Question. If confirmed, how would you prioritize and what plans 
would you have, if any, for addressing these challenges?
    Answer. Given our complex geopolitical situation and uncertain 
funding, one of my priorities, if confirmed, will be to assist the 
Secretary of the Army provide ready forces to combatant commanders as 
efficiently and effectively as possible. I have been advised that 
several important initiatives are underway that will assist the Army in 
accomplishing this goal. For example, the Department of Defense is 
reviewing personnel policies and compensation reforms as part of its 
Force of the Future initiative, and the Army is supporting ongoing 
efforts to reexamine Goldwater-Nichols. I have also been advised that 
the Army is making progress in auditability and the processes for 
maintaining readiness. If confirmed, I look forward to leading and 
supporting these efforts.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Under Secretary of the Army?
    Answer. It is my understanding that one of the most serious 
problems in the performance of the functions of the Under Secretary is 
that the bureaucratic processes required to manage a large, diverse 
organization like the Army can also stifle innovation and limit 
agility. Organizational innovation and agility are critical in ensuring 
the United States Army meets the needs of the Nation and takes care of 
its soldiers during a period of constrained resources and personnel 
reductions.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. I will work closely with the Army's principal officials to 
ensure that our management processes are agile, efficient, innovative, 
and accountable. These processes must ensure Army readiness to meet the 
needs of the Nation and takes care of soldiers and their families in 
the most resource effective manner. Aggressive but reasonable timelines 
are critical in tackling these problems.
    Question. How will you manage the recommendations of the National 
Commission on the Future of the United States Army? Its report is 
expected in February 2016.
    Answer. If confirmed, I will thoroughly review the Commission's 
recommendations and assist the Secretary of the Army in taking 
appropriate action on those recommendations.
    Question. What is your assessment of the Army's Aviation 
Restructuring Initiative? Are its objectives reasonable? Do you think 
its cost avoidance goals are achievable? Are the equities of the 
National Guard and Reserves being adequately addressed? Is it the best 
plan for the Total Army?
    Answer. I have been briefed that ARI provides greater combat 
capability at lower cost than proposed alternatives, achieved by 
divesting the Army's oldest aircraft fleets and rationally distributing 
its modernized aircraft between the components. I have also been 
briefed that it promotes a modernized aircraft fleet in the Army 
National Guard and Army Reserve. I am told that ARI underwent numerous 
external reviews, to include those by GAO and OSD's CAPE office, which 
validated its cost savings and operational capability estimates. Based 
on what I have learned thus far, ARI appears to be a sound and 
achievable response to the significant fiscal constraints the Army 
faces as a result of the Budget Control Act. If confirmed, however, I 
look forward to the report of the National Commission on the Future of 
the Army and the insights on Army's aviation structure that they will 
provide.
                               priorities
    Question. If confirmed, what broad priorities will you establish?
    Answer. One of my broad priorities will be to assist the Secretary 
and Chief of Staff of the Army to rebuild readiness across the Army. 
After a decade of counter-insurgency operations followed by downsizing 
and new emergent demands, readiness is difficult to rebuild. The Army 
needs to institutionally adapt to the new environment--to train and 
ready forces for the wide range of warfighting missions required to 
meet the security needs of a complex world. This touches not just our 
combat units, but institutionally how we can become more efficient 
across ``Man, Train, Equip'' to produce and sustain readiness. 
Additionally, the Army needs to prepare for the future in developing 
and investing our soldiers and future leaders, in pursuing sound 
modernizations strategies, and in adopting effective doctrine. Another 
one of my top priorities will be to take care of soldiers, civilians 
and families, in particular those who have seen so many combat tours. 
The Army has adapted before and can adapt to these challenges.
        duties and responsibilities as chief management officer
    Question. Section 904 of the National Defense Authorization Act for 
Fiscal Year 2008 designates the Under Secretary of the Army as the 
Army's Chief Management Officer (CMO). Section 908 of the National 
Defense Authorization Act for Fiscal Year 2009 requires the CMO of each 
of the military departments to carry out a comprehensive business 
transformation initiative, with the support of a new Business 
Transformation Office.
    What is your understanding of the duties and responsibilities of 
the Under Secretary in his capacity as CMO of the Department of the 
Army?
    Answer. By statute and regulation, the Under Secretary is assigned 
the position of Chief Management Officer of the Army. In that position, 
the Under Secretary is the principal adviser to the Secretary of the 
Army on the effective and efficient organization and management of the 
Army's business operations, and is responsible for carrying out 
initiatives the Secretary of the Army approves for the business 
transformation of the Army. In addition, as the Chief Management 
Officer, the Under Secretary is responsible for developing and 
submitting to the Secretary of the Army for approval a comprehensive 
business transformation plan and a well-defined enterprise-wide 
business system architecture and transition plan.
    Question. What background and expertise do you possess that you 
believe qualify you to perform these duties and responsibilities?
    Answer. My public service and private sector experience make me 
uniquely qualified to serve in this position. My Active Duty Army 
service (including two deployments) and my service as a lawmaker on the 
House Armed Services, Appropriations, and Intelligence committees, 
informed by being a small business owner, allow for a unique 
perspective to lead change in the Army as the Chief Management Officer. 
If confirmed, I look forward to serving as the Army's Under Secretary.
    Question. Do you believe that the CMO and the Business 
Transformation Office have the resources and authority needed to carry 
out the business transformation of the Department of the Army?
    Answer. As I understand the authorities prescribed in law and by 
the Secretary of the Army, and the resources currently available to the 
Department, I believe the position and office are properly resourced 
and able to accomplish the necessary business transformation efforts of 
the Army. If confirmed, I will consult with the Secretary of the Army; 
the Army Chief of Staff; the Director of the Office of Business 
Transformation; and the Department of Defense's Deputy Chief Management 
Officer for their perspectives and assess the current situation as to 
whether any additional authorities or resources are needed to continue 
to achieve meaningful transformation.
    Question. What role do you believe the CMO and the Business 
Transformation Office should play in the planning, development, and 
implementation of specific business systems by the military 
departments?
    Answer. The Chief Management Officer and the Business 
Transformation Office play leading roles in successful implementation 
of business systems for the Army. The Army Chief Management Officer and 
the Office of Business Transformation achieve the integration of its 
business management decisions through effective governance, utilizing 
the Army Business Council in particular, which provides overall 
synchronization of the department's business activities and ensures 
vertical integration from the Office of the Secretary of Defense down 
through all business activities of the Army. If confirmed, I will work 
with the Office of Business Transformation and the other leaders of the 
Department of Defense in continuing the momentum to drive the evolution 
of the maturing enterprise architecture and supporting business systems 
within the Army's business operations, leading to increased readiness 
and efficiency.
    Question. What changes, if any, would you recommend to the 
statutory provisions establishing the position of CMO and creating the 
Business Transformation Office?
    Answer. The legislation that originally established the Service 
Under Secretaries as Chief Management Officer s, and created the 
business transformation offices, has driven tremendous change and 
positive improvements for the Department of the Army. If confirmed, I 
will work closely with the Secretary of the Army, the DOD Deputy Chief 
Management Officer and the Deputy Secretary of Defense to determine the 
need for statutory changes in order to further increase the 
effectiveness of our critical business transformation efforts.
    Question. Section 2222 of title 10, United States Code, requires 
that the Secretary of Defense develop a comprehensive business 
enterprise architecture and transition plan to guide the development of 
its business systems and processes. The Department has chosen to 
implement the requirement for an enterprise architecture and transition 
plan through a ``federated'' approach in which the Business 
Transformation Agency has developed the top level architecture while 
leaving it to the military departments to fill in most of the detail. 
The Army's business systems, like those of the other military 
departments, remain incapable of providing timely, reliable financial 
data to support management decisions.
    If confirmed, what steps, if any, would you take to ensure that the 
Army develops the business systems and processes it needs to 
appropriately manage funds in the best interest of the taxpayer and 
national defense?
    Answer. Well defined, understood, and applied enterprise business 
processes reflecting best business practices and supported by modern 
system technology are central to funds management and the Army's 
ability to provide trained and ready forces at best value to the 
Nation. If confirmed, and in the capacity of Chief Management Officer, 
I will ensure the Army optimizes business systems and processes to meet 
the needs of national defense while maintaining dedicated stewardship 
of the funds entrusted to it. In this regard, I will seek the advice of 
subject matter experts, both inside and outside the Department of 
Defense to ensure we are following best business practices and 
employing state-of-the-art financial systems, as well as capitalizing 
on the results of our ongoing schedule of financial audits to improve 
processes and systems.
    Question. Do you believe that a comprehensive, integrated, 
enterprise-wide architecture and transition plan is essential to the 
successful transformation of the Army's business systems?
    Answer. Absolutely. A well elaborated integrated enterprise 
business architecture details how the Army conducts its core title 10 
U.S. Code functions and how supporting business information technology 
systems support process execution. Comprehensive and enterprise-wide 
architecture is the starting point to implement transition plans from 
Army legacy business systems to its modern systems and to identify 
opportunities for greater effectiveness.
    Question. What steps would you take, if confirmed, to ensure that 
the Army's enterprise architecture and transition plan meet the 
requirements of section 2222?
    Answer. Section 2222 is a powerful tool that ensures the Army 
continues to employ best practices in its business processes. If 
confirmed, I will ensure that the Army's enterprise architecture and 
transition plan meets the requirements contained in section 2222. I 
will ensure a continuous review and, where appropriate, revision, of 
our defense business processes in order to implement the most 
streamlined and efficient business processes practicable, and to 
minimize customization of commercial business systems.
    Question. What are your views on the importance and role of timely 
and accurate financial and business information in managing operations 
and holding managers accountable?
    Answer. Timely and accurate financial and business information are 
critical enablers for Army senior leaders to make the best resource-
informed decisions that guide and direct the Army in providing trained 
and ready forces wherever and whenever needed. If confirmed, as the 
Under Secretary and Chief Management Officer of the Army, I will be a 
strong advocate for ``management by fact'' as accurate data is the key 
to making the optimal decisions to ensure the long term defense of our 
Nation. I will hold leaders and managers throughout the Army 
accountable for the focused application of resources to generate 
readiness and to provide best-in-class support to soldiers in the 
performance of their important missions.
    Question. How would you address a situation in which you found that 
reliable, useful, and timely financial and business information was not 
routinely available for these purposes?
    Answer. I would find that to be unacceptable. If confirmed, I would 
take steps to discover the root causes of why financial and business 
information was inaccurate or unavailable. I would address deficiencies 
by implementing systemic changes in processes and hold leaders and 
managers directly responsible for implementing and sustaining those 
changes.
    Question. What role do you envision playing, if confirmed, in 
managing or providing oversight over the improvement of the financial 
and business information available to Army managers?
    Answer. I will play the central role in leading and managing Army 
business operations. I will execute this by ensuring that the right 
policies and directives are in place to guide Army business operations 
and that governance structures are effectively functioning to enable 
Army senior leader performance assessment, and identification of and 
direction for improvement opportunities. I will also empower and hold 
Army leaders and managers accountable for ensuring the availability and 
accuracy of data and information for improvement of business processes.
                       headquarters streamlining
    Question. The Fiscal Year 2016 National Defense Authorization Act 
directs reforms to consolidate the headquarters functions of the 
Department of Defense and the military departments.
    If confirmed, what would be your role in streamlining functions, as 
well as identifying and implementing reductions in the Department of 
the Army headquarters?
    Answer. I anticipate playing a key and leading role in the analysis 
and streamlining of processes and functions in the Army. We must lead 
by example. Every dollar we can save in such a review can directly 
contribute to increased readiness of our operational force, and I am 
therefore committed to a relentless pursuit of such efficiencies. I am 
also aware that the Army implemented a plan to reduce all of its two-
star headquarters and above by 25 percent over the period 2015-2019, 
and implemented a comprehensive delayering of the Department 
Headquarters which increased supervisors' spans of control from 4 to 8 
and reduced 2 layers of bureaucracy. If confirmed, I would anticipate 
overseeing the continued implementation of those plans as well as 
identifying additional opportunities to streamline our headquarters.
    Question. What areas and functions, specifically and if any, do you 
consider to be the priorities for possible consolidation or reductions 
within the Department of the Army?
    Answer. If confirmed, as the Army's Chief Management Officer, I 
intend to make the identification of opportunities for consolidation or 
reduction a major priority. We must lead by example. While I have not 
yet had the opportunity to begin that process, if confirmed, I will 
initially focus on two methods to prioritize my efforts. First, I will 
focus on those areas which if consolidated or reduced would provide the 
most savings. Secondly, I will focus on those areas and functions where 
the Department of the Army most significantly deviates from best 
practices in the private sector, not because the Army should 
necessarily resemble a business, but because those areas might be the 
most likely in need of significant transformation.
    Question. To the extent that the Department of the Army has 
functions that overlap with the Department of Defense, Joint Staff, or 
military departments, what would be your approach to consolidating and 
reducing redundancy?
    Answer. I will follow a disciplined and deliberate approach in 
analyzing potential redundancies between the headquarters of the Army 
and the other major headquarters of the Department of Defense. 
Redundancies and overlap among headquarters potentially represent major 
resource savings which could be re-applied to generating increased 
levels of Army readiness, a commodity in great demand. First, we must 
assess the necessity of a redundant function. Once we verify the need 
for the function, in conjunction with the other leaders of the 
Department of Defense, an unbiased determination where the function is 
most appropriately performed will be made, whether it is at the 
Department of the Army, another Military Service, a Defense Agency or 
in the Office of the Secretary of Defense. We must carefully balance 
the need for efficiency by centralizing functions with the 
effectiveness of de-centralizing those very same tasks. If confirmed, I 
will bring a fresh and impartial view to those tough questions and make 
those recommendations to the Army, which I believe will best contribute 
to the long term defense of this Nation.
                              end strength
    Question. In this year's budget request and Future Years Defense 
Program, the Department proposes making additional cuts to the Army's 
Active and Reserve component end strengths.
    In your view, can the Army meet national defense objectives at the 
end strength levels proposed under the current budget agreement? What 
about at the end strength levels that would be necessary after fiscal 
year 2018 after this budget agreement expires?
    Answer. With the Bipartisan Budget Act levels of funding, the Army 
will be able to support a total Army end strength of 980,00 (450,000 
Active component (AC); 335,000 Army National Guard (ARNG); 195,000 
United States Army Reserve (USAR)) through Fiscal Year 2017. The Army 
leadership has said that this is the lowest acceptable level to meet 
the Defense Strategic Guidance with significant risk. I have been 
advised that the Army is also reducing civilian manpower commensurate 
with military end strength reductions. In the event of full 
sequestration, the Army would be forced to reduce to make significant 
reductions. These end strength levels would severely compromise the 
Army's ability to meet current combatant commander's demand, and the 
requirements of the Defense Strategic Guidance to defeat an adversary 
in one major combat operation while simultaneously denying the 
objectives of an adversary in a second theater.
    Question. What is your understanding of the Army's ability to meet 
these goals without forcing out soldiers who have served in combat over 
the past 10 years with the implicit promise that they could compete for 
career service and retirement?
    Answer. The Army has worked to minimize involuntary separations by 
reducing new accessions and utilizing greater promotion selectivity. Of 
the approximate 76,000 reductions since 2012, only about 4,400 (5.8 
percent) were involuntary. Unfortunately, it is my understanding that 
the Army may not be able to continue to meet the end strength goals 
without additional involuntary separations.
    Question. To what extent will the Army have to rely on involuntary 
separations through 2018? How will the budget agreement affect this?
    Answer. I am aware that in order to achieve an Active Component end 
strength of 450,000 by 2018, a reduction of 40,000 soldiers, where 
approximately 14,000 (35 percent) involuntary separations will be 
required. Without the budget agreement, we would potentially have had 
to lower end strength even further which would require more involuntary 
separations.
    Question. What programs are in place to ensure that separating and 
retiring servicemembers are as prepared as they can be as they enter 
civilian workforce?
    Answer. In my experience and through briefings, I have witnessed 
the coordination with the Department of Veterans Affairs, as the 
Department of Labor, as the Small Business Administration, and the 
Department of Defense, the Army has developed an enhanced version of 
its transition assistance program. Called the soldier for Life--
Transition Assistance Program (SFL-TAP), this commander's program 
features soldier counseling and training sessions, employment and 
career workshops, and education opportunities, all while maintaining 
leadership focus on, and involvement in, each soldier's transition 
process. SFL-TAP affords soldiers the opportunity to prepare for 
successful post-Service careers
    Question. What is your understanding of the need for additional 
force shaping tools requiring legislation beyond what Congress has 
provided the past few years?
    Answer. The Army has provided proposals to obtain additional 
authorities to responsibly shape the force. If confirmed, I will assess 
the need for additional authorities, and if necessary, work with the 
Congress to garner support.
    Question. In your view, should the number of general and flag 
officers in the Army be reduced commensurate with the drawdown of total 
Army end strength?
    Answer. I have not had the opportunity review the linkage between 
the number of General Officers in the Army, current force structure, 
and overall end strength. If confirmed, I commit to reviewing any such 
analysis conducted to date, and, if appropriate, make recommendations 
to the Secretary. If no such analysis has been conducted, I will 
recommend the Secretary direct it.
    Question. What are your views on the appropriate size and mix of 
the Active Duty Army, and the Reserve components?
    Answer. The Army remains committed to the Total Force Policy. The 
Active component (AC), Army National Guard (ARNG), and the United 
States Army Reserve (USAR) all have important roles as part of the 
Total Force. The AC provides responsiveness and flexibility; the ARNG 
and USAR provides depth, staying power, and unique skills. The Army 
needs all three in the right combination to meet the Defense Strategic 
Guidance in the most effective and efficient manner. The 2014 
Quadrennial Defense Review establishes Army end strength at 980k (450k 
AC; 335k ARNG; 195k USAR). If confirmed, I will ensure the Army 
utilizes the Total Army Analysis process for determining the forces 
required to meet Defense Strategic Guidance and component mix given 
authorized end strength.
                     army recruiting and retention
    Question. The retention of quality soldiers, officer and enlisted, 
Active Duty and reserve, is vital to the Department of the Army.
    How would you evaluate the status of the Army in successfully 
recruiting and retaining high caliber personnel during a period of 
sustained overall decrease in end strength?
    Answer. I have seen firsthand that even in a challenging recruiting 
and retention market, the Army continues to attract the Nation's most 
talented young men and women. As I have been briefed, currently only 
about 29 percent of today's youths age 17-24 are eligible for military 
service. The Army continues to recruit high quality personnel averaging 
97 percent high school graduates, 0.4 percent CAT IVs (soldiers who 
scored in the 10-30 percent of the Armed Forces Qualification Test). 
Additionally, the Army continues to use enlistment waivers judiciously, 
only granting them for 11.2 percent of new recruits for fiscal years 
2012-2015. The Army has also exceeded retention objectives during this 
period, retaining only the most highly qualified soldiers. Many 
soldiers will ultimately leave the Army during the drawdown, but the 
Army must continue to retain and recruit soldiers with high potential 
for future Service, balance the force with critical skills, experience, 
and fill mission-essential units. It is clear that costs for recruiting 
and retention incentives and for advertising are rising. If confirmed, 
I will work with Army leaders to ensure sustaining the All Volunteer 
Force remains a strategic imperative for the Army and evaluate the 
progress of our efforts.
    Question. What initiatives would you take, if confirmed, to further 
improve Army recruiting and retention, in both the Active and Reserve 
components?
    Answer. I will ensure that both our Recruiting and Retention 
programs are focused on recruiting and retaining only the highest 
quality soldiers during the drawdown. I also will take steps to ensure 
that the Army can continue to develop indicators that help identify 
applicants that are more likely to succeed in service and lessen the 
chances that new soldiers leave the Army before the end of their terms 
of enlistment. These measures offer the potential to reduce recruiting 
and training funds. If confirmed, I will ensure that leaders charged 
with the success of these programs have the tools needed to 
successfully recruit and retain the highest quality personnel.
                               readiness
    Question. What is your assessment of the current readiness of the 
Army to meet national security requirements across the full spectrum of 
military operations?
    Answer. I am aware that as part of the Joint Force, the Army 
delivers decisive, expeditionary, and adaptive strategic land power for 
the Nation. In fact, the Army has more than 190,000 soldiers in over 
140 worldwide locations accomplishing a variety of combatant command 
military operations. However, given decreasing resources and shrinking 
capacity, the Army is mortgaging future readiness and response 
capabilities. As a result, the Army may be challenged to defeat a 
regional adversary without having to utilize resources and units needed 
to simultaneously deter aggression, assure allies, and conduct 
foundational activities elsewhere in the world.
                           acquisition issues
    Question. The National Defense Authorization Act for Fiscal Year 
2016 emplaced myriad changes to defense acquisition processes, 
including reinserting service chief influence and accountability into 
acquisition processes.
    Do you support the acquisition reform provisions in the Fiscal Year 
2016 National Defense Authorization Act?
    Answer. Yes. I support efforts between the Department and the 
Congress to improve the acquisition system by streamlining processes, 
improving access to technological innovation, and professionalizing the 
acquisition workforce. If confirmed, I will review the impact of the 
legislative changes in processes and requirements in order to fully 
assess the effects on Army acquisition.
    Question. What additional acquisition-related reforms do you 
believe the Committee should consider?
    Answer. I am aware the Department is currently working to implement 
changes established under the Fiscal Year 2016 National Defense 
Authorization Act. I would want to first assess the impact and effects 
of these reforms before determining whether additional changes are 
needed. If confirmed, I look forward to the opportunity to closely 
review the legislation, and to work with the Department and the 
Congress in determining the appropriateness of any additional changes.
    Question. How can the Department and the Army better access and 
integrate commercial and military technology to remain ahead of its 
potential adversaries?
    Answer. Our warfighters must have the technical and tactical 
advantage over our enemy. This technological advantage over our 
adversaries is critical to our Nation's success. If confirmed, I would 
first assess the efficacy of existing authorities, processes, and 
procedures to access commercial technology and their utility in 
developing Army capabilities, and make recommendations, as appropriate.
    Question. If confirmed, how will you synchronize your acquisition 
responsibilities with the Army Chief of Staff?
    Answer. The Army Chief of Staff plays a critical role in the 
development of requirements and ensuring the resources necessary to 
successfully develop and field programs. In this role, the Chief of 
Staff brings a unique perspective with a wealth of operational 
experience that is invaluable when generating and prioritizing military 
equipment requirements. If confirmed, I would work closely with the 
Army Chief of Staff to ensure that we make the appropriate tradeoff 
requirements in pursuit of warfighting capabilities while ensuring 
responsible use of our taxpayers' dollars.
    Question. What is your assessment of the size and capability of the 
Army acquisition workforce?
    Answer. I have not yet had the opportunity to assess firsthand the 
size and capabilities of the Army acquisition workforce against the 
Army's acquisition needs. If confirmed, I will work with Army leaders 
to review and ensure that our workforce is properly sized and trained 
for effective and efficient delivery of warfighting capabilities to our 
soldiers. We must ensure our warfighters have the technical and 
tactical advantage over our enemy.
    Question. If confirmed what steps would you take to ensure that the 
Department of the Army has an acquisition workforce with the size and 
capability needed to manage and reverse the acquisition problem?
    Answer. The Army acquisition workforce requires critical skills in 
a diverse range of disciplines, to include contracting, program 
management, systems engineering, cost estimating, and risk management. 
If confirmed, I will first assess the current size and capability mix 
of the workforce before determining what, if any, steps are necessary 
to ensure the workforce is positioned to effectively and efficiently 
deliver critical capabilities to our warfighters.
                            audit readiness
    Question. The Department of Defense remains unable to achieve a 
clean financial statement audit. The Department also remains on the 
Government Accountability Office's list of high risk agencies and 
management systems for financial management and weapon system 
acquisition. Although audit-readiness has been a goal of the Department 
for decades, DOD has repeatedly failed to meet numerous congressionally 
directed audit-readiness deadlines.
    What is your understanding and assessment of the Army's efforts to 
achieve a clean financial statement audit by 2017?
    Answer. My understanding is that the Army has developed a plan to 
achieve a clean financial audit statement by 2017. I am aware of the 
DOD published Financial Improvement Audit Readiness plan to achieve 
audit readiness. If confirmed, I will examine the Army's and DOD's 
plans and work to identify any potential improvements to help the Army 
achieve financial auditability by Congressionally mandated deadlines. 
If confirmed, I will ensure a clean financial statement audit will be a 
top priority.
    Question. In your opinion, is the Department of the Army on track 
to achieve these objectives, particularly with regard to data quality, 
internal controls and business process re-engineering?
    Answer. The Army is on track to achieve these objectives, but, if 
confirmed, I will review current Army processes and ensure the Army 
executes a fully coordinated plan.
    Question. If not, what impediments may hinder the Army's ability to 
achieve this goal and how would you address them?
    Answer. The Army has identified a series of risks to achieving 
these objectives that include system shortcomings. If confirmed, I will 
review those potential system shortcomings, will provide my assessment 
to the Committee, and will do everything in my power to execute on this 
critical goal.
    Question. What steps will you take, if confirmed, to ensure that 
the Army moves to achieve these objectives without an unaffordable or 
unsustainable level of one-time fixes and manual work-arounds?
    Answer. Budgets are moral documents and proper analysis and 
execution is critical to our warfighters. In addition to personally 
assessing progress on a regular and consistent basis, if confirmed, I 
will reinforce the governance structure that the Army has put in place 
so that the Army is focused on developing and achieving Army-wide, 
cost-effective, and sustainable solutions. Additionally, if confirmed I 
will work closely with senior leaders to establish a `tone from the 
top' that reinforces that audit activities are not simply checklists. 
It is about transforming the way the Army conducts its business 
enabling us to create a long-lasting infrastructure fully compliant 
with accounting standards and sustainable despite potential fiscal 
uncertainty.
                           army modernization
    Question. In general, major Army modernization efforts have not 
been successful over the past decade or more. Since the mid-1990's, 
Army modernization strategies, plans, and investment priorities have 
evolved under a variety of names from Digitization, to Force XXI, to 
Army After Next, to Interim Force, to Objective Force, to Future Combat 
System and Modularity. Instability in funding, either as provided by 
DOD or Congress, has been cited by the Army and others as a principal 
cause of program instability. For the most part, however, the Army has 
benefited from broad DOD and Congressional support for its 
modernization and readiness programs even when problems with the 
technical progress and quality of management of those programs have 
been apparent--the Future Combat System is a recent example.
    What is your assessment, if any, of the Army's modernization 
record?
    Answer. I think overall the Army has had too many failed 
modernization programs over the last ten years; some of them major 
programs. The cause of some of these failures appears to be overly 
ambitious requirements, funding instability or a slow, bureaucratic 
acquisition process. The Army modernization effort has worked well in 
addressing important needs for current operations remaining focused on 
requirements that could be rapidly delivered to meet the needs of our 
warfighters. If confirmed, I will do my best to ensure major Army 
modernization programs are managed properly, with reasonably achievable 
requirements, and in a fiscally responsible manner.
    Question. What is your assessment of the Army's Tactical Wheeled 
Vehicle Strategy?
    Answer. I believe the Army has a solid Tactical Wheeled Vehicle 
Strategy. The strategy was approved in December 2014. The Army has made 
significant investments over the recent conflicts to modernize and 
increase protection of its tactical wheeled vehicles. The strategic 
objectives are: increased soldier protection; fleet operations to 
provide broad warfighting capabilities to combatant commanders such as 
sustainment, medical evacuation, and recovery; enabling mission command 
functions; providing mobility in various operational environments; and 
maintaining a healthy industrial base. The centerpiece of the tactical 
wheeled vehicle strategy is fielding the Joint Light Tactical Vehicle 
in the near term.
    Question. What is your assessment of the Army's Combat Vehicle 
Modernization Strategy?
    Answer. It is my initial assessment that the Combat Vehicle 
Modernization Strategy (CVMS) provides an effective framework for 
enabling brigade combat teams the appropriate combination of lethality, 
mobility, and protection to achieve overmatch against threats. The 
strategy addresses near-to-mid-term capability gaps for Infantry 
Brigade Combat Teams and Stryker Brigade Combat Teams. The Army will 
also invest in incremental improvements (Engineering Change Proposals) 
of our current platforms in order to improve the Armored Brigade Combat 
Team's ability to fight and win in a complex world.
    Question. If confirmed, what actions, if any, would you propose to 
take to achieve a genuinely stable modernization strategy and program 
for the Army?
    Answer. I will work to ensure the Army's modernization strategy 
focuses on providing necessary capabilities that satisfy the needs of 
both the combatant commanders and our nation's leadership. It is 
important that the Army's modernization programs have reasonably 
achievable requirements that prioritized to allow for trade space and 
that the highest priority capabilities receive should consistent and 
unwavering oversight and advocacy from Army Senior Leaders. If 
confirmed, I will also work with the Office of the Secretary of Defense 
and Congress to secure stable and predictable support to allow the Army 
to manage programs as efficiently as possible.
    Question. What is your understanding and assessment of the Army's 
modernization investment strategy?
    Answer. My initial impression is that more investment is needed, 
however, I understand that the strategy is designed to modernize the 
highest priorities within fiscal limitations. I understand that the 
Army strategy is to adapt its current equipment to gain or regain lost 
capability as our potential adversaries increase theirs, to evolve 
current equipment to avoid obsolescence and meet emerging gaps, and to 
innovate to develop new tools and methods that permit Army forces to 
address future demands, and stay ahead of determined enemies. If 
confirmed, I will undertake a comprehensive assessment of the strategy 
to ensure that it is appropriate given the fiscal and operational 
environment facing the Army.
    Question. In your view does the Army's modernization investment 
strategy appropriately or adequately address current and future 
capabilities that meet requirements across the spectrum of conflict?
    Answer. I think the modernization strategy is appropriate given 
current fiscal constraints. In our rapidly changing national security 
environment, if confirmed, I will work to ensure the Army's strategy is 
appropriate to meet emerging threats across the spectrum.
    Question. If confirmed, what other investment initiatives, if any, 
would you pursue in this regard?
    Answer. I will ensure the Army is investing in cross-cutting 
capabilities that can enhance multiple equipment portfolios, such as 
the active protection system that can be used on multiple combat 
platforms and other vehicles, directed energy or autonomous systems, 
and cyber security. The Army should invest in areas identified as 
potential vulnerabilities and in any areas that may have been bypassed 
over the past decade while it was investing in capabilities required by 
the conflicts in Iraq, Afghanistan, and Syria.
    Question. If confirmed, what actions, if any, would you propose to 
ensure that all these initiatives are affordable within the current and 
projected Army budgets?
    Answer. I will evaluate the affordability issues of these 
initiatives and seek to align the Army's investment strategy with its 
highest priority warfighting challenges, and ensure that the Army's 
major programs receive the requisite oversight, advocacy and funding 
stability.
    Question. In your view, what trade-offs, if any, would most likely 
have to be taken should budgets fall below or costs grow above what is 
planned to fund the Army's modernization efforts?
    Answer. Reduction in budgets or growth in costs above what is 
planned will require the Army to make some tough choices, to include 
deferring on and potentially terminating programs to fill more 
important capability gaps. If confirmed, I look forward to working with 
the stakeholders to fully understand the costs and risks associated 
with the budget reductions.
    Question. In your view, should the Army trade-off requirements 
within a program in order to make that program affordable?
    Answer. Yes. If confirmed, I would seek to prioritize must-have 
capabilities within the program while trading-off less critical 
capabilities, or ones at higher risk of being achieved due to 
technology immaturity, to ensure the program remains affordable. The 
Army may also have to consider reducing planned procurement quantities 
to keep programs affordable.
                      army weapon systems programs
    Question. What is your understanding and assessment of the 
following research, development, and acquisition programs? Are all 
programs delivering or sustaining capabilities that are suitable, 
reliable and survivable? Are all programs within cost, timeline and 
performance?
    Warfighter Information Network Tactical.
    Answer. My understanding is that the Warfighter Information Network 
Tactical program provides the Army a secure, high-speed, high-capacity 
networking backbone for mobile, ad-hoc networks in tactical 
environments, and underpins the Army's Tactical Network modernization 
efforts. The program is focused on the development of key networking 
capabilities that have been tested and are currently deployed and 
utilized by warfighters in Afghanistan. I have been briefed that the 
Warfighter Information Network Tactical program is within cost, 
timeline, and performance against current requirements.
    Question. Distributed Common Ground System--Army.
    Answer. I understand that the Distributed Common Ground System--
Army is the Army's weapon system for Intelligence Analysts supporting 
current operations worldwide in Africa, Afghanistan, Iraq, and Korea. 
It provides ground stations to receive, process, and disseminate sensor 
data and information; workstations for intelligence, weather, 
geospatial, and space operations analysts; tactical, operational, and 
theater strategic server capabilities; and a worldwide enterprise that 
provides access to over 700 data sources and intelligence reach back 
and tactical over watch capabilities. I have been briefed that the 
Distributed Common Ground System--Army system is within cost, timeline, 
and performance. I am aware that this system has drawn criticism, and, 
if confirmed, I am committed to an objective evaluation of the system's 
performance.
    Question. Ground Combat Vehicle (GCV).
    Answer. The Ground Combat Vehicle program, which was concluded in 
2014 due to budget limitations, was developed as a new Infantry 
Fighting Vehicle (IFV) to replace the Bradley IFV. I have been briefed 
that the Ground Combat Vehicle program is no longer active, but when it 
was, it was within cost, timeline, and performance.
    Question. Stryker Combat Vehicle, including the Stryker Lethality 
Upgrades.
    Answer. The Stryker Combat Vehicle is an acquisition program that 
has proven to be highly successful in Iraq and Afghanistan, and will 
remain a significant part of the Army's force structure for the 
foreseeable future. The Army is pursuing upgrades to the Stryker Combat 
Vehicles to increase both the survivability and lethality of the fleet 
in response to urgent operational needs.
    In response to poor performance against improvised explosive 
devices, the Army retrofitted Stryker vehicles with a more survivable 
Double V-Hull designed underside. My understanding is that the blast-
deflecting Double V-hull improvements have saved numerous lives in 
Afghanistan.
    In an effort to increase the lethality of the Stryker vehicles 
against emerging threats abroad, the Army will integrate 30mm cannons 
with an unmanned remote turret into a number of the vehicles. Providing 
an improved direct fire weapon system to support infantry at a greater 
range will improve the lethality of the Stryker fleet against a wide 
array of targets.
    I have been briefed that the Stryker Combat Vehicle program is 
within cost, timeline, and performance.
    Question. Joint Light Tactical Vehicle (JLTV).
    Answer. The Joint Light Tactical Vehicle (JLTV) is a Joint Army and 
Marine Corps development program, which consists of a Family of 
Vehicles that are capable of performing multiple mission roles. The 
JLTV will be designed to provide protected, sustained, and networked 
mobility for personnel and payloads across the full spectrum of 
military operations. JLTV addresses force protection performance and 
payload limitations in current High Mobility Multipurpose Wheeled 
Vehicles, while providing more off-road mobility, fuel efficiency, and 
reliability than Mine-Resistant Ambush Protected All-Terrain Vehicles. 
I have been briefed that the JLTV program is within cost, timeline, and 
performance.
    Question. M1 Abrams tank modernization.
    Answer. The Abrams tank is anticipated to be the Army's primary 
ground combat system through at least 2045. The age of the current 
Abrams tank fleet is low--6 to 7 years, on average. As a result of 
lessons learned in Iraq, the Army is pursuing incremental improvements 
to the Abrams tank designed to buy back power deficiencies, improve 
protection and lethality, and provide the ability to accept future 
network and protection upgrades. These improvements will enable the 
Abrams Tank to maintain its leading edge in measures of survivability, 
lethality, and maintainability. I have been briefed that the Abrams 
Tank modernization program is within cost, timeline, and performance.
    Question. M2 Bradley infantry fighting vehicle modernization.
    Answer. The Bradley Family of Vehicles has been an integral part of 
the Army's force structure for decades, and will be continue to be so 
for the foreseeable future. As such, modernization of the fleet is 
critical. Over the past years, the Army has made incremental 
improvements to the Bradley variants that will buyback power 
deficiencies, improve protection and provide the ability to accept 
future network and protection upgrades. The Bradley fleet is now 
undergoing two additional improvements initiatives to upgrade the 
mobility, power generation and cooling capabilities lost by increasing 
the survivability and upgrading the network. I have been briefed that 
the M2 Bradley infantry fighting vehicle modernization program is 
within cost, timeline, and performance.
    Question. Paladin Integrated Management (PIM) self-propelled 
howitzer modernization.
    Answer. The Army is fully committed to the Paladin M109A7 Family of 
Vehicles, formerly known as PIM. The M109A7 will replace the current 
Paladin M109A6 Self Propelled Howitzer and Field Artillery Ammunition 
Support Vehicle starting in Fiscal Year 2017. The M109A7 will deliver 
responsive, all-weather, operationally adaptable, and offensive and 
defensive fires in support of the Armored Brigade Combat Team maneuver 
force, while keeping pace with the Abrams and Bradley. I have been 
briefed that the PIM modernization program is within cost, timeline, 
and performance.
    Question. Armored Multipurpose Vehicle (AMPV).
    Answer. The AMPV will replace the M113 Family of Vehicles (FoV) 
within the Armored Brigade Combat Team, which have become operationally 
irrelevant due to inadequate mobility, survivability, and force 
protection, as well as the lack of size, weight, power, and cooling 
necessary to incorporate future technologies. The AMPV will replace 
five M113 FoV mission roles with the following variants: Mission 
Command, Medical Treatment, Medical Evacuation, General Purpose, and 
Mortar Carrier. The first prototypes are scheduled to be delivered in 
December 2016. I have been briefed that the AMPV program is within 
cost, timeline, and performance.
    Question. AH-64E Apache modernization and Manned-Unmanned 
Reconnaissance.
    Answer. The Apache is the Army's only heavy attack helicopter, and 
is an invaluable asset on the modern battlefield, providing an 
immeasurable contribution to combat power. The Apache's history dates 
back to the 1980's, and the latest version, the AH-64E, is the second 
remanufacture of that proven system.
    Manned-Unmanned Teaming (MUM-T) is a force-multiplying capability 
in which the AH-64E Apache receives video feeds and target coordinates 
from Army's Gray Eagle and Shadow Unmanned Aircraft. This greatly 
increases the Apache's combat lethality and survivability by providing 
the pilot increased situational awareness prior to engaging the threat.
    Both the Apache modernization efforts and the MUM-T capability are 
delivering and sustaining capabilities that are suitable, reliable, and 
greatly enhance survivability for our soldiers.
    I have been briefed that the AH-64E Apache modernization and 
Manned-Unmanned Reconnaissance program is within cost, timeline, and 
performance.
    Question. Joint Tactical Radio System (JTRS).
    Answer. The radios in the former JTRS program comprise a critical 
aspect of the Army's and the Department's network modernization effort, 
and are the foundation of the Army's tactical network and 
communications. The radios provide man-portable, vehicle-mounted, and 
aerial communication and data transport services for the Army's 
tactical network. It is my understanding that the Army's strategy for 
the acquisition of these systems is to conduct full and open 
competition designed to leverage industry innovation and capability, 
reducing the long developmental lead times of the original JTRS 
program. I have been briefed that the JTRS program is within cost, 
timeline, and performance.
    Question. Joint Multi-Role rotorcraft program
    Answer. The Joint Multi-Role Technology Demonstrator is a Science 
and Technology effort to help inform capabilities and requirements for 
the planned Future Vertical Lift Program. I have been briefed that the 
Future Vertical Lift program is not yet an acquisition program, so it 
does not have a cost and schedule baseline yet.
    Question. Small arms modernization.
    Answer. The Army's small arms modernization efforts provide for the 
maturation, demonstration, testing and evaluation for emerging 
technologies in small arms. The ultimate goal is to provide soldiers 
with world-class weapons systems that achieve overmatch, and which are 
suitable, reliable, and survivable on current and future battlefields. 
Currently, it is my understanding that the Army is focused on 
developing weapons system improvements that will enhance the lethality, 
target acquisition and tracking, fire control, training effectiveness, 
and reliability of weapons.
    I am aware the Army's portfolio of small arms modernization 
programs includes the XM17 Modular Handgun System, designed to replace 
the M9 pistols currently in use by the Army; the M2A1 Machine Gun; and 
the M4A1 Carbine.
    I have been briefed that the small arms modernization program is 
within cost, timeline, and performance.
    Question. Personal protective equipment modernization.
    Answer. The Army provides soldiers with the best protective 
equipment in the world. Over the past ten years the Army has fielded, 
and continuously improved, protective equipment that saves soldiers' 
lives. It is my understanding that soldiers are equipped with a 
complementary suite of protective capabilities (body armor/combat 
helmets) that guard against multiple threats associated with ballistic, 
blast, and blunt force events, including ballistic projectiles and 
fragmentation from Improvised Explosive Devices. These improvements are 
drastic compared to what I personally experienced in Iraq in 2003-2004.
    My understanding is that the Army's next generation PPE system is 
the soldier Protection System (SPS). The objective of the SPS program 
is to develop a modular, scalable, and tailorable system that is 
designed to defeat current threats at a reduced weight in comparison to 
our existing PPE.
    I have been briefed that the personal protective equipment 
modernization program is within cost, timeline, and performance.
    Question. AN/TPQ-53 Counter Fire Radar.
    Answer. The AN/TPQ-53 (Q-53) Counter Fire Radar is a new generation 
of counter fire sensor with the flexibility to adapt to uncooperative 
adversaries and changing missions, a vital capability on today's 
battlefield. The Q-53 detects, classifies, tracks and determines the 
location of enemy indirect fire. The Q-53, replacing the current Q-36/
37 Counter Fire Radars, provides enhanced performance including greater 
mobility, increased reliability and supportability, and the increased 
capability to determine the location of enemy fire in either 360-degree 
rotating or 90-degree stationary modes. The AN-TPQ 53 radar is on track 
from a cost, schedule perspective. The radar experienced performance 
issues during tests but we are back on track and the program is moving 
forward to production.
            mine resistant ambush protected (mrap) vehicles
    Question. What is your understanding and assessment of the Army's 
long term strategy for the retention, disposal, utilization, and 
sustainment of its large MRAP vehicle fleet?''
    Answer. The Army is retaining the best, most modern MRAPs necessary 
for its requirements, and where appropriate, excess equipment is made 
available to other agencies, activities, and nations. If confirmed, I 
will review the Army's MRAP strategy and make recommendations as 
necessary.
                  army-related defense industrial base
    Question. What is your understanding and assessment of the systems 
and processes for identifying, evaluating, and managing risk in the 
Army's organic and commercial defense industrial base?
    Answer. The Army continually assesses the industrial base and makes 
adjustments as necessary, while maintaining compliance with legal and 
policy requirements, to appropriately manage and maintain a viable, 
ready industrial base. If confirmed, I will review the Army's 
industrial base strategy and make recommendations as necessary.
    Question. Should Army acquisition leaders consider impacts on the 
industrial base when addressing requirements for recapitalization or 
modernization of major end items such as tanks, tactical wheeled 
vehicles or key repair parts?
    Answer. It is my belief that Army acquisition leaders should 
consider impacts to the industrial base when addressing 
recapitalization or modernization requirements in order to make the 
best decisions for the total force. Army materiel must be available, 
reliable, sustainable, and affordable. Army acquisition leaders must 
consider all aspects of acquisition, including impacts to the 
industrial base, to be responsive to the needs of the warfighter.
    Question. If confirmed, what changes, if any, would you pursue in 
systems and processes to improve identification, monitoring, 
assessment, and timely actions to ensure that risk in the Army-relevant 
sectors of the defense industrial base is adequately managed in order 
to develop, produce, and sustain technically superior, reliable, and 
affordable weapons systems?
    Answer. If confirmed, I will review and assess the existing systems 
and processes the Army uses to identify potential risk to the 
industrial base, and monitor its overall health. I will work with Army 
leadership to implement required improvements to ensure that the 
defense industrial base remains reliable, cost-effective, and prepared 
to meet the Army's current and future strategic objectives.
                      army science and technology
    Question. What is your understanding and assessment of the role 
that Army science and technology programs have played and will play in 
developing capabilities for current and future Army systems?
    Answer. Over more than a decade of war, our warfighters have had 
the technical and tactical advantage over our enemies. The world has 
witnessed the value and impact that technologically enabled 
capabilities are critical to our warfighters. I have been briefed that 
the Army's Science and Technology (S&T) mission is to enable soldiers 
to dominate the battlefield, both today and tomorrow. The Army's S&T 
Enterprise includes more than 11,000 scientists and engineers, has been 
essential to developing near-term fixes for warfighter's urgent needs. 
The strong technical expertise they provide has led to many fielded 
capabilities in response to both Operational Needs Statements (ONS) and 
Joint Urgent ONS. From what I have learned, the Army S&T Enterprise is 
aligned with and meeting the needs of the current and future 
warfighter.
    Question. Given the budget, how will you ensure that Army science 
and technology programs will successfully transition to operational 
warfighting capabilities?
    Answer. The Army has established a thirty-year modernization plan 
to guide Science and Technology investments and provide a more 
deliberate and systematic planning of technology insertion into 
programs of record. I believe that to prevent, shape, and win future 
conflicts in an ever-changing world, Army Science and Technology must 
deliver timely technological solutions that address top priority 
capability gaps. Science and Technology remains a critical investment 
to ensure our soldiers maintain a technological edge over potential 
adversaries. These investments are required to develop and mature 
enabling technologies. If confirmed, I would support continued 
investment in this area and ensure that it successfully transitions to 
the Army's current and future acquisition programs. Given the great 
uncertainty about, and increasing complexity of, future national 
security threats, I believe it is especially important that the Army 
also continues investing in basic research and development.
    Question. If confirmed, what metrics would you use to judge the 
value and the investment level in Army science and technology programs?
    Answer. Historically, developing metrics associated with S&T has 
been exceedingly difficult. I have been advised that continuity of both 
funding and focus areas are keys to success within S&T, both from a 
technology development perspective as well as to maintain core 
competencies. I am told that the Army does measure how well S&T is 
aligned to warfighter needs and how well S&T transitions. If confirmed, 
I will challenge the S&T community to continue to develop additional 
metrics that will aid in assessing whether the Army is adequately 
invested.
  army laboratories and research, development and engineering centers 
                                 (rdec)
    Question. What role should Army laboratories play in supporting 
current operations and in developing new capabilities to support Army 
missions?
    Answer. Army laboratories should deliver technology-enabled 
solutions for current conflicts and develop technologies that enhance 
the Army's ability to prevent, shape, and win future conflicts. If 
confirmed, I will work to ensure that Army laboratories fulfill these 
important roles.
    Question. If confirmed, how will you ensure that the Army 
laboratories and research and development centers have a high quality 
workforce, laboratory infrastructure, resources, and management, so 
that they can continue to support deployed forces and develop next 
generation capabilities?
    Answer. I fully recognize the important role that the science, 
technology, engineering, and mathematics workforce and laboratory 
facilities have in facilitating the Army of the future. If confirmed, I 
will learn more about the specific issues and challenges facing Army 
laboratories and centers and ensure they have the necessary tools and 
personnel to effectively perform their missions.
    Question. Do you support the full utilization of authorities 
established by Congress under the Laboratory Personnel Demonstration 
program that is currently being run in many Army RDECs?
    Answer. Yes, I have been informed that the authorities established 
by Congress under the Laboratory Personnel Demonstration Program have 
given the laboratories and engineering centers the flexibility and 
tools necessary to manage and incentivize Army personnel performing 
this critical function. If confirmed, I will seek to ensure that the 
Army is taking full advantage of the authorities provided by Congress 
under this program.
    Question. Do you believe that all RDECs in the Army's Research, 
Development and Engineering Command (RDECOM) need enhanced personnel 
authorities in order to attract and retain the finest technical 
workforce? Would you support expansion of the Laboratory Personnel 
Demonstration authorities to all of RDECOM's laboratories and 
engineering centers?
    Answer. All the RDECOM laboratories and centers are currently part 
of the Laboratory Personnel Demonstration, and that this provides 
important management flexibility for the laboratory directors allowing 
them to shape their workforce and remain competitive with the private 
sector. If confirmed, I will assess the effectiveness of these existing 
authorities, recommend changes, and execute as needed and appropriate.
    Question. Do you believe that the Army's laboratories and 
engineering centers should have a separate, dynamic personnel system, 
uniquely tailored to support laboratory directors' requirements to 
attract and retain the highest quality scientific and engineering 
talent?
    Answer. If confirmed, I would fully examine this issue to better 
understand the potential benefits and costs of such a system. With the 
exception of a few organizations, it is my understanding that the 
Laboratory Personnel Demonstration program provides the laboratory 
directors with the ability to attract and retain the highest quality 
scientific and engineering personnel.
    Question. How will you assess the quality of Army laboratory 
infrastructure and the adequacy of investments being made in new 
military construction and sustainment of that infrastructure?
    Answer. If confirmed, I will engage the appropriate Army 
organizations and stakeholders to better understand the challenges 
facing our Science and Technology infrastructure and develop solutions 
to ensure we are making the necessary investments in this important 
area.
    Question. Are you concerned about the current or future supply of 
experts in defense critical disciplines, particularly personnel with 
appropriate security clearances, to hold positions in defense 
laboratories?
    Answer. The Army must and will compete with the private sector to 
attract and retain the highest quality personnel in critical, emerging 
areas such as materials science, biotechnology, and cyber. It is my 
understanding that Army laboratories have benefited from a number of 
congressionally authorized personnel flexibilities allowing them to 
mitigate many of the concerns related to hiring clearable experts. In 
addition, these same authorities provided the directors of each of the 
Army laboratories management flexibility to ensure that their 
laboratories possess the research programs and facilities to entice the 
highest quality personnel. I also understand that the Army has been 
investing in Science, Technology, Engineering, and Mathematics 
education to ensure a future workforce that includes well-trained 
scientists and engineers. If confirmed, I will work to ensure the Army 
continues to have the authorities necessary to access a high quality 
workforce both current and future.
                 army test and evaluation (t&e) efforts
    Question. If confirmed, how will you ensure that the Army's test 
and evaluation infrastructure is robust enough to ensure that new 
systems and technologies are tested to verify their combat 
effectiveness and suitability?
    Answer. I will ensure the acquisition and the test and evaluation 
enterprise continually assesses the adequacy of the Army's test and 
evaluation infrastructure to support current and planned future test 
events. I will also take into consideration the Office of the Secretary 
of Defense's annual reports to Congress on developmental and 
operational test and evaluation as well as the Test Resource Management 
Center's annual budget certification focused on test and evaluation 
infrastructure in accordance with 10 USC 196(e)(2). If confirmed, I 
will take steps to protect the funding necessary to maintain a robust 
Army test and evaluation infrastructure.
    Question. What metrics will you use to assess the quality of the 
Army's T&E infrastructure?
    Answer. If confirmed, I will assess the adequacy of the Army's Test 
& Evaluation infrastructure and the metrics used to support the testing 
requirements of Army and Department of Defense acquisition, test, and 
evaluation professionals.
    Question. If confirmed, how would you ensure that weapon systems 
and other technologies that are fielded by the Army are adequately 
operationally tested?
    Answer. I will ensure that the operational test community has 
adequate resources to independently verify that acquisition systems and 
technologies employed by soldiers under operationally realistic 
conditions and are operationally effective, operationally suitable and 
survivable prior to deployment of the systems and technology.
                  army information technology programs
    Question. What major improvements would you like to see made in the 
Army's development and deployment of major information technology 
systems?
    Answer. The Army has a number of efforts to modernize the network; 
however, the current budget extends our modernization efforts out to 
2022. My goal, if confirmed, would be to accelerate the modernization 
to the left to meet increasing cybersecurity threats and ensure we 
derive maximum benefit from increased capacity, efficient network 
operations and improved cybersecurity posture.
    The Army must continue to streamline the IT and Cyber acquisition 
process so that we may procure and quickly transition the necessary 
information technologies to stay ahead of the threat, which requires 
current and cutting edge technologies.
    Question. How will you encourage process and cultural change in 
organizations so that they maximize the benefits that new enterprise 
information technology systems can offer in terms of cost savings and 
efficiency?
    Answer. A key aspect of culture change is to continue to ensure 
that cybersecurity, threat awareness and sound cyber practices are 
instilled throughout the Army as an institution. The Army is working 
closely with DOD, the other Services and across the interagency 
community to ensure we improve our cyber hygiene and heighten our 
cybersecurity posture.
    If confirmed, I will encourage the Army to continue to implement 
its IT management reforms initiated in 2012, and continue supporting 
Secretary Carter's initiative to reinvigorate DOD's relationship with 
our IT & Cyber industry partners. This is key to tapping the innovation 
present in the private sector and for enhancing our ability to rapidly 
identify and take advantage of changes in the technology environment.
    Question. What is the relationship between Army efforts at 
implementing enterprise information technology programs and supporting 
computing services and infrastructure to support Army missions and 
efforts being undertaken by the Defense Information Systems Agency?
    Answer. I have been briefed that the Army looks to DISA as a 
service provider for enterprise services such as email, communication 
transport, and application hosting. DISA sees the Army's efforts as 
setting the stage for the other Services to take advantage of DISA's 
enterprise services and is using the Army as a catalyst to pave the way 
for a better Joint Information Environment across the Department of 
Defense.
    The Army is working closely with DISA on a number of efforts to 
include: Enterprise Resource Programs, mobile pilots, Joint Regional 
Security Stacks and Multi-Protocol Layered Switching which is a huge 
effort for DISA and currently the biggest Army effort to build the 
capacity necessary to support enterprise capabilities.
                     investment in infrastructure:
    Question. Witnesses appearing before the Committee in the past have 
testified that the military services under-invest in both the 
maintenance and recapitalization of facilities and infrastructure 
compared to private industry standards. Decades of under-investment in 
DOD installations has led to substantial backlogs of facility 
maintenance activities, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity. These challenges have been 
exacerbated by current budget pressures.
    What is your assessment of the Army's infrastructure?
    Answer. I am aware there is a substantial backlog of facility 
maintenance. The Army has one of the largest real property inventory 
portfolios in the federal government, spread over a broad geographic 
footprint--both domestic and overseas. The Department is now in its 
fourth year of budget caps under the Budget Control Act, which have 
resulted in sizable underinvestment in facilities, impacting the Army's 
ability to sustain its current infrastructure. This continued 
underfunding ultimately results in greater costs down the line, as 
small repairs turn into much larger problems. To that end, if 
confirmed, I will prioritize resources on facilities that build 
readiness to maintain life, health, and safety standards.
    Question. If confirmed, what actions if any would you propose to 
increase resources to reduce the backlog and improve Army facilities?
    Answer. The Army should address critical maintenance problems 
before they develop into bigger and more expensive projects. I also 
believe more predictable funding is essential to facility investment 
planning and strategic decision making. As the Army downsizes, it has 
excess and poor quality facilities, which are unsustainable at the 
current funding levels. Budget predictability and modification of the 
Budget Control Act would help the Army provide adequate funding for the 
sustainment, restoration, modernization, and military construction 
accounts to meet infrastructure needs. If confirmed, I will focus on 
reducing the Army's footprint, while adding precision to its facility 
investments.
                     base closure and realignments
    Question. The Department of Defense has repeatedly requested a Base 
Realignment and Closure (BRAC) round.
    Do you believe another BRAC round is necessary? If so, why?
    Answer. Senior Leaders within the Defense Department and the 
Department of the Army have repeatedly stated the need for another 
round of BRAC to reduce excess infrastructure. Declining budgets and 
force reductions underscore the need to avoid spending resources on 
excess infrastructure. With the Army's announced force structure 
reductions to an Active end strength of 8450,000, I believe the Army 
must be provided the authority to analyze and where necessary reduce 
excess infrastructure. BRAC is a proven process that saves significant 
sums of money.
    Question. If confirmed and if Congress were to authorize another 
BRAC round, how would you go about setting priorities for 
infrastructure reduction and consolidation within the Department of the 
Army?
    Answer. BRAC is a strict statutory process by which DOD can close 
or realign military installations. It requires a meticulous, objective, 
and well documented analysis, with a focus on reducing capacity, not 
capabilities. If confirmed, I will ensure the Army uses military value 
as the primary consideration and treats all bases equally using the 
approved 20 year force structure plan and statutory selection criteria 
to develop recommendations to the Commission and Congress.
    Question. If confirmed and if Congress were to authorize another 
BRAC round, what is your understanding of the responsibilities of the 
Army in working with local communities with respect to property 
disposal?
    Answer. Specific Army responsibilities for property disposal can 
only be determined after the recommendations are approved. If confirmed 
I will ensure DOD resources are made available to assist affected local 
communities in planning the redevelopment of surplus Army properties.
    Question. It has been noted repeatedly that the 2005 BRAC round 
resulted in major and unanticipated implementation costs and saved far 
less money than originally estimated.
    What is your understanding of why such cost growth and lower 
realized savings have occurred?
    Answer. BRAC 2005 primarily supported Army Transformation while the 
Army force structure was increasing and tens of thousands of soldiers 
returned to the U.S. from overseas requiring the construction of new 
facilities. Nearly half of the BRAC 2005 recommendations focused on 
opportunities to enhance military value available under BRAC authority 
to move forces and functions. I understand that BRAC 2005 is still 
saving the Army $1 billion per year on a net $13 billion investment 
(7.7 percent annual investment yield). It was also produced a 
significant improvement in military value (which was the goal).
    Question. How do you believe such issues could be addressed in a 
future BRAC round?
    Answer. A future BRAC round could be structured differently than 
BRAC 2005 so as to focus on infrastructure consolidation and cost 
savings in response to a reducing force structure. This future BRAC 
would look more like 1990s-era BRAC rounds with relatively short 
payback periods. The payback for Army BRAC recommendations during these 
rounds averaged 2 years. The Army had about 30 ``efficiency'' 
recommendations in BRAC 2005. Those ``efficiency'' recommendations have 
an average payback period of 3.4 years and produce over half a billion 
dollars in annual savings.
                          religious guidelines
    Question. In your view, do Department of the Army policies 
concerning religious accommodation in the military appropriately 
accommodate the free exercise of religion and other beliefs, including 
individual expressions of belief, without impinging on those who have 
different beliefs, including no religious belief?
    Answer. Yes. I am aware that the Army and DOD policies ensure that 
every request for religious accommodation is evaluated equally on a 
case-by-case basis, given the unique facts of each case, for all 
soldiers, regardless of their faith background or belief or non-belief 
system.
    Question. Under current law and policy, are individual expressions 
of belief accommodated so long as they do not impact good order and 
discipline?
    Answer. Yes, I am aware that current law and policy protect and 
accommodate individual expressions of belief, or non-belief that do not 
impact good order and discipline.
    Question. In your view, do existing policies and practices 
regarding public prayers offered by Army chaplains in a variety of 
formal and informal settings strike the proper balance between a 
chaplain's ability to pray in accordance with his or her religious 
beliefs and the rights of other servicemembers with different beliefs, 
including no religious beliefs?
    Answer. The Army does not have a policy regarding public prayer by 
Army chaplains. As a matter of practice, however, chaplains are 
encouraged to be considerate of the audience as they pray in accordance 
with their own religious tradition. The Chaplain Corps trains Army 
Chaplains to perform or provide religious support to soldiers in a 
diverse and pluralistic environment. Training and the leadership of 
supervisory Chaplains ensures that religious beliefs and expression are 
protected in practice. While it appears Army's training programs and 
practices strike an appropriate balance, if confirmed, I will assess 
this matter to ensure that the approach is effective and appropriate.
    Question. What is your assessment of measures taken at the Military 
Academy to ensure religious tolerance and respect?
    Answer. As a member of the United States Military Academy (USMA) 
Board of Visitors, I am familiar with the measures taken at the 
Military Academy to ensure religious tolerance and respect. The 
Superintendent and Commandant take this issue very seriously and hold 
frequent sensing sessions to review religious tolerance. The USMA 
Chaplain's office has developed rules for religious discussions among 
cadets, faculty, and staff and has issued guidance for attending 
religious events. If confirmed, I will assess the effectiveness of 
these efforts at USMA and will monitor this area carefully across the 
entire force.
                       delivery of legal services
    Question. What is your understanding of the respective roles of the 
General Counsel and Judge Advocate General of the Army in providing the 
Secretary of the Army with legal advice?
    Answer. The General Counsel is the legal counsel to the Secretary 
of the Army and the chief legal officer of the Department of the Army. 
The duties of the General Counsel include coordinating legal and policy 
advice to all members of the Department regarding matters of interest 
to the Secretariat, as well as determining the position of the Army on 
any legal question or procedure.
    The Judge Advocate General of the Army is the legal advisor of the 
Secretary of the Army, the Chief of Staff of the Army, the Army Staff, 
and members of the Army generally. The Judge Advocate General also 
directs the members of the Judge Advocate General's Corps in the 
performance of their duties and, by law, is primarily responsible for 
providing legal advice and services regarding the Uniform Code of 
Military Justice and the administration of military discipline.
    Question. What are your views about the responsibility of the Judge 
Advocate General of the Army to provide independent legal advice to the 
Chief of Staff of the Army?
    Answer. I fully support the statutory provision that prohibits any 
officer or Department of Defense employee from interfering with the 
ability of The Judge Advocate General to give independent legal advice 
to the Chief of Staff of the Army. The Chief of Staff does not appoint 
The Judge Advocate General, and does not have the personal authority to 
remove her. This enables The Judge Advocate General to provide 
independent legal advice.
    Question. What are your views about the responsibility of staff 
judge advocates within the Army to provide independent legal advice to 
military commanders throughout the Army establishment?
    Answer. I fully support the statutory provision that prohibits any 
officer or Department of Defense employee from interfering with the 
ability of judge advocates to give independent legal advice to their 
commanders. Staff Judge Advocates understand that the Army is the 
client and they are trained and instructed at The Judge Advocate 
General's Center and School on the importance of providing independent 
legal advice to commanders.
                judge advocate general corps resourcing
    Question. What is your understanding of the current and projected 
manpower requirements in the Army JAG Corps?
    Answer. As a former Army Judge Advocate, I am very interested in 
this topic. Based on my experience, I understand the important role 
that Judge Advocates play in providing legal advice to soldiers, their 
families, and commanders at all levels. I have not had the opportunity 
to thoroughly review the Army JAG Corps' current manning levels or 
future requirements but assure you that, if confirmed, I will undertake 
such a review to ensure that the Army JAG Corps is properly manned to 
support commanders in all aspects of their mission.
    Question. If confirmed, will you review the judge advocate manning 
within the Army and determine whether current Active Duty strengths are 
adequate?
    Answer. Yes, if confirmed I will review judge advocate manning and 
work with The Judge Advocate General to ensure current Active Duty 
strengths are adequate. As the Army continues to have emerging legal 
support missions in areas such as cyber, military justice, and legal 
assistance, I will continue to consult The Judge Advocate General and 
the G-1 to ensure there are also adequate levels of manning for the 
legal support missions for soldiers, family members, retirees and the 
Army.
                 sexual assault prevention and response
    Question. What is your assessment of the Army's sexual assault 
prevention and response program?
    Answer. From my initial review of the data, I see positive progress 
and indicators that the Army Sexual Harassment/Assault Response and 
Prevention (SHARP) is going in the right direction. However, I also 
believe that there is still much work to be done. The Army must 
continue to increase reporting and decrease prevalence. The Army must 
also focus on the issue of retaliation to ensure that victims feel safe 
in reporting and that we have established a command climate that 
demands dignity and respect for all soldiers, civilians and family 
members.
    Question. What is your assessment of the Army's programs to address 
and prevent retaliation or reprisal against individuals who report 
sexual harassment or sexual assault?
    Answer. Sexual harassment and sexual assault are a cancer to our 
Army. The Army has been working proactively to address retaliation and 
reprisal against individuals who report sexual harassment or sexual 
assault. Past efforts have included the expedited transfer program and 
the implementation of the Special Victim Counsel. Most recently, the 
Army has spoken with and surveyed victims, implemented policy to 
prohibit retaliation, developed training to assist soldiers in 
identifying and preventing retaliation, and implemented policy to 
investigate and monitor all allegations of retaliation. While I believe 
these programs and efforts are good steps, if confirmed, I will assess 
their effectiveness and recommend additional measures if necessary.
    Question. What do you see as the greatest challenges to the success 
of those programs? If confirmed what changes if any would you make to 
improve those programs?
    Answer. The greatest challenge is eliminating sexual harassment and 
assault while simultaneously maintaining an environment that encourages 
and facilitates victim reporting. Achieving a balance between these 
complementary goals contributes directly to individual soldier and unit 
readiness. A matter of critical importance, if confirmed I will assess 
and monitor closely to ensure that the Army continues to make progress 
toward achieving this end state.
    Question. What is your assessment of Army programs and policies to 
hold individuals accountable for retaliation or reprisal against 
individuals who report sexual assault or sexual harassment?
    Answer. If confirmed, I will conduct an assessment to ensure 
policies are sufficient to hold individuals accountable for their 
actions. Army Directive 2014-20 prohibits any soldier from retaliating 
against a victim, an alleged victim or another member of the Armed 
Forces based on that individual's report of a criminal offence. As a 
former judge advocate, I know soldiers may be punished for acts of 
retaliation under Article 92 of the Uniform Code of Military Justice. I 
have been advised that when Army CID initiates a sexual assault 
investigation, it will also now initiate and conduct subsequent 
investigations relating to suspected threats against the sexual assault 
victim, including minor physical assaults and damage to property. If 
confirmed, I'll ensure these policies are working to hold people 
accountable to rid our Army of this cancer.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. As a former military prosecutor and leader, I believe 
protecting the victim of sexual assault is imperative. Army policy 
favors unrestricted reporting as a bridge to offender accountability. 
Some victims do not want an investigation for a variety of personal 
reasons. Restricted reporting is a vital avenue to allow these soldiers 
to obtain advocacy, medical, mental health, and legal services. I have 
been advised that the services and support provided to victims who 
initially make a restricted report sometimes provide victims with the 
confidence to convert to an unrestricted report. I believe we should 
continue to allow victims options and multiple avenues for reporting 
sexual assault at this time.
    Question. What is your view about the role of the chain of command 
in providing necessary support to the victims of sexual assault?
    Answer. I firmly believe that commanders, and all Army personnel 
occupying leadership positions, should be held accountable for setting, 
training and enforcing the highest standards for supporting victims of 
sexual assault.
    Specifically, committed and engaged leadership and robust 
prevention campaigns at the squad leader level are critical to 
providing the necessary support to victims of sexual assault. 
Commanding officers are also responsible for setting positive command 
climates that not only help prevent the crime of sexual assault but 
also provide a safe environment where victims feel confident coming 
forward to report. The entire chain of command is responsible for 
creating a climate that prevents sexual assault, protects the victims 
from retaliation or reprisal, and holds the perpetrators fully 
accountable in accordance with appropriate legal processes. We must not 
rest until we rid the Army of the cancer of sexual assault.
    Question. What is your assessment of the Department of the Army's 
implementation of the requirements to establish special victim's 
counsel?
    Answer. From what I have observed, after legislative efforts, the 
Army's rapid implementation of this program, which provides independent 
legal representation for victims of sexual assault, has been very 
successful in providing essential legal assistance to victims 
throughout the Army. Comprising approximately 75 Special Victims' 
Counsel at 34 installations, positive feedback from clients supports 
the Army's decision to place these counsel at local installations to 
maximize face-to-face interaction, the most effective means of 
delivering these critical services. These counsel have been 
aggressively protecting victims' rights and allowing them to make 
informed decisions during the military justice process. Victims are 
also able to swiftly address retaliation concerns with the assistance 
of these Special Victims' Counsel. These efforts have gone a long way, 
but we cannot stop until we rid the Army of the cancer of sexual 
assault.
    Question. What is your understanding of the adequacy of Army 
resources and programs to provide victims of sexual assault the 
medical, psychological, and legal help they need?
    Answer. After legislative efforts, the Army has dramatically 
transformed victim response services in recent years, to include 
professionalizing Sexual Assault Response Coordinator and Victim 
Advocate education, implementing a Special Victim's Counsel Program, 
and establishing one-stop shops for victims in Sexual Harassment/
Assault Response and Prevention Resource Centers. However, we must 
continue to do all we can to prevent the scourge of sexual assault on 
our forces, and provide the victims of this intolerable crime the 
medical, psychological, and legal assistance they need. If confirmed, I 
will be committed to ensuring that adequate Army resources and programs 
exist so we can rid the Army of the cancer of sexual assault.
    Question. What is your view of the steps the Army has taken to 
prevent additional sexual assaults both at home station and deployed 
locations?
    Answer. I believe the Army has made significant, measurable 
progress to prevent sexual assaults both at home and in deployed 
locations. There is, however, much more work to be done. I am committed 
to combating this crime and cancer to our troops.
    Question. What is your view of the adequacy of the training and 
resources Army has in place to investigate and prosecute allegations of 
sexual assault?
    Answer. The Army has one of the best training programs for sexual 
assault investigators in the Nation and, as a result, the Army's 
investigators bring exceptional investigative capabilities to each 
installations' special victim teams. I am also aware of the Army's 
development of a special victims' prosecution capability, which 
consists of uniquely-trained counsel focused solely on the prosecution 
of sexual assault and family violence crimes. These Special Victims' 
Prosecutors respond to every allegation of sexual assault that arises 
in their geographic areas and work closely with local Staff Judge 
Advocates and trial counsel to ensure the best advice is given to 
investigators and commanders, and to ensure the appropriate disposition 
in each case. While the training and resourcing of specially-selected 
and trained investigators and prosecutors has been a focus of the 
Army's efforts, if confirmed, I will closely and continually monitor 
this critical work. We cannot rest until the cancer of sexual assault 
is gone from our Army.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults occur?
    Answer. As a former military prosecutor and with the changes--
driven by statute and policy--the Army has made, over the last few 
years, I believe the commander is central to sexual assault prevention 
within the Army. The commanding officer of every unit is the 
centerpiece of an effective and professional warfighting organization. 
They are charged with building and leading their team to withstand the 
rigors of combat by establishing a climate of dignity, respect, and 
trust in their unit. Leaders at every level must be held accountable to 
rid our troops of this cancer.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. The issue of sexual assault in the Army will be one of my 
primary areas of focus. Ridding our Army of this cancer is a top 
priority and readiness issue. Significant changes to law and policy 
have occurred in this area over the last few years, including 
requirements for additional legal training for commanders at all 
levels, and reducing the Commander's authority in the clemency phase of 
sexual assault cases, to name only a few. The military justice system 
has recently undergone the most comprehensive revision since its 
implementation more than 50 years ago. Additionally, the Secretary of 
Defense directed the establishment of the Military Justice Review Group 
to conduct a comprehensive review of the military justice system. If 
confirmed, I would want to review all of these changes and to determine 
their effect on the current military justice process in sexual assault 
cases prior to making an assessment on further changes, including the 
use of judge advocates outside the chain of command making such 
determinations.
    Question. What additional steps would you take, if confirmed, to 
address the problem of sexual assaults in the Army?
    Answer. I believe that the Army has made progress but there is 
additional work still to be done. If confirmed, I am committed to 
ensuring continued progress. The Army focused significant efforts on 
senior leadership engagement to address this cultural issue. To achieve 
continued progress, the Army is placing additional emphasis on junior 
leader/first line leaders with programs like ``NOT IN MY SQUAD'' 
encouraging first line leaders to achieve the culture of dignity and 
respect necessary to eradicate sexual assault in our Army.
      balance between civilian employees and contractor employees
    Question. The Army employs many contractors and civilian employees. 
In many cases, contractor employees work in the same offices, serve on 
the same projects and task forces, and perform many of the same 
functions as federal employees. Both contractors and civilians make up 
an integral part of the Department's total workforce.
    Do you believe that the current balance between civilian employees 
and contractor employees best serves the Army?
    Answer. Although I have worked with both Department of the Army 
civilians and contractors, I do not have current knowledge of any 
issues indicating these two components of the force are out of balance. 
The most effective make up for one element of the Army will not 
necessarily be the same for another, so determining optimal efficiency 
and effectiveness across the force requires detailed analysis. If 
confirmed, I will review and should I become aware of an imbalance or 
an inefficient use of taxpayer dollars, I am committed to providing the 
Secretary my best advice, within current statutory limitations, to 
remedy the situation.
    Question. In your view, has the Department utilized contractors to 
perform basic functions in an appropriate manner?
    Answer. Again, although I have worked with both Department of the 
Army civilians and contractors, I do not have sufficient current 
knowledge to assess whether or not the Department is utilizing 
contractors in an appropriate manner when performing basic functions. 
If confirmed, I will review and should I become aware of an 
inappropriate use of contractors, I am committed to providing the 
Secretary my best advice to remedy the situation.
    Question. Do you believe that the Army should undertake a 
comprehensive reappraisal of ``inherently governmental functions'' and 
other critical government functions, and how they are performed?
    Answer. The Army Staff has briefed me that current law requires the 
Army to do so through the Inventory for Contractor Services review 
process. If confirmed, I will review and should I discover the Army is 
not in compliance with this statutory requirement, I will immediately 
recommend to the Secretary a plan for coming into statutory compliance.
    Question. Are there non-monetary reasons why the Army would need or 
desire one type of manpower over the other? If so, provide relevant 
examples where of those reasons? Under what circumstances should cost 
be used as the primary factor?
    Answer. If confirmed, I will assess under what circumstances, 
within existing statutory and policy constraints, cost should be used 
the primary factor in the Army using one type of manpower over another. 
As a general rule, military personnel should perform military duties, 
maximizing combat power and bolstering readiness.
    Question. If confirmed, will you work to remove any artificial 
constraints placed on the size of the Army's civilian and contractor 
workforce, so that the Army can hire the number and type of employees 
most appropriate to accomplish its mission?
    Answer. By law, the Army does not manage its civilian workforce 
based on caps, End Strength levels or Full Time Equivalent levels. 
Instead the Army manages its civilian workforce based on workload, 
available funding, and Total Force Management statutory and policy 
requirements governing the mix between military, civilian employees and 
contractors. The Federal Acquisition Regulations require most contracts 
to be ``performance based'' rather than ``personal services'' 
arrangements unless personal services are specifically authorized by 
statute. By law, the Army provides input to Department of Defense plans 
for reducing civilian and contract funding as a percent of military 
funding reductions. This requires managing both civilian employees and 
contractors based on cost savings, rather than manpower levels, and 
strategically programming for both civilian and contract funding when 
developing Agency budgets. If confirmed, I will work to remove 
artificial constraints placed on the size of the Army's civilian and 
contractor workforce and ensure the Army is compliant with statutory 
requirements.
                      women in combat integration
    Question. Army recently completed its review of military 
occupations closed to service by women, prior to the Secretary and 
Chief of Staff essentially recommending that all positions be opened.
    What is the military necessity to allow women to serve in the 
combat arms? Is there a shortage of qualified men? Does the Army assess 
women are as suitable, reliable and survivable as men in close combat?
    Answer. Access to a greater pool of qualified individuals who meet 
Army standards will improve our readiness. Women have already shown 
their capability in combat, most recently in Iraq and Afghanistan, and 
the Army will continue to be a standards-based organization.
    Question. The Marine Corps' research demonstrated that women 
suffered higher injury rates among women than men when engaged in field 
combat exercises and training. Did Army research show the same? If so, 
does that concern you with respect to potential impact to female 
soldiers?
    Answer. The Army reviewed an extensive amount of published research 
and injury data provided by the Public Health Center. The published 
research demonstrates that overall injury rates are higher for women, 
but higher levels of physical fitness in women reduce injury rates. If 
confirmed, I will work to ensure the implementation of gender neutral 
occupational standards and optimal physical fitness programs to place 
the right soldier in the right job regardless of gender.
    Question. Has the Army done a cost benefit analysis of decision to 
send women to Ranger School? What was the ratio of female volunteers 
beginning the course to graduates? How does this ratio compare to male 
volunteers? What is the comparative cost in dollars and man hours for a 
female Ranger School graduate and compared to that of a male?
    Has the Army done a cost benefit analysis of decision to send women 
to Ranger School?
    Answer. The Army began assessing the participation of women in the 
Ranger Course in May 2014, and gained the Secretary of the Army's 
approval in January 2015 to proceed with an initial assessment in April 
2015. Resource costs associated with that gender integration assessment 
included necessary facilities changes to establish designated female 
living areas and to implement safe and secure measures such as security 
cameras and reinforced doors. Costs associated with the Ranger Course 
Assessment also included the Temporary Duty costs of female Observer/ 
Advisors, which was approximately $866K. This cost was driven by the 
fact that there were no permanently assigned female cadre in the 
Airborne Ranger Training Brigade at the time of the assessment and this 
would not be an enduring/continuing cost.
    Question. What was the ratio of female volunteers beginning the 
course to graduates?
    Answer. Nineteen women started the April 2015 Ranger Course 
Assessment, with three graduating and earning the Ranger Tab (16 
percent).
    Question. How does this ratio compare to male volunteers?
    Answer. The graduation rate for males completing the same April 
Ranger Course was 33 percent.
    Question. What is the comparative cost in dollars and man-hours for 
a female Ranger School graduate and compared to that of a male?
    Answer. The costs are similar for men and women attending the 
Ranger Course with the exception of female Observer/Advisors, which 
will not be an enduring cost. The Army is currently determining costs 
associated with permanently integrating female students into the course 
(e.g., billeting, latrines, and showers at Ranger training sites).
    Question. Do you believe Congress should amend the Selective 
Service Act to require the registration of women?
    Answer. The decision to fully integrate women into our military is 
an historic decision, and full implementation of this decision requires 
cooperative efforts across the Department of Defense and Congress, 
which must decide how this impacts the Selective Service Act. If 
confirmed, recognizing the significance of this decision, my goal is to 
ensure the Army implements this change consistent with controlling law 
and policy, while ensuring continued successful mission accomplishment 
of individual soldiers and Army units.
    Question. If women become subject to the draft, should they also be 
prepared for involuntary assignment based upon the needs of the Army?
    Answer. Over the past 15 years, our volunteer force has proven its 
ability to succeed against challenging adversaries in rapidly changing 
environments. If the draft is reinstated, meeting the requirements of 
the combatant commanders will be the Army's top priority. The primary 
considerations in assigning a soldier are, and will continue to be, the 
soldier's current qualifications and ability to fill a valid 
requirement. The goal is always to place the right soldier in the right 
job at the right time.
    Question. What is your opinion on whether men and women in combat 
and special forces MOSs should be subject to the same physical 
requirements for participation in those MOSs?
    Answer. The use of gender neutral validated occupational standards 
and physical requirements ensures readiness across the force. My 
opinion is that if an individual meets the occupational standards of a 
specific MOS then they should be allowed to serve. If confirmed, the 
Army will continue to be a standards-based organization.
    Question. In light of Secretary Carter's decision to open all 
military positions to women, what do you believe are the primary 
challenges to implementing full integration in the Department of the 
Army and how do you plan to address them?
    Answer. I have been briefed that the Army is taking a deliberate, 
methodical, standards-based approach to integrating women into 
previously closed occupations and positions. This analysis will 
identify the primary challenges to implement full integration.
    Question. Tank crews, howitzer sections, infantry squads, engineer 
squads, mortar squads and scout sections readiness require small unit 
stability after weapons qualification. These are the building blocks 
that affect Battalion and Brigade over all readiness. Given available 
data, women have higher rates of injury. Maternity leave can remove a 
female soldier from her assigned crew or squad for months. Given these 
challenges, what is your view on the impact this decision will have on 
unit readiness?
    Answer. I have been advised that the Army is taking a deliberate, 
methodical, standards based approach to integrating women and we do not 
anticipate a decrease in readiness when women enter previously closed 
occupations and positions under current Army policies. The Army is 
instituting a longitudinal study on physiological injuries on all 
soldiers to improve the physical readiness of all soldiers.
                            maternity leave
    Question. Navy Secretary Mabus recently announced a change in 
Department of Navy policy that would provide 18 weeks of maternity 
leave for sailors.
    Would you support extending maternity leave to 18 weeks for 
soldiers?
    Answer. Army soldiers and their families are our greatest asset. I 
fully support Army maternity leave, but I need to better understand the 
impact that extending maternity 6-week leave and/or parental leave 
would have on the readiness of the force during a drawdown before 
providing an opinion on this issue. If confirmed, I will review the 
impact extending maternity leave would have on readiness, coupled with 
the impact an extension of our 6-week policy may have on recruitment 
and family resiliency.
    Question. If so, what would be your plan to augment or back-fill 
those positions occupied by female soldiers on extended maternity 
leave? Would you consider utilizing reservists to back-fill those 
positions?
    Answer. Army soldiers, their families, and readiness are our top 
priority. I need to better understand how extending maternity leave 
would impact the force. If confirmed, I will review the impact on 
readiness, and the associated fiscal costs and its effect on 
recruitment and family resiliency, and I will make a recommendation on 
how best to mitigate any impacts.
    Question. In your view, how would the soldiers account and pay for 
the cost of additional personnel to fill positions left vacant by 
soldiers on extended maternity leave?
    Answer. I need to better understand how extending maternity leave 
will impact the force. If confirmed, I will review the impact that an 
extended maternity leave policy will have on the readiness of the 
force, to include potential recruitment benefits and family resiliency.
    Question. Would the Army require an increase to their authorized 
end strength to accommodate additional manning requirements?
    Answer. I need to better understand how extending maternity leave 
will impact the force. If confirmed, I will review the readiness impact 
and costs associated with providing extended maternity leave, to 
include potential recruitment and family resilience.
    Question. Do you support paid uncharged paternity leave for male 
soldiers in excess of the 10 days afforded by statute? If so, how many 
weeks do you believe is an appropriate amount of time?
    Answer. I need to better understand the impacts of changing the 
current law regarding paternity leave. If confirmed, I will review the 
data and any readiness impacts and associated costs that a change in 
paternity leave would have on Army readiness, cost, and potential 
recruitment and family resiliency.
    Question. Do you believe the Army fully understands the cost of 
this reform? If so, describe those costs.
    Answer. I've been advised that the Army is currently assessing the 
impact that this reform would have on cost and readiness. If confirmed, 
I will review the cost and readiness impacts, to include potential 
recruitment and family resilience benefits, and provide a 
recommendation.
                    morale, welfare, and recreation
    Question. If confirmed, what challenges do you foresee in 
sustaining Army MWR programs in the future fiscal environment?
    Answer. soldier and family quality of life is an essential 
component to our Army. Moreover, family is one of the most important 
components of retention. We have tremendous programs now. The challenge 
is to re-shape MWR to address the needs of the families while adapting 
the programs to be less dependent on appropriated dollars. If 
confirmed, I will work to ensure the Army's highest priority MWR 
programs are fiscally sustainable and continue to provide soldiers and 
families a quality of life they so deserve.
                          military health care
    Question. In your view, what should the Army Medical Command do to 
improve access to care in its medical treatment facilities?
    Answer. As a former Army judge advocate, I recognize the importance 
of providing timely and high quality care to our Army family. If 
confirmed, I will work with the Army Surgeon General to ensure we 
continue to make focused improvements in access to care and that we are 
diligent in the governance and oversight of our healthcare 
responsibilities.
    Question. If confirmed, how would you work with the Surgeon General 
of the Army to improve the healthcare experience for soldiers and their 
families?
    Answer. I am committed to working with The Surgeon General to 
ensure that soldiers, family members and retirees have access to 
quality and safe health care where and when it is needed. My focus will 
be on improving access by expanding the number of portals available to 
obtain an appointment, and by studying the possibility of leveraging 
such tools as expanding the use of Telehealth beyond the fixed facility 
and into the patient's home.
                      family readiness and support
    Question. soldiers and their families in both the active and 
reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of concerns among military families as a result of 
the stress of deployments and the separations that go with them.
    What do you consider to be the most important family readiness 
issues for soldiers, and their families, and, if confirmed, how would 
you ensure that family readiness needs are addressed and adequately 
resourced, especially in light of current fiscal constraints?
    Answer. Our soldiers and their families are our greatest asset. I 
am aware and believe that continued deployments, rotations, separations 
and permanent changes of station are very stressful to soldiers and 
families and that effective programs to reduce that stress are critical 
to the Army's readiness. If confirmed, one of my top priorities will be 
adequately resourcing programs that address and prevent negative 
behaviors such as domestic violence and substance abuse. Another area 
of great importance to me is soldier and family financial readiness. 
These programs build resiliency, self-reliance, and confidence to 
enable soldiers and families to remain Total Army Strong. If confirmed, 
I will work to ensure the fiscal viability of family programs such as 
those that provide child care and family advocacy services, as well as 
effective financial readiness training to soldiers throughout their 
careers.
                           suicide prevention
    Question. The numbers of suicides in each of the Services continue 
to be of great concern to the Committee.
    If confirmed, what role would you play in shaping suicide 
prevention programs and policies for the Department of the Army to 
prevent suicides and increase the resiliency of soldiers and their 
families?
    Answer. Suicide prevention must be a priority and I will personally 
oversee the Army's Suicide Prevention efforts. The Army's ready and 
resilient campaign along with targeted and integrated training efforts 
are working to build protective factors, instill deterrence, prevention 
and intervention strategies with an aim to identify behaviors, which 
are associated with suicide. If confirmed, I will ensure that the Army 
continues to collaborate with our sister services and the Defense 
Suicide Prevention Office to address common challenges and share best 
practices and results of Army-specific initiatives.
             support for wounded, ill, and injured soldiers
    Question. Servicemembers who are wounded or injured in combat 
operations deserve the highest priority from the Army and the Federal 
Government for support services, healing and recuperation, 
rehabilitation, evaluation for return to duty, successful transition 
from Active Duty if required, and continuing support beyond retirement 
or discharge.
    What is your assessment of the progress made by the Army to improve 
the care, management, and transition of seriously ill and injured 
soldiers?
    Answer. I am confident in the progress the Army has made to improve 
the care for our wounded, ill and injured soldiers, but we must 
continue to maintain and improve upon the great work we have already 
done for seriously ill and injured soldiers. If confirmed, I will 
continue to leverage the Medical Command's rigorous organizational 
inspection program, Army and Department of Defense Inspectors General, 
the Army Audit Agency, and external audit organizations, such as by the 
Government Accountability Office, to drive improvements in the care and 
management of our seriously ill and injured soldiers.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Army's support for 
wounded soldiers, and to monitor their progress in returning to duty or 
to civilian life?
    Answer. Warrior care should remain an Army priority; it is an 
enduring mission and our sacred obligation. If confirmed, I will ensure 
that the Army remains committed to ensuring our wounded, ill, and 
injured soldiers have the best health care possible to either 
successfully remain on Active Duty or transition from military service 
into communities as productive veterans. If confirmed, I would work on 
these important priorities and continue collaborative efforts with the 
Department of Veterans Affairs to facilitate the seamless transition 
for our wounded warriors.
              senior military and civilian accountability
    Question. While representative of a small number of individuals in 
DOD, reports of abuses of rank and authority by senior military and 
civilian leaders and failures to perform up to accepted standards are 
frequently received. Whistleblowers and victims of such abuses often 
report that they felt that no one would pay attention to or believe 
their complaints. Accusations of unduly lenient treatment of senior 
officers and senior officials against whom accusations have been 
substantiated are also frequently heard.
    What are your views regarding the appropriate standard of 
accountability for senior civilian and military leaders of the 
Department?
    Answer. If confirmed, I will demand accountability from all of our 
leaders. My view is that the Army should demand that all soldiers and 
Army civilians abide by the Army values. We will hold leaders 
accountable for ensuring professionalism, trustworthiness, expertise, 
and honorable service, while also ensuring that all members receive 
appropriate due process when they fail to meet Army standards.
    Question. If confirmed, what steps would you take to ensure that 
senior leaders of the Army are held accountable for their actions and 
performance?
    Answer. I will ensure that all allegations of misconduct or 
performance against general officers and senior executive service 
civilians, of which I am aware, are properly referred to the Inspector 
General of either the Army or the Department of Defense for a thorough, 
impartial investigation, regardless of the perceived credibility or 
magnitude of the allegation. If asked, I would also provide my best 
professional advice to the Secretary of the Army regarding the 
appropriate disposition of any substantiated allegation of misconduct 
or performance by a senior leader.
    management and development of the senior executive service (ses)
    Question. The transformation of the Armed Forces has brought with 
it an increasing realization of the importance of efficient and forward 
thinking management of senior executives.
    What is your vision for the management and development of the Army 
senior executive workforce, especially in the critically important 
areas of acquisition, financial management, and the scientific and 
technical fields?
    Answer. I will work closely with the Army staff to ensure the 
availability of talented individuals prepared to fill key leadership 
positions throughout the Department of the Army and the Army-serviced 
organizations, such as European Command, Africa Command, Southern 
Command and the majority of the executives assigned to the U.S. Mission 
to NATO. I have been advised, that in order to meet this goal, the Army 
will need to continue to leverage talent and performance management 
programs and that those programs will need to be extended below the 
executive level to ensure the availability of a strong bench of 
candidates. I understand the Army has implemented new initiatives for 
the mid- and senior-graded GS (and equivalent) workforces, and, if 
confirmed, I intend to continue to promote these to build a diverse 
bench of leader candidates.
    Question. Do you believe that the Army has the number of senior 
executives it needs, with the proper skills to manage the Department 
into the future?
    Answer. The Army manages senior executives to best meet leadership 
needs for Army and DOD. I understand that the Army continuously reviews 
the alignment of senior leader allocations to leadership needs and 
identifies changes in requirements. If confirmed, I will review this 
process and make recommendations to ensure the Army has the proper 
skills for the future.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this Committee and other appropriate committees of the Congress?
    Answer. Yes.
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed, to appear before this Committee, or 
designated members of this Committee, and provide information, subject 
to appropriate and necessary security protection, with respect to your 
responsibilities as the Under Secretary of the Army?
    Answer. Yes.
    In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this Committee and 
its staff and other appropriate Committees?
    Answer. Yes.
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree to provide documents, including copies of electronic 
forms of communication, in a timely manner when requested by a duly 
constituted Committee, or to consult with the Committee regarding the 
basis for any good faith delay or denial in providing such documents?
    Answer. Yes.
                                ------                                


    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Kelly Ayotte
                        end-strength reductions
    1. Senator Ayotte. Mr. Murphy, when you look at the current threats 
to our national security, do you see a strategic justification for the 
reduction of Army end-strength by 40,000 soldiers?
    Mr. Murphy. No, I do not see a strategic justification. Based on 
what I know of current threats, the reduction from 490,000 to 450,000 
soldiers incurs significant risk with implementing the Defense 
Strategy.

    2. Senator Ayotte. Mr. Murphy, according to your responses to the 
advance policy questions, if the Army is required to reduce its size to 
450,000 Active Duty soldiers by 2018, this will require that 
approximately 14,000 soldiers, or 35 percent of reductions, be 
involuntarily separated. As a veteran of the Iraq War and in your 
capacity as the nominee to be the Under Secretary of the Army, do you 
believe that we should avoid as much as possible the involuntary 
separation of well-performing soldiers, particularly mid-career 
soldiers who have not earned a retirement?
    Mr. Murphy. Yes, I believe we should avoid as much as possible the 
involuntary separation of well-performing soldiers. The Army has worked 
to minimize involuntary separations by reducing new accessions and 
utilizing greater promotion selectivity. Of the approximately 76K 
reductions since 2012, only about 4.4K (5.8 percent) were involuntary. 
Unfortunately, it is my understanding that the Army will not be able to 
continue to meet reduced end strength levels without additional 
involuntary separations.

    3. Senator Ayotte. Mr. Murphy, I worked to include section 525 in 
the National Defense Authorization Act for Fiscal Year 2013 (NDAA), 
which requires the Services to report to Congress on their use of 
involuntary separation. I worked to renew this requirement again in 
this year's NDAA. If confirmed, do you commit to following this law, 
keeping Congress informed on the Army's use of involuntary separation, 
and working where possible to avoid the involuntary separation of well-
performing soldiers to meet budget-driven end-strength reductions?
    Mr. Murphy. Yes, I commit to following the law. And yes, I will 
work, where possible, to avoid involuntarily separating well-performing 
soldiers.

    4. Senator Ayotte. Mr. Murphy, if confirmed, will you let me know 
if there is anything that I can do to help the Army minimize the need 
to utilize involuntary separations?
    Mr. Murphy. Yes. To maintain the necessary force structure, the 
Army requires adequate, sustained funding.
                         best value contracting
    5. Senator Ayotte. Mr. Murphy, there has been a recent trend in 
some of the Services to buy more products through Lowest Price 
Technically Acceptable (LPTA) and reverse auction acquisition methods. 
I have become aware of cases where these methods have even been used 
for the procurement of personal protective equipment where safety and 
quality are critical and the failure of the item could result in combat 
casualties. Our troops, who put their lives on the line for our freedom 
and security, should not be sent into harm's way with the cheapest 
equipment, but rather the best. In combat, as well as in training, 
quality personal protective equipment can prevent serious injuries and 
can even be the difference between life and death for our 
servicemembers. That is why I worked to include section 884 in this 
year's NDAA, which was recently signed into law. This provision 
requires the Secretary of Defense to ensure that the Services, in 
procuring an item of personal protective equipment or a critical safety 
item, use source selection criteria that is predominately based on 
technical qualifications of the item, if the level of quality or 
failure of the item could result in death or severe bodily harm to the 
servicemember. If confirmed, will you review this provision in the NDAA 
and ensure that your Service complies with this law?
    Mr. Murphy. Yes. If confirmed, I will work with Army acquisition 
officials to ensure that our acquisition process comports with law 
regulation and policy, to include section 844 of this fiscal year's 
National Defense Authorization Act.
                                 ______
                                 
             Questions Submitted by Senator Mazie K. Hirono
                     rebalance to the asia-pacific
    6. Senator Hirono. Mr. Murphy, I am very concerned with ensuring 
that our Rebalance to Asia-Pacific is more than just rhetoric. What are 
your views on advancing a tangible rebalance?
    Mr. Murphy. The United States Army in the Pacific (USARPAC) is a 
robust component of the Nation's Rebalance to the Asia-Pacific region. 
With over 100,000 soldiers and Army civilians assigned, it is the 
largest overseas command in the Army, and represents 30 percent of the 
Defense Department's presence in the Pacific region. Even during the 
height of combat operations in both Iraq and Afghanistan, the number of 
soldiers assigned to USARPAC remained relatively constant. Today, the 
Army is increasing its forward presence west of the international 
dateline through enduring security cooperation exercises and rotating 
additional trained and ready forces to the Republic of Korea, despite 
the Army's ongoing reductions in end-strength (450,000 Active component 
soldiers by the end of Fiscal Year 2017).
    The Army's posture in the Pacific as well as its operational 
activities such as the Pacific Pathways exercise program, builds our 
partner capacity, shapes the security environment and sets the theater 
to project power across the Asia-Pacific. The U.S. Army remains 
committed to the Asia-Pacific.

    7. Senator Hirono. Mr. Murphy, in your opinion, how are we doing in 
reassuring our partners and allies in the region that we are serious 
about the Rebalance and what else should we be doing?
    Mr. Murphy. The Army continues to assure its partners and allies 
through forward presence, rotational forces, military partnership 
engagements and exercises. Recently, General Milley co-hosted the 9th 
Pacific Armies Chiefs Conference in Bali, Indonesia to conduct 
bilateral and multilateral sessions to determine the best ways to 
maintain and strengthen regional security. We received positive 
feedback from our partners on Pacific Pathways and we look to refine 
and expand the scopes of these exercises and engagements based on 
recommendations from our allies. If confirmed, I will work closely with 
Army Senior Leaders to address our focus on the Asia-Pacific rebalance 
and discuss potential additional efforts to continue to strengthen our 
partnerships in the region.
                            energy security
    8. Senator Hirono. Mr. Murphy, I believe energy security is a vital 
component to our overall national security. Do you believe the 
Department of Defense (DOD) has a role to play in U.S. energy security 
and could you comment on how you view energy security as tied to our 
overall national security?
    Mr. Murphy. Yes, the Army has a role to ensure we have reliable, 
accessible, sustainable, and affordable power for national security, as 
detailed in the Army's Energy Security and Sustainability (ES2) 
Strategy. Increased reliance on power for communications, commerce, 
transportation, health and emergency services; support for homeland and 
national defense; and the threat of large-scale disruptions can have 
immediate and detrimental impacts on our economy and our national 
security.
    In particular, the national security vulnerabilities associated 
with the power grid leave the U.S. open to both small/short-duration 
and large/long-duration power outages. Energy security allows Army 
installations to remain force projection platforms and maintain the 
national security of the United States of America.
                     energy efficiency initiatives
    9. Senator Hirono. Mr. Murphy, I applaud DOD's work on energy 
efficiency initiatives including alternative and renewable energy 
projects. If confirmed, will you commit to continuing the 
administration's efforts to expand alternative and renewable energy 
initiatives?
    Mr. Murphy. Yes, I will continue the Army's efforts to expand 
alternative and renewable energy initiatives that are focused on 
enhancing mission effectiveness, while ensuring projects and 
investments are made with a clear cost-benefit analysis.
                    maui high power computing center
    10. Senator Hirono. Mr. Murphy, I am aware that the Maui High Power 
Computing Center (MHPCC) as part of the High Performance Computing 
Modernization Program should be undergoing systems modernizations along 
with the other computing centers. I want to ensure that the plans for 
the Maui modernization efforts are sufficiently focused to modernize 
their systems. If confirmed, will you work to ensure that all of our 
computing centers are monitored and resourced under the modernization 
program to ensure that they all have the capability to provide required 
outputs?
    Mr. Murphy. Yes, if confirmed I will work to ensure that all of our 
High Performance Computing centers are provided with the appropriate 
capability to meet their requirements.

    11. Senator Hirono. Mr. Murphy, if confirmed, will you commit to 
keeping me and my staff informed on the Army's efforts to keep the 
computers at the MHPCC and the other facilities up-to-date under the 
High Performance Computing Modernization Program?
    Mr. Murphy. Yes, if confirmed I will commit to keeping you and your 
staff, along with all other Congressional stakeholders, informed on all 
High Performance Computing Modernization Program issues.
                      joint use of training ranges
    12. Senator Hirono. Mr. Murphy, I know that soldiers from the 25th 
Infantry Division (ID) and other units participate in Pacific Pathways 
and other important military-to-military training opportunities with 
our allies in the Asia-Pacific region. These joint training events, 
several of which happen on Hawaii's training ranges and at the Jungle 
Operations Training Center, with our allies build trust, increase 
interoperability, and effectiveness. If confirmed, will you continue to 
support these training opportunities and the facilities that enable 
them?
    Mr. Murphy. Yes, the Army will continue to support the training of 
25th ID units, Joint units and other allies in the Asia-Pacific region 
on the ranges and training areas in Hawaii in accordance with the 
combatant commander's priorities and within the Army's capabilities 
Training Center.
                                 ______
                                 
    [The nomination reference of the Honorable Patrick J. 
Murphy follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    August 5, 2015.
    Ordered, That the following nomination be referred to the 
Committee on Armed Services:
    The Honorable Patrick Joseph Murphy, of Pennsylvania, to be 
Under Secretary of the Army, vice Brad R. Carson.
                                ------                                

    [The biographical sketch of the Honorable Patrick J. 
Murphy, which was transmitted to the committee at the time the 
nomination was referred, follows:]
                Biographical Sketch of Patrick J. Murphy
Education:
    Widener University School of Law
      <bullet>  September 1996-May 1999
      <bullet>  Juris Doctorate Degree
    King's College
      <bullet>  September 1992-May 1996
      <bullet>  Bachelor of Science
Employment Record:
    Fox Rothschild, LLP
      <bullet>  Attorney/Partner
      <bullet>  Philadelphia, PA
      <bullet>  January 2011-current
    NBC News/MSNBC
      <bullet>  Anchor/Contributor
      <bullet>  New York, NY
      <bullet>  April 2013-current
    University of Chicago
      <bullet>  Visiting Fellow
      <bullet>  Chicago, IL
      <bullet>  August 2012-December 2012
    Widener Law School
      <bullet>  Adjunct Professor
      <bullet>  Harrisburg, PA
      <bullet>  September 2011-December 2011
    U.S. Congressman
      <bullet>  Washington, DC
      <bullet>  January 2007-January 2011
    Cozen O'Connor
      <bullet>  Attorney/Associate
      <bullet>  Philadelphia, PA
      <bullet>  March 2005-January 2007
    United States Army
      <bullet>  Captain/Judge Advocate/Prosecutor
      <bullet>  Fort Bragg, NC
      <bullet>  May 2003-December 2004
      <bullet>  Deployed Operation Iraqi Freedom (2003-2004)
    United States Army
      <bullet>  Captain/Command Judge Advocate
      <bullet>  Tuzla, Bosnia
      <bullet>  May 2002-September 2002
      <bullet>  Deployed Operation Joint Endeavor (2002)
    United States Army
      <bullet>  Captain/Prosecutor/Assistant Professor
      <bullet>  United States Military Academy
      <bullet>  West Point, NY
      <bullet>  May 2000-June 2003

Honors and Awards:
    Military Awards:
      <bullet>  Bronze Star for Meritorious Service
      <bullet>  Army Commendation Medal
      <bullet>  Army Achievement Medal (2nd Award)
      <bullet>  Global War on Terrorism Service Medal
      <bullet>  Army Service Ribbon
      <bullet>  North Atlantic Treaty Organization Medal
      <bullet>  Parachutist Badge
      <bullet>  Air Assault Badge
      <bullet>  German Armed Forces Proficiency Badge

    Academic Awards:
      <bullet>  Dean's Award, Widener University School of Law
      <bullet>  Trial Advocacy Honor Society--Hush Pierce Award, 
Widener University School of Law

    Other Awards:
      <bullet>  Bronze Medallion Recipient of the Legion of Honor from 
the Chaplain of the Four Chaplains (2015)
      <bullet>  Ambassador Award, Justice for Vets (2015)
      <bullet>  One of ``The Mighty 25'' veterans poised to make a 
difference in 2015, by We Are The Mighty (2014)
      <bullet>  International CLIO Award for collaboration with the 
Grammy Award-winning band Imagine Dragons and the Wounded Warrior 
Project (2014)
      <bullet>  Legion of Honor Recipient, Chapel of the Four Chaplains 
(2014)
      <bullet>  Straight Ally Award, by the Delaware Legacy Fund (2013)
      <bullet>  Equality Champion Award, by the Family Equality Council 
(2012)
      <bullet>  Profile in Courage Award, Keystone Progress (2011)
      <bullet>  ``Lawyer on the Fast Track'', by The Legal 
Intelligencer (2011)
      <bullet>  John F. Kennedy Jr. Award, Brown University (2011)
      <bullet>  International Role Model Award, International Equality 
Forum (2011)
      <bullet>  Philadelphia Community Advocate Award, Lambda Legal 
(2011)
      <bullet>  Human and Civil Rights Award, Pennsylvania State 
Education Association (2011)
      <bullet>  ``Who's Who in American Law'', by Marquis Who's Who 
(2011)
      <bullet>  Human Rights Campaign (HRC), National Leadership Award 
(2011)
      <bullet>  Fenn Award by the John F. Kennedy Presidential 
Library's New Frontier Award Committee (2010)
      <bullet>  ``Top 100 Irish Americans'', by Irish America Magazine 
(2008)
      <bullet>  ``Pennsylvania Rising Stars'', by Philadelphia Magazine 
and Law & Politics Magazine (2006 and 2011)
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by the Honorable 
Patrick J. Murphy in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    part a--biographical information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Patrick Joseph Murphy.

    2. Position to which nominated:
    Under Secretary of the Army.
    3. Date of nomination:
    August 5, 2015.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    October 19, 1973, Abington, PA.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Married to Jennifer Safford Murphy.

    7. Names and ages of children:
    [Nominee responded and the information is contained in the 
committee's executive files.]

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.

Undergraduate:
    Attended: King's College
    Degree Granted: Bachelor of Science Degree
    Degree Received: May 8, 1996

Graduate:
    Attended: Bucks County Community College, September 1991-May 1992

    Attended: Widener University School of Law
    Degree Granted: Juris Doctorate Degree
    Degree Received: May 10, 1999

    9. Employment Record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.

    Attorney/Partner, Fox Rothschild LLP, Philadelphia, PA, January 
2011-current
    Anchor/Contributor, NBC News/MSNBC, New York, NY, April 2013-
current
    Visiting Fellow, University of Chicago, Chicago, IL, October 2012-
December 2012
    Adjunct Professor, Widener Law School, Harrisburg, PA September 
2011-December 2011
    U.S. Congressman, Washington DC/Bucks County, PA, January 2007-
January 2011
    Attorney/Associate, Cozen O'Connor, Philadelphia, PA March 2005-
January 2007

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member, United States Military Academy Board of Visitors, West 
Point, NY, July 2011-present.
    Special Government Employee/Foreign Affairs Officer, Department of 
State, Washington DC, October 2013-October 2014.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    Non-equity Partner, Fox Rothschild LLP
    Consultant, Countable
    Anchor/Contributor, NBC News/MSNBC
    Co-Founder/General Counsel, Virtus LLC
    Advisor, Dean's National Advisory Board, Widener University School 
of Law
    Member, King's College President's Council
    Member, Big Brothers Big Sisters Southeastern Pennsylvania

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    Admitted Attorney, United States Supreme Court
    Admitted Attorney, United States 3rd Circuit Court
    Admitted Attorney, Pennsylvania Supreme Court
    Member, Pennsylvania Bar Association
    Member, Judge Advocate General's Corps Association
    Member, Philadelphia Bar Association
    Member, Bucks County Bar Association
    Founding Member, Catholic War Veterans Daniel Faulkner Post
    Member, Ancient Order of Hibernians
    3rd Degree Knight, Knight of Columbus
    Life Member, Veterans of Foreign Wars
    Life Member, American Legion
    Life Member, 82nd Airborne Association
    Hockey Coach, Grundy Grizzlies Atoms Hockey Team
    Member, St. Michael the Archangel Catholic Church
    Senior Advisor, Truman National Security Project
    Senior National Security Fellow, Center for American Progress
    Senior Advisor, VoteVets.org

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Democratic Nominee, U.S. Congress, 8th District of Pennsylvania 
2006, 2008, 2010.
    Democratic Candidate, Attorney General of Pennsylvania, 2012.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Democratic National Convention, Platform Committee Co-Chair, 2008 & 
2012.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.

Military:
    Bronze Star for Meritorious Service, Iraqi Campaign Medal, Armed 
Forces Expeditionary Medal, Army Commendation Medal, Army Achievement 
Medal (2nd Award), Global War on Terrorism Service Medal, Army Service 
Ribbon, North Atlantic Treaty Organization Medal, Parachutist Badge, 
Air Assault Badge, German Armed Forces Proficiency Badge.

Civilian:
    Bronze Medallion Recipient of the Legion of Honor from the Chaplain 
of the Four Chaplains (2015).
    Ambassador Award, Justice for Vets (2015).
    One of ``The Mighty 25'' veterans poised to make a difference in 
2015 by We Are The Mighty (2014).
    International CLIO Award for collaboration with the Grammy Award-
winning band.
    Imagine Dragons and the Wounded Warrior Project (2014).
    Legion of Honor Recipient, Chapel of the Four Chaplains (2014).
    Straight Ally Award by the Delaware Legacy Fund (2013).
    Equality Champion Award by the Family Equality Council (2012).
    Profile in Courage Award, Keystone Progress (2011).
    ``Lawyer on the Fast Track'' by The Legal Intelligencer (2011).
    John F. Kennedy Jr. Award, Brown University (2011).
    International Role Model Award, International Equality Forum 
(2011).
    Philadelphia Community Advocate Award, Lambda Legal (2011).
    Human and Civil Rights Award, Pennsylvania State Education 
Association (2011).
    ``Who's Who in American Law'' by Marquis Who's Who (2011).
    Human Rights Campaign (HRC) National Leadership Award (2011).
    Fenn Award by the John F. Kennedy Presidential Library's New 
Frontier Award Committee (2010).
    ``Top 100 Irish Americans'' by Irish America Magazine (2008).
    ``Pennsylvania Rising Stars'' by Philadelphia Magazine and Law & 
Politics Magazine (2006 and 2011).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.

Publications:
    April 20, 2015--Supreme Court Amicus Curie Brief in Obergefell v. 
Hodges.
    November 20, 2014--Professional Publication Veterans Choice + PC3 = 
More.
    Opportunities for Providers To Serve Local Veterans Health Law 
Alert with Elizabeth Litten.
    June 4, 2014--Professional Publication PC3 Program: An Opportunity 
for Health Care Providers To Serve Local Veterans Health Law Alert with 
Elizabeth G. Litten.
    May 4, 2014--Newspaper Article, Don't Forget Key Works of U.S. Vets 
The Philadelphia Inquirer.
    March 7, 2014--MSNBC Article, Sexual Assault Bill Goes Down On 
Procedure, MSNBC.
    December 25, 2013--MSNBC Article, How Congress Broke Faith with Our 
Troops, MSNBC.
    November 10, 2013--MSNBC Article, Leaving No One Behind, MSNBC.
    November 2013--Book Introductory Chapter, Evolution of Government 
Policy Towards Homosexuality in the U.S. Military.
    November 5, 2013--Newspaper Article, Disabilities Treaty Breaks 
Down Borders for Vets, Stars and Stripes.
    July 18, 2013--MSNBC Article, State's Rights Shouldn't Trump the 
Individual Right to Vote, MSNBC.
    July 3, 2013--MSNBC Article, The Forgotten War and the Lessons of 
Freedom, MSNBC.
    July 2, 2013--Newspaper Article, Tailor Transitions So All Can See 
Vets' Skills, Stars and Stripes.
    June 17, 2013--MSNBC Article, Why Senator Gillibrand is Right about 
Military Sexual Assault, MSNBC.
    May 26, 2013--MSNBC Article, Military Families Have No Better Ally 
Than Tom Perez, MSNBC.
    March 26, 2013--Supreme Court, Amicus Curie brief in United States 
v Windsor.
    March 4, 2013--MSNBC Article, How DOMA Hurts Our Military Families, 
MSNBC.
    February 19, 2013--Newspaper Article, Justice Delayed is Democracy 
Denied The Legal Intelligencer with Melissa Dolin.
    February 12, 2013--MSNBC Article, Message to Congress: It's Been 
Two Months Since Sandy Hook. Act!, MSNBC.
    December 11, 2012--MSNBC Article, With Nominations on Hold, Justice 
Delayed is Democracy Denied, MSNBC.
    November 22, 2012--MSNBC Article, Thanksgiving Reminds Us Of 
Sacrifices Made By Others, MSNBC.
    November 10, 2011--Newspaper Article, Congress Has Opportunity to 
Stand Up for Veterans' Jobs The Morning Call.
    September 20, 2011--Huffington Post Article, Ending a Shameful 
Chapter in Our History, The Huffington Post.
    February 2008--Book, Taking the Hill: From Philly to Baghdad to the 
United States Congress Henry Holt with Adam Frankel.

    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years of which you have 
copies and are on topics relevant to the position for which you have 
been nominated.
    I do not keep an archive of written speeches, most of the time I 
either speak from brief notes or without any written materials.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to Congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this Committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Patrick J. Murphy  
    This 10th day of November, 2015
                                 ______
                                 
    [The nomination of the Honorable Patrick J. Murphy was 
reported to the Senate by Chairman McCain on December 18, 2015, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on December 18, 2015.]
                              ----------                              


    [Prepared questions submitted to the Dr. Janine Anne 
Davidson by Chairman McCain prior to the hearing with answers 
supplied follow:]

                        Questions and Responses
                            defense reforms
    Question. The Committee has recently held a series of hearings on 
defense reform.
    What modifications of Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 provisions, if any, do you believe would be 
appropriate?
    Answer. The Goldwater-Nichols Act directed momentous change in the 
Department of Defense. The focus on joint operations, one of the 
landmark initiatives, was a welcome correction to the stovepiped system 
of the previous era. It is appropriate after thirty years to assess the 
degree to which the changes have had the desired effect and whether 
reform is needed. I welcome the Committee's deliberate and thoughtful 
effort to address this issue. There is clearly a need for improvement 
in acquisition, business practices, and personnel management. If 
confirmed I look forward to working with the committee to identify 
where Department inefficiencies or operational shortfalls can be 
identified and mitigated.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I believe my lifelong experience, first in growing up on 
around naval bases as the daughter of a Navy officer, then as a 
military officer, a defense civil servant, and more recently as a 
Deputy Assistant Secretary of Defense, has prepared me to execute the 
duties of Under Secretary of the Navy. In my career, I have had 
experience at the tactical, operational, and strategic levels of the 
national security enterprise. I have deep knowledge of Pentagon 
processes that will serve me well if confirmed.
                                 duties
    Question. Section 5015 of title 10, United States Code, states the 
Under Secretary of the Navy shall perform such duties and exercise such 
powers as the Secretary of the Navy may prescribe.
    What is your understanding of the duties and functions of the Under 
Secretary of the Navy?
    Answer. U.S. Code states that the Under Secretary shall perform 
such duties and exercise such powers as the Secretary of the Navy may 
prescribe. By regulation, the Under Secretary is the deputy and 
principal assistant to the Secretary in managing the Department of the 
Navy. The Under Secretary also serves as the Chief of Staff of the 
Secretariat, the Chief Operating Officer of the Department. In 
accordance with section 904(b) of the National Defense Authorization 
Act of fiscal year 2008, the Under Secretary also serves as the 
Department's Chief Management Officer.
    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Under Secretary of the Navy, as set 
forth in section 5015 of title 10, United States Code, or in Department 
of Defense regulations pertaining to functions of the Under Secretary 
of the Navy?
    Answer. After review of the statutes and regulations, I do not 
currently recommend any changes. If confirmed, I will propose any 
changes that I may identify as meriting attention through the 
appropriate channels.
    Question. Assuming you are confirmed, what additional duties, if 
any, do you expect will be prescribed for you?
    Answer. If confirmed, I expect the Secretary to assign me duties 
that will utilize my strengths and experiences in assisting him with 
advancing his priorities and vision for the Department of the Navy.
    Question. Section 904(b) of the National Defense Authorization Act 
for Fiscal Year 2008, directs the Secretary of a military department to 
designate the Under Secretary of such military department to assume the 
primary management responsibility for business operations.
    What is your understanding of the business operations 
responsibilities of the Under Secretary of the Navy?
    Answer. The Under Secretary of the Navy is responsible for 
overseeing the business operations of the Department and directs that 
the business environment be more effective and efficient. If confirmed, 
I will guide and prioritize our business operations opportunities to 
streamline processes, communicate, and share resources across the DON. 
Strengthening our fleet's understanding of costs, developing efficient 
end-to-end business processes, reinforcing business alignment, and 
managing risks will be the keys to moving the Department toward 
achieving its business goals.
    Question. How do you perceive your role in setting the agenda for 
the Navy Deputy Chief Management Officer?
    Answer. The current fiscal environment necessitates that the CMO 
focus on business operations. To meet these needs, it would be my role 
to advocate for the Navy DCMO to transition from our current focus 
solely on business IT oversight to the full spectrum of an in-house 
business consultant, capable of bringing cutting edge business 
capabilities and analysis to the department.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Under Secretary of the Navy to the following officials:
    The Secretary of the Navy.
    Answer. Subject to the authority, direction, and control of the 
Secretary of Defense, the Secretary of the Navy is responsible for, and 
has the authority necessary to conduct all affairs of the Department of 
the Navy. The Under Secretary of the Navy is the deputy and principal 
assistant to the Secretary of the Navy and acts with full authority of 
the Secretary in managing the Department of the Navy.
    Question. The Chief of Naval Operations.
    Answer. According to title 10, the Chief of Naval Operations (CNO) 
performs his duties under the authority, direction and control of the 
Secretary of the Navy and is directly responsible to the Secretary. The 
Under Secretary deals directly with the CNO in all Department 
leadership meetings and when acting in the Secretary's stead. The Under 
Secretary works most closely with the Vice Chief of Naval Operations 
(VCNO).
    Question. The Commandant of the Marine Corps.
    Answer. According to title 10, the Commandant of the Marine Corps 
performs his duties under the authority, direction and control of the 
Secretary of the Navy and is directly responsible to the Secretary. The 
Under Secretary deals directly with the Commandant in all Department 
leadership meetings and when acting in the Secretary's stead. The Under 
Secretary works most closely with the Assistant Commandant of the 
Marine Corps.
    Question. The Assistant Secretaries of the Navy.
    Answer. Statutorily, there are four Assistant Secretaries of the 
Navy performing functions and such duties as the Secretary prescribes. 
If confirmed, I will work with each of the Assistant Secretaries of the 
Navy to achieve the Secretary's goals.
    Question. The General Counsel of the Navy.
    Answer. The General Counsel of the Navy serves as the senior 
civilian legal advisor to the Department of the Navy, the Secretary's 
chief ethics official and performs such functions as the Secretary of 
the Navy shall direct. If confirmed, I will work closely with the 
General Counsel to achieve the Secretary's goals.
    Question. The Vice Chief of Naval Operations.
    Answer. The Vice Chief of Naval Operations (VCNO) is the second 
highest-ranking commissioned officer in the United States Navy, and 
serves as the second-in-command for the CNO. In the event that the CNO 
is absent or is unable to perform their duties, the VCNO assumes the 
duties and responsibilities of the CNO. If confirmed, I would foster a 
close working relationship with the VCNO to ensure that policies and 
resources are appropriate to meet the needs of the Navy.
    Question. The Judge Advocate General of the Navy.
    Answer. The Judge Advocate General of the Navy is the senior 
uniformed legal advisor to the Secretary of the Navy, provides 
independent legal advice to the Secretary and the Chief of Naval 
Operations, and performs duties relating to any and all Department of 
the Navy legal matters assigned by the Secretary. If confirmed, I look 
forward to developing a good working relationship with the Judge 
Advocate General and his staff.
    Question. The Chief Management Officer and Deputy Chief Management 
Officer of the Department of Defense.
    Answer. The Deputy Secretary of Defense serves as the Chief 
Management Officer of the Department of Defense. The Deputy Chief 
Management Officer (DCMO) is the principal staff assistant to the 
Secretary and Deputy Secretary of Defense for matters relating to the 
management and improvement of integrated DOD business operations. If 
confirmed, I will work directly with the Deputy Secretary of Defense 
(DOD CMO) and the DOD DCMO on the full range of matters involving the 
management of the DOD.
    Question. The Navy Inspector General.
    Answer. The Navy Inspector General is the senior investigative 
officials in the Department of the Navy and is the principal advisor to 
the Secretary on all matters concerning inspection, investigations, and 
audit follow-up. When directed, the Navy Inspector General inquires 
into and reports upon any matter that affects the discipline or 
military efficiency of the Department of the Navy. If confirmed, I will 
work closely with the Inspector General to achieve the Secretary's 
goals.
                     major challenges and problems.
    Question. In your view, what are the major challenges that will 
confront the next Under Secretary of the Navy?
    Answer. The Department of Defense and all of the services are 
encountering numerous challenges brought on by over a decade of war and 
the expense associated with resetting the force. These factors along 
with growing instability around the world directly impact decisions on 
current programs, support for the warfighter, and investment in future 
capabilities and requirements. Determining the best balance between 
meeting current challenges, building a relevant and capable future 
force, supporting sailors, marines, their families, and the civilian 
workforce will pose the most significant challenges in the years ahead.
    If confirmed, I would work vigorously to address these challenges 
and priorities and would work closely with DOD, Navy and Marine Corps 
leadership, and this committee to develop and execute strategies.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. The Secretary of the Navy has articulated clear priorities 
focused on Presence, People, Platforms, Power and Partnerships. If 
confirmed, I look forward to working with the Secretary of the Navy, 
senior military and DOD leadership, and this committee to meet these 
challenges and priorities
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Under Secretary of the Navy?
    Answer. If confirmed, I expect the most serious problem to be 
determining the best balance between meeting current challenges, both 
fiscal and operational, and building a relevant and capable future 
force, while supporting sailors, marines, their families, and the 
civilian workforce.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will work with the Secretary of the Navy to 
set aggressive, but reasonable timelines and management actions to 
develop and execute strategies to address the challenges facing our 
Navy and Marine Corps. In the role as Chief Management Officer, 
continued improvement to program and budget development, oversight, and 
the cost effectiveness of acquisition programs, will remain major 
challenges and priorities.
                               priorities
    Question. If confirmed, what broad priorities will you establish?
    Answer. In 2013, Secretary Mabus established his strategic 
objectives as Presence, People, Platforms, Power, and Partnerships; 
supporting these objectives is the priority I would establish. 
Successful implementation of these priorities allows our sailors, 
marines, and civilians to maintain the presence globally on which 
Americans have come to depend.
        duties and responsibilities as chief management officer
    Question. Section 904 of the National Defense Authorization Act for 
Fiscal Year 2008 designates the Under Secretary of the Navy as the 
Navy's Chief Management Officer (CMO). Section 908 of the National 
Defense Authorization Act for Fiscal Year 2009 requires the CMO of each 
of the military departments to carry out a comprehensive business 
transformation initiative.
    What is your understanding of the duties and responsibilities of 
the Under Secretary in the capacity as CMO of the Department of the 
Navy?
    Answer. The CMO's primary duties are to (a) ensure that the 
Department can carry out its strategic plan, (b) ensure the core 
business missions of the Department are optimally aligned to support 
the warfighting mission, (c) establish performance goals and measures 
for improving and evaluating overall economy, efficiency, and 
effectiveness and monitor and measure the progress of the Department, 
and (d) develop and maintain a Department-wide strategic plan for 
business reform.
    To help ensure management processes, information technology, 
business systems, and administrative services are complementary, 
integrated and aligned to the Department of the Navy's mission, the 
duties and responsibilities of the CMO and DCMO are prescribed by the 
Secretary of Defense so that they may effectively and efficiently 
organize the business operations of the Department. The duty of the 
DCMO is to assist the CMO in carrying out those objectives and, if 
delegated, assume primary responsibility for those functions.
    Question. What background and expertise do you possess that you 
believe qualify you to perform these duties and responsibilities?
    Answer. The Under Secretary must have a thorough knowledge of the 
Department of the Navy; understand and respect the cultures of the Navy 
and Marine Corps as well as the DON's civilian workforce. One should 
understand the way programs and budgets are developed and be a strong, 
forward-thinking leader.
    If confirmed, I will use my expertise in defense strategy and 
policy and military operations to perform enterprise responsibilities 
in the oversight of the Navy's business operations. My diverse 
experience from serving on active duty as an Air Force officer and 
pilot, as Deputy Assistant Secretary of Defense of Plans, and as a 
senior fellow for defense policy at the Council on Foreign Relations 
and professor of national security has given me extensive exposure and 
experience in the business practices of the department of defense. This 
experience will help me to lead the way toward the identification and 
implementation of business operations improvements.
    Considering the importance of business operations as it supports 
our Navy's direct missions, I believe the CMO and DCMO of DOD should 
set policy, based on sound best practices, regarding planning, 
development, and implementation of business practices, and verify that 
those policies are being followed appropriately and continue to remain 
best practices as years pass.
    However, I also recognize that the job of CMO encompasses a very 
diverse set of responsibilities and challenges. So I accept that I have 
much to learn, and will rely heavily on the knowledge and advice of 
military personnel and civilian experts in the Departments of Defense 
and Navy.
    Question. Do you believe that the CMO has the resources and 
authority needed to carry out the business transformation of the 
Department of the Navy?
    Answer. I believe the CMO has the resources and authority needed to 
carry out the business transformation of the Department. If confirmed, 
I would work with the SECNAV, DOD DCMO, and DOD CMO if I discovered 
that those resources and authorities were insufficient.
    Question. What role do you believe the CMO should play in the 
planning, development, and implementation of specific business systems 
by the military departments?
    Answer. The CMO and DCMO should apply best practices regarding 
planning, development, and implementation of business systems and 
verifying that policies are being followed appropriately in accordance 
with DOD guidelines, and if confirmed, I would work with the DCMO to 
institute rigorous investment management and business process 
reengineering (BPR) procedures for their managed business systems.
    Question. What changes, if any, would you recommend to the 
statutory provisions establishing the position of CMO?
    Answer. At this time, I do not believe that any changes are 
necessary. I am aware that 10 USC Sec.  2222 has recently been modified 
in section 883 of the FY16 NDAA, which provides much more autonomy for 
the Military CMOs. However, if confirmed, I would consult with SECNAV, 
DOD DCMO, and DOD CMO if my experience led me to believe that changes 
were warranted.
    Question. Section 2222 of title 10, United States Code, requires 
that the Secretary of Defense develop a comprehensive business 
enterprise architecture and transition plan to guide the development of 
its business systems and processes. The Department has chosen to 
implement the requirement for an enterprise architecture and transition 
plan through a ``federated'' approach in which the Business 
Transformation Agency has developed the top level architecture while 
leaving it to the military departments to fill in most of the detail. 
The Navy's business systems, like those of the other military 
departments, remain incapable of providing timely, reliable financial 
data to support management decisions. In particular, the Government 
Accountability Office has reported that the Navy has not yet followed 
DOD's lead in establishing new governance structures to address 
business transformation; has not yet developed comprehensive enterprise 
architecture and transition plan that plug into DOD's federated 
architecture in a manner that meets statutory requirements; and instead 
continues to rely upon old, stovepiped structures to implement 
piecemeal reforms.
    If confirmed, what steps, if any, would you take to ensure that the 
Navy develops the business systems and processes it needs to 
appropriately manage funds in the best interest of the taxpayer and the 
national defense?
    Answer. If confirmed as the Under Secretary of the Navy, I will 
work every day to give the Secretary of Defense, Secretary of the Navy, 
Congress, and American people the highest return on their investment in 
their Navy and Marine Corps. Furthermore, I will ensure that the proper 
business case analyses and appropriate establishment and application of 
business enterprise architectures support the capability of providing 
timely, reliable data to support management decisions.
    Question. Do you believe that a comprehensive, integrated, 
enterprise-wide architecture and transition plan is essential to the 
successful transformation of the Navy's business systems?
    Answer. I believe that a single architecture for an organization as 
large and complex as the DON is extremely difficult and costly; at this 
point, what business value it would add is unclear. All standards, 
policies, and processes should be established to rival the best of 
those in the private sector. It does mean that I am accountable to 
ensure the appropriate analysis and process development occurs to 
transform outdated and inefficient business operations into those that 
are streamlined, cost effective, and well-planned.
    Question. What steps would you take, if confirmed, to ensure that 
the Navy's enterprise architecture and transition plan meet the 
requirements of section 2222?
    Answer. If confirmed, I will continue to work with DOD DCMO and 
ensure each of our Defense Business Systems meets the obligations 
specified in USC Sec.  2222 and DOD DCMO guidance.
    Question. What are your views on the importance and role of timely 
and accurate financial and business information in managing operations 
and holding managers accountable?
    Answer. Timely and accurate financial and business information is 
essential in managing the Department's business operations. In order to 
make informed decisions, the Department's senior leaders must have 
credible, reliable, authoritative information at the right time.
    Question. How would you address a situation in which you found that 
reliable, useful, and timely financial and business information was not 
routinely available for these purposes?
    Answer. I would make it a point to understand what business 
problems were being addressed with this information, prioritize their 
requirement to have processes in place and appropriate systems 
subsequently needed to produce the data, and determine what the cost 
would be to the Navy.
    Question. What role do you envision playing, if confirmed, in 
managing or providing oversight over the improvement of the financial 
and business information available to Navy managers?
    Answer. I believe something we've learned from the efforts 
surrounding auditability thus far is that it isn't just a comptroller 
issue, it's something that applies to us all. If confirmed, I will work 
closely with each of the Assistant Secretaries of the Navy to confirm 
the establishment of specific requirements and execute measures thereby 
required to improve the quality of financial information used for 
decision-making.
                       headquarters streamlining
    Question. The Fiscal Year 2016 National Defense Authorization Act 
directs reforms to consolidate the headquarters functions of the 
Department of Defense and the military departments.
    If confirmed, what would be your role in streamlining functions, as 
well as identifying and implementing reductions in the Department of 
the Navy headquarters?
    Answer. If confirmed, I will work closely with the key leadership 
in the Secretariat and the Services to ensure the Navy efficiently 
meets the consolidation requirements in the NDAA and requirements 
directed by OSD. I understand that the Navy and Marine Corps have plans 
in place to meet the streamlining goals, and if confirmed I will 
continue those efforts.
    Question. What areas and functions, specifically and if any, do you 
consider to be the priorities for possible consolidation or reductions 
within the Department of the Navy?
    Answer. If confirmed I will work with the Navy team to identify the 
functional areas that can sustain a reduction. At this time I cannot 
identify which specific functional areas those are. I understand the 
importance of keeping a workforce in key areas. So if confirmed, I will 
be sure to minimize the impact on those key functional areas and the 
warfighting capability functional areas while meeting the reduction 
goals.
    Question. To the extent that the Department of the Navy has 
functions that overlap with the Department of Defense, Joint Staff, or 
military departments, what would be your approach to consolidating and 
reducing redundancy?
    Answer. If confirmed, I will work closely with service 
counterparts, OSD leadership, and the Joint Staff to look for areas of 
possible consolidation. If confirmed, the focus of this review will 
ensure that reductions in headquarters staffs do not diminish 
warfighting capability. The approach would be deliberate while ensuring 
compliance with the requirements of the FY16 NDAA.
                            audit readiness
    Question. The Department of Defense remains unable to achieve a 
clean financial statement audit. The Department also remains on the 
Government Accountability Office's list of high risk agencies and 
management systems for financial management and weapon system 
acquisition. Although audit-readiness has been a goal of the Department 
for decades, DOD has repeatedly failed to meet numerous congressionally 
directed audit-readiness deadlines.
    What is your understanding and assessment of the Navy's efforts to 
achieve a clean financial statement audit by 2017?
    Answer. I understand that the Department of the Navy has the Navy 
and Marine Corps 2015 Schedules of Budgetary Activity under audit by 
independent public accounting firms as interim steps to achieving the 
2017 goal. However, despite progress on strengthening DON's financial 
management environment, a substantial amount of work remains to be 
completed if the Department is to achieve a clean audit opinion on all 
four of the Department of Navy financial statements.
    Question. In your opinion, is the Department of the Navy on track 
to achieving this objective, particularly with regard to data quality, 
internal controls, and business process re-engineering?
    Answer. Following the Department of Defense Financial Improvement 
and Audit Readiness strategy, I understand that the Department of the 
Navy is on track to achieve audit readiness on all four of its 
financial statements in 2017. Navy and Marine Corps have shared and 
incorporated lessons learned from their respective financial statement 
audits and other assessments to strengthen the quality of the 
Department of the Navy's data, tighten internal controls, and implement 
business process standardization.
    Question. If not, what impediments may hinder the Navy's ability to 
achieve this goal and how would you address them?
    Answer. I understand that the Department of the Navy is on track to 
achieve a clean financial audit by 2017 even though there may be some 
challenges. Navy, like other federal agencies, has complex and diverse 
business systems that may make attaining a clean audit a challenge. If 
confirmed, I will work with the Department leadership to continue the 
progress toward a clean audit in compliance with the 2017 statutory 
requirement.
    Question. In your view, are the steps that the Navy needs to take 
consistent with the steps that DOD needs to take to achieve full 
auditability by 2017?
    Answer. I understand that the Department of the Navy is highly 
dependent on services provided by the Department of Defense. The 
Department of the Navy's strategy is consistent with and supportive of 
DOD's ability to also achieve full auditability by 2017.
    Question. What steps will you take, if confirmed, to ensure that 
the Navy moves to achieve these objectives without an unaffordable or 
unsustainable level of one-time fixes and manual work-arounds?
    Answer. If confirmed, I will maintain a steady focus and commitment 
on all Department efforts that enable audit readiness. This will be 
critical to success in 2017 and lay the foundation for a sustainable 
audit environment well into the future. If confirmed, I will review the 
objectives that have been prepared and determine whether they are 
reasonable and effective. I will support rationalizing the Department's 
financial IT systems portfolio, leading to a business environment that 
supports the warfighter while sustaining clean financial statement 
audit opinions.
                              end strength
    Question. In this year's budget request and Future Years Defense 
Program, the Department proposes making additional cuts to the Marine 
Corps Active and Reserve component end strengths. The Department 
proposes reducing the Marine active component to 182,000 by 2020, and 
plans to keep the Marine Corps forces at 182,000 if sequestration 
continues.
    In your view, can the Marine Corps meet national defense objectives 
at the strength levels proposed without sequestration? What about at 
the strength levels proposed with sequestration?
    Answer. I understand the Commandant of the Marine Corps has 
testified that the Marine Corps can meet the requirements of the 
Defense Strategic Guidance today at the President's Budget levels, but 
there is no margin. Lowering end strength due to sequestration or 
enforcement of the Budget Control Act funding caps would not allow the 
Marine Corps to execute the current Defense Strategic Guidance. A new 
strategy would need to be developed that would take into account fewer 
warfighting units available to deploy in defense of the Nation.
    Question. If the Marine Corps must reduce its active component end 
strength to 182,000, where does the Marine Corps take risk with respect 
to the national defense strategy?
    Answer. I understand the Commandant of the Marine Corps has 
testified that the Marine Corps has been forced to prioritize near-term 
readiness for forward deployed marines and assume risk in home station 
readiness, modernization, infrastructure sustainment, and quality of 
life programs. If confirmed, I will work with Marine Corps leadership 
to minimize the risk to overall Service readiness.
    Question. What is your understanding of the need for additional 
force shaping tools requiring legislation beyond what Congress has 
provided the past three years?
    Answer. I understand that each of the Services is involved in an 
OSD-led collaborative assessment of the potential need for legislative 
reforms to various personnel authorities, which will ensure the 
Department has the tools necessary to recruit, develop, shape and 
retain the talent necessary to meet the mission of the Department of 
the Navy. If confirmed, I will review those efforts in detail to ensure 
that they are appropriate to meet emerging requirements of the 
Department in general, and the specific requirements of the Navy and 
Marine Corps.
    Question. In your view, should the number of general and flag 
officers in the Marine Corps and Navy be reduced commensurate with the 
drawdown of total Marine and Navy end strength?
    Answer. I understand that the Services recently conducted a 
Congressionally-directed review of active component general and flag 
officer billets. A similar review is underway now for the reserve 
component. If confirmed, I will ensure that any recommendations 
regarding changes in the number of authorized flag and general officers 
are based on the needs of the Navy and Marine Corps, considering the 
nature of responsibilities associated with any specific position.
    Question. What are your views on the appropriate size and mix of 
the Active Duty Navy and Marine Corps, and their reserve components?
    Answer. The programmed mix of the Total Force should be based on a 
requirements-based estimate of force size and Active Reserve mix 
required to meet current and future military challenges in support of 
the National Defense Strategy. It is essential that we have a 
deliberative requirements-based approach that provides the highly 
qualified, trained and experienced force needed to maintain the core 
capabilities of the Navy. The Marine Corps is the Nation's force-in-
readiness and with the current size of our active duty force, meets the 
current defense planning guidance. It is my understanding that the 
Marine Corps is adequately sized to meet the current requirement in the 
short term, but I am concerned about our capacity to meet unexpected 
operational demands, especially in the event of a Major Contingency 
Operation. The current reserve mix supports active duty employment as 
the Marine Corps plans to integrate reserves to support the range of 
military operations.
    Question. How does Navy support to the ground forces in the form of 
individual augmentee missions affect Navy end strength requirements?
    Answer. The individual augmentee (IA) mission is an additional work 
requirement and therefore is not factored into the NDAA-mandated end 
strength value. So, the total end strength requirement will be 
unchanged by the IA mission.
                             transformation
    Question. If confirmed as the Under Secretary of the Navy, you 
would play an important role in the ongoing process of transforming the 
Navy and Marine Corps to meet new and emerging threats.
    Concerning capability and capacity to meet new and emerging 
threats, what are your goals regarding transformation of the Navy and 
Marine Corps?
    Answer. A major challenge today is keeping pace with our 
adversaries under fiscal constraints and uncertainty. Resource 
limitations require that we be innovative in our approach to ends, ways 
and means, while also ensuring that capability, capacity and readiness 
are properly balanced to meet the new and emerging threats. If 
confirmed, one of my goals would be to transform the Navy and Marine 
Corps to be an even more efficient, highly capable and ready force.
                     low density/high demand forces
    Question. If confirmed, how would you address the Department of the 
Navy's challenge in manning low density/high demand units, ratings, and 
occupational specialties?
    Answer. Continued application of targeted, discretionary special 
and incentive pays, such as the Selective Reenlistment Bonus (SRB) or 
officer community-specific continuation pays will be key in addressing 
recruiting and retention requirements among critical skill areas, 
particularly those in the high-demand, low-density skill sets. 
Carefully managed special and incentive pays can yield the desired 
force levels, but they must be periodically reviewed to ensure they 
maintain their efficacy while providing an appropriate return on 
investment. Although special and incentive pays are a proven method for 
increasing retention, if confirmed I will investigate additional 
avenues for managing talent across the Navy and Marine Corps, with a 
special emphasis on those areas of high demand and in highly 
competitive occupational specialties.
    navy and marine corps military and civilian personnel management
             navy and marine corps recruiting and retention
    Question. The retention of quality sailors and marines, officer and 
enlisted, Active Duty and Reserve, is vital to the Department of the 
Navy.
    How would you evaluate the status of the Navy and Marine Corps in 
successfully recruiting and retaining high caliber personnel?
    Answer. I know that for several years Navy has enjoyed recruiting 
and retention of highly qualified sailors in unprecedented numbers. I 
would anticipate that maintaining such a high-quality force, 
particularly as the economy improves, will become increasingly 
challenging, while no less critical to meeting the Navy mission 
requirements and providing options to national leadership. Having 
previously made institutional investment, the Marine Corps is achieving 
all Total Force recruiting requirements. Retention is continuously 
assessed as both the world changes and demographics of our Nation 
change.
    Question. What initiatives would you take, if confirmed, to further 
improve Navy and Marine Corps recruiting and retention, in both the 
Active and Reserve components?
    Answer. If confirmed, I will continuously monitor the data on 
recruiting and retention to ensure the Department not only has the 
right numbers of sailors and marines, but that it attracts and retains 
the best talent among America's next generation. I will do everything 
in my power to ensure the authorities, incentives, and technologies 
needed to maintain this high quality force, with the capabilities 
necessary to meet emerging global challenges are available to the 
Department and Navy and Marine Corps leaders.
                       delivery of legal services
    Question. What is your understanding of the respective roles of the 
General Counsel and Judge Advocate General of the Navy in providing the 
Secretary of the Navy with legal advice?
    Answer. The General Counsel of the Navy serves as the chief legal 
officer for the Department of the Navy (DON) and the principal legal 
advisor to the SECNAV and the Secretariat. The Judge Advocate General 
is the senior uniformed legal advisor for the Department and the 
SECNAV, as well as the principal legal advisor to the Chief of Naval 
Operations. My understanding is that the General Counsel and the Judge 
Advocate General have distinct roles in providing legal advice to the 
Secretary of the Navy (SECNAV).
    Question. What are your views about the responsibility of the Judge 
Advocate General of the Navy and the Staff Judge Advocate to the 
Commandant to provide independent legal advice to the Chief of Naval 
Operations and the Commandant of the Marine Corps, respectively?
    Answer. In order to execute their statutory responsibilities 
established in title 10, U.S. Code, it is imperative that the Judge 
Advocate General and Staff Judge Advocate to the Commandant employ 
their knowledge, experience and judgment to provide independent legal 
advice pertaining to their respective Services. My understanding is 
that the Judge Advocate General is specifically responsible for 
providing independent legal advice, and reports directly to, the 
Secretary of the Navy and the Chief of Naval Operations. The Staff 
Judge Advocate to the Commandant is the senior uniformed attorney in 
the Marine Corps and is the primary legal advisor to the Commandant of 
the Marine Corps and Headquarters, Marine Corps on matters falling 
under the Staff Judge Advocate's cognizance. The Judge Advocate General 
and Staff Judge Advocate to the Commandant are responsible for 
formulating and implementing policies and initiatives pertaining to the 
overall provision of legal services pertaining to their respective 
Services.
    Question. What are your views about the responsibility of staff 
judge advocates within the Navy and Marine Corps to provide independent 
legal advice to military commanders in the fleet and throughout the 
naval establishment?
    Answer. Staff judge advocates must use their independent 
professional legal judgment in providing advice to commanders in order 
to meet operational requirements and execute day to day 
responsibilities. Such advice must be consistent with applicable 
professional responsibility requirements and community oversight.
                       judge advocate resourcing
    Question. Several years ago the Center for Naval Analyses (CNA) 
completed a study of manpower requirements for the Navy in which it 
concluded that the Navy's Judge Advocate General Corps was 
significantly understrength for its mission. Over the past several 
years this Committee has promulgated significant modifications to the 
military justice system.
    What is your understanding of the current and projected manpower 
requirements in the Navy JAG Corps?
    Answer. Based on current and programmed manning, I believe the Navy 
JAG Corps has the manpower to meet its required legal mission.
    The Navy JAG Corps' continued ability to recruit, access, and 
retain high quality legal talent is critical to meeting JAG Corps 
manpower requirements. It is important to note that the recruiting 
environment has become increasingly competitive, with applications to 
the Navy JAG Corps dropping by more than half over the last five years 
as law school admissions have fallen to their lowest level since 1973. 
At the same time, the cost of a legal education has increased 
dramatically, with Navy JAG Corps accessions currently reporting an 
average total student loan debt exceeding $149,000. The DON will 
continue to be sensitive to these issues to ensure the Department 
maintains the necessary capacity.
    Question. What is your understanding of the sufficiency of the 
number of Active Duty judge advocates in the Marine Corps to provide 
legal support for all the Marine Corps' missions?
    Answer. Judge Advocates play a critical role in the Marine Corps. 
Advising on a range of critical issues from sexual assault to 
operational concerns, Marine Judge Advocates are key advisors who are 
highly valued and utilized by commanders. I have not had the 
opportunity to review the current and future manning requirements. If 
confirmed, I am committed to studying the issue to ensure that Marine 
Judge Advocates continue to play an integral role in the Marine Corps.
    Question. If confirmed, will you review the judge advocate manning 
within the Navy and Marine Corps and determine whether current Active 
Duty strengths are adequate?
    Answer. Yes.
                 sexual assault prevention and response
    Question. What is your assessment of the Navy's sexual assault 
prevention and response program?
    Answer. The Navy has demonstrated that sexual assault prevention 
and response is a priority. It is apparent to me that the Navy is 
continually looking for ways to confront this criminal activity and 
create an environment that facilitates prompt reporting and enables 
victim care. Secretary Mabus, Admiral Richardson, and General Neller 
are each personally engaged. This senior-leader partnership has been a 
key feature since at least 2009. It is my understanding that victim 
support has been dramatically improved, training programs have been 
transformed for the better, and commanders understand their 
responsibilities.
    I understand the Navy seeks a Department-wide culture of respect, 
where sexual assault is never tolerated and ultimately eliminated, 
where all sexual assault survivors receive support and protection, and 
where offenders are held appropriately accountable. I understand the 
importance and the scale of what to the Department must achieve, and I 
accept the challenge of breaking new ground in doing so. Nothing else 
is more consistent with our core values of Honor, Courage, and 
Commitment.
    Question. What is your assessment of Navy and Marine Corps programs 
to address and prevent retaliation or reprisal against individuals who 
report sexual harassment or sexual assault?
    Answer. I understand that retaliation, including ostracism and 
maltreatment, is a crime punishable under the UCMJ. I understand that 
in addition to training senior leadership on this matter, a key 
component to the Department of the Navy's response is confronting such 
conduct through strengthening leadership skills among managers at the 
lower ends of the chain of command and in individual workplaces. The 
Department is building new and better training tools for that right 
now. They are also working in partnership with DOD on strategies to 
identify cases and assess our responses. If confirmed, I will continue 
to assess this closely and take appropriate measures.
    Question. What do you see as the greatest challenges to the success 
of those programs?
    Answer. If confirmed, I would actively seek to ensure the Navy 
implements all legislative and Department initiatives and that we 
continue to actively asses the effects of these programs to eliminate 
sexual harassment and sexual assault.
    Across these endeavors, I see three fundamental challenges.
    The first involves sustaining commitment and efforts in ways that 
accurately convey their central and enduring importance.
    The second is continuing to adapt our training and response process 
as we continue to understand the dynamics of the problem.
    The third is deriving accurate measures of success. For example, as 
awareness is raised about the Department's new initiatives for victim 
assistance and prosecutions, an increase in the number of reports may 
or may not indicate an actual increase in the number of incidents. It 
may simply demonstrate that more victims feel comfortable coming 
forward.
    Question. If confirmed what changes if any would you make to 
improve those programs?
    Answer. If confirmed, I would look for best practices across the 
Service and Departments. Each Service and Military Department is taking 
innovative measures to combat sexual assault. We don't have to do 
everything exactly the same, and our working environments differ 
importantly, but there is more we could learn from each other. I 
believe it will be important to maintain an ongoing critical assessment 
and be willing to change course when necessary.
    Question. What is your assessment of Navy and Marine Corps programs 
and policies to hold individuals accountable for retaliation or 
reprisal against individuals who report sexual harassment or sexual 
assault?
    Answer. The Department of the Navy (DON) seeks to achieve a culture 
of gender respect, where sexual assault is never tolerated and 
ultimately eliminated, where all survivors receive support and 
protection, and where offenders are held appropriately accountable. I 
will find it intolerable when those with the courage to report a sexual 
assault or sexual harassment are subjected to reprisal, maltreatment, 
or ostracism.
    The Navy has a criminal and Inspector General processes to address 
retaliation in all forms. Additionally, the Service JAGs are working 
with DOD to review legal definitions and clarify when command action is 
warranted. The Department is working with DOD on strategies to utilize 
local Sexual Assault Response Coordinators to receive and report better 
information on cases as they arise, and to ensure that individual 
information is reviewed by installation Case Management Groups for the 
purpose of protecting and supporting sexual assault survivors. 
Furthermore, they are also developing interactive, live-action training 
programs that directly address issues of peer support for sexual 
assault survivors--building on prior successes and lessons learned with 
a similar approach to promoting bystander intervention with regards to 
retaliation.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. Both restricted and unrestricted reporting of sexual 
assaults are valuable tools for supporting sexual assault survivors. 
Both seem to be well accepted by sailors and marines. Restricted 
reporting provides some individuals with a mechanism to seek support 
more on their own terms. I support that opportunity. The most important 
things we can do is to get victims to come forward. We cannot address 
this problem unless victims come forward.
    Question. What is your view about the role of the chain of command 
in providing necessary support to the victims of sexual assault?
    Answer. Victims of sexual assault must be supported. Sexual assault 
prevention and victim support are fundamental leadership 
responsibilities. Commanders are accountable for the mission readiness 
of their commands, that is, their ability to do their job when called 
to do so. The health, welfare, and safety of their personnel need to be 
the number one priority to ensure mission effectiveness. That means 
commanders are ultimately accountable for the physical and mental well-
being of the sailors and marines under their charge. Commanding 
officers must not only set the tone for command climate through words 
and deeds, they must also ensure a positive command climate through 
training and leadership. If confirmed, I will ensure Navy and Marine 
Corps leaders at all levels have the resources they need to implement 
command-wide training on how to support survivors and to implement 
military policies regarding sexual assault prevention and response.
    Question. What is your assessment of the Department of the Navy's 
implementation of the requirement to establish special victim's 
counsel?
    Answer. I understand that it is working well. The Victims' Legal 
Counsel (VLC) serves as a personal legal advocate to ensure victims are 
in the best position to leverage all of the tools available to them. 
Most Navy VLCs have built strong relations with local commanding 
officers and Sexual Assault Prevention and Response (SAPR) program 
personnel. Their unique role is well respected. As of 11 Dec 15, Navy 
VLC have assisted 1,759 sexual offense victims. VLC Survey feedback 
indicates victims are extremely satisfied with the services provided by 
their VLC and feel they have a voice in the process.
    Question. What is your understanding of the adequacy of Navy 
resources and programs to provide victims of sexual assault the 
medical, psychological, and legal help they need?
    Answer. It is my understanding that effective services are widely 
available, and sexual assault victims receive a high priority for care 
and support. I am aware that the Department has established significant 
resources to provide support to victims, including Sexual Assault 
Response Coordinators (SARC), deployed resiliency counselors, and 
Victims' Legal Counsel (VLC), as well as Victim Advocates who, 
together, represent a full spectrum of resources available to support a 
victim's physical, emotional and legal needs. I understand major naval 
commands have added Sexual Assault Prevention and Response (SAPR) 
officers at the rank of Commander or higher to ensure commands are 
responsive; and I understand the medical community strives to provide 
individuals with compassionate, competent, and victim-centered care.
    Question. What is your view of the steps the Navy has taken to 
prevent additional sexual assaults both at home station and deployed 
locations?
    Answer. The Navy and Marine Corps are expeditionary forces that are 
forward deployed. As such, the Navy engagement in combatting sexual 
assault is world-wide. Both Services have deployed robust training 
efforts and command engagement Department-wide and have world-wide 
resources for victim support and criminal investigations. If confirmed, 
I will continue to watch and be vigilant and demand improvements where 
they need to be.
    Question. What is your view of the adequacy of the training and 
resources Navy has in place to investigate and prosecute allegations of 
sexual assault?
    Answer. I understand that Navy and Marine Corps criminal 
investigators and litigators are well trained. NCIS has hired cadre of 
approximately 18 criminal investigators to respond to and investigate 
sexual assault cases. I understand the Department has hired an 
additional 54 NCIS agents to focus on sexual assault investigations--
specifically in response to the increased NCIS workload resulting both 
from policy requirements to investigate all allegations of sexual 
assault of any nature, and from the success of Department-wide efforts 
to make sailors and marines more comfortable in reporting sexual 
assaults in the first place. Recent efforts have also explored using 
Reserve or Active Duty Masters-at-Arms personnel to work with NCIS in 
investigating some cases but not conducting victim interviews. The 
average caseload trended down in fiscal year 2015 (to 2014) and the 
average time from initial notification to ``active complete'' status is 
now under 100 days. In addition to implementing the VLC program both 
the Navy and marines have implemented special training for lawyers in 
sexual assault case management.
    In 2007 the Navy's Military Justice Litigation Career Track (MJLCT) 
was established to identify, develop, and retain judge advocates who 
demonstrate military justice knowledge and trial advocacy skills. Due 
to the effectiveness of this program, an experienced cadre of 
litigation specialists is spread across the Navy's prosecution offices. 
This includes nine regional Senior Trial Counsel who litigate, oversee, 
and assist the prosecution of the most complex cases while supervising, 
mentoring, and training subordinate trial counsel. As a general matter, 
the Navy's most junior trial counsel would have undergone at least two 
years of formal training and on-the-job training in all JAGC principle 
practice areas before taking on any cases as lead prosecutor. 
Additionally, MJLCT officers and other judge advocates occupying 
litigation billets are provided advanced training focused on various 
aspects of sexual assault litigation, prosecution and defense.
    If confirmed, I would monitor these programs and encourage and 
support NCIS and the JAG corps in seeking opportunities to advance 
continued training and resources to address recognized needs in this 
area.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults occur?
    Answer. Command leadership is the lynchpin of military culture and 
command climate. Leaders at every level, from the Secretariat to the 
deck plate and the fire team are our best and most critical asset in 
achieving culture change. Culture change does not happen overnight, but 
requires sustained focus by and communication from leadership.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. If confirmed, the issue of sexual assault in the Navy and 
Marine Corps will be a priority focus for me. I would support any 
policy change that enhances the confidence in the military's justice 
system and ensures that every Sailor and Marine has a safe working 
environment.
    Question. What additional steps would you take, if confirmed, to 
address the problem of sexual assaults in the Navy?
    Answer. My priority, if confirmed, will be to sustain the emphasis 
on current efforts. I would ensure these programs are meeting their 
intended purposes and are beneficial to victims and to the Navy in 
combating sexual assault. I would carefully consider the 
recommendations of the Judicial Proceedings Panel (JPP) and of 
independent review groups that can improve the Navy's sexual assault 
prevention and response program. In addition, I would seek to review 
and evaluate the training of leadership at all levels ensure Navy 
leaders are equipped to create and sustain command climates that are 
intolerant of sexual assault and in which victims of sexual assault can 
feel safe as they continue to serve the Navy and Marine Corps.
      balance between civilian employees and contractor employees
    Question. The Navy employs many contractors and civilian employees. 
In many cases, contractor employees work in the same offices, serve on 
the same projects and task forces, and perform many of the same 
functions as federal employees. Both contractors and civilians make up 
an integral part of the Department's total workforce.
    Do you believe that the current balance between civilian employees 
and contractor employees is in the best interests of the Navy?
    Answer. I do believe we must continuously evaluate our total 
workforce balance to meet the requirements of 10 USC 129a, to determine 
the most appropriate and cost efficient mix of military, civilian and 
contractor personnel to perform the mission of the Department of 
Defense. As requirements change so could the balance of the workforce.
    Question. In your view, has the Department utilized contractors to 
perform basic functions in an appropriate manner?
    Answer. I do believe that contractor personnel have been used 
appropriately. However, as previously noted we must continuously 
evaluate our workforce mix and the use of contractors to ensure they 
are being used efficiently and for the appropriate mission sets/
requirements.
    Question. Do you believe that the Navy should undertake a 
comprehensive reappraisal of ``inherently governmental functions'' and 
other critical government functions, and how they are performed?
    Answer. I do not have any reason to believe that the DON needs a 
comprehensive reappraisal of ``inherently governmental functions'' and 
other critical government functions. I believe this to be a continuous 
process of workforce balancing and that effort is even more critical in 
downsizing environments as reductions need to be made smartly to have 
the least impact on our ability to perform the mission.
    Question. Are there non-monetary reasons why the Navy would need or 
desire one type of manpower over the other? If so, provide relevant 
examples where of those reasons? Under what circumstances should cost 
be used as the primary factor?
    Answer. Yes, there are non-monetary reasons that could drive the 
use of different types of manpower. Clearly, the type of requirement 
impacts the reasoning, i.e. is it a military or inherently governmental 
function. But other factors such as skill set requirements, schedule 
(urgency of requirement), expected duration of effort, etc. all impact 
the manpower decision process. Example could be in cyber where urgent 
need for technical expertise, not currently organic to the DON, would 
need to be acquired from the private sector. Cost tends to be a primary 
factor when commercial type functions--not impacted by the other 
factors mentioned--are evaluated for accomplishment.
    Question. If confirmed, will you work with other appropriate 
officials in the Navy to review the contractor and civilian force mix 
for cost and mission effectiveness?
    Answer. I will work with the appropriate officials in the Navy on 
the balance of our workforce as I see the manpower equation as one of 
the primary areas impacting both our resources and our ability to 
execute mission.
    Question. Would you agree that the balance between civilian 
employees and contractor employees in performing Navy functions should 
be determined by the best interests of the Navy and its mission 
requirements?
    Answer. Yes, I agree with that statement.
    Question. If confirmed, will you work to remove any artificial 
constraints placed on the size of the Navy's civilian and contractor 
workforce, so that the Navy can hire the number and type of employees 
most appropriate to accomplish its mission?
    Answer. Yes, if confirmed I will work with Department officials to 
determine if there are constraints that impact our ability to hire the 
right workforce to efficiently and effectively accomplish the mission 
of the DON.
                      women in combat integration
    Question. The Marine Corps recently released the results of their 
major research study on combat integration. Before reviewing the 
report, Secretary Mabus indicated that he will not support any 
exceptions to policy to close any ground combat elements to women.
    Will you commit to conducting a thorough review of the report?
    Answer. I am aware that Secretary Mabus is a strong advocate of 
opening all occupational specialties to women and that he made that 
recommendation based on his careful review of all available data 
including the Marine Corps Ground Combat Element Integrated Task Force 
(GCEITF) report. If confirmed, I would avail myself of all information 
and facts related to the issue.
    Question. The Marine Corps' research demonstrated that women 
suffered higher injury rates among women than men when engaged in field 
combat exercises and training. Does that concern you?
    Answer. The health and welfare of all servicemembers is of great 
concern to me. The studies that were conducted provided a significant 
amount of data concerning the physiology, types of injuries, and injury 
rates sustained by both men and women. Through this research, I am 
confident that we can improve our training to mitigate these risks.
    Question. Do you believe Congress should amend the Selective 
Service Act to require the registration of women?
    Answer. I understand that the Department of Defense is working with 
the Department of Justice to appropriately address the issue of how the 
decision to open all combat arms positions and units to women may 
impact the selective service act.
    Question. If women become subject to the draft, should they also be 
prepared for involuntary assignment based upon the needs of the Navy?
    Answer. Secretary Carter's decision ensures that our all-volunteer 
military has access to the broadest range of talent, men and women, 
that the U.S. has to offer. In the highly unlikely event of a draft, 
requiring women to register with Selective Service would not 
necessarily mean women members would be forced to serve in the same 
capacity as men.
    Question. What is your opinion on whether men and women in combat 
and special forces MOSs should be subject to the same physical 
requirements for participation in those MOSs?
    Answer. I support SECDEF's guidance in his 3 Dec 2015 memo that 
states ``The Services will continue to apply previously developed and 
validated operationally relevant and objective standards for all career 
fields to assure that leaders assign tasks and career fields throughout 
the force based on ability, not gender. This approach is integral to 
preserving unit readiness, cohesion, and morale, and it will continue 
to form the foundation for full integration.'' Currently, physical 
fitness tests are gender normed to gauge a servicemember's general 
health and fitness which is why the Marine Corps developed 
operationally-relevant, occupation-specific, gender-neutral standards 
specific to each physically demanding job. If confirmed, I will work to 
ensure that all standards are operationally relevant and accurately 
reflect the tasks required to accomplish the mission and that women 
meet the same standards as men for the same MOSs.
    Question. What is your opinion on whether men and women in the 
combat MOS should have the same physical fitness tests for the duration 
of their careers?
    Answer. Navy uses Navy-wide physical fitness tests that are gender- 
and age-normed independent of a servicemember's career field. For 
specific jobs, including combat MOSs, all members of a given MOS should 
meet the same physical standards required for that job as long as they 
serve in that position. Both the Marine Corps and Navy certified that 
their physical standards are current and in accordance with public law 
as of September 30, 2015. If confirmed, I will work to ensure that 
equitable opportunities exist for both men and women.
    Question. In light of Secretary Carter's decision to open all 
military positions to women, what do you believe are the primary 
challenges to implementing full integration in the Department of the 
Navy and how do you plan to address them?
    Answer. The primary challenges to implementing full integration are 
addressing the concerns raised by various Services' studies as 
articulated in SECDEF's 3 Dec 2015 memo. These concerns include:
    <bullet>  Transparent Standards--Assigning tasks and career fields 
throughout the force based on ability, not gender;
    <bullet>  Population Size--Addressing equipment sizing, supply, and 
facilities;
    <bullet>  Physical Demands and Physiological Differences--
Addressing ways to help mitigate the injury rate and impact to 
individuals and the teams they are assigned;
    <bullet>  Conduct and Culture--Addressing attitudes toward team 
performance through education and training;
    <bullet>  Talent Management--Addressing recruiting, retaining, and 
advancing based on merit-based system;
    <bullet>  Operating Abroad--Addressing presence of women in 
cultures where complications may occur due to cultural restrictions;
    <bullet>  Assessment and Adjustment--Addressing monitoring, 
assessment, and adjustment issues to enable sustainable success.
                            maternity leave
    Question. Secretary Mabus recently announced his plan to provide 18 
weeks of maternity leave for sailors.
    Do you support the Secretary's decision to allow 18 weeks of 
maternity leave for sailors?
    Answer. Yes, I believe the Services must ensure that the All-
Volunteer Force continues to remain competitive with America's 
workforce and evolve with the changing times to address the needs, 
desires and goals of those sailors and marines who selflessly serve and 
sacrifice for our nation. This initiative provides a better balance 
between the need to retain high-performing, highly-educated and 
experienced sailors and marines, in whom we have already heavily 
invested.
    Question. If confirmed, what would be your plan to augment or back-
fill those positions occupied by female sailors on extended maternity 
leave? Would you consider utilizing reservists to back-fill those 
positions?
    Answer. The Navy and Marine Corps' standard process for replacing 
all losses for operational units uses the enlisted distribution system 
management with similar skills to back fill at-sea units. These re-
assignments can negatively affect billet ``fit'' for both sea and shore 
commands, but do not create at-sea manning gaps for deploying commands. 
Commands have the option to request reservists to back-fill those 
positions, if funding is available. The Marine Corps does not back-fill 
positions occupied by female marines on Additional Maternity Leave 
(AML). If confirmed, I will work with Navy and Marine Corps leaders to 
determine the degree to which the new maternity leave policy requires 
adjustments to current procedures for augmenting or back filling.
    Question. In your view, how would the Navy account and pay for the 
cost of additional personnel to fill positions left vacant by sailors 
on extended maternity leave?
    Answer. It is my understanding that Navy has implemented plans to 
mitigate the impact of 18 weeks of maternity leave on operational 
units. Navy's standard plan for replacing losses to operational units, 
including those for maternity leave, leverages sailors at shore 
establishments with similar skills to back fill at-sea units. It is my 
understanding that this mechanism has the capacity to absorb Navy's 
historical at-sea pregnancy rates. The Marine Corps does not back-fill 
positions occupied by female marines on Additional Maternity Leave 
(AML).
    Question. Would the Navy require an increase to their authorized 
end strengths to accommodate additional manning requirements?
    Answer. I do not believe that Navy and/or Marine Corps feels an 
increase in end strength is necessary to accommodate the policy, but 
that it will require careful management and monitoring to ensure that 
operational readiness is not adversely impacted or a burden is placed 
on other sailors or marines to accommodate a member on maternity leave. 
The policy naturally includes flexibility and discretion for when 
members may take the leave, and permits it to be taken over multiple 
periods to meet the needs of both the member and the Services.
    Question. Do you support paid uncharged paternity leave for male 
sailors in excess of the 10 days afforded by statute? If so, how many 
weeks do you believe is an appropriate amount of time?
    Answer. Given the higher percentage of male servicemembers 
currently serving, any substantial increase in paternity leave could 
impact readiness. An increase in the current 10 days of uncharged 
paternity leave afforded by statute would have to be carefully examined 
to thoroughly understand those impacts, and any resulting second or 
third order effects. If confirmed, I will investigate how best to 
balance the needs of Navy and Marine families against the requirement 
to remain combat ready to determine if changes to the paternity leave 
policy are needed, and at what cost they might be implemented.
    Question. Do you believe the Navy fully understands what the cost 
of this reform will be? If so, describe those costs.
    Answer. The Department of the Navy has not yet been able to 
accurately determine the cost of the reform. Future attempts will be 
made to understand the complex monetary and non-monetary (e.g., 
retention) costs associated with the reform.
                    morale, welfare, and recreation
    Question. If confirmed, what challenges do you foresee in 
sustaining Navy and Marine Corps MWR programs in the future fiscal 
environment?
    Answer. It is vitally important not to marginalize MWR program 
contribution to readiness and retention in the Marine Corps. If 
confirmed, I will work with the Services to ensure program relevance 
and sustainability. In a fiscally constrained environment, it is 
critical to optimize MWR's revenue generating capability and to protect 
the profitability of the military exchanges that help fund MWR 
programs.
                          military health care
    Question. In your view, what should the Navy's Bureau of Medicine 
and Surgery do to improve access to care in its medical treatment 
facilities?
    Answer. Timely access to health care--where and when it's needed--
is a top priority for Navy Medicine. Navy Medicine is focused on 
continual improvements to medical care to sailors, marines and their 
families. Examples that Navy is exploring and implementing include: 
virtual care, mobile convenience, and telemedicine solutions in order 
to keep sailors, marines and their families healthy and on the job. If 
confirmed, I would support the Bureau of Medicine and Surgery's efforts 
to improve both access and convenience through such innovative, 21st 
century solutions.
    Question. If confirmed, how would you work with the Surgeon General 
of the Navy to improve the healthcare experience for sailors, marines 
and their families?
    Answer. Keeping sailors, marines and their families healthy and on 
the job is Navy Medicine's top priority. The Navy does provide services 
that don't require a trip to the hospital, and it is my understanding 
that they are expanding those services. However, when services are 
needed at a hospital, the Navy is working to ensure it is easy and 
timely to get those services, and that those services are top quality 
and patient-centered.
    If confirmed, I would work with the Surgeon General of the Navy to 
continue those efforts and drive toward, and resource, the tenets of a 
high reliability organization. Grounded in the sacred trust we share in 
caring for America's sons and daughters, our sailors, marines and their 
families deserve the best healthcare experience possible.
                      family readiness and support
    Question. sailors, marines and their families in both the active 
and reserve components have made, and continue to make, tremendous 
sacrifices in support of operational deployments. Senior military 
leaders have warned of concerns among military families as a result of 
the stress of deployments and the separations that go with them.
    What do you consider to be the most important family readiness 
issues for sailors, marines and their families, and, if confirmed, how 
would you ensure that family readiness needs are addressed and 
adequately resourced, especially in light of current fiscal 
constraints?
    Answer. Sailors, marines and their families are the Department of 
the Navy's greatest assets. Understanding and addressing their needs 
can be more challenging in times of war or contingency operations, 
particularly in a fiscally constrained environment. This requires a 
focus on communication. If confirmed, I will work with the Services to 
ensure that, to the greatest extent possible, the Department remains 
agile and responsive to the needs of servicemembers and their families, 
within fiscal realities. Whether assisting them in transitioning to 
civilian life, or supporting their financial health throughout their 
service, addressing their needs and desires will be essential to 
success.
                           suicide prevention
    Question. The numbers of suicides in each of the Services continue 
to be of great concern to the Committee.
    If confirmed, what role would you play in shaping suicide 
prevention programs and policies for the Department of the Navy to 
prevent suicides and increase the resiliency of sailors and marines and 
their families?
    Answer. I share the Department of the Navy view that every suicide 
is a tragedy, and that suicide is also a leadership issue. I understand 
that the Services have taken significant steps to improve suicide 
prevention efforts. If confirmed, I will support efforts to encourage 
strength and resilience among sailors, marines and their families, and 
to foster command climates supportive of psychological health and help-
seeking behavior. It is critical that the Department continues to 
emphasize the importance of personal responsibility, peer-support and 
bystander intervention, and that it continues to emphasize that seeking 
help is a sign of strength.
       support for wounded, ill, and injured sailors and marines
    Question. Servicemembers who are wounded or injured in combat 
operations deserve the highest priority from the Navy and the Federal 
Government for support services, healing and recuperation, 
rehabilitation, evaluation for return to duty, successful transition 
from active duty if required, and continuing support beyond retirement 
or discharge.
    What is your assessment of the progress made by the Navy and Marine 
Corps to improve the care, management, and transition of seriously ill 
and injured sailors and marines?
    Answer. I appreciate the Committee's and Congress' continued 
interest and support for wounded warriors and their families and 
caregivers. This is an enduring mission that will continue long past 
the current conflicts as we provide a lifetime of support to our 
seriously wounded, ill, and injured sailors and marines.
    To date Navy Wounded Warrior-Safe Harbor has provided non-medical 
support to more than 2,288 sailors and Coast Guardsmen that are 
enrolled in the program. They have also provided assistance to an 
additional 1,540 servicemembers with less severe conditions who still 
need help. The Marine Corps' Wounded Warrior Regiment provides support 
to a monthly average of approximately 850 marines who are joined to a 
subordinate element and / or assigned a recovery care coordinator. In 
an effort to ensure marines who transition from Active service are not 
left without necessary support, the Wounded Warrior Resource and 
Outreach Call Center has provided assistance to nearly 32,000 post 9/11 
medically retired and veteran marines since its inception in 2009.
    It is my understanding that much progress has been made since the 
programs were established under the 2008 National Defense Authorization 
Act. Non-medical care management teams throughout the country tailor 
support to each enrolled servicemember's recovery, rehabilitation and 
reintegration needs. This support can include Comprehensive Recovery 
Plan development, addressing pay and personnel issues, connecting them 
to family resources, offering adaptive sports and recreation 
opportunities, and linking them to education, employment, and training 
benefits. Support does not conclude at the door of a medical treatment 
facility or when a wounded warrior's military career concludes. It 
offers enrollees a host of services that ease their transition to 
civilian life and ensures they are cared for throughout their 
lifetimes.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Navy's support for 
wounded sailors and marines, and to monitor their progress in returning 
to duty or to civilian life?
    Answer. In 2008, Congress expanded support for our wounded warriors 
beyond combat wounded to include serious illness and injuries. It is my 
understanding that the vast majority of sailors and marines are 
enrolled as a result of non-combat conditions. These programs address 
an enduring need and must remain capable of responding when or if the 
Nation engages in a future conflict. If confirmed, I will work to 
ensure that they are properly resourced into the future even in the 
midst of these challenging budget environments.
              senior military and civilian accountability
    Question. While representative of a small number of individuals in 
DOD, reports of abuses of rank and authority by senior military and 
civilian leaders and failures to perform up to accepted standards are 
frequently received. Whistleblowers and victims of such abuses often 
report that they felt that no one would pay attention to or believe 
their complaints. Accusations of unduly lenient treatment of senior 
officers and senior officials against whom accusations have been 
substantiated are also frequently heard.
    What are your views regarding the appropriate standard of 
accountability for senior civilian and military leaders of the 
Department?
    Answer. Even if isolated, the abuse of rank or authority can 
undermine trust in a military organization. Senior civilian and 
military leaders must uphold the highest standards of integrity and 
principled leadership. An organization that fails to hold senior 
individuals accountable when warranted sends the wrong message to 
sailors, marines and civilian personnel in the Department of the Navy 
as well as to the public.
    Question. If confirmed, what steps would you take to ensure that 
senior leaders of the Navy and Marine Corps are held accountable for 
their actions and performance?
    Answer. If confirmed, I will continue to foster the Navy and Marine 
Corps' earnest commitment to the highest ethical standards of 
principled leadership and service. I will ensure timely investigation 
of allegations. I will ensure that, when required, accountability 
actions are exercised in strict adherence to principles of due process, 
consistent with law and regulation, and transparent to our 
Congressional oversight committees and the American public.
                           shipbuilding plan
    Question. Despite the Navy's 308-ship requirement to meet the 
maritime demands of the National Military Strategy, it is currently 
operating with 272 battle force ships. Additionally, the Congressional 
Budget Office (CBO) has concluded that the Navy has underestimated the 
costs for its shipbuilding plan by approximately 12 percent.
    Do you consider the 308-ship force structure requirement to be 
appropriate given the current and future strategic environment? If not, 
please describe what changes may need to be made.
    Answer. Currently, yes. The 308-ship Force Structure Assessment 
(FSA) update was completed in 2014 based on the 2014 Quadrennial 
Defense Review. The 308-ship battle force possesses the minimum 
capability and capacity to continue protecting American interests, to 
deter or contain conflict and, if called upon, to fight and win our 
nation's wars.
    Question. Do you agree with the CBO's assessment that there is 
significant cost risk associated with executing the Navy's shipbuilding 
plan?
    Answer. While I'm not familiar with the analytic methodology used 
in the CBO's assessment, if confirmed, I will ensure that the 
differences between the Navy and CBO shipbuilding cost estimates are 
understood.
    Question. What actions do you believe are necessary to execute the 
Navy's shipbuilding plan within the Navy's budget estimates?
    Answer. I know that the Department is focused on affordably 
acquiring all of the weapon systems that the Navy and Marine Corps team 
requires. If confirmed, I will work closely with ASN(RDA) to ensure 
that all cost reduction opportunities are explored and that budget 
estimates are realistic.
    Question. How would you characterize the risks to national security 
posed by the current shortfall in battle force ships and tactical 
aircraft?
    Answer. It is my understanding that today, the Navy meets all 
requirements of the current defense strategy, albeit with considerable 
risk.
    Question. What adjustments to the respective shipbuilding programs 
are necessary and appropriate to reduce operational risk?
    Answer. Based on our current strategy, I believe the FY 2016 
President's Budget Request reflects the best balance of available 
resources to meet the Department of Navy requirements. If confirmed, I 
will continuously evaluate this question as a critical part of my 
responsibilities.
    Question. What further adjustments would you consider if the Navy's 
shipbuilding program comes under further pressure due to cost growth?
    Answer. The Navy has been working hard to reduce cost growth and 
increase affordability and stability within all of the shipbuilding 
programs. Should these measures prove inadequate, if confirmed, I will 
work with Defense Department leaders and the Congress to determine the 
appropriate responses and to develop acceptable adjustments.
                           aircraft carriers
    Question. After more than $2 billion in cost growth in each of the 
first three Ford-class aircraft carriers, the costs of these ships 
range from $11.5 billion to $13.5 billion.
    Do you support the on-going Navy study of alternatives for future 
development of aircraft carriers that would replace or supplement the 
Ford-class carrier?
    Answer. I fully support consideration of alternatives to the 
current aircraft carrier design as well as changes to the existing 
Ford-class design to reduce cost while retaining essential capability. 
The study should provide insight into the requirements, capabilities, 
costs, and alternatives for aircraft carriers. If confirmed, I look 
forward to reviewing the findings.
    Question. In your view, should the Navy build 11 Ford-class 
aircraft carriers or should the Navy pursue a different mix of 
platforms for sea-based tactical aviation?
    Answer. The current plan for the Ford-class construction is the 
Navy's plan for meeting the demand for an 11 aircraft carrier force. If 
confirmed and once the alternative study is completed, I will work with 
the Secretary of the Navy and the Chief of Naval Operations to explore 
the right mix of platforms.
    Question. The Director of Operational Test and Evaluation's Fiscal 
Year 2014 Annual Report states the reliability of four systems--the 
electromagnetic aircraft launching system, advanced arresting gear, 
dual band radar, and advanced weapons elevators--are the most 
significant risks to the USS Gerald R. Ford (CVN-78) for successfully 
completing initial operational test and evaluation.
    What is your understanding of the testing and reliability status of 
each of these key systems on CVN-78, which is scheduled to deliver in 
June 2016?
    Answer. I understand that production of CVN 78 is nearly complete 
and that the Navy is now focused on completing construction of the 
ship, completing the ship's test program, and taking delivery of the 
ship. I understand that the four systems highlighted by DOT&E are 
indeed new technologies introduced to the ship and because they are 
new, provide risk to the program. I understand that testing on many of 
these systems has begun and, if confirmed, I will ensure that progress 
on testing is regularly conveyed to the Committee.
    Question. What is your understanding of the measures being taken to 
ensure these key systems are stable for the next aircraft carrier, USS 
John F. Kennedy (CVN-79)?
    Answer. I understand that the Navy continues to incorporate lessons 
learned from CVN 78 test programs and shipboard installation into CVN 
79 plans.
                     ohio-class replacement program
    Question. Navy leaders have testified that the Ohio-class 
Replacement Program will require significant investment and will result 
in equivalent reductions in the Navy budget, if a higher Navy topline 
or outside funding is not provided.
    What is your view on how the Ohio-class Replacement Program should 
be funded?
    Answer. It is absolutely critical for the Nation to replace the 
Ohio-class submarines. I understand that the Navy is taking appropriate 
measures to limit requirements and control cost for this Class while 
maintaining the level of performance necessary to ensure the high 
survivability provided by the sea-based strategic deterrent. 
Ultimately, however, the unique requirements of this program drive high 
cost to the Navy's overall shipbuilding program which, absent a higher 
topline, would equate to approximately one-third of the historic 
average shipbuilding budget. Such an impact to Navy shipbuilding over 
the 15 year period of building the Ohio Replacement submarines would 
have a direct impact to the future Navy Force Structure and therefore, 
the ability of the Navy to meet its mission in the decades ahead. If 
confirmed, I look forward to working with Defense Department leadership 
and the Congress to address this significant challenge.
    Question. Navy leaders have testified that 12 Ohio-class 
replacement submarines must be procured and the Ohio-class Replacement 
Program schedule cannot be delayed in order to ensure the first 
deterrent patrol occurs in 2031.
    Do you support the view that there is no room for delay of the 
Ohio-class Replacement Program?
    Answer. I understand that the Navy has stretched the Ohio-class to 
the maximum extent possible, from 30 to 42 years and that there is no 
room for further delay of the Ohio Class Replacement without 
introducing risk to meeting the requirements for the sea-based 
strategic deterrent. If confirmed, I will review this assessment in 
further detail with appropriate requirements and acquisition arms of 
the Department of Defense and determine whether there are further 
appropriate steps available to mitigate the schedule risk associated 
with meeting our strategic requirements.
    Question. Congress established the National Sea-Based Deterrence 
Fund in section 1022 of the Carl Levin and Howard P. `Buck' McKeon 
National Defense Authorization Act for Fiscal Year 2015.
    What are your views on how the Navy should use this Fund to acquire 
Ohio-class replacement submarines?
    Answer. It is clearly in the best interest of the Department of 
Defense and the Congress to ensure the Ohio Replacement Program is 
executed as efficiently as possible in order to meet the significant 
cost and schedule challenges posed by this high priority program. I 
understand that this need has been the motivation behind the 
formulation of the National Sea-Based Deterrence Fund. If confirmed, I 
will review and, as appropriate, identify measures necessary to further 
reduce cost and schedule risk associated with developing, designing, 
and building the Ohio Replacement Class submarines. It is likely that 
such measures will include additional authorities to be granted by 
Congress, and to the extent that these authorities are included in the 
National Sea-Based Deterrence Fund, then I will work closely within the 
Department of Defense and with the Congressional Defense Committees to 
ensure concurrence as well as full transparency in the exercise and 
oversight of these unique authorities.
                    ballistic missile defense (bmd)
    Question. The Navy plays an important role in defending the Nation 
against the threat of long range ballistic missile attack and in 
defending allies, friends, and deployed forces against theater 
ballistic missile threats. Today, the Navy has approximately 33 BMD-
capable ships, with just three of these having the advanced BMD 5.X 
capability. In 2020, the Navy projects having 39 BMD ships, with 16 
having BMD 5.X capability.
    Do you view ballistic missile defense as a core Navy mission?
    Answer. Yes, it is a proven capability the Navy provides to the 
Joint Force.
    Question. What options should be explored to reduce the shortfall 
in meeting the stated requirement of 40 ships with the advanced BMD 5.X 
capability?
    Answer. If confirmed, I will work with Navy and Missile Defense 
Agency leadership to explore all options for fielding capability 
earlier than currently planned while balancing fiscal realities.
                            cruise missiles
    Question. What is your understanding of the Navy's cruise missile 
defense strategy?
    Answer. My understanding is that the Navy has conducted numerous 
analyses to defend naval forces and advanced bases from the cruise 
missile defense threat and has invested in near, mid, and far term 
capabilities to counter the emerging threat. The Department of the Navy 
will continue to resource capabilities and provide properly trained and 
equipped forces to the combatant commanders.
    Question. In your view, how serious is the cruise missile threat to 
the Navy?
    Answer. The cruise missile threat is very serious to the Navy and 
nation.
    Question. If confirmed, what actions would you take to ensure that 
the Navy is adequately addressing this threat?
    Answer. If confirmed, I will ensure that the Department of the Navy 
properly resources cruise missile defense, and that those resources are 
properly balanced across the Department.
                     amphibious fleet requirements
    Question. What is your view of the need for and size of the Navy's 
amphibious ship fleet?
    Answer. Amphibious ships are a critical element of joint force 
capabilities. I support the current requirement of 38 amphibious ships 
and the plan to build 34, given fiscal constraints. If confirmed, I 
look forward to working closely with Navy and Marine Corps leadership 
to continue to meet amphibious requirements.
    Question. What alternatives would you consider to augment 
amphibious ships in providing lift to Marine Corps units? In what 
scenarios would these alternatives be necessary and appropriate?
    Answer. The Marine Corps and Navy have been innovative in their use 
of alternative lift options for permissive environments. Given the 
evolving threats, however, I would be wary of using such options to 
mitigate any shortfalls in the amphibious ship requirements 
specifically for assault echelon. If confirmed, I look forward to 
working closely with Navy and Marine Corps leadership to identify the 
most appropriate solutions in supporting our Naval Expeditionary Force 
and operations around the globe.
                       littoral combat ship (lcs)
    Question. In December 2014, the Secretary of Defense announced his 
decision to upgrade the Littoral Combat Ships, designated LCS-33 
through LCS-52, to provide a more capable and lethal small surface 
combatant, generally consistent with the capabilities of a frigate.
    Do you support the Secretary of Defense's decision to upgrade the 
LCS?
    Answer. From what I have read, I believe the modifications to the 
LCS design will add valuable lethality and survivability capability 
improvements to the final 20 hulls.
    Question. What is your understanding of the acquisition strategy 
for the LCS and LCS mission modules, as modified by the Secretary of 
Defense's decision?
    Answer. I understand that in December 2014, the Secretary of 
Defense decided that the Navy will procure a modified LCS (Frigate) to 
follow the current LCS design, resulting in an inventory of 32 LCS and 
20 Frigates. If confirmed, I will review the acquisition strategy 
details with ASN(RDA).
    Question. What is your view of the peacetime and wartime mission of 
the LCS?
    Answer. LCS provides the Navy critical capabilities to Surface 
Warfare (SUW), Mine Countermeasures (MCM), and Anti-Submarine Warfare 
(ASW) requirements in both open ocean and the littorals.
    Question. What is your understanding of the requirements for 
survivability of the LCS?
    Answer. I understand that concerns about LCS survivability are what 
led to Secretary Hagel's directed review of LCS alternatives, which 
resulted in the shift to an enhanced design. I am aware that all ships 
have an assigned level of survivability in keeping with their mission 
and concept of operations. If confirmed, I will review with the Chief 
of Naval Operations the survivability levels for LCS.
    Question. What is your understanding of the delivered survivability 
capability of the LCS?
    Answer. Since 5 LCS ships have been accepted by the Navy and are 
serving in the fleet, it is my understanding that they meet the 
survivability requirement for the Class.
    Question. Do you support the Navy force structure assessment 
requirement of 52 small surface combatants? If not, please explain.
    Answer. I support the Department's current inventory objective of 
52 small surface combatants which has been validated by the Navy's 
Force Structure Assessment. In keeping with the Secretary of Defense's 
decision to transition to a frigate, the 52 ships will be met by a 
combination of 32 LCS and 20 Frigates.
                       tactical fighter programs
    Question. The F-35 Joint Strike Fighter Program, which is the 
largest and most expensive acquisition program in the Department's 
history, was formally initiated as a program of record in 2002 with a 
total planned buy of 2,443 aircraft for the U.S. At projected 
procurement rates, the aircraft will be procured by the Department well 
into the 2030 decade to reach its total quantity buy. The program has 
not yet completed its systems development and demonstration phase, and 
is not due to enter full rate production until 2019, 17 years after its 
inception.
    The overall requirement for 2,443 aircraft was established nearly 
20 years ago. Since that time, however, there have been countervailing 
pressures to: (1) reduce force structure to conserve resources; (2) 
improve capability to respond to prospective adversary technological 
advances and increased capabilities from updated threat assessments; 
and (3) respond to an evolving national defense strategy.
    Do you believe the Department of the Navy's F-35B and F-35C 
requirements are still valid?
    Answer. Yes, both the F-35B and the F-35C will be vital parts of 
future Naval Aviation and critical to meeting warfighting requirements.
    Question. Do you believe the Department of the Navy can afford and 
needs to procure 310 more F-35Cs with a procurement cost of over $42 
billion?
    Answer. The F-35C provides essential 5th generation strike fighter 
capability to the Department's Carrier Air Wings. Without this 
capability, the Navy cannot achieve air superiority. The Department of 
the Navy currently has a requirement for 340 F-35Cs. If confirmed, I 
will work with ASN (RD&A) and the joint program office to most 
affordably procure the F-35C and will work with the Chairman and other 
service chiefs to revalidate the appropriate number of aircraft the 
Navy requires to meet the mission.
    Question. Do you believe that the Navy will still want to buy the 
F-35C, an aircraft design that will be 30 years old before the Navy 
production is scheduled to finish?
    Answer. The Navy is committed to making the F-35C the next Carrier 
Air Wing fighter, complementing the F/A-18E/F until that aircraft 
reaches the end of its lifetime in the 2030s.
    Question. Do you believe the Navy's current and planned force mix 
of tactical aircraft is sufficient to meet current and future threats 
around the globe, and most especially in the Asia-Pacific theater of 
operations where the ``tyranny of distance'' is such a major factor?
    Answer. Currently, I do. There are capability, inventory, and 
readiness aspects to delivering the required force mix. If confirmed, I 
will work with leadership to determine the best options to pace the 
threat in a dynamic security and fiscal environment.
    Question. The Secretary of the Navy recently remarked that he 
believed the F-35 should be and would be the nation's last manned 
fighter aircraft.
    Do you believe this to be true?
    Answer. It is crucial that we push the boundaries of what unmanned 
technologies can achieve; the next generation in tactical aviation will 
play a large part in this transformation. If confirmed, I will work 
with the Secretary of the Navy to aggressively advance the development 
of unmanned systems.
    Question. What will be your role in leading capabilities and 
requirements development to increase the role of unmanned aerial combat 
systems in the Navy?
    Answer. If confirmed, I intend to make the continued development of 
unmanned systems a hallmark of my tenure. I intend to lead the Navy 
into new ways of thinking about combinations of people and technologies 
to maximize our operational advantage.
    Question. How do you see the future balance developing between 
manned and unmanned combat aircraft for the Navy's future force 
structure?
    Answer. I believe that the advent of advanced information 
technology is redefining the approach to obtaining the most effective 
relationship between people and technology. There is vast potential to 
change the balance of manned and unmanned platforms in combat aircraft 
and across all platforms, and this potential is a key to helping the 
United States minimize the risk to our people and stay ahead of rapidly 
evolving threats.
                               readiness
    Question. What is your assessment of the current readiness of the 
Navy and Marine Corps to meet national security requirements across the 
full spectrum of military operations?
    Answer. My understanding is that while forward deployed Navy forces 
continue to meet readiness standards, there is concern about Navy's 
ability to meet the timelines associated with providing either follow-
on or ``surge'' forces should they be requested by combatant 
commanders. For instance, Navy is currently not meeting its required 
crisis response capacity and does not fully recover until 2021. For the 
Marine Corps, deployed units are sufficiently resourced to undertake 
assigned missions but about half of non-deployed units are 
insufficiently resourced to full spectrum readiness levels limiting 
their readiness to respond to unexpected crises or major contingencies. 
If confirmed, one of my first actions will be to review the readiness 
of the Navy and Marine Corps team.
    Question. What is your assessment of the near-term trend in the 
readiness of the Navy and Marine Corps?
    Answer. The 2016 President's Budget Request provides the minimum 
resources to achieve the levels of readiness to meet requirements by 
2021. This plan still includes considerable risk, and does not allow 
for any unexpected contingencies.
    Question. How critical is it to find a solution to sequestration 
given the impacts we have already seen to readiness in fiscal years 
2013, 2014, and 2015?
    Answer. It is absolutely critical. Without relief from the current 
budget caps, Navy will fall farther below requirements to the point 
that it will not be able to meet the responsibilities in the current 
strategy. The recent Bipartisan Budget Agreement is helpful in that it 
provides stability but at a reduced resource level. If confirmed, I 
will work with the Secretary, the Chief of Naval Operations, and the 
Commandant to determine the implications of these reductions.
    Question. What is your understanding and assessment of the methods 
currently used for estimating the funding needed for the maintenance of 
Navy and Marine Corps equipment?
    Answer. Both the Navy and Marine Corps have detailed processes that 
attempt to balance the real time and projected needs of the operators/
warfighters with the scheduled lifecycle sustainment requirements and 
depot maintenance capacity. These processes need to be designed to 
accommodate surges and other unplanned operations, which have become, 
and will continue to be, the norm.
    My understanding is that the Navy and Marine Corps maintenance 
requirements processes are thorough, but I am concerned about the time 
allotted to conduct reset maintenance of the force given the high 
operational tempo and COCOM demand signal.
    Question. Given the backlog in equipment maintenance over the last 
several years, do you believe that we need an increased investment to 
reduce this backlog?
    Answer. It is my understanding is that the FY 2016 President's 
Budget Request, with OCO funding, has provided funding to address this 
backlog. However, it will take time to physically complete the work.
    The budget fully funds ship maintenance to continue life cycle 
maintenance reset of CVNs and surface force ships. To address workload 
to be completed in public shipyards, the budget also provides funds for 
additional workforce in public shipyards and will send selected 
submarines to private shipyards. Navy has also funded aviation depot 
maintenance to capacity. As with the ships, it will take time to work 
through the backlog.
    Question. How important is it to reduce the materiel maintenance 
backlog in order to improve readiness?
    Answer. It is very important. I understand maintenance backlogs 
have delayed deployments, which have in turn forced extensions for 
those already deployed. This comes at a cost to the resiliency of 
sailors and marines, sustainability of equipment, and service lives of 
ships and equipment.
    Question. How important is it to receive OCO funding after the end 
of combat operations in order to ensure all equipment is reset?
    Answer. It is very important. The Department of the Navy remains 
reliant on OCO funding for ongoing overseas operations, reset, and some 
enduring requirements.
    Question. In your judgment, is recent operational tempo adversely 
affecting the readiness or retention of sailors and marines on active 
duty and in the reserve component?
    Answer. I believe the Chief of Naval Operations recently 
highlighted the fact that after three years of budget shortfalls and a 
high operating tempo, Navy is currently operating with considerable 
risk in its ability to fully execute warfighting mission in accordance 
with existing plans. I am unaware of any significant impact the current 
tempo of operations is having on retention, in general, but I imagine 
that it will just be a matter of time, especially in an improving 
economy, before sailors and their families begin to vote with their 
feet and choose to leave. Near-term operational readiness and the 
readiness of those marines who are forward deployed and forward engaged 
remains a top priority. The Marine Corps continues to reconstitute to a 
ready force after over a decade of persistent conflict. As the Nation's 
ready force, the Marine Corps does not have the luxury to take an 
operational pause after completing major operations in Iraq and 
Afghanistan. I will work with the Department and the Congress to ensure 
the Marine Corps is properly resourced to deliver a ready Marine Corps 
today and in the future.
    Question. Navy leaders have stated rotational deployments will be 
stabilized and more predictable through continued implementation of an 
improved deployment framework called the Optimized Fleet Response Plan 
(O-FRP).
    What is your understanding of the O-FRP?
    Answer. My understanding is that O-FRP is designed to align 
manning, maintenance, and modernization of platforms with training in 
order to achieve readiness and meet regional needs in the most 
effective and efficient manner. O-FRP should allow the Navy to achieve 
stable and predictable 7-month deployments, which will help to reset 
our readiness and increase certainty for our sailors and families.
    Question. Do you support implementation of the O-FRP?
    Answer. Yes. If confirmed, I will work closely with the CNO to 
ensure O-FRP remains on track to meet strategic objectives.
    Question. To what extent will implementation of the O-FRP improve 
the material readiness of the fleet?
    Answer. My understanding is that O-FRP is designed to improve 
material readiness by providing greater stability and predictability in 
maintenance schedules. Restoring predictability to maintenance periods, 
when combined with sufficient and predictable resources in our 
shipyards and depots should allow for better maintenance outcomes and 
improved overall fleet readiness.
    Question. What metrics should Congress use to track the material 
readiness and material condition of Navy ships and aircraft, as well as 
the effectiveness of O-FRP?
    Answer. If confirmed, I will work to ensure that the material 
readiness of our fleet is promptly known to Departmental leadership and 
the Congress.
                     science and technology program
    Question. Do you believe that the current balance between short- 
and long-term research is appropriate to meet current and future 
Department of the Navy needs?
    Answer. I believe that we must maintain a balance across our R&D 
investments to ensure our current Fleet is equipped with the 
capabilities they need today, to maintain the Navy and Marine Corps 
operational advantage by developing and fielding next generation weapon 
systems to change the face of future naval warfare and avoid 
technological surprise by aggressively pursuing high risks R&D 
initiatives. I also believe an increase in rapid prototyping and 
experimentation with the Fleet will help to inform the Department's R&D 
budget and ultimately deliver the capabilities our naval forces need 
today and well into the future.
    Question. If confirmed, what direction would you provide regarding 
the importance of innovative defense science in meeting Navy and Marine 
Corps missions?
    Answer. S&T investments provide the underpinning for assurance that 
our naval forces retain and widen our technological superiority in 
naval warfare. If confirmed, I will work with Navy leadership to 
properly invest in innovative defense science and technology; increase 
rapid prototyping and experimentation to expedite fielding of new and 
advanced warfighting capabilities. I would advocate pursuit of game 
changing science and technology discoveries to spawn the development 
and realization of new operational concepts.
    Question. If confirmed, what guidance would you give to ensure 
research priorities that will meet the needs of the Navy and Marine 
Corps in 2020?
    Answer. To remain competitive against emerging threats, research in 
new technologies needs to be coupled with innovative concepts for 
future war fighting. If confirmed, my guidance and oversight of 
research efforts will be focused on ensuring we are as creative in our 
development of new technologies as we are in our ideas of how to use 
them.
                        military space and cyber
    Question. Do you believe that the current Department of Defense 
management structure for space and cyber programs sufficiently protects 
Navy and Marine Corps space and cyber equities?
    Answer. Yes. My understanding is that the new management structure 
for space programs, which has designated the Secretary of the Air Force 
as the Principal Department of Defense Space Advisor, provides the Navy 
and Marine Corps sufficient opportunity to actively represent critical 
equities affecting space & cyber mission areas and capabilities. 
Similarly, the current Department of Defense structure also 
appropriately balances Service and Joint cyberspace equities. If 
confirmed, I will review this management structure with Department of 
Navy space and cyber community leaders to ensure Department of Navy 
equities are adequately represented.
    Question. In your view, how actively should the Navy and Marine 
Corps be engaged in the management of space and cyber programs?
    Answer. The Navy and Marine Corps have a responsibility to manage 
programs which provide the capability to operate and defend its 
networks and space capabilities. The Department's focus ensures the 
security and resiliency of weapons systems and warfighting platforms. 
The Services must remain actively involved as these capabilities are 
critical to the success of Service mission in the modern cyber and 
space reliant operating environment.
    Question. In your view, is the Navy and Marine Corps adequately 
involved in the requirements process for space and cyber programs?
    Answer. Yes. The Navy and Marine Corps participation in the space & 
cyber requirements process generally occurs through their respective 
service requirements processes and the Joint Capabilities Integration 
and Development System process. My understanding is that the recent 
standup of the Principal Department of Defense Space Advisory Staff and 
the DOD Principal Cyber Advisor should improve Joint participation and 
better facilitate requirements development for future space and 
cyberspace capabilities.
    Question. What is the Navy and Marine Corps' appropriate long-term 
role in space and cyber systems, other than as a user of space and 
cyber products?
    Answer. My understanding is that, in addition to being a user of 
space and cyber products, the Department has structured the Naval 
Science and Technology Strategy to discover, develop and deliver 
decisive naval capabilities, near- to long-term, by investing in a 
balanced portfolio of breakthrough scientific research, innovative 
technologies and talented people. In addition, the Navy and Marine 
Corps are working to incorporate the cyber domain into all of the 
Services' efforts to make reducing cyber vulnerability as fundamental a 
priority as physical protection of personnel, ships, aircraft, 
submarines, land systems and infrastructure.
                           electronic warfare
    Question. In your view, what steps must the Navy take to regain 
supremacy in electronic warfare, both offensive and defensive?
    Answer. I see electronic warfare as a warfare domain that offers 
great promise for innovation and experimentation with potential to 
increase the offensive and defensive capabilities of the Navy/Marine 
Corps team. Electronic Warfare will make our ships and aircraft hard to 
find, hard to kill and lethal. To that end, if confirmed, I would 
support the Navy's continued investment in technologies and policies to 
leap ahead in the Electronic Warfare domain
                            joint operations
    Question. Naval operations are becoming increasingly ``joint'' as 
marines plan to deploy in larger numbers and on a wider range of ships; 
the U.S. Army and Air Force begin to invest in counter-maritime 
capabilities; and air and naval forces continue to develop and 
implement interoperable capabilities to defeat anti-access and area-
denial (A2/AD) networks--a process that started with the Air-Sea Battle 
Concept in 2010.
    How would you characterize your familiarity with how each of the 
Services organize, train and equip their forces?
    Answer. Under title 10, man, train, and equip responsibilities 
reside with each Service. The challenge remains to produce a more 
effective operational Joint force. My understanding is that within the 
Navy and Marine Corps, there is a continuing effort through the Naval 
Board to align the naval Services when it comes to war gaming and long 
range planning. The intent is through early and continuous 
collaboration to improve cross-domain capability and capacity.
    Question. Are there other innovative ideas you are considering to 
increase Joint interoperability and ensure opportunities to improve 
cross-domain capability and capacity are not missed?
    Answer. If confirmed, I will work closely with the other Service 
Chiefs and combatant commanders to seek new ways to combine forces in 
adaptive and responsive force packages. I look forward to improving 
information sharing standards and architectures within the Naval and 
Joint Forces to enhance interoperability.
                      investment in infrastructure
    Question. Decades of under-investment in installations has led to 
increasing backlogs of facility maintenance needs, substandard living 
and working conditions, and has made it harder for the Services to take 
advantage of new technologies that could increase productivity.
    Do you believe the Department of the Navy is investing enough in 
its infrastructure? Please explain.
    Answer. In order to comply with fiscal constraints and maintain 
operational readiness, the Naval forces have been compelled to continue 
accepting risk in infrastructure investment and operations. However, if 
confirmed, I'll remain committed to investing in our Shipyards and 
Depots and exceeding the minimum 6 percent investment described in 10 
USC 2476. I will also support the ongoing prioritization of nuclear 
weapons support, base security, airport/seaport/range operations, and 
quality of life programs for our sailors, marines and families. It is 
essential that we accept risk judiciously by prioritizing life/safety 
issues and efficiency improvements to existing infrastructure and 
repairing only the most critical components of our mission critical 
facilities. By deferring less critical repairs, especially for non-
mission-critical facilities, the Department of the Navy is allowing 
certain facilities to degrade and causing our overall facilities 
maintenance backlog to increase. This backlog must eventually be 
addressed.
                           acquisition reform
    Question. The National Defense Authorization Act for Fiscal Year 
2016 emplaced myriad changes to defense acquisition processes, 
including reinserting service chief influence and accountability into 
acquisition processes.
    Do you support the acquisition reform provisions in the Fiscal Year 
2016 National Defense Authorization Act?
    Answer. Yes. I support many of the provisions in the FY 16 NDAA. In 
particular, I support the legislation that reinforces the roles of the 
CNO and CMC in decisions regarding the balancing of resources and 
priorities, and associated tradeoffs among cost, schedule, technical 
feasibility, and performance on major defense acquisition programs. 
This legislation is consistent with the Department of the Navy's Gate 
Review process. This is a collaborative process that involves the CNO 
and CMC or their representatives throughout the acquisition process.
    Question. What additional acquisition-related reforms do you 
believe the Committee should consider?
    Answer. If confirmed, I will work with SECNAV, USD (AT&L), and ASN 
(RDA) to identify reforms that help the Services more effectively 
manage program risks and budget uncertainty associated with major 
defense acquisition programs. I look forward, if confirmed, to working 
with the Committee to improve these processes.
    Question. How can the Department and the Navy better access and 
integrate commercial and military technology to remain ahead of its 
potential adversaries?
    Answer. Continual sharing of requirements and technological ideas 
between DON and industry is critical. If confirmed, I will ensure that 
communication with industry is robust and will continue to seek ideas 
from large and small businesses by use of existing tools such as the 
Rapid Innovation Fund (RIF), the Small Business Innovation Research 
(SBIR) program, and the Small Business Technology Transfer (STTR) 
program.
            united nations convention on the law of the sea
    Question. Officials of the Department of Defense, including 
previous Secretaries of the Navy, have advocated for accession to the 
Law of the Sea Convention.
    Do you support United States accession to the United Nations 
Convention on the Law of the Sea?
    Answer. Yes, I strongly support accession to the United Nations 
Convention on the Law of the Sea. For over thirty years the United 
States has benefited greatly from the legal regime provided by the 
Convention. The U.S. position that this complex framework reflects 
customary international law, and thus the U.S. is entitled to its 
benefits without accession to the treaty itself is not universally 
accepted. Accession would eliminate the need for the U.S. to assert 
that vital portions of the Convention addressing traditional uses of 
the oceans are reflective of customary international law. Where the 
Convention broke new ground, such as in the creation of a mechanism for 
securing international recognition of extended continental shelf 
claims, the U.S. cannot rely on customary international law to 
guarantee acceptance of its own extended continental shelf claims, 
including in the Arctic region. The U.S. should lead in maintaining a 
stable set of rules for the oceans and not being a party to the treaty 
prevents us from maintaining a credible position to influence these 
issues. We should lead in the development of law and policy for oceans 
and becoming a party to the treaty puts us in the strongest position to 
do so.
    Question. How would you respond to critics of the Convention who 
assert that accession is not in the national security interests of the 
United States?
    Answer. The ability of our armed forces to operate freely on, over, 
and above the world's oceans is critical to our national security. The 
Convention codifies binding tenets of international law that are 
essential to the global mobility and operations of our military. These 
include the right of unimpeded transit passage through straits used for 
international navigation, the twelve nautical mile limitation on the 
maximum breadth of the territorial sea, and the reaffirmation of 
sovereign immunity for our warships. As a maritime nation, free access 
to the oceans has always been critical to our security and economic 
well-being. Becoming a party to the Convention provides us with a 
credible position to raise issues and concerns for the freedom of 
navigation under which maritime commerce is able to move safely and 
securely on ships around the world.
    Question. In your view, what impact, if any, would U.S. accession 
to the Law of the Sea Convention have on ongoing and emerging maritime 
disputes such as in the South China Sea and in the Arctic?
    Answer. Events in the South China Sea and the Arctic are 
illustrative of the significant and increasing pressures on the 
maritime environment. This calls for United States leadership. 
Unfortunately, we are the only permanent member of the United Nations 
Security Council and the only Arctic nation that is not a party to the 
Law of the Sea Convention. The Convention provides the only 
internationally accepted process for nations to establish legal title 
to a continental shelf beyond 200 nautical miles from their coasts. 
Only by submitting its claim of an extended continental shelf to the 
Commission set up under the Convention can the U.S. guarantee 
international acceptance of its claim to an extended continental shelf 
off its coasts, including sovereign rights to potentially vast energy 
resources in the Arctic. We need to be inside the Convention to bring 
the full weight of our leadership to influence the resolution of South 
China Sea and Arctic issues and to have the most effective impact on 
other future developments in oceans.
             u.s. force posture in the asia-pacific region
    Question. The Department continues the effort to rebalance toward 
the Asia-Pacific as announced in the January 2012 Strategic Defense 
Guidance.
    Are you satisfied with the rebalance efforts to date?
    Answer. Thus far, I am satisfied with the Navy and Marine Corps 
rebalance efforts to date as part of a longer term plan. These plans 
have and will continue to result in a significant adjustment in U.S. 
Navy force structure and capabilities in the Asia-Pacific region.
    Question. What do you see as the U.S. security priorities in the 
Asia-Pacific region over the next couple of years and what specific 
Navy and Marine Corps capabilities or enhancements are needed in to 
meet those priorities?
    Answer. Our U.S. regional priorities remain a) preservation of a 
rules-based international order, b) regional stability, and c) enhanced 
alliance/partner relationships. Naval forces contribute significantly 
to all three with their credible forward presence, which contributes to 
conventional deterrence against aggressive behavior. In order to 
protect our interests, the U.S. faces a range of challenges in the 
Asia-Pacific region, including provocations by North Korea and the 
growth of its ballistic missile programs, as well as China's expansion 
into the Pacific and Indian oceans, supported by their rapidly growing 
navy. Our naval capabilities, including our strategic deterrent, must 
be modernized to continue supporting the stability essential to this 
region's significant contributions to the global economy. Moreover, we 
require sufficient capacity (ships, subs and tactical aviation) to be 
able to sustain deployed and lethal naval forces.
                        anti-access/area denial
    Question. Over the past few years, much has been made of the 
emerging anti-access and area denial capabilities of certain countries 
and the prospect that these capabilities may in the future limit the 
U.S. Navy's freedom of movement and action in certain regions.
    Do you believe emerging anti-access and area denial capabilities 
are a concern?
    Answer. Yes. The development and proliferation of advanced systems 
that can sense, target and strike Naval assets at increasing ranges and 
accuracy is a vital concern to me. If confirmed, I will work with other 
defense leaders and leaders in industry to develop technologies and 
concepts of operations that assure all-domain access by the joint 
force.
    Question. If so, what do you believe the Navy and Marine Corps need 
to be doing now and in the next few years to ensure continued access to 
all strategically important segments of the maritime domain?
    Answer. The free use of the maritime commons is critical to the 
global economic system and U.S. national interests. I believe the Navy 
should continue to first and foremost be present and exercise freedom 
of navigation in international waters and to reassure our allies and 
partners. Further the Navy and Marine Corps must continue to develop 
new concepts, platforms, and technologies that can effectively address 
this emerging threat to access. The marines should continue their work 
to creatively adapt their operating concepts for more distributed 
maneuver into contested littoral areas.
                          china assertiveness
    Question. How has China's aggressive assertion of territorial and 
maritime claims, particularly in the South China Sea and East China 
Sea, affected security and stability in the region?
    Answer. China's actions in the South and East China Seas, as well 
as its rapid military modernization and growing defense budgets, have 
led many in the region, including the U.S., to question its long-term 
intentions. China has still not clarified its 9-Dash Line claim, and it 
continues to conduct land-reclamation and construction activities in 
the South China Sea. Such behavior has been destabilizing for the 
region and has increased the risk of miscalculation or conflict among 
regional actors. Our allies and partners in the region are increasingly 
looking to the U.S. for leadership and support in the face of these 
challenges, and so our response to China's challenges to the 
international maritime order should be firm and consistent.
                                 china
    Question. What is your assessment of the current state of the 
United States-China military relationship?
    Answer. The United States-China military-to-military relationship 
is a critical component of our overall bilateral relationship and an 
important aspect of our regional maritime strategy. Right now, I 
believe the military relationship is contributing to stability in the 
region. This stability allows us to increase cooperation on areas of 
overlapping interests, while improving our ability to manage other 
aspects of the security relationship responsibly. The broader bilateral 
relationship can improve through strengthening trust and transparency 
between the two militaries, without sacrificing operational security.
    Question. What are your views regarding China's interest in and 
commitment to improving military relations with the United States?
    Answer. While I have had very little interaction with Chinese 
military leaders, my understanding is that China's leadership 
understands that as they increase their interaction throughout the 
region, they have a shared interest with the United States in 
preserving lines of communications to maximize common interests and 
minimize miscalculations.
    Question. What is your view of the purpose and relative importance 
of sustained defense-to-defense relations with China?
    Answer. I believe China recognizes the U.S. will have an enduring 
presence in the Pacific and therefore has a clear interest in 
sustaining military-to-military contacts. If confirmed, I will continue 
to use the military relationship as a tool to build sustained and 
substantive dialogue, develop areas of practical cooperation, and 
manage competition in a way that protects national interests and 
supports overall stability in the relationship and the Asia-Pacific 
region.
                            unmanned systems
    Question. The Navy's current plan for the Unmanned Carrier-Launched 
Airborne Surveillance and Strike (UCLASS) system aircraft is to develop 
an airframe optimized for unrefueled endurance (14 hours) and the ISR 
mission.
    Given the combat radius of the planned carrier air wing, are you 
concerned the Navy's aircraft carriers will lack the ability to project 
power at relevant distances, given emerging anti-access/area-denial 
threats?
    Answer. Yes, I am concerned. Rapidly evolving technological and 
security environments require the Department of the Navy to continually 
work to develop new concepts and technologies. If confirmed, I will 
work with Navy leadership to ensure there is an integrated and 
affordable approach to assessing warfighting capabilities of the entire 
Air Wing.
                           strategic thinking
    Question. How do you plan to foster a dedicated, educated, and 
assigned group of strategic thinkers and planners who rise to the rank 
of flag rank officer?
    Answer. The strength of our Navy and Marine Corps team remains its 
people. If confirmed, I will provide the Secretary my frank assessment 
of the existing professional and educational opportunities available to 
our officer cadre within each of their respective career paths, and 
will make recommendations regarding any changes necessary to ensure the 
best strategic thinkers and planners are developed and nominated.
    The Navy and Marine Corps must improve their ability to develop 
senior leaders who are able to formulate and implement strategy. The 
promotion and selection processes are effective at choosing 
accomplished officers, well versed in operational-level planning, 
programming and engineering thinking, but may not always pick officers 
for executive positions who are skilled in the strategic arts. Today's 
geo-strategic environment demands we have military leaders who can 
ensure that programs and technologies are linked to strategy and 
concepts of operations that are focused on what it takes to secure 
America's strategic interests around the world.
    The CNO and CMC began initiatives to enhance the strategic 
education of officers, and added an officer subspecialty for strategy. 
I will work with them to support these efforts and investigate the 
possibility of creating a cadre of strategists who have strategy 
development and implementation as their primary specialty and whose 
career paths place them in billets where their intellectual 
contributions will have a cascading effect on the overall direction of 
the Navy and Marine Corps.
                  conventional vs. nuclear deterrence
    Question. What role do you see for the Navy and Marine Corps in 
conventional deterrence?
    Answer. Naval forward presence is critical to conventional 
deterrence. Captured in the phrase that the Navy is ``where it matters, 
when it matters'' is the ability of our entire Navy/Marine team to 
operate forward with combat credible forces to enhance stability and 
deter undesired behavior. Our flexible forward-deployed posture 
materially contributes to deterrence and generates crisis response 
options.
    Question. How do strategic and conventional deterrence complement 
one another?
    Answer. Strategic and conventional deterrence are complementary. 
Our nation's strategic deterrent has been a bedrock of peace and 
stability, precluding major wars for over 50 years. The Navy's 
contribution to this is the SSBN force, which has provided a survivable 
and responsive capability and 100 percent alert coverage since the 
1960s. The force recently celebrated its 4,000th strategic deterrent 
patrol. Complementing this strategic deterrent our conventional naval 
forces are present to been seen and to reassure our partners that we 
have a global reach that protects the international system. Both work 
in tandem with the Joint force to guarantee stability.
                          offset technologies
    Question. During the Cold War, the DOD pursued three key 
technologies to offset the numerical superiority of Soviet conventional 
forces: precision guided munitions, stealth technology, and satellite-
based navigation. These three technologies have given U.S. forces 
unparalleled superiority until now. However, with advancements by our 
emerging adversaries, it seems like the military technological 
superiority is beginning to erode. As a result, it is critical that the 
United States once again focus on offsetting the erosion of our 
technology advantages being achieved by our potential adversaries.
    Question. Which technology priorities do you believe the Navy and 
Marine Corps should be pursuing to maintain the military technological 
superiority of the United States?
    Answer. Our adversaries are indeed pursuing and increasing their 
investments in military modernization programs that threaten our 
technological superiority. If confirmed, I believe we should focus on 
affordable technology priorities that develop a more capable and ready 
force, and capabilities broadly applicable to a wide variety of threat. 
In addition, we should investigate using advanced capabilities in new 
innovative ways to help us meet our military objectives. In particular, 
I believe that key warfighting areas such as power projection, 
electronic warfare and cyber, anti-access/area denial (A2AD), air 
warfare, and undersea warfare are all important priorities. I would 
place special emphasis on unmanned systems.
    Question. What strategies would you recommend be implemented to 
develop these technology priorities?
    Answer. I would recommend we focus on prioritizing development of 
advanced capabilities and looking at how we can use them differently in 
a more innovative fashion to gain a warfighting advantage. For the 
longer term, I would recommend planning our research and development 
efforts to focus on future threats and how to address them.
    Question. What role should the services play in their development?
    Answer. The Services need to work collaboratively with the 
Department of Defense, as well as other government agencies, industry, 
universities, labs, think tanks, and partner nations. The faster cycle 
time of technology advancement today demands that we share the vibrant 
innovation across all entities in order to stay competitive. By working 
together and sharing the strengths each brings to the table, the 
Services can find synergies to apply to the joint fight.
                         science and technology
    Question. If confirmed, what direction would you provide regarding 
the importance of innovative defense science and technology in meeting 
Department of the Navy missions?
    Answer. S&T investments provide the underpinning for assurance that 
our naval forces retain and widen our technological superiority in 
naval warfare. If confirmed, I will work with Navy leadership to 
properly invest in innovative defense science and technology; increase 
rapid prototyping and experimentation to expedite fielding of new and 
advanced warfighting capabilities; and advocate pursuit of game 
changing science and technology discoveries to spawn the development 
and realization of new operational concepts.
    Question. Do you believe the current balance between short- and 
long-term research is appropriate to meet current and future Navy 
needs?
    Answer. I believe that we must maintain a balance across our R&D 
investments to ensure our current Fleet is equipped with the 
capabilities they need today, to maintain the Navy and Marine Corps 
operational advantage by developing and fielding next generation weapon 
systems to change the face of future naval warfare and avoid 
technological surprise by aggressively pursuing high risks R&D 
initiatives. I also believe an increase in rapid prototyping and 
experimentation with the Fleet will help to inform the Department's R&D 
budget and ultimately deliver the capabilities our naval forces need 
today and well into the future.
    Question. What role would you have in helping the Department 
implement the nascent Third Offset Strategy?
    Answer. If confirmed, I will work closely with DOD and Navy and 
Marine Corps leadership to ensure we are providing the right strategic 
direction, that we are rigorously exploring innovative operating 
concepts via wargaming, and prioritizing our S&T investments in support 
of the ongoing innovation programs in the Department of the Navy that 
support the Third Offset Strategy.
                          technical workforce
    Question. A significant challenge facing the Department of Defense 
today is an impending shortage of high quality scientific and 
engineering talent to work at Defense laboratories and technical 
centers.
    In your view, what are the pros and cons of having Active Duty Navy 
and Marine Corps personnel trained and working as scientists and 
engineers within the Department of the Navy research and acquisition 
system?
    Answer. Active duty Navy and Marine Corps personnel in many cases 
have the best understanding of the performance requirements of defense 
systems and platforms. In the capacity of scientists and engineers, 
sailors and marines who understand both the operational environment and 
the technical dimensions of acquisition decisions will be able to 
positively influence future acquisition requirements. Having the end-
user actively engaged in developing technology and defining 
requirements may also help shorten the acquisition timeline. The 
challenge to the DON is the availability of sailors and marines to fill 
new positions as scientists and engineers.
    Question. How would you ensure that directors of labs in your 
service have the tools they need to dynamically shape their S&T 
workforce?
    Answer. I am aware that laboratory directors currently have 
authorities to rapidly respond to emerging technology threats through 
the Naval Innovative Science and Engineering (NISE) program which 
allows the directors to make investments in basic and applied research, 
technology transition, workforce development, and laboratory 
revitalization. In addition, I am aware that the laboratory directors 
have direct hiring authority to hire key scientists and engineers 
quickly. If confirmed, I will work with Navy leadership to continue to 
identify ways to build upon these policies and others to ensure the S&T 
workforce is equipped with the tools, facilities, knowledge and 
experience to maintain technological superiority over emerging threats.
                       test and evaluation issues
    Question. What do you see as the role of the developmental and 
operational test and evaluation communities with respect to rapid 
acquisition, spiral acquisition, and other evolutionary acquisition 
processes?
    Answer. The developmental and operational test and evaluation 
communities play valuable roles in rapid acquisition, spiral 
acquisition or evolutionary acquisition. For these various acquisition 
processes, testing will help in obtaining useful knowledge to support 
systems development, make programmatic acquisition decisions, and 
inform users about the system's operational characteristics and 
performance.
    Question. What are your views on the appropriate roles of OSD 
developmental and operational testing organizations with respect to 
testing of Navy and Marine Corps systems?
    Answer. OSD test organizations can provide useful inputs on test 
and evaluation, participate on acquisition program test and evaluation 
working groups, and provide constructive critiques in their evaluations 
of system performance.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this Committee and other appropriate committees of the Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
Committee, or designated members of this Committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of the 
Navy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this Committee and 
its staff and other appropriate Committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                ------                                


    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Kelly Ayotte
                         best value contracting
    1. Senator Ayotte. Dr. Davidson, there has been a recent trend in 
some of the Services to buy more products through Lowest Price 
Technically Acceptable (LPTA) and reverse auction acquisition methods. 
I have become aware of cases where these methods have even been used 
for the procurement of personal protective equipment where safety and 
quality are critical and the failure of the item could result in combat 
casualties. Our troops, who put their lives on the line for our freedom 
and security, should not be sent into harm's way with the cheapest 
equipment, but rather the best. In combat, as well as in training, 
quality personal protective equipment can prevent serious injuries and 
can even be the difference between life and death for our 
servicemembers. That is why I worked to include section 884 in this 
year's NDAA, which was recently signed into law. This provision 
requires the Secretary of Defense to ensure that the Services, in 
procuring an item of personal protective equipment or a critical safety 
item, use source selection criteria that is predominately based on 
technical qualifications of the item, if the level of quality or 
failure of the item could result in death or severe bodily harm to the 
servicemember. If confirmed, will you review this provision in the NDAA 
and ensure that your Service complies with this law?
    Dr. Davidson. If confirmed as the Under Secretary of the Navy, my 
number one priority will always be to keep our sailors and marines 
safe. In this regard, nothing is more important than buying high 
quality personal protective equipment. I will ensure that the 
Department of the Navy complies with section 884 of this year's NDAA.
                               __________
             Questions Submitted by Senator Mazie K. Hirono
                     rebalance to the asia-pacific
    2. Senator Hirono. Dr. Davidson, I am very concerned with ensuring 
that our Rebalance to Asia-Pacific is more than just rhetoric. What are 
your views on advancing a tangible rebalance?
    Dr. Davidson. The plan in execution by the Department of Defense 
will meet the objectives of the broader U.S. Government effort to 
rebalance to the Asia Pacific. I understand that the Navy is on track 
to position 60 percent of its forces in the region by 2020. It is also 
my understanding that the Navy is deploying its most cutting-edge 
technology to the Pacific, including the advanced Zumwalt destroyer, 
the latest Virginia-class submarine, the P-8 maritime patrol aircraft, 
the E-2D airborne early warning aircraft, the joint strike fighter (F-
35), and USS Ronald Reagan (CVN 76) aircraft carrier homeported in 
Japan. The Marine Corps retains a robust presence in the region, 
including a sustained forward presence in Okinawa and new rotations to 
Darwin, Australia.

    3. Senator Hirono. Dr. Davidson, in your opinion, how are we doing 
in reassuring our partners and allies in the region that we are serious 
about the Rebalance and what else should we be doing?
    Dr. Davidson. I believe that our persistent forward presence, 
capability, and institutional capacity facilitates robust naval 
activity in the region that deepens alliances, strengthen partnerships, 
builds strategic relationships, sharpens U.S. warfighting competence, 
and enables prompt and ready response to conflict and natural disaster 
contingencies. I understand that the Navy is developing 
interoperability and building partner capacity across the Asia Pacific 
region through cooperative deployments as well as leading over 170 
exercises and 600 training events annually with allies and partner 
nations.
                            energy security
    4. Senator Hirono. Dr. Davidson, I believe energy security is a 
vital component to our overall national security. Do you believe the 
Department of Defense (DOD) has a role to play in U.S. energy security 
and could you comment on how you view energy security as tied to our 
overall national security?
    Dr. Davidson. The Department of Defense's ability to provide for 
the national security depends on having assured access to reliable 
energy supplies and using that energy as efficiently as possible to 
maximize our capabilities. The Navy and Marine Corps' mission is to 
provide global presence to ensure stability, deter potential 
adversaries, and provide options in times of crisis. Assured access to 
energy is critical to that mission as well. I support the Department of 
the Navy's efforts to transform how it uses energy to maximize 
strategic options, boost combat effectiveness, and better protect our 
sailors and marines.
                     energy efficiency initiatives
    5. Senator Hirono. Dr. Davidson, I applaud DOD's work on energy 
efficiency initiatives including alternative and renewable energy 
projects. If confirmed, will you commit to continuing the 
administration's efforts to expand alternative and renewable energy 
initiatives?
    Dr. Davidson. Yes. I will support Department of the Navy efforts to 
develop renewable energy and energy efficiency projects because they 
are critical to improving our energy security and warfighting 
capability.
                           long term per diem
    6. Senator Hirono. Dr. Davidson, the work that the men and women of 
our Services do, including our DOD civilians, is critical to our 
national security. While I support DOD's efforts to seek cost 
efficiencies, I am deeply concerned by the potential impact that 
cutting per diem for long-term temporary duty may be having on the 
hardworking men and women of our Services and their ability to focus on 
their mission. If confirmed, will you work to ensure that the men and 
women who work away from home for extended periods of time will not be 
required to pay out-of-pocket for their travel and that the Services 
will be provided the flexibility needed to support these hardworking 
members and civilians and that necessary temporary duties (TDY) go 
empty because of the new long-term TDY per diem policy?
    Dr. Davidson. I concur that we need to support the efforts of our 
hardworking men and women who work away from home for extended periods 
of time. As I understand it the intent of the new per diem policy was 
for individuals who were on longer term TDY to plan for lodging 
arrangements that would take advantage of the extended stay and select 
temporary lodging that on a per day basis would be less expensive than 
if their stay was for a short duration. If I am confirmed, I will look 
into the impact of this policy on the out of pocket expenses of our 
military and civilian travelers.
                                 ______
                                 
    [The nomination reference of Dr. Janine Anne Davison 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 21, 2015.
    Ordered, That the following nomination be referred to the 
Committee on Armed Services:
    Janine Anne Davidson, of Virginia, to be Under Secretary of 
the Navy, vice Robert O. Work, resigned.
                                ------                                

    [The biographical sketch of Dr. Janine Anne Davidson, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Janine A. Davison
Education:
    <bullet>  University of Colorado, Boulder
      <bullet>  Attended: 1984-1988
      <bullet>  Degree Granted: Bachelor of Science, Architectural 
Engineering
      <bullet>  Degree Received: May 1988
    <bullet>  University of South Carolina
      <bullet>  Attended: 1998-2005
      <bullet>  Degree Granted: Doctor of Philosophy, International 
Studies
      <bullet>  Degree Received: December 2005
      <bullet>  Degree Granted: Masters of Arts, International Studies
      <bullet>  Degree Received May 2002
Employment Record:
    List all jobs held since college including title or description of 
job, name of employer, location of work, and dates of employment.
    Council on Foreign Relations, Washington, DC
      <bullet>  Senior Fellow, Defense Policy
      <bullet>  January 2014-present.
    Georgetown University, Washington, DC
      <bullet>  Adjunct Professor
      <bullet>  January 2015-May 2015.
    George Mason University, Arlington, VA
      <bullet>  Assistant Professor
      <bullet>  August 2008-May 2009; and August 2012-January 2014.
    Center for New American Security, Washington DC
      <bullet>  Non-Resident Senior Fellow
      <bullet>  2013-2014.
    Department of Defense, Pentagon, Washington, DC
      <bullet>  Deputy Assistant Secretary of Defense for Plans
      <bullet>  April 2009-March 2012.
    Center for New American Security, Washington DC
      <bullet>  Non-Resident Senior Fellow
      <bullet>  2013-2014.
    Brookings Institution, Washington, DC
      <bullet>  Non-Resident Fellow
      <bullet>  August 2008-April 2009.
    Northwestern University Medill School of Journalism, Washington DC 
campus
      <bullet>  Adjunct Professor
      <bullet>  2008
    Office of the Deputy Assistant Secretary of Defense for Stability 
Operations, Pentagon, Washington, DC
      <bullet>  Director, Stability Operations Capabilities
      <bullet>  May 2006-June 2008
    George Mason University, Arlington, VA
      <bullet>  Adjunct Professor
      <bullet>  2005-2006.
    Hicks and Associates, Arlington, VA
      <bullet>  Director, Counterinsurgency Studies
      <bullet>  2005-2006
    DFI International, Washington, DC
      <bullet>  Associate
      <bullet>  2003-2004
    United States Air Force
      <bullet>  Captain
      <bullet>  1988-1998

Honors and Awards:
    Military Awards
      <bullet>  1995 Distinguished Graduate, Air Force Squadron 
Officers School.
      <bullet>  1994 Instructor of the Year, 12th Flying Training Wing.
      <bullet>  1990-1998 Air Force Medals: Air Force Commendation, Air 
Force Achievement, National Defense, SW Asia.
      <bullet>  1986 Air Force Vice Commandant Award for Leadership.
      <bullet>  1984-1988 Undergraduate Academic Scholarship, 4-year 
Air Force ROTC.
    Federal Civilian Awards
      <bullet>  2012 Secretary of Defense Medal for Outstanding Public 
Service.
    <bullet>  Academic Awards
      <bullet>  2010 Distinguished Alumnus Award, College of Arts and 
Sciences, University of South Carolina.
      <bullet>  2006 Dissertation Award, Committee for the Analysis of 
Military Operations and Strategy, American Political Science 
Association (APSA).
      <bullet>  2003 Pre-Doctoral in-Residence Foreign Policy 
Fellowship, Brookings Institution, Washington, D.C.
      <bullet>  2001 Governor John C. West Fellowship.
      <bullet>  1998, 1999, 2000 Graduate Student Fellowship, USC 
Graduate School
    Other Awards
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by the Dr. Janine 
Anne Davidson in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    part a--biographical information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Janine Anne Davidson.

    2. Position to which nominated:
    Under Secretary of the Navy.

    3. Date of nomination:
    September 21, 2015.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 24, 1966, Oxnard, CA.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Married to David J. Kilcullen.

    7. Names and ages of children:
    [Nominee responded and the information is contained in the 
committee's executive files.]

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.

Undergraduate:
    University of Colorado, Boulder
    Attended: 1984-1988
    Degree Granted: Bachelor of Science, Architectural Engineering
    Degree Received: May 1988

    W.T. Woodson High School, Fairfax, VA
    Attended: 1981-1984
    Degree Granted: High School Diploma Degree
    Received: June 1984

Graduate:
    University of South Carolina
    Attended: 1998-2005
    Degree Granted: Doctor of Philosophy, International Studies
    Degree Received: December 2005
    Degree Granted: Master of Arts, International Studies
    Degree Received May 2002

    9. Employment Record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.

    Council on Foreign Relations, Washington, DC
    Senior Fellow, Defense Policy
    January 2014-present

    Georgetown University, Washington, DC
    Adjunct Professor
    January 2015-May 2015

    J9 Consulting, LLC, Falls Church, VA
    Managing Member
    March 2014-present

    C2 Technologies, Vienna, VA
    Consultant
    July 2013-June 2014

    George Mason University, Arlington, VA
    Assistant Professor
    August 2008-May 2009; and August 2012-January 2014

    Center for New American Security, Washington DC
    Non-Resident Senior Fellow
    2013-2014

    Department of Defense, Pentagon, Washington, DC
    Deputy Assistant Secretary of Defense for Plans
    April 2009-March 2012

    Brookings Institution, Washington, DC
    Non-Resident Fellow
    August 2008-April 2009

    Northwestern University Medill School of Journalism, Washington DC 
campus
    Adjunct Professor
    2008

    Office of the Deputy Assistant Secretary of Defense for Stability 
Operations, Pentagon
    Washington, DC

    Director, Stability Operations Capabilities
    May 2006-June 2008.

    George Mason University, Arlington, VA
    Adjunct Professor
    2005-2006.

    SAIC, Arlington, VA
    Director, Counterinsurgency Studies
    2005-2006

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Reserve Forces Policy Board
    Member
    March 2015-present

    Senior Advisors Group for General Phillip Breedlove, Supreme Allied 
Commander
    Europe
    Member/lnformal
    July 2014-present

    Under-Secretary of Defense for Policy, Department of Defense
    Consultant
    May 2012-present

    National Commission on the Structure of the Air Force
    Commissioner
    May 2014-April 2015

    Presidential Transition Team, Defense Department, Washington DC
    Member
    November 2008-January 2009

    Officer and Senior Pilot, United States Air Force
    1988-1998

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.

    J9 Consulting LLC: Sole Owner and Managing Member/inactive.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.
    Board of Advisors, Truman National Security Project, since 2013.
    Council on Foreign Relations, Life Member since 2008.

    13.Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    N/A.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Re-elect Barak Obama 2012, National Security Policy volunteer.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $1,500.00 Hillary for President 2015.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.

    2012 Secretary of Defense Medal for Outstanding Public Service.
    2010 Distinguished Alumnus Award, College of Arts and Sciences, 
University of South Carolina.
    2006 Dissertation Award, Committee for the Analysis of Military 
Operations and Strategy, American Political Science Association (APSA).
    2003 Pre-Doctoral in-Residence Foreign Policy Fellowship, Brookings 
Institution, Washington, D.C.
    2001 Governor John C. West Fellowship.
    1998, 1999, 2000 Graduate Student Fellowship, USC Graduate School.
    1995 Distinguished Graduate, Air Force Squadron Officers School.
    1994 Instructor of the Year, 12th Flying Training Wing.
    1990-1998 Air Force Medals: Air Force Commendation, Air Force 
Achievement, National Defense, SW Asia.
    1986 Air Force Vice Commandant Award for Leadership.
    1984-1988 Undergraduate Academic Scholarship, 4-year Air Force 
ROTC.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years of which you have 
copies and are on topics relevant to the position for which you have 
been nominated.
    N/A.

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to Congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this Committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Janine A. Davidson  
    This 12th day of November, 2015
                                 ______
                                 
    [The nomination of Dr. Janine Anne Davidson was reported to 
the Senate by Chairman McCain on December 18, 2015, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on March 17, 2016.]
                              ----------                              


    [Prepared questions submitted to the Honorable Lisa S. 
Disbrow by Chairman McCain prior to the hearing with answers 
supplied
follow:]

                        Questions and Responses
                            defense reforms
    Question. The Committee has recently held a series of hearings on 
defense reform.
    What modifications of Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 provisions, if any, do you believe would be 
appropriate?
    Answer. I have no specific suggestions for modifications to the 
Goldwater-Nichols legislation at this time, but I agree with the 
overall goal of defense reform: to ensure the effective employment of 
our Nation's Armed Forces. The Secretary of Defense is carefully 
examining this issue and if confirmed I will support that effort. Also, 
if I am confirmed and identify areas that merit reform, I will propose 
those changes through the appropriate established process.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I believe that my 30 years of combined leadership, policy, 
and requirements with the Department of Defense has prepared me to 
serve as the Under Secretary of the Air Force. I've been a member of 
the Air Force, both in uniform and civil service, since earning my 
commission from Officer Training School in 1985.
    In my current position as Assistant Secretary of the Air Force 
(Financial Management & Comptroller), I am responsible for the 
efficient and effective management of Air Force resources and providing 
for the welfare for more than 664,000 active duty, Guard, Reserve and 
civilian airmen and their families. Before that, I served as the Vice 
Director for Force Structure, Resources and Assessment on the Joint 
Staff. There, I was responsible for developing future warfighting 
capabilities; conducting joint force structure and warfighting studies; 
evaluating Department of Defense plans, programs, and strategies for 
the Chairman of the Joint Chiefs of Staff.
    If confirmed as Under Secretary of the Air Force, I look forward to 
continuing to apply this experience in support of the Air Force, airmen 
and their families.
                                 duties
    Question. Section 8015 of title 10, United States Code, states the 
Under Secretary of the Air Force shall perform such duties and exercise 
such powers as the Secretary of the Air Force may prescribe.
    What is your understanding of the duties and functions of the Under 
Secretary of the Air Force?
    Answer. The position of the Under Secretary of the Air Force is 
established by law within the Office of the Secretary of the Air Force. 
Subject to the Secretary of the Air Force's direction and control, the 
Under Secretary exercises the full authority of the Secretary to 
conduct the affairs of the Department of the Air Force (except as 
limited by law, regulation or limitations imposed by the Department of 
Defense or the Secretary of the Air Force). The Under Secretary also 
serves as the Chief Management Officer of the Air Force.
    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Under Secretary of the Air Force, as 
set forth in section 8015 of title 10, United States Code, or in 
Department of Defense regulations pertaining to functions of the Under 
Secretary of the Air Force?
    Answer. At this time, I am unaware of any reason to change the 
duties and functions of the Under Secretary as set out in title 10 and 
pertinent Department of Defense regulations. If I am confirmed and I 
identify areas that I believe merit changes, I will propose those 
changes through the appropriate established processes.
    Question. Assuming you are confirmed, what additional duties, if 
any, do you expect will be prescribed for you?
    Answer. If confirmed, I look forward to working with the Secretary 
of the Air Force to further her vision and goals for the Air Force. I 
expect the Secretary to prescribe duties for me relating to the Under 
Secretary of the Air Force's responsibilities, particularly in the role 
of Chief Management Officer.
    Question. Section 904(b) of the National Defense Authorization Act 
for Fiscal Year 2008, directs the Secretary of a military department to 
designate the Under Secretary of such military department to assume the 
primary management responsibility for business operations.
    What is your understanding of the business operations 
responsibilities of the Under Secretary of the Air Force?
    Answer. It is my understanding that the business operations 
responsibilities of the Chief Management Officer, consistent with 
section 904 of the National Defense Authorization Act for Fiscal Year 
2008, include the following: ensuring the Air Force's capability to 
carry out the Department of Defense's strategic plan in support of 
national security objectives; ensuring the core business missions of 
the Department of the Air Force are optimally aligned to support the 
Department's warfighting mission; establishing performance goals and 
measures for improving and evaluating overall economy, efficiency, and 
effectiveness and monitoring and measuring this progress; and working 
with DOD's Chief Management Officer to develop and maintain a strategic 
plan for business reform.
    Question. How do you perceive your role in setting the agenda for 
the Air Force Deputy Chief Management Officer?
    Answer. If confirmed, I expect the Secretary to prescribe duties 
for me relating to the Under Secretary of the Air Force's 
responsibilities as the Chief Management Officer. In turn, I will 
appropriately set the agenda for the Deputy Chief Management Officer 
(DCMO). The Air Force recently re-designated the DCMO role, along with 
the Office of Business Transformation, as the Deputy Under Secretary of 
the Air Force, Management, reporting to the Under Secretary of the Air 
Force. I expect the DCMO role to continue to include facilitating 
continuous process improvement across the Air Force and chairing 
already established working groups that contribute to improvements to 
the efficiency and effectiveness of the Air Force mission, core 
competencies and functional areas.
                             relationships
    Question. If confirmed, what would be your working relationship 
with:
    The Secretary of Defense.
    Answer. The Secretary of Defense serves as the principal assistant 
to the President on all
    Department of Defense matters. The Secretary of the Air Force is 
subject to the authority, direction and control of the Secretary of 
Defense and the Under Secretary of the Air Force works for the 
Secretary of the Air Force. The Under Secretary also serves as the 
Chief Management Officer of the Air Force, the senior energy official, 
and the focal point for space at the Air Force headquarters. As the 
focal point of space for the Air Force, the Under Secretary coordinates 
all of the space functions and activities across the Air Force, and is 
the primary interface to the Office of the Secretary of Defense for 
space matters. If confirmed, I would look forward to working closely 
with the Secretary of Defense and his office on space-related matters, 
energy issues, and other matters as directed by the Secretary of the 
Air Force.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense assists the Secretary of 
Defense in carrying out his duties and responsibilities and performs 
those duties assigned by the Secretary of Defense or by law. If 
confirmed, I will work closely with the Deputy Secretary of Defense on 
a range of matters. In particular, I would look forward to working with 
and supporting the Deputy Secretary of Defense in his role as Chief 
Management Officer of the Department of Defense.
    Question. The Chief Management Officer and Deputy Chief Management 
Officer of the Department of Defense.
    Answer. The Deputy Chief Management Officer (DCMO) is the principal 
staff assistant and advisor to the Secretary of Defense and Deputy 
Secretary of Defense for matters relating to the management and 
improvement of integrated Department of Defense business operations. In 
this role the DCMO is charged with leading the synchronization, 
integration, and coordination of the disparate business activities of 
the Department to ensure optimal alignment in support of the 
warfighting mission. If confirmed, I look forward to building on the 
close working relationship I established with the DCMO in my current 
position in my new capacity as the Air Force Chief Management Officer.
    Question. The Secretary of the Air Force.
    Answer. Subject to the authority, direction, and control of the 
Secretary of Defense, the Secretary of the Air Force is responsible for 
and has the authority necessary to conduct all affairs of the 
Department of the Air Force. The Under Secretary of the Air Force is 
subject to the authority, direction, and control of the Secretary of 
the Air Force. If confirmed, I expect the Secretary to assign me a wide 
range of duties and responsibilities involving, but not limited to, 
organizing, supplying, equipping, training, maintaining, and 
administering the Air Force. I look forward to working closely with the 
Secretary as her deputy and principal assistant.
    Question. The Chief of Staff of the Air Force.
    Answer. The Chief of Staff of the Air Force is directly responsible 
to the Secretary of the Air Force and performs duties subject to his 
authority, direction, and control. For the Secretary of the Air Force, 
the Chief of Staff is responsible for providing properly organized, 
trained, and equipped forces to support the combatant commanders in 
their mission accomplishment. The Chief of Staff oversees members and 
organizations across the Air Force, advising the Secretary on plans and 
recommendations, and, acting as an agent of the Secretary, implementing 
plans upon approval. If confirmed, I would foster a close working 
relationship with the Chief of Staff to ensure that policies and 
resources are appropriate to meet the needs of the Air Force and 
respect his additional responsibilities as a member of the Joint Chiefs 
of Staff.
    Question. The Vice Chief of Staff of the Air Force.
    Answer. The Vice Chief of Staff of the Air Force assists the 
Secretary of the Air Force and the Chief of Staff of the Air Force in 
conducting the affairs of the Department of the Air Force, fulfilling 
duties that the Chief of Staff, with the approval of the Secretary, may 
delegate to him. The Vice Chief of Staff is also a Co-Chairman of the 
Air Force Council with the Under Secretary of the Air Force. If 
confirmed, I look forward to working closely with the Vice Chief of 
Staff.
    Question. The Assistant Secretaries of the Air Force.
    Answer. The Assistant Secretaries of the Air Force carry out the 
goals and priorities of the Air Force. If confirmed, I will assist the 
Secretary in building a strong team through close relationships and 
information sharing, and I look forward to working with the Assistant 
Secretaries to further the Secretary's vision.
    Question. The General Counsel of the Air Force.
    Answer. The General Counsel (GC) is the senior civilian legal 
advisor to Air Force senior leaders and all officers and agencies of 
the Department of the Air Force. The GC serves as the chief ethics 
official. If confirmed, I look forward to developing a strong working 
relationship with the GC and his staff.
    Question. The Inspector General of the Air Force.
    Answer. The Inspector General (IG) of the Air Force is a general 
officer who is detailed to the position by the Secretary of the Air 
Force. When directed, the IG inquires into and reports on matters 
affecting the discipline, efficiency, and economy of the Air Force. He 
also proposes programs of inspections and investigations as 
appropriate. If confirmed, I would look forward to developing a good 
working relationship with the IG.
    Question. The Surgeon General of the Air Force.
    Answer. The Surgeon General (SG) of the Air Force is the functional 
manager of the Air Force Medical Service and provides direction, 
guidance, and technical management of Air Force medical personnel at 
facilities worldwide. The SG advises the Secretary of the Air Force and 
Air Force Chief of Staff, as well as the Assistant Secretary of Defense 
for Health Affairs, on matters pertaining to the medical aspects of the 
air expeditionary force and the health of Air Force personnel. If 
confirmed, I would look forward to developing a good working 
relationship with the SG.
    Question. The Judge Advocate General of the Air Force.
    Answer. The Judge Advocate General (TJAG) is the senior uniformed 
legal advisor to Air Force senior leaders and all officers and agencies 
of the Department of the Air Force and provides professional 
supervision to TJAG's Corps in the performance of their duties. If 
confirmed, I will look forward to developing a good working 
relationship with TJAG and the TJAG staff.
    Question. The Chief of the National Guard Bureau.
    Answer. The Chief of the National Guard Bureau is the senior 
uniformed National Guard officer responsible for formulating, 
developing, and coordinating all policies, programs, and plans 
affecting Army and Air National Guard personnel, and is also a member 
of the Joint Chiefs of Staff. Appointed by the President, he serves as 
principal adviser to the Secretary of Defense through the Chairman of 
the Joint Chiefs of Staff on National Guard matters. He is also the 
principal adviser to the Secretary and Chief of Staff of the Air Force 
on all National Guard issues and serves as the Department's official 
channel of communication with the governors and adjutants general. If 
confirmed, I will look forward to developing a good working 
relationship with the chief of the National Guard Bureau on appropriate 
matters affecting the Air Force.
    Question. The Under Secretaries of the military services
    Answer. If I am confirmed, I will work diligently to foster a close 
working relationship with the Under Secretaries of the Army and Navy. I 
look forward to sharing information and expertise that will assist in 
the management of the Department of the Air Force and our coordination 
with the other Services on matters of mutual interest, particularly in 
our capacities as Chief Management Officers for our respective 
Services.
                    major challenges and priorities
    Question. In your view, what are the major challenges that will 
confront the next Under Secretary of the Air Force?
    Answer. The Air Force must continue find innovative ways to do the 
following in the face of continued fiscal challenges: Ensure the Air 
Force can meet the increasing demand for airpower, while improving our 
readiness. Modernize air and space capabilities.
    Continue to strengthen the nuclear enterprise. Evolve our cyber 
enterprise.
    Address contested and congested Space.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Ensuring the Air Force can meet the increasing demand for 
airpower, while improving our readiness requires a multi-faceted 
approach. A shortfall in Air Force capability has a disproportionately 
negative effect on the success of the joint force. We have to continue 
to be agile and innovative to meet the demand for airpower, while also 
making it affordable. Inclusion across the Air Force components is 
vital to create the strategic agility required to meet the challenges 
emerging from strategic uncertainty, fiscal constraints, and rapidly 
evolving threats. In order to meet our AF goal of 80 percent full 
spectrum combat readiness by 2023, the Air Force must set end strength 
commensurate with increasing global requirements; must divest aging 
platforms and infrastructure in order to free up fiscal resources and 
experience manpower; and will continue to advocate for funding 
stability and increased dwell time to sharpen needed skills.
    Modernizing air and space capabilities. We must ensure the Air 
Force can always provide responsive and effective Global Vigilance, 
Global Reach, Global Power. The Air Force's top three acquisition 
programs, the F-35, the KC-46 and the long-range strike bomber, are 
operational imperatives for the joint force of 2025 and beyond. 
Developing and delivering air superiority must be a multi-domain, 
technology-driven process focused on capabilities and capacity. Without 
consistent investment and improvement, continued U.S dominance of the 
air is in doubt. Rapidly changing operational environments mean we can 
no longer develop weapon systems on the traditional linear acquisition 
process. Capability development now requires adaptable, affordable and 
agile processes with increasing collaboration between our science and 
technology, acquisition, and requirements professionals, as well as our 
sister services.
    Continue to strengthen the nuclear enterprise. The Air Force 
provides two legs of the nuclear triad while maintaining forward-based 
capabilities in support of NATO. Our long-term investment strategy for 
our nuclear forces is active modernization/recapitalization of 
Intercontinental Ballistic Missiles, bombers, dual-capable aircraft and 
associated infrastructure. We will continue to improve the way we do 
the business of the nuclear mission. These improvements will cultivate 
a positive culture built on prestige, investment, integrity and 
excellence at every level.
    Evolve our cyber enterprise. The Chief of Staff of the Air Force 
directed the stand-up of Task Force Cyber Secure, responsible for 
synchronizing all efforts seeking to improve the security of our 
information and warfighting systems. The ultimate role of the task 
force is to enable the Air Force to fly, fight and win in a cyber-
contested environment, ultimately increasing the robustness and 
resilience of critical Air Force systems for core missions in and 
through cyberspace. Meanwhile, the Air Force must continue to integrate 
cybersecurity throughout the lifecycle of weapon system development in 
all mission areas.
    Space has become increasingly contested, congested, and a critical 
enabler of every mission the DOD conducts. We need to continue to 
improve our space situational awareness capabilities for information 
collection and processing, while looking at ways to add resilience to 
our space systems. We must partner with industry and international 
partners, as a healthy space industrial base is essential to national 
security and U.S. civil space goals and objectives.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Under Secretary of the Air 
Force?
    Answer. I'm unaware of any serious problems in the performance of 
the functions of the office of the Under Secretary of the Air Force. If 
confirmed and if I identify any problems as the Under Secretary, I will 
work tirelessly toward finding and implementing solutions.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. Again, I am unaware of any serious problems in the 
performance of the functions of the office of the Under Secretary of 
the Air Force.
        duties and responsibilities as chief management officer
    Question. Section 904 of the National Defense Authorization Act for 
Fiscal Year 2008 designates the Under Secretary of the Air Force as the 
Air Force's Chief Management Officer (CMO). Section 908 of the National 
Defense Authorization Act for Fiscal Year 2009 requires the CMO of each 
of the military departments to carry out a comprehensive business 
transformation initiative.
    What is your understanding of the duties and responsibilities of 
the Under Secretary in the capacity as CMO of the Department of the Air 
Force?
    Answer. The duties and responsibilities of the Under Secretary in 
the capacity as CMO is to ensure effective and efficient management of 
Air Force business operations.
    Responsibilities of the Chief Management Officer, consistent with 
section 904 of the National Defense Authorization Act for Fiscal Year 
2008, section 908 of the National Defense Authorization Act for Fiscal 
Year 2009, and the National Defense Authorization Act for Fiscal Year 
2010 to include the following: ensuring the Air Force's capability to 
carry out the Department of Defense's strategic plan in support of 
national security objectives; ensuring the core business missions of 
the Department of the Air Force are optimally aligned to support the 
Department's warfighting mission; establishing performance goals and 
measures for improving and evaluating overall economy, efficiency, and 
effectiveness and monitoring and measuring this progress; and working 
with DOD's Chief Management Officer to develop and maintain a strategic 
plan for business reform.
    Question. What background and expertise do you possess that you 
believe qualify you to perform these duties and responsibilities?
    Answer. My background and expertise make me uniquely qualified to 
serve in the capacity the Air Force's Chief Management Officer (CMO). 
Having served over 30 years in the capacity of a either military 
officer or DOD civilian, I have arrived at a point where I am confident 
in my ability to manage Air Force business operations, cultivate AF and 
OSD-level relationships, and carry out CMO responsibilities as defined 
in USC, DOD policy, and AF Mission Directives.
    Question. Do you believe that the CMO has the resources and 
authority needed to carry out the business transformation of the 
Department of the Air Force?
    Answer. I believe Congress has given adequate CMO authority to 
carry out business transformation of the Department of the Air Force. 
Resourcing is a challenge, allocation has been given for top 
priorities, such as auditability compliance, but the speed which needed 
business transformations can be achieved is limited by Air Force budget 
constraints.
    Question. What role do you believe the CMO should play in the 
planning, development, and implementation of specific business systems 
by the military departments?
    Answer. To directly engage on matters of strategic and 
implementation importance among my OSD and Service counterparts in the 
Department. My role includes directing and overseeing the activities of 
the Air Force Deputy Chief Management Officer (DCMO) who engages on 
military departments implementations through the Defense Business 
Council.
    Question. What changes, if any, would you recommend to the 
statutory provisions establishing the position of CMO?
    Answer. At this time, I am unaware of any reason to change the 
duties and functions of the Under Secretary as set out in title 10 and 
pertinent Department of Defense regulations. If I am confirmed and I 
identify areas that I believe merit changes; I will propose those 
changes through the appropriate established processes.
    Question. Section 2222 of title 10, United States Code, requires 
that the Secretary of Defense develop a comprehensive business 
enterprise architecture and transition plan to guide the development of 
its business systems and processes. The Department has chosen to 
implement the requirement for an enterprise architecture and transition 
plan through a ``federated'' approach in which the Business 
Transformation Agency has developed the top level architecture while 
leaving it to the military departments to fill in most of the detail. 
The Air Force business systems, like those of the other military 
departments, remain incapable of providing timely, reliable financial 
data to support management decisions.
    If confirmed, what steps, if any, would you take to ensure that the 
Air Force develops the business systems and processes it needs to 
appropriately manage funds in the best interest of the taxpayer and the 
national defense?
    Answer. Consistent with section 883 of the National Defense 
Authorization Act of 2016, I would ensure the process associated with 
business systems development has been, or is being, reengineered to be 
as streamlined and efficient as practicable; the system and business 
system portfolio are or will be in compliance with the defense business 
enterprise architecture; the system has valid, achievable requirements 
and a viable plan for implementing those requirements; the system has 
an acquisition strategy designed to eliminate or reduce the need to 
tailor commercial off-the-shelf systems; and it is in compliance with 
the Department's auditability requirements.
    Question. Do you believe that a comprehensive, integrated, 
enterprise-wide architecture and transition plan is essential to the 
successful transformation of the Air Force business systems?
    Answer. Yes. A comprehensive and integrated enterprise architecture 
and transition plan are crucial to ensure across the Department of 
Defense and the Air Force we leverage common solutions to address 
critical business requirements, reduce duplication, and realize 
effective mission support in an affordable fashion. Enterprise-wide 
architectures help us ensure compliance with key, common requirements, 
such as [SFIS and DPAP data standards. We work closely with the Air 
Force Chief Information Officer on Air Force Enterprise Architectures 
and the OSD Deputy Chief Management Officer on Defense Business 
Enterprise Architecture.
    Question. What steps would you take, if confirmed, to ensure that 
the Air Force's enterprise architecture and transition plan meet the 
requirements of section 2222?
    Answer. Section 2222 of title 10, United States Code, requires that 
the Secretary of Defense develop a comprehensive business enterprise 
architecture and transition plan to guide the development of its 
business systems and processes. The Department has chosen to implement 
the requirement for an enterprise architecture and transition plan 
through a ``federated'' approach in which the OSD Defense Business 
Council has developed the top level architecture while leaving it to 
the military departments to fill in most of the detail.
    I would take steps to ensure we continue to evolve Air Force 
enterprise architectures and transition plans to achieve the 
requirements of section 2222 and satisfy priority mission and business 
requirements the Air Force is responsible.
    Question. What are your views on the importance and role of timely 
and accurate financial and business information in managing operations 
and holding managers accountable?
    Answer. Timely and accurate financial and business information is 
essential to managing operations and holding managers accountable. 
Several ongoing AF business transformation initiatives will improve the 
timeliness and accuracy of AF financial and business information. We 
are making key investments, though significantly constrained by budget 
limitations.
    Question. How would you address a situation in which you found that 
reliable, useful, and timely financial and business information was not 
routinely available for these purposes?
    Answer. We address aspects of this issue with the Air Force DEAMS 
implementation. In general, if I were presented an issue related to 
reliable, useful, and timely financial and business information, I 
would engage our business leaders and my Deputy Chief Management 
Officer to apply our disciplined process of Services Development and 
Delivery process to define the problem, needed improvement, and 
requirements to meet the need. We would ensure we comply with section 
2222 as well as any other applicable laws, policies, and regulations 
pertaining to the financial and business area situation.
    Question. What role do you envision playing, if confirmed, in 
managing or providing oversight over the improvement of the financial 
and business information available to Air Force managers?
    Answer. I envision playing a key leadership and oversight role if 
confirmed. I will direct and oversee the activities of the Air Force 
Deputy Chief Management Officer (DCMO) and Air Force Office of Business 
Transformation, SAF/MG, in carrying out Air Force business 
transformation initiatives to improve our financial and business 
processes, information, and capabilities we provide Air Force managers. 
My primary objective will be ensuring efficient and effective 
management of Air Force Business operations. I will motivate actions 
and efforts from major transformation to leveraging airmen front-line 
innovation.
                       headquarters streamlining
    Question. The Fiscal Year 2016 National Defense Authorization Act 
directs reforms to consolidate the headquarters functions of the 
Department of Defense and the military departments.
    If confirmed, what would be your role in streamlining functions, as 
well as identifying and implementing reductions in the Department of 
the Air Force headquarters?
    Answer. One of the Under Secretary of the Air Force duties given me 
by Secretary James, was oversight of the Air Force inputs to the Deputy 
Chief Management Officer (DCMO) of the Department of Defense's review 
of the Department's major headquarters. Secretary James and I agree 
this involvement, as well my past experience as Assistant Secretary of 
the Air Force for Financial Management and Comptroller and Vice 
Director for Force Structure, Resources and Assessment on the Joint 
Staff, position me to effectively chair the internal Air Force group 
devising options and cost estimates for consolidating and/or 
eliminating a headquarters.
    Question. What areas and functions, specifically and if any, do you 
consider to be the priorities for possible consolidation or reductions 
within the Department of the Air Force?
    Answer. Since 2010 the Air Force reduced its headquarters and 
support functions costs so as to not cut deeper in mission forces, 
readiness, and future military capabilities. In 2010, Secretary Gates 
gave us a $1.3B O&M savings target for overhead and support functions 
spending. To hit this savings target between 2010 and 2012 we cut 
redundancy in next echelon support functions at regional major commands 
and their subordinate headquarters and centralized common 
administrative services. In 2013, Secretary Hagel gave us a $0.63B O&M 
savings target for three Air Force components management headquarters 
spending across a 5-year period. We went beyond management headquarters 
and planned to save $ 1.15B O&M across all headquarters and 
administrative activities over that period. We achieved the major 
portion of these savings from consolidating and eliminating redundancy 
between active component headquarters staffs through business process 
re-engineering for planning, programming, budgeting, and execution 
(PPBE), acquisition, cyber and intelligence, surveillance and 
reconnaissance (ISR) management as well as installation and mission 
support. A smaller yet still significant portion was tied to planned 
force structure reductions in our fiscal year 2015 budget.
    The Air Force has already achieved savings in our headquarters by 
consolidating responsibilities of Major Commands (MAJCOMs) and Numbered 
Air Forces (NAFs). However, to achieve more savings than we already 
have planned, we need to have a reduction in the demand signal from the 
combatant commands as well as force structure reductions.
    Question. To the extent that the Department of the Air Force has 
functions that overlap with the Department of Defense, Joint Staff, or 
military departments, what would be your approach to consolidating and 
reducing redundancy?
    Answer. One of the observations from the major headquarter 
activities review led by OSD DCMO is the variance between Department of 
Defense components on functions done at the headquarters vice units a 
couple echelons down from the headquarters. With this, we may be able 
to consolidate certain functions across organizations and divest the 
workload to lower organizational level units as a cost savings. 
Additionally, we are engaged in Secretary Carter's review of the 1986 
Goldwater-Nichols Act and believe efficiencies are possible in our 
current joint headquarters structure.
                       combat air forces capacity
    Question. According to the force sizing construct in the 2012 
Defense Strategic Guidance and the 2014 QDR, U.S. forces should be able 
to ``defeat a regional adversary in a large-scale multi-phased 
campaign, and deny the objectives of--or impose unacceptable costs on--
another aggressor in another region.''
    In your opinion, is OSD's force sizing construct an adequate 
approach for the Air Force given the dynamics of the current and 
projected geostrategic and fiscal environments?
    Answer. Yes, the force sizing construct, which also includes 
homeland defense and supporting global counter-terror operations, is an 
adequate approach to address the challenges of the current and 
projected environment. The dynamic fiscal environment does not change 
the force required to meet this construct, but does present challenges 
to the Air Force in how we can best achieve the necessary balance of 
force readiness, capacity and capabilities required by the construct.
    Question. In your view is the Air Force accepting higher risk with 
the current strategy; can it execute the strategy, or are increased 
resources required by the Air Force with regard to airpower capability 
and capacity?
    Answer. Yes, increased resources would help the Air Force address 
this problem and be an appropriate response to the continuous demands 
placed upon the Air Force. The Joint Force has become dependent on the 
Air Force to provide air superiority, airborne ISR, precision strike, 
space-based navigation and surveillance, cyberspace access, rapid 
global mobility, and the command and control that integrates Joint 
Force airpower. As a result, capability, capacity, and readiness issues 
pose a complex problem that could make it difficult for the Air Force--
and the Joint Force--to execute the current strategy.
    Question. Based on the current defense strategy, defense planning 
scenarios, and force-sizing construct, what are your views on the 
ability of the Air Force to meet current and future combatant commander 
requirements with regard to combat fighter, bomber, and joint enabler 
force structure capacity?
    Answer. Today's Air Force is smaller, older, and less ready than at 
any time in its history. Our sister services have gained some breathing 
space to reconstitute and modernize after the reduction of land forces 
in Iraq and Afghanistan; however, after 25 years of deployments, the 
Air Force remains engaged in sustained ISR operations around the world, 
as well as combat air operations in Iraq and Syria. These operations 
have consumed readiness and prematurely aged combat systems. The Air 
Force strives to balance capability, capacity, and readiness in order 
to provide a force that is both sized and shaped to meet the strategy. 
Absent any additional resources, it will be difficult to meet the 
demands of future combatant commander requirements with regard to 
combat fighters, bombers and joint enablers.
                   long range strike--bomber (lrs-b)
    Question. The Air Force recently awarded the largest development 
contract in several decades for a new strategic bomber.
    In your view, what capabilities does the LRS-B provide in the 
future that the Air Force doesn't already have in its current bomber 
force, other than a newer platform?
    Answer. In the near future, all legacy bombers will have increased 
mission degradation in contested environments and the AF must develop 
the LRS-B now to ensure we maintain the capability to counter emerging 
threats. The LRS-B will provide the ability to penetrate modern air 
defenses to accomplish objectives despite an anti-access/area denial 
environment. While providing long range, mixed payload and ability to 
be highly survivable in heavily defended airspace and attack targets 
without prohibitive losses, the LRS-B is able to support of national 
security objectives.
    The LRS-B will support the nuclear triad providing a visible and 
flexible nuclear deterrent capability that will assure allies and 
partners. Additionally, the LRS-B is one part of a family of systems 
portfolio--including ISR, electronic warfare, prompt strike, 
communications, and weapon effects.
    Furthermore, the LRS-B is being designed to have an open 
architecture, able to integrate new technology and respond to future 
threats across the full spectrum of operations. This emphasizes 
supportability to enable continued competition and long term 
affordability for this platform across the life cycle.
    Question. Secretary Gates cancelled the previous ``Next Generation 
Bomber'' program in 2007 over concerns of cost growth and schedule 
risk. In your opinion, what steps did the Air Force take with the 
establishment of the LRS-B program to assuage those concerns?
    Answer. The guiding principles for the LRS-B program focused on 
keeping the design simple in order to reduce system and programmatic 
complexity. This fundamental to this approach is having stable and 
achievable requirements, and we have kept these stable. We are 
achieving these requirements by leveraging experience from other 
programs and through the re-use of existing and mature technologies to 
minimizing new technology development and risk.
    Additionally, the establishment of a firm Average Procurement Unit 
Cost (APUC) requirement, not previously done on a major aircraft 
development program, kept the affordability as a constant focus area 
and restrained desires to adjust requirements. Other steps taken 
include LRS-B being designed to have an open architecture, able to 
integrate new technology and respond to future threats across the full 
spectrum of operations. This emphasizes supportability to enable 
continued competition and long term affordability for this platform 
across the life cycle.
    Question. What is your assessment of the acquisition strategy for 
the LRS-B and how does it provide the best value for the American 
taxpayer?
    Answer. From the beginning of the program there has been a focus on 
the lifecycle costs--manufacturing, sustainment and upgrade potential--
to ensure that we could not only develop and procure the LRS-B, but 
also operate and sustain the platform in the future.
    The LRS-B program acquisition strategy focused on simplicity, 
stability, risk reduction/avoidance and affordability across the life 
cycle of the program.
    The program is founded on stable and achievable requirements, while 
requiring the re-use of existing and mature technologies. The 
acquisition strategy set for a plan for the program to execute a robust 
risk reduction phase to ensure mature designs prior to a down-select 
decision. Additionally the program incorporates open architecture, 
which will allow more rapid integration of new technology and respond 
to future threats across the full spectrum of operations. This 
emphasizes supportability to enable continued competition and long term 
affordability for this platform across the life cycle.
    Question. In your view, how does the LRS-B acquisition strategy 
mitigate previous acquisition program failures such as significant cost 
and schedule overruns and performance deficiencies experienced with the 
B-1, B-2, F-22, and F-35 programs?
    Answer. The guiding principles for the LRS-B program focused on 
keeping the design simple in order to reduce system and programmatic 
complexity. Fundamental to this approach is having stable and 
achievable requirements, and we have kept them stable. We are achieving 
these requirements by leveraging experience from other programs and 
through the re-use of existing and mature technologies to minimizing 
new technology development and risk.
    By using existing and mature technologies, the development risk is 
reduced from that experienced on previous programs. Overall this 
ensures achievable requirements and not nested ACAT ID programs. 
Building on this, the acquisition strategy includes a well thought out 
incentive plan for development and initial production to ensure the 
program remains on schedule and budget.
    Question. In your opinion, why would the Air Force choose a cost-
plus/incentive-fee contract vehicle over a fixed-price contract for the 
engineering and manufacturing development phase of the LRS-B?
    Answer. After careful consideration of all possible contract types 
and analysis of the pros and cons of each type, the Department of 
Defense decided on a Cost Plus incentive fee arrangement for the 
Engineering Manufacturing and Development contract, which meets both 
statutory and regulatory guidance. We conducted risk reduction efforts 
during the technology development phase, but there is still integration 
risk that remains. This contract type is an appropriate balance for a 
new design activity versus upgrade or derivative aircraft program. 
There were several factors taken into account and the decision was 
outlined in the Request for Proposal, evaluated during multiple peer 
reviews and approved by the Milestone Decision Authority.
                       f-35 joint strike fighter
    Question. The F-35 Joint Strike Fighter Program, which is the 
largest and most expensive acquisition program in the Department's 
history, was formally initiated as a program of record in 2002, with a 
total planned buy of 2,443 aircraft for the U.S. The program has not 
yet completed the System Development and Demonstration (SDD) phase, and 
is not due to enter full rate production until 2019, 17 years after its 
inception. At projected procurement rates, the aircraft would be 
procured by the Department well into the 2030 decade to reach its total 
quantity buy.
    The Senate Armed Services Committee report accompanying S. 1376, 
the National Defense Authorization Act for Fiscal Year 2016, requires 
the Secretary of Defense to assess the current requirement for the F-35 
Joint Strike Fighter total program of record quantity, and then 
revalidate that quantity or identify a new requirement for the total 
number of F-35 aircraft the Department would ultimately procure.
    What will be your role in assisting the Secretary of the Air Force 
to revalidate the Air Force's F-35A total program quantity, currently 
established at 1,763 aircraft?
    Answer. The Air Force continually evaluates procurement programs 
such as the F-35 to determine whether adjustments should be made. 
Factors such as current and future threat environments, available 
resources, and operational requirements are regularly assessed to 
update/revise our program of record. As Under Secretary, I will work 
with the appropriate stakeholders to ensure we provide the Secretary a 
recommended F-35 buy that balances warfighter needs within the context 
of current budget realities.
    Question. Do you believe the Air Force's current and planned force 
mix of short-range fighters and long-range strike aircraft is 
sufficient to meet current and future threats around the globe, and 
most especially in the Asia-Pacific theater of operations where the 
``tyranny of distance'' is such a major factor?
    Answer. The Air Force is committed to balancing long and short 
range capabilities in order to meet warfighter requirement in various 
scenarios. In these scenarios, we find that developing a capability mix 
of long range, increased payload, and highly survivable fighters and 
bombers suitable for operations in a highly contested theater is 
essential to enabling the rest of the Joint Force. In the short term, 
we'd like to have more penetrating long range capacity to ensure 
persistent air operations in long range scenarios. That's why the LRS-B 
is so important. We'll need to continue to address our short term 
capabilities by integrating new weapons, sensors, and defensive 
capabilities onto our legacy bomber fleet, and we'll need to make sure 
the LRS-B remains an affordable augmentation and replacement of our 
legacy bomber fleet. The Long Range Strike-Bomber (LRS-B) is one part 
of our commitment to long range capabilities and we are looking at 
options to both increase the range of our fighter forces and improve 
the capabilities of our legacy bombers for Asia-Pacific scenarios. 
However, increased resources will be required to develop such 
capabilities without taking unacceptable risk in other mission areas.
    Question. If the Air Force were to revalidate their original 1,763 
F-35A requirement, and continue procurement of even 80 aircraft per 
year, it will take approximately 20 years to purchase all F-35As. In 
your opinion, can the Air Force afford this effort in light of KC-46A, 
LRS-B, JSTARS, T-X, nuclear enterprise modernization, and myriad other 
investment programs all anticipated to be required simultaneously in 
the decade of the 2020s?
    Answer. Our annual budget submissions represent our best attempt at 
ensuring we achieve these critical mandates. However, given the current 
and projected future threat environment, the Air Force will require 
additional resources to simultaneously modernize and sustain existing 
conventional and nuclear force structure, recapture readiness with 
additional training facility capacity and manpower, and more 
expeditiously recapitalize the fleet.
    Question. After completion of the SDD and commencement of full rate 
production, the F-35 will require a robust Follow-On Development 
program to ensure the aircraft capabilities continue to outpace our 
potential adversaries' technological advancements.
    In your opinion, should the F-35 follow-on development program be 
designated as a separate Major Defense Acquisition Program from the 
current F-35 program of record?
    Answer. The F-35 follow-on development program, now known as the 
follow-on modernization program, is a continuation of the existing 
program rather than a new sub program. does not need to be designated 
as a separate Major Defense Acquisition Program. The existing 
management and oversight structure in place for the F-35 Program will 
be used to manage the follow-on modernization effort.
    Question. The different variants of the F-35 for each Service have 
specific follow-on capabilities required for each, and even common 
capabilities are prioritized in different ways between the Services 
depending upon their assigned warfighting requirements. Do you believe 
the Joint Program Office should be disbanded and each Service stand up 
their own F-35 program offices to better accommodate the needs of each 
Service with respect to required follow-on capabilities?
    Answer. The F-35 Joint Program Office should not be disbanded. The 
F-35 Program Office is accommodating the needs of the Air Force as we 
define the required capabilities to be developed during the follow-on 
modernization phase. In addition, a single program office provides one 
voice to the contractor and allows the Air Force to share development 
costs with the Navy and our Partners.
         remotely piloted aircraft (rpa) enterprise management
    Question. The Air Force has struggled for nearly a decade to 
assimilate and normalize the medium altitude ISR mission and its MQ-1 
and MQ-9 fleets into the Air Force capabilities portfolio, resulting in 
severe manning shortages due to insufficient training pipelines, and 
causing low retention and poor morale across the enterprise.
    In your view, what steps should the Air Force take to remedy these 
issues?
    Answer. DOD and Air Force leadership have been personally working 
solutions to both of these issues and, over the next couple of weeks 
will be announcing their decisions. I would respectfully request we 
delay the discussion of this issue until after that has taken place. I 
would then be pleased to respond in detail.
    Question. The U.S. Army operates some of the same medium altitude 
ISR platforms as the Air Force, uses warrant officers and enlisted 
personnel to supervise and conduct ISR and strike operations, and are 
led by very few officers. What is your assessment of the Air Force 
reintroducing a warrant officer program or using enlisted personnel to 
operate its RPA fleets to increase manning and reduce costs, as well as 
relieve manning level stress on other rated career fields?
    Answer. DOD and Air Force leadership have been personally working 
solutions to both of these issues and, over the next couple of weeks 
will be announcing their decisions. I would respectfully request we 
delay the discussion of this issue until after that has taken place. I 
would then be pleased to respond in detail.
    Question. How do you see the Air Force integrating the medium 
altitude ISR mission into its future operating concepts?
    Answer. Both the medium and high altitude ISR missions are already 
integrated into our operational concepts and are critical to our 
success in the full spectrum of warfare. The lessons of past 15 years 
(and beyond) have not been lost on your Air Force and have proven the 
importance of the integration of both. Equal, is the importance of the 
integration of high/medium ISR, space capabilities and cyber, as well 
as non-traditional ISR, to build complete battlespace awareness.
                     management of space activities
    Question. As the Under Secretary of the Air Force, you would have 
an important role in helping the Secretary of the Air Force discharge 
her responsibilities as the Department of Defense Principal DOD Space 
Advisor or PDSA, in particular, for developing, coordinating, and 
integrating policy, plans and programs for major defense space 
acquisitions.
    If confirmed, how will you support the PDSA in carrying out her 
missions?
    Answer. The Under Secretary is designated as the primary 
Headquarters Air Force official responsible for space matters. 
Additionally, the Under Secretary supports the SecAF in all her 
responsibilities, to include serving as the primary space advisor to 
senior DOD officials. From an administrative standpoint, this includes 
reviewing materials, reports and requests to extend experiments prior 
to PDSA approval. In addition, the PDSA and I continue a pro-active 
approach to study space concerns and issues through the Space Mission 
Update process. We collaborate on upcoming policy initiatives and 
concerns on specific topics, to include rendezvous and proximity 
operations and international space cooperation, to inform the PDSA's 
advisory role. Finally, the Under Secretary of the Air Force should be 
an active participant in the Defense Space Councils (DSCs) and monitor 
the annual Space Strategic Process Reviews (SPR).
    Question. In your view, what are the authorities of the PDSA: (1) 
the budgets, programs, and plans of the various Service and Defense 
Agency space programs; and (2) milestone decisions for space 
acquisition programs of the various Services and Defense agencies?
    Answer. The PDSA will provide the DOD Space Enterprise with more 
focused strategic planning and programming in order to respond to 
present and evolving threats to our Nation's space constellation and 
capabilities, as well as adversary space capabilities that threaten our 
forces.
    The PDSA has the authority to:
    1.  Provide the Deputy's Management Action Group (DMAG) and SECDEF 
with prioritized programmatic choices for space capabilities through 
the annual Program and Budget Review cycle
    2.  Provide oversight to the Space Security and Defense Program
    3.  Actively participate in the Defense Acquisition Board and the 
Joint Requirements Oversight Council, and related subordinate bodies, 
to support tighter alignment of requirements and acquisition decisions 
with space strategy and space policy
    4.  Review the budget submission of every entity with 
responsibilities for space capability development and assess their 
compliance with National Security Council-approved Implementation Plans 
and departmental policy and programmatic guidance
    5.  Assess the strengths and weaknesses of the DOD Space Portfolio
    6.  Conduct collaborative assessments of the National Security 
Space (NSS) architecture with the Intelligence Community
    The DepSecDef has increased the PDSA's authority as the 
Department's senior space official on all space-related Joint 
Requirements Oversight Council (JROC) and Defense Acquisition Board 
(DAB). The PDSA or designated senior representative will be present on 
all milestone decision reviews for space programs.
    Per the DepSecDef Designation memo, the PDSA is responsible as the 
primary space advisor to the Deputy's Management Action Group (DMAG), 
Joint Requirements Oversight Council (JROC) and the Defense Acquisition 
Board (DAB), additionally the PDSA is the primary space advisor to 
senior DOD officials including the Secretary of Defense, Deputy 
Secretary of Defense, Office of Secretary of Defense Principal Staff 
Assistant (PSAs) and the Commander of the Joint Chiefs of Staff and 
Vice Commander of the Joint Chiefs of Staff. Additionally, the PDSA is 
the Principal DOD Space Control Advisor.
    As the chair of the Defense Space Council (DSC), the PDSA has 
expanded the DSC membership to include all DOD elements with space 
programmatic authorities. This combined with leading an annual Space 
Strategic Posture Review (assisted by CAPE) with a focus on strategic 
portfolio-level decisions vice individual programmatic actions.
    PDSA is advised and assisted by Service and OSD leads for strategy, 
space policy, plans, programming, budget, acquisition, architecture 
assessment and operations. This supports the DepSecDef's vision of a 
more cohesive and unified governance model.
    Question. What are you views regarding defending our U.S. assets in 
space?
    Answer. We recognize that space is a congested and contested 
environment and is a critical element that underpins everything we do 
in the military. However, the relative superiority the U.S. has held in 
space power has diminished. Yes, we still project phenomenal 
capabilities in and through space, but our comparative advantage is 
threatened by external actors. We must ensure our right to self-defense 
in any domain, which includes space.
    Question. How do you differentiate the Joint Interagency Combined 
Operations Center (JICSPOC) and how will you ensure it does not 
duplicate the Joint Space Operations Center (JSPOC)?
    Answer. JICSPOC seeks to improve unity of effort and information 
sharing across the national security space (NSS) community to 
effectively respond to potential future real-world threat events. It 
does this through experimentation to develop integrated tactics, 
techniques and procedures (TTPs), courses of action and inform future 
space command and control and system requirements.
    Due to its experimental nature, the JICSPOC does not duplicate the 
real-world command and control functions performed daily by JSPOC.
    Question. Do you support the JSPOC taking on the role as a BMC2 
mission center for defending our space assets?
    Answer. The JSPOC has been successfully conducting command and 
control of assigned space forces to include defending those assets for 
over 10 years. The potential threat to our space systems continues to 
grow. In response, the JICSPOC was developed to conduct experimentation 
on improving unity of effort across the national security space 
community. I support this effort as a critical first step to inform 
decisions on future roles.
    Question. Are you concerned with ground system supporting the GPS 
III constellation (OCX)?
    Answer. GPS provides a critical warfighter capability and is a 
ubiquitous worldwide utility. As a result, the current challenges with 
the OCX program are at the forefront of senior Air Force leadership 
concerns.
    Question. What efforts will you take in ensuring its costs and 
schedules are being monitored?
    Answer. The Air Force and the OCX prime contractor (Raytheon) will 
continue to focus on a more efficient execution of the developmental 
effort to field this critical capability. In addition, the Air Force is 
going to take a performance-driven approach by instituting significant 
oversight with weekly program management reviews and quarterly reviews 
by USD(AT&L).
    Question. Do you support revising the ground system acquisition to 
a firm fixed price if the program continues to slip?
    Answer. The current path forward is to continue with the current 
cost-type contract. The Air Force needs to assure mission success and 
delivery of this critical warfighter capability. Converting the 
contract to fixed price would limit the Air Force's insight and 
oversight of the program and potential loss of focus to provide this 
critical capability as soon as possible.
    Question. Do you support developing a back-up alternative program 
if necessary in case the current program defaults on its cost and 
scope?
    Answer. The Air Force has committed to making risk mitigation 
investments in alternate program paths to preserve off-ramps should 
continue problems with OCX prove intractable.
    Question. The Government Accountability Office (GAO) has 
consistently pointed to fragmented leadership as a key contributor to 
disconnects in space programs and acquisition problems.
    What do you think your role would be, if confirmed, in bringing 
together the space community versus protecting only the institutional 
interests of the Air Force?
    Answer. If confirmed, I certainly will support Secretary James to 
the utmost of my ability, but is important to understand there is a 
clear delineation between her role as PDSA and as Secretary of the Air 
Force. The PDSA construct provides strategic governance and unity of 
effort across the DOD space enterprise and increased collaboration 
across the broader National Security Space enterprise (NASA, 
Commercial, Civil). In my Air Force position I will represent the Air 
Force component of that enterprise, just as any other Service or Agency 
would, to the PDSA. However, once enterprise decisions are made, it is 
my duty to ensure Air Force aligns with the broader enterprise 
priorities.
    Question. How would you foster better cooperation and coordination 
with agencies inside and outside the Defense community?
    Answer. The Defense Space Council (DSC), chaired by Secretary James 
as the PDSA, continues to serve as the cornerstone for enterprise-wide 
governance and cooperation. DSD recently directed its expansion, 
through the addition all NSS stakeholders such as MDA, DARPA and DISA. 
With an empowered PDSA and comprehensive membership from all aspects of 
NSS the DSC will continue to set the tone for enhanced cooperation 
across the enterprise.
    The Commander of U.S. Strategic Command (CDRUSSTRATCOM) established 
the Joint Space Doctrine and Tactics Forum (JSDTF) to improve DOD space 
by increasing coordination between the DOD and IC. In addition, it will 
develop the warfighting culture within the NSS and create operational 
concepts and tactics, techniques and procedures (TTPs) for future space 
operations. The JSDTF is a two-tiered structure co-chaired by the 
CDRUSSTRATCOM and the Director of the National Reconnaissance Office 
(NRO). The Forum met several times and spurred a national-level 
tabletop exercise along with a Joint Publication overhaul that will 
boost emphasis in the space control mission area. The JSDTF has already 
yielded benefits in fostering a common culture across National Security 
Space.
    Question. Do you see a need to strengthen the authority of the 
Under Secretary of the Air Force or to establish any new authority to 
ensure better government-wide coordination for space?
    Answer. The Department has already recognized the need to respond 
to a changing future and the possibility that conflict could expand to 
space and is taking prudent steps in the focus areas of acquisition, 
operations, programming, capabilities and governance to ensure an 
enterprise vice a stovepiped approach to future readiness. The PDSA 
model is new but already making strides in governance. At this point I 
think we have the appropriate authorities in place to guarantee a 
unified effort across all four focus areas.
    Question. Do you foresee circumstances in the future that would 
favor the consolidation and establishment of space forces as a separate 
service either as its own department or within an existing military 
department?
    Answer. I know this question has arisen in many forms over the 
years. While I will not say it could never happen, I do not see it as a 
near-term necessity. Space is already integrated into nearly every 
aspect of our terrestrial warfighting capabilities in all Services. The 
steps we are already taking toward enhanced governance are appropriate 
and have DOD space on the correct path. As we continue to enhance our 
capabilities, and develop our operational concepts through the JSDTF/
JICSPOC relationship, that is certainly one potential future; but I 
believe it is premature to make a definitive statement either way at 
this time.
                               readiness
    Question. What is your assessment of the current readiness of the 
Air Force to meet national security requirements across the full 
spectrum of military operations?
    Answer. Our combat coded unit's readiness is assessed against full 
spectrum military operations. Less than one-half of those units are 
rated as ready. However, if called upon, your Air Force can present the 
President with formidable air, space and cyber options to meet almost 
any crisis.
    Question. What is your assessment of the near-term trend in the 
readiness of the Air Force?
    Answer. Past year's investments in modernization, force structure, 
readiness and manpower were predicated on several assumptions. First, 
that the wars in the Middle East were drawing to a close and our units 
would be coming home to train, and second, that we would be allowed to 
reduce force structure to pay for modernization and recapitalization, 
and to use the manpower to convert to our new aircraft and missions. 
Neither of those materialized which will challenge us to make any near 
term improvements in readiness. Training and maintenance manpower 
continue to drive our low readiness rates.
    Question. How critical is it to find a solution to sequestration 
given the impacts we have already seen to readiness in fiscal years 
2013, 2014, and 2015?
    Answer. Sequestration would result in even more significant losses 
of readiness and would significantly prolong any recovery, even once 
full funding was restored.
    Question. What is your understanding and assessment of the methods 
currently used for estimating the funding needed for the maintenance of 
Air Force equipment?
    Answer. Air Force sustainment requirements for our aircraft, 
engines, and other equipment are developed to ensure these systems are 
safe and operating properly to train to full spectrum missions. This 
ongoing sustainment includes activities such as periodic inspections 
and component maintenance. For example, aircraft depot maintenance is 
accomplished on a cyclical basis to support the life cycle of the 
weapon system. These maintenance requirements are enduring and underpin 
Air Force readiness to support the warfighter. Ongoing operations have 
accelerated maintenance and supply requirements and have challenged us 
to keep pace. To cope with the high operations tempo we continue to 
rely on OCO funding.
    Question. Given the backlog in equipment maintenance over the last 
several years, do you believe that we need an increased investment to 
reduce this backlog?
    Answer. Past sequestration budgets, resulted in significant 
backlogs at the depots, parts that are critical to our combat units to 
regain readiness. We are now funding WSS to the maximum we can execute, 
but that is still below the requirement.
    Question. How important is it to reduce the materiel maintenance 
backlog in order to improve readiness?
    Answer. Funding predictability is essential to maintenance and 
supply planning, and the Air Force's ability to properly sustain our 
equipment is essential to readiness. The supply chain and depot 
workforce require long lead times to posture; therefore, sufficient and 
stable funding is essential to effectively manage the Air Force's 
sustainment enterprise.
    Question. How important is it to receive OCO funding after the end 
of combat operations in order to ensure all equipment is reset?
    Answer. Transferring OCO funding to our baseline is one of the 
necessary conditions for a full readiness recovery. Major Air Force 
weapon systems do not have one-time ``reset'' requirements. The 
sustainment of these platforms is an enduring requirement and requires 
a persistent investment. OCO funding to maintain or extend the service 
life of our platforms, or to accelerate their replacement will be most 
important. It will also take years of additional OCO funding to replace 
the munitions inventory we have either depleted or deferred. There are 
many more instances where OCO funding must continue beyond combat 
operations, but these are two examples of the most critical.
                    nuclear enterprise modernization
    Question. Following completion of the 2014 Nuclear Enterprise 
Review, the Air Force established internal processes to track 
implementation of recommendations and to ensure the sustained focus of 
senior Air Force leadership.
    What are the processes and metrics by which the Air Force measures 
improvement in the nuclear mission across the Air Force. If confirmed, 
what would be your role? What shortcomings or gaps continue to exist?
    Answer. The Air Force continues to work towards strengthening 
nuclear enterprise assessment processes and developing meaningful 
metrics to ensure the changes we institute are measurable and enduring. 
In support of that objective, the findings and recommendations of the 
Nuclear Enterprise Reviews have assumed a central place in the Air 
Force's governance process for the nuclear enterprise. Through forums 
like the Nuclear Oversight Board, chaired by the Secretary and Chief of 
Staff with participation from all 10 major command commanders, I intend 
to ensure the Air Force continues to apply sustained focus on improving 
the health of the nuclear enterprise.
                       strategic delivery systems
    Question. Over the next 5 years DOD will begin to replace or begin 
studies to replace all of the strategic delivery systems. For the next 
15 plus years, DOD will also have to sustain the current strategic 
nuclear enterprise. This will be a very expensive undertaking.
    Do you have any concerns about the ability of the Department to 
afford the costs of nuclear systems modernization while meeting the 
rest of the DOD commitments?
    Answer. As a vital component of our national security strategy, I 
am fully committed to the modernization of our nuclear deterrence 
forces so they remain credible and effective in the years ahead. 
Affordability is always a key consideration in managing any major 
acquisition effort, as is the stability and consistency of 
appropriations--factors that are more relevant than ever as DOD 
commitments and fiscal constraints grow. If confirmed, I am committed 
to working across DOD and with the Congress to achieve affordable 
nuclear modernization and sustainment.
    Question. If confirmed will you review the Ground Based Strategic 
Deterrent (GBSD) system to ensure that it uses high technology 
readiness level technologies, has requirement that do not change after 
milestone B and is cost effective?
    Answer. Yes. I am committed to ensuring that affordability, stable 
requirements, and the use of mature technologies remain cornerstones of 
the Air Force's strategy to field GBSD.
    Question. If confirmed will you work with the Air Force's Global 
Strategic Command to ensure the GBSD goes through its milestone A 
review in Fiscal Year 2016?
    Answer. Yes. The GBSD program remains on track for its milestone A 
review in Fiscal Year 2016. If confirmed, I will work to ensure the 
efforts of stakeholders across the Air Force--including elements of Air 
Force Global Strike Command, Headquarters Air Force, and the Air Force 
Nuclear Weapons Center--remain tightly integrated to keep this critical 
program on schedule.
    Question. If confirmed will you work with the Air Force's Global 
Strategic Command to ensure the Long Range Standoff Weapon goes through 
its milestone A review in Fiscal Year 2016?
    Answer. Yes. The LRSO program remains on track for its milestone A 
review in Fiscal Year 2016. If confirmed, I will work to ensure 
collaboration on LRSO remains strong both within the Air Force as well 
as with our mission partners at the Department of Energy as they work 
to align development of a life-extended warhead for the LRSO.
                    strategic communications systems
    Question. Section 1052 of the Fiscal year 2014 NDAA established a 
``Council on Oversight of the National Leadership Command, Control and 
Communications System''.
    What do you see as the most pressing challenges in nuclear command, 
control and communications from a policy and acquisition perspective?
    Answer. Nuclear command and control must be an enduring priority of 
which one challenge is to sustain existing capabilities until new, 
modernized capabilities can be fielded. We designated the nuclear 
command, control, and communications system as a weapon system and 
assigned Air Force Global Strike Command as the lead major command.
    There are significant challenges given the legacy systems that are 
part of our operational baseline architecture in this area and the 
cybersecurity vulnerabilities sometimes introduced when applying 
commercial solutions directly. Walking a line between GOTS and COTS and 
having the patience and resources to fund potential solutions are the 
most pressing challenges in NC3. To this end, we must strike a 
carefully considered, risk managed balance between readiness and 
modernization. Much of our existing capabilities are supported on 
platforms which have reached or are nearing end of life and must be 
upgraded. Decisions on the timing and prioritization of our sustainment 
and investment portfolios are a top priority.
    Question. What do you see as the most pressing challenges in 
overall national leadership communications from a policy and 
acquisition perspective?
    Answer. The cyberspace domain is a key enabler in providing fully 
assured national leadership communications capabilities, which depend 
upon both military and commercial communication systems. The most 
pressing challenges are competing budget priorities to acquire an 
efficient and integrated capability as well as system compatibility 
across the enterprise to address Service-specific requirements. The Air 
Force will continue to look at options that will enhance 
interoperability and compatibility of our national leadership 
communications platforms and systems.
    One challenge is to sustain existing capabilities until new, 
modernized capabilities can be fielded. Another challenge is providing 
an assured, survivable and enduring communications capability that 
allows senior defense advisors to communicate with the President, the 
combatant commands and strategic Allies during normal day-to-day 
operations and during national crises from a fixed, mobile or airborne 
location. The ability to provide our national leadership secure, 
reliable voice, video and data communications is a critical capability.
    Question. If confirmed will you actively support section 1052 to 
ensure the President has at all times control of nuclear weapons?
    Answer. Yes.
    Question. If confirmed will you review the status of the Air 
Force's support to the NATO nuclear mission and report back to this 
committee on key findings that are in need of future improvement 
including personnel and material?
    Answer. Yes, the Air Force fully supports NATO's nuclear mission, 
which is a cornerstone of our nuclear assurance. I will review our 
current efforts to identify possible areas to improve our support. I 
look forward to working with Congress to ensure the airmen in Europe 
have the appropriate resources.
     secretary hagel's review of the nuclear forces and the force 
                          improvement program
    Question. In 2014 Secretary Hagel conducted an assessment of the 
state of nuclear deterrence operations of the Department of Defense, 
commonly known as the ``Creedon-Fanta'' report.
    Do you agree with its findings?
    Answer. Yes. To date, we have implemented a number of the Air 
Force-specific recommendations in both the internal and independent 
Nuclear Enterprise Reviews. If confirmed, I will continue to implement 
the remaining recommendations.
    Question. How do you think they may be improved upon over the next 
five years?
    Answer. If confirmed, I will work to ensure the Air Force continues 
implementing and tracking Nuclear Enterprise Reviews follow-on actions. 
Our goal is a systematic and responsive process that will yield 
tangible and lasting improvements.
    Question. Will you actively support the findings and their 
implementation?
    Answer. Yes. If confirmed, I will work to promote a culture of 
critical self-assessment and continuous improvement within the nuclear 
enterprise.
    Question. Will you work with the Cost Analysis and Program 
Evaluation Office as part of a continual assessment of the Air Force 
nuclear programs and, if asked, report the status of that to the 
Congress?
    Answer. Yes, our continued partnership with the Cost Analysis and 
Program Evaluation Office is critical to the implementation of Nuclear 
Enterprise Reviews. This relationship will ensure senior leader focus 
and accountability remain strong.
    Question. Please explain how you interpret the Air Force's Force 
Improvement Program and what actions will you take to support those 
efforts?
    Answer. The Force Improvement Program (FIP) was a 2014 effort 
intended to address urgent, short-term operational needs. FIP was only 
one element of a much broader Air Force effort to recapitalize its 
nuclear enterprise. The FY17 PB reflects the Air Force's commitment to 
pursuing a comprehensive approach to meeting NDO requirements.
     national commission on the structure of the air force (ncsaf)
    Question. In the Air Force's response to the NCSAF recommendation 
(#42) on Up or Out policy, the Commission recommends, ``Congress should 
amend restrictive aspects of current statutes that mandate ``up-or-
out'' career management policies to enable the Air Force to retain 
airmen of all components actively working in career fields where 
substantial investment in training and career development has been made 
and where it serves the needs of the Air Force.''
    In your opinion, would the reinstitution of a warrant officer 
program in the Air Force attract and keep certain skilled people who 
are more interested in remaining in a particular career field rather 
than worrying about additional institutional requirements they must 
accomplish for promotion in the officer ranks?
    Answer. The Air Force previously considered reinstituting WOs in 
2008, 2012 and most recently with regard to RPA pilots in 2015; 
however, the Air Force believes adding a third category of serving 
members in addition to officers and enlisted airmen does not align well 
with our Air Force culture and our enlisted force development 
objectives. That said, the Air Force sees value, whether it be through 
our highly talented enlisted force, adjustments to ``up or out,'' or 
other mechanisms, such as providing a flexible ``technical track'' in 
being able to attract and retain talented airmen. We recognize not all 
officers need to be developed the same way and requirements in some 
leadership tracks may not apply to airmen in technical tracks. Some of 
these areas would require legislative assistance like reform of ``up or 
out,'' but others could be pursued today and the Air Force has been 
investigating multiple options.
    Question. Do you believe certain career fields could receive 
benefit from a warrant officer program in operational or technical 
positions such pilot training instructor pilots, remotely piloted 
aircraft pilots, and cyber warfare specialties?
    Answer. The Air Force is a highly technical force, and we believe 
our enlisted corps has the technological and leadership capability to 
perform to the same level of a WO corps without instituting a 
fundamental change in our NCO developmental and progression. As such, 
the Air Force is actively exploring the utilization of enlisted members 
as RPA operators to assist in the long-term development and 
stabilization of the RPA community. Our enlisted force has already 
demonstrated this capability within the cyber and space communities. We 
are also exploring numerous other alternatives (e.g. ``technical 
track,'' ``up or out reform'') that will provide capability without 
having to alter Air Force culture. Another key aspect is to increase 
``permeability'' between our Active and Reserve components, providing 
increased cooperation within existing resources while leveraging 
existing talent and capabilities. Finally, we must also factor in the 
tremendous capability that our civilian force brings throughout the 
enterprise.
    Question. In the Air Force's response to the NCSAF recommendations, 
the recommendation (#5) to disestablish the Air Force Reserve Command 
(AFRC) is the only commission recommendation with which the Air Force 
outright disagrees.
    Can you provide your views regarding this disagreement?
    Answer. The Air Force is concerned that this recommendation lacks 
the research, data, and analysis necessary to disregard six decades of 
organizational lessons learned and undo congressionally instituted 
reforms that have led to today's cost-efficient and mission-effective 
force for our Nation. This recommendation would also weaken the Chief 
of the Air Force Reserve's ability to execute key statutory obligations 
in the management of congressionally authorized and appropriated 
resources. It would place at risk the sustained readiness of Air Force 
Reserve forces, which afford the Nation operational capability, 
strategic depth, and surge capacity across all Air Force core missions.
    Question. If AFRC were not disestablished, in your view does there 
still need to be what appears as redundant staffs between AFRC 
headquarters and the staff for the Chief of the Air Force Reserve in 
the Pentagon?
    Answer. There are not two, redundant staffs. In accordance with 10 
U.S.C. Sec.  10174, the Commander of Air Force Reserve Command also 
serves as the Component Chief of the Air Force Reserve. As a result of 
this statutory requirement, he has two distinct roles necessitating a 
small component staff (90 airmen) along with an appropriately-sized 
major command staff. It is important to note there is no overlap in 
staff functions.
    Question. To your knowledge, do other major commands maintain 
staffs at both their own headquarters and at the Air Staff?
    Answer. The Commander of Air Force Reserve Command is, statutorily, 
also the Chief of the Air Force Reserve. No other major command 
commander is also a component commander requiring a component staff.
                            audit readiness
    Question. The Department of Defense remains unable to achieve a 
clean financial statement audit. The Department also remains on the 
Government Accountability Office's list of high risk agencies and 
management systems for financial management and weapon system 
acquisition. Although audit-readiness has been a goal of the Department 
for decades, DOD has repeatedly failed to meet numerous congressionally 
directed audit-readiness deadlines.
    What is your understanding and assessment of the Air Force's 
efforts to achieve a clean financial statement audit by 2017?
    Answer. The AF remains cautiously optimistic that we will be 
prepared to undergo a full financial statement audit beginning Sept 30, 
2017. We have a dedicated Financial Improvement and Audit Readiness 
(FIAR) team leading this effort, with audit coaching provided by Price 
Waterhouse Coopers (PWC), a recognized audit leader in the federal and 
private sectors. Our efforts are governed by a cross-functional 
executive steering committee, and our senior leader's performance plans 
hold them accountable to a performance standard that supports our FIAR 
objectives. We actively participate in forums sponsored by OUSD(C), and 
collaborate with the other components and service providers, to both 
lead and support the department-wide effort to achieve auditability.
    Based on the experience of other federal and private sector audits, 
it is unlikely that we will immediately receive an unmodified opinion. 
A review of audits for similar agencies indicates that it takes an 
average of five to eight years to resolve the findings necessary to 
receive an unmodified opinion. The entire AF enterprise is engaged to 
help us exceed this expectation and, as evidenced by our significant 
progress over the past four years, we will continue to address each 
audit preparation challenge in accordance with our FIAR plan.
    Question. In your opinion, is the Department of the Air Force on 
track to achieving this objective, particularly with regard to data 
quality, internal controls, and business process re-engineering?
    Answer. Yes. The AF is on track to meet the mandate to be audit 
ready by Sept 30, 2017 and begin a full financial statement audit for 
fiscal year 2018. Our audit preparation activities are guided by a 
comprehensive master plan with regular progress evaluations. In 
specific reference to data quality, internal controls, and BPR, we have 
completed control reviews in 50 of 78 systems (25 of 46 are Air Force 
owned), and have developed corrective action plans (CAPs) for all 
internal findings. These CAPs encompass data quality improvements and 
business process re-engineering. Our Schedule of Budgetary Activity 
(SBA) auditors, Ernst & Young (EY) also produced a list of approx. 180 
system findings for us to address, most of which were discovered in our 
internal reviews. We are confident that we will be able to close or 
adequately mitigate these findings and remain on track for a full 
financial statement audit.
    Question. If not, what impediments may hinder the Air Force's 
ability to achieve this goal and how would you address them?
    Answer. The Air Force is on track to achieve its objective to 
undergo a full financial statement audit by Sept 30, 2017. The highest 
risk areas for audit are (1) reconciling Funds Balance with Treasury, 
(2) reconciling the universe of transactions, (3) supporting all 
journal vouchers, (4) substantiating existence, completeness, and 
valuation for property, plant, and equipment, and (5) strengthening IT 
system controls.
    The Air Force is actively addressing all of these risks. I'm proud 
to say the Air Force was the first service to receive a favorable 
opinion on our Funds Balance with Treasury reconciliation, and our 
process was used as a model for the other Services. With the help of 
DFAS, we reconciled 39/45 universe of transaction systems for our 
recent SBA audit, with approx. 25 remaining for our full financial 
statement audit. We accomplished this in just over two years. Following 
the DFAS model for journal voucher support, we continue to strengthen 
our documentation, as well as participate in various working groups to 
eliminate journal vouchers where possible. We achieved favorable 
opinions on our assertions for the existence and completeness of 
mission critical assets, we currently have AF/PWC teams conducting 
asset verification, and we are actively participating in OUSD(C) 
working groups to determine the department strategy for valuation. As 
referenced earlier, we have and will continue to develop and implement 
corrective action plans to eliminate or mitigate our IT control 
weaknesses.
    Question. In your view, are the steps that the Air Force needs to 
take consistent with the steps that DOD needs to take to achieve full 
auditability by 2017?
    Answer. Yes. The Air Force approach to audit readiness is 
consistent with the Department of Defense. As an active member of the 
FIAR Governance Board, the Air Force collaborates with other components 
and functional partners to establish goals, objectives and guidance to 
produce auditable financial statements for the Department. The Air 
Force adheres to the guidance published by OUSD(C) which controls the 
standards for sampling, threshold, and scope to be used during audit 
readiness efforts. The Air Force shares plans and findings with the 
other Services, and collaborates with them to leverage lessons learned.
    Question. What steps will you take, if confirmed, to ensure that 
the Air Force moves to achieve these objectives without an unaffordable 
or unsustainable level of one-time fixes and manual work-arounds?
    Answer. The Air Force has established a governance process to 
oversee our audit readiness objectives, which is aligned to our 
Investment Review process, to ensure Senior Leadership oversight across 
the Air Force enterprise. This governance is aligned to OSD governance 
to ensure Department-wide integration of efforts to achieve our audit 
objectives and to avoid stove-piped, unaffordable, and unsustainable 
fixes. A key element of this governance is the standardization of 
business processes across the Air Force to ensure they are traceable 
and auditable. In order to do this, the Air Force implemented a 
standard set of tools to validate, document, re-use, and sustain the 
results from our audit readiness efforts, while also ensuring 
auditability of our Information Technology systems.
    Utilizing these standards and tools enables Senior Leader oversight 
on the corrective action plans being implemented across the Air Force 
in collaboration with the Army, Navy, and Service Providers throughout 
the Federal Government. This holistic, enterprise-wide approach will 
allow us to determine impacts of business process changes, ensure 
alignment with the DOD Business Enterprise Architecture, and inform our 
IT investment decisions. Finally, our strategy will provide a mechanism 
to encourage culture change, which is necessary for future continuous 
process improvement, the results of which will also be documented and 
auditable.
               air force information technology programs
    Question. What major improvements would you like to see made in the 
Air Force's development and deployment of major information technology 
systems?
    Answer. Today our IT systems are hamstrung by legacy processes 
executed within stovepipe systems that force multi-year budgeting and 
implementation. These 3-5 year, and often longer, development cycles 
are not in alignment with best practices nor the pace of technology. 
Budgeting and requirements processes that focus on operational vice 
technical requirements, coupled with budgeting processes that enable 
proven pathfinder efforts to more rapidly acquire and deploy capability 
is needed. Execution to meet requirements of business processes and the 
underlying systems is widely distributed across the Department, and 
across Air Force.
    A streamlined approach to getting to the Joint Information 
Environment is needed. Deliberate unified programs of record within the 
Air Force and across the Department will being to build the enabling 
framework. We've seen some progress with the Joint Regional Security 
Stacks, and should continue to improve sound governance to build out 
the remainder of the transformation plan to leverage common computing 
environments and cloud based technologies.
    Question. How will you encourage process and cultural change in 
organizations so that they maximize the benefits that new enterprise 
information technology systems can offer in terms of cost savings and 
efficiency?
    Answer. Our Total Force cyberspace workforce continues to transform 
under the leadership of the Air Force CIO. In addition, the department 
will soon publish an updated set of policies for how we govern and 
operate enterprise IT/cyberspace capabilities. We also have several 
strategic initiatives underway, including formulating a cyber-aptitude 
test for recruitment, standing up a cyber innovation center at USAF 
Academy (AFCIC) for workforce and new officer development, and 
leveraging the new Silicon Valley detachment (Defense Innovation Unit 
Experimental--DIUx) for commercial technology infusion. I will continue 
to encourage such initiatives.
    We are undertaking a nascent effort to align the Air Force IT 
governance and requirements processes with the Defense Enterprise 
Service Management Framework (DESMF). The DESMF takes advantage of 
commercial best practices to focus organization efforts on the IT 
services necessary to support mission outcomes. This focus on mission 
outcomes will enable the implementation of several initiatives 
recommended by our Task Force Cyber Secure to pay significantly more 
attention to the cyberspace platform that underpin the execution of our 
Air Force core missions.
    Question. In your view, what is the relationship between Air Force 
efforts to implement enterprise information technology programs and 
supporting computing services and infrastructure to support Air Force 
missions, to the efforts being undertaken by the Defense Information 
Systems Agency and the Assistant Secretary of defense for Networks and 
Information Integration?
    Answer. The Air Force is a full and leading partner with DOD CIO, 
DISA and our sister Services in the design and implementation of the 
Joint Information Environment (JIE). The Air Force has provided its 
extensive expertise garnered from our AF Network (AFNET) consolidation 
to shape JIE architectures and processes. Consolidating requirements, 
resources and overlapping operational frameworks with the broader Joint 
community will enable the Air Force to shift its focus from making 
capital investments in commodity IT services and capabilities in favor 
of acquiring these ``as a service'' from DISA or commercial providers. 
This partnering with DISA and the Services has highlighted the cultural 
stubbornness within the AF to release our control of IT services. Our 
requirements and governance processes must shift to documenting our 
operational requirements instead of poring over the technical details 
of how those requirements are met.
                           acquisition reform
    Question. The National Defense Authorization Act for Fiscal Year 
2016 emplaced myriad changes to defense acquisition processes, 
including reinserting service chief influence and accountability into 
acquisition processes.
    Do you support the acquisition reform provisions in the Fiscal Year 
2016 National Defense Authorization Act?
    Answer. We support the acquisition reform provisions and appreciate 
the Congressional support. The Air Force needs to focus on our main 
mission--fighting and winning our nation's wars. To do this, we must 
balance current readiness and future modernization of the Air Force. 
Going forward continued Congressional support will enable the Air Force 
to build a modernized force that is agile, adaptable, and resilient, 
capable of once again widening the technological gap between us and the 
adversary.
    Question. What additional acquisition-related reforms do you 
believe the Committee should consider?
    Answer. There are a number of acquisition-related reform proposals 
being considered at the OUSD(AT&L)-level. The proposals focus on 
workforce improvements, streamlining processes, and fostering 
innovation. We will continue to support those proposals.
    Question. How can the Department and the Air Force better access 
and integrate commercial and military technology to remain ahead of its 
potential adversaries?
    Answer. The current strategic context is marked by rapid change 
(technological, social, political, economic, and cultural) and the 
widespread diffusion of commercially available technologies are adding 
complexity and unpredictability. It is clear our adversaries are trying 
to leverage technologies to advance their goals. We need to outpace 
them, therefore warfighting experimentation and rapid prototyping is a 
critical methodology to help us achieve strategic agility. The Air 
Force is doing just that.
    It is important to understand that warfare is a human endeavor. 
Focusing on technology for technology's sake (i.e., using tech 
transition as a metric) without considering the doctrine, organization, 
training, policy, and other factors required to provide a complete 
military capability will result in poor integration of technology. The 
decisions on what technologies to explore, how they might be employed, 
and whether to incorporate them into a military capability has to be 
based on credible analysis backed by quantifiable data, not paper 
studies and analyses loaded with assumptions.
    The most effective and efficient way to accomplish this is by 
conducting logical, well-thought out experimentation campaigns that 
bring together the operational community, technologists, systems 
engineers, and acquirers to understand how new technologies (commercial 
or from government labs) can best be employed. This will dramatically 
shorten the fielding cycle and reduce cost, performance, and schedule 
risks.
    To gain better access to commercial technologies, the Air Force is 
supporting a Better Buying Power 3.0 initiative to inform DOD managers 
on methods and best practices to engage more effectively with 
commercial technology companies. Access to the broader technology base, 
enhances our solution sets to address potential adversary's existing 
and emerging threats. The Air Force, under Secretary James' Bending the 
Cost Curve, is also encouraging innovation through active industry 
engagements to improve the way we procure our systems and drive down 
cost. One of the major themes of this initiative is expanding 
competition among traditional and non-traditional industry partners, 
which then allows for better access to emerging technologies.
                    air force science and technology
    Question. If confirmed, what direction would you provide regarding 
the importance of innovative defense science and technology in meeting 
Air Force missions?
    Answer. The innovative technology produced by the Air Force Science 
and Technology (S&T) Program balances high-risk with high-return 
science and knowledge. If confirmed, the direction I provide would 
focus on supporting the Air Force capabilities fundamental to providing 
agile and responsive intelligence, surveillance, and reconnaissance, 
projecting power in anti-access and area denial environments, operation 
in space and cyberspace, maintaining a safe, secure and effective 
strategic deterrent, and integration of operations in all three domains 
(air, space and cyberspace).
    Question. Do you believe the current balance between short- and 
long-term research is appropriate to meet current and future Air Force 
needs?
    Answer. Yes, the future success of the Air Force will depend on 
continued innovation and technical excellence in our research. We must 
balance our portfolio across many factors. We must develop technologies 
across, near-, mid-, and far-term timeframes, across core Air Force 
mission areas, and between requirements pull efforts to address known 
capability needs and technology push efforts to pursue revolutionary 
technologies. The future strategic environment will require an agile, 
affordable, and flexible military. Therefore, the Air Force S&T Program 
must continue to invest in a broad portfolio of research to anticipate 
future needs and maintain a good balance between: near-term, quick-
reaction capability support; mid-term technology development to 
modernize the force; and revolutionary technologies that address far-
term warfighting needs.
    Question. What role would you have in helping the Department 
implement the nascent Third Offset Strategy?
    Answer. As outlined in the Air Force Strategy, A Call to the 
Future, I will continue to support the pursuit of game-changing 
technologies to maintain and advance our technological superiority. The 
Air Force Research Laboratory maintains awareness of advancing 
technology and harvests opportunities to inject them into new Air Force 
capabilities. As part of the Third Offset Strategy, the Air Force is 
pursuing hypersonics, directed energy, and autonomous systems, to name 
a few technology areas. I plan to continue to reinvigorate our 
development planning efforts that will leverage robust experimentation 
campaigns and evaluate the impact of new capability concepts and offset 
strategies.
                         air force laboratories
    Question. What role should Air Force laboratories play in 
supporting current operations and in developing new capabilities to 
support Air Force missions?
    Answer. We must prioritize our efforts and balance the allocation 
of our resources appropriately. To accomplish this, we must clearly 
understand our warfighter's capability gaps, the potential capability 
inherent in new technology, and the cost associated with maturing, 
integrating and transitioning it to the warfighter. For current 
operations, we must continue to improve processes to rapidly respond to 
urgent warfighter needs with innovative solutions. We must continue to 
forge ahead on a path of innovation to achieve strategic agility, 
breaking paradigms and leveraging technology to design agility and 
affordability into our capability development. This requires an ever-
closer relationship between our research laboratory, operators, and 
acquisition and requirements communities. These steps will enable 
effective investment in research programs that will maximize the 
benefit to the warfighter and ensure the continued national security of 
the United States.
    Question. If confirmed, how will you ensure that Air Force 
laboratories have the highest quality workforce, laboratory 
infrastructure, resources, and management, so that they can continue to 
support deployed warfighters and develop next generation capabilities?
    Answer. If confirmed, I will actively work with the Air Force S&T 
Executive, the Air Force Chief Scientist and Air Force Research 
Laboratory leadership to ensure we maintain a high quality workforce 
and infrastructure and resource those priorities accordingly. Ensuring 
the Air Force continues to have war-winning technology requires the 
proactive management of its current Science, Technology, Engineering, 
and Mathematics (STEM) workforce and a deliberate effort to grow the 
laboratory scientists and engineers of the future. Those researchers 
need state-of-the-art laboratory facilities to best support deployed 
warfighters with ready-to-use technologies and develop next generation 
capabilities. I will rely on and support the senior leadership of the 
acquisition community to assess and invest in infrastructure and the 
workforce necessary to support the future technology needs of the Air 
Force.
    Question. Do you support the full utilization of authorities 
established by Congress under the Laboratory Personnel Demonstration 
program?
    Answer. Retaining the current world-class, highly-skilled workforce 
is an important part of the Air Force's Bright Horizons STEM Workforce 
Strategy. I understand that the Laboratory Demonstration program has 
done much to ensure the Air Force Research Laboratory's ability to 
attract and retain personnel since its inception in 1997. This flexible 
system has helped to achieve the best workforce for the mission, adjust 
the workforce for change, and improve overall quality. If confirmed, I 
will work with the laboratory leadership to monitor the Laboratory 
Demonstration program to ensure it remains effective for its primary 
purpose and propose changes to the program, if they become required. 
Congressionally-authorized personnel and hiring authorities have 
greatly helped to improve the Air Force's compensation and hiring 
abilities.
    Question. Do you believe that the Air Force's laboratories and 
engineering centers should have a separate, dynamic personnel system, 
uniquely tailored to support laboratory directors' requirements to 
attract and retain the highest quality scientific and engineering 
talent?
    Answer. If confirmed, I look forward to carefully examining the Air 
Force's experience with the Laboratory Demonstration program and 
working with the laboratory leadership to determine future needs and 
authorities for the program. I will also monitor our ongoing expansion 
of the Acquisition Demonstration program to ensure we continue 
supporting efforts to recruit, retain and develop a world-class STEM 
workforce for the Air Force and the Nation.
    Question. How will you assess the quality of Air Force laboratory 
infrastructure and the adequacy of investments being made in new 
military construction and sustainment of that infrastructure?
    Answer. I am aware that the 2005 Base Realignment and Closure 
(BRAC) effort, successfully completed in September 2011, provided 
several new, state-of-the-art facilities within the Air Force Research 
Laboratory. While this provided us an opportunity to consolidate and 
improve many laboratory facilities, the Air Force continues to have 
prioritized needs for military construction (MILCON) projects in other 
areas of the Air Force Research Laboratory. I will also ensure we 
continue to leverage minor MILCON authorities for laboratory renewal 
and infrastructure sustainment. If confirmed, I will work closely with 
the leadership of the acquisition community to ensure that we remain 
vigilant and upgrade our S&T infrastructure in a timely manner, so that 
major research and programs are not put at risk due to aging 
facilities.
    Question. Are you concerned about the current or future supply of 
experts in defense critical disciplines, particularly personnel with 
appropriate security clearances, to hold positions in defense 
laboratories?
    Answer. Yes, I am always concerned about maintaining a solid 
representation of Science, Technology, Engineering and Math (STEM) 
professionals in the critical defense disciplines our laboratories and 
acquisition enterprise require. Nurturing the next generation of STEM 
professionals is an Air Force, DOD and national concern. To maintain 
the U.S. military's decisive technological edge, the Department must be 
able to recruit, retain and develop a capable STEM workforce in the 
face of worldwide competition for the same talent. An objective of the 
Air Force STEM Strategic Communication Plan is to encourage all airmen 
to attract tech-savvy students to an Air Force career. The Air Force 
has successfully used tools such as the Science, Mathematics, and 
Research for Transformation (SMART) scholarship for service program to 
accomplish this mission. Over the past eight years, the Air Force has 
averaged 60 scholarships per year to scientists and engineers. After 
payback of the recipient's service commitment, the Air Force has 
retained 88 percent of scholars in Air Force jobs. Additionally, the 
Air Force's Bright Horizons STEM Workforce Strategy addresses and 
investigates requirements to attract and retain the right STEM 
qualified people in the right place, at the right time, and with the 
right skills.
                       test and evaluation issues
    Question. What do you see as the role of the developmental and 
operational test and evaluation communities with respect to rapid 
acquisition, spiral acquisition, and other evolutionary acquisition 
processes?
    Answer. The role of the developmental and operational test and 
evaluation communities is the same as in a normal development.
    That role is to:
    - Ensure test objectives address operational requirements and 
concepts
    - Ensure requirements are testable
    - Ensure test capabilities, including workforce, are adequate and 
available
    - Validate system performance against requirements
    - Ensure effectiveness and suitability are assessed in a 
representative operational environment
    Question. What are your views on the appropriate roles of OSD 
developmental and operational testing organizations with respect to 
testing of Air Force systems?
    Answer. OSD should only provide oversight of service testing 
approaches for major acquisitions and provide the associated 
congressional reporting. Detailed test management, execution, and 
reporting should be left to Service test organizations.
          air force military and civilian personnel management
                        recruiting and retention
    Question. The retention of quality airmen, officer and enlisted, 
Active Duty and reserve, is vital to the Department of the Air Force.
    How would you evaluate the status of the Air Force in successfully 
recruiting and retaining high caliber personnel?
    Answer. In all components, the Air Force is meeting its recruiting 
targets, however the size of the youth market, propensity of high 
school graduates to serve, and market competition (especially for 
highly-skilled areas such as aviation/remotely piloted aviation, cyber, 
engineers and special operators) are all growing concerns.
    Overall, the Air Force continues to retain well; however, as the 
Air Force grows to restore readiness and meet increasing operational 
demands across the globe, we must address key capability gaps in the 
nuclear, maintenance, cyber, intelligence, surveillance and 
reconnaissance as well as support career fields.
    Question. What initiatives would you take, if confirmed, to further 
improve Air Force recruiting and retention, in both the active and 
reserve components?
    Answer. I think it imperative that we look at recruiting and 
retention from a holistic, or what we routinely refer to as Total 
Force, perspective. Any approach must address both the active and 
reserve components' unique roles, capabilities and limitations, but 
also the interrelationship between the two. More specifically, as part 
of Secretary Carter's Force of the Future proposals we will work with 
his staff and the other Services to improve the efficiency and 
effectiveness of recruiting and accessions. We'll review use of modern 
data analytics, expansion of non-cognitive testing, digitizing the 
Military Entrance Processing System (MEPS) process, and examining other 
enhancements to how we recruit, who we recruit and where we recruit. It 
is essential that we continue to expand our traditional recruiting 
pools to gain access to a greater pool of candidates and ensure we 
recruit the best talent available. Having consistently funded 
advertising and marketing (cohesive for all accession sources) will 
ensure national Total Force brand recognition that contributes to 
recruiting the right people, the right skills, at the right time.
    On retention, we must continue our emphasis on compensation, 
specifically our special and incentive pays to retain airmen in 
critical skills. However, retention is about much more than just pay. 
Maintaining quality of life for our airmen and their families is 
imperative. Funding for our Morale, Welfare and Recreation (MWR) and 
airman and family programs is essential to retain and create a culture 
of resiliency and high morale among airmen and their families. Last, we 
must continue to leverage Force of the Future initiatives, to attract 
and retain talent while mindful of our overall readiness and ability to 
meet demanding missions worldwide.
                       delivery of legal services
    Question. What is your understanding of the respective roles of the 
General Counsel and Judge Advocate General of the Air Force in 
providing the Secretary of the Air Force with legal advice?
    Answer. Both the General Counsel and the Judge Advocate General 
(TJAG) have important roles in providing legal advice to the Secretary 
and senior Air Force leaders. The General Counsel is established within 
the Office of the Secretary of the Air Force and, subject to the 
direction and control of the Secretary, serves as the chief legal 
officer and Designated Agency Ethics Official of the Air Force. The law 
also provides that TJAG is the legal advisor of the Secretary and of 
all officers and agencies of the Air Force. These dual statutory roles 
have been strengthened by the robust working relationship that the 
General Counsel and TJAG have established between their organizations. 
The General Counsel and TJAG have a collaborative working relationship 
in addressing challenging legal issues that face the Air Force, with 
each maintaining the crucial ability to provide independent legal 
advice that is vital to the Air Force senior leader decision-making 
process. If confirmed, I look forward to establishing effective working 
relationships with both the General Counsel and TJAG.
    Question. What are your views about the responsibility of the Judge 
Advocate General of the Air Force to provide independent legal advice 
to the Chief of Staff of the Air Force?
    Answer. The Judge Advocate General's ability to provide independent 
legal advice to the Secretary of the Air Force and the Chief of Staff 
of the Air Force has been statutorily recognized as essential to the 
effective delivery of legal services. I share that view. Uniformed 
attorneys bring another perspective and can provide insight and advice 
shaped by years of service throughout the Air Force.
    Question. What are your views about the responsibility of staff 
judge advocates within the Air Force to provide independent legal 
advice to military commanders?
    Answer. The Judge Advocate General's ability to provide independent 
legal advice to the Secretary of the Air Force and the Chief of Staff 
of the Air Force has been statutorily recognized as essential to the 
effective delivery of legal services. I share that view. Uniformed 
attorneys bring another perspective and can provide insight and advice 
shaped by years of service throughout the Air Force.
                judge advocate general corps resourcing
    Question. What is your understanding of the current and projected 
manpower requirements in the Air Force JAG Corps?
    Answer. The Air Force JAG Corps continuously evaluates emerging 
mission requirements (e.g., air and space law, cyberspace law, and 
sexual assault victim representation) to project future manpower 
demands. The Air Force JAG Corps, based on current mission sets, has 
sufficient manpower authorizations to meet existing mission 
requirements, notwithstanding the ongoing discussion regarding the 
reinstatement of key leadership positions described in the response to 
question 2 below.
    Of note, in March 2015, the Secretary of the Air Force authorized 
an increase in Air Force JAG Corps manpower authorizations (58 officer 
positions and 15 enlisted positions) to resource the Special Victims' 
Counsel Program and other key military justice positions in an effort 
to enhance the Air Force's capability to combat sexual assault.
    Question. If confirmed, will you review the judge advocate manning 
within the Air Force, including leadership requirements, and determine 
whether current Active duty strengths are adequate?
    Answer. I will continue to work closely with the Air Force Judge 
Advocate Corps' senior leadership to ensure sufficient manning to meet 
existing and emerging mission requirements. As an example, the 
Secretary of the Air Force recently provided a report to the 
Congressional Defense Committees, as directed by the Senate Report 
accompanying the National Defense Authorization Act for Fiscal Year 
2016 (Senate Report 114-49, page 133-34), describing the importance of 
reinstating three key senior leadership positions (brigadier general 
positions) within the Air Force JAG Corps.
                 sexual assault prevention and response
    Question. What is your assessment of the Air Force's sexual assault 
prevention and response program?
    Answer. We are making progress in the right direction thanks to 
funding and support from Congress, but we still have work ahead of us 
to combat this crime. Since fiscal year 2012, sexual assault prevalence 
has decreased while sexual assault reporting in the Air Force has 
increased, indicating the program's progress in both preventing sexual 
assault and increasing airmen's confidence in the program. Another 
indication of airmen's confidence is the increase in the percentage of 
unrestricted reports, which is up to 70 percent from 64 percent in 
2013. Next year, the Air Force will be rolling out a scientifically 
proven prevention program to the Force; we anticipate great benefits 
from using this new approach.
    Question. What is your assessment of the Air Force's programs to 
address and prevent retaliation or reprisal against individuals who 
report sexual harassment or sexual assault?
    Answer. Our current effort is to understand the scope of the 
problem and capture data through our Sexual Assault Response 
Coordinators who review incidents at monthly Case Management Group 
meetings. Discussing retaliation incidents during our Case Management 
Group meetings is key to allowing our commanders to address retaliation 
incidents through command channels. These meetings are hosted by the 
installation or host wing Vice Commander and include the SARC, the 
legal advisor, investigators and unit commanders. The CMG will monitor 
all reports of retaliation until each case has reached final 
disposition or the retaliation has been appropriately addressed. What 
we're finding is that most of the retaliation victims are reporting is 
when their peers in their unit treat them differently, whether these 
acts are intended to be retaliatory or are simply misguided with good 
intentions. I'm not satisfied we've done enough to address retaliation, 
but we're going to continue to work with DOD and our sister services to 
get at this problem.
    Question. What do you see as the greatest challenges to the success 
of those programs? If confirmed what changes if any would you make to 
improve those programs?
    Answer. We're making progress by tracking reports of retaliation, 
but we need to understand what types of incidents airmen experience as 
retaliation and why they haven't reported retaliation when they 
experience it. If confirmed, I will ensure we find actionable ways to 
use the data we are currently gathering to improve the care we provide 
to our airmen.
    Question. What is your assessment of Navy and Marine Corps programs 
and policies to hold individuals accountable for retaliation or 
reprisal against individuals who report sexual harassment or sexual 
assault?
    Answer. A commander has a range of disciplinary tools to hold an 
airman accountable for retaliation or reprisal. These options include 
administrative action, nonjudicial punishment, and court-martial. The 
commander's decision is based on the specific evidence, facts, and 
circumstances of the individual case, including the nature or 
consequences of the misconduct. For example, a complaint of social 
ostracism by an airman's peers could result in a less severe 
disciplinary action than an allegation that an airman's supervisor has 
reprised against an airman. The Uniform Code of Military Justice and 
Air Force regulations make it possible for a commander to take 
disciplinary action against an airman found to have committed an act of 
retaliation or reprisal.
    Question. What is your view of the provision for restricted and 
unrestricted reporting of sexual assaults?
    Answer. Giving victims the ability to file a restricted report 
empowers them to access services and support that are unmatched in the 
civilian community, without fear of impacting their privacy, 
reputation, career or any other personal concern. Although restricted 
reporting limits the service's ability to hold perpetrators 
accountable, it does allow the Air Force to preserve evidence collected 
during a sexual assault forensic exam when the victim elects this 
option. The evidence may be used in support of a future investigation 
should the victim later decide to change their report to unrestricted. 
If one of our airmen is assaulted, we must empower them with choice and 
control and focus on restoring them to become survivors. Another 
indication of the success of our efforts is a proportional increase in 
unrestricted reporting; suggesting airmen's confidence in the military 
justice system and overall Sexual Assault Prevention and Response 
Program is increasing.
    Question. What is your view about the role of the chain of command 
in providing necessary support to the victims of sexual assault?
    Answer. The chain of command is deeply and directly involved in 
providing support to victims of sexual assault. Even before a specific 
allegation arises, commanders are responsible for ensuring all airmen 
are educated on sexual assault prevention and response. When a 
commander is notified of a sexual assault allegation, he or she takes 
immediate steps to ensure the victim's safety and well-being as well as 
the safety of the accused. Specifically, the commander makes sure that 
the victim is physically safe, emotionally stable, and being provided 
assistance from all available resources and agencies, including the 
SARC, legal office, medical, and chaplain. The commander is also 
directly involved in decisions such as if the victim requests an 
expedited transfer to another location; has the authority to issue a 
no-contact order or a military protective order; and is specifically 
responsible for keeping the victim informed on actions being taken on 
the case. Furthermore, the commander stays informed about the victim's 
well-being and the status of the case and, in turn, informs the multi-
disciplinary Case Management Group to ensure the victim is fully 
supported. In conjunction with the legal office, the chain of command 
obtains input from the victim as the case is processed for disposition 
and adjudication.
    Question. What is your assessment of the Department of the Air 
Force's implementation of the requirement to establish special victim's 
counsel?
    Answer. The Air Force led the way with the implementation of its 
Special Victims' Counsel (SVC) Program on 28 January 2013 as a pilot 
program within the DOD to combat sexual assault and provide world class 
response capabilities to victims. Due to the unrivaled success of the 
Air Force SVC Program, on 14 August 2013, the Secretary of Defense 
(SecDef) directed each Service establish a special victims' advocacy 
program. In June 2014 the Program expanded eligibility to children, and 
the 2016 NDAA expands eligibility to DOD civilians. Since the stand-up 
of the Air Force SVC Program, SVCs have represented 2,065 victims of 
sexual assault, and of those 1,063 were represented in courts-martial. 
Anonymous victim impact surveys reflect an overwhelming positive 
experience with their SVC representation. Ninety-nine percent indicate 
that they would recommend an SVC to a victim of sexual assault.
    Question. What is your understanding of the adequacy of Air Force's 
resources and programs to provide victims of sexual assault the 
medical, psychological, and legal help they need?
    Answer. The Air Force provides a multitude of legal resources to 
assist victims of sexual assault. Due to the consistent increase in 
demand for special victim's counsel and prosecutor services, the Air 
Force has added additional manpower resources and funding for the 
program. These positions are currently manned between 60-70 percent. 
Once the vacant SVC/SVP billets are filled, the Air Force will be 
adequately manned to provide legal support to those victims currently 
eligible for SVC services.
    Victims also have a variety of medical and psychological resources 
available to them. The Air Force Medical Service has trained Sexual 
Assault Nurse Examiners at every Military Treatment Facility to serve 
as the medical point of contact post-assault when medical care for the 
purposes of collecting forensic evidence or assessing and treating 
medically-related injuries is necessary. Victims are offered mental 
health support by providers who are expertly trained to deliver both 
crisis-counseling services and ongoing care often needed when 
overcoming trauma events.
    Question. What is your view of the steps the Air Force has taken to 
prevent additional sexual assaults both at home station and deployed 
locations?
    Answer. In my view, the decrease in prevalence and the increase in 
reporting are strong indicators that the Air Force`s efforts are making 
progress. The Air Force has built a robust response system that's 
unmatched in the civilian community, now we will be building on that 
foundation to initiate a 5-year prevention strategy, which I believe 
will continue our progress in eliminating sexual assault from our 
ranks.
    Question. What is your view of the adequacy of the training and 
resources Air Force has in place to investigate and prosecute 
allegations of sexual assault?
    Answer. The Air Force continues to build on the training and 
resources for the airmen charged with investigating and prosecuting 
allegations of sexual assault. Air Force Office of Special 
Investigation special agents are trained and credentialed at the 
Federal Law Enforcement Training Center to conduct felony-level 
investigations, including of sexual assaults. Air Force judge advocates 
receive specialized training to partner with OSI agents on sexual 
assault investigations and to prosecute sexual assault cases. In 
addition, the Air Force added 24 OSI special agents to focus on sexual 
assault investigations at certain installations and designated 9 senior 
trial counsels with advanced training to specialize in prosecuting 
sexual assault cases. The Air Force has also funded 9 examiners at the 
United States Army Criminal Investigations Laboratory (USACIL) who work 
exclusively on testing DNA samples for Air Force sexual assault cases. 
Even given this current status regarding training for investigators and 
prosecutors, we risk serious jeopardy to the integrity of our military 
justice process if we don't focus equally on the resourcing and 
training of the Air Force defense bar. If military members and the 
American public begin to believe that our system has lost balance, they 
will lose faith in the fairness of the system. I believe the training 
and resources for Air Force defense counsel are currently adequate and 
I will do my part to ensure they remain that way.
    Question. What is your view about the role of the chain of command 
in changing the military culture in which these sexual assaults occur?
    Answer. The chain of command has, and should retain, ultimate 
responsibility for the morale, welfare, good order, discipline, and 
effectiveness of military units. In the past, commanders have 
effectively dealt with issues including racial integration, illegal 
drug use during the Vietnam War, and the repeal of ``Don't Ask-Don't 
Tell''. We are ensuring commanders place the same focus and emphasis on 
sexual assault prevention and response and we hold commanders 
accountable for the professionalism of the airmen they command. Every 
airman must be treated with dignity and respect, and commanders must 
have both the incentives and the tools to do so.
    Question. In your view, what would be the impact of requiring a 
judge advocate outside the chain of command to determine whether 
allegations of sexual assault should be prosecuted?
    Answer. Creating a separate, external function for prosecutions of 
sexual assault risks severe negative consequences from constraining 
commanders' authority and responsibility to hold airmen accountable. 
Currently, the commander, supported by his or her staff judge advocate, 
plays a pivotal role in the military justice system, which is the 
essential tool to deliver a disciplined Air Force ready to defend the 
nation. Air Force commanders and their lawyers agree on the appropriate 
disposition in over 99 percent of cases where the staff judge advocate 
recommends trial by court-martial. Outsourcing military justice 
decisions to external lawyers diminishes the authority of commanders 
and cannot achieve optimal military discipline. Furthermore, removing 
commanders from military justice decision making sends the confusing 
message to airmen that you can trust your commander to send you into 
battle, where your commander's decisions may require your ultimate 
sacrifice, but you cannot trust your commander to hold an airman 
accountable for committing a crime. This message is more than just 
confusing; it degrades airmen's trust and confidence in their 
commanders and, in turn, degrades the military discipline necessary to 
accomplish the mission of national defense.
    Question. What additional steps would you take, if confirmed, to 
address the problem of sexual assaults in the Air Force?
    Answer. I will ensure we continue to properly resource this program 
with money and manpower at all echelons. We are making progress in the 
right direction, and the new five-year prevention and response strategy 
Secretary James recently signed will continue to build on our 
successes. The true key to defeating this crime is to prevent 
perpetration of it, rather than continue to respond to victims of it, 
and the scientifically-based approach to prevention we will take over 
the next 5 years will help eliminate this crime from our ranks.
      balance between civilian employees and contractor employees
    Question. The Air Force employs many contractors and civilian 
employees. In many cases, contractor employees work in the same 
offices, serve on the same projects and task forces, and perform many 
of the same functions as Federal employees. Both contractors and 
civilians make up an integral part of the Department's total workforce.
    Do you believe that the current balance between civilian employees 
and contractor employees is in the best interests of the Air Force?
    Answer. I do believe we must continue to ensure that inherently 
governmental functions are performed by organic personnel and 
scrutinize those areas where the distinction is blurred. If confirmed, 
I will continue to work with the Secretary and leaders across the Air 
Force to assess this matter to ensure compliance with the law and 
strive to develop the optimum balance between our civilian and 
contractor workforce.
    Question. In your view, has the Department utilized contractors to 
perform basic functions in an appropriate manner?
    Answer. Yes. Contractors are integral to how the Air Force 
accomplishes its mission for the security of our nation. Through our 
requirements review process, we continue to challenge ourselves in 
determining the best approach (a value consideration business case) for 
the Air Force in the long term. I believe there continues to be a great 
effort in this area to ensure we maintain the capability in performing 
our core functions and ensure the functional expertise to properly 
oversee contract operations.
    Question. Do you believe that the Air Force should undertake a 
comprehensive reappraisal of ``inherently governmental functions'' and 
other critical government functions, and how they are performed?
    Answer. I believe the Air Force does a good job in avoiding 
contracting for inherently governmental and critical functions, and we 
should maintain that vigilance.
    Question. Are there non-monetary reasons why the Air Force would 
need or desire one type of manpower over the other? If so, provide 
relevant examples where of those reasons? Under what circumstances 
should cost be used as the primary factor?
    Answer. Generally, outside of inherently governmental and critical 
functions, cost should be the tipping factor assuming that there is a 
choice between contract and civilians. There are instances where one or 
the other of those may not be available at a given location or within a 
given timeframe. There are also instances where we should maintain a 
certain level of in-house capability, expertise, and knowledge which 
could potentially override costs.
    Question. If confirmed, will you work with other appropriate 
officials in the Air Force to review the contractor and civilian force 
mix for cost and mission effectiveness?
    Answer. Yes, I will.
    Question. Would you agree that the balance between civilian 
employees and contractor employees in performing Air Force functions 
should be determined by the best interests of the Air Force and its 
mission requirements?
    Answer. Yes, I will.
    Question. If confirmed, will you work to remove any artificial 
constraints placed on the size of the Air Force's civilian and 
contractor workforce, so that the Air Force can hire the number and 
type of employees most appropriate to accomplish its mission?
    Answer. Yes, I will.
                      women in combat integration
    Question. Do you believe Congress should amend the Selective 
Service Act to require the registration of women?
    Answer. I definitely see the need for SSA participation to be 
actively reviewed, but recognize that this is a national issue that 
extends past departmental policy.
    Question. If women become subject to the draft, should they also be 
prepared for involuntary assignment based upon the needs of the Air 
Force?
    Answer. The Air Force routinely considers the desires of all our 
members with respect to which occupation they are classified in and 
where they are assigned, but the needs of the Air Force remain 
paramount to maintain our mission readiness. That would remain 
consistent if women were subject to the draft.
    Question. What is your opinion on whether men and women in the 
combat career fields should have the same physical fitness tests for 
the duration of their careers?
    Answer. The Air Force's physical standards are linked to specific 
air force specialty codes and are tied to the operational mission . . . 
they are gender neutral. I support this approach of linking standards 
to operational tasks, devoid of gender considerations. I would also 
note, that AF standards have not changed, and will not change based on 
career fields opening to both genders. Our current predictive tests and 
standards have been validated to tie to occupational standards. The 
same standard will be used to assess females as well as males. 
Specifically, in regard to combat career fields, the Air Force has 
validated and verified occupational standards based on battlefield 
requirements and the Air Force plan requires the physical and mental 
standards for Battlefield airmen specialties be occupationally specific 
and operationally relevant.
    Question. In light of Secretary Carter's decision to open all 
military positions to women, what do you believe are the primary 
challenges to implementing full integration in the Department of the 
Air Force and how do you plan to address them?
    Answer. The Air Force has already developed and validated their 
mental and physical standards as being gender neutral and in-compliance 
with public law. Going forward, my role would be to ensure the Air 
Force implements and maintains these physical and mental standards in 
compliance with Public Laws 103-160 and 113-66, and Public Law 113-291, 
section 524. In addition, I will help ensure the Air Force Inspector 
General is also engaged to validate the physical and mental 
occupational standards and our implementing methodologies are in 
compliance with the Public Laws mentioned, at a minimum of every three 
years through compliance inspection programs.
    We must continue to be deliberate, methodical, evidence-based, and 
iterative to ensure readiness and combat effectiveness to protect the 
welfare of our airmen. Through this, the Air Force will follow its 
natural timeline to recruit, assess, select, train and assign females 
into these newly opened occupations.
                            maternity leave
    Question. The Secretary of the Air Force recently announced she 
would follow the Navy Secretary's plan to provide 18 weeks of maternity 
leave for sailors.
    What is your view on whether the Air Force should follow the Navy's 
policy to extend maternity leave to 18 weeks?
    Answer. The Air Force is reviewing the policy for maternity leave 
in conjunction with OSD and the other Services in light of the Navy's 
recent policy change. Readiness and operational impacts have been an 
integral part of that discussion and have been considered. The 
Secretary has been very clear in her support of expanded maternity 
leave as a key aspect of meeting retention goals and maintaining top 
talent.
    Question. If the Air Force were to follow the Navy's lead, what 
would be your plan to augment or back-fill those positions occupied by 
female airmen on extended maternity leave? Would you consider utilizing 
reservists to back-fill those positions?
    Answer. The Air Force would look at a variety of options. Planning 
and scheduling at the unit level is an important factor in being able 
to mitigate some of the potential impact. Other options could include 
increasing end strength; use of reservists, temporary contract support, 
detailees from other units, or other management actions such as 
transferring workload within the unit.
    Question. In your view, how would the Air Force account and pay for 
the cost of additional personnel to fill positions left vacant by 
airmen on extended maternity leave?
    Answer. There is an associated cost, but we also currently have 
significant costs associated with decreased retention, increased 
accession and training requirements and lost expertise. While not 
directly linked, our request for military end-strength growth will also 
assist in minimizing the operational impact to a force that is already 
stretched thin.
    Question. Do you support uncharged paternity leave for male airmen? 
If so, how many weeks do you believe is an appropriate amount of time?
    Answer. As with maternity leave, paternity leave is also under 
active consideration (as are other forms of ``parental leave'' 
(adoption, single parent etc.) In conjunction with OSD and the other 
Services, we must fully consider all aspects of each proposal, to 
include the operational impact. The specific proposal and timelines are 
still being discussed. Changes to this leave category would require 
legislation to adjust the current law.
    Question. Do you believe the Air Force fully understands what the 
cost of this reform will be? If so, describe those costs.
    Answer. Extending maternity leave from 6 to 18 weeks will cost 
approximately 937 lost man-yrs. or $113 M annually. In addition to the 
fiscal cost, there is also a cost in terms of operational capability. 
This will vary by unit and specialty code depending upon the number of 
women in the respective career field or unit. As such, it is important 
to be able to take a flexible approach and provide as many options for 
commanders to deal with their respective impacts.
                    morale, welfare, and recreation
    Question. If confirmed, what challenges do you foresee in 
sustaining Air Force MWR programs in the future fiscal environment?
    Answer. Taking care of people remains Air Force's number one 
priority and robust MWR programs are paramount to achieving mission 
success. MWR programs are essential in supporting USAF's objectives of 
``Building and Maintaining Ready, Resilient airmen & Families.'' 
Continuous constrained budgets undoubtedly tax our ability to provide 
the funding needed; however, Air Force leadership remains committed to 
holding the line on sufficient support to help meet total force quality 
of life needs. MWR Programs are the right investment for airmen and 
their families, even in times of scarce resources, as they are directly 
tied to resilience, morale and ultimately readiness/mission 
performance.
                          military health care
    Question. In your view, what should the Air Force Medical Service 
do to improve access to care in its medical treatment facilities?
    Answer. The Air Force Medical Service has taken several important 
steps this year to improve access to care and those steps are having a 
positive impact. Examples include simplified appointing schedules and a 
policy to grant access upon the first contact with the patient. The 
Surgeon General has identified additional measures such as reduction of 
staffing gaps during personnel transitions that will further improve 
access to care. I will work with the Surgeon General to ensure our 
staffing and scheduling processes meet the demand of the populations we 
serve.
    Question. If confirmed, how would you work with the Surgeon General 
of the Air Force to improve the healthcare experience for airmen and 
their families?
    Answer. In addition to providing great access to care, the Surgeon 
General's Trusted Care initiative is a comprehensive approach to 
preparing our medical professionals to provide reliably safe, patient-
centered care. We are building an action plan that includes tiered 
developmental education and training to ensure our people are skilled 
and knowledgeable in streamlining processes to improve the experience 
of care and leading a culture of safety. The Surgeon General has 
implemented a new performance management system that measures patient 
satisfaction as well as quality of care. I will work with the Surgeon 
General to ensure these initiatives move forward for the benefit of 
those we serve in our military treatment facilities and at our deployed 
sites.
                      family readiness and support
    Question. airmen and their families in both the active and reserve 
components have made, and continue to make, tremendous sacrifices in 
support of operational deployments. Senior military leaders have warned 
of concerns among military families as a result of the stress of 
deployments and the separations that go with them.
    What do you consider to be the most important family readiness 
issues for airmen and their families, and, if confirmed, how would you 
ensure that family readiness needs are addressed and adequately 
resourced, especially in light of current fiscal constraints?
    Answer. Taking care of people is the Air Force's number one 
priority. The most important family readiness issue for airmen and 
their families is investment in airmen and family programs and the MWR 
Portfolio. MWR and family programs have a direct impact to retention, 
resiliency, and readiness. Understanding the current and future budget 
constraints, we must fund airmen and family programs with the greatest 
impact to retention, resiliency and readiness. Doing so builds a 
``community'' of airmen and families not just working for the Air 
Force, but who are Air Force Members. Funding programs centered on 
airmen and families creates ``touch points'' that strengthen our sense 
of Air Force community. There is no stronger impact to success than 
airmen who are able to focus on the mission because they know the 
family back home is part of a close-knit community.
                           suicide prevention
    Question. The numbers of suicides in each of the Services continue 
to be of great concern to the Committee.
    If confirmed, what role would you play in shaping suicide 
prevention programs and policies for the Department of the Air Force to 
prevent suicides and increase the resiliency of airmen and their 
families?
    Answer. I would take an active role in supporting the development 
of an Air Force integrated prevention strategy focused on suicide, 
sexual assault, substance abuse and family member maltreatment. The AF 
Suicide Prevention Summit held in September brought together the 
foremost subject matter experts from across DOD, Federal agencies and 
academia to address this critical issue and generated a strong strategy 
to reverse the rising trend. I am committed to moving forward with a 
comprehensive action plan and working collaboratively with the Defense 
Suicide Prevention Office (DSPO) and other Services to significantly 
reduce the frequency of suicide in our force. I will also ensure the 
Air Force continues to actively research means of more effectively 
mitigating risk for suicide within the force, including continued 
progress toward a resilient culture of airman through Comprehensive 
Airman Fitness.
              support for wounded, ill, and injured airmen
    Question. Servicemembers who are wounded or injured in combat 
operations deserve the highest priority from the Air Force and the 
Federal Government for support services, healing and recuperation, 
rehabilitation, evaluation for return to duty, successful transition 
from active duty if required, and continuing support beyond retirement 
or discharge.
    What is your assessment of the progress made by the Air Force to 
improve the care, management, and transition of seriously ill and 
injured airmen?
    Answer. We continue to keep care for our Wounded, Ill and Injured 
(WII) at the forefront, and are making steady progress in elevating 
that care. We have created Care Management Teams to guide our WII 
through their recovery and transition, and the synergy and focus these 
teams provide are increasing support for our WII airmen and their 
families. Even so, the Vice Chief of Staff of the Air Force and I are 
assessing WII airmen program outcomes in an effort to strengthen our 
support even more as we look to the future.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Air Force's support for 
wounded airmen, and to monitor their progress in returning to duty or 
to civilian life?
    Answer. The Air Force A1 and SG teams will continue to collaborate 
closely to ensure our WII receive the highest level of support possible 
by applying medical care advancements and maintaining our capability to 
grow our capacity if the need arises.
              senior military and civilian accountability
    Question. While representative of a small number of individuals in 
DOD, reports of abuses of rank and authority by senior military and 
civilian leaders and failures to perform up to accepted standards are 
frequently received. Whistleblowers and victims of such abuses often 
report that they felt that no one would pay attention to or believe 
their complaints. Accusations of unduly lenient treatment of senior 
officers and senior officials against whom accusations have been 
substantiated are also frequently heard.
    What are your views regarding the appropriate standard of 
accountability for senior civilian and military leaders of the 
Department?
    Answer. The success of our Air Force depends on airmen having 
complete trust and confidence in one another. Each of us must live by 
our core values of Integrity First, Service Before Self and Excellence 
In All Do. As senior leaders we must maintain the highest levels of 
adherence to these values.
    Question. If confirmed, what steps would you take to ensure that 
senior leaders of the Air Force are held accountable for their actions 
and performance?
    Answer. As senior leaders in our world's greatest Air Force, we 
must be held to the highest levels of accountability and professional 
conduct. We must also ensure that we create a safe and respectful 
environment for all our airmen. If confirmed, I will ensure that 
results of investigations are taken seriously and given full review and 
that appropriate administrative, disciplinary, and/or legal action is 
taken where necessary.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this Committee and other 
appropriate committees of the Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this Committee and other appropriate committees of the Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
Committee, or designated members of this Committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of the Air 
Force?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this Committee and 
its staff and other appropriate Committees?
    Answer. Yes.
    Question. Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Answer. Yes.
                                ------                                


    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Kelly Ayotte
                         best value contracting
    1. Senator Ayotte. Secretary Disbrow, there has been a recent trend 
in some of the Services to buy more products through Lowest Price 
Technically Acceptable (LPTA) and reverse auction acquisition methods. 
I have become aware of cases where these methods have even been used 
for the procurement of personal protective equipment where safety and 
quality are critical and the failure of the item could result in combat 
casualties. Our troops, who put their lives on the line for our freedom 
and security, should not be sent into harm's way with the cheapest 
equipment, but rather the best. In combat, as well as in training, 
quality personal protective equipment can prevent serious injuries and 
can even be the difference between life and death for our 
servicemembers. That is why I worked to include section 884 in this 
year's NDAA, which was recently signed into law. This provision 
requires the Secretary of Defense to ensure that the Services, in 
procuring an item of personal protective equipment or a critical safety 
item, use source selection criteria that is predominately based on 
technical qualifications of the item, if the level of quality or 
failure of the item could result in death or severe bodily harm to the 
servicemember. If confirmed, will you review this provision in the NDAA 
and ensure that your Service complies with this law?
    Secretary Disbrow. I am familiar with Title VIII--Acquisition 
Policy, Acquisition Management and Related Matters of the FY15 NDAA and 
support its intent. If confirmed, I will endeavor to ensure the 
continued prioritization of our servicemembers' safety in our 
acquisitions, to continue to analyze each requirement individually and 
be prepared to utilize all available source selection methods on the 
best value continuum.
                               __________
             Questions Submitted by Senator Mazie K. Hirono
                     rebalance to the asia-pacific
    2. Senator Hirono. Secretary Disbrow, I am very concerned with 
ensuring that our Rebalance to Asia-Pacific is more than just rhetoric. 
What are your views on advancing a tangible rebalance?
    Secretary Disbrow. The Asia-Pacific region remains of central 
importance to the national security of our Nation as the world's 
strategic and economic centers of gravity evolve. The Air Force is 
committed, working with our joint partners and allies, to ensure 
regional stability and mutual freedom of access to the global commons 
through cooperative military relationships.
    The United States demonstrates the importance of air and space 
capabilities by stationing the majority of the Air Force's permanent 
overseas forces in the Asia-Pacific region and will continue to do so 
into the foreseeable future. This regional presence, combined with 
continental United States-based forces, provide critical operational 
capabilities to the Commander, U.S. Pacific Command , to include global 
attack with extended nuclear deterrence and assurance, strategic 
mobility, airborne and space-based intelligence, surveillance, and 
reconnaissance, precision navigation and timing, and command, control, 
and communications.

    3. Senator Hirono. Secretary Disbrow, in your opinion, how are we 
doing in reassuring our partners and allies in the region that we are 
serious about the Rebalance and what else should we be doing?
    Secretary Disbrow. The effort to reassure our partners and allies 
in the region is of utmost priority and we prove our commitment in many 
multifaceted ways; including investment in new strike platforms such as 
Long Range Strike Bomber and Theater Security Cooperation programs. In 
addition, the Air Force has a long history of partnerships with air 
forces in the Asia-Pacific region and will continue to increase our 
security cooperation activities to help regional allies and partner 
nations establish, improve, and sustain air, space, and cyberspace 
capabilities.
    As part of our commitment to the Rebalance we continue to deepen 
and broaden bilateral and multilateral partnerships through continued 
engagement with our key allies-Japan, South Korea, Australia, the 
Philippines, and Thailand. In concert with the Office of the Secretary 
of Defense and the combatant commander, we continue to pursue and 
strengthen defense relationships with Singapore, Indonesia, Malaysia, 
India, Vietnam, New Zealand, and others.
    The Air Force also continues to demonstrate U.S. commitment to the 
region by providing much needed humanitarian assistance and disaster 
relief throughout the region when a crisis or natural disaster unfolds.
                            energy security
    4. Senator Hirono. Secretary Disbrow, I believe energy security is 
a vital component to our overall national security. Do you believe the 
Department of Defense (DOD) has a role to play in U.S. energy security 
and could you comment on how you view energy security as tied to our 
overall national security?
    Secretary Disbrow. I believe energy security is absolutely critical 
to our overall national security. Energy fuels every sortie, launches 
every space mission, and enables all command and control. I believe it 
is critical for the Air Force to improve its ability to manage energy 
supply and demand in a way that enhances mission capability and 
readiness, while helping address the Nation's broader energy 
challenges. Consequently, I fully support the Air Force's current 
initiatives to establish mission assurance through energy assurance, 
building strategic energy agility through resilient, cost-effective, 
and clean sources. These initiatives will reduce costs and provide 
energy through contingencies, even those that may deny energy sources 
for long periods.
                     energy efficiency initiatives
    5. Senator Hirono. Secretary Disbrow, I applaud DOD's work on 
energy efficiency initiatives including alternative and renewable 
energy projects. If confirmed, will you commit to continuing the 
administration's efforts to expand alternative and renewable energy 
initiatives?
    Secretary Disbrow. Optimizing the way the Air Force uses energy 
increases our energy resiliency. I support DOD's efforts to increase 
energy efficiency and pursue clean energy projects in areas which do 
not compromise national security. If confirmed, I will aggressively 
support the Air Force's current energy efficiency strategy which 
includes pursuing alternative and renewable energy sources.
                    maui high power computing center
    6. Senator Hirono. Secretary Disbrow, I am aware that the Maui High 
Power Computing Center (MHPCC) as part of the High Performance 
Computing Modernization Program should be undergoing systems 
modernizations along with the other computing centers. I want to ensure 
that the plans for the Maui modernization efforts are sufficiently 
focused to modernize their systems. If confirmed, will you work to 
ensure that all of our computing centers are monitored and resourced 
under the modernization program to ensure that they all have the 
capability to provide required outputs?
    Secretary Disbrow. The Maui High Performance Computing Center 
(MHPCC) houses one of Department of Defense Supercomputing Resource 
Centers. It is one of the most powerful computer systems in the 
department, offering a large-scale parallel computing platform and a 
high-speed communications infrastructure used to process and translate 
data into Space Situational Awareness information. If confirmed, I look 
forward to working with this committee and colleagues within the 
Department of Defense to find ways to properly monitor and resource 
this important capability.

    7. Senator Hirono. Secretary Disbrow, if confirmed, will you commit 
to keeping me and my staff informed on the Army's efforts to keep the 
computers at the MHPCC and the other facilities up-to-date under the 
High Performance Computing Modernization Program?
    Secretary Disbrow. If confirmed, you have my commitment to work 
with our Army and Department of Defense partners to ensure you and your 
staff are continuously informed of our efforts to keep these important 
systems and facilities up-to-date.
                                 ______
                                 
    [The nomination reference of the Honorable Lisa S. Disbrow
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                September 21, 2015.
    Ordered, That the following nomination be referred to the 
Committee on Armed Services:
    Lisa S. Disbrow, of Virginia, to be Under Secretary of the 
Air Force, vice Eric K. Fanning, resigned.
                                ------                                

    [The biographical sketch of the Honorable Lisa S. Disbrow, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
                 Biographical Sketch of Lisa S. Disbrow
Education:
    National War College
      <bullet>  2001-2002
      <bullet>  Master of Science, National Security Strategy
    Air Command and Staff College
      <bullet>  1998
    George Washington University
      <bullet>  1991
      <bullet>  Master of Art, International Affairs
    University of Virginia
      <bullet>  1980-1984
      <bullet>  Bachelor of Arts, Foreign Affairs
Employment Record:
    United States Air Force
      <bullet>  Assistant Secretary of the Air Force (Financial 
Management & Comptroller)
      <bullet>  July 2014--Present
      <bullet>  April 2015-Present, Also performing the duties of the 
Under Secretary of the Air Force
    Joint Staff, Department of Defense
      <bullet>  Vice Director, J8
      <bullet>  April 2007-July 2014
    White House/Department of Defense
      <bullet>  Special Advisor for Policy Implementation, National 
Security Council
      <bullet>  May 2006-March 2007
    White House/Department of Defense
      <bullet>  Senior Director for Policy Implementation, National 
Security Advisor
      <bullet>  February 2006-May 2006
    Joint Staff, Department of Defense
      <bullet>  Deputy Director, Force Management
      <bullet>  May 2003-February 2006
    Joint Staff, Department of Defense
      <bullet>  Deputy Chief, Studies, Analysis and Gaming Division, J8
      <bullet>  January 1998-May 2003
    Joint Staff, Department of Defense
      <bullet>  Operations Analyst, J8
      <bullet>  December 1995-January 1998
    National Reconnaissance Office
      <bullet>  Senior Engineer
      <bullet>  January 1993-December 1995
    United States Air Force
      <bullet>  Active Duty Officer, Directorate of Intelligence
      <bullet>  April 1985-December 1992
Honors and Awards:
    Military Awards
      <bullet>  2014 Lieutenant General Glen A. Kent Leadership Award

    Federal Civilian Awards
      <bullet>  2014 CJCS Joint Distinguished Civilian Service Award
      <bullet>  2013 Distinguished Executive Presidential Rank Award 
Finalist
      <bullet>  2010 Competitive DOD Distinguished Civilian Service 
Award
      <bullet>  2008 Meritorious Executive Presidential Rank Award
      <bullet>  2006 Joint Meritorious Civilian Service Award
      <bullet>  2000-2001 Joint Meritorious Civilian Service Award
      <bullet>  1996-1997 Joint Distinguished Civilian Service Award

    Academic Awards
      <bullet>  April 2002, United States Army Association Paper of the 
Year, National War College Class of 2002, ``Decision Superiority''
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by the Honorable 
Lisa S. Disbrow in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed, use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    part a--biographical information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in Committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Lisa Stephens Disbrow (1993-present)--Married name.
    Lisa Stephens Valero (1983-1993)--Married name.
    Lisa Kay Stephens (1962-1983)--Maiden name.

    2. Position to which nominated:
    Under Secretary of the Air Force.

    3. Date of nomination:
    September 21, 2015.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 29, 1962, Clifton Forge, VA.

    6. Marital status: (Include maiden name of wife or husband's name.)
    Married to Harry Clyde Disbrow, Jr.

    7. Names and ages of children:
    [Nominee responded and the information is contained in the 
committee's executive files.]

    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.
    <bullet>  University of Virginia, 1981-1984, BA, Foreign Affairs, 
1984
    <bullet>  George Washington University, MA, International Affairs, 
1990
    <bullet>  National War College, 2001-2002, MS, National Security 
Strategy, 2002

    9. Employment Record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.

    1.  Assistant Secretary of the Air Force (Financial Management & 
Comptroller) performing the duties of Under Secretary of the Air Force; 
April 2015-present
    2.  Assistant Secretary of the Air Force (Financial Management & 
Comptroller); July 2014-present
    3.  Vice Director, Joint Staff/J8; Joint Staff/Department of 
Defense; April 2007-July 2014
    4.  Special Advisor for Policy Implementation, National Security 
Council; White House/Department of Defense; May 2006-March 2007
    5.  Senior Director for Policy Implementation, National Security 
Advisor; White House/Department of Defense; February 2006-May 2006
    6.  Deputy Director, Force Management; Joint Staff/Department of 
Defense; May 2003-February 2006

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.
    None.
    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.

 
----------------------------------------------------------------------------------------------------------------
                                                                                                Name/Address/
    Social Club/                                                                                Telephone Of
    Organization           Dates          Position       Restrictive Membership Policies    Verifying Membership
                                                                                                  Official
----------------------------------------------------------------------------------------------------------------
American Society of   2014-present    Member           Must be actively employed in         Washington Chapter
Military                                                military comptrollership, as         <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="32535e40475c5c575e4172">[email&#160;protected]</a>
 Comptrollers                                           active duty or civilian personnel    asmconline.org
                                                        for DOD or USCG
----------------------------------------------------------------------------------------------------------------
American Legion Post  2011 present    Member (passive  Veteran                              Jim Glassman
 24                                    member)                                              Post 24
Alexandria                                                                                  400 Cameron St.
                                                                                            Alexandria VA
                                                                                            22314
                                                                                            703-683-5564
----------------------------------------------------------------------------------------------------------------
Daughters of          2006-present    Inactive Member  Must have a relative who aided in    Pentagon Chapter
 American                                               achieving American independence      <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f3d2a28263c3b3d2e3d0f3f2a213b2e282021">[email&#160;protected]</a>
Revolution                                                                                   chapterDAR.org
----------------------------------------------------------------------------------------------------------------
Colonial Dames        2008-present    Inactive Member  Must have a relative who resided in
                                                        one of the 13 Colonies between
                                                        1607-1775
----------------------------------------------------------------------------------------------------------------
Air Force             Mid-1980s-      Member           No                                   800-727-3337
 Association           present         (passive)                                            1501 Lee Hwy
                                                                                            Arlington VA
                                                                                            22209
----------------------------------------------------------------------------------------------------------------
AARP                  2009-present    Member           Must be 50                           888-531-8722
                                       (passive)
----------------------------------------------------------------------------------------------------------------

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
Scholarships:
    Masters Degree program through Defense Intelligence Agency's 
Defense Advanced Language and Area Studies Program
DOD Civilian Senior Executive Service Awards:
    1996-1997, Joint Distinguished Civilian Service Award.
    2000-2001, Joint Meritorious Civilian Service Award.
    2006, Joint Meritorious Civilian Service Award.
    2008, Meritorious Executive Presidential Rank Award.
    2010, Competitive DOD Distinguished Civilian Service Award.
    2014, CJCS Joint Distinguished Civilian Service Award.
    2014, Lieutenant Glen A. Kent Leadership Award.
Honor Society:
    Sigma Iota Rho Honors Society for International Studies
Awards:
    United States Army Association, ``Paper of Year'' National War-
College Class of 2002, ``Decision Superiority'', April 2002

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None, other than papers for graduate and undergraduate degree 
courses and military professional education courses.

    16. Speeches: Provide the Committee with copies of any formal 
speeches you have delivered during the last 5 years of which you have 
copies and are on topics relevant to the position for which you have 
been nominated.
    4 June 2015--Arnold Air Society / Silver Wings National Conclave--
Distinguished Speaker Series.
    5 May 2015--National Security Forum: ``America's Role in an 
Uncertain World''.
    (no formal documentation of speeches as presented).

    17. Commitments regarding nomination, confirmation, and service:
    (a) Have you adhered to applicable laws and regulations governing 
conflicts of interest?
    Yes.
    (b) Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation process?
    No.
    (c) If confirmed, will you ensure your staff complies with 
deadlines established for requested communications, including questions 
for the record in hearings?
    Yes.
    (d) Will you cooperate in providing witnesses and briefers in 
response to Congressional requests?
    Yes.
    (e) Will those witnesses be protected from reprisal for their 
testimony or briefings?
    Yes.
    (f) Do you agree, if confirmed, to appear and testify upon request 
before this Committee?
    Yes.
    (g) Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when requested by 
a duly constituted Committee, or to consult with the Committee 
regarding the basis for any good faith delay or denial in providing 
such documents?
    Yes.
                                 ______
                                 
    [The nominee responded to Parts B-F of the committee 
questionnaire. The text of the questionnaire is set forth in 
the Appendix to this volume. The nominee's answers to Parts B-F 
are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                      Lisa S. Disbrow  
    This 12th day of November, 2015
                                 ______
                                 
    [The nomination of the Honorable Lisa S. Disbrow was 
reported to the Senate by Chairman McCain on December 18, 2015, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on January 20, 2016.]

                                APPENDIX

Committee on Armed Services Questionnaire on Biographical and Financial 
               Information Requested of Civilian Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses.)


    5. Date and place of birth:


    6. Marital Status: (Include maiden name of wife or husband's name.)


    7. Names and ages of children:


    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.


    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.


    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.


    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.


    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through F will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Will you sever all business connections with your present 
employers, business firms, business associations or business 
organizations if you are confirmed by the Senate?


    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.


    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?


    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?


    5. Is your spouse employed and, if so, where?


    6. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.


    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    6. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Attorney General's office concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or civil litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.


                         Part F--Financial Data
    All information requested under this heading must be provided for 
yourself, your spouse, and your dependents.

    1. Describe the terms of any beneficial trust or blind trust of 
which you, your spouse, or your dependents may be a beneficiary. In the 
case of a blind trust, provide the name of the trustee(s) and a copy of 
the trust agreement.


    2. Provide a description of any fiduciary responsibility or power 
of attorney which you hold for or on behalf of any other person.


    3. List sources, amounts and dates of all anticipated receipts from 
deferred income arrangements, stock options, executory contracts and 
other future benefits which you expect to derive from current or 
previous business relationships, professional services and firm 
memberships, employers, clients and customers.


    4. Have you filed a Federal income tax return for each of the past 
10 years? If not, please explain.


    5. Have your taxes always been paid on time?


    6. Were all your taxes, Federal, State, and local, current (filed 
and paid) as of the date of your nomination?


    7. Has the Internal Revenue Service ever audited your Federal tax 
return? If so, what resulted from the audit?


    8. Have any tax liens, either Federal, State, or local, been filed 
against you or against any real property or personal property which you 
own either individually, jointly, or in partnership?


    (The committee may require that copies of your Federal income tax 
returns be provided to the committee. These documents will be made 
available only to Senators and the staff designated by the Chairman. 
They will not be available for public inspection.)

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.
                                 ______
                                 

Committee on Armed Services Questionnaire on Biographical and Financial 
       Information Requested of Certain Senior Military Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                    COMMITTEE ON ARMED SERVICES FORM
   BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES FOR 
                   CERTAIN SENIOR MILITARY POSITIONS
                      Instructions to the Nominee:
    Complete all requested information. If more space is needed use an 
additional sheet and cite the part of the form and the question number 
(i.e. A-9, B-4) to which the continuation of your answer applies.
    If you have completed this form in connection with a prior military 
nomination, you may use the following procedure in lieu of submitting a 
new form. In your letter to the Chairman, add the following paragraph 
to the end:

    ``I hereby incorporate by reference the information and commitments 
        contained in the Senate Armed Services Committee form 
        `Biographical and Financial Information Requested of Nominees 
        for Certain Senior Military Positions,' submitted to the 
        Committee on [insert date or your prior form]. I agree that all 
        such commitments apply to the position to which I have been 
        nominated and that all such information is current except as 
        follows: . . . .'' [If any information on your prior form needs 
        to be updated, please cite the part of the form and the 
        question number and set forth the updated information in your 
        letter to the Chairman.]

                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses. 
Also include your office telephone number.)


    5. Date and place of birth:


    6. Marital Status: (Include name of husband or wife, including 
wife's maiden name.)


    7. Names and ages of children:


    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.


    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.


    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.


    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the Administration in power?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through E will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your military 
service. If so, explain.


    2. Has anybody made a commitment to employ your services in any 
capacity after you leave military service?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    5. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


    6. Is your spouse employed and, if so, where?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
Federal, State, county or municipal law, regulation or ordinance, other 
than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.
      

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.

                                 [all]
      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
